<html>
<title> - NOMINATIONS OF THE 116TH CONGRESS, SECOND SESSION</title>
<body><pre>[Senate Hearing 116-465]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-465

           NOMINATIONS OF THE 116th CONGRESS, SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                        

                   JANUARY 3, 2020 TO JANUARY 3, 2021

                               ----------                           

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
                         http://www.govinfo.gov
                         
                         
                         
                         

                  NOMINATIONS OF THE 116TH CONGRESS, 
                             SECOND SESSION
                             
                             
                             
                             



                                                        S. Hrg. 116-465
 
           NOMINATIONS OF THE 116TH CONGRESS, SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                   JANUARY 3, 2020 TO JANUARY 3, 2021
                               __________


       Printed for the use of the Committee on Foreign Relations


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-018 PDF             WASHINGTON : 2021         
        


                     COMMITTEE ON FOREIGN RELATIONS

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




                              (ii)        

  


                            C O N T E N T S

                              ----------                              

Responses to additional questions from the committee and any 
  other material submitted for the record are located at the end 
  of each hearing transcript.
                              ----------                              
May 13, 2020.....................................................     1

    Brown, Natalie E., of Nebraska, to be Ambassador to the 
      Republic of Uganda.........................................     4

    Day, Ramsey Coats, of Virginia, to be an assistant 
      administrator of the U.S. Agency for International 
      Development................................................     7

    Clark, Sandra E., of Maryland, to be Ambassador to Burkina 
      Faso.......................................................    11

    Grayson, William Ellison, of California, to be Ambassador to 
      the Republic of Estonia....................................    14

    Wooster, Henry T., of Virginia, to be Ambassador to the 
      Hashemite Kingdom of Jordan................................    17

    Additional Material Submitted for the Record.................    41


June 4, 2020.....................................................    91

    McGee, Colonel Jenny A., USAF (Ret.), of Texas, to be an 
      associate administrator of the U.S. Agency for 
      International Development..................................    95

    Dowd, Hon. J. Steven, of Florida, to be U.S. Director of the 
      European Bank for Reconstruction and Development...........    99

    Mills, Hon. Richard M., of Texas, to be U.S. Deputy 
      Representative to the U.N..................................   102

    Chung, Jason Myung-Ik, of Virginia, to be U.S. Director of 
      the Asian Development Bank.................................   106

    Manso, Joseph, of New York, to be U.S. Representative to the 
      Organization for the Prohibition of Chemical Weapons.......   109

    Additional Material Submitted for the Record.................   125


July 21, 2020....................................................   149

    Billingslea, Hon. Marshall, of Virginia, to be Under 
      Secretary of State for Arms Control and International 
      Security...................................................   155

    Mahoney, Hon. C.J., of Kansas, to be Legal Adviser of the 
      Department of State........................................   159

    Trujillo, Hon. Carlos, of Florida, to be an Assistant 
      Secretary of State, Western Hemisphere Affairs.............   162

    Additional Material Submitted for the Record.................   196


July 23, 2020....................................................   287

    Kenna, Lisa S., of Vermont, to be Ambassador to the Republic 
      of Peru....................................................   292

    Levy, Leora Rosenberg, of Connecticut, to be Ambassador to 
      the Republic of Chile......................................   294

    Wos, Hon. Aldona Zofia, of North Carolina, to be Ambassador 
      to Canada..................................................   297

    Popp, William W., of Missouri, to be Ambassador to the 
      Republic of Guatemala......................................   300

    Additional Material Submitted for the Record.................   318




                             (iii)        

August 5, 2020 (am)..............................................   345

    Barber, Jennifer Yue, of Kentucky, to be U.S. representative 
      on the Economic and Social Council of the U.N., and to be 
      an alternate representative to the sessions of the General 
      Assembly...................................................   353

    Burrier, Edward A., of the District of Columbia, to be Deputy 
      Chief Executive Officer of the U.S. International 
      Development Finance Corporation............................   356

    Dayton, Lieutenant General Keith W., USA (Ret.), of 
      Washington, to be Ambassador to Ukraine....................   358

    Fisher, Julie D., of Tennessee, to be Ambassador to the 
      Republic of Belarus........................................   362

    Wong, Alex Nelson, of New Jersey, to be alternate U.S. 
      representative for Special Political Affairs in the U.N., 
      and to be alternate representative to the sessions of the 
      General Assembly...........................................   366

    Additional Material Submitted for the Record.................   394


August 5, 2020 (pm)..............................................   437

    Bethel, Erik Paul, of Florida, to be Ambassador to the 
      Republic of Panama.........................................   440

    Pratt, Jonathan, of California, to be Ambassador to the 
      Republic of Djibouti.......................................   442

    Thornhill, Barbera Hale, of California, to be Ambassador to 
      the Republic of Singapore..................................   444

    Vajda, Thomas Laszlo, of Arizona, to be Ambassador to the 
      Union of Burma.............................................   448

    Weinstein, Hon. Kenneth R., of the District of Columbia, to 
      be Ambassador to Japan.....................................   450

    Additional Material Submitted for the Record.................   471


August 6, 2020...................................................   513

    Douglass, William A., of Florida, to be Ambassador to the 
      Commonwealth of The Bahamas................................   516

    Higgins, Melanie Harris, of Georgia, to be Ambassador to the 
      Republic of Burundi........................................   519

    Maloney, Jeanne Marie, of Virginia, to be Ambassador to the 
      Kingdom of Eswatini........................................   522

    McCarthy, Michael A., of Virginia, to be Ambassador to the 
      Republic of Liberia........................................   524

    Singh, Hon. Manisha, of Florida, to be U.S. representative to 
      the Organization for Economic Cooperation and Development..   527

    Story, James Broward, of South Carolina, to be Ambassador to 
      the Bolivarian Republic of Venezuela.......................   530

    Additional Material Submitted for the Record.................   548


September 22, 2020...............................................   593

    Pinto, Ashok Michael, of Illinois, to be U.S. Alternate 
      Executive Director of the International Bank for 
      Reconstruction and Development.............................   596

    Todd, Hon. William E., of Virginia, to be Ambassador to the 
      Islamic Republic of Pakistan...............................   599

    Ueland, Hon. Eric M., of Oregon, to be an Under Secretary of 
      State, Civilian Security, Democracy, and Human Rights......   602

    Additional Material Submitted for the Record.................   619
December 2, 2020.................................................   653

    Blackstone, C. Kevin, of Virginia, to be Ambassador to the 
      Democratic Republic of Timor-Leste.........................   655

    Kierscht, Cynthia, of Minnesota, to be Ambassador to the 
      Islamic Republic of Mauritania.............................   658

    McFeeters, Brian D., of Virginia, to be Ambassador to 
      Malaysia...................................................   661

    Pasi, Hon. Geeta, of New York, to be Ambassador to the 
      Federal Democratic Republic of Ethiopia....................   664

    Reimer, Hon. David, of Ohio, to be Ambassador to the Republic 
      of Sierra Leone............................................   667

    Additional Material Submitted for the Record.................   678


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, MAY 13, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., by 
video conference, Hon. John Barrasso, presiding.
    Present: Senators Barrasso [presiding], Gardner, Romney, 
Young, Shaheen, Coons, Murphy, Kaine, and Booker.
    Ex Officio: Senator Risch.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Good afternoon. I would like to call to 
order this hearing of the United States Senate Committee on 
Foreign Relations.
    I hope everyone is staying healthy and safe during these 
unprecedented times. The coronavirus has impacted people across 
our country in many ways. Americans have lost their loves or 
become seriously ill. Healthcare workers and essential 
employees are working diligently around the clock. Businesses 
and schools are closed. We are learning how to adapt to the 
ever-evolving situation, including in Congress. So, as a way to 
ensure the Senate can continue to do our work, we are 
conducting the first remote hearing in this committee. Due to 
the current coronavirus pandemic, the hearing today is a little 
different from the traditional format, but I know we can all 
rise to the challenge.
    Our committee is meeting today to examine the nominations 
of five individuals to serve their Nation's interests across 
the globe. These nominees are joining us from all over the 
country.
    I want to welcome all of you and congratulate you on your 
nomination to these important positions. I would also like to 
extend a warm welcome to your friends and your family who are 
watching from home.
    Should you serve our Nation in these important positions, 
it is critical that each of you provides strong stewardship of 
American taxpayer resources; demonstrate professionalism and 
good judgment; and vigorously work to advance the priorities of 
the United States.
    During your testimony, I hope that each of you will lay out 
your vision and goals for the position in--to which you have 
been nominated, and how you plan to achieve them.
    I would now like to take a moment to introduce our nominees 
to the committee:
    Natalie Brown is the nominee to the U.S. to be Ambassador 
to Uganda. She is a Career Member of the Senior Foreign 
Service, Class of Counselor. Ms. Brown was previously the Chief 
of Mission at the United States Embassy in Eritrea, in East 
Africa. She also previously held the positions of Deputy 
Permanent Representative and Deputy Chief of Mission at the 
U.S. Mission to the United Nations Agencies in Rome. During her 
career, she has also served overseas at U.S. Embassies in 
Tunisia, Jordan, Kuwait, Ethiopia, and Guinea.
    Ramsey Day is the nominee to be the USAID's Assistant 
Administrator for the African Bureau. Mr. Day is currently the 
Assistant to the Administrator from the Bureau of Policy, 
Planning, and Learning. He previously worked as Senior Director 
at the International Republican Institute, IRI, and the IRI 
County Director in Jordan. Throughout his career, Mr. Day has 
held numerous positions within the international development 
and foreign policy communities in the United States as well as 
overseas.
    Sandra Clark is the nominee to be the U.S. Ambassador to 
Burkina Faso. She is a career member of the Senior Foreign 
Service, Class of Minister-Counselor. Since 2017, Ms. Clark has 
been the Deputy--the Director of the Office of West African 
Affairs in the State Department's Bureau of African Affairs. 
She has also held the position of the Deputy Chief of Mission 
for the U.S. Embassy in Senegal. During her career, Ms. Clark 
also served overseas at U.S. Embassies in the United Kingdom, 
Georgia, France, and Nigeria.
    William Grayson has been nominated to be U.S. Ambassador to 
Estonia. He is currently serving as the National Director of 
the Family Offices of the Bernstein Private Wealth Management 
in San Francisco, California. With over 2 years of--two decades 
of experience, he has valuable knowledge in investment, 
marketing, and management positions in large global investment 
firms. Mr. Grayson's public service included appointments under 
four presidents. President George Herbert Walker Bush appointed 
him to be Principal Deputy General Counsel of the Army, where 
he oversaw the Army's 2,700 lawyers. He is the recipient of the 
Outstanding Civilian Service Award from the Secretary of the 
Army.
    And Henry Wooster is the nominee to be the U.S. Ambassador 
to Jordan. He is a career member of the Senior Foreign Service, 
Class of Minister-Counselor. Mr. Wooster is currently the 
Deputy Assistant Secretary of State for the Maghreb and--or 
Egypt in the Bureau of Northeastern Affairs. He has previously 
worked as the Deputy Chief of Mission and then Charges 
d'Affaires at the U.S. Embassy in Jordan. Mr. Wooster has also 
served as Deputy Chief of Mission in the U.S. Embassy in 
France.
    This is clearly an impressive group of nominees.
    And I would like to now turn over the meeting to Ranking 
Member Booker for his opening comment.

               STATEMENT OF HON. CORY A. BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Yeah, Mr. Chairman, can you hear me?
    Senator Barrasso. I can hear you very well, thank you.
    Senator Booker. Great. I am just going to submit my remarks 
to the record, with the exception of just saying two things.
    One is, I am just really grateful that you are assuming the 
chairmanship of the subcommittee after Senator Isakson's 
retirement. We are definitely going to miss him, but I look 
forward, really, to working with you.
    And, obviously, we have severe crises when it comes to 
COVID. The World Health Organization is talking about a 
potentially catastrophic impact, and we are already seeing 
significant infections.
    So, I am looking forward to the work we have before us, and 
to working with many of the nominees. I am looking forward to 
the questions, but I will submit my formal remarks for the 
record. I have delayed the meeting long enough with the 
technical difficulties.
    [The prepared statement of Senator Booker follows:]

              Prepared Statement of Senator Cory A. Booker

    Thank you to the nominees for your participation in today's hearing 
and for your willingness to serve your country in these challenging 
times.
    I want to welcome and congratulate Senator Barrasso for assuming 
the Chairmanship of the subcommittee after Senator Isakson's 
retirement. We certainly miss Senator Isakson, but look forward to 
working with you.
    The posts to which you have been nominated will certainly demand a 
great deal from you. Burkina Faso is one of the worst affected 
countries by the COVID-19 pandemic in Africa, Jordan faces political 
and economic instability, and the Assistant Administrator at USAID, 
will be tasked with helping to lead what will be a much needed 
humanitarian response.
    Last week, the World Health Organization said that nearly 200,000 
people in Africa could die of coronavirus in the first year of the 
pandemic and 29 to 44 million be infected during the period. While the 
virus has been slow to spread in the continent and there are 
indications that it won't spread as exponentially as it has in the U.S. 
and Europe, it could linger in transmission hotspots suggesting a more 
prolonged outbreak over a few years. The WHO further said ``COVID-19 
could become a fixture in our lives for the next several years unless a 
proactive approach is taken by many governments in Africa.'' Meanwhile 
many governments in Africa look to upend hard fought democratic norms 
under the cover the of COVID-19 pandemic.
    I look forward to hearing from our nominees to Uganda, Burkina 
Faso, and USAID about how they will address the coronavirus's impacts 
on Day 1 if confirmed to their new posts, and how they will address the 
secondary effects of the virus--including the upending of democratic 
norms, the plight of internally displaced people, and potential 
outbreaks of other diseases such as polio and measles, as vaccination 
campaigns have been paused.
    I also look forward to hearing about how we can bolster the U.S. 
relationship with two critical allies, Jordan and Estonia, as regional 
circumstances demand continued U.S. support.
    Thank you to the nominees for bearing with us in a non-traditional 
hearing setting, and to the Chairman for working with us to resume our 
committee's activities under these new circumstances. Again, I look 
forward to working with you and your staff in this subcommittee.
    Senator Barrasso. Well, thank you so much, Senator Booker.
    And this is our first hearing together as subcommittee 
leadership, and I do look very much forward to many more 
opportunities for the two of us to work together in the year 
ahead.
    Now, all of the positions that the committee is discussing 
today are very important. We look forward to hearing the 
testimony from each of the five of you.
    And I will let you know that your full statements will be 
entered into the record in its entirety. So, I ask that you 
summarize your testimony in about 5 minutes in order for 
members to have an opportunity to ask questions.
    The order that we will go in, we will start with Ms. Brown 
first, and then Mr. Day, then Ms. Clark, then Mr. Grayson, and 
then Mr. Wooster will be our final one to testify, and then we 
will go to questions.
    So, with that, Ms. Brown, I will welcome you and 
congratulate you and ask you to start.

STATEMENT OF NATALIE E. BROWN, OF NEBRASKA, A CAREER MEMBER OF 
 THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF UGANDA

    Ms. Brown. Well, thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member, and members of the committee, 
I am honored to appear before you today as the President's 
nominee to be the next United States Ambassador to the Republic 
of Uganda.
    I appreciate the confidence and trust the President and 
Secretary have placed in me by submitting my name for 
consideration, and I welcome the opportunity to speak with you 
today in this innovative format.
    If confirmed, I pledge to work with you, directly or 
virtually, to advance our Nation's interest in Uganda.
    Mr. Chairman, with your permission, I would like to 
acknowledge family members cheering me on from afar, as, 
without their support, encouragement, and sacrifices, I would 
not be with you today:
    My mother, Betty Brown's love of geography and interest in 
global events made me curious about the world. And I thank my 
sister, Daryle Glynn Brown, who is both my staunchest supporter 
and my toughest critic, for always challenging me to do better. 
And with me today in spirit are my father, Eugene, whose 27 
years as a police officer inspired my career in Foreign 
Service--in public service; my dear friend, Fay Holl, whom I 
met on my first diplomatic assignment and who provided a home 
away from home over the years; and my fiance, Fikret Yildiz, 
who passed away recently, most likely a victim of the pandemic 
that has claimed far too many lives globally, and who was 
looking forward to joining the State Department family.
    Mr. Chairman, Senators, in eight countries across Africa 
and the Middle East, as well as in Washington, I have had the 
great privilege of representing the United States and advancing 
American interests, from assisting American citizens in need, 
to helping identify business opportunities for American 
companies. I supported Kuwaiti women in their first efforts to 
vote and run for elected office and vote, and time spent at the 
Marine Corps Command and Staff College was a chance to learn 
more about my uniformed colleagues and their roles in 
protecting American interests.
    Coupled with this substantive background is experience in 
directing U.S. foreign policy and mentoring the next generation 
of American diplomats. Most recently, I served as Chief of 
Mission in Asmara, Eritrea, where my team worked to revitalize 
long-strained relations amid political and security change in 
the Horn of Africa. In Rome, as the Deputy in our Mission to 
the U.N. Food Agencies, we coordinated across the U.S. 
Government to build consensus with international partners in 
alleviating hunger and ensuring the responsible contributions--
the responsible use of contributions to the U.N. system. I was 
also Deputy Chief of Mission in Tunisia, and a high point of my 
career remains the substantial support from the United States 
to that country and its people as they transitioned from 
dictatorship to democracy. I believe these experiences have 
prepared me well to guide and support our country team in 
Uganda and its work on some of the world's most challenging 
issues.
    Mr. Chairman, over the past 25 years, the United States and 
Uganda have cooperated to counter terrorism and promote 
stability, particularly in Somalia, to encourage economic 
growth and prosperity evidenced by increasing private U.S. 
investment in the country, and to curb the spread of pandemics, 
such as COVID-19. Here, Uganda's experience in combating HIV/
AIDS, Ebola, and other infectious diseases, bolstered by 
significant long-term technical and material support from the 
United States, is helping to set an example. We have made 
notable progress, and, if confirmed, my team and I will work 
hard to continue and, hopefully, accelerate this trend.
    Regrettably, there are areas tilting the opposite 
direction. Strengthening Uganda's multiparty democracy, 
promoting good governance, combating official corruption, and 
reinforcing respect for human rights, including for 
marginalized populations, are key U.S. policy priorities and, 
if confirmed, areas on which I intend to focus.
    Uganda will hold elections in early 2021, and President 
Museveni is expected to seek a sixth term. If confirmed, I will 
encourage him to ensure the political space required for an 
open and vibrant process with free and full participation. 
Given Uganda's influence in the region, this is important, not 
only for the future of the country and its people, but also for 
its neighbors.
    Mr. Chairman, key to much of Uganda's progress in combating 
terrorism, growing the economy, and taking care of its people 
are the significant investments by the United States in 
security, agriculture, and education. The majority of our 
assistance targets the health sector, with a historical special 
focus on achieving HIV epidemic control, and fighting malaria, 
as a healthier population is essential to Uganda's continued 
development. If confirmed, I will work with Uganda to maintain 
momentum on its achievements in health and to prepare for the 
day when it assumes full responsibility for the programs now 
funded by the United States.
    On the critical issue of economic growth, with 80 percent 
of Uganda's population under the age of 30, in order to compete 
in the global marketplace, it is vital that Uganda encourage 
and promote job creation, technological advances, and foreign 
investment. Harnessing the potential of this tremendous youth 
bulge as a force for economic ingenuity and prosperity will 
also serve as a counter to violent extremism and despair. 
Partnering with U.S. firms can help achieve these goals and 
create jobs in both countries. If confirmed, I will strive to 
expand trade and commercial ties between the United States and 
Uganda for the advancement of both of our nations.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Brown follows:]


                 Prepared Statement of Natalie E. Brown

    Mr. Chairman, Ranking Member, and members of the committee, I am 
honored to appear before you today as the President's nominee to be the 
next United States Ambassador to the Republic of Uganda. I appreciate 
the confidence and trust the President and Secretary have placed in me 
by submitting my name to this body for consideration, and I welcome the 
opportunity to speak with you today in this innovative format. If 
confirmed, I pledge to work with you--directly or virtually--to advance 
our nation's interests in Uganda.
    Mr. Chairman, with your permission, I would like to acknowledge my 
family members without whose support, encouragement, and sacrifices, I 
would not be with you today.
    It was my mother, Betty Brown's, love of geography and interest in 
global events that made me curious about the world, and it has been a 
delight to travel with her to many of the places we read about in my 
National Geographic Children's Atlas.
    My sister Daryle Glynn Brown has been my staunchest supporter, as 
well as my toughest critic--like most siblings--and I thank her for 
always challenging me to do better.
    And with me in spirit today are my father Eugene, whose 27 years as 
a police officer inspired my career in public service; my dear friend 
Fay Holl, whom I met on my first diplomatic assignment and who provided 
a home away from home throughout the course of my career; and my fiance 
Fikret Yildiz, who passed away recently, most likely a victim of 
pandemic that has claimed far too many lives globally, and who was 
looking forward to joining the State Department family.
    Mr. Chairman/Senators since 1990, in eight countries, primarily in 
Africa and the Middle East, as well as in Washington, I have had the 
great privilege of representing the United States and the American 
people, of advancing American interests, and of promoting our 
democratic values. In doing so, I have assisted American citizens in 
need and adjudicated visa applications of people interested in visiting 
the United States, I have helped identify overseas business 
opportunities for American companies and I was proud to support Kuwaiti 
women in their very first efforts to vote and run for elected office. 
In what was for me the most ``foreign'' of my assignments, I even spent 
a year at the Marine Corps Command and Staff College, getting to better 
know my uniformed colleagues and their varied roles in protecting 
American interests.
    In addition to this substantive experience, I am grateful for the 
leadership opportunities afforded to me to in directing U.S. foreign 
policy and mentoring the next generation of Foreign Service Officers. 
For example, I recently concluded a three-year assignment as Chief of 
Mission in Asmara, Eritrea, where my small team and I worked to 
revitalize long-strained relations against a backdrop of profound 
political and security change in the Horn of Africa. In Rome, as Deputy 
Permanent Representative of our Mission to the U.N. Food Agencies, my 
colleagues and I coordinated with numerous United States agencies in 
building consensus with a range of partners to alleviate hunger and 
ensure responsible use of contributions to the U.N. agencies. I was 
also Deputy Chief of Mission in Tunisia as that country transitioned 
from dictatorship to democracy. There, the U.S. response to that 
transformation was swift and substantial, and one of the highlights of 
my career remains our work with the Tunisian people to instill 
democratic practices.
    I believe the sum of these experiences has prepared me well to work 
with and guide our country team in Uganda, which is working on some of 
the world's most challenging issues, including threats to peace and 
stability, massive refugee flows, rapid population growth, and 
corruption. Of course, in the headlines today are efforts to curb the 
spread of pandemic disease. Here, Uganda's experience in combatting 
HIV/AIDS, Ebola, and other infectious diseases, bolstered by 
significant long-term technical and materiel support from the United 
States, is helping to set an example for many others.
    Mr. Chairman/Senators, the United States and Uganda have enjoyed a 
solid bilateral relationship over the past 25 years, cooperating to 
counter terrorism and promote stability, particularly in Somalia; to 
encourage economic growth and prosperity, evidenced by increasing 
private U.S. investment in the country; and, as noted, to curb the 
spread of pandemics. We have made notable progress on all fronts and, 
if confirmed, my team and I will work hard to continue and hopefully 
accelerate this trend.
    The urgency of the current global health crisis, however, should 
not detract from other areas warranting continued serious attention and 
engagement. Strengthening Uganda's multiparty democracy, promoting good 
governance, combatting corruption, and reinforcing respect for human 
rights, including for marginalized populations, are key U.S policy 
priorities. Regrettably, these are also areas where the trend is not so 
positive and where there have even been efforts to stifle voices and 
curb political aspirations. If confirmed, these are areas on which I 
intend to focus.
    Uganda will hold elections in early 2021, during which President 
Museveni is expected to seek a sixth term. If confirmed, I will urge 
President Museveni to ensure the political space required for an open 
and vibrant campaign with the free and full participation of all 
parties. Given Uganda's influence in the region, this is important not 
only for the future of the country and its people, but also for its 
neighbors.
    Mr. Chairman/Senators, key to much of Uganda's progress in 
safeguarding the region, in growing its economy, and in taking care of 
its people is the significant assistance provided by the United States. 
We have invested in security and combatting terrorism, and we make 
contributions to agriculture and education. The vast majority of our 
assistance, however, targets the health sector, with a historical 
special focus on achieving HIV epidemic control and fighting malaria as 
a healthier population is essential to Uganda's continued development. 
Healthy students learn and perform better, and healthy workers can help 
the economy grow faster. If confirmed I will work with Uganda to 
maintain momentum and prepare for the day when it assumes full 
responsibility for the health programs now funded by the United States.
    On the critical issue of economic growth, with 80 percent of 
Uganda's population under the age of 30, in order to compete in the 
global marketplace, it is vital that Uganda encourage and promote job 
creation, technological advances, and foreign investment. Harnessing 
the potential of this tremendous youth bulge as a force for economic 
ingenuity and prosperity will also be critical as a counter narrative 
to violent extremism and despair. Partnering with U.S. firms can help 
achieve these goals and create jobs in both countries. If confirmed, I 
will strive to expand trade and commercial ties between the United 
States and Uganda for the betterment of both our countries.
    Thank you. I look forward to your questions.


    Senator Barrasso. Well, thank you so very much for your 
testimony. We welcome your mom, who is there. We appreciate 
your father, who is with us in spirit, and his years of service 
to the law enforcement. And we are very sorry to hear about the 
loss of your fiance. But, we are grateful for your service and 
your testimony. And we are going to return, in a few moments, 
with questions. Thank you so much for being here, and for your 
testimony. Congratulations.
    And now I would like to turn to Mr. Day.

 STATEMENT OF RAMSEY COATS DAY, OF VIRGINIA, NOMINEE TO BE AN 
    ASSISTANT ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Day. Thank you.
    Mr. Chairman, Ranking Member, members of the committee, I 
am grateful for the opportunity to be here today as President 
Trump's nominee to be Assistant Administrator for the Bureau 
for Africa at the U.S. Agency for International Development.
    I would also like to thank President Trump, Secretary 
Pompeo, former Administrator Green, and Acting Administrator 
Barsa for their support and for the confidence they have placed 
in me to serve in this role.
    I would like to take this opportunity to also thank Acting 
Assistant Administrator Chris Maloney, who has led the Africa 
Bureau since January of this year. I also want to recognize my 
remarkably talented and dedicated colleagues at USAID, and 
particularly those in the Africa Bureau, both here in 
Washington and overseas.
    And, of course, a special thank you to my wonderful wife, 
Charlotte. To say that I ``married up'' would be quite an 
understatement, and I am immensely grateful for her love and 
support.
    Lastly, I would also like to thank my mother, Janie, who, 
along with my late father, Woody, instilled in me the values, 
principles, and faith that guide me every day.
    Mr. Chairman, my love of Africa began nearly 20 years ago, 
when I landed in Johannesburg, South Africa, as a backpacker, 
as part of a year-long journey around the world. I spent 
several months exploring the continent, and I was completely 
captured by the natural beauty of the landscapes, the richness 
and diversity of the cultures, and, of course, the awe-
inspiring wildlife. But, most importantly, I fell in love with 
the people, particularly the many young Africans whom I learned 
from, laughed with, and shared countless stories. It was this 
experience in Africa, as well as living in New York City on 
September 11th, that helped shape a vision for a career I never 
dreamed of as a kid growing up in Mississippi. Africa has truly 
changed the path of my life and career.
    Over the past 15 years, I have been fortunate to serve at 
USAID multiple times and in multiple administrations, both in 
Washington and overseas. I have also worked for a USAID 
implementing partner at the International Republican Institute 
in Jordan, where I led programs advancing the democratic 
principles of citizen-responsive government.
    For the last 2 years, serving in the Africa Bureau, and, 
more recently, in the Bureau for Policy, Planning, and Learning 
at USAID, I have seen that Africa is a continent both of 
immense opportunities and acute challenges. The continent's 
rapidly expanding demographics means Africa's labor force will 
soon be bigger than China, bigger than India. And if Africa 
becomes more integrated into the international economic system, 
millions of people could be lifted out of poverty, and the U.S. 
would have expanded market opportunities on a continent with 
ever-increasing spending power.
    But, Africa is also faced with chronic corruption, poor 
governance, and food insecurity, as well as devastating natural 
disasters and crushing manmade conflicts that have displaced 
millions. And the American people have been, and will continue 
to be, there to support our African partners. USAID, on behalf 
of the American people, is by far the world's largest health 
and humanitarian assistance donor responding to these 
challenges. Programs like the President's Emergency Plan for 
AIDS Relief, PEPFAR, and the President's Malaria Initiative 
have literally saved millions of lives. But, over 70 percent of 
the African population is under the age of 35. Without 
opportunities for meaningful work, this young population is 
vulnerable to recruitment from extremist organizations or other 
destabilizing influences. American engagement has been, and 
will continue to be, critical. Never is this more evident than 
today.
    As the COVID-19 pandemic continues to sweep across the 
globe, health systems in developing countries, particularly in 
Africa, need to be strengthened to adequately respond to the 
crisis. As we have seen in recent months, this virus can spread 
quickly. We have also learned that what happens overseas can 
have an immediate and profound impact on our homeland, on our 
way of life. USAID has been at the front lines in the fight 
against Ebola, HIV and AIDS, tuberculosis, malaria, and we are 
also spearheading the global response to COVID-19, as we 
continue to battle it here at home. If I am confirmed, I intend 
to work tirelessly on this and other issues critical to our 
national strategic and security interests.
    And, if confirmed, my priorities would be clear. First, as 
always, and without compromise, will be the health and safety 
of every USAID staff member and their family. My second 
priority will be to maintain the highest level of financial 
integrity. Leaders at USAID are the stewards of hard-earned and 
precious taxpayer resources. Congress and the American people 
have entrusted us to ensure those resources are deployed in the 
most efficient and effective way possible to advance American 
interests around the world. And lastly, I will concentrate my 
efforts on ensuring every USAID program is focused on advancing 
U.S. foreign policy objectives through USAID's Journey to Self-
Reliance organizing principle.
    Mr. Chairman, if I am confirmed, it would be a tremendous 
honor to serve and lead the nearly 3,000 Civil Service, Foreign 
Service, Foreign Service Nationals, and personal services 
contractors that make up the USAID Africa family. And I commit 
to you that I will work closely and transparently with Members 
of Congress and staff to integrate your perspectives, 
experiences, and priorities into our approaches to the 
development challenges faced by our African partners. Your 
viewpoints are absolutely crucial to the work that we do on the 
ground, and are greatly appreciated.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Day follows:]


                 Prepared Statement of Ramsey Coats Day

    Mr. Chairman, Ranking Member, members of the committee, I am 
grateful for the opportunity to be here today as President Trump's 
nominee to be Assistant Administrator for Africa at the U.S. Agency for 
International Development (USAID). I would like to thank President 
Trump, former Administrator Green, Acting Administrator Barsa, and 
Secretary Pompeo for their support, and for the confidence they have 
placed in me to serve in this role.
    I would like to take this opportunity to also thank Acting 
Assistant Administrator Chris Maloney, who has led the Bureau for 
Africa since January 2020. I also want to recognize my remarkably 
talented and dedicated colleagues at USAID and in the Africa Bureau, 
both here in Washington and overseas, with whom I have worked for the 
last two years.
    I am thankful to have with me today--and every day--my wonderful 
wife, Charlotte. To say I ``married up'' would be quite an 
understatement, and I appreciate immensely her love and support.
    Mr. Chairman, my love of Africa began nearly twenty years ago when 
I landed in Johannesburg, South Africa, as part of a year-long 
backpacking journey around the world. I spent several months exploring 
the continent, and I was completely captured by the natural beauty of 
the landscapes, the richness and diversity of the cultures, and, of 
course, the awe-inspiring wildlife--but most important, I fell in love 
with the people, particularly the many young Africans from whom I 
learned, and with whom I laughed and shared countless stories.
    It was this experience in Africa, as well as living in New York 
City on September 11, that helped shape a vision for a career I never 
dreamed of as a kid growing up in Mississippi. Africa has truly changed 
the path of my life and career.
    Upon my return home, I decided to leave the private sector and move 
to Washington to pursue a career in international development. I did so 
because I saw first-hand the impact USAID's work had on the people of 
the African continent. But I also have since gained a much greater 
appreciation for the critical nature of development work in advancing 
our national strategic, security, and commercial interests.
    Over the past 15 years, I have been fortunate to serve at USAID 
multiple times and in multiple administrations, both in Washington and 
overseas. As the USAID Country Representative in the Republic of 
Montenegro, I learned how powerful American assistance can be in 
helping a country integrate into trans-Atlantic alliances and 
strengthening the Euro-American partnership. I also have worked for a 
USAID partner, the International Republican Institute (IRI). As the 
Country Director for IRI in the Hashemite Kingdom of Jordan, I worked 
on programs to empower women, strengthen citizen-responsive government 
at the local level, and help Jordanian leaders understand the 
importance of public opinion when making policy decisions.
    For the last two years at USAID, serving in the Africa Bureau and, 
more recently, in the Bureau for Policy, Planning, and Learning, I have 
had the honor and privilege of working alongside some of the most 
dedicated public servants I have ever known as we work together to 
address issues critical to our national interests.
    I have learned over my career that what happens overseas can have 
an immediate and profound impact on our homeland and our way of life. 
Never is this more evident than today. As the pandemic of COVID-19 
caused by the novel coronavirus continues to sweep across the globe, 
health institutions in developing countries, particularly in Africa, 
are ill-equipped to respond to the crisis. As we have seen in recent 
months, this virus can spread quickly. We will beat this outbreak in 
the United States, but it could well continue its spread as the 
Southern Hemisphere heads into Winter. USAID has been on the front 
lines in the fight against Ebola, HIV/AIDS, tuberculosis, and malaria, 
and we will continue to lead the global response to the COVID-19--even 
as we battle the disease at home.
    To protect America's strategic and security interests even better, 
USAID must evolve. And under the leadership of former USAID 
Administrator Mark Green and current Acting Administrator John Barsa, I 
believe we are building the USAID of tomorrow by integrating an 
organizing principle we call the Journey to SelfReliance into all our 
work. We believe every program and every partnership into which USAID 
enters should strengthen the ability of a country's citizens to plan, 
finance, and implement their own development solutions to the 
challenges they face.not because we want to walk away from our friends, 
but because we believe in them. We want to transform these 
relationships from ones based on an aid to ones based on trade and 
investment, shared security and diplomatic interests, and mutual 
respect. It has been my experience in the Balkans, in the Middle East, 
and, certainly, in Africa, that our partners want to transform this 
relationship as well.
    At USAID, we believe the goal of foreign assistance should be to 
end the need for it to exist. If I am confirmed as Assistant 
Administrator for Africa, I intend to work tirelessly in support of 
this goal, and my top priorities would be clear.
    First, as always, would be the health and safety of all USAID staff 
members and their families. Many of our teams are working in difficult 
and even dangerous environments, so my number-one priority would be to 
ensure we are following every rule, practice, and protocol set forth by 
the Regional Security Officer at each U.S. Embassy in Africa. However, 
we will never be able to eliminate risk completely, because development 
professionals, by nature, want and need to be outside our Embassy walls 
so they can get to know the people we are helping, evaluate the 
progress of our programs, and learn how we can do better. This is the 
only way we can maximize the effectiveness of our programs on behalf of 
the American people. Balancing this risk versus effectiveness requires 
constant monitoring.
    My second priority would be to maintain the highest level of 
financial integrity.
    Leaders at USAID are the stewards of hard-earned and precious 
taxpayer dollars. Congress and the American people are entrusting us to 
ensure we deploy these resources in the most efficient and effective 
way possible to advance American interests around the world.
    Lastly, if confirmed, I also would be hyper-focused on ensuring 
every USAID program advances U.S foreign-policy objectives, reflects 
USAID's Journey to Self-Reliance organizing principle, and represents 
the best of American values.
    Whether responding to natural disasters in the Republic of 
Mozambique and outbreaks of Ebola in West Africa and the Democratic 
Republic of Congo, or tackling the ongoing COVID-19 crisis, helping 
brave citizens find their democratic footing in Ethiopia or Sudan, 
strengthening communities to fight back against savage terrorist 
networks in the Federal Republic of Somalia or the Sahel, or saving 
millions of lives from the ravages of chronic food-insecurity, the HIV/
AIDS epidemic, or malaria, the women and men of USAID and our 
interagency partners represent the best of America overseas.
    USAID's programs alleviate human suffering, lift up communities 
that are committed to their own development, champion the cause of 
democracy, empower women and girls to lead, and respond to some of the 
most complex natural and man-made disasters that affect millions of 
people around the world.
    If I am confirmed, it would be a tremendous honor to lead the 
nearly 3,000 Civil Servants, Foreign Service Officers, Foreign Service 
Nationals, and Personal Service Contractors, and others that make up 
the USAID Africa family.
    And I commit to you that, if confirmed, I will work closely and 
transparently with Members of Congress and your staff to integrate your 
perspectives, experiences, and priorities into our approaches to the 
development challenges faced by our African partners. Your viewpoints 
are crucial to the work we do on the ground, and I appreciate them 
greatly.
    Thank you for granting me this hearing. I look forward to your 
questions.


    Senator Barrasso. Well, thank you very much, Mr. Day. And 
congratulations, again, on your nomination. We look forward to 
getting to questions in a few moments.
    I would like to now turn to Ms. Clark, nominee to be 
Ambassador to Burkina Faso. Thank you for joining us today. 
Congratulations.

 STATEMENT OF SANDRA E. CLARK, OF MARYLAND, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
          THE UNITED STATES OF AMERICA TO BURKINA FASO

    Ms. Clark. Thank you very much.
    Mr. Chairman, Ranking Member, and distinguished members of 
the committee, I am deeply honored to appear as the nominee to 
serve as U.S. Ambassador to Burkina Faso. I am grateful to the 
President and the Secretary of State for the confidence they 
have shown in nominating me for this position.
    I would like to recognize my husband, Alan Tolerton, and 
thank him for his unfailing love, and my wonderful and intrepid 
daughter, Emma. I am also grateful to my brothers, Gregory and 
David, and my sister-in-law, Lisa, for their support. And I am 
thankful for the gifts that we received from our late parents: 
our mother, who immigrated to the United States after the 
second World War, and our father, whose family has long and 
deep roots in New England. And I would like to thank my family, 
friends, and colleagues who have joined us virtually today.
    If confirmed as Ambassador, I will marshal my 34 years of 
experience as a Foreign Service Officer to promote and protect 
U.S. interests in Burkina Faso. I would look forward to working 
closely with members of this committee and your staffs in that 
endeavor.
    Burkina Faso is at the nexus of U.S. strategic interests in 
the Sahara and West Africa. This country, with its proud 
tradition of peaceful coexistence among its diverse 
communities, remains the bulwark against extremism spreading to 
its neighbors. If confirmed, I will spearhead our efforts, with 
our Burkinabe partners and international allies, on the 
interlinked objectives of advancing regional security; 
promoting democracy, good governance, and human rights; and 
encouraging economic opportunity and development.
    Burkina Faso and our bilateral partnership cannot flourish 
if it is plagued by violence. Armed attacks have driven over 
three-quarters of a million people from their homes. The 
security and law enforcement services face a daunting challenge 
and require support to enable them to counter this threat while 
protecting the population. If confirmed, I will continue our 
work to develop more capable and professional military and law 
enforcement services who respect human rights.
    Burkina Faso is working with other nations, such as the G5 
Sahel members, to solve regional problems. And the United 
States has like-minded partners there. The Secretary approved a 
Diplomatic Engagement Framework for the Sahel and appointed a 
U.S. Special Envoy to maximize our collective impact. And, if 
confirmed, I will work closely with the Special Envoy to 
coordinate and leverage these many efforts.
    Burkina Faso is a young democracy. President Kabore is the 
first democratically elected president after the 27-year rule 
of his predecessor. Burkinabe continue to respect and criticize 
and shape their democracy. Peaceful elections later this year 
that accurately reflect the will of the people will be crucial 
to solidifying that democracy.
    Burkina Faso's judicial system has struggled to bring 
terrorists and human rights violators to justice. If confirmed, 
I will build on our relationships with government and with the 
country's vibrant media and civil society organizations to 
strengthen democratic institutions and practices and advocate 
for human rights.
    Burkinabe are dynamic, creative, and seek a better economic 
future. The United States is partnering with them through such 
agencies as the U.S. Agency for International Development and 
the Millennium Challenge Corporation, which is working to 
finalize a second compact for Burkina Faso this year. These 
programs, coupled with U.S. diplomacy and the ingenuity of the 
U.S. private sector to help promote economic growth and create 
jobs for both our countries, especially for the burgeoning 
youth population.
    The United States has provided humanitarian and other 
assistance to the people of Burkina Faso over the years, 
including to establish the national public health emergency 
operations center, which is playing a pivotal role during this 
COVID-19 pandemic. Indeed, the epidemiologist leading Burkina 
Faso's COVID-19 response is a Centers for Disease Control 
Fellow who just returned to his country.
    I am proud of the role the United States has played in 
helping the Burkinabe respond to the pandemic and of the 
Embassy's success in assisting more than 150 Americans return 
home.
    It would, indeed, be an honor and a privilege, if 
confirmed, to lead our talented and committed Embassy staff at 
this critical juncture in Burkina Faso.
    Mr. Chairman, Ranking Member, and members of the committee, 
I thank you for this opportunity to appear before you, and I 
look forward to your questions.
    [The prepared statement of Ms. Clark follows:]


                 Prepared Statement of Sandra E. Clark

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am deeply honored to appear as the nominee to serve as the 
U.S. Ambassador to Burkina Faso. I am grateful to the President and the 
Secretary of State for the confidence they have shown in nominating me 
for this position.
    I would like to recognize my husband, Alan Tolerton, and thank him 
for his unfailing love and his willingness to accompany me on this 
journey, and my wonderful and intrepid daughter, Emma. I am grateful to 
my brothers, Gregory and David, and my sister-in-law Lisa, for their 
support. I am thankful for the gifts we received from our late parents, 
our mother who immigrated to the United States after the Second World 
War, and our father whose family has long and deep roots in New 
England. I would like to thank my family, friends, and colleagues who 
are joining us virtually today.
    If confirmed as Ambassador, I will marshal my 34 years of 
experience as a Foreign Service Officer to promote and protect U.S. 
interests and values in Burkina Faso. I would look forward to working 
closely with members of this committee and your staffs in that 
endeavor. Burkina Faso is at the nexus of U.S. strategic interests in 
the Sahel and West Africa. This country, with its proud tradition of 
peaceful coexistence among its diverse communities, remains the bulwark 
against extremism expanding to its neighbors. If confirmed, I will 
spearhead our efforts, with our Burkinabe partners and international 
allies, on the interlinked objectives of advancing regional security; 
promoting democracy, good governance, and human rights; and encouraging 
economic opportunity and development.
    Burkina Faso--and our bilateral partnership--cannot truly flourish 
if it is plagued by violence. Armed attacks have driven over three-
quarters of a million people from their homes. The security and law 
enforcement services face a daunting challenge and require support to 
enable them to counter this threat while protecting the population. If 
confirmed, I will continue our work to develop more capable and 
professional military and law enforcement services which respect human 
rights.
    Burkina Faso is working with other nations, such as G5 Sahel 
members, to resolve the region's problems. The United States has 
likeminded partners there. This is why the Secretary approved a 
Diplomatic Engagement Framework for the Sahel and appointed a U.S. 
Special Envoy to maximize our collective impact. If confirmed, I will 
work closely with the Special Envoy to coordinate and leverage these 
many efforts.
    Burkina Faso is a young democracy. President Roch Kabore is the 
first democratically elected president after the 27-year rule of his 
predecessor, ousted in October 2014. The Burkinabe continue to respect, 
criticize, and shape their democracy. Peaceful elections later this 
year that accurately reflect the will of the people will be crucial to 
solidifying that democracy. Burkina Faso's judicial system has 
struggled to bring terrorists and human rights violators to justice. If 
confirmed, I will build on our relationships with the Government and 
with the country's vibrant media and civil society organizations to 
strengthen democratic institutions and practices that advocate for 
human rights.
    The Burkinabe are dynamic and creative and seek a better economic 
future. The United States is partnering with them through such agencies 
as the U.S. Agency for International Development and the Millennium 
Challenge Corporation, which is working to finalize a second compact 
with Burkina Faso this year. These programs, coupled with U.S. 
diplomacy and the ingenuity of the U.S. private sector, should promote 
economic growth and create jobs in both countries, especially for the 
burgeoning youth population. The United States has provided 
humanitarian and other assistance to the people of Burkina Faso over 
the years, including the establishment of a national public health 
emergency operations center, which is playing a pivotal role in 
responding to the COVID-19 pandemic. Indeed, the epidemiologist leading 
Burkina Faso's COVID 19 response is a Centers for Disease Control 
Fellow who just returned to the country. I am proud of the role the 
United States has played in helping the Burkinabe respond to the 
pandemic and of the Embassy's success in assisting more than 150 
Americans return home.
    It would be an honor and a privilege, if confirmed, to lead our 
talented and committed Embassy staff at this critical juncture in 
Burkina Faso.
    Mr. Chairman, Ranking Member, members of the committee, I thank you 
for this opportunity to appear before you. I look forward to your 
questions.


    Senator Barrasso. Well, again, thank you. Congratulations. 
We look forward to having a chance to ask you questions. There 
is a woman from my home State of Wyoming who has previously 
been Ambassador to Burkina Faso, so I am familiar with the 
challenges that you will be facing. And I also have a wonderful 
and intrepid daughter, who is also named Emma. So, hopefully, 
we can get them together at some point in the future.
    Ms. Clark. Yes, that would be great. Thank you, sir.
    Senator Barrasso. Thank you. Well, congratulations, again.
    Now we would like to hear from Mr. Grayson, the nominee to 
be the Ambassador to Estonia.
    Mr. Grayson, the floor is yours.

STATEMENT OF WILLIAM ELLISON GRAYSON, OF CALIFORNIA, NOMINEE TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF ESTONIA

    Mr. Grayson. Great. Great. Thank you very much, Chairman 
Barrasso, Ranking Member Booker, and distinguished members of 
the committee. I am honored to appear before you today in this 
virtual hearing during this unprecedented time and pandemic as 
the President's nominee to be the United States Ambassador to 
the Republic of Estonia.
    I am deeply grateful to President Trump and Secretary 
Pompeo for the trust and confidence that they have placed in 
me. If confirmed, I look forward to working very closely with 
the committee, your staffs, and other Members of Congress to 
build upon the robust partnership that exists between the 
United States and Estonia.
    My top priority will be the welfare, security, and health 
of the U.S. citizens in Estonia and our exceptional Embassy 
team and talent, also work to strengthen our joint security, 
our cooperation with NATO, further bilateral trade and economic 
opportunities, and, of course, counter malign influence in the 
region.
    Mr. Chairman, with your permission, I would like to 
introduce my family members. First, my wife--and they are going 
to appear, if that is okay, Mr. Chairman--first, my wife, 
Laurie Grayson, who, if I am confirmed, will be an outstanding 
representative----
    Senator Barrasso. Hi, Laurie.
    Mr. Grayson [continuing]. For the United States in Estonia.
    I am also proud to introduce our three daughters. Two of 
them are here with us in San Francisco: Elizabeth and Caroline. 
And I also want to introduce our daughter, Katherine, who is in 
D.C., working for--working on Capitol Hill. And that is a 
picture of Katherine, in case you see her running around the 
Hill.
    I also want to take a minute to recognize my great sister, 
Darby, and our parents, EC and Jean Grayson, who continue to be 
outstanding role models to us. My dad served as the Assistant 
Secretary of the Navy in the Reagan administration and is a 
decorated Korean War veteran. He and my mom instilled as--in us 
our deep love of family, country, and travels around the world.
    Senator Barrasso. Bye.
    Mr. Grayson. Bye.
    [Laughter.]
    Mr. Grayson. Thank you, Senator.
    Throughout my private- and public-sector career, I have 
been honored to serve in four administrations, as you noted. 
First as the Principal Deputy General Counsel of the Army under 
George H.W. Bush, then on the President's Commission on White 
House Fellowships under President George W. Bush, then as a 
Regional White House Fellows Judge under President Barack 
Obama, and currently, thanks to President Trump, I am the 
chairman of the Presidio Trust in San Francisco, where I have 
the privilege of overseeing one of the National Parks' crown 
jewels. I am now honored again, of course, to be the 
President's nominee to be the Ambassador to Estonia.
    Mr. Chairman, the United States and Estonia have been close 
friends for over 100 years. A strong NATO ally since 2004, 
Estonia has shown an unwavering commitment to our shared global 
security. Estonian troops serve with us in Iraq and contribute 
to NATO's Resolute Support Mission in Afghanistan. Estonia has 
committed 2 percent of its GDP to defense spending for 8 years 
and serves as a role model to other NATO allies. If confirmed, 
I will continue to work hard to deepen our defense relationship 
with Estonia.
    Also, this October, Estonia will host the Three Seas 
Initiative, which is a Central European-led effort to 
accelerate cross-border commerce through important 
infrastructure projects in transportation, cyber, and digital. 
It would also provide an alternative to malign investments from 
the PRC and other nations that are not aligned with the region 
or the United States. This year, we also marked the 80th 
anniversary of the 1940 Wells Declaration, under which the 
United States refused to recognize the forced annexation of 
Estonia, Latvia, and Lithuania into the Soviet Union. Estonia 
showed great courage in overcoming Soviet occupation and has 
since become a shining example of innovation to the world. The 
democratic values that the U.S. and Estonia share continue to 
be the bedrock of our bilateral, regional, and global 
partnership.
    E-Estonia, as it is often called, is one of the most 
digitally advanced countries in the world. If confirmed, I will 
use my experience working with talented tech, cyber, AI company 
founders and innovators in San Francisco, Silicon Valley, and 
across the country, to expand trade, research, and investment 
opportunities. Estonia hosts the NATO- accredited Cooperative 
Cyber Defense Center of Excellence in Tallinn, which the United 
States joined in 2011. Last year, Estonia joined us in signing 
a 27-country agreement, Advancing Responsible State Behavior in 
Cyberspace. Further, our recent Joint Declaration on 5G 
Security is evidence of our cyber cooperation, which, if 
confirmed, I look forward to continuing and expanding.
    The United States and Estonia are strong partners guided by 
a century of diplomatic relations and friendships. Given the 
many global threats and opportunities that exist today, our 
relationship is as important now as it has ever been. If 
confirmed, I will be a champion for the United States and its 
interests in Estonia while strengthening the bilateral 
economic, defense, and democratic ties that bind us.
    Mr. Chairman, I greatly appreciate the honor bestowed upon 
me by this nomination, and, if confirmed, I will do my best to 
uphold the trust that you, your fellow members, President 
Trump, Secretary Pompeo, and the American people are placing in 
me.
    Senator Barrasso. Well, thank you----
    Mr. Grayson. Thank you again for this opportunity to 
appear, and I look forward to your questions.
    [The prepared statement of Mr. Grayson follows:]


             Prepared Statement of William Ellison Grayson

    Mr. Chairman and Ranking Member, distinguished members of the 
committee, I am honored and privileged to appear before you today, in 
this virtual hearing during this unprecedented time and pandemic, as 
the President's nominee to be the United States Ambassador to the 
Republic of Estonia. I am deeply grateful to President Trump and 
Secretary Pompeo for the trust and confidence that they have placed in 
me with this nomination. If confirmed, I look forward to working 
closely with the committee, your staffs, and other Members of Congress 
to build upon the strong and robust partnership between the United 
States and Estonia. My top priority will be the health, welfare, and 
security of U.S. citizens in Estonia and our exceptional Embassy team 
in Tallinn. I will also work to further strengthen our security, NATO 
cooperation, bilateral trade and entrepreneurial opportunities and to 
counter malign influence in the region.
    Mr. Chairman, with your permission, I would like to introduce and 
thank my family members who are with me today. First, my wife Laurie 
Grayson who, if I'm confirmed, will be an outstanding representative of 
the United States in Estonia as she's been throughout my career. I am 
also proud to introduce our accomplished and loving three daughters, 
Elizabeth and Caroline, here with us in San Francisco and Katherine, 
who's in DC working on Capitol Hill. I also want to recognize my great 
sister Darby and my amazing parents, EC and Jean Grayson, who continue 
to be exceptional role models. My Dad served as the Principal Deputy 
Assistant Secretary of the Navy under President Ronald Reagan and is a 
Korean War veteran. He and my Mom instilled in us our love of family, 
country and public service.
    I am grateful that throughout my private and public sector career, 
I have had the opportunity to serve in four presidential 
administrations. First, as the Principal Deputy General Counsel of the 
Army under President George H. W. Bush. Next, on the President's 
Commission on White House Fellowships under President George W. Bush, 
then as a regional White House Fellows panelist under President Barack 
Obama. I am currently the Chairman of the Presidio Trust in San 
Francisco, appointed by President Trump, where I have the privilege of 
overseeing one of the National Park's crown jewels. I am now honored 
and humbled as the President's nominee to be the U.S. Ambassador to 
Estonia.
    Mr. Chairman, the United States and Estonia have been close friends 
for over 100 years. A strong NATO Ally since 2004, Estonia has shown 
unwavering support for our shared defense and security around the 
globe. Estonian troops serve with us in Iraq, and Estonia continues to 
contribute to NATO's Resolute Support Mission in Afghanistan. Estonia 
has committed two percent or more of its GDP to defense spending since 
2012, serving as a model for other NATO Allies. If confirmed, I will 
work to deepen our defense cooperation with Estonia.
    This October, Estonia will host the 2020 Three Seas Initiative 
Summit. The initiative is a Central European-led effort to accelerate 
cross-border commerce through north-south energy, transportation, cyber 
and digital infrastructure projects. It should also provide an 
alternative to malign investments from the PRC and other nations that 
are not in the long-term interests of the region or the United States.
    This year we mark the 80th anniversary of the 1940 Welles 
Declaration under which the United States refused to recognize the 
forced annexation of Estonia, Latvia, and Lithuania into the Soviet 
Union. Estonia showed great strength and determination in overcoming 
Soviet occupation and emerged as a shining example of innovation to the 
world. The shared democratic values of the U.S. and Estonia continue to 
be the bedrock of our bilateral, regional, and global cooperation.
    Estonia is a leader in information technology being one of the most 
digitally advanced countries in the world. If confirmed, I will use my 
experience working with talented tech, cyber and AI company founders 
and innovators in San Francisco, Silicon Valley and around the U.S. to 
expand our trade, research and investment opportunities. Estonia hosts 
the NATO-accredited Cooperative Cyber Defense Center of Excellence in 
Tallinn, which the United States joined in 2011. We share a vision of a 
secure and open cyberspace, in which all countries behave responsibly. 
Estonia joined us last year for a 27-country joint statement on 
Advancing Responsible State Behavior in Cyberspace, and we continue to 
collaborate on cyber deterrence efforts. Our recent Joint Declaration 
on 5G security is further evidence of our cyber cooperation which, if 
confirmed, I look forward to continuing and expanding.
    The United States and Estonia are strong partners, grounded by 100 
years of diplomatic relations and friendship. Given the many global 
threats and opportunities that exist today, our relationship is as 
important now as it has ever been. If confirmed, I will be a champion 
for the United States and its interests in Estonia while strengthening 
the bilateral economic, defense and democratic ties that bind us. Mr. 
Chairman, I recognize and appreciate the honor bestowed upon me by this 
nomination. If confirmed, I will do my best to uphold the trust that 
you, your fellow members, President Trump, Secretary Pompeo and the 
American people are placing in me.
    Thank you again for this opportunity to appear before you today and 
I look forward to your questions.


    Senator Barrasso. Thank you, Mr. Grayson. We congratulate 
you. Thank you for including your family. I know Senator 
Alexander--Lamar Alexander--emailed me last night, and he was 
hoping so much to be able to introduce you in person in the 
committee. We did not want to delay your hearing, though, until 
a time when that might be possible. I know you wanted to be 
here with your family. But, congratulations again.
    Mr. Grayson. Thank you, Mr. Chairman.
    Senator Barrasso. Now we will turn to our final nominee, 
Mr. Wooster, who is the nominee to Jordan.
    Please proceed.

STATEMENT OF HENRY T. WOOSTER, OF VIRGINIA, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
THE UNITED STATES OF AMERICA TO THE HASHEMITE KINGDOM OF JORDAN

    Mr. Wooster. Thank you, Senator.
    Chairman, Ranking Member, distinguished members of the 
committee, it is a privilege and an honor to appear before you 
today, albeit virtually, as the President's nominee to serve as 
the U.S. Ambassador to the Hashemite Kingdom of Jordan. I am 
grateful to President Trump and Secretary Pompeo for their 
confidence in me.
    Gratitude is also due to my wife, Laura Dallman, and our 
four children--Cameron, Claire, Kimberly, and Kristen--who have 
shared the public-service journey worldwide. Their love, when 
we were together and when unaccompanied, have sustained me.
    I joined the Foreign Service 20 years ago, following 9 
years in the Civil Service, 5 of which were overseas; before 
that, service in the U.S. Army and the Army Reserve. I have 
served in eight U.S. embassies as diverse as Paris and Baghdad, 
as well as in numerous Washington positions. I have advocated 
for U.S. interests across the globe and worked with allies in 
the international community to pursue joint goals. At present, 
I am the Deputy Assistant Secretary for the Maghreb and Egypt.
    As Secretary Pompeo said last year, Jordan is one of the 
United States' enduring strategic partners. And from my own 
past service there, I know this to be true. American-Jordanian 
friendship advances U.S. interests, as does Jordan's path of 
modernization and its example of moderation.
    Over the last decade, Jordan has suffered a series of 
external shocks: the Syrian civil war, the fight against ISIS, 
and now, of course, COVID-19. All of these have battered its 
people and its economy. The U.S. priority is to help the 
Kingdom's economic recovery--excuse me--economy recover in a 
way that ensures stability. Jordan's 2020 budget contains 
concrete, meaningful reforms, and the Government's decisive 
response to the COVID crisis should enable it to begin 
reopening its economy very soon. If confirmed, I pledge to work 
with you, with all the tools the U.S. Government has, with 
international organizations, like the International Monetary 
Fund and the World Bank, and with the international community, 
to help Jordan create a stable and growing economy.
    Our partnership with Jordan has long included military 
collaboration. Jordan has been an invaluable ally in our joint 
work to counter terrorism, support international peacekeeping, 
and provide humanitarian assistance throughout the region. 
Jordan is the third-largest recipient of U.S. foreign military 
financing, with our support focusing on the Jordanian armed 
forces' 5-year plan for modernization, readiness, and enhanced 
interoperability among its own forces, with our forces, and 
with NATO forces. Our military assistance reinforces Jordan's 
role in the region as a bastion of stability.
    Beyond Jordan's value to the United States as a strategic 
partner, the Kingdom has proven a generous neighbor. Not only 
does Jordan promote peace in the region, but throughout its 
history it has welcomed refugees from neighboring countries, 
including hundreds of thousands of Syrians. I am proud the 
United States has contributed nearly one-and-a-half billion 
dollars of humanitarian aid to refugees in those communities in 
Jordan since the Syria crisis began. If confirmed, I will 
continue to advocate for assistance in international fora and 
promote burden-sharing to ensure we collectively provide for 
those in need.
    If confirmed as the next U.S. Ambassador to the Hashemite 
Kingdom of Jordan, I will continue to strengthen our 
partnership with the Government of Jordan and the Jordanian 
people. To reflect the face and values of the United States, I 
will recruit, hire, and maintain a diverse Embassy team. I will 
prioritize the safety of over 23,000 U.S. citizens residing in 
Jordan and the over 100,000 American tourists who visit 
annually. To protect and advance U.S. interests, I will proudly 
lead the nearly 1,000 American and local staff at our Embassy, 
and I will have a special duty to ensure the security of the 
Embassy's 500 American family members.
    Mr. Chairman, Ranking Member, and distinguished members of 
the committee, if confirmed, I will do my utmost to honorably 
represent the United States of America to the Hashemite Kingdom 
of Jordan. To do this and ensure the most informed and 
effective policy, I look forward to continuing my engagement 
with you and other Members of Congress.
    I thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Mr. Wooster follows:]


                 Prepared Statement of Henry T. Wooster

    Chairman, Ranking Member, distinguished members of the committee, 
it is a privilege and an honor to appear before you today as the 
President's nominee to serve as the U.S. Ambassador to the Hashemite 
Kingdom of Jordan. I am grateful to President Trump and Secretary 
Pompeo for their confidence and trust in me.
    I would be remiss if I did not also thank my wife, Laura, and our 
four children who have shared this public service journey. Their love 
and care, while we served worldwide, has sustained me. I joined the 
Foreign Service 20 years ago, following nine years in the civil 
service, five of which were spent overseas, and before that, served in 
the U.S. Army and Army Reserve. I have served in eight U.S. embassies--
from Paris to Baghdad--as well as in numerous positions in Washington, 
D.C. I have advocated for U.S. interests across the globe and worked 
with allies and the international community to pursue joint goals. At 
present, I am Deputy Assistant Secretary of State for the Maghreb and 
Egypt.
    As Secretary Pompeo said last year, ``Jordan is one of the United 
States' enduring strategic partners,'' and from my own past service 
there, I know this to be true. American-Jordanian friendship advances 
U.S. interests, as does Jordan's path of modernization and its example 
of moderation. The Government of Jordan's choices have brought its 
people real benefits, as shown by Jordan's 98 percent literacy rate, 
74-year life expectancy, and 1 percent child mortality rate. Yet, 
despite these successes, Jordan has suffered a series of external 
shocks over the last decade--such as the Syrian civil war and the fight 
against ISIS, and more recently, COVID-19--that have battered its 
economy.
    The U.S. priority in Jordan is to help the Kingdom's economy 
recover in a way that ensures its stability and security. Economic 
growth in Jordan slowed from 8 percent in 2007 to about 2 percent in 
2011, when the country was hit by regional disruptions caused by the 
Syrian crisis. It had remained at that level until COVID-19 forced an 
economic shutdown. Nevertheless, Jordan has stepped up to the 
challenge. Its 2020 budget contains concrete, meaningful reforms to 
stimulate the economy, and the Jordanian Government's decisive response 
to COVID-19 should enable it to begin safely reopening its economy. If 
confirmed, I pledge to work with you, with all the tools the U.S. 
Government has, with international organizations like the IMF and the 
World Bank, and with the international community, to help Jordan create 
a stable and growing economy. Thanks to your strong bipartisan support, 
U.S. economic assistance to Jordan in FY 2019 exceeded $1 billion, 
including $745 million in direct budget support that bolstered the 
Kingdom's economy as it implemented reforms and reduced budgetary 
strains.
    Our partnership with Jordan has long included military 
collaboration. Jordan has been a leading member of the Global Coalition 
to Defeat ISIS and has more broadly been an invaluable ally in our 
joint work to counter terrorism, support international peacekeeping, 
and provide humanitarian assistance throughout the region. Jordan is 
the third largest recipient of Foreign Military Financing, with our 
support focusing on the implementation of the Jordan Armed Force's 
five-year plan for modernization, readiness, and enhanced 
interoperability among Jordanian, U.S., and NATO forces. Our military 
assistance furthers Jordan's place in the region as a bastion of 
stability.
    Beyond Jordan's value to the United States as a strategic partner, 
the Kingdom has proven itself a kind and generous neighbor. Not only 
does Jordan promote peace in the region, but throughout its history it 
has welcomed millions of refugees from neighboring countries, including 
hundreds of thousands of Syrians. I am proud the United States has 
contributed nearly $1.5 billion dollars of humanitarian aid to refugees 
and host communities in Jordan since the Syria crisis began, and that 
the United States has assisted Jordan in hosting refugees from Iraq, 
Yemen, and scores of countries. If confirmed, I will continue to 
advocate for humanitarian assistance in international fora to promote 
burden sharing and ensure we collectively provide for those in need.
    If confirmed as the next U.S. Ambassador to the Hashemite Kingdom 
of Jordan, I will continue to strengthen our partnership with the 
Government of Jordan and the Jordanian people, especially as the 
country works to recover from the COVID-19 pandemic. To reflect the 
face and values of the United States, I will recruit, hire, and 
maintain a diverse Embassy team. I will prioritize the safety of the 
over 23,000 U.S. citizens residing in Jordan and the over 100,000 
American tourists traveling there yearly. To protect and advance U.S. 
interests, I will proudly lead the nearly 1,000 American and local 
staff at our Embassy. And, I will have a special duty to ensure the 
security of the nearly 500 American family members in our Embassy 
community.
    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, if confirmed, I will do my utmost to honorably represent the 
United States of America to the Hashemite Kingdom of Jordan and its 
people. To do this and ensure the most informed and effective foreign 
policy, I look forward to continuing my engagement with you and other 
Members of Congress.
    I thank you for the opportunity to appear before you today, and I 
look forward to your questions.


    Senator Barrasso. Well, thank you very much. We appreciate 
it. Congratulations, again. And we look forward to the 
questioning in a few moments.
    We have had a total of nine Senators on this to hear your 
testimony and that of the other nominees, and some of them may 
not be able to stay through all of the questioning. We will 
have 5-minute rounds, and I will begin and then turn to Senator 
Booker. But, in addition, Senator Gardner, from Colorado, and 
Senator Young, from Indiana, Senator Romney, from Utah, are on, 
as well as Senator Shaheen, from New Hampshire, Senator Murphy, 
from Connecticut, Senator Kaine, from Virginia, and Senator 
Coons, from Delaware. So, there is a lot of interest in this 
hearing and in the nominations of all of you.
    What I would like to do is start with my questions, and 
specifically with Mr. Ramsey Day. And want to focus right now 
on Mr. Day on a couple of issues relating to energy development 
in Africa. Because, worldwide, 840 million people are living 
without electricity, 573 million of them live in sub-Saharan 
Africa. And I think about what--the challenges that you are 
going to be facing, Mr. Day, because energy development can 
help lift people out of poverty and improve their education, 
their health, their well-being. And developing countries 
desperately need access to a steady supply of affordable, 
reliable electricity to support their economic growth.
    Can you tell me about your commitment to helping countries 
use all energy resources in order to promote economic 
development and reduce poverty in Africa?
    Mr. Day. Thank you, Senator. And thank you for your 
leadership on this issue. It is an absolutely critical issue on 
the African continent.
    USAID has been a leader in this field with the launch of 
the Power Africa Initiative several years ago. The Trump 
administration has doubled down on Power Africa. We call it 
Power Africa 2.0. And the initiative has been extremely 
successful. There have been over 120 transactions that have 
been supported by Power Africa, and they have connected 13 
million homes, and over 60 million people now have electricity 
that did not have it prior to the initiative. And we are also 
advancing overall two-way trade between the U.S. and Africa 
through the Trump administration's Prosper Africa Initiative, 
which is kind of an all-encompassing and multi-sectoral 
initiative. But, this is one of the key elements of our 
approach towards development, is to engage the private sector 
so that there are benefits both to African development, but 
also to U.S. businesses. But, we are absolutely committed to 
the Power Africa Initiative, and it has been successful, and we 
are going to continue to support it.
    Senator Barrasso. Well, thank you. I would like to add, for 
all of the members here, that Senator James Risch, from Idaho, 
who is the Chairman of the Foreign Relations Committee, has 
joined me in my office, because he wanted to look at the 
behind-the-scenes--of how we are working this, and with the 
staff here doing all of that, as well as the questioning, and 
see how it would look from sitting there from the position of 
chairing the subcommittee.
    So, Senator Risch, we welcome you as part of this 
discussion and subcommittee hearing.
    I would like to turn now, Mr. Day, to the question of 
coronavirus in Africa. For more than 50 years, USAID's global 
health programs have been focused on saving lives, protecting 
vulnerable populations from disease, promoting stability in 
nations around the world, and specifically also with Africa, 
because the United States has worked extensively with African 
nations to strengthen public health systems in order to fight 
HIV/AIDS, malaria, tuberculosis, Ebola, other infectious 
diseases. The world is now facing a global pandemic due to 
coronavirus. So, the disease could be, my concern, particularly 
devastating to Africa because of the fragile health system, the 
limited resources, some existing insecurity from civil 
conflict. You know, as the Ambassador in this position, what 
could be your--what would be your plan for managing and 
coordinating the COVID-19 resources for Africa?
    Mr. Day. Yeah. Thank you, Senator.
    You are absolutely right. The U.S., through USAID, has been 
a leader in global health and humanitarian assistance. In fact, 
if you add up two of the donors--two, three, and four--they 
still do not add up to the commitment of the American taxpayer 
to supporting global health and humanitarian assistance around 
the world. And COVID-19 is no different in that respect.
    I think what is interesting about COVID-19 in Africa is 
that I think the impacts are going to be multidimensional, in 
that there will certainly be a health crisis--that is obvious--
but, it is unclear to us exactly what that impact is going to 
look like. You know, right now, there are about 65,000 
confirmed cases across the African continent. We have to assume 
that there are significantly more cases than that. And so, it 
is yet to really unfold what the health crisis looks like on 
the African continent; however, we certainly know there is 
going to be economic distress, if not economic devastation. So, 
the second-and third-order impacts of COVID-19 are something 
that we are watching very, very closely.
    We have already committed significant resources, about $200 
million or so, towards supporting COVID-19 response in the--on 
the African continent, but what we will still ultimately have 
to do is prioritize our assistance. So, we always are going to 
look at it from a needs perspective, and root it in the 
President's National Security Strategy. And then we have to 
look at: Where can we make the biggest impact? Who is going to 
be most vulnerable? Where can we save the most lives? Which 
governments are going to be most committed? And so, we will 
have to go through a prioritization process, which our USAID 
COVID-19 Task Force is currently doing now. But, we are 
absolutely committed to supporting our African partners on 
this. And, if I am confirmed, I certainly look forward to 
working with Members of Congress and our African partners, 
because I--if I am confirmed, this will certainly be the top 
programmatic priority for the foreseeable future for USAID.
    Senator Barrasso. And then, as you mentioned, the largest 
contributor would be the United States compared, I think you 
said, more than two, three, and four combined. So, of course, 
you would expect this committee to also be wanting to make sure 
we had a--adequate accountability and oversight of those funds.
    I am going to ask a last question. And it has to be the way 
target. China has been targeting investments in African 
countries in order to expand their own political, economic, 
strategic goals. I mean, every time I am in Africa, I see 
direct evidence of what China is doing. I hear it when I talk 
to leaders there. Almost, you could call it, ``debt 
diplomacy,'' where they put countries into debt and then want 
back from them resources, concessions, equity in strategic 
important assets. Could you address that? And then I want to 
turn to Senator Booker.
    Mr. Day. Sure. Of course. Thank you, Senator.
    This is an incredibly complex and important issue that we 
are dealing with on the African continent. If you look at the 
U.S. model versus the Chinese model, it is two completely 
different models. Ours is based on locally-led solutions, 
enterprise-driven development based on transparency and 
accountability, and really focused on citizen-responsive 
government. The Chinese model is the complete opposite of that. 
It is opaque, and, in many cases, it rewards corruption and it 
drives African countries into unsustainable indebtedness. And, 
in many cases, we have seen where sovereign assets have been 
used to collateralize many of these loans.
    So, unfortunately, I also think that, all too often, 
African countries, they look to the U.S. for a lot of the 
social programs, but then they go and do business with China. 
And I think that is where we really have to look at the 
balance. Our values and our principles are certainly going to 
dictate that we are going to continue to support our African 
partners, from a social-program perspective, all the global 
health programs that we have, all of the humanitarian 
assistance, the development programs. But, at the same time, I 
think there needs to be a balance, because they are looking to 
China to do business, but they are looking to the U.S. for 
these social programs. So, this will be something that I think 
we are going to have to watch very closely, but we have to be 
very clear, in terms of how we articulate our model versus the 
Chinese model, and also other malign influences, as well, that 
are continuing to emerge on the continent.
    Senator Barrasso. Well, I appreciate your focus on this and 
your keen observations about what is happening there. Thank 
you.
    Senator Booker.
    Senator Booker. All right. Mr. Chairman, can you hear me?
    Senator Barrasso. Yes. Very well, thank you.
    Senator Booker. Thank you.
    I would like to direct my first question to Ms. Clark. In 
Burkina Faso, there are 11 ventilators right now for roughly 20 
million people, and the country is among the hardest hit by the 
coronavirus on the entire continent. Meanwhile, there is a 
surging conflict we see that is targeting the Government and 
the hundreds of thousands who have fled the violence and 
squeezing together in very difficult conditions, although they 
are supposed to be sheltering apart. I was there in Burkina 
Faso with some other Senators in early 2018, and we met with 
President Kabore and--where he was committed to the growing--
really, Burkina's democracy. We left, excited about the hope 
and the promise within that nascent democracy, and were really 
grateful that they were eager to continue the partnership with 
the United States.
    And I guess my first question is, What are the implications 
now, understanding some of the fragility within Burkina Faso--
what are the implications of the worsening armed conflict, this 
internal displacement crisis, combined with the COVID-19 
caseload, on Burkina's nascent democracy?
    Ms. Clark. Thank you very much, Senator, for that question.
    You are right to point out that there are many different 
forces that are impacting Burkina Faso at this moment. They 
have been hit by the coronavirus, and, working with USAID and 
the Centers for Disease Control, we are helping the Burkina 
Faso Government and helping others to respond to that--to that 
crisis.
    At the same time, the terrorist attacks and the instability 
caused by that has continued, and the numbers of internally 
displaced people continues to increase. So far, though, the 
numbers of coronavirus at least officially reported are--from 
last week, were approximately 744 cases. And so, I think some 
of the efforts have perhaps yielded some success so far in 
containing the virus spread. But, certainly, the impact that it 
will have on the economy from decreased economic activity and 
decreased trade will be very important to follow. And we will 
have to work with all different players, all the different--
that we have to----
    Senator Booker. And, Ms. Clark, if I can interrupt real 
quickly--I am sorry--what are your thoughts about the 
likelihood that national elections will actually take place in 
2020 at the end of the year?
    Ms. Clark [continuing]. Thank you, Senator. As far--so far, 
the Government has said that it wishes to continue with having 
the elections next year and--later this year, rather--and I 
believe that that would be very important--those elections will 
be very important to ensure the solidification of the democracy 
that was started, that is very--still young in Burkina Faso. 
But, you are right to point out----
    Senator Booker [continuing]. Thank you, Ms. Clark. I am so 
sorry. I just have 5 minutes, and I----
    Ms. Clark [continuing]. Oh, sorry, sir.
    Senator Booker. No, no worries.
    I would love to move on to Ms. Brown, real quick. Just 
given my concerns about Uganda right now, and leaders who are 
trying to exploit this crisis for political ends, we have 
seen--their President has been in office for about three 
decades, and is seeking to--seeking reelection. But, in an 
earlier interview, he suggested it would be madness to hold 
elections in 2021. And so, how do you think we should respond, 
as a country, if the Ugandan Government postpones the 
elections? And should evidence of state corruption and reports 
of abuse--torture, the unlawful killings by security forces--
draw, you know, real scrutiny of our close, you know, bilateral 
relationship that we are having with them? And should the 
United States security forces respond against, sort of, the 
opposition politicians and supporters to support them in--as 
they prepare for elections?
    Ms. Brown. Thank you, Senator, for your question.
    The issues you have raised are critical for Uganda and a 
priority for our engagement, and for our--going forward. I am 
familiar with the press report that you referenced.
    Apologies. I have incredible feedback, so I will pause 
periodically----
    About the date of the elections, looking at the full 
transcript, my understanding and, I think, what a lot of people 
are saying is that President Museveni is committed to holding 
the elections in early 2021, but that will be determined on 
the--on whether or not they are able to continue to curb the 
spread of COVID-19.
    As I mentioned in my remarks, holding the election, making 
sure that the process is free and fair and transparent, and 
that all the voices are heard, is extremely important. USAID 
has already identified fundings to work on democracy programs. 
I know that the State Department's Bureau of Democracy, Human 
Rights and Labor has also set aside fundings to work with 
Ugandans and with civil society in ensuring that the process is 
smooth, that it is free of coercion, that we do our best and 
work together with civil society to minimize any violence 
against individuals.
    As Uganda seeks to build the economy to come out of this 
current pandemic, I think holding elections in a timely 
fashion, ensuring that there is full participation, that there 
is no abuse, I think, is extremely important to having--to 
building confidence among the public in the system. Ultimately, 
it is up to the Ugandan people to elect their next leader. But, 
as I said, Uganda has a very, very young population, and 
whichever leader is elected, I believe that person has to think 
about the future and what is right for the country, and 
certainly multiparty democracy, where the rights of all are 
respected, where anyone who commits a human rights abuse, that 
that is investigated, that the legal system is used, if 
necessary, that that is extremely important.
    And I will add to that that the United States, in the past, 
when there has been evidence of human rights abuses, we have 
sanctioned individuals, and that certainly is a tool that, if 
confirmed, we will consider that--applying that, if necessary.
    Thank you.
    Senator Booker. Thank you, Mr. Chairman. Thanks for 
indulging me to go a little bit over.
    Senator Barrasso. Thank you so much, Senator Booker.
    Now I can turn to Senator Young.
    Senator Young, are you still on?
    I think Senator Gardner has stepped off.
    Senator Young. I am. I am here, Mr. Chairman.
    Senator Barrasso. Great.
    Senator Young. Thanks so much.
    I want to thank all our participants in today's panel.
    So, Mr. Day, China's Belt and Road Initiative is forging a 
web of intertwined economic, political, and security ties 
between Africa and China, advancing Beijing's geopolitical 
interests. China's policy of employing Chinese labor for its 
infrastructure projects in Africa has resulted in somewhere 
around 200,000 Chinese citizens working on One Belt, One Road 
contracts across the continent. Given the strategic nature of 
those investments, such--investments in ports, in railways, oil 
and gas pipelines--some African Governments view attacks on 
Chinese interests as a threat to their own national interests 
or their own national security. How are you thinking about this 
challenge of countering Chinese influence on the continent, 
sir?
    Mr. Day. Thank you, Senator.
    Again, it is an incredibly important issue, and something 
that we spend a lot of time thinking about and are 
incorporating into our various approaches and strategies. And 
the--again, similar to my comments before, we have really been 
seen by African partners as the health and humanitarian 
assistance partners, and it is incredibly important to me that 
we broaden that perspective. We really have not been engaged on 
an economic level. Roughly around 1 percent of our overall 
trade and investment goes towards Africa. So, we are launching 
initiatives that can help support American companies in their 
interests on the African continent--their commercial interests 
on the African continent.
    One thing that I think is incredibly important, though, is 
that all of this is rooted in democratic principles, meaning it 
is--we are not going to be very successful in convincing 
American companies to go to the African continent, which, oh, 
by the way, has, certainly, benefits on the benevolent side, 
but also has benefits to American jobs and American businesses, 
and also counters China's malign influence. But, we are not 
going to be very successful if we cannot convince these 
American companies to go. And what they are going to be looking 
for is the principles of democracy, rule of law. How can they 
get their money in, how can they get their money out? So, it is 
one of our key pillars of our overall strategy is to engage our 
African partners so that we can transform this relationship 
from an aid-based relationship to one that is really based on 
economic cooperation, diplomatic cooperation, security, et 
cetera. So, this is something that--it is going to be one of my 
top priorities, if I am confirmed.
    Senator Young. Is there--and I apologize if the Chairman 
went down this line of questioning earlier--but, is there 
anything that we can improve upon as it relates to educating 
African leaders regarding the threat of debt-trap diplomacy, 
debt-trap development associated with the Belt and Road 
Initiative?
    Mr. Day. Yeah, it is an excellent question. I think----
    Senator Young. I know transparency is important, and the 
IMF and other multilaterals have been helpful in providing 
technical assistance to some of these governments so they do 
not get themselves into a debt trap. So----
    Mr. Day. That is right.
    Senator Young [continuing]. That is one potential solution, 
but are there other things we might do?
    Mr. Day. Sure, sure. It is an excellent question, and one 
that we will--if I am confirmed, we will certainly work closely 
with our State Department colleagues. My personal opinion is 
that we need to sharpen our other elbows a little bit, and that 
we need to be very clearly communicating what our model is 
versus other malign influence--the models of malign influences. 
And so, we have engaged in some activities. We have supported 
the Africa Legal Support Fund, which does some, kind of, deal 
analysis. And so, we can look at increasing those types of 
activities, where it--where we do have knowledge of particular 
deals, we can actually look--do some legal analysis and then be 
able to communicate some perspectives on whether or not this is 
a good deal or a bad deal or could be putting you in a 
situation of unsustainable debt.
    But, again, I think our African partners, they want to do 
business with us, and that has been something that has been 
clear for quite some time. But, the consistent message that we 
get is that we are just not there, in a commercial sense. And 
so, that is what, if I am confirmed, is going to be one of my 
top priorities in working with our State Department colleagues, 
and Treasury and Commerce and others, to ensure that we are 
doing everything that we can to help de-risk some of the 
opportunities for American businesses.
    Senator Young. Sounds like the right approach. Thanks so 
much.
    Mr. Chairman, I yield back.
    Senator Barrasso. Thank you very much, Senator Young.
    Senator Shaheen.
    I think you have to unmute.
    Senator Shaheen. Can you hear me?
    Senator Barrasso. Now we can, yes, thank you.
    Senator Shaheen. Okay, great.
    My first questions are for Mr. Grayson.
    Mr. Grayson, I have had the chance to visit Estonia. I 
appreciate that it is in a very challenging part of the world. 
And we have seen increasing signs of Russian aggression in the 
Baltic region, including a buildup of their military forces in 
the areas bordering the Baltic states. I wonder if you think 
that U.S. and NATO forces presence in the Baltic region is 
enough to deter Russian aggression there.
    Mr. Grayson. Senator, thank you for that question. It is 
certainly a critical issue for Estonians. That eastern flank 
and border is the tripwire for NATO. So, that is very 
important. The U.K.-led enhanced forward-presence battalion is 
certainly comforting to the Estonians. And the administration 
and the President continue to view Article 5 as ironclad, and 
our involvement in NATO, as such. And so, the United States and 
the administration will fully support whatever needs that the 
Estonians have.
    Senator Shaheen. Thank you. You talked about Estonia's 
innovation and how wired a country it is. It is also one of--
considered one of the most stable democracies in--of the former 
Soviet Republics, and has had a very strong reputation for 
forward-looking economy, for really sharing our values when it 
comes to democracy. And yet, the far-right Conservative 
People's Party of Estonia has tripled its share of seats in the 
parliamentary elections last year. And I think that surprised a 
lot of people--including myself--who were used to Estonia's 
reputation. I wonder how you assess the rise of populism in 
Estonia, and whether that threatens their forward-looking 
towards western Europe and our shared values.
    Mr. Grayson. Senator, thank you for the question on both 
those topics.
    First, the e-Estonia. It, certainly since its emergence 
from Soviet occupation in 1991, has been one of the great 
innovators and leaders in digital technology. And, as you 
pointed out, you know, some of the economic factors--lowest 
unemployment, highest GDP, lowest debt-to- GDP, innovation on 
e-residency, e-taxes, e-health, e- everything--so they have 
really been a star in that regard. And as--if I am confirmed, 
the administration and the State Department and everybody who 
interacts with the leadership in Estonia understands that there 
are multiple parties, and that the far-right party did emerge 
with greater numbers in this past election, but it would be my 
job, if confirmed, to work with all parties to continue to 
advance our agenda in Estonia.
    Senator Shaheen. Spoken like a true diplomat, thank you 
very much.
    My next questions are for Mr. Wooster.
    Jordan strongly objects to Israeli unilateral annexation of 
territory in the West Bank, Mr. Wooster, and we have just seen 
that Prime Minister Netanyahu and his main opponent in the last 
few elections--Mr. Benny Gantz--has agreed to a power-sharing 
relationship that includes asking Parliament to vote on 
annexation of settlements in the West Bank. And I wonder what 
you think that would do to our relationship with Jordan. Prime 
Minister Netanyahu has said that he can go forward with that 
because he has the support of the President and the U.S. 
administration.
    Mr. Wooster. Thank you, Senator. Obviously, a germane 
issue.
    The Secretary was in Jerusalem today. In public remarks 
there, he said, ``There remains work yet to do.'' So, that 
captures, really, all of it. I know it is not a very satisfying 
response, but I do not want to get ahead of him.
    That said, in response to your question, yes, Jordan has a 
stake in any peace effort. The Jordanians have raised some 
concerns on behalf of themselves and on behalf of Palestinians. 
The administration has asked the Jordanians to encourage the 
Palestinians to bring those concerns to the negotiating table.
    Senator Shaheen. Well, thank you. And, as you pointed out 
in your opening statement, Jordan is a very important player in 
the Middle East, and our relationship with Jordan is very 
important. But, we are seeing some troubling signs, in terms of 
concern among the Jordanian population about the institutions 
in Jordan and about what is happening within the country with 
the increased number of refugees, and what that means for the 
average citizen. So, can you talk about how, as Ambassador, you 
can work to support Jordan as they are dealing with some of 
these very difficult challenges?
    Mr. Wooster. Yes, Senator. Since its founding, Jordan has 
weathered internal and external crises. In fact, the magnitude 
of the crises, particularly the external ones, that they have 
weathered has been remarkable. It is not something that any 
country would want. I am thinking, in particular right now, the 
ongoing Syrian crisis since 2011. So, as a result of these, we 
can call them, I think, ``exogenous shocks,'' because that 
captures pretty accurately what they are. As a result, the 
Kingdom's trade has been disrupted, hundreds of thousands of 
refugees, perhaps more, have taken sanctuary in Jordan, and 
economic growth, of course, has suffered. To say that the 
economy is lackluster as a result is being, maybe, too 
gracious.
    So, Jordan's going to require continued assistance. The 
good news is, its leaders recognize it needs to continue 
reforms to reinforce stability and to achieve self-reliance. 
These are not just in the security realm, or even, for that 
matter, exclusive to the economic realm, they of course cut 
across political, security, economic areas. King Abdullah has 
outlined some of these reforms, including freedom of expression 
and allowing the emergence of independent and policy-focused 
political parties.
    Senator Shaheen. Well, thank you very much.
    And thank you, to all of the nominees today, for your 
willingness to be considered for these very important posts at 
this critical time.
    Thank you, Mr. Chairman. I think I am out of time.
    Senator Barrasso. Thank you so much, Senator Shaheen.
    And Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    Mr. Wooster, I am going to continue with the line of 
questioning that Senator Shaheen began with regards to Jordan.
    We have, of course, a very special relationship with 
Israel. My guess is that all the members of this committee have 
been there multiple times, and we feel very deeply about a 
nation which shares our values in many respects, as Israel 
does.
    We also--a very important and--well, a key relationship 
with Jordan, and I would anticipate that sometimes the--
balancing both those relationships could be a particular 
challenge. Right now, as you point out, a lot of issues are 
faced by the Jordanian Government and by the King, not only as 
they relate to Israel, but as they relate to the Syrian 
refugees, to their own economic challenges, and so forth.
    And I guess the question is, Does the administration, as 
you understand it--and the State Department and you 
personally--do you feel that our relationship with Jordan is 
also key and, therefore, that, in fashioning our policy as it 
relates to the Middle East, and particularly as it relates to 
Israel and the region, that we need to be very, very careful 
that we do not put Jordan in a position where they might be 
inclined to draw away from us in some way? They obviously play 
a very--a key role. They have with regards to security, with 
regards to intelligence-sharing, and so forth. And the King 
would be under pressure, given the fact that the majority of 
its population is Palestinian. And, of course, with the peace 
plan that the administration put forward, there was a lot of 
resistance on the part of the Jordanian Palestinians.
    And so, I am concerned about the relationship we are going 
to try and maintain with Jordan. And I would be interested in 
your thoughts about how we maintain that and do not in any way 
signal that we only care about one of the two neighbors, but we 
care about both in a very substantial way.
    Mr. Wooster. Thank you, Senator.
    As you have made clear in your remarks, this is--you 
recognize, and I think all observers of this scene do--the 
relationship between those two countries is interdependent. 
Israel cannot be secure without the buffer that Jordan 
provides, and Jordan is not going to be likely very viable in 
terms of its own stability and economics as well, without a 
friendly Israel next door. So, I think all of us are awake to 
that. I cannot speak for Israel, and I cannot speak for Jordan, 
but, having served out there, I know that people are eyes-wide-
open about the realities.
    So, Jordan and Israel--I think it is important for us to 
establish as a baseline--they have been at peace for over 25 
years, since they signed an historic peace treaty in 1994. 
Security cooperation between the two countries remains strong, 
and it does so because it addresses the concerns of both 
countries. Politically, no secret, relations have been strained 
over the last few years, and those tensions carry a cost with 
them, including in missed economic opportunities--or, to 
restate that, opportunities for economic cooperation that would 
benefit both of those countries. So, the U.S. Government, we 
remain committed to strengthening diplomatic, economic, and 
people-to-people ties between both Jordan and Israel.
    In terms of the treaty, we continue to--the United States--
we continue to respect that '94 treaty, and that recognizes the 
special role of the Hashemite Kingdom in the--overseeing the 
holy shrines in Jerusalem, and we will continue to work with 
the Governments of Jordan and Israel to identify areas of 
cooperation and mutual benefit. And again, because it is not 
only beneficial for the two of those countries, but, because of 
the paramount concern for American officials: this is in the 
interest of the United States.
    Senator Romney. And from your perspective, is the King, as 
he has been in the past, in some respects above politics or--
and widely respected by the people in the country, and followed 
with great passion and care, or is he under increasing 
pressure, by virtue of the challenges with regards to 
annexation and with regards to the peace plan that was proposed 
by the administration?
    Mr. Wooster. So, the King is a member of the Hashemite 
royal family. He is carrying on a proud tradition which bears 
with it enormous credibility and legitimacy, certainly within 
the Kingdom and also in the region and, of course, here in the 
United States. And beyond that, like any head of state or head 
of government, he is going to--he has to contend with the 
tumult that is attendant to political life anywhere. Things 
come along, and, you know, are you prepared for them, are you 
not? In their case, again, the exogenous shocks are 
overwhelming, but we are confident that they have got the right 
team, politically and economically, to come through this, and 
we are going to make sure of that because the imperative here 
for us is, it is in our interest to see that that happens.
    Senator Romney. Thank you, Mr. Wooster.
    Mr. Chairman, I yield my time.
    Senator Barrasso. Thank you very much, Senator Romney, 
appreciate it.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, to all of our nominees. Thank you, to you and 
your families, for choosing to serve and, for many of you, to 
continue to serve.
    We are going to keep the focus on you, Mr. Wooster, 
continue along the same line of questioning. But, before I do, 
let me note that, though you got your undergraduate degree at a 
second-rate school--those of you who went to Williams College 
know how Amherst fails to measure up, year after year--you have 
made up for it by coming to Connecticut to get your graduate 
degree in New Haven. So, I would give you points for that.
    Mr. Wooster. You are gracious, Senator.
    [Laughter.]
    Senator Murphy. I do not want to leave this conversation 
about the effects of annexation with the sense that we have 
underplayed the level of concern in Jordan. You know, years 
ago, when there were economic protests in Amman, they would be 
centered on the Parliament and on the elected leaders. Now 
those protests show up at the doors of the royal family. And 
so, there is a real worry these days, from the King and those 
that serve him, that, you know, there is a real political 
instability that can increase as the situation in Israel 
continues to move away from a two- state solution.
    So, you said that there are concerns in Jordan about the 
annexation of the West Bank. What are those concerns? What are 
the concerns that they have expressed to us and to the Israelis 
about what would happen in Jordan should Israel move forward 
with annexation?
    Mr. Wooster. Thank you, Senator.
    In terms of what the concerns are, the concerns are that 
the Jordanians would not like to see any unilateral annexation. 
That is a public and repeated and declared position of the 
Jordanians.
    Beyond that, to return to a point I had mentioned with 
Senator Shaheen, the administration has asked the Jordanians to 
encourage the Palestinians to bring their concerns to the 
negotiating table. So, yes, the Jordanians have their own sets 
of concerns. They have expressed those. They have expressed 
those of the Palestinians. And again, our plea, repeated again 
and again, is, ``We have a plan that is detailed, it is 
implementable, it meets the core requirements of both the 
Israeli and Palestinian peoples. Bring your concerns to the 
negotiating table.'' We have called on all members of the 
international community to consider the plan thoughtfully. The 
only realistic path all of us know to getting the Israeli-
Palestinian conflict resolved is through negotiations.
    Senator Murphy. That is correct, but that is not what this 
administration is proposing. They are proposing the unilateral 
annexation, and the endorsement of it by an American 
administration, should the Palestinians and the Israelis not be 
able to proceed to that negotiation.
    But, let me drill down a little bit more on the concerns 
that they have raised. They have raised concerns, the 
Jordanians have, about annexation, as they did about the 
parameters of a possible peace plan presented by the Trump 
administration, because, in part, they worry that that will 
lead to greater instability inside Jordan. With a large 
Palestinian community, the further that we get away from a 
potential two-state future, the greater unrest comes amongst 
that population, creating more of a threat to Jordan's 
stability. Is that not right?
    Mr. Wooster. Well, Senator, obviously there have been 
tensions. That is without going into each and every one of 
them. So, clearly this is--you know, there is a lot of uphill 
sledding here, to keep it in New England terms, if you will. 
But, it is an incredibly important relationship, it is built on 
an historic peace, and we, the United States, will use our good 
offices--again, because of the imperative I mentioned earlier, 
it is in our interest--we will use our good offices to 
strengthen the bonds between these peoples. We do not have any 
other option.
    Senator Murphy. I just hope that you go into this job with 
eyes wide open. I understand you are being very diplomatic now, 
and you are representing an administration that has taken a 
very different position than prior Republican and Democratic 
administrations, but there is going to be a fury in Jordan, 
should this annexation go forward. It is going to make your job 
much more difficult. And I assume, and hope, you know that.
    One final question, Mr. Chairman, for Mr. Day.
    I think that you are right in the way that you have 
approached the questions presented to you regarding how we 
countenance China's increasing role in the continent. You made 
one comment I just wanted you to clarify. You certainly 
remarked that we need to have an alternative. We need to create 
more opportunities for Africa to invest with the United States, 
and let them choose between the offers from the United States 
and the offers from China. But, you also said that you think we 
need to have ``sharper elbows.'' And I just did not quite 
understand what you meant by that phrase. What do you mean by 
``sharper elbows''?
    Mr. Day. Sure. Thank you, Senator.
    I think we need to be a bit more aggressive in how we 
articulate the U.S. model. You know, USAID has done tremendous 
work on the African continent. But, in some cases, we have not 
been the best communicators of the work that we have done. And 
so, I think it will be important, as we move forward, to 
differentiate our model versus the Chinese model, in this 
particular case, but also in--with other malign influences. So, 
we always have been, I think, very, very diplomatic, in terms 
of our--the way in which we communicate to our African 
partners, but we are getting to a place where the indebtedness 
that many of these African countries are seeing is absolutely 
unsustainable. And so, I think that we need to be much more 
clear in how we articulate our model versus the Chinese. And, 
in some cases, we need to be more direct.
    Senator Murphy. I guess I was wondering whether ``sharper 
elbows'' meant, sort of, forcing countries to make a choice 
between the United States and China. There--it is one thing to 
make our argument better, it is another thing to create a 
policy in which we ask countries to make a choice between China 
and the United States. Is that what you are suggesting?
    Mr. Day. Senator, no, it is not a--it is not a binary 
choice. It is really--when I say ``sharper elbows,'' I mean it 
is more about how we are articulating how we do business versus 
how the Chinese do business.
    Senator Murphy. Do business.
    Mr. Day. Yeah, they have multiple choices. And so, what we 
need to do is present the U.S. model as one of many choices. 
And so, if we can help American companies do business on the 
African continent, it will be good for them, good for us.
    Senator Murphy. Sure, that they know what the consequences 
of doing business with China are. That is--I think that is the 
right tack.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Murphy.
    Senator Kaine.
    Senator Kaine. Can you hear me, Mr. Chair?
    Senator Barrasso. Thank you, Senator. Yes, welcome.
    Senator Kaine. And am I up on video now, too?
    Listen, I want to thank the witnesses. This is a superb 
panel. And, Mr. Chair, good work trying to manage the 
technology.
    I do want to continue a little bit with Mr. Wooster, also, 
and then have a couple of questions for Ms. Brown.
    So, Mr. Wooster, thank you. We put a couple of issues on 
the table with Jordan, because I am also very worried about the 
U.S.-Jordan relationship. The King often visits the Foreign 
Relations Committee. And year after year, when we meet in the 
Foreign Relations committee room, he looks us in the face, he 
talks to us about how important the relationship with the 
United States is, and then he says, ``Please do--please advance 
the peace process.'' The fact that they have come out, the 
Jordanian leadership, against the peace plan--and one of the 
reasons they have come out against it is that it was proposed 
with no meaningful involvement by the Palestinians--so, I get 
that we are trying to tell the Palestinians to bring their 
issues to the table, but I think the Palestinians have a 
threshold question: Why was something proposed without our 
involvement?
    Second, the Jordanian leadership has expressed really 
serious concerns about potential unilateral annexation, 
concerns that a number of members on the committee share. But, 
the--a third element is the U.S. decision, unilaterally, to 
cease contributions to UNRWA in 2017. My recollection is that 
the U.S. was the largest contributor to UNRWA before we stopped 
those contributions. Is that not accurate?
    Mr. Wooster. Yes, Senator.
    Senator Kaine. And, Mr. Wooster, what--you were the Charges 
in Amman, is that not correct?
    Mr. Wooster. Yes, sir.
    Senator Kaine. And when was that, that you were the Charge?
    Mr. Wooster. For about 18 months, from 2017 through 2018.
    Senator Kaine. How many Palestinian refugees, 
approximately, live in Jordan?
    Mr. Wooster. The numbers on that differ because of how the 
count goes. There is also sensitivity to it, for the 
demographics, for domestic political reasons. But, I think 
that, Senator, we can say there are an awful lot of them.
    Senator Kaine. Well, was UNRWA providing service to those 
Palestinian refugees in Jordan?
    Mr. Wooster. So, UNRWA was providing services, yes, in the 
form of education in schools.
    Senator Kaine. And so, the U.S. decision to eliminate, I 
think it was, about $500 million a year to UNRWA, that 
definitely has an effect in life in Jordan, at least insofar as 
services that are being provided to Palestinian refugees in 
Jordan are curtailed. And that makes things more difficult for 
the Jordanian Government in, sort of, managing a reality where 
they have not only Palestinian refugees, but Syrian refugees. 
Is that not accurate?
    Mr. Wooster. Well, Senator, it remains the prerogative of 
the United States Government to decide how to appropriate its--
not appropriate--excuse me--how to allocate its resources. 
And----
    Senator Kaine. Right.
    Mr. Wooster [continuing]. We had a lot of differences with 
UNRWA. It was not unique to this administration. There have 
been a lot--this had gone on for decades--a lot of spats and 
disputes with UNRWA and the effectiveness of programming and 
efficiency. So, I cannot make the pretense of telling you I am 
an expert on all the details, but this had been a longstanding 
problem that UNRWA had never resolved.
    Senator Kaine. And I do not raise it to debate whether the 
administration should do that. I would not ask you that 
question. I have an opinion about it. I am just saying that, 
with respect to the situation in Jordan, an ally that we deeply 
want to maintain as an ally, if they are--if they are not 
supporters of the peace proposal on the table, if they are 
worried about the potential unilateral annexation and the 
U.S.'s acceptance of it, and if the U.S. ended funding to an 
agency that was providing support for refugees in Jordan, that 
that latter fact, that that is also kind of a potential 
challenging point right now with Jordan, is it not?
    Mr. Wooster. Well, Senator, no one knows this better than 
the Jordanians--no one is a better friend to Jordan than the 
United States is. And we can say that with integrity. And I can 
look you in the virtual eye and say it. And that is true by 
orders of magnitude. It is not simply a debating distinction. 
It is true if you look at the record. And the record shows, 
again and again and again, and with orders of magnitude, there 
is no friend that is better to the Hashemite Kingdom than the 
United States. So, we do not want these people to be 
beleaguered, and we do not want them left out in the dark. I 
mean, these are allies and strategic partners, and we are going 
to stand by them. We are going to make sure that they are not 
left with a deal that is bad for Jordan, too.
    Senator Kaine. Let me ask Ms. Brown a question.
    Ms. Brown--this is a very qualified panel. I intend, absent 
some big surprise, to support everybody on it--but, Ms. Brown, 
with respect to Uganda, an issue with Uganda that has been a 
point of significant concern has been the treatment of LGBT 
folks in Uganda. We cannot tell another nation how to do their 
domestic politics. They are going to make their own decision 
about domestic policy. But, we have a set of norms that, you 
know, begin with the equality principle; and our institutions, 
like the Supreme Court, have said that that equality principle 
extends to LGBT people. How, in your approach to your 
ambassadorship in Uganda, should you be confirmed, would you 
try to hold up the banner of the U.S. equality principle, 
including equality to LGBT people who are beleaguered in that 
country?
    Ms. Brown. Thank you, Senator, very much for your 
question--a really important issue. If confirmed, I would be 
guided by the U.S. position, which you just articulated, in 
which we condemn violence and discrimination targeting 
vulnerable populations, including LGBTI individuals. My 
understanding is, the U.S. Embassy in Uganda has long 
maintained a relationship with the LGBTI community--and we have 
not shied away from speaking out when these--when this groups--
well, these groups have been targeted or abused. If confirmed, 
I would make it a point to continue to engage civil society, 
this community, as well as government officials, which, you 
know, my predecessors have done and which the Embassy is doing 
right now, on the importance of treating everyone equally, with 
respect, ensuring that they are not abused, and making sure 
that everyone can take part in and contribute to Uganda's 
economic and social development.
    I will say that--with regard to any engagement with the 
Government, particularly if----
    I am sorry. Can you hear me?
    Senator Kaine. Yeah, I can. Thank you.
    Ms. Brown. Okay. I would just like to finish, in just 
saying that any engagement with the Government--of course, we 
want to do that. In--you know, in consultation with civil 
society, as these groups currently are more vulnerable, we do 
not want to do anything that is going to create problems for 
them. It does not mean not addressing any--an issue if it comes 
up, but we want to make sure whether or not a public statement 
is helpful or--want to make sure that that is helpful or if it 
is best, at times, to engage in private. And I will say that I 
know that some Ugandan politicians have periodically raised, 
you know, creating laws against LGBTI individuals, but I have 
no indication right now that that is a serious consideration by 
the Government. And we will certainly monitor and make sure 
that these groups continue to be protected and are free to live 
their lives as they like.
    Thank you.
    Senator Kaine. Thank you.
    And, Mr. Chair, I will just say, in conclusion, that I have 
certainly heard from LGBT activists in other countries around 
the world that, though their government may be cracking down on 
them when the U.S. Embassy or Consulate treats them with 
respect, includes them, has them to events, that is enormously 
powerful and appreciated by LGBT activists. We cannot affect 
the laws that other countries do, but if we treat people with 
respect, and countries value the relationship with us, that has 
an example.
    So, thank you, Mr. Chair. I yield back.
    Senator Barrasso. Thank you very much, Senator Kaine.
    Senator Coons.
    Senator Coons. Thank you, Senator Barrasso, Senator Booker, 
for holding this virtual nominations hearing. It is wonderful 
to be on with you. When I was the Chairman of the Africa 
Subcommittee for a number of years, I enjoyed confirmation 
hearings such as this, and appreciate the chance to connect 
with all of you.
    I have been to and visited the U.S. Embassy, and stationed 
in literally every one of the countries you are nominated to 
represent us at in ambassadorial roles, and look forward very 
much to working with you, and, to Mr. Day, in your USAID role. 
So, all of you, you know, should you be so fortunate as to be 
confirmed by the Senate, thank you, to you, to your families, 
for the willingness you have demonstrated to step up and serve 
our Nation. And, for those of you have long careers in the 
Foreign Service, for the ways in which that sacrifice has 
continued over many years, I have such deep respect for the 
work that you do, and am grateful for a chance to briefly 
question you.
    It was not my intention to sit here, but that is literally 
a ``chawarra'' that I got in Burkina Faso, over my shoulder, 
which I just noticed, in looking at it, Ms. Clark.
    Mr. Day, if I might, I just had a good phone call yesterday 
with Acting Administrator Barsa. One of his priorities for 
USAID is reorienting USAID into a post-COVID world. We talked 
about a bill, that Senator Graham and I have led and is now 
law, called the Global Fragility Act. And global fragility 
requires us to develop a strategy, a long-term strategy to deal 
with fragile areas, such as the Sahel, in which Burkina Faso 
certainly sits, among others. I would be interested, if I 
could, Mr. Day, in your comments on what your priorities are 
for reorienting USAID response in Africa during and post-
COVID--you may have covered this while I was on another call, I 
apologize--and to hear how you view working with my office and 
Senator Graham's office in implementing the Global Fragility 
Act.
    And I note the Chairman is yawning visibly as I was 
questioning you.
    [Laughter.]
    Mr. Day. Thank you, Senator Coons.
    Senator Coons. John, I have that effect on so many of my 
colleagues.
    [Laughter.]
    Mr. Day. Senator, number one, thank you for the----
    Senator Barrasso. I was thinking of some of those long----
    Mr. Day [continuing]. Senator, thank you so much for the--
--
    Senator Barrasso [continuing]. Flights you and I have had 
together over Africa.
    Senator Coons. Mr. Day. My apologies.
    Mr. Day. That is all right.
    Senator, thank you so much, not only for the question, but 
also for your, just, tremendous leadership on Africa issues. I 
know that my former boss, Mark Green, enjoyed, immensely, 
working with you and your team. And I hope to continue working 
closely with you and your team on all of these important 
issues.
    Perhaps I will start with the Global Fragility Act. We are 
very excited about this. USAID will take one of the leadership 
roles within the interagency. We are in the process now of 
developing the strategy, which due--is due in September, and 
that is on track.
    One of the things that I think is so exciting about the 
Global Fragility Act is that it really will push us to look at 
a multifaceted approach to countering violent extremism and 
fragility on the African continent. One, we have focused a lot 
on treating many of the violence and conflict areas, what I 
would call, kind of, symptoms, if you will, meaning the 
humanitarian assistance and a lot of our health programming. 
But, it also is going to push us to look at some of the root 
causes. And that is what is absolutely critical about this 
issue, is that you cannot just treat the symptoms, you have got 
to also look at the root causes.
    And so, we--when we look at many of the fragile states 
around Africa--and obviously we are thinking about not only the 
Sahel, but Somalia and South Sudan--and there are also some 
that very well may be fragile in the future. I am deeply 
concerned about countries like Tanzania that have seen pretty 
significant backsliding on the democracy front. And so, the 
Global Fragility Act will be an important, kind of, authorizing 
tool to make us look at not only those--the symptoms of 
conflict and violence, but also looking at the root causes.
    But, we will have to work closely with our African 
Government partners. And this is where, kind of, some of the 
analysis that we have done on levels of commitment--for 
example, in Burkina Faso and Niger, we really see significant 
levels of commitment. So, those are areas where we can really 
believe we can get some work done. Much more complex in Mali, 
which is where a lot of the instability is emanating from. But, 
one of our strategies, of course, is to do everything that we 
can to support Burkina Faso and Niger to create as much of a 
firewall as we can from that--creeping down into the littoral 
states of Togo, Benin, Ghana, and Cote d'Ivoire. So, this is 
something that will be, I think, incredibly important for us.
    In terms of COVID-19 and our approach towards that, I 
mentioned, a little bit earlier, that, you know, we are 
certainly watching closely the health impact of COVID-19, but 
it is a bit unclear as to how it is going to actually unfold on 
the African continent. And so, we are watching it very, very 
closely. But, what we do know is that the economic impact is 
going to be significant, if not devastating.
    The third-order impact that I am deeply concerned about 
that I made reference to earlier is that we also have a lot of 
authoritarian leaders around the continent who may be looking 
to take advantage of this opportunity----
    Senator Coons. Absolutely.
    Mr. Day [continuing]. To consolidate their power, to look 
at ways in which they can repress free media, suppress 
opposition, look--crack down on civil society. So, that is 
something that we are going to have to really focus on quite a 
bit, and it is something that is a real concern of mine and, I 
know, my colleagues, as well.
    Senator Coons. Well, thank you. I look forward to working 
with you on these important issues. And I agree with you about 
a number of the countries you mentioned, and your 
characterizations. I will also add Sudan, if I can, to that 
list, where a fragile democratic transition, I think, is under 
real pressure because of the pandemic. I am meeting, I think it 
is later today, with Governor Beasley, of the World Food 
Programme, and I have met with several folks from leadership in 
Sudan, the Prime Minister and others, and am trying to find an 
appropriate path forward for supporting their stabilization.
    I also think Ethiopia is a country of great promise that 
could really be an anchor of stability in the Horn, and I hope 
we will stay in regular touch across all these different 
countries.
    If I might, Ms. Clark, I am going to move to you. I had a 
wonderful and productive delegation. I led a bipartisan 
delegation to Africa. I think this is almost 2 years ago now. 
And we visited both Niger and Burkina Faso. I found the 
Burkinabe to be wonderful partners and to benefit from a 
responsive and engaged leadership at a time when they are under 
enormous pressure. I just thought--I would be interested in 
hearing how you see our work with the Burkinabe and their 
governance and leadership and society, what role you think 
there is for the U.S.-French partnership in the region, and 
what you think are the major challenges as we try to sustain 
their progress in the face of rising violence and jihadist 
attacks.
    Ms. Clark. Thank you, Senator, for that question. And you 
have rightly identified many of the challenges that Burkina 
Faso faces today. And I think, should I be confirmed, I would 
look to use all the tools that we have at our disposal--
diplomatic engagement, working with civil society 
organizations, working with the Government--to promote human 
rights, to help solidify the democracy there, which I think 
will be very important for countering a violence narrative--the 
violent extremist narratives, also working on the economic 
front with my AID colleagues.
    And I just want to say that it would be wonderful to 
continue to work with Ramsey Day, and I agree with what he just 
outlined for the--for our assistance efforts, because I think 
that is really critical. We will have to also work on 
supporting the law enforcement and security forces so that they 
can become more effective in responding to terrorism and, at 
the same time, underscoring the need to respect human rights 
and to have--develop a good relationship with the people that 
they protect. I think right now part of the problem is that 
some of the territory has been ceded, or has been lost, and we 
need to work with our partners to help strengthen and to return 
so that there is the vision of government services, et cetera. 
And I think, working--should I be confirmed, I would work 
carefully and closely with other partners, such as the French 
and other countries that are there, to--so that we could 
jointly--leverage our combined efforts.
    Thank you.
    Senator Coons. Thank you. I look forward to hearing more 
about your work in Ouagadougou. It is a very challenging 
region, and our mission there plays a critical role.
    I do not know how much patience you have got for me, Mr. 
Chairman. I have questions or everybody. But, there is two I 
would like to make sure I get to, if I might.
    Senator Barrasso. Go right ahead, yes. I know we are 
supposed to have a rollcall vote in a few moments, but yes.
    Senator Coons. Ms. Brown, if I might, I have visited Uganda 
a number of times, most recently last August. Your predecessor 
in that post is someone I have followed closely and enjoyed 
working with when she was Liberia and in Uganda. President 
Museveni became president, actually, at the same time that I 
was traversing Uganda as a college student, in an ill-conceived 
foray into a country in the middle of a civil war. And he is 
still hanging on, and has recently said it would be wrong to 
hold a presidential election if the pandemic persists, 
signaling a likely intention to delay the elections.
    How can we work with the Ugandan Government and provide 
appropriate pressure to make them respect the opposition and 
minority voices? As Senator Kaine, the question you got--and I 
hope Ms. Brown is on--as Senator Kaine questioned you about, I, 
too, have been engaged in receptions and events at the Embassy, 
events when I have visited Uganda, I think, three times over 
the last 8 to--8 or so years--so encourage minority political 
party members, human rights activists, journalists. I think 
this is a role that every American post can play around the 
world.
    Ms. Brown, if you are not here--I do not see a video--I may 
simply ask Mr. Grayson if we can slide over to Estonia and--I 
will just briefly say--there we are. Ms. Brown, if you have got 
some--did you get--did you hear my question?
    Ms. Brown. Yes, Senator, I did hear your question.
    Senator Coons. How are you going to get our dear friend, 
Mr. Museveni, the President----
    Ms. Brown. And I will say, if confirmed, I----
    Senator Coons [continuing]. To absolutely follow the 
constitution?
    Ms. Brown [continuing]. Well, first, Senator, again--thank 
you for your question. And, if confirmed, I certainly hope you 
make yet another trip to Uganda, when conditions permit such 
travel.
    I would just like to, kind of, restate what was in my 
statement, in my testimony, and also, Senator Booker had asked 
a similar question to that end. First, the issue of the date of 
the elections. Looking at the transcript, President Museveni, 
as I understood it, said, you know, the plan is to hold 
elections in early 2021, but a lot of that depends on whether 
or not they have been successful in----
    Senator Coons. Right.
    Ms. Brown [continuing]. Curving the spread of COVID-19. 
And, so far, they have been very successful in doing this. The 
reports are that there have been only 122 cases, and no deaths. 
And so, I think that suggests that, if this trend continues, 
that the conditions will exist where you can hold elections in 
early 2021, as scheduled.
    The United--you know, the U.S. Embassy and all of our 
resources, we have been working with civil society, with groups 
to really ensure that the playing field is level, that groups 
have an opportunity to participate, to share their positions, 
so that the electorate is well-informed and can make an 
informed decision. These are messages that have been--the 
importance of this is a message that has been conveyed to 
President Museveni. If confirmed, it is a message that I will 
repeat often and as strongly as possible about the need to have 
an open and transparent process, where the voices of Ugandan 
citizens can be heard and where the electorate can make their 
decision. As I said, ultimately this is a decision that the 
Ugandan people have to make, but, if confirmed, I assure you 
that we will use all of the available resources to make sure 
that their voices are heard and that their will is respected at 
the polls.
    Thank you.
    Senator Coons. Thank you, Ms. Brown. I look forward to 
being an instrument of your will if I can be of any assistance. 
A previous Ambassador--oh, gosh, many years ago now--surprised 
me as I was about to walk into a meeting with the President and 
said, ``You need to tell him that, under the Leahy Act, we are 
going to cut off funding for his''--I think it was his military 
intelligence unit, because they had failed vetting. And I was 
happy to do so. You should always feel free to put visiting 
Senators to work so we can earn our fare.
    Thank you for your willingness to take on this important 
post.
    Mr. Grayson, if I might, briefly, I just--I did not know 
much about Estonia before visiting, a number of years ago, in a 
bipartisan delegation. And I was so impressed with the ways in 
which they have innovated. They have, in large ways, recovered 
from a devastating cyberattack by Russia in 2007, and then 
shown how you can make cybersecurity a real national resource 
and priority. I think they contributed in significant ways to 
our NATO alliance and to our security. And I suspect you, too, 
may have already addressed this in a previous question. I 
apologize. Feel free to be concise, if you wish. How do you 
view Estonia's contributions to our NATO alliance?
    Mr. Grayson. Well, Senator, thanks for the question. And 
you have seen it firsthand, so you know how important and how 
impressive it is. But, the NATO Cyber Center of Excellence is 
the first part, and the activities between EUCOM and the U.S. 
Cyber Command, including all the joint exercises and missions 
between our country and Estonia are quite prolific. And even 
most recently with COVID-19, they have launched multiple 
initiatives, in the Global Hack-a-thon, to incentivize 
Estonians, which they do not need much incentive to do, but to 
really try to find solutions--e-solutions to this global 
pandemic that is facing the world. So, I hope, if confirmed, I 
can further turbocharge this relationship that we have with 
them on cyber issues, e- issues, everything possible that e-
Estonia has become so famous for.
    Senator Coons. And thank you, Mr. Grayson. And I hope you 
will stay in touch. And feel free to update me on their 
developments. I really found it an inspiring country. I had a--
we--a bipartisan delegation, we had a meeting with the head of 
the Estonian armed forces in a long briefing that left an 
enduring impression on me of the role that they are taking on 
and playing in NATO.
    Henry, last, but far from least, if I might. Please give my 
best to Laura. It is wonderful to see a college classmate 
ascend to the position of Ambassador. And you are taking on, in 
Amman, a critical strategic post, one where our relationship 
with the Kingdom, as you said in your opening statement, is 
critical, both in terms of their values, the way in which the 
Hashemite Kingdom continues to welcome and support refugees, 
the ways in which the King, the keeper of the holy sites of 
Jerusalem and a real leader in the Muslim world, continues to 
be an absolutely critical partner for us. So, I would be 
interested--you did speak to Jordan's economic stability. Not 
to be too pointed about it, I am concerned that there is a 
budget request that would significantly reduce aid to Jordan. 
What sort of an impact do you think there would be on Jordan's 
stability and on the U.S.-Jordan relationship if we were to 
sharply reduce U.S. support for Jordan?
    Mr. Wooster. Senator, sharply reduced support would not be 
celebrated, of course, in Amman. But, for understandable 
reasons, if you are referring to the President's budget request 
for FY 21--is that what you are pointing to?
    Senator Coons. I am. The FY 2021 budget reduces aid to 
Jordan by 250 million, if I am not mistaken.
    Mr. Wooster. Okay. So, Senator, Jordan's stability is 
premised on its economic stability. And the stability of the 
Hashemite Kingdom is a U.S. priority. The budget, or this FY 
2021 budget, it seeks 475 million in direct support, sometimes 
referred to as budget support. That is consistent with our FY 
2020 request. The President's FY 2021 request strikes a balance 
between supporting, on the one hand, Jordan's economic 
development, and then ensuring, on the other hand, a modern, 
interoperable military that is capable of continued support to 
U.S. forces and to coalition forces. So, within the parameters 
of the memorandum of understanding, we routinely assess the 
assistance mix to ensure that the request that we have is 
aligned with what we anticipate the future needs are going to 
be. Senator, if confirmed, I pledge to work with you and the 
rest of the members to ensure we have the mix right.
    Senator Coons. How sustainable is the number of refugees 
that Jordan has taken in, you know, on a per-capita basis, 
given the very limited natural resources they have, given the 
dramatic number of refugees who have been in Jordan for 
decades? I have really been struck at their ability to sustain 
and endure--as have several other countries in the region, 
admittedly, but Jordan is an exceptional ally, I think, and 
their ability and willingness to really sustain a significant 
Syrian population, now over many years, has impressed me. How 
sustainable do you think it is, both economically and 
politically? And given that my next meeting is with the head of 
the World Food Programme, how do you see our support for 
refugees within Jordan?
    Mr. Wooster. Well, Senator, the sustainability aspect of 
the question is dependent directly upon the willingness of 
countries to be supportive. So, in our--in the case of the 
United States, that is not really a question. This is a 
priority for us. It is an anchor for us in the Middle East. It 
is a strategic partner. And we also need the international 
community to be on board with us to share this burden--that has 
a pejorative term that I do not mean, but I cannot think of 
something more elegant at the moment.
    Senator Coons. ``Blessed opportunity.''
    Mr. Wooster. Blessed opportunity. Thank you, Senator. The 
United States has provided about one- and-a-half billion in 
humanitarian aid to the organizations that are assisting the 
Syrian refugees in Jordan. And that includes the Jordanian host 
communities. Because you may recall, Senator--I know you have 
visited Jordan before--but over 80 percent of the Syrian 
refugee population are not in refugee camps, they are in 
Jordanian local communities. So, we are very awake to that, and 
we tailored that assistance so that it hits those communities, 
as well. And our assistance supports not just the Syrian 
refugees, but the non-Syrian refugee populations in Jordan from 
over 50 different countries. So, we are going to continue to 
work with the international community to support Jordan in 
giving refugees a dignified life, access to services, and 
opportunities. Again, the imperative here--we always come back 
to this, we anchor in this--it is in the U.S. interest.
    Senator Coons. Thank you. I have visited the Bidi Bidi 
refugee camp in Uganda twice, last August and 2 years before 
that, one of the fastest-growing, open refugee camps in the 
world, where refugees are given an opportunity to own land, to 
farm, to fully integrate into Ugandan society. One of the most 
memorable refugee camp visits I will ever make was with Senator 
McCain and a bipartisan delegation to Zaatari, in Jordan, 
where--it was in the early days of the Syrian civil war, and 
just heartbreaking.
    So, to everyone on the call who has got anything to do with 
our refugee support, as Mr. Day certainly will, and as Ms. 
Clark also will, please just know that is an area of passion 
and interest for me, and please know how much I appreciate the 
work of our Foreign Service and development career 
professionals in remote and difficult and dangerous places. 
Many of you are going to be going to places that are 
challenging. Estonia is--you know, might be challenging, should 
the Russians make a strategic decision, but it is literally one 
of the loveliest countries I have ever been to, absent the 
Russian threat.
    Let me just say, in closing--my apologies--that I am so 
grateful to all of you for your years of dedicated service to 
our Nation, and to your families. And I appreciate the chance 
to question you.
    Thank you for your patience, Mr. Chairman. I look forward 
to supporting all of today's nominees.
    Senator Barrasso. Well, thank you so very much, Senator 
Coons.
    And Senator Booker, do you have any closing comments before 
I wrap it up?
    Senator Booker. They have called the vote. Why don't we 
wrap up?
    Senator Barrasso. Okay. Well, thank you.
    I want to thank all of you for your testimony, for your 
patience in navigating the new process, and willingness to 
serve our Nation. It is my hope that each of you will be 
dedicated to ensuring the safety of Americans, to advancing 
U.S. interests all across the world.
    And, members of this committee, we have had ten members on 
board during the hearing today. members of the committee are 
going to have until 5 p.m. on Friday, May 14th--sorry--May 15th 
to submit questions for the record. We ask the nominees to 
respond promptly in writing to the committee in order for your 
nomination to be considered in a timely manner.
    Thank you again. Congratulations to each and every one of 
you.
    The hearing is adjourned.


    [Whereupon, at 4:23 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
          to Hon. Natalie E. Brown by Senator Robert Menendez

    Question. President Museveni publicly stated this week that it 
would be wrong to hold presidential elections next year if the 
coronavirus persists. If confirmed, what tools do you have at your 
disposal to help ensure that the Government does not subvert the rule 
of law and the will of the Ugandan people related to the 2021 
elections?
    Answer. In considering whether to postpone elections, there should 
be a consensus between political parties, electoral experts, and public 
health officials, and any action should be consistent with Ugandan law 
and Uganda's constitution.The U.S. Mission in Uganda is already 
applying extensive advocacy and diplomatic pressure in coordination 
with other international donors to ensure that the Government does not 
subvert the rule of law. In the past, the Mission has successfully 
leveraged joint diplomatic pressure with allies such as the United 
Kingdom and the European Union to hold the Ugandan Government 
accountable on human rights issues. If the Ugandan Government announces 
intentions to postpone the elections, the U.S. Embassy should engage 
directly and frequently with the Ugandan Government to stress the 
importance of holding the elections in a timely manner and in 
conformity with the constitution. If confirmed, I would look to work 
with like-minded partners, international organizations, and domestic 
civil society organizations to offer technical assistance to help 
create the conditions for safe elections as quickly as possible.

    Question. What U.S. pre-elections and elections support programs 
and activities are currently underway in Uganda? How have they been 
impacted by COVID-19? If confirmed, what additional programs and 
activities will you bring on line to help ensure a credible poll next 
year? What elections related actions will you recommend be taken to 
ensure the participation of youth?

    Answer. The United States is committed to supporting democracy, 
human rights, and good governance in Uganda. These principles are 
enshrined within Uganda's constitution and remain central to the 
aspirations of the Ugandan people.
    The U.S. Mission to Uganda utilizes an interagency approach to 
support the 2021 election process. Through USAID's Strengthening 
Citizens Engagement in Elections (SCENE) activity, the Mission is 
currently supporting a network of 43 Ugandan organizations to generate 
grassroots engagement in the elections. Activities included efforts to 
promote voter registration and electoral reform. The State Department's 
Bureau of Democracy, Human Rights, and Labor (DRL) funds two active 
programs in Uganda. One, a two-year program begun in 2018, is focused 
on protecting freedom of expression and access to information in 
Uganda. The second supports Ugandan women and youth in engaging local-
level government officials to promote free, fair, and transparent 
political processes and good governance. Additionally, DRL and USAID 
are in the final stages of establishing complimentary election-specific 
programming focused on voter education, voter mobilization, and 
citizen-led efforts to ensure violence-free elections.

    Question. Freedom House downgraded Uganda from ``Partly Free'' to 
``Not Free'' in its Freedom in the World 2019 index, citing government 
efforts to restrict free expression, including through surveillance of 
electronic communications and its social media tax. What tools exist 
for the United States to help ensure internet freedom? What U.S. 
assistance programs will you use to if confirmed will you use to help 
ensure Ugandans are able to exercise free speech through social media? 
How will internet restrictions impact dissemination of information and 
the ability of candidates to campaign in advance of elections?

    Answer. Freedom of expression is not only a human right, but also 
essential to the democratic process. The Embassy is currently 
supporting multiple DRL programs aimed at protecting freedom of 
expression and access to information, promoting rule of law, and 
enhancing access to justice in Uganda. In addition to encouraging 
assistance programs such as these, if confirmed, I will engage openly 
and regularly with the Government of Uganda and civil society to 
promote the freedom of expression, including by using social media 
platforms administered by the Embassy.
    In addition to elections-specific programming led by USAID and DRL, 
the Department will continue to press for a level playing field for 
opposition candidates, including respect for the fundamental freedoms 
of expression and peaceful assembly. If confirmed, I will ensure our 
Embassy in Kampala continues to advocate against efforts to unduly 
restrict, interfere with, and intimidate journalists, civil society 
organizations (including LGBTI groups), and political opposition 
members. I will lead the call for a more open operating environment for 
journalists, political opposition, and members of civil society, and 
ensure that U.S. Government messaging highlights our serious concern 
with Uganda's shrinking political space. Finally, I will support the 
establishment of credible electoral institutions and encourage 
citizens' participation in the democratic process, particularly by 
women, youth, and other marginalized groups.

    Question. During your testimony, Senator Kaine alluded to LGBT 
issues in Uganda. What plans do you have to augment/reinvigorate 
existing embassy programs or re-invent, reinvigorate the dialogue with 
the Ugandans regarding LGBT concerns? During your hearing the issue of 
torture and extrajudicial killings in Uganda was raised. Opposition 
politicians have been arrested, harassed and tortured. What specific 
steps will you take if confirmed to champion and advance human rights 
and political freedoms in Uganda?

    Answer. The U.S. Embassy in Kampala has a long history of engaging 
on matters of human rights, democracy, and good governance through 
various programs. These include recent efforts to combat societal 
discrimination and strengthening LGBTI organizations and supporting 
Ugandan youth to defend their rights, as well as programs to promote 
freedom of expression, rule of law, and access to justice and efforts 
to protect freedom of expression and access to information in Uganda.
    If confirmed, I am committed to continuing our outreach to LGBTI 
individuals and organizations as well as working with the Ugandan 
Government, like-minded diplomatic missions, civil society, and 
international organization to advance these important issues.
    With regard to reports of torture and extrajudicial killings, if 
confirmed, the Embassy team and I will continue to engage government 
officials and work with our partners on human rights protections and 
advocate for the rule of law. As appropriate, and in consultation with 
the Department, we will consider the use of tools such as financial 
sanctions and visa restrictions for human rights violations and abuses 
or corruption.

    Question. Uganda has one of the most significant youth bulges in 
Africa. What specific actions will you take if confirmed to address the 
issues of economic and educational opportunity, political inclusion, 
and other concerns identified by youth?

    Answer. The U.S. Mission to Uganda currently has in place a 
strategy formulated to address the needs of the ``average'' Ugandan, 
symbolized by the 14 year-old girl, whose needs must be addressed if 
Uganda is to achieve sustainable, broad-based prosperity and long-term 
stability. Through its programming, the Mission implements positive 
youth development approaches across sectors to enable youth to lead 
safe, healthy, and productive lives and to be dynamic agents of change 
in Uganda's development trajectory, including by increasing youth 
engagement and participation in the democratic process. If confirmed, I 
will place my full support behind existing youth-oriented programming 
and seek to expand on this programming with additional efforts to 
promote the health, well-being, education, and economic development of 
Uganda's youth.

    Question. Only 10% of Uganda's gold exports are mined in the 
country, however, gold surpassed coffee as Uganda's biggest earner of 
foreign currency in 2018, growing from $10 million to over $500 million 
in the past decade. Shipments of more than 7 tons of gold were 
reportedly transferred from Venezuela on a Russian charter aircraft to 
a refinery in Uganda in March 2019, processed at a refinery that some 
have alleged appears to be operated with the knowledge of President 
Museveni. Was this an effort to circumvent U.S. sanctions on 
Venezuela's central bank and gold industry? What actions has the State 
Department taken to corroborate such claims? If confirmed, what actions 
will you recommend be taken in response to sanctions violations by the 
Museveni regime?

    Answer. The Department was highly concerned by the shipment of 
Venezuelan gold that passed through Uganda. Leadership at the U.S. 
Embassy in Uganda reached out to the highest levels of the Ugandan 
Government to express our concern and to dissuade the Government from 
permitting Venezuelan gold to be processed in Uganda again. President 
Museveni stated publicly that no additional Venezuelan gold would be 
permitted to pass through Uganda again. The Embassy remains highly 
engaged on the issue of gold refined in Uganda, and has facilitated 
interagency analysis and examination of Uganda's gold industry. If 
confirmed, I would support the stringent application of appropriate 
measures, to include financial sanctions and visa restrictions, as may 
be applicable, to any Ugandan Government official found to have been 
involved in the circumvention of U.S. sanctions targeting Venezuela.

    Question. What is the status of Uganda's ties with North Korea? Are 
reports of military ties accurate? If so, how should this impact our 
military to military relationship and our security assistance programs 
and activities? If confirmed, what steps will you take if Uganda is 
found to be violating U.N. sanctions against North Korea?

    Answer. The Government of Uganda maintains diplomatic relations 
with North Korea. The U.S. Embassy in Uganda has engaged often and in 
detail with the Ugandan Government to remind it of the obligations of 
all U.N. member counties to uphold U.N. Security Council resolutions 
related to North Korea. The Ugandan Government has repeatedly assured 
the Mission of its efforts to comply with these resolutions. If 
confirmed, I would ensure the Embassy continues to make clear to Uganda 
its obligations with regard to North Korea.

    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff when you are in Washington 
for visits or consultations during your tenure as Ambassador Uganda?

    Answer. I have great respect for and place high value on the 
importance of the relationship between the executive and legislative 
branches of government. If confirmed, during my tenure as Ambassador to 
Uganda, I commit to briefing Members of Congress and/or their staff 
when I am in Washington for visits and consultations, as organized 
through the Department of State's Bureau of Legislative Affairs. 
Congressional delegations are also valuable in highlighting for host 
governments U.S. viewpoints or policies, and if confirmed, I would 
welcome the continuation of such visits.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I spent most of my career as a political officer, meaning 
democracy and human rights work were at the core of my overseas and 
domestic assignments. I observed elections in Ethiopia, managed the 
redesign of U.S. activities in Niger after a coup ousted a 
democratically-elected government, and advocated for new assistance 
programs and greater engagement in Tunisia as the country transitioned 
from dictatorship to democracy.
    For me personally, however, my most meaningful work to promote 
human rights and democracy occurred during my assignment to Kuwait from 
2004-2006. Kuwaiti women had long sought the right to vote and run for 
office and the United States was a powerful supporter and advocate in 
their struggle, regularly raising the issue with Kuwaiti leaders. As 
the Embassy's Political Chief, I had access to the country's political 
leaders and legislators, where I could make the case for full civil and 
political rights for women. My gender, however, in a country where 
gender segregation was not official but common, gave me direct access 
to the women leading the fight for equal rights. Spending time with 
them helped me to understand the legal and cultural barriers they faced 
and as a result, I was able to tailor U.S. interventions accordingly. I 
proposed movie nights for legislators, academics, and activists, which 
the Ambassador hosted, where documentaries and other films showcased 
American women in politics or other fields dominated by men. The 
resulting debates were lively and the educators asked for, and the 
Embassy procured, copies of the films for them to show to their 
students. When parliament was dissolved and elections, with the full 
participation of women, were scheduled with little over one month to 
prepare, my knowledge of what Kuwaiti women wanted and needed allowed 
the Embassy to adjust its programming and deliver. With experts from 
the National Democratic Institute, the International Republican 
Institute, and other organizations, we held workshops on how to develop 
a platform, how to build a base, and how to run a campaign. Although no 
women were elected in that first election, participants in the seminars 
credited the Embassy for helping them on messaging and changing 
Kuwait's political landscape. In the next election, women did join 
parliament for the first time.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Uganda? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The most pressing challenges to democracy or democratic 
development in Uganda include violence and intimidation against 
journalists and some political opponents of the ruling National 
Resistance Movement party and President Museveni, substantial 
interference with the rights of peaceful assembly and freedom of 
association, certain restrictions on political participation, and 
corruption.
    If confirmed, I will frankly, forcefully, and repeatedly raise U.S. 
Government concerns about these governance and human rights issues with 
leading Ugandan Government officials, including the President. I will 
meet with leadership from domestic and international human rights 
organizations, political opposition groups and their leaders, and civil 
society organizations working on issues of democracy and governance. 
Additionally, I will use public platforms to voice support for 
democracy and good governance.

    Question. What steps will you take--if confirmed--to support 
democracy in Uganda? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will use my leadership and voice to make 
clear that respect for human rights is essential for Uganda's future 
growth, prosperity, and security. The steady decline of civic and 
political space has been a source of critical concern inside and 
outside of the country. I will engage Ugandan authorities, 
international partners, civil society organizations, and business 
leaders to work together toward these goals.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. assistance to Uganda advances democracy and 
governance, both through funds dedicated specifically for those issues 
and through sector-specific programming, such as health, which depend 
on a reliable, evidence-based, technocratic government. Through our 
development assistance, the United States improves the resilience of 
civil society organizations in the face of diminishing democratic 
space, supports Ugandan partners to advance their advocacy priorities 
related to human rights, enhances the professionalism of independent 
media, and seeks to improve the inclusivity and transparency of 
democratic processes. Additionally, the United States supports the 
introduction and expansion of good governance within service delivery 
systems (health, education, etc.), which bolsters transparency, citizen 
participation, and accountability within planning and financial 
management processes. To complement and expand these efforts, I will 
continue to engage within the Department and with USAID to ensure 
appropriate resources are available to advance U.S. interests in 
Uganda.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Uganda? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Human rights, civil society organizations, and other non-
governmental organizations, regardless of where they are registered or 
operate, play an important role in advancing democratic governance, and 
respect for fundamental freedoms and human rights. If confirmed, I am 
committed to engaging with individuals and organizations that support 
U.S. values, and will do all I can to support and promote their good 
work. Throughout my career, I have always viewed the Leahy Law and 
similar requirements as important mechanisms by which the U.S. 
Government can ensure that security assistance and security cooperation 
activities are used to reinforce human rights.
    I understand that, consistent with the Leahy Law, the U.S. Embassy 
in Kampala discontinued training certain elements of the Ugandan 
security apparatus that were credibly implicated in gross violations of 
human rights and made clear to the Ugandan Government our reasons for 
this action. If confirmed, I will reinforce this decision and ensure 
the Ugandan Government remains aware of U.S. law, policies, and 
priorities as they relate to security assistance and cooperation 
activities.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, under my leadership the Embassy will continue 
to engage with representatives from across the political spectrum, 
including the ruling party and opposition parties. I will advocate for 
democratic values and extend support through existing instruments to 
organizations that promote the active participation of women, youth, 
and other marginalized populations in political activities. 
Furthermore, I will fully support all Mission programs and activities 
that support voter mobilization campaigns and citizen engagement in the 
democratic process. At the local government level, the U.S. Embassy has 
had great success training and partnering with youth and women local 
councilors and mayors, and if confirmed, I will seek to continue these 
efforts in future programs.

    Question. Will you and your embassy team actively engage with 
Uganda on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Uganda?

    Answer. Freedom of expression, including for members of the press, 
is fundamental to an open, just, and democratic society. If confirmed, 
my embassy team and I will actively engage with Uganda on press 
freedom. I will speak openly and honestly with the Ugandan Government 
and civil society about any efforts designed to control or undermine 
press freedom, and will meet with independent and local press in 
Uganda.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will direct my Embassy team to actively 
engage with civil society and government counterparts, as well as with 
local media, to counter disinformation and propaganda disseminated by 
foreign state or non-state actors. I will strongly support actions I 
understand the Embassy is already taking in this regard through weekly 
interagency messaging meetings aimed at doing this in the context of 
the COVID-19 pandemic, supplementing existing monthly strategic 
messaging meetings.

    Question. Will you and your embassy teams actively engage with 
Uganda on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed as Ambassador to Uganda, I will proudly engage 
on matters of labor rights with leadership in government and civil 
society.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Uganda, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Uganda? What specifically will you commit to do to help LGBTQ people in 
Uganda?

    Answer. The LGBTI community in Uganda faces numerous economic, 
social, health, security, and educational challenges. LGBTI Ugandans 
face discrimination in employment, access to medical care and housing, 
and harassment and lack of protection by local law enforcement 
agencies. They are regularly threatened and face physical violence from 
both private citizens and government actors.
    As a result of the profound protection needs this community faces, 
future human rights activities should have legal aid and protection 
components, as well as a rapid response mechanism to allow the Embassy 
to provide timely support to LGBTI individuals facing harassment. 
Existing U.S. Government human rights programming has made important 
progress on LGBTI issues, and Embassy programming is established to 
continue these efforts. If confirmed, I commit to use existing programs 
and, where appropriate, new initiatives to promote the rights of 
marginalized groups, including the LGBTI community.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. Natalie E. Brown by Senator Benjamin L. Cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I spent most of my career as a political officer, meaning 
democracy and human rights work were at the core of my overseas and 
domestic assignments. I observed elections in Ethiopia, managed the 
redesign of U.S. activities in Niger after a coup ousted a 
democratically-elected government, and advocated for new assistance 
programs and greater engagement in Tunisia as the country transitioned 
from dictatorship to democracy.
    For me personally, however, my most meaningful work to promote 
human rights and democracy occurred during my assignment to Kuwait from 
2004-2006. Kuwaiti women had long sought the right to vote and run for 
office and the United States was a powerful supporter and advocate in 
their struggle, regularly raising the issue with Kuwaiti leaders. As 
the Embassy's Political Chief, I had access to the country's political 
leaders and legislators, where I could make the case for full civil and 
political rights for women. My gender, however, in a country where 
gender segregation was not official but common, gave me direct access 
to the women leading the fight for equal rights. Spending time with 
them helped me to understand the legal and cultural barriers they faced 
and as a result, I was able to tailor U.S. interventions accordingly. I 
proposed movie nights for legislators, academics, and activists, which 
the Ambassador hosted, where documentaries and other films showcased 
American women in politics or other fields dominated by men. The 
resulting debates were lively and the educators asked for, and the 
Embassy procured, copies of the films for them to show to their 
students. When parliament was dissolved and elections, with the full 
participation of women, were scheduled with little over one month to 
prepare, my knowledge of what Kuwaiti women wanted and needed allowed 
the Embassy to adjust its programming and deliver. With experts from 
the National Democratic Institute, the International Republican 
Institute, and other organizations, we held workshops on how to develop 
a platform, how to build a base, and how to run a campaign. Although no 
women were elected in that first election, participants in the seminars 
credited the Embassy for helping them on messaging and changing 
Kuwait's political landscape. In the next election, women did join 
parliament for the first time.

    Question. What are the most pressing human rights issues in Uganda? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Uganda? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issues in Uganda include 
torture, arbitrary detention, violence and intimidation against 
journalists and some political opponents of the ruling National 
Resistance Movement party and President Museveni, substantial 
interference with the rights of peaceful assembly and freedom of 
association, certain restrictions on political participation, 
corruption, criminalization of same-sex consensual sexual conduct, and 
security force harassment and detention of LGBTI individuals.
    If confirmed, I will frankly, forcefully, and repeatedly raise U.S. 
Government concerns about these human rights issues with leading 
Ugandan Government officials, including the President. I will meet with 
leadership from domestic and international human rights organizations, 
and use public platforms to voice support for human rights defenders. 
Additionally, I will not hesitate to use the tools available to me, 
including financial sanctions and visa restrictions, to promote 
accountability for human rights violators and abusers.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Uganda in advancing 
human rights, civil society and democracy in general?

    Answer. Living conditions in Uganda have improved notably under 
President Museveni over the past three decades, to include enhanced 
security and greater economic growth and stability, but democratization 
in Uganda remains incomplete. Political opposition and civil society 
groups are pushing for democratic reforms, including to the electoral 
process, but these reforms have been stalled by Museveni and the ruling 
National Resistance Movement party. Newspapers and radio stations have, 
on occasion in the past, been pressured and even shut down for 
political reasons. When human rights abuses are severe enough to force 
an official response, the Government may hold low-level officials 
accountable but rarely, if ever, punishes higher-ranking officials.
    If confirmed, my challenge will be to draw attention to serious 
human rights violations and abuses and call on the Government to hold 
all officials to account, while maintaining the cooperative and 
productive relationship the United States enjoys with Uganda on issues 
such as regional security, promoting global health, and addressing 
regional refugee issues.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Uganda? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I consider meeting with human rights, civil society, and 
other non-government organizations as a core responsibility of an 
ambassador. If confirmed, I am absolutely committed to engaging with 
Ugandan and international organizations, and will do all I can to 
support and promote their good work. Throughout my career, I have 
always viewed the Leahy Law and similar requirements as important 
mechanisms by which the U.S. Government can ensure that security 
assistance and security cooperation activities are used to reinforce 
human rights.
    I understand that, consistent with the Leahy Law, the U.S. Embassy 
in Kampala discontinued training certain elements of the Ugandan 
security apparatus that were credibly implicated in gross violations of 
human rights and made clear to the Ugandan Government our reasons for 
this action. If confirmed, I will reinforce this decision and ensure 
the Ugandan Government remains aware of U.S. law, policies, and 
priorities as they relate to security assistance and cooperation 
activities.

    Question. Will you and your embassy team actively engage with 
Uganda to address cases of key political prisoners or persons otherwise 
unjustly targeted by Uganda?

    Answer. Repression of political opposition and vocal critics of 
President Museveni and his inner circle are serious concerns in Uganda. 
If confirmed, I will actively engage with the Ugandan Government to 
ensure it respects its own constitution and does not single out 
critical voices for undue punishment.

    Question. Will you engage with Uganda on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Respect for human rights is a fundamental value for the 
United States. If confirmed as Ambassador to Uganda, I will proudly 
engage on matters of human rights, including civil rights, and good 
governance with leadership in government and civil society.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Uganda?

    Answer. My investment portfolio includes a security interest in a 
global company that may have a presence in Uganda. I am committed to 
following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I joined the Department of State in 1990, shortly after the 
Palmer federal class action lawsuit where the court found that female 
Foreign Service Officers (FSOs) were discriminated against in 
assignments, awards, and promotions, and while another class action, 
the Thomas case alleging discrimination against African Americans, was 
being processed and eventually settled. My entry class was the first 
class to be 50 percent female and ``State Magazine,'' in reporting on 
my class, noted the gender breakdown as well as one Black FSO and one 
Hispanic in the group. At that time, I was regularly told I was a 
``twofer,'' and the only reason I made it into the Foreign Service was 
because of my race and gender. Times have changed, but the State 
Department is not yet as diverse as it could be. If confirmed, I would 
do what I have done since I assumed managerial positions: mentor 
individuals from underrepresented groups and advocate for their 
inclusion, seek out a diverse pool of candidates when hiring or filling 
vacant positions, and call out and seek to change policies that 
discriminate. For example, at a previous post, I successfully advocated 
for the Ambassador to take the female subject matter expert with him to 
meetings on political-military affairs. As a hiring official, I reacted 
when the short lists of candidates for positions lacked diversity and 
fought for inclusion. I was not always successful in changing the 
lists, but hope that the more junior staff who saw my messages took 
note and learned something. I served for seven years as an EEO 
Counselor and I do not hesitate to address discrimination.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would strive to lead by example, building a 
capable and as diverse a team as possible. I would encourage my 
subordinates to do the same and make clear that I have zero tolerance 
for discrimination. In addition to setting clear policies, I would meet 
regularly with section and agency heads to reaffirm these messages. I 
would also foster diversity on guest lists for Embassy events and make 
sure, as appropriate, that nominees for cultural and exchange events, 
both Americans and Ugandans, come from a diverse pool of candidates.

    Question. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Political corruption is endemic in Uganda, affecting all 
aspects of life. In addition to the enormous financial waste that 
corruption engenders, it also leads to losses of time, stifles 
ingenuity, and disrupts social cohesion. Corruption hampers 
development, restrains economic growth, and deters foreign investment. 
Furthermore, the unequal application of the law leads to distrust of 
government and disinterest in civic duty.

    Question. What is your assessment of corruption trends in Uganda 
and efforts to address and reduce them by the Government of Uganda?

    Answer. According to Transparency International, Uganda ranks 137 
out of 180 countries surveyed in the Corruption Perceptions index, 
leaving much room for improvement. President Museveni has made numerous 
public announcements addressing corruption in Uganda, and has stated 
his intentions to hold public officials accountable for corrupt 
practices. Additionally, the Government of Uganda has created several 
task forces and various bodies to address political corruption. 
Unfortunately, many of these efforts are used to target Museveni's 
political or economic rivals while people in his inner circle, 
including his family members, are not held to account. In other cases, 
the Government may make headlines for arresting lower level officials 
while more senior leaders remain free. Furthermore, attempts to combat 
corruption often stop with the arrests and flashy headlines, with less 
emphasis on the successful prosecution of corrupt actors.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Uganda?

    Answer. U.S. Government programming administered by offices in the 
Bureau of Democracy, Human Rights, and Labor or by partners in USAID 
strengthen good governance and combat corruption in countries around 
the globe. Investments in good governance and efforts to curb 
corruption pay significant dividends down the road, and reduce the 
future need for U.S. development assistance. If confirmed, I will press 
State Department offices and other government agencies to include good 
governance and anti-corruption programming for Uganda as part of their 
regular annual program planning.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Hon. Natalie E. Brown by Senator Cory A. Booker

    Question. How should the United States respond if the Ugandan 
Government postpones elections next year?

    Answer. In considering whether to postpone elections, there should 
be a consensus between political parties, electoral experts, and public 
health officials, and any action should be consistent with Ugandan law. 
If the Ugandan Government announces intentions to postpone the 
elections, the U.S. Embassy should engage directly and frequently with 
the Ugandan Government to stress the importance of holding the 
elections in a timely manner and in conformity with the constitution. 
If confirmed, I would look to work with like-minded partners, 
international organizations, and domestic civil society organizations 
to offer technical assistance to help create the conditions for safe 
elections as quickly as possible.

    Question. Should evidence of state corruption and reports of abuse, 
torture, and unlawful killings by security forces draw scrutiny of our 
close bilateral relationship with Uganda?

    Answer. American values drive U.S. foreign policy and must always 
do so. While the United States has enjoyed a close and productive 
relationship with Uganda for a number of years, the U.S. Government 
should not and cannot tolerate human rights violations and abuses or 
corruption.
    The vast majority of U.S. assistance to Uganda goes directly to the 
Ugandan people in the form of health assistance. The United States also 
maintains a close security relationship with Uganda in support of 
shared regional counter terrorism efforts. Any efforts by the U.S. 
Government to re-examine our relationship with the Ugandan Government 
should ensure that the Ugandan people, our true partners in the 
country, are not negatively affected. In accordance with the Leahy Law, 
the Department of State does not provide security assistance to 
security forces credibly implicated in gross violations of human 
rights. The Secretary also has designated high-ranking current and 
former government officials under Section 7031(c) of the Department of 
State Foreign Operations, and Related Programs Appropriations Act for 
involvement in gross violations of human rights, and supported Treasury 
Department efforts to apply Global Magnitsky sanctions against a former 
high-ranking Ugandan official. If confirmed, I will use the tools at my 
disposal to address concerns about human rights violations and abuses 
and corruption, including financial sanctions and assistance and visa 
restrictions, to communicate to the Ugandan Government that the U.S. 
will not tolerate human rights violations and abuses or corruption.

    Question. How should the United States respond if security forces 
use force against opposition politicians and supporters, as they have 
in previous elections?

    Answer. Any evidence of electoral violence must be taken seriously. 
The United States must be clear and transparent with the Ugandan 
Government and the Ugandan people about our concerns if abuses occur. 
If confirmed, I would lead the embassy in pressing the Government to 
hold any human rights violators and abusers accountable, support the 
imposition of sanctions and implementation of visa restrictions on such 
individuals as applicable, and be prepared to reevaluate certain 
elements of our bilateral relationship if the Ugandan Government 
demonstrates that it does not adhere to democratic values and norms.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Ramsey Coats Day by Senator Robert Menendez

COVID-19
    Question. You mentioned that if you are confirmed COVID-19 
assistance will be a top program for USAID. What has the U.S. response 
to the spread of COVID-19 been in Africa to date?

    Answer. The U.S. Agency for International Development (USAID) is 
investing more than $215 million in 42 countries in sub-Saharan Africa 
to respond to the COVID-19 pandemic, with more assistance on the way.
    Health-specific response programs in Africa include support for 
risk-communications and community engagement, behavior change related 
to hygiene, the prevention and control of infections in health 
facilities, the management of cases of COVID-19, case-finding, contact-
tracing, water, sanitation, hygiene, disease-surveillance, laboratory 
diagnostics, procurement and logistics, the training and education of 
healthcare workers, and overall national readiness and response.
    The U.S. Government's response to the pandemic also includes 
significant funding for humanitarian assistance in fragile and 
conflict-ridden states to protect those who are most vulnerable to the 
impact of COVID-19, including in the Republic of South Sudan, the 
Democratic Republic of the Congo (DRC), the Federal Republic of 
Nigeria, and the Federal Democratic Republic of Ethiopia. We are aware 
that food-insecurity related to COVID-19 is increasing, compounded by 
the swarms of desert locusts in East Africa. We are looking at 
increasing our funding for food aid to address these growing issues.
    Furthermore, USAID also has committed assistance to support 
communities in the Republic of Sudan, the DRC, Ethiopia, and the Sahel 
region to prepare for, mitigate, and address the second-order economic, 
civilian-security, stabilization, democratic-governance and multi-
sector impacts of the COVID-19 pandemic. This funding provides social 
and economic support, protection, and assistance to vulnerable 
populations, and helps small-and-medium-sized enterprises to withstand 
the economic disruptions caused by the disease. USAID also will finance 
programs to promote peace and stability in conflict-ridden regions, 
improve education and distance-learning, combat gender-based violence, 
bolster civil society and citizen-responsive governance, and improve 
public confidence and involvement in government.

    Question. How has the suspension of U.S. funding for the World 
Health Organization impacted the response? What programs and activities 
in Africa have been halted due to the response? Have alternative 
implementing partners been identified for any activities that have been 
impacted?

    Answer. The World Health Organization (WHO) supports national 
surveillance for COVID-19, as well as for other infectious diseases 
such as polio and measles, in affected countries in Africa. Specific 
activities by the WHO to support government's response to the pandemic 
of COVID-19 include the following: strengthening laboratories to test 
for the virus that causes COVID-19; providing assistance for screening 
at points of entry; conducting case-finding and event-based 
surveillance; training rapid-response teams to investigate cases of the 
disease and perform contact-tracing; and procuring and deploying 
essential health commodities. In addition, the WHO helps develop 
standard operating procedures, provide advice on monitoring and 
evaluation, and undertakes other coordination-related activities.
    During the pause the President announced, the U.S. Agency for 
International Development (USAID) has identified alternative partners 
around the world to fight the pandemic of COVID-19. My understanding is 
that the pause has affected USAID's programs related to COVID-19 in 
five sub-Saharan African countries--the Republics of Cameroon, 
Djibouti, Mauritius and Sudan; and the Federal Democratic Republic of 
Ethiopia. In these countries, USAID has found other international 
organizations and non-governmental organizations that can handle 
activities for which the Agency would have engaged the WHO.
    For example, in Ethiopia and Djibouti the United Nations Children's 
Fund will promote accurate risk-communications and services to prevent 
and control infections in health facilities. In Mauritius, the 
International Federation of Red Cross and Red Crescent Societies will 
provide COVID 19 support, with a focus on community engagement, through 
the national chapter of the Red Cross

    Question. If confirmed, how will you alter or adjust current 
activities? What would that program look like?

    Answer. While much remains unknown about the epidemiology of the 
disease, COVID-19 could have catastrophic effects in Africa. The 
pandemic already has caused more than 40,000 reported cases and over 
1,000 deaths, and the fragile health-care institutions in the region 
might not be able to absorb more stress. The U.S. Agency for 
International Development (USAID) is funding a response COVID-19 
response in over 43 countries in Africa, and we are continuing to 
implement our core investments in public health, including the 
President's Emergency Plan for AIDS Relief, the President's Malaria 
Initiative, the Global Health Security Agenda, and our programs in 
maternal and child health, all of which have provided a foundation for 
interventions against COVID-19. USAID is committed to supporting 
African countries to continue these existing, life-saving programs in 
addition to bolstering efforts to prevent, detect, and respond to 
ongoing and future infectious-disease threats.
    We also anticipate the pandemic will have wide-ranging second- and 
third-order impacts on sub-Saharan Africa. If confirmed, I will ensure 
USAID adapts our strategic approach as needed to address them. For 
example, as a result of COVID-19, within the next year, more than 140 
million people in sub-Saharan Africa could reach crisis-level food 
insecurity. East Africa is already grappling with an infestation of 
locusts that could harm staple crops in a serious way. The combined 
pandemic and oil-price shock are likely to tip Africa into an economic 
contraction in 2020, in the absence of major fiscal stimulus. Economic 
growth across the continent is projected to decline from 2.4 percent 
before COVID-19 to between (2.1 percent) and (5.1 percent), with 
widening fiscal deficits.
    I also am concerned about democratic backsliding, and how some 
African regimes could use COVID-19 to restrict democratic space and 
constrain free media even further. Some governments using COVID-19 to 
commit human-rights abuses, restrict civil society, suppress political 
opposition, and delay democratic processes. Disturbing trends include 
the cancellation or postponement of elections, widespread 
misinformation or disinformation, targeted crackdowns on key population 
groups, and increased criminal violence, among others. I am also 
concerned about the increase in the number of incidents of gender-based 
violence, particularly intimate-partner violence, and sexual 
exploitation and abuse during the ongoing COVID-19 pandemic across the 
world, as reported by United Nations Secretary-General Ant"nio Guterres 
and others.
    USAID has geared much of our response to the pandemic in sub-
Saharan Africa to date toward protecting long-term development gains. 
Our investment of supplemental resources from the Economic Support Fund 
has focused heavily on fragile states such as the Republic of Sudan, 
the Democratic Republic of Congo, and the Federal Democratic Republic 
of Ethiopia. Across the continent, stability hard-won through years of 
partnership and investment is at risk of being compromised without 
immediate relief. This is especially true in West Africa and the Sahel, 
and in urban areas in many nations where pandemic-related lockdowns 
have disrupted the livelihoods of large numbers of informal workers.
    USAID is adapting our existing programs to respond to the new 
context of COVID-19. The Agency has helped large manufacturers affected 
by a collapse in global demand for their products shift their 
operations to the production of personal protective equipment, which 
not only supports the health response but protects jobs and years of 
investment in local industry.
    USAID continues our core work of supporting sustainable health and 
food systems that help communities in our partner countries manage 
crises such as this one. The Agency also is focused on facilitating 
trade and mobilizing private investment to help increase capacity, 
reduce future debt burdens, and achieve lasting development results.
    USAID is revitalizing previously-funded radio and television 
education programs, and providing support to Ministries of Education to 
develop distance-learning curricula. The Agency sees this as an 
opportunity to strengthen the resilience of local educational 
institutions, help governments and private providers develop lasting 
capacity for remote learning, and maintain basic skills while children 
are out of school.
    Additionally, USAID continues to fund health programs begun long 
before the COVID-19 pandemic, to sustain the gains in essential life-
saving activities in maternal and child health, malaria, tuberculosis, 
and HIV. USAID also is contributing to the whole-of-government 
``SAFER'' framework for the international response to the COVID 19 
pandemic, which builds upon long-standing and substantial global health 
and humanitarian assistance by the American people and the U.S. 
Government's commitment to the Global Health Security Agenda.
    Additionally, USAID is using supplemental resources to provide 
social and economic support, protection, and assistance to vulnerable 
populations and supporting small-and-medium-sized enterprises to 
withstand the economic effects of COVID-19 in Sudan, the DRC, Ethiopia 
and across the Sahel. We are also financing programs to improve peace 
and stability in conflict-ridden regions, improve education and 
distance-learning, strengthen civil society and citizen-responsive 
governance, and improve public confidence and involvement in 
government. USAID's programs are also adapting and mobilizing to 
mitigate the impact of COVID-19 on women and girls through social-
assistance programs, economic support to women-owned small and medium-
sized businesses, and social services in heavily affected communities.
    If confirmed, I will work to ensure that we continue to fund 
immediate response needs and support our partners in the region to 
adapt to the long-range impacts of COVID-19.

    Question. What guidance has been issued to implementing partners 
related to the procurement of personal protective equipment (PPE)? Have 
any health care workers working to implement any U.S. funded programs 
and activities been infected by COVID-19? Have any of them died? Were 
they working to implement U.S. funded programs without PPE?

    Answer. Given the short supply of personal protective equipment 
(PPE) in the United States, since March 2020 the U.S. Agency for 
International Development (USAID) has been unable to fund the provision 
of personal protective equipment (PPE) for our programs abroad. USAID 
is working within the U.S. Government and with international partners 
on this critical issue. We understand the urgency of the domestic 
requirements here in the United States while we continue to remain 
sensitive to the needs of our neighbors and friends around the world.
    Acting Administrator John Barsa issued guidance that USAID partners 
may use Program funds to finance the local production of medical-grade 
PPE and non-medical-grade PPE products. This includes, but is not 
limited to, masks, gowns, face shields, protective eyewear, boot 
covers, linens, and gloves. In addition, on May 15, 2020, the Agency 
clarified to our partners that the policy restrictions on the 
procurement of PPE do not extend to the procurement of cloth masks. 
Similarly, the clause on PPE that is currently in awards financed by 
supplementary funding for COVID-19 in the International Disaster 
Assistance account does not preclude the procurement of such items.
    As of May 16, 2020, no partner of the U.S. Agency for International 
Development (USAID) has reported to our COVID-19 Task Force that any 
health-care workers that are implementing U.S.-funded programs have 
tested positive for COVID-19. No USAID implementing partner has 
reported any COVID-19-related deaths to our COVID-19 Task Force.

China in Africa
    Question. You mentioned that Africans turn to China for business 
and to the U.S. for social programs. Why is that a problem, and what 
specific actions will you take if confirmed to change and or impact 
that dynamic?

    Answer. The U.S. Agency for International Development (USAID) is 
particularly concerned about Chinese business practices in Africa that 
are undermining development gains. State-owned enterprises conduct many 
Chinese business transactions and deals, often at the behest of the 
Communist Party of the People's Republic of China (PRC). Unfortunately, 
many of these business transactions are to the detriment of African 
nations and their people, and only benefit the PRC. Especially in 
questionable infrastructure and resource-extraction projects, many 
Chinese businesses engage in improper behavior, such as paying bribes 
and supporting or enabling authoritarian regimes.
    If confirmed, I will ensure USAID takes steps to combat this 
negative influence. I will continue to support the Prosper Africa 
Initiative to increase two-way trade between the United States and 
Africa. The U.S. private sector offers a superior value proposition 
that supports African communities on their respective Journeys to Self-
Reliance. American companies bring significant capital, innovation, and 
proven solutions. U.S. business practices also adhere to the highest 
standards of transparency, competitiveness, quality, responsible and 
sustainable conduct, and efficiency. The American private-sector model 
stands in stark contrast to the predatory, state-led models of doing 
business employed by the PRC and others that saddle African nations 
with unsustainable debt.
    I am also committed to continuing the Agency's projects that foster 
economic growth. By showing the American model of development will 
improve the lives of citizens, help establish a robust economy and 
raise living standards, we will demonstrate why the U.S. model of 
development is superior in the long run. Finally, if confirmed, the 
Bureau for Africa will continue to work with our interagency colleagues 
at the U.S. International Development Finance Corporation and the U.S. 
Departments of State, Commerce and the Treasury on this important 
issue.

    Question. During your testimony, you alluded to China's ``debt trap 
diplomacy.'' What is debt trap diplomacy and what specific programmatic 
programs or activities do you plan to offer to African countries as 
alternatives.

    Answer. As noted during my testimony, unsustainable indebtedness, 
often called ``debt-trap diplomacy,'' is the concept that malign 
actors, such as the Government of the People's Republic of China (PRC), 
are forcing unsustainable debt on governments to use as leverage at a 
later date. The PRC often does so by offering to drop debt or 
significantly restructure payment terms or dates, in return for certain 
actions. Using this leverage, the PRC pressures governments for votes 
in elections at international organizations and to support Chinese 
candidates who seek to lead them, gain preferential trade deals, and 
secure exclusive access for Chinese companies.
    The U.S. Agency for International Development (USAID) is in a 
strong position to counter corrosive Chinese practices regarding debt. 
First, USAID's development programs have an end goal of self-reliance, 
which means governments, civil society, and the private sector will 
have the capacity to plan, finance, and implement solutions to their 
own challenges and maintain strong, robust institutions that can 
discern between reasonable and rational debt and predatory loans. The 
Agency's initiatives, such as Prosper Africa and Power Africa, along 
with its technical assistance in areas such as health, education, and 
economic development, are debt-free and intended to move communities 
towards self-reliance. Second, USAID and the U.S. Departments of State 
and the Treasury are working actively to build institutional capacity 
in governments and civil society to understand the terms and conditions 
of loans. USAID, through Power Africa, works with the African Legal-
Support Facility (ALSF) housed at African Development Bank, dedicated 
to providing legal advice and technical assistance to African 
Governments in the negotiation of complex commercial transactions, 
litigation with creditors, and other related sovereign transactions. 
USAID and other U.S. Government actors are committed to providing 
sustainable development projects that do not leave countries with 
unsustainable debt.
    If confirmed, I will continue to support the vital work in which 
USAID and the broader United States Government are engaging to combat 
predatory Chinese loans and debt-trap diplomacy.

    Question. You mentioned during the hearing that America is missing 
``in a commercial sense'' from Africa. Please expand on your plan to 
increase America's commercial footprint on the continent if confirmed? 
Are there conversations ongoing with U.S. Commercial Services for 
expanded outreach/interest in Africa? What would a plan for an expanded 
U.S Commercial Service in Africa look like, and how would such an 
expansion be coordinated with USAID programs and activities?

    Answer. If confirmed, I plan to bolster the capacity of the U.S. 
Agency for International Development (USAID) to support U.S. commercial 
interests in Africa by advancing the goals of Prosper Africa, a key 
administration initiative that aims to increase two-way trade and 
investment between the United States and Africa significantly. I would 
prioritize targeted policy reforms in key markets and sectors; focus 
existing trade and investment resources, programs, and platforms on 
expanding financing and investment links between the U.S. and the 
African continent; and develop new public-private partnerships with 
United States companies and investors to leverage the American private 
sector.
    USAID is actively working with the U.S. Department of Commerce 
(DoC), and 14 additional participating Federal Agencies and 
Departments, to establish a coordinated strategic approach to advancing 
U.S. commercial competition in Africa. In support of Prosper Africa, 
the DoC will provide resources to support the Prosper Africa Executive 
Secretariat and other implementation activities, including by posting 
personnel from the Foreign Commercial Service at U.S. Embassies in 
Africa.
    To support effective interagency collaboration in pursuit of these 
goals, if confirmed, I will build on the work of USAID's Trade and 
Investment Hubs in Africa, including efforts related to the African 
Growth and Opportunity Act. USAID will develop a continental platform 
that supports interagency collaboration to facilitate free, fair, and 
reciprocal bilateral trade, as well as offer increased support to 
interagency Deal Teams already established at U.S. Embassies across 
Africa.

Democracy and Governance
    Question. We are watching authoritarian leaders on the continent 
use the COVID-19 pandemic to close political space, clamp down on 
media, and entrench and consolidate power. What specific actions will 
you take if confirmed to address COVID-19's impact on democracy/rule of 
law in Africa?

    Answer. The U.S. Agency for International Development (USAID) is 
tracking the evolution of the spread of COVID-19 closely, including its 
impact on citizen-responsive governance, civil and political rights and 
stability. As I noted in my testimony, I am concerned about democratic 
backsliding, and how some African regimes are using the justification 
of COVID-19 to restrict democratic space and constrain free media even 
further. Governments are employing COVID-19 as a pretext to commit 
human-rights abuses, restrict civil society, suppress political 
opposition, and delay democratic processes. Disturbing trends include 
the cancellation or postponement of elections, widespread 
misinformation or disinformation, targeted crackdowns on key population 
groups, and increased gender-based and criminal violence, among others. 
Several parliaments have passed legislation that will inhibit 
democratic processes and would otherwise spark protests. Other 
governments are downplaying the threat of COVID-19 and arresting and 
detaining individuals who speak out.
    USAID is already adapting our programming; identifying innovative 
solutions; and continuing our programs in democracy, governance and 
elections. For example, in the Republic of Mali USAID worked with the 
National Electoral Commission to promote accurate health messaging and 
proper practices in coordination with the Ministry of Health in advance 
of nationwide legislative elections. This included ensuring voter-
registration and polling centers had adequate hygiene safeguards and 
procedures in place, which reduced the risk to voters and election 
workers. USAID also funded a citizen election-observation group to 
adapt its methodology to monitor public-health measures during the 
elections. In the Republic of Senegal, USAID's civil-society partners 
are providing critical oversight of the Government's humanitarian 
assistance, and have called out potential fraud and waste at the 
national level.
    In an effort to prevent further closure of space for civil society 
during the pandemic of COVID-19, USAID should increase its support for 
civil society, independent media, journalists, and citizen-responsive 
governance. Maintaining and bolstering the ability of citizens to 
exercise their fundamental rights and freedoms will lead to greater 
long-term stability. Additionally, anti-corruption efforts will take on 
renewed importance, so we can ensure our COVID-19-related assistance 
and resources are used for their intended purposes. If confirmed, I 
will continue to counter democratic backsliding, which began before the 
COVID-19 pandemic, and now has the potential to become worse.

    Question. How much funding has been allocated for Democracy and 
Governance in Africa over the last three fiscal years? Has that funding 
been adequate to address needs created by transitions in Ethiopia and 
Sudan? What specific actions will you take if confirmed to provide 
robust support for the political transitions in those two countries?

    Answer. In Fiscal Years (FY) 2017, 2018, and 2019, the U.S. Agency 
for International Development (USAID) allocated nearly $862 million for 
programming in democracy, human rights, and governance (DRG) in sub-
Saharan Africa. In FY 2017, the amount of funding the Agency invested 
in DRG programming on the African continent was $302.367 million; in FY 
2018, the total was $290.51 million, and in FY 2019, $268.862 million.
    USAID is supporting the transition in the Federal Democratic 
Republic of Ethiopia from a closed autocracy to a politically and 
economically open model. USAID will provide technical assistance to the 
newly constituted National Elections Board for the organization of the 
upcoming voting. USAID will also provide funding for civic and voter 
education; domestic and international observation; capacity-building of 
political parties; and training for media in gender, conflict-sensitive 
reporting, and countering disinformation. USAID continues to provide 
technical assistance to governmental institutions in Ethiopia, 
including the following:

   To the Attorney General's Office, to draft key pieces of 
        legislation essential to democratic and economic reforms;
   To the Civil-Society Agency, to implement the new law that has 
        enabled non-governmental organizations to re-emerge after more 
        than a decade of autocratic repression; and
   To the Supreme Court, to bolster the capacity of the judiciary to 
        provide impartial justice.

    Since the revolution in the Republic of Sudan last year that ended 
the Bashir regime, USAID has expanded our development assistance to 
improve the prospects for a successful hand-over to a civilian-led, 
democratic government at the end of the transitional period in 2022. 
This includes expanding support for civil society and peacebuilding; 
providing technical support to help the civilian-led government deliver 
on Sudanese citizens' goals for the revolution, including the 
responsiveness and accountability of government institutions; and 
exploring other ways our expertise can support a positive transition in 
Sudan, in coordination with other donors.
    If confirmed, I will work with my colleagues at the U.S. Department 
of State and our field-based Missions in both Ethiopia and Sudan to 
determine how USAID can best support the respective governments as they 
work to meet the high expectations and needs of their citizens in 
challenging transitional contexts. I will also ensure proper fiduciary 
and technical oversight of our taxpayer dollars as we expand these 
critical programs. In addition to working with national governments, I 
will also ensure USAID is working with civil-society organizations, 
other independent institutions, and the media to enhance their capacity 
to engage with their governments and hold them accountable.

Youth Bulge
    Question. What specific initiatives will you develop and implement 
if confirmed to address the social and economic impact of the youth 
bulge in Africa?

    Answer. Sixty-nine percent of sub-Saharan Africans are under the 
age of 30. This massive youth bulge will continue to grow at least 
through 2050. These young people have the potential to create a new 
workforce and economy or fuel the instability that comes from 
dissatisfaction and exclusion. The Youth in Development Policy of the 
U.S. Agency for International Development (USAID) positions the Agency 
and its partners to capitalize on favorable global pop-ulation trends 
by investing in programs and approaches by, with, and for youth that 
seize opportunity and lead to sustainable growth and human development, 
including through the real-ization of what is often referred to as a 
``demographic dividend.''
    If confirmed, under my leadership, USAID will continue to fund the 
Young African Leadership Initiative (YALI), specifically the Regional 
Leadership Centers (RLCs), which are USAID's main investment in YALI. 
The RLCs have emerged as incubators of talent and innovation, and as a 
space for youth from 48 countries collaboratively to tackle the 
challenges they face in their home countries. In addition to funding 
from the U.S. Government, YALI has also leveraged resources from 
private-sector companies, civil-society organizations, and the public 
sector.
    Highly-quality education creates pathways for greater economic 
growth, improved health outcomes, sustained democratic governance, and 
more peaceful and resilient societies. USAID's educational investments 
support governments and private providers in our partner countries to 
strengthen their capacity to achieve sustainable, high-quality learning 
and educational outcomes. Because of the COVID-19 pandemic and the 
closure of all educational institutions in sub-Saharan Africa, an 
estimated 243 million children are out of school. These closures will 
have long-term negative economic and human capital effects in African 
countries. The pandmeic's impact on education is likely to be most 
devastating in countries with low learning outcomes and high dropout 
rates.
    During the pandemic, USAID-funded education programs in sub-Saharan 
Africa largely have had to pivot to distance-learning. As a result, the 
Agency is revitalizing previously-funded radio and television education 
programs, and providing support to Ministries of Education to develop 
distance-learning curricula. The Agency sees this as an opportunity to 
strengthen the resilience of local educational institutions, help 
governments and private providers develop lasting capacity for remote 
learning, and maintain basic skills while children are out of school.
    Jobs for youth are another critical component to address the 
growing youth bulge, since formal work provide greater opportunities. 
USAID's market-driven workforce-development programs help connect youth 
to jobs; this greater economic opportunity, in turn, helps to mitigate 
the root causes of migration, crime, instability and violent extremism. 
USAID works with local businesses to ensure youth learn the technical, 
entrepreneurial and other critical skills they need to obtain good 
local jobs to support themselves and their families, and prepare them 
for a successful, life-long career.

Congressional Consultations
    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff as requested?

    Answer. During my tenure at the U.S. Agency for International 
Development (USAID), it has been a pleasure and honor to meet, consult 
with, and brief Members of Congress and their staff regularly. If 
confirmed, I commit to continuing to do so, in accordance with law and 
the rules and regulations of USAID.

Support for Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have dedicated the majority of my professional career to 
advancing the cause of democracy and human rights. If confirmed, 
democracy and human rights will remain at the core of my approach to 
steering the strategic and programmatic priorities of the Bureau for 
Africa at the U.S. Agency for International Development (USAID).
    Starting as a USAID Desk Officer in the mid-2000's, I worked to 
support programs focused on combatting human trafficking, cultivating 
and empowering young democratic leaders, and ensuring citizens had a 
voice in the democratic process through elections and civic engagement 
in Eastern Europe.
    More recently, I led the International Republican Institute's 
program in the Hashemite Kingdom of Jordan, based in Amman, where my 
sole mission was to advance democratic principles in a key U.S. ally in 
the Middle East. I focused the Institute's programs on empowering women 
leaders at the community level, helping political parties build 
platforms based on the needs of citizens, and assisting persons with 
disabilities become more integrated into the political process in their 
communities. As a result, more women ran for public office at all 
levels in Jordan, political parties increasingly based their platforms 
on sound policy ideas, and more persons with disabilities had a voice 
in their communities.
    As a leader within USAID over the last two-and-half years, I have 
prioritized development activities and approaches that have protected 
and supported the most vulnerable in conflict zones, worked closely 
with interagency colleagues to develop U.S. policy positions on 
critical issues related to human rights and democracy, and highlighted 
the importance of democratic principles to foreign-government 
counterparts in Africa and around the world.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Africa? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. According to the Organisation for Economic Co-operation and 
Development, two-thirds of the countries that are experiencing 
fragility or extreme fragility are in sub-Saharan Africa. This 
instability is driving most global humanitarian needs, and incubating 
and exporting a range of threats, from conflict and terrorism to 
displacement and infectious disease. The governance dysfunctions that 
define fragility are evident in Africa in the persistence and further 
entrenchment of autocratic states; in democratic backsliding; the 
spread of violent extremism; persistently poor development outcomes; 
and the inability to weather shocks, such as recurrent droughts, 
floods, and locusts, without outside donor assistance.
    The continued entrenchment of authoritarian governance, propelled 
by dominant parties and leaders, poses a clear threat to African's 
aspirations for democracy and improved economic and social outcomes. In 
countries like the United Republic of Tanzania; the Republics of 
Uganda, Guinea, and Benin; and the Federal Republic of Nigeria, 
governments are working actively to close political space, stifle 
competition long before elections take place, curtail public 
participation, and suppress critics. As Africans find innovative ways 
to organize and express themselves, autocratic governments have found 
new ways to restrict these voices, and suppress and falsify 
information, often by labelling critics as ``foreign agents'' or a 
``security threat.'' This can sometimes lead to restrictive legislation 
that limits the advocacy efforts of civil society and constrains access 
to resources by non-governmental organizations.
    I am very concerned that some African regimes are using COVID-19 as 
a pretext to restrict democratic space and constrain free media 
further. The U.S. Agency for International Development (USAID) is 
tracking the spread of COVID-19 closely, along with its impact on 
citizen-responsive governance, overall state fragility, civil and 
political rights, and stability. Disturbing trends include the 
cancellation or postponement of elections, targeted crackdowns on key 
population groups, and increased gender-based and criminal violence, 
among others. A clear example occurred in March in Guinea, where the 
incumbent government pushed through a constitutional referendum to 
extend presidential term limits with very low participation, just as 
the first COVID-19 infections were being reported in the country.
    Persistently high levels of corruption, weak judiciaries, and 
limits on access to justice diminish the efficacy of the rule of law to 
counterbalance executive dominance. From manipulation of constitutions 
to evade or change term, such as in Guinea, to the undermining of 
judicial offices in Benin, respect for, and adherence to, the rule of 
law continues to be a major challenge in Africa.

    Question. What steps will you take--if confirmed--to support 
democracy in Africa? What do you hope to accomplish through these 
actions?

    Answer. If confirmed, I will be committed to promoting democracy, 
human rights, and citizen-responsive governance in sub-Saharan Africa, 
and will emphasize strengthening democratic systems, countering and 
mitigating the risks of democratic backsliding, and creating an 
enabling environment for development and economic growth to succeed. 
Inclusive, citizen-centered, democratic governance and respect for 
human rights reflect U.S. values. Well-functioning democracies 
ultimately advance U.S. influence, prosperity, and security. In support 
of this approach, and with the long-term goal of ending the need for 
foreign assistance through the Journey to Self-Reliance, if confirmed, 
I will work to support national efforts to build commitment for 
reforms, build the capacity to manage democratic transitions, and 
promote the accountability of governments to their citizens.
    Assistance provided by the U.S. Agency for International 
Development (USAID) has had a positive impact over time on the quality 
of election processes, as in the Republics of Malawi and Liberia. As 
2020 continues, the Republics of Burundi, Guinea, Cote d'Ivoire, 
Burkina Faso, and Ghana; the Central African Republic; and the United 
Republic of Tanzania are all scheduled to hold general elections. If 
confirmed, I will work to continue USAID's engagement on election 
processes in sub-Saharan Africa. I will also continue to provide robust 
funding to track the civil society and media environment in African 
countries and implement programming to ensure these groups have the 
appropriate support and resources to operate.
    If confirmed, I will work to refine USAID's approaches to reducing 
the drivers of fragility in sub-Saharan Africa, not only in the 
interest of preventing violence and promoting stabilization, which are 
the focus of the Global Fragility Act, but also in recognition that 
inclusive, accountable, citizen-responsive governance is associated 
with more equitable development, greater prosperity, and improved self-
reliance.

    Question. What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. The resurgence of involvement by the People's Republic of 
China and the Russian Federation in sub-Saharan Africa to prop up 
authoritarian regimes, push for non-democratic systems, fuel 
corruption, and limit citizens' participation in government and access 
to information is concerning. If confirmed, I will ensure that the U.S. 
Agency for International Development (USAID), alongside other like-
minded donor partners, engages actively in combating malign influence 
globally through its planning and programming.
    Authoritarian regimes can repurpose the same technologies that 
offer opportunities for strengthening democracy as impediments to 
democracy. They are developing and sharing tools to spread 
disinformation, manipulate elections, and discredit democratic 
institutions. If confirmed, I will continue USAID's efforts to 
understand the scope and scale of this effort, and to adapt our 
programming as appropriate.
    The arrival of COVID-19 on the African continent, and the longer-
term uncertainty over the disease's trajectory and its ultimate impact 
on democratic space and development will shape USAID's investments for 
years to come. COVID-19 did not create fragility in Africa, but it has 
the potential to exacerbate symptoms that already exist, including poor 
governance, authoritarian retrenchment, and a host of other issues. If 
confirmed, I will ensure USAID looks at shocks like COVID-19 in the 
context of the continent's wider democratic development and governance 
patterns. Specifically, this means ensuring continued support for 
democracy, human rights and citizen-responsive governance--whether 
institutional development, robust accountability mechanisms, or support 
for political transitions--over the long term.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Africa?

    Answer. Yes. If confirmed, I commit to meeting with civil-society 
and human-rights organizations, both in Washington, D.C., and during my 
travels abroad.

    Question. What steps will you take to proactively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. I understand the U.S. Agency for International Development 
(USAID) has funded programs to improve the legal environment and 
preserve and expand civic space around the world, including to help 
African civil society respond to growing restrictions on freedoms of 
association, assembly and expression. This assistance includes analyses 
to forecast closing space, rapid-response assistance to address 
restrictive laws and regulations, and interventions to boost the 
resilience of civil society. USAID's investments complement those by 
the U.S. Department of State and multinational diplomatic efforts to 
promote and defend democratic principles and freedoms.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties?

    Answer. Yes. I commit to meeting with democratically oriented 
political figures and parties, both in Washington, D.C., and during my 
travels abroad.

    Question. What steps will you take to encourage genuine political 
competition?

    Answer. I believe political competition is an essential element of 
democratic governance. I have extensive professional experience in 
working with non-governmental organizations that the U.S. Agency for 
International Development has funded through its programming to foster 
genuine political competition in a number of countries. If confirmed, I 
commit to funding critical programs that strengthen political parties, 
improve the administration of electoral and dispute-resolution 
institutions, provide the credible and impartial domestic and 
international observation of elections, conduct civic and voter 
education, and prevent and mitigate election-related violence.

    Question. Will you advocate for access and inclusivity for women, 
minorities and youth within political parties?

    Answer. Yes. If confirmed, I will be a staunch advocate for access 
and inclusivity for women, minorities, and youth within political 
parties. Diversity of all sorts, particularly the diversity in 
viewpoints offered by these and other population segments, are critical 
voices to be heard as communities continue on the Journey to Self-
Reliance.

    Question. Will you and your team actively engage on freedom of the 
press and address any government efforts designed to control or 
undermine press freedom through legal, regulatory or other measures?

    Answer. Yes, if confirmed, supporting freedom of press will remain 
one of my priorities. The U.S. Agency for International Development 
historically has recognized the important role the independent media 
plays in citizen-responsive governance and is one of the largest donors 
to the development of pluralistic, diverse, independent media systems.

    Question. Will you commit to meeting regularly with independent, 
local press if and when you travel on the continent?

    Answer. Yes.

    Question. Will you ensure that USAID Missions are actively engaging 
with civil society and government counterparts on countering 
disinformation and propaganda disseminated by foreign state or non-
state actors in Africa?

    Answer. Yes. If confirmed, I commit to continuing engagement with 
civil society to counter disinformation and propaganda disseminated by 
foreign state or non-state actors in Africa.

    Question. Will Missions actively engage on the right of labor 
groups to organize, including for independent trade unions?

    Answer. If confirmed as Assistant Administrator for Africa at the 
U.S. Agency for International Development, I will proudly support our 
Missions as they engage on matters of labor rights with governments and 
civil society in their respective countries.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Africa, no matter 
their sexual orientation or gender identity?

    Answer. Yes. Former Administrator Green and Acting Administrator 
Barsa have been clear that inclusion is one of the core values of the 
U.S. Agency for International Development, and that non-discrimination 
toward beneficiaries is a basic principle of our work. I wholly agree. 
If confirmed, I commit that I will defend the lives, human rights, and 
dignity of all people across the globe, no matter their sexual 
orientation or gender identity.

    Question. What challenges do the lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people face in Africa?

    Answer. In many African countries, discrimination, stigmatization, 
violence, marginalization, and exclusionary laws have a negative impact 
on the lives of many marginalized groups, including lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) communities, which 
contributes to poverty and increasing inequality. LGBTI people and 
other marginalized groups in many African nations face harassment, 
physical attacks, and arbitrary arrests. Unfortunately, this violence 
is often life-threatening. Access to basic education, health, housing, 
economic opportunities, and other social services is essential for all 
citizens, including LGBTI persons, but governments often deny them this 
access. The participation by LGBTI people in democratic processes and 
government in sub-Saharan Africa is very limited. Archaic laws are 
indicative of larger concerns USAID has in countries where government 
are abusing human rights in general, and where basic freedoms, such as 
free assembly and association, are under assault.

    Question. What specifically will you commit to do to help LGBTQ 
people in Africa?

    Answer. Lesbian, gay, bisexual, transgender, and intersex (LBGTI) 
persons--like all persons--must be free to enjoy their human rights and 
fundamental freedoms, including freedom of expression, peaceful 
assembly, and association, without fear of reprisal. LGBTI persons must 
be free to enjoy lives free of violence or discrimination. As 
Americans, we place a high value on these rights and freedoms, which 
all persons deserve to enjoy fully and equally. When we protect all 
persons on the basis of equality and with dignity, we strengthen global 
stability.
    If confirmed, I will continue to implement the comprehensive, 
inclusive non-discrimination policies of the U.S. Agency for 
International Development (USAID) for the beneficiaries of our 
contracts and grants. To carry out USAID's mission, our programs will 
continue to reach out to the most-marginalized and vulnerable members 
of society, including LGBTI people. I will continue to elevate the 
importance of inclusive development approaches to help ensure all 
people can participate in, contribute to, and benefit from USAID's 
development efforts.
    If confirmed, I will work with the leadership of USAID's Missions 
across Africa to engage civil society, including LGBTI organizations, 
and host governments to protect the lives, human rights, and dignity of 
all people. Furthermore, as Assistant Administrator I will continue to 
draw on the skills and contributions of all people. I deeply value the 
contributions of our staff to ensure our programs and policies are 
inclusive of all people.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Ramsey Coats Day by Senator Ted Cruz

Lebanon
    Question. Lebanon's Government is controlled by Hezbollah, an Iran-
backed terrorist group. Assistant Secretary for Near East Affairs David 
Schenker recently said that Lebanon's Health Ministry is ``run by 
Hezbollah'' and that the U.S. therefore withholds aid that would go to 
that Ministry. The policy is justified: because money is fungible, 
comingling U.S. assistance with Hezbollah infrastructure allows them to 
move resources into malign activities, including terrorism. Moreover 
Hezbollah's control over the Health Ministry provides it with granular 
control over many aspects of life in Lebanon, including at the 
municipal level, where health care services provided by municipalities 
is tightly integrated with the Health Ministry, including in 
government-run hospitals.
    Nevertheless, in late April, USAID transferred $5,300,000 in 
assistance to Lebanon, part of a package announced by the U.S. embassy 
in Beirut that totaled $13.3 million in new assistance.

   What steps did the State Department take to ensure that the new 
        U.S. assistance would not either directly or indirectly 
        comingle with Hezbollah-controlled health care infrastructure?

    Answer. Senator, I respectfully direct you to my colleagues at the 
U.S. Department of State to respond to your inquiry.

    Question. What steps did USAID take to ensure that the new U.S. 
assistance would not either directly or indirectly comingle with 
Hezbollah-controlled health care infrastructure?

    Answer. If confirmed as Assistant Administrator for Africa at the 
U.S. Agency for International Development (USAID), I will not have 
oversight over USAID's assistance in Lebanon. However, I have consulted 
with my colleagues in USAID's Bureau for the Middle East. I understand 
that the funding announcement in late April was for the response to the 
pandemic of COVID-19. I further understand that USAID is not working 
with the Lebanese Ministry of Health on COVID-19, but instead is 
collaborating with International non-governmental organizations (NGOs) 
and private hospitals to avoid the possibility of co-mingling with 
Hizballah-controlled health-care infrastructure.
    Furthermore, USAID implements a rigorous, three-stage process to 
mitigate the risk that U.S. Government resources inadvertently could 
benefit a designated terrorist or sanctioned groups. Under Stage One, 
implementing partners are contractually obligated to conduct due 
diligence against open-source reporting and publicly available 
databases. Stage Two requires that USAID's staff and implementing 
partners conduct a pre-award survey and assess through local sources 
the likelihood that an organization could be affiliated with a 
sanctioned group. Stage Three involves applying USAID's partner-vetting 
requirements, which requires the pre-award vetting of the implementers 
of awards/subawards that exceed $25,000.

    Question. As Assistant Administrator of the United States Agency 
for International Development, can you commit to ensuring that no more 
USAID health care assistance--a full cut-off--will go to Lebanon it 
that assistance might comingle with Hezbollah funds or Hezbollah-
controlled infrastructure?

    Answer. Although I am not as familiar with these issues since I am 
the nominee to be Assistant Administrator for Africa at the U.S. Agency 
for International Development (USAID), I commit to relaying your 
concerns to the Assistant Administrator for the Middle East, Mike 
Harvey. In addition, I understand that it continues to be the express 
position of USAID that we will not provide any assistance whatsoever to 
Hizballah or Hizballah-controlled entities.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Ramsey Coats Day by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have dedicated the majority of my professional career to 
advancing the cause of democracy and human rights. If confirmed, 
democracy and human rights will remain at the core of my approach to 
steering the strategic and programmatic priorities of the Bureau for 
Africa at the U.S. Agency for International Development (USAID).
    Starting as a USAID Desk Officer in the mid-2000's, I worked to 
support programs focused on combatting human trafficking, cultivating 
and empowering young democratic leaders, and ensuring citizens had a 
voice in the democratic process through elections and civic engagement 
in Eastern Europe.
    More recently, I led the International Republican Institute's 
program in the Hashemite Kingdom of Jordan, based in Amman, where my 
sole mission was to advance democratic principles in a key U.S. ally in 
the Middle East. I focused the Institute's programs on empowering women 
leaders at the community level, helping political parties build 
platforms based on the needs of citizens, and assisting persons with 
disabilities become more integrated into the political process in their 
communities. As a result, more women ran for public office at all 
levels in Jordan, political parties increasingly based their platforms 
on sound policy ideas, and more persons with disabilities had a voice 
in their communities.
    As a leader within USAID over the last two-and-half years, I have 
prioritized development activities and approaches that have protected 
and supported the most vulnerable in conflict zones, worked closely 
with interagency colleagues to develop U.S. policy positions on 
critical issues related to human rights and democracy, and highlighted 
the importance of democratic principles to foreign-government 
counterparts in Africa and around the world.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

   What steps will you take to ensure each of the supervisors in your 
        Bureau at USAID are fostering an environment that is diverse 
        and inclusive?

    Answer. The U.S. Agency for International Development (USAID) works 
to support communities in our partner countries as they address some of 
the most challenging and complex issues faced in the world today. To be 
successful, Agency leaders must draw upon a diverse range of 
perspectives to ensure proposed programmatic interventions consider the 
broadest range of factors possible. This diversity of thought is the 
strength that drives the most creative and innovative solutions to the 
challenges faced in our partner countries.
    Valuing diversity and ensuring every member of our team has a voice 
in the decisions that guide the Africa Bureau is critical to our 
success, and will continue to be a core tenet of my leadership 
approach. If confirmed, I will set the example by instilling this 
principle in the senior leadership team, but also empower and hold 
accountable other supervisors and team leaders to embrace the same 
approach as a foundational value.
    This approach is also consistent with broader USAID principles, as 
championed by former Administrator Mark Green, Acting Administrator 
John Barsa, and Deputy Administrator Bonnie Glick. If confirmed, I will 
ensure the Africa Bureau not only complies with the Agency's 
regulations, practices, and norms, but also is a leader within USAID on 
diversity and inclusion because this is the best way to ensure we are 
developing the most effective programs on behalf of the American 
people.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the USAID Inspector General) any change in policy or U.S. actions that 
you suspect may be influenced by any of the President's business or 
financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No, not to my knowledge.



                               __________


      Responses to Additional Questions for the Record Submitted 
             to Ramsey Coats Day by Senator Cory A. Booker

World Health Organization
    Question. On April 14, President Trump announced a suspension of 
further funding to the World Health Organization while the 
administration conducts a review of United States funding to the 
organization. The President's decision to suspend funding to the World 
Health Organization in the midst of global pandemic risks not only the 
very global coordination that is currently needed, it has interrupted 
life-saving activities such as measles and polio vaccinations, HIV 
testing, newborn and maternal support, and various other global health 
and research activities.

   As you know, WHO is often the provider of last resort. Can you 
        describe the impact of WHO's activities in Africa?

    Answer. The World Health Organization (WHO) supports national 
surveillance for COVID-19, as well as for other infectious diseases 
such as polio and measles, in affected countries in Africa. Specific 
activities by the WHO to support government's response to the pandemic 
of COVID-19 include the following: strengthening laboratories to test 
for the virus that causes COVID-19; providing assistance for screening 
at points of entry; conducting case-finding and event-based 
surveillance; training rapid-response teams to investigate cases of the 
disease and perform contact-tracing; and procuring and deploying 
essential health commodities. In addition, the WHO helps develop 
standard operating procedures, provide advice on monitoring and 
evaluation, and undertakes other coordination-related activities.

   Are there other partners ready to go to replace WHO's life saving 
        activities?

    Answer. During the pause the President announced, the U.S. Agency 
for International Development (USAID) has identified alternative 
partners around the world to fight the pandemic of COVID-19. My 
understanding is that the pause has affected USAID's programs related 
to COVID-19 in five sub-Saharan African countries--the Republics of 
Cameroon, Djibouti, Mauritius and Sudan; and the Federal Democratic 
Republic of Ethiopia. In these countries, USAID has found other 
international organizations and non-governmental organizations that can 
handle activities for which the Agency would have engaged the WHO.
    For example, in Ethiopia and Djibouti the United Nations Children's 
Fund will promote accurate risk-communications and services to prevent 
and control infections in health facilities. In Mauritius, the 
International Federation of Red Cross and Red Crescent Societies will 
provide COVID 19 support, with a focus on community engagement, through 
the national chapter of the Red Cross

    Question. What is the timeline for the completion of the review of 
WHO?

    Answer. Funding from the U.S. Agency for International Development 
to the World Health Organization (WHO) will be on pause for 60-90 days, 
pending a full review of the WHO's performance.

Protective Equipment Protocols
    Question. Do USAID missions and offices in Africa have sufficient 
protective equipment and protocols in place to safely maintain 
operations?

    Answer. All of the Missions and Offices of the U.S. Agency for 
International Development (USAID) in Africa are coordinating with the 
field-based medical personnel of the U.S. Department of State to 
establish appropriate protocols and ensure the availability of 
protective equipment. Under USAID's Roadmap to Return, and the 
Department of State's return plan (Diplomacy Strong), U.S. Chiefs of 
Mission will take into consideration local health, medical, security, 
policy, and operational conditions when making decisions about 
initiating a phased approach for employees to return to the workplace. 
USAID's Mission Directors are working with their respective Chiefs of 
Mission as part of each post's inter-agency Emergency Action Committee 
to ensure all staff, including U.S. Direct-Hires, contractors, and 
Foreign Service Nationals, have the proper protections when they return 
to work on site. I understand that all USAID's staff in Africa are safe 
and have access to sufficient protective equipment at the moment.
    As I noted in my opening statement, if confirmed, the safety and 
security of my staff will be my number-one priority. This commitment 
includes ensuring USAID's Missions and Offices have sufficient 
protective equipment and protocols in place to safely maintain 
operations.

    Question. How can Congress support the Africa Bureau's COVID-19 
response efforts?

    Answer. The U.S. Agency for International Development (USAID) 
deeply appreciates the generous support of Congress and the American 
taxpayer. USAID is investing more than $200 million in sub-Saharan 
Africa to respond to the COVID-19 pandemic, with more assistance on the 
way. If confirmed, I commit that USAID will invest, monitor, and 
evaluate funding for COVID-19 in Africa in accordance with our Agency-
wide guidelines and Congressional requirements.

Armed Conflict
    Question. Absent inclusive economic and social development and 
vastly improved governance, recent trends in armed conflict in North 
and sub-Saharan Africa reveal a troubled future for the continent. 
There are bright spots showing progress in inclusion of youth, security 
sector reform, dismantling of elite capture of the state, basic 
infrastructure, access to markets, and more.

    Question. In your new role, how do you plan to work to address main 
drivers of violence across Africa?

    Answer. If confirmed, I will ensure the U.S. Agency for 
International Development (USAID) employs a range of activities to 
prevent conflict, counter violent extremism, and promote stabilization 
in sub-Saharan Africa.
    USAID works with communities, civil society, and governments to 
support the peaceful resolution of conflict; build resilience; promote 
social cohesion and reconciliation; and reduce vulnerability to non-
state armed groups, including violent extremists. For example, in the 
Central African Republic and the Eastern Democratic Republic of Congo, 
USAID funds community-based protection programming, and reconciliation, 
reintegration, and psychosocial support services for communities 
affected by the Lord's Resistance Army and other non-state armed 
groups. In the Federal Republic of Somalia, USAID's partners engage 
with vulnerable communities and nascent local governments to reduce 
opportunities for extremists to manipulate grievances.
    USAID also seeks opportunities to support African-led regional 
programs to prevent and mediate conflict. The Agency operates from the 
premise that women and other marginalized groups play a critical role 
in mediating and resolving conflict at both the national and local 
levels. For instance, in the Lake Chad Basin Region, USAID's 
Partnership for Peace supports traditional women leaders to defuse 
tensions across ethnic, generational, and religious lines.
    USAID and the U.S. Departments of Defense and State strive to 
coordinate stabilization activities with military and diplomatic 
objectives and employ the precepts highlighted in the interagency 
Stabilization Assistance Review (https://www.state.gov/reports/
stabilization-assistance-review-a-framework-for-maximizing-the-
effectiveness-of-u-s-government-efforts-to-stabilize-conflict-affected-
areas-2018/). For example, in the Sahel, USAID's activities combine 
aspects of traditional development work in areas such as health and 
education with investments in stabilization and countering violent 
extremism to strengthen communities' resilience and reduce 
opportunities for violent extremist groups to gain traction.
    As the Global Fragility Act makes clear, development assistance is 
a vital tool for addressing fragility, but effective action will 
require a whole-of-government approach. USAID, alongside the Department 
of State and other interagency partners, intends to take a lead role in 
implementing foreign assistance to support the forthcoming Global 
Fragility Strategy and the subsequent implementation plans for priority 
countries and/or regions, which are currently under development through 
a collaborative, consultative, evidence-based interagency process.

Climate Change
    Question. Twenty percent of the Earth has already warmed by 1.5 
degrees Celsius compared to temperatures in the 19th century--the point 
at which the IPCC and scientific community warn of irreparable damage 
to billions of people and the planet. Africa is already experiencing 
devastating effects of climate change; as one example, Mozambique has 
been hit by the second and third largest back-to-back cyclones ever to 
touch ground on the continent in human history.

   How do you anticipate USAID's work needing to adapt in order to 
        fulfill U.S. development and foreign policy goals?

    Answer. The U.S. Agency for International Development (USAID) is 
adapting our programs continuously to help Africans on the Journey to 
Self-Reliance. Climate variability and change are important factors 
that can prevent nations from achieving their development goals. USAID 
uses an adaptive-management approach to help communities in Africa 
address climate shocks and stressors to improve their current and 
future resilience.
    USAID requires all of our programs to identify and address 
significant current and future climate risks. For example, increased 
temperatures could lead to more outbreaks of infectious diseases. A 
focus on managing climate risk allows programs to adapt by developing 
better early-warning systems for infectious diseases that include 
temperature forecasts. In addition, prolonged droughts can decrease 
crop yields. USAID-funded agriculture programs conduct research on, and 
use, more drought-tolerant seeds to improve the productivity of crops 
during droughts. Analyses of climate risk occurs early in the design of 
programs in all of the sectors in which USAID works, and our partners 
make adjustments to adapt to changing circumstances.
    For example, under the President's Malaria Initiative USAID has 
been helping the Government of the Federal Democratic Republic of 
Ethiopia reduce the risk of malaria for over a decade as warmer 
temperatures cause the disease to expand to higher-elevation regions 
that previously did not have it. USAID works with the Ethiopian Federal 
Ministry of Health to understand how varying temperatures change the 
occurrence of malaria, and to develop an early-warning system that 
incorporates data on climate and weather. The Ministry can use this 
information to decide which interventions to use to keep communities 
safe from malaria in different parts of the country.

    Question. How will USAID do its part to reduce greenhouse gas 
emissions known to cause climate change?

    Answer. Sub-Saharan Africa is responsible for about only seven 
percent of the world's emissions of greenhouse gases. About two-thirds 
of all of Africa's greenhouse-gas emissions comes from the inefficient 
use of land, particularly deforestation and degradation. The U.S. 
Agency for International Development (USAID) helps governments, the 
private sector, and local communities in our partner countries 
worldwide protect, manage, and restore forests and other lands to 
reduce emissions, store carbon, protect biodiversity, improve 
livelihoods, and enhance climate resilience.
    Understanding how much greenhouse gas is emitted into the 
atmosphere, and from what sources, is essential for societies to make 
decisions about how to reduce their emissions. In Africa, USAID has 
worked with governments and civil society to monitor and manage their 
forests better through programs such as SilvaCarbon (https://
www.silvacarbon.org), which is an interagency U.S. Government 
technical-cooperation program to enhance the capacity in selected 
tropical countries to measure and report on carbon in their forests and 
other lands. Through a partnership with the National Aeronautics and 
Space Administration (NASA), called SERVIR (https://www.nasa.gov/
mission--pages/servir/africa.html), USAID provides governments and 
other partners with access to satellite imagery and information on 
climate and weather to enable wiser decisions about development, 
including to improve the monitoring of, and reporting on, forests.
    The most-useful tools to prevent the emission of greenhouse gases 
in Africa are the conservation of forests and the prevention of 
degradation, especially in the face of population increases and 
agricultural encroachment. In central Africa's Congo Basin, the second-
largest tropical rainforest in the world and a globally important 
carbon sink, USAID's Central Africa Regional Program for the 
Environment (CARPE) promotes the sustainable management of forests and 
improves livelihoods for the people who live in and around them. CARPE 
helps conserve and restore forests so they can continue to act as 
carbon sinks instead of releasing their stored carbon into the 
atmosphere.

Programming impacted by COVID-19
    Question. As USAID prioritizes COVID-19 response and existing 
programming is also impacted by the pandemic, what adaptations are 
being made to ongoing programs?

   What impact do you see this pandemic having on USAID's strategic 
        approach to the region?

    Answer. While much remains unknown about the epidemiology of the 
disease, COVID-19 could have catastrophic effects in Africa. The 
pandemic already has caused more than 40,000 reported cases and over 
1,000 deaths, and the fragile health-care institutions in the region 
might not be able to absorb more stress. The U.S. Agency for 
International Development (USAID) is funding a response COVID-19 
response in over 43 countries in Africa, and we are continuing to 
implement our core investments in public health, including the 
President's Emergency Plan for AIDS Relief, the President's Malaria 
Initiative, the Global Health Security Agenda, and our programs in 
maternal and child health, all of which have provided a foundation for 
interventions against COVID-19. USAID is committed to supporting 
African countries to continue these existing, life-saving programs in 
addition to bolstering efforts to prevent, detect, and respond to 
ongoing and future infectious-disease threats.
    We also anticipate the pandemic will have wide-ranging second- and 
third-order impacts on sub-Saharan Africa. If confirmed, I will ensure 
USAID adapts our strategic approach as needed to address them.
    For example, as a result of COVID-19, within the next year, more 
than 140 million people in sub-Saharan Africa could reach crisis-level 
food insecurity. East Africa is already grappling with an infestation 
of locusts that could harm staple crops in a serious way. The combined 
pandemic and oil-price shock are likely to tip Africa into an economic 
contraction in 2020, in the absence of major fiscal stimulus. Economic 
growth across the continent is projected to decline from 2.4 percent 
before COVID-19 to between (2.1 percent) and (5.1 percent), with 
widening fiscal deficits.
    I also am concerned about democratic backsliding, and how some 
African regimes could use COVID-19 to restrict democratic space and 
constrain free media even further. Some governments using COVID-19 to 
commit human-rights abuses, restrict civil society, suppress political 
opposition, and delay democratic processes. Disturbing trends include 
the cancellation or postponement of elections, widespread 
misinformation or disinformation, targeted crackdowns on key population 
groups, and increased criminal violence, among others. I am also 
concerned about the increase in the number of incidents of gender-based 
violence, particularly intimate-partner violence, and sexual 
exploitation and abuse during the ongoing COVID-19 pandemic across the 
world, as reported by United Nations Secretary-General Ant"nio Guterres 
and others.
    USAID is using supplemental resources to address these issues in 
the Republic of Sudan, the Democratic Republic of Congo, the Federal 
Democratic Republic of Ethiopia, and the Sahel region. This funding is 
providing social and economic support, protection, and assistance to 
vulnerable populations and supporting small-and-medium-sized 
enterprises to withstand the economic effects of COVID-19. We are also 
financing programs to improve peace and stability in conflict-ridden 
regions, improve education and distance-learning, strengthen civil 
society and citizen-responsive governance, and improve public 
confidence and involvement in government. USAID's programs are also 
adapting and mobilizing to mitigate the impact of COVID-19 on women and 
girls through social-assistance programs, economic support to women-
owned small and medium-sized businesses, and social services in heavily 
affected communities.
    If confirmed, I will work to ensure that we continue to fund 
immediate response needs and support our partners in the region to 
adapt to the long-range impacts of COVID-19.

    Question. What's being done to assure that long-term development 
gains are not lost?

    Answer. The U.S. Agency for International Development (USAID) has 
geared much of our response to the pandemic in sub-Saharan Africa to 
date toward protecting long-term development gains. Our investment of 
supplemental resources from the Economic Support Fund has focused 
heavily on fragile states such as the Republic of Sudan, the Democratic 
Republic of Congo, and the Federal Democratic Republic of Ethiopia. 
Across the continent, stability hard-won through years of partnership 
and investment is at risk of being compromised without immediate 
relief. This is especially true in West Africa and the Sahel, and in 
urban areas in many nations where pandemic-related lockdowns have 
disrupted the livelihoods of large numbers of informal workers.
    USAID is adapting our existing programs to respond to the new 
context of COVID-19. The Agency has helped large manufacturers affected 
by a collapse in global demand for their products shift their 
operations to the production of personal protective equipment, which 
not only supports the health response but protects jobs and years of 
investment in local industry.
    USAID continues our core work of supporting sustainable health and 
food systems that help communities in our partner countries manage 
crises such as this one. The Agency also is focused on facilitating 
trade and mobilizing private investment to help increase capacity, 
reduce future debt burdens, and achieve lasting development results.
    USAID is revitalizing previously-funded radio and television 
education programs, and providing support to Ministries of Education to 
develop distance-learning curricula. The Agency sees this as an 
opportunity to strengthen the resilience of local educational 
institutions, help governments and private providers develop lasting 
capacity for remote learning, and maintain basic skills while children 
are out of school.
    Additionally, USAID continues to fund health programs begun long 
before the COVID-19 pandemic, to sustain the gains in essential life-
saving activities in maternal and child health, malaria, tuberculosis, 
and HIV. USAID also is contributing to the whole-of-government 
``SAFER'' framework for the international response to the COVID 19 
pandemic, which builds upon long-standing and substantial global health 
and humanitarian assistance by the American people and the U.S. 
Government's commitment to the Global Health Security Agenda.

Free and Fair Elections in Africa
    Question.  U.S. assistance supports fair and free elections 
throughout Africa which is a challenge despite COVID-19 impacts on 
programming.

   How do you envision support for Democracy, Rights, and Governance, 
        especially making sure elections are held and done so freely 
        but also safely?

    Answer. National elections are scheduled in 12 African countries 
during the remainder of 2020. The U.S. Agency for International 
Development (USAID) currently plans election-related support and 
programming for nine of them. Along with the U.S. Department of State, 
USAID is tracking each election closely at the country level.
    Conducting free and fair elections in the midst of the pandemic of 
COVID-19 will be very challenging. Physical distancing, quarantine 
measures, and travel restrictions make many election-related activities 
difficult. In-person political events, rallies, the registration of 
voters, voting, and observation all risk the transmission of COVID-19. 
Some governments have postponed elections until they can mitigate these 
challenges more effectively, while others are using COVID-19 as an 
excuse to restrict fundamental freedoms or the ability of opposition 
parties to compete fairly. Women and marginalized populations face even 
greater challenges to participating in elections because of the effects 
of COVID-19.
    Despite the pandemic, I understand that USAID is adapting our 
approaches, identifying innovative solutions, and continuing our 
election-related programming in sub-Saharan Africa. For example in the 
Republic of Mali, USAID worked with the National Electoral Commission 
to disseminate proper health messaging and promote safe practices in 
coordination with the Ministry of Health in advance of national 
legislative elections. This included ensuring voter-registration and 
polling centers had adequate hygiene safeguards and procedures in 
place, to reduce the risk to voters and election workers. USAID also 
funded a citizen election-observation group to adapt its methodology to 
monitor public-health measures during the elections.
    If confirmed, I will make supporting USAID's investments in 
democracy, rights and governance, including to promote free and fair 
elections, a top priority.

    Question. COVID-19 presents a governance crisis. In your view, how 
can USAID better respond to rising authoritarian opportunism in the 
region; and encourage nascent democracies to develop inclusive 
responses?

    Answer. In an effort to prevent further closure of space for civil 
society to operate during the COVID-19 pandemic, the U.S. Agency for 
International Development (USAID) should bolster our support for local 
civic organizations, independent media, journalists, and citizen-
responsive governance. Maintaining and improving the ability of 
citizens to exercise their fundamental rights and freedoms will lead to 
greater long-term stability.
    Anti-corruption efforts will take on renewed importance, because we 
need to ensure our assistance and resources related to COVID-19 are 
used for their intended purposes. In the Republic of Senegal, USAID's 
civil-society partners are providing critical oversight of the 
Government's humanitarian assistance, and have called out potential 
fraud and waste at the national level.
    Several parliaments have passed legislation that will inhibit 
democratic processes and would otherwise spark protests. Some regimes 
are downplaying the threat of COVID-19, and are arresting and detaining 
individuals who speak out. If confirmed, I will emphasize the 
imperative of preventing democratic backsliding, which began before the 
COVID-19 pandemic, and now has the potential to become worse.

Migratory Pests
    Question. FEWS Net anticipates that desert locusts are expected to 
contribute to an increase the number of people in food security crisis 
and requiring food assistance across areas of East Africa (Ethiopia, 
Somalia, Kenya, South Sudan and Uganda) through at least September 
2020.

   How is USAID responding to desert locusts? What issues are you 
        facing?

    Answer. To date, the U.S. Agency for International Development 
(USAID) has provided nearly $19.6 million to the United Nations Food 
and Agricultural Organization (FAO) to scale up surveillance and pest-
control activities through direct interventions and local capacity-
building. This funding is helping the Governments and farmers of the 
Federal Democratic Republic of Ethiopia, the Federal Republic of 
Somalia, and the Republics of Kenya and Sudan control infestations 
within their borders, as well as guard against additional invasions. 
USAID also provides other long-term funding to protect food security 
and livelihoods for the people of this region, as well as strengthen 
institutional capacity for detecting, monitoring, reporting on, and 
controlling desert locusts.
    USAID's funding has enabled response teams to obtain critical 
equipment in recent weeks, including aircraft and vehicles for 
surveillance and control. In addition, USAID's programs are training 
community members, local officials, and scouts on the early detection, 
surveillance, and monitoring of, and reporting on, locusts. To detect 
and track the pests, USAID is also providing equipment like Global 
Positioning System equipment, radios, and eLocust3 tablets-specialized 
systems that gather field data and transmit them in real time to 
government officials and the staff of the FAO. This information allows 
decision-makers to assess the current situation, forecast the movement 
and impact of the locusts, provide early warnings to communities, and 
take necessary actions to help control infestations.
    USAID also has disaster experts in Ethiopia, Kenya, Sudan, and the 
republic of South Sudan who are assessing humanitarian needs and 
coordinating response efforts with local governments and humanitarian 
organizations.
    I understand that, as of mid-May, limited surveillance capacity and 
heavy rainfall across the region were hindering efforts to scale up 
response interventions and preventing the optimal use of available 
aircraft. Additional field monitors are needed throughout the region to 
survey vast territories infested by locusts; staff are also needed to 
direct aerial spraying in Kenya. Coordination gaps between governmental 
authorities and pest-control teams have also hampered surveillance and 
control activities in parts of Ethiopia, Kenya, and Somalia in recent 
weeks. As a result, the FAO continues to report a shortage of 
surveillance data across the region, including in heavy breeding areas.
    In response, USAID is mobilizing humanitarian and development 
partners to participate in locust-monitoring by using the eLocust3M 
mobile application, which collects and transmits data on the locations 
and stages of locust swarms in real time via satellite from the field 
to national locust centers. USAID is also engaging with other donors 
and host-country governments to promote the use of eLocust3M, including 
by encouraging officials to identify key staff from each country's 
Ministry of Agriculture and related pest-control departments to 
participate in FAO-led training-of-trainers sessions on the use of the 
application. Access to robust real-time monitoring data is critical for 
informing daily control operations, because it enables teams to 
determine the location of the locusts accurately, adjust the 
application of pesticides to local conditions, and compile precise 
flight plans that maximize the use of aircraft and other resources.

   How is COVID-19 impacting desert locust response efforts?

    Answer. I understand that locust-surveillance and pest-control 
operations have continued largely uninterrupted in most countries. 
However, travel restrictions related to the COVID-19 pandemic have 
affected the supply-chain and delayed deliveries of critical equipment 
and supplies, including vehicles and aircraft for surveillance and 
biopesticides, which has challenged efforts to scale up this large-
scale regional response. Both the United Nations Food and Agricultural 
Organization (FAO) and affected governments in the region are adapting 
their procurement plans for key commodities continuously, including by 
sourcing some materials locally. The FAO has also addressed anticipated 
shortfalls of pesticides by finding local suppliers or resolving 
earlier disruptions to the supply-chain; as of mid-May, pesticide 
supplies were sufficient to support control operations in most 
countries at least through June.
    Travel restrictions related to the COVID-19 pandemic are likely to 
continue posing challenges and could delay planned interventions in the 
coming weeks. COVID-19-related confinement measures-which require 
travelers to undergo a mandatory 14-day quarantine period upon entering 
target countries-could affect the FAO's plans to deploy skilled 
logisticians to affected areas and postpone the arrival of additional 
surveillance aircraft and flying crews. This would further limit the 
flexible use of air assets within the region.
    The U.S. Agency for International Development (USAID) is 
continuously monitoring the situation and engaging with the FAO, as 
well as with host-country governments and other key stakeholders, to 
develop timely solutions in response to these COVID-related 
interruptions. USAID is meeting weekly with the FAO to track the 
agency's progress, identify operational obstacles, and explore 
solutions to outstanding constraints. USAID is also assisting host 
governments to prioritize the response to desert locusts by 
facilitating the importation of essential supplies.
    If confirmed, I will make ensuring USAID can continue to respond to 
the desert locusts in the midst of COVID-19 a top priority.

Gender Equality
    Question. Gender inequality in African countries is a present and 
persistent issue that stands in the way of women's and girls' rights, 
health, and development. This inequality will also continue to hamper 
the development and security of their communities and nations.

   As Assistant Administrator, how will you prioritize advancing 
        gender equality and stemming the harmful practices/outcomes 
        that result?

    Answer. The U.S. Agency for International Development (USAID) 
follows the basic principle that gender equality and women's 
empowerment are essential to achieving peace, democracy, prosperity, 
and security across Africa.
    We cannot solve the major economic, security, governance, health, 
and educational challenges of our time without the contribution of 
women and girls at all levels of society. Investing in women and girls 
is one of the most powerful ways to improve standards of living and 
develop vibrant civil societies and private sectors.
    If confirmed, I will ensure gender equality and women's empowerment 
remain top priorities for me and the Africa Bureau. Under my leadership 
as Assistant Administrator, USAID will continue to help women and girls 
reach their full potential by prioritizing their political and economic 
participation; promoting their equal access to high-quality education, 
health care, property rights, jobs, and financial resources; and 
protecting their physical and emotional safety.
    If confirmed, I will prioritize the implementation of the White 
House-led Women's Global Development and Prosperity Initiative; the 
Women's Entrepreneurship and Economic Empowerment Act; and the Women, 
Peace, and Security Act.

    Question. How do you plan to work with local actors, particularly 
African women themselves, to address these challenges?

    Answer. As part of the Journey to Self-Reliance, the U.S. Agency 
for International Development (USAID) is elevating women's local 
leadership under our New Partnerships Initiative. USAID engages the 
ingenuity and knowledge of women's organizations that are connected to 
the people and the communities we serve. In doing so, the Agency 
ensures women have an opportunity to be agents of their communities' 
growth and prosperity for generations to come.
    USAID also emphasizes a comprehensive approach; ensuring adolescent 
girls are educated, healthy, economically and socially empowered, and 
free from violence and discrimination, further promoting global 
development, security, and prosperity. If confirmed, I will ensure the 
Africa Bureau will continue to partner with a variety of organizations 
and empower women and girls with information, skills, and 
opportunities.

Nigeria
    Question. In recent months, the Government and security forces of 
Nigeria have restricted the humanitarian operating environment in the 
country's northeast, where more than seven million people are in need 
of humanitarian assistance. In September 2019, the Nigerian military 
temporarily suspended the relief agencies Mercy Corps and Action 
against Hunger and investigated several others through an extra-legal 
process, sending a chilling effect throughout the humanitarian 
community. In addition, passage of the Law to Establish Borno State 
Agency for Sustainable Development and Humanitarian Response (BASH) 
last month poses a significant threat to organizations providing 
lifesaving assistance in the northeast. Among its most problematic 
components, this law imposes a one percent tax on humanitarian 
assistance, including U.S. Government contributions; mandates 
bureaucratic governmental approval of all assistance projects; and 
penalizes those accused of non-compliance with heavy fines and 
imprisonment.

   Does USAID have a plan of action for addressing these challenges 
        with the Government of Nigeria, including Nigerian security 
        forces and the Ministry of Humanitarian Affairs, Disaster 
        Management and Social Development, to improve its coordination 
        with humanitarian organizations, prevent the suspension of or 
        restrictions on humanitarian organizations, and to ensure that 
        the Government of Nigeria upholds International Humanitarian 
        Law?

    Answer. I understand the U.S. Agency for International Development 
(USAID) has received assurances from the Borno State Government that 
Agency funding will not be subject to the fee imposed on humanitarian 
assistance. The Borno State Agency for Sustainable Development and 
Humanitarian Response has relaxed several other measures of law 
following concerted engagement by the international community with 
Borno State authorities.
    Additionally, I understand USAID will continue to engage on 
specific issues with Nigerian officials, including State and Federal 
civil authorities and military leadership. For example, USAID/Nigeria 
Mission Director Stephen Haykin recently spoke with Borno State 
authorities, including Governor Zulum, to improve coordination between 
the State government and humanitarian organizations in response to the 
COVID-19 pandemic.
    USAID is a regular participant at meetings convened by the U.S. 
Ambassador and Deputy Chief of Mission with Nigerian Government 
officials, such as the Minister of Humanitarian Affairs, to discuss 
challenges with humanitarian assistance. USAID plans to use the 
Government of Nigeria's newly-created National Humanitarian 
Coordination Council as a conduit to address our concerns with Nigerian 
restrictions on humanitarian assistance.
    USAID liaises closely with the United Nations Humanitarian 
Coordinator in Abuja and uses the Humanitarian Country Team to address 
challenges faced by the international-aid community. Finally, USAID's 
support to the Nigeria International Non-governmental Organization 
(NGO) Forum has created a strong advocacy platform and improved the 
coordination of humanitarian NGOs.
    If confirmed, I will take this issue seriously and do all I can to 
ensure the life-saving assistance from the American people reaches 
those who need it most in Northeast Nigeria. For example, if confirmed, 
I will continue to press the Government of Nigeria to follow 
international humanitarian law, improve its coordination with 
humanitarian organizations, and remove restrictions on NGOs.



                               __________


       Responses to Additional Questions for the Record Submitted
             to Sandra E. Clark by Senator Robert Menendez

COVID-19
    Question. Recent reports on COVID-19 incidents indicate that 
Burkina Faso has had 750 cases and 52 deaths. How accurate are these 
figures? Senator Booker noted during your testimony that there are 11 
ventilators in Burkina Faso, yet Burkina Faso is not on the list of 
countries slated to receive ventilators from the U.S.? Why? You 
mentioned during your testimony that if confirmed you intend to work 
with CDC and USAID to address COVID. Through what specific programs and 
actions?

    Answer. As is the case with many African countries, testing rates 
in Burkina Faso are low. However, we are encouraged that Burkina Faso 
recently expanded its testing policy and now tests contacts of 
patients, and not just symptomatic patients. Through close coordination 
with international donors, Burkina Faso has reportedly received 
additional ventilators.
    The United States is providing $4.6 million in COVID-19 related 
assistance to Burkina Faso. These funds are intended to support 
technical assistance and coordination, including point of entry, 
surveillance, supplies, and workforce training, and other crucial needs 
relating to the pandemic. Since 2018, U.S. Global Health Security 
Agenda funding has helped Burkina Faso establish a national public 
health emergency operations center (CORUS), which is playing a pivotal 
leadership and coordination role in responding to the COVID-19 
pandemic. If confirmed, I will lead the U.S. Mission to continue 
working closely with CORUS and other international donors as we address 
the COVID-19 challenge.

    Question. Authoritarian leaders on the continent appear to be using 
COVID to justify crackdowns and limit freedoms, and further entrench 
and consolidate power. Is Burkina Faso at risk for the same Why or why 
not? What specific actions will you take if confirmed to counter 
actions that limit civic freedoms and close democratic space

    Answer. There have been isolated reports of violent incidents 
involving police responding to civilians' refusals to abide by COVID-
related curfews and travel restrictions, but these do not appear to be 
part of any systematic effort to leverage COVID as a means of 
justifying limits to freedom. If confirmed, I will continue our open 
dialogue with the Government of Burkina Faso on the importance of 
governing democratically and respecting fundamental freedoms and human 
rights.

Democracy and Governance/Human Rights
    Question. Burkina Faso is due to hold national elections in 
November. What in your view are the challenges facing Burkina Faso as 
we draw closer to elections? What U.S. programs and activities are 
currently underway to support elections and how have they been 
impacted?

    Answer. The Burkinabe leadership and the independent National 
Electoral Commission (CENI) have reiterated their commitment to holding 
presidential and legislative elections as scheduled in November 2020. 
Nevertheless, the Government faces steep challenges including: 
facilitating the vote of nearly 850,000 internally displaced people, 
delayed voter registration because of COVID-19 related shutdowns, and a 
complicated security environment that limits movement election 
officials attempting to prepare and voters wishing to cast their 
ballot.
    The United States is providing support for peaceful, transparent, 
and inclusive national and local elections in Burkina Faso. USAID is 
devoting $2 million for a 24-month program to strengthen election 
administration, including planning for electoral security and enable 
civil society organizations to fulfill their role of increasing citizen 
awareness of and participation in the electoral process. State 
Department's Bureau of Conflict and Stabilization (CSO) will fund a 
$500,000 ``Relief and Recovery Program'' to help prevent election 
violence. If confirmed, I will work closely with all stakeholders to 
support elections that are free and fair and viewed by the majority of 
the population as credible.

    Question. A local prosecutor in the east of Burkina Faso indicated 
an inquiry has been opened after 12 people detained on suspicion of 
terrorism were found dead in their police cells. How do you plan to 
engage with the Burkinabe on human rights/rule of law concerns if 
confirmed? How will the U.S.-Burkinabe security assistance relationship 
be impacted if the investigation is not credible and there is no 
accountability for what may turn out to have been extrajudicial 
killings

    Answer. Human rights abuses and violations by security forces, 
armed civilian militias, as well as terrorist groups remain a pressing 
issue in Burkina Faso. Burkina Faso has created a National Commission 
for Human Rights to address human rights concerns and USAID just 
started implementation of a three-year project to strengthen the 
capacity of the National Human Rights Commission to carry out its 
mandate. If confirmed, I will continue support for this important 
initiative. I will also push the Government to investigate all 
allegations of human rights abuses and violations, prosecute those 
responsible for such crimes, and implement an aggressive diplomatic 
strategy to advocate for the respect of human rights by Burkinabe 
security forces. I will continue, if confirmed, the Embassy's efforts 
to engage the Government to investigate and prosecute terrorists while 
respecting their human rights, including fair trial guarantees. Under 
my leadership, if I am confirmed, the Embassy will continue to vet all 
potential candidates for U.S. security assistance to ensure that no 
U.S. security assistance is provided to any security forces unit where 
there is credible information that the unit has committed a gross 
violation of human rights, as required under the Leahy Law. U.S. 
foreign assistance should be used to assist the Burkinabe in developing 
the capacity to promote human rights throughout its various security 
sectors.

Partnerships
    Question. During your testimony, you mentioned the U.S. French 
partnership as a focus areas. What is the status of the Pentagon's 
review of troop deployment in Africa and how is that impacting our 
relationship with the French?

    Answer. Cooperation with partners and allies such as France is an 
integral part of U.S. Government engagement in Burkina Faso and the 
wider Sahel. Absent U.S. support, Burkina Faso and the region could 
experience serious setbacks.The rapid increase in insecurity over the 
past year, which continues to move south towards the West African 
littoral states, indicates that Burkina now faces a persistent fight 
for stability and peace. Success in Burkina Faso will determine whether 
this country is a firewall against or a gateway to the expansion of 
violent extremism in West Africa.
    Much of the State Department's security assistance does not depend 
on the U.S. military for implementation and oversight, and I am 
committed, if confirmed, to maintaining engagement in line with U.S. 
objectives. I would refer you to the Defense Department for additional 
information.

Congressional Consultations
    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff when you are in Washington 
for visits or consultations during your tenure as Ambassador Burkina 
Faso

    Answer. If confirmed and during my tenure as U.S. Ambassador to 
Burkina Faso, I would look forward to briefing Members of Congress and/
or their staff when I am in Washington, as organized through the 
Department of State's Bureau of Legislative Affairs.

Support for Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I consider the promotion of human rights and of democracy 
as intrinsic to U.S. diplomacy. Respect for human rights and a 
democratic process that respects the will of the people are integral to 
progress on development and security. Throughout my career, for example 
from serving as an election observer to push for free and fair 
elections in The Philippines and Georgia, to working on programming and 
strategies to strengthen democracy as Deputy Coordinator for Assistance 
to Europe and Eurasia, to advocating for reform in Guinea-Bissau when 
Deputy Chief of Mission in Dakar, Senegal, I have been an advocate for 
these core values. I have also advocated for reforms and anti-
corruption measures to strengthen the rule of law, and met with civil 
society leaders, helping to support their work on human rights. I have 
made sure to include diverse representation in embassy activities and 
programming, such as nominations for U.S. Government exchanges. I look 
forward, should I be confirmed, to doing all I can to strengthen the 
young democracy that is Burkina Faso, to advocate for human rights, and 
incorporate these values in all my work as Ambassador and in that of 
our mission.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Burkina Faso? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Our efforts to advance good governance and democracy are 
facilitated by a population that already strongly values fundamental 
freedoms, as well as a vibrant civil society that advances good 
governance and anti-corruption efforts. This political culture makes 
the Burkinabe natural partners for the United States.

    Answer. As a young democracy in an unstable region, Burkina Faso 
faces severe challenges, foremost among them, violent extremists' 
organizations who seek to destroy the gains Burkina Faso has made to 
date. The Government of Burkina Faso's challenges with respect to 
projecting its presence in ungoverned areas and its tenuous 
relationship with certain communities, as well as a lack of economic 
opportunity are among the drivers of insecurity in Burkina Faso. Strong 
democratic institutions that provide marginalized communities with a 
voice and way to resolve their grievances are critical to prevent 
further terrorist recruitment. The provision by the Government of basic 
services to its citizens will offer an alternative to terrorist groups.

    Answer. Insecurity stemming from terrorist attacks has driven 
Burkina Faso's leaders, for example, to adopt revisions to its penal 
code to prohibit media outlets from publishing news relating to 
terrorist attacks or military counterterrorism operations, and this has 
prompted self-censorship among journalists and civil society activists. 
If confirmed, I will encourage the Government of Burkina Faso to engage 
with its citizens in a way that strengthens its legitimacy.

    Question. What steps will you take--if confirmed--to support 
democracy in Burkina Faso? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States plays a critical role in advocating for 
democracy in Burkina Faso through diplomatic engagement, which I will 
ensure continues if confirmed as Ambassador. I will continue the 
Embassy's advocacy of press freedom in Burkina Faso and seek to avoid 
any backsliding on press freedom. I commit to meeting regularly with 
independent, local press in Burkina Faso and to following and 
addressing obstacles to governance, rule of law, and threats to human 
rights and press freedom.
    Additionally, our efforts through cross-cutting programs aim to 
strengthen the capacity of national and local governments to address 
nuanced underlying grievances, societal cleavages, and economic drivers 
that can contribute to insecurity. I will be a strong advocate of these 
programs should I be confirmed.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will lead the U.S. Government in its 
efforts to strengthen the capacity of national and local governments to 
address the nuanced underlying grievances and economic drivers that can 
lead to insecurity using every tool available. For instance, the Public 
Affairs Small Grants program supports training of women and youth to 
participate in elections. Public Diplomacy programs launch campaigns to 
inspire civic engagement in local communities. USAID programs continue 
to build the legislative capacities, oversight, and accountability of 
the National Assembly.USAID works to support Burkina Faso's vibrant 
civil society organizations to play a fundamental role by advocating on 
behalf of marginalized populations and promoting active and responsible 
participation.Over 100 members of the independent electoral commission 
(CENI) at the central, provincial, and municipal levels have benefited 
from USAID training.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Burkina Faso? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Burkina Faso has a vibrant civil society. I commit, if 
confirmed, to meet with human rights, civil society, and other non-
governmental organizations in the U.S. and with local human rights non-
governmental organizations in Burkina Faso. I will continue to engage 
civil society actors that seek to hold government institutions 
accountable for improved governance and rule of law and discourage the 
Government from restricting or penalizing NGOs and civil society via 
legal or regulatory measures.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. There is broad support in Burkina Faso for the democratic 
electoral process; upcoming elections are critical to rooting Burkina 
Faso's nascent democracy. I commit to meeting with democratically 
oriented political opposition figures and parties, should I be 
confirmed. Increasing the participation of women and youth in the 
election process in Burkina Faso is a central tenet of the United 
States' election assistance. Embassy Ouagadougou has sent dozens of 
young leaders including directors of the CENI on democracy-focused 
International Visitor Leadership Programs (IVLP) in the United States. 
In addition to political and civil society leaders, the Embassy has 
supported journalists and security directors on IVLP programs focusing 
on elections coverage and elections security. If confirmed, I plan to 
engage these alumni upon their return and empower them to organize 
programs around the country promoting civic engagement, democracy, and 
good governance.

    Question. Will you and your embassy team actively engage with 
Burkina Faso on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Burkina Faso?

    Answer. urkina Faso ranks 36 out of 180 according to the 2019 World 
Press Freedom Index. Regrettably, rising insecurity has led to 
revisions of Burkina Faso's penal code that prohibits media outlets 
from publishing any news related to terrorist attacks or military 
counterterrorism operations, prompting a growing climate of self-
censorship among journalists. If confirmed, I will seek to ensure this 
trend does not develop into a backsliding of press freedom, continuing 
the Embassy's advocacy of press freedom. I commit to meeting regularly 
with independent, local press in Burkina Faso and to using public 
opportunities to defend and protect these core values.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Disinformation and propaganda disseminated by violent 
extremist organizations and governments such as Russia and China are a 
concern in Burkina Faso and across the region. If confirmed, I will 
lead my team in countering disinformation and propaganda disseminated 
by foreign state or non-state actors in the country.

    Question. Will you and your embassy teams actively engage with 
Burkina Faso on the right of labor groups to organize, including for 
independent trade unions

    Answer. Protecting workers' rights, especially the freedoms of 
association and collective bargaining, is essential to building durable 
democracies as well as achieving sustainable growth for prosperity. If 
confirmed, I will commit to engaging with the Government and the people 
of Burkina Faso on these important rights.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Burkina Faso, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Burkina Faso? What specifically will you commit to do to help LGBTQ 
people in Burkina Faso?

    Answer. While there are no laws criminalizing LGBTI status or 
conduct, these individuals are often victims of discrimination. If 
confirmed, I will meet with representatives of the LGBTI community and 
advocacy groups and include them in Embassy outreach and programming. I 
will encourage the Government of Burkina Faso to proactively protect 
members of the LGBTQ community from harmful societal stigmas.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Sandra E. Clark by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy What has been the 
impact of your actions?

    Answer. I consider the promotion of human rights and of democracy 
as intrinsic to U.S. diplomacy. Respect for human rights and a 
democratic process that respects the will of the people are integral to 
progress on development and security. Throughout my career, for example 
from serving as an election observer to push for free and fair 
elections in The Philippines and Georgia to working on programming and 
strategies to strengthen democracy as Deputy Coordinator for Assistance 
to Europe and Eurasia, to advocating for reform in Guinea-Bissau when 
Deputy Chief of Mission in Dakar, Senegal, I have sought to be an 
advocate for these core values. I have also advocated for reforms and 
anti-corruption measures to strengthen the rule of law, and met with 
civil society leaders, helping to support their work on human rights. I 
have made sure to include diverse representation in embassy activities 
and programming, such as nominations for U.S. Government exchanges. I 
look forward, should I be confirmed, to doing all I can to strengthen 
the young democracy that is Burkina Faso, to advocate for human rights, 
and incorporate these values in all my work as Ambassador and in that 
of our mission.

    Question. What are the most pressing human rights issues in Burkina 
Faso? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Burkina Faso? What 
do you hope to accomplish through these actions?

    Answer. Human rights abuses and violations by security forces, 
armed civilian militias, as well as terrorist groups remain the most 
pressing human rights issues in Burkina Faso. If confirmed, I will 
continue to push the Government to investigate allegations of human 
rights abuses and violations, prosecute those found guilty of such 
crimes, and implement an aggressive diplomatic strategy to advocate for 
the respect of human rights by Burkinabe security forces. I will also 
continue to push the Government to investigate and prosecute 
terrorists.
    If confirmed, I will draw on all existing USG resources to assist 
the Government in reducing the potential violence and harm by community 
based armed groups that were recently created to supplement the 
military. I will work with the Government to establish a disarmament, 
demobilization, and reintegration (DDR) program that engages entire 
communities, responds to local drivers of terrorism, and provides 
alternative options for support and recovery assistance to women and 
youth subjected to violence by terrorists. If confirmed, I will work 
with all actors in country to ensure free and fair presidential and 
legislative elections scheduled for November 2020 and municipal 
elections the following Spring.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in?Burkina Faso?in 
advancing human rights, civil society, and democracy in general?

    Answer. Burkina Faso's justice system is overburdened and 
understaffed, creating a case backlog and a prolonged timeline for 
holding perpetrators accountable for human rights abuses. Widespread 
insecurity throughout the country has limited investigators' access to 
crime scenes as well as the availability of witnesses and evidence. 
Rising insecurity has also led to revisions of Burkina Faso's penal 
code that prohibits media outlets from publishing any news related to 
terrorist attacks or military counterterrorism operations, prompting a 
growing climate of self-censorship among journalists and civil society 
activists. If confirmed, I will seek to ensure press freedom is strong 
and does not lead to a closing space for civil society. I will also 
work closely with the Burkinabe Government and its independent National 
Electoral Commission (CENI), as well as other parties to ensure that 
despite steep challenges the upcoming elections are viewed as credible 
by the majority of the population.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Burkina Faso? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I commit, if confirmed, to meet with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights non-governmental organizations in Burkina Faso. I 
also will ensure that the Embassy continues to vet all potential 
candidates for U.S. assistance to ensure that no U.S. security 
assistance is provided to any foreign security forces unit where there 
is credible information that the unit has committed a gross violation 
of human rights, as required under the Leahy Law. If confirmed, I will 
continue to ensure training on rule of law and armed conflict and human 
rights are provided in conjunction with as much of our security 
training as possible in the future. Such training is consistent with 
shared values and failure to abide by human rights makes our work more 
difficult.

    Question. Will you and your embassy team actively engage 
with?Burkina Faso?to address cases of key political prisoners or 
persons otherwise unjustly targeted?by Burkina Faso?

    Answer. If confirmed, I will engage with the Government, should 
there be cases of people who have been unlawfully or arbitrarily 
detained. Burkina Faso's justice department is currently investigating 
multiple allegations of human rights abuses toward civilians and 
refugees by its armed forces during counterterrorism operations. If 
confirmed, I will urge the Government to complete these investigations 
and hold perpetrators accountable.

    Question. Will you engage with Burkina Faso on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage on these issues with the 
Government and other stakeholders. I will ensure, if confirmed, that 
embassy personnel and U.S. Government programming address and promote 
these issues as well. The Burkinabe seek cooperation with U.S. 
personnel across a broad spectrum, to include the sectors of security, 
military, human rights, justice, and health, among others.The United 
States plays a critical role in advocating for democracy and human 
rights in Burkina Faso through diplomatic and other engagement. U.S. 
Government programs build legislative capacities, oversight, and 
accountability of the National Assembly, and support Burkina Faso's 
vibrant civil society organizations to play a fundamental role by 
advocating on behalf of marginalized populations and promoting active 
and responsible participation. I will continue to support these 
programs if confirmed as Ambassador.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I value a workplace where each individual is treated with 
respect and dignity and would make clear my expectation that the 
mission in Burkina Faso is such a workplace, should I be confirmed. I 
have endeavored throughout my career to be a colleague, mentor and 
leader in support of these principles and would continue to do so, 
setting a strong example. I would ensure that everyone understands the 
importance of Equal Employment Opportunity (EEO) principles, that we 
abide by them on a daily basis, and that there are?well-trained?and 
proactive EEO counselors who conduct trainings and other activities to 
underscore the importance of promoting diversity and inclusion for both 
American and local employees. I would endeavor to recruit staff who 
reflect the diversity of the United States. I would look for ways to 
solicit feedback from all members of the embassy community on the work 
environment and take measures as appropriate to address concerns, and 
would encourage cross-cultural understanding between American and local 
staff. I would ensure that embassy staff are aware of and can tap into 
all the resources the Department of State has available, should I be 
confirmed.?

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Burkina Faso are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I would set an example as a leader who values 
and fosters a diverse and inclusive environment and make clear my 
expectations that each supervisor does the same. I would encourage 
supervisors to take advantage of training and provide more informal 
ways to further their skills as supervisors. I would ask supervisors to 
pay attention to the professional development of each person they 
supervise, stressing that EEO principles are an integral part of their 
work requirements, and encourage them to be proactive in fostering a 
diverse and inclusive environment.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Burkina Faso?

    Answer. My investment portfolio includes funds that may have or 
acquire investments in companies with a presence in Burkina Faso; 
however, all but three of these funds are exempt from the conflicts of 
interest rules. I am committed to following all applicable ethics laws 
and regulations and will remain vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Burkina 
Faso specifically?

    Answer. Political corruption erodes state legitimacy and ultimately 
degrades the rule of law. Corruption can also undermine support for 
democracy, especially in a fragile democracy like Burkina Faso. 
Corruption must be addressed in order to root Burkina Faso's nascent 
democracy, attract additional U.S. investment to Burkina Faso, and 
encourage economic growth. If confirmed, I would encourage the 
Government of Burkina Faso to invigorate its anti-corruption efforts.

    Question. What is your assessment of corruption trends in?Burkina 
Faso?and efforts to address and reduce it by that Government?

    Answer. Corruption continues to be a problem in Burkina Faso and 
throughout the region. Burkinabe law provides criminal penalties for 
official corruption and the Government has created official entities 
responsible for addressing corruption. Prosecutors recently pressed 
charges against members of the Government for their involvement in the 
illegal export of gold. In 2019, Burkina Faso met the Department of 
State's minimum requirements for fiscal transparency. If confirmed, I 
would encourage the Government of Burkina Faso to invigorate its anti-
corruption efforts.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Burkina Faso?

    Answer. In keeping with U.S. strategic interests, the U.S. Embassy 
in Burkina Faso is committed to a partnership with the Government of 
Burkina Faso, and other technical and financial partners, for positive 
security, governance, and socio-economic outcomes for the Burkinabe 
people. These desired outcomes include helping the Government bolster 
security and stability, strengthen the country's social compact, and 
reduce the population's vulnerability to violent extremist recruitment 
and attacks. Our efforts to advance good governance and democracy are 
facilitated by a population that strongly values freedom of expression 
and freedom of religion, as well as a vibrant civil society that 
advances good governance and anti-corruption efforts.This political 
culture makes the Burkinabe natural partners for the United States. If 
confirmed, I would strongly support anti-corruption programming, and 
advocate for the completion of investigations related to corruption, 
which will promote confidence in state authorities and counter violent 
extremism. I would continue to engage civil society actors that seek to 
hold government institutions accountable for improved governance and 
rule of law.



                               __________


       Responses to Additional Questions for the Record Submitted
         to William Ellison Grayson by Senator Robert Menendez

U.S.-Estonia Security Relations
    Question. I was pleased to see that in your opening statement you 
committed to working to ``deepen our defense cooperation with 
Estonia.'' However, last October President Trump did the opposite when 
he diverted nearly $16 million in European Deterrence Initiative 
funding from Estonia to fund his border wall. I understand that the 
administration did not inform the Government of Estonia that it was 
making this cut prior to the public announcement.

   If the administration sought to redirect EDI Estonia funds in the 
        future to the President's border wall, would you support such a 
        decision?

    Answer. Last year, the U.S. Department of Defense deferred a number 
of military construction projects to provide funding for military 
construction projects determined necessary in connection with the 
national emergency declared by the President on February 15, 2019, and 
continued in effect on February 13, 2020. I will support the 
administration's decisions on allocation of EDI funds while working to 
clearly convey to the Government of Estonia that the administration 
remains committed to EDI. The administration's request for an 
additional $4.5 billion in FY 2021 funds to support a more robust U.S. 
military rotational presence throughout the European theater shows our 
commitment to Europe's, and Estonia's, security. These funds will go 
toward increasing training and exercises, continuing placement of 
prepositioned equipment to support the rapid deployment of forces to 
Europe if required, improving infrastructure, and expanding engagements 
to strengthen the capacity of our Allies and partners to defend 
themselves. The U.S. is strongly committed to the security of Estonia 
as a NATO Ally and strong partner. If confirmed as Ambassador, I would 
push for investment to increase Estonia's readiness, enhance its 
deterrence and defense capabilities, and meet new challenges.

    Question. If confirmed, do you commit to inform and consult with 
the Government of Estonia on decisions relevant to its security?

    Answer. The United States and Estonia have been close friends for 
nearly a century. This was exemplified most clearly in the 1940 Sumner 
Welles Declaration, which forcefully stated the United States' refusal 
to recognize the forced annexation of Estonia, Latvia, and Lithuania by 
the Soviet Union. The Welles Declaration made clear America's steadfast 
commitment to the Baltic nations' freedom, sovereignty, and territorial 
integrity. We work closely with Estonia as a NATO Ally to counter 
terrorism on a global scale. We partner to address state-sponsored 
threats posed by Russia and the People's Republic of China to 
subversively attack America's commitment to Europe, undermine 
transatlantic unity, and weaken European institutions and governments. 
If confirmed, I commit to continue this close cooperation and inform 
and consult with the Government of Estonia on decisions relevant to its 
security.

    Question. I understand that the State Department is considering 
adding Estonia to the European Recapitalization Incentive Program 
(ERIP).

   What is the status of discussions with Estonia regarding ERIP, 
        particularly regarding any bidding laws that could preclude it 
        from purchasing American equipment?

    Answer. The State Department and Defense Department work closely 
with the Estonian Ministry of Defense to allocate U.S. security 
assistance, including Foreign Military Financing (FMF) which funds ERIP 
(European Recapitalization Incentive Program). A partner must have 
Russian-origin or Soviet-legacy equipment to divest in return for an 
ERIP grant to acquire U.S. equipment. According to Estonian officials, 
Estonia divested almost all Soviet-legacy equipment prior to ERIP's 
establishment in 2018. U.S. company Lewis Machine & Tool won an $81 
million contract with Estonia in 2019 to supply the Estonian Defense 
Forces with automatic firearms and auxiliary equipment over a seven-
year period, showing U.S. competitiveness in Estonia's arms sales 
market.

Domestic Issues in Estonia
    Question. As you said in your opening statement, Estonia's 
leadership in cyber and information technology presents many 
opportunities to increase U.S.-Estonia relations.

   What are the biggest barriers to increased U.S. investment in 
        Estonia's tech sector, and if confirmed how will you work to 
        address them?

    Answer. The United States and Estonia work closely together to 
drive technological innovation. The U.S.-Estonian trade relationship 
has great growth potential. If confirmed, I will work to expand our 
economic ties, promote U.S exports, and attract additional Estonian 
investment in the United States to support U.S. jobs. Estonia's 
membership in the EU means investors and U.S. firms wanting to do 
business in Estonia face limited barriers to entry, particularly if 
they are already operating in other EU member countries. This, coupled 
with a high level of government transparency, means U.S. firms face few 
regulatory challenges in Estonia. If confirmed as Ambassador, I will 
work with the Government and the private sector to strengthen our trade 
and economic ties. I will actively engage AmCham Estonia and monitor 
policy challenges that affect U.S. companies. I will promote global 
U.S. economic policy priorities, including intellectual property 
protections. In addition, I will actively promote the SelectUSA program 
to encourage Estonian firms to invest in U.S. expansion and create jobs 
in the United States.

    Question. Given Estonia's leadership on cybersecurity, how can the 
U.S. increase collaboration and best practice sharing with Estonia to 
help address our own cybersecurity challenges?

    Answer. The United States and Estonia cooperate closely on 
cybersecurity and share a common vision of an open, interoperable, 
reliable and secure cyberspace. We are committed to developing a common 
approach to network security and ensuring a vibrant 5G ecosystem based 
on free and fair competition, transparency, and the rule of law. The 
United States and Estonia issued a joint declaration on 5G 
telecommunications security last year and we engage in joint exercises 
and conferences on cyber cooperation. If confirmed as Ambassador, I 
commit to working to realize our common vision of an open, 
interoperable, reliable, and secure cyberspace based on a framework of 
responsible state behavior in cyberspace which includes the affirmation 
of the applicability of international law to state behavior in 
cyberspace, the promotion of voluntary, non-binding norms of 
responsible state behavior during peacetime, and the development and 
implementation of cyber confidence building measures to reduce the risk 
of conflict and escalation in cyberspace. I will seek increased 
collaboration and future cooperation with Estonia to include cyber 
incident response, personnel exchanges, and increased exercise 
participation and information sharing.

    Question. The Conservative People's Party of Estonia (EKRE) is a 
member of the ruling coalition and leads the Ministry of Finance and 
the Ministry of Foreign Trade and Information Technology, among others.

   What is your view of the disturbing ideas reportedly espoused by 
        members of this party, such as suggesting top Estonian 
        politicians are ``secret Jews''; saying Estonia's President 
        ``becomes so emotionally upset as a woman that she makes a 
        decision right away''; and calling for a ``white Estonia''?

    Answer. The March 2019 Parliamentary elections resulted in a new 
ruling coalition that includes the far-right Conservative People's 
Party of Estonia (EKRE). I agree with the many Estonian officials and 
political leaders who have condemned those divisive statements. If 
confirmed, I will listen to and engage with people representing the 
full spectrum of responsible political viewpoints, but will make clear 
that hateful and divisive rhetoric has no place in democratic society. 
The Estonian people are among the most pro-American populations in 
Europe and if confirmed, I will work tirelessly to maintain close and 
productive relations with the Government of Estonia.

    Question. In your interactions with EKRE officials who support such 
views, do you commit to defend the human rights and dignity of all 
people in Estonia?

    Answer. Estonia has consistently ranked near the top of various 
international indices that measure democratic protections, media 
freedoms, and government transparency. The country is a founding member 
of the U.S.-led International Religious Freedom Alliance and has made 
the promotion of human rights one of the centerpieces of its ongoing 
U.N. Security Council term. If confirmed, I commit to defend human 
rights and dignity of all people in Estonia and will work to foster 
dialogue between the Government and civil society and to connect 
Estonian civil society with U.S. experts and practitioners to share 
best practices and experience.

    Question. How will you specifically support efforts to increase 
integration of Russian-speakers in Estonia and help the Government of 
Estonia counter Russian disinformation targeting this population?

    Answer. The social and linguistic divide between Estonia's ethnic 
Estonian majority and Russian-speaking minority presents opportunities 
for foreign disinformation campaigns. These campaigns target the 25-30 
percent of Estonia's population that speak Russian. If confirmed, I 
will work with the Estonian Government to implement outreach efforts 
that promote understanding between the two linguistic groups to 
strengthen social cohesion.

    Question. If confirmed, how will you directly engage with Estonia's 
Russian-speakers?

    Answer. Our U.S. Embassy in Tallinn uses a wide range of public 
diplomacy tools and resources to advance shared security policy 
objectives, promote transatlantic partnerships, and support Estonian 
efforts to advance social cohesion as part of a broader U.S. effort to 
reach Russian-speaking audiences in Estonia. If confirmed as 
Ambassador, I would emphasize English language, science, technology, 
engineering, and mathematics programs as vital tools to engage young 
Russian speakers and strengthen their connections to Estonia and 
Europe. In addition to direct engagement with targeted youth audiences, 
I will continue our collaboration with Estonian institutions and 
organizations to expand activities in key communities, and will 
leverage social media. I will prioritize cultural programming and 
academic and cultural exchanges to invest in our long-term partnership 
with the younger generation and promote accurate information about U.S. 
policy. If confirmed, I look forward to continuing the embassy's active 
engagement to strengthen our close friendship with the Estonian people.

Democracy and Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have made the promotion of democracy and human rights a 
priority in my private sector and public sector roles. I am proud to 
have helped select over 100 White House Fellows, as a Commissioner and 
a regional judge, who were committed to human rights and democracy. I 
have also served on non-profit boards (including colleges and 
universities) where I prioritized these issues. If confirmed, I will 
ensure that the promotion of human rights and respect for individual 
human dignity remain central in the work of the United States Embassy 
in Estonia.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Estonia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Estonia is a vibrant democracy with resilient institutions, 
established respect for rule of law, and a free press. Estonia is also 
a strong partner sharing our values and principles on human rights--
there are no reported cases of political prisoners or people unjustly 
targeted by Estonia. Around the world, corruption saps economic growth, 
hinders development, destabilizes governments, undermines democracy, 
and provides openings for dangerous transnational criminal 
organizations and malign actors. The Government of Estonia has passed 
and adheres to laws aimed at controlling corruption. Estonia 
consistently receives high scores in international rankings for being 
one of the least corrupt countries in the world. A 2019 Transparency 
International report ranked Estonia as the 18th least corrupt country, 
earning Estonia a score higher than France, its Baltic neighbors, and 
Poland.

    Question. What steps will you take--if confirmed--to support 
democracy in Estonia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Estonia is a vibrant democracy with strong institutions, 
and through organizations such as the Estonian e-Governance academy, 
shares its best practices on transparency and accountability with other 
countries. If confirmed, I will engage with Estonian officials on 
promoting democracy, good governance, and anticorruption reforms, 
measures, and programs. Through relevant U.S. programs and engagement, 
I will also deepen and expand our cooperation with Estonia on ways to 
promote transparency and respect for rule of law. I will leverage 
available U.S. assistance programs to promote good governance, 
democracy, and human rights in Estonia. If confirmed, I look forward to 
learning more about how Estonia has made the promotion of digital 
governance innovations the centerpiece of its international assistance 
programs, and discussing with the Government how the U.S. and Estonia 
can work together to increase anti-corruption capacities in third 
countries.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed as Ambassador, I will leverage available U.S. 
assistance programs to promote good governance, democracy, and human 
rights in Estonia. I will also seek opportunities for the U.S. and 
Estonia to partner to increase anti-corruption capacities in third 
countries. Estonia has drawn on its transition experiences and cyber 
expertise to provide specialized development assistance in 
cybersecurity and the use of information technology to improve the 
efficiency and effectiveness of service delivery in the public sector. 
In addition to partnering with the U.S. Government to support 
development projects in Moldova and Georgia through the Department of 
State's Emerging Donor Challenge Fund, Estonia mentors Eastern 
Partnership countries and other emerging democracies through the 
Tallinn-based e-Governance Center.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Estonia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I will engage with civil society 
members, human rights and other non-governmental organizations across 
the United States and with local human rights NGOs, and other members 
of civil society in Estonia on a wide array of human rights. While 
there are no reports of efforts to restrict or penalize NGOs or civil 
society at present in Estonia, and the Government generally takes steps 
to investigate and punish abuses, if confirmed I will continue to 
monitor for possible efforts to restrict NGOs or civil society and 
ensure vetting procedures for U.S. assistance to Estonia are 
implemented consistent with U.S. law.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Estonia is a vibrant, multi-party, parliamentary democracy 
with resilient institutions, established respect for rule of law, and a 
free press. If confirmed, I will advocate for the continued 
participation of women, minorities and youth within political parties 
in Estonia.

    Question. Will you and your embassy team actively engage with 
Estonia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Estonia?

    Answer. Yes, if confirmed, my embassy team and I will actively 
engage with Estonia on freedom of the press and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory or other measures. Estonia consistently rates very highly on 
indices of press and internet freedom, ranking 11th in the 2019 World 
Press Freedom Index. Estonia has a well-developed and professional 
media industry. The editors-in-chief of each publication/outlet set 
their own editorial agendas and there has been a lively debate about 
editorial decisions and political preferences since the March 2019 
parliamentary elections. If confirmed, I commit to meeting regularly 
with independent, local press in Estonia.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The U.S. supports the Estonian Government's initiatives to 
continue integration efforts between the majority ethnic Estonian 
population and the country's Russian-speaking minority. This outreach 
protects social cohesion, builds civic identity and trust in the 
national government, and encourages resiliency against disinformation 
campaigns by malicious foreign actors. If confirmed, my embassy team 
and I will actively engage with civil society and government 
counterparts on countering disinformation and propaganda disseminated 
by foreign state or non-state actors in the country. We will work to 
foster dialogue between the Government and civil society and to connect 
Estonian civil society with U.S. experts and practitioners to share 
best practices and experience.

    Question. Will you and your embassy teams actively engage with 
Estonia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Estonian law, related regulations, and statutory 
instruments provide workers with the right to form and join independent 
unions of their choice, bargain collectively, and conduct legal 
strikes. The law allows unions to conduct their activities without 
interference and prohibits antiunion discrimination. According to the 
U.S. Department of State's 2019 Human Rights Report, parties in Estonia 
freely engaged in collective bargaining, and there were no reports that 
the Government or parties interfered in the functioning of workers' 
organizations. If confirmed, my embassy team and I will actively engage 
with the Estonian Government on the continued protection of these 
rights for labor groups, including independent trade unions.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Estonia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Estonia? What specifically will you commit to do to help LGBTQ people 
in Estonia?

    Answer. Estonian law prohibits discrimination based on sexual 
orientation and gender identity. While the law is not specific 
regarding the forms of sexual orientation and gender identity covered, 
the general understanding is that it encompasses lesbian, gay, 
bisexual, transgender, and intersex individuals. According to the U.S. 
Department of State's 2019 Human Rights Report, police registered one 
case that included hatred against LGBTI persons in 2018. Advocacy 
groups reported that, while societal harassment and discrimination 
against LGBTI persons remained common, they also noted improving 
attitudes towards LGBTI persons. U.S. Embassy Tallinn is active in 
promoting a tolerant Estonia, free from institutional homophobia and 
transphobia, and safe for the LGBTI community. If confirmed, I commit 
to using my position to defend the human rights and dignity of all 
people in Estonia, no matter their sexual orientation or gender 
identity.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels, including reporting to the Office of the 
Inspector General.

Administrative
    Question. Following President Trump's comments last year welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the State Department have explicit 
guidance for all of its personnel on how to deal with this scenario. 
Guidance on handling interactions that prompt concern about 
exploitation by a foreign entity, such as FAM Chapter 12, Section 262, 
does not clearly address this situation.

   If a foreign person or government approaches you or a staffer at 
        the embassy with derogatory information on a U.S. political 
        figure, what is your understanding of official State Department 
        policy on how to handle this specific situation? Has a cable 
        with clear guidance on how to handle this specific situation 
        been sent to all U.S. embassies?

    Answer. If confirmed, I will follow the Department of State's 
guidance with regard to reporting derogatory information.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I take the issues of sexual harassment, discrimination, 
and inappropriate conduct with the utmost seriousness. To my knowledge, 
I have never been named in a formal or informal complaint of harassment 
or discrimination.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No. As stated above I take the issues of sexual harassment, 
discrimination, and inappropriate conduct with the utmost seriousness 
and would immediately address any issues raised to me in accordance 
with the Department of State's policies.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration is wholly 
inappropriate. I take allegations of such practices seriously and if 
confirmed, I will maintain a policy of no tolerance for retaliation, 
blacklisting, or other prohibited personnel practices at U.S. Embassy 
Tallinn. I will hold U.S. Embassy Tallinn employees accountable to the 
highest standards in accordance with applicable law, rules, and 
regulations on anti-discrimination and prohibited personnel practices, 
including the Notification and Federal Employee Antidiscrimination and 
Retaliation Act of 2002, as amended. If confirmed, I commit to raise 
any concerns that I may have through appropriate channels.



                               __________


       Responses to Additional Questions for the Record Submitted
        to William Ellison Grayson by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have made the promotion of human rights and democracy a 
priority in my private sector and public sector roles. I am proud to 
have helped select over 100 White House Fellows, as a Commissioner and 
a regional judge, who were committed to human rights and democracy. I 
have also served on non-profit boards (including colleges and 
universities) where I prioritized these issues. If confirmed, I will 
ensure that the promotion of human rights and respect for individual 
human dignity remain central in the work of the United States Embassy 
in Estonia.

    Question. What are the most pressing human rights issues in 
Estonia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Estonia? What do 
you hope to accomplish through these actions?

    Answer. Estonia has consistently ranked near the top of various 
international indices that measure democratic protections, media 
freedoms, and government transparency. The country is a founding member 
of the U.S.-led International Religious Freedom Alliance and has made 
the promotion of human rights one of the centerpieces of its ongoing 
U.N. Security Council term. The Government has continued to demonstrate 
serious and sustained efforts to combat trafficking in persons, 
although further improvement should be made to better investigate, 
prosecute, and convict traffickers, and authorities should proactively 
identify and assist potential labor trafficking victims, as noted by 
the State Department's 2019 Trafficking in Persons Report. Estonia 
continues to face challenges in overcoming social and linguistic 
divides between Estonian and Russian speakers. The U.S. supports the 
Government's initiatives to continue integration efforts between the 
majority ethnic Estonian population and the country's Russian-speaking 
minority, as such outreach protects social cohesion, builds civic 
identity and trust in the national government, and encourages 
resiliency against disinformation campaigns by malicious foreign 
actors. If confirmed, I will work to foster dialogue between the 
Government and civil society and to connect Estonian civil society with 
U.S. experts and practitioners to share best practices and experience.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Estonia in 
advancing human rights, civil society, and democracy in general?

    Answer. The primary obstacles to addressing human rights issues 
concern the social and linguistic divides between the country's ethnic 
Estonian majority and Russian-speaking minority, which constitutes some 
25-30 percent of the population and is concentrated in the country's 
northeast and in Tallinn. Such divides have the potential to manifest 
stark differences in social and economic indicators between the two 
groups, which in turn can create vulnerabilities. If confirmed, I will 
continue U.S. efforts to support the Government of Estonia's 
development and implementation of outreach efforts that promote mutual 
understanding between the two linguistic groups.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Estonia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations across the United States and in Estonia 
on a wide array of human rights. While there are no reports in the 2019 
Human Rights Report of serious human rights abuses and the Government 
generally takes steps to investigate and punish abuses, I will continue 
to ensure vetting procedures for U.S. assistance to Estonian security 
forces are implemented consistent with U.S. law.

    Question. Will you and your embassy team actively engage with 
Estonia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Estonia?

    Answer. Estonia is a strong partner sharing our values and 
principles on human rights. There are no reported cases of political 
prisoners or people unjustly targeted by Estonia. If such reports 
become known in the future, if confirmed, I will engage Estonian 
Government officials, regulatory bodies, parliamentarians, and 
nongovernmental and civil society organizations to address them.

    Question. Will you engage with Estonia on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage Estonian officials on 
promoting democracy, respect for rule of law, human rights, the 
important role of civil society, and good governance practices, 
measures, and programs.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I fully support a diverse workforce. Diversity advances and 
illustrates American values and improves work environments by tapping 
into new perspectives and visions. Increasing diversity fosters an 
inclusive workplace and promotes exchange of new ideas and innovative 
thinking. I have been involved in diversity and inclusion training 
roles at the companies where I have worked (JP Morgan, Alliance 
Bernstein, Bank of America) and in the Government departments and 
agencies where I have served, the Department of Defense and the 
Presidio Trust in San Francisco. I strongly support the State 
Department's goal of fostering a workplace that reflects the rich 
diversity of the United States. If confirmed, I will promote a 
workplace that encourages tolerance, respect, collaboration, and 
inclusion.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Estonia are fostering an environment that 
is diverse and inclusive?

    Answer. Diversity and inclusion must be a focus area for Embassy 
planning and leadership. If confirmed, I will foster a positive work 
environment by instituting diversity and inclusion as priority 
objectives in Embassy strategy and planning documents. I will also 
promote diversity and inclusion as focal points in my first meetings 
with Embassy leadership. If confirmed, I will underscore that our 
policies and outcomes are improved by drawing on inclusive, diverse 
teams with a breadth of experiences and perspectives. I will also 
communicate strongly the Department's EEO policies in my mission and 
work to ensure they are followed.

Conflicts of Interest

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Estonia?

    Answer. Neither I nor any of my immediate family have any specific 
financial interests in Estonia. My investment portfolio includes both 
individual stock holdings as well as mutual funds, which may hold 
interests in companies with a presence in Estonia, but the latter of 
which are exempt from the conflict of interest laws. I am committed to 
following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Estonia 
specifically?

    Answer. Around the world, corruption saps economic growth, hinders 
development, destabilizes governments, undermines democracy, and 
provides openings for dangerous transnational criminal organizations 
and malign actors. In addition, weak rule of law and a corrupt judicial 
system constrain U.S. interests in promoting economic development, 
democratic consolidation, and stability in our allies. The Government 
of Estonia has passed and adheres to laws aimed at controlling 
corruption. However, when corruption does occur, it weakens public 
confidence in judicial institutions and democracy, impedes access to 
justice, and limits the willingness of foreign investors to invest in 
the country.

    Question. What is your assessment of corruption trends in Estonia 
and efforts to address and reduce it by that government?

    Answer. Estonia is a vibrant democracy with resilient institutions, 
established respect for rule of law, and a free press. Estonian law 
provides effective mechanisms to investigate and punish corruption, 
including criminal penalties for corruption by government officials, 
and the Government generally implements the law effectively. Estonia's 
investments in digital governance have shown that such innovations can 
also be a powerful tool for fighting public sector corruption. Estonia 
has improved is standing each year since 2012 on Transparency 
International's Corruption Perceptions Index, scoring 74 on the index 
in 2019 on a scale of 0 (highly corrupt) to 100 (very clean).

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Estonia?

    Answer. If confirmed, I will engage with Estonian officials on 
promoting democracy, good governance, and anticorruption reforms, 
measures, and programs. Through relevant U.S. programs and engagement, 
I will also deepen and expand our cooperation with Estonia on ways to 
promote transparency and respect for rule of law and I will leverage 
available U.S. assistance programs to promote good governance, 
democracy, and human rights in Estonia. If confirmed I look forward to 
learning more about how Estonia has made the promotion of digital 
governance innovations the centerpiece of its international assistance 
programs, and discussing with the Government how the U.S. and Estonia 
can work together to increase anti-corruption capacities in third 
countries.



                               __________


       Responses to Additional Questions for the Record Submitted
          to William Ellison Grayson by Senator Cory A. Booker

Online Disinformation
    Question. Russia has been engaged in online misinformation and 
influence campaign against democratic nations, particularly in 
countries with Russian-speaking communities such as Estonia. Through 
this component of ``hybrid'' warfare, Russia looks for opportunities to 
challenge democracies. We now know well that one such opportunity was 
the U.S. presidential election in 2016. The outbreak of COVID-19 has 
presented Russia with another opportunity to undermine liberal 
democratic norms and institutions, weaken cohesion among democratic 
allies and partners, reduce U.S. influence, and advance Russian 
interests. The European Union reported that Russian media have deployed 
a ``significant disinformation campaign'' against European societies to 
worsen the impact of the coronavirus:

   What measures should the U.S. consider to push back, expose, and 
        impose costs on Russia for their disinformation campaigns?

    Answer. The United States should continue to use all available 
tools including diplomatic engagement, public diplomacy, intelligence, 
and financial and law enforcement lines of effort to expose and impose 
costs on Russia for its disinformation campaigns. The Department of 
State works through a variety of interagency mechanisms, to include the 
Global Engagement Center, to streamline day-to-day efforts to counter 
all aspects of Russian influence campaigns and to ensure more efficient 
coordination of these resources. The Department should continue these 
efforts and actively work with our Allies and partners in Europe, 
including the Baltic nations, which have confronted Russian 
disinformation campaigns for decades, to identify and expose Russian 
disinformation. The Department should also continue to promote accurate 
messages about the United States and other nations in the pursuit of 
freedom, prosperity, and security in Europe.

    Question. As Ambassador, how will you prioritize deterring Russian 
aggression in Estonia and the larger Baltic region?

    Answer. Estonia, Latvia, and Lithuania are strategically aligned 
with the United States, fundamentally value the transatlantic alliance, 
and actively seek to support U.S. policy on Russia. NATO's eastern 
flank, including the Baltic nations, is again confronted by the actions 
of an aggressive Russia. Russia continues to seek to intimidate its 
neighbors, challenge their national sovereignty, and disrupt Euro-
Atlantic integration. If confirmed as Ambassador, deterring Russian 
aggression in Estonia and the larger Baltic region would be a top 
priority for me. I will continue to work closely with Estonia to 
counter threats posed by Russia's subversive measures aimed at 
weakening the credibility of America's commitment to Europe, 
undermining transatlantic unity, and weakening European institutions 
and governments.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Henry T. Wooster by Senator Robert Menendez

    Question. What concrete steps has Jordan taken toward structural 
reform and fiscal consolidation?

    Answer. Jordan has taken steps toward structural reform and fiscal 
consolidation since 2018. Jordan's economic team, led by Finance 
Minister Mohammad Al-Ississ, is committed to implementing these reforms 
and working with international financial institutions and bilateral 
donors, including the International Monetary Fund (IMF) as part of its 
new $1.3 billion four-year Extended Fund Facility. Notably, Jordan has 
implemented reforms that have helped it improve the Kingdom's business 
climate, as noted by the World Bank's 2020 Doing Business rankings, 
which cited Jordan as one of the top three improvers after it jumped 29 
spots. Additionally, Jordan has diversified its sources of energy after 
facing an acute power crisis the previous decade.

    Question. If confirmed, how will you support Jordan's own Economic 
Growth Plan 2018-22?

    Answer. The U.S. Government will continue to work with the 
Government of Jordan to support not only efforts at reform, but also 
efforts to invigorate economic growth and attract foreign investment. 
If confirmed, I will work with USAID to identify areas of potential 
growth in the Jordanian economy and target U.S. support and assistance 
in a way that provides a net boost to overall growth prospects. If 
confirmed, I will also work with the Government of Jordan to identify 
regional and global trade opportunities in areas in which Jordan has a 
competitive advantage and support its pursuit of those opportunities. 
Lastly, if confirmed, I will work to strengthen economic ties between 
Jordan and Israel.

    Question. In your view, what reforms should the Government of 
Jordan be making at this time, to ensure that continued financial 
assistance isn't necessary?

    Answer. Despite recent progress, Jordan still needs to improve 
public sector effectiveness; increase the Government's ability to 
generate revenue; reduce costs to businesses and increase regulatory 
quality; deepen energy and electricity sector sustainability; expand 
access to finance; and include more women in the formal economy. If 
confirmed, helping Jordan move forward on its path to self-reliance 
will remain one of my priorities.

    Question. How is the United States Government prepared to assist 
Jordan in reducing business costs, enhancing competitiveness, reforming 
the labor market, overhauling public governance, improving tax 
collection, and increasing access to credit?

    Answer. If confirmed, I will work with our partners in Jordan to 
reinforce and sustain their commitment to critical economic reforms. 
First, I will work to support continued engagement by the Government of 
Jordan with the IMF and other international financial institutions to 
implement reforms. Second, I will ensure Jordanian officials understand 
the priority we attach to economic reform while encouraging my economic 
team to continue advising and assisting their Jordanian counterparts. 
Lastly, I will ensure U.S. assistance is used properly and in a way 
that diminishes Jordan's dependence on external support.

    Question. In addition to our healthy economic assistance for 
Jordan, how can the United States help Jordan with its refugee 
population?

    Answer. The U.S. Government will continue to work with the 
international community to support Jordan in meeting the needs of 
refugees and host communities. The United States has and will continue 
to support improvements to Jordan's education, health, and water 
infrastructure, under strain from a variety of factors including the 
presence of a significant refugee population, approximately 83 percent 
of whom live in host community towns and cities. In addition, the 
United States contributes substantial funding to international 
organizations and non-governmental organizations in Jordan that 
directly support refugees from Syria, Iraq and over 50 other countries. 
We also have resettled nearly 33,700 refugees from Jordan since FY 
2010. The United States also spearheads donor support to the Government 
of Jordan by coordinating assistance and promoting burden sharing.

    Question. In your view, what are short- and long-term solutions for 
the population trapped at al-Rukban camp? How can we partner with the 
Jordanians on these solutions?

    Answer. To meet humanitarian imperatives, the United States 
continues to coordinate with the U.N. on assistance deliveries to 
Rukban from Damascus, but the Assad regime has refused to permit 
regular deliveries. We continue to urge the Assad regime and Russia to 
allow sustained deliveries of humanitarian assistance to Rukban.
    To end the Syrian conflict, which has displaced nearly 12 million 
Syrians both internally and outside of Syria's borders, a nationwide 
ceasefire must be implemented, followed by a political agreement, in 
line with U.N. Security Council Resolution 2254, that will provide for 
a Syrian-owned political transition to end the conflict. In addition, 
the U.S. Government and our allies can also help find durable solutions 
for all Syrian refugees and internally displaced persons, particularly 
those who wish to pursue safe, dignified, and voluntary returns. If 
confirmed, I will encourage the Government of Jordan to support each 
step towards the resolution of the conflict in Syria.

    Question. If confirmed, what will you do to foster Israeli-Jordan 
cooperation over water resources?

    Answer. Jordan and Israel have a history of cooperation on water, 
which, if confirmed, I will build upon. In addition, Israel has 
provided additional water to Jordan for purchase almost every year, 
including the past several years. If confirmed, I will continue our 
efforts to expand their partnership to share water resources, as both 
countries face an even drier future. I will support and promote 
dialogue on this water cooperation that provides mutual benefits while 
fostering partnership between the two countries.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Henry T. Wooster by Senator Ted Cruz

    Question. Can you please explain the security dynamics along the 
border between Jordan and Israel that necessitate Israeli control over 
the Jordan Valley, as acknowledged through President Trump's peace 
proposal?

    Answer. Israel's security is of tremendous importance to the United 
States. The U.S. Vision for Peace between Israel and the Palestinians 
fully addresses Israel's security requirements, does not ask Israel to 
take additional security risks, and enables Israel to defend itself, by 
itself, against any threats. That includes the Vision's provisions for 
the future of the Jordan Valley. Israeli security cooperation with 
Jordan is also a key element of Israel's security, and the 
administration strongly supports military and intelligence 
coordination, as well as all other relations, between Israel and 
Jordan.

    Question. Please describe the extent to which Jordan's refusal to 
extradite Tamimi has affected U.S.-Jordanian relations?

    Answer. We continue to ask that the Government of Jordan arrest 
Ahlam Aref Ahmad Al-Tamimi and agree to extradite her to the United 
States. The Government of Jordan has been unwilling to accede to our 
request due to the Court of Cassation's ruling that our bilateral 
extradition treaty is not valid.
    We continue to dispute the court's claim, as we exchanged 
instruments of ratification that brought the treaty into force on July 
29, 1995 and the treaty has not been terminated. We continue to raise 
this issue at the highest levels in order to reach a satisfactory 
solution.

    Question. What options and leverage does the United States have to 
secure Tamimi, including potentially withholding assistance to the 
Government of Jordan?

    Answer. The United States has multiple options and different types 
of leverage to secure Ahlam Aref Ahmad Al-Tamimi's extradition. We will 
continue to engage Jordanian officials at all levels not only on this 
issue, but also on the extradition treaty more broadly. U.S. generosity 
to Jordan in Foreign Military Financing as well as economic support and 
other assistance is carefully calibrated to protect and advance the 
range of U.S. interests in Jordan and in the region.

    Question. Can you commit to using those options and leverage to 
secure Tamimi's extradition?

    Answer. If confirmed, I would explore all options to bring Ahlam 
Aref Ahmad Al-Tamimi to justice, secure her extradition, and address 
the broader issues associated with the extradition treaty.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Henry T. Wooster by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. The virtue of being an American diplomat is that our 
presence or affiliation alone can promote our values, especially with 
regard to human rights and democracy. As the son of an Assyrian 
Christian refugee mother from the USSR, I know what it costs when human 
rights and democracy are absent. When the corpse of the Soviet Union 
was still warm, I volunteered to open the U.S. Embassy in Dushanbe, 
Tajikistan 1992-93. Moving around the country during its civil war had 
a meaningful impact, leading to a drop in the number of atrocitiesand 
killings in the areas I accessed. In 1994, after the Haitian military 
ousted freely-elected President Aristide, I was selected to lead his 
government-in-exile's recruiting and training efforts to launch a 
nascent national police force that would replace the coup-prone Haitian 
army. From 1994-1995, at Embassy Moscow, I coordinated assistance and 
training for Russian police in the United States. I was struck by the 
esteem returning Russian police had for their U.S. counterparts and how 
much they wanted to be seen that way at home. From 1997-1998, I was 
seconded to the U.N. Observer Mission in Georgia as the human rights 
officer in breakaway Abkhazia where I accompanied Russian military 
forces on patrol. No Russian patrol I accompanied ever had an 
allegation of abuse or murder, which were otherwise routine 
occurrences. As desk officer, Deputy Director, Director, and Acting 
Deputy Assistant Secretary for Iran (2005-2008 and 2010-2012), I 
promoted human rights, democracy, and freedom of expression, overseeing 
a budget of $175 million.

    Question. What are the most pressing human rights issues in Jordan? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Jordan? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issues in Jordan include 
arbitrary arrest and detention, allegations of torture by Jordanian 
security forces, infringements on citizens' privacy rights, 
restrictions on free expression and the press, and restrictions on 
freedom of association and assembly. If confirmed, I will promote human 
rights in Jordan, as a reflection of U.S. values and in accordance with 
U.S. policy. The State Department's annual Human Rights Reports remain 
one of our most effective tools in highlighting human rights issues 
around the world. Our report regularly garners press attention in 
Jordan and is studied carefully by the Government of Jordan, 
international and Jordanian NGOs, and other groups working on human 
rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Jordan in advancing 
human rights, civil society, and democracy in general?

    Answer. The most immediate obstacle to progress on human rights 
includes regional and domestic challenges that make security a priority 
for the Government of Jordan. The longer-term obstacles to progress 
include implementing laws. Although Jordan's legal structure provides 
for prosecution and punishment of officials who commit human rights 
abuses, enforcement remains a problemchallenge, so government officials 
enjoy a measure of impunity. The Government of Jordan must ensure 
transparent steps to investigate, prosecute, and punish officials who 
commit abuses. Progress is being made, as evidenced by the 2019 
convictions of 11 police officers for the extrajudicial killing of two 
detainees. If confirmed, I will work with the Government of Jordan to 
ensure steps like these continue and are implemented transparently.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Jordan? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue meeting with human rights, 
civil society, and other NGOs in the United States and in Jordan. 
Embassy Amman routinely meets with local NGOs to learn about alleged 
human rights abuses and hear their views on how the United States can 
advance human rights. Our embassy team implements the Leahy Law and 
vets recipients of U.S. security assistance and participants in 
security cooperation activities. If confirmed, I will ensure my embassy 
team continues to do this.

    Question. Will you and your embassy team actively engage with 
Jordan to address cases of key political prisoners or persons otherwise 
unjustly targeted by Jordan?

    Answer. If confirmed, my embassy team and I will actively engage 
with the Government of Jordan on the unjust detention and harassment of 
individuals for political reasons. Embassy Amman regularly engages at 
all levels of the Government of Jordan to emphasize the importance of 
an active civil society and freedom of expression. If confirmed, I 
pledge to continue to underscore the importance of these activities.

    Question. Will you engage with Jordan on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Human rights, civil rights, and effective governance are 
vital to our bilateral relationship and, if confirmed, I will continue 
to work with senior officials, international human rights NGOs, local 
NGOs, and civil society to enhance judicial independence, promote 
accountability among the security forces, and encourage respect for the 
rule of law. Freedom of assembly, freedom of expression (including 
online), democracy, accountability and transparency, empowering women, 
economic opportunity, and education are all U.S. priorities.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. Creating a welcoming environment for all people is one of 
my priorities: it corresponds to the values I was raised on the Golden 
Rule; it fulfills the Department's ethos; and it makes a more effective 
workforce. From a career in the Foreign Service, across multiple 
assignments, as a spouse and as a parent, I recognize that beyond being 
a workplace, U.S. diplomatic Missions are people's homes. To establish 
a baseline, I will conduct Town Halls, ``walkabouts'' to meet Embassy 
colleagues and their families, and consider other sources to gather 
information, such as an anonymous survey. These tools will provide 
multiple options for the Embassy Amman community to inform me how we 
are faring. The results will help me, in consultation with my senior 
interagency leadership team, in determining what next steps need to be 
taken. Additionally, I will support ongoing Diversity and Inclusion 
events, affinity groups, as I have throughout my career.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Jordan are fostering an environment that 
is diverse and inclusive?

    Answer. To ensure that supervisors foster a diverse and inclusive 
environment, I will emphasize to them and our Embassy community that 
this is a U.S. value, it complies with the Department's ethos, and it 
is my priority as Chief of Mission. I will work to create an open 
community where everyone's concerns and experiences are heard and dealt 
with in accordance to State Department policy.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Jordan?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. I will divest any investments the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I will remain 
vigilant with regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Jordan 
specifically?

    Answer. Political corruption undermines the rule of law and weakens 
the judicial process, both of which we seek to strengthen in Jordan. 
Transparency International ranks Jordan 60 out of 180 countries rated 
for public corruption. The Government of Jordan has made strides in 
combatting corruption and works with us in this area.

    Question. What is your assessment of corruption trends in Jordan 
and efforts to address and reduce it by that government?

    Answer. Corruption trends in Jordan have held relatively steady 
since the mid-90s, with Jordan consistently receiving a Transparency 
International score between 44 and 57, with a higher score indicating 
less corruption. Variations year-to-year indicate Jordan can do better 
and that corruption is likely affected by the extent to which the 
cabinet at any given time prioritizes the issue. The Government of 
Jordan has increased its efforts to combat corruption, including 
through investigating and prosecuting instances of high-level 
corruption. We have worked with Jordan on this issue, including by 
strengthening its asset declaration regime and supporting the work of 
the Integrity and Anti-Corruption Commission.
    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Jordan?

    Answer. If confirmed, I will commit to ensuring we maintain--and 
strengthening where possible--U.S. good governance and anticorruption 
efforts in Jordan. Our assistance program and relationships with 
Jordanian officials are the foundation for addressing these issues. If 
confirmed, I will underscore U.S. expectations that Jordan make 
progress on improving governance and strengthening anticorruption 
efforts.



                               __________





                              NOMINATIONS

                              ----------                              


                         THURSDAY, JUNE 4, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. by 
video conference, Hon. Todd Young presiding.
    Present: Senators Young [presiding], Cardin, and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Okay. Senator Merkley will be with us 
momentarily. I thank my colleagues for joining us and, most 
importantly, thanks so much to our witnesses.
    This hearing of the Senate Committee on Foreign Relations 
will come to order. I want to thank my fellow members of the 
committee and our nominees today for their patience with the 
technological limitations the COVID-19 pandemic has placed on 
us.
    I hope everyone can hear me, incidentally. You can nod 
affirmatively if, indeed, that is the case or put your thumb 
up.
    [Laughter.]
    Senator Young. Thank you. And the record will show that 
everyone nodded affirmatively. I know we all wish we could be 
meeting and hearing from this talented group of people in 
person.
    I would also like to thank Senator Merkley for his 
willingness to help convene this hearing today and for his 
tireless work with me on many, many issues facing our nation 
abroad.
    Today, this committee will consider the nominations of five 
individuals to represent the United States of America and their 
respective organizations.
    Our nominees today are Ms. Jenny McGee to serve as the 
associate director of the United States Agency for 
International Development; the Honorable Steven Dowd to be U.S. 
director of the European Bank for Reconstruction and 
Development; the Honorable Richard M. Mills to be deputy 
representative of the United States to the United Nations with 
a rank of ambassador; Mr. Jason Chung to be U.S. director of 
the Asian Development Bank with the rank of ambassador; Mr. 
Joseph Manso to be the U.S. representative to the Organization 
for the Prohibition of Chemical Weapons with the rank of 
ambassador.
    Thank you for your willingness to serve.
    For those of you that do not know, Senator Merkley and I 
have the privilege of leading the Foreign Relations 
Subcommittee on Multilateral Organizations, and in that role we 
have oversight of some of the organizations which will be 
discussed today.
    As we have discussed in our subcommittee and, indeed, as 
the full Senator Foreign Relations Committee has heard many 
times, the United States and the liberal democratic order is 
under assault by illiberal forces and governments.
    These governments do not seek freedom and peace but instead 
seek power and influence over weaker nations from which they 
hope to gain regional and global dominance.
    As has been a central conception of this administration's 
national security strategy, the United States is facing a 
period of great power conflict. This period of challenge, 
however, may not be limited to battlefields, at sea, on land, 
or in the air, and it is my deep hope that these differences 
will never erupt in open conflict.
    But as we are already seeing, our adversaries are already 
waging serious and strong campaigns within and against 
international and multilateral institutions.
    It is imperative that the United States refuse to sit back 
and accept our adversaries' marches down the field.
    In short, it is time for the United States to go on 
offense. This means public servants exerting pressure within 
international organizations for those organizations to abide by 
their charters and to seek freedom, peace, prosperity, and 
opportunity.
    Within the international fora to which the U.S. is a party, 
this is going to require a maximalist strategy of seeking 
partners, building coalitions, and creating pathways for these 
bodies to actually serve their member states.
    For standard-setting bodies, this means open transparent 
mechanisms and leadership that upholds rules and regulations 
and does not serve the Government and industries of any one 
nation, and in development organizations this means a people 
and business first approach that leverages private sector 
capacity and human rights to support sustainable projects that 
are not abused by investing governments.
    For our nominees today, I wish to underscore that agenda 
and requirement for you. If confirmed, I only ask that you 
execute your duties with unflagging effort, enthusiasm and 
patriotism.
    I hope to hear how you will seek to do that shortly.
    I now recognize, if he has joined us, my friend and 
distinguished colleague, Senator Merkley, for his opening 
comments.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman. We have 
been having technical difficulties. I could see you all but 
there was--I was not being admitted on the video end, and that 
seems to have been fixed on the fourth try.
    So I am good. Good to be with you now as we all come into 
this different age, and this is an important hearing and thank 
you to the nominees who are willing to serve, putting 
themselves forward to tackle the significant challenges that we 
have in a variety of fields.
    I am pleased that even in the midst of disruptions to 
normal Senate business we are able to move forward and consider 
important nominees in the multilateral institution and 
development spheres.
    Each of these nominees would oversee critical work, 
touching on key challenges such as economic development and 
human rights and climate chaos and weapons proliferation, 
humanitarian relief.
    If confirmed, they would assume leadership roles during a 
global pandemic that has killed more than 375,000 people. It 
has had a devastating impact on the global economy.
    The COVID-19 crisis has given rise to tremendous global 
health and humanitarian needs, severely disrupting the global 
food supply. It has propelled hundreds of millions of people 
into unemployment and financial peril. It has exacerbated the 
risk of human rights abuse and violent conflict and harmed many 
of the world's most vulnerable.
    Meanwhile, we need to increase United States leadership and 
work in diplomacy and development. We have to avoid any retreat 
from organizations and international agencies and such agencies 
as you all will be tasked to lead if confirmed.
    Several of these positions have relevance for our country's 
coronavirus response. All of them are vital to promoting 
democracy and peace building and economic dignity, now more 
important than ever.
    I look forward to hearing from each of you and how you will 
ensure that the United States works in partnership with the 
international community to solve the critical challenges the 
world faces.
    Thank you, Mr. Chairman.
    Senator Young. Well, thank you, Senator Merkley, for those 
words and for your continued leadership in this area.
    We will now turn our attention to our nominees. All five 
have already served or are currently serving the United States 
in various roles around the globe, and I am sure our 
conversations today will reflect that expertise and commitment 
to service.
    I offer my congratulations to all of you on your 
nominations to these respective roles and thank you for your 
willingness to serve in them, and I especially want to thank 
your families for the sacrifices they have made and will 
continue to make upon your confirmations.
    Now, before I go further, I understand Congressman Don 
Bacon from the great state of Nebraska wishes to be recognized 
in order to introduce a nominee.
    Please proceed.
    Mr. Bacon. Thank you, Mr. Chairman, and also thank the 
ranking member and the committee for having me on today. I 
really appreciate you all leading the way and getting our--you 
are showing the way how to get our country back to work. I 
thank you.
    I have the honor of introducing to the committee a 
colleague, a friend, and a distinguished public servant, Jenny 
McGee.
    Jenny has been nominated by the president to serve in the 
newly-created position of USAID associate administrator for 
relief response and resilience, and I thank the committee for 
the opportunity just to say a few words on her behalf.
    As a citizen, I am deeply grateful that capable and 
patriotic Americans like Jenny will be willing to devote their 
lives to serve our nation in challenging positions of 
consequence.
    USAID embodies the nobility of this calling, and with the 
advice and consent of the Senate we will greatly benefit from 
Jenny's experience, her leadership, and her passion to build a 
more peaceful and prosperous world.
    I had the honor of serving with Jenny on active duty in the 
Air Force where she was known as a leader of integrity who 
served with distinction in some of the most dynamic and 
challenging missions confronting our country.
    Her nomination now before the committee represents an 
important opportunity with the right person and the right 
position at the exact right time.
    By the way, when I served with her she oversaw all of the 
training, all of the promotions, all the assignments for all of 
our Air Force intelligence personnel, a tremendous 
responsibility, and she did it with superb excellence.
    So as USAID associate administrator, Jenny will be charged 
with providing strategic guidance for the Bureaus of 
Humanitarian Assistance, Conflict Prevention, and Stabilization 
and Resilience and Food Security.
    Her distinguished service in the Middle East and Europe to 
her policy experience in the Pentagon and the National Security 
Council, Jenny has proven time and time again her ability to 
solve conflicts challenges while inspiring others to exceed 
their expectations of themselves.
    So through the storied history, USAID has symbolized 
American leadership and manifests the compassion of the 
American people. Equally important, it plays an increasingly 
central role in our national security strategy of the United 
States.
    So I can think of no better leader to nominate for this 
important job and I ask for the committee's thoughtful 
consideration of the nomination before you.
    Standing before you, you have Jenny. She is full of 
integrity, she is mission focused, and she is compassionate. 
She is going to do a great job for America.
    I thank you, and I yield back.
    Senator Young. Well, thank you so much, Congressman, and 
you are welcome to stay with us for the remainder of the 
hearing. I do know how busy our jobs are. So I will leave that 
up to you. Feel at liberty to shove off if you like, sir.
    Okay. To all our nominees today, without objection, your 
full written statements will be included in the record. I would 
ask each of you to kindly summarize your written statement in 
no more than five minutes, if possible. That could be 
challenging for senators but we ask that of our nominees.
    We will hear first from Ms. Jenny McGee, the president's 
nominee to serve as associate administrator for Relief Response 
and Resilience at the U.S. Agency for International 
Development.
    As Congressman Bacon noted, Ms. McGee served our nation 
with great distinction for 31 years in the United States Air 
Force, retiring in December as a colonel in her career.
    Colonel McGee served in command at operational intel, 
surveillance, and reconnaissance units around the globe. She 
additionally served on the staff of the National Security 
Council and within the Office of the Secretary of Defense.
    She held senior positions within the U.S. Air Forces in 
Europe and Africa, at CENTCOM and the National Geospatial 
Intelligence Agency, and perhaps most importantly, she is a 
graduate of Indiana's own Purdue University.
    Ms. McGee, thank you for being here and please proceed.


 STATEMENT OF COLONEL JENNY A. MCGEE, UNITED STATES AIR FORCE, 
  RETIRED, OF TEXAS, TO BE AN ASSOCIATE ADMINISTRATOR OF THE 
       UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. McGee. Good morning, and thank you, sir.
    Mr. Chairman, Ranking Member, and distinguished members of 
the committee, I am honored to appear before you today as 
President Trump's nominee for associate editor--excuse me, 
associate administrator for Relief Response and Resilience at 
the United States Agency for International Development (USAID).
    I am grateful to President Trump, former Administrator 
Green, Acting Administrator Barsa, Deputy Administrator Glick, 
for their trust in me to serve in this important new role, and 
I would like to thank Congressman Bacon for his kind 
introduction and his leadership, his counsel, and his 
friendship.
    If confirmed to this new position as associate 
administrator, I would oversee three bureaus for some of the 
most fast-paced and high-profile work of the agency: the 
Bureaus for Humanitarian Assistance, Conflict Prevention and 
Stabilization, and Resilience and Food Security.
    This is certainly a herculean task to which I will devote 
all of my energy, capabilities, and heart. During the 
confirmation process, I have had the honor to meet with many 
USAID employees.
    To those dedicated Foreign Service, civil service, and 
contract employees, I thank you for your counsel and your 
guidance. Under the leadership of Rear Admiral Tim Ziemer, Dr. 
Beth Dunford, Trey Hicks, Rob Jenkins, this incredible team 
responds to natural and manmade disasters, supports programs to 
reduce global hunger, and works to prevent conflict and violent 
extremism.
    Both Admiral Ziemer and Dr. Dunford have just or are 
retiring this month and I would like to salute their service 
and thank them for their decades of service to the nation.
    I must also thank my family, friends, and colleagues who 
have given me tremendous support and encouragement over the 
years. My wonderful husband, Patrick, is a retired U.S. Navy 
officer and is here with me today. Thank you, dear. And my----
    Senator Young. That is fantastic. That is fantastic. Hi, 
Patrick, and welcome.
    [Laughter.]
    Ms. McGee. And my grandfather, Joe, is a retired U.S. Air 
Force senior master sergeant and an Air Force civil servant, 
and my mother, Tokiko, are both in Ohio, safely in their home.
    The life and opportunities I have had, including my 
military career, all stem from my parents' decision to adopt me 
from an orphanage in Seoul, South Korea, and I am grateful to 
their unconditional love and values and their belief in this 
great nation.
    When I decided to retire from 31 years in the Air Force, I 
knew I wanted to continue to serve in a role that emphasizes 
our exceptional American values and commitment to democracy and 
humanitarian assistance.
    During my career, I have appreciated the opportunity to 
work with USAID, most directly as part of logistics planning in 
the wake of the 2010 Haiti earthquake.
    My units have also engaged in security assistance work 
across the spectrum, supporting the agriculture and land use in 
Niger and Ghana, and the capacity-building projects across 
Africa and Europe.
    In every engagement I have admired the consistent courage, 
commitment, and mission focus of USAID personnel and, if 
confirmed, it will truly be an honor to join the USAID team.
    If confirmed as associate administrator, I will work to 
strengthen the integration of our humanitarian assistance, 
resilience, and crisis prevention programming, a critical task 
as we respond to the COVID-19 pandemic, which created a unique 
set of challenges abroad, particularly in fragile contexts.
    While physical distancing is an effective tool to contain 
the spread of COVID-19, there is no space for distancing in 
Cox's Bazar, the world's largest refugee camp, hosting some 
600,000 Rohingya refugees, and despite a declared cease fire in 
Yemen, the fighting has escalated, complicating efforts to 
respond to a burgeoning outbreak in that country.
    Beyond responding to immediate needs, we must also prepare 
for secondary and tertiary effects of the pandemic. 
Deteriorating health systems and widespread food insecurity 
could lead to new humanitarian crises. Democratic institutions 
will need to be rebuilt or reinforced.
    If confirmed, I would be proud to help bring all of the 
agency's assets to bear to contain the disease and help the 
world maximize its recovery from COVID-19.
    If confirmed as associate administrator, I will have four 
priority areas. First and foremost, I will work to ensure the 
safety and security of the 1,500 personnel I would directly 
oversee, many of whom work in dangerous environments and 
difficult circumstance.
    Second, I will work to integrate and streamline USAID's 
humanitarian assistance, food security and resilience 
programming, and conflict prevention interventions to address 
fragility, respond to global crises, and act as a stabilizing 
force in times of country transition.
    Third, I will strengthen and elevate the U.S. Government's 
humanitarian voice both in the interagency and on the world 
stage.
    And last but, certainly, not least, I will work to improve 
the administration's ability to identify fragile states and 
deliver corrective mitigating measures by further strengthening 
civil and military collaboration.
    Senator, if confirmed as associate administrator, I pledge 
to be a strong advocate for USAID's mission and people to take 
full advantage of the expertise of our workforce and partners, 
and to be a good steward of taxpayer dollars.
    I am humbled every day by the incredible work of 
humanitarian and development professionals and, if confirmed, I 
look forward to the service, the teamwork, and the camaraderie 
alongside them.
    It is an honor to appear before you today and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Ms. McGee follows:]


         Prepared Statement of Colonel Jenny McGee, USAF (Ret.)

    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the committee, I am honored to appear before you today as President 
Trump's nominee to be Associate Administrator for Relief, Response, and 
Resilience at the United States Agency for International Development 
(USAID). I am grateful to President Trump, Secretary Pompeo, former 
Administrator Green, Acting Administrator Barsa, and Deputy 
Administrator Glick for their trust and confidence in me and my 
leadership to serve in this important new role.
    I am truly humbled to be considered for the Agency's Associate 
Administrator for Relief, Response and Resilience, whose mandate is at 
the forefront of U.S. national security interests. As part of USAID's 
Transformation, this new position is a new principal in the Office of 
the Administrator, specifically responsible for some of the most fast-
paced and high-profile work at the Agency. The three Bureaus I would 
oversee-Humanitarian Assistance (BHA), Conflict Prevention and 
Stabilization (CPS), and Resilience and Food Security (RFS)-will 
improve the Agency's effectiveness in providing life-saving aid, 
preventing and addressing crises, strengthening self-reliance, and 
avoiding hunger. This is certainly a Herculean task, to which I would 
devote all of my energy, capabilities, and heart. It would be an honor 
to help USAID continue this important work to protect America's 
security and prosperity, and assist countries along their Journey to 
Self-Reliance.
    I want to recognize the service of the extremely dedicated and 
talented USAID workforce who have led the Agency's response to natural 
and man-made disasters, designed programs to reduce global hunger and 
malnutrition, and worked to prevent conflict and violent extremism. 
Under the leadership of Rear Admiral Tim Ziemer, Trey Hicks, Rob 
Jenkins and Dr. Beth Dunford, this incredible team has responded to 
hurricanes in the Caribbean; earthquakes in Indonesia and Albania; 
drought and locust infestations in the Horn of Africa; the threat of 
famine in Yemen, South Sudan, and Nigeria; and the ongoing conflicts 
and crises in Syria, Iraq, and Venezuela. I sincerely thank Admiral 
Ziemer, Mr. Hicks, Mr. Jenkins, and Dr. Dunford for their counsel in 
our interactions, and I look forward to a continued strong working 
relationship as we create an effective and streamlined approach to 
preventing and responding to crises. Both Admiral Ziemer and Dr. 
Dunford have been forces of stability within the Agency and extremely 
influential in driving forward USAID's mission. I admire their 
dedication to service, and I wish them well in their retirement.
    During my consultations in preparation for this hearing, I had the 
pleasure and honor to meet with many USAID employees who provided me 
with briefings and papers that detailed their work. To those dedicated 
Foreign Service, Civil Service, and contract employees, thank you for 
your counsel and guidance, and for making USAID the world's flagship 
development agency that makes such a difference in the lives of so 
many.
    I must also thank my family, friends, and colleagues who have given 
me tremendous support and encouragement over the years. My wonderful 
husband, Patrick, a retired U.S. Navy officer, is here with me today, 
while my proud parents, Joe and Tokiko, remain safely inside their home 
in Ohio. My father was born on a small farm in Maine and ultimately 
retired after 23 years of active duty in the Air Force and then as an 
Air Force civilian. My family is dedicated to service and country, and 
has sacrificed over the years in support of my own long Air Force 
career. The life and opportunities I have had, including my military 
career, all stem from my parents' decision to adopt me from an 
orphanage in Seoul, South Korea. I am grateful for their unconditional 
love, and for the values they instilled in me. My commitment to service 
is rooted in the gratitude and patriotism that I have as a result.
    When I decided to retire after 31 years in the Air Force, I knew I 
wanted to continue to serve our country, and in a role that emphasizes 
our exceptional American values and commitment to democracy and 
humanitarian assistance. During my time in the White House Situation 
Room, on the staff of the National Security Council, and in military 
units around the world, I have had the opportunity to see USAID hard at 
work to support communities in their Journey to Self-Reliance. I have 
been part of coordination with USAID on security in Europe, Africa, the 
Middle East, and South Asia, and have worked on security assistance 
projects directly with allies in all of these regions. After the 2010 
earthquake in Haiti, my unit communicated directly with USAID and its 
government partners on the ground to assist the logistics effort to 
deliver relief. I actively participated in planning at U.S. Southern 
Command headquarters, as well as the Air Force's theater operations 
center, to best support the delivery of aid. My units have supported 
planning in typhoon-relief activities in Asia; improvements to 
agriculture and the use of land in Niger and Ghana; and capacity-
building projects in North and East Africa, the Sahel, and Europe. In 
every engagement or observation, I have always admired the consistent 
courage and commitment of USAID's personnel and partners, who operate 
in challenging environments with a true focus on mission.
    If confirmed as Associate Administrator, the challenge that lies 
ahead is not lost on me. I am prepared to work with Acting 
Administrator Barsa and Deputy Administrator Glick to guide the 
strategic direction of the Agency, particularly when it comes to the 
work of the new Bureaus I will oversee. I also look forward to 
strengthening the integration of our humanitarian assistance, 
investments in resilience, and crisis-prevention programming as the 
Agency responds to the most significant global health crisis of our 
lifetime. While we battle the pandemic of COVID-19 here at home, we 
must also respond to the unique set of challenges the outbreak has 
caused abroad, particularly in countries that already are facing 
humanitarian crises, conflict, and a lack of access to basic social 
services.
    Physical distancing proves to be one of the most effective tools to 
contain the spread of COVID-19. However, there is no space for 
distancing in Cox's Bazar, the world's largest refugee camp, which 
hosts some 600,000 Rohingya refugees. Children in South Sudan cannot 
wash their hands when they have no consistent access to clean water. 
And as COVID-19 spreads across conflict zones, the impact of the 
disease could potentially be catastrophic. Despite a declared cease-
fire in Yemen, the fighting has escalated, which complicates efforts to 
respond to a burgeoning outbreak in the country. USAID has experience 
operating in these fragile contexts and is the designated Agency to 
lead the USG's humanitarian responses overseas, including COVID-19. If 
confirmed, I would be proud to help bring all of the Agency's assets to 
bear in containing the disease.
    Responding to the COVID-19 crisis means not only assisting with the 
immediate health needs, but preparing for the secondary and tertiary 
effects of the crisis. The post-COVID-19 world will be fragile. 
Deteriorating health care could lead to new humanitarian crises. The 
outbreak likely will reduce the supply of food in many communities, 
which could cause widespread hunger.
    Democratic institutions will need rebuilding or reinforcement. I 
look forward to leading USAID's response to helping the world maximize 
its recovery from the COVID-19 pandemic.
    USAID is already investing heavily in the tools and capacity to 
confront the outbreak. RFS is funding partners under the Feed the 
Future initiative to procure, transport and deliver food to affected 
communities. BHA is assisting people in countries that already are 
suffering from humanitarian tragedy, where the risk to vulnerable 
populations is great and access to basic and life-saving health care is 
limited. The parts of USAID that soon will become CPS are conducting 
field-driven analysis of vulnerabilities in fragile countries and 
providing assistance to reduce the risks of violence; combat 
misinformation; and fund civil-society organizations that are working 
to promote effective, transparent responses to the outbreak.
    If confirmed as Associate Administrator, I look forward to working 
closely with USAID's leadership, Congress, the U.S. Government 
interagency, and the international community on the following priority 
areas:
    First and foremost, my priority would be the safety and security of 
USAID's personnel. The Bureaus I would directly oversee have 
approximately 1,500 staff members. Many of them are working in 
dangerous environments and under difficult conditions, and are still 
maintaining the same dedication to mission while facing all the COVID-
19 challenges. If confirmed, I would work to ensure all of our staff 
have the resources to safeguard and care for themselves.
    My second priority would be to integrate and streamline USAID's 
humanitarian assistance, investments in food security and resilience, 
and interventions to prevent conflict to address fragility, respond to 
global crises, and act as a stabilizing force in times of transition. 
These efforts optimize USAID's effectiveness and directly support the 
President's National Security Strategy to contribute to American 
security and stability.
    Third, I would strengthen and elevate the U.S. Government's 
humanitarian voice, both within the interagency and on the world stage. 
The U.S. Government is the largest donor of humanitarian aid, and we 
must use our leadership role to encourage consistent adherence to 
international humanitarian principles as well as to leverage additional 
financial support for the greatest needs.
    Last, but certainly not least, I would work to improve the 
administration's ability to identify fragile states and deliver 
corrective, mitigating measures. By further strengthening civil-
military collaboration, USAID can play a key role in combining foreign 
assistance, diplomatic engagements, and defense strategy to effectively 
stabilize conflict-affected areas.
    In a world as complex as ours, with our national security 
challenged by a myriad of threats with global reach, we must bring to 
bear the entirety of our statecraft toolbox, including our most 
sophisticated development tools. If confirmed as USAID Associate 
Administrator for Relief, Response, and Resilience, I pledge to be a 
strong advocate for our mission and our people; to take full advantage 
of the tremendous expertise of our workforce and partners; and to be a 
good steward of taxpayer dollars--always a precious resource, 
especially in these trying times. I would be humbled everyday by the 
incredible work of humanitarian assistance and development 
professionals around the globe, and I look forward to the service, 
challenge, and teamwork alongside them.
    Thank you for your time. It is an honor to appear before you today. 
I look forward to your questions.


    Senator Young. Thank you, Ms. McGee.
    Next, we will hear from the Honorable Steven Dowd, who has 
been nominated to serve as the U.S. director of the European 
Bank for Reconstruction in Development.
    Mr. Dowd served as the U.S. executive director of the 
African Development Bank since 2017. He has been responsible 
for overseeing that organization's audit in finance activities, 
and in that capacity he has helped lead America's growing 
developmental infrastructure and monetary activities on the 
African continent.
    He previously worked for over three decades in the private 
sector and has been the leader of major multi- industry 
companies.
    Mr. Dowd, thank you for being here and please proceed.


   STATEMENT OF HON. J. STEVEN DOWD OF FLORIDA, TO BE UNITED 
  STATES DIRECTOR OF THE EUROPEAN BANK FOR RECONSTRUCTION AND 
                          DEVELOPMENT

    Mr. Dowd. Chairman Young, Ranking Member Merkley, and 
distinguished members of the Foreign Relations Committee, it is 
a great honor to appear before you today as the nominee to 
serve as executive director of the European Bank for 
Reconstruction and Development.
    Before discussing my background in the EBRD, I would like 
to introduce my wife, Lillian. Lillian is an attorney and an 
ardent defender of legal rights for women and girls in Africa.
    We share a great love for Africa. My deepest thanks to 
Lillian and our three children, Steven, Thomas, and Andrea, for 
their love and support.
    Also watching today is my college professor from more than 
four decades ago, Professor Frederick Schweitzer of Manhattan 
College.
    Serving at the African Development Bank has been a 
privilege. It is not an easy job but it is immensely 
satisfying. Tough issues from strategic program design and 
implementation to complex and sensitive governance issues need 
to be addressed in a balanced but firm manner.
    Americans are the most generous people in the world, but 
often multilateral institutions have become ineffective and 
often driven by political agendas.
    International cooperation can be important and 
constructive. But it should serve U.S. interests by working 
toward clear benefits for the people of developing countries.
    American leadership is essential to revitalizing and 
renewing multilateral development assistance.
    Due in part to its many successes in private sector-led 
growth and promoting democratic value systems aligned to ours, 
many EBRD countries are valued allies and important trading 
partners of the United States.
    The EBRD support plays a crucial role in the southern and 
eastern Mediterranean region as well as in Ukraine, Mongolia, 
and Central Asia.
    In fact, the EBRD is one of the few instruments the U.S. 
has to engage in Central Asia at a time of Belt and Road, and 
great power competition, as mentioned by Senator Young.
    Having said that, the EBRD is at a crossroads and the 
United States will be an essential voice and a consensus leader 
in shaping the bank's direction and purpose in the years ahead.
    Rather than expanding into sub-Saharan Africa, the EBRD 
should finish the job in its existing portfolio. Knowing 
African finance and some African leaders well, I would leave 
the door open to deeper African engagement to the future.
    The bank must accelerate prosperity by crowding in private 
capital many times bigger than the collective capital at EBRD 
from investment funds, sovereign wealth funds, pension funds, 
insurance funds, and other pools of long-term funds.
    There are other challenges facing the EBRD, from debt 
sustainability to the economic shock of COVID-19, as discussed 
by Senator Merkley.
    There is much work to be done. My experience in development 
banking and finance, coupled with private sector executive 
experience, provide me with a skill set well suited to the 
challenges at the EBRD.
    Charting the course forward, the bank must be guided by its 
democratically grounded mandate that assists clients toward 
market-oriented growth and investment, promotes entrepreneurial 
initiative, fortifies banking and credit systems, and bolsters 
legal frameworks to support contract and property rights.
    These are the components of shared prosperity, peace, and 
stability. I will resolutely safeguard our nation's vital 
interests and deeply-rooted values at the EBRD should you allow 
me the opportunity to serve as executive director.
    Thank you again for the opportunity to appear before you 
today. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Dowd follows:]


                  Prepared Statement of J. Steven Dowd

    Chairman Young, Ranking Member Merkley, and distinguished members 
of the Foreign Relations Committee, it is a great honor to appear 
before you today as the nominee to serve as Executive Director of the 
European Bank for Reconstruction and Development.
    Before discussing my background and the EBRD, I would like to 
introduce my wife, Lillian. Lillian is an attorney and an ardent 
defender of legal rights for women and girls in Africa. We share a 
great love for Africa. My deepest thanks to Lillian and our three 
children Steven, Thomas and Andrea for their love and support. Also 
watching today is my college professor from more than four decades ago: 
Professor Frederick Schweitzer of Manhattan College.
    Serving as United States Executive Director at the African 
Development Bank has been a privilege. It's not an easy job. But it is 
one that is immensely satisfying as it can potentially unleash forces 
that improves the lives and livelihoods of millions. However, tough 
issues--from strategic design and implementation to complex and 
sensitive governance issues--need to be addressed in a balanced but 
firm manner.
    In my view, development assistance is not a charitable exercise, 
nor is multilateralism an end in itself. Americans are the most 
generous people in the world. They have always been forthcoming and 
willing to support those less fortunate. Their generosity extends 
beyond immediate neighborhoods and borders as they are keen to lend a 
helping hand to all around the globe. They want a better life for 
people living thousands of miles away, who they may never know. I 
believe that these hard-earned dollars must be safeguarded rather than 
taken for granted by ensuring they are used for the purposes intended 
and delivers the greatest impact. Traditionally, this has been achieved 
by complementing our bilateral support with multilateral assistance.
    Although the objectives of the multilateral institutions remain 
relevant, in many cases these institutions have become ineffective and 
often driven by political agendas. The attention to results, value for 
money and focus on the client, ie. the disadvantaged, is often 
neglected or misplaced. Nonetheless, the U.S. agreed to large capital 
increases, and negotiated substantial reform packages, for the World 
Bank and the African Development Bank. However, especially at a time 
when many Americans have lost their jobs, American tax dollars need to 
be as effectively managed as possible. International cooperation can be 
important and constructive. American leadership will be essential to 
revitalizing and renewing the mission and focus of multilateral 
development assistance.
    The EBRD was set up in 1991 in response to the fall of the Berlin 
Wall. The EBRD has helped dozens of countries establish democratic 
capitalism. Many of the countries where EBRD works are now members of 
the EU and NATO and are valued allies and important trading partners of 
the United States. EBRD should focus its efforts on countries where the 
private sector is less well developed and EBRD support can have a 
larger impact, for example in Central Asia, and with vital national 
security partners across the Southern and Eastern Mediterranean. 
Conversely, it should reduce its engagement in more advanced European 
countries, through a graduation process.
    The EBRD has been a critical partner in times of democratic change 
and even upheaval in Ukraine, Mongolia and Central Asia. In fact, the 
EBRD is one of the few instruments the United States has to engage in 
Central Asia at a time of Belt and Road and Great Power competition.
    The EBRD is one of the largest investors in many countries where it 
operates in support of private sector growth and enjoys trust, great 
prestige and influence in those countries. It certainly deserves our 
close attention.
    The EBRD has strong finances, with significant room to increase 
investment. In the current crisis, the EBRD should look to increase its 
investment portfolio to help address immense private sector needs, 
particularly for small and medium size enterprises. In doing so, it 
should carefully guard its AAA rating and avoid coming back to 
shareholders for additional capital.
    Having said that, the EBRD is at a crossroads and I believe the 
United States is an essential voice in shaping the bank's direction and 
purpose in the years ahead. Briefly, the EBRD has to decide whether to 
focus on its current foot print of countries which encompasses the 
original countries in the post-Soviet world along with Middle Eastern 
and North African countries. Or, to expand its mission to encompass 
sub-Saharan African countries (and potentially beyond). Given this 
choice, we believe the bank should focus on the first option: the 
current footprint of countries and ``finish the job'' before seeking to 
expand to additional countries. I hasten to add that, given my 
familiarity with African finance and friendship with some leaders in 
Africa, and as the largest shareholder of the EBRD at 10% of the 
shares, the United States will be an active and engaged shareholder in 
this and all future debates.
    In my business career I would often ask colleagues: ``what business 
are we in?'' They might say we are in the widget business. I would say, 
``no, we are in the leverage business.'' It is the same in the 
development banking business: our job is to leverage the collective 
capital of the shareholders to to do more with less. We must accelerate 
prosperity by ``crowding in'' private capital many times bigger than 
the collective capital at the EBRD making use of current and new 
financial instruments that only a development institution can bring to 
bear. Investment funds, sovereign wealth funds, pensions funds, 
insurance funds and other pools of long-term funds must be incentivized 
to engage vigorously in development. They can and should be brought to 
the table. For this is a win-win for all of the players around the 
table.
    There are other immediate challenges facing the EBRD--among them 
pending leadership changes, Brexit, a crisis in remittance flows, and, 
certainly not least of all, debt sustainability. Of course, these 
challenges are made more complicated given the economic shock of Covid-
19 and its aftermath. There is much work to be done. My experience in 
development banking and finance coupled with private sector executive 
experience, provide me with a skill-set well suited to the challenges 
at the EBRD.
    Charting the course forward, the bank must be guided by its 
founding mandate. A democratically grounded mandate, that assists 
clients toward market-oriented growth and investment; promotes 
entrepreneurial initiative; fortifies banking and credit systems; and 
bolsters legal frameworks to support contract and property rights.
    Good governance and free enterprise underpin fundamental freedoms 
and the rule of law, the sure path to innovation and wealth creation. 
These are the components of shared prosperity, peace and stability--the 
reward for which is a better future.
    I will resolutely safeguard our nation's vital interests and 
deeply-rooted values, and vigorously represent your fiduciary oversight 
obligations at the European Bank for Reconstruction and Development--
should you allow me the opportunity to serve as U.S. Executive 
Director.
    Chairman Young, Senator Merkley, and members of the committee, I 
thank you for this opportunity to appear before you, and look forward 
to your questions.


    Senator Young. Thank you, Mr. Dowd.
    Our next nominee is the Honorable Richard Mills, who is the 
nominee to be deputy ambassador and deputy representative of 
the United States to the United Nations bodies in New York.
    Mr. Mills is a career member of the Senior Foreign Service 
Class of Minister-Counselor. He currently serves as the Charge 
d'Affaires of the U.S. Embassy to Canada, and from 2015 to 2018 
served as the U.S. ambassador to Armenia.
    In a career of service spanning three decades, Mr. Mills 
has additionally served as a diplomat in Lebanon, Malta, Iraq, 
the United Kingdom, Saudi Arabia, Ireland, Russia, France, and 
Pakistan.
    He has also served as a political officer in the U.S. 
mission to the United States and in numerous positions here in 
Washington.
    Mr. Mills, please proceed.

STATEMENT OF HON. RICHARD M. MILLS OF TEXAS, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER- COUNSELOR, TO BE 
 THE DEPUTY REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO 
  THE UNITED NATIONS, WITH THE RANK AND STATUS OF AMBASSADOR 
               EXTRAORDINARY AND PLENIPOTENTIARY

    Mr. Mills. Thank you, Chairman Young. I appreciate that 
introduction, and my thanks as well to Ranking Member Merkley, 
distinguished members of the committee.
    I am very honored to appear before you today as the 
president's nominee to serve as the deputy representative of 
the United States to the United Nations.
    As the chairman mentioned, I have been privileged to serve 
on behalf of the American people in many places during my 
career in the U.S. Foreign Service, including in Armenia as 
ambassador and, most recently, here in Ottawa where I lead an 
outstanding team at the U.S. mission to Canada.
    But it will be a special privilege for me if I am confirmed 
to join Ambassador Kelly Craft's team and return to the U.S. 
mission to the United Nations where I previously had the great 
privilege of serving from 2001 to 2003.
    That experience provided me insight into the strengths and 
the weaknesses of the U.N. system. The strengths are real. I 
think we see those strengths in conflict and post- conflict 
zones where the U.N. blue helmets can provide space for peace 
to take root.
    We see them where U.N. agencies such as UNICEF and the 
World Food Program save lives and bring hope to devastated 
communities, and I see those strengths when the U.N. Security 
Council applies meaningful sanctions to rogue states such as 
North Korea and Iran.
    In all of these examples of U.N. effectiveness, Mr. 
Chairman, I think you find the United States at the center of 
the action. It is my view that the U.N. would quickly, in fact, 
lose its bearings without the continuing stewardship and 
leadership of the United States.
    I say that because no other nation demands more of the U.N. 
than the United States. I say that because the values on which 
the U.N. is founded are American values: peace, protection of 
human rights, respect for sovereignty, and we need to defend 
those values.
    And I say that because even now, 75 years after the 
creation of the U.N., a majority of member states still look, I 
believe, to the United States to lead the way.
    Mr. Chairman, the weaknesses in the U.N. system are 
apparent as well. The COVID crisis dramatically, for example, 
underscored the need for an incredible and effective World 
Health Organization.
    Unfortunately, the WHO's failings in response to the crisis 
have underscored to the United States and to our like-minded 
partners that we must demand maximum transparency from 
international organizations and never allow individual member 
states to politicize technical international agencies like the 
WHO, and if it happens, the United States must act.
    I do believe positive steps have been taken in recent years 
to improve accountability in the entire U.N. system. Since my 
previous tour at the U.N. mission I have seen increased 
scrutiny of peacekeeping mandates and that has improved the 
efficiency and the effectiveness of peacekeeping missions.
    Secretary General Guterres has taken important steps to 
improve transparency and strengthen reporting requirements. 
But, as I think we all know, this is an ongoing process. So, if 
confirmed, I look forward to supporting Ambassador Craft, her 
team, and the hard continuing work of promoting oversight and 
making sure there is continuing reform.
    Mr. Chairman, other members states, as we have heard from 
the other panelists, can and need to do more to support 
financially the world's expanding humanitarian needs.
    Last year, the United States contributed more than $9 
billion to U.N. humanitarian responses. Unfortunately, the 
needs outstrip the resources.
    As the situations in Syria, Yemen, Venezuela continue to 
worsen, the United States is asking U.N. members to do more.
    In addition, as you mentioned, Mr. Chairman, I am aware 
that there are other actors on the global stage that pose 
challenges to the U.N.'s core principles and to American 
values--a more assertive China, for example, which his eager to 
assume leadership, leadership roles across the U.N. system, and 
then use U.N. venues to advance its own ideology and self-
interested vision for global development.
    Iran continues to fuel conflict in Syria, Yemen, and Iraq. 
Russia, too, is hard at work propping up the Assad and the 
Maduro regimes, and shielding both of them from international 
action in the Security Council.
    This is all to say, Mr. Chairman and members of the 
committee, that in a complex world an effective U.N. remains 
crucial to protecting America's interest in the world.
    If confirmed, I look forward to helping the U.N. mission 
ensure the U.N. remains an effective tool.
    Thank you. I welcome your questions and your comments.
    [The prepared statement of Mr. Mills follows:]


              Prepared Statement of Richard M. Mills, Jr.

    Thank you, Chairman Risch, Ranking Member Menendez, and 
distinguished members of the committee. I am honored to appear before 
you today as the President's nominee to serve as the Deputy 
Representative of the United States to the United Nations.
    I am also honored to have--off-camera--with me today my much better 
half, Leigh Carter. Leigh and I met early in our respective Foreign 
Service careers, married as entry-level officers thirty years ago, and 
throughout my time in the U.S. Foreign Service, she has been a mentor, 
a true partner, and most of all a wise sounding board for me.
    I am grateful to have had the opportunity to serve on behalf of the 
U.S. people in many places during my thirty year career in the Foreign 
Service, including in Armenia as U.S. Ambassador and most recently in 
Ottawa where I led for the past ten months the outstanding team at the 
U.S. Mission to Canada. But it will be a particular pleasure for me, if 
confirmed, to join Ambassador Craft's team at USUN, where I previously 
served in the early 2000s. Ambassador Craft chose me to serve as her 
deputy chief of mission in Canada in 2018 and we worked together for 
nine months before she left Ottawa for New York. She was a caring, 
thoughtful leader of the team in Canada and I am proud of what the team 
at Mission Canada accomplished under her leadership. If confirmed, I 
look forward to working with the Ambassador and helping the team she 
has assembled at USUN achieve U.S. policy priorities at the U.N.
    Mr. Chairman, as I mentioned, I served at USUN once before, from 
2001-2003. A time when the U.N. system faced two of its greatest post-
war challenges: the aftermath of 9/11 and marshalling support for the 
reconstruction of post-Saddam Iraq. That experience provided me insight 
into the strengths and weaknesses of the U.N. system. The strengths are 
real, and often evident in circumstances of dire human need and 
conflict. It is evident in conflict and post-conflict zones where U.N. 
blue helmets provide the space for peace to take root. It is in these 
same environments where UNICEF and the World Food Program save lives 
and bring hope to devastated communities. It is through the Security 
Council that meaningful sanctions can be applied to rogue states such 
as Iran, and unwelcome scrutiny can be applied to the conduct of 
corrupt actors such as Nicolas Maduro and Bashar al Assad. In all those 
examples of U.N. effectiveness, you will find the United States at the 
center of the action. In fact, Mr. Chairman, it is my view that the 
United Nations would quickly lose its bearings without the continuing 
stewardship of the United States.
    I say that because no other nation demands more of the U.N. than 
the United States. I say that because the values upon which the U.N. is 
built are American values--peace, freedom, respect for sovereignty, 
individual liberties. And I say that because even now, 75 years after 
the U.N. was created, the majority of member states look to America to 
lead the way.
    Mr. Chairman, an effective network of international organizations 
has never been more crucial to global peace, health, and prosperity. We 
need only consider the COVID-19 crisis to recognize the crucial need 
for a credible and effective World Health Organization. Unfortunately, 
WHO's failings in response to this crisis remind us that the United 
States and our like-minded partners must be vigilant, must demand 
maximum transparency from organizations, and must never allow 
individual member states to contort or politicize these important 
international tools.
    The World Health Organization's performance during the COVID 
pandemic is an important indicator that oversight and reform must be a 
continuous exercise, and meaningful accountability must be applied in 
instances of mismanagement or misconduct. Positive steps have been 
taken in recent years to improve transparency and accountability in the 
U.N. system, but that drumbeat must continue, and if confirmed, I will 
actively support that effort. Increased scrutiny of peacekeeping 
mandates has improved the efficiency and effectiveness of peacekeeping 
missions and in several instances resulted in missions being completed 
and closed.
    Secretary-General Guterres has taken important steps to improve 
accountability and strengthen reporting requirements. We need to 
encourage further action to maximize the U.N.'s value to the American 
people and to American national security.
    Mr. Chairman, members of the committee, there is one reality at the 
United Nations that stubbornly refuses to yield, a reality that 
Ambassador Craft is fighting hard to counter, and that is anti-Israel 
bias. Far too often the United States stands in small company in our 
defense of Israel. If confirmed, I look forward to joining Ambassador 
Craft in her vigorous campaign to expose to the light this deplorable 
situation.
    Combatting anti-Israel bias is first among Ambassador Craft's 
overarching priorities, but demonstrating American leadership on a 
broader scale runs a close second.
    A few months ago, the Ambassador hosted a groundbreaking event in 
New York to assemble innovative private sector actors for discussion of 
unlocking the unlimited potential for partnership with the United 
Nations to advance humanitarian and development objectives.
    That event aligns with the Ambassador's vision for a growing pool 
of private sector partners that can bring American expertise and 
innovation to some of the world's pressing challenges. I share the 
Ambassador's excitement about this potential, and if confirmed will 
look for every opportunity to advance her vision.
    Mr. Chairman, members of the committee, other member states can and 
should do more to support financially the world's expanding 
humanitarian needs. Last year the United States contributed more than 9 
billion dollars to U.N. humanitarian responses, extending decades of 
American leadership in these efforts. Unfortunately, the needs outstrip 
the resources, and as the situations in Yemen, Syria, and Venezuela 
continue to worsen, the United States is asking more nations to do 
more. If confirmed, I will support Ambassador Craft's outreach to 
member states to encourage them to reconsider their current levels of 
support.
    In addition, we must be cognizant of other forces at work on the 
global stage that pose challenges for American leadership. A more 
assertive China, for example, which is eager to assume leadership roles 
across the U.N. system and use U.N. venues to advance its own vision 
for global economic development.
    Iran continues to roil its region, fueling conflict in Syria, 
Yemen, and Iraq. Russia too is hard at work propping up the Assad and 
Maduro regimes, and shielding both from international action at the 
Security Council.
    All that to say, Mr. Chairman, members of the committee, that in a 
complex world the United Nations remains a crucial institution. An 
institution that, when effective, serves American interests and those 
of the global community. Maintaining the U.N.'s effectiveness requires 
the focus and skilled efforts of the outstanding team at USUN. I 
believe I am ready to add value to their efforts, and if confirmed I 
will endeavor to do so.
    Thank you and I welcome your questions.


    Senator Young. Thank you, Mr. Mills.
    Our next nominee is Mr. Jason Chung, who has been nominated 
to serve as the U.S. director of the Asian Development Bank 
with the rank of ambassador.
    Mr. Chung currently serves as the U.S. alternative 
executive director of the ADB, a position he has served in 
since 2018 and represents the U.S. on the board of directors.
    He previously served in the Treasury Department as the 
deputy assistant secretary for public affairs and had served in 
the department's International Affairs Office.
    Mr. Chung previously worked as a consultant in Washington, 
D.C., as well as in the U.S. House of Representatives and for 
the state of Maryland.
    Mr. Chung, please proceed.

  STATEMENT OF JASON MYUNG-IK CHUNG OF VIRGINIA, TO BE UNITED 
STATES DIRECTOR OF THE ASIAN DEVELOPMENT BANK, WITH THE RANK OF 
                           AMBASSADOR

    Mr. Chung. Chairman Young, Senator Merkley, and members of 
the committee, I am honored to be President Trump's nominee to 
be U.S. director of the Asian Development Bank with the rank of 
ambassador.
    I am grateful to Secretary Mnuchin for his confidence in 
recommending me for this position. I also appreciate the 
support from Undersecretary McIntosh and my colleagues at the 
Treasury Department.
    I would like to acknowledge my wife, Suzanna, and sons, 
Davis and Alexander, and humbled to have the three of them in 
my life.
    Likewise, I am grateful to my parents for their love and 
guidance throughout my life.
    As the son of immigrants, it has been an incredible honor 
to serve my nation in various roles in government. As you said, 
Mr. Chairman, I served as deputy assistance secretary at the 
Treasury Department working on international affairs and 
development issues under then Undersecretary David Malpass.
    I also gained firsthand appreciation for the legislative 
and oversight processes during my five years working in the 
U.S. House of Representatives.
    Currently, as U.S. alternate director to the Asian 
Development Bank, I serve on the ADB's board of directors. I 
help advance the ADB's core mission of achieving a prosperous, 
inclusive, resilient, and sustainable Asia and the Pacific 
while ensuring ADB's programs online with American goals, 
values, and policies.
    The world is facing a profound public health and economic 
challenge and looks to respond to the COVID-19 pandemic. The 
United States and G-20 have called on international financial 
institutions and multilateral development banks to provide 
urgently needed financial and technical support to the 
developing world.
    This support comes at a crucial time when resources are 
scarce and the needs are many. ADB is in the unique position to 
help bridge these gaps in an appropriate and thoughtful way.
    It is imperative that the U.S. promotes transparency and 
exercises oversight authority at the ADB during this time.
    While responding to the COVID-19 pandemic that has taken 
center stage at international institutions across the globe, I 
would note how ADB programs fit into the overall U.S. strategic 
interest.
    During the past year and a half, the U.S. staff and I have 
set out goals to be achieved and we have begun to accomplish 
these goals.
    One accomplishment includes the approval of a 
differentiated pricing scheme for sovereign loans. This 
initiative strengthens the ADB's financial sustainability by 
requiring upper middle income countries like China and 
Kazakhstan, among others, to pay increased premiums for 
borrowing from ADB.
    This will help alleviate the need for U.S. taxpayer-funded 
capital increase and mirrors reforms the World Bank Group 
enacted a few years ago.
    We also use our perch at ADB to advance debt transparency 
and sustainability. As the premier development and lending 
institution in the region, ADB has a key role to play in 
supporting the IMF and World Bank multi-pronged approach for 
addressing emerging debt vulnerabilities.
    Given the vast development needs and financing gap in the 
region, we are also closely monitoring the activities of other 
financiers.
    We strongly advocate for other institutions to follow sound 
development practices on debt sustainability, accountability, 
and anti-corruption, as well as enact vigorous environmental 
and social safeguards.
    We are keenly aware of China's goals and ambitions through 
Belt and Road Initiatives or other instruments. We highlight 
the shortcomings of BRI to provide necessary lending 
safeguards, governance, and debt transparency.
    We have arranged frameworks and MOUs with ADB and with 
USAID, OPIC, now DFC, to serve as high-quality transparent 
alternatives to the debt trap programs by China.
    We have worked with our partners on the board of directors 
to prevent ADB projects from being introduced in nations and 
regions where state actions run contrary to American values.
    For instance, the U.S. and our European partners prevented 
board approval of two ADB projects planned for Xinjiang, China. 
Legislative mandates such as trafficking in persons have 
provided us with strong tools to discourage institutions like 
the ADB from supporting programs and nations that abuse human 
rights.
    If fortunate to be confirmed, I look forward to continuing 
with the progress that the office has made in advancing ADB's 
core mission and American values abroad.
    I remain committed to alleviating corruption, enhancing 
transparency, and strengthening institutions in Asia and the 
Pacific.
    Mr. Chairman, members of the committee, thank you for 
allowing me to appear before you today. I look forward to 
working with you and members of both the Senate and the House 
in addressing our goals in Asia and the Pacific.
    I look forward to answering any questions you may have and, 
if confirmed, I hope to foster a close working relationship 
with you and your staffs.
    Thank you.
    [The prepared statement of Mr. Chung follows:]


               Prepared Statement of Jason Myung Ik Chung

    Before proceeding, I would like to take a moment to acknowledge my 
family. I want to thank my wife, Susannah, and two children, Davis and 
Alexander, for their love and support throughout this process. I am 
lucky and humbled to have the three of them in my life; they are my 
compass and they are truly the light of my life.
    Likewise, I am grateful to my parents for their love and guidance 
throughout my life. They came to this country as immigrants, seeking a 
better life for themselves and their eventual family. Because of their 
hard work, perseverance, and many sacrifices, their son is now 
appearing before the U.S. Senate Foreign Relations Committee. I am 
grateful for the life they provided me.
    As the son of immigrants, it has been an incredible honor to serve 
my nation in various roles in government at different points in my 
life. Over my career, I served as a deputy assistant secretary at the 
U.S. Treasury Department, working on international affairs and 
development issues under the leadership of then-Under Secretary David 
Malpass. I also gained a first-hand appreciation for the legislative 
process during my 5 years working in the U.S. House of Representatives.
    Now, in my current role as United States Alternate Director to the 
Asian Development Bank, I serve on the ADB's Board of Directors, 
representing the views of the United States at the institution. I help 
to advance the ADB's core mission of achieving ``a prosperous, 
inclusive, resilient and sustainable Asia and the Pacific'' all while 
making sure ADB's programs are in line with American goals, values, and 
the administration's larger Indo-Pacific Strategy.
    Today, the world is facing a profound public health and economic 
challenge as it looks to respond to and recover from the COVID-19 
pandemic. The United States and the G20 have called on the 
international financial institutions and multilateral development banks 
to provide urgently needed financial and technical support to many in 
the developing world. This support comes at a crucial time where 
resources are scarce, and needs are many.
    The ADB is in a unique position to help bridge those gaps in an 
appropriate and thoughtful way. The ADB currently has different 
modalities and initiatives to assist in the health response, social 
protection, and economic recovery efforts. It is imperative that the 
United States promotes transparency and exercises its oversight 
authority at the ADB during this time to maximize the benefits of these 
initiatives and to mitigate any risks associated with expanded 
technical assistance, budget support, and project based loans to 
developing member countries.
    While responding to the COVID-19 pandemic has taken center stage at 
international institutions across the globe, it is worth mentioning how 
the ADB and its programs fit into overall U.S. strategic interests. 
During the past year and a half, the U.S. staff and I have set out 
goals to achieve, and we have begun to accomplish these goals. One 
accomplishment included the approval of a ``differentiated pricing'' 
scheme for sovereign loans. Known as the ``Diversification of Financing 
Terms,'' this initiative strengthens ADB's financial sustainability by 
requiring upper-middle income nations like China and Kazakhstan, among 
others, to pay increased premiums for borrowing from the ADB. This 
initiative will help alleviate the need for a U.S. taxpayer-funded 
capital increase and mirrors the reforms that the World Bank Group 
enacted a couple of years ago.
    The ``Diversification of Financing Terms'' initiative is 
illustrative of our overarching desire to heighten financial 
sustainability at the ADB. Each day, we look for ways to enhance the 
sustainability of the institution. A more sustainable ADB will rely 
less on U.S. taxpayer-funded interventions now and in the future. 
Moreover, the additional income will bolster ADB's ability to support 
the poorest and most vulnerable countries in Asia and the Pacific, 
primarily through grants and concessional loans.
    Additionally, we are using our perch at the ADB to advance debt 
transparency and sustainability. As the premier development institution 
in the region and the leading partner for many countries, including in 
the Pacific, ADB has a key role to play in supporting the IMF and World 
Bank's Multi-Pronged Approach for Addressing Emerging Debt 
Vulnerabilities. We are advancing this agenda through other avenues as 
well, such as the ongoing negotiations for the next replenishment of 
the Asian Development Fund.
    Given the vast development needs and financing gaps in the region, 
we are also closely monitoring the activities of other financiers. We 
strongly advocate for other institutions to follow sound development 
practices on debt sustainability, rigorous environmental and social 
safeguards, accountability, and anti-corruption.
    We are keenly aware of China's regional goals and ambitions, 
whether it is through Belt and Road Initiative (BRI) or other 
instruments. We are highlight the failure of BRI to provide necessary 
lending safeguards, governance, and debt transparency as well. I 
believe the ADB is a better partner for countries to help them achieve 
sustainable economic growth. We work to prevent heavy-handed Chinese 
interventions in Asian and Pacific nations, and we consult with our 
U.S. and international development partners to provide better 
alternatives for borrower nations in the region.
    Within this vein, we have arranged frameworks and memoranda of 
understanding with the U.S. Agency for International Development and 
the Overseas Private Investment Corporation, now the Development 
Finance Corporation, to serve as high-quality, transparent alternatives 
to the debt-trap programs fueled by China. These efforts focus on 
helping the neediest countries, all while ensuring that these countries 
have a path toward sustainable economic growth.
    We also have worked with our partners on the Board of Directors to 
prevent ADB projects from being introduced in nations and regions where 
state actions run contrary to American values. For instance, the United 
States and our European partners prevented Board approval of two ADB 
projects planned for Xinjiang, China. Legislative mandates, such as the 
trafficking in persons and human rights mandates have provided us with 
strong tools to discourage institutions like the ADB from supporting 
programs in nations whose governments are not complying with the 
minimum standards for trafficking in persons and are engaging in a 
pattern of gross violations of internationally recognized human rights.
    If I am fortunate enough to be confirmed, I look forward to 
continuing the efforts and progress the Office of the U.S. Executive 
Director has made in advancing the ADB's core mission and American 
values abroad. I will remain steadfast in my efforts to alleviate 
corruption, enhance transparency, and strengthen institutions in Asia 
and the Pacific. I also will focus on creating sustainable economic 
growth in the region and raising median incomes. Finally, I will work 
to curtail China's opaque and non-market lending practices in Asia and 
the Pacific and I will continue to work with our U.S. and international 
partners to provide developing nations with better alternatives to 
Chinese lending.
    Mr. Chairman and members of the committee, thank you for allowing 
me to appear before you today. I look forward to working with members 
of this committee and the interested members of both the Senate and the 
House in addressing all of our goals in Asia and the Pacific. I look 
forward to answering any questions you may have and, if confirmed, I 
hope to foster a close working relationship with you and your staffs as 
it relates to ADB's COVID-19 response initiatives and the ADB's role in 
Asia and the Pacific more broadly.


    Senator Young. Thank you, Mr. Chung.
    Next, we will hear from Mr. Joseph Manso, who is the 
president's nominee to be U.S. Representative to the 
Organization for the Prohibition of Chemical Weapons with the 
rank of ambassador.
    Mr. Manso is a career member of the Senior Foreign Service 
Class of Minister-Counselor and has served as a diplomat since 
1985. He currently serves as the Deputy Assistant Secretary of 
State for International Organization Affairs where he has been 
since 2018.
    He previously served as director in the Offices of the U.N. 
Political Affairs and Regional European Security Affairs as 
well as the Deputy Permanent Representative at the U.S. mission 
to NATO.
    In a variety of diplomatic, law enforcement, and military 
affairs roles, he has served in Spain, Mexico, Austria, 
Belgium, Bolivia, Iraq, and at the U.N. in New York as well as 
roles here in Washington. He has also taught at the National 
War College.
    Mr. Manso, please proceed.


 STATEMENT OF JOSEPH MANSO OF NEW YORK, A CAREER MEMBER OF THE 
 SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, FOR THE 
   RANK OF AMBASSADOR DURING HIS TENURE OF SERVICE AS UNITED 
 STATES REPRESENTATIVE TO THE ORGANIZATION FOR THE PROHIBITION 
                      OF CHEMICAL WEAPONS

    Mr. Manso. Thank you, Chairman Young. Thank you, Ranking 
Member Merkley, and distinguished members of the committee.
    It is an honor to come before this committee as the 
president's nominee to be the next U.S. Permanent 
Representative to the Organization for the Prohibition of 
Chemical Weapons.
    If confirmed, I pledge to work closely with this committee 
and Members of Congress to advance U.S. interests at the OPCW.
    I would not be here today without the support and love of 
my wife, Patricia, and my daughters, Lauren and Marissa. They 
have shared my Foreign Service journey, moving 16 times in the 
past 35 years, usually without complaint.
    I would also not be here without the love and support of my 
parents, Jose and Mary Manso. I thank them and all my family.
    We are all patriots here and none of us requires further 
proof of the goodness of the United States. But the fact that 
this country has offered so much to the son of an immigrant 
from Spain underlines how America remains a land of 
opportunity.
    It is for me a privilege to serve the American people as a 
Foreign Service Officer and I have sought throughout my career 
to protect and advance the interests of the United States 
whether at NATO, United Nations, the OSCE, or my bilateral 
postings.
    If confirmed, this OPCW assignment would be a logical 
follow-on to my years of multilateral work in the Foreign 
Service.
    The mission of the OPCW to end the development, production, 
stockpiling, transfer, and use of chemical weapons is essential 
to the security of the American people.
    This mission has had strong and continuous bipartisan 
support since the Chemical Weapons Convention, the CWC, entered 
into force in 1997.
    In April 2017, President Trump stated it is in the vital 
national security interests of the United States to prevent and 
deter the spread and use of deadly chemical weapons.
    The United States has made it a priority to restore 
deterrence against the use of chemical weapons. In the past two 
years, the United States and its partners led efforts at the 
OPCW to take action seeking to stop further chemical weapons 
use.
    In June 2018, States Parties of the OPCW agreed to an 
unprecedented decision condemning recent uses of chemical 
weapons in the U.K., Malaysia, and in Syria by the Assad regime 
the 2018 decision directing the OPCW to establish attribution 
arrangements for the use of chemical weapons in Syria.
    The OPCW is mandated to identify perpetrators for use of 
chemical weapons in Syria, which the OPCW has addressed through 
the creation of the Investigative and Identification Team, the 
IIT.
    The IIT released its first report in April 2020, 
attributing responsibility to the Assad regime, which it 
identified as the perpetrator of three chemical weapons attacks 
that occurred in Syria in March 2017.
    In response to the report, the United States is urging 
responsible states to work together to push for accountability 
for the Syrian regime's confirmed use of chemical weapons, 
looking at the full array of tools available at the OPCW, the 
U.N., and to us as sovereign states.
    Chemical weapons use will not be tolerated.
    Another example of U.S. leadership in addressing chemical 
weapons use was in response to the Salisbury and Amesbury 
incidents involving military-grade nerve agents referred to as 
Novichoks.
    The United States, Canada, and the Netherlands jointly 
submitted a proposal to add two chemical families of Novichoks 
to the Annex to the Convention. This proposal was adopted by 
consensus at last year's Conference of the States Parties.
    The additions of these lethal nerve agents developed by the 
former Soviet Union will ensure their declaration and subject 
them to verification by the OPCW.
    This change that goes into effect next week represents the 
first ever addition to the CWC Annex on Chemicals and reflects 
the convention's adaptability to current threats.
    If confirmed, I would be honored to aggressively take 
forward this work, which have been accomplished thus far 
through U.S. leadership.
    If the United States is to succeed in restoring deterrence 
against chemical weapons use and driving chemical weapons use 
to zero, we must continue to support these efforts.
    And now the most beautiful words in the English language, 
Mr. Chairman, in conclusion, I am proud of what the United 
States has accomplished at the OPCW and, if confirmed, I would 
be honored to be part of the administration's team committed to 
effective multilateralism and advancing our national security 
objective of seeking a world free of chemical weapons.
    Thank you.
    [The prepared statement of Mr. Manso follows:]


                   Prepared Statement of Joseph Manso

    Mr. Chairman, Ranking Member Merkley, and distinguished members of 
the committee: it is an honor to come before this committee as 
President Trump's nominee to be the next U.S. Permanent Representative 
to the Organization for the Prohibition of Chemical Weapons (OPCW). I 
am grateful for and humbled by the confidence the President and 
Secretary Pompeo have placed in me. If confirmed, I pledge to work 
closely with this committee and Members of Congress to advance U.S. 
interests in the OPCW. If confirmed, this OPCW assignment would be a 
logical follow-on to my years in the Foreign Service, and I would not 
be here without the love and support of my wife, Patricia, and my 
daughters Lauren and Marisa. They have shared my Foreign Service 
journey, moving 16 times in the past 34 years, usually without 
complaint. I would also not be here without the love and support of my 
parents, Jose and Mary Manso. I thank them and all my family.
    We are all patriots here, and none of us requires further proof of 
the goodness of the United States, but the fact that this country has 
offered so much to the son of an immigrant from Spain underlines how 
America remains a land of opportunity. It is for me a privilege to 
serve the American people as a Foreign Service Officer, and I have 
sought throughout my career to protect and advance the interests of the 
United States, whether at NATO, the United Nations, the OSCE, or my bi-
lateral postings.
    The mission of the OPCW, to end the development, production, 
stockpiling, transfer, and use of chemical weapons, is essential to the 
security of the American people. This mission has had strong and 
continuous bipartisan support since the Chemical Weapons Convention 
(CWC) entered into force in 1997.
    In April 2017, President Trump stated, ``It is in the vital 
national security interests of the United States to prevent and deter 
the spread and use of deadly chemical weapons.'' The United States has 
made it a priority to restore deterrence against the use of chemical 
weapons and has made clear its national security importance.
    In the past two years, the United States and its partners led 
efforts at the OPCW to stop further chemical weapons use. In June 2018, 
the OPCW Conference of the States Parties adopted an unprecedented 
decision condemning recent uses of chemical weapons in the UK, 
Malaysia, Iraq, and in Syria by the Assad regime. The 2018 decision 
directed the OPCW to establish arrangements to identify perpetrators 
for use or likely use of chemical weapons in Syria, which the OPCW 
accomplished through the creation of the Investigation and 
Identification Team (the ``IIT''). The IIT released its first report in 
April and attributed to the Assad regime responsibility for three 
chemical weapons attacks in March 2017. In response to the report, the 
United States is urging responsible states to work together to push for 
accountability for the Assad regime's confirmed use of chemical weapons 
and to prevent further use, looking at the full array of tools 
available at the OPCW, the U.N., and belonging to sovereign states. CW 
use will not be tolerated.
    Another example of U.S. leadership in addressing chemical weapons 
use was in response to the Salisbury and Amesbury incidents involving 
the military-grade nerve agent referred to as Novichoks. The United 
States, Canada, and the Netherlands jointly submitted a proposal to add 
two chemical families of Novichoks to Schedule 1 of the Annex on 
Chemicals to the Convention, which was adopted by consensus at last 
year's Conference of the States Parties. The addition of these lethal 
nerve agents developed by the former Soviet Union will subject them to 
the routine verification requirements under the Convention. This 
change, which goes into effect next week, represents the first-ever 
addition to the CWC Annex on Chemicals in the Convention's history and 
reflects the Convention's adaptability to current threats.
    If confirmed, I would be honored to take forward this work, which 
has been accomplished thus far through tireless U.S. leadership. If the 
United States is to succeed in restoring deterrence against chemical 
weapons use and driving chemical weapons use to zero, we must continue 
to support these efforts, and we must encourage and support proactive 
initiatives against chemical weapons development, production, 
stockpile, and use.
    If confirmed by the Senate, I will work to ensure that the OPCW 
remains a viable and effective force for promoting a world free from 
chemical weapons by addressing possible future chemical weapons 
threats. In October 2019, the United States, Australia, Switzerland and 
21 additional co-sponsors launched an initiative to adopt a set of 
decisions making clear States Parties' understanding that under the CWC 
the aerosolized use of central nervous system (CNS)-acting chemicals 
for law enforcement is impermissible. The United States is working to 
create a broad coalition of states committed to ensuring there is no 
use of CNS-acting chemicals as chemical weapons.
    This administration has emphasized it is crucial to call out non-
compliance with the Convention to make clear such behavior is not 
acceptable, and to prevent further malign behavior. I fully support 
this administration priority. The United States announced its 
assessment of Iran's non-compliance with the Convention in its national 
statement to the Fourth CWC Review Conference in November 2018. The 
United States highlighted its assessment that the Russian Federation 
violated the Convention when it used a Novichok in an assassination 
attempt in the United Kingdom. Sadly, the Syrian regime has used 
chemical weapons repeatedly against the Syrian people as a means to 
gain a military advantage and to terrorize people into submission. And 
in November 2019 in its national statement at the OPCW Conference of 
the States Parties, the United States also raised to States Parties' 
attention Burma's non-compliance with the Chemical Weapons Convention. 
This demonstrates the United States' concerted effort to address CWC 
non-compliance and not to allow these violations to go unchallenged. I 
am fully committed to making it clear that States Parties must comply 
with their obligations under the Chemical Weapons Convention. In the 
case of Burma, we are working with that Government to help them come 
into compliance with their obligations, having engaged with them 
repeatedly on these issues, including by declaring and destroying a 
historic chemical weapons production facility, most recently with a 
bilateral consultation in late February in the Burmese capital, Nay Pyi 
Taw.
    In conclusion, I am proud of what the United States, States Parties 
and the OPCW together have accomplished thus far. If confirmed, I will 
be honored to be part of the administration's team committed to 
effective multilateralism and advancing our national security objective 
of seeking a world free of chemical weapons and driving chemical 
weapons use to zero.
    Thank you.


    Senator Young. Well, thank you, Mr. Manso. Thank you all 
for your previous service and for your willingness to be 
nominated for these posts.
    We will now open it up for questions from the committee, 
and I suppose I have prerogative since I am chairing this 
hearing. But I will defer to our ranking member, Senator 
Merkley, if he would like to proceed.
    Senator Merkley. Thank you, Mr. Chairman. I will jump right 
in then.
    And, Ms. McGee, when we had the chance to talk I noted that 
we are in an incredibly challenging world situation. Existing 
famines, complicated by weather the last year, locusts, COVID-
19, and military conflicts are expected to double the number of 
people on the planet who are in acute food shortages, from 
about 135 million to, roughly, twice that--265 million to 270 
million people.
    I had asked if you would meet with leaders of groups like 
Mercy Corps. I gather you did that yesterday. And maybe you 
could just give us a little bit of a sense of the role those 
organizations play in partnership with USAID and any insights 
that you might have gained from that dialogue.
    Ms. McGee. Thank you, Senator.
    Indeed, we did have that session yesterday and I very much 
appreciated the active participation and the candor and the 
viewpoints that were shared by the associations and the groups 
that attended.
    As you can imagine, COVID-19 response was foremost in many 
of their minds. The guidance and operating conditions that they 
are contending with are challenging, both, of course, on a 
humanitarian response perspective as well as to continue a 
long-term development work.
    They are certainly aware of USAID's priority and approach 
along with the State Department to do work that would help 
prevent backsliding and loss of some of the gains, the hard-
fought gains, that have been achieved on the development and 
the spectrum of USAID, its partners, and the host nations 
abroad.
    So USAID, along with the other COVID strategies, are 
working on, of course, the global health emergency aspect as 
well as working to prevent further humanitarian consequences of 
existing complex crises and anything that could further 
exacerbate that.
    So USAID and the partners are on the ground working as best 
they can. Of course, they are contending with logistical 
impacts, as you and I also discussed, in relation to some of 
the movement restrictions that are being caused by the response 
to COVID-19.
    I will say that Yemen was also raised as a concern. Of 
course, that is the largest humanitarian crisis in the world. 
The U.S. remains one of the largest donors to the humanitarian 
response and so the continuing and exacerbating conditions on 
the ground there in Yemen were also highlighted.
    And then there were some questions about USAID organization 
when some of the particulars will manifest such that the 
agencies and organizations will see them. But they also, 
certainly, shared their passion, their commitment on the ground 
of their workers and appreciating that we will have a candid 
and close working relationship.
    I committed that to them and I certainly ask them for their 
candid feedback at all times, and we emphasize with one another 
the importance of that exchange that I spoke about, certainly 
the best intents that all of us have, you know, in Washington 
or on the staff to put forward policies or operating guidance 
that does not always necessarily come out, you know, the chute 
in the best most ideal way, you know, in the context of an 
operating environment. And so that dialogue was necessary.
    Senator Merkley. I am going to cut you off there because 
you have answered the question. Thank you very much for meeting 
with those groups and to have an ongoing dialogue with them, 
their expertise and their role in delivering assistance around 
the planet.
    Mr. Dowd, I wanted to turn to the role of the EBRD. It 
often focuses on project loans, equity investments, and 
guarantees to the private sector.
    Right now economic havoc is afflicting Greece, Albania, 
Bosnia, and Herzegovina, other countries in southeastern Europe 
that are impacted by the pandemic in all kinds of ways 
including the role of tourism.
    Should they be a special focus of the bank in the year or 
two to come?
    Mr. Dowd. Thank you, Senator.
    Certainly, and I have some encouraging news there. I am not 
at the bank, obviously, yet so I do not know the details.
    But I understand that the bank has allocated, I believe, 
$21 billion for short-term liquidity assistance to small and 
medium-sized businesses in the bank's portfolio, and I believe 
in the longer run the bank has dedicated most of the 2020 
program and the 2021 program to COVID-related effects and 
aftermath of the COVID.
    So I think the bank has taken steps and, certainly, this 
will be a key area as these countries, the countries in the 
portfolio, seek to rebuild after the devastating financial 
consequences of the virus.
    And also, it is another reason to at least postpone any 
thinking of expanding the bank's portfolio. It seems that would 
be ill timed as the resources of the bank will be in such 
demand in the countries you identified and other countries.
    Senator Merkley. And I found it very interesting when you 
talked about the potential plan for sub-Saharan Africa and your 
sense that that is not the right thing to do at this moment and 
you are bringing expertise directly from the African 
Development Bank to that conversation.
    The European Investment Bank, the lending arm of the 
European Union, announced in November that it would phase out 
possible fuel investments by the end of 2021, citing the 
worldwide impacts of carbon pollution and climate chaos on the 
human condition.
    Is it time for the EBRD to follow suit?
    [Pause.]
    Mr. Dowd. I am sorry. Okay.
    Senator, the EBRD, I think, is, from what I can see, and I 
am not there, but I think they are aggressively pursuing 
programs along those lines. I do not know the details.
    But as a consensus-driven organization, I think that there 
is a consensus for strengthening programs along these lines and 
I think you will be pleased.
    I mean, you and I spoke during my interview there, and I 
appreciated that very much, about this very topic and that is 
something I will monitor and I would certainly welcome the 
input from you and your staff in helping guide our interaction 
at the bank.
    Senator Young. Senator Merkley?
    Senator Merkley. Yes?
    Senator Young. We may have--if I could--if I could just 
interject. I think we are going to have a number of senators 
with great interest in our nominees here wanting to ask 
questions.
    So we may circle back. The hearing has been scheduled until 
noon so if time permits opportunity for----
    Senator Merkley. Thank you, Mr. Chairman. I will just note 
on that point, Mr. Dowd, that the EBRD is continuing to finance 
possible fuel projects, Romanian-based Black Sea oil and gas, 
bonds with possible fuel companies in Ukraine, Bulgaria, 
Greece, Turkey, and Egypt, gas grid projects, the Trans 
Adriatic and Trans Anatolian pipelines.
    So, certainly, you are not yet following the path of the 
European Investment Bank, but for the same reasons that bank 
cited its change of policy I think it is a conversation that is 
important for us to be part of as we consider the humanitarian 
impacts on the economy and the environment around the world.
    Thanks so much.
    Senator Young. Thank you, Senator Merkley.
    Ambassador Mills, you previously served at the U.S. mission 
to the United Nations, as I indicated in your introduction, 
from 2001 to 2003. That was back when John Negroponte was our 
ambassador.
    What has changed? I am going to ask some fairly short 
questions here as kind of a lightning round. So perhaps you 
could give me a tight answer, if possible.
    But what has changed about the United States' relationship 
with that institution, with the United Nations, from your 
standpoint since you last served there?
    Mr. Mills. I think the United States is much more focused 
on reform, accountability, and transparency, and we have seen 
some results, and I think that is the biggest difference since 
I was last there.
    When I was there in 2001 to 2003, we were all shocked by 
the beginning reports about sexual exploitation and abuse in 
some of the peacekeeping operations, and I think we have seen 
some real reform there.
    I think Secretary General Guterres has an annual report now 
that comes out that describes where the zero tolerance policy 
is being followed. There is more engagement with the troop-
contributing countries.
    And so, to me, that is one example how a bit more 
aggressive focus on reform and transparency has made a 
difference because of our leadership.
    Senator Young. Thank you, Ambassador.
    Next question is for Colonel McGee.
    Colonel McGee, the conflict in Yemen is one in which I have 
been deeply involved with a number of my colleagues. There has 
been a lot of focus on the extent to which food insecurity 
plays a role in feeding greater desperation and leading to more 
conflict.
    For a period of time I focused on what I regarded as 
violations of the law or from the coalition, and my hope is 
that we can eventually find a political agreement, a path 
towards peace.
    So what is USAID doing now to prepare for eventual 
political agreement in Yemen that will open the door for 
greater international involvement in caring for those desperate 
people in that country?
    Ms. McGee. Thank you, Senator.
    I agree. I share your concern about the profound state of 
affairs that exist in Yemen and the ongoing fighting and 
displacement of personnel.
    As we know, the Yemeni people have been suffering with 
tremendous humanitarian need and health crises that continue.
    We are--USAID continues to provide lifesaving assistance 
both in the north and throughout the country as well as food 
assistance, water, sanitation, health care protection and those 
kinds of things.
    It is a place where we want to closely monitor the use of 
our U.S. taxpayer dollars. That has been $1.1 billion since the 
start of fiscal year '19 and so it is important that we are 
ensuring that those funds are being applied towards the most 
vulnerable people who need them and in the way that was 
intended when Congress appropriated the funds and as we are 
programming to do with our partners on the ground.
    And so those provisions continue. We continue to 
participate in the donor conferences as well. There was just a 
pledging conference a couple of days ago.
    The U.S. did participate and did attend and, as you know, 
we are contending with the situation in the north where the 
Houthis have been blocking aid and interfering with the 
provision of aid as intended and harassing aid workers.
    So we continue to call on the Houthis with a concerted 
voice of groups to try to improve that situation and expand our 
programming.
    Senator Young. It is very difficult to give a tight answer 
when asked anything about Yemen. I have discovered that. So but 
that was--thank you so much for that fulsome response.
    And, lastly, I will just ask, because my time is expiring 
as well, Mr. Chung, if you could try and address in a very 
concise fashion what you see the role of China and India being, 
looking ahead at the ADB in coming years.
    I know that is a very large question. But if you have any 
reflections on that topic.
    Mr. Chung. Thank you, Mr. Chairman.
    China and India are our two largest borrowers. So the idea 
is that, especially with China, I think the focus will always 
be now putting them on a path to graduation so they are no 
longer borrowers from the institution.
    For India, India is a little bit more complicated due to 
the fact that, as you know, ADB's mission is to alleviate the 
poor and vulnerable. India is in quite a predicament as we 
speak.
    So I think, in a way, they are going to continue to borrow 
both on the sovereign and nonsovereign side of the ledger and 
you will see probably increased programming in that country 
while we will push for decreased programming and loan support 
for China.
    Senator Young. Thank you, Mr. Chung.
    I believe Senator Gardner is with us. In this Zoom era it 
can be sometimes difficult to determine if that is the case. I 
know Senator Gardner has gaveled in and has great interest in 
this topic. But we are often double and triple booked.
    Senator Gardner, you are recognized if you are with us at 
this time.
    [No response.]
    Senator Young. Otherwise, we will move on to another one of 
my colleagues. Okay.
    Senator Cardin, who I know has been at another hearing, but 
he, too, is quite interested in this.
    Senator Cardin, are you--are you with us for this hearing?
    [No response.]
    Senator Young. Okay. Next is Senator Barrasso.
    Senator Barrasso, you are recognized.
    [No response.]
    Senator Young. Okay. It is a Thursday here in Washington. 
We tend to have a lot of hearings and votes before we fly back 
to our respective states.
    Well, I will proceed with more questions then, and they 
only get harder. I am sorry.
    So, Mr. Chung, what actions would you pursue as director to 
minimize China's attempt to squeeze Taiwan out of the ADB?
    Mr. Chung. Thank you very much for that question.
    I can tell you, as we speak we are addressing these 
concerns at the institution.
    Right now, I will be honest with you, there is unequal 
treatment of Taiwan and Taiwanese nationals at the institution 
and we are working with our Taiwanese board colleague to 
address those issues.
    We are going to--we have already asked my colleagues at the 
Treasury Department to send notes to ADB management on this 
topic and we are in the process of discussing these issues in 
terms of unequal treatment and fairer treatment for a founding 
member of the institution as well.
    Senator Young. I look forward to staying in touch, should 
you be confirmed, on that topic. I imagine that once--it is 
going to be one that we in Congress continue to press on, and I 
know this administration is quite interested in that.
    Are there members, Mr. Chung, of the ADB that, to put it 
colloquially, are not pulling their weight as it relates to 
their contributions and can you name them.
    Mr. Chung. Mr. Chairman, that is somewhat of a loaded 
question, I will be honest with you. You know, I do think that 
with our colleagues and with our partners, especially the 
Europeans, that we are working in every capacity to prevent 
impropriety that takes place in the bank, namely, from the 
Chinese.
    I think we are working together to encourage the bank to 
graduate China. I think at times there are geopolitical 
consequences with China being the largest neighbor in the 
region and some of the bilateral force that they bring to be 
bear being that neighbor.
    But I do believe there is some impetus and a role that the 
Europeans, Australians, as well as the Japanese. We are firmly 
addressing the issue as it relates to China.
    And there is also issues regarding bank processes and 
institutional constructs that we are looking to address with 
those who are like-minded with us as well.
    Senator Young. Okay.
    Mr. Dowd, what value does the United States provide to and 
derive from our involvement in the European Bank for 
Reconstruction and Development?
    Mr. Dowd. Thank you, Senator.
    As I mentioned in my opening statement and expand a little 
bit in my written statement that I submitted, the--particularly 
focusing on Central Asia, it is one of the very few channels 
the United States has to engage there and this--Central Asia is 
sort of the heart of the Belt and Road program and the EBRD has 
been very effective there and I think it is something that is 
to the U.S. benefit.
    Also in the Mediterranean, as I mentioned earlier also, in 
the Middle Eastern area I think it is another means for like-
minded countries that are interested in democratic development 
in the long run--it is not an easy process--but especially a 
hearing to the rule of law, because in many of these countries, 
as in Africa, as I experienced, we are engaged in how it might 
be described as the rule of law versus corruption.
    And I, for one, have no tolerance for corruption, and any 
of these institutions should be leading the way on anti- 
corruption, both within their institutions and beyond and all 
their clients, and this is something that I assure you will be 
a high priority to me at the EBRD.
    Thank you.
    Senator Young. So to what extent is the EBRD already--are 
they deeply involved in the Middle East and supporting 
development efforts there already or is that sort of something 
you see as important to the future? Help educate me on this, if 
you would, sir.
    Mr. Dowd. Yes. In the eastern Mediterranean countries the 
bank is very engaged as well as in Egypt where there is a 
considerable portfolio.
    I believe Egypt is the second largest client of the bank, 
Turkey being the first. But also across the Arab world, as you 
were mentioning, in Tunisia, in Morocco, certainly, and I think 
that there is interest in expanding possibly into Algeria and 
who knows, maybe Libya someday if things ever get to a point 
where they are settled enough to engage in private sector 
development.
    But across many Middle Eastern countries, the bank is very 
engaged again in promoting democratic values and rules- based 
operations.
    Thank you.
    Senator Young. Thank you. That is quite helpful.
    I see Senator Merkley is with us and I will happily--if he 
would like to ask some additional questions I will happily 
recognize him at this time.
    Otherwise, I am loaded with more questions and, as I said, 
they only get more difficult.
    Senator Merkley. Mr. Chung, I wanted to turn to the Asian 
Development Bank, and you noted that China needs to be put on a 
path to graduation.
    When do you--what date do you have in mind for China's 
graduation?
    Mr. Chung. Senator, I wish I had a specific date in mind. 
The sooner the better, obviously. We are--as I noted in our 
bilateral meeting a couple weeks ago--ADB is in the process of 
working with China on their next five-year lending program and 
it is our position as well as the Japanese position to put them 
on that path to graduation in that--in that document in that 
lending program.
    If it was up to me, China would have graduated already and 
if it was up to me a little bit more I would put them--they 
would be graduating at the end of this five-year document, 
which is supposed to take place starting in 2021.
    Senator Merkley. So thank you, Mr. Chung. Just to share 
with you my perspective on this, I have watched China do 
massive investments at home in metro systems, in freeways, on 
bullet trains.
    How many miles--you may not know the answer to this but I 
will pose it rhetorically in case--unless you want to jump in. 
But how many miles of bullet trains does the U.S. have and how 
many miles does China have?
    I will just pause for a second in case you wanted to jump 
in.
    Mr. Chung. Sir, I do not know the answer of how many miles 
of bullet train rail that China has. I do believe I know what 
the answer is going to be in the United States and I could not 
agree with you more on these issues, and I think the priority 
is from my office and the office that--in the elevation 
position that I am seeking is to get China to graduate so they 
no longer are borrowers.
    Senator Merkley. As you probably were--I know you said you 
knew the answer I am sure you were thinking zero in the United 
States.
    Mr. Chung. Yes.
    Senator Merkley. And I was on the very first link from 
Beijing to Tianjin. That was about--I think it was 200 
kilometers or 200 miles, and that was not that many years ago. 
It is after I came to the Senate. I think it was about 2013, 
about seven years ago, and China now has 16,000 miles of bullet 
trains.
    And just out of curiosity, as Chairman Young was 
interviewing you, I wanted to look up the highest tech 
magnetically levitated trains and I see a whole series of 
videos on YouTube about China having the fastest mag lev train 
in the world.
    It bothers me subsidizing China, which is turning around 
and using its capital to do debt trap financing and I think you 
used that word in your testimony--debt trap financing.
    It took me back to college when I read a book by Cheryl 
Payer called ``The Debt Trap,'' and at that time it was not 
about China. It was about other international institutions that 
were lending to very poor countries and then those countries' 
elite were stashing their money in Switzerland and the whole 
country of very poor people was trapped trying to pay back that 
debt, which was a horrific situation.
    But now we have China engaged in predatory actions of this 
nature. So I--if it was up to me, they would be cut off 
yesterday. I do not think we should be part of financing China.
    I am still waiting for a bridge over the Columbia River 
where we still have an ancient bridge on wooden piers that 
interrupts the main north-south corridor on I-5 between Oregon 
and Washington.
    And so you get my sense of concern about this. I also 
wanted to turn to the issue of China's abuse of the Uighurs in 
Xinjiang and, basically, a million people put into a high-tech 
slave camp with facial recognition, cell phone tracking, 
concentrated almost slavery style work centers, and how--and 
just really feeling like the U.S. has to take a major stand 
about this including blocking products being brought to the 
United States from this operation.
    And how can the bank possibly play a role in highlighting 
and cutting off funding to anything involved or connected to 
that massive human rights abuse?
    Mr. Chung. Senator, thank you very much for that question. 
As I noted in my testimony, I, along with my colleagues and my 
partners on the board, we essentially killed two projects that 
were slated for that province in China, Xinjiang.
    And, you know, we felt that, you know, the measures 
undertaken by the Chinese authorities in that did not warrant 
any type of funding ADB would provide and, as you noted, it 
would be--it would be U.S. tax dollars subsidizing this 
problem.
    And, Senator, I could not agree with you more. We are not 
going to stand for this and we will do everything in our power 
to make sure that, one, China does not receive any additional 
funding for that--for this province.
    I have had assurances by bank management, and we are 
extremely vigilant on this key issue. Secondly, we are working 
on putting China on this path to graduation so they no longer 
are going to be borrowing from the Asian Development Bank also.
    That is probably going to be my primary focus in my current 
position and if I am confirmed for the director position as 
well. You have my solemn word on that.
    Senator Merkley. Thank you very much, Mr. Chung. I 
appreciate that.
    And Mr. Mills, we had the opportunity to highlight this 
issue at the United Nations. Your thoughts on that?
    Mr. Mills. I share my panelist's concern about what is 
happening and yours as well, Senator. This is an issue that the 
U.N. needs to address.
    The U.S. Government has, as you know, taken some action. We 
have taken visa restriction sanctions on PRC and local regional 
officials who we believe are responsible for the crimes you 
have outlined.
    Treasury has put, I believe, over 15 PRC entities on its 
list--restricted list. So we are taking some action. The U.N. 
needs to take action, too.
    I know it is a strong concern of Ambassador Craft and her 
team in New York and I know they press to bring light to it 
through whatever mechanisms they can in the U.N. and to 
assemble a coalition of like-minded states to press China to 
take action and stop these crimes.
    Senator Young. Thank you, Ambassador Mills.
    I would like to recognize Senator Cardin of the great state 
of Maryland.
    Senator Cardin?
    Senator Cardin. Thank you, Chairman Young.
    And let me, first, thank all of the witnesses for not just 
being here today but for your willingness to serve our country.
    I was listening to the hearing a little bit earlier. I know 
you called on me, I was dual tasking with two committees that 
are meeting at the same time. So very much I appreciate your 
response.
    To Ms. McGee, I did hear your response to Senator Merkley 
in regards to the issue of what you are doing on trying to 
balance different priorities. This is a new division within 
State, and I guess my concern is this: We are very much 
interested in making sure America plays a key role in 
humanitarian assistance globally. That is part of our DNA. We 
want to make sure we are aggressively engaged in helping people 
that desperately need help around the world.
    But we always do that within the parameters of our values--
promoting human rights. So I just really want to get your view 
as to how do you balance a country that people desperately need 
human rights--desperately need humanitarian assistance, I 
should say--but have challenges as far as their governments, 
how they handle their human rights?
    How do you leverage America's participation on humanitarian 
aid to advance the core values of this country in respecting 
basic human rights?
    Ms. McGee. Thank you, Senator.
    Our American values, as you say, are part of our DNA and 
underpin everything that we do. USAID uses a needs- based 
assessment for saving as many lives as possible and [audio 
malfunction in hearing room] being those who are most 
vulnerable and in greatest need.
    And so we approach that need with as much, again, targeted 
contextual information and analysis as we can. We respect the 
needs and rights of those that we are seeking to help and that 
is the way in which we and our partners conduct our operations.
    We work with as many partners and agencies as we can to 
deliver the best response and that is on policy level, at 
operational level, and on the ground, executing the programs.
    Senator Cardin. I would just make one additional 
observation. We are not doing the people any favors when we 
provide humanitarian aid that gets diverted to corrupt regimes 
and does not reach the individuals themselves--the people 
themselves.
    So we have to have a pretty firm policy of why we are doing 
humanitarian aid: To reach people and to advance U.S. values.
    So I am going to expect that you will keep our committee 
informed on how you are meeting that mission. I can tell you 
there is strong interest among all of our members to advance 
U.S. humanitarian assistance but also recognizing that we do 
not want to fund corrupt regimes and see this money just 
diverted.
    Ms. McGee. Absolutely, Senator. I share that concern 
wholeheartedly. USAID does use safeguards and provisions in 
concert with its partners such as geotagging photos, video 
distribution of aid, and vetting of bad actors--well, to 
prevent bad actors and diversion of aid and egregious use. So 
that is absolutely a concern and I commit to you that I will 
absolutely ensure taxpayer dollars are used as intended.
    Senator Cardin. Mr. Dowd, if I could turn to you just for 
one moment.
    The European Bank for Reconstruction and Development has an 
explicit political mandate to support democracy. And yet, when 
we look at its history it has supported a lot of countries 
that, certainly, are not democracies.
    So how do we promote the mission of the Bank? How does U.S. 
leadership make it clear that we expect our participation to 
carry out the core mission, which is to promote democracy?
    Mr. Dowd. Thank you, Senator.
    Yes, indeed, in the founding mandate of the EBRD it 
explicitly says that this is a democratically-focused bank and 
it advances democratic values.
    And perhaps that has been somewhat forgotten. I do not 
know. I give them the benefit of the doubt. And, of course, 
many of the countries with which the EBRD does business are not 
exactly glowing examples of democratic progress.
    But I would hope that the bank will be a voice for 
democratic participation and it is a long-term process, and I 
certainly can tell you this.
    I will be a strong voice for democracy in all of the bank's 
dealings and for those values that we as Americans hold, which 
are free markets, free elections, and democracy.
    I think it should be a part and, as I say, it is unique 
among multilateral banks and that it explicitly calls for that 
and that is something I will be reminding people of frequently.
    Thank you.
    Senator Cardin. Well, thank you for that answer. That is 
exactly what I wanted to hear, that you----
    [Laughter.]
    Mr. Dowd. Well----
    Senator Cardin [continuing]. That is in the core mission of 
the document and, obviously, it has not been carried out with a 
lot of the different loans that have been given.
    So I appreciate your commitment to remind your colleagues 
of the mission of the Bank as you go forward with particular 
projects.
    And to all of you, I ask all of our nominees, how are you 
going to advance American values, how are you going to advance 
basic human rights, how are you going to advance what makes 
America truly unique in world participation?
    So I will be following up with each of you as to how you 
will use your position, if confirmed, to advance our values and 
how you can see working with our committee and how we can work 
together to accomplish that mission.
    Again, thank you all for your willingness to serve.
    Senator Young. Thank you, Senator Cardin.
    Ms. McGee, in 2018 USAID underwent some sort of fundamental 
restructuring, the emphasis was on increasing resiliency. One 
of the goals associated with that resiliency initiative was to, 
and this is a quote from USAID documents, ``elevate and 
integrate humanitarian and development assistance through the 
Office of the Associate Administrator for Relief, Resilience, 
and Response.''
    So as the nominee to fill this position, how do you assess 
USAID's efforts to elevate and integrate humanitarian and 
development assistance and what, if any, metrics might be 
available to accurately make that assessment or it might be 
qualitative instead, which is fine.
    Ms. McGee. Indeed. Thank you, Senator.
    That move was legally put into motion just before former 
Administrator Green departed USAID earlier this year. He 
legally established the Office of the Administrator with the 
immediate change being the establishment of this associate 
administrator position for relief, response, and resilience, as 
you say, or we say, more briefly, our three.
    It is--it is, I think, a reflection just as many 
organizations contend with addressing the urgent issues while 
attempting to work towards and continue to work towards 
strategic objectives.
    And so this position and the formation of the three bureaus 
that it would oversee are a reflection of a cohesive and 
structural approach to do that, particularly in this COVID 
environment.
    It has been said that if USAID had not designed this new 
structure, it would need to now. And so I think it was--it was 
great forethought that that design organizationally was made.
    In the position I would be providing strategic direction 
and priorities and advocacy as well as advice for those--for 
those bureaus, those being humanitarian assistance, conflict 
prevention and stabilization, and resilience and food security, 
and engaging with the interagency and externally with Congress, 
external stakeholders, private sector host nations, et cetera.
    And so that is the approach, again, to address that 
continuum from immediate humanitarian assistance to the long-
term development.
    And so part of my role will be--the real focus on 
integration will be ensuring that collaboration mechanisms are 
in place, accountability to coordination across those--across 
those functions so that we are sharing and updating information 
as we go and so that we are maintaining the focus and 
delivering on the excellent results that have always been the 
case through humanitarian assistance and also that long-term 
development.
    Senator Young. Well, thank you. As you, clearly, have 
command of where strategically things need to head and it seems 
you have more than a sense of what steps need to be taken, but 
if we in Congress can assist in those efforts, moving forward, 
if any additional authorities might be needed I look forward to 
working with you on that effort.
    Mr. Manso----
    Ms. McGee. Thank you.
    Senator Young [continuing]. OPCW was and has been actively 
involved in Syria in recent years as the Assad regime has used 
chemical weapons against the people of Syria.
    I know that OPCW has made some valiant efforts to try and 
hold that regime to account. But he has--Assad has escaped 
justice, escaped accountability, and continues to--continues to 
defy international norms and laws.
    What more, in your assessment, can OPCW do in Syria to draw 
attention to the atrocities perpetrated by Assad against his 
people through the use of chemical weapons?
    Mr. Manso. Well, thank you, Senator, for that question and 
for touching on this very important issue.
    And what I would say is that the Assad regime has escaped 
accountability thus far, but we are not finished with this 
issue and this issue is not--the world is not finished with 
this issue.
    So I think there are a number of things that we can do and 
we are doing, and if confirmed, I would be very aggressive in 
pursuing these steps.
    So the first set of steps would be within the OPCW itself. 
They are going to conduct further investigations into other 
attacks to maintain a constant effort to develop the facts, 
present the facts to the international community, and have a 
political drumbeat of the need for accountability.
    There are then also technical steps we could take within 
the OPCW such as denying them the right to vote and denying 
them the right to speak and other types of steps that we can do 
to indicate that they are in a pariah status and that they are 
out of compliance with their obligations in the Chemical 
Weapons Convention.
    There are steps we could take at the United Nations 
including the United Nations Security Council and, lastly, 
there are steps we could consider bilaterally. We already have 
taken some bilateral steps including sanctions.
    So we are by no means at the end of this story and it is 
very much the intention of the administration and, if 
confirmed, my intention to aggressively pursue these steps.
    Senator Young. Well, that is incredibly encouraging. Thank 
you.
    Russia has had--they have met with some success, Mr. Manso, 
in creating a false narrative about the use of chemical weapons 
in Syria, and as you contemplate stepping into this role with 
OPCW, what might that organization do as it relates to their 
findings related to chemical weapons use in Syria that has not 
already been done, if anything?
    Mr. Manso. Well, thank you for that question. It is, 
indeed, a very good observation and I have over my career dealt 
with the Russians a great deal.
    And something that you realize is they regard lying as a 
diplomatic tool. So, therefore, the first thing to do is to 
make this clear that they are not attached to the truth as 
something that is important in diplomatic discourse and they 
are perfectly willing to use untruths.
    And I must say that in a number of their efforts of, 
particularly, trying to tarnish well-known NGOs, or to tarnish 
the work of the investigative team that was put together by the 
OPCW, there are ample facts that we need to bring out in terms 
of public discourse that show that they are reflecting a 
position that is not true.
    But what I would say is this. This is the kind of issue 
that is not an event. You do not do it once and it is done. It 
is a process. They will be tireless in promoting a false 
narrative. So we have to be tireless in promoting the truth. 
This is a marathon, not a sprint.
    Senator Young. So the fact-finding missions--this gets a 
little more operational--that OPCW sends in to determine 
whether or not chemical weapons have been used, the composition 
of those missions, of those teams, has been criticized by the 
Russians, as I understand it, for not including Russians, 
right, on the teams.
    Is that a fair criticism and, if so, why? If not, why not?
    Mr. Manso. I would say it is not a fair criticism. The OPCW 
has a commitment to what is called geographic diversity and 
their Technical Secretariat. So they do have a broad range of 
nations represented in their technical secretariat and among 
their experts.
    These teams are multinational teams chosen, largely, on the 
basis of their expertise and, therefore, the teams also 
represent a broad base of technical expertise and of 
nationalities.
    But no one country has the right to insist that their 
nationals be on the team and, I might add, it does not strike 
me as the best practice if you have a nation that is 
potentially involved in the incident as an enabler that their 
nationals be on the team.
    So I do not think the Russians have a fair criticism here.
    Senator Young. I am grateful for that closing with a dose 
of common sense. So I think that makes a lot of sense. I do not 
want Russians on those teams.
    So I thank each of you for your patriotism, for your desire 
to serve. You are all very intelligent people with an 
incredible record of service, and you have many professional 
options but you want to serve your country during these 
challenging times.
    That says a lot about you. It says a lot about your 
families. I am so appreciative for your time and your testimony 
here today. I know Senator Merkley is as well.
    I believe we have votes going on, Senator Merkley. They 
have been called. They will be called in about two minutes.
    So if there are additional questions from any of my 
colleagues they will submit those questions to you in writing. 
We hope you will provide a fairly quick turnaround of responses 
to those questions and the record is going to remain open until 
the close of business on Friday for that purpose.
    So thanks again to each of you. This hearing is now 
adjourned.
    Thank you all.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record
         Submitted to Jenny A. McGee by Senator Robert Menendez

COVID-19 Supplementing Funding
    Question. Congress has appropriated nearly $2B in supplemental 
funding to USAID to address the global COVID-19 pandemic, more than 
$500 million of which is under International Disaster Assistance (IDA), 
an account which you will directly oversee in your role. We understand 
that USAID has not expeditiously obligated this funding to our partners 
fighting the pandemic, and is experiencing delays due to friction with 
the White House.

   What is the reason for the delay?

    Answer. Congress appropriated $1 billion in supplemental funding 
for the pandemic of COVID-19 to the U.S. Agency for International 
Development (USAID), including $558 million in International Disaster 
Assistance (IDA). As of June 8, 2020, I understand USAID has committed 
approximately $185 million in COVID-19 IDA supplemental funding. In 
preparing for my hearing, I learned that IDA funds are unique in that, 
once USAID commits funds to a forthcoming award, partners are able to 
begin implementing activities and expending against that grant, 
cooperative agreement, or contract, even before final obligation. 
Implementing partners, including non-governmental organizations, can do 
this by requesting a Pre-Award Letter (PAL), which is permission from 
USAID to start work and a promise from the Agency that funding is 
coming soon. United Nations agencies can do the same by tapping into 
their internal forward-funding facilities. In effect, at the time of 
obligation into an award, USAID then reimburses humanitarian partners 
for work already undertaken. This means that even before USAID makes a 
formal obligation, implementing partners are spending IDA money on the 
ground.
    I understand that USAID is prioritizing all awards funded from the 
IDA account with supplemental appropriations for COVID-19, and that the 
Agency is moving expeditiously to ensure its partners have these 
additional resources. In particular, staff have briefed me that USAID 
is prioritizing resources that scale up and expand ongoing 
interventions in health and water, sanitation, and hygiene to mitigate 
the transmission of COVID-19, as well as directing significant 
resources to respond to growing global food-insecurity related to the 
pandemic.
    I understand the Agency is working to review and resolve 
bottlenecks and, if confirmed, ensuring USAID is committing and 
obligating COVID-19 funding expeditiously will be one of my top 
priorities.

    Question. Should you be confirmed, what will you do to ensure that 
these funds are quickly and efficiently obligated to humanitarian 
partners fighting the COVID-19 pandemic overseas?

    Answer. If confirmed, I would ensure that committing and obligating 
funds quickly and efficiently, including supplemental appropriations in 
the International Disaster Assistance (IDA) account, remains the top 
priority for the U.S. Agency for International Development (USAID). 
Under my leadership, if confirmed, USAID would make every effort to get 
these additional resources quickly to the Agency's partners so they can 
continue critical and life-saving programs.
    This includes continuing to provide non-governmental organizations 
(NGOs) partners with Pre-Award Letters (PALs), which enable them to 
begin implementing programs and spending money against an award prior 
to the obligation of funds. United Nations partners also mobilize 
resources against our commitments through their internal forward-
financing facilities. If confirmed, I will ensure that USAID also 
continues to reassess its internal processes and systems to identify 
efficiencies and areas for improvement and apply course-corrections in 
real time.
    In addition, if confirmed, I would ensure USAID increases 
communications and outreach to its partners to ensure they are aware of 
the status of their proposals.

    Question. In addition, please provide us with your strategy to 
coordinate an effective U.S. humanitarian response to the global COVID-
19 pandemic, in coordination with the Department of State?

    Answer. It is critical that the U.S. Agency for International 
Development (USAID), through the Bureau for Humanitarian Assistance 
(BHA), continue to lead the humanitarian efforts of the United States 
around the world, especially in humanitarian settings where the COVID-
19 pandemic is exacerbating needs among already vulnerable populations. 
If confirmed, I would continue USAID's ongoing and robust engagement 
with the Bureau of Population, Migration, and Refugee (PRM) at the U.S. 
Department of State to ensure a coordinated and holistic humanitarian 
response. I understand this coordination is most evident in countries 
like the Lebanese Republic, where USAID will use supplemental funding 
for COVID-19 from the International Disaster Assistance account to 
provide emergency food assistance to Syrian refugees and PRM will use 
supplemental funding appropriated to the Migration and Refugee 
Assistance account to support complementary interventions, such as 
education and health care.

Access to Personal Protective Equipment (PPE)
    Question. We understand that USAID has included specific 
restrictions on the local and regional procurement of PPE by its 
partners fighting the COVID-19 pandemic on the ground.

   Please provide us with USAID's policy on partner procurement of PPE 
        in response to the COVID-19 pandemic.

    Answer. USAID released the following policy guidance on PPE on June 
9, 2020. I understand that this new guidance supersedes the clause on 
``Covered Material'' previously included in awards funded through 
supplemental appropriations for COVID-19 in the International Disaster 
Assistance account; the Agency will modify existing awards with this 
clause accordingly.

USAID's Policy Guidance on PPE/Covered Materials
    USAID's implementing partners must seek the prior written approval 
of their Agreement or Contracting Officer(s) to procure the following 
supplies with USAID's funds: N95 filtering facepiece respirators; other 
filtering facepiece respirators; elastomeric, air-purifying respirators 
and appropriate particulate filters/cartridges; PPE surgical masks; PPE 
gloves or surgical gloves; ventilators; or COVID-19 test kits that are 
meant for the U.S. market. These commodities are collectively called 
``Covered Material.''
    However, implementing partners may use USAID's funding to procure 
Covered Material without further approvals in either of the following 
two situations:

    1. For the protection of, and use by, their staff under both grants 
and contracts from USAID. In this situation, implementing partners may 
procure Covered Material from any source; or
    2. When procuring Covered Material for the safe and effective 
continuity of USAID-funded programs, including the protection of 
beneficiaries (but not the protection of their staff, covered in #1 
above), implementing partners may procure Covered Material manufactured 
locally or regionally, provided the Covered Material is not, and could 
not reasonably be intended, for the U.S. market.

    All other PPE and COVID-19 test kits not mentioned above are not 
restricted from procurement or subject to limitations pursuant to this 
guidance.

Collaboration Across USAID
    Question. As the administration has made moves to create the R3 
structure within USAID, one of the main benefits touted has been better 
humanitarian and development collaboration within the agency. However, 
only small component parts of USAID's development functions will be 
controlled under the R3 umbrella.

   What steps would you take to ensure synergies between the functions 
        of the three bureaus under your control with the rest of the 
        Agency?

    Answer. I believe synergies between the functions of the Bureaus 
for Humanitarian Assistance (BHA), Conflict Prevention and 
Stabilization (CPS), Resilience and Food Security (RFS) and the rest of 
the U.S. Agency for International Development (USAID) are critical to 
the successful attainment of U.S. national security objectives. If 
confirmed as Associate Administrator for Relief, Response and 
Resilience (R3), my role would be to coordinate Agency-wide efforts 
related to disaster, conflict, resilience, water, nutrition, and food 
security.
    If confirmed, I commit to using existing internal USAID 
coordination mechanisms to engage with the rest of the Agency. For 
example, I understand former Administrator Green created the cross-
Agency Leadership Councils for Water, Nutrition, and Resilience to 
facilitate collaboration and ensure a whole-of-Agency response to these 
issues. In particular, I understand USAID's Resilience Leadership 
Council engages leadership from across the Regional Bureaus; the Bureau 
for Global Health; and the Bureau for Education, Economic, and the 
Environment. It is also my understanding that the Bureau for Conflict 
Prevention and Stabilization (CPS) is expanding its Sector Council on 
Countering Violent Extremism to serve as a platform for the Agency to 
discuss issues across peace and security. By involving staff from 
across the Regional and Functional Bureaus, CPS should ensure the 
coordination of stabilization and transition issues across the Agency, 
and serve as a forum for adaptive learning.
    In addition to using these existing mechanisms to coordinate 
between the R3 family of Bureaus and the rest of the Agency, if 
confirmed, I also would remain open to creating new approaches to 
enhance and improve that coordination. If confirmed, I commit to 
promoting a collaboration-minded work environment within the R3 family 
of Bureaus.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, in accordance with law and the rules and regulations 
of USAID.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through and conducted according to USAID practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes, when the Inspector General is the appropriate channel. 
I am committed to upholding high standards of accountability, and, if 
confirmed, would not tolerate waste, fraud, or abuse.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I have not received such complaints or allegations of 
either a formal or informal nature.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. While I served as the Director of Intelligence at the 
Headquarters for United States Air Forces in Europe--Air Forces Africa 
at Ramstein Air Base (July 2015-July 2017)--two incidents of alleged 
sexual harassment and assault came to my attention.
    In the first instance, prior to my arrival, a female enlisted 
member based elsewhere had accused a junior officer on the staff of 
sexual assault. The alleged incident occurred a few years earlier, and 
the Air Force Office of Special Investigations (AFOSI) was looking into 
it. My predecessor had suspended the junior officer's access to 
classified information, an action I continued as his functional senior. 
Because the allegation involved misconduct by an officer, only the 
Commanding General had the authority to decide whether or not to 
prosecute. Ultimately, the AFOSI report was inconclusive as to the 
underlying assault. However, because the alleged incident occurred 
while the junior officer and the enlisted member were traveling 
together, this constituted a violation of the prohibition against 
fraternization and a demonstration of unprofessional behavior. I 
therefore coordinated with the office of the Judge Advocate General at 
Ramstein Air Base to draft a Letter of Counseling for the junior 
officer and presented it to him with a verbal reprimand, in concert 
with a video appearance by his Squadron Commander at the time of the 
incident, to reinforce the same message.
    In a second circumstance, it came to my attention that a female 
junior officer had mentioned feeling uncomfortable around a new male 
civilian employee. They worked in an office that was two levels below 
me in the Intelligence Directorate. I take even non-verbal cues and 
discomfort very seriously, and asked for the junior officer to come 
speak to me privately so I could better understand her concerns about 
what had transpired. While the junior officer did not report any verbal 
or physical incidents, she conveyed her feelings of unease around the 
civilian. I told her that, regardless of whether or not he was aware 
that his conduct was causing her to feel uncomfortable, it was 
nevertheless not appropriate. I advised that she begin formally 
documenting her uncomfortable experiences, explaining that her 
documentation would be useful in the event of continuing or worsening 
issues that might lead to a need for formal personnel action against 
the civilian, and that her notes would be most helpful if she made them 
contemporaneously. I also assured her that I would be tracking the 
situation closely, and that she could contact me personally with any 
further concerns. Following our conversation, I spoke directly with the 
civilian's supervisor, shared the discussion I had with the junior 
officer, and took steps to ensure the her interactions with the 
civilian were limited moving forward. I instructed the supervisor to 
incorporate this situation into his planned counseling of the civilian 
regarding a handful of other issues, to watch closely, and to formally 
document the complaint in the event that issues continued or worsened. 
As I was shortly departing for my next assignment, I ensured my Deputy 
was aware of the situation, so that any needed, appropriate follow-up 
would occur following my departure.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree that the federal government should not employ 
prohibited personnel practices.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. Retaliation, blacklisting and other prohibited personnel 
practices are never acceptable, and if confirmed, I commit to ensuring 
that the U.S. Agency for International Development (USAID) would not 
tolerate them.
    I know equal employment opportunity (EEO), diversity, and inclusion 
are among USAID's core values. Even from the outside, I can see the 
Agency is dedicated to removing impediments to inclusion by enforcing 
EEO laws and policies; promoting diversity; and providing an 
environment free of discrimination and harassment in which all 
employees are valued, and can contribute to their fullest potential.
    I understand that USAID follows the statutorily required process 
for redress for employees who have faced harassment, including sexual 
harassment, which includes set timeliness and protections against 
retaliation. If confirmed, I would follow these processes.
    Additionally, I understand that USAID provides mandatory training 
on the Notification and Federal Employee Antidiscrimination and 
Retaliation Act of 2002 (the NO FEAR Act) to all employees every two 
years as required by law, and the Agency's Office of Civil Rights and 
Diversity (OCRD) conducts anti-discrimination and anti-harassment 
trainings. I also understand that, as part of USAID's onboarding 
program, employees receive harassment training upon their entrance on 
duty--which is vitally important. If confirmed, I commit to taking this 
training as soon as I assume the job.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Jenny A. McGee by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Prior to my active duty military service, for years I had 
planned a career as a journalist.
    I took journalism courses and served as editor-in-chief of both my 
high school and college newspapers. I have always believed in the 
criticality of a free press, and that free and independent journalism 
is vital to open and democratic societies.
    I then embarked on a 31-year career in the U.S. Air Force, during 
which I swore to uphold our Constitution. As an intelligence officer, I 
have reported on other governments' crackdowns on their citizens, as 
well as various forms of undemocratic acts and maltreatment to inform 
policy-makers and my chain of command. I have also produced 
intelligence about foreign actors who sought to attack our democracy, 
or that of our allies. This includes my tours of duty in the White 
House Situation Room and on the staff of the National Security Council. 
In addition, when assisting partner governments in the development of 
their intelligence/security services or military intelligence 
capabilities, the protection of human rights and democratic values was 
fundamental and underpinned all discussions.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

   What steps will you take to ensure each of your supervisors at 
        USAID are fostering an environment that is diverse and 
        inclusive?

    Answer. The U.S. Agency for International Development (USAID) works 
to support communities in our partner countries as they address some of 
the most challenging and complex issues in the world today. To be 
successful, the Agency's leaders must draw upon a diverse range of 
perspectives to ensure proposed programmatic interventions consider the 
broadest range of factors possible. This diversity of thought is the 
strength that drives the most creative and innovative solutions to the 
challenges in our partner countries.
    In my military experience, valuing diversity and ensuring every 
team member has a voice have been critical to success, and will 
continue to be core tenets of my leadership approach. If confirmed, I 
would continue to incorporate these practices in my leadership and draw 
upon the tremendous diversity of experience and expertise of the USAID 
team and its implementing partners. I also would make clear my 
expectations for this to my leadership team and hold them accountable.
    This approach is also consistent with broader USAID principles, as 
championed by former Administrator Mark Green, Acting Administrator 
John Barsa, and Deputy Administrator Bonnie Glick. If confirmed, I 
would ensure the R3 family of Bureaus emphasizes diversity and 
inclusion in its daily operations and professional development 
opportunities and engagement, in full compliance with the Agency's 
regulations, practices, and norms, with an eye to developing the most-
effective programs on behalf of the American people.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the USAID Inspector General) any change in policy or U.S. actions that 
you suspect may be influenced by any of the President's business or 
financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to complying with all relevant Federal ethics 
laws, regulations and rules, and to raising concerns that I might have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to complying with all relevant Federal ethics 
laws, regulations and rules, and to raising concerns that I might have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any foreign country?

    Answer. No, not to my knowledge.

Role of Associate Administrator
    Question. The position for which you are nominated, Associate 
Administrator for Relief, Response, and Resilience, is a new position 
at USAID with oversight responsibilities for three new bureaus: 
Humanitarian Assistance, Conflict Prevention and Stabilization, and 
Resilience and Food Security.

   How will you work to support and empower USAID Foreign Service 
        officers and civil service employees with significant 
        experience in development and humanitarian assistance? How 
        would you ensure that their expertise is reflected in policy 
        and programmatic decision-making?

    Answer. I mentioned during my opening statement that, in 
preparation for my hearing, I had the opportunity to meet with many 
dedicated Foreign Service Officers (FSOs), members of the Civil Service 
(CS), and contract staff at the U.S. Agency for International 
Development (USAID). I understand that FSOs and CS employees are part 
of the organizational makeup of the Bureaus for Humanitarian Assistance 
(BHA), Conflict Prevention and Stabilization (CPS) and Resilience and 
Food Security (RFS) at USAID. The Bureaus have FS and CS employees in 
senior management, middle management and non-supervisory positions. 
USAID staff have briefed me that the unique perspectives and expertise 
of FSOs, CS employees, and others have been part of all aspects of the 
design and decision-making process around Transformation.
    USAID's FSOs bring a wealth of knowledge from their experience in 
working at the Agency's field Missions across the world to manage 
programs that address a range of humanitarian and development 
challenges. The Agency's CS employees provide institutional knowledge 
from their experience in serving in various parts of USAID 
headquarters, especially engagement with the interagency, Congress, and 
other U.S. stakeholders.
    If confirmed, I commit to listening to, and relying on the 
expertise and diverse perspectives of, FS, CS and contract employees to 
make well-informed decisions about USAID's programming and policies.

    Question. How do you intend to work with and learn from 
humanitarian and development implementers? Will you commit to engaging 
with outside organizations working in this space?

    Answer. If confirmed, I commit to engaging regularly with 
humanitarian and development actors around the world to coordinate our 
efforts to save lives and assist communities in need. Thanks to the 
generous support of Congress and the American people, the United States 
is the world's leading provider of humanitarian and development 
assistance; however, because of growing need and protracted crises, I 
understand the ability of the U.S. Agency for International Development 
(USAID) to create innovative solutions and effective responses often 
depends on successful partnerships with other organizations.
    If confirmed, I would ensure USAID deepens and strengthens its 
partnerships with key actors, including United Nations agencies, non-
governmental organizations, civil society, faith-based organizations, 
and the private sector. I recognize that USAID cannot achieve its 
mission without these relationships, and I look forward to listening 
to, and learning from, these partners. I also commit to relying on 
USAID's field staff, who regularly engage with a variety of actors on 
the ground and who provide vital country-specific and regional context, 
to inform my decision-making. For this work to be successful and 
sustainable, we must create interventions that are appropriate, 
targeted, and not duplicative, to ensure maximum effectiveness and 
impact.

USAID Restructure
    Question. Major restructuring in an agency is difficult at any 
time, and is likely to be more complicated now as USAID is in the midst 
of helping countries fight the coronavirus pandemic.

   How do you plan to coordinate the respective roles of the State 
        Department and USAID in their shared humanitarian responses 
        under this new USAID bureau?

    Answer. The Bureau for Humanitarian Assistance (BHA) at the U.S. 
Agency for International Development (USAID) became operational on June 
5, 2020. USAID is responsible for more than $6 billion of the U.S. 
Government's approximately $9 billion humanitarian assistance 
portfolio. I believe the Transformation will strengthen USAID's role as 
the Lead Federal Coordinator for international disaster assistance, and 
will elevate and unify its humanitarian voice in the U.S. Government 
interagency, and with international partners.
    I understand USAID/BHA and staff in the Bureaus of Population, 
Refugees, and Migration (PRM) and International Organization Affairs 
(IO) at the U.S. Department of State communicate regularly to ensure 
strong coordination of their respective roles and to enable the U.S. 
Government to speak with one voice on global humanitarian responses and 
issues.
    To further elevate this coordination, in November 2018 Secretary 
Pompeo and then-USAID Administrator Mark Green launched the 
Humanitarian Assistance Steering Council (HASC), the senior-level body 
tasked with improving the effectiveness and accountability of U.S. and 
international humanitarian efforts and increasing burden-sharing.
    If confirmed, I would co-chair the HASC and continue its important 
work, which aims to align U.S. humanitarian assistance to the 
President's foreign policy and national security priorities, and 
contributes to the smooth and effective delivery of humanitarian aid. 
Closer coordination results in better information sharing, better 
insight into dynamics on the ground in all affected countries, and 
better understanding of the plans of our important United Nations and 
non-governmental partners, at global, regional, and country levels.
    If confirmed, I would work to coordinate USAID's humanitarian 
assistance closely with all of the Departments and Agencies of the U.S. 
Government, including the U.S. Department of State.

    Question. Will restructuring the bureaus of Humanitarian 
Assistance, Conflict Prevention and Stabilization, and Resilience and 
Food Security improve USAID's effectiveness?

    Answer. As Associate Administrator for Relief, Response, and 
Resilience (R3), I would oversee the newly created Bureaus for 
Humanitarian Assistance (BHA), Conflict Prevention and Stabilization 
(CPS), and Resilience and Food Security (RFS) at the U.S. Agency for 
International Development (USAID). I understand the intent of the new 
structure is to further strengthen USAID's efficient and holistic 
approach to programming, across the spectrum of preventing, preparing 
for, responding to, and mitigating disasters. Also, I expect the new R3 
structure would elevate USAID's voice with U.S. Government interagency 
colleagues on these issues.
    If confirmed as R3 Associate Administrator, I would lead a focused 
and coordinated structure to provide strategic and cohesive guidance to 
the three R3 Bureaus. I would set priorities, promote an integrated 
approach across all three Bureaus, and work creatively to improve 
effectiveness in achieving the R3 Vision across the allied investment 
strategies. Each Assistant to the Administrator (AtA) for an R3 Bureau 
would serve as the ``first-line'' of day-to-day coordination within and 
across the R3 Bureaus, and with the wider Agency. I would support the 
R3 AtAs by providing higher-level direction and representation within 
the Agency and beyond.
    I understand the restructuring of BHA, CPS and RFS will improve 
USAID's effectiveness in the following ways:

          BHA.  BHA will unite and elevate U.S. humanitarian assistance 
        into one Bureau that can respond better to the magnitude, 
        complexity, and protracted nature of today's emergencies. BHA 
        will create a strong platform for more coordinated and more 
        effective responses to humanitarian crises. It will achieve 
        efficiencies by eliminating redundancies and optimizing 
        resources for joint operations, and integrating food and non-
        food humanitarian assistance further. USAID recognizes the 
        importance of interagency and multilateral coordination, and 
        this unified structure will enable USAID to maintain a lead 
        role in global coordination.

          CPS.  Once operational, CPS will elevate USAID's capabilities 
        to analyze fragility and conflict; strengthen the Agency's 
        focus on preventing violent extremism; and coordinate efforts 
        in prevention, stabilization and response. The proposed CPS 
        Bureau will have a field-driven focus, and also will manage 
        civilian-military coordination with the U.S. Department of 
        Defense to inform and support U.S. foreign policy and national 
        security priorities.

          RFS.  RFS became fully operational in early March 2020. The 
        new Bureau elevates resilience and nutrition and strengthens 
        coordination across the technical areas of agriculture-led 
        growth; water security, sanitation and hygiene; nutrition; and 
        resilience. Through the new structure, and close collaboration 
        with the other two Bureaus under the R3 structure, RFS will 
        help vulnerable families and communities transition from 
        crisis--including recurrent crises--to development and, 
        ultimately, self-reliance. RFS continues the work of Water for 
        the World Act to expand safe and sustainable access to water, 
        sanitation, and hygiene for all, and the U.S. Government's Feed 
        the Future initiative to combat global hunger, poverty, and 
        malnutrition.

    Question. What challenges do you anticipate facing in this new 
Associate Administrator role and with the new bureaus under its 
purview? How do you plan to overcome these challenges?

    Answer. Today, we are seeing the rise of protracted, man-made 
disasters as well as continued risk from natural disasters. To respond 
effectively to these complex challenges, the U.S. Agency for 
International Development (USAID) must coordinate its humanitarian, 
conflict prevention, resilience and food security programming to 
address the needs of affected populations holistically. The creation of 
the new R3 family of Bureaus under one Associate Administrator provides 
an opportunity to strengthen linkages between humanitarian and 
development assistance, and more broadly, across the peace, 
development, and humanitarian continuum. If confirmed, I commit to 
build on USAID's experience with cross-Agency efforts to build 
resilience in areas of recurrent crisis, with the aim of fostering more 
stable and peaceful societies.
    USAID also operates in complex environments where coordination 
poses unique challenges. To address them, it is critical to maintain 
flexibility to adjust and refine approaches, based on needs on the 
ground and by using a range of interventions. If confirmed, I would 
rely on the counsel of my staff in Bureaus for Humanitarian Assistance 
(BHA), Conflict Prevention and Stabilization (CPS), and Resilience and 
Food Security (RFS) to develop and carry out coordinated, creative 
solutions that draw upon each of their unique perspectives and 
toolkits.
    For example, I understand the programs USAID has funded in the 
Sahel region of West Africa showcase this collaborative approach. The 
Sahel continues to face a number of shocks and vulnerabilities with 
varied causes: scarcity of water, extreme weather, high levels of 
poverty, low access to health care, lack of access to high quality 
basic education, poor governance, and increased conflict and violent 
extremism. Emergency assistance alone cannot solve these complex 
problems; they require comprehensive responses that allow communities 
to become and remain more self-reliant. I know USAID's programs make 
important contributions toward this goal. Both BHA and RFS fund 
distinct, but complementary, activities to address immediate needs and 
build resilience to food-insecurity, persistent poverty, conflict, and 
recurrent climate shocks. CPS is strengthening resistance to violent 
extremist organizations by building the capacity of local groups, 
improving community-government collaboration, promoting community 
cohesion, productively engaging youth most vulnerable to recruitment, 
and supporting reintegration and reconciliation. If confirmed, I commit 
to continue to build on these types of integrated, combined efforts 
help households and communities become more resilient and less 
vulnerable to shocks and stresses.

Coronavirus Pandemic
    Question. The unprecedented coronavirus pandemic has consumed 
countries' focus around the world.

   How do you believe the global coronavirus pandemic will shape the 
        focus of the Humanitarian Assistance, Conflict Prevention and 
        Stabilization, and Resilience and Food Security bureaus?

    Answer. I believe the coronavirus pandemic and the increasing 
frequency and complexity of shock and stresses that communities and 
countries face require the U.S. Agency for International Development 
(USAID) to do business differently. I understand USAID has brought 
these three Bureaus together to form a more robust and comprehensive 
link between sustainable development and the response to, and 
mitigation of, conflict.

          BHA.  The COVID-19 pandemic is re-shaping the humanitarian 
        landscape by creating new needs across the globe while 
        exacerbating emergencies that existed prior to the pandemic. I 
        understand BHA is deploying resources to address the immediate, 
        short-term impacts of the pandemic. However, BHA is beginning 
        to see the secondary and medium-term impacts of COVID-19 become 
        increasingly intertwined with pre-existing vulnerabilities. In 
        East Africa, for instance, pandemic-related economic and market 
        stressors are compounding the impact of drought, conflict, and 
        the infestation of desert locusts. This will require BHA not 
        only to prioritize resources carefully to save the most lives, 
        but also to continue to work with partners to adapt programs to 
        be more ``COVID-sensitive'' moving forward. If confirmed, I 
        look forward to working with BHA to continue to adapt and 
        improve our humanitarian programming, by taking into account 
        the lessons learned during this COVID-19 pandemic.

          RFS.  The economic impact from efforts to mitigate the spread 
        of COVID-19 have far-reaching implications for food production 
        systems, including small- and medium-sized businesses and 
        people's livelihoods, incomes, and ability to grow, raise, and 
        purchase food. These effects will continue for years to come, 
        as an estimated 148 million people could become poor and hungry 
        because of measures put in place to mitigate the spread of 
        COVID-19 (a full 20-percent increase over current levels). 
        COVID-19 also is already causing financial losses for water and 
        sanitation utilities, which threatens services now and into the 
        future. In response, I understand RFS is helping USAID's 
        Missions flex their existing development programming to help 
        keep vulnerable families from backsliding further into need 
        while mitigating disruptions to these systems, protecting 
        development gains, and speeding economic recovery. If 
        confirmed, I look forward to working with RFS to ensure this 
        rapid response continues and adapts as new data and analysis 
        become available on COVID-19's far-reaching impacts.

          CPS.  COVID-19 is much more than a health and economic 
        crisis. The COVID-19 pandemic has the potential to undermine 
        USAID's efforts in fragile contexts and further destabilize 
        these already volatile environments. I understand many of the 
        countries in which USAID funds programs already were in acute 
        crisis, recovering from crisis, or in the middle of a fragile 
        political transition even before the COVID-19 pandemic. With 
        the onset of the pandemic, we are already observing concerning 
        trends. Some authoritarian governments are using the crisis to 
        further entrench their power and curb rights. Traditionally 
        marginalized populations, including women, are under increased 
        threat during the pandemic, which require increased 
        protections. Corrupt and criminal actors are exploiting the 
        crisis to misuse and divert life-saving funds and resources. In 
        some cases, violent extremist organizations are capitalizing on 
        the pandemic by increasing attacks where security forces are 
        distracted, blaming the West and neighboring governments for 
        the effects of COVID-19, spreading disinformation, and stepping 
        in as health providers to gain popular support. Foreign malign 
        actors, such as the Communist Party of China and the Kremlin 
        also are exploiting the pandemic to promote their authoritarian 
        governance models. Support for preventing and stabilizing 
        conflict are critical for responding to these challenges, 
        ensuring an effective response to the pandemic, and helping 
        communities stay on a path toward self-reliance. If confirmed, 
        I look forward to working with CPS to ensure that USAID is 
        mitigating the impacts of COVID-19 on fragile societies.

    Question. As countries begin to recover from the pandemic, how will 
you work to strengthen resilience so countries can better withstand 
future shocks? How can USAID ensure that partner country governments 
and civil society have ownership in this process?

    Answer. Amid the pandemic of COVID-19, it is more important than 
ever to make progress in coordinating across humanitarian and 
development actors and to support joint and cross-sector analyses and 
country-led collective outcomes. If confirmed, I would ensure the U.S. 
Agency for International Development (USAID) is layering, sequencing, 
and integrating its humanitarian assistance with longer-term programs 
to address current and future risks. I understand USAID coordinates 
across sectors to reduce shocks and stresses that lead to an increased 
need for humanitarian assistance. These efforts involve host-country 
governments and civil society, with the understanding that lasting 
progress can only happen when they are owners of their own development. 
COVID-19 compounds numerous existing shocks people in developing 
countries already face, especially in areas of recurrent crises. If 
confirmed, I would strengthen USAID's partnerships with host-country 
governments and civil society to improve early warning, early response, 
and other systems and build national capacity and commitment to prepare 
for and manage shocks, reduce future humanitarian needs, and advance 
communities on the Journey to Self-Reliance.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. J. Steven Dowd by Senator John Barrasso

    Question. When reviewing projects at the European Bank for 
Reconstruction and Development (EBRD), what criterion will you use in 
determining whether the United States will support energy development 
projects?

    Answer. First of all, I would consider any United States legal 
requirements. I will insist that energy projects are driven by and 
respectful of the circumstances and needs of recipient countries, not 
dictated by others. And, I will demand that any energy alternative 
guarantees value for money, cost efficiency, and maximum impact for the 
people for whom a project is designed.

    Question. Do you believe the EBRD should support all types of 
energy resources?

    Answer. Absolutely. I embrace the all of the above strategy, driven 
by analytics that demonstrate the highest return on investment and the 
most cost-effective delivery to consumers.

    Question. Will you commit to objecting to and voting against 
additional restrictions on financing and investments for energy 
projects at the EBRD?

    Answer. Yes.

    Question. Please identify the current financing and investment 
restriction in place for energy projects at the EBRD.

    Answer. The EBRD approved a revised Energy Sector Strategy in 
December 2018, which states that the EBRD will not finance any 
greenfield coal-fired power plant except in rare circumstances, where 
there are no economically feasible alternative energy sources. The U.S. 
Executive Director at the time voted against this strategy. The EBRD 
does finance oil and gas projects that meet its requirements for 
additionality, sound banking, and transition impact.

    Question. Do you pledge to work to eliminate these financing 
restrictions and other barriers to financing of traditional energy 
resources, such as coal, oil and natural gas at the EBRD?

    Answer. Yes.

    Question. Coal provides an affordable and reliable energy source, 
which is important to countries looking for assistance in poverty 
alleviation and economic development. Do you agree with this statement? 
If not, why not?

    Answer. Yes.

    Question. How much financial assistance has the United States made 
to the EBRD?

    Answer. Unlike other multilateral development banks, the EBRD only 
makes market-based loans and calls on shareholders for capital 
increases much less frequently. The United States has not provided new 
paid-in capital to the EBRD since 2006. Our total paid in capital 
contributions are $636 million. The United States makes targeted 
contributions to donor trust funds hosted at the EBRD; for example, in 
2019 the United States gave $5 million to the Small Business Impact 
Fund (SBIF), which supports lending and advisory services for over a 
million SMEs. Total U.S. contributions to EBRD trust funds since the 
EBRD's inception in 1991 is $552 million.

    Question. What level of influence does the United States have over 
the EBRD operations and EBRD loan policy?

    Answer. The United States has a 10 percent shareholding in the 
EBRD. Consequently, we do not have veto power, but I will be a strong 
voice for commonsense loan policies, especially in the realm of energy 
projects. I will work closely with like-minded shareholders to seek to 
guide the EBRD's investment operations in line with U.S. policy 
objectives.

    Question. Do you believe poverty alleviation and economic 
development should be primary goals of the EBRD?

    Answer. Yes, but in the case of the EBRD, these goals are furthered 
through focus on private sector development and promoting transition to 
a market economy and democracy.

    Question. What specific criterion should be used to determine 
whether a country needs to graduate from the EBRD? What countries have 
already graduated from the EBRD? What countries are close to 
graduating?

    Answer. Graduation from EBRD borrowing for the most advanced 
transition countries remains a fundamental principle of the EBRD and I 
believe it should be a priority for the United States. However, 
progress on graduation has been delayed, initially due to the prolonged 
financial crisis in Europe, spillover effects of Russian aggression in 
Ukraine, and most recently the economic impacts of the current 
pandemic.
    The Czech Republic graduated from EBRD borrowing in 2007. The other 
seven EBRD member countries that joined the European Union in 2004 
(Estonia, Hungary, Latvia, Lithuania, Poland, Slovak Republic and 
Slovenia) are expected to graduate from the EBRD in the medium term.

    Question. What do you believe the position of the United States 
should be regarding EBRD's interest in expanding to different regions 
including sub-Saharan Africa?

    Answer. I do not see a strong case for EBRD expansion into sub-
Saharan Africa at this time. I question the EBRD's ability to utilize 
its specialized knowledge in this region and see potential for the EBRD 
to disrupt the work of existing institutions in the region such as the 
AfDB. The EBRD should instead focus on the less advanced countries 
where it already operates and support their transition to fully 
functioning private sector-driven economies.

    Question. Along with the EBRD, other development banks, including 
the World Bank, the Asian Development Bank, and national development 
banks, are funding projects in EBRD member countries. How can the 
United States ensure the development banks are not duplicating efforts, 
creating redundancies, and working at cross-purposes?

    Answer. Treasury works to encourage coordination between 
multilateral and bilateral development finance institutions to ensure 
complementary finance in all regions, including through close 
coordination between the U.S. Executive Director's Offices at the 
International Financial Institutions, Treasury, and other U.S. 
agencies. In EBRD's case, its transition mission and strong focus on 
private sector and sub-sovereign public finance (e.g. municipal 
services) differentiate it from those MDBs which provide sovereign 
guaranteed public finance.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. J. Steven Dowd by Senator Robert Menendez

Democracy and Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. At the African Development Bank, I have consistently and 
forcefully spoken out for human rights and democracy. For example, I 
have spoken both formally and informally in opposition to human 
trafficking and child labor. I have also assisted my wife, where 
appropriate, in her fight for legal and property rights for women and 
girls. With respect to the impact such interventions have, I would say 
that change is a slow process, but consistent messaging and effort will 
hopefully deliver long-term improvements in the lives of those 
suffering under cruel circumstances. I have also been insistent that 
the African Development Bank champion democracy as a philosophical 
underpinning of its transactions throughout Africa. There has been 
resistance to this effort, but I am an indefatigable champion for 
democracy.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in the countries where EBRD works? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Among the most pressing challenges across the region are 
weak institutions, high levels of corruption, and bureaucratic red tape 
that foster opportunities for corruption. These institutional 
weaknesses and corruption create space for non-democratic actors, 
including China, Russia, and transnational terrorist groups, to 
undermine democratic governance, human rights, and economic freedom via 
a variety of means including force, predatory lending, and 
misinformation and propaganda. Russia, Belarus, and other countries in 
the EBRD's region have struggled to make progress to build democratic 
institutions. It is core to the EBRD's mission to support countries 
committed to building multi-party, pluralistic democratic institutions, 
and I believe the EBRD should continue to provide frank assessments of 
countries' progress in all of these areas and to support those 
countries that are making progress.

    Question. What steps will you take--if confirmed--to support 
democracy in the countries where EBRD works? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. The EBRD has a unique mission to support the transition of 
countries from command economies to multi-party democracies with market 
economies. The EBRD's political mandate as stated in Article 1 of its 
charter makes it unique among development banks. The United States 
views this mandate as a critical element to the EBRD's work in the 
region to promote vibrant and open democracies.
    I will advocate for the EBRD to support countries in strengthening 
public institutions, improving public financial management, and 
improving transparency and anti-corruption, while opposing assistance 
to countries that are gross violators of human rights. I will also 
advocate for EBRD to consult actively with civil society groups and 
implement robust safeguards and accountability over its operations. I 
look forward to working with you and your staff to encourage democracy 
and democratic values. I will work with EBRD management and staff to 
promote democratic policies in recipient countries and apply calibrated 
approaches to operating in countries that are not making progress on 
the transition to democracy. I will work with other U.S. Government 
stakeholders (State Department, USAID, DFC, among others) to increase 
visibility on these core principles. Our legislative mandates help us 
to highlight these values in practical terms, and our application of 
them to EBRD projects encourages the EBRD to pursue additional, similar 
efforts to address the concerns we highlight in recipient countries.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S., local human rights NGOs, and other members of civil society in 
the countries where EBRD works?

    Answer. Yes. As U.S. Executive Director at the African Development 
Bank (AfDB), I have met with representatives of civil society 
organizations, including to understand how people adversely affected by 
an AfDB-financed project engage through the institution's own 
independent review mechanism to ask for compliance with established 
policies and procedures.

    Question. Will you and your mission teams actively engage with the 
countries where EBRD works on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Yes.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in the countries 
where EBRD works, no matter their sexual orientation or gender 
identity? What challenges do the lesbian, gay, bisexual, transgender 
and queer (LGBTQ) people face in the countries where EBRD works? What 
specifically will you commit to do to help LGBTQ people in the 
countries where EBRD works?

    Answer. EBRD promotes and encourages diversity in the workplace, 
including in countries where EBRD has a presence. I will support the 
institution in continuing this practice

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I commit to respond promptly to all requests 
for information by members of this committee, in accordance with U.S. 
laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Administrative
    Question. Following President Trump's comments last year welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the Treasury Department have explicit 
guidance for all of its personnel on how to deal with this scenario. If 
a foreign person or government approaches you or a staffer at the 
mission with derogatory information on a U.S. political figure, what is 
your understanding of official Treasury Department policy on how to 
handle this specific situation? Has a cable with clear guidance on how 
to handle this specific situation been sent to all U.S. embassies?

    Answer. Should I find myself in this kind of an interaction, I 
would abide by guidance from the State Department and the Treasury 
Department as well as relevant U.S. laws. My understanding is that I 
would report this to the Treasury Department Inspector General or the 
State Department Inspector General and, if needed, report this issue to 
the Regional Security Officer and other law enforcement colleagues and 
hand over any and all information.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. I agree that the federal government should not employ 
prohibited personnel practices.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I will work to ensure that the EBRD maintains strong and 
effective institutional policies addressing these and related issues 
for all EBRD staff, including a strong whistleblower policy and staff 
code of conduct.



                               __________


           Responses to Additional Questions for the Record 
     Submitted to Hon. J. Steven Dowd by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. At the African Development Bank, I have consistently and 
forcefully spoken out for human rights and democracy. For example, I 
have spoken both formally and informally in opposition to human 
trafficking and child labor. I have also been insistent that the 
African Development Bank champion democracy as a philosophical 
underpinning of its transactions throughout Africa. There has been 
resistance to this effort, but I am an indefatigable champion for 
democracy.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. On a personal level, I absolutely embrace diversity. 
Operationally, the position does not involve much in the way of direct 
hiring, but among those assigned to our office the message is all are 
welcome, and all are respected. If confirmed, I will endeavor to ensure 
that the EBRD applies similar principles in its approach to 
recruitment, retention, and promotion of staff.

    Question. What steps will you take to ensure each of the 
supervisors at the EBRD are fostering an environment that is diverse 
and inclusive?

    Answer. Again, as a board member I will not have direct say in bank 
hiring. However, I will always support and encourage diversity and 
inclusiveness. In the event that I were to observe disrespectful 
behavior in any context, I would voice opposition decisively and 
categorically.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Treasury Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country abroad?

    Answer. No.



                               __________


       Responses to Additional Questions for the Record Submitted
        to Hon. Richard M. Mills, Jr. by Senator Robert Menendez

    Question. From the date of your arrival in Canada in November 28, 
2018, until Ambassador Craft's departure on June 23, 2019, how many 
days did you serve as Charge d'Affaires? (Note: Please list the total 
number of calendar days between your arrival and June 23, 2019, as well 
as the number of days that you served as Charge).

    Answer. From the date of my arrival at the Mission (November 10, 
2018) to the Ambassador's final departure from post (August 23, 2019), 
I served a total of 172 full or partial days as Charge d'Affaires, out 
of a total of 287 calendar days.

    Question. Did you sign any departure notices/cables for Ambassador 
Craft when she traveled outside of Canada?

    Answer. Yes, it is common practice for a Charge d'Affaires to sign 
out Request for Permission cables for their chiefs of mission. I did 
that as necessary, including on cables requesting amended travel 
itineraries.

    Question. Following Ambassador Craft's tenure in Ottawa, did U.S. 
Embassy Ottawa implement any changes to policies or procedures with 
regard to absences from post?

    Answer. No, those policies and procedures for Chiefs of Mission are 
set by the Department and overseen by the Under Secretary for 
Management.

    Question. Please describe any impact on U.S. Embassy Ottawa that 
Ambassador Craft's absences had on operations or staff morale.

    Answer. Morale among mission staff in Ottawa and the U.S. 
constituent posts across Canada was excellent during the Ambassador's 
tenure, and operations continued without interruption when the 
Ambassador was traveling. She was in every instance available and 
involved in Mission activities, including providing guidance and 
direction as necessary.

    Question. In the instances in which Ambassador Craft traveled 
outside of Canada without State Department authorization or extended 
without authorization a previously approved trip, did you provide 
Ambassador Craft with any guidance about the importance of always 
seeking official approval from the State Department for her trips? 
Please detail any such guidance that you provided.

    Answer. During my overlapping tenure with the Ambassador, I can 
recall no instance in which there was a failure to request and receive 
authorization for such travel.

    Question. Do you agree that a strong, consistent, and visible 
presence at the U.S. mission to the United Nations is important?

    Answer. Yes.

    Question. Do you commit to providing the Senate Foreign Relations 
Committee with updates, when requested, regarding your own attendance 
or absence from the U.S. mission to the United Nations as well as 
Ambassador Craft?

    Answer. Yes, I agree to accommodate all congressional requests for 
information by supplying the requested information to the fullest 
extent, consistent with applicable statutes, the U.S. Constitution, and 
Department of State procedures.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. Over the course of my career, I have had occasion to 
address workplace interactions that resulted in damage to office 
cohesion and relationships. In those rare instances, I employed 
counseling and team-building measures that improved communication and 
strengthened morale. If confirmed, I will be keenly attuned to such 
matters, including any conduct that might constitute sexual harassment 
or discrimination.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I agree that the federal government should not employ 
prohibited personnel practices. I take allegations of such practices 
seriously and if confirmed, I will maintain a policy of no tolerance 
for retaliation, blacklisting, or other prohibited personnel practices.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Richard M. Mills Jr. by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Promotion of the U.S. human rights and democracy agenda has 
been a key component of my career, from serving as the Human Rights 
Officer during my second overseas tour at Consulate St. Petersburg to 
my time at Embassy Baghdad as the Senior Democracy Advisor, responsible 
for overseeing all of the Bureau of Democracy, Human Rights, and Labor 
programs in Iraq. Looking back, I assess my most meaningful 
accomplishments are two.
    First, during my tour at USUN, leading the Mission's effort to 
create the Special Court for Sierra Leone, intended to provide 
accountability and justice to the victims of the country's decade long 
civil strife. I visited the country as part of that effort and worked 
with human rights groups, the host country legal community, and the 
U.N. system, to build what I assess was a successful mechanism to bring 
a measure of justice to the country.
    Second, as Ambassador to Armenia, I focused the Embassy on 
assisting the Armenian people in building the infrastructure of 
democracy. In particular, we focused on fighting corruption through a 
free press and supporting Armenian organizations pressing for the rule 
of law and transparency. It was the Armenian people that led the 
``Velvet Revolution'' of 2018, and peacefully removed a corrupt 
government that held onto power through un-democratic means. I do 
believe, however, it was the work of the U.S. Embassy in providing the 
Armenian people with some of the tools to make peaceful change that 
helped the revolution succeed.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will endeavor at every appropriate 
opportunity to promote diversity in the workplace, promote excellence, 
and mentor staff from all backgrounds. I have made it a hallmark of my 
career to cultivate diversity and inclusion, and know firsthand the 
many benefits of a diverse workplace that embraces dissimilar 
perspectives and welcomes the views of all.

    Question. What steps will you take to ensure that your supervisors 
and colleagues at the United Nations are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, I intend to lead by example and guide with 
encouragement. Creating and sustaining an inclusive work environment 
takes effort and attention. I will ensure that supervisors at the U.S. 
Mission are appropriately trained and accountable, and that all 
employees know that I am an advocate and an available resource.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I also currently 
hold financial interests in a number of companies which have interests 
in various foreign countries. I am committed to following all 
applicable ethics laws and regulations and will remain vigilant with 
regard to my ethics obligations.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Jason Myung-Ik Chung by Senator John Barrasso

    Question. When reviewing projects at the Asian Development Bank 
(ADB), what criterion will you use in determining whether the United 
States will support energy development projects?

    Answer. We review each project on its own merits, assessing the 
country's needs, and the consistency with the ADB's strategy in that 
country. ADB country strategies are negotiated between the developing 
member country and the ADB with input from the United States and other 
members. These country strategies provide a roadmap for ensuring that 
ADB activities provide a coherent and agreed structure.

    Question. Do you believe the ADB should support all types of energy 
resources?

    Answer. Yes.

    Question. Will you commit to objecting to and voting against 
additional restrictions on financing and investments for energy 
projects at the ADB?

    Answer. We will review any such proposals consistent with our ``all 
of the above'' energy policy, and work to ensure that they reflect U.S. 
priorities.

    Question. Please identify the current financing and investment 
restriction in place for energy projects at the ADB.

    Answer. Under current ADB policy, all energy sector investments 
will comply with ADB safeguard policies regarding the environment, 
involuntary resettlement, and indigenous peoples. ADB will not be 
involved in financing nuclear power generation. ADB will not finance 
coal mine development except for captive use by thermal power plants, 
and oil field development except for marginal and already proven oil 
fields. ADB will support (i) safety in coal mines, (ii) environmentally 
and socially sound mining practices and efficient use of coal for power 
generation, (iii) carbon capture and storage (or sequestration) once 
technologically viable, (iv) coal bed methane extraction and use, (v) 
coal gasification, (vi) coal scrubbers, (vii) waste coal utilization, 
and (viii) efficient coal transportation over land and sea.

    Question. Do you pledge to work to eliminate these financing 
restriction and other barriers to financing of traditional energy 
resources, such as coal, oil and natural gas at the ADB?

    Answer. I will work to eliminate any barriers to financing of 
traditional energy resources, such as coal, oil, or natural gas.

    Question. Coal provides an affordable and reliable energy source, 
which is important to countries looking for assistance in poverty 
alleviation and economic development. Do you agree with this statement? 
If not, why not?

    Answer. Yes.

    Question. How much financial assistance has the United States made 
to the ADB?

    Answer. The United States has paid in $991.2 million in capital 
contributions since the ADB's inception and has subscribed to an 
additional $18.8 billion in callable capital. The United States has 
contributed to $4.3 billion to the Asian Development Fund, the ADB's 
concessional window.

    Question. What level of influence does the United States have over 
the ADB operations and ADB loan policy?

    Answer. The United States is the co-largest shareholder in ADB 
along with Japan, with 12.751 percent voting power each, and the 
second-largest historical donor to the Asian Development Fund, which 
provides grants to the poorest and most vulnerable countries in Asia 
and the Pacific. We are a leading voice on strategic, policy, and 
operational issues. Our influence is magnified by working closely with 
like-minded shareholders. With Japan we hold a joint veto over major 
governance decisions such as the admission of new members and increases 
in ADB's authorized capital stock.
    As I noted in my written and oral testimony, I am particularly 
proud of our efforts on two issues relevant to using our influence: 
projects in the Xinjiang Uyghur Autonomous Region (XUAR), China; and a 
change in ADB's loan policy to introduce ``differentiated pricing'' 
terms. On China, we used leverage generated by legislative mandates to 
ultimately secure denial of two projects slated for Board consideration 
in XUAR. We led a coalition with our European partners to force ADB 
Management to abandon plans to seek approval for the two projects, 
focusing in particular on the grave human rights issues where the 
Uyghur people are concerned. One was an urban revitalization project, 
and the other was a customs and trade facilitation project (cross 
border). The impact of our actions include that ADB will not propose 
any new projects in XUAR for the foreseeable future.
    On loan pricing, our efforts resulted in the approval of a 
``differentiated pricing'' scheme for sovereign loans. Known as the 
``Diversification of Financing Terms'' initiative in ADB parlance, this 
initiative strengthens ADB's financial sustainability by requiring 
upper-middle income nations like China and Kazakhstan, among others, to 
pay increased premiums for borrowing from the ADB. This initiative will 
help alleviate the need for a U.S. taxpayer-funded capital increase and 
mirrors the reforms that the World Bank Group enacted a couple of years 
ago.

    Question. Is poverty alleviation and economic development top 
priorities at the ADB?

    Answer. Yes. The Bank's charter states that ``[t]he purpose of the 
Bank shall be to foster economic growth and co-operation in the region 
of Asia and the Far East and to contribute to the acceleration of the 
process of economic development of the developing member countries in 
the region, collectively and individually.''

    Question. Along with the ADB, other development banks, including 
the World Bank, the European Bank for Reconstruction and Development, 
and national development banks, are funding projects in ADB member 
countries. How will you ensure ADB is not duplicating efforts, creating 
redundancies, and working at cross-purposes?

    Answer. All the multilateral development banks (MDBs), including 
the ADB, prepare a Country Strategy (CPS) for each country. These 
documents describe the sectors in which the ADB plans to engage and are 
guided by both the country's own development strategy and the ADB's 
corporate priorities. The Board receives updates from the country teams 
ahead of a CPS and the CPS is endorsed by the Board. In both of these 
instances, we engage to make sure the strategy is appropriate, 
measured, targeted, and designed to avoid duplication and deliver 
maximum additionality. In addition, the ADB closely coordinates with 
all donors in each country to help ensure there is a proper division of 
labor and to reduce duplication. Any time the United States becomes 
aware of any duplication or redundancies, we will engage immediately 
with Senior Bank Management to help de-conflict. Lastly, the ADB also 
provides Regional Cooperation Strategies for an ADB-defined region or 
subregion, which also provide us an opportunity to examine strategic 
priorities at a higher level in order to mitigate working at cross-
purposes.

    Question. What is your view of the ADB's current longterm corporate 
strategy called ``Strategy 2030?''

    Answer. I believe Strategy 2030 lays out the viability of ADB as an 
organization as well as the areas in which to assist client countries 
in the region. For example, I was pleased that Strategy 2030 clearly 
articulated a plan to differentiate ADB loan pricing based on 
recipients' income levels and that it focused on the need to improve 
application of the ADB's graduation policy to better focus ADB efforts 
on the poorest and most vulnerable countries. Despite that, I was 
disappointed that Strategy 2030 fell short in establishing a clear 
prioritization for ADB as an institution.

    Question. Strategy 2030 set out priorities to support ADB member 
countries in line with commitments made under the United Nations 
Sustainable Development Goals and the Paris agreement on climate 
change. The priorities include tackling climate change, building 
disaster resilience, and enhancing environmental sustainability. The 
United States has announced its withdrawal from the Paris agreement on 
climate change, which will occur this year. When reviewing projects, 
what criterion will you use in determining whether the United States 
will support climate change projects at the ADB?

    Answer. The MDBs are well aware of the administration's position 
with regard to the Paris Climate Accord. The United States is 
respectful of the interests of many developing countries to borrow from 
the MDBs to address risks arising from severe weather. The United 
States does not support work by the MDBs that directly contribute to 
implementing the Paris Climate Accord.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Jason Myung-Ik Chung by Senator Robert Menendez

Democracy and Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As I noted in my written and oral testimony, I am proud of 
our efforts to promote human rights and democracy as they relate to 
Xinjiang Uyghur Autonomous Region (XUAR), China. We used leverage 
generated by our legislative mandates to ultimately secure denial of 
two projects slated for Board consideration in XUAR, China. We led a 
coalition with our European partners to force ADB Management to abandon 
plans to seek approval for the two projects, focusing in particular on 
the grave human rights issues where the Uyghur people are concerned. 
One was an urban revitalization project, and the other was a customs 
and trade facilitation project (cross border). The impact of our 
actions include that ADB will not propose any new projects in Xinjiang 
Province for the foreseeable future. We remain vigilant on any project 
that takes place in China, especially in XUAR.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in the countries where ADB works? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. The issues most pressing are in the areas of accountable 
governance, providing for basic human need and human rights issues in 
some member countries, and the ability to provide relief to those in 
need. ADB projects provide a significant value to client countries; but 
on occasion, it is difficult to see how the projects, loans, and 
technical assistance get to those who need it most. One example would 
be providing relief for displaced persons. On more than one occasion, 
civil society organizations (CSO) have sought out our office to point 
out how ADB and the client government's executing agency did not 
provide the necessary relief for the displaced population in question. 
Furthermore, it was the CSO's belief that the Government was complicit 
in evicting the local population in order for ADB to complete an energy 
project. As noted in the first question, it is a significant concern on 
issues of human rights in XUAR and similar issues involving the 
Rohingya in Myanmar. This specific challenge stems from ADB's ability 
to ensure ADB resources are not going towards any Burmese entities that 
are involved with the crisis. Furthermore, it is ensuring that ADB 
resources supplied to the Government and other international 
organizations in support of refugees in Bangladesh as a result of the 
ongoing humanitarian crisis.

    Question. What steps will you take--if confirmed--to support 
democracy in the countries where ADB works? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. I believe this is a hallmark of what we can do as we 
represent the United States at the AsDB. I will advocate for the ADB to 
support countries in strengthening public institutions, improving 
public financial management, and improving transparency and anti-
corruption, while opposing assistance to countries that are gross 
violators of human rights. I will also advocate for ADB to consult 
actively with civil society groups and implement robust safeguards and 
accountability over its operations. I look forward to working with you 
and your staff to encourage democracy and democratic values. I will 
work with ADB management and staff to promote democratic policies in 
client countries. I will work with other U.S. Government stakeholders 
(State Department, USAID, DFC, among others) to increase visibility on 
these core principles. Our legislative mandates help us to highlight 
these values in practical terms, and our application of them to ADB 
projects encourages the ADB to pursue additional, similar efforts to 
address the concerns we highlight in client countries.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S., local human rights NGOs, and other members of civil society in 
the countries where ADB works?

    Answer. For the last two years as Alternate U.S. Director, I have 
been a member of the ADB Board Compliance Review Committee, the body 
that oversees ADB's accountability mechanisms. In carrying out these 
duties and continuing the strong tradition of close oversight of 
accountability issues by the U.S. Executive Director's Office at ADB, I 
have met with NGOs and civil society groups and will continue to do so. 
I will encourage these groups to seek out our office as issues arise on 
both proposed and existing projects to work to ensure that the ADB is 
held accountable.

    Question. Will you and your mission teams actively engage with the 
countries where ADB works on the right of labor groups to organize, 
including for independent trade unions?

    Answer. I will engage with all groups and encourage my staff to do 
so as well. If the need arises, I will encourage ADB to work with these 
key stakeholders and stress the importance of supporting initiatives on 
which these organized groups focus.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in the countries 
where ADB works, no matter their sexual orientation or gender identity? 
What challenges do the lesbian, gay, bisexual, transgender and queer 
(LGBTQ) people face in the countries where ADB works? What specifically 
will you commit to do to help LGBTQ people in the countries where ADB 
works?

    Answer. ADB promotes and encourages diversity in the workplace, 
including in countries where ADB has a presence. I will support the 
institution in continuing this practice. I will work with ADB 
management and Board colleagues to support LGBTQ and human rights 
endeavors. For example, ADB recently organized a webinar on LGBTQ 
inclusion in operations in partnership with the World Bank, EBRD, and 
IDB. I will actively support similar efforts in the future and 
encourage ADB to build on this initiative.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I commit to respond promptly to all requests 
for information by members of this committee, in accordance with U.S. 
laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Administrative
    Question. Following President Trump's comments last year welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the Treasury Department have explicit 
guidance for all of its personnel on how to deal with this scenario. If 
a foreign person or government approaches you or a staffer at the 
mission with derogatory information on a U.S. political figure, what is 
your understanding of official Treasury Department policy on how to 
handle this specific situation? Has a cable with clear guidance on how 
to handle this specific situation been sent to all U.S. embassies?

    Answer. My understanding, based on the trainings and classes on 
these topics mandated for all Treasury employees, is that I would 
report such a situation to the relevant security and 
counterintelligence offices at Treasury. Should I find myself in this 
kind of an interaction, I would abide by guidance from the State 
Department and the Treasury Department as well as relevant U.S. laws. 
In my current position at the ADB--and in the ED position, should I be 
confirmed--I would also report this foreign contact to security 
officials at the Embassy, and to other law enforcement colleagues, as 
needed, and provide them with any and all information in my possession.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, not to my knowledge.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have not had an instance of these types of issues brought 
to my attention.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I agree that the federal government should not employ 
prohibited personnel practices. If confirmed, I will maintain a policy 
to ensure that prohibited personnel practices will not take place.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Jason Myung-Ik Chung by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As I noted in my written and oral testimony, I am proud of 
our efforts to promote human rights and democracy as they relate to 
proposed ADB projects in Xinjiang Uyghur Autonomous Region (XUAR), 
China. We used leverage generated by our legislative mandates to 
ultimately secure denial of two projects slated for Board consideration 
in XUAR, China. We led a coalition with our European partners to force 
ADB Management to abandon plans to seek approval for the two projects, 
focusing in particular on the grave human rights issues where the 
Uyghur people are concerned. One was an urban revitalization project, 
and the other was a customs and trade facilitation project (cross 
border). The impact of our actions include that ADB will not propose 
any new projects in Xinjiang Province for the foreseeable future. We 
remain vigilant on any project that takes place in China, especially in 
XUAR.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. As an Asian American and someone who comes from an 
immigrant family, I support staff from diverse backgrounds and 
underrepresented groups. I promote diversity of thought and an 
inclusive decision-making process. I support efforts to hire staff from 
varying backgrounds to work in the Office of the U.S. Executive 
Director, consistent with U.S. law.

    Question. What steps will you take to ensure each of the 
supervisors at the Asian Development Bank are fostering an environment 
that is diverse and inclusive?

    Answer. The Office of the U.S. Executive Director promotes 
diversity and inclusion, both within our office and to the wider ADB 
community, and we are keenly aware that there are those in the 
institution who do not share these ideals. I supported setting gender 
targets in ADB's corporate results framework, including a target to 
increase the share of female International Staff. I also supported the 
creation in 2019 of a new Office of Professional Conduct (OPC) to 
increase awareness around bullying, harassment, sexual harassment, 
retaliation, and abuse, as well as contribute to workplace conflict 
resolutions. The OPC promotes best practices at ADB on these issues to 
foster a positive and productive work environment based on mutual 
respect regardless of background or position. We will work with ADB 
management to foster diversity and inclusivity and will work to address 
the concerns of those staff who feel that they are retaliated against 
for issues outside of work performance, consistent with the policies 
and procedures of the Bank.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Treasury Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any country abroad?

    Answer. As indicated in my financial disclosure statement, I have 
two bank and two ADB retirement accounts abroad, both in the 
Philippines. I do not have any other foreign financial interests.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Joseph Manso by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I worked to promote human rights in Mexico. Working with a 
range of NGOs, I facilitated a nation-wide effort to monitor the 
Mexican elections in the mid-1990s. I also led the team that drafted 
the State Department's human rights reports from 1995 to 1998. These 
reports had enough of an impact on the Government of Mexico that they 
asked for human rights consultations with the USG, which was a change 
from their prior policy of not wanting to talk to us about human rights 
issues. When President Clinton visited Mexico in the mid-1990s, I 
proposed and arranged for him to meet with key opposition leaders. 
During this period, one of Mexico's leading human rights proponents 
told me he had never felt so respected by the American Embassy.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I strongly agree that diversity is essential, not only is 
it the right thing to do, it makes us stronger as an organization. If 
confirmed, I will at the OPCW: recruit from a broad pool of candidates; 
make everyone feel welcome and part of the team; monitor performance 
and address any issues early and in a constructive manner working to 
set each individual up for success; set aside time to mentor officers 
individually; pay attention to morale issues and to the tone in the 
office; use my behavior to model correct tone and conduct in the 
office.

    Question. What steps will you take to ensure each of the 
supervisors at the Organization for the Prohibition of Chemical Weapons 
are fostering an environment that is diverse and inclusive?

    Answer. The current Director General of the OPCW, Ambassador 
Fernando Arias, ran on a platform of enhancing staff diversity and 
gender balance in the Technical Secretariat. DG Arias set the tone for 
his tenure of DG and for the Organization by selecting a female Deputy 
Director General from Cameroon. Subsequently, he has followed up by 
creating a gender point of contact in each division, instituting new 
hiring practices aimed at attracting more women candidates. The OPCW 
has increased the number of women in the Technical Secretariat from 22 
to 27 percent over the last three years. He is also working to increase 
geographic diversity, seeking more qualified candidates from Africa, 
Latin America, and Asia. The disparity is primarily due to a low rate 
of minimally-qualified applicants from these regional groups applying 
for positions.
    If confirmed, I will publicly support and encourage these steps by 
OPCW leadership aimed at fostering diversity among the Technical 
Secretariat, and encourage DG Arias to work to identify additional 
recruitment tools to make it easier for OPCW positions to be advertised 
globally. Further, I will encourage other countries to take a vested 
interest in promoting OPCW positions and ensure that qualified 
candidates from their country or regional group apply for OPCW 
vacancies. DG Arias' initiatives can only be actualized if all States 
Parties remain committed to a gender and geographically balanced 
workforce.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any country abroad?

    Answer. Neither I nor any member of my immediate family have any 
specific financial interests abroad. My investment portfolio includes 
mutual funds, those funds may hold interests in companies with an 
international presence, but these are exempt from conflict of interest 
laws. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.



                               __________





                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 21, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-106, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Gardner, Barrasso, Portman, Young, Cruz, Menendez, Cardin, 
Shaheen, Coons, Murphy, Kaine, and Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    The Chairman. The hour of 10:00 a.m. having arrived, this 
hearing of the Senate Foreign Relations Committee will come to 
order.
    Today the committee will hold a nominations hearing for 
three very important positions. Our nominees today are the 
Honorable Marshall Billingslea to be Under Secretary of State 
for Arms Control and International Security; the Honorable 
Curtis Joseph C.J. Mahoney to be Legal Adviser of the 
Department of State; and the Honorable Carlos Trujillo to be 
Assistant Secretary of State for Western Hemisphere Affairs.
    We have two very distinguished guests today to introduce 
one of our nominees: Senator Pat Roberts and Senator Jerry 
Moran. And I am going to postpone my opening statement and 
request that Senator Menendez does the same as we allow Senator 
Roberts and Senator Moran to introduce one of our nominees. So 
with that, Senator Roberts, the floor is yours.

                 STATEMENT OF HON. PAT ROBERTS,
                    U.S. SENATOR FROM KANSAS

    Senator Roberts. Mr. Chairman, it is a privilege to be 
here. Thank you for your leadership doing a tough job the best 
that can be done. It is a privilege to be here with my 
distinguished colleague, Senator Moran, and we both, of course, 
think it is a very distinct honor and privilege to introduce 
Mr. C.J. Mahoney as the nominee for Legal Adviser of the 
Department of State.
    C.J. hails from Russell, Kansas, home of Bob Dole and Arlen 
Specter, by the way. And I have had the opportunity to talk at 
length with him over the years. Each time I have been impressed 
by his intellect, his integrity, his character, his experience 
so much so this is the second time I have introduced him before 
a Senate committee. It does not get any better than that.
    The professional path that brought C.J. to this point is 
both unique and exceptional. He is a graduate of Harvard 
College and Yale Law School where he was editor of the Yale Law 
Journal and was a visiting lecturer on international 
arbitration.
    For the past 2 years, he has served as Deputy USTR 
Representative for Investment Services, Labor, Environment, and 
Labor. During that time he also played a very key role in 
securing the United States-Mexico-Canada Agreement, or what we 
call USMCA. By the way, that stands for United States Marine 
Corps Always. Actually it is a trade bill. Thank you, C.J. We 
really needed that very badly.
    He has experience working in international disputes and 
arbitration, each giving him perspective on how best to advise 
the State Department. Each position that he has held has built 
his critical reasoning and decision-making skills. This is 
evident by his peer support and, I venture to say, everyone who 
knows C.J. and is familiar with his work and exceptional 
skills.
    Mr. Chairman, my colleague, C.J. Mahoney, has my strongest 
possible support, and I have no doubt he will serve the State 
Department well in the legal advisory role.
    Thank you, sir.
    The Chairman. Well, thank you very much.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. Thank you and 
Senator Menendez for the opportunity to be with you this 
morning and to add my comments to my colleague, Senator 
Roberts, in support of the confirmation of C.J. Mahoney to 
serve as Legal Adviser at the State Department.
    Senator Roberts and I had this opportunity to do this 
similar kind of presentation in the Finance Committee when C.J. 
became the Deputy Trade Ambassador and responsible for half of 
the globe from Mexico to China, and his significant involvement 
in USMCA, as Senator Roberts said, was an important component 
to us getting an agreement. And I am pleased to be here.
    I would not reiterate C.J.'s qualifications, but it is one 
of those Kansans. We all have people in our State that we look 
to to say, wow, they have done a lot with their lives and they 
have been very successful and we are very proud of them. And 
C.J. fits that category not only for me but for folks in his 
hometown, a town of about 4,000 or 5,000 people. I just was 
there a couple weeks ago and all wanting to know how C.J. 
Mahoney was doing. It is something about growing up in a small 
town and what we now often define as success is honored and 
esteemed in your hometown. And in the case of C.J., it happens 
across the State of Kansas.
    I met C.J. in 1996. I saw him on television at the 
Republican National Convention in which he seconded the 
nomination of Bob Dole for the Republican nomination for the 
presidency. I then connected with C.J., and he and I traveled 
the State of Kansas as I was a candidate for Congress. And C.J. 
became my driver and companion. And we got well acquainted in 
that circumstance, as you all know from your experiences in 
campaigning.
    And C.J. has demonstrated, at every turn in his life, 
capabilities, qualifications, integrity, someone that Kansans 
have every reason to honor and esteem. And I know that if you 
have had dealings with C.J., you have that sense, and I can 
tell you that your sense is well founded.
    I would finally say, as I did at the hearing in front of 
the Finance Committee, it was a great honor to introduce C.J. 
to the committee. He was my very first intern in 1997 as a 
House Member, then he became an Ambassador, now with your 
support can become the Legal Adviser to the Department of 
State. I ask your consideration of C.J. I know this committee 
has its challenges in the confirmation process at this point, 
but I hope that the personal aspects and the qualifications of 
C.J. allow this committee to recommend him favorably to the 
full Senate where I will proudly vote for my fellow Kansan and 
neighbor 25 miles down the road.
    Mr. Chairman, Mr. Menendez, thank you very much.
    The Chairman. Senators, thank you very much. We will now 
proceed, and we know you have a busy schedule. So we will 
excuse you.
    In the meantime, our other two nominees can join us at the 
table, and we will proceed to opening statements from myself 
and from Senator Menendez. We will then hear from the 
candidates and, of course, thereafter we will proceed to 
question and answer. So with that, we will proceed.
    Today we meet to consider the nominations of three 
qualified individuals for extremely important posts. We welcome 
you and we thank you sincerely for your willingness to serve 
and, of course, your families we thank also because we know the 
sacrifices attached to service.
    Each of these positions plays a vital role in U.S. foreign 
policymaking, and each is in need of a Senate-confirmed leader. 
It is unfortunate we have had to hold these hearings under 
these present circumstances, but that is the place we find 
ourselves.
    The nominees are infinitely qualified for these positions 
and are committed public servants with long track records that 
highlight their commitment to the United States. There are, 
indeed, some policy disagreements with them on particular 
issues. This is the Senate and I would expect nothing less. But 
in our age-old deference on this committee to civility, I am 
certain we can get through this.
    However, it is time for the nominees to have their public 
hearing so that members of the committee may ask their 
questions of the nominees and the public may hear their views 
on important issues facing our country.
    First, we have Marshall Billingslea to be Under Secretary 
of State for Arms Control and International Security. This 
position oversees the Bureaus of, one, Political and Military 
Affairs; number two, International Security and 
Nonproliferation; and three, Arms Control Verification and 
Compliance, all issues that this committee has been greatly 
concerned with.
    I agree with Ranking Member Menendez's recent statements 
that it is key that we have a Senate-confirmed individual in 
this position. It is vital that our relationship with allied 
and partner military support our foreign policy goals and that 
the United States be able to provide our allies and partners 
with critical capabilities in a timely manner. The Department 
must especially prioritize those capabilities and arms 
transfers most needed to deter Chinese and Russian aggression. 
Arms control has been a key element of U.S. foreign policy for 
decades, but there are tectonic shifts in the arms control 
world that we cannot ignore. We do not pursue arms control 
merely for its own sake. To safeguard the American people, arms 
control agreements must be verifiable, enforceable, and 
effective. We currently lack adequate agreements that fully 
meet those requirements.
    As talks begin with Russia next week on the future of our 
major nonproliferation agreements, the United States must 
acknowledge it is entering a new era of arms control. While the 
U.S. constrains itself to adhere to its arms control 
obligations, we cannot say that Russia and especially China are 
likewise constrained by the current arms control frameworks and 
agreements. The old bilateral model of arms control is no 
longer sufficient under such conditions.
    I look forward to hearing today about how we can move 
forward to true trilateral discussions that accounts for the 
interaction between all three major powers, with the full 
understanding that one of those powers has not indicated its 
desire to enter into such negotiations or agreement.
    Mr. Billingslea is well qualified for this position. He 
currently serves as Special Presidential Envoy for Arms Control 
at the State Department. In that role, he has been an effective 
advocate for the United States on these very issues, and just 
last month, he provided this committee a timely and 
comprehensive, well thought out classified assessment, which 
our members truly appreciated.
    He has also served as Assistant Secretary of the Treasury 
for Terrorist Financing, a position for which he was confirmed 
by the Senate in June of 2017.
    In addition, he served in positions at the Defense 
Department and NATO under the George W. Bush administration, 
and he is a former staffer for this committee.
    Second, we have Curtis Joseph ``C.J.'' Mahoney to be Legal 
Adviser of the Department of State. The Legal Adviser, or the L 
position as it is known at State, is critically important 
because this person advises the Secretary of State on all legal 
issues related to the work of the Department, including matters 
of international law, use of force, and international 
agreements entered into by the United States.
    Mr. Mahoney is well qualified for this challenging 
position. On March 1, 2018, he was confirmed unanimously by the 
Senate to be Deputy U.S. Trade Representative for Investment 
Services, Labor, Environment, Africa, China, and the Western 
Hemisphere. In this position, he played a key role in 
negotiating the new USMCA.
    Prior to his current position with USTR, he was a partner 
at the law firm of Williams and Connolly, has served as a law 
clerk to the former Supreme Court Justice Anthony Kennedy.
    Third, we have Carlos Trujillo to be Assistant Secretary of 
State for Western Hemisphere Affairs. This position is 
responsible for advising the Secretary on how best to advance 
U.S. interests in a diverse region that includes a NATO ally, 
two top U.S. trading partners, and three socialist 
dictatorships. The U.S. has a vital national interest in 
promoting a western hemisphere region that is prosperous, 
democratic, and secure.
    I am concerned about the malign influence of China, Russia, 
and Iran across the region. Their negative influence is 
augmented by involving transnational criminal organizations and 
persistent corruption.
    Carlos Trujillo is ready to take on this important job. He 
currently serves as the U.S. Permanent Representative of the 
Organization of American States, a position for which he was 
confirmed unanimously by the Senate in March 2018. At the OAS, 
Ambassador Trujillo has worked hard to grow and sustain a 
regional effort to help Venezuelans and Nicaraguans recover 
their freedom. He has also successfully kept the OAS focused on 
its core objective of supporting democratic governance.
    Prior to his diplomatic service, Mr. Trujillo served in the 
Florida House of Representatives, as a State prosecutor, and as 
an attorney in private practice.
    With that, I will turn to Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    And welcome to each of the nominees.
    Mr. Chairman, first of all, I want to thank you for 
listening to the Democratic members on the importance of 
rebalancing the committee agenda. We urged you to shift away 
from a nominations-only approach and to rejuvenate the 
committee's policy and oversight focus. The fact that you 
finally appear to have secured Secretary Pompeo's testimony in 
particular is a solid step in the right direction.
    But at the same time, I must share my deep disappointment 
over today's hearing, including that you noticed it 
unilaterally and over the objection of the committee minority. 
Today's hearing represents the evisceration of critical 
committee oversight efforts and of a related and continual 
pattern of rubber-stamping Trump administration nominees. On 
both fronts, the committee is caving to the executive branch 
and moving forward without transparency, accountability, or 
regard for our constitutional system of checks and balances. 
Let me explain what I mean.
    It is no secret that the President and his Secretary of 
State recoil from scrutiny. They claim to act on behalf of the 
American people. Yet, they fight against any congressional or 
public scrutiny of their actions. This is obviously 
unacceptable. In response and as a last resort, committee 
Democrats urged you not to move forward with nominations for 
positions connected to blatant State Department stonewalling. 
This was particularly the case with the Legal Adviser and 
Western Hemisphere positions, as the administration has been 
particularly obstructionist in those areas. Let me give you 
just a few examples.
    The Department is blocking us from examining the firing of 
the State Department Inspector General, the very same Inspector 
General who was investigating Secretary Pompeo at the time of 
his firing.
    The Department has refused to come clean with the legal 
determinations concerning Saudi Arabia's brutal murder of Jamal 
Khashoggi.
    The administration is withholding key witnesses in a joint 
Senate Foreign Relations Committee and House investigation into 
the Trump administration's political targeting of career State 
Department employees.
    And the administration continues to hide the controversial 
instruments negotiated with Mexico and the Northern Triangle 
countries.
    This is dangerous. Bad things happen when there is no 
transparency, no accountability, no oversight. We have seen it 
time and again with this administration.
    Yet, Mr. Chairman, by moving forward with this hearing--and 
I understand it is under significant pressure from Secretary 
Pompeo--you eliminated any incentive that the Department had to 
engage and undermined the committee's ability to pursue the 
public interest to shine a light on the darkest, most 
disturbing corners of the Trump foreign policy and the Pompeo 
State Department.
    A separate but related problem is the refusal of the 
administration and some nominees to cooperate on vetting 
matters. This problem is front and center with Mr. Billingslea. 
He has simply not come clean about his involvement in Bush-era 
torture programs, claiming over and over again that he never 
advocated for torture. The problem is that is just not true. 
The evidence shows that Mr. Billingslea was a strong advocate 
for hooding, 20-hour interrogations, forced grooming, sleep 
deprivation, removal of clothing, face and stomach slaps, and 
use of dogs in interrogations. We should not be moving forward 
with Mr. Billingslea's nomination. Period. The stain of 
torture, combined with his credibility gap, should be 
disqualifying.
    But even if you disagree, Mr. Chairman, at a minimum we 
should not be moving forward until he truthfully acknowledges 
his actions, but here he is before us today. So what incentives 
does he have left to come clean with us?
    And it is not just Mr. Billingslea. We have seen it 
multiple times over the last 2 years: Michael Pack, Darrell 
Issa, Doug Manchester, and so on.
    So, Mr. Chairman, I am deeply dismayed at what this hearing 
represents. If we are truly a coequal branch of government, we 
have to act like it. On behalf of the American people, we have 
to rebalance our relationship with the executive branch 
regardless of which party is in the White House. Our relevance 
depends on it, and I hope we can move forward in the future in 
a different direction.
    Finally, a word to the nominees, in particular Ambassadors 
Mahoney and Trujillo. I am a huge believer--I spent my whole 
life--in public service, and I have the greatest respect for 
our career diplomatic and development professionals. I also 
believe that service as a political appointee is a noble 
calling and essential to our system. Until this moment, I would 
have never questioned anyone's decision to serve in a political 
capacity in any administration, Democratic or Republican. But I 
am honestly perplexed as to why you are pursuing these 
nominations.
    They are great jobs and honorable ones under normal 
circumstances.
    But nothing about this moment and this administration is 
normal. We have a President who seeks to divide us 
domestically, that attacks our allies and coddles our enemies, 
and we have a Secretary of State that enables him. And this is 
not the beginning of the administration. We all know its 
ugliness, its incompetence, and its lawlessness: 
Charlottesville, Khashoggi, the Ukraine scandal, more recently 
Lafayette Square, Portland, Oregon, and reportedly a Trump 
green light for Uighur concentration camps. There is no bottom.
    I do not understand why you are signing on to such a tour. 
I cannot imagine that you will be proud of what you are going 
to have to advocate for. So why do you want to own it?
    I think it is past time for the senior political leadership 
in this country to stand up and say enough. This is not right 
and I do not want to be a part of it. We have to ask ourselves 
that question, and I hope you will reflect on it urgently.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    To make sure that the record is complete on this, you are 
correct that I did unilaterally notice this hearing over your 
objections and your staff's objections. However, it should also 
be noted that that was not done in a vacuum. We negotiated at 
great length. We were unable to reach an agreement. And as I 
have said before, my responsibility to move these forward. I 
understand your arguments and feelings from a political and 
philosophical basis about the President and about people that 
need to be in these positions.
    Having said that, it is my obligation to move these 
forward. I am going to. That is the great part of a democracy 
is we debate these out and then we vote. And the vote will 
determine the outcome. So that is my objective here is to move 
these forward and allow everyone on this committee state for 
themselves whether they throw in with the thoughts that you 
have or whether they have their own thoughts and go a different 
direction. And I think that is fair and I think that is the way 
democracy works. I hope we can do it civilly, and even though 
we disagree, we can do it in that fashion.
    So with that, we will turn to our nominees, and we will 
start with Mr. Billingslea. Your statement will be included in 
the record in full, without objection. So if you could please 
keep your remarks to no more than 5 minutes or so, we would 
appreciate that. Mr. Billingslea, the floor is yours.

  STATEMENT OF HON. MARSHALL BILLINGSLEA, OF VIRGINIA, TO BE 
  UNDER SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL 
                            SECURITY

    Mr. Billingslea. Thank you, Chairman. Chairman Risch, 
Ranking Member Menendez, and members of the committee, I am 
honored to appear before you today as President Trump's nominee 
for Under Secretary of State for Arms Control and International 
Security. I am grateful to the President and Secretary Pompeo 
for their trust and confidence in me to serve in this important 
new role.
    First of all, I thank my family, my wife Karen and my two 
daughters, Morgan and Elsa, for supporting me in my decision to 
accept the President's nomination to the Department of State. 
These positions require enormous family sacrifice, and I could 
not do this without their love and backing.
    It is, Senators, a great pleasure to appear before this 
committee, which dates to the earliest days of our republic as 
one of the original 10 standing committees of the Senate, and, 
in particular, an honor to appear before this body which 
discharges the Senate's constitutional prerogatives under 
Article II, Section 2, Clause 2 of the treaty making power. I 
hope it will be a nice homecoming of sorts. As some of you may 
know, I began my government career on the professional staff of 
this very committee.
    The experience I gained from my time as an SFRC staffer was 
formative and has had a lasting influence on my career in 
government.
    In particular, I am gratified to be nominated to lead the T 
family of bureaus, given that I worked very closely for nearly 
7 years with both the T Bureau and with its predecessor, the 
Arms Control and Disarmament Agency. In fact, I had the 
privilege in the late 1990s of co-drafting for the chairman at 
the time the bipartisan legislation that would fold ACDA into 
the Department of State and create the Under Secretary 
position.
    So I find myself 21 years later now sitting before you 
nominated for that very position.
    If confirmed by the Senate, I look forward to tackling the 
many and critical national security issues for which the T 
family is responsible within the Department of State. Some of 
those challenges are recurring decades-old issues, predating 
the very creation of the Under Secretary position. And there 
are newer, emergent problem sets that require fresh and 
creative thinking.
    I am pleased to be nominated to a position with a portfolio 
with which I am deeply familiar. This is not just from my time 
serving on this committee staff but also in my tenure as the 
Deputy Assistant Secretary of Defense for Negotiations Policy 
where I worked closely with both the arms control and the 
nonproliferation functions of T, later as our Assistant 
Secretary General at NATO, and then as the Deputy Under 
Secretary of the Navy, I worked closely with the Bureau of 
Political-Military Affairs and its with its Directorate of 
Defense Trade Controls.
    Members will see in my history of public service a career 
spent working on a wide range of arms control, 
nonproliferation, and political-military issues. I supported a 
number of arms control and law of war treaties over the years. 
I helped move several of those through this committee during 
the 1990s ranging from START II to the Amended Mines Protocol, 
the CFE Flank Agreement, the Convention on Nuclear Safety, and 
so on and so forth.
    My support for arms control that advances U.S. security and 
which is both enforceable and verifiable is fully captured in 
my 2002 testimony as the Deputy Assistant Secretary of Defense 
before the Senate Government Affairs Committee. In that 
hearing, I stressed the importance of the Nuclear Non-
Proliferation Treaty, something I hope we can discuss today, 
and the value of the International Atomic Energy Agency, as 
well as the enhanced access to be afforded under the new 
Additional Protocol at the time, which I supported during the 
Bush administration. I also spoke at length about the 
importance of multilateral regimes, such as the Australia 
Group, the Nuclear Suppliers Group, and the Missile Technology 
Control Regime.
    During that time, I launched expansion of the Suppression 
of Unlawful Acts at Sea Treaty to include proliferation and to 
provide a basis for interdiction of proliferant traffic on the 
high seas. And I also drove DOD's support and involvement in 
the Proliferation Security Initiative. I also testified before 
this committee on behalf of the Child Soldiers Protocol.
    And finally, my time at the Treasury Department over the 
past 3 years demonstrates my deep and abiding commitment to 
enforcing global nonproliferation norms, especially U.N. 
Security Council resolutions. Much of what I did as Assistant 
Secretary of the Treasury was to confront North Korean 
proliferation networks that were circumventing the objectives 
of the NPT and flouting UNSCRs. And similarly, I drove the use 
of sanctions and other financial tradecraft to disrupt Iranian 
proliferation networks, as well as their terror apparatus.
    It is with this background, my ability to recognize what 
makes an international agreement a good deal for the United 
States, and my commitment to verification and compliance and 
enforcement that led to my appointment as Special Presidential 
Envoy for Arms Control. The President has tasked me with a 
formidable job, which is to negotiate the most complete, 
effective, and verifiable arms control agreement possible to 
safeguard American national security. And that is why he also 
put me forward for the broader role of Under Secretary.
    As the chairman has mentioned, I had a chance to talk to 
this committee in great detail on our thinking prior to 
engaging the Russian Federation, and I look forward to sharing 
additional thoughts as our negotiations in Vienna are set to 
commence next week.
    And let me in closing say that in preparation for this 
hearing over the past several weeks, I have had a chance to 
work closely with the professionals in the T family, and it has 
been a real pleasure to be able to get to know and to work 
alongside both our Foreign Service officers and our career 
civil servants, and I look forward to supporting them in the 
coming days, if confirmed.
    Again, Chairman Risch and Senator Menendez, I ask that the 
rest of my statement be included in the record.
    [The prepared statement of Mr. Billingslea follows:]


            Prepared Statement of Hon. Marshall Billingslea

    Chairman Risch, Ranking Member Menendez, and members of the 
committee, I am honored to appear before you today as President Trump's 
nominee for Under Secretary of State for Arms Control and International 
Security. I am grateful to the President and Secretary Pompeo for their 
trust and confidence in me to serve in this important new role.
    First of all, I thank my family--my wife Karen and my two daughters 
Morgan and Elsa--for supporting my decision to accept the President's 
nomination to the Department of State. These positions require enormous 
family sacrifice, and I could not do this without their love and 
backing.
    Senators, it is a great pleasure to appear before this committee, 
which dates to the earliest days of our Republic as one of the original 
ten standing committees of the Senate. It is an honor to appear before 
the body, which discharges the Senate's constitutional prerogatives 
under Article II, Section 2, Clause 2. I hope it will also be a nice 
homecoming of sorts; as some of you may know, I began my government 
career on the professional staff of this very committee.
    The experience I gained from my time as an SFRC staffer was 
formative, and has had a lasting influence on my career in government.
    In particular, I am gratified to be nominated to lead the ``T 
Family'' of Bureaus, given that I worked closely for nearly seven years 
with both T and its predecessor, the Arms Control and Disarmament 
Agency. In fact, I had the privilege in the late 1990s of co-drafting 
for then Chairman Helms the bipartisan legislation that would fold ACDA 
into the Department of State and create the Under Secretary position.
    So I find myself, 21 years later, now sitting before you, nominated 
by the President for the position of Under Secretary for Arms Control 
and International Security.
    If confirmed by the Senate, I look forward to tackling the many, 
and critical, national security issues, for which the T family is 
responsible within the State Department. Some of those challenges are 
recurring, decades-old issues, pre-dating creation of the Under 
Secretary. And some are newer, emergent problem sets requiring fresh 
and creative thinking.
    I am pleased to be nominated to a position with a portfolio with 
which I am familiar. This is not just from my time serving on this 
committee staff, but from my tenure as the Deputy Assistant Secretary 
of Defense for Negotiations Policy, where I worked closely with both 
the arms control and nonproliferation functions of T, and later at both 
NATO and then as Deputy Under Secretary of the Navy, where I worked 
closely with the Bureau of Political-Military Affairs and its 
Directorate of Defense Trade Controls.
    Members will see, in my history of public service, a career spent 
working on a wide range of arms control, nonproliferation, and 
political-military issues, I supported a number of arms control and law 
of war treaties, over the years. I helped move several of those through 
this committee during the 1990s, ranging from START II to the Amended 
Mines Protocol, the CFE Flank Agreement, the Convention on Nuclear 
Safety, and other measures.
    My support for arms control that advances U.S. security, and which 
is both enforceable and verifiable, is fully captured in my 2002 
testimony as DASD for Negotiations Policy, before the Senate Government 
Affairs Committee. In that hearing I stressed the importance of the 
Nuclear Non-Proliferation Treaty (NPT) and the value of the 
International Atomic Energy Agency, and the enhanced access provided 
under the Additional Protocol, which I supported during the Bush 
administration. I also talked at length about the importance of 
multilateral regimes, such as the Australia Group, the Nuclear 
Suppliers Group, and the Missile Technology Control Regime.
    During that time, I launched expansion of the Suppression of 
Unlawful Acts at Sea (SUA) Convention to include proliferation, and 
drove DoD involvement in creation of the Proliferation Security 
Initiative. I also testified before this committee on behalf of the 
Child Soldiers Protocol.
    Finally, my time at the Treasury Department, for the past three 
years, demonstrates my deep and abiding commitment to enforcing global 
nonproliferation norms, especially U.N. Security Council Resolutions 
(UNSCRs). Much of what I did, as Assistant Secretary of the Treasury, 
was to confront North Korean proliferation networks circumventing the 
objectives of the NPT and flouting UNSCRs. Similarly, I drove the use 
of sanctions and other financial tradecraft to disrupt Iranian 
proliferation networks, as well as their terror apparatus.
    It is with this background--my ability to recognize what makes an 
international agreement a good deal for the United States--and my 
commitment to verification of compliance and enforcement, that led to 
my appointment as Special Presidential Envoy for Arms Control. The 
President tasked me with negotiating the most complete, effective, and 
verifiable arms control agreement possible to safeguard American 
national security. It is also why he put me forward for the much 
broader role of Under Secretary.
    As Senators know, I recently testified before this committee in 
closed session on our thinking regarding nuclear arms control, the New 
START Treaty, and the worrisome nuclear arms buildups of both Russia 
and China. I will continue to keep this committee fully and currently 
informed of our progress in these areas, though for obvious reasons, 
cannot delve into specifics of the negotiations in open session. I look 
forward to continuing those discussions with you, particularly as the 
results of our technical working groups--which soon will deploy to 
Vienna--become apparent.
    In closing, leading nuclear arms control negotiations as Special 
Presidential Envoy has provided me an even deeper respect for the hard-
working men and women at the State Department, particularly those in 
the ``T Family'' of bureaus and offices.
    Notwithstanding COVID, the T family continuously rises to the 
challenge. From the Arms Control Verification and Compliance Bureau's 
efforts to address global WMD proliferation issues to the Bureau of 
International Security and Nonproliferation's effective responses to 
proliferation threats and shaping of the international security 
environment to the outstanding work by the Bureau of Political-Military 
Affairs to support our global security partnerships on the one hand, 
and the American defense industrial base on the other, the T family is 
providing outstanding support to the President's arms control, 
nonproliferation, and international security priorities. If confirmed 
as Under Secretary for Arms Control and International Security, I am 
committed to working with this committee to strengthen the ``T 
Family,'' the State Department and American national security.
    Chairman Risch and Ranking Member Menendez, I greatly appreciate 
the opportunity afforded by the committee to appear before you today as 
you consider my nomination.


    The Chairman. Thank you very much, Mr. Billingslea.
    We will now hear from Mr. Mahoney.

STATEMENT OF HON. C.J. MAHONEY, OF KANSAS, TO BE LEGAL ADVISER 
                   OF THE DEPARTMENT OF STATE

    Mr. Mahoney. Chairman Risch, Ranking Member Menendez, and 
members of the committee, I thank you and your staff for 
holding this hearing, and I appreciate the opportunity to speak 
with you this morning about my nomination to be Legal Adviser 
at the Department of State.
    I would also like to thank my fellow Kansans, Senator 
Roberts and Senator Moran, for their kind introductions. Our 
State has long been well represented in the United States 
Senate. Senator Roberts and Moran are worthy successors to the 
great Kansans who came before them, most notably my fellow 
Russell, Kansas native, Senator Bob Dole.
    If there is one thing I would like the committee to take 
away from my comments today, it is this. I do not seek this 
position because I have some ideological axe to grind. Despite 
my detour as a trade negotiator for the past 2 years, 
professionally I think of myself first and foremost as a trial 
attorney. My only goals, if I am confirmed as Legal Adviser, 
will be to ensure that policymakers at the Department of State 
receive the best possible legal advice and to uphold the fine 
traditions of the Office of the Legal Adviser.
    Since its creation in 1931, the Office of the Legal 
Adviser, or L as it is referred to in the Department, has 
played a critical role in defending America's rights under 
international agreements, helping to ensure our own compliance 
with international law, and offering honest, professional 
advice to the Department. Over the years, the office has been 
led by some of the nation's preeminent legal scholars and 
consistently staffed on the front lines by some of its very 
best attorneys.
    In preparation for this hearing, I reached out to each of 
the living former legal advisors, Republican and Democrat, 
going all the way back to the Nixon administration. They 
provided me with candid advice and invaluable insight into 
their experiences, both of which I will carry with me into the 
job, if I am confirmed. And I am honored that several former 
legal advisors and other State Department and executive branch 
officials have signed bipartisan letters supporting my 
nomination.
    Before joining USTR, I spent 2 years as a law clerk and 
over a decade as a lawyer in private practice at Williams & 
Connolly. Along the way, I had the good fortune to be mentored 
by lawyers who represent the very best of the legal profession 
both in terms of skill and integrity.
    First among them is one of my personal heroes, Justice 
Anthony Kennedy. Justice Kennedy's fairness, personal decency, 
and concern for individual liberty makes him in my view one of 
the towering figures in American and international law.
    In private practice, I tried commercial and criminal cases 
in federal courts and before international arbitration panels. 
I learned the craft of zealous advocacy, but also the 
importance of strict adherence to the high ethical standards of 
the profession. I learned that a lawyer is only as effective as 
he is credible and that, quite often, a lawyer's most important 
obligation is to tell the client precisely what he does not 
want to hear. I am proud that 110 of my former law partners, 
who are arrayed across the political spectrum and known to many 
of you, have sent the committee a letter testifying to my 
experience and supporting my nomination.
    For the past 2 years, my primary task was the negotiation 
and implementation of the USMCA. I was one of the principal 
negotiators in talks with Canada and Mexico and led the 
administration's efforts to secure congressional passage of the 
agreement. Working closely with your colleagues on the Finance 
Committee, Senators Grassley and Wyden, in addition to other 
members on both sides of the aisle, I helped design and 
personally negotiated several of the agreement's most important 
provisions, including the first-of-its-kind rapid response 
labor enforcement mechanism. I worked extensively for over 2 
years with labor, environmental, and business groups to bridge 
differences and build a broad base of bipartisan support for 
the new agreement. And in the end, USMCA passed with 90 percent 
of members in both the House and Senate voting in favor.
    As Legal Adviser, I would have a different role, to provide 
legal advice to the Department, not to set policy. But you have 
my commitment that I will make myself available to members of 
this committee to answer your questions and will strive in good 
faith to support your important policy and oversight work. I 
submit that my record at USTR lends credibility to that 
commitment. I am proud to have played a part in bringing about 
greater bipartisan consensus in trade policy. I like to think 
that is still possible in foreign policy as well. I am 
certainly committed to that goal.
    In closing, I would like to thank another Kansan, Secretary 
Pompeo, for the confidence he has placed in me and the 
President for nominating me to this position. I would like to 
thank Ambassador Lighthizer for giving me the opportunity to 
serve under him at USTR, for his friendship, and for supporting 
me in my next endeavor.
    I would also like to thank my wife Becca and my children, 
Eleanor and Patrick, for supporting my desire to serve in 
government and for their love and patience.
    Members of the committee, I thank you again for this 
opportunity, and I look forward to your questions.
    [The prepared statement of Mr. Mahoney follows:]


                Prepared Statement of Hon. C.J. Mahoney

    Chairman Risch, Ranking Member Menendez, and members of the 
committee, I thank you and your staff for holding this hearing, and I 
appreciate the opportunity to speak with you this morning about my 
nomination to be Legal Adviser at the Department of State.
    I'd also like to thank my fellow Kansans, Senator Roberts and 
Senator Moran, for your kind introductions. Our state has long been 
well represented in the United States Senate. Senator Roberts and 
Senator Moran are worthy successors to the great Kansans who came 
before them, most notably my fellow Russell, Kansas native, Senator Bob 
Dole.
    If there's one thing I'd like the committee to take away from my 
comments today it is this: I don't seek this position because I have 
some ideological axe to grind. Despite my detour as a trade negotiator 
for the past two years, professionally I think of myself first and 
foremost as a trial attorney. My only goals, if I am confirmed as Legal 
Adviser, will be to ensure that policymakers at the Department of State 
receive the best legal advice possible and to uphold the fine 
traditions of the Office of the Legal Adviser.
    Since its creation in 1931, the Office of the Legal Adviser, or L 
as it is referred to in the Department, has played a critical role in 
defending America's rights under international agreements, helping to 
ensure our own compliance with international law, and offering honest, 
professional advice to the Department. Over the years, the Office has 
been led by some of the nation's preeminent legal scholars and 
consistently staffed on the front lines by some of its very best 
attorneys.
    In preparation for this hearing, I reached out to each of the 
living former legal advisers--Republican and Democrat--going all the 
way back to the Nixon administration. They provided me with candid 
advice and invaluable insight into their experiences, both of which I 
will carry with me into the job if I am confirmed. And I am honored 
that several former Legal Advisers and other State Department and 
Executive Branch officials have signed bipartisan letters supporting my 
nomination.
    Before joining USTR, I spent two years as a law clerk and over a 
decade as a lawyer in private practice at Williams & Connolly. Along 
the way, I had the good fortune to be mentored by lawyers who represent 
the very best of the legal profession, both in terms of skill and 
integrity.
    First among them is one of my personal heroes, Justice Anthony 
Kennedy. Justice Kennedy's fairness, personal decency, and concern for 
individual liberty makes him, in my view, one of the towering figures 
in American--and international--law.
    In private practice, I tried commercial and criminal cases in 
federal courts and before international arbitration panels. I learned 
the craft of zealous advocacy, but also the importance of strict 
adherence to the high ethical standards of the profession. I learned 
that a lawyer is only as effective as he is credible and that, quite 
often, a lawyer's most important obligation is to tell the client 
precisely what he does not want to hear. I am proud that 110 of my 
former law partners--who are arrayed across the political spectrum and 
known to many of you--have sent the committee a letter testifying to my 
experience and supporting my nomination.
    For the past two years, my primary task was the negotiation and 
implementation of the USMCA. I was one of the principal negotiators in 
talks with Canada and Mexico, and led the administration's efforts to 
secure congressional passage of the agreement. Working closely with 
your colleagues on the Finance Committee, Senators Grassley and Wyden, 
in addition to many other members on both sides of the aisle, I helped 
design and personally negotiated several of the agreement's most 
important provisions, including the first-of-its-kind rapid response 
labor enforcement mechanism. I worked extensively for over two years 
with labor, environmental, and business groups to bridge differences 
and build a broad base of bipartisan support for the new Agreement. And 
in the end, USMCA passed with 90 percent of members in both the House 
and Senate voting in favor.
    As Legal Adviser, I would have a different focus--to provide legal 
advice to the Department--not to set policy. But you have my commitment 
that I will also make myself available to members of this committee to 
answer your questions and will strive in good faith to support your 
important policy and oversight work. I submit that my record at USTR 
lends credibility to that commitment. I'm proud to have played a part 
in bringing about greater bipartisan consensus in trade policy. I like 
to think that's possible in foreign policy as well. I am certainly 
committed to that goal.
    In closing, I'd like to thank another Kansan, Secretary Pompeo, for 
the confidence he has placed in me, and the President for nominating me 
to this position. I'd like to thank Ambassador Lighthizer--himself an 
honorary Kansan by virtue of his long association with Senator Dole--
for giving me the opportunity to serve under him at USTR, for his 
friendship, and for supporting me--albeit begrudgingly--in what I hope 
is my next job.
    Mostly, I'd like to thank my wife Becca and my two children, 
Eleanor and Patrick, for supporting my desire to serve in government 
and for their love and patience.
    Members of the committee, I thank you again for this opportunity 
and I look forward to your questions.


    The Chairman. Thank you, Mr. Mahoney.
    Mr. Trujillo?

    STATEMENT OF HON. CARLOS TRUJILLO, OF FLORIDA, TO BE AN 
    ASSISTANT SECRETARY OF STATE, WESTERN HEMISPHERE AFFAIRS

    Mr. Trujillo. Thank you, Chairman. Chairman Risch, Ranking 
Member Menendez, and distinguished members, it is an honor to 
be with you today as President Trump's nominee for Assistant 
Secretary of State for the Bureau of Western Hemisphere 
Affairs.
    I am humbled and deeply appreciative for this important 
opportunity. I would like to first take a moment to express my 
gratitude to God for all his blessings in my life. I would also 
like to thank my amazing wife Carmen and my son Carlos who are 
here with me today and our three wonderful children who are 
watching at home, our friends and our family watching from home 
today, and those watching from heaven above. Thank you for your 
love and support.
    I would also like to underscore my deep appreciation to 
this committee and its staff whose diligent work and dedication 
made this hearing possible in view of some very trying times.
    I am also deeply grateful for the trust placed in me by 
President Trump and Secretary of State Pompeo in putting forth 
my nomination. I am proud of the opportunity to have served 
over the course of the last 2 years as Permanent Representative 
of the United States to the Organization of American States.
    I am particularly pleased that the OAS represents an 
organization whose leadership role has been restored and 
revitalized, an institution that is working to live up to and 
preserve the core values and principles whose mission it was 
meant to uphold, the promotion and defense of democracy, the 
respect of human rights, and the development and security 
cooperation on behalf of our citizens. Important institutional 
reforms have also been implemented to place the organization on 
firmer footing with effective measures to enhance oversight and 
accountability.
    But for all these achievements and hard-fought gains, great 
challenges lie before us, and we are reminded each day that the 
promotion and defense of democracy and human rights, economic 
opportunity and security for our region requires constant work 
and dedication to strengthen our regional friendships and 
alliances in securing a future of greater progress, prosperity, 
and good will.
    The Bureau of Western Hemisphere Affairs is at the 
forefront of the Trump administration's agenda to work with our 
hemispheric partners to promote shared security and prosperity, 
promote democratic governance, and more recently, combat the 
COVID-19 pandemic which brings with it new challenges for our 
region and new tests for the resilience of our institutions and 
economic prosperity.
    The President and Secretary are actively engaged in taking 
action to pursue those ends, and if confirmed, I will be firmly 
and tirelessly committed to upholding the United States' 
historic role and leadership to advance these values and common 
interests.
    The Trump administration has overseen a remarkable shift 
toward democratic governance in the hemisphere, but Venezuela, 
Nicaragua, and Cuba unfortunately remain outliers. In 
Venezuela, we are working to support the will of the Venezuelan 
people to seek a peaceful transition to free and fair 
elections. In Nicaragua, we are also calling for free and fair 
democratic elections. We are increasing pressure on the Castro 
regime to constrict internal repressive capabilities and to 
stop its interference in other countries.
    Our economic engagement with the hemisphere is robust and 
reflects our interests in remaining the partner of choice for 
our region. U.S. companies have invested over $350 billion in 
Latin America and $400 billion in Canada. U.S. goods and 
service trade with the western hemisphere totals nearly $2 
trillion annually.
    In 2019, the United States came together with Mexico and 
Canada to replace NAFTA with the United States-Mexico-Canada 
Agreement. In December, the White House expanded the Growth in 
the Americas, or America Crece initiative.
    The U.S. International Development Finance Corporation is a 
critical tool for our prosperity efforts. We expect the DFC to 
leverage at least $12 billion worth of investment in the 
region.
    Our initiatives provide the framework for the 
administration's ability to respond strategically to second and 
third order effects of the COVID-19 pandemic.
    We are also working to counter the malign and undemocratic 
influences of China and Russia in the western hemisphere. Our 
approach emphasizes U.S. comparative advantage in economics and 
security, as well as our shared democratic values with our 
partners in the region.
    In closing, I wish to underscore my firm commitment to the 
importance of working together closely with this committee, in 
a spirit of cooperation and common purpose, as we work to 
advance a foreign policy rooted in a shared vision, a vision of 
a region of shared heritage, dedication, and sacrifice in the 
universal struggle for and faith in the values of liberty, and 
an abiding conviction, courage, and determination to secure the 
human fulfillment of the hopes and aspirations for a great 
democratic future for all of our people.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Trujillo follows:]


               Prepared Statement of Hon. Carlos Trujillo

    Chairman Risch, Ranking Member Menendez, and distinguished members, 
it is an honor to be with you today as President Trump's nominee for 
Assistant Secretary of State for the Bureau of Western Hemisphere 
Affairs.
    I am humbled and deeply appreciative for this important 
opportunity. I would like to first take a moment to express my 
gratitude to God for all His blessings in my life. I would also like to 
thank my amazing wife Carmen, our four wonderful children, and our 
friends and family watching from home today for their love and support. 
I would also like to underscore my deep appreciation to this committee 
and its Staff members whose diligent work and dedication made this 
hearing possible in view of these very trying times and extraordinary 
circumstances.
    I am also deeply grateful for the trust placed in me by President 
Trump and Secretary of State Pompeo in putting forth my nomination, and 
proud of the opportunity to have served over the course of the last two 
years as Permanent Representative of the United States to the 
Organization of American States (OAS).
    It has been the greatest honor of my life to serve our great nation 
and the American people and work to build and strengthen the strong 
bonds of friendship which today unite us with our democratic partners 
throughout our hemisphere.
    I am particularly pleased that the OAS today represents an 
organization whose leadership role has been restored and revitalized, 
an institution that is working to live up to and preserve the core 
values and principles whose mission it is meant to uphold--the 
promotion and defense of democracy, respect for human rights, and 
development and security cooperation on behalf of our citizens. 
Important institutional reforms have also been implemented to place the 
organization on firmer footing with effective measures to enhance 
oversight and accountability.
    We have made significant progress in strengthening democratic 
institutions and support for the work of the Inter-American Commission 
on Human Rights, and the leadership exercised by the OAS in giving 
voice to the oppressed people of Venezuela, Cuba and Nicaragua, marks a 
critical and historic milestone for the organization in its fundamental 
responsibility to stand up against dictatorships and make real the 
promise of the Inter-American Democratic Charter for all the peoples of 
the Americas. This is multilateralism that works.
    But for all of these achievements and hard fought gains, great 
challenges lay before us, and we are reminded each day that the 
promotion and defense of democracy and human rights, economic 
opportunity and the security of our region requires constant work and 
dedication to strengthen our regional friendships and alliances in 
securing a future of greater progress, prosperity, and good will.
    The Bureau of Western Hemisphere Affairs is at the forefront of the 
Trump administration's agenda to work with our hemispheric partners to 
promote shared security and prosperity, promote democratic governance, 
and, more recently, combat the COVID-19 pandemic--which brings with it 
new challenges for our region and new tests for the resiliency of our 
institutions and economic prosperity. This in turn calls for concerted 
regional action.
    The President and the Secretary are actively engaged in and taking 
action to pursue those ends, and we are seeing results in our policy on 
what the Secretary calls the ``Hemisphere of Freedom.'' I pledge, that 
if confirmed, I will be firmly and tirelessly committed to uphold the 
United States' historic role and leadership to advance these shared 
values and common interests.
      expanding respect for democracy in the hemisphere of freedom
    The Trump administration has overseen a remarkable shift toward 
democratic governance in the hemisphere, but Venezuela, Nicaragua and 
Cuba remain outliers. In Venezuela we are supporting the will of the 
Venezuelan people by seeking a peaceful transition to free and fair 
elections. In a display of regional solidarity, we the Lima Group and 
the OAS came out among Guaid"'s first supporters in January 2019 and 
saw the first invocation of the Rio Treaty since September 11, 2001.
    The states that are party to the Rio Treaty have approved 
resolutions that address the former Maduro regime's threat to regional 
peace, stability and security in Venezuela and the region.
    Our goal is to leverage the Rio Treaty mechanism to coordinate 
peaceful regional action such as multilateral economic sanctions, visa 
restrictions, and diplomatic pressure to support the restoration of 
democracy in Venezuela. At the same time as this regional mechanism 
moves forward, we will continue to provide bilateral support to address 
Venezuela's humanitarian crisis. To that end, we have committed $856 
million in U.S. assistance.
    In Nicaragua, we are also calling for free and fair elections. We 
stepped up diplomatic pressure and increased sanctions on the Ortega 
regime, its repressors, and corrupt enablers to push for conditions for 
free and fair elections and respect for human rights, and we will 
continue to press for continued engagement by the OAS. Our pressure and 
diplomatic campaigns are ongoing.
    Cuba actively undermines democracy in the region by exporting 
dictatorship, committing human rights abuses, trafficking in medical 
workers, and abusing opposition figures. We are increasing pressure on 
the Castro regime to constrict internal repressive capabilities and 
stop its interference in other countries by restricting key sources of 
revenue, including foreign investment, travel to the island, and the 
Cuban medical missions program.
                         increasing prosperity
    In keeping with our commitment to democracy and prosperity in the 
region, we look forward to free, fair, and transparent elections in 
Bolivia--with international observation, including the OAS--that 
reflect the will of the Bolivian people.
    If confirmed, I would also look forward to working with the Haitian 
Government to meet the needs of the Haitian people by urgently 
addressing public security, restarting economic growth, and organizing 
free, fair, and credible legislative elections as soon as technically 
feasible.
    More broadly, in the Caribbean, I believe it is important that we 
build on Secretary Pompeo's message during his visit to Kingston, 
Jamaica earlier this year in which he underscored the United States' 
commitment to work together to build closer ties and strengthen our 
bonds of friendship and cooperation. It is important also to recognize 
the important role of key Caribbean countries in the successful 
reelection of OAS Secretary General Luis Almagro to secure strong 
leadership for the organization.
    In addition, if confirmed, I would ensure all necessary capacity of 
the Bureau of Western Hemisphere Affairs is available to support the 
White House in hosting a successful Summit of the Americas in 2021, as 
announced by Vice President Pence at the Summit in Lima in 2018. 
Serving as Summit host provides opportunity for the United States to 
work closely with our democratic partners to set a constructive and 
productive hemispheric agenda moving forward.
    The United States continues to work with the democratic governments 
and institutions of the Americas to realize the promise of the Lima 
Commitment--adopted at the 2018 Summit--and to enhance the ability of 
civil society to monitor governments' implementation of their 
anticorruption commitments.
    Our work to reduce corruption is vital to our vision of a 
hemisphere of freedom, and the United States remains committed to 
combatting corruption in the Western Hemisphere and to the promotion of 
integrity, transparency, and accountability.
    Corruption erodes the foundations of a stable, prosperous, and 
well-governed societies. Combatting corruption and impunity is key to 
upholding democracy, improving civilian security, and establishing the 
enabling economic environment to create jobs and erode the influence of 
transnational criminal organizations.
    Our economic engagement with the hemisphere is robust and reflects 
our interest in remaining the partner of choice with our neighbors.
    U.S. companies have invested $350 billion in Latin America and $400 
billion in Canada. U.S. goods and services trade with the Western 
Hemisphere totals nearly $2 trillion annually.
    In 2019, the United States came together with Mexico and Canada to 
replace NAFTA with the United States-Mexico-Canada Agreement (USMCA), 
which will increase middle-class jobs in manufacturing, agriculture, 
and digital trade, while bolstering North America's competitiveness as 
a global economic powerhouse.
    In December, the White House expanded the Growth in the Americas or 
America Crece initiative, which seeks to foster economic growth by 
catalyzing private sector investment in energy and other infrastructure 
across Latin America and the Caribbean. To date, we have signed MOUs 
with eight partner countries: Panama, Chile, Jamaica, Argentina, 
Colombia, and most recently El Salvador, Ecuador, and Brazil.
    The U.S. International Development Finance Corporation (DFC) is a 
critical tool for our prosperity efforts. We expect the DFC to leverage 
at least $12 billion worth of investment in the region. We are working 
to create the economic environment in the region to leverage DFC 
investment.
    All these initiatives also provide the framework for the 
administration's ability to respond strategically to the second and 
third order effects of the COVID-19 pandemic. We will continue to be 
the partner of choice in helping the region overcome this challenge, as 
well.
         combatting illegal immigration and promoting security
    The administration is working closely with our Mexican and Central 
American partners to secure the U.S. southern border and combat illegal 
immigration into the United States.
    The U.S.-Mexico Joint Declaration was signed June 7, 2019, to 
address the shared challenges of irregular migration, especially the 
large numbers of immigrants seeking to enter the United States 
illegally. As part of its commitments, Mexico deployed its National 
Guard to enforce its borders. Mexico also agreed to support the 
expansion of the Migrant Protection Protocols across our shared border.
    In 2019, the United States secured significantly greater 
cooperation from El Salvador, Guatemala, and Honduras in addressing the 
humanitarian and security crisis at the U.S. southern border. That 
collaboration included the signing of multiple agreements and 
arrangements to enhance cooperation on border security, expand 
information sharing, promote access to legal temporary employment in 
the United States, and improve asylum capacities to help protect 
vulnerable populations.
    As a result of these joint, regional efforts, we achieved a 77 
percent decrease in the number of irregular migrants arriving at the 
U.S. southern border from May 2019 to June 2020.
    In response to these increased efforts by Central American 
governments, the administration resumed targeted assistance this spring 
for El Salvador, Guatemala, and Honduras. Assuming such cooperation 
continues, the administration intends to continue distributing 
additional assistance.
    The administration and the Bureau of Western Hemisphere Affairs 
will continue working to address border security as well as other 
security threats in the region, including transnational criminal 
organizations in Mexico and Central America.
    Assistance programs in the region such as the Caribbean Basin 
Security Initiative, Merida in Mexico and our security partnership with 
Colombia combine security and development to enhance partner capacity 
and deny Transnational Criminal Organizations (TCOs) permissive 
environments.
    The administration's approach is grounded in encouraging adoption 
of a shared responsibility for addressing security challenges and 
requires demonstrable political will from our partners.
                      countering malign influences
    We are also working to counter the malign, undemocratic influences 
of China and Russia in the Western Hemisphere. Our approach emphasizes 
U.S. comparative advantages in economics and security, as well as our 
shared democratic values with our partners in the region. We must also 
continue to ensure international space for our democratic partner 
Taiwan in our hemisphere. Indeed, the Western Hemisphere is home to 
nine of Taiwan's remaining diplomatic partners.
                                closing
    I have had the privilege to work closely with my colleagues in the 
Bureau of Western Hemisphere Affairs. I have been proud to be part of 
this team and, if confirmed, I look forward to leading the team in 
further advancing the Trump administration's agenda for the Americas.
    I also wish to underscore my firm commitment to the importance of 
working together closely with this committee, in a spirit of 
cooperation and common purpose, as we work to advance a foreign policy 
rooted in a shared vision--a vision of a region of shared heritage, 
dedication and sacrifice in the universal struggle for and faith in the 
values of liberty, united in peace and prosperity, whose governments 
honor, guarantee and respect the fundamental freedoms and human dignity 
of each individual, and an abiding conviction, courage and 
determination to secure the human fulfillment of the hopes and 
aspirations for a greater democratic future for all of our peoples. 
Thank you for your time today.
    I am happy to answer your questions.


    The Chairman.  Thank you much.
    We will now do a round of questioning, and I am going to 
start briefly with Mr. Billingslea.
    First of all, thank you for taking the time previously to 
meet with this committee in a classified setting to talk about 
arms negotiations. And I agree with the ranking member that we 
are not spending enough time on policy but way more time than 
we should on confirmations. But in my judgment, it is obviously 
important that we get a government stood up.
    Having said that, we are where we are, and I think every 
member of this committee is deeply, deeply committed to having 
successful negotiations with our adversaries when it comes to 
arms control.
    Ten years ago, we sat here and went through this as New 
START was negotiated. A lot of us had issues with it, still do. 
A lot of us had issues with the entity on the other side that 
we were negotiating with and still do.
    But the game has changed and it has changed dramatically. 
This is a seasoned relationship that regardless of what the 
treaty says, has aspects that are in all likelihood going to 
prevent us from having an accident where we get into it with 
the Russians.
    Unfortunately, we are now in a position where another near-
peer contender is on the scene, and that is China. And they 
are--as you have indicated and I think as people acknowledge 
and the Chinese themselves acknowledge, they just simply are 
not interested in doing these kinds of negotiations. We know 
that when you are talking about really these existential 
issues, that we need understandings and agreements and 
negotiations with the adversaries.
    So, again, I do not want to dwell on this, but I would 
appreciate it if you could give us your thoughts on the fact 
that this is probably going to be bilateral as opposed to 
trilateral and what we can do to try to encourage to get to 
eventually a trilateral position. I think we would be better 
off if we had a better good faith partner than we do with the 
New START treaty. But nonetheless, we are where we are. So your 
thoughts please, Mr. Billingslea.
    Mr. Billingslea. Thank you, Chairman.
    As you point out, a lot has changed in the previous decade 
since the negotiation of the New START treaty. There were some 
things known at the time and things that could have been 
foreseen, and then there were a large number of things that 
could not have been foreseen as our negotiators were hammering 
out the details of the New START treaty.
    I think one of the things that could not have been foreseen 
would be that just 3 years after the Senate acted on that 
treaty, President Putin began his campaign to seize Crimea, to 
invade and destabilize Ukraine. And then we saw a string of 
malign Russian activities erupt across the globe, including 
manipulation of our elections, meddling in Venezuela to prop up 
Maduro, support for the Assad regime and its barbaric chemical 
attacks against the Syrian people, and the litany just goes on 
and on, the Skripal attack in broad daylight using the novichok 
nerve agent.
    When the Soviet Union invaded Afghanistan, that effectively 
derailed the SALT II treaty. If Putin had acted 3 years 
earlier, I am sure it would have had implications for 
consideration of New START.
    We also have now learned that the Russian Government was 
plotting systemically to violate the INF Treaty for more than a 
decade, and that they were developing novel doomsday systems 
that are designed not to be captured by the New START treaty 
limits.
    So these are examples of things that do influence the 
security environment, and some of the particulars of what we 
need to negotiate bilaterally with the Russians.
    But the other thing that could not have been foreseen or 
was not foreseen at the time would be what we now know is a 
secretive and unconstrained Chinese buildup of its nuclear 
arsenal. And as you say, that means in effect that we have to 
modernize our approach to nuclear arms control to cover, in 
effect, an emerging trilateral dynamic. And so while I do agree 
that probably we will see progress in bilateral channels, 
perhaps certainly with the Russians I think and perhaps 
bilaterally with the Chinese, those paths ultimately need to 
converge, and they need to converge in the direction of a 
trilateral arms control arrangement that brings back many of 
the most effective verification mechanisms that we once had 
under the original START treaty and which also address the 
unconstrained warheads that Russia is now building, not just 
the novel doomsday systems but a whole manner of battlefield 
type nuclear weapons which it doctrinally would plan to use in 
a first-use scenario against our NATO allies.
    So these are the three key pillars of how we are 
approaching the negotiations.
    Later this afternoon, I will be talking with the heads of 
our delegations, three different working groups, who will 
shortly be headed to Vienna to undertake the detailed 
discussions with the Russians on these matters and on the 
matter of space and weaponization of space, which is another 
major issue of concern.
    And then separately, I still hold out hope that the Chinese 
will come to the negotiating table. I think it is in their best 
interest to do so, but in the interim, we will certainly 
continue to highlight the alarming number of activities in 
which they are engaged.
    The Chairman. Thank you, Mr. Billingslea.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me ask all three of you, and I ask you to answer 
quickly a yes or no to the following two questions.
    If confirmed, do you commit to making yourself available to 
members of the committee and staff to answer questions and 
engage on matters of substance in an open and timely fashion?
    Mr. Billingslea. Yes.
    Mr. Mahoney. Yes.
    Mr. Trujillo. Yes.
    Senator Menendez. There has been a concerning trend under 
this administration of attacking and retaliating against career 
public servants, particularly at the State Department. Some 
have been reassigned based on assumptions about their political 
affiliation or national origin. Others have been labeled, 
``disloyal.'' Some have been called out publicly as ``radical 
unelected bureaucrats'' by senior administration officials.
    As someone who has spent his entire congressional career 
doing foreign policy, I cannot think of anything that is more 
cancerous for the Department or career employees across the 
Government.
    If confirmed, do you commit to making clear to all the 
employees under your authority that any retaliation, black-
listing, or other prohibited personnel practices will not be 
tolerated?
    Mr. Billingslea. I do.
    Mr. Mahoney. I do.
    Mr. Trujillo. I do, Senator.
    Senator Menendez. Thank you.
    Now, Mr. Mahoney, I have great respect for the Legal 
Adviser's Office. I am also impressed by your legal resume. And 
while you may not seem to be experienced on the issues that 
will be front and center at your role at State, if confirmed, I 
suspect you will be a quick study. So let me ask you a few 
questions.
    I understand that when you met with my staff, you 
emphasized a willingness to engage with the committee, and I 
appreciate that. I am submitting for the record a letter I sent 
to the Secretary last month outlining more than 60 requests 
that the Department has failed to fully respond to.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Menendez. Many of those were on issues of a legal 
nature that your office would be involved in. And I want to 
make clear that this list of outstanding requests is not what 
engagement looks like, and I expect to hold you to your 
commitment.
    Let me flag two issues specifically.
    First, as you know, the administration has refused for 
almost a year to provide this committee with copies of all of 
the agreements, arrangements, and associated documents that it 
has negotiated with Mexico and the Northern Triangle. There is 
no legal or policy basis to block Congress or the public from 
these materials. The administration is simply trying to hide 
them. So I am going to continue to pursue this matter, and if 
confirmed, I would expect you to work with me and my staff to 
get the documents before the committee.
    Second, what is your reaction to the fact that the 
Department has not produced a single document related to the 
decision to withhold U.S. security assistance to Ukraine, which 
jeopardized critical funds to counter Kremlin aggression, but 
the Department quickly handed over thousands of pages related 
to requests about Vice President Biden and unsupported theories 
about Ukrainian interference in U.S. elections?
    Mr. Mahoney. Senator, I obviously was not involved in any 
of those decisions, but I will tell you I do not think 
oversight matters ought to be handled in a partisan way. I do 
not think that the committee or the party affiliation of the 
chairman should influence how those matters are handled.
    Now, obviously, as you know from having served in this body 
and in the House for many years, disagreements between the 
executive and legislative branches on document production are 
not infrequent. But I can give you my commitment that to the 
extent I am involved in these matters, I will do so in an 
evenhanded way. I will try to work with you and your staff in 
good faith to reach accommodations that get you the information 
that you need to perform your important policy and oversight 
work.
    Senator Menendez. Okay. I appreciate that answer.
    I understand there are always disagreements, but these are 
60 requests from this committee, longstanding.
    Do you think it is appropriate executive branch 
responsiveness to Congress to deny virtually on all occasions 
the requests for documents and information?
    Mr. Mahoney. Senator, because I have not been involved in 
this, I do not want to characterize the position.
    Now, what you just said, is it appropriate to reflexively 
deny all requests, no, that is not appropriate. And that would 
not be the tack that I would take.
    Senator Menendez. Let me ask you this. Do you commit to 
review any future release of documents where the Department 
intends to hand over documents to one party but not the other?
    Mr. Mahoney. Senator, I am not sure I understand the 
question.
    Senator Menendez. So we have had situations where it seems 
that one party can get documents from the Department but 
another party cannot. Do you commit to review any future 
release of documents where the Department intends to hand over 
the documents to one party but not the other?
    Mr. Mahoney. Senator, I commit to handling all these things 
in an evenhanded fashion without regard to party.
    Senator Menendez. Well, something is clearly amiss because 
responsiveness to Congress means all of Congress, not one 
party, not just certain chairmen, and not just to further the 
President's chosen political narratives. As Legal Adviser under 
the Secretary, you will be on the hook to make sure that the 
State Department is not weaponized in support of the 
President's reelection more than it has already been. And I 
hope that you will be up to that task.
    As is well documented, Secretary Pompeo played a key role 
in the Trump Ukraine scandal, including listening in on the 
infamous quid pro quo call between Trump and President 
Zelensky.
    More recently, the Secretary was involved in the firing of 
State Department Inspector General Linick. At the time of the 
firing, the Secretary was under investigation by the Inspector 
General.
    Despite his personal involvement in each of those episodes, 
the Secretary did not recuse himself from congressional 
investigations into these matters.
    Does that comport with your view of good government?
    Mr. Mahoney. Senator, the question of whether recusals are 
merited is obviously fact-specific. I am aware of both of those 
instances. I understand your interest in them.
    My view is that going forward, we should work with the 
Congress to try to get you answers to your questions, to the 
extent that that is possible, in a manner that is consistent 
with Department policy and due respect for executive branch 
equities.
    Senator Menendez. I am not even asking you for a legal 
opinion. I am asking you from a common sense perspective. Is 
sometimes the appearance of conflict not equally as important 
as the conflict itself?
    Mr. Mahoney. I would agree with that, Senator. I think you 
always need to be concerned with the appearance of conflict in 
any situation where judgments might be called into question.
    Senator Menendez. Let me ask you this. The role of Legal 
Adviser is somewhat unique in our government. If confirmed, you 
will not just be the general counsel for the State Department, 
you will also be the chief international legal diplomat for the 
United States. I am interested in how you plan to approach the 
second role, which requires respect for both domestic and 
international law, as well as for the rule of law generally. 
What will be your priorities in this area, and how do you 
expect to accomplish them given the reality of a President 
that, from my perspective, subverts the rule of law at home and 
abroad in light of the way we have engaged with the rest of the 
world and what we are seeing happening in Portland and other 
places? How do you envision your ability to deal in that 
reality, and what are going to be your priorities in this 
regard?
    Mr. Mahoney. Senator, I think it is very important that the 
United States adhere to its international law obligations. That 
is one of the key tasks of the Legal Adviser and that is 
something that I would take quite seriously.
    There are a number of issues that the office is dealing 
with right now with regard--a number of human rights issues 
with regard to China, for example, as well as implementing 
recent legislation on Hong Kong. That would be a priority for 
me.
    There are ongoing discussions about international law as it 
applies to space, as well as to cyber. That is something else 
that I would be interested in.
    But, Senator, the most important thing, as I see it, for 
the Legal Adviser to do is to offer honest professional advice 
on all of the topics that reach the Secretary, and that for me 
will be my first and foremost priority.
    Senator Menendez. And then finally, Mr. Chairman, I do not 
have any idea what my time is. This keeps moving around.
    The Chairman. It is a real benefit for you.
    [Laughter.]
    Senator Menendez. I am really appreciative of you 
continuously giving me 5 minutes.
    The Chairman. It is part of the chairman's generosity.
    Senator Menendez. To my colleagues, I will just finish with 
Mr. Mahoney on this line of questions, and then I will reserve 
my questions for the other candidates when everyone else goes 
through.
    I would like to get a series of commitments from you, if I 
can, Mr. Mahoney. Either a yes or no will do.
    If you are confirmed, do you commit not to influence, 
interfere with, or seek to stop any ongoing Inspector General 
investigation into the Department or the Secretary?
    Mr. Mahoney. Yes, I commit to that.
    Senator Menendez. Do you commit to give your best objective 
legal advice, as informed by the facts and the law independent 
of political or electoral consequences?
    Mr. Mahoney. Absolutely, Senator.
    Senator Menendez. Do you commit to do so even if it puts 
you at odds with the Secretary or the President?
    Mr. Mahoney. Senator, I think that that is the duty of 
every attorney. Yes.
    Senator Menendez. Do you commit to formally recommend 
against taking any action that you believe will violate the 
law, even if it means disagreeing with the President or the 
Secretary?
    Mr. Mahoney. Yes.
    Senator Menendez. If you are in such a moment--I hope you 
are not--but if you are in such a moment, will you write a memo 
outlining your objection?
    Mr. Mahoney. Senator, I do not want to speculate on exactly 
how I would handle that situation. But I am not going to do 
anything that I think is illegal. I am not going to do anything 
that is immoral. I believe that I can serve well and honorably 
in this position, and that is what I intend to do.
    Senator Menendez. Do you commit to report to proper 
authorities, including the FBI Inspector General and Congress, 
any credible allegations of foreign interference in U.S. 
elections?
    Mr. Mahoney. Yes.
    Senator Menendez. And finally, do you commit to report to 
proper authorities, including the FBI Inspector General and 
Congress, any attempts by foreign or private individuals to 
improperly influence U.S. foreign policy, particularly if you 
have reason to believe those efforts are adverse to U.S. 
interests?
    Mr. Mahoney. Yes.
    Senator Menendez. All right, Mr. Chairman. Thank you for 
your answers.
    The Chairman. Thank you.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing today, and I want to thank my 
colleagues for being here. This is important; this is one of 
our responsibilities. We talked earlier about what this 
committee is supposed to be doing. One of those things is 
ensuring that well qualified candidates have the opportunity to 
serve their country, particularly at the State Department. The 
Department of State is understaffed, and they need help. I am 
glad that these three individuals have chosen to step up and 
serve. All three of these men are highly qualified and have 
been waiting a long, long time for this hearing. We have got to 
be sure that we are addressing this backlog. Again, I 
appreciate my colleagues being here, from both sides of the 
aisle, and I thank the chairman for holding this hearing.
    I have a letter regarding C.J. Mahoney. Some of you have 
seen it. It is a letter of recommendation, a bipartisan tribute 
to C.J. signed by former USTR and State Department officials 
who served in the George H.W. Bush, Clinton, G.W. Bush, and 
Obama administrations. I would ask, Mr. Chairman, unanimous 
consent that this be part of the record.
    The Chairman. It will be included.


    [The material referred to above is located at the end of 
this hearing transcript.]


    Senator Portman. I have some perspective on C.J.'s 
background. He served at the State Department Legal Adviser's 
Office back when I was in law school, and then some 22 or so 
years later as U.S. Trade Representative. His most recent job 
was being deputy there, and he did a great job on USMCA and 
other matters, as has been said.
    As our colleagues have said during the introductions of 
C.J., he is particularly well suited for this role. His 
background, his experience, his accomplishments, his intellect, 
his judgment, and I would say his temperament and bipartisan 
approach that we have seen even today is important. So let us 
be sure and move quickly on this nomination, as well as the 
other two that I plan to support today because, again, we want 
these good people to be in place helping our country at this 
time.
    C.J., my question to you is about the ICC. The 
International Criminal Court has made a recent decision to 
investigate Israel for alleged crimes in the West Bank and also 
in Jerusalem, also in Gaza. And as you know, Israel is not even 
a signatory to the Rome Statute.
    Second, the ICC has no jurisdiction over disputed 
territory, has not in the past, and under its own rules, can 
only initiate actions that are brought by states, and this 
action was brought by the Palestinian Authority, not a state.
    I have worked with my colleague, Ben Cardin, who is here 
today, to put together a letter to your future boss I hope, 
Secretary Pompeo, on this issue. By the way, it received 
enormous bipartisan support. Sixty-seven of our colleagues 
signed the letter, including I think all members of this 
committee who are here today.
    I ask you about this because to me this is an example not 
just of them not following the rules at the ICC, it is being 
politicized, and the politicization of the ICC has been a 
concern in Republican and Democrat administrations alike. 
Frankly, that is why we have not joined.
    What about the ICC's recent decision to pursue an 
investigation into war crimes against U.S. and allied troops 
for actions in Afghanistan, again even though the United States 
in this case is not even a signatory to the Rome Statute.
    So if confirmed, do you pledge to continue to push back 
against these efforts by the ICC to expand its legal mandate 
and to protect the United States and its troops and our allies 
from politically motivated prosecutions?
    Mr. Mahoney. Absolutely, Senator.
    Senator Portman. I appreciate that.
    Ambassador Trujillo, we have been hard hit by this opioid 
epidemic in my home state of Ohio--and around the country. A 
number of us on the committee have focused on this issue. 
Unfortunately, what we are seeing right now with the 
coronavirus pandemic is more drug addiction, more overdoses, 
more overdose deaths--and this is troubling. It is partly 
because of the isolation and also partly because of the lack of 
access to treatment, at least face to face.
    The DEA just came out with their most recent threat 
assessment, saying that meth, crystal meth, cocaine, heroin are 
all predominantly produced in the areas you are going to have 
jurisdiction over, Central America, South America, and smuggled 
into the U.S.
    They have also made the point that the deadliest opioid, 
fentanyl, is increasingly coming in over our southern border.
    We have a role here at the State Department to crack down 
on this transnational, criminal organization activity. What do 
you plan to do in your new job to cut down on this drug 
trafficking across our border? Specifically, what do you plan 
to do and will this be part of what you view as your mission in 
this new job?
    Mr. Trujillo. Thank you, Senator, for the question.
    Absolutely, I think the forefront of our mission is keeping 
Americans safe. I agree with you that fentanyl is by far the 
most deadly. A lot of those precursor chemicals, unfortunately, 
are coming from China. It would be my responsibility, if 
confirmed by this committee, by the Senate, of working with our 
Mexican counterparts to identify those precursor criminals to 
disrupt those transnational criminal organizations and working 
with some of the tools we have in place through INL and other 
law enforcement agencies to make sure that we keep those drugs 
off of our American streets.
    Senator Portman. Thank you. I hope you will make that a 
personal commitment and a passion in this job because I think 
there is a great opportunity for us to do more working with DHS 
and the State Department.
    One final question, if I could, Mr. Chairman. Ambassador 
Billingslea, there are so many issues to talk to you about but 
one would be hypersonic weapons. You might know that in the 
NDAA, the legislation currently before us in the Senate, we 
have language--Senator Brown and I--to increase the need for 
hypersonic testing facilities to include non-DOD facilities. 
There is one in Ohio called Plum Brook that is ideally situated 
to help.
    But what do you think about hypersonic weapons? What are 
our adversaries' capabilities here? I hear some things that, 
frankly, are very concerning. And what can we do to ensure that 
we are ready to meet the global challenge of hypersonic weapon 
competition?
    Mr. Billingslea. Thank you, Senator. You are putting your 
finger on one of the new emerging technologies that is going to 
redefine both our conventional strike capabilities, as well as 
ultimately the nuclear deterrent forces at least with the 
Russians and possibly the Chinese.
    I would say without having looked at the specifics of your 
legislation, we have an urgent need to robustly test a number 
of emerging hypersonic glide vehicle technologies that are 
coming online both with the Army, the Navy, and potentially 
even the Air Force. We are, I think it is fair to say, behind 
when it comes to the Chinese testing program in particular. And 
the Russians have actually already deployed two nuclear 
hypersonic weapons on their heavy ICBMs, and I expect more to 
come as the Russians bring online an even larger ICBM called 
the Sarmat where they will be able to hang multiple of these 
weapons on them.
    Hypersonics offer a number of advantages. The United States 
I do not believe is pursuing nuclear weapons in that respect, 
but conventional armed hypersonics. And these will be I think 
important equalizers for us particularly in the Asia-Pacific 
region.
    Senator Portman. Thank you. We will get you the language of 
that amendment, and I appreciate your commitment to ensuring we 
can stay up with the competition.
    The Chairman. Thank you, Senator Portman.
    The clock has now been fixed. So we are off the honor 
system and back on the clock.
    [Laughter.]
    The Chairman. Senator Cardin?
    Senator Cardin. It seems like we should equalize the same 
number on each side.
    The Chairman. You will find the chairman very generous in 
this regard.
    Senator Cardin. Thank you, Mr. Chairman.
    And let me thank all three of our nominees for their 
willingness to serve our country.
    Let me thank Senator Portman for raising the ICC issue, and 
Mr. Mahoney, thank you for your response.
    Mr. Mahoney, I want to follow up on Senator Menendez's 
point. I am very impressed by your resume and your responses. 
It is exactly what I think we want to hear. Senator Menendez 
was concentrating on response to requests from Congress.
    I want to talk a little bit about the advantage we have in 
America because of the independent branches of government. And 
it is particularly important on foreign policy, where we 
generally have the same objectives in foreign policy, the 
legislative branch and the executive branch. And we have been 
able to use the independence to advance U.S. values globally 
because the administration rightly points out to our allies 
that Congress is independent and, therefore, what Congress is 
demanding the administration needs to deliver. And that has 
been important on human rights. It has been important on a lot 
of other issues with strategic partners where we have to have a 
relationship and Congress can push that relationship to support 
our values. That is why it is critically important that we get 
the information we need to be a constructive partner.
    And Senator Menendez is talking about response to 
information, which is an important part. I want to talk about 
involving us. Under both Democratic and Republican chairmen of 
this committee, we have gotten advance notices of information 
that is important for us to understand to calculate in order to 
represent America by our representation in the Senate. I recall 
specifically the Iran Nuclear Agreement--not necessarily a 
noncontroversial agreement--where we had partisan differences 
on that agreement. The prior administration gave all of us, 
regardless of party, in-depth information so that we understood 
the dynamics and could reinforce American values. That was 
critically important.
    Today we are asking you questions because we find out 
through the news media not through the type of transparency 
that should be involved in both branches that want to advance 
the interests of the United States. And I see you are 
responding in a favorable way. I just really want to make that 
point and hope that you will be a voice within the 
administration that recognizes that value in American democracy 
that we add to the global community and that we can get you, as 
an advocate, to say ``keep Congress involved. We are all on the 
same team.''
    Your response.
    Mr. Mahoney. Well, Senator, as you noted from my nodding, I 
agree with, I think, everything that you said, and I would note 
a couple things.
    Number one, as someone who is kind of an amateur student of 
history, I look back fondly at the work that was done in the 
aftermath of the Second World War by General Marshall, 
Secretary Acheson, and Senator Vandenberg, the former chairman 
of this committee, to try to craft a bipartisan foreign policy. 
I think that our posture in the Cold War was much stronger as a 
result of that. I would like to get back to that.
    All I can offer you to bolster that commitment is my record 
at USTR where we have worked--and I personally--I probably 
spent more time with Democratic Members of Congress----
    Senator Cardin. It is a good example. I benefited from that 
experience, and the agreement was much stronger and it did 
include a lot of priorities of our country.
    I would just urge you to recognize that we need to have the 
information in a timely way, and you have to make that 
available. You are legally obligated, I think, to do it, but it 
just does not make sense to do it any other way than that. So I 
hope you will be a strong voice in that regard.
    Mr. Trujillo, I want to first thank you for your work at 
OAS. One of the advantages we have in the OSCE is that we do 
have robust legislative participation, and because they are 
independent branches, we can leverage that within the OSCE for 
greater effectiveness of America's interests. We want to do the 
same in OAS, and I thank you for your help. We have legislation 
that is moving through here, and I hope that under your new 
title, you will help us in getting that legislation and 
implementing that legislation to the finish line.
    I want to mention one other issue if I might, and that is 
the Caribbean nations. There are a lot of Caribbean nations. 
They each get a vote in the United Nations. There is outside 
interests outside of our hemisphere and influencing the 
Caribbean states. Is it not time that we reevaluate our 
commitment to the Caribbean states and have a stronger strategy 
to try to get more friends among those island states than we 
have today?
    Mr. Trujillo. Thank you, Senator, for your question.
    I completely agree. Throughout my time at the OAS, one of 
the efforts I have undertaken is working with the Caribbean 
countries. For the election of Secretary-General Almagro which 
took place just 3 months ago, almost half the Caribbean 
countries supported us in those efforts. When it comes to 
Venezuela or Nicaragua, we are seeing an increased support from 
the Caribbean. And they are also a great security partner with 
the Caribbean Basin Security Initiative. So if confirmed, I 
will definitely continue to work with the Caribbean and some of 
the resiliency challenges they face, some of the correspondent 
banking challenges they face, and also some of the economic 
development changes that they will face post COVID.
    Senator Cardin. And it would be nice to have a closer ally 
in the United Nations on some of those votes with the Caribbean 
states than they are doing now. I think that is an area that we 
have not pushed hard enough to get stronger global support from 
some of our closest neighboring states.
    Mr. Trujillo. I agree. We have St. Kitts and Nevis, St. 
Vincent and the Grenadines, and St. Lucia who all recognize 
Taiwan. And they are very good partners when it comes to human 
rights issues and other issues, and we should continue to work 
with them.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Billingslea, thank you for the briefing that you did 
with a number of us prior to your trip overseas. Thanks for 
visiting with me when you got back.
    I just have a couple questions on a couple of different 
things.
    Iran arms embargo. Under the 2015 nuclear deal with Iran, 
the Obama administration agreed to lift the U.N. arms embargo 
on Iran after a number of years, after 5 years. U.N. 
restrictions on the export and import of conventional weapons 
to Iran are set to expire October 18th of this year, coming up 
now in the next couple of months. The international community 
giving Iran the green light to purchase advanced weapons, 
transfer weapons to terrorists I believe threatens the security 
of not just the United States but our allies and folks around 
the world.
    Brian Hook, who is the U.S. Special Representative to Iran, 
correctly explained that we are risking Iran becoming the arms 
dealer of choice for rogue regimes and terrorist organizations 
around the world. And the Trump administration is working on a 
new U.N. Security Council resolution to extend the arms embargo 
on Iran and do it indefinitely.
    Given Iran's increasing aggression, what are the risks of 
failing to extend the U.N. arms embargo and export ban, and how 
do you recommend the United States respond if these 
international restrictions are lifted?
    Mr. Billingslea. Senator, you are highlighting an emerging 
existential threat to the United States with the potential 
expiration of the U.N. arms embargo on Iran. That is of the 
highest priority for the Secretary. He has made clear that the 
embargo must be extended and that things such as snapback of 
the sanctions are legally available to this administration 
under the terms on the face of the U.N. Security Council 
resolutions.
    If we fail to extend the arms embargo, a number of damaging 
trend lines begin to emerge. In particular, we have spent an 
enormous effort--I in my prior capacity at the Department of 
the Treasury in particular have spent an enormous amount of 
time drying up revenue streams but also impairing the ability 
of Iranian networks to source these kinds of weapons. They have 
been forced to do so illegally because of the U.N. embargo. If 
it suddenly becomes legal to export these weapons to the 
Iranians, all of that work falls by the wayside or much of that 
work falls by the wayside.
    Moreover, we have to understand what the Iranians then do 
with these types of weapons. They turn around and supply them 
to their proxy groups. So we worry greatly, together with the 
Israelis, for instance, regarding precision-guided munitions 
that Hezbollah has been given by the Iranians. There is no 
reason to believe the Iranians would not turn around and source 
additional weaponry from Russia and China right back to their 
terror proxies, the Houthis in Yemen, the Hamas and Palestinian 
Islamic jihad organizations. And oh, by the way, we have to 
watch out what is happening in Venezuela.
    Carlos and I have worked very closely together over the 
years, and I will support him. I was just in the Caribbean in 
one of my last Treasury roles, and I will look forward, if 
confirmed by this committee, to having the T family bureau, 
particularly the Political-Military Affairs Bureau in strong 
support of our regional bureaus.
    Senator Barrasso. I wanted to switch briefly to missile 
defense. And during the New START treaty debate, there was a 
lot of discussion about the importance of U.S. missile defense. 
As our country continues to face threats from around the world, 
I mean, it is critical that we do not restrict our own U.S. 
missile defense options. So the United States I believe must 
remain in charge of our own missile defense, not Russia, not 
other countries, as we negotiate.
    So I am asking if you would commit to me that in any arms 
control discussions with Russia for which you would be 
responsible that the United States will not agree to limit our 
own ability to defend ourselves.
    Mr. Billingslea. Senator, absolutely. The President has 
made clear he will not accept limitations on missile defense.
    Senator Barrasso. And then with regard to the new Russian 
strategic weapons that we have had a chance to discuss in a 
different setting, Russia is developing a number of new kinds 
of strategic nuclear weapons to evade or to penetrate our own 
ballistic missile defenses. In March of 2016, President Putin 
announced Russia's development of new strategic nuclear weapons 
that he believes he said will render U.S. missile defenses 
useless. I have raised these questions in this committee to 
others prior to this today.
    The weapons include a nuclear-powered cruise missile, a 
nuclear-powered underwater drone that could be armed with a 
nuclear warhead, and a hypersonic missile.
    Under article 5 of the New START, parties can raise their 
concerns about new types of strategic offensive weapons under 
the bilateral consultative commission.
    Has the administration, do you know, raised concerns about 
the new types of weapons under this commission, and does the 
administration believe that these new strategic nuclear weapons 
should be covered under, say, a New START extension?
    Mr. Billingslea. Senator, it is a mixed bag. Some of these 
weapons will be covered simply because in the case of the 
nuclear hypersonics, when they put them on that ICBM, they 
become captured. And we have made clear that that is the case 
and it is not open for negotiation.
    But other of these weapons--I would not want to say they 
should be captured--we frankly do not think these weapons 
should exist at all. Why on earth would you have a nuclear-
powered, nuclear-tipped cruise missile? That is nothing more 
than a flying Chernobyl. Just think about the radioactive plume 
that it would generate as it circles. There is no good 
argument. There is no good logic for having these kinds of 
doomsday systems. And I have been very clear with my Russian 
counterpart that these are enormous wastes of funds and they 
ought to cease and desist and abandon these kinds of 
destabilizing ideas.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Well said, Mr. Billingslea. Thank 
you, Senator Barrasso.
    We will move to Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to the three of you for your testimony today 
and for your willingness to consider appointments to these very 
important positions.
    Mr. Trujillo, I want to start with you because I have been 
approached by a number of federal employees who were posted to 
either Cuba or China where they received devastating brain 
injuries because of the attacks on our embassies in both of 
those countries. Unfortunately, many of these individuals are 
still paying out of pocket for the medical bills related to 
these injuries, and there is currently legislation that 
Senators Risch and Menendez have worked with me on to provide 
these employees with long-term benefits to account for lost 
wages and uncovered medical expenses.
    Can you tell me if you have been briefed about the 
situation with our embassies in both Cuba and China, and if you 
are confirmed, will you commit to ensuring that these 
employees, once this legislation passes--and I believe it will 
pass--will be able to access the benefits that were granted to 
them by Congress in the 2020 appropriations bill?
    Mr. Trujillo. Thank you, Senator.
    I have been briefed at a high level on the sonic attacks 
that took place in Cuba, and I do make that commitment on the 
latter.
    Senator Shaheen. Thank you very much.
    Mr. Billingslea, I appreciate the administration's interest 
and share it on the issues that Senator Barrasso raised with 
respect to trying to expand New START, any extent of New START 
to wider negotiations with Russia to looking at China and 
seeing how we might be able to engage China in a nuclear 
agreement.
    However, the question that I have is how best to do that. 
And I had the opportunity as a member of the Armed Services 
Committee to ask both General Hyten, the current Vice Chairman 
of the Joint Chiefs and former Commander of USSTRATCOM, and 
Admiral Charles Richard, the current Commander of USSTRATCOM, 
about the importance of the New START treaty. And both of these 
generals agreed that the treaty serves our national security 
interests, not the Russians' but our national security 
interests. And they give us transparency into Russia's current 
and planned nuclear forces.
    So given the importance of that and the ability to go ahead 
and provisionally extend this treaty without having to come 
back to Congress and given the challenges that we are 
experiencing with trying to further engage China and address 
other issues, explain to me the rationale of the administration 
in thinking that we should just let this drop and then go back 
to the drawing boards and start all over again when we could 
continue to address the nuclear aspect of that treaty in a way 
that is in our national security interest.
    Mr. Billingslea. Thank you, Senator.
    We had a chance to talk a little bit about this in closed 
session.
    Senator Shaheen. Yes. I was not convinced then, so see if 
you can convince me now.
    Mr. Billingslea. Well, I will want to be a little 
circumspect in open session on matters that would touch our 
negotiating position.
    But suffice to say that we have not arrived at a decision 
one way or another on extension of the agreement and, if so, 
for what period of time. What is clear to us is that we need 
today to begin laying the antecedents for the next arms control 
agreement and that it would be we have waited too long and it 
will be too late if we wait for China to have built up in the 
direction that they are going, perhaps even pursuing some form 
of parity with us, qualitatively or quantitatively. We seek to 
forestall that.
    I am in routine contact with both General Hyten and our 
STRATCOM Commander because their views and their input are very 
heavily factored in. In fact, they are co-leading the 
delegations that are headed to Vienna next week with senior 
generals and admirals on those delegations. So that perspective 
and that viewpoint is featuring heavily in our thought process.
    That said, we must, in addition to China, also address what 
we know is happening, which is the Russian buildup of their 
short- and medium-range tactical nuclear arsenal and their 
intention to potentially use those weapons in a first-strike 
scenario, escalate to win in a European environment. It is not 
a theoretical problem with the Russians given that they have 
demonstrated a willingness to invade other countries 
repeatedly. So this is something that has to be front and 
center in our process.
    And then I would add the final aspect which is the 
verification, the importance of really enhancing the 
verification regime particularly if we are successful in 
answering this committee's call. When this committee put the 
resolution of ratification forward for New START, it said the 
next agreement needed to cover all of these non-strategic 
warheads. We want to do that but we are going to need much more 
robust verification to tackle that challenge.
    Senator Shaheen. And are there other incentives, other 
issues that we have put on the table other than the extension 
of New START as it currently exists in terms of being able to 
encourage the Russians to look at this from the perspective 
that you outlined?
    Mr. Billingslea. Well, Senator, I would like to maybe 
handle that offline with you in terms of the diplomatic back 
and forth. But what we do understand is that the Russian 
Federation is now 80-90 percent of the way through their 
nuclear modernization. For a variety of reasons here in the 
United States, we have not yet really begun the kind of 
modernization that is now urgently needed. And so the Russian 
motive here is that they very much want this agreement extended 
because it provides them a level of predictability in what we 
may do. At the same time, I know both you and Senator Kaine are 
on the Armed Services Committee, and I do suggest simply that 
our ability to negotiate effective arms control does, in fact, 
go hand in hand with a robust modernization program.
    Senator Shaheen. I would like to continue this discussion 
but I am out of time. But I would just argue that given that 
Russia is able to expand into those tactical weapons and do the 
modernization, we clearly are able to do that as well outside 
of the New START treaty.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    That is an excellent line of inquiry and underscores the 
fact that this is truly a non-partisan, bipartisan matter that 
all of us need to engage in. And I think that that probably is 
as good as we have done on a non-partisan basis of late, and we 
will continue to pursue that. I think that is probably one of 
the most critical areas that this committee really needs to 
deal with. So thank you for that.
    And with that, we will go to Senator Rubio.
    Senator Rubio. Thank you.
    Thank you to all the nominees for your willingness to 
serve.
    Let me begin with Ambassador Trujillo, who I have known for 
a long time. I am excited and very supportive of your 
nomination.
    One of the things I am excited about is the way--you know, 
this is a committee that oversees the State Department and 
diplomacy, and the way you have reinvigorated diplomacy at the 
OAS is a story that has not been told enough. Obviously, we are 
not members of the Lima Group and its response to the 
Venezuelan crisis, but the supporting role the U.S. has played 
is in no small part due to your efforts.
    But particularly the invocation of the RIO Treaty which is 
a mutual defense agreement in the hemisphere. In December, I 
know it took a lot of old-fashioned diplomatic work behind the 
scenes with our partner nations in the region and I think is in 
no small part due to--you have been a major player in that 
effort.
    I wanted to talk with you about two of the irritant points 
in our hemisphere. The first is Cuba. It is interesting. There 
is a lot of talk about the embargo. To this day, there are 
still not a lot of Japanese or German cars on the streets. 
There is no German or Japanese embargo although there are 
Mercedes that are being driven by government officials, but 
they basically are able to buy any product they want from 
anywhere in the world.
    The reason why they cannot has nothing to do with the U.S. 
embargo. It has to do with the fact that the Government there 
has no plan for developing its economy. The model of the aging 
leaders of that regime has basically been how do we hold onto 
power and restrict both the economic and political freedoms of 
people to do so.
    I think the desperation is manifested in their recent 
announcement now that they are allowing people to buy in 
dollars with no fees attached. They used to take 10 percent of 
the dollars that were sent over there. It is just because their 
currency is worthless around the world. So they need people to 
pull dollars underneath their cushions or get more remittances 
sent to them so that they can have more dollars circulating 
that they can use to buy things.
    But this policy of control is largely evidenced by a 
military company that controls the economy and the Communist 
Party that controls their politics. But a lot of the key people 
in that regime that are left--they are in their 80s and early 
90s. So let us just say they are not going to live forever.
    Is there any hope in your mind that there is--I am not 
saying there is a bunch of people there that are democrats and 
believe in the values of freedom and liberty--but is there any 
hope that there is some new generation of leadership at some 
point within that government that would begin to move on some 
of these issues regarding economic and political freedoms?
    Mr. Trujillo. Thank you, Senator, for your question and 
your kind words.
    I do. I spent a significant amount of time over the last 2 
years working with the civil society, working with some of the 
younger people, working with some of the entrepreneurs, and 
they yearn for all the things that America has. They yearn for 
freedom. They yearn for an independent press. They yearn for 
democracy. They yearn for economic empowerment. And I think now 
with social media and the sharing of information and how 
quickly information is accessible, these folktales of how evil 
the Yankee empire is no longer hold true. People could go on 
the Internet and see for themselves why does my cousin who 
lives in Miami have a nice pair of jeans and a decent house and 
some food on the table, and I who live in Santiago am starving 
to death.
    So I think there is a lot of hope. I think the civil 
society in Cuba is better organized than people give them 
credit under very, very difficult circumstances.
    Senator Rubio. On the issue of Venezuela, would you agree 
that it is a mistake to view the Maduro regime as a government 
as opposed to a criminal enterprise, an organized crime 
syndicate that happens to control a national territory?
    Mr. Trujillo. I agree with your assessment. It is an 
illegitimate regime that is deemed as much not only by the 
United States but by multiple countries across the world.
    Senator Rubio. Mr. Billingslea, on the Iranian U.N. 
restrictions that are in place now, those come off I believe in 
October. Would they then be allowed to sell weapons to, for 
example, Venezuela?
    Mr. Billingslea. Well, Senator, unfortunately the Iranian 
regime is proliferating weaponry, and I think in a different 
setting it would be good to make sure--well, you will have on 
the Intelligence Committee access to all of that information.
    The concern would be that they will have much more ready 
access to buy weaponry from the Russians and Chinese who will 
no longer technically be prohibited from selling to them under 
the embargo.
    Senator Rubio. And on the question of arms control, I think 
it is by now I hope well established in the minds of most 
people that no one can win a nuclear war fought with strategic 
nuclear weapons in which each side exchanges 1,500 warheads 
against each other. That is not only a war you cannot win, it 
is the end of the world.
    What is a danger is the use of tactical nuclear weapons on 
the battlefield to escalate a fight in order to deescalate the 
notion that you could use a nuclear weapon, artillery or 
whatever it might be, a short-range missile, to sort of stop in 
a conflict and the belief that that will not spiral on to 
something bigger.
    Is that not, at the end of the day, the area we should be 
most concerned about? And the Russian violations of these 
tactical weapons is that they think they could potentially use 
it to win or deescalate a conflict.
    Mr. Billingslea. Senator, that is exactly right, and that 
is why we have focused in these Vienna talks on Russian nuclear 
doctrine. And so as the teams deploy next week, one of the 
working groups we have agreed is a working group to cover both 
this matter of warheads and doctrine. We will be prepared to 
discuss the Nuclear Posture Review and our thinking on nuclear 
doctrine but we expect the Russians to be transparent on their 
doctrine as well.
    And we are greatly concerned about this concept of escalate 
to win particularly when we are talking about a country like 
Russia that seems to feel free to invade and occupy other 
nations.
    On the case of China, we have a different issue, which is 
that China has not ever been part of an arms control dynamic 
that has led to the establishment of risk reduction measures 
such as hotlines. We have the Nuclear Risk Reduction Center. We 
have an architecture that was put in place over the many years 
during the Cold War that has allowed us to avoid mishap. And if 
China, indeed, intends to build up the way we believe they 
will, we must get at this matter of transparency and confidence 
building measures.
    The Chairman. Thank you very much. Thank you, Senator 
Rubio.
    Senator Coons?
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez, for holding this critical nominations hearing.
    I just want to make a brief comment about the importance of 
this committee's oversight role which many of you have 
discussed with the chair and ranking member.
    This committee has attempted to conduct its responsible 
oversight role into critical issues: the arms sales to Gulf 
States, the killing of Soleimani, President Trump's withdrawal 
from the Open Skies Treaty, agreements reached with Central 
American states. In all of these cases, the inability of this 
committee to get timely information from the State Department 
has really frustrated our engagement and I think has been 
harmful to our foreign policy.
    So I support the efforts of our ranking member and 
colleagues from both sides who are working to get this 
information in a way to conduct our oversight responsibly. Mr. 
Chairman, I am pleased to see we have an aggressive schedule 
for the next 3 weeks and look forward to engaging actively as 
we get more witnesses and more opportunities. And I am hopeful 
that in this month we will be conducting the oversight that is 
a critical part of this committee's mission.
    So if I might, first, Mr. Billingslea. On June 25th, media 
outlets reported the Trump administration is seriously 
discussing ending a decades-old process of congressional review 
of arms sales, which has been in critical moments used to delay 
or block sales to governments over human rights concerns or 
over the targeting of civilians using weapons we had provided.
    Do you support continuing congressional review of arms 
sales as that process currently exists? And if confirmed, will 
you commit to continuing congressional review of arms sales?
    Mr. Billingslea. Senator, absolutely. When I was a 
professional staff member on this committee, I was in fact one 
of the four members that facilitated that arms sale 
consultative process, the informal notification process 
followed by the formal notification process. And I well know 
how important the informal notification process is and the 
dialogue that emerges around it. And I support continuing the 
existing informal process for congressional clearance of arms 
sales.
    If confirmed, in the event that I do identify opportunities 
for improvement or other kinds of systemic change, I would like 
to work with the committee, with both the chairman and the 
ranking member, on that topic for their consideration. But 
please rest assured I strongly support the informal process.
    Senator Coons. Have you been a part of any of the 
interagency conversations that were reported so far?
    Mr. Billingslea. No. No, sir.
    Senator Coons. And would you recognize that at key points 
both parties have used the congressional role in arms sales 
notification and approval to ensure that we are putting human 
rights and some of our highest values ahead of temporary 
military alliances?
    Mr. Billingslea. Senator, absolutely, and I did exactly the 
same on behalf of the chairman at the time I was here. I 
recognize the value. I view it as a lack of successful 
consultation if joint resolutions of disapproval are where 
things wind up. I do note that there has been perhaps a bit of 
a slowdown in some of these processes, and I would like to 
explore with the committee why that might be. But I think I 
have already shown my commitment to working closely with this 
committee in the context of the arms control negotiations, and 
I intend, if confirmed, to carry that forward in every aspect 
of the T family with this committee.
    Senator Coons. Thank you.
    If I might, Mr. Mahoney. The role for which you have been 
nominated is a critical one, and I just wanted to say I am 
working with members of this committee and the Office of Legal 
Adviser to try and appropriately resolve terrorism-related 
claims against Sudan to get justice and compensation for 
hundreds of terror victims. There are a number of concerns of a 
range of members here. Resolving these claims fairly and 
appropriately is a critical step before Sudan can reenter the 
international community following the ouster of brutal dictator 
Omar al-Bashir.
    If confirmed, will you prioritize this issue and work 
transparently with both sides of this committee on making sure 
we get a fair resolution of this issue?
    Mr. Mahoney. Absolutely, Senator.
    Senator Coons. Let me ask you another question, if I could, 
about WHO withdrawal. Harold Koh, a former Legal Adviser to the 
State Department, has argued publicly that the President lacks 
the constitutional authority to unilaterally withdraw. The 
joint resolution passed in 1948 implementing the structure of 
our engagement with the WHO says Congress would have to first 
appropriate funds.
    If confirmed, do you commit to examining whether or not 
sufficient legal basis exists to support a unilateral 
presidential power to terminate international agreements both 
with the WHO and more broadly?
    Mr. Mahoney. Yes, Senator. That is definitely something 
that I would examine, I should add, in consultation with the 
career staff of the department of the Legal Adviser who have 
dealt with these issues across the years.
    Senator Coons. I look forward to working with you on that, 
if confirmed.
    If I could, Carlos--excuse me--Mr. Trujillo. And my welcome 
to your family who has also joined us for this I think 
constructive hearing.
    I had grave concerns about the strategy of cutting off 
funds for health, for development, for good governance projects 
in order to secure an agreement with the Northern Triangle 
countries to try and address root causes of migration.
    Will you work with us on this committee to ensure the 
congressionally appropriated funds continue to flow to the 
Northern Triangle and will not be misused as a leverage point 
to try and get temporary agreements around migration issues?
    Mr. Trujillo. Thank you, Senator.
    I commit to continuing to work with the committee. Yes.
    Senator Coons. Would you agree or disagree that cutting off 
funds that we have appropriated for health, development, and 
governance advances our interests and values in the region?
    Mr. Trujillo. I think the funds are an important tool of 
our foreign policy toolbox. It allows us to advance a lot of 
interests that are beneficial to the American people.
    Senator Coons. Well, let me move to one last question given 
the time.
    The Venezuelan people, as I think we would all agree, 
continue to suffer at the hands of the Maduro regime and the 
humanitarian crisis he has created. Venezuela is the number one 
country of origin for individuals claiming asylum in the United 
States. Ranking Member Menendez has led an effort to urge the 
administration to grant TPS for Venezuelans.
    Do you think blocking Venezuelans' ability to seek 
protection in the United States advances our interests and 
values in this region?
    Mr. Trujillo. I think it is very difficult to send 
Venezuelans back to the terrible conditions that currently 
exist in their country.
    Senator Coons. Would you advocate for TPS status?
    Mr. Trujillo. TPS is a legal recognition. I would advocate 
so that they were not removed, especially those who do not have 
deportation rulings based on crimes committed that they are not 
removed back towards Venezuela.
    Senator Coons. But you would advocate for an appropriate 
asylum process that is not politicized?
    Mr. Trujillo. Absolutely.
    Senator Coons. Thank you to all three of you for the 
answers you have given to suggest that, if confirmed, you will 
be more responsive to requests for information from this 
committee. I look forward to having the chance to work with 
you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coons.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses. Mr. Billingslea, good to 
see you again.
    I have a quick set of questions for each of you.
    I have been concerned that the administration has not kept 
Congress informed of Part 810 agreements to allow transfer of 
nuclear technology to other nations. The Armed Services 
Committee learned a while back that there had been transfers 
authorized to Saudi Arabia. We learned that through a Reuters 
account. When we pressed administration officials for Congress 
to receive the information, as Congress had in the past, we 
could not get the information frankly until the chair of this 
committee directed that the information be provided. And when 
it was provided, it was disclosed that the transfers to Saudi 
Arabia, one, happened just days after the assassination of 
Jamal Khashoggi, a Virginia resident, and what happened 4 
months later.
    I am assuming you are aware of the Part 810 process, which 
I believe the DOE is at the top of but State weighs in with 
recommendations about Part 810 transfers.
    Based on your earlier work on this side of Pennsylvania 
Avenue, would you agree that Congress should be kept informed 
of Part 810 transfers when the administration agrees they 
should be made?
    Mr. Billingslea. Senator, I am unaware of any argument of 
why you would not be kept in the loop. This committee within 
the statutory framework oversight of the Atomic Energy Act. 
That also includes the Article 123 agreements in which the 
department is now engaged with a couple of countries. And I 
would also commit to keeping you fully and currently informed 
on those topics as well.
    Senator Kaine. Please. That is very important.
    On 123 agreements, the U.S. is currently negotiating a 123 
agreement with Saudi Arabia. In a September 2019 letter to a 
Saudi counterpart, the then Secretary of Energy Perry 
reiterated the U.S. position that Saudi Arabia must negotiate 
and implement an additional protocol to safeguard its program 
and agree to forego uranium enrichment as part of any 
agreement.
    To your knowledge, is that still the position of the United 
States?
    Mr. Billingslea. Senator, I am not privy to the current 
state of affairs in the negotiation. I would say that during my 
time here on this committee staff, I supported the chairman at 
the time and actually worked closely with then Congressman 
Markey on the proliferation threat that is posed by 
reprocessing mixed oxide fuels and enrichment. If confirmed by 
this committee, you have my commitment that I will pursue the 
so-called gold standard in these 123 agreements, something that 
was achieved with the UAE and I believe should also be pursued 
with the Saudis, which is to forego reprocessing and 
enrichment.
    Senator Kaine. Thank you.
    Ambassador Mahoney, here is a question that you cannot 
answer because it is about the State Department, and you are at 
USTR right now. I would not expect you to be up on this, but it 
is a concern that I would like to work with you on.
    At the end of last year, 2019, Secretary Pompeo announced 
that the U.S. was rescinding a 1978 memorandum called the 
Hansell Memorandum, which had been honored by administrations 
of both parties. That memorandum stated the U.S.'s position 
that annexation of territories, Israeli annexation of 
territories, in the West Bank was a violation of international 
law. Reporting suggests that that was rescinded based upon an 
effort that was led by Ambassador Friedman and supported by a 
40-page legal memorandum by your predecessor.
    We have not had State Department witnesses in the committee 
since then. We have not had the ability to ask why did you 
rescind this 40-plus year document that had been an agreed upon 
statement of policy by both Democratic and Republican 
administrations. I do not know whether that 40-page memorandum 
is in a form that Congress could receive, but whether or not we 
agree with the administration on the position, I do think this 
committee is entitled to understand the basis for the State 
Department's reversal of a 40-year policy, and I would like to 
work with you to try to gain an understanding for why the Trump 
administration chose to rescind that memorandum.
    Mr. Mahoney. Senator, I have not seen the memorandum to 
which you refer obviously. But I would look forward to working 
with you on this and other issues.
    Senator Kaine. Great. Thank you.
    Ambassador Trujillo, I want to ask you about an important 
issue to me and that is corruption in the Northern Triangle. 
During the last year, two very prominent anti-corruption 
bodies, the CICIG in Guatemala and the MACCIH in Honduras, have 
been allowed to expire. The reporting about both suggests that 
these anti-corruption bodies--CICIG was set up between the 
Guatemalan Government and the United Nations with the strong 
support of the United States under then President George W. 
Bush. MACCIH was set up by Honduras and the OAS, as you know, 
with the strong support of then President Obama.
    The reporting--and again, we have not had State Department 
witnesses to be able to ask them about this--suggests that in 
both instances, the U.S. was willing to allow the anti-
corruption bodies to expire because they got other things. In 
the case of Guatemala, Guatemala recognized the new site of the 
Israeli--they moved their embassy from Tel Aviv to Jerusalem. 
In the case of Honduras, Honduras entered into a third party 
agreement that allowed some asylees and refuges to be returned 
to Honduras. And the reporting suggests that because of that, 
the U.S. was willing to drop their support for strong anti-
corruption bodies in each country that had had some significant 
success.
    Should you be confirmed in your current position, will you 
be a strong voice for anti-corruption in the region and express 
that it should be an American value that we would want the 
kinds of corruption that often are root causes for people 
migrating to our country--we should want to do all we can to 
stop corruption?
    Mr. Trujillo. Yes, Senator. And I was involved in MACCIH, 
and I did advocate strongly including multiple trips to 
Honduras to try to get that mandate renewed. Unfortunately, we 
were unsuccessful.
    Senator Kaine. And if I could, just as I conclude, Mr. 
Chair, I do credit that. I know you were, along with some 
others, trying to get the mandate renewed, but at the same time 
as you were trying to get the mandate renewed, DHS leadership, 
including Chad Wolf, were going to Honduras praising Honduras 
for entering into the third party agreement with respect to 
refugees--I am sorry--asylees. And Honduras clearly picked up--
and you and I both have friends there--a signal from the United 
States, as did Guatemala with respect to CICIG that if you make 
the U.S. happy here, you can abandon your commitment to anti-
corruption efforts.
    And we should want to work with Honduras on asylum and we 
should want to work with Guatemala on other issues, but we 
should not say if you meet U.S. policy here, we will turn a 
blind eye to corruption. And that is the impression that has 
been left in Central America by the abandonment of both MACCIH 
and CICIG. And I hope you will do all you can, should you be 
confirmed, to stand for the proposition that the U.S. is 
against corruption.
    Mr. Trujillo. Thank you, Senator.
    I do not believe they are a binary choice. I believe they 
are intertwined. Lack of rule of law and weak institutions and 
corruptions will ultimately lead to migration because economic 
opportunity and economic advancement will not occur. So I 
commit to do that.
    Senator Kaine. I completely agree with you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Menendez?
    Senator Menendez. Yes, thank you, Mr. Chairman.
    The Chairman. While you were gone, we got the clock fixed 
you will be unhappy to hear. But with the chairman's infinite 
generosity, please take your time.
    Senator Menendez. Well, Mr. Chairman, I will avail myself 
of your infinite generosity.
    The Chairman. Thank you.
    Senator Menendez. Ambassador Trujillo, for years the 
President has had a policy--I would consider it a bullying of 
our closest partners in Latin America and the Caribbean. Its 
approach to Mexico has included tariffs, U.S. troops on the 
border, a wasteful and ineffective border wall, disturbing 
immigration programs like Remain Mexico. Its approach to 
Central America has included foreign assistance cuts and 
threats of visa sanctions if the Governments do not receive 
deportation flights, even when individuals on the flights test 
positive for the COVID-19 virus. So those are just some of, 
from my perspective, egregious examples of how the President's 
xenophobic views distort our foreign policy towards the region.
    I was personally troubled when Guatemalan President 
Giammattei said in May, ``I don't believe the United States is 
an ally to Guatemala because they don't treat us like one.''
    So let me ask you, does the fact that the Trump 
administration deported COVID-positive individuals to Central 
America make you proud?
    Mr. Trujillo. Thank you, Senator.
    Obviously, those are very concerning reports, and it is 
something that if I am confirmed, we will work to make sure 
that individuals who test positive are not deported.
    Senator Menendez. So they should not have been sent. If 
they tested positive, they should not have been sent to the 
Central American countries.
    Mr. Trujillo. Senator, my understanding is that there is a 
protocol in place by ICE. They test these people. There are 
about 5,000 Abbott tests. They review the tests. They have 
incubation protocols, and their intention is not to deport 
people who do test positive. I am not sure if people who have 
actually tested positive----
    Senator Menendez. You can understand how these countries 
feel when they are getting COVID-infected persons deported to 
them.
    Mr. Trujillo. Yes, I can.
    Senator Menendez. If confirmed, what are you going to do 
about the President's anti-immigrant agenda as a centerpiece of 
U.S. foreign policy towards the region?
    Mr. Trujillo. Senator, I would continue to work with the 
Central American countries, including Mexico as well, as I have 
over the last 2 years in advancing our diplomatic mission, 
whether it comes to Nicaragua, when it comes to Venezuela, when 
it comes to our national security, or it comes to trade.
    Senator Menendez. Well, let me ask you then, how high 
levels of violence and forced displacement on top of extremely 
weak asylum systems in Guatemala, Honduras, and El Salvador 
provide strong evidence that the asylum cooperative agreements 
signed by the United States with these countries do not comply 
with U.S. law. The State Department is aware of the lack of 
asylum capacity in these countries, and my staff brought this 
evidence to your attention. Yet, DHS and DOJ have determined 
that Guatemala and Honduras provide full and fair asylum 
screening.
    Knowing what you know about the systems of Guatemala, 
Honduras, and El Salvador, do you believe these countries offer 
conditions of safety to protect refugees?
    Mr. Trujillo. Thank you, Senator.
    As you noted, DHS and Department of Justice made a free and 
fair assessment. I think it is important to make sure they have 
the capacity in order to receive the asylum seekers. Currently 
in Honduras, it is around 100 that have been returned; 
Guatemala, about 500; and El Salvador, around 40. So I think it 
is very important----
    Senator Menendez. I did not ask you about DHS. I said 
knowing what you know--I appreciate your dancing around my 
questions. Knowing what you know, do you believe, as the 
nominee for the Assistant Secretary of State, as the Ambassador 
to the Organization of American States, that these countries 
offer the conditions of safety to protect refugees? Yes or no.
    Mr. Trujillo. I think the approach of a very small-scale 
approach is the appropriate one.
    Senator Menendez. Well, that is not what is happening. That 
is not what is happening.
    Let me ask you this. We have heard a lot about Venezuela. 
No one has been more engaged than me on that. My VERDAD Act was 
signed into law last year, for progress remains limited.
    Last month during an interview, President Trump said--I am 
quoting, ``Guaido was elected. I think that I wasn't 
necessarily in favor, but I said some people liked it, some 
people didn't. I was okay with it. I don't think it was--you 
know, I don't think it was very meaningful one way or the 
other.''
    Now, these comments come after the recent publication of a 
book by former National Security Adviser Bolton, which stated 
that the President views interim President Guaido as, ``weak,'' 
and that it would be, ``cool'' to invade Venezuela.
    Ambassador Trujillo, do you agree with President Trump's 
comments about interim President Guaido?
    Mr. Trujillo. I have had the opportunity of meeting with 
President Guaido in April, at the Summit of the Americas in 
2018, in December of 2018, and after since he became interim 
President. He is a very brave person. I admire his courage.
    Senator Menendez. You admire his courage. So then you would 
disagree with the President as to him being weak. If somebody 
is courageous, they are not weak. Right?
    Mr. Trujillo. That is correct.
    Senator Menendez. Let me ask you this. I heard your answer 
to--I forget which of my colleagues--about TPS for Venezuelans. 
Why would you not advocate for temporary protective status for 
Venezuelans? You said you would advocate for them not being 
deported, assuming they had no criminal background. But you 
would not advocate for TPS. Is TPS not the very essence of what 
that is all about? TPS means temporary protected status until 
that time in which the conditions in your country change and 
you can return.
    Mr. Trujillo. I am not an immigration expert. I understand 
TPS also comes with additional qualifications, restrictions, 
and benefits. My comments I stand by, saying that individuals 
should not be returned to Venezuela given the current 
circumstances. Whether that is through a TPS model or a 
different model, I am not----
    Senator Menendez. What other model would there be?
    Mr. Trujillo. Just by ICE not having any enforcement 
actions.
    Senator Menendez. So in essence, somehow freezing their 
deportation but not giving them any temporary status in the 
United States.
    Mr. Trujillo. Again, Senator, I am not an expert on all the 
different asylum----
    Senator Menendez. Well, you are going to be the Assistant 
Secretary of State for the Western Hemisphere, if you are 
confirmed. This is the very essence of--let me ask you--the 
very essence of policy issues. You know, you are going to be 
having an interdepartmental process. I want to hear how you are 
going to weigh in as the Assistant Secretary of State for the 
Western Hemisphere.
    Let me ask you this. As you know, my office raised repeated 
questions and concerns about whether you asked the OAS to open 
an investigation to intentionally target a U.S. citizen 
employee of that organization. The investigation you requested 
resulted in a recommendation for the termination of the 
employment of a U.S. citizen, even while that final decision is 
under appeal.
    Will you commit that you will provide complete and truthful 
answers to all of my written questions until we get to the 
bottom of this matter?
    Mr. Trujillo. Yes, Senator. I have already previously also 
provided it in questions, but----
    Senator Menendez. Just for the record, I voted for you to 
be the OAS Ambassador.
    Mr. Trujillo. That is correct, Senator.
    Senator Menendez. But I have to be honest with you. After 
that, you disappeared. There is no one other than maybe Senator 
Rubio and Senator Cardin to some degree who has shown a 
consistent, intensive engagement in the western hemisphere as I 
have. So I hope, if you are confirmed--the next time I will see 
you is not when you are either leaving office or up for a 
reconfirmation because that is not my idea of engagement and a 
consultative process.
    Mr. Trujillo. Senator, I respect your assessment, and it is 
true we have not met. But I have met extensively with your 
staff over the course of the last 2 years.
    Senator Menendez. I am not going to belabor the point.
    I have questions of Mr. Billingslea, but I see that Senator 
Cruz is here.
    The Chairman. Yes. Senator Cruz, welcome. You are up.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, welcome. Congratulations on your respective 
nominations.
    Ambassador Billingslea, let us talk a little bit about New 
START. I have long expressed concerns about Cold War style 
treaties that apply only to the United States and Russia, that 
leave China unconstrained, and that are applied unevenly in a 
way that disadvantages U.S. national security. When it comes to 
New START, the treaty was riddled with holes. It was created 
while Russia was in violation of several treaty obligations, 
including START, the Chemical Weapons Convention, the 
Biological Weapons Convention, the Conventional Forces in 
Europe Treaty, and the Open Skies Treaty. And yet, its drafters 
did not take that into account seriously.
    Checking warhead limitations became impossible because of 
the inspection rules. The treaty had loopholes for so-called 
uploading of missile warheads. It failed to limit non-deployed 
mobile missiles. It abandoned START and INF verification 
measures, including the ban on telemetry encryption, and on and 
on.
    Could you please describe to this committee what you see as 
the biggest flaws in our ability to verify New START and what 
it would take to fix them?
    Mr. Billingslea. Thank you, Senator.
    We have actively looked at that, and we have done a cross 
comparison with the original verification mechanisms contained 
in the START treaty itself, as well as some of the valuable 
experience we had from portal monitoring in the INF Treaty. And 
we believe a combination of those measures is far superior to 
what is afforded under the New START treaty.
    As you point out, the verification of the telemetry 
exchanges have resulted in zero exchanges of value to the 
United States. The Russians have only given us antiquated 
systems with which we already have the telemetry data. But 
having that telemetry data, particularly when it comes to a 
trilateral arrangement with China, I think is very important as 
a confidence building measure. It lets you understand what that 
particular missile is doing at any given moment in time.
    The decision to, in effect, triple the period of time that 
it takes for on-site inspectors to get to a particular 
inspectable site is another major deficiency that needs to be 
rectified because surprise, surprise, very often the thing you 
went there to inspect is not there when you give so much heads-
up in advance. So while technically not a violation of the 
treaty, not a great practice and something we need to bring to 
an end.
    But everything we do in terms of restoring a truly 
verifiable framework has to be done, as I have said, with an 
eye towards China. China is in the middle of an unconstrained 
crash program. They are building up rapidly, and we believe 
and, interestingly enough, the Russians also believe that the 
next agreement must be a multilateral agreement. Now, when the 
Russians say that, they mean five countries. They mean the 
Brits and the French as well. When we say that, we mean three 
because China is building up and France and the UK are not.
    Senator Cruz. And elaborate on the down sides for U.S. 
national security to China being excluded from New START and 
able to operate completely free from it.
    Mr. Billingslea. Well, the most important down side is we 
are dealing with a completely nontransparent regime in Beijing 
that seems increasingly comfortable with rewriting 
international rules to suit themselves, underwritten by the 
threat of force, either actual or implied. And we see them 
doing this. They just did this recently with the Indians. We 
have seen them doing this in the South China Sea, what they are 
doing in Hong Kong, you name it. By the way, we keep 
emphasizing to the Russians that there are 150 million Russians 
and there are 1.5 billion Chinese.
    Senator Cruz. Mr. Trujillo, let me shift to you and two 
questions. Thank you for your good work at the OAS.
    Two questions. What do you see as the most significant 
challenges in the region, number one? And secondly, I would 
like you to address in particular the CITGO 6 which is a 
significant concern of me and many other members. And I would 
like for you to address what efforts are being made to bring 
the CITGO 6 home.
    Mr. Trujillo. Thank you, Senator.
    I think the biggest political threat are obviously the 
malign actors that exist in the hemisphere, whether it is 
Russia, China, and even Cuba, and their influence on the 
hemisphere. I think that is significant.
    And the other significant threat that we are facing is the 
post-COVID world. A GDP decline of, on average, 9 percent is 
what they are expecting across the hemisphere. How do we deal 
with making sure economies survive and countries can prosper 
given some of these economic threats? That is a very high 
level.
    The CITGO 6--I commit to doing everything I possibly can, 
if I am confirmed by the Senate, to make sure we can safely 
return them to the United States.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    I have a series of questions for Mr. Billingslea. I will 
submit them for the record, but I have one that I want to 
engage with him here at the hearing.
    Mr. Billingslea, you have repeatedly dodged the question of 
whether you personally advocated for certain enhanced 
interrogation techniques or took any steps to oppose them. In 
responses to my questions, you stated only that, quote, you 
were not in the position of deciding on those matters. It 
sounds a little bit like the Nuremberg defense. But you were a 
senior officials at the Department of Defense overseeing the 
recommendations and implementation of interrogation techniques.
    So here at this hearing on the record, under the pain of 
perjury, I want to ask you again, did you ever advocate, in 
writing or otherwise for or against the use of the following 
interrogation techniques against detainees at Guantanamo Bay: 
placing a hood, a blindfold over a detainees head during 
questioning; threatening to transfer detainees to a third 
country where they would fear torture or death; 20-hour 
interrogations; forcibly shaving a detainee's hair or beard; 
keeping detainees awake for up to 4 days in succession; 
stripping detainees naked; using military working dogs to 
frighten detainees during interrogation?
    Mr. Billingslea. Senator, I never advocated for any 
technique that was characterized to me as torture.
    Senator Menendez. That was characterized to you as torture. 
Did you not recognize them as torture yourself?
    Mr. Billingslea. Senator, there was a working group that 
comprised lawyers from across the spectrum. There was a 
separate group comprised of professional interrogators. I am 
neither a lawyer now a professional interrogator. And I had to 
rely upon the best advice given in both sides of that equation 
in an effort to create a process because when I came in as a 
Deputy Assistant Secretary of Defense, not as an Assistant 
Secretary of Defense or an Under, as a Deputy Assistant 
Secretary of Defense--Deputy Assistant Secretaries of Defense 
at the Pentagon are not empowered to make unilateral decisions 
like you are suggesting. My role was to create order out of a 
very chaotic process where we had----
    Senator Menendez. Order out of a chaotic process of 
torture.
    You know, I have a memo here that you wrote to the 
Secretary of Defense where you state that these techniques are, 
``not controversial from either a legal''--and you are not a 
lawyer, but you said from either a legal ``or policy 
standpoint.'' And yet, the Judge Advocate Generals from 
multiple armed services, as well as professional interrogators 
from the FBI and CIS, all made it known at the time that they 
believed these techniques constituted torture, that they were 
illegal, and that they had significant negative policy 
implications.
    U.S. law now expressly classifies these techniques as 
torture.
    And there are other memos, which we both know about, but 
which I cannot reference in an open setting, which is why I 
have asked them to declassified.
    Yet, you continue to insist some 30 times in your recent 
responses to questions for the record and now here that you 
have never advocated for torture, that all you did was create, 
``a transparent process.'' Mr. Billingslea, that is 
disingenuous at best.
    The record shows that you recommended implementing these 
techniques. You made your opinion known, and importantly, your 
opinion mattered. As a matter of fact, you said in part of this 
memo that there were other elements that were not included that 
should have been included.
    When I come to ask you in your new position whether you 
argued for taking human rights into account before approving 
the export of more bombs to Saudi Arabia to drop on Yemen, or 
whether you advocated for stronger U.S. protections in an arms 
treaty with Russia, I am wondering whether we will get the 
truth. Maybe you will simply throw up your hands and say, well, 
I am not the decider.
    And that is why I have dwelt so much on this, because I 
could talk to you about all the policy issues that will be in 
your portfolio, but I have to believe what you tell me. And 
based upon this----
    So, Mr. Chairman, I ask that a number of letters and other 
documents related to the torture issue that I have referred to 
be entered into the record. And I will submit electronic copies 
for the record.
    The Chairman. Those will all be admitted, assuming that 
there is no classification problem.
    Senator Menendez. They are not.
    The Chairman. If they are not, they will be admitted.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coons, I understand you also wish to trespass upon 
the generosity of the chairman. Is that true?
    Senator Coons. This rare opportunity to conduct oversight 
in a nominations hearing is just too intriguing for me to pass 
up.
    The Chairman. Well, please have at it.
    Senator Coons. I know there is an active vote, so I will do 
my best to be focused.
    Just briefly, if I might, Mr. Trujillo, on the issue I 
raised before about TPS, as someone who advocated for asylees 
from Haiti many, many years ago as a young lawyer, actually 
under the supervision of Harold Koh, I will just emphasize the 
point that TPS provides some stability and security. It gives 
people granted temporary protected status the ability to work 
and to be here with some security. And the alternative, which 
is we just will not deport for today, does not meet I think the 
urgency of our standing with the Venezuelan people in this 
moment.
    If I might, Mr. Billingslea, just two quick questions. 
There was a report in the Washington Post the administration is 
considering restarting explosive nuclear testing for the first 
time in 3 decades. And according to open source public 
reporting, there is no scientific or technical reason to do 
this. This would just be to gain some leverage.
    Do you agree with the assessment there is no scientific or 
technical benefit to explosive nuclear testing?
    Mr. Billingslea. Senator, I have actually said publicly 
that I am unaware of any reason to engage in nuclear testing at 
this stage.
    Senator Coons. So would you support a U.S. return to 
explosive nuclear testing for any non-scientific reason?
    Mr. Billingslea. I am sorry. It is just for the purpose of 
doing it?
    Senator Coons. And I guess someone in the White House 
thinks it might give us some leverage if we were to resume 
nuclear testing.
    Mr. Billingslea. Well, Senator, I think we would only test 
in the event that we had a safety or a reliability issue or if 
there were some urgent need to develop some kind of new design. 
And I am not aware of any three of those being the case at this 
time.
    Senator Coons. So you would oppose testing, explosive 
nuclear testing, for just purely leverage and negotiations 
reasons.
    Mr. Billingslea. I think it is important that we make clear 
to the Russians and the Chinese that it is not okay to tell the 
world that you are not engaged in testing with yield when in 
fact you are.
    Senator Coons. Right.
    Mr. Billingslea. That is different than linking it to the 
CTBT or to various moratorium. But we are not engaged in 
testing with yield, and we know the Russians are and we have 
grave doubts about the Chinese.
    Senator Coons. And we should not be would be my concluding 
point.
    Mr. Billingslea. Senator, I think that is a valid point. 
Again, I am unaware of any reason to test at this stage.
    Senator Coons. Briefly about Open Skies, the 1992 Open 
Skies Treaty, it gives short notice on armed observation 
flights and helps avoid miscalculations and delivers quality 
photographic evidence that--developments in technology have 
made this less urgent, of course, than it was then. But our 
allies count on it.
    How is the administration addressing European concerns 
about our withdrawal from Open Skies? And are we more secure in 
a world where we do not have legally binding constraints in 
Russian strategic forces?
    Mr. Billingslea. Senator, that is a great question. And 
again, I was not part of the decision-making process on that or 
the consultations that happened with the Europeans. I do 
understand that there was a fairly exhaustive outreach that 
involved questionnaires that were soliciting input from various 
allies and friends.
    I did participate in a discussion with the North Atlantic 
Council because I care very deeply about NATO given my 
background with them, though I did not lead that part of the 
discussions. I was more focused on the situation with New 
START.
    I believe that we must work with our allies, but I think we 
have to be crystal clear that it is the Russians who have, in 
effect, shredded conventional arms control in Europe, starting 
with suspension of the CFE Treaty, which they backed out of in 
effect despite the fact that we revised it multiple times. This 
body approved changes to that treaty to accommodate their 
existing violations in the----
    Senator Coons. If the Russians have shredded conventional 
nuclear arms control, why would we welcome them back into the 
G-7?
    Mr. Billingslea. Senator, that is beyond my purview, and I 
could not give you an answer to that.
    Senator Coons. I will simply assert that it is not wise, 
until we see a change in Russian behavior, for us to welcome 
them back into the community of nations.
    I have already exceeded the tolerance of the chairman I 
suspect, and I appreciate your graciousness today.
    Thank you to all three of you. I appreciate the opportunity 
we have had today to question you.
    I appreciate the forward progress we are making in this 
committee. Thank you.
    The Chairman. Thank you, Senator Coons. I appreciate your 
thoughts in that regard.
    Well, a robust hearing to say the least. Thank you so much, 
all of you, for being involved.
    First of all, the letters of support submitted by Senator 
Moran will be included in the record.


    [The information referred to above is located at the end of 
this hearing transcript.]


    The Chairman. For the information of members, the record 
will remain open until the close of business on Wednesday, 
including for members to submit questions for the record.
    With that, I want to thank all of you for your patience, 
thank all of you for your willingness to serve and your 
families for also embracing the sacrifices that that takes. So 
thank you very much.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:05 a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

       Responses to Additional Questions for the Record Submitted
        to Hon. Marshall Billingslea by Senator Robert Menendez

EITs at Guantanamo
    Question. Please provide only YES or NO answers to the following 
questions:


   Did you ever recommend for use in detainee interrogations at 
        Guantanamo the enhanced interrogation technique (EIT) known as 
        ``hooding'', which involved placing a hood or blindfold over 
        the detainee's head during questioning?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 142 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 143 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 144 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 145 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``threat of transfer'', which involved 
threatening to transfer the subject to a 3rd country that the subject 
is likely to fear would subject him to torture or death?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 146 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 147 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 148 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 149 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``use of prolonged interrogations'', 
which involved the continued use of a series of approaches that extend 
over a long period of time (e.g., 20 hours per day per interrogation)?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 150 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 151 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 152 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 153 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``forced grooming'', which involved 
forcing a detainee to shave their hair or beard?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 154 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 155 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 156 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 157 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``sleep deprivation'', which involved 
keeping the detainee awake for an extended period of time, up to 4 days 
in succession?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 158 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 159 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 160 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 161 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``isolation'', which involved separating 
a detainee from others for up to 96 hours?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 162 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 163 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 164 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 165 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``sound modulation''?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 166 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 167 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 168 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 169 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``face slap/stomach slap'', which 
involved a quick glancing slap to the fleshy part of the cheek or 
stomach, used as a shock measure?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 170 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 171 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 172 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 173 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``removal of clothing,'' which involved 
potential removal of all clothing, to be done by military police if not 
agreed to by the subject?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 174 
of your September 19, 2019, Questions for the Record.

    Question. If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 175 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 176 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 177 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.

    Question. Did you ever recommend for use in detainee interrogations 
at Guantanamo the EIT known as ``increasing anxiety by use of 
aversions'', which involved introducing factors that create anxiety, 
such as military working dogs?

    Answer. As the Senate Armed Services Committee's report makes 
clear, all of the interrogation techniques recommended by the Working 
Group were determined to be available for request. I signed a memo that 
recommended that a number of techniques not be simply delegated to the 
Combatant Commander, but instead require notification to the Secretary. 
I stand by my previous response to this QFR as contained in Answer 178 
of your September 19, 2019, Questions for the Record.

    Question.  If so, were you aware of the legal and policy objections 
of military JAGs and law enforcement professional interrogators (FBI, 
NCIS, etc.) to this technique?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 179 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Were you aware that some JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 180 of your September 19, 2019, Questions for the Record. The 
Senate Armed Services Committee's report clearly documents a wide range 
of differing views that were expressed at this time on this topic.

    Question. Do you now consider this technique to be abusive?

    Answer. I stand by my previous response to this QFR as contained in 
Answer 181 of your September 19, 2019, Questions for the Record. As I 
testified previously, I strongly support the law enacted by Congress, 
more than a decade after 9/11, which limits use of interrogation 
techniques to those contained in the Army Field Manual.


    Question. [Please answer yes or no.] Do you think you did the right 
thing by recommending the above techniques for approval?

    Answer. As I have testified previously, it was critically 
important--in the days following the horrific terrorist attacks of 9/
11--that a structure be applied to how detainee operations at 
Guantanamo were conducted.
    I have also made clear that I strongly support the law enacted by 
Congress, more than a decade later, that restricts interrogation 
techniques to those contained in the Army Field Manual.

    Question. Do you know of any documents that can positively support 
your assertion that you never advocated for abusive interrogation 
techniques or torture? (please note for your answer that the SASC 
report references a memo where you recommended the use of abusive 
interrogation techniques)

    Answer. The Senate Armed Services Committee report was conducted on 
a bipartisan basis with access to the full documentary record. At no 
point in that report am I accused of advocating for torture.

    Question. You have said several times that you were not in the 
position of deciding or influencing decisions on interrogation 
techniques, and your role was only to create a transparent process. You 
also wrote in response to QFRs from your previous hearing that ``I 
raised clear objections [to waterboarding] in meetings with the [DOD] 
Office of the General Counsel'' and ``My office made clear our policy 
objections [to waterboarding], contributing to that red color 
coding''--with the red color coding meaning it was not recommended by 
the Working Group that you were a member of. Putting aside the fact 
that you cannot produce any written documents to prove that assertion, 
you nonetheless state that your opposition to waterboarding resulted in 
it not being recommended for approval.

   If you assert that you exercised the power of your position to 
        influence the outcome of the decision with regards to 
        waterboarding, how can you simultaneously assert that could not 
        exercise the power of your position to influence the outcome of 
        the decision with regards to hooding, forced grooming, removal 
        of clothing, sleep deprivation, and several other abusive 
        detailed above?

    Answer. I did raise objections regarding the potential use of 
waterboarding. Further, as the Senate Armed Services Committee report 
documents, I also expressed concern that a number of techniques not be 
simply delegated to the Combatant Commander, but instead require the 
Secretary of Defense first be notified. Additionally, when some 
techniques were requested by the Combatant Command, I re-verified with 
the Office of the General Counsel that they were determined to be 
legal.

    Question. For a QFR from your previous hearing, you answered in 
that QFR as well as others that ``as neither a lawyer nor an expert in 
interrogation techniques, I depended upon the Office of the General 
Counsel to determine the legality of proposed measures.'' If the OGC 
had determined that waterboarding was legal, would you have supported 
it? If not, why would you have disagreed with the OGC about that 
particular abusive technique, but not any of the other abusive 
techniques like hooding, threat of transfer, 20-hour interrogations, 
forced grooming, sleep deprivation, face slap/stomach slap, removal of 
clothing, and increasing anxiety by use of aversions?

    Answer. As I noted in my response to the previous question, I 
expressed concern that a number of techniques not be simply delegated 
to the Combatant Commander, but instead require the Secretary of 
Defense first be notified. Additionally, when some techniques were 
requested by the Combatant Command, I re-verified with the Office of 
the General Counsel that they were determined to be legal.

    Question. For QFR #139 from your previous hearing, you wrote that 
you ``relied upon descriptions provided at the time by interrogation 
specialists and upon the determinations by counsel of which techniques 
were legally permissible.''

   On October 2, 2002, the chief counsel of the CIA's counter-
        terrorism center sanctioned the use of waterboarding for an 
        interrogation at Guantanamo. On January 23, 2003, the former 
        chief of Guantanamo's interrogation control element--an 
        interrogation specialist--told the Working Group, of which you 
        were a member, that waterboarding was an effective technique. 
        If an interrogation specialist had described waterboarding as 
        effective, and counsel had determined it was legal, and you 
        relied on the descriptions of interrogation specialists and 
        counsel, why did you oppose waterboarding?

    Answer. As the Senate Armed Services Committee report notes, 
waterboarding was the only interrogation technique evaluated as ``red'' 
in the Working Group's assessment. Per the report, ``that `red' 
designation meant that the Working Group determined there was a major 
issue.''


    Question. [Please answer only yes or no.] While on the Working 
Group, did you approve of the interrogation techniques in the draft 
Working Group report that was circulated on January 27, 2003?

    Answer. I don't recall an approval process associated with that 
document. The Senate Armed Services Committee report indicates that 
document was considered a draft.


    Question. [Please answer only yes or no.] While on the Working 
Group, did you approve of the interrogation techniques in the draft 
Working Group report that was circulated on February 04, 2003?

    Answer. I don't recall an approval process associated with that 
document. The Senate Armed Services Committee report indicates that 
document was considered a draft.


    Question. [Please answer only yes or no.] While on the Working 
Group, did you approve of the interrogation techniques in the draft 
Working Group report that was circulated on March 06, 2003?

    Answer. I don't recall an approval process associated with that 
document. The Senate Armed Services Committee report indicates that 
document was ultimately also considered a draft.

SO/LIC Oversight of Afghanistan and Iraq Special Mission Units
    Question. For QFR #194 from your previous hearing, you answered 
that you did not have civilian oversight of Special Mission Units in 
Iraq of Afghanistan because ``[g]eographic combatant commanders, such 
as U.S. Central Command, maintain chain of command responsibility for 
military units operating within their area of responsibility. For a 
wide range of reasons, historically, the civilian staff with the Office 
of the Secretary of Defense (Policy) do not intercede within the 
military chain of command.''
    Yet, in your response to QFRs 111, 113, and 114, you stated that, 
after hearing about a wide range of concerns including ``interrogation 
topics'' and ``a complete disregard for civilian oversight'' (emphasis 
added) at Guantanamo--which is under U.S. Southern Command's chain of 
command--you took several actions, including asking for information and 
creating a DASD for Detainee Affairs.

   If, as you state, SO/LIC did not provide civilian oversight of the 
        SMUs because OSD civilian staff ``do not intercede within the 
        military chain of command'' then how was it that SO/LIC 
        provided civilian oversight of military detainee operations at 
        Guantanamo, which were within the military chain of command? 
        Please explain the discrepancy in your answers.

    Answer. There is no discrepancy. OSD Policy is constituted with 
many different offices and functions which mirror or overlap with 
Combatant Command geographic or functional responsibilities. That does 
not mean that OSD intercedes in the military chain of command. Rather, 
it means that OSD is properly structured to give the best possible 
policy advice to the Secretary. After 9/11, I viewed it as essential 
that the Secretary be similarly supported and I received approval to 
create a DASD for Detainee Affairs.

    Question. For QFR #206 from your previous hearing, you did not 
answer the question. Instead, you stated that SMUs fell under the 
military chain of command, as if that were the reason why you could not 
be aware of whether they were conducting interrogations. As you stated 
in response to an earlier QFR, SO/LIC received and requested 
information about ``interrogation topics'' at Guantanamo, which fell 
under the military chain of command; it then follows that that you 
could also have received or requested information about SMU 
interrogations. In addition, you answered that you were not aware of 
``interrogation techniques used by SMUs'', but that was not the 
question. Please provide a yes or no answer to the original question: 
While at SO/LIC, were you aware that SMUs in Afghanistan and Iraq were 
conducting their own interrogations?

    Answer. I would have been shocked if SMUs were not conducting 
battlefield interrogation of captured unlawful enemy combatants. 
Military units conduct interrogations in a number of different 
circumstances, the parameters for which are set forth in the Army Field 
Manual.

    Question. For QFR #209 from your previous hearing, your answer 
``not to my recollection'' implies that you could have potentially been 
aware of or approved the January 2003 SOP created by the Afghanistan 
SMU TF. Please explain the discrepancy between your answer here and 
your earlier answers to questions about SMUs, where you stated that SO/
LIC could not receive or request information about SMU interrogations 
because they were under the military chain of command. If, as you 
previously stated, SO/LIC could not receive or request information 
about SMU interrogations because they were under the military chain of 
command, then how could you have potentially been aware of or approved 
the Afghanistan SMU TF's interrogation SOP?

    Answer. There is no discrepancy in my answers. I stated in Answers 
194 and 195 of your September 19, 2019, Questions for the Record that 
OSD Policy does not intercede within the military chain of command. 
Requesting and/or receiving information from the Joint Staff or the 
SOCOM Commander is not the same as interceding. That said, I stand by 
my response, contained in Answer 209 of your September 19, 2019, 
Questions for the Record that I have no recollection of being aware of 
the referenced interrogation SOP created by ``Afghanistan SMU TF.''

    Question. For QFR #211 from your previous hearing, your answer 
``not to my recollection'' implies that you could have potentially been 
aware of or approved the January 2003 SOP created by the Iraq SMU TF. 
Please explain the discrepancy between your answer here and earlier 
answers to questions about SMUs. If, as you previously stated, SO/LIC 
could not receive or request information about SMU interrogations 
because they were under the military chain of command, then how could 
you have potentially been aware of or approved the Iraq SMU TF's 
interrogation SOP?

    Answer. There is no discrepancy in my answers. I stated in Answers 
194 and 195 of your September 19, 2019, Questions for the Record that 
OSD Policy does not intercede within the military chain of command. 
Requesting and/or receiving information from the Joint Staff or the 
SOCOM Commander is not the same as interceding. That said, I stand by 
my response, contained in Answer 211 of your September 19, 2019, 
Questions for the Record, that I have no recollection of being aware of 
the referenced interrogation SOP created by ``Iraq SMU TF.''

    Question. For QFR #214 from your previous hearing, you stated that 
you learned of a death at Bagram and asked the SOCOM commander to 
investigate. If, as you stated in your response to earlier QFRs, you 
did not exercise any civilian oversight over SMUs because they were in 
the military chain of command, how then were you able to request that 
the SOCOM commander investigate the death of a detainee in military 
custody at Bagram? Please explain the discrepancy in your answers.

    Answer. There is no discrepancy in my answers. I stated in Answers 
194 and 195 of your September 19, 2019, Questions for the Record that 
OSD Policy does not intercede within the military chain of command. 
Requesting and/or receiving information from the Joint Staff or the 
SOCOM Commander is not the same as interceding. As I testified, I 
recall learning of a death at Bagram and asked the SOCOM Commander to 
investigate. SO/LIC respects the chain of command associated with 
special operations forces, and does not bypass it.

New START Extension
    Question. In April last year, President Trump initiated a new arms 
control effort aimed at persuading China to join a trilateral arms-
control pact limiting its capabilities and bringing Russian non-
strategic nuclear weapons currently unregulated by treaties under new 
limits. This effort was designed to replace the New START treaty which 
President Trump called a one-sided deal. Yet, here we are only seven 
months before the New START Treaty is slated to expire, with China 
refusing to engage in talks and Russia unwilling to discuss non-
strategic nuclear systems unless the United States puts a variety of 
other things on the table. In light of zero progress being made on 
trilateral arms control, what is the administration's position on New 
START? Should the treaty be extended?

    Answer. I would not assess that we have made ``zero progress.'' The 
first round of Vienna talks were positive. The two sides had detailed 
discussions on a full range of nuclear topics, including China's 
secretive, non-transparent nuclear build-up, and potential areas of 
cooperation with Russia. And as I mentioned in the hearing, expert 
level working groups are meeting for a follow up round next week. We 
are willing to contemplate an extension of New START, but only under 
select circumstances. We are open to various options, provided that 
nuclear arms control reflects the changing security environment.

    Question. In April last year, President Trump initiated a new arms 
control effort aimed at persuading China to join a trilateral arms-
control pact limiting its capabilities and bringing Russian non-
strategic nuclear weapons currently unregulated by treaties under new 
limits. This effort was designed to replace the New START treaty which 
President Trump called a one-sided deal. Yet, here we are only seven 
months before the New START Treaty is slated to expire, with China 
refusing to engage in talks and Russia unwilling to discuss non-
strategic nuclear systems unless the United States puts a variety of 
other things on the table. Is the administration willing to allow New 
START to expire if China, with a nuclear force far smaller than 
Russia's, refuses to join the negotiations?

    Answer. The first round of Vienna talks were positive. The two 
sides had detailed discussions on a full range of nuclear topics, 
including China's secretive, non-transparent nuclear build-up, and 
potential areas of cooperation with Russia. And as I mentioned in the 
hearing, expert level working groups are meeting for a follow up round 
next week. We are willing to contemplate an extension of New START, but 
only under select circumstances. We are open to various options, 
provided that nuclear arms control reflects the changing security 
environment.

    Question.  In April last year, President Trump initiated a new arms 
control effort aimed at persuading China to join a trilateral arms-
control pact limiting its capabilities and bringing Russian non-
strategic nuclear weapons currently unregulated by treaties under new 
limits. This effort was designed to replace the New START treaty which 
President Trump called a one-sided deal. Yet, here we are only seven 
months before the New START Treaty is slated to expire, with China 
refusing to engage in talks and Russia unwilling to discuss non-
strategic nuclear systems unless the United States puts a variety of 
other things on the table. If the administration insists on bringing 
new issues to the table, is the United States willing to discuss other 
strategic issues Russia has raised as part of a negotiating process?

    Answer. Certainly. As for the issues that Russia may bring in a 
negotiating process, we cannot stop their side from raising particular 
issues. We will listen and discuss these topics as they arise.

    Question. In April last year, President Trump initiated a new arms 
control effort aimed at persuading China to join a trilateral arms-
control pact limiting its capabilities and bringing Russian non-
strategic nuclear weapons currently unregulated by treaties under new 
limits. This effort was designed to replace the New START treaty which 
President Trump called a one-sided deal. Yet, here we are only seven 
months before the New START Treaty is slated to expire, with China 
refusing to engage in talks and Russia unwilling to discuss non-
strategic nuclear systems unless the United States puts a variety of 
other things on the table. If the treaty is not extended, what plans 
does the administration have to deter Russia when Russia has the 
ability to rapidly upload thousands of new warheads onto strategic 
systems that threaten the U.S.?

    Answer. We must be very clear to the Russians that the United 
States intends to take whatever actions are necessary to safeguard 
American national security and to protect the American people, as well 
as that of our allies and partners. If Russia decides to upload 
thousands of new warheads onto strategic systems, the United States 
will take appropriate steps.

    Question. The administration has, despite pushback from our allies, 
announced that it will withdraw from the Open Skies Treaty. 
Additionally, the administration has gone about withdrawal in a way 
that violates U.S. law. How will the U.S. contend with the fact that 
Open Skies will likely remain in force and that Russia will be able to 
fly over our bases and other assets in Europe without U.S. input?

    Answer. Russia and other States Parties to the Treaty have been 
able to fly over U.S. facilities abroad throughout the duration of the 
Treaty, so this is not a new challenge. As the administration explained 
to the Congress in May, the United States is working with Allies and 
partner countries that host our forces on arrangements for informing us 
when overflights are notified that could impact U.S. forces.

    Question. The administration has, despite pushback from our allies, 
announced that it will withdraw from the Open Skies Treaty. 
Additionally, the administration has gone about withdrawal in a way 
that violates U.S. law. What responses specifically have you received 
from allies in Europe?

    Answer. The United States discussed extensively with Allies and 
partners our concerns about Russian compliance with Open Skies and made 
clear that withdrawal was a possibility. While many Allies regard the 
Treaty on Open Skies as an essential part of the European security 
architecture, they understand that Russia bears responsibility for the 
erosion of that architecture through its repeated violations of its 
arms control, nonproliferation, and disarmament commitments and 
obligations, not to mention its contravention of Helsinki Final Act 
principles. While some may not agree with our decision, they all share 
our concerns over Russia's violations. We continue to work closely with 
them to find common ground to move forward collectively.

    Question. The administration has, despite pushback from our allies, 
announced that it will withdraw from the Open Skies Treaty. 
Additionally, the administration has gone about withdrawal in a way 
that violates U.S. law. Why was there no meaningful consultation with 
this committee or the Senate before making this announcement to 
withdraw from a treaty that had senate advice and consent?

    Answer. I understand that the administration has conducted 
meaningful consultations with Congress, including expert-level 
briefings, responses to questions for the record, and conversations 
with senior officials, including Assistant Secretary Ford, the official 
performing the functions of the Under Secretary for Arms Control and 
International Security, both before and since making the announcement 
of our intent to withdraw from the Treaty.

China and Arms Control
    Question. On a number of occasions, I noted that I welcome efforts 
to expand the scope of arms control to include China. My concern is 
that the administration isn't serious about this effort, and is instead 
using the difficulty of engaging China on strategic issues as an excuse 
to destroy our current bilateral and multilateral arms control efforts. 
What are the latest developments in our efforts to engage China in arms 
control dialogue? What issues is the administration seeking to engage 
China on?

    Answer. We are serious about this effort. The United States has 
extended an open invitation to China to engage in trilateral arms 
control negotiations and bilateral discussions on nuclear arms control 
and risk reduction. I am cautiously optimistic that we will find a 
mechanism for discussing nuclear arms control with the Chinese 
Communist Party. We need to discuss China's crash nuclear build-up.

    Question. On a number of occasions, I noted that I welcome efforts 
to expand the scope of arms control to include China. My concern is 
that the administration isn't serious about this effort, and is instead 
using the difficulty of engaging China on strategic issues as an excuse 
to destroy our current bilateral and multilateral arms control efforts. 
What lines of effort have you committed to bring China to the table?

    Answer. Senator, I cannot discuss our diplomatic strategy to bring 
China to the table in this venue. However, as I demonstrated by 
testifying before the committee in a classified setting prior to 
engaging the Russians in Vienna, I am committed to close and recurring 
consultations with the committee.

    Question. On a number of occasions, I noted that I welcome efforts 
to expand the scope of arms control to include China. My concern is 
that the administration isn't serious about this effort, and is instead 
using the difficulty of engaging China on strategic issues as an excuse 
to destroy our current bilateral and multilateral arms control efforts. 
It has been over a year since this initiative started; has anything 
concrete been achieved during this period?

    Answer. The first round of Vienna talks with Russia were positive. 
The two sides had detailed discussions on a full range of nuclear 
topics, including China's secretive, non-transparent nuclear build-up, 
and potential areas of cooperation with Russia. And as I mentioned in 
the hearing, expert level working groups are meeting for a follow up 
round next week. We need to make progress in the crucial areas of 
addressing the incredibly worrisome crash nuclear program of China, a 
number of greatly concerning Russian behaviors that have been 
engineered to occur outside of the New START Treaty's constraints, and 
having an effective verification regime that can provide a high level 
of confidence that there is compliance with the commitments undertaken 
by all three parties to a future agreement.

    Question. On a number of occasions, I noted that I welcome efforts 
to expand the scope of arms control to include China. My concern is 
that the administration isn't serious about this effort, and is instead 
using the difficulty of engaging China on strategic issues as an excuse 
to destroy our current bilateral and multilateral arms control efforts. 
China's nuclear arsenal is far smaller than that of the United States 
and Russia, with only approximately 300 warheads and 100 strategic 
systems. How have you attempted to convince China entering into an arms 
control dialogue is in its best interests?

    Answer. The United States has extended an open invitation to China 
to engage in trilateral arms control negotiations and bilateral 
discussions on nuclear arms control and risk reduction. China is 
required under the NPT to pursue negotiations in good faith on 
effective measures relating to nuclear disarmament. What China wants is 
to be afforded great power status. There is no better way to be seen as 
a great power than for China to sit down with the United States and 
Russia to negotiate.

Verification Measures for New START Treaty
    Question. Has the State Department been using the monitoring and 
verification tools provided to it in the New START treaty to verify 
that Russia is in compliance with the treaty?

    Answer. Yes.

    Question. Do the counting rules of the New START treaty for 
delivery platforms and nuclear warheads provide the United States 
increased flexibility for its nuclear posture in comparison to the 
START treaty?

    Answer. The shift from attributing the number of warheads on types 
of treaty-accountable intercontinental-ballistic missiles and 
submarine-launched ballistic missiles under the START Treaty to 
counting the actual number of warheads deployed on treaty-accountable 
intercontinental-ballistic missiles and submarine-launched ballistic 
missiles under the New START Treaty provides the United States with 
flexibility.

    Question. What verification measures were put in place for the 
Strategic Offensive Reductions Treaty (SORT) signed by Russia and the 
United States in 2002?

    Answer. The SORT Treaty did not mandate verification measures. 
Russia and the United States agreed in Article II of the SORT Treaty 
that the Strategic Arms Reduction Treaty (START) would remain in force 
in accordance with its terms. Additionally, the SORT Treaty mandated 
the convening of a Bilateral Implementation Commission on a biannual 
basis.

Violations of Arms Export Control Regulations
    Question. For a year and a half, I have been trying to get State to 
provide information to the committee concerning whether or not State is 
conducting investigations over numerous public allegations of 
violations of arms export control regulations--especially by Americans 
acting as mercenaries or providing military services to foreign 
governments without authorization. I have been told that, essentially, 
it is none of my business, and that State/PM will tell us if and when 
an investigation is concluded. This is obviously unsatisfactory, and it 
prevents the committee from exercising oversight to ensure that PM is 
actually undertaking such investigations, or simply ignoring the 
allegations. By way of example, my own staff uncovered an export 
violation by General Atomics, of which they themselves claim not to 
have been aware. General Atomics made a voluntary disclosure of the 
violation to State/PM in February; however, PM tells my staff that the 
investigation is still ongoing, 5 months later, even though a 
confession is in hand--and PM is, incidentally, seeking to clear 
another license for the same company for the same product to the same 
country, without being certain that the company has fixed its export 
control failures beforehand. If you are confirmed, do you commit that 
PM will give to the Ranking Member's staff full and timely information 
about what potential export control violations are being investigated, 
and that you will ensure that such investigations are indeed pursued 
upon receipt of credible information of such potential violations, and 
will be conducted in a vigorous and timely manner?

    Answer. I appreciate the critical importance of congressional 
oversight. If confirmed, I will work to ensure effective communication 
between the Department and Congress to enable Congress to perform its 
oversight role. Furthermore, if confirmed, I will seek to maintain the 
integrity of the Department's investigations into potential export 
control violations, which includes pursuing investigations of potential 
export control violations in a vigorous and timely manner.



                               __________


      Responses to Additional Questions for the Record Submitted 
       to Hon. Marshall Billingslea by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. While serving as the Assistant Secretary of the Treasury, I 
was one of the administration's foremost champions of human rights and 
combatting corruption. In that capacity, I advocated for and drove the 
implementation of more than 700 sanctions using human rights and 
corruption-related authorities. I have traversed the globe pursuing 
human rights abusers and their finances, and a number of them have 
found their access to the international financial system cut off due to 
these actions. I have prioritized, in particular, actions against the 
Maduro regime in Venezuela, and the Ortega regime in Nicaragua. I also 
have worked closely with the Office of Foreign Assets Control (OFAC) to 
impose sanctions on the Iranian regime officials engaged in repression 
of the Iranian people. Further, I worked closely with The Sentry on a 
range of human rights and corruption issues in Sub-Saharan Africa. I 
also worked with all Gulf States to stop the export of North Korean 
labor, which helps finance its WMD programs.
    I am gratified that a number of human rights and democracy 
activists, as well as courageous numbers of the Venezuelan opposition, 
wrote letters to the committee in support of my previous nomination. In 
particular, I am humbled that Venezuelan President Juan Guaido took the 
time to write in support of my previous nomination while evading 
persecution at the hands of the Maduro regime.
    I am honored that these incredible men and women, who so valiantly 
speak out against the brutality of the former Maduro regime in the hope 
of a better future for the Venezuelan people supported my previous 
nomination.
    If confirmed by the Senate, I will bring to the role of Under 
Secretary a strong moral and ethical voice that will advance our 
strategic interests and a proven track record of leadership on human 
rights.

    Question. If confirmed, what would be your priorities for 
determining which countries are able to purchase U.S. weapons?

    Answer. If confirmed, I would direct comprehensive arms transfer 
reviews, consistent with U.S. legal authorities, that weigh a wide 
range of foreign policy, economic security, and national security 
objectives the United States seeks to advance through defense trade. If 
confirmed, I would ensure the Department continues to carefully 
consider the effect each potential transfer has on responding to 
legitimate U.S. and recipient country security needs; protecting the 
U.S. military technology edge; providing additional U.S. access and 
influence with partners; maintaining nonproliferation objectives; and 
respect for human rights.

    Question. If confirmed, do you commit to making human rights a 
priority in U.S. arms sales negotiations?

    Answer. Yes. Among other diplomatic, commercial, and security 
considerations, human rights are a criterion in considering arms 
transfers, as reflected in U.S. law and the President's Conventional 
Arms Transfer Policy. If confirmed, I will effectuate and continue to 
comply with this Policy.

    Question. If confirmed, how would you seek to hold countries 
accountable in the event that U.S. resources are used to harm 
civilians?

    Answer. Prevention of civilian casualties globally, regardless of 
the origin of the resources used, is a U.S. foreign policy priority. I 
will, if confirmed, seek to advance this objective, including in my 
engagements with senior foreign officials. The United States has a 
special responsibility and unique levers of influence when U.S. 
resources are implicated. The Leahy laws restrict U.S. assistance to 
any foreign security force unit where there is credible information 
that the unit committed a gross violation of human rights. 
Additionally, as reflected in the President's Conventional Arms 
Transfer Policy, human rights concerns must be considered prior to 
making arms transfer decisions, and, if confirmed, I will continue to 
follow the Policy. I also would, if confirmed, prioritize security 
assistance to key nations to reduce the dangers to innocent civilians 
posed by remnants of war.

    Question. Do you commit to providing information to this committee 
regarding U.S. arms sales?

    Answer. Yes, I agree to accommodate all congressional requests for 
information by supplying the requested information to the fullest 
extent, consistent with applicable statutes, the U.S. Constitution, and 
Department of State procedures.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. That was certainly my experience at Deloitte, and within 
the Federal Government as well. If confirmed, I will support and 
promote the efforts the Department is currently undertaking to foster a 
culture of inclusion and representative workforce. I will encourage 
promoting diversity and inclusion in the hiring process through 
standardized interview procedures. I will promote the expansion of 
workplace flexibilities, including telework and alternative work 
schedules, and Leave Without Pay (LWOP) options, similar to ``boomerang 
talent'' programs in the private sector. I will learn from and listen 
to employees using mechanisms like the Open Conversations platform and 
the Department's new centralized exit survey. I will promote and 
encourage all employees to take the Mitigating Unconscious Bias course.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the State Department are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
Diversity and Inclusion Best Practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will support the requirement of all hiring managers to take the 
Mitigating Unconscious Bias course.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Yes, I commit to comply with all relevant Federal ethics 
laws, regulations and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes, I commit to comply with all relevant Federal ethics 
laws, regulations and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I also own 
interest in a few individual stocks in companies that may have a 
presence abroad. I am committed to ensuring my official actions will 
not give rise to a conflict of interest, and I will remain vigilant 
with regard to my ethics obligations.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to Hon. Marshall Billingslea by Senator Tim Kaine

    Question. Saudi Arabia is proceeding with construction on its first 
nuclear research reactor without having updated its safeguards 
agreement with the IAEA. The outdated small quantities protocol that 
Saudi Arabia has in place makes it more difficult for the agency to 
verify the design of the reactor and is inadequate for monitoring the 
country's nuclear activities, particularly given Saudi Arabia's past 
threats to pursue nuclear weapons. What is the administration doing, 
and what will you do if confirmed, to encouorage Saudi Arabia to update 
its small quantities protocol with the IAEA to allow for more intrusive 
and thorough monitoring f its nuclear program?

    Answer. Saudi Arabia's research reactor will be subject to 
International Atomic Energy Agency (IAEA) safeguards, consistent with 
Saudi Arabia's obligations under the Nuclear Non-Proliferation Treaty 
(NPT). The United States calls on all states to fully meet their 
obligations under the NPT and IAEA safeguards agreements. If confirmed, 
I will encourage Saudi Arabia to rescind the Small Quantities Protocol 
(SQP) to its safeguards agreement and simultaneously adopt the IAEA's 
Additional Protocol (AP). While the SQP will cease to apply once the 
fuel is received, rescinding the SQP and adopting the AP before then 
would demonstrate Saudi Arabia's intent to undertake civil nuclear 
activities in an open and transparent manner. As I testified, I also 
will pursue the ``gold standard'' in negotiations with Saudi Arabia on 
a 123 Agreement, which de facto includes adoption of the Additional 
Protocol.



                               __________


       Responses to Additional Questions for the Record Submitted
        to Hon. Marshall Billingslea by Senator Edward J. Markey

    Question.  If confirmed, or so long as you hold your current 
position, can you commit that you will oppose actions to withdraw from, 
or no longer implement U.S. obligations under the New Strategic Arms 
Reduction Treaty (New START) prior to February 5, 2021? If not, what 
are the ``extraordinary events'' that would lead you to support 
withdrawal under Article XIV?

    Answer. As stated in the 2018 Nuclear Posture Review (NPR), the 
United States remains committed to the continued implementation of the 
New START Treaty and verifying Russian compliance. We are not 
considering withdrawing from New START, which has a term of ten years 
and we are determined to implement it fully for so long as it remains 
in force.

    Question. You have said that it is not realistic for China to enter 
the New START Treaty as a third-party as it may create an unwelcomed 
incentive for China to expand its nuclear arsenal to match or get 
closer to the same Central Treaty Limits to which the United States and 
Russia are bound. In light of this, why is a decision on the extension 
of the New START Treaty preconditioned on China joining trilateral arms 
control negotiations? What incentives will the United States offer 
China to convince it to participate in this process? Has China 
indicated a willingness to engage in this process to date?

    Answer. We are willing to contemplate an extension of New START, 
but only under select circumstances. We need to make progress in the 
crucial areas of addressing the incredibly worrisome crash nuclear 
program of China, a number of greatly concerning Russian behaviors that 
have been engineered to occur outside of the New START Treaty's 
constraints, and having an effective verification regime that can 
provide a high level of confidence that there is compliance with the 
commitments undertaken by Russia and China in a future agreement. China 
will face international condemnation if it refuses to meet the 
imperative to pursue negotiations.

    Question. You have said that the New START verification regime 
``has very little of what the original START treaty contained and has 
significant loopholes in the way verification is physically conducted, 
which the Russians have been exploiting.'' However, the State 
Department's December 2019 Section 1247 Report, On The Reasons That 
Continued Implementation Of The New START Treaty is in The National 
Security Interest Of The United States, states in part that: ``The New 
START Treaty's limits on Russia's strategic nuclear force, 
establishment of data exchanges including the locations, numbers, and 
technical characteristics of weapons systems and facilities, and its 
verification provisions, which grant the United States access to 
Russian facilities containing deployed or non-deployed strategic 
systems, currently contribute to the national security of the United 
States.'' Specifically, what are the ``significant loopholes'' that the 
Russians are exploiting with regards to the deployment and non-
deployment of treaty accountable strategic systems?

    Answer. We need to restore the principle that arms control 
agreements be effectively verifiable. The New START Treaty suffers from 
some serious verification inadequacies, of which I will offer two 
examples. First, over the past decade since New START has been in 
force, Russia has not been required to provide telemetry on any of 
their new systems under development, and they certainly have not. 
Second, there are exploitable loopholes with onsite inspection 
procedures, such as the length of time given before inspectors are 
allowed to the location in question.

    Question. The New START took two years to negotiate and ratify. As 
we are only six months away from treaty expiration, is it feasible to 
``open up'' or amend the New START Treaty or negotiate an entirely new 
treaty and for the Senate to give its advice and consent on a 
resolution of ratification before February 5, 2021? If you do believe 
it is feasible, can you refer to past bilateral arms control treaty 
where negotiation and conclusion was completed in six months?

    Answer. There are a number of implementation measures that could be 
pursued quickly and that might address some of the outstanding 
verification deficiencies within New START should a decision to pursue 
those be made. We are willing to contemplate an extension of New START, 
but only under select circumstances. How our concerns are addressed 
will likely impact the outlook on extension. As our goal is to include 
China in a new agreement, the United States does not want to ``open 
up'' or amend New START to include China into New START. New START is 
by its terms a bilateral agreement.

    Question.  You have expressed concern about the lack of 
transparency in China's strategic nuclear doctrine and in regards to 
the composition of its strategic forces. Would an expiration of the 
bilateral New START Treaty, and the loss of publically available 
aggregate information on U.S.-Russian nuclear-force structure (not to 
mention a possible U.S. and Russian expansion of their strategic forces 
above 1,550) make it more or less likely that China would engage in 
meaningful transparency and confidence building measures?

    Answer. A responsible power, committed to principles of fairness 
and reciprocity and seeking to reduce nuclear danger, should welcome 
any opportunity to engage in good faith negotiations on these important 
topics. And China is required under the NPT to pursue negotiations in 
good faith on effective measures relating to nuclear disarmament. The 
United States will continue to extend an open invitation to China to 
engage in arms control negotiations.

    Question. You have stated that it is the U.S. desire to put limits 
on all types of nuclear weapons of Russia, including non-strategic 
nuclear weapons (NSNW). As you told Senator Barrasso in yesterday's 
hearing that the United States ``will not accept limitations on missile 
defense,'' how will you overcome Russia's longstanding precondition 
that the United States and NATO make changes to the European Phased 
Adaptive Approach (EPAA) to missile defense? Additionally, is the 
United States prepared to repatriate U.S. nuclear weapons stationed in 
NATO countries--as part of a new treaty/agreement with Russia capturing 
this class of weapons--and have you briefed NATO allies on the ways in 
which that would change NATO's nuclear deterrence policy and forces?

    Answer. The President has made clear the United States will not 
accept legally-binding, treaty-based limits on U.S. missile defenses. 
However, Russia is a sovereign country; we cannot prevent it from 
raising missile defenses, and we will listen and discuss our position 
on missile defense if it arises. It would be disadvantageous for the 
United States to publicly discuss its tactics in pursuit of a new arms 
control agreement. I understand that any changes to NATO's nuclear 
posture would be made by the Alliance, rather than by the United 
States.

    Question. If confirmed, or so long as you hold your current 
position as Ambassador, can you commit that you will not support any 
action to un-sign the Comprehensive Nuclear Test Ban Treaty (CTBT) or 
withhold obligating funds to the Comprehensive Test Ban Treaty 
Organization (CTBTO)?

    Answer. The United States has made clear that it does not intend to 
pursue ratification of the CTBT. The United States continues to support 
the comprehensive Nuclear-Test-Ban Treaty Organization Preparatory 
Commission as well as the International Monitoring System and 
International Data Centre. The President's budget fully funds the U.S. 
assessment to the Preparatory Commission.

    Question.  Would entry into force of the CTBT, unlocking the on-
site inspection measures of the Treaty, be a helpful way to verify 
Trump administration concerns that China and Russia may have violated 
the zero-yield scope of the Treaty? Short of entry-into-force of the 
CTBT, if confirmed, would you support reciprocal site visits to China, 
Russia, or any other country's (former) test sites to build confidence 
that no country is violating the Treaty by carrying out low-yield 
nuclear explosives tests?

    Answer. Given the believed very low yield of the Russian explosive 
nuclear testing, it is unlikely that the International Monitoring 
System would ever detect such tests, so the on-site inspection 
mechanism would likely never be triggered. Nor would such inspections 
likely be able to address our concerns about Chinese testing 
activities. The United States has long been interested in conducting 
reciprocal nuclear test site visits and has suggested this possibility 
to both China and Russia numerous times, to no avail.

    Question. What advancements have been made to the CTBTO's 
verification architecture--namely the International Data Centre (IDC) 
and International Monitoring System (IMS)--since the U.S. Senate's last 
consideration of the CTBT in 1999?

    Answer. At the time of Senate consideration of the Comprehensive 
Nuclear-Test-Ban Treaty in 1999, there were no certified International 
Monitoring System (IMS) facilities; today there are 300 such 
facilities. The International Data Centre was in its infancy and was 
only beginning to establish a capability to receive, process, and 
distribute data. Today it regularly receives, processes, analyzes, and 
distributes data from the 300 IMS facilities. The system has accurately 
detected and analyzed six North Korean explosive nuclear tests. That 
said, the Senate rejected the CTBT on verification grounds, among other 
concerns, and those problems persist.

    Question. Were you one of the senior Trump administration officials 
who reportedly advocated for a U.S. ``demonstration'' nuclear-weapons 
test in a May meeting of the National Security Council? If confirmed, 
can you commit that you will not support conducting a nuclear-test 
explosion primarily to obtain diplomatic leverage in negotiations with 
Russia and/or China?

    Answer. I will not comment on internal deliberations of the 
administration. The administration's policy on this has been well 
established in the Nuclear Posture Review, and it has not changed. I 
have testified that I am unaware of any compelling safety or 
reliability reason to resume nuclear explosive testing at this time.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Hon. Marshall Billingslea by Senator Jeff Merkley

    Question. Russia has offered to extend the New START Treaty, the 
last remaining arms control agreement between the United States and 
Russia limiting the world's two largest nuclear arsenals, set to expire 
in February 2021. However, the administration has refused to commit to 
extending New START on the grounds that it is instead pursuing a 
trilateral arms control agreement that includes both Russia and China. 
What evidence do you have to suggest that a new trilateral agreement 
with Russia and China can be concluded before the New START Treaty 
expires on February 5, 2021?

    Answer. The first round of Vienna talks were positive, though only 
Russia attended. Our discussions with Russian counterparts covered the 
full-range of nuclear topics, including China's secretive, non-
transparent nuclear build-up, and identified potential areas of 
cooperation. Based on that substantive discussion, we have agreed on a 
detailed agenda that will guide the work of expert level working 
groups, which will meet during the week of July 27, 2020. While China 
did not attend the first round of Vienna talks, I remain cautiously 
optimistic that we will have a substantive discussion on nuclear arms 
control in the future.

    Question. How and when do you expect that a new trilateral 
agreement to replace the New START Treaty will be negotiated, ratified, 
and implemented?

    Answer. We need to make progress in the crucial areas of addressing 
the worrisome, crash nuclear build-up of China, a number of greatly 
concerning Russian behaviors that have been engineered to occur outside 
of the New START Treaty's constraints, and reconstitution of an 
effective verification regime that can provide a high level of 
confidence that there is compliance with the commitments undertaken by 
all three parties to a future agreement. China risks international 
condemnation if it refuses to engage in good faith arms control 
negotiation. We are looking at the full range of options to get a 
successful outcome with China, as well as Russia, but it is premature 
to speculate about any timelines associated with a trilateral 
agreement. That said, if we wait to negotiate a legally-binding treaty 
for Senate consideration until after China has fully built up its 
nuclear arsenal, we will have waited too long.

    Question. China, which has a far smaller nuclear arsenal than the 
United States and Russia, has repeatedly refused to join trilateral 
talks. What evidence do you have to suggest that China will come to the 
table?

    Answer. As I testified before the committee in closed session, 
China is engaged in a crash build-up. The United States continues to 
press that China to engage with both U.S. and Russia on arms control 
and nuclear risk reduction, as are an increasing number of other 
nations. It is in China's best interest to do so. In the interim, the 
United States will continue to highlight China's secretive nuclear 
build-up. We see clear indications that the Chinese Communist Party is 
reacting to the international pressure we are generating.

    Question. You reportedly stated that ``it is incumbent on the 
Chinese. to recognize that they have an obligation to negotiate with us 
and the Russians in good faith. And we intend to hold them to that 
obligation.'' By what means do you intend to hold China to its 
ostensible obligation to do so?

    Answer. China is required under the Treaty on the Non-Proliferation 
of Nuclear Weapons (NPT) to pursue negotiations in good faith on 
effective measures relating to nuclear disarmament. We are looking at 
the full range of options to get a successful outcome with China, as 
well as Russia, but it is premature to speculate right now further 
about the kinds of leverage that we have and may employ. I remain 
optimistic that persuasive tools will bring China to the table.

    Question. What discussions have you had to date with Chinese 
officials regarding arms control or strategic stability?

    Answer. Senator, I cannot comment publicly on the state of these 
discussions. I appreciate the previous discussion we had, and can speak 
to this issue further in a classified setting.

    Question. In your nomination hearing, you cited the importance of 
transparency and confidence-building measures regarding China's nuclear 
arsenal. Has the administration proposed specific transparency or 
confidence building measures to the Chinese and if so what are they?

    Answer. The United States has invited China to discuss arms control 
and nuclear risk reduction in both bilateral and trilateral formats. 
While I cannot provide details on negotiating strategy in this venue, 
we would seek to discuss the types of specific transparency and 
confidence building measures both with China and Russia.

    Question. Is there a point at which, if insufficient progress is 
made on a new trilateral arms control agreement or during consultations 
with Russia, you would commit to extending New START so as to ensure 
the world's two largest nuclear arsenals do not go unconstrained?

    Answer. Senator, as you and I discussed previously, all options are 
on the table regarding New START. We are in the middle of talks with 
Russia and continue to call on China to come to the table. It would be 
disadvantageous for the United States to publicly discuss our 
negotiating strategy in this venue, but I commit to staying in close 
contact with you on this matter.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. C.J. Mahoney by Senator James E. Risch

    Question. The administration has secured a number of important 
commitments from Mexico to modernize and bolster the United States' 
relationship with our largest trading partner. However, some in the 
U.S. business community are expressing concern that Mexico has not yet 
fully implemented a number of commitments to the agreement despite its 
entry into force on July 1. There are also a growing number of concerns 
related to Mexico's declining investment environment generally and, in 
particularly, some in the business community are claiming that the 
Mexican government appears willing to terminate significant contracts 
with private, foreign companies for what appear to be political 
reasons. For example, some have argued that Mexico may be 
discriminating against U.S. digital media companies through the strict 
interpretation by the Federal Institute of Telecommunications (IFT) of 
the so-called ``six-minute rule'' for U.S. Pay-TV providers, possibly 
in violation of USMCA. Another company has raised concerns regarding 
Mexico City's recent termination of a multi-billion dollar concession 
to a subsidiary of a private American company, Libre LLC, for the 
provision of taxi hailing services, arguing that such a cancellation 
may violate USMCA and thereby raising questions regarding Mexico's 
status as a reliable supply chain partner. What are your thoughts on 
these concerns?

    Answer. In my capacity as Deputy USTR, I met with stakeholders on 
both the ``six-minute rule'' and the Libre issues. I agree with you 
that both issues raise concerns. The USMCA contains strong protections 
for U.S. producer and investor interests. Protecting and advancing the 
interests of U.S. producers and investors is a top administration 
priority. If confirmed, I will utilize the tools provided in the USMCA, 
as well as the resources of the State Department, other U.S. Government 
agencies, and U.S. law to work to ensure American business are 
protected from unfair trade practices.

    Question. Is there a growing problem with the business environment 
in Mexico?

    Answer. Protecting and advancing the interests of U.S. producers 
and investors is a top administration priority. The U.S.-Mexico-Canada 
Agreement provides a strong foundation for advancing U.S. business 
interests and a strong base for increasing confidence in the North 
American production platform. If confirmed, I will continue to engage 
with the Mexican government to emphasize the importance of the rule of 
law and contract sanctity, and work to ensure the business investment 
environment remains strong for U.S. investors and the Mexican people.

    Question. If confirmed, what actions do you intend to take to 
ensure that the USMCA agreement is vigorously enforced and, 
specifically, to expeditiously resolve these and related concerns by 
the U.S. business community?

    Answer. As one of the principal negotiators of USMCA, I am deeply 
invested in ensuring that the agreement is implemented as intended and 
vigorously enforced. The USMCA contains strong protections for U.S. 
producer and investor interests. Protecting and advancing the interests 
of U.S. producers and investors is a top administration priority. If 
confirmed, I will utilize the tools provided in the USMCA, as well as 
the resources of the State Department, other U.S. Government agencies, 
and U.S. law to protect the rights of American businesses.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Hon. C.J. Mahoney by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As Deputy U.S. Trade Representative, I oversaw the 
completion of a high-standard, anti-corruption chapter in the USMCA and 
personally negotiated several key labor provisions, including first-of-
its-kind language requiring the parties to address acts of violence 
against workers and an innovative rapid response enforcement mechanism. 
These provisions hopefully will become part of the new template for 
U.S. free trade agreements and have already helped to strengthen the 
independent labor movement in Mexico. As the principal administration 
official responsible for the African Grown and Opportunity Act (AGOA) 
program, I led efforts to suspend Mauritania and Cameroon's eligibility 
due to human rights violations. These actions sent a strong signal to 
other AGOA countries that the United States is serious about enforcing 
the program's eligibility criteria.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and representative workforce. I will also ask the staff of the Office 
of the Legal Adviser for their opinions on whether the Office can be 
doing more to foster diversity and inclusion within the Office and will 
support additional efforts toward these goals. I will encourage 
diversity and inclusion in recruitment efforts and promoting equal 
opportunity through standardized interview procedures. I will promote 
the expansion of workplace flexibilities, including telework and 
alternative work schedules, and leave without pay options, similar to 
``boomerang talent'' programs in the private sector. I will learn from 
and listen to employees using mechanisms like the Open Conversations 
platform and the Department's new Centralized exit survey. I will 
encourage all employees to take the Mitigating Unconscious Bias course 
and will set an example by committing to taking it myself.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the State Department are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
encourage habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
diversity and inclusion best practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will support the requirement of all hiring managers to take the 
Mitigating Unconscious Bias course and will set an example by 
committing to taking it myself.

    Question. Do you commit to bring to the committee's attention (and 
that of the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds, 
including funds that hold interests in foreign companies, companies 
with a presence overseas, and companies that have interests in various 
foreign countries, but which are exempt from the conflict of interest 
laws. My spouse is also the beneficiary of certain family trusts, but 
neither of us is aware of the trusts' financial holdings. My 
understanding is that they consist of widely diversified mutual funds. 
I divested from all individual stock holdings when I joined USTR. I am 
committed to following all applicable ethics laws and regulations and I 
will remain vigilant with regard to my ethics obligations.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Hon. C.J. Mahoney by Senator Christopher A. Coons

    Question. According to public reporting, a July 7, 2020 U.S. 
Department of State memorandum stated that Hazem el-Beblawi, a former 
Egyptian interim prime minister and current International Monetary Fund 
(IMF) board member who lives in the United States, should be granted 
``full immunity.'' The memorandum comes in response to a lawsuit filed 
by Mohamed Soltan, an Egyptian-American dual citizen who was subject to 
torture in prison in Egypt. The lawsuit claims that Mr. el-Beblawi 
directed Mr. Soltan's torture. Is it your understanding that IMF 
officials or officials from other international organizations 
headquartered in the United States are accorded immunity?

    Answer. My understanding is that Mr. Hazem El-Beblawi is the 
Principal Resident Representative of Egypt to the IMF. Pursuant to 
Article V, Section 15(4) of the Agreement Between the United Nations 
and the United States Regarding the Headquarters of the United Nations, 
principal resident representatives of members of a ``specialized 
agency'' are entitled to the same privileges and immunities as are 
accorded to diplomatic envoys accredited to the United States. The 
Agreement between the United Nations and the International Monetary 
Fund establishes that the IMF is such a ``specialized agency.'' In the 
United States, the privileges and immunities of diplomatic envoys (now 
called ``diplomatic agents'') are those provided under the Vienna 
Convention on Diplomatic Relation (VCDR). Therefore, Mr. El-Beblawi, as 
the Principal Resident Representative of Egypt to the IMF, enjoys the 
same privileges and immunities in the United States as would a 
diplomatic agent under the VCDR.
    I note, however, that I am aware of the allegations in Mr. Soltan's 
complaint, which I find quite troubling. I have appreciated the 
relationship that I have had with your office over the past two-and-a-
half years at USTR and commit to making myself available to you and 
your staff in the future to discuss this and other issues of concern.

    Question. According to public reporting, a July 7, 2020 U.S. 
Department of State memorandum stated that Hazem el-Beblawi, a former 
Egyptian interim prime minister and current International Monetary Fund 
(IMF) board member who lives in the United States, should be granted 
``full immunity.'' The memorandum comes in response to a lawsuit filed 
by Mohamed Soltan, an Egyptian-American dual citizen who was subject to 
torture in prison in Egypt. The lawsuit claims that Mr. el-Beblawi 
directed Mr. Soltan's torture. How unusual is it to grant immunity to 
an IMF official retroactively?

    Answer. My understanding is that Mr. El-Beblawi was not granted 
immunity retroactively. The Department provided a certification to the 
Government of Egypt confirming the immunity Mr. El-Beblawi enjoys under 
international law, consistent with his status as the Principal Resident 
Representative of Egypt to the IMF. Such a certification does not 
itself grant immunity. I am informed, as set forth in the 
certification,that the official records of the Department indicate Mr. 
El Beblawi was notified to the Department as assuming his duties as 
Principal Resident Representative of Egypt to the IMF, effective 
November 2, 2014, and he continues to serve in such capacity. I further 
understand issuing such a certification is the Department's standard 
practice in any case in which a foreign government requests 
confirmation of a diplomat's immunity.

    Question. According to public reporting, a July 7, 2020 U.S. 
Department of State memorandum stated that Hazem el-Beblawi, a former 
Egyptian interim prime minister and current International Monetary Fund 
(IMF) board member who lives in the United States, should be granted 
``full immunity.'' The memorandum comes in response to a lawsuit filed 
by Mohamed Soltan, an Egyptian-American dual citizen who was subject to 
torture in prison in Egypt. The lawsuit claims that Mr. el-Beblawi 
directed Mr. Soltan's torture. Do you consider immunity to be absolute 
and unconditional? Are there circumstances in which immunity should be 
withdrawn? Do you believe allegations of torture against a U.S. citizen 
are an example of one such circumstance?

    Answer. Any immunity that an individual might enjoy in the United 
States depends on that individual's status and the relevant 
instrument(s) providing for immunity. The immunity enjoyed by 
diplomatic agents under the VCDR includes complete immunity from the 
criminal jurisdiction of the United States, as well as immunity from 
the civil and administrative jurisdiction of the United States, with 
limited enumerated exceptions that do not include allegations of 
torture and otherwise do not apply in this matter. The VCDR does not 
permit unilateral withdrawal of immunity, even in the present 
circumstances. The immunities provided for under the VCDR also protect 
U.S. diplomats overseas from being brought into foreign courts on the 
basis of allegations, founded or unfounded, of wrongdoing.

    Question. According to public reporting, a July 7, 2020 U.S. 
Department of State memorandum stated that Hazem el-Beblawi, a former 
Egyptian interim prime minister and current International Monetary Fund 
(IMF) board member who lives in the United States, should be granted 
``full immunity.'' The memorandum comes in response to a lawsuit filed 
by Mohamed Soltan, an Egyptian-American dual citizen who was subject to 
torture in prison in Egypt. The lawsuit claims that Mr. el-Beblawi 
directed Mr. Soltan's torture. Do you think the U.S. Department of 
State should be weighing in on immunity for former foreign government 
officials in a U.S. civil suit that alleges gross violations of human 
rights?

    Answer. My understanding is that, in this case, the Department 
provided a certification to the Government of Egypt confirming the 
immunity that Mr. El-Beblawi enjoys under international law, consistent 
with his status as the Principal Resident Representative of Egypt to 
the IMF. I further understand this is the Department's standard 
practice when a foreign government requests confirmation of a 
diplomat's immunity, and the Department did not submit any views in the 
U.S. civil suit.

    Question. Do the authorizations for use of military force passed by 
Congress in 2001 and 2002 authorize the use of military force against 
Iran?

    Answer. If confirmed, I will take this responsibility very 
seriously and will advise the Secretary of all applicable obligations 
under domestic and international law. I understand the administration 
has not, to date, interpreted the 2001 AUMF as authorizing military 
force against Iran, except as may be necessary to defend U.S. or 
partner forces as they pursue missions authorized under the 2001 AUMF. 
I also understand the administration also has not, to date, interpreted 
the 2002 AUMF as authorizing military force against Iran, except as may 
be necessary and appropriate to promote stability in Iraq and address 
terrorist threats emanating from Iraq, and in light of the fact that 
U.S. forces deployed pursuant to the authorization have come under 
attack from Iranian-sponsored militias in Iraq.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Hon. C.J. Mahoney by Senator Tim Kaine

    Question. In November 2019, Secretary of State Pompeo announced 
that the United States would ``no longer recognize Israeli settlements 
as per se inconsistent with international law'' and rescinded a 1978 
legal opinion that then-Legal Adviser Herbert Hansell provided to 
Congress reaching a contrary conclusion. Per our exchange during your 
hearing, will you commit to providing this report in unclassified form 
to SFRC within a month of your confirmation so that it may be provided 
to the public?

    Answer. As a general matter, I understand Secretary Pompeo was 
stating the position of the U.S. Government that the establishment of 
Israeli civilian settlements in the West Bank is not per se consistent 
or inconsistent with international law, and that legal conclusions 
relating to individual cases of settlement activity must depend on an 
assessment of specific facts and circumstances surrounding the activity 
in question. I also understand the U.S. Government is expressing no 
view on the particular legal status of any individual settlements. As I 
indicated during the hearing, I have not seen the memorandum to which 
you refer but, if confirmed, I look forward to assessing it and working 
with you and the committee on this issue.

    Question. In Section 1261 of last year's NDAA, Congress directed 
President Trump to provide Congress with a report on the ``legal and 
policy frameworks'' underlying decisions regarding the use of force by 
March 1, 2020, and to release the unclassified version of that report 
to the public. It has failed to do so, without explanation. What is the 
administration's legal basis for withholding this report? Will you 
commit to pushing for full compliance with this reporting requirement?

    Answer. I would refer any questions about the status of this 
particular report to the White House. However, if confirmed, it will be 
my responsibility as the Legal Adviser to advise the Department on 
compliance with all applicable congressional reporting requirements.

    Question. The administration has acknowledged the existence of an 
Office of Legal Counsel opinion outlining the legal basis for the 
January 2, 2020, strike that killed Qassem Soleimani, but has thus far 
declined to release it publicly, as it and prior administrations have 
routinely done with other legal opinions regarding the use of force. 
Will you commit to publicly releasing this opinion?

    Answer. I have to refer any questions concerning Office of Legal 
Counsel opinions to the Department of Justice. However, I am committed, 
if confirmed, to continuing the Department of State's efforts to keep 
Congress informed on such important issues as required by law.

    Question. In its May 2018 legal opinion outlining the justification 
for the April 2018 airstrikes on Syria, the Office of Legal Counsel 
noted that, ``in evaluating the expected scope of hostilities, we also 
considered the risk that an initial strike could escalate into a 
broader conflict . . . and the measures that the United States intended 
to take to minimize that risk.'' Do you believe the decision to move 
forward with the Soleimani strike, in part under the President's 
Article II authority, was consistent with the views expressed in the 
OLC memorandum for the Syria airstrikes that there would not be a 
significant risk of escalation to require Congressional authorization?

    Answer. I was not involved in the decision to undertake the 
military operation targeting General Soleimani on January 2, and I am 
not aware of the sensitive intelligence or other information upon which 
the legal and policy analysis at the time was based. However, I 
understand the domestic and international law bases for the strike were 
outlined for Congress in a report consistent with the War Powers 
Resolution on January 4, 2020, in a letter submitted to the U.N. 
Security Council consistent with Article 51 of the U.N. Charter on 
January 8, 2020, and in a report consistent with Section 1264 of the FY 
2018 National Defense Authorization Act dated January 31, 2020.

    Question. Open Skies Treaty: In Section 1234 of the most recent 
NDAA, this Congress directed the administration to provide it with 120 
days' advance notice before initiating any withdrawal from the Open 
Skies Treaty. Secretary of State Pompeo disregarded this provision when 
he announced the Trump administration's intent to withdraw on May 21, 
2020. What was the legal basis for disregarding this Congress's express 
direction? Do you view this withdrawal as legally effective, given that 
the Trump administration has failed to comply with the prerequisites 
that Congress has set forth in statute?

    Answer. I understand Secretary Pompeo and Secretary Esper sent a 
joint letter to Congress on May 22, 2020, explaining that, based on 
consultations with the Justice Department, and consistent with the 
President's signing statement on section 1234(a), Congress may not 
impose a delay such as section 1234(a) would require before the 
President exercises his constitutional authorities to withdraw from a 
treaty in accordance with its terms, as he did here. I share the 
administration's view that U.S. notice of intent to withdraw from the 
Treaty on Open Skies is legally effective.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Hon. C.J. Mahoney by Senator Jeff Merkley

    Question. The United Nations High Commissioner for Human Rights, 
the U.S. Holocaust Museum, and a number of reputable nongovernmental 
organizations have found that crimes against the Rohingya ethnic 
minority amount to genocide. If confirmed, will you advocate that the 
State Department make a formal determination on Burma's genocide of the 
Rohingya?

    Answer. I am appalled by the Burmese military's human rights abuses 
against Rohingya and members of other ethnic and religious minority 
groups. I understand the process for deciding whether and when to make 
a determination that certain acts amount to genocide has historically 
been reserved within the Executive Branch to the Secretary of State. If 
confirmed, I will consult with experts within the Department and others 
as appropriate, assess all available information, and provide the 
Secretary with my best advice to continue to advance justice and 
accountability for atrocities and other abuses committed across Burma, 
including those against Rohingya.

    Question. The 2002 Authorization for Use of Military Force (AUMF) 
authorized U.S. military force to defend against Saddam Hussein's 
regime and enforce United Nations Security Council resolutions 
pertaining to Iraq. Would the fact that Saddam Hussein is no longer a 
threat to the United States and that Iraq has a new government render 
the 2002 AUMF invalid as a justification for military action?

    Answer. No. Under the 2002 AUMF, ``the President is authorized to 
use the Armed Forces of the United States as he determines to be 
necessary and appropriate to . defend the national security of the 
United States against the continuing threat posed by Iraq.'' Although 
the threat posed by Saddam Hussein's regime was the initial focus of 
the statute, I understand the United States has long relied upon the 
2002 AUMF to authorize the use of force for the purpose of establishing 
a stable, democratic Iraq and addressing terrorist threats emanating 
from Iraq. I also understand this administration has previously 
explained that such uses of force need not address threats from the 
Iraqi government apparatus only but may address threats to the United 
States posed by militias, terrorist groups, or other armed groups in 
Iraq.

    Question. The Trump administration has signed Safe Third Country 
Agreements, also known as Asylum Cooperative Agreements, with 
Guatemala, Honduras, and El Salvador mandating the return of asylum 
seekers to these countries to await decisions on their asylum cases. 
Given that the State Department's own Country Reports on Human Rights 
Practices for Guatemala, Honduras, and El Salvador reference dangers of 
rape, forced disappearances, femicide, unlawful killings and torture by 
gang members and security forces, a lack of judicial independence, and 
collusion among police and/or judicial elements with organized crime, 
do you support the administration's determination that these countries 
are capable of guaranteeing asylum seekers adequate protection and 
access to full and fair procedures to process asylum requests as 
required by Section 1158 of the Immigration and Nationality Act (8 U.S. 
Code Sec. 1158)?

    Answer. The INA's ``Safe Third Country'' exception requires a 
bilateral or multilateral agreement with the recipient country and a 
determination by the Attorney General and Secretary of Homeland 
Security that persons transferred pursuant to the agreement will not be 
persecuted on protected grounds in the receiving country; and will have 
access in the receiving country to a full and fair procedure for 
determining their protection claims. I understand the State Department 
does not participate in making either determination. However, I 
understand the Department of Justice (DOJ) and Department of Homeland 
Security (DHS) use State Department human rights reports in determining 
whether a person would more likely than not be subject to persecution 
or torture in the receiving country. If confirmed, I will work with DOJ 
and DHS to ensure they have any information they request to make these 
determinations.

    Question. If so, what evidence do you have to suggest that such a 
determination complies with that statute?

    Answer. The Attorney General and Secretary of Homeland Security 
make the determination whether a bilateral agreement complies with the 
``Safe Third Country'' exception to the Immigration and Nationality 
Act, and I understand the Attorney General and Acting Secretary of 
Homeland Security have made this determination with respect to the 
Guatemala and Honduras asylum cooperative agreements. I also understand 
the State Department does not participate in making these domestic law 
determinations.

    Question. Do you believe that these agreements satisfy obligations 
under international law regarding returning individuals to countries in 
which they risk being unlawfully killed or tortured? If so, on what 
legal basis?

    Answer. I believe the United States should comply with its 
international law obligations with respect to asylum seekers. I have 
not been involved in the negotiation or implementation of these 
agreements. As noted, if confirmed, I will work to ensure that the 
Office of the Legal Adviser is involved in interagency conversations 
about their implementation. I will also consult with experts in the 
Department and others in the interagency on these matters and advise 
the Secretary as appropriate.

    Question. Secretary Pompeo's Commission on Unalienable Rights, 
which has the stated mission of advising the Secretary of State on the 
role of human rights in American foreign policy, released its first 
draft report findings last week. The Commission's draft report takes a 
broadly negative view on binding human rights treaties, noting that, 
``The question of whether to consent to binding international legal 
obligations is separate from the question of whether in general a moral 
imperative or political principle is within the scope of the law of 
human rights. Not every moral imperative and political priority need be 
translated into juridical form to demonstrate U.S. seriousness of 
purpose regarding human rights.'' Do you agree with the Commission's 
implication that human rights treaties should not be considered binding 
on the United States?

    Answer. I believe that the United States should be a leader in 
advancing the principles set forth in the Universal Declaration of 
Human Rights and will support the work of the Office of the Legal 
Adviser in advancing the Department's human rights agenda.
    The United States is a party to a number of important human rights 
treaties, including the International Covenant on Civil and Political 
Rights, the Convention Against Torture and Other Cruel, Inhumane or 
Degrading Treatment or Punishment, the International Convention on the 
Elimination of All Forms of Racial Discrimination, and two Protocols to 
the Convention on the Rights of the Child. The United States has a 
legal obligation to comply with these treaties, subject to the 
reservations, declarations, and understandings pursuant to which the 
United States ratified them. This is consistent with the Commission's 
draft report, which commends the U.S. approach of ``accept[ing] 
formally those principles to which it is prepared to adhere in practice 
and to be held accountable for by other nations in international law.'' 
If confirmed, I would consider it an important part of my role to 
advise the Department regarding compliance with these and other treaty 
obligations.

    Question. Do you believe that Israel's proposed annexation of 
territory in the West Bank is consistent with international law?

    Answer. I understand that since 1946, there have been nearly 700 
U.N. General Assembly resolutions and more than 100 U.N. Security 
Council resolutions related to the Israeli-Palestinian conflict, and 
that these resolutions have not brought a comprehensive and lasting 
peace. I understand the administration is urging states not to simply 
cite historical legal and policy positions but instead to consider 
President Trump's Vision for Peace thoughtfully and to engage on the 
concepts proposed in the Vision, which is the best and most realistic 
framework to inform negotiations between Israel and the Palestinians. 
If confirmed, I look forward to helping the Office of the Legal Adviser 
to support the administration's work on Israeli-Palestinian issues.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. C.J. Mahoney by Senator Cory A. Booker

    Question. In June, President Trump suspended U.S. payment of dues 
to the World Health Organization (WHO). On July 6, 2020, the Secretary 
of State provided formal notice to the U.N. of its decision to withdraw 
from the WHO Constitution, the treaty that established WHO, effective 
after one year.
    Congress enacted a joint resolution signed by President Truman in 
1948, to accept membership in WHO. The Joint Resolution stated: ``the 
United States reserves its right to withdraw from the organization on a 
one-year notice: provided, however, that the financial obligations of 
the United States to the organization shall be met in full for the 
organization's current fiscal year.''


   Do you agree that Congress has clearly stated that the United 
        States' financial obligations to The WHO must be paid fully 
        through 2020 and 2021 until the one-year waiting period for 
        withdrawal expires?

    Answer. I am aware of the 1948 joint resolution. And I understand 
that the Secretary is committed to implementing the administration's 
policy for WHO withdrawal and funding in a manner that is consistent 
with applicable law and to working with Congress in this matter. I 
share that commitment. If confirmed as Legal Adviser, I will solicit 
detailed input from the career staff in the office before offering 
advice on this issue to the Secretary.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Carlos Trujillo by Senator James E. Risch

    Question. Mexico is one of our most important trading partners. 
However, many in the U.S. business community are raising concerns over 
what they consider to be a declining business environment in Mexico and 
that Mexico may not be honoring fully its obligations under the U.S.-
Mexico-Canada Agreement (USMCA). By way of example, some point out that 
Mexico may be discriminating against U.S. digital media companies 
through the strict interpretation by the Federal Institute of 
Telecommunications (IFT) of the so-called ``six-minute rule'' for U.S. 
Pay-TV providers, possibly in violation of USMCA. Others have raised 
concerns over what they claim is Mexico's apparent willingness to 
terminate significant contracts with private, foreign companies for 
what appear to be political reasons. They point to Mexico City's recent 
termination of a multi-billion dollar concession to a subsidiary of a 
private American company, Libre LLC, for the provision of taxi hailing 
services, arguing that such a cancellation may violate USMCA and 
thereby raising questions regarding Mexico's status as a reliable 
supply chain partner. Do you share these concerns?

    Answer. The USMCA contains strong protections for U.S. producer and 
investor interests. Protecting and advancing the interests of U.S. 
producers and investors is a top administration priority. If confirmed, 
I will utilize all the tools provided in the USMCA, as well the full 
offices of the State Department, U.S. law, and other U.S. Government 
agencies to work to ensure American businesses are protected from 
unfair trade practices.

    Question. What actions do you intend to take, if confirmed, to 
ensure a fair business environment for trade and investment in Mexico 
for U.S. firms?

    Answer. The USMCA contains strong protections for U.S. producer and 
investor interests. Protecting and advancing the interests of U.S. 
producers and investors is a top administration priority. If confirmed, 
I will utilize all the tools provided in the USMCA, as well the full 
offices of the State Department, other U.S. Government agencies, and 
U.S. law to protect the rights of American businesses.

    Question. What actions do you intend to take to encourage Mexico to 
expeditiously resolve these concerns and comply with its international 
commitments?

    Answer. The USMCA contains strong protections for U.S. producer and 
investor interests. Protecting and advancing the interests of U.S. 
producers and investors is a top administration priority. If confirmed, 
I will utilize all the tools provided in the USMCA, as well the full 
offices of the State Department, other U.S. Government agencies, and 
U.S. law to protect the rights of American businesses.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Carlos Trujillo by Senator Robert Menendez

    Question. On July 16, 2019, you requested that the Secretary 
General of the Organization of American States (OAS), Luis Almagro, 
open an investigation regarding the source of an ``orchestrated 
misinformation campaign'' that you believed had originated from 
``someone from the OAS Secretariat.''

   What was your basis to believe that there had been an 
        ``orchestrated misinformation campaign''?

    Answer. The United States Mission in Honduras informed me that 
rumors were circulating among the OAS donor community that the purpose 
of my trip was to ``water down or end'' MACCIH's mandate. When I 
arrived in Honduras, I was met with the same rumor which were printed 
in local newspapers. Also, upon my arrival I received an email from 
Assistant Secretary Breier that civil society and staff members from 
the Hill were inquiring regarding the purpose of my trip.

    Question.  What was your basis to believe it had originated from 
the OAS?

    Answer. The United States Mission in Honduras informed me that 
rumors were circulating among the OAS donor community.

    Question.  In your July 16, 2019 letter, you stated that you had 
``evidence to suggest that the source of the information is located 
within the staff of the General Secretariat or among those working for 
MACCIH (the OAS Mission Against Corruption and Impunity in Honduras). 
What was that evidence?

    Answer. The United States Mission in Honduras informed me that 
rumors were circulating among the OAS donor community, along with the 
information.

    Question.  Your letter to Secretary Almagro cited ``an 
unprecedented degree of public and media rumormongering'' as the basis 
for opening an investigation. Do you believe that public rumors and 
media stories are a sufficient basis for triggering investigations into 
career employees?

    Answer. The letter I sent to Secretary General Almagro did not 
request an investigation into a career employee. Out of respect for the 
independence and autonomy of the OAS, I requested that the OAS conduct 
an independent investigation into the matter.
    Given that the misinformation had created mistrust among the 
different parties and put in jeopardy the renewal of MACCIH, I found it 
important that the OAS investigate the matter to prevent it from 
occurring again.

    Question.  Are you aware of any credible evidence that the American 
citizen OAS employee who was the target of the OAS OIG investigation 
that resulted from your letter was in fact responsible for the 
``orchestrated misinformation campaign''? If not, have you communicated 
that to the OAS Secretary General? If not, why not?

    Answer. The OAS Inspector General is an independent entity within a 
sovereign international organization. Any individual identified through 
their investigations is entitled to confidentiality, due process, and a 
free, fair, independent investigation. Due to the independence of the 
OAS and their Inspector General, I did not request a copy of the 
investigation or its findings. I only became aware of the findings of 
the investigation during a meeting with Senate Minority staff. I did 
not have access due to confidentiality that governs an independent 
inspector general review. I have therefore not discussed the employee's 
matter with Secretary General Almagro.

    Question.  During several conversations with the Senate Foreign 
Relations Committee minority staff, it was brought to your attention 
that multiple institutions, offices, and entities would have had 
knowledge of your travel to Tegucigalpa, including personnel at the 
U.S. Mission to the OAS, personnel in the State Department's Bureau of 
Western Hemisphere Affairs, and personnel in the U.S. Embassy in 
Tegucigalpa. Did you ask any of these institutions, offices, or 
entities to conduct an investigation of the source of the 
``misinformation campaign''? If not, why not?

    Answer. I was informed that the misinformation was circulating 
among the Ambassadors of the OAS donor community. The bureau of Western 
Hemisphere and staff at the embassy would likely not have contact with 
the Ambassadors of OAS donor countries located in Tegucigalpa. Also, I 
have no reason to believe the U.S. Government personnel would 
deliberately release confidential information.

    Question.  In early March 2020, you conducted an in-person meeting 
with Senate Foreign Relations Committee Minority Staff. During this 
meeting, you discussed the investigation that you requested that OAS 
Secretary General Luis Almagro carry out and you expressed an opinion 
that the OAS Inspector General's Office did not maintain the highest 
professional standards. Why did you send your July 16, 2019 letter to 
the OAS Secretary General requesting an investigation if you did not 
believe that the OAS Inspector General's Office upheld high 
professional standards?

    Answer. This question mischaracterizes my opinion about the OAS 
OIG. I believe my comments at the time did not describe the OAS 
Inspector General as lacking professionalism but rather lacking the 
resources and tools necessary to conduct an investigation at the same 
level as is customarily done by a Federal agency Inspector General. In 
my dealings with the OAS Inspector General they have always exhibited 
professionalism despite their limited staff and budget. The OAS OIG is 
the independent oversight office for the organization.

    Question.  As you know, your letter resulted in an investigation by 
the OAS Inspector General's Office (OIG), which recommended the summary 
dismissal of a U.S. citizen who had served for 27 years as an employee 
of the OAS General Secretariat. Yet final action is currently pending 
with the General Secretariat, and the employee has appealed. Please 
describe in detail all conversations and written correspondence you 
have had with OAS Secretary General Almagro and others in the OAS 
General Secretariat regarding the aforementioned case, both before and 
after your July 16, 2019 letter.

    Answer. The only written correspondence which I have had regarding 
the aforementioned was the July 16 letter. In response to that letter, 
I was interviewed by the OAS Inspector General a few days later. That 
is the only communication that I have had with the OAS regarding the 
aforementioned case. I was informed a few months ago that members of 
the Minority Staff had requested to meet with the Secretariat regarding 
the matter.

    Question.  In your early March 2020 in-person meeting with Senate 
Foreign Relations Committee Minority Staff, you committed to review the 
OAS OIG report and relevant documents, and meet with the American 
citizen OAS employee who was the subject of the report. However, I 
understand that to date, you have not done so. Have you reviewed any of 
the documents from the OAS OIG report and the file on this matter, 
including emails, correspondence, reports, statements, and supporting 
letters? If so, please specify the relevant documents that you 
reviewed.

    Answer. I was unable to review the matter after being informed by 
the State Department that any inquiry into the conduct of the OAS 
Inspector General should be conducted through official channels only, 
namely, the U.S. Mission to the OAS.

    Question.  During your tenure as U.S. Permanent Representative to 
the OAS, how many times have you met with the American citizen OAS 
employee that was the subject of the OAS OIG report? Please provide the 
dates and subject matter of all meetings.

    Answer. I recall formally meeting the employee once at the State 
Department in Mid to late 2018. The employee briefed my team and myself 
on the work which his Secretariat was conducting. I also recall 
casually speaking with the employee during the Embassy of Guyana's 
Christmas party in 2018 and exchanging pleasantries at the OAS at 
different meetings.

    Question.  Your July 2019 trip to Honduras occurred at the same 
time as travel to Honduras by a senior official from the Secretary 
General's office. Did you have any conversation with this OAS official 
about what you perceived to be an ``orchestrated misinformation 
campaign'' taking place during your trip?

    Answer. I recall at some point during the trip meeting with him and 
discussing the situation which we were both confronted with when we 
arrived in Honduras.

    Question.  Either during your July 2019 trip to Honduras or upon 
return to the United States, did you have any communications, including 
in-person discussions, phone calls, emails, text messages, or other 
forms of communication (whether initiated by you or by anyone else) 
with any officials or employees of the OAS about the investigation that 
you intended to request?

    Answer. Besides the communication described above, I cannot recall 
with certainty any such communication described in your question.

    Question.  Did you have any communications, including in-person 
discussions, phone calls, emails, text messages, or other forms of 
communication (whether initiated by you or by anyone else) with any 
officials or employees of the OAS after your July 16, 2019 letter about 
the investigation that you requested?

    Answer. Besides what is mentioned above, no.

    Question.  In your answers to pre-hearing Questions for the Record, 
you responded, ``I was informed by the State Department that any 
inquiry into the conduct of the OAS Inspector General should be 
conducted through official channels only, being the U.S. Mission to the 
OAS.''

   Please describe in detail what you are referring to when you refer 
        to ``official channels, being the U.S. Mission to the OAS.''

    Answer. It was my understanding that the request from Congress 
would be treated as an official Legislative Request and handled 
accordingly, which in this case meant Legislative Affairs working with 
the relevant Bureaus to contact the Deputy Chief of Mission in our 
Mission to the OAS to make a formal request to the OAS for a 
confidential OAS internal report.

    Question.  As the head of the U.S. Mission to the OAS, do you not 
consider yourself an official channel of communication with the OAS?

    Answer. I do consider myself an official channel, but I am not the 
only official channel. It is my understanding that officials at the 
State Department have reviewed the OAS OIG report in question and have 
determined that no further action was necessary.

    Question.  What is your understanding of the process that took 
place to request the documents from the OAS IG? Please describe which 
offices participated in the process.

    Answer. My understanding is that the documents regarding this 
matter were requested and reviewed and that no further action was 
necessary. I am not personally aware of which offices were involved in 
the process.

    Question.  In your answers to pre-hearing Questions for the Record, 
you responded, ``I have no reason to believe the U.S. Government 
personnel would deliberately release confidential information.'' Please 
describe in detail what confidential information you are referring to. 
(Note: If you need to respond via classified channels, the Senate 
Foreign Relations Committee has the appropriate systems in place to 
receive classified responses from the Department of State.)

    Answer. All information in preparation for my trip to Honduras was 
marked Sensitive but Unclassified. This information is treated 
confidentially to protect the safety of the trip participants. There 
are no classified records related to this trip.

    Question.  During your July 17, 2020 courtesy call with Senate 
Foreign Relations Committee Minority Staff, you stated that you had 
never recused yourself from matters related to the investigation that 
you requested or the OAS IG investigation and results. Can you please 
confirm that you never recused yourself from these matters?

    Answer. It was my understanding that the request from Congress 
would be treated as an official Legislative Request and handled 
accordingly, which in this case meant Legislative Affairs working with 
the relevant Bureaus to contact the Deputy Chief of Mission in our 
Mission to the OAS to make a formal request to the OAS for a 
confidential OAS internal report. As this process was followed, I have 
not been involved in its review. I have not been asked to formally 
recuse myself from this matter.

    Question.  Given that during your July 17, 2020 courtesy call with 
Senate Foreign Relations Committee Minority Staff, you stated that you 
had never recused yourself from matters related to this incident, can 
you please explain why you never read the files received from the OAS 
IG regarding the investigation you requested?

    Answer. It was my understanding that the request from Congress 
would be treated as an official Legislative Request and handled 
accordingly, which in this case meant Legislative Affairs working with 
the relevant Bureaus to contact the Deputy Chief of Mission in our 
Mission to the OAS to make a formal request to the OAS for a 
confidential OAS internal report. As this process was followed, I was 
not responsible for reviewing or responding to the legislative request, 
and I did not find it appropriate to review OAS investigation reports.

    Question.  Given that during your July 17, 2020 courtesy call with 
Senate Foreign Relations Committee Minority Staff, you stated that you 
had never recused yourself from matters related from this incident, can 
you please explain why you were not available to discuss this matter 
with Senate Foreign Relations Committee Minority Staff, despite 
repeated requests from my office to discuss this matter in April, May, 
and June of this year?

    Answer. I am unaware of any request soliciting that I personally 
discuss the matter with Senate Minority Staff in April, May, or June of 
2020.

    Question.  During your July 17, 2020 courtesy call with Senate 
Foreign Relations Committee Minority Staff, you acknowledged that, as 
the head of the U.S. Mission to the OAS, you have the authority to 
conduct advocacy on behalf of U.S. citizen employees of the OAS. Can 
you please explain why you conducted no advocacy on behalf of the 
individual who was targeted by the investigation that you requested?

    Answer. The OAS Inspector General is an independent entity within a 
sovereign international organization. Any individual identified through 
their investigations is entitled to confidentiality, due process, and a 
free, fair, independent investigation. Due to the independence of the 
OAS and their Inspector General. It is my understanding that the case 
is still being reviewed through the appropriate OAS channels. Any U.S. 
Government advocacy at this point could be interpreted as improper 
interference in an independent OAS Inspector General investigation and 
its subsequent reviews. I was also advised that the documents related 
to this case had been received, reviewed and that no further action was 
necessary.

    Question.  During your July 17, 2020 courtesy call with the Senate 
Foreign Relations Committee Minority, you stated that the State 
Department had requested the files from the OAS IG regarding the 
investigation that you requested, reviewed the files, and determined 
that no further action was required.

   Can you please describe who reviewed the files?

    Answer. I am unaware who reviewed the file.

    Question.  Can you please describe who reached the determination 
that no further action was required regarding this incident?

    Answer. I am unaware of who reached that determination.

    Question. Since your prior answer on July 14, 2020 to pre-hearing 
Questions for the Record that you had not read either of the State 
Department Inspector General reports regarding political retaliation, 
have you now read the two reports released August 2019 and November 
2019?

    Answer. I have read and reviewed the August 2019 report regarding 
the Bureau of International Organizations, as referenced in your 
previous questions.

    Question. What is your assessment of the matters described in those 
two reports?

    Answer. No individual should be treated differently because of 
their perceived political affiliations or views. Every person is 
entitled to equal protection and a work environment that is free from 
harassment and hostility.

    Question. Based on the findings in those reports, what steps will 
you take, if confirmed, as Assistant Secretary for Western Hemisphere 
Affairs to promptly address and respond to, and prevent the occurrence 
of, any similar instances of retaliation or improper personnel 
practices?

    Answer. As previously documented in the State Department's USOAS 
Inspector General Report, I will continue to foster an environment in 
which all employees are valued and respected. I will also work to 
foster an environment in which all individuals are respected and 
treated fairly, dissenting opinions are valued and considered.
    Question. A former State Department Employee, Mari Stull, was hired 
by the Inter-American Institute for Cooperation on Agriculture (IICA). 
Prior to joining IICA, Ms. Stull had been the subject of a State 
Department Inspector General investigation regarding alleged political 
retaliation against career employees, and declined to be interviewed 
for that investigation. Did you play any role in recommending Ms. Stull 
for her position at the IICA or assist in her obtaining employment at 
the IICA?

    Answer. IICA is an independent regional International Organization 
whose oversight and funding are overseen by the State Department's 
Bureau of International Organizations. Although it is a member of the 
Inter-American system, its leadership and Director are separate and 
independent from the OAS and the U.S. Mission to the OAS. The U.S. 
Mission to the OAS does not have any oversight over IICA or its 
funding. I did not communicate with IICA on behalf of Ms. Stull's 
candidacy for employment.
    I recall that at some point in 2018, Ms. Stull informed me that she 
was seeking to leave the U.S. Government and would consider employment 
at IICA. Ms. Stull indicated that she had previously worked at IICA and 
had a degree in agriculture. At a subsequent OAS social function in 
2018, Ms. Stull shared her interest in working with IICA with a member 
of the Secretary General Almagro's staff. After this conversation, the 
individual asked me if I had worked with Ms. Stull. I informed him that 
we had worked together at the State Department for a few months. This 
staff member does not work for IICA or report to IICA. The OAS staff 
member subsequently told me that Ms. Stull was trying to meet with him, 
but he was too busy and was unable to meet. A few months later I was 
informed that Ms. Stull was offered a position at IICA and was leaving 
the U.S. Government. Ms. Stull left the U.S. Government in January of 
2019. I believe the above referred OIG report was published in August 
of 2019.

    Question.  Did you have any communications, including in-person 
discussions, phone calls, emails, text messages, or other forms of 
communication (whether initiated by you or by anyone else) related to 
Ms. Stull's candidacy for employment at the Inter-American Institute 
for Cooperation on Agriculture? If yes, please detail the date of such 
communication, with who you communicated, and the nature of your 
communication?

    Answer. I did not have any communication with IICA on behalf of Ms. 
Stull's candidacy for employment. My limited communication is described 
above.

    Question.  Are you aware of any State Department official that had 
any communications, including in-person discussions, phone calls, 
emails, text messages, or other forms of communication related to Ms. 
Stull's candidacy for employment at the Inter-American Institute for 
Cooperation on Agriculture? If yes, please detail the date of such 
communication, the individuals involved in the communication, and the 
nature of the communication.

    Answer. I did not communicate with IICA regarding Ms. Stull's 
candidacy for employment and do not have personal knowledge of other 
State Department officials communicating with IICA regarding Ms. 
Stull's employment. Any inquiries regarding other State Department 
officials would need to be directed to the State Department.

    Question.  Did you order or direct or otherwise cause any member of 
the U.S. Mission to the Organization of American States (USOAS) (i.e., 
State Department officials and employees, including political 
appointees) to participate in, or are you aware of whether any member 
of USOAS participated in, any communications, including in-person 
discussions, phone calls, emails, text messages, or other forms of 
communication (whether initiated by a member of USOAS or by anyone 
else) related to Ms. Stull's candidacy for employment at the IICA? If 
yes, please detail the date of such communication, who participated in 
such a communication, and the nature of the communication.

    Answer. Besides what is mentioned above, I am unaware of any 
additional communication.

    Question.  Please describe how you know Ms. Stull, including the 
date of your first communication, the frequency of your contact since 
that first communication, the date of the last communication that you 
had with her, and a description of all relevant initiatives and/or 
projects that you have worked on together.

    Answer. I met Ms. Stull after joining the State Department around 
June of 2018. At the time Ms. Stull worked as a Senior Adviser at the 
Bureau of International Organizations (IO). The IO Bureau often reviews 
OAS issue papers. I have not personally worked on any projects with her 
since she joined IICA. On June 17th 2020, Ms. Stull emailed and 
informed me that IICA was delivering remarks at the OAS.

    Question.  Please describe how long you have known Ms. Stull, the 
date of the last communication that you had with her, and a description 
of all relevant initiatives and/or projects that you have worked on 
together a both while she was employed by the State Department and in 
her current capacity at IICA.

    Answer. See above.

    Question.  Please detail all contact that you and any member of 
USOAS have had with Ms. Stull since she assumed her current position at 
the IICA.

    Answer. See above. I recall meeting with IICA Director Otero on 
three occasions in which Ms. Stull was present: at the State 
Department, for lunch and at the OAS. I do not have knowledge of which 
members from my Mission have had contact with Ms. Stull, nor am I aware 
of whether other members of USOAS have met with her. IICA has sent 
multiple emails, either through Ms. Stull or others, to my Mission.

    Question.  Please indicate whether you have read the August 2019 
report of the Department of State Inspector General entitled ``Review 
of Allegations of Politicized and Other Improper Personnel Practices in 
the Bureau of International Organization Affairs''.

    Answer. I have read the August 2019 report regarding the Bureau of 
International Organizations.

    Question.  I found the abusive personnel practices detailed in the 
above-mentioned State Department Inspector General report, including 
those committed by Mari Stull, to be repugnant and cancerous for the 
Department and career employees across the U.S. Government. Do you 
agree?

    Answer. I agree that the behavior detailed in the OIG report is 
contrary to the State Department's stated leadership principles and 
expectations.

    Question.  Please indicate whether you believe it is appropriate to 
discipline, isolate, transfer, demote, refuse to promote, or take any 
other adverse action against a career government official or employee 
because of the political beliefs of that employee.

    Answer. I do not believe it is appropriate to treat anyone 
differently because of their political beliefs.

    Question.  Please indicate whether, if confirmed, you will foster 
an environment in the Bureau of Western Hemisphere Affairs in which 
career officers are expected and able to provide you with their best 
professional judgment and advice without fear of reprisal, even in 
situations in which their professional judgment or advice may not be 
consistent with the political interests or policies of the Trump 
administration. If yes, please describe the specific steps you will 
take to foster such an environment.

    Answer. As previously documented in the State Department's USOAS 
Inspector General Report, I will continue to foster an environment in 
which all employees are valued and respected.
    Question. In June 2018, White House advisor Peter Navarro, 
referring to Prime Minister Justin Trudeau of Canada said, ``there is a 
special place in hell for any foreign leader that engages in bad faith 
diplomacy with President Donald J. Trump.'' Do you agree with Mr. 
Navarro's insulting insinuation that there is a special place in hell 
for Prime Minister Trudeau? Do you believe this is how U.S. officials 
should talk about our allies?

    Answer. I support constructive engagement with our allies, 
including Canada. The United States<dagger>Canada relationship is one 
of enduring strength built on broad and deep ties between our peoples, 
shared values, extensive trade, strategic global cooperation, and a 
robust defense partnership. I believe working closely with our allies 
and partners to support U.S. policy objectives is essential. If 
confirmed, I hope to continue to strengthen our relationship with 
Canada.

    Question.  From May 2018 to May 2019, the Trump administration 
imposed Section 232 tariffs on Canadian steel and aluminum, invoking 
threats to U.S. national security. Do you believe Canadian steel and 
aluminum represent threats to U.S. national security, especially given 
longstanding linkages between our defense sectors?

    Answer. With $725 billion in annual bilateral trade in goods and 
services, the United States and Canada share the largest trade 
relationship in the world. With USMCA in force, we work closely with 
our Canadian and Mexican partners to ensure that North American supply 
chains remain robust. Our North American partnership is vital for a 
quick economic recovery. Protecting American workers has always been a 
priority of this administration.
    I refer you to the Department of Commerce and USTR for specifics on 
the status of 232 aluminum tariffs on Canada.

    Question.  Press reports indicate that the Trump administration is 
considering imposing a new round of tariffs on Canada, just weeks after 
the formal start of the USMCA. Do you believe that the U.S. should 
impose tariffs on aluminum from Canada, a key U.S. national security 
and economic partner?

    Answer. With $725 billion in annual bilateral trade in goods and 
services, the United States and Canada share the largest trade 
relationship in the world. With USMCA in force, we work closely with 
our Canadian and Mexican partners to ensure that North American supply 
chains remain robust. Our North American partnership is vital for a 
quick economic recovery. Protecting American workers has always been a 
priority of this administration.
    I refer you to the Department of Commerce and USTR for specifics on 
the status of 232 aluminum tariffs on Canada.

    Question.  If the Trump administration imposes new tariffs on 
Canadian aluminum, it is likely that Canada's government would 
retaliate. What is your assessment of the impact to the U.S. economy of 
a trade war with Canada?

    Answer. The United States and Canada enjoy one of the most 
extensive and integrated economic relationships in the world. The 
almost 400,000 people and nearly $2 billion worth of goods and services 
that cross our border daily are testament to the strength of our trade 
relationship, which has allowed us to resolve challenges and 
differences in the past and will in the future.
    The United States-Mexico-Canada Agreement (USMCA) entered into 
force on July 1, 2020. The USMCA will ensure that North America remains 
the world's economic powerhouse and will create high-paying jobs for 
Americans, Canadians, and Mexicans, and grow the North American 
economy.

    Question.  Since the CDC's March 20 order, the U.S.-Canada border 
has been largely closed despite the historical integration of cross-
border communities. If confirmed, what strategy will you pursue to re-
open the U.S.-Canada border? Will this strategy be informed by guidance 
from scientists and medical professionals?

    Answer. The United States and Canada continue close cooperation in 
responding to the global pandemic of COVID-19. This involves engagement 
at the highest levels by President Trump, Secretary Pompeo, and Deputy 
Secretary Biegun, as well as across the interagency, by health 
officials, at our diplomatic missions abroad, and along our border.
    If confirmed, I will work with all relevant agencies and 
counterparts, including public health officials and the Department of 
Homeland Security, to facilitate the safe re-opening of the U.S-Canada 
border at the appropriate time.

    Question.  In December 2018, acting on a U.S. extradition request, 
Canadian authorities detained Huawei CFO Meng Wenzhou. Since then, 
Canada has faced a barrage of retaliation from China, including tariffs 
on Canadian products and arresting two Canadian citizens, Michael 
Kovrig and Michael Spavor. President Trump previously referred to Ms. 
Meng as something that could be traded with China as part of ongoing 
negotiations. Do you believe that U.S. extradition requests should be 
the subject of negotiation requests between the U.S. and China?

    Answer. Like all cases brought by the U.S. Department of Justice, 
the criminal prosecution against Huawei CFO Meng Wanzhou is based 
solely on the facts and law.

    Question.  Given ongoing legal arguments in Canada, which have 
featured President Trump's comments, do you believe that the 
President's comments have strengthened the U.S. legal case for Ms. 
Meng's extradition to the United States??

    Answer. Per the filings unsealed in Canada, Meng and others 
allegedly broke the law. Specifically, they are accused of putting 
financial institutions at risk of criminal and civil liability in the 
United States by deceiving them about the nature and extent of Huawei's 
business in Iran. Meng and others allegedly falsely stated that Skycom 
was an unaffiliated business partner, rather than disclosing that it 
was Huawei's Iranian affiliate.
    Like all cases brought by the U.S. Department of Justice, the 
criminal prosecution against Huawei CFO Meng Wanzhou is based solely on 
the facts and law.

    Question.  What specific steps would you suggest that the U.S. can 
take to support our ally Canada in dealing with the People's Republic 
of China and helping to secure the release of Michael and Michael?

    Answer. The United States should continue to publicly call on China 
to end the arbitrary and unacceptable detentions of Canadian citizens 
Michael Spavor and Michael Kovrig and reject China's use of coercion as 
a political tool. Recognizing the PRC's strategy of using arbitrary 
detentions as political leverage is not a one-country problem, I 
support working with our allies and partners, including Canada, to 
explore multilateral tools that can impose real costs and pressure on 
the Chinese government for its use of arbitrary detentions.

    Question.  In June 2018, White House advisor Peter Navarro, 
referring to Prime Minister Justin Trudeau of Canada said, ``there is a 
special place in hell for any foreign leader that engages in bad faith 
diplomacy with President Donald J. Trump.'' Do you agree with Mr. 
Navarro's insulting insinuation that there is a special place in hell 
for Prime Minister Trudeau? Do you believe this is how U.S. officials 
should talk about our allies?

    Answer. I support constructive engagement with our allies, 
including Canada. The United States-Canada relationship is one of 
enduring strength built on broad and deep ties between our peoples, 
shared values, extensive trade, strategic global cooperation, and a 
robust defense partnership. I believe working closely with our allies 
and partners to support U.S. policy objectives is essential. If 
confirmed, I hope to continue to strengthen our relationship with 
Canada.

    Question. During your tenure as the U.S. Permanent Representative 
to the OAS, what specific steps have you taken to fulfill President 
Trump's promise that the Government of Mexico would pay for the border 
wall between the United States and Mexico?

    Answer. As the United States Ambassador to the OAS, I have worked 
with Mexico on a variety of political, security, human rights and 
development issues, as well as on reform of the OAS itself. Issues 
concerning the border wall have been handled by other offices in the 
State Department, DHS, and other agencies and offices in the 
administration.

    Question.  If confirmed as Assistant Secretary for Western 
Hemisphere Affairs, will you formulate a diplomatic strategy to ensure 
that the Government of Mexico would pay for the border wall between the 
United States and Mexico, as President Trump has promised?

    Answer. If confirmed, I intend to maintain an ongoing dialogue with 
Mexico to ensure close coordination with respect to our joint efforts 
to secure and modernize the border. Border infrastructure is one part 
of a comprehensive approach to improve security at our southern border. 
Mexico, like the United States, has devoted major resources to combat 
irregular migration and the trafficking of contraband and drugs that 
affect both countries.

    Question.  If confirmed as Assistant Secretary for Western 
Hemisphere Affairs, what steps will you take ensure that the Government 
of Mexico would pay for the border wall between the United States and 
Mexico, as President Trump has promised?

    Answer. If confirmed, I will prioritize cooperation with Mexico to 
manage and protect our nearly 2,000-mile border and to combat shared 
threats posed by transnational criminal organizations. In close 
coordination with other departments and agencies, I will commit to 
coordinating, developing, and expanding efforts to secure and modernize 
the border. I will also work with Mexico to advance our shared economic 
interest of improving efficiencies at ports of entry to ensure the flow 
of legitimate commerce and travelers.

    Question. Since January 2017, President Trump has built new 
sections of border wall on the U.S.-Mexico border. What has been the 
impact of these border wall sections on specific transnational criminal 
organizations in Mexico and specific drug trafficking routes from 
Mexico into the United States. (Note: Please identify specific Mexican 
TCOs in your response.)

    Answer. According to the Drug Enforcement Administration's 2019 
National Drug Threat Assessment, Mexican TCOs transport the majority of 
illicit drugs into the United States across the Southwest border using 
a wide array of smuggling techniques. I am not in a position to say 
which TCO activities may have been affected by the presence or absence 
of particular sections of border security and would refer you to the 
Department of Justice and DHS. I would note that these Mexican drug 
trafficking organizations operate like businesses--they are highly 
mobile, maintain sophisticated cross-border networks, and are involved 
in a wide range of organized criminal activities--so we work with 
Mexico to support efforts to attack each part of their business model. 
We work with Mexico to disrupt drug production, secure borders, deny 
illicit revenue, and reduce the impunity and corruption that enables 
the transnational crime that threatens our health, safety, and 
security.

    Question.  What is your assessment of the number of subterranean 
tunnels used by Mexican TCOs have been used to trafficking illicit 
narcotics into the United States that have been found under the U.S.-
Mexico border since 2017?

    Answer. Mexican TCOs are highly networked and nimble and will use 
any means necessary to continue illicit operations that cross the 
border into the United States. According to the Drug Enforcement 
Administration's 2019 National Drug Threat Assessment, tunnels 
destroyed by U.S. law enforcement authorities along the southwest 
border are primarily found in California and Arizona, and are primarily 
associated with the Sinaloa Cartel. I would refer you to the 
Departments of Justice and Homeland Security for more specific data.

    Question.  What is your assessment as to whether the new sections 
of border wall built by President Trump prevented Mexican TCOs from 
building subterranean tunnels Mexico into the U.S. for trafficking 
illicit drugs?

    Answer. According to the Drug Enforcement Administration's 2019 
National Drug Threat Assessment, tunnels destroyed by U.S. law 
enforcement authorities along the southwest border are primarily found 
in California and Arizona, and are primarily associated with the 
Sinaloa Cartel. I would refer you to the Departments of Justice and 
Homeland Security on specific assessments on how the border wall has 
affected TCOs' building of tunnels.

    Question.  According to the DEA's 2019 National Drug Threat 
Assessment: ``Mexican TCOs transport the majority of illicit drugs into 
the United States across the SWB using a wide array of smuggling 
techniques. The most common method employed involves smuggling illicit 
drugs through U.S. POEs in passenger vehicles with concealed 
compartments or commingled with legitimate goods on tractor-trailers.'' 
What is your assessment as to whether the new sections of border wall 
built by President Trump have prevented Mexican TCOs from using 
passenger vehicles or tractor-trailers to traffic illicit narcotics 
from Mexico into the U.S.?

    Answer. Mexican drug trafficking organizations operate like 
businesses--they are highly mobile, maintain sophisticated cross-border 
networks, and are involved in a wide range of organized criminal 
activities--so we work with Mexico to support efforts to attack each 
part of their business model. We work with Mexico to disrupt drug 
production, secure borders, deny illicit revenue, and reduce the 
impunity and corruption that enables the transnational crime that 
threatens our health, safety, and security. I refer you to the 
Departments of Justice and Homeland Security for an assessment of how 
new border wall sections have affected TCOs' use of passenger vehicles 
or tractor-trailers to traffic illicit narcotics from Mexico into the 
United States.

    Question.  What is your assessment of implementation to date of the 
U.S.-Mexico Joint Declaration?

    Answer. Mexico committed to offer work authorization and access to 
healthcare and education according to the principles of the June 2019 
U.S.-Mexico Joint Declaration. The Declaration also noted that the 
United States would expand the Migrant Protection Protocols (MPP) along 
the border, and Mexico committed to the deployment of its National 
Guard forces to increase its own border enforcement and security. The 
Declaration also sought to emphasize economic development through 
investment in southern Mexico and Central America to address the 
drivers of irregular migration. Following the September 10, 2019, 
meeting with Vice President Pence, Foreign Secretary Marcelo Ebrard 
stated Mexico would continue to uphold the commitments included in the 
Joint Declaration. It is my understanding that these have been a very 
substantial decrease in the number of encounters at the southwest 
border. It is also my understanding that more remains to be done in 
implementing the economic development component. If confirmed, I look 
forward to supporting and working with interagency partners on this 
strategy.

    Question. Do you believe the United States has upheld its 
commitments under the U.S.-Mexico Joint Declaration? If so, how? Please 
cite specific outcomes as a result of U.S. actions that have benefited 
Mexico.

    Answer. The United States has upheld its commitments under the 
Joint Declaration. The United States has increased its capacity to 
process asylum-seekers under the Migrant Protection Protocols 
expeditiously. The United States is also strengthening bilateral 
cooperation to support private sector investment and foster development 
in Mexico and Central America.

    Question. Do you believe Mexico has upheld its commitments under 
the U.S.-Mexico Joint Declaration? If so, how? Please cite specific 
outcomes as a result of Mexican actions that have benefited the U.S.

    Answer. It is my understanding that Mexico has upheld its 
commitments under the Joint Declaration. Mexico has stepped up its 
enforcement efforts at the border. Following the June 2019 U.S.-Mexico 
Joint Declaration, Mexico agreed to an enforcement surge to curb 
illegal migration to the United States, including the deployment of 
more than 25,000 National Guard and other security forces throughout 
Mexico, including along Mexico's southern and northern borders. 
National Guard efforts have contributed to an approximate 84 percent 
drop in apprehensions of irregular migrants at the U.S. southern border 
since May 2019. In January 2020, the Mexican National Guard played a 
key role in enforcing Mexican immigration laws when a 2,000-person 
migrant caravan from Honduras arrived at the Mexico-Guatemala border.

    Question. If confirmed, during your first 30 days as Assistant 
Secretary, do you commit to provide the committee with copies of all 
assessments, annexes, appendices, and implementation plans or reports 
related to the U.S.-Mexico Joint Declaration, including cables and 
email reports exchanged with U.S. Embassy Mexico City?

    Answer. I understand your interest in Department records related to 
the U.S.-Mexico Joint Declaration, and that there has been an effort by 
the Department to address your interest and to seek a mutually 
agreeable accommodation relating to these requests. I also understand 
that, to date, the Department and the committee have been unable to 
reach such an accommodation. If confirmed, I commit to support the 
Department's ongoing efforts to engage with the committee in order to 
reach an accommodation.

    Question.  If confirmed, during your first 30 days as Assistant 
Secretary, do you commit to provide the committee with copies of all 
agreements--and their accompanying annexes, appendicles, implementation 
plans, and related instruments--signed between the United States and 
Mexico since the start of 2017?

    Answer. I understand your interest in agreements between the United 
States and Mexico. I understand that there has been an effort by the 
Department to address your interest and to seek a mutually agreeable 
accommodation relating to these requests. I also understand that, to 
date, the Department and the committee have been unable to reach such 
an accommodation. If confirmed, I commit to support the Department's 
ongoing efforts to engage with the committee in order to reach an 
accommodation.

    Question.  The ``Remain in Mexico'' policy (Migrant Protection 
Protocols) has forced over 60,000 asylum seekers to wait in dangerous 
Mexican border regions, where the State Department has advised 
Americans against traveling, COVID-19 is surging, and Human Rights 
First has documented over 1,100 cases of murder, rape, torture, 
kidnapping, and other violent assaults against asylum seekers and 
migrants. If confirmed, how will you ensure the protection and health 
of refugees, asylum seekers and vulnerable migrants in Mexico as a 
result of U.S. policies? How will you work with Mexican authorities and 
DHS to ensure refugees and asylum seekers are protected against these 
heinous crimes?

    Answer. The Department works closely with its international 
partners and Mexican authorities to respond to challenges as they 
arise. Mexico has stepped up in meaningful ways, including by 
establishing shelters for Migrant Protection Protocols (MPP) returnees 
in Ciudad Juarez, Tijuana, and Matamoros, where they provide medical, 
food, and other services. Mexico also promised access to work 
authorization for all individuals returned under MPP and is working 
with employers and banks to facilitate access to jobs. If confirmed, I 
would urge Mexico to continue assisting migrants returned to Mexico.

    Question.  Since the United States effectively closed its land 
borders to asylum seekers as a result of CDC's March 20 order, the 
Department of Homeland Security has expelled over 43,000 asylum seekers 
and migrants without due process to Mexico, where shelters run by the 
Government, churches, and humanitarian agencies are filled, and local 
capacity to test for COVID-19, provide medical care, and quarantine 
migrants with the virus is limited. If confirmed, what specific 
diplomatic actions will you take and what foreign assistance will you 
strengthen in Mexico to improve protection of asylum seekers and 
vulnerable migrants, including to prevent and treat COVID-19?

    Answer. At this time, I understand there to be sufficient shelter 
space available in most locations along Mexico's northern border. The 
Department has provided nearly $1.9 million in COVID-19 response 
funding in Mexico to date. With these funds, our international 
humanitarian partners are assisting government and private shelters to 
respond to and mitigate the spread of COVID-19, including by 
establishing ``filter hotels'' where newly arriving and particularly 
vulnerable migrants can quarantine for a minimum of 15 days in order to 
then be placed in a traditional shelter, thereby limiting risk of 
exposure and spread of infection. If confirmed, I would urge Mexico to 
continue assisting migrants returned to Mexico.

    Question.  In May, the Trump administration indefinitely extended 
its March 20 order expelling all undocumented migrants seeking entry at 
U.S. land borders. Among over 43,000 individuals expelled to date, at 
least 2,175 were unaccompanied children, according to Customs and 
Border Patrol. The New York Times has reported that children are being 
returned to Mexico under the policy, without any notification being 
provided to their families and in some cases without telling them where 
they are being sent to. Under domestic law, the U.S. must comply with 
trafficking screenings and other procedures mandated by the Trafficking 
Victims Protection Reauthorization Act. Yet, under CDC's March 20 
order, these critical protections--which are meant to prevent children 
from being trafficked--are seemingly being ignored. Only 39 children 
out of the 1,001 expelled in May were given access to these critical 
protections, according to a June 18 report by CBS News. Do you believe 
the United States bears responsibility for the protection of asylum 
seekers, including unaccompanied children, we have expelled to Mexico?

    Answer. The Department, through the Bureau of Population, Refugees, 
and Migration (PRM), scaled up humanitarian support in Mexico 
significantly, providing nearly $105 million since Fiscal Year 2019 to 
support refugees, asylum seekers, and other vulnerable migrants, 
including $1.9 million for COVID response. With these funds, our 
partners help build Mexico's asylum capacity and support protection 
efforts, including with direct humanitarian assistance, legal 
assistance, and psychosocial support. PRM funds also support shelter 
capacity and provide assisted voluntary return for vulnerable migrants 
who wish to go home but lack the resources to do so on their own.

    Question.  If confirmed, what steps will you take with the 
Department of Homeland Security to ensure the United States does not 
expel children into conditions where they are at risk of human 
trafficking in violation of the Trafficking Victims Protection 
Reauthorization Act?

    Answer. Traffickers prey on unaccompanied children in the United 
States, as they do elsewhere in the world. The Department of State 
works and collaborates with other U.S. federal agencies, including the 
Department of Homeland Security, year-round through the President's 
Interagency Task Force to Monitor & Combat Trafficking in Persons to 
advance a whole-of-government response to human trafficking. I support 
combating trafficking in persons throughout the Western Hemisphere, 
pursuant to the TVPA, and will work with my State and interagency 
colleagues, to protect all potential victims. For questions on specific 
enforcement actions, I defer to our colleagues at the Departments of 
Homeland Security and Justice.

    Question.  If confirmed, what steps will you take to protect and 
assist children expelled to Mexico by the United States?

    Answer. If confirmed, I will work with the Department of Homeland 
Security and the Government of Mexico to help ensure appropriate 
measures are taken to protect and assist any children expelled to 
Mexico from the United States.

    Question.  At least three cases of COVID-19 have been reported to 
date at the camp in Matamoros where over 2000 asylum seekers are 
waiting to cross into the United States for their immigration court 
hearing as a result of the Migrant Protection Protocols. In addition to 
COVID-19, these asylum seekers face threats of kidnapping and other 
violent crimes. How would explain to asylum seekers in Matamoros why 
the United States cannot offer them protection from persecution and 
threats of violent crimes, why they should not be allowed to reunite 
with family members in the United States while pursuing their asylum 
claims, and why they do not have accurate and reliable information 
about their asylum proceedings in U.S. immigration court?

    Answer. It is my understanding that as of late July, between 1,200-
1,500 people remain in the informal Matamoros camp. International 
organizations, local NGOs, and local authorities continue to offer 
shelter to these migrants. Through the Bureau of Population, Refugees, 
and Migration (PRM), the Department is supporting provision of basic 
assistance at the camp, including access to medical resources. PRM 
partners also work to disseminate information about both the U.S. and 
Mexican asylum systems, and offer referrals for specialized support as 
needed.

    Question.  As the grandson of Cubans who escaped communist 
dictatorship and found refuge in the United States decades ago, do you 
agree with the Trump administration that Cuban refugees and asylum 
seekers should be forced to wait in Mexico, summarily expelled to 
Mexico, or potentially transferred to Guatemala to seek protection 
there rather than in the United States?

    Answer. As a party to the 1967 Protocol relating to the Status of 
Refugees and the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, the United States must uphold its 
obligations with regard to all persons in need of international 
protection, regardless of their nationality.

    Question.  Do you agree that Cuban refugees and asylum seekers who 
seek protection at the U.S.-Mexico border should be turned away without 
due process?

    Answer. I am not aware of Cuban refugees or asylum seekers being 
turned away from the U.S. southern border without the opportunity to 
apply for asylum or another form of protection in the United States. I 
understand that under the Migrant Protection Protocols (MPP), the 
Department of Homeland Security may issue immigrants a notice to appear 
for an immigration court date in the United States and return them to 
Mexico to wait there for the duration of their U.S. immigration 
proceedings. As with any individual placed in removal proceedings under 
Section 240 of the INA, MPP returnees have the opportunity to claim 
asylum or another form of protection in front of a U.S. immigration 
judge. Individuals who claim fear of Mexico and who USCIS determines 
are more likely than not to be persecuted or tortured in Mexico are not 
eligible for return under MPP.

    Question. Mexico's National Search Commission reported in January 
that more than 61,000 people have disappeared, including more than 
5,000 in 2019. Most of these disappearances are committed by narco-
traffickers and criminals, many working with corrupt police or 
politicians. The disappearance of 43 students from the Ayotzinapa Rural 
Teachers' College remains deeply troubling five years on. If confirmed, 
what specific actions will you take to help Mexico recover those 
forcibly disappeared, achieve justice for their families, and reverse 
this horrifying trend?

    Answer. If confirmed, the Bureau of Western Hemisphere Affairs 
would continue the United States' commitment to supporting President 
Lopez Obrador's efforts to search for missing persons, identify the 
remains of the deceased, provide closure to families, and prosecute 
offenders. Through the Merida Initiative, the Department continues to 
assist Mexico's law enforcement and justice sector institutions to 
enhance the capabilities of Mexican authorities to investigate and 
prosecute such cases. U.S. foreign assistance helps build the capacity 
of national and state authorities to search for the missing utilizing 
family-inclusive approaches, conduct forensic analysis, centralize DNA 
data, and identify the deceased.

    Question.  July 2020 reports by the Washington Post indicate that 
Mexico added more than 11,000 people to its official count of 
disappeared persons, bringing the total to more than 73,000. These news 
figures indicate that in 2019, the first year of President Lopez 
Obrador's government, the number of additional disappearances was the 
second-most on record. What is your assessment of why the number of 
disappearances increased so greatly last year?

    Answer. In July 2020, the National Search Commission reported, 
based on a review of cases within state-level prosecutorial offices, 
the official count of disappeared and missing persons in Mexico has 
risen to more than 73,000 people. Since President Lopez Obrador assumed 
office December 1, 2018, 7,516 cases of missing and disappeared persons 
have been opened nationwide.

    Question.  Mexico's homicide rate reached a record high of over 
35,000 murders in 2019, with drug cartels and other organized criminal 
groups as major perpetrators of violent crime. Violent crimes range 
from mass killings and disappearances to targeted assassinations and 
shooting down a military helicopter. The brutal murder of three women 
and six children with dual U.S.-Mexican citizenship in a Mormon 
community in Sonora demonstrated the urgency of Mexico's violent crime 
problem for the United States. Do you believe that Mexican President 
Obrador is taking sufficient and appropriate action to improve public 
security and end impunity for violent crimes, including state 
involvement?

    Answer. Following engagement by U.S. senior leadership, Mexico has 
made concerted efforts to implement its commitments to combat 
transnational criminal organizations (TCO). Among other priorities, the 
United States needs to see progress on legislation and implementation 
of a new judicial wire intercept program, increased control of 
precursor chemicals used to produce fentanyl and other drugs in Mexico, 
and more maritime interdictions. We also need continued action on 
extraditions; maintenance of a high operational tempo in targeting TCO 
supply chains, drug production, and financial infrastructure; and 
coordination on border actions. One of the Lopez Obrador 
administration's top stated priorities is to address corruption and 
impunity.

    Question.  If confirmed, how will you leverage U.S. diplomacy and 
foreign assistance to reduce violent crime in Mexico?

    Answer. If confirmed, the Bureau of Western Hemisphere Affairs 
under my leadership will continue to work actively with the Government 
of Mexico to address violent crime. We will continue engagement with 
Mexico through the established High-Level Security Group, ensuring that 
whole of government approaches are implemented to ensure 
sustainability. We will continue to use Merida Initiative programming 
and other U.S. foreign assistance to expand the capacity of law 
enforcement and judicial officials to investigate and prosecute 
criminal activity, as well as address crimes affecting vulnerable 
populations. We stand ready to support the Mexican National Guard to 
help increase its capacities to combat crime.

    Question.  Please provide the committee with All Circular-175 (``C-
175'') packages, including action memoranda to enter and conclude 
negotiations, memoranda of law, and relevant attachments to such 
memoranda for Asylum Cooperative Agreements between the United States, 
Guatemala, Honduras, and El Salvador.

    Answer. I understand your interest in the Asylum Cooperative 
Agreements between the United States, Guatemala, Honduras, and El 
Salvador, and that there has been an effort by the Department to 
address your interest and to seek a mutually agreeable accommodation 
relating to these requests. I also understand that, to date, the 
Department and the committee have been unable to reach such an 
accommodation. If confirmed, I commit to support the Department's 
ongoing efforts to engage with the committee in order to reach an 
accommodation.

    Question.  Please provide the committee with all implementation 
plans or arrangements related to Asylum Cooperative Agreements between 
the United States, Guatemala, Honduras, and El Salvador.

    Answer. I understand your interest in Department records related to 
Asylum Cooperative Agreements between the United States, Guatemala, 
Honduras, and El Salvador. I understand that there has been an effort 
by the Department to address your interest and to seek a mutually 
agreeable accommodation relating to these requests. I also understand 
that, to date, the Department and the committee have been unable to 
reach such an accommodation. If confirmed, I commit to support the 
Department's ongoing efforts to engage with the committee in order to 
reach an accommodation.

    Question.  Please provide the committee with any/ all 
determinations by the Departments of Justice and Homeland Security that 
Guatemala, Honduras, and El Salvador each provide ``a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection,'' and that in each country an ``aliens' life or freedom 
would not be threatened on account of race, religion, nationality, 
membership in a particular social group, or political opinion,'' as 
required by 8 U.S.C. ' 1158.

    Answer. I understand your interest in these determinations made by 
the Departments of Justice and Homeland Security. I understand there 
has been an effort by the Department to address your interest and to 
seek a mutually agreeable accommodation relating to these requests. I 
also understand that, to date, the Department and the committee have 
been unable to reach such an accommodation. If confirmed, I commit to 
continue to engage with the Departments of Homeland Security and 
Justice, as well as the committee, in order to reach an accommodation.

    Question.  Please provide the committee with all assessments, 
reporting, or analysis by the Department and/ or Embassy officials on 
conditions in Guatemala, Honduras, and El Salvador related to each 
country's asylum capacity and procedures, ability to protect refugees 
in compliance with international legal standards, respect for the 
principle of non-refoulement, political and judicial support for the 
ACA, and views of non-governmental and international organizations.

    Answer. My understanding is the Department has briefed Congress, 
including the Senate Foreign Relations Committee, on these issues. If 
confirmed, I would commit to working with my Department and interagency 
colleagues to continue sharing information with Congress.

    Question.  The United States has been supporting Guatemala, 
Honduras, and El Salvador to build their asylum capacity through 
contributions to international organizations, yet moving rapidly to 
transfer hundreds of asylum seekers to these countries far beyond their 
current asylum capacity. Do you believe it is appropriate to build the 
plane while flying it when individuals' lives, freedom, and persecution 
are at stake?

    Answer. The United States has not yet begun implementation of the 
Asylum Cooperative Agreements (ACAs) with Honduras or El Salvador. 
Implementation of the U.S.-Guatemala ACA has been paused since mid-
March due to the COVID-19 pandemic. The goal of both the United States 
and Guatemala is to implement this agreement gradually so as not to 
overwhelm Guatemala's capacity to receive transferees as it strengthens 
its asylum system.

    Question.  Do you believe that the United States' Asylum 
Cooperative Agreements with Guatemala, Honduras, and El Salvador comply 
with our obligations under U.S. and international law to protect 
refugees? Please explain.

    Answer. The Asylum Cooperative Agreements allow the United States 
to transfer individuals who express an intent or interest in seeking 
protection in the United States to a partner country where the Attorney 
General and Secretary of Homeland Security have determined the 
agreements comply with the ``Safe Third Country'' exception to the 
Immigration and Nationality Act. I understand the State Department does 
not participate in making that domestic law determination.

    Question. Has the Department of State or Homeland Security 
approached any other countries to propose negotiation of additional 
Asylum Cooperative Agreements? If so, which countries and at what stage 
are these negotiations?

    Answer. The Department of State, in collaboration with DHS, is 
working with governments in the region to achieve the shared goal of 
reducing illegal immigration to the United States. It is my 
understanding the U.S. Government is not currently negotiating an 
Asylum Cooperative Agreement with any other government in the Western 
Hemisphere.

    Question.  If confirmed, would you pursue Asylum Cooperative 
Agreements with any other countries? If so, which countries?

    Answer. If confirmed, I would continue to work with the Department 
of Homeland Security and interagency to achieve the shared goal of 
reducing illegal immigration to the United States. I understand the 
U.S. Government is not currently negotiating an Asylum Cooperative 
Agreement with any other government in the Western Hemisphere.

    Question.  Please provide the committee with All Circular-175 (``C-
175'') packages, including action memoranda to enter and conclude 
negotiations, memoranda of law, and relevant attachments to such 
memoranda for agreements on H2A and H2B visa programs between the 
United States, Guatemala, Honduras, and El Salvador.

    Answer. I understand your interest in agreements on H2A and H2B 
visa programs between the United States, Honduras, and El Salvador. I 
understand there has been an effort by the Department to address your 
interest and to seek a mutually agreeable accommodation relating to 
these requests. I also understand that, to date, the Department and the 
committee have been unable to reach such an accommodation. If 
confirmed, I commit to support the Department's ongoing efforts to 
engage with the committee in order to reach an accommodation.

    Question.  Please provide the committee with all implementation 
plans or arrangements related to agreements on H2A and H2B visa 
programs between the United States, Guatemala, Honduras, and El 
Salvador.

    Answer. The bilateral agreements signed between the United States 
and Guatemala, El Salvador, and Honduras will facilitate increased 
transparency, accountability, and the safety of temporary workers from 
these countries. The agreements promote regular, orderly, and secure 
temporary migration and strengthen cooperation mechanisms to prevent, 
report, and investigate fraud and abuse. The agreements are intended to 
complement existing U.S. laws and strengthen the protections for U.S. 
workers and potential H-2 workers by ensuring workers are less 
vulnerable to criminal actors. U.S employers will also benefit from 
this additional transparency and accountability.

    Question.  President Trump withheld foreign assistance for over a 
year until he deemed that El Salvador, Guatemala, and Honduras had 
sufficiently reduced irregular migration to the United States. Since 
U.S. foreign assistance resumed in April, congressional notifications 
indicate that every program has reducing irregular migration as a major 
objective. How has U.S. assistance to these countries been effective in 
addressing the root causes of migration and displacement, such as 
violence and insecurity, human rights abuses, corruption, and poverty?

    Answer. If confirmed, I will work with the Department, our U.S. 
embassies, USAID, and other partners to ensure U.S. assistance 
programming continues to be aligned with the Department's policy goals 
to address the economic, security, and governance drivers of migration. 
While we recognize U.S. assistance can be an effective tool to address 
these root causes, and some progress has been made, political will of 
each government is essential to make further progress in these areas. I 
will continue to engage diplomatically with El Salvador, Guatemala, and 
Honduras as well as support our assistance programs, to help create an 
enabling economic environment that attracts private sector investment, 
thereby creating more economic opportunities for individuals in those 
countries that may otherwise seek to illegally immigrate to the United 
States.

    Question.  If confirmed, will you pursue the President's anti-
immigrant agenda as the centerpiece of U.S. foreign policy toward the 
region? If not, how will you ensure the President's myopic focus on 
immigration doesn't undermine other priorities?

    Answer. Migration cooperation plays an important role in U.S. 
foreign policy in the Western Hemisphere. If confirmed, I would 
continue to support and advance the administration's priorities in the 
region, which include reducing illegal immigration through a regional 
approach to shared responsibility and working with countries in the 
region to increase prosperity opportunities.

    Question.  In your view, what is the proper role of the Department 
of Homeland Security in U.S. foreign policy, and how does this role 
relate to that of the State Department?

    Answer. The Department of Homeland Security is responsible for the 
protection of our nation's borders and people from transnational 
threats. In this regard, DHS plays an important role in curbing illegal 
immigration, trafficking of illicit goods and persons, as well as other 
various immigration related issues. The role of the State Department in 
these efforts is to ensure our allies and partners in the region 
continue to have positive and effective relations with the United 
States, including effective working relations between DHS and their 
agency counterparts in the countries in the region.

    Question.  If confirmed, what objectives would you prioritize for 
U.S. foreign assistance to Central America?

    Answer. If confirmed, I will work with the Department, our U.S. 
embassies, USAID, and other partners to ensure U.S. assistance 
programming continues to be aligned with the Department's policy goals 
to address the economic, security, and governance drivers of irregular 
migration. I will prioritize U.S. assistance that helps El Salvador, 
Guatemala, and Honduras to build capacity of their institutions, 
police, and judicial systems; combat systemic corruption; establish 
necessary legal frameworks; and help to reduce barriers to private 
sector investment. In addition, I will work with interagency partners 
to continue U.S. assistance that can build stronger asylum systems in 
support of the Asylum Cooperative Agreements and U.S. national security 
interests.

    Question.  If non-governmental regional experts are correct, the 
economic challenges posed by the COVID-19 pandemic are likely to 
increase migrant flows toward the United States from Central America 
and Mexico. If confirmed, would you support another suspension of U.S. 
foreign assistance if this scenario occurs?

    Answer. U.S assistance has been effective in addressing some of the 
root causes of irregular migration from El Salvador, Guatemala, and 
Honduras; however, the challenges are enormous and, in recent months, 
exacerbated by the COVID-19 pandemic. I believe U.S. assistance will 
continue to help address the economic, security, and governance 
challenges facing Central America. Our cooperation with Mexico is long-
standing and covers a broad range of issues including counternarcotics 
and migration. If confirmed, I commit to engaging diplomatically with 
Central America and Mexico to address any migration issues that could 
arise as a result of the pandemic.

    Question.  In your confirmation hearing, you agreed that the United 
States should not deport individuals who have tested positive for 
COVID-19, and acknowledged reports that the United States has deported 
dozens of COVID-19 individuals to countries in Central America, where 
public health infrastructure is weak. If confirmed, what specific 
actions will you take to ensure that the United States ceases any 
deportations of COVID-19 individuals to countries in the Western 
Hemisphere region?

    Answer. If confirmed, I would continue to work with the Department 
of Homeland Security to seek to adjust health protocols and testing 
based on the unique situation in each receiving country. In addition, 
we will continue our substantial efforts in the receiving countries to 
work to ensure that adequate reception and quarantine protocols are 
followed.

    Question. If confirmed, will you increase U.S. assistance to 
address the COVID-19 pandemic in Central America?

    Answer. The COVID-19 pandemic has wide-ranging impacts on many 
countries throughout the hemisphere, including Central America. The 
Department and USAID have already provided $24.05 million in COVID-19 
supplemental assistance to all seven of the countries in Central 
America for projects ranging from providing sanitizer to schools in 
Costa Rica to establishing teams in the highlands of Guatemala to work 
with small business owners affected by the pandemic. I understand USAID 
has also redirected existing assistance to support the countries of El 
Salvador, Honduras, and Guatemala to be more responsive to COVID-19. If 
confirmed, I will support considering requests for assistance to 
Central America to address the economic, governance, and security 
issues driving corruption, weak institutions, and irregular migration, 
all of which will be impacted by the pandemic.

    Question.  The Trump administration publicly announced that it sent 
ventilators to Honduras and El Salvador but has said nothing on 
Guatemala. As of July 21st, Guatemala had the highest number of COVID 
positive individuals of the three countries with 39,039 in Guatemala; 
34,611 in Honduras; and 12,582 in El Salvador. Can you explain why it 
was announced that Honduras and El Salvador received ventilators and 
not Guatemala?

    Answer. It is my understanding that Honduras and El Salvador 
requested and received USAID facilitation in the purchase of their 
ventilators, and this is the reason why progress on only these two 
purchases was initially reported. At that point, the Government of 
Guatemala had chosen to pursue their own open-sourced order, for which 
USAID provided technical assistance and facilitation through its 
implementing partners. My understanding is the administration received 
a recent request from the Government of Guatemala, which is in the 
process of being addressed.

    Question.  Has Guatemala received ventilators from the Trump 
administration in order to strengthen its response to the COVID-19 
pandemic?

    Answer. I understand the administration recently received a request 
from Guatemala for ventilators which is in the process of being 
addressed. Guatemala had previously requested and received other 
medical supplies to strengthen its response to the pandemic.

    Question.  Are there plans to send ventilators to Guatemala in 
order to strengthen its response to the COVID-19 pandemic? If so, how 
many and when?

    Answer. I understand the administration recently received a request 
from Guatemala which is in the process of being addressed.

    Question. I am very concerned with the U.S. decision to walk away 
from multilateral anti-corruption tools such as CICIG in Guatemala and 
MACCIH in Honduras. How will you strengthen the rule of law and address 
corruption in Central America? What tools will you use?

    Answer. I understand that in January, Guatemalan President 
Giammattei created an anti-corruption commission in Guatemala to 
identify corruption within the Executive Branch, and the Honduran 
attorney general announced the creation of a new anti-corruption unit 
within the public ministry (UFERCO) that has taken over investigations 
MACCIH helped support. I am encouraged by the efforts of the 
authorities in Guatemala and Honduras to create these new anti-
corruption units. If confirmed, I will continue to support U.S. foreign 
assistance programming in these countries that can support capacity 
building of these units. If confirmed, I am also committed to using all 
available deterrence tools at the Department's disposal to seek to 
ensure there are consequences for anyone involved in and benefiting 
from significant acts of corruption.

    Question. On February 9, Salvadoran President Nayib Bukele sent 
soldiers to the Legislative Assembly to intimidate legislators into 
approving a $109 million loan from the Central American Development 
Bank to fight crime. Subsequently, his actions have resulted in 
multiple stand offs with the Supreme Court related to rulings on 
quarantine regulations that had been struck down by the court from 
March to May 2020. What is your assessment of this type of behavior and 
of President Bukele's commitment for the separation of powers in El 
Salvador?

    Answer. The United States supports democracy, rule of law--
including the separation of powers--and the strengthening of democratic 
institutions in El Salvador. President Bukele entering the Salvadoran 
legislature with armed security forces was wrong. We were heartened the 
following day he declared he would abide by the supreme court ruling 
regarding that issue and followed through with his actions. The 
Department has publicly called on all branches of the Salvadoran 
Government to work together for solutions consistent with the 
constitution of El Salvador on how best to improve security, protect 
the health of its citizens during the COVID-19 pandemic, and foster 
economic growth. If confirmed, I will continue along this avenue.

    Question. President Bukele said publicly on May 18 on a national TV 
broadcast that he was considering ``not paying the salaries'' of 
legislators and Supreme Court judges to ``prioritize medicine, food, 
and salaries of those fighting Covid-19''. What, in your view, would be 
the consequences of Mr. Bukele following through with his threats? How 
would this affect the bilateral relationship between the U.S. and El 
Salvador?

    Answer. The United States and El Salvador enjoy a strong bilateral 
relationship. The Department has stated publicly all branches of the 
Government of El Salvador should work together to protect the health of 
Salvadorans and stop the spread of COVID-19. The administration has 
committed significant funds to support the Salvadoran response to this 
pandemic. If confirmed, I will continue to work with El Salvador to 
strengthen our bilateral relationship.

    Question. If confirmed, what specific steps would you take to 
advocate for the importance of governance and the rule of law in El 
Salvador, particularly at a time when we are witnessing the challenges 
described in the previous two questions?

    Answer. If confirmed, I will support the continued efforts of the 
Department of State and the Department of Justice, as well as of the 
Organization of American States and other international and 
multilateral bodies, to increase adherence to the rule of law in El 
Salvador. Together, we will promote accountability for the Government 
of El Salvador to meet its objectives, including through the Commission 
Against Corruption and Impunity in El Salvador (CICIES).

    Question. Nearly 500,000 Salvadorans were internally displaced by 
violence in 2019. In January, El Salvador's congress passed landmark 
legislation to protect and assist internally displaced persons, but the 
COVID-19 pandemic has exacerbated challenges with devoting resources to 
the law's implementation. If confirmed, how will you support El 
Salvador's efforts to address internal displacement?

    Answer. In support of El Salvador's goals to bolster its protection 
capacity under the Comprehensive Regional Protection and Solutions 
Framework, the Department provides funding to international 
humanitarian organizations to help the Government of El Salvador 
mitigate and respond to forced displacement by addressing causes and 
providing support for Internally Displaced Persons (IDPs). If 
confirmed, I would encourage El Salvador to continue to address IDP 
issues and sustain State Department support for these efforts.

    Question. According to the State Department, the United Nations 
High Commissioner for Refugees estimates that El Salvador can 
adjudicate approximately five asylum cases per year with its current 
personnel and resources. At the same time, El Salvador has one of the 
world's highest homicide rates, with gang violence driving nearly 
500,000 Salvadorans to flee their homes inside El Salvador, and another 
178,000 to flee abroad as refugees and asylum seekers in 2019. Nearly 
200 individuals deported from the United States have been killed upon 
return to El Salvador, according to human rights groups. Given these 
conditions, do you believe that El Salvador provides conditions of 
safety and a ``full and fair'' asylum process to adequately protect 
asylum seekers and refugees transferred under its Asylum Cooperative 
Agreement with the United States?

    Answer. Before the U.S.-El Salvador Asylum Cooperative Agreement 
(ACA) can enter into force, the Department of Homeland Security and the 
Department of Justice must first determine that individuals transferred 
to El Salvador pursuant to the agreement would have access to full and 
fair procedures for determining their protection claims. The agencies 
must also determine that the individual's life or freedom would not be 
threatened in the receiving country on account of race, religion, 
nationality, membership in a particular social group, or political 
opinion.

    Question. According to the State Department, El Salvador has no 
dedicated budget or full-time staff assigned to asylum adjudications, 
and the United Nations High Commissioner for Refugees estimates that El 
Salvador has the capacity to adjudicate five asylum cases per year. Do 
you believe that El Salvador's high levels of violence and barely-
existent asylum capacity are adequate to protect asylum seekers 
transferred there by the United States under its Asylum Cooperative 
Agreement?

    Answer. As a cooperating country to the Comprehensive Refugee 
Response Framework, the United States provides humanitarian aid and 
capacity building support through our international organization 
partners in El Salvador. This assistance is complementary to the Asylum 
Cooperative Agreement (ACA) and supports the strategic objectives of 
this regional framework and the goals of its member countries, 
including El Salvador. This assistance supports El Salvador's efforts 
to build its asylum capacity and enhances protection resources 
available to asylum seekers, refugees, internally displaced persons, 
and other vulnerable migrants, including ACA transferees who request 
protection or wish to return to their home countries.

    Question.  According to the State Department, Guatemala adjudicated 
only 112 asylum claims in 2019. This capacity compares to the 939 
asylum seekers, including 357 children, whom the United States 
transferred to Guatemala in just four months. Do you believe that 
Guatemala's high levels of violence and weak asylum capacity are 
adequate to protect the 939 asylum seekers already sent there by the 
United States?

    Answer. As a cooperating country to the Comprehensive Refugee 
Response Framework, the United States provides humanitarian aid and 
capacity building support through our international organization 
partners in Guatemala. This assistance is complementary to the Asylum 
Cooperative Agreement (ACA) and supports the strategic objectives of 
this regional framework and the goals of its member countries, 
including Guatemala. This assistance helps Guatemala to increase its 
asylum capacity and enhances protection resources available to asylum 
seekers, refugees, and other vulnerable migrants, including ACA 
transferees who request protection or wish to return to their home 
countries.

    Question.  Guatemala has suspended implementation of the Asylum 
Cooperative Agreement during the COVID crisis. If confirmed, will you 
respect Guatemala's determinations on the appropriate timing and scope 
for the resumption of implementation?

    Answer. The United States and Guatemala agreed to pause 
implementation of the U.S.-Guatemala Asylum Cooperative (ACA) due to 
the COVID-19 pandemic. If confirmed, I would work with Guatemala on the 
appropriate timing and scope for the resumption of the ACA 
implementation.

    Question.  Guatemala has sought to limit the number of deportees it 
receives from the United States since dozens of deportees tested 
positive for COVID-19 upon arrival. Guatemalan authorities are so 
concerned about the U.S. exportation of COVID-19 that they requested 
diagnostic support from the U.S. Centers for Disease Control and 
Prevention. If confirmed, will you support Guatemala's interest in 
limiting U.S. deportation flights?

    Answer. If confirmed, I would work with the Department of Homeland 
Security on any requests from Guatemala regarding U.S. removal flights.

    Question. Guatemalan President Giammattei said in May, ``Guatemala 
is an ally of the United States, but I don't believe the U.S. is an 
ally to Guatemala because they don't treat us like one.'' If confirmed, 
how would you reassure Guatemala's leaders that the United States is 
their ally and that we seek to pursue mutual interests?

    Answer. Our bilateral relationship with Guatemala is close and 
strong and if confirmed, I would work to build on that foundation. 
There is a common bond between our two countries based on our shared 
beliefs in democracy and human rights and shared priorities of economic 
prosperity and citizen security. The United States has also proven a 
reliable partner to Guatemala in times of crisis, including most 
recently by providing more than $8.4 million in COVID-19 supplemental 
assistance for Guatemala, including $6 million in International 
Disaster Assistance for risk-communications and interventions in water, 
sanitation, and hygiene and more than $2.4 million in health funding.

    Question.  As you know, many of my colleagues and I have been 
strong supporters of the partnership between the United States and 
Guatemala. Crucial to this partnership is support for the rule of law 
and strong, independent, and transparent institutions. I've been 
troubled by recent developments suggesting that criminal elements have 
been working to manipulate the selection of judges in Guatemala. I'm 
also troubled by reports of political attacks against sitting judges in 
the country's highest court and efforts of undemocratic actors to 
remove these judges and undermine their efforts to uphold the rule of 
law. What is your assessment of these troubling developments?

    Answer. I too am concerned about effects of criminal elements to 
manipulate the selection of judges. I support the rule of law and 
judicial independence in Guatemala. A strong and stable system for 
ensuring the rule of law is important for attracting investment, 
providing social stability, addressing criminality and impunity, and 
ensuring respect for human rights in Guatemala. If confirmed, I commit 
to remain actively engaged with Guatemalan and civil society 
interlocutors on these issues, and to publicly express support for 
judicial independence and the rule of law, including the importance of 
respect for Guatemala's constitution. I will ensure the Bureau of 
Western Hemisphere Affairs continues those efforts to support the rule 
of law.

    Question. If confirmed, how will you work to support the integrity 
of Guatemala's judicial institutions and prioritize U.S. efforts to 
strengthen institutions that uphold the rule of law?

    Answer. If confirmed, I will work to eliminate corrupt influences 
in Guatemalan institutions through our diplomatic engagements with 
Guatemalan authorities, public messaging, and programs supporting the 
rule of law. If confirmed, I will also work to consistently encourage 
the Guatemalan Government to combat systemic corruption in all branches 
of government and to maintain the integrity and independence of the 
Guatemalan courts, including the Constitutional Court. In addition, if 
confirmed, I am committed to using all available deterrence tools at 
the Department's disposal to work to enforce consequences for anyone 
involved in and benefiting from significant acts of corruption in 
Guatemala.

    Question.  According to the State Department, Honduras adjudicated 
a total of 46 asylum claims in 2019, and has no dedicated budget or 
full-time staff assigned to its asylum office. Do you believe that 
Honduras's high levels of violence and weak asylum capacity are 
adequate to protect asylum seekers transferred there by the United 
States under its Asylum Cooperative Agreement?

    Answer. As a cooperating country to the Comprehensive Refugee 
Response Framework, the United States provides humanitarian aid and 
capacity building support through our international organization 
partners in Honduras. This assistance is complementary to the Asylum 
Cooperative Agreement (ACA) and supports the strategic objectives of 
this regional framework and the goals of its member countries, 
including Honduras. This assistance supports the Government of Honduras 
to build its asylum capacity and enhances protection resources 
available in these countries to asylum seekers, refugees, internally 
displaced persons, and other vulnerable migrants, including ACA 
transferees who request protection or wish to return to their home 
countries.

    Question.  In 2019, in the U.S. drug trafficking case against 
Honduran national Juan Antonio Hernandez, court filings made reference 
to an unidentified co-conspirator (CC-4), stating that ``CC-4 was 
elected President of Honduras in late 2013.'' For the congressional 
record, can you please state who was elected President of Honduras in 
late 2013?

    Answer. Juan Orlando Hernandez was elected president of Honduras in 
2013.

    Question.  What is your understanding of the involvement of 
President of Honduras in drug trafficking?

    Answer. The Department refers any questions about the court filings 
in the trials concerning Tony Hernandez, Geovanny Daniel Fuentes 
Ramirez, and Juan Carlos Bonilla Valladares to the Department of 
Justice.

    Question. If you received information that an elected official in 
Honduras was involved--whether directly or as an accomplice--in drug 
trafficking, what specific steps would you take?

    Answer. If confirmed, I would refer information implicating 
officials in drug trafficking to the Department of Justice.

    Question.  Do you believe that Kingpin sanctions should be used 
against elected officials in Honduras who have been involved in drug 
trafficking?

    Answer. I understand the Department, in cooperation with the 
Department of the Treasury, works to investigate and impose sanctions, 
as appropriate, to promote accountability for a variety of crimes, 
including drug trafficking through the Foreign Narcotics Kingpin 
Designation Act and on corruption through the Global Magnitsky 
sanctions program. The Department also applies visa restrictions and 
publicly designates corrupt officials and their family members, as 
appropriate, under Section 7031(c) of the Department of State, Foreign 
Operations, and Related Programs Appropriations Act. It is my 
understanding that the tools are applicable to foreign officials. If 
confirmed, I am committed to continuing to utilize the tools at the 
U.S. Government's disposal to block assets and deny access to the 
United States to officials involved in corruption and drug trafficking.

    Question.  On April 21, 2020, I--along with Senators Inhofe, Rubio, 
Scott and Leahy-- sent a letter to Secretary Pompeo requesting the 
referral of all U.S. citizen claims against Honduras to the Foreign 
Claims Settlement Commission (FCSC) of the U.S. Department of Justice. 
We reference several such claims, some of which have lingered for 
decades and, in some cases, allege damages in the tens of millions of 
dollars. These include the claim of a cement company, CEMAR, formerly 
owned by a U.S. claimant. Also, mentioned is a Honduran cement duopoly 
that was responsible for the demise of CEMAR, as corroborated in U.S. 
and Honduran official findings. It is our understanding that a member 
of this duopoly, CENOSA is supplying the cement for the new $500m U.S. 
Embassy under construction in that country. Equally troubling is the 
fact that Honduran officials and businessman, including CENOSA 
principals, have been convicted in U.S. courts of drug trafficking, 
money laundering, and other federal crimes.
    Do you support the referral of all U.S. citizen claims against 
Honduras to the FCSC? If you are confirmed, would you assure this 
committee that your office will submit a plan for the resolution of 
outstanding confiscation claims--including those of CEMAR and other 
U.S. claimants--within your first 30 days in your position?

    Answer. I understand the Department has urged the Honduran 
Government at the highest levels to resolve outstanding disputes. 
Regarding your request to refer U.S. citizen claims against Honduras to 
the FCSC, the Department notes that such a referral would not provide 
an avenue of redress to claimants absent a negotiated claims 
settlement. Indeed, the United States negotiates BITs and other 
investment treaties with countries to enable U.S. investors to seek 
compensation for wrongful acts directly from these countries. The 
Department will continue to work to resolve outstanding confiscation 
claims.

    Question.  U.S. firms and citizens continue to report that 
malfeasance and a lack of accountability in the Honduran Government, 
including in the Honduran judiciary, are significant concerns and a 
constraint to successful investment in Honduras (Note: See USTR ANNUAL 
NTE REPORT 2019--HONDURAS). Many longstanding legal claims against 
Honduras remain unresolved despite appropriations laws from 2016 to 
present conditioning aid to that country on, among other things, 
fighting corruption and the resolution of U.S. citizens' claims... With 
the refusal of the Honduran Government to renew the OAS anti-corruption 
commission, what steps will you take to improve the investment climate 
in Honduras? If you are confirmed, would you prioritize the prompt 
resolution of U.S. citizens' claims against Honduras that have lingered 
for many years or even decades?

    Answer. I remain committed to the fight against corruption and to 
the promotion of transparency, accountability, and rule of law in 
Central America. If confirmed, I will continue to support the efforts 
of Central American Governments to address corruption in their 
countries. The U.S. Government is supporting the efforts of the newly-
established Special Fiscal Unit Against Corruption Network (UFERCO) in 
Honduras. If confirmed, I will continue to look for ways to strengthen 
anti-corruption efforts.

    Question.  On January 13, Chairman Risch and I wrote to Secretary 
Pompeo asking that he takes steps to align U.S. diplomacy and sanctions 
related to Nicaragua in order to establish a unified strategy with the 
objective of creating the conditions for free, fair, transparent and 
democratic elections in 2021. What specific steps will you take to 
align U.S. diplomacy and sanctions in support of democratic elections 
in Nicaragua in 2021?

    Answer. Your letter was well received, and I know from my role in 
USOAS that the administration has a comprehensive strategy that aligns 
bilateral and multilateral diplomacy and sanctions, as well as our 
support for the Nicaraguan pro-democracy coalition. If confirmed, I 
look forward to working with the Organization of American States (OAS) 
and the international community more generally to press for robust 
electoral reforms outlined by Nicaraguan civil society. The United 
States continues to call out the Ortega regime's blatant corruption and 
disregard for human rights. On July 20, the United States imposed 
additional financial sanctions, sending a clear message to the Ortega 
regime that the pressure will continue until respect for the democratic 
human rights of the Nicaraguan people are restored. If confirmed, I 
will work to advance this coordinated diplomatic and economic pressure.

    Question.  What is your assessment of the Cuban Medical 
Professional Parole program, which was started in August 2006 and ended 
in January 2017? Did you consider it a valuable foreign policy 
initiative?

    Answer. I understand that from 2006 to 2017, the Cuban Medical 
Professional Parole (CMPP) program allowed 16,206 Cuban doctors and 
their families to apply to take refuge in the United States. The Obama 
administration in its last weeks in office agreed with Cuba to end the 
program to provide parole to the doctors who wished to escape from the 
program. In return, Cuba agreed to consider accepting the return of 
other categories of Cuban nationals subject to final removal from the 
UnitedStates by DHS.

    Question.  If confirmed, will you use your position as Assistant 
Secretary for Western Hemisphere Affairs to advocate that the U.S. 
Government re-establish the Cuban Medical Professional Parole program?

    Answer. I understand the authority to reinstate the program resides 
with DHS and the most recent agreement signed as part of the Migration 
Accords specifically commits the United States to eliminating the CMPP. 
That said, I will commit to reviewing the program with our DHS partners 
to determine the extent to which it is achieving our foreign policy 
goals.

    Question.  Over the past 15 years, with a limited number of 
exceptions, the U.S. Executive branch has traditionally requested $20 
million annually from the U.S. Congress for programs to support 
democracy activists, human rights defenders, and independent civil 
society. However, in the last 3 years, the Trump administration has 
repeatedly requested less than $20 million for Cuba democracy programs. 
What is your understanding of why the Trump administration has 
requested less than $20 million for these programs during the last 20 
years?

    Answer. U.S. Cuba policy currently supports democracy and human 
rights on the island and the United States' intention to demonstrate 
solidarity with the Cuban people in the face of a repressive regime. 
Direct U.S. assistance to promote respect for human rights and 
fundamental freedoms is important. U.S. assistance supports independent 
civil society initiatives that promote democracy, human rights, and 
fundamental freedoms, including freedoms of expression and association. 
It is my understanding that the request levels in the past years have 
been based on assessment of the best balance among worldwide assistance 
requirements. If confirmed, I will review the records and advocate for 
sufficient funding for these important programs.

    Question.  If confirmed, will you advocate for the Trump 
administration to request $20 million from Congress for Cuba democracy 
programs?

    Answer. The administration's Cuba policy makes clear the intent to 
support the Cuban people by advancing human rights and democracy in 
Cuba. Annual funding requests are formulated to ensure maximum 
efficiency and effectiveness of U.S. taxpayer dollars.

    Question.  Should the Cuban Government profit off of Cuban 
confiscated property that they claim to own in the US?

    Answer. The Cuban Government should not profit off of property that 
it improperly confiscated in Cuba. U.S. policy currently takes a stance 
on such confiscated property, no longer suspending Title III of the 
LIBERTAD Act of 1996 and stepping up enforcement of Title IV of that 
Act.

    Question. Are you aware that the State Department provided foreign 
policy guidance to OFAC to allow the Cuban Government to renew an 
expired trademark registration for Havana Club rum that was denied 
previously?

    Answer. I understand that in 2015 the State Department provided 
foreign policy guidance to OFAC in connection with a license request by 
a Cuban state owned enterprise in connection with the Havana Club 
trademark registration, following which the company renewed its 
trademark registration at USPTO.

    Question.  Do you commit to providing new foreign policy guidance 
to OFAC to deny the Cuban Government its trademark registration for 
Havana Club rum?

    Answer. While I understand the Department does not discuss the 
details of its foreign policy guidance to the Treasury Department, and 
I would not want to prejudice any possible action, I commit to 
reviewing whether new foreign policy guidance would be appropriate in 
this and any other case as necessary to ensure the administration's 
policy on Cuba.

    Question. The consolidation of peace in Colombia is a bipartisan 
goal and progress towards this will be a historic achievement. Yet 
peace accord implementation has faced challenges and human rights 
defenders and community leaders who have put their lives on the line to 
build peace are being threatened and killed. Consolidation of peace is 
also needed if Colombia is to continue its generous role towards 
Venezuelan refugees. If confirmed, what steps would you take to 
encourage the Duque administration to fully implement the peace accords 
and protect human rights defenders?

    Answer. It is my understanding that the United States continues to 
support Colombia's implementation of the 2016 peace agreement as it 
continues the essential long-term work of extending security, state 
presence, and economic development throughout the country. If 
confirmed, I will continue the U.S. diplomatic engagement and foreign 
assistance programming that has supported Colombia's progress since the 
signing of the accord. I share your concern over the persistent 
killings of human rights defenders. If confirmed, I will engage with 
the Colombian Government and civil society to support and encourage 
Colombia's efforts to investigate and prosecute those responsible for 
these killings, and to deter future violence.

    Question.  The political, economic, and humanitarian crisis in 
Venezuela has driven more than five million Venezuelans to flee their 
country. In the region, Colombia has been the largest recipient of 
Venezuelan migrants and refugees. While the Trump administration has 
made efforts toward addressing this crisis, I am concerned that this 
amount does not meet the magnitude of the crisis. What is your 
assessment of the amount needed to meet the current needs of countries 
like Colombia, where the capacity of schools and hospitals are 
overwhelmed by the influx of Venezuelan refugees?

    Answer. The nearly 1.8 million Venezuelan refugees currently 
sheltering in Colombia do create a significant challenge for the 
Colombian Government, especially in terms of resources and social 
services. To assist, the U.S. Government has contributed over $267 
million in health and humanitarian assistance and over $77 million in 
development and economic assistance since FY 2017, making Colombia the 
largest regional recipient of assistance for the Venezuela response. 
This funding complements Colombia's own existing efforts to assist 
Venezuelan refugees and the communities that host them. If confirmed, I 
will strongly encourage other donors to contribute more assistance to 
Colombia and other host countries to address the Venezuelan regional 
crisis.

    Question. While I understand that the current priority focuses on 
eradication, given the alarming levels of coca cultivation we continue 
to see in Colombia, we cannot expect to achieve long-term success 
without a balanced approach, such as emphasis on money laundering and 
financial crimes. If confirmed, what steps would you take to advocate 
for a more comprehensive approach to our counternarcotics strategy in 
Colombia?

    Answer. I understand the United States continues to work with 
Colombia on a comprehensive approach to counternarcotics, rural 
development, and rural security, with the goal of reducing coca 
cultivation and cocaine production to half of 2017 levels by the end of 
2023. We believe that the most effective way to reach this joint goal 
is through an integrated approach that includes manual eradication, 
alternative development, new technologies, and targeted aerial 
eradication. We need to continue bolstering Colombia's investigatory 
capabilities to address international money laundering and financial 
crimes. If confirmed, I will work with partners including the 
Department's Bureau of International Narcotics and Law Enforcement 
(INL) to ensure that the United States deploys all possible tools to 
assist Colombia.

    Question.  While there has been bipartisan support for elements of 
the administration's approach in Venezuela--including through my VERDAD 
Act, which was signed into law last year--progress remains limited. The 
Maduro regime is taking steps to hold fraudulent legislative elections 
later this year, packing the electoral counsel and dismantling 
opposition parties. If Maduro--with the support of the Cuban regime and 
Putin's Russia--continues undeterred, he will be poised to lock down a 
criminal dictatorship for years to come. Given the scope of Venezuela's 
humanitarian crisis, this result would be disastrous. If confirmed, 
what specific steps would you take to ensure that a free, fair, 
transparent and democratic electoral process takes place in Venezuela 
this year, one in which leaders from the interim government and the 
political opposition are able to successfully compete?

    Answer. The Maduro regime's announcement of new parliamentary 
elections on December 6 is a continuation of his efforts to undermine 
democracy in Venezuela. If confirmed, I will continue to engage 
robustly with our partners in the international community to ensure we 
maintain pressure on the illegitimate Maduro regime and support for 
Venezuela's democratic actors. A centerpiece of this effort will be 
securing Venezuelan and international support for the Democratic 
Transition Framework for Venezuela. This initiative proposes to 
establish a broadly acceptable transitional government to oversee free 
and fair presidential and parliamentary elections. It shows those in 
the Maduro camp that he is the obstacle to the resolution o the crisis 
on terms acceptable to them, including lifting sanctions. At the same 
time, I anticipate continuing to deploy sanctions to force the Maduro 
regime to engage in a political solution, as well as ensure the 
Department proactively identifies and targets new sources of regime 
income, such as illicit gold.

    Question.  While there is broad bipartisan support for the 
restoration of democracy in Venezuela, U.S. efforts and those by our 
diplomatic partners have not achieved our desired goal. What do you 
think the Trump administration could have done differently in the last 
18 months in order to increase our overall chance for success?

    Answer. Venezuela remains in a deep crisis under the illegitimate 
regime of Maduro. Dismantling the dictatorial regime's grip on the 
country is difficult. Maduro's deceit in pretending to enter into 
negotiations, although he had no intention of making changes, made 
progress difficult for both the opposition and the international 
community. If confirmed, I will remain steadfast in our support for a 
political resolution to Venezuela's crisis. Our proposed Democratic 
Transition Framework for Venezuela illustrates a path to establish a 
broadly acceptable transitional government to oversee free and fair 
presidential and parliamentary elections.

    Question.  While there is broad bipartisan support for the 
restoration of democracy in Venezuela, U.S. efforts and those by our 
diplomatic partners have not achieved our desired goal. What changes to 
you think the Trump administration could make in the next 6 months in 
order to increase our overall chance for success?

    Answer. Venezuela's multifaceted crisis, compounded by the COVID-19 
pandemic, is increasingly dire. Many in the illegitimate Maduro regime 
are beginning to realize they need to take advantage of the off-ramps 
offered before things get worse for them. If confirmed, I will continue 
our robust support of Venezuela's democratic actors as they seek to 
restore democracy to Venezuela. As I have at the OAS, I will support 
means by which the international community and Venezuelan actors can 
pressure Maduro to leave power and allow a broadly acceptable 
transition government to organize free and fair presidential and 
parliamentary elections as outlined in our Democratic Transition 
Framework.

    Question.  What is, in your opinion, the worst case scenario for 
Venezuela, and how does it affect U.S. national security interest?

    Answer. The worst outcome would be that Venezuela continues to 
deteriorate and democracy, economic stability, and rule of law are not 
peacefully restored in Venezuela. The illegitimate Maduro regime has 
destroyed Venezuela's institutions, economy and infrastructure through 
his abuse of state power and by welcoming malign support from outside 
nations, including Cuba, Russia, Iran, and China. Depending on the 
nature of such support, these partnerships may also end up compromising 
U.S. national security. These nations enable his reign of terror to 
continue through additional financial support. The regime's various 
tactics of public intimidation, including torture, are enabling a 
despot at the expense of the Venezuelan people. The illegitimate Maduro 
regime harbors traffickers and other transnational criminal 
organizations as well as providing a foothold in the hemisphere to 
Russia and other malign actors. In addition, millions of fleeing 
Venezuela are overburdening neighboring countries and threaten regional 
security.

    Question.  With regards to Cuba's meddling in Venezuela, can you 
outline your strategy to increase the cost to Havana of propping up 
Maduro's repressive apparatus and thwarting the international pressure 
being applied by the international community?

    Answer. The Department and White House have condemned Cuban 
interference in Venezuela and if confirmed, I would encourage our 
partners to do the same. Among financial and travel restrictions on 
Cuban individuals and/or entities supporting the illegitimate Maduro 
regime, the U.S. Government has designated firms, vessels, and state-
owned enterprises participating in the transport of Venezuelan oil to 
Cuba, giving away a natural resource at the expense of the Venezuelan 
people. If confirmed, I would also seek additional opportunities to 
implement appropriate measures in connection with Cuban individuals 
and/or entities responsible for funding or otherwise enabling the 
Maduro regime.

    Question. With regards to Russia's meddling in Venezuela, can you 
outline your strategy to increase the cost to Moscow of propping up 
Maduro's repressive apparatus and thwarting the international pressure 
being applied by the international community?

    Answer. The Department and White House have condemned Russian 
interference in Venezuela and I would encourage our partners to do the 
same. Moreover, the U.S. Government has targeted firms, vessels, and 
state-owned enterprises engaging in transactions involving Venezuelan 
oil, including Rosneft Trading SA, to indicate that we no longer are 
merely messaging on Russia's interference, we are taking action. If 
confirmed, I would seek additional opportunities to implement 
appropriate measures in connection with Russian individuals and/or 
entities responsible for funding or otherwise enabling the illegitimate 
Maduro regime.

    Question.  In July 2018, the House of Representatives passed 
legislation (HR.549) that would designate Venezuela for Temporary 
Protected Status (TPS). Both the House legislation and my bill (S.636) 
have not advanced in the U.S. Senate due to Republican objections. If 
confirmed, would you advocate that Republican Senators support approval 
of S.636 or HR.549?

    Answer. If confirmed, I would work with Congress and DHS, as 
appropriate, on issues related to TPS.

    Question.  Regardless of Congressional action, the Trump 
administration has all of the authority it needs to designate Venezuela 
for TPS. What is your understanding of why the Trump administration has 
chosen not to exercise its authority and designate Venezuela for TPS?

    Answer. The decision on whether to designate a country for TPS is 
made by the Secretary of Homeland Security.I understand that, as part 
of the decision process, the Secretary of Homeland Security consults 
with other agencies. If confirmed, I will seek to ensure the Secretary 
of State has the information he needs to properly inform the DHS 
decision, as appropriate.

    Question.  While the ultimate decision to designate a country for 
TPS lies with DHS, the State Department plays an active role in the 
interagency decision making process. If confirmed, would you advocate, 
on behalf of the State Department, that the Trump administration 
designate Venezuela for TPS?

    Answer. I understand that, as part of the decision process to 
designate a country for TPS, the Secretary of Homeland Security 
consults with other agencies.
    If confirmed, I will work to ensure the Secretary of State has the 
information he needs to properly inform the DHS decision, as 
appropriate.

    Question.  More than 5 million Venezuelans have fled to countries 
across Latin America and the Caribbean. Colombia, a U.S. ally, hosts 
1.8 million Venezuelans. Peru hosts over 830,000 Venezuelans. Here in 
the United States, an estimated 200,000 Venezuelan nationals would 
benefit from TPS according to the Congressional Budget Office. What 
signal does it send to our partners in Latin America and the Caribbean 
that are currently hosting the vast majority of Venezuelan refugees and 
migrants that the U.S. is unable to provide TPS to 200,000 Venezuelans 
currently in the United States?

    Answer. I understand that, as part of the decision process to 
designate a country for TPS, the Secretary of Homeland Security 
consults with other agencies. If confirmed, I will work to ensure the 
Secretary of State has the information he needs to properly inform the 
DHS decision, as appropriate.
    If confirmed, I will also work with my colleagues at the 
appropriate agencies to coordinate our response to the humanitarian 
crisis in Venezuela, including boosting affected countries' long-term 
capacity to respond to the influx of Venezuelans, strengthening and 
expanding social services, providing technical support to national 
migration authorities, and creating new economic opportunities in 
communities hosting Venezuelans..

    Question.  During your confirmation hearing, you stated that 
``individuals should not be returned to Venezuela in the current 
circumstances.'' However, you did not express support for providing 
Venezuelans in the U.S. with TPS. Please explain why you support a 
policy that leaves Venezuelans in the U.S. without protections, legal 
status, or the eligibility to receive work authorization so that they 
can support themselves and their families?

    Answer. The Department of State is focused on ending the crisis and 
getting Venezuela back on the road to stability for the benefit of all 
Venezuelans.
    The United States is the largest donor to relief efforts for the 
Venezuela humanitarian crisis. This assistance provides life-saving aid 
and critical basic services--including shelter for the most vulnerable, 
emergency food and health assistance, safe drinking water, protection 
from violence and exploitation, and work and education opportunities--
throughout the region to those who have fled repression and chaos in 
Venezuela.

    Question.  The exodus of 5.2 million Venezuelans to countries 
across Latin America and the Caribbean is now the source of the second 
largest displacement crisis in the world--second only to Syria. 
Although the United States is the largest donor in support of the vast 
humanitarian needs resulting from the Venezuela crisis, the majority of 
humanitarian needs remain unmet, and these needs continue to increase 
as the COVID-19 pandemic surges across the region. If confirmed, what 
actions will you take to increase humanitarian assistance and 
protection for Venezuelans?

    Answer. If confirmed, I will continue to encourage the provision of 
additional U.S. humanitarian assistance and support to protection 
programs for Venezuelans--wherever they may be. I will also continue 
bilateral and multilateral engagement with other prospective donors to 
encourage greater burden-sharing and increased international 
contributions. To date, the United States has provided more than $856 
million in humanitarian and development assistance to support programs 
inside Venezuela and across 16 neighboring countries. In addition to 
COVID-19 aid, the United States is providing $13.7 million in 
humanitarian funding to help Venezuela and $20.6 million to help 
Colombia, which hosts nearly 1.8 million Venezuelan refugees.

    Question.  If confirmed, what strategy will you pursue to increase 
access for humanitarian organizations inside Venezuela? Please be 
specific.

    Answer. If confirmed, I will work closely with my USAID colleagues 
to keep pressing the United Nations, as well as the illegitimate Maduro 
regime, for increased humanitarian aid access for Venezuelans in need. 
The humanitarian community has been attempting to coordinate with the 
illegitimate Maduro regime for a significant time period to facilitate 
a mechanism for registration of international humanitarian 
organizations and temporary entry as international entities, but so far 
nothing has come to fruition. I will press the U.N. to be more forceful 
in this regard. In the meantime, humanitarian organizations of all 
kinds are at times able to register locally and gain access this way, 
but local registration remains an arduous process.

    Question.  If confirmed, what steps will you take to avoid 
politicization of U.S. humanitarian assistance in the Venezuela 
context? What policy will you pursue on branding of U.S. humanitarian 
assistance? Please be specific.

    Answer. If confirmed, I will honor and uphold the humanitarian 
principles of humanity, neutrality, impartiality, and independence that 
guide our operations and assistance in the Venezuela context. I look 
forward to working with my USG humanitarian assistance colleagues, such 
as in USAID and PRM, on the branding of U.S. humanitarian assistance 
but to date, I understand due to security concerns and the protection 
and wellbeing of our implementers, USG-origin aid is unbranded.

    Question.  If confirmed, do you commit to make public statements 
clarifying the Treasury Department Office of Foreign Assets Control's 
guidance on U.S. sanctions related to Venezuela to ensure these 
sanctions do not impede humanitarian organizations?

    Answer. U.S. policy is to ensure the Venezuelan people have access 
to food and medicines, which is why the United States maintains broad 
exemptions and authorizations under its Venezuela sanctions program 
that allow for the provision of humanitarian assistance and the 
commercial sale and export of agricultural commodities, food, medicine, 
and medical devices, to Venezuela. We will continue to seek 
opportunities to highlight these exemptions and authorizations and work 
with stakeholders, including international organizations, foreign 
companies, and financial entities, to prevent over compliance.

    Question. If confirmed, what specific actions will you take to 
significantly increase humanitarian and development support for the 
needs of Venezuelan refugees and migrants by other donors?

    Answer. In order to increase humanitarian and development support 
for Venezuelan refugees by other donors, if confirmed, I will seek to 
engage in the diplomatic and multilateral context through existing 
consultative mechanisms, including the Quito Process and UN-sponsored 
donor conferences, to enable continued progress on host-countries' 
economic and social development agendas and to shore up necessary 
resources to fill gaps. Incorporating Venezuelan refugee populations 
into development programs is key to the successful integration of these 
populations into local communities and economies.

    Question. While the ultimate decision to designate a country for 
TPS lies with DHS, the State Department plays an active role in the 
interagency decision making process. If confirmed, would you advocate, 
on behalf of the State Department, that the Trump administration 
designate Venezuela for TPS?

    Answer. I understand that, as part of the decision process to 
designate a country for TPS, the Secretary of Homeland Security 
consults with other agencies. If confirmed, I will work to ensure the 
Secretary of State has the information he needs to properly inform the 
DHS decision, as appropriate.

    Question. More than 5 million Venezuelans have fled to countries 
across Latin America and the Caribbean. Colombia, a U.S. ally, hosts 
1.8 million Venezuelans. Peru hosts over 830,000 Venezuelans. Here in 
the United States, an estimated 200,000 Venezuelan nationals would 
benefit from TPS according to the Congressional Budget Office. What 
signal does it send to our partners in Latin America and the Caribbean 
that are currently hosting the vast majority of Venezuelan refugees and 
migrants that the U.S. is unable to provide TPS to 200,000 Venezuelans 
currently in the United States?

    Answer. I understand that, as part of the decision process to 
designate a country for TPS, the Secretary of Homeland Security 
consults with other agencies. If confirmed, I will work to ensure the 
Secretary of State has the information he needs to properly inform the 
DHS decision, as appropriate.
    If confirmed, I will also work with my colleagues at the 
appropriate agencies to coordinate our response to the humanitarian 
crisis in Venezuela, which includes boosting affected countries' long-
term capacity to respond to the influx of Venezuelans, strengthening 
and expanding social services, providing technical support to national 
migration authorities, and creating new economic opportunities in 
communities hosting Venezuelans.

    Question. During your confirmation hearing, you stated that 
``individuals should not be returned to Venezuela in the current 
circumstances.'' However, you did not express support for providing 
Venezuelans in the U.S. with TPS. Please explain why you support a 
policy that leaves Venezuelans in the U.S. without protections, legal 
status, or the eligibility to receive work authorization so that they 
can support themselves and their families?

    Answer. The Department of State is focused on ending the crisis and 
getting Venezuela back on the road to stability for the benefit of all 
Venezuelans.
    The United States is the largest donor to relief efforts for the 
Venezuela humanitarian crisis. This assistance provides life-saving aid 
and critical basic services--including shelter for the most vulnerable, 
emergency food and health assistance, safe drinking water, protection 
from violence and exploitation, and work and education opportunities--
throughout the region to those who have fled repression and chaos in 
Venezuela.

    Question. If confirmed, will you prioritize the integration of 
Venezuelan refugees into U.S. development programs for host countries?

    Answer. I support a combined humanitarian and development approach 
to simultaneously improve the conditions of Venezuelan refugees and 
migrants and enable continued progress on host-countries' economic and 
social development agendas. I will work to advance the integration of 
Venezuelans into development programs, which can minimize the strains 
on public services, infrastructure, social cohesion, and the broader 
economy that may result from hosting large numbers of Venezuelans, and 
to ensure that strengthened coherence between humanitarian and 
development actors is a top priority in the U.S. response to the 
Venezuela regional crisis.

    Question. If confirmed, will you advocate for U.S. funding of the 
World Bank's Global Concessional Financing Facility projects in support 
of refugees and host communities in Colombia and Ecuador?

    Answer. Yes. I understand the Department favors supporting Global 
Concessional Financing Facility (GCFF) projects that benefit both 
refugees and their hosting communities, and I look forward to 
supporting the Department's objectives. I understand the Department's 
Bureau of Population, Refugees and Migration is working to support a 
GCFF housing project in Colombia with $25 million of ESF funds from the 
FY 2019 appropriation and I look forward to working with them, if 
confirmed.

    Question. Last year, the Moreno Government reached initial 
agreement on a $4 billion IMF package, which would be in addition to $6 
billion in support from the Inter-American Development Bank, World 
Bank, and other financial institutions. These funds will help Ecuador 
create conditions for a more inclusive economy, protect vulnerable 
sectors of the population, and increase competitiveness. It is clear 
that the COVID-19 pandemic will further exacerbate the damage to an 
already weak economy and magnify the country's need for economic 
relief. What does the magnitude of this financial package say about the 
scope of the economic challenges that President Moreno inherited from 
his predecessor?

    Answer. Ecuadoran President Lenin Moreno inherited challenging 
economic problems from his predecessor. President Moreno has set 
Ecuador on a more democratic, market oriented path for the long term 
benefit of the Ecuadoran people. The United States has supported 
Ecuador and increased bilateral cooperation across various issues of 
mutual interest to increase economic growth. The United States and 
Ecuador resumed active engagement on trade issues with the reactivation 
of the bilateral Trade and Investment Council in November 2018 after a 
nine-year lapse. If confirmed, I will work closely with Treasury and 
international institutions in support of Ecuador.

    Question. What is your assessment of the Moreno Government's 
ability to successfully manage and implement this major financial 
package, in light of the COVID-19 pandemic and as the country prepares 
to hold presidential elections in early 2021?

    Answer. The Moreno administration is working to meet its 
responsibilities to the Ecuadoran people and its creditors despite the 
fierce economic impact of COVID-19. My assessment is that the 
Government faces huge challenges created by the previous regime and is 
doing a very professional job of managing them in negotiating and 
implementing a financial package. In addition, the Department of State 
and interagency partners continue to support Ecuador during health and 
economic challenges. The Department of State and USAID have provided 
nearly $14 million in COVID-related assistance to strengthen Ecuador's 
health system, provide emergency food relief, technical assistance and 
training, and humanitarian assistance to support refugees and host 
communities. USAID has also delivered 50 ventilators at a time of 
critical need, saving lives and helping Ecuador respond to the COVID-19 
pandemic.

    Question. Venezuela's widespread humanitarian crisis has prompted 
more than 5 million Venezuelan migrants to flee their country and, in 
turn, has placed significant strain on neighboring countries. Ecuador 
has received over 300,000 Venezuelan migrants, and hundreds of 
thousands more have passed through the country during the last two 
years in transit to other countries. What is your assessment of 
Ecuador's ability to manage this massive influx of Venezuelan refugees?

    Answer. Ecuador hosts nearly 363,000 Venezuelans and more than 
69,000 (mostly Colombian) registered refugees, straining social and 
health services. Despite severe economic difficulties, President Moreno 
continues to be supportive of Venezuelan refugees remaining in and 
transiting through Ecuador. Since 2017, the United States has 
contributed nearly $81 million in humanitarian aid to assist with 
emergency response efforts to address the influx of Venezuelans. The 
Department's programming continues to support beneficiaries through 
cash-based assistance and is exploring how to provide food assistance 
and other support to shelters. If confirmed, I look forward to working 
with the Ecuadorans as we confront this regional crisis.

    Question. If confirmed, what type of cooperation with the Moreno 
Government would you prioritize in order to support their efforts to 
address the Venezuelan migration crisis and uphold their international 
commitments?

    Answer. I understand that as of August 2019, Ecuador began 
requiring a humanitarian visa for Venezuelans, and the United States 
continues to engage on protection for and assistance to vulnerable 
populations. Additionally, Venezuelans are facing acute challenges in 
meeting critical needs since Ecuador instituted the March 11, 2020, 
state of emergency restricting movement and large gatherings to fight 
COVID-19. PRM programming continues to support refugees and migrants 
remotely through cash-based assistance and is exploring how to provide 
food assistance as well as other material support to shelters. PRM is 
also re-programming existing NGO funding to assist in providing lodging 
and food assistance for the most vulnerable Venezuelans.

    Question. Ecuador continues to struggle with high levels of 
corruption. Earlier this year, former President Rafael Correa was among 
20 people, including his vice president, Jorge Glas, accused and 
convicted of using their public office to favor certain contracts in 
exchange for large amounts of money. Most recently, the U.S. Department 
of Justice indicted two Ecuadorian executives--residents of Miami, 
Florida--due to their links to Ecuador's state-owned petroleum company 
Petro-Ecuador and several money laundering and other Foreign Corrupt 
Practices Act violations. If confirmed, what steps would you take to 
strengthen transparency and accountability efforts in the region and 
specifically in Ecuador?

    Answer. Ecuadoran President Lenin Moreno has made fighting 
corruption one of his top priorities and has supported prosecuting top 
government officials implicated in corrupt acts. If confirmed, I will 
support the Department of State's cooperation with Ecuador on anti-
corruption efforts. For example, the Department has ongoing Fiscal 
Transparency Innovation Fund projects worth $1.5 million focused on 
increasing transparent management of public funds. If confirmed, I will 
also support increased cooperation on anti-money laundering efforts to 
limit the movement of illicit proceeds from corrupt activities.

    Question. Since President Moreno took office in May 2017, Ecuador 
has increased its cooperation with the U.S. Government on 
counternarcotics efforts, resulting in multiple seizures at sea and the 
interdiction of tons of cocaine heading to the US. The U.S. and Ecuador 
have also expanded law enforcement and security cooperation efforts, 
including the Ecuadorian Government's invitation by the for the United 
States to reestablish an Office of Security Cooperation at the U.S. 
Embassy in Quito and the visit of USNS Comfort to Ecuador in October of 
last year. If confirmed, what next steps would you look to take with 
the aim of further deepening security cooperation with Ecuador?

    Answer. Ecuador faces growing threats from narcotrafficking and 
transnational crime. If confirmed, I will collaborate with other 
bureaus in the Department of State and with our interagency partners on 
increasing security cooperation with Ecuador. The United States 
Government is working closely with Ecuadoran authorities to strengthen 
law enforcement and justice sector capacities. INL, OSC, DHS, and DEA 
programing directly enable Ecuadoran efforts to detect and interdict 
cocaine shipments, enhance information sharing, facilitate 
investigations and prosecutions of criminal cases, improve border and 
port security, and advance U.S. counternarcotics goals in the region. 
If confirmed, I will continue support for this successful work.

    Question. Weak rule of law is, by most experts' estimation, the 
single most pressing issue in Latin America and the Caribbean. In your 
estimation, what role should the U.S. Government play in strengthening 
the rule of law and combating corruption in the hemisphere?

    Answer. The United States should play a leading role in 
strengthening the rule of law and combating corruption in the 
hemisphere. If confirmed, I look forward to engaging through mechanisms 
such as the Open Government Partnership and the Summit of the Americas 
process to highlight the importance and ways of combatting corruption.

    Question. Will you call out authoritarian governments on the right 
and left? What tools will you use to respond to authoritarian 
governments?

    Answer. If confirmed, yes, I will call out authoritarian 
governments on the right and left. Some of the tools available to do 
that are the annual Country Reports on Human Rights Practices, press 
statements, and social media. Tools available to make clear that there 
are consequences for authoritarian behavior include, where applicable, 
imposition of visa restrictions and economic sanctions under various 
legal authorities, such as Executive Order 13818, which implements the 
Global Magnitsky Act.

    Question. Will you ensure that our Embassy in Ottawa and consulates 
across Canada prioritize the return of ballots as an essential service 
in order to ensure that ballots are returned to voters' home states in 
a timely manner?

    Answer. The U.S. Department of State is committed to providing 
voting information and assistance to U.S. citizens in Ottawa at our 
Embassy and Consulates across Canada. The health and safety of U.S. 
citizens and our staff are our primary concerns. We have recently sent 
guidance to our posts to ensure they provide clear messaging that 
voters may return their voted ballots via international mail, private 
commercial courier services such as FedEx or DHL, or by drop off at a 
U.S. Embassy or Consulate that is at or above Phase 1 in the Diplomacy 
Strong reopening process.

    Question. Will you commit that our missions across Canada will 
provide public information to eligible U.S voters on how to securely 
and safely cast their ballots during a pandemic?

    Answer. The Department is providing and will continue to provide 
U.S. citizens in Canada and across the globe with the information they 
need to vote.

    Question. If consular services are still curtailed in the fall, 
will the return of ballots be prioritized as an essential service?

    Answer. The Department will provide ballot return services for U. 
S. citizens at U.S. embassies and consulates that are at or above Phase 
1 of the Diplomacy Strong reopening process. We will provide guidance 
for ballot return via private courier service, or international mail to 
U.S. citizens if posts remain at Phase 0. We will continue to monitor 
the situation as it progresses worldwide and make adjustments to our 
policy, if warranted.

    Question. If additional consular officers are needed to ensure the 
ballots of overseas voters in Latin America and the Caribbean can be 
safely and securely returned, is there a plan to shift resources to 
this vital American Citizen Service?

    Answer. Our U.S. embassies and consulates will allocate the 
personnel necessary to assist with ballot return at our posts that are 
at or above Phase 1 of our reopening process.

    Question. Will you issue guidance to Embassies on procedures for 
receiving and returning ballots during the pandemic? Will you put new 
procedures in place that will allow ``no contact'' ballot drop-offs at 
all embassies and consulates to reduce potential exposure to the 
coronavirus?

    Answer. The situation at each post is different, and procedures for 
safely receiving and returning ballots will be provided to our U.S. 
citizens on the websites of all of our overseas posts. Posts that are 
at or above Phase 1 of our reopening process will provide a drop box or 
a face-to-face means to receive ballots.

    Question. Will you advise U.S. Embassies and Consulates in Latin 
America and the Caribbean to plan voter education or information 
campaigns to advise eligible U.S. voters living overseas on how to 
securely and safely cast their ballots in a timely fashion, the steps 
their embassy or consulate is taking to ensure their right to vote 
remains upheld, and information on how the Department is working to 
ensure their ballot is being forwarded to their home state even if 
coronavirus restrictions remain in place?

    Answer. The Department is and will continue to provide U.S. 
citizens across the globe with the information they need to vote. All 
posts at or above Phase 1 of our reopening process will be provided a 
drop box or face-to-face option to return their completed ballots. U.S. 
citizens in countries where posts remain at Phase 0 will be provided 
guidance on returning their ballots.

    Question. Since the election of President Trump, the State 
Department has largely refused to show up at hearings of the Inter-
American Commission on Human Rights and has questioned the commission's 
authority to even hear cases related to the United States. What is your 
opinion of whether or not the IACHR has authority to hear cases related 
to the United States?

    Answer. The United States strongly supports the Inter-American 
Commission on Human Rights (IACHR), including through robust financial 
support. The United States continues to engage with and appear before 
the IACHR, and I agree that the IACHR has the authority to engage on 
certain petitions related to the United States. As part of this ongoing 
engagement, the United States has taken the position that it reserves 
its right to object to the IACHR's competence to opine on specific 
matters.

    Question. What guidance did you personally provide to U.S. 
Government colleagues regarding whether U.S. officials should attend 
IACHR hearing related to the United States?

    Answer. The United States strongly supports the Inter-American 
Commission on Human Rights (IACHR), including financial support. The 
United States has continued to engage with and appear before the IACHR, 
and if confirmed, I will continue to support U.S. officials attending 
appropriate IACHR hearings and other events related to the United 
States. I have also underscored to the IACHR our ongoing efforts to 
attend IACHR sessions, while bearing in mind the challenges of engaging 
extensively on subjects which are often complex, fast-changing, the 
subject of domestic litigation or congressional consideration, or of 
great political sensitivity.

    Question. Despite the Trump administration's position regarding 
IACHR cases related to the United States, the Inter-American system has 
been instrumental in denouncing human rights abuses in Cuba, Nicaragua 
and Venezuela, findings often cited by the Trump administration 
officials. What is your personal assessment of the IACHR's work related 
to Cuba, Nicaragua and Venezuela?

    Answer. The reporting of the IACHR has been extremely helpful in 
shedding light on the human rights violations and abuses committed in 
Venezuela, Cuba, and Nicaragua and giving a voice to the victims. Even 
instances where the IACHR team has been denied entry, such as to 
Venezuela in February, help to maintain an international focus on the 
fact that violations and abuses continue. The petition-based efforts of 
the IACHR help to ensure that governments are held accountable, thereby 
providing avenues for justice on the part of victims.

    Question. If confirmed, what commitment can you make that you will 
fight against efforts by U.S. lawmakers to tarnish the IACHR's 
legitimacy?

    Answer. The United States strongly supports the Inter-American 
Commission on Human Rights (IACHR), including through financial support 
that enjoys bipartisan Congressional support. The IACHR remains an 
important part of the Inter-American system for the protection and 
promotion of human rights, and contributes to broader OAS efforts 
related to the collective defense of democracy. If confirmed, I plan to 
continue the United States' general support of the IACHR. I look 
forward to advancing efforts to protect the autonomy, independence, and 
relevance of the IACHR.

    Question. If confirmed, what commitment can you make that you will 
push to restore U.S. engagement with the IACHR and the inter-American 
system more broadly, including in regard to cases related to the United 
States?

    Answer. The United States strongly supports the work and 
programming of the Inter-American Commission on Human Rights (IACHR), 
including through financial support. The IACHR is an important part of 
the Inter-American system for the promotion and protection of human 
rights, and contributes to broader OAS efforts related to democratic 
governance. If confirmed, I plan to continue United States engagement 
with the IACHR, including on matters related to the United States. I 
recognize the utility of the U.S. presence in IACHR hearings, and the 
Commission has similarly acknowledged the importance of U.S. viewpoints 
relative to its work in the region.

    Question. Latin America is currently the epicenter of the 
coronavirus pandemic. Last week, Latin America overtook North America 
in the number of fatalities. In April, the IMF predicted economies in 
Latin America and the Caribbean would contract by 4.2%. A few weeks 
ago, however, they revised that prediction, more than doubling it to an 
estimated 9.4% contraction region-wide for 2020. The health, political, 
and economic impacts will be severe with incredible consequences for 
migration, political stability, poverty, corruption, and civil 
liberties. Our geographic proximity will demand that our public health 
approach be in sync with our neighbors', and so too will our economic 
recovery require coordination with theirs. How will you work with 
countries in the region to coordinate a public health approach?

    Answer. The U.S. Department of State and the U.S. Agency for 
International Development (USAID) have provided nearly $120 million in 
supplemental and humanitarian-assistance funds to support the response 
to COVID-19 in Latin America and the Caribbean. If confirmed, I will 
continue to work with and support the U.S. Government's efforts to 
share and coordinate best practices with both governments and civil 
society to manage all aspects of the pandemic, including to control 
infections in health facilities, improve patient care, and undertake 
sound public-health measures, along with support through technical 
assistance, medical equipment, health supplies, and funding.

    Question. Various estimates point to the calamitous effect of 
COVID-19 in Latin America. These are focused primarily on the economic 
and social consequences. What social and economic consequences to 
expect in Latin America and the Caribbean as a result of the COVID-19 
pandemic?

    Answer. The economic and social consequences of COVID-19 in Latin 
America have been severe. Latin America and the Caribbean are seeing 
the region's worst recession on record, with an economic contraction 
nearly twice the world average. The World Bank and IMF estimate the 
region's economies will shrink by 7.2 to 9.8 percent in 2020, the 
region's worst recession on record and nearly double the forecasted 4.9 
percent global contraction. The IMF and World Bank predict a modest 
recovery in Latin America and the Caribbean in 2021, but this recovery 
may be marred by debt crises, and pension system shortfalls. If 
confirmed, I will work with our partners in the region to confront this 
crisis.

    Question. Please describe in detail the nature of the programs that 
you think need to be put in place to strengthen United States 
leadership during the COVID-19 pandemic and post-pandemic 
reconstruction period, and ensure that non-hemispheric actors, such as 
the People's Republic of China, are not seen as a partner of choice.

    Answer. If confirmed, I will support the Department's multi-pronged 
strategy for countering the malign aspects of China's engagement and 
ensuring the United States remains the preferred partner for the 
region. I will work with U.S. agencies and the private sector to 
provide alternatives to unfair and opaque economic practices and will 
promote solutions rooted in transparency and the rule of law, such as 
those offered by the U.S. International Development Finance Corporation 
and the Growth in the Americas/America Crece initiative. I will also 
discourage partners from adopting digital infrastructure solutions 
involving untrusted vendors such as Huawei.

    Question. Due to the COVID-19 pandemic, there likely will be 
political consequences as a result of the projected economic downturn 
in the region. Additionally, as a result of the increase in poverty 
levels and reduction of foreign direct investment, can you please 
outline the main areas of political concerns of the Trump 
administration in the region and your plans to address these concerns 
in order to avoid extreme swings that might endanger democracy or 
deepen economic pain?

    Answer. Even after the region addresses the immediate challenge of 
confronting the COVID-19 pandemic, the economic recovery will be long 
and fraught with political and social challenges. I believe strongly 
that governments that maintain a strong commitment to democracy, human 
rights, and an open, transparent conversation with the public will 
overcome the challenges. And those who depart from the hemisphere's 
tradition of democracy will face the consequences as we have seen in 
Cuba, Venezuela, and Nicaragua.
    If confirmed, I will continue to support U.S. efforts at 
international financial institutions to promote a speedy economic 
recovery and manage the political and social risks in the process.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. Carlos Trujillo by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I am proud of all my work defending democracy and human 
rights throughout the Americas, especially while serving in my capacity 
as Permanent Representative at the OAS.
    I am particularly pleased with our efforts to restore and 
revitalize the OAS' leadership role in the promotion and defense of 
democracy and human rights, and standing up for the core values it is 
meant to uphold. I have supported and attended civil society forums 
throughout the Americas over the last two years, including those 
organized and sponsored by our Mission to the OAS, as well as human 
rights hearings and forums at the IACHR, at the Summit of the Americas, 
and at OAS General Assemblies.
    I am also proud of my work as Chairman of the OAS LGBTI core group, 
which was recognized for its efforts during my chairmanship by the 
Human Rights Campaign (HRC). I am particularly proud of my human rights 
work in Nicaragua. In May of 2018, shortly after the Nicaraguan 
uprising, I traveled to Nicaragua and met with the victims of the 
Ortega regime.
    I also met and supported victims of the Ortega regime in 
Washington, and in El Salvador during the visit of the Special OAS High 
Commission on Nicaragua, which was organized and led by the U.S. 
Mission. In addition to sponsoring various OAS Special Permanent 
Council sessions, the U.S. Mission has sponsored, drafted, and passed 
multiple resolutions regarding human rights abuses and the humanitarian 
situations in Venezuela and Nicaragua. I have also attended hearings at 
the IACHR regarding human rights abuses by the Ortega regime, including 
during sessions held in Colorado, and supported Nicaraguan civil 
society at the United Nations Security Council. The United Nations 
Security Council meeting was made possible due to our Mission's support 
for the IACHR's investigatory work in Nicaragua, as well as multiple 
U.S.-supported resolutions condemning the violations of human rights in 
Nicaragua invoking Article 54 of the United Nations' Charter and the 
OAS' Inter-American Democratic Charter.
    The United States strongly supports the Inter-American Commission 
on Human Rights (IACHR), including through financial support. The IACHR 
is an important part of the Inter-American system for the promotion and 
protection of human rights, and contributes to broader OAS efforts 
related to democratic governance. If confirmed, I pledge to continue 
United States engagement with the IACHR, including on matters related 
to the United States. I recognize the utility of the U.S. presence in 
IACHR hearings, and the Commission has similarly acknowledged the 
importance of U.S. viewpoints relative to its work in the region.

    Question. What are the most pressing human rights issues in the 
Western Hemisphere? What are potential obstacles to addressing those 
issues?

    Answer. The persistence of authoritarian regimes in Cuba, 
Venezuela, and Nicaragua is the source of the most glaring human rights 
issues in the Western Hemisphere, including reports of extrajudicial 
killings, disappearances, torture, political prisoners, lack of respect 
for the right to peaceful assembly and freedom of expression, including 
for members of the press, and a lack of genuinely free and fair 
elections. Elsewhere in the Hemisphere, there are threats and violence 
against journalists that go unpunished, undermining freedom of the 
press; threats to freedom of assembly and association as human rights 
defenders, civil society and indigenous community leaders are killed in 
retaliatory attacks that too often go unpunished; direct limits to 
press freedom in some cases; unlawful killings and reports of torture 
by security forces in some countries; weak institutions and rampant 
corruption, including in the judiciary, which encourages impunity.
    A lack of political will to address the problems is a significant 
obstacle to addressing the issues. In some countries, civil society is 
relatively underdeveloped or is actively threatened by governments or 
criminal groups.

    Question. How will you ensure that the U.S. becomes more involved 
in protecting human rights defenders and strengthening the mechanisms 
that prosecute those who threaten them?

    Answer. If confirmed, I will ensure that our embassies are aware 
that the Bureau of Democracy, Human Rights and Labor's global rapid 
response and emergency assistance mechanisms are available tools to 
support human rights defenders or members of civil society in real-
time, who are under threat or attack for their work. If confirmed, I 
will also ensure that my bureau and our embassies engage host 
governments on the importance of protecting human rights defenders, and 
of strengthening impartial justice systems in order to prosecute those 
responsible for attacks.

    Question. If confirmed, how would the Bureau of Western Hemisphere 
Affairs under your leadership work with the Colombian Government to 
ensure the protection of human rights defenders?

    Answer. If confirmed, I would engage with the Colombian Government 
and its National Protection Unit to work to ensure that these crucial 
individuals are being provided the best possible protection in the 
immediate turn. Of equal importance, if confirmed, I will engage with 
the Colombian Government and civil society to support and encourage 
Colombia's efforts to investigate and prosecute those responsible for 
attacks on human rights defenders, and to deter future violence against 
them. Colombia's challenge is to establish state presence to provide 
security services, education, infrastructure, local governance, and 
victims' assistance to deny criminal groups a foothold. U.S. foreign 
assistance, as well as law enforcement, military, intelligence, and 
judicial cooperation will all continue to play a role in this effort.

    Question. How would you define human rights? Are there any rights 
frequently referred to as ``human rights'' that you believe should not 
be priorities for U.S. international engagement?

    Answer. The Universal Declaration of Human Rights lays out the 
human rights that are priorities for U.S. international engagement.

    Question. Last year, in a meeting with LGBTI rights advocates, you 
reportedly used air quotes whenever you referred to ``human rights.'' 
If this occurred, what were those air quotes meant to signify? Do you 
believe that issues impacting LGBTI populations are human rights 
issues?

    Answer. I do not recall ever using air quotes when referring to 
human rights. I have also checked with members of my staff which handle 
the relevant policy portfolios and would have been present at said 
meeting with the Equal Rights Coalition, and they do not recall me 
using air quotes. I believe issues impacting LGBTI persons' rights are 
human rights issues and should be recognized and addressed as such. 
Throughout my tenure at the OAS, I have worked to promote equality 
under the law, inalienable rights, and an environment that is free from 
discrimination and violence for the LGBTI community. This has been 
represented by continued U.S. engagement in the OAS LGBTI Core Group, 
and our co-sponsorship of the annual OAS General Assembly text on LGBTI 
rights.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and representative workforce. I will encourage promoting Diversity and 
Inclusion in the hiring process through standardized interview 
procedures. I will promote the expansion of workplace flexibilities, 
including telework and alternative work schedules, and Leave Without 
Pay (LWOP) options, similar to ``boomerang talent'' programs in the 
private sector. I will learn from and listen to employees using 
mechanisms like the Open Conversations platform and the Department's 
new Centralized exit survey. I will promote and encourage all employees 
to take the Mitigating Unconscious Bias course.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the State Department are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
Diversity and Inclusion Best Practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will support the requirement of all hiring managers to take the 
Mitigating Unconscious Bias course.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
financial interests in any country in the Western Hemisphere?

    Answer. My investment portfolio includes diversified mutual funds, 
including a foreign stock index fund, which may hold interests in 
companies with a presence overseas, but which are exempt from the 
conflict of interest laws. Additionally, aside from my financials 
interest in the United States, my father has financial interests in 
Mexico and Argentina. My father owns four condominiums in Mexico and 
one condominium in Argentina. These properties are used as vacation 
rentals. I am committed following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. In your view, how much should domestic immigration 
priorities influence the State Department's approach to Latin America?

    Answer. In my view, bilateral and regional migration cooperation 
play an important role in U.S. foreign policy in the Western 
Hemisphere, as it impacts both our mutual security and prosperity. As 
such, domestic immigration priorities should play a role in influencing 
the Department's approach to the region. And I would note our approach 
to the region in terms of promoting democracy, respect for human 
rights, and the rule of law, economic prosperity and opportunity, and 
security all influence our domestic immigration situation.

    Question. How do you plan to build trust and foster cooperation 
with Mexico and Central America in light of harsh U.S. immigration 
policies and the deportation of migrants with coronavirus?

    Answer. The United States has strong ties and cooperation with 
Mexico and Central America on a wide range of issues, including 
migration cooperation. If confirmed, I would continue to strengthen our 
partnerships to foster enhanced cooperation in the region.

    Question. The U.S. signed Asylum Cooperative Agreements with 
Northern Triangle countries to accept migrants for the United States, 
despite these countries' lack of capacity to process asylum seekers or 
to keep them safe. Is the Department tracking outcomes for these 
migrants?

    Answer. Implementation of the U.S.-Guatemala Asylum Cooperative 
Agreement (ACA) has been paused since mid-March due to the COVID-19 
pandemic. Likewise, implementation of the U.S.-Honduras ACA has yet to 
begin due to COVID-19. The El Salvador ACA has not yet entered into 
force. From the time the Guatemala ACA entered into force on November 
15, 2019, until transfers were paused in mid-March, the Department of 
Homeland Security transferred 948 Salvadoran and Honduran nationals to 
Guatemala. The Department is tracking outcomes through our 
international organization partners for those who have applied for 
asylum and those who have requested assisted voluntary return.

    Question. How many migrants have been killed or assaulted after 
being deported from the U.S.?

    Answer. The Department of Homeland Security deports hundreds of 
thousands of individuals to their home countries every year. The 
Department does not track individual cases. USAID, through the 
International Organization for Migration (IOM), assists El Salvador, 
Guatemala, and Honduras with safe reception and reintegration of 
nationals returned to these countries.

    Question. How can we expect countries that are unable to care for 
their own citizens to provide economic and physical security for asylum 
seekers?

    Answer. El Salvador, Guatemala, and Honduras committed to 
strengthening their asylum systems based on their commitments under the 
Comprehensive Refugee Response Framework (MIRPS). Each government also 
developed a national action plan under the Comprehensive Refugee 
Response Framework. The Department also continues to provide assistance 
to improve economic, security, and governance conditions. Under U.S. 
law, before an Asylum Cooperative Agreement can enter into force, the 
Department of Homeland Security (DHS) and the Department of Justice 
(DOJ) must determine that individuals transferred from the United 
States will have access to full and fair asylum procedures or 
equivalent temporary protection in the receiving country. Prior to 
transfer, DHS and DOJ must also determine that the individual's life or 
freedom would not be threatened in the receiving country on account of 
race, religion, nationality, membership in a particular social group, 
or political opinion. I understand DHS and DOJ have made these 
determinations for Guatemala and Honduras.

    Question. If conditions in their home countries have not changed 
and migrants are sent back to the region from which they fled, what 
makes the Department think that they will not leave to seek asylum in 
the U.S. again?

    Answer. The Asylum Cooperative Agreements allow the United States 
to transfer individuals who express an intent or interest in seeking 
protection in the United States to a partner country where DHS and DOJ 
have determined they will have the opportunity to file a protection 
claim with that government.

    Question. If confirmed, how do you plan to work with Northern 
Triangle countries to improve protections for returned migrants?

    Answer. As a cooperating country to the Comprehensive Refugee 
Response Framework (MIRPS), the United States provides humanitarian aid 
and capacity building support through our international organization 
partners in El Salvador, Guatemala, and Honduras. Although independent 
of the agreements themselves, this assistance is complementary to the 
Asylum Cooperative Agreements (ACAs) and supports the strategic 
objectives of this regional framework and the goals of these member 
countries. This assistance supports asylum capacity and enhancing 
protection resources available in these countries to asylum seekers, 
refugees, and other vulnerable migrants, including ACA transferees who 
request protection or wish to return to their home countries.

    Question. Since the mandate of the UN-back International Commission 
against Impunity in Guatemala (CICIG) was not renewed, there has been 
increasing impunity and corruption in the country's judicial system. 
What role, if any, should the U.S. play in ensuring judges are selected 
and appointed fairly in Guatemala?

    Answer. The Department has strongly supported the rule of law in 
Guatemala. A key element to any rule of law-based system is promotion 
of an impartial and independent judiciary, chosen through an open and 
transparent selection process. If confirmed, I will remain actively 
engaged on this issue, through public messaging and directly with 
Guatemalan interlocutors, as well as through support for our programs 
which help to strengthen Guatemala's institutions, including 
Guatemala's independent judiciary. If confirmed, I would also offer 
continued support for efforts to improve transparency in Guatemala's 
judicial selection process and encourage the merit-based appointment of 
qualified judges who demonstrate the integrity needed to uphold the 
rule of law.

    Question. What role do you believe the State Department can play in 
strengthening the rule of law in Guatemala, and in the region more 
broadly?

    Answer. If confirmed, I will work with the Department and our U.S. 
Embassy to continue supporting the rule of law in Guatemala, including 
through our programs, which help to strengthen Guatemala's 
institutions. I will commit to remain actively engaged with Guatemalan 
Government and civil society interlocutors on these issues, and to 
publicly express support for judicial independence and the rule of law, 
including the importance of respect for Guatemala's constitution. I 
will also ensure the Department continues its efforts to support the 
rule of law throughout the region.

    Question. Private sector involvement and contributions have been 
instrumental for increasing governments' health response capacity 
across the region. As the economic impact of the pandemic continues to 
worsen, in what ways can the State Department support the private 
sector in the Western Hemisphere in order to ensure their capabilities 
and resources remain available to support post-COVID economic recovery?

    Answer. If confirmed, I will continue the Department's advocacy for 
a robust private sector role in the economic recovery from COVID-19, 
and that includes building on our efforts to keep open and to 
strengthen the supply chains so essential recovery. I will promote the 
U.S. Government's Growth in the Americas or America Crece initiative 
that helps spur growth across our hemisphere by promoting private 
investment, American investment, in energy and other infrastructure. 
The U.S. International Development Finance Corporation (DFC) plays and 
essential role in that effort, and plans to leverage at least $12 
billion in private investment in the region, with a particular focused 
on health sector investments through the Health and Prosperity 
Initiative it announced in May.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Carlos Trujillo by Senator Jeanne Shaheen

    Question. As the United States' Permanent Representative to the 
Organization of American States (OAS), did Secretary Pompeo consult 
with you before reducing funding to the OAS by invoking the Siljander 
amendment? If yes, can you explain the administration's legal 
justification for using the Siljander amendment in this context? If no, 
do you agree with the Secretary's decision to reduce funding for the 
Organization of American States based on his interpretation of the 
Siljander Amendment? Given your legal background, would you not agree 
that the administration's actions to force countries at the United 
Nations to accept the administration's position to limit women's access 
to health care and to not even utter the term ``reproductive health'' 
in international agreements and resolutions are also in violation of 
the Siljander amendment?

    Answer. The State Department is committed to ensuring that OAS 
activities implemented with U.S. funds are consistent with U.S. law, 
including the Siljander Amendment. With this in mind, and in light of 
U.S. concerns regarding certain Inter-American Commission on Human 
Rights (IACHR) activities related to abortion, Secretary Pompeo 
announced on March 26, 2019, following consultations with me and other 
senior officials, that the Department would include a provision in 
foreign assistance agreements with the OAS that explicitly prohibits 
the use of funds to lobby for or against abortion. To ensure this 
message was heard by the OAS, the Secretary announced the Department's 
reduction of the FY 2019 U.S. assessed contribution to the OAS by an 
amount equivalent to the U.S. proportional share of possible OAS costs 
associated with the abortion-related activities.

    Question. Could you describe the prospects for success of that 
framework considering that after three years of the administration's 
policy on Venezuela, Nicolas Maduro is still in power and that country 
is experiencing one of the worst humanitarian crises in the world? In 
your opinion, what more can be done to bring about a peaceful 
transition of power in Venezuela?

    Answer. Venezuela's multifaceted crisis, compounded by the COVID-19 
pandemic, is increasingly dire. Many in the illegitimate Maduro regime 
are beginning to realize they need to take advantage of the off-ramps 
offered before things get worse for them. If confirmed, I will continue 
our robust support of Venezuela's democratic actors as they seek to 
restore democracy to Venezuela. As I have at the OAS, I will support 
means by which the international community and Venezuelan actors can 
pressure Maduro to leave power and allow a broadly acceptable 
transition government to organize free and fair presidential and 
parliamentary elections as outlined in our Democratic Transition 
Framework.

    Question. Mr. Trujillo, have you been briefed on Turkey's illicit 
activities with the Maduro regime?

    Answer. I have been briefed on Turkey's relationship with the 
illegitimate Maduro regime and the sanctions actions the administration 
has taken in response.

    Question. Given the numerous actions the Department has taken 
against Venezuela and Russia, Cuba and Iran in connection to such 
illicit activities, does the one sanction related to Turkey suffice? 
Are there plans to further disrupt the corrupt Venezuela -Turkey links 
through the use of sanctions and other potential actions? What do you 
think should be done?

    Answer. The State Department, working with our interagency 
partners, has taken strong steps against the illegitimate Maduro 
regime, particularly on the regime's ability to trade gold. As we see 
evidence of inappropriate international links continuing, if confirmed, 
I will continue to work with our interagency partners to develop 
responses to break these links.

    Question. If confirmed, will you push for Turkey's illicit 
activities in Venezuela to be addressed? How do you plan to do so?

    Answer. If confirmed, I will continue to work with my State 
Department colleagues to engage diplomatically with Turkey on halting 
its inappropriate activities with Venezuela.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Hon. Carlos Trujillo by Senator Tim Kaine

    Question. U.S. companies operating in the region continue to report 
unjustified delays or denials of tax refunds to which they are lawfully 
entitled. In some cases, such as El Salvador, progress has been made 
due in large part to the adoption of legislation clarifying that over-
collected taxes can be applied as tax credits to other taxes. Other 
countries are now beginning to consider legislative proposals to the 
same effect. It is imperative governments in the region treat U.S. 
entities and affiliates operating in these countries in a fair and 
transparent manner, especially U.S. companies who are providing 
essential services during the COVID-19 pandemic. What will you do to 
encourage the Northern Triangle governments to promote a culture of tax 
compliance among their citizens and businesses, and what steps will you 
take to ensure that these governments fulfill the legal and financial 
obligations necessary to foster an attractive investment environment 
and stimulate economic growth, including the timely refund of excess 
taxes paid by U.S. companies?

    Answer. A critical part of the Department of State's mission is the 
promotion of free and fair investment policies in support of U.S. jobs, 
economic growth, and prosperity. No U.S. company operating overseas 
should face delays or denials of tax refunds or other benefits to which 
they are lawfully entitled. If confirmed, I will work to ensure that 
all governments in the region treat U.S. companies fairly. If 
confirmed, I will also work to encourage tax compliance and an 
attractive investment climate, working with the DFC.

    Question. U.S. companies operating in the region continue to report 
unjustified delays or denials of tax refunds to which they are lawfully 
entitled. In some cases, such as El Salvador, progress has been made 
due in large part to the adoption of legislation clarifying that over-
collected taxes can be applied as tax credits to other taxes. Other 
countries are now beginning to consider legislative proposals to the 
same effect. It is imperative governments in the region treat U.S. 
entities and affiliates operating in these countries in a fair and 
transparent manner, especially U.S. companies who are providing 
essential services during the COVID-19 pandemic. Will you commit to 
working with U.S. embassies in the Caribbean and Central America, as 
well as U.S. companies operating in the region, to advocate for 
legislation that helps to promote a secure, fair, efficient, and 
consistent process of law for U.S. businesses?

    Answer. If confirmed, I commit to working with U.S. embassies and 
U.S. companies to promote a secure, fair, efficient, and consistent 
environment for U.S. businesses.

    Question. In accordance with appropriations laws from 2016 to the 
present, aid to Honduras is conditioned on the State Department 
certifying (among other things) that Honduras has taken reasonable 
steps towards resolving commercial disputes with U.S. citizens, 
including property claims such as expropriations. One of my 
constituents, Oscar Cerna, states that his long-standing claim against 
Honduras (regarding the taking of his CEMAR cement plant) remains 
unresolved. We understand there are several other U.S. citizens with 
outstanding claims.

   Will you commit to the enforcement of our appropriations laws 
        regarding these U.S. citizens and to the prompt resolution of 
        their outstanding claims and if confirmed, to having State 
        Department staff provide my office an update on Oscar Cerna's 
        case?

    Answer. I appreciate and share your commitment to support U.S. 
investor and property interests in Honduras. I understand the 
Department has urged the Honduran Government at the highest levels to 
resolve outstanding disputes. Consistent with policy and principles of 
international law, we advocate for a fair, transparent, and expeditious 
resolution. The Department will continue to assist in resolution of 
outstanding U.S. citizen claims. If confirmed, I will work with the 
Department to continue to track the status of Oscar Cerna's case and 
will provide your office an update.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. Carlos Trujillo by Senator Jeff Merkley

    Question. The United Nations has sounded the alarm on the 
``staggering number'' of killings of human rights defenders since the 
2016 peace agreement was signed, noting a ``vicious and endemic cycle 
of violence and impunity.'' If confirmed, what will you do to ensure 
that this issue is addressed and that the Colombian Government adheres 
to its commitments to investigate and prosecute those responsible?

    Answer. I share your concern over these killings, and I believe 
that protecting Colombia's social leaders and strengthening rule of law 
institutions are essential to the achievement of a just and lasting 
peace. If confirmed, I will engage with the Colombian Government and 
civil society to support and encourage Colombia's efforts to 
investigate and prosecute those responsible for these killings, and to 
deter future violence. Colombia's challenge is to establish state 
presence to provide security services, education, infrastructure, local 
governance, and victims' assistance to deny criminal groups a foothold. 
U.S. foreign assistance, as well as law enforcement, military, 
intelligence, and judicial cooperation will all continue to play a role 
in this effort.

    Question. If confirmed, would you raise concerns about the 
feasibility of implementing Safe Third Country Agreements, also known 
as Asylum Cooperative Agreements, with Guatemala, El Salvador, and 
Honduras, given these countries' lack of capacity to process asylum 
claims and protect asylum seekers' safety?

    Answer. If confirmed, as appropriate, I would discuss bilateral 
opportunities and challenges with our partners in El Salvador, 
Guatemala, and Honduras, including any implementation challenges 
related to the Asylum Cooperative Agreements.

    Question. If confirmed, would you seek to ensure that sanctions 
against the Maduro regime do not exacerbate the collapse of Venezuela's 
economy and health system in the midst of the COVID-19 pandemic?

    Answer. The economic crisis in Venezuela has been driven by the 
corruption, failed policies, and complete incompetence of Maduro since 
he came to power in 2013. Maduro has plundered the country's natural 
resources, and driven a once prosperous nation into economic ruin with 
an authoritarian rule and socialist economic policies, all while 
enriching himself, his family, and his closest supporters. U.S. 
sanctions on Maduro and his cronies have been targeted and designed to 
ensure the flow of humanitarian goods and services to the Venezuelan 
people.

    Question. President Trump has indicated on multiple occasions that 
the United States has a potential ``military solution'' to Venezuela's 
political crisis. What goals would a military solution accomplish in 
Venezuela, and do you believe that a military solution is the most 
effective strategy for achieving U.S. foreign policy objectives in the 
country?

    Answer. There has already been a military intervention in 
Venezuela--by the Cubans and by the Russians, who are there at the 
behest of an illegitimate Maduro with dictatorship goals. The United 
States remains resolute in supporting a peaceful transition to 
democracy and freedom in Venezuela. However, the Trump administration 
has made clear the United States will use every appropriate tool to end 
Maduro's hold on Venezuela, support the Venezuelan people's access to 
humanitarian assistance, and ensure a democratic transition in 
Venezuela. At the State Department, we are focused on deploying all of 
our diplomatic and economic options to support Interim President Guaido 
and the National Assembly in a peaceful transition to democracy and 
freedom in Venezuela.

    Question. Since the Trump administration began reasserting strict 
controls over U.S. travel and trade to Cuba, most recently adding a 
Cuban subsidiary that processes remittances to the administration's 
list of restricted Cuban entities, the Cuban Communist Party has 
backpedaled on the country's short-lived economic and political 
liberalization that accompanied President Obama's temporary detente in 
U.S.-Cuban relations, including by passing a new constitution that 
consolidated the continuation of one-party rule, adopting measures to 
limit freedom of speech and expression online, and imposing new 
restrictions on private enterprise. Do you believe strengthening and 
continuing the U.S. embargo supports the ostensible U.S. foreign policy 
goals of improving the lives and rights of the Cuban people and 
fostering Cuba's liberalization, and if so, on what grounds?

    Answer. The Cuban regime's prime goal is maintaining Communist 
Party control. U.S. policy toward Cuba is articulated in NSPM-5, which 
describes our aims to support the Cuban people while holding the Cuban 
regime accountable for its human rights violations and abuses at home, 
as well as its destabilizing interference elsewhere in the region. This 
entails applying economic pressure on the Cuban regime as a means to 
restrict the regime's ability to repress its people and support the 
illegitimate regime of President Maduro in Venezuela. At the same time, 
in keeping with NSPM-5, we also seek to promote policies that will 
advance the lives and livelihoods of individual Cubans.

    Question. In your estimation, does the U.S. embargo on Cuba fuel 
the Cuban Government's narrative blaming the United States for the 
country's economic despair?

    Answer. The Cuban regime has mismanaged Cuba's economy for decades 
and proven itself unable to address the Cuban people's most basic 
needs. It is that mismanagement, not U.S. sanctions, which is 
responsible for Cuba's economic despair. The U.S. embargo is consistent 
with our policy to end economic practices that disproportionately 
benefit the Cuban Government or its military, intelligence, or security 
agencies or personnel at the expense of the Cuban people.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Carlos Trujillo by Senator Cory A. Booker

    Question. The U.S.-Mexico Joint Declaration agreed in June 2019 
included the United States' commitment ``to accelerate adjudication of 
asylum claims,'' yet the ``Remain in Mexico'' policy has forced over 
60,000 asylum seekers to wait in dangerous Mexican border regions, and 
the effective closure of our southern border to refugees and asylum 
seekers in the name of COVID-19 has resulted in the expulsion of over 
40,000 asylum seekers from the United States into Mexico.
    These asylum seekers include Central Americans fleeing targeted 
killings and torture, as well as Cubans, Nicaraguans, Venezuelans, and 
others seeking protection in the United States. Yet they are pushed 
back by U.S. officials to areas of Mexico where the coronavirus is 
surging and they face alarming levels of criminal violence, such as 
murder, kidnapping and rape. Human Rights First has documented at least 
1,114 publicly reported cases of murder, rape, torture, kidnapping, and 
other violent assaults against asylum seekers and migrants forced to 
return to Mexico by the Trump administration.

   If confirmed, how will you ensure the protection and health of 
        refugees, asylum seekers and vulnerable migrants in Mexico as a 
        result of U.S. policies?

    Answer. The Department works closely with Mexico and international 
partners to promote access to protection and support for refugees, 
asylum seekers, and other vulnerable migrants. The Department funds 
international partners to help Mexico enhance its asylum capacity, 
support protection efforts, assist shelter efforts, and provide 
assisted voluntary returns to migrants who wish to return to their home 
countries. If confirmed, I would urge Mexico to continue assisting 
returned migrants and support sustained Department funding to support 
refugees, asylum seekers, and other vulnerable migrants in Mexico.

    Question. How will you work with Mexican authorities and DHS to 
ensure refugees and asylum seekers are protected against these heinous 
crimes?

    Answer. As a part of the June 2019 U.S.-Mexico Joint Declaration, 
Mexico committed to offer jobs, healthcare, and education to migrants 
returned to Mexico pursuant to the Migrant Protection Protocols (MPP). 
Mexico has also established shelters for MPP returnees, where it 
provides medical care, food, and other services, and is working with 
employers to facilitate access to jobs. If confirmed, I would 
collaborate with the Department of Homeland Security to work to ensure 
Mexico continues to support returned migrants.



                               __________



      
      
=======================================================================




                        Material Received by the

                       Committee Relating to the

                      Nominations and Other Issues

=======================================================================

 Correspondence Regarding the Nomination of Hon. Marshall Billingslea, 
    Nominated to be Under Secretary of State for Civilian Security, 
                       Democracy and Human Rights


            Letter of April 26, 2019--Hon. Robert Menendez 
                      to Hon. Patrick M. Shanahan


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







  Letter from Senator Menendez to Secretary of Defense Mark T. Esper 
 Regarding Marshall Billingslea's Testimony Before the Committee on 19 
                             September 2019


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Letter from Senator Menendez to Secretary Pompeo Detailing Outstanding 
                 Requests Regarding U.S. Foreign Policy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Letter from Mark R. Jacobson Clarifying Marshall Billingslea's Role in 
         Developing Interrogation Techniques at Guantanamo Bay


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Excerpts from the ``Inquiry into the Treatment of Detainees in U.S. 
Custody,'' a report of the Senate Committee on Armed Services, November 
                                20, 2008


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Correspondence Opposing the Nomination
                      of Hon. Marshall Billingslea


         Letter Opposing the Billingslea Nomination and Urging 
       Ratification of the International Privacy Convention 108+


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Letter Submitted by Various Non-governmental 
           Organizations Opposing the Billingslea Nomination


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Letter from Thomas J. Romig, Major General, USA, Retired
                  Opposing the Billingslea Nomination


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Letter from Joe Bryan Opposing the Billingslea Nomination

                                                 September 20, 2019
Hon. James E. Risch,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC 20510-6225




Hon. Robert Menendez
Ranking Member, Senate Committee on Foreign Relations,
U.S. Senate, Washington, DC, 20510-6225


    Dear Chairman Risch and Ranking Member Menendez: I am writing 
regarding the nomination of Marshall Billingslea to be Under Secretary 
of State for Civilian Security, Democracy, and Human Rights. I believe 
that Mr. Billingslea's record relating to the treatment of detainees in 
U.S. custody makes him the wrong person to represent the United States 
in that position and I oppose his confirmation.
    I was a member of the professional staff of the Senate Armed 
Services Committee (SASC) from 2007 until 2014 and led the committee's 
investigations team during that period. In 2008, the committee approved 
a report of its bipartisan investigation into the treatment of 
detainees in U.S. custody. Among other matters, that report described 
Mr. Billingslea's role in decisions relating to detainee treatment 
during his time as the Principal Deputy Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict.
    In his September 19, 2019 testimony before your committee Mr. 
Billingslea referred to a statement, which he attributed to a third 
party, that he has ``never supported torture nor anything resembling 
torture.'' The record established in the SASC investigation does not 
support that assessment. As described on page 131 of the committee's 
report, Mr. Billingslea recommended that then-Defense Secretary 
Rumsfeld authorize interrogation techniques that included, among other 
measures, hooding detainees, slapping them, and threatening to transfer 
them to a third country that the detainee was likely to fear would 
subject him to torture or death. As detailed on page 138 of the 
committee's report, Mr. Billingslea also recommended approval of an 
interrogation plan for a particular detainee, Mohamedou Ould Slahi, 
that included such techniques as sleep deprivation and subjecting the 
detainee to sound modulation.
    Mr. Billingslea testified to your committee that he ``had to rely 
on lawyers up and down the chain of command to tell us that these 
things were legal.'' However, senior military lawyers repeatedly raised 
concerns about the legality of interrogation techniques that Mr. 
Billingslea endorsed. As described on pages 67-69 of the committee's 
report, long-prior to Mr. Billingslea's recommendation, Judge Advocates 
General from the military services had raised serious concerns 
regarding the legality of many techniques. Further, as reflected in 
pages 126-27 of the SASC report, just months prior to an April 10, 2003 
memo from Mr. Billingslea to Secretary of Defense Rumsfeld endorsing 
the use of certain techniques, top military lawyers had objected to 
many of them on both legal and policy grounds.
    Mr. Billingslea stated during his confirmation hearing that 
``support for civilian security, democracy and human rights is crucial 
to advancing vital American interests.'' I agree. But our ability to 
effectively advocate for the protection of human rights around the 
world rests on the example we ourselves set and the credibility of 
those whom we select as our messengers. I believe that Mr. 
Billingslea's record fails that test, and I oppose his confirmation.



                                                 Sincerely,
                              Joe Bryan, Former Professional Staff,
                                    Senate Armed Services Committee

             Letters Regarding the Nomination of Hon. C.J.


                  Mahoney, of Kansas, Nominated to be


             Legal Advisor of the U.S. Department of State


   Letter from Hon. Senator Bob Dole Supporting Hon. C.J. Mahoney's 
     Nomination to be Legal Advisor of the U.S. Department of State


]GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Letter from Former Legal Advisors to the U.S. Department of State 
 Supporting Hon. C.J. Mahoney's Nomination to be Legal Advisor of the 
                        U.S. Department of State



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Letter from Former Government Officials Expressing Bipartisan Support 
  for Hon. C.J. Mahoney's Nomination to be Legal Advisor of the U.S. 
                          Department of State

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 23, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:23 a.m. in 
Room SD-106, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Portman, 
Menendez, Shaheen, Murphy, and Kaine.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today the committee will hold the nominations hearing for 
four important positions. Our nominees today are: Ms. Lisa 
Kenna, to be Ambassador to Peru; Ms. Leora Levy, to be 
Ambassador to Chile; the Honorable Aldona Wos, to be Ambassador 
to Canada; and Mr. William Popp, to be Ambassador to Guatemala.
    One of our own, Senator Chris Murphy, will be introducing 
his fellow--what do you call a Connecticut person, Chris? 
Connecticuteur? What is it?
    Senator Murphy. Nutmeggers.
    The Chairman. Nutmeggers. I like that. All right.
    He will be introducing another person from Connecticut, Ms. 
Leora Levy.
    So with that, we will postpone our opening statements and 
give Senator Murphy the opportunity make the introduction. 
Senator Murphy?

                STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. It is a raging debate, frankly, Mr. 
Chairman, as to what you call those of us from Connecticut. I 
grew up thinking it was Connecticutian. Others say 
Connecticuter. Nutmeggers is probably the safest. So maybe we 
have helped everybody learn something today.
    I am really excited, Mr. Chairman. Thank you for the 
opportunity to introduce to the committee Leora Levy, who is 
the nominee to be the United States Ambassador to Chile. Leora 
and I had the chance to sit down in my office a few months 
back, and I am glad that she is now before the committee for 
confirmation.
    She was born in Havana, Cuba. She fled to America with her 
family in 1960, and she spent a lot of her childhood in North 
Carolina but came to Connecticut in 1988.
    Before, though, coming to Connecticut, she went to Brown 
University and began a career on Wall Street where she became 
one of the first female commodity traders. And we were very 
glad that when she and her family located to Connecticut, she 
became incredibly involved in philanthropic endeavors. She has 
been very involved in the Federation of Jewish Philanthropies 
of New York, but in Connecticut has been on the board and co-
chair actually of the board of the Bruce Museum of Art and a 
director of Soldiers Strong, which is a Connecticut-based 
organization that works with paralyzed veterans.
    She is the finance chairman--has been the finance chairman 
of the Connecticut Republican Party. Admittedly I think she has 
raised a decent amount of money for my political opponents over 
the years. Though maybe politics does not stop exactly at the 
water's edge any longer, I think it really is important for us 
to support folks who have the qualifications that she does 
regardless of political party and political affiliation.
    So thank you to the chairman for bringing her before the 
committee today. I look forward to her testimony and our 
committee's questions.
    And can I just add? Senator Blumenthal was planning to be 
here to also offer an introduction, but he is caught up between 
another committee and votes on the floor. So he asks me to send 
his regards.
    The Chairman. Thank you. It frequently happens here.
    So today we will consider the nominations of these four 
individuals to serve our nation in four important posts in the 
western hemisphere. I welcome each of you to the committee and 
thank you each for your commitment to public service and, 
importantly, your family who will share in your sacrifices.
    First, we have Ms. Lisa Kenna, nominated to be Ambassador 
to Peru. Ms. Kenna is a career member of the Senior Foreign 
Service who serves as the Executive Secretary of the Department 
of State. Her diplomatic career has included assignments in 
Africa, the Middle East, and Southeast Asia. Before joining the 
Foreign Service, Ms. Kenna practiced law.
    Peru and the U.S. are approaching 200 years of diplomatic 
relations. Our partnership rests on shared interests in 
democracy, respect for human rights, mutually beneficial trade 
and security. All of us encourage the administration to 
continue collaborating with Peru to confront the pandemic and 
promote transparent governance and investment rules, quality 
infrastructure, and effective law enforcement.
    I look forward to hearing about your plans to steer this 
important diplomatic relationship through any challenges that 
might occur ahead.
    Ms. Levy has already been introduced, but she will go to 
Chile. Chile is one of our closest partners in Latin America 
and, as a successful free market democracy, is a beacon of hope 
in the region. Chile has had a free trade agreement with the 
U.S. since 2004 and is the only Latin American country in the 
visa waiver program.
    Many of us are concerned about Chile's participation in the 
Chinese Belt and Road Initiative. Chilean institutions have 
repelled the worst aspects of China's state-directed financing 
for now, but that can change as Chile seeks to finance growing 
demands for public services. I look forward to hearing from you 
on the best course of action to strengthen U.S. interests in 
Chile.
    Third, we have Dr. Aldona Wos, nominated to be Ambassador 
to Canada. Dr. Wos is Vice Chair of the President's Commission 
on White House Fellowships. She previously served as U.S. 
Ambassador to Estonia, a position for which she was confirmed 
unanimously by the Senate in November 2004. She is also a 
licensed physician with a distinguished career in health care 
and has served as Secretary of Health and Human Services for 
the State of North Carolina.
    Canada is a top trading partner, a NATO ally and a critical 
partner in the defense of democratic principles around the 
globe. In 2027, we will celebrate 200 years of formal 
diplomatic relations. Every day billions of dollars and 
hundreds of thousands of people cross the U.S.-Canadian border, 
the longest undefended border in the world. Whether it is 
competition with China, Russian belligerence in the Arctic, the 
homeland defense mission against ballistic missile threats or 
cybersecurity, we must ensure our unique relationship with 
Canada adapts to emerging strategic challenges and 
opportunities. In the short term, our pandemic response must 
account for the particular characteristics of and minimize the 
economic cost to communities on both sides of our shared 
borders.
    On a parochial matter, Ambassador Wos, I want to 
specifically call your attention to the current negotiations 
over the Columbia River Treaty. I have been closely engaged in 
that with my partner, Senator Maria Cantwell, and between the 
two of us, we have partnered with the State Department as 
negotiations continue over the Columbia River Treaty. This 
treaty is of primary importance to the people of Idaho and to 
the Pacific Northwest. It will greatly impact our water and our 
economy. I am following it very closely, as is Senator 
Cantwell, and we are working closely together on that issue. I 
ask that you make the successful and speedy conclusion of those 
negotiations a top priority of your service, should you be 
confirmed. I look forward to hearing your views on ways we can 
better address our shared challenges.
    Fourth, we have Mr. William Popp, nominated to be 
Ambassador to Guatemala. Mr. Popp is a career member of the 
Senior Foreign Service. He most recently served as Deputy Chief 
of Mission at the U.S. embassy in Brazil. Before his time in 
Brazil, Mr. Popp served in several economic-related diplomatic 
posts. As fellow democracies, the U.S. and Guatemala share an 
interest in responding to our citizens? expectations for good 
governance, economic prosperity, and public safety, including 
through effective border security and an orderly migration 
system. I look forward to hearing your thoughts on advancing 
this important partnership.
    With that, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, I am forced to note that this is another in a 
series of hearings that you have noticed unilaterally and over 
Democratic objections.
    Earlier this week, I mentioned more than 60 oversight 
requests I sent to Secretary Pompeo, requests that have almost 
entirely gone unanswered. After 4 years, the administration's 
policy on oversight requests is crystal clear: a complete 
rejection of Congress? constitutional authority in foreign 
affairs and corresponding responsibility to conduct oversight. 
And unless they absolutely have to engage with us, they will 
not.
    The only way to change that dynamic is if we stick up for 
ourselves, we do not let ourselves be bullied either by the 
President or the Secretary of State. Unfortunately, that is not 
happening.
    Ms. Kenna, a senior aide to Secretary Pompeo and one of the 
nominees on today's panel, is a case in point. Chairman Engel 
and I have joint outstanding requests to interview Ms. Kenna in 
relation to two separate and corrosive episodes. The first 
relates to the political targeting of career employees at the 
State Department by Trump appointees, and the second concerns 
the firing of the State Department Inspector General while he 
had an active investigation into Secretary Pompeo. The 
Department is stonewalling as usual. They will not authorize 
Ms. Kenna to sit for an interview. So as a last resort, we 
urged you not to move forward with the nominations hearing for 
her.
    Now, I sympathize with Ms. Kenna. The Department has put 
her in a terrible position, but why should we move forward with 
a nominee when the Department of State is refusing to authorize 
her to speak with Congress on critical oversight matters. The 
stonewalling is particularly egregious here given that the 
Secretary of State is seeking to hide his own possible 
wrongdoing in connection with the firing of Steve Linick. This 
undermines our role and our ability to do our jobs on behalf of 
the American people and it should not have happened regardless 
of how much pressure the Secretary has put.
    I need to make one last point before I turn to some 
country-specific issues.
    Mr. Chairman, you have frequently indicated that my 
objections to your handling of certain nominations are related 
to political or policy differences. And I am honestly not sure 
what you mean by that. Is asking for an interview with Ms. 
Kenna to find out what she knows about the firing of the State 
Department Inspector General a political or policy difference? 
Is urging Michael Pack to acknowledge and fix his false 
statements to the committee and the IRS a political or policy 
difference? Is asking for more information concerning 
allegations that Doug Manchester engaged in blatantly sexist 
behavior and created a hostile work environment for female 
employees a political or policy difference? I do not think so.
    Now, we are reviewing the nomination for Canada at a 
particularly turbulent time in U.S.-Canada relations. The Trump 
administration's approach has included the levying of tariffs 
due to supposed national security considerations, a half-baked 
attempt to block the export of protective masks during the 
pandemic, and the occasional insult hurled by a White House 
senior advisor at Prime Minister Trudeau. I think we can agree 
that these are the tactics we aim at an economic adversary, not 
at one of our top trading partners. That is how we treat our 
enemies, not an ally whose sons and daughters have fought and 
died alongside American soldiers in multiple theaters over the 
last century.
    But amidst this chaos, there have been some positive 
advances. Thanks to Democratic leadership, we were able to 
include stronger provisions on labor and environmental 
standards in the new U.S.-Canada-Mexico Free Trade Agreement, 
provisions that will directly benefit American workers and 
families.
    So I hope to hear a new approach from our nominee on how we 
can actually strengthen our alliance and economic partnership 
with Canada.
    I am pleased that at my request the nominee for Guatemala 
has been added to this panel. The challenges in Guatemala 
require steady leadership, but again I have been deeply 
troubled by the President's policies. For a year, the 
administration suspended foreign assistance to Guatemala, the 
very funding we need to advance our national interests and 
address the violence and poverty forcing people to flee their 
country. We coerced the Guatemalan Government into a supposed 
safe third country agreement so that we can transfer asylum 
seekers from the United States to pursue protection in 
Guatemala, an agreement that endangers the lives of vulnerable 
people and appears to conflict with U.S. law. And we have 
deported dozens of COVID-positive individuals back to Guatemala 
during the pandemic and threatened Guatemalan officials with 
visa sanctions if they refuse the flights.
    It is disturbing yet hardly surprising that the Guatemalan 
President said in May, quote, I don't believe the U.S. is an 
ally to Guatemala because they don?t treat us like one.
    So I look forward to our nominee's thoughts on that.
    Aside from the oversight matters I mentioned, I am also 
pleased we are reviewing a nomination for review, a close 
diplomatic, economic, and security partner in addressing the 
political and humanitarian crisis in Venezuela even as they 
have experienced their own political turmoil in the last 2 
years and struggled with COVID-19.
    And lastly, I am looking forward to having a conversation 
with Ms. Levy about some of her previous comments that she has 
made. I want to understand if that is the nature of what we can 
expect if she were to be confirmed as the United States 
Ambassador.
    With that, I look forward to the nominees? testimony.
    The Chairman. To each of the nominees, thank you again for 
your willingness to serve.
    Your full statement will be included in the record. So we 
would ask that you keep your remarks to about 5 minutes, and 
then you will be asked to answer questions. We will start with 
Lisa Kenna. The floor is yours for your opening statement.

   STATEMENT OF LISA S. KENNA, OF VERMONT, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                AMERICA TO THE REPUBLIC OF PERU

    Ms. Kenna. Chairman Risch, Ranking Member Menendez, and 
distinguished members of the committee, it is an honor to 
appear before you today as the President's nominee to be the 
U.S. Ambassador to the Republic of Peru. I thank the President 
and Secretary Pompeo for placing their trust in me. And if 
confirmed, I will work diligently with members of this 
committee and other Members of Congress to advance American 
interests, strengthen cooperation with our friend Peru across 
all sectors, and to further promote our shared values of 
democracy, prosperity, and greater security throughout the 
region.
    I would like to thank my two daughters, Amelia and Isabel, 
who are here with me today for understanding and supporting my 
commitment to public service. These two young women are the 
embodiment of resilience, and I could not be more proud of who 
they are and what they represent. I also thank my sister Julie; 
my mother-in-law, Connie Kenna; and my incredible group of 
professional colleagues and friends and family for the support 
they have given me and Amelia and Isabel, particularly in the 
many years since the death of my husband Roger and my mother 
Marjorie who were so central to my life.
    I am blessed to come from a family that believes in serving 
our country and others. My mother was raised by her own single 
mother on a tiny farm in Indiana and dedicated her life to 
caring for nursing home residents as a volunteer social worker 
for 40 years. My father served for decades as a pilot in the 
Air Force. I myself began my government service in my final 
year of college and have served faithfully across both 
Republican and Democratic administrations ever since. The 
longer I have been in public service, the more I am convinced 
that America is the world's most exceptional nation.
    Over the past 5 years as a senior staffer for three 
different secretaries of state, I have had the great privilege 
of working on virtually every issue of foreign policy 
consequence, including those concerning the western hemisphere 
and Peru specifically. If confirmed, I will maintain the United 
States? vital relationship with Peru which has long been one of 
our closest partners in the region.
    Recently, Mission Peru has performed heroically to sustain 
our strong partnership and serve our fellow Americans in these 
challenging times. As you know, when the Government of Peru 
closed its borders to stem the spread of COVID-19, thousands of 
American citizens requested support in returning to the United 
States. The State Department and my team in the Operations 
Center that staffed the Repatriation Task Force worked closely 
with Peruvian authorities, local partners, and airlines to 
repatriate over 12,000 American citizens and legal permanent 
residents. We will not rest until the last American who wishes 
to return home from Peru has the opportunity to do so.
    In terms of further fighting the virus, President Trump and 
President Vizcarra recently affirmed their intention to 
intensify cooperation, and the United States has offered 
additional support to meet Peru's health care needs. As we move 
to reopen our economies, we hope to again focus on more 
traditional areas of cooperation, including security, 
democratic governance, trade, and cultural and educational 
ties.
    We must also expand our joint efforts to tackle the scourge 
of transnational organized crime that threatens both of our 
countries, including by cutting off the sources of illicit 
financing. American investments to dismantle the narcotics 
trade and reduce the cultivation and production of coca and 
cocaine have paid some dividends. Although there is 
considerably more work to be done, the Government of Peru has 
committed to eradicating coca with U.S. support in the 
country's highest-yield areas.
    Illegal mining, which is linked to narcotrafficking and 
transnational criminal networks, endangers public health, 
damages Peru's environment, and promotes human trafficking. To 
better fight the problem together, our governments signed an 
agreement in 2017 that will provide economic development 
alternatives and enhance Peru's capacity to prosecute cases 
connected with illegal mining.
    The U.S. and Peru are also growing our shared support for a 
peaceful return to democracy in Venezuela. Maduro's manmade 
crisis has driven millions to flee their country. And Peru, as 
founder of the Lima Group, has shown leadership in generously 
hosting nearly 1 million displaced Venezuelans and frequently 
calling out the regime for its flagrant human rights abuses.
    Trade, tourism, and educational exchanges have drawn our 
two countries closer together in recent years. Before the 
COVID-19 pandemic, the annual number of U.S. visitors to Peru 
exceeded 580,000, and the United States remains a primary 
destination for Peruvian students seeking to study abroad.
    So too are we growing closer in trade. 2019 marked the 10th 
anniversary of the U.S.-Peru Trade-Promotion Agreement, a 
cornerstone of our bilateral relationship that sets high 
standards for both countries concerning market access and 
protections for both investments and the environment. If 
confirmed, I will continue to build the important bonds, 
economic and otherwise, for the peoples of both countries.
    I would look forward to working with this committee to 
achieve our shared goals, and I am happy to answer all of your 
questions. Thank you.
    [The prepared statement of Ms. Kenna follows:]


                    Prepared Statement of Lisa Kenna

    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the committee, It's an honor to appear before you today as President 
Trump's nominee to be the U.S. Ambassador to the Republic of Peru. I 
thank the President and Secretary Pompeo for placing their trust in me. 
If confirmed, I will work diligently with this committee and other 
Members of Congress to advance American interests, strengthen 
cooperation with our friend Peru across all sectors, and further 
promote our shared values of democracy, prosperity, and greater 
security throughout the region.
    I would like to thank my two daughters--Amelia and Isabel--for 
accepting my commitment to public service. I also thank my sister 
Julie, my mother-in-law Connie Kenna, and my incredible group of 
friends for the support they've given me, Amelia, and Isabel, 
particularly in the many years since the deaths of my husband Roger and 
my mother Marjorie who were so central to my life.
    I am blessed to come from a family that believes in serving our 
country and other people. My mother was raised by her own single mother 
on a tiny farm in Indiana and dedicated her life to caring for nursing 
home residents as a volunteer social worker for 40 years. My father 
served for decades as a pilot in the Air Force. I myself began my 
government service in my final year of college and have served 
faithfully across both Republican and Democratic administrations ever 
since. The longer I've been in public service, the more I am convinced 
America is the world's most exceptional nation.
    Over the past five years, as a senior staffer for three different 
secretaries of state, I've had the great privilege of working on 
virtually every issue of foreign policy consequence, including those 
concerning the Western Hemisphere, and Peru specifically. If confirmed, 
I will maintain the United States' vital relationship with the Republic 
of Peru, which has long been one of our closest partners in the region.
    Recently, Mission Peru has performed heroically to sustain our 
strong partnership and serve our fellow Americans in these challenging 
times. As you know, when the Government of Peru closed its borders to 
stem the spread of COVID-19, thousands of American citizens requested 
assistance to return to the United States. The State Department, and my 
team in the Operations Center that staffed the Repatriation Task Force, 
worked closely with Peruvian authorities, airlines, and local partners 
to repatriate over 12,000 U.S. citizens and Legal Permanent Residents. 
We will not rest until the last American who wants to return from Peru 
has an opportunity to do so.
    In terms of further fighting the virus, President Trump and 
President Vizcarra recently affirmed their intent to intensify 
cooperation, and the U.S. has also offered additional support to meet 
Peru's healthcare needs. As we move to reopen our economies, we hope to 
focus again on more traditional areas, including security, democratic 
governance, trade, and cultural and educational ties.
    We must also expand our joint efforts to tackle the scourge of 
transnational organized crime that threatens both our countries, 
including by cutting off sources of illicit financing. American 
investments to dismantle the narcotics trade and reduce cultivation and 
production of coca and cocaine have paid some dividends. Although there 
is considerably more work to be done, Peru is committed to eradicating 
coca, with U.S. support, in the country's highest-yield regions.
    Illegal mining, which is linked to narco-trafficking and 
transnational criminal networks, endangers public health, damages 
Peru's environment, and promotes human trafficking. To better fight the 
problem together, our governments signed an agreement in 2017 that will 
provide economic development alternatives and enhance Peru's capacity 
to prosecute cases connected with illegal mining.
    The U.S. and Peru are also growing our shared support for a 
peaceful return to democracy in Venezuela. Maduro's man-made 
humanitarian crisis has driven millions of Venezuelans to flee their 
country. Peru--the founder of the Lima Group--has shown leadership in 
generously hosting nearly one million displaced Venezuelans and 
frequently calling out the former regime for its flagrant human rights 
abuses.
    Trade, tourism, and educational exchanges have drawn our two 
countries closer together in recent years. Before the COVID-19 
pandemic, the annual number of U.S. citizen visitors to Peru exceeded 
580,000, and the United States remains a primary destination for 
Peruvian students seeking to study abroad.
    So too are we growing closer on trade. 2019 marked the tenth 
anniversary of the U.S.-Peru Trade-Promotion Agreement, a cornerstone 
of our bilateral relationship that set high standards for both 
countries concerning market access and protections--for investments and 
the environment. If confirmed, I will continue to build important 
bonds--economic and otherwise--for the peoples of both countries.
    I look forward to working with the committee to achieve these 
shared goals, and I am happy to answer any questions.


    The Chairman. Thank you, Ms. Kenna.
    We will now hear from Ms. Levy.

   STATEMENT OF LEORA ROSENBERG LEVY, OF CONNECTICUT, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF CHILE

    Ms. Levy. Good morning. Thank you, Chairman Risch, Ranking 
Member Menendez, and distinguished members of the committee. It 
is an honor to appear before this committee seeking your 
confirmation to be the next United States Ambassador the 
Republic of Chile. I am humbled and grateful to have the trust 
and confidence of President Trump and Secretary Pompeo. If 
confirmed, I will work every day to be a champion of American 
diplomacy.
    I would like to recognize my family: my husband Steve and 
son David behind me; and my sons, Michael and Ben, who could 
not be with me today but are here in spirit; and my parents, 
Zava and Tom Rosenberg, who brought me to America and instilled 
in me a fierce love for our country and our freedoms. Their 
love and support have enabled me to pursue this lifelong dream 
to serve my country.
    I was born in Cuba and escaped Castro's Communist 
revolution with my family in 1960. My family history also 
includes the perilous escape of my mother and her parents from 
Lithuania to Cuba in 1940.
    At Brown University, I majored in international relations 
and passed the Foreign Service exam as a senior. But I took a 
different path and became one of the first women commodity 
traders on Wall Street as an international sugar trader, steel 
trader, and copper concentrates traffic executive, shipping 
hundreds of thousands of tons of copper concentrates from Chile 
to ports around the world.
    As a patriot, civic leader, philanthropist, and 
businesswoman, my leadership experience and demonstrated 
ability to achieve results make me a strong candidate to 
represent the American people as a U.S. ambassador. If 
confirmed, I would be proud to lead the embassy in Santiago 
with representatives from seven cabinet-level agencies and 
outstanding locally employed staff who make it possible to 
advance U.S. interests and values delivering important results 
for the American people.
    Chile is one of our strongest allies in the hemisphere. The 
United States and Chile hold deeply shared values and 
commitments to democratic governance, regional security, human 
rights, rule of law, and free markets to create economic 
opportunity and prosperity for all. In a recent telephone call, 
President Trump thanked President Pinera for Chile's unwavering 
support for democracy and freedom in the region. As the United 
States, Chile, and many countries around the world battle the 
COVID-19 pandemic, President Trump also offered U.S. assistance 
to help Chile provide critical care to its citizens. The 
President praised Chile's proactive and balanced approach to 
protecting the health and livelihoods of Chileans. If 
confirmed, I would strive to enhance this cooperation between 
our countries in the fight against COVID-19.
    Having followed developments of the civil unrest in Chile 
since October 2019, it is encouraging to see that the Chilean 
Government, opposition parties, civil society, and groups who 
feel disenfranchised have made steady progress toward resolving 
outstanding issues through civil discourse, balanced 
legislation, and the rule of law grounded in strong democratic 
institutions, as they approach an October referendum on the 
question of whether to write a new constitution.
    Chile has been a regional model of the transformational 
possibilities of democratic governance and free markets to 
achieve stable economic growth and enduring prosperity. Both 
the United States and Chile support free, fair, and reciprocal 
trade. Since our free trade agreement went into effect in 2004, 
bilateral trade has tripled. Supporting U.S. businesses in 
Chile and Chilean businesses investing in the United States 
will further enhance economic opportunity and prosperity for 
both countries.
    Chile is home to the oldest and largest Fulbright program 
in the hemisphere. The 2,700 Chileans who study at U.S. 
colleges and universities contribute to our mutual 
understanding and provide substantial support to our higher 
education sector. Thousands of American travelers visit Chile 
to discover its rich culture and marvel at its natural beauty 
every year. Prior to the pandemic, the number of Chileans 
visiting the U.S. increased more than fourfold in the last 5 
years. When it is once again safe to travel, I would, if 
confirmed, work to encourage even more robust and wide-ranging 
trade, tourism, and people-to-people engagements between our 
countries.
    From collaboration in science and technology to educational 
and cultural exchanges, investment in sustainable energy, 
support for entrepreneurship and small and medium enterprises, 
and the promotion of democratic values, U.S.-Chile cooperation 
benefits both of our countries and reaffirms the United States 
as Chile's likeminded, reliable partner of choice.
    If confirmed, I look forward to working with the Chilean 
Government and Chilean people to build upon our strong 
relationship and to promote our shared values. I would also 
look forward to working with your committee, your colleagues, 
staff, and all U.S. stakeholders to advance the interests of 
the United States and to deepen the bonds between our 
countries. If given the honor of serving as U.S. Ambassador to 
Chile, my top priority will always be the safety and security 
of embassy staff and all Americans in Chile.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Levy follows:]


                    Prepared Statement of Leora Levy

    Good morning, thank you Chairman Risch, Ranking Member Menendez, 
and distinguished members of the committee. It is an honor to appear 
before this committee seeking your confirmation to be the next United 
States Ambassador to the Republic of Chile. I am humbled and grateful 
to have the trust and confidence of President Trump and Secretary 
Pompeo. If confirmed, I will work every day to be a Champion of 
American Diplomacy.
    I would like to recognize my family--my husband Steve and sons 
David, Michael and Ben; and my parents, Zava and Tom Rosenberg, who 
brought me to America and instilled in me a fierce love for our country 
and our freedoms. Their love and support have enabled me to pursue this 
lifelong dream to serve my country.
    I was born in Cuba and escaped Castro's Communist Revolution with 
my family in 1960. My family history also includes the perilous escape 
of my mother and grandparents from Lithuania to Cuba in 1940.
    At Brown University, I majored in International Relations and 
passed the written Foreign Service Exam as a senior. But I took a 
different path and became one of the first women commodity traders on 
Wall Street as an international sugar trader, steel trader, and copper 
concentrates traffic executive, shipping hundreds of thousands of tons 
of copper concentrates from Chile to ports around the world.
    As a patriot, civic leader, philanthropist, and businesswoman, my 
leadership experience and demonstrated ability to achieve results make 
me a strong candidate to represent the American people as a U.S. 
Ambassador. If confirmed, I would be proud to lead the U.S. Embassy in 
Santiago with representatives from seven Cabinet-level agencies, and 
outstanding locally employed staff, who make it possible to advance 
U.S. interests and values, delivering important results for the 
American people.
    Chile is one of our strongest allies in the Hemisphere. The United 
States and Chile hold deeply shared values and commitments to 
democratic governance, regional security, human rights, rule of law, 
and free markets to create economic opportunity and prosperity for all. 
In a recent telephone call, President Trump thanked President Pinera 
for Chile's unwavering support for democracy and freedom in the region. 
As the United States, Chile and many countries around the world battle 
the COVID-19 pandemic, President Trump also offered U.S. assistance to 
help
    Chile provide critical care to its citizens. The President praised 
Chile's proactive and balanced approach to protecting the health and 
livelihoods of Chileans. If confirmed, I would strive to enhance this 
cooperation between our countries in the fight against COVID-19.
    Having followed developments of the civil unrest in Chile since 
October 2019, it is encouraging to see that Chilean Government, 
opposition parties, civil society, and groups who feel disenfranchised 
have made steady progress toward resolving outstanding issues through 
civil discourse, balanced legislation, and the rule of law grounded in 
strong democratic institutions, as they approach an October referendum 
on the question of whether to write a new Constitution.
    Chile has been a regional model of the transformational 
possibilities of democratic governance and free markets to achieve 
stable economic growth and enduring prosperity. Both the United States 
and Chile support free, fair and reciprocal trade. Since our Free Trade 
Agreement went into effect in 2004, bilateral trade has tripled. 
Supporting U.S. businesses in Chile and Chilean businesses investing in 
the United States will further enhance economic opportunity and 
prosperity for both countries.
    Chile is home to the oldest and largest Fulbright Program in the 
hemisphere. The 2,700 Chileans who study at U.S. colleges and 
universities contribute to our mutual understanding and provide 
substantial support to our higher education sector. Thousands of 
American travelers visit Chile to discover its rich culture and marvel 
at its natural beauty every year. Prior to the Pandemic, the number of 
Chileans visiting the U.S. increased more than four-fold in the last 
five years. When it is once again safe to travel, I would if confirmed 
work to encourage even more robust and wide-ranging trade, tourism, and 
people-to-people engagements between our countries.
    From collaboration in science and technology to educational and 
cultural exchanges, investment in sustainable energy, support for 
entrepreneurship and small-and-medium enterprises, and the promotion of 
democratic values, U.S.-Chile cooperation benefits both of our 
countries and reaffirms the United States as Chile's like-minded, 
reliable partner of choice.
    If confirmed, I look forward to working with the Chilean Government 
and the Chilean people to build upon our strong relationship and to 
promote shared values. I would also look forward to working with your 
committee, your colleagues, staff, and all U.S. stakeholders to advance 
the interests of the United States and to deepen the bonds between our 
countries. If given the honor of serving as U.S. Ambassador to Chile, 
my top priority will always be the safety and security of Embassy staff 
and all Americans in Chile.
    Thank you, I look forward to your questions.


    The Chairman. Thank you, Ms. Levy.
    We will now turn to Dr. Wos.

   STATEMENT OF HON. ALDONA Z. WOS, OF NORTH CAROLINA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                  STATES OF AMERICA TO CANADA

    Ambassador Wos. Thank you. Chairman Risch and Ranking 
Member Menendez and distinguished members of this committee, I 
am honored to be with you here today as President Trump's 
nominee to be the next U.S. Ambassador to Canada. I am grateful 
to President Trump and Secretary Pompeo for their trust and 
confidence in me to lead our engagement with our neighbor and 
important ally Canada.
    I am appreciative of the time that the members of this 
committee and staff have spent with me.
    The United States-Canada relationship is one of enduring 
strength. It is built on broad and deep ties between our 
peoples, shared value, extensive trade, strategic global 
cooperation, and defense partnerships.
    If confirmed, my priorities will be to actively support our 
national security, encourage economic growth and prosperity, 
and promote resilience at Mission Canada.
    Canada is one of our most important partners and allies. As 
a member of NATO, the organization of America States, the 
United Nations, and many other forums, Canada has served 
valiantly to advance missions in Iraq, the Baltics, and Central 
and Eastern Europe. If confirmed, I will encourage Canada to 
continue to provide critical capabilities to the alliance by 
meeting the commitments that all NATO leaders agreed to in the 
2014 Wales Pledge. As the former United States Ambassador to 
Estonia, I have firsthand witnessed the value of NATO.
    The United States and Canada share continental security 
through NORAD, the only bi-national military command in the 
world. To date, we take on many international priorities, 
including issues concerning China, Russia, the Ukraine, Iran, 
Venezuela, counterterrorism, and the Arctic. Canada is also one 
of our closest intelligence partners and a member of the Five 
Eyes alliance.
    If confirmed, I will build on our existing bilateral 
cooperation to counter China's malign activities and to 
continue to raise concerns regarding authorization of access to 
the 5G networks by Huawei and other untrusted vendors. I will 
make clear the United States Government's deep concern over 
China's retaliatory and arbitrary detention of two Canadian 
citizens.
    The United States-Canada bilateral trade and investment 
relationship is one of the world's largest. Each year we 
exchange over $700 billion in goods and services. Canada is the 
largest market for export goods for 30 States.
    Prior to the pandemic, about 400,000 people and $2 billion 
worth of goods and services crossed our borders daily. More 
than 14 million Americans crossed the world's longest land 
border to visit Canada each year.
    Our countries share highly integrated supply chains, 
electrical grids, and energy transmission. The USMCA will 
strengthen and expand our economies in the digital age. And we 
must continue to promote transparent and reliable sources of 
critical minerals through open and sustainable supply chains.
    Throughout the pandemic, our governments have worked 
together at the highest level. My experiences battling emerging 
health threats such as HIV and AIDS as a doctor in New York 
City and the Ebola virus threats as Secretary of the North 
Carolina Department of Health and Human Services revealed the 
importance of collaboration and communication with all 
stakeholders to ensure the health and welfare of our citizens.
    For me, Mission Canada is personal. I was born under 
imposed Communist rule to parents Wanda, a slave labor 
survivor, and Paul, Pablo, a righteous gentile and a 
concentration camp survivor. We left everything behind in our 
native Poland seeking political freedom, and we emigrated to 
the United States on board the MS Batory. In 1961, we landed in 
Montreal, Canada.
    The United States by way of Canada gave us freedom, 
dignity, and the opportunity to work towards a secure and 
prosperous future.
    As a naturalized citizen, I have deep respect for our 
fundamental American values of freedom and democracy.
    I will use what I have learned through my diverse life 
experiences to represent the interests of the United States and 
all its citizens with strengthening our critical alliance with 
Canada.
    I would like to take this opportunity to thank my family 
for their unwavering love and support and to introduce my son 
Andrew who was able to accompany me here today.
    To the committee, thank you for the opportunity to appear 
before you today. I look forward to answering all your 
questions.
    [The prepared statement of Ambassador Wos follows:]


              Prepared Statement of Hon. Aldona Zofia Wos

    Chairman Risch and Ranking Member Menendez, I am honored to be with 
you today as President Trump's nominee to be the next U.S. Ambassador 
to Canada. I am grateful to President Trump, and Secretary Pompeo, for 
their trust and confidence in me to lead our engagement with our 
neighbor, and important ally, Canada.
    I am appreciative of the time that members of this committee and 
staff have spent with me. If confirmed, I look forward to working 
closely with you.
    The U.S.-Canada relationship is one of enduring strength. It is 
built on broad and deep ties between our peoples, shared values, 
extensive trade, strategic global cooperation, robust defense 
partnerships, and good governance.
    If confirmed as Ambassador, my priorities will be to actively 
support our national security, encourage economic growth and 
prosperity, and promote resilience at Mission Canada.
    We share over 5,525 miles of the world's longest border, of which 
40 percent is water, and hundreds of land and sea border crossings. Our 
partnership in the 1909 Boundary Waters Treaty is considered a model 
for cross-border cooperation on water issues. More than 14 million 
Americans visit Canada each year, relying on our Customs and Border 
Protection and the Canada Border Services Agency, which work tirelessly 
to safeguard our citizens, while ensuring the free flow of legitimate 
goods.
    Canada is one of our most important partners and allies, as a 
member of NATO, the Organization of American States, the United 
Nations, and many other bilateral, regional, and global forums. If 
confirmed, I will encourage Canada to honor its NATO commitments. While 
serving as Ambassador to Estonia, I witnessed firsthand the 
significance and value of NATO.
    The U.S. and Canada share continental security through the North 
American Aerospace Defense Command (NORAD), the only bi-national 
military command in the world. Together, we tackle many international 
priorities, including issues concerning China, Russia/Ukraine, Iran, 
Venezuela, counterterrorism, peacekeeping, and the Arctic. Canada is 
one of our closest intelligence partners, a member of the Five Eyes 
alliance. The United States and Canada are vigilant in protecting our 
cyber security. Serving in Estonia, I saw the importance of a robust 
cyber security system, and subsequently we all witnessed the devasting 
cyber-attacks Estonia suffered.
    If I am confirmed, one of my priorities will be to build on our 
existing bilateral cooperation with Canada to join in countering 
China's malign activities and continuing to raise concern regarding 
authorization of Huawei's and other untrusted vendors' access to 5G 
networks. Additionally, I will make clear the U.S. Government's deep 
concern over China's retaliatory and arbitrary detention of two 
Canadian citizens, Michael Kovrig and Michael Spavor.
    The U.S.-Canada bilateral trade and investment relationship is one 
of the world's largest and most comprehensive, supporting millions of 
jobs. Each year, we exchange over $700 billion in goods and services. 
Prior to the COVID-19 pandemic, almost 400,000 people and $2 billion 
worth of goods and services crossed our borders daily. Canada is the 
largest market for export goods for 30 states, including my home state 
of North Carolina.
    Our countries share highly integrated supply chains, electrical 
grids, and energy transmission. Canada is the United States' leading 
supplier of energy, including crude oil, electricity, and uranium. The 
ongoing COVID-19 crisis has shown us that, now more than ever, we must 
promote a transparent and reliable source of critical minerals and open 
and sustainable supply chains.
    I am looking forward to the implementation and future successes of 
the U.S.-Mexico-Canada Agreement, which will drive growth and economic 
prosperity for all of North America.
    The modernizations of the USMCA will strengthen and expand our 
economies in the digital age. I am dedicated to ensuring the USMCA's 
success by working with partners across government.
    If I am confirmed as Ambassador, in addition to strengthening our 
economic prosperity, I will work with our Canadian counterparts to 
continue to modernize NORAD. I will also work to improve information 
sharing between U.S. and Canadian law enforcement and border agencies. 
I appreciate the continued cooperation and collaboration with Canada on 
Arctic issues, such as health, search and rescue, energy, science, 
economic development, and security. If confirmed, I will work to build 
resilience and preparedness at Mission Canada.
    Throughout the COVID-19 pandemic, our governments have worked 
closely together at the highest levels. My experiences battling unknown 
emerging health threats such as HIV/AIDS while caring for patients as a 
doctor in NYC--and later, the Ebola virus threat in North Carolina as 
Secretary--have shown me the importance of collaboration and 
communication with all stakeholders in an ever-changing unknown 
environment. If confirmed as Ambassador, I will continue the collective 
efforts to secure the welfare and safety of our citizens, while 
maintaining our open supply chains.
    For me, Mission Canada is very personal. I was born under imposed 
Communist rule to parents who were slave labor and concentration camp 
survivors. We left everything behind in our native Poland, seeking 
political freedom. In 1961, we emigrated to the United States aboard 
the MS Batory and landed in Montreal, Canada. My father, Paul Wos, a 
Righteous Gentile, and mother, Wanda Wos, instilled in me the 
importance of freedom, democracy, and respect for others.
    The United States, by way of Canada, gave me, and my family, 
freedom, dignity, and the opportunity to work towards a secure and 
prosperous future.
    As a naturalized citizen, I have a deep respect for our fundamental 
American values--freedom, democracy, free enterprise and religious 
freedom--as they have guided my path in both the private sector and 
public service.
    As a Medical Doctor practicing in NYC at the height of the AIDS 
epidemic; a former U.S. Ambassador to Estonia; and former Secretary of 
the North Carolina Department of Health and Human Services, responsible 
for 18,000 employees and a $20 billion budget, I brought my bicultural 
background and diverse life skills to address many complex and 
impactful challenges, including advocating for and representing the 
interests of the United States and all its citizens.
    If confirmed, I will continue my public service for our country and 
its citizens, which I love.
    I would like to thank my family--my life partner and amazing 
husband, Louis DeJoy, and our twins, Ania and Andrew, for their 
unwavering love and support.
    Thank you for the opportunity to appear before you today. I look 
forward to answering any questions you may have.


    The Chairman. Thank you, Dr. Wos.
    We will now turn to Mr. Popp.

 STATEMENT OF WILLIAM W. POPP, OF MISSOURI, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF GUATEMALA

    Mr. Popp. Good morning, Mr. Chairman, Mr. Ranking Member, 
distinguished members of the committee. It is an honor to 
appear before you as the President's nominee to serve as the 
next U.S. Ambassador to the Republic of Guatemala.
    I would like to begin by recognizing my family. In 
particular, I want to thank my wife of 21 years Milena and my 
daughter, Alicia Pilar. I am grateful to both of them for 
joining me in the privilege, joys, and sacrifices of serving 
our nation overseas.
    As a career Foreign Service officer, I have been honored to 
represent the United States in six postings across Latin 
America and Africa. From Nicaragua to Angola, Colombia to 
Brazil, Kenya, back to Brazil, I have advanced U.S. interests 
and worked with partner nations to achieve shared goals. Most 
recently, I served as Deputy Chief of Mission in Brazil, our 
sixth largest diplomatic mission in the world, including 21 
months as Charge d'affaires. If confirmed, I believe this 
experience will be valuable in leading our mission and 
deepening our partnership with Guatemala.
    The United States and Guatemala share a historic 
relationship, strong economic ties and mutual security 
interests, as well as deep people-to-people bonds. As close 
neighbors and democratic nations, we both gain immensely from 
enhanced cooperation.
    Since his inauguration in January, President Giammattei has 
prioritized partnering with the United States. He has 
demonstrated commitment to increasing security, curbing 
irregular migration, fighting corruption, supporting private 
sector-driven growth, and supporting democracy.
    We are at a moment of important opportunity to maximize our 
partnership. At the same time we face the tremendous challenge 
of COVID-19. More than ever, it is vital that we work together.
    First, protecting our citizens? security, combating crime, 
and addressing the regional challenge of irregular migration 
must be priorities. It is key to work together to dismantle 
transnational criminal organizations, increase border security, 
strengthen justice institutions, and highlight the dangers 
associated with the long journey to the U.S. border. With U.S. 
partnership, Guatemala is making progress. New courts have been 
established for prosecuting human traffickers, extortion cases, 
and femicide. Strong cooperation with the Guatemalan Navy 
Special Forces has reduced maritime narcotics trafficking. And 
migrant encounters of Guatemalans at the U.S. southern border 
have significantly fallen over the last year. Notwithstanding 
this progress, more capacity building is needed as well as the 
sustained commitment of all branches of the Government of 
Guatemala.
    Second, it is vital that we broaden prosperity for both 
countries by unleashing private investment, expanding trade, 
and increasing formal sector employment. With one of the 
youngest populations in the world, the lowest tax revenue 
collection rate in the Americas, and nearly 60 percent of the 
population living in poverty, generating opportunities for 
Guatemalan youth, women, and the indigenous community is 
imperative. Our assistance is an important part of the 
solution, but so is working with the public and private sectors 
to create an enabling environment for businesses to thrive. If 
confirmed, I will seek to create more opportunities that 
benefit both Guatemalan and U.S. businesses.
    Third, it is crucial to promote the rule of law, fight 
corruption, respect human and labor rights, and end impunity. 
U.S. assistance is strengthening Guatemala's judicial 
institutions, and President Giammattei has taken an important 
step to establish a new anti-corruption commission in the 
executive branch. Together we are fostering a dialogue with 
indigenous communities and civil society in Guatemala. We 
should deepen efforts to build the integrity of public 
institutions and enhance access to justice, as well as bolster 
space for civil society. A more just and inclusive Guatemala 
will help address challenges for both our countries.
    Finally, Guatemala is an ally in creating a hemisphere for 
freedom. President Giammattei's recognition of Venezuela's 
legitimate government and democratically elected National 
Assembly, as well as his breaking of ties with the illegitimate 
Maduro regime and his reinforcement of relations with Taiwan 
are powerful statements. Closer U.S.-Guatemala cooperation will 
benefit our citizens as well as increase freedom more broadly.
    In conclusion, if confirmed, I will work steadfastly to 
advance U.S. interests and values. That begins with protecting 
the over 60,000 U.S. citizens who reside in Guatemala, as well 
as the thousands who visit each year. It also means pursuing a 
shared agenda with Guatemalan partners for security, 
prosperity, good governance, and democracy.
    If confirmed as Chief of Mission, I will lead the nearly 
550 American and Guatemalan professionals in Mission Guatemala 
to advance this agenda by creating a safe, inclusive, and 
respectful workplace. I will vigilantly safeguard resources and 
maximize effectiveness across U.S. agencies to build a more 
secure and prosperous future with Guatemala.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    [The prepared statement of Mr. Popp follows:]


                 Prepared Statement of William W. Popp

    Mr. Chairman, Mr. Ranking Member, distinguished members of the 
committee, it is an honor to appear before you as the President's 
nominee to serve as the next U.S. Ambassador to the Republic of 
Guatemala.
    I would like to begin by recognizing my family, without whose 
support I would not be here. In particular, I want to thank my wife of 
21 years, Milena, and my daughter Alicia Pilar. I am grateful to both 
for joining me in the privilege, joys, and sacrifices of serving our 
nation overseas.
    As a career Foreign Service Officer, I have been honored to 
represent the United States in six postings across Latin America and 
Africa. From Nicaragua to Angola, Colombia to Brazil, and Kenya back to 
Brazil, I have advanced U.S. interests and collaborated with partner 
nations to achieve shared goals. Most recently, I served as Deputy 
Chief of Mission in Brazil, our sixth-largest diplomatic mission in the 
world. This assignment included serving as Charge d'Affaires for 21 
months, helping to drive an unprecedented expansion in bilateral 
relations. I believe, if confirmed, this experience will be valuable in 
constructively leading our Mission and deepening our partnership with 
Guatemala.
    The United States and Guatemala share a historic relationship, 
strong economic ties, mutual security interests, and deep people-to-
people bonds. As close neighbors and democratic nations, we both gain 
immensely from enhanced and sustained cooperation.
    Since his inauguration in January, President Giammattei has 
prioritized partnering with the United States. He has demonstrated 
commitment to increasing security, curbing irregular migration, 
fighting corruption, and supporting private sector-driven growth. He 
has also underscored Guatemala's commitment to democracy, stood up for 
freedom in Venezuela, and reinforced relations with Taiwan.
    As such, we are at an important moment of opportunity to maximize 
our partnership for security, prosperity, good governance, and 
democracy. At the same time, we face the tremendous challenge of COVID-
19, with its painful human toll and economic impact. More than ever, it 
is vital that we work together.
    First, protecting our citizens' security, combating transnational 
crime, and addressing the regional challenge of irregular migration 
must be priorities. To protect U.S. and Guatemalan citizens, and our 
respective homelands, it is key for us to work together to dismantle 
transnational criminal organizations, increase border security, 
strengthen justice institutions, and highlight the dangers associated 
with the long journey to the U.S. border. With U.S. partnership, 
Guatemala is making progress. New courts have been established for 
prosecuting human traffickers, extortion cases, and femicide. Strong 
cooperation with the Guatemalan Navy Special Forces has reduced 
maritime narcotics trafficking. And migrant encounters of Guatemalans 
at the U.S. southern border have significantly fallen since the peak of 
the humanitarian and security crisis in May 2019. Notwithstanding this 
progress, more capacity building is needed as well as the sustained 
commitment of all branches of the Government of Guatemala.
    Second, it is vital that we broaden prosperity for both countries 
by unleashing private investment, expanding trade, and increasing 
formal sector employment. With one of the youngest populations in the 
world, the lowest tax revenue collection rate in the Americas, and 
nearly 60 percent of the population living in poverty, generating 
opportunities for Guatemalan youth, women, and the indigenous community 
is imperative. Our assistance is an important part of the solution, but 
so is working with the public and private sectors to create an enabling 
environment for businesses to thrive, especially small and medium 
enterprises. If confirmed, I will seek to create more opportunities 
that benefit both Guatemalan and U.S. businesses.
    Third, underlying security and prosperity is the crucial need to 
promote rule of law, fight corruption, respect human and labor rights, 
and end impunity. U.S. assistance is strengthening Guatemala's judicial 
institutions, and President Giammattei has taken an important step to 
establish a new anti-corruption commission to uncover corruption within 
the executive branch. Together, we are fostering dialogue with 
indigenous communities and civil society in areas of high migration. We 
should deepen these efforts to build the integrity of public 
institutions, enhance access to justice, and bolster space for civil 
society. A more just and inclusive Guatemala will have a positive 
effect on the challenges both our countries face.
    Finally, Guatemala is an ally in the defense of democracy and 
creating a hemisphere of freedom.
    President Giammattei's recognition of Venezuela's legitimate 
government and the democratically-elected National Assembly, his 
breaking of ties with the illegitimate Maduro regime, and his 
reinforcement of relations with Taiwan in the face of pressure from the 
PRC are powerful statements. Closer U.S.-Guatemala cooperation will 
benefit our citizens as well as increase freedom more broadly.
    In conclusion, Mr. Chairman, Mr. Ranking Member, members of the 
committee, if confirmed, I will work steadfastly to advance U.S. 
interests and values. That begins with protecting the over 60,000 U.S. 
citizens who reside in Guatemala, as well as the thousands who visit 
each year. It also means pursuing a shared agenda with our Guatemalan 
partners for security, prosperity, good governance, and democracy.
    If confirmed as Chief of Mission, I will lead the nearly 550 
American and Guatemalan professionals who comprise Mission Guatemala to 
advance this agenda by creating a safe, inclusive, and respectful 
workplace. I will vigilantly safeguard resources and maximize 
effectiveness across U.S. agencies to build a more secure and 
prosperous future with Guatemala.
    Thank you for the opportunity to appear before you today. I look 
forward to answering your questions.


    The Chairman. Thank you very much. And, again, thank you to 
all of our witnesses.
    We are in the middle of three votes on the floor. I think 
all of us have voted on the first one. What I am going to do is 
get down to the end of the second one, and we will recess while 
we all go down and vote on the second one and the beginning of 
the third. And then we will be done with the three votes.
    In the meantime, we will start questions. With that, 
Senator Menendez.
    Senator Menendez. Mr. Chairman, a procedural question if I 
may. Are we not close to the end of the second vote?
    The Chairman. Fifteen minutes left, Senator.
    Senator Menendez. Oh, 15 minutes left. Okay. Thank you.
    Ms. Kenna, as I mentioned in my opening remarks, while I am 
pleased that we have a nominee for Peru, I am dismayed that you 
are appearing at this hearing without having complied with a 
request by Chairman Engel and I, outstanding since February, to 
be interviewed on critical matters. And while I put the onus of 
the responsibility on the State Department, the failure to 
comply with a congressional request on critical oversight 
matters is also a reflection on you, one that I hope you can 
correct.
    So let me start off by asking, will you commit to complying 
with all outstanding congressional requests for an interview 
and testimony, which include political retaliation and events 
surrounding the firing of the State Department Inspector 
General?
    Ms. Kenna. Senator, thank you for your comments.
    I am happy to appear and to cooperate and to comply with 
the requests. I have already offered a date, August 7th, to the 
committees for that interview.
    Senator Menendez. All right. That is the first of my 
knowledge. And when you say to the committee, this is a joint 
request. So I want you to understand that as far as I am 
concerned, yes, Chairman Engel has a request and I have a 
request as the ranking member to join in that.
    Ms. Kenna. I understand that, Senator, and it is my 
understanding as well that this was a joint request, and our 
offer was to the joint committee.
    Senator Menendez. So you are committing to appearing to 
answer all of these questions on August the 7th. Is that 
correct?
    Ms. Kenna. That was my offer, yes. The offer was extended 
by the State Department to the committees. I believe it was 
part of a larger package.
    Senator Menendez. Okay. I am going to review that because 
at 10:11 today, 4 minutes before this hearing began, which is a 
complete insult to send us a message 4 minutes before the 
hearing began, the State Department said that you were ready to 
answer questions today, which of course in a 5-minute interval 
that I have and with 4 minutes? notice would not deal with the 
breadth and scope of issues that we seek to review with you. So 
I am going to hold you to that commitment to August 7, and I am 
going to judge the ability of proceeding with your nomination 
based upon your conformance with that.
    While I have you here, let me ask you. You served in the 
Secretary's office during some of the most questionable events 
in U.S. foreign policy. Chief among them was the 
administration's withholding of U.S. security assistance to 
Ukraine. As we all now know, our U.S. policy towards Ukraine 
was hijacked by unofficial channels influenced by rogue actors 
with their own financial interests at heart and Russian 
disinformation that was peddled into the highest levels of the 
State Department. But you were there in the middle of it at the 
time. As Ambassador Sondland infamously testified, everyone was 
in the loop about Rudy Giuliani's involvement in Ukraine. And 
when he said everyone, he specifically named you.
    Now, you have been a career Foreign Service officer for 20 
years. You are no novice to the Secretary's office of how 
foreign policy is run. Was there ever any point where you 
stopped and thought to yourself this is not okay?
    Ms. Kenna. Thank you for you question, Senator.
    I was not part of any policy discussions on Ukraine. So it 
is true that I was copied on some emails that Ambassador 
Sondland sent. I understand I was copied largely because I was 
being asked to handle follow-up in terms of requesting phone 
calls. Certainly when he says everyone was in the know, that 
would not include me. I was not a part of policy discussions on 
Ukraine.
    Senator Menendez. Were you a part of policy discussions on 
anything?
    Ms. Kenna. Sorry.
    Senator Menendez. Were you a part of policy discussions on 
anything?
    Ms. Kenna. Part of my role as the Executive Secretary is to 
review memoranda both for information and for decision that go 
to the Secretary of State to ensure that they have received 
proper review by other offices in the Department. I rarely 
joined policy discussions.
    Senator Menendez. Interesting.
    What about when Ambassador Yovanovitch was recalled early 
for no reason other than she was subject to false attacks? Did 
you think that that was okay?
    Ms. Kenna. It was a very painful and difficult time, 
Senator. I absolutely respect Ambassador Yovanovitch, who is 
one of our strongest career ambassadors. She is a consummate 
professional. It was very difficult to see what she went 
through at that time.
    So it is my understanding that she was recalled because the 
President lost confidence in her, and every ambassador 
understands that we serve at the pleasure of the President. 
That does not mean that that experience was not very, very 
painful.
    Senator Menendez. So if you achieve this goal and somebody 
loses confidence with you simply because of politics, do you 
accept that as a career Foreign Service officer that that is 
the way you should be dispelled?
    Ms. Kenna. We have no other choice, Senator.
    Senator Menendez. Really.
    Ms. Kenna. We serve at the----
    Senator Menendez. So let me ask you this. As Executive 
Secretary, you see essentially all the memos and paper that go 
to the Secretary. Correct?
    Ms. Kenna. Nearly all, yes.
    Senator Menendez. And you are aware of the calls coming 
into the Secretary's office and the calls that he makes through 
you. Is that correct?
    Ms. Kenna. I am aware of the vast majority of them, yes.
    Senator Menendez. You were fully aware that Rudy Giuliani 
was communicating with and providing documents to the Secretary 
in March of 2019. Is that correct?
    Ms. Kenna. I was not aware of what the documents were 
about, no.
    Senator Menendez. But that he was providing documents. You 
were aware of that.
    Ms. Kenna. I was aware that he delivered a package. I was 
not aware of the contents nor did I review that package.
    Senator Menendez. So as you sat in the Secretary's office, 
you were aware that Rudy Giuliani was bringing documents to the 
Secretary not long before Ambassador Yovanovitch was recalled 
early from Kiev, and you thought nothing of it.
    Ms. Kenna. At the time, I did not know what the documents 
were about.
    Senator Menendez. Well, what do you make of it now?
    Ms. Kenna. It is deeply disturbing.
    Senator Menendez. Is there anything you would have done in 
hindsight that you would have wished you had done?
    Ms. Kenna. Senator, my role as Executive Secretary is to 
run the Operations Center, which staffs the task forces that 
mitigate crises ranging from natural disasters, to COVID-19, to 
threats of violence against our embassies. I run the unit that 
reviews the memos that go to the Secretary. I do my best every 
day to run a professional operation that is based on integrity 
and respect for processes. I am not a policy advisor to the 
Secretary of State, and I was not included in discussions 
regarding the recall of Ambassador Yovanovitch or our general 
policy about Ukraine.
    Senator Menendez. Mr. Chairman, I have many other questions 
for Ms. Kenna, and I have questions for the other panelists. My 
time is well over. I will wait for a second round.
    The Chairman. Thank you, Senator.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman. And thank you for 
having this hearing. Once again we have an opportunity to help 
fill some positions that are crucial for our country's national 
security, in this case some key ambassadorships, and I 
appreciate your willingness to step forward.
    I do have some questions for you. Ms. Levy, I would like to 
start with you. I really appreciated the opportunity to talk to 
you at least by phone in these virtual days about your views on 
Chile. And we talked a lot about issues and politics and 
policy. I have had the opportunity to visit, as you know, a few 
times. We talked about that. I know you know the country well. 
You know the culture. You know the language. Se puede hablar 
espanol, verdad?
    Ms. Levy. Si. Yo hablo espanol. Soy Cubana--Cubana 
Americana.
    Senator Portman. [Spanish spoken.] Well, you were born in 
Cuba.
    Ms. Levy. Yes, I was.
    Senator Portman. And came to the United States with your 
family, as you said.
    I think it is really important we have somebody in these 
countries right now who really gets it, understands the 
culture, the language, and can immediately hit the ground 
running.
    One of my concerns has been Chinese influence, as you know, 
in Latin America and particularly in Chile. I know the fruit 
growers, as an example, are interested in an arrangement with 
China, and there are other discussions of additional 
investments. And I think it is important that the United States 
have a strong position and that our presence is assertive and 
helpful to the Chilean people.
    I know that President Pinera has worked well with this 
administration, and I know that their commitment to human 
rights, to democracy, to free markets really lines up with us 
better than other countries, including China.
    So I wonder if you have any thoughts on that, how we can 
ensure that the U.S. presence--and this would go really to the 
other members of the panel also because all of you will be 
dealing with this issue. How can we be sure that the 
relationships, the shared values that we have with these 
countries are emphasized to increase America's role in these 
countries? Maybe you can speak to that a little bit.
    Ms. Levy. Thank you very much for that important question, 
Senator Portman.
    Yes. In fact, China's increasingly aggressive diplomatic 
posturing and what I call their hegemonic economic encroachment 
in Chile, in the region, and in other countries throughout the 
world will be a challenge for the next ambassador. And if 
confirmed as Ambassador to Chile from the United States, I will 
make it one of my priorities to engage in productive dialogue 
with our ally and partner Chile about the shared values that we 
hold as citizens in free countries, politically free, 
economically free. We value the rule of law. We value the 
citizens? rights to petition their government and to 
governments who respond to their citizens? wishes, not the 
other way around. Human rights. That is something that the 
United States and Chile both hold dear, and you cannot say the 
same for China.
    It is evident from the success of our free trade agreement 
since 2004, which has tripled the trade between our countries, 
as well as new exciting programs like America Crece which 
supports U.S. investment in infrastructure and energy projects 
in Chile, as well as the very exciting public-private 
partnership in science and technology which harnesses the 
efforts of governments, the private sector, academia, as well 
as armed forces, in creating new and exciting scientific and 
technological projects in Chile.
    Those are all platforms and tools that the next ambassador 
will be able to use to not only increase the trade and the 
mutual benefits of trade between our countries and also 
increase the closeness of our partnership. And those are the 
tools that I look forward to using in order to improve--sorry--
to strengthen our already very robust and close relationship.
    Thank you very much for that question.
    Senator Portman. Thank you, Ms. Levy.
    Just quickly to Ms. Kenna, the opioid epidemic has 
obviously hit America hard, as well as crystal meth and other 
drugs coming in, including cocaine. Unfortunately, Peru is one 
of those countries. I visited Peru. I think Peru and the United 
States have so much in common and the opportunity to increase 
that relationship in positive ways and to improve it.
    But in terms of tackling the scourge of transnational 
organized crime, can you give us a sense of what you would do 
as Ambassador?
    Ms. Kenna. Yes. Thank you, Senator, for the question.
    This is obviously a core priority, and we have seen 
recently that the statistics concerning drug production have 
not improved for 2019. And unfortunately, with the onset of the 
COVID-19 pandemic, it is likely that we are going to face a 
similar situation in 2020.
    So if confirmed, I would make it my priority to support the 
Government of Peru to deal with the COVID-19 pandemic just as 
quickly as possible so that we could get back to focusing on 
issues such as transnational organized crime and our 
counternarcotics effort.
    So the U.S. is supporting Peru in the counternarcotics 
effort in a number of ways, most specifically with 
interdiction, eradication, and alternative development. We have 
seen Peru playing a leading role in terms of financing that 
effort in recent years. We would want to continue that trend 
while the United States would continue its role in terms of 
providing technical assistance, training, and intelligence 
sharing.
    What I understand is that the political will is there to 
take on this challenge. We know that President Vizcarra 
committed to pacifying the VRAEM Region by 2021, which is a 
high-yield area for drugs. And so we would want to support the 
President's efforts in that respect. I understand that 
September and October of this year is another critical 
opportunity for the Peruvian Government in terms of resuming 
its operations in that high-yield area.
    Illegal mining and illegal logging are other areas that are 
linked to transnational organized crime. So our support in all 
of those areas is going to be critical. We are working with the 
Peruvians to increase their police presence in areas that are 
currently under-governed, and we support their efforts to 
restore areas that have been subject to environmental 
deforestation. And we are also working as an interagency group 
right now here in Washington to explore ways that we could 
better track the flow of the finances that are going to illegal 
mining, illegal logging, and counternarcotics because that is 
so critical to ensuring that those funds do not reach the 
criminal networks.
    Senator Portman. Thank you, Ms. Kenna. I appreciate it. And 
I think those are all critical issues.
    My time has expired, and I know members need to run and 
vote.
    The Chairman. Thank you, Senator Portman.
    As advertised, we are going to take a brief recess while I 
go down and vote. They tell me I am the last one. So I am going 
to go down and vote, be back as quickly as I can. Feel free to 
visit amongst yourselves, wear your masks, keep a social 
distance, and we will take it back up again as quickly as I can 
get back here.
    The committee will be at ease, subject to call of the 
chair.
    [Pause.]
    The Chairman. By popular demand, Senator Portman is going 
to chair the committee while I go vote. So carry on. And 
Senator Portman, we will have the list here. And Senator 
Shaheen, it is up to you. You have the floor.
    Senator Shaheen. Thank you very much, Mr. Chairman, and 
Senator Portman for making that alteration.
    I would like to begin with asking each of you--I want to 
pick up on the concerns that Senator Menendez raised about the 
work environment at the Department of State. And I share the 
concern about the OIG report, that some political appointees 
have acted improperly toward career officials on the basis of 
their perceived political or ideological views. And so I wonder 
if each of you would answer me the question, if confirmed, will 
you commit to treat career employees in a manner that is 
consistent with federal laws, regulations governing the 
management of State Department personnel? And I will begin with 
you, Ms. Kenna. I heard you say that you try and act 
professionally in your current role, but I wonder if you could 
just answer that with a simple yes or no.
    Ms. Kenna. 100 percent, Senator. Yes, you have my 
commitment. I operate my office with absolute respect for every 
single individual every day. We are an office that embraces 
inclusivity and differences and diversity, and you have my 
commitment.
    Senator Shaheen. Thank you.
    Ms. Levy?
    Ms. Levy. Thank you for that question, Senator.
    Absolutely yes. I appreciate the question tremendously 
because I wanted to incorporate into my remarks but did not 
have enough time to incorporate it, and I would really like to 
say what an honor and a privilege it has been to work with the 
professional career officers both in the State Department and 
the Foreign Service Institute. Every single person with whom I 
have interacted and worked has been dedicated to America, to 
the United States, to promoting American foreign policy, and to 
teaching me, as best they can, to be able to take this role as 
U.S. Ambassador to Chile. I have nothing but praise for them, 
and I look forward to continue learning. Thank you.
    Senator Shaheen. Dr. Wos?
    Ambassador Wos. Thank you, Senator.
    Yes, absolutely. I commit to treating every person at 
Mission Canada and, of course, the Department of State with 
enormous respect. And I have sheer admiration for them, and I 
will continue to do so as I have previously in my professional 
career. Thank you.
    Senator Shaheen. Thank you.
    Mr. Popp?
    Mr. Popp. Thank you, Senator.
    Yes, absolutely. I have done so throughout my career over 
multiple assignments overseas and in Washington and would 
absolutely continue to do so, if confirmed.
    Senator Shaheen. Thank you all very much.
    Dr. Wos, I would like to begin with questions for you 
because New Hampshire has a very strong historic relationship 
with Canada. We have about a third of our citizens who are 
descendants of French Canadians who have come down to the 
United States. We have a very strong trading relationship back 
and forth every day across the border with Canada. And 
obviously, there are currently significant strains on that 
trading relationship, and we have a number of companies, also 
hospitals and medical providers in northern New Hampshire who 
are affected by the border closures because of COVID-19.
    So can you talk about what we might be able to do that 
would better engage the Canadian Government and relevant U.S. 
agencies to ease some of the restrictions that have been 
detrimental to U.S. businesses in our northern border regions?
    Ambassador Wos. Senator, thank you very much for that 
rather complicated question.
    Because of the nature of the pandemic that we all face, it 
is currently, by mutual decision, beneficial to both our 
countries to continue to have restrictions at our border. But 
those restrictions are mostly for tourists and recreational 
activities of travel through the border.
    It is critical for both our countries to continue to have 
our goods and services be able to flow freely through the 
borders. Prior to the pandemic, we would have over $2 billion 
worth of goods and services across it. And our goal is to 
continue to make it as easy as possible for trade. And we also 
need to make sure that we have an ability to have our critical 
supplies for our supply chains go back and forth between our 
borders.
    It is not only a State Department but it is across our 
agency at the highest level of government that we all have the 
same goal to increase trade, increase our economies, and 
increase our trade between the borders.
    Senator Shaheen. Well, thank you. I would urge you--I am 
out of time, but I would urge you to continue to work very hard 
on that issue because it is having an impact on my State and I 
know other States that border Canada and really depend on that 
trade. As you pointed out, one of our oldest and best 
neighbors--it is unfortunate to have not just COVID-19 but some 
of the tariff issues interfere with that relationship in the 
way that it has. Thank you.
    Senator Portman [presiding]. Senator Murphy?
    Senator Murphy. Thank you very much.
    Thank you to all of our witnesses for their testimony 
today.
    I wanted to start with you, Mr. Popp. I wanted to talk to 
you for a moment about the issue of corruption and freedom of 
the press in Guatemala. The International Commission Against 
Impunity in Guatemala was widely considered one of the most 
successful efforts there to curb criminal threats to democratic 
rule, but about a year ago, it was effectively disbanded. And 
since then, you have seen a rise in attacks, malicious lawsuits 
against prosecutors, judges, civil society actors, but we have 
also lost a tremendous tool with respect to promoting the rule 
of law and fighting corruption.
    What do you foresee as our ability to try to reconstruct 
some of the entities that had been successful? What is the 
ability for Congress to appropriate funds to State Department 
accounts that would assist you in those efforts there?
    Mr. Popp. Thank you, Senator, for the question.
    It has, as you know, been a challenge in Guatemala for some 
time around corruption, rule of law issues, impunity. And I 
believe it is critical that the United States continue to 
partner with not only Guatemalan Government institutions but 
also civil society, the private sector, and institutions across 
the country to deepen the capacity of those that are fighting 
for access to justice, ending of impunity, and increasing the 
transparency within Guatemala. It is good for business. It is 
good for access for Guatemalans to achieve justice.
    And the U.S. Government with support from Congress has 
obviously provided assistance to Guatemala for some time to 
help develop that capacity. I believe that it is critical to 
continue to build support for institutions and the prosecutors 
that have made some progress on combating corruption in 
Guatemala. There is much more to be done. If confirmed as 
Ambassador, I think there is much that can continue to be done, 
including using our voice as the U.S. Government in support of 
those actors that play such a crucial role in civil society and 
outside of government, including independent media, to call for 
transparency and to end impunity.
    I also believe that there are tools that the Congress has 
given us, including visa revocations, Global Magnitsky 
sanctions, and other tools that might be necessary to use at 
times to underscore the importance of access to justice in 
Guatemala.
    Senator Murphy. I sometimes worry about our overuse of 
those punitive measures, and so I hope that you will keep in 
touch with this committee about ways in which we can help 
support and fund some of the domestic initiatives to root out 
corruption.
    Ms. Kenna, thank you for being here. I was glad to 
introduce one of my constituents, but I should note your 
Connecticut connections, having attended the University of 
Connecticut and spent some time in New Haven. So glad to have 
at least two folks with Connecticut connections before us 
today.
    Ms. Kenna, I am deeply concerned about the 
overclassification of information. I think it is a problem that 
has become worse in this administration but, frankly, has been 
a tool that Presidents of both parties have used. And there are 
very strict requirements as to what information can be 
classified, and it all is connected to whether the disclosure 
of that information would be damaging to the security of the 
United States.
    But I want to ask you a question because I understand you 
may have sent a communication in your role as Executive 
Secretary for internal deliberations regarding sensitive 
decisions being made by the Department to be classified 
regardless of whether it met the actual requirements in statute 
regarding classification of national security data.
    Did you send a communication suggesting that internal 
communications within the agency regarding sensitive decision-
making be classified?
    Ms. Kenna. Thank you for the question, Senator.
    I am not familiar with the particular message that you are 
referring to. So I would have to go back and take a look for 
that.
    What I would say in terms of classification is we adhere to 
the law, and that is our goal.
    Senator Murphy. But you would agree that internal 
deliberations, regardless of how sensitive they be, are not 
inherently allowed to be classified. There is a strict set of 
requirements as to what is classified, and things that are 
politically embarrassing or politically sensitive are not in 
that set of criteria.
    Ms. Kenna. Well, I would not think that simply because 
something is politically sensitive, that would not make it 
classified, no. So my role as Executive Secretary is to ensure 
that we have processes in place so that those determinations 
can be made by the proper authorities. And so when we get 
requests for guidance or when I have questions myself, I make 
sure that I go to the experts.
    Senator Murphy. I hope that if I have further questions for 
the record on this topic, that you will respond to them.
    Ms. Kenna. Thank you, Senator. I will.
    Senator Murphy. Thank you very much.
    Ms. Kenna. Thanks.
    Senator Portman. Senator Kaine?
    Senator Kaine. Thank you, Senator Portman.
    Ms. Kenna, I want to follow up on an issue that you were 
discussing with Senator Menendez. So my understanding is as 
Executive Secretary, you do review correspondence coming in to 
the Secretary of State?
    Ms. Kenna. I review, yes, many memos, correspondence coming 
in. Yes, Senator.
    Senator Kaine. And you testified that you were aware of a 
package of documents that came in from Rudy Giuliani but you 
did not review them. Why did you not review that package?
    Ms. Kenna. It is not my specific role to review every 
document before it goes into the Secretary's office. My role is 
to--my office reviews the decision memos, the information 
memos, the letters that the Secretary is going to sign, other 
memos that are going to the Deputy Secretary and our Under 
Secretaries of State. So it is not my responsibility, however, 
to review every single package or document before it goes into 
the Secretary's office.
    Senator Kaine. Were you told not to review correspondence 
from Rudy Giuliani?
    Ms. Kenna. No, Senator, I was not.
    Senator Kaine. Describe for me the kinds of correspondence 
that you do not review. So you have told me the kinds that your 
office does review. So if something comes into the office, I 
guess there is a go/no go decision. This is something that we 
review. This is something that we do not review. So describe 
for me the kinds of materials you do not review.
    Ms. Kenna. Sure. If something would be marked ?eyes only? 
for the Secretary, I would not review it. If it is in a sealed 
envelope--you know, occasionally we get things from other 
cabinet secretaries, from the President that are marked ?eyes 
only.? If something is marked ?personal and confidential? I 
would not review it.
    Senator Kaine. What was the Giuliani package? A sealed 
envelope, eyes only, or personal only?
    Ms. Kenna. I do not know, sir. I am sorry.
    Senator Kaine. Do you have a recollection of that package 
coming in?
    Ms. Kenna. I have a recollection, yes, of the package 
arriving at the State Department. I cannot recall exactly how.
    Senator Kaine. And do you have a recollection of your 
thinking about whether this was something you should review or 
should just go directly to the Secretary?
    Ms. Kenna. I did not, no. In that particular case, no one 
brought it to me and said here is this package.
    Senator Kaine. So you were not in a position to make a 
decision about what to do with that package. It just got right 
to the Secretary without routing through the Executive 
Secretary's office.
    Ms. Kenna. Yes.
    Senator Kaine. Thank you.
    Mr. Popp, I want to ask you a question to follow up on 
Senator Murphy because this one troubles me. The CICIG was 
established by the U.N. and the Guatemalan Government with 
significant positive pressure from the United States under the 
administration of George W. Bush because of the massive 
corruption and impunity challenges in Guatemala. And in that 
sense, it was a little bit similar to the MACCIH, which was 
established in Honduras during the Obama administration between 
the U.S., the Honduran Government, and the Organization of 
American States.
    So in the last year, the Honduran president has pulled the 
plug on MACCIH and the Guatemalan president has pulled the plug 
on CICIG. And in both instances, it has been widely reported 
that the U.S. basically gave them a green light to do that, 
that the effort of the U.S. to help establish these anti-
corruption investigative tribunals, which were bipartisan, that 
the Trump administration basically decided that it is okay, you 
can terminate them.
    In the case of Guatemala, it has been widely reported that 
because Guatemala agreed to move their embassy to Israel from 
Tel Aviv to Jerusalem and also because I think they were 
helpful with U.S. policy regarding Taiwan that the Trump 
administration basically said do whatever you want with CICIG 
and we do not care.
    And in the instance of Honduras, while the State Department 
was advocating for MACCIH to be re-upped with the OAS, the DHS 
was in Honduras trying to cut a third party deal so that 
asylees and refugees from Honduras to the United States could 
be immediately returned to Honduras.
    So in both of those countries--I lived in Honduras for a 
while and still have some pretty strong ties in that region. In 
both of those countries, it is widely seen that anti-corruption 
efforts which were paying off that had been established with 
strong U.S. support were basically abandoned with U.S. consent.
    Now, I get that in the relationship between the United 
States and other countries there are some trades. We want this; 
they want that. But I do not know that abandoning anti-
corruption efforts that were hard fought and were initiated 
with U.S. support is ever something we should trade away. And 
it appears that that is what we have done in Guatemala and 
Honduras. And since corruption is one of the things that often 
drives bad living conditions and then leads to people leaving 
their countries to come to the United States, it is actually 
not just bad for those countries. It can be very 
counterproductive for us.
    Tell me in your background--and you have been a 
longstanding career professional--why I should believe, if you 
are Ambassador to Guatemala, that you will really carry an 
anti-corruption banner in a dramatic and public way to help 
Guatemala deal with what is a very serious issue.
    Mr. Popp. Thank you, Senator, for the question.
    I agree. It is an extremely important issue for Guatemala--
corruption. And it is true in many countries, including several 
that I have served in. Corruption has a pervasive, corrosive 
impact, and it is very, in my view, shortsighted and imprudent 
to separate the corruption fight in any of the countries, 
including particularly Guatemala, from other issues. By not 
addressing corruption, you are undermining oftentimes your 
other goals and U.S. national interests.
    So if confirmed as Ambassador, I would firmly commit, as I 
have done in several other countries, to work assiduously to 
speak out against corruption, to engage not only entities and 
individuals within the host government that are fighting for 
corruption--fighting against corruption, but also other actors 
in society that have a vested interest in carrying the fight 
against impunity, for transparency, and access to justice. And 
I think a U.S. ambassador could play a very effective role in 
helping not only guide mission strategy on using assistance to 
build capacity, but also speaking out for what is oftentimes 
unacceptable behavior around corruption, as well as use the 
tools that are provided through technical assistance, through 
at times punitive measures, if necessary. But I have worked in 
a number of countries where this has been challenged, and to me 
the thing that works the best is being engaged, being 
consistent, and using all those tools and working with all 
those partners, including our international partners, whether 
it be the U.N. agencies or other countries that are engaged in 
the fight against corruption.
    Senator Kaine. Thank you, Mr. Popp.
    Thanks, Mr. Chair.
    The Chairman [presiding]: Thank you, Senator Kaine.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Ms. Kenna, let me return to you. I would like to recap the 
commitment you made earlier to make sure we are clear for the 
record. I appreciate that you are willing to appear for an 
interview, but I want to clear a few things up.
    I understand that State offered a date of August 7th, which 
you referred to, to the House and they rejected the terms 
because they are tied to your appearance to Under Secretary 
Bulatau's appearance before the committee and because they 
tried to exclude staff from the interview.
    So once again, to be clear, do you commit to appear for an 
interview with the Senate Foreign Relations Committee, the 
House Foreign Affairs, the House Oversight, as requested with 
staff on political retaliation and the firing of the IG Linick? 
Period.
    Ms. Kenna. Yes, Senator.
    Senator Menendez. Okay.
    And regardless of what Under Secretary Bulatau does or does 
not do. Right?
    Ms. Kenna. Yes. I am going to have to defer a little bit to 
my State Department colleagues to work out the modalities. I 
think the reason why they proposed that Under Secretary Bulatau 
go first was because I had absolutely no knowledge of the 
Inspector General's firing, no role in it whatsoever, had no 
discussions with anyone about his firing. And Under Secretary 
Bulatau was the primary point of contact on that----
    Senator Menendez. Regardless of what may be a reason, it 
seems to me that a request from Congress in oversight cannot be 
conditioned in a way that undermines the very essence of the 
request. So I understand when you say you will have to defer 
to--I do not want to hear at the end of the day that the 
commitment you are making to appear then can be quashed by some 
actions of the Department. You are committed to appear. Period.
    Ms. Kenna. I am committed to appear. I want to cooperate.
    Senator Menendez. I appreciate that, and I look forward to 
that.
    Now, while you are here, let me ask you one question. You 
just alluded to it. You were aware that the State Department 
Inspector General had requested records into the potential 
misuse of resources by Secretary Pompeo. Were you not?
    Ms. Kenna. The Inspector General has requested to interview 
me in conjunction with an investigation into the misuse of 
resources. That is correct.
    Senator Menendez. Okay.
    And did you discuss that request with the Secretary?
    Ms. Kenna. I did not.
    Senator Menendez. Did you discuss it with Under Secretary 
Bulatau?
    Ms. Kenna. No, I did not. Are you referring to in advance 
of the firing of the Inspector General, Senator?
    Senator Menendez. Yes. Did you discuss the request that the 
IG made of you to interview you with either the Secretary or 
Under Secretary Bulatau prior to his firing?
    Ms. Kenna. No, Senator. The Inspector General came to me 
and requested an interview after the Inspector General was 
fired. That request came after. I advised the Inspector General 
that I am very happy to be interviewed, and we have a date for 
that interview.
    Senator Menendez. To your knowledge, was the Secretary 
aware of the existence of the investigation?
    Ms. Kenna. To my knowledge, he was not, certainly not 
through me because I was not aware of that investigation.
    Senator Menendez. Was he aware that the IG's office had 
requested documents?
    Ms. Kenna. No, not to my knowledge, certainly not from me.
    Senator Menendez. As you know, the appropriate use of 
resources has been a topic of scrutiny at the State Department. 
Were you ever instructed to engage in any use of resources you 
did not think appropriate?
    Ms. Kenna. Senator, I try to run the Executive Secretariat 
with utmost integrity. When I have questions about the 
appropriate use of resources, we have a system in place where I 
refer to our experts, and we have a number of offices that are 
responsible for that. They give us guidance, and it is my 
commitment to follow that guidance each and every time.
    Senator Menendez. So let me repeat my question. I 
appreciate your answer. Were you ever instructed to engage in 
the use of any resources you did not think was appropriate?
    Ms. Kenna. Senator, are you asking if I have knowingly 
misused resources? Is that your question?
    Senator Menendez. No. Were you ever instructed, meaning you 
were told by a superior, to use resources that you did not 
think was appropriate?
    Ms. Kenna. No, Senator. I was not instructed to misuse 
resources.
    Senator Menendez. Have you ever personally witnessed any 
such inappropriate use of resources?
    Ms. Kenna. Senator, what I have witnessed is that the use 
of resources is generally consistent with what I have seen in 
terms of the support we have provided to every Secretary of 
State since I have been in this office. But as I said, when I 
have had questions, I have asked for guidance, and I follow 
that guidance.
    Senator Menendez. So evidently there were times that you 
did have questions.
    Ms. Kenna. Yes.
    Senator Menendez. So let me ask you one final thing before 
I just move to Ms. Levy.
    As you know, there have been concerning reports under this 
administration of attacking and retaliating against career 
public servants at the State Department. Some have been 
reassigned based upon assumptions about their political 
affiliation or national origin. Others have been labeled 
disloyal or called radical unelected bureaucrats by senior 
administration officials. And I cannot think of anything that 
is more cancerous for the Department or career employees across 
the Government.
    Are you familiar with some of these allegations?
    Ms. Kenna. Senator, yes. Thank you for the question. I am 
familiar with the investigation into those reports and the 
Office of the Inspector General's report.
    Senator Menendez. And in your time in the Secretary's 
office, did you ever hear any career employee referred to as, 
quote, Obama holdovers or a reference that they could not be 
trusted because they had worked for the Obama administration?
    Ms. Kenna. No, Senator. No one has said that to me in the 
Secretary's office.
    Senator Menendez. Let me turn to Ms. Levy, if I may, Mr. 
Chairman.
    You have a colorful history of public remarks prior to your 
nomination. In 2010, in an interview you publicly stated, ``I 
feel very strongly that Harry Reid and the Democratic Party are 
destroying our country and destroying our way of life. My 
family escaped the Communist revolution in Cuba and, through 
hard work, made a great life for ourselves in this country. 
Harry Reid is trying to deny that opportunity to others.''
    Now, as you may know, Senator Reid is a close personal 
friend of mine. And as you might imagine, I have strong 
opinions about using the Communist revolution in Cuba as a 
backdrop to attack Democrats and Senator Reid.
    So I want to ask you, do you honestly believe the 
Democratic Party is trying to destroy the United States or your 
way of life?
    Ms. Levy. Thank you for that question and for the 
opportunity to clarify my remarks, Senator Menendez.
    In 2010, I was a private citizen. I was not speaking in any 
official capacity. It was in the course of political elbow-
throwing, and what I said then I do not believe today. I think 
it was in the heat of the moment and no personal offense was 
meant. It was simply policy disagreements.
    Senator Menendez. Well, there is a difference between a 
policy disagreement and suggesting that someone's actions or 
views and the Democratic Party are destroying our country and 
destroying our way of life.
    When and if you are confirmed as an Ambassador, you 
ultimately represent the nation as a whole. It does not mean 
you represent only the Republican Party when you are at that 
country post. It does not mean you only respond to Republican 
Members of Congress and their requests for what is going on in 
your country. It does not mean that you only treat those 
members of your staff who might very well be Democrats 
differently than you would treat those who are Republicans. I 
mean, to characterize it as, well, I was a private citizen, but 
it is the beliefs that you held. I am sure you would not have 
made such a statement if you did not hold those beliefs. Our 
ambassador are supposed to serve as representatives of all 
Americans.
    Is this the type of comment, of diplomatic speech we would 
expect of you, if you are confirmed?
    Ms. Levy. Sir, if I am confirmed as U.S. Ambassador to 
Chile, you will find in me a very likeminded partner. I will be 
a representative for all of the American people. Politics is 
one thing, and at least in the campaigns and in the political 
arena, when I have been involved, there are times that elbows 
are thrown. But once the election is over, we unite for the 
good of our community, for the good of our State, and the good 
of our country. And that is what is very important, and that is 
what is needed today. I have always been a consensus builder 
and a bridge builder in my community in the efforts I have led. 
I have run projects----
    Senator Menendez. Let us talk about that.
    Ms. Levy [continuing]. And large committees with people of 
all backgrounds and all----
    Senator Menendez. Let us talk about that consensus builder 
because I am familiar with throwing elbows. Sometimes you throw 
an elbow and you fracture a rib, though.
    In 2016, you posted on Twitter a piece of literally fake 
news, claiming that Michelle Obama's mother was receiving a 
$160,000 a year pension from the Federal Government. Is that 
the type of social media that we can expect from you?
    Ms. Levy. No, sir. I retweeted something that turned out to 
be fake news. As soon as I learned it was fake news, I 
immediately--I apologized for it.
    Senator Menendez. Did you apologize in the same way that 
you posted it?
    Ms. Levy. Yes, on Twitter. I apologized for it. And I fell 
for fake news.
    Senator Menendez. As an ambassador, we cannot afford for 
you to fall for fake news.
    Ms. Levy. I agree. And I realized what a powerful tool 
Twitter and other forms of social media are. And my intention, 
if I am confirmed as Ambassador, is to work very closely with 
my public affairs team on posting positive and constructive 
things on Twitter and other social media platforms. I learned 
my lesson with that particular tweet, and if you go through 
other things, you will not find that sort of thing.
    Senator Menendez. Okay.
    Let me ask you about this one. In 2016, you published an 
op-ed in which stated that people are, ``seriously troubled by 
the prospect of Donald Trump winning the Republican 
nomination.'' You added, ``he is vulgar, ill-mannered, 
disparages those whom he cannot intimidate. His modus operandi 
is to try to intimidate people, then call them names, and 
calumniate about then, and then if those tactics do not work, 
to sue them.''
    Now, how do you reconcile that with your accepting the post 
nominated by the person who you so described?
    Ms. Levy. Senator Menendez, first of all, I honor and I 
thank you for your service to this country, and my desire is to 
serve the United States of America and the American people. I 
believe that the United States and the people of America 
deserve competent, strong, positive leadership, and that is 
what I intend to provide.
    Again, that was in the course of a political campaign when 
I was supporting a different candidate. Elbows were thrown. 
When the election was over, we came together for the good of 
the American people. And I pledge to you that if I am 
confirmed, that is how I will conduct myself. I will be 
representing all of the people of the United States of America, 
every political persuasion, every idea, every thought. And it 
will be my honor to do that.
    Thank you for your questions.
    Senator Menendez. Thank you for your answer.
    I hope what is past is not prologue in this case. And we 
will be in the midst of another election as, if you are 
confirmed, being in post. So I would not expect that as the 
United States Ambassador to Chile that you would be engaged in 
the politics of our country as you are representing us abroad.
    I have substantive questions for our two nominees to Canada 
and Guatemala, but Mr. Chairman, you have been generous with 
your time. I will submit them for the record. I am looking 
forward to substantive answers to my questions, and I thank 
you, Mr. Chairman.
    The Chairman. For the information of members, the record 
will remain open until the close of business on Friday, 
including for members to submit questions for the record.
    Thank you again to all of you for your willingness to 
serve, to your families for the sacrifices that they will share 
with you, and we sincerely appreciate the generosity of your 
time in this meeting.
    With that, the committee is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record
         Submitted to Lisa D. Kenna by Senator Robert Menendez

    Question. Peru hosts the second largest number of refugees and 
migrants after Colombia--nearly 830,000 as of June 5, 2020--yet many 
Venezuelans face serious protection challenges there. Peru's tightening 
of border and asylum restrictions are compounding concerns about 
gender-based violence, including sex trafficking of women and girls. 
NGOs are reporting concerns about disappearances, with an average of 
five disappearances per day during the COVID-19 pandemic, according to 
Peru's Ombudsperson. If confirmed, what specific steps will you take to 
press the Peruvian Government to strengthen protection of Venezuelan 
refugees and asylum seekers?

    Answer. Sustained levels of international help are necessary to 
support Peruvian efforts to address the Venezuela refugee crisis and 
uphold their international commitments. If confirmed, I will prioritize 
efforts that help strengthen the Government of Peru's capacity to 
provide protection, as well as identify and assist the most vulnerable 
Venezuelans. Regularization of status is critical for Venezuelan 
refugees and asylum seekers to access their rights and basic services 
and reduces their vulnerability to abuse and exploitation. If 
confirmed, I will continue to advocate with the Government of Peru for 
the adoption of measures to register and regularize the status of 
undocumented Venezuelans.

    Question. How will you prioritize this issue amidst Peru's 
struggles with the COVID-19 crisis and other challenges?

    Answer. The coronavirus pandemic is imposing immense challenges for 
Peru. The Department of State works with partners such as UNHCR and IOM 
to re-program existing funding to provide direct assistance to 
Venezuelans affected by the COVID-19 crisis, including delivery of cash 
assistance, temporary lodging, food, and hygiene kits targeted to reach 
the most vulnerable migrants. If confirmed, I will ensure this issue is 
a priority.

    Question. INL Deputy Assistant Secretary Glenn stated publicly 
``illegal gold mining presents a direct threat to U.S. national 
security interests.'' This issue is a major challenge across the Andean 
region. In Peru, illegal gold mining fuels drug trafficking and 
trafficking in persons through corruption and transnational criminal 
organizations. It destroys biodiversity in the Peruvian Amazon and 
threatens the health of Peruvians, especially indigenous communities. 
Peru faces similar challenges with illegal timber harvesting, which is 
subject to the U.S.-Peru Trade Promotion Agreement's Annex on Forest 
Sector Governance. If confirmed, what specific steps will you take to 
build on current efforts between the United States and Peru to combat 
illegal gold mining?

    Answer. The United States and Peru have a strong partnership to 
tackle illegal gold mining and its links to organized crime. Illegal 
gold mining generates roughly $1-4.5 billion a year. In February 2020, 
Peru completed a successful operation to dismantle a major illegal 
mining operation, seizing $10 million in gold and including many 
officials who had received law enforcement and other training in the 
United States. State and USAID have worked closely with the Peruvians 
to support Peru's targeted and sustained effort to crack down on 
illegal mining in the Madre de Dios region of Peru. If confirmed, I 
will continue the whole-of-government approach we have taken to 
confront this challenge and seek to augment those programs, as well as 
regional cooperation to address this issue.

    Question.  How will you advance a comprehensive USG response to 
illegal mining in Peru?

    Answer. If confirmed, I will ensure we take a comprehensive and 
coordinated U.S. Government approach to combat illegal mining in Peru. 
The Department of State and USAID have worked closely with the 
Peruvians to support their targeted and sustained effort to crack down 
on illegal mining in the Madre de Dios region. If confirmed, I will 
continue the joint efforts to increase cooperation to build transparent 
and traceable supply chains, promote alternative economic development, 
prevent and investigate illegal gold mining and related crimes, prevent 
illegal mining in protected areas, reduce mercury emissions, and 
provide technical assistance to prevent money laundering, human 
trafficking, and increase capacity for environmental prosecutions.

    Question. How will you advance a comprehensive USG response to 
illegal logging in Peru?

    Answer. We work in partnership with the Government of Peru to 
combat illegal logging and the associated illicit trade in timber and 
forest products from the Peruvian Amazon. Peru has improved forest 
sector governance, and U.S. programming through State, USAID, and other 
agencies supports Peru's efforts to improve timber traceability, 
inspection, and enforcement. If confirmed, I will continue to urge Peru 
to improve forest sector governance and to combat illegal logging.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?.

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that retaliation has no place 
in the federal government and will not be tolerated. I agree that those 
found to have engaged in retaliation should be subject to 
accountability and discipline in accordance with U.S. federal labor law 
and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. Throughout my career at the State Department, I have 
greatly benefited from the support and guidance of supervisors and 
colleagues who are committed to fostering a strong, diverse, and 
inclusive workforce at the Department. If confirmed, I commit to 
fostering an environment at U.S. Embassy Lima of respect, fairness, 
equity, and inclusion, and one that is free of harassment and 
discrimination. I will promote opportunities for constructive dialogue 
about diversity and inclusion, including through training programs and 
opportunities like the Department's ``Open Conversations'' platform. I 
will ensure that our serving officers, locally employed staff, and 
other civil servants are supported by leadership at the Embassy and 
from the Department, and will encourage use of virtual recruitment 
tools to seek competitive applicants from all backgrounds, particularly 
underrepresented groups, for opportunities at the Mission.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My most meaningful achievements to promote human rights and 
democracy occurred when I was the political counselor in Jordan. My 
office led an effort to curb human trafficking and assisted many 
hundreds of trafficking victims sheltering at their embassies in Amman 
to get travel documents and repatriate to their home countries. My team 
and I also launched and implemented the USG's first program in Jordan 
to deliver tons of flour and essential food supplies weekly across the 
border into southern Syria during the war 2013-2014 so that families 
could remain in place. This effort mitigated food insecurity and the 
impact of the refugee influx on Jordan. In my current role as the 
Executive Secretary, I ensure that briefing memos are comprehensive and 
include human rights priorities so that the Secretary can raise those 
issues in his meetings with foreign officials.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Peru? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The United States and Peru enjoy a partnership based on the 
shared values of democracy, economic prosperity, security, and human 
rights. Peru is committed to human rights as a matter of principle, at 
home and abroad. Problems remain, including isolated cases of torture; 
government corruption at all levels, including in the judiciary; sexual 
exploitation, including human trafficking; violence against women and 
girls; and forced labor. If confirmed, I am committed to working with 
the Government of Peru and civil society to promote human rights, 
social inclusion, and poverty alleviation to make progress on these 
important challenges. If confirmed, I will also seek resources to 
support appropriate groups.

    Question. What steps will you take--if confirmed--to support 
democracy in Peru? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States and Peru enjoy a partnership based on the 
shared values of democracy, economic prosperity, security, and human 
rights. Peru strongly supports democracy at home and abroad. Corruption 
undermines democratic institutions. If confirmed, I will work closely 
with the Government of Peru and continue efforts to fight corruption, 
further strengthen democratic institutions, and strengthen democracy 
throughout the region.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will use assistance to support democracy 
and governance programs to help further our goal of strengthening 
democratic institutions and promote human rights, anti corruption, and 
institution building. The main objective of USAID's democracy and 
governance program in Peru is to support the implementation of Peru's 
National Anti-Corruption and Integrity Strategy. If confirmed, I will 
actively engage with Peruvian civil society to work with government 
entities at national and local levels. Strengthening accountability 
will be important to address practices that limit fair and open 
competition in public procurement and develop public-private integrity 
networks.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Peru? What steps will you take to proactively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meet with civil society members, 
human rights organizations, and other members of civil society and 
engage them and the Government on any efforts to use regulatory or 
legal measures to restrict their work. I would collaborate with other 
international partners and bring concerns about freedom of speech and 
association to the public eye if other attempts to engage did not bring 
about necessary results.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities, and youth within 
political parties?

    Answer. I commit to meet with democratically oriented opposition 
figures and parties and to advocate for inclusivity for women, 
minorities, and youth within political parties to encourage genuine 
political competition.

    Question. Will you and your embassy team actively engage with Peru 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures? Will you commit to meeting regularly with independent, local 
press in Peru?

    Answer. My team will engage with Peru on freedom of expression, 
including by members of the press, and address any efforts to undermine 
freedom of expression. We also commit to meet with independent, local 
press in Peru.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, my team and I will actively engage civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non state actors.

    Question. Will you and your embassy teams actively engage with Peru 
on the right of labor groups to organize, including for independent 
trade unions?

    Answer. My team will engage with Peru on labor rights, including 
independent trade unions. If confirmed as ambassador, I look forward to 
continuing and strengthening engagement with relevant Peruvian 
counterparts to protect the interests of labor groups and independent 
trade unions. Peru is a robust democracy, and its citizens share our 
commitment to democratic values, transparency, human rights, and a 
vibrant civil society. I intend to engage in productive dialogue with 
labor groups and trade unions on all sides, in addition to business 
leaders and the appropriate government authorities on this issue.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Peru, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Peru? What specifically will you commit to do to help LGBTQ people in 
Peru?

    Answer. Peru is taking notable steps to improve its human rights 
situation; however, problems remain, including violence and 
discrimination against LGBTQI persons. If confirmed, I am committed to 
working with the Government of Peru and civil society to promote human 
rights and social inclusion for all people in Peru, no matter their 
sexual orientation or gender identity.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Lisa D. Kenna by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. My most meaningful achievements to promote human rights and 
democracy occurred when I was the political counselor in Jordan. My 
office led an effort to curb human trafficking and assisted many 
hundreds of trafficking victims sheltering at their embassies in Amman 
to get travel documents and repatriate to their home countries. My team 
and I also launched and implemented the U.S. Government's first program 
in Jordan to deliver tons of flour and essential food supplies weekly 
across the border into southern Syria during the war 2013-2014 so that 
families could remain in place. This effort mitigated food insecurity 
and the impact of the refugee influx on Jordan. In my current role as 
the Executive Secretary, I ensure that briefing memos are comprehensive 
and include human rights priorities so that the Secretary can raise 
those issues in his meetings with foreign officials.

    Question. What are the most pressing human rights issues in Peru? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Peru? What do you hope to 
accomplish through these actions?

    Answer. The United States and Peru enjoy a partnership based on the 
shared values of democracy, economic prosperity, security, and human 
rights. Peru is committed to protecting human rights as a matter of 
principle at home and abroad. However, challenges remain, such as 
isolated cases of torture; government corruption at all levels, 
including in the judiciary; discrimination of marginalized communities 
such as Afro-Peruvians, indigenous, and LGBTI persons; sexual 
exploitation; violence against women and girls; and human trafficking, 
including sex trafficking and forced labor. If confirmed, I am 
committed to working with the Government of Peru and civil society to 
promote human rights, social inclusion, and on efforts to alleviate. If 
confirmed, I will also seek resources to support appropriate groups.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Peru in advancing 
human rights, civil society, and democracy in general?

    Answer. The coronavirus pandemic has posed immense challenges for 
Peru, and it has limited many traditional engagements the United States 
would have with civil society and marginalized communities. We 
recognize movement restrictions, such as quarantines, have exacerbated 
gender-based violence. If confirmed, I would work to find new 
opportunities to continue collaboration with Peruvian authorities and 
with civil society to protect and promote human rights, strengthen 
current assistance programs, and support the Government's response to 
mitigate the immense human costs of the pandemic.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Peru? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with human rights, 
civil society, and other non governmental organizations in the United 
States and in Peru. I would ensure the embassy appropriately implements 
and supports the Leahy laws through its well-structured interagency 
Leahy vetting process to ensure security assistance goes to only 
rights-respecting, accountable security forces. I also would ensure 
embassy personnel working to implement the law are able to receive any 
necessary training and support.

    Question. Will you and your embassy team actively engage with Peru 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Peru?

    Answer. Yes, if confirmed, I will actively engage on cases of 
political prisoners and those who have been unjustly targeted.

    Question. Will you engage with Peru on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with the Government of 
Peru and civil society on matters of human rights and governance as an 
important part of the U.S.-Peru relationship. If confirmed, I will work 
to support and strengthen our ongoing foreign assistance programs to 
address these priorities.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and representative workforce. I will encourage promoting diversity and 
inclusion in the hiring process through standardized interview 
procedures. I will promote the expansion of workplace flexibilities, 
including telework and alternative work schedules and leave without pay 
options, similar to ``boomerang talent'' programs in the private 
sector. I will learn from and listen to employees using mechanisms like 
the Open Conversations platform and the Department's new centralized 
exit survey. I will promote and encourage all employees to take the 
Mitigating Unconscious Bias course.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the Embassy in Peru are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
diversity and inclusion best practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and explore how they can be 
bolstered. I will support the requiring all hiring managers take the 
Mitigating Unconscious Bias course.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Peru?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which hold interests in companies with a presence in 
Peru. My investment portfolio also includes security interests, 
including stocks, in companies, some of which have a presence in Peru. 
I am committed to ensuring that my official actions will not give rise 
to a conflict of interest. I am committed to following all applicable 
ethics laws and regulations and remaining vigilant with regard to my 
ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Peru 
specifically?

    Answer. Political corruption threatens democratic governance and 
the rule of law, both generally and in Peru specifically. Pervasive 
corruption allows space for transnational criminal organizations to 
operate multiple billion-dollar illicit industries, from production of 
illicit drugs to illegal logging and mining, human trafficking, and 
counterfeit currency. It inhibits governments' capacity to provide 
services and efficiently appropriate funds.

    Question. What is your assessment of corruption trends in Peru and 
efforts to address and reduce it by that government?

    Answer. Peruvian citizens see corruption as pervasive in all 
branches of national, regional, and local governments. Last fall, when 
President Mart!n Vizcarra dissolved Congress, arguing it had blocked 
anti-corruption agenda, the public overwhelmingly supported his move. 
Based in part on his anti-corruption efforts, the 2020 Capacity to 
Combat Corruption Index ranked Peru fifth in Lain America and ``one of 
the few positive stories in the region.'' The Peruvian criminal justice 
system has several former presidents under investigation for 
corruption, showing a strong commitment to address the challenge.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Peru?

    Answer. If confirmed, I would work to strengthen the close 
partnerships we have established with Peruvian authorities to 
strengthen governance and to fight corruption. Our two countries have 
an established track record of working together closely to promote the 
rule of law. Peruvians themselves recognize corruption as corrosive and 
a threat to good governance and to democracy. The Peruvian public has 
consistently shown support for fighting corruption. That is a sound 
foundation for bilateral cooperation, and the Vizcarra administration 
has made fighting corruption a priority. Through our ongoing USAID and 
INL assistance programs, we help Peruvians meet that challenge.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Leora Levy by Senator Robert Menendez

    Question. In 2010, in an interview, you publicly stated, ``I feel 
very strongly that Harry Reid and the Democratic Party are destroying 
our country and destroying our way of life. My family escaped the 
communist revolution in Cuba and through hard work made a great life 
for ourselves in this country. Harry Reid is trying to deny that 
opportunity to others.'' Would you like to apologize to Senator Reid? 
(if yes, please include your apology here and we will deliver it to 
Senator Reid.)

    Answer. As I conveyed to you in the hearing, this comment was made 
as a private citizen. It was said in the heat of the moment and in the 
course of political elbow-throwing. No personal offense was meant. My 
intention was to express policy disagreements. I respect and thank 
Senator Harry Reid for his service to our country and send him a 
heartfelt wish for a full and speedy recovery as he battles pancreatic 
cancer, a terrible disease that has taken close members of my own 
family. What I said then, I do not believe today. If confirmed as U.S. 
Ambassador to Chile, I will represent all Americans, regardless of 
political backgrounds or ideologies.

    Question. Do you honestly believe that the Democratic Party is 
trying to destroy the United States?

    Answer. As I conveyed to you in the hearing, this comment was made 
as a private citizen. It was said in the heat of the moment and in the 
course of political elbow-throwing. No personal offense was meant. What 
I said then, I do not believe today. If confirmed as U.S. Ambassador to 
Chile, I will represent all Americans, regardless of political 
backgrounds or ideologies.

    Question. Do you honestly believe that the Democratic Party is 
trying to destroy your way of life?

    Answer. As I conveyed to you in the hearing, this comment was made 
as a private citizen. It was said in the heat of the moment and in the 
course of political elbow-throwing. No personal offense was meant. What 
I said then, I do not believe today. If confirmed as U.S. Ambassador to 
Chile, I will represent all Americans, regardless of political 
backgrounds or ideologies.

    Question. Given that our ambassadors are supposed to serve as 
representatives of all Americans, in your opinion, is this comment the 
type of diplomatic speech we should expect from you, if confirmed?

    Answer. If confirmed as U.S. Ambassador to Chile, I will be a 
representative for all Americans. I understand that with the privilege 
of serving comes the responsibility to ensure my actions and words do 
not represent my personal views, but those of the United States and the 
American people.

    Question. In 2016, you posted on Twitter a piece of, literally, 
fake news, claiming that Michelle Obama's mother was receiving a 
$160,000 a year pension from the federal government. What do you 
believe is the impact on U.S. political discourse of tweeting 
disinformation, misinformation, and false information?

    Answer. I apologized on Twitter when I learned of my unintentional 
error. I learned an important lesson about the traps and pitfalls on 
social media. As I conveyed to you in the hearing, if confirmed, I 
intend to work closely with the Public Affairs team at the Embassy to 
post positive and constructive things on Twitter and other social media 
platforms to promote U.S. foreign policy and U.S. interests as well as 
to protect and communicate important information to American citizens 
in Chile.

    Question. In 2016, you published an op-ed in which you stated that 
people are ``seriously troubled by the prospect of Donald Trump winning 
the Republican nomination.'' Why did you believe that people were 
troubled by this prospect?

    Answer. At the time, I was supporting another candidate and making 
arguments to advance that candidacy. My opinion changed after hearing 
then-Candidate Trump speak in person at several events about why he was 
running for President, his love for America and his policy ideas.

    Question. In 2016, you published an op-ed in which you made a 
series of statements regarding then-candidate Donald Trump, stating 
``He is vulgar, ill-mannered and disparages those whom he cannot not 
intimidate. His modus operandi is to try to intimidate people, then 
call them names and calumniate about them, and then if those tactics do 
not work, to sue them.'' Do you believe that President Trump has 
continued to demonstrate these characteristics since his inauguration?

    Answer. No. The views expressed in that op-ed were at a time I was 
supporting and advocating for another candidate competing against 
President Trump. I would certainly not use these words to describe the 
President's conduct in office. President Trump has been a strong leader 
for America and for the American People. I am proud to be his nominee.

    Question. Last October, Chile saw massive protests and social 
unrest. While some protestors engaged in acts of violence and 
vandalism, disturbingly, Chile's National Institute for Human Rights 
documented that Chilean security forces engaged in nearly 400 cases of 
torture and cruel treatment, nearly 200 incidents of sexual violence, 
more than 800 counts of excessive force, and 6 homicides. Human Rights 
Watch and others called for much-needed reforms in Chile's national 
police, the Carabineros. In normal times, the U.S. is a leading voice 
for the defense of human rights, even when it means providing 
constructive criticism to our friends. How will you approach the issue 
of human rights abuses by police forces in Chile?

    Answer. If confirmed, I commit to promoting respect for human 
rights, including by Chile's security forces. Chile is one of the 
Western Hemisphere's strongest democracies. We ground our partnership 
with Chile in shared values, and those include support for democracy, 
respect for human rights, and the promotion of economic opportunity.

    Question. Do you believe that President Trump's aggressive tactics 
against protestors in Lafayette Square in June 2020 will limit your 
ability to be an effective advocate on the importance of addressing 
human rights abuses perpetrated by Chilean police?

    Answer. If confirmed, I have no concerns about my ability to 
effectively advocate for the protection of human rights of all Chilean 
citizens, and condemn any human rights abuses perpetrated by Chilean 
police.

    Question. Do you believe that the Trump administration's recent use 
of unmarked vehicles to detain demonstrators in Portland, Oregon will 
undermine the credibility of U.S. advocacy related to the importance of 
addressing human rights abuses perpetrated by Chilean police?

    Answer. The United States is proud of the role we have played in 
advancing human rights across the globe.??Governments that take human 
rights seriously are transparent and welcome conversations about 
addressing concerns and making improvements.? As the Secretary said on 
July 17, ``I challenge anyone in the world to best our robust 
democracy, our vigorous debates, and our constant striving to be 
better.''

    Question. For several decades, Chile was held up as an example of 
how representative democracy, the rule of law, and pragmatic economic 
management could decrease poverty and grow the country's economy. 
However, last October, widespread social protests called into question 
the legacy of Chile's model democracy, as citizens expressed outrage at 
enduring inequality and slowing economic growth. And now, Chile is 
scheduled to hold a plebiscite in October that could lead to the 
drafting of a new constitution and a fundamental shaping of the Chilean 
social contract in order to better address citizen desires for better 
pension, health care, and education systems. What is your assessment of 
these developments?

    Answer. Chile has built strong democratic institutions and a modern 
economy, yet many Chileans feel they have not benefitted from these 
advancements. Potential changes include enhanced social rights, a more 
flexible mechanism for any future constitutional and legislative 
reforms, and perhaps a somewhat greater role for the public sector. The 
legislative framework for the constitutional process indicates that, 
regardless of the outcome, Chile will maintain its character as a 
democratic republic. If confirmed, I would engage as appropriate to 
advocate in favor of any U.S. interests that the constitutional process 
could affect as it advances.

    Question. What are the implications for U.S. foreign policy and 
U.S. businesses?

    Answer. As Chile navigates its response to the grievances expressed 
by many of its citizens, including a possible new constitution and 
changes to Chile's social contract, if confirmed, I will be attentive 
to the concerns of U.S. businesses and will engage as necessary with 
the Chilean Government to protect and advance U.S. interests. The 
reform process taking shape in Chile, whether it is through a new 
constitution or other reforms, has the potential to promote greater 
stability, a stronger democracy, and broader access to economic 
opportunities for all Chileans. By partnering with Chile as it embarks 
on these reforms, we can advance our shared economic and security 
interests.

    Question. What diplomatic support would you provide to the Chilean 
Government as it seeks to navigate citizen demands?

    Answer. If confirmed, I would maintain and advance our strong and 
long-standing bilateral partnership with Chile. As a mature democracy 
that has faced its own struggles to live up to our democratic ideals 
over the course of our history, the United States can help Chile foster 
greater political inclusion and offer greater economic opportunity to 
more of its citizens. I would seek to offer U.S. assistance and 
capacity building to the Chilean Government and civil society 
organizations as they endeavor to enhance and consolidate the 
impressive democratic and economic advances Chile has made over the 
past three decades.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that retaliation has no place 
in the federal government and will not be tolerated. I agree that those 
found to have engaged in retaliation should be subject to 
accountability and discipline in accordance with U.S. federal labor law 
and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I am committed to fostering a culture of 
inclusion and accountability in Chile and ensuring that all members of 
my team feel empowered to contribute to our mission. I will ensure that 
we learn from and listen to employees using mechanisms like the Open 
Conversations platform. I will promote habits and practices among the 
leadership that focus on inclusion as a key driver for retaining 
diverse talent. I will promote best practices for inclusive hiring, 
including standardized interview guidance. I will support the review of 
existing mentoring programs and how they can be bolstered. If 
confirmed, I would make mentoring a priority; when I was a young woman 
starting out in the corporate world, there were no others there to 
mentor me. I will both encourage my mission staff and require hiring 
managers to take the Department's Mitigating Unconscious Bias course. I 
will encourage greater connectivity for members of my team to share 
their experiences and their expertise with our Mission.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My American Dream includes my maternal grandparents with 
their young daughter, my mother, escaping the Holocaust in Europe in 
1940 to safe haven in Cuba, and my parents as adults fleeing the 
Communist revolution in Cuba bringing my sister and me to America in 
1960 when I was three years old. These are the seminal experiences and 
memories that have shaped my life and my deep love for America. Human 
rights and democracy are American values that are especially important 
to me as a naturalized citizen who has a safe haven in America.
    From the time I was a child in North Carolina, I have applied human 
rights and democracy as guiding principles of my life. As a child, I 
recognized that Jim Crow laws were wrong and disturbing. I made the 
personal decision in high school, to attend the integrated Charlotte-
Mecklenburg public schools in a time of great tension. Other white 
children who had our economic and educational advantages chose to 
desert the public school system for private schools that were not 
integrated. I was able to cultivate friendships with other students 
from all backgrounds which has served me well in life since. Having 
personally experienced anti-Semitism and prejudice, I left the South to 
go to college in the North hoping to find an environment where people 
would be more open-minded and accepting of diversity.
    I have also been active as a volunteer and, when my circumstances 
have allowed, as a philanthropist supporting human rights and religious 
freedom. During high school, I was a leader in our local B'nai B'rith 
Girls chapter and was a proud leader in the volunteer effort to free 
Soviet Jews and help them adjust to life as Americans in Charlotte.
    In the 1990's, my husband Steve and I were active leaders with the 
United Jewish Appeal--Federation of New York in Operations Moses and 
Solomon, helping provide the financial resources to free Ethiopian 
Jewry from persecution and assist their resettlement in Israel, which 
former Senator and Ambassador Rudy Boschwitz (MN) negotiated as 
President George H.W. Bush's special envoy.
    Should I be honored with confirmation, I am committed to be a 
strong advocate for American policies supporting human rights and 
democracy.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Chile These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Chile is one of the Western Hemisphere's strongest 
democracies. We have built our partnership on a foundation of shared 
values and support for democracy, protection of human rights, and 
promotion of economic opportunity. Chile's pressing challenges include 
expanding access to economic opportunity, enhancing democratic 
participation, and promoting greater social equality. Chile is now in 
the midst of a constitutional reform process agreed to by Chile's 
Government and all of Chile's major political parties. Additional 
challenges include strengthening intellectual property rights 
protections and adopting stronger sentencing guidelines for those 
convicted of human trafficking.

    Question. What steps will you take--if confirmed--to support 
democracy in Chile? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed as ambassador, I would strive to support and 
strengthen Chile's democracy, which already serves as a model for the 
region. Drawing upon the expertise of the staff at U.S. Embassy 
Santiago, I would work closely with the Government of Chile to promote 
security, democracy, human rights, prosperity, and good governance, not 
only in Chile but within our hemisphere and across the globe. I expect 
and have confidence that the Government of Chile will continue in its 
general respect for human rights and the rule of law.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Despite recent unrest, Chile remains one of the Western 
Hemisphere's strongest democracies. As a high-income country, it 
receives limited foreign assistance, but we work closely with the 
Government on democracy and governance, working together across the 
hemisphere. We ground our partnership in shared values and support for 
democracy, human rights, and economic opportunity. If confirmed, I will 
utilize all U.S. Government assistance at my disposal to support 
strengthening democracy and good governance in Chile.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Chile? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meeting with civil society 
members, human rights, and other NGOs in the United States and Chile. 
Democracy, human rights, and economic opportunity are all part of our 
countries' shared values and these are best safeguarded by a strong 
civil society. I will support all efforts to ensure there are no undue 
restrictions on civil society, including on those organizations that 
promote our mutual values.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Chile is one of the Western Hemisphere's strongest 
democracies and consistently holds free and fair elections. We have 
built our partnership on a foundation of shared values and support for 
democracy, human rights, and economic opportunity. If confirmed, I will 
meet with leaders from across the political spectrum, including those 
from opposition political parties. If confirmed, I will also promote 
social inclusion and diversity in political institutions and processes, 
particularly greater participation of women, minorities, and youth.

    Question. Will you and your embassy team actively engage with Chile 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures? Will you commit to meeting regularly with independent, local 
press in Chile?

    Answer. Chile has a dynamic democratic system, which shares the 
U.S. values of support for democracy and human rights, including 
freedom of expression, including by members of the press. If confirmed, 
I will work with our team at the embassy to promote those shared 
values, including with respect to the press, and call out cases where 
they are infringed upon. If confirmed, I will regularly meet with all 
types of local press in Chile.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, I look forward to continuing and 
strengthening engagement with relevant civil society and government 
counterparts in Chile to counter disinformation. I would also condemn 
any external actor that seeks to sow discord or undermine democratic 
processes with misinformation.

    Question. Will you and your embassy teams actively engage with 
Chile on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I would continue and strengthen engagement 
with relevant Chilean counterparts to protect the interests of labor 
groups and independent trade unions. Chile is a robust democracy that 
has demonstrated its commitments to democratic values, transparency, 
human rights, and a vibrant civil society. The Government's positive 
response to public demands for a constitutional reform shows that 
political leaders are generally responsive to the needs of their 
citizens, including in the realm of labor rights. I intend to engage in 
productive dialogue with labor groups and trade unions on all sides in 
addition to business leaders and the appropriate government authorities 
on this issue.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Chile, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Chile? What specifically will you commit to do to help LGBTQ people in 
Chile?

    Answer. If confirmed, promoting American values such as protecting 
and defending human rights, including the rights of LGBTQ persons, will 
be a pillar of my agenda. We have built our partnership with Chile on a 
foundation of shared democratic values and that includes upholding the 
human rights of LGBTQ persons. Chile has taken meaningful steps to 
advance the human rights of LGBTQ persons and ensure more equal and 
dignified treatment, as Chileans face many of the same challenges of 
discrimination as in many democratic societies. If confirmed, I commit 
to raising LGBTQ issues with Chilean officials and speaking out to 
assert U.S. values and defend human rights against any forms of abuse.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Leora Levy by Senator Benjamin L. Cardin

    Question. Nonpartisanship: You have a record of social media 
engagement that could be described as confrontational and partisan. The 
ability to work respectfully and cooperatively with people of diverse 
political ideologies is very important to me and is also critical to 
the responsibilities of an Ambassador. If confirmed, how would you 
ensure that your personal political views do not stand in the way of 
productive engagement with American and foreign leaders whose politics 
differ from yours?

    Answer. An American Ambassador is a nonpartisan role representing 
the United States overseas, including working with career staff, 
political appointees, all elected officials and people of diverse 
interests, interacting with representatives of diverse factions of 
foreign governments and societies. I am very mindful of the 
ambassadorial role in providing objective, nonpartisan feedback to the 
Department of State from a foreign land. These principles will always 
be part of my mandate should I be honored with confirmation.
    I have approached partisan political life with passion. Should I be 
confirmed, I hope to be a passionate diplomatic advocate for United 
States Foreign Policy and interests and an honest broker of ideas 
within Government.

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. My American Dream includes my maternal grandparents with 
their young daughter, my mother, escaping the Holocaust in Europe in 
1940 to safe haven in Cuba, and my parents as adults fleeing the 
Communist revolution in Cuba bringing my sister and me to America in 
1960 when I was three years old. These are the seminal experiences and 
memories that have shaped my life and my deep love for America. Human 
rights and democracy are American values that are especially important 
to me as a naturalized citizen who has a safe haven in America.
    From the time I was a child in North Carolina, I have applied human 
rights and democracy as guiding principles of my life. As a child, I 
recognized that the Jim Crow laws were wrong and disturbing. I made the 
personal decision in high school, to attend the integrated Charlotte-
Mecklenburg public schools in a time of great tension. Other white 
children who had our economic and educational advantages chose to 
desert the public school system for private schools that were not 
integrated. I was able to cultivate friendships with other students 
from all backgrounds which has served me well in life since. Having 
personally experienced anti-Semitism and prejudice, I left the South to 
go to college in the North hoping to find an environment where people 
would be more open-minded and accepting of diversity.
    I have also been active as a volunteer and, when my circumstances 
have allowed, as a philanthropist supporting human rights and religious 
freedom. During high school, I was a leader in our local B'nai B'rith 
Girls chapter and was a proud leader in the volunteer effort to free 
Soviet Jews and help them adjust to life as Americans in Charlotte.
    In the 1990's, my husband Steve and I were active leaders with the 
United Jewish Appeal-Federation of New York in Operations Moses and 
Solomon, helping provide the financial resources to free Ethiopian 
Jewry from persecution and assist their resettlement in Israel, which 
former Senator and Ambassador Rudy Boschwitz (MN) negotiated as 
President George H.W. Bush's special envoy.
    Should I be honored with confirmation, I am committed to be a 
strong advocate for American policies supporting human rights and 
democracy.

    Question. What are the most pressing human rights issues in Chile? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Chile? What do you hope to 
accomplish through these actions?

    Answer. If confirmed, I will continue to advance U.S. policy to 
protect and defend human rights. Chile is one of the Western 
Hemisphere's strongest democracies. We ground our partnership with 
Chile in shared values, and those include support for democracy, 
respect for human rights, and the promotion of economic opportunity. 
Chilean authorities have investigated with great transparency troubling 
allegations of human rights violations during the civil unrest of 2019, 
welcoming visits by international organizations including Human Rights 
Watch, the Inter-American Commission on Human Rights, and the office of 
the U.N. High Commissioner for Human Rights.
    If confirmed, I hope that my actions will strengthen and reinforce 
the Chilean Government's commitment to respect for human rights as well 
as that of the Chilean People and groups in civil society. They will 
know that their ally and partner, the United States is a champion for 
the respect and protection of human rights and democracy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Chile in advancing 
human rights, civil society, and democracy in general?

    Answer. Chile has built strong democratic institutions and a modern 
economy, yet many Chileans feel they have not benefitted from these 
advancements. Protests that began in late 2019 have paused during the 
COVID-19 outbreak but could resume as Chilean authorities ease public 
health restrictions and the economic strains caused by the pandemic 
increase.
    I expect and have confidence that the Chilean Government would 
respond with respect for human rights and the rule of law, and I hope 
that protesters would do the same.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Chile? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, I am committed to meeting with human 
rights, civil society, and other non-governmental organizations in the 
United States and local human rights non-governmental organizations in 
Chile. I am committed to supporting the implementation of the Leahy 
Laws and other similar efforts.
    Embassy Santiago works with the Department of State to thoroughly 
vet all Chilean security forces identified to receive U.S.-funded 
security assistance to ensure that no individual or unit for whom 
credible information exists of involvement in a gross violation of 
human rights receives such aid until those allegations have been 
investigated and, if warranted, resulted in prosecution and punishment. 
The International Military Education and Training (IMET) program also 
includes a human rights component.

    Question. Will you and your embassy team actively engage with Chile 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Chile?

    Answer. If confirmed as ambassador, I would make it my priority to 
deepen the historically strong partnership on human rights that exists 
between the United States and Chile. The Department of State's 2019 
Human Rights Report on Chile found no reports of political prisoners or 
detainees, and that the Government of Chile took steps to investigate 
and prosecute officials who allegedly committed abuses. Chile is a 
reliable partner in defense of human rights in the Western Hemisphere, 
having demonstrated strong leadership to address the humanitarian and 
human rights crisis in Venezuela, where arbitrary detention and abuse 
are the norm. I support continued collaboration with Chile to prevent 
violations and abuses of human rights and to promote accountability for 
human rights violators and abusers.

    Question. Will you engage with Chile on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I would make engagement on human rights, 
civil rights, and governance a central part of my tenure as ambassador. 
I would support Chile's leadership in spreading the benefits of 
democracy and good governance throughout the region, drawing on our 
close bilateral relations and shared values. I would strive to continue 
the Department of State's tradition of excellence on human rights 
reporting through the annual Country Report on Human Rights Practices. 
A vibrant, inclusive democracy that benefits all Chileans remains among 
the most important U.S. interests in Chile.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and representative workforce. I will encourage promoting diversity and 
inclusion in the hiring process through standardized interview 
procedures. I will promote the expansion of workplace flexibilities, 
including telework and alternative work schedules, and Leave Without 
Pay (LWOP) options, similar to ``boomerang talent'' programs in the 
private sector. I will learn from and listen to employees using 
mechanisms like the Open Conversations platform and the Department's 
new centralized exit survey. I will promote and encourage all employees 
to take the Mitigating Unconscious Bias course.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the Embassy in Chile are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
Diversity and Inclusion Best Practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will support the requirement of all hiring managers to take the 
Mitigating Unconscious Bias course.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Chile?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which hold interests in companies with a presence in 
Chile. My investment portfolio also includes security interests, 
including stocks, in companies, some of which have a presence in Chile. 
I am committed to ensuring that my official actions will not give rise 
to a conflict of interest. I am committed to following all applicable 
ethics laws and regulations and remaining vigilant with regard to my 
ethics obligations.

    Question. How do you believe corruption impacts democratic 
governance and the rule of law generally, and in Chile specifically?

    Answer. Chile is known for its commitment to transparency, freedom 
of expression, and an independent judiciary and ranked 26 out of 180 
countries on Transparency International's 2019 Corruption Perceptions 
Index, but recent corruption scandals have tarnished public trust and 
diminished Chile's reputation for institutional stability and respect 
for the rule of law. The administration of President Sebastian Pinera 
and the Chilean criminal justice system have acted against corruption 
and they have achieved convictions. They have shown that they 
understand that corruption can undermine democratic governance and rule 
of law and that individuals and governments that act without 
transparency, that escape accountability, and that act with impunity do 
so at the expense of a nation's citizens.

    Question. What is your assessment of corruption trends in Chile and 
efforts to address and reduce it by that government?

    Answer. Chile is known for its commitment to accountable and 
transparent governance, but both public corruption and corporate 
malfeasance cases have trended upward, leaving an impression that 
political and business elites may enjoy impunity under the justice 
system. Chilean authorities--including President Sebastian Pinera--have 
taken significant steps to change that, investigating allegations of 
corruption across government, including in the legislature, judiciary, 
military, and police; dismissing indicted public officials; and passing 
legislation to strengthen anti-corruption measures. Chile's judicial 
system has handed down a significant number of convictions.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Chile?

    Answer. Chile routinely scores high marks for good governance, 
openness, and rule-of-law. The United States works closely with Chile 
on bilateral programs--with the executive, the Government, the 
judiciary, and civil society--to enhance Chile's performance in these 
areas, and in a variety of fora that promote democracy, human rights, 
anticorruption, and good governance within our hemisphere and across 
the globe. Hemispheric collaboration strengthens these areas in Chile 
as well. If confirmed, I would ensure that we continue to support 
programs that would help Chile continue its good governance and 
anticorruption efforts.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Hon. Aldona Zofia Wos by Senator Robert Menendez

    Question. From May 2018 to May 2019, the Trump administration 
imposed Section 232 tariffs on Canadian steel and aluminum, invoking 
threats to U.S. national security. Do you believe Canadian steel and 
aluminum represent threats to U.S. national security, especially given 
longstanding linkages between our defense sectors?

    Answer. With $725 billion in annual bilateral trade in goods and 
services, the United States and Canada share the largest trade 
relationship in the world. With USMCA in force, we work closely with 
our Canadian and Mexican partners to ensure that North American supply 
chains remain robust. Our North American partnership is vital for a 
quick economic recovery. Protecting American workers has always been a 
priority of this administration.
    I refer you to the Department of Commerce and USTR for specifics on 
the status of 232 aluminum tariffs on Canada.

    Question. Press reports indicate that the Trump administration is 
considering imposing a new round of tariffs on Canada, just weeks after 
the formal start of the USMCA. Do you believe that the U.S. should 
impose tariffs on aluminum from Canada, a key U.S. national security 
and economic partner?

    Answer. The United States and Canada share the largest trade 
relationship in the world. During the COVID-19 pandemic, our integrated 
supply chains reminded us of how important trade is to our shared 
resilience. Protecting American workers has always been a priority of 
this administration and millions of U.S. and Canadian middle-class jobs 
depend on our economic partnership. I am confident that under the 
USMCA, we will find new ways to sustain and expand our mutually 
beneficial trade relationship, to benefit Americans and Canadians.
    I refer you to the Department of Commerce and USTR for specifics on 
the status of 232 aluminum tariffs on Canada.

    Question. If the Trump administration imposes new tariffs on 
Canadian aluminum, it is likely that Canada's Government would 
retaliate. What is your assessment of the impact to the U.S. economy of 
a trade war with Canada?

    Answer. The United States and Canada enjoy the most extensive and 
integrated economic relationships in the world. The almost 400,000 
people and nearly $2 billion worth of goods and services that cross our 
border daily are testament to the strength of our trade relationship, 
which has allowed us to resolve challenges and differences in the past 
and will again in the future.
    The United States-Mexico-Canada Agreement (USMCA) entered into 
force on July 1, 2020. The USMCA will ensure that North America remains 
the world's economic powerhouse and will create high-paying jobs for 
Americans, Canadians, and Mexicans, and grow the North American 
economy.

    Question. Since the CDC's March 20 order, the U.S.-Canada border 
has been largely closed despite the historical integration of cross-
border communities. If confirmed, what strategy will you pursue to re-
open the U.S.-Canada border?

    Answer. The United States and Canada continue close cooperation in 
responding to the global pandemic of COVID-19. This involves engagement 
at the highest levels by President Trump, Secretary Pompeo, and Deputy 
Secretary Biegun, as well as across agencies, by health officials, at 
our diplomatic missions abroad, and along our border.
    If confirmed, I will work with all relevant agencies and 
counterparts, including public health officials and the Department of 
Homeland Security, to facilitate the safe re-opening of the U.S-Canada 
border at the appropriate time.

    Question. Will this strategy be informed by guidance from 
scientists and medical professionals?

    Answer. As a trained medical doctor, I know firsthand the important 
role that medical and public health officials have in keeping 
communities safe. If confirmed, I will seek to strengthen ongoing 
collaboration between the medical and scientific communities in the 
United States and Canada as they work to address COVID-19.

    Question. In December 2018, acting on a U.S. extradition request, 
Canadian authorities detained Huawei CFO Meng Wenzhou. Since then, 
Canada has faced a barrage of retaliation from China, including tariffs 
on Canadian products and arresting two Canadian citizens, Michael 
Kovrig and Michael Spavor. President Trump previously referred to Ms. 
Meng as something that could be traded with China as part of ongoing 
negotiations. Do you believe that U.S. extradition requests should be 
the subject of negotiation requests between the U.S. and China?

    Answer. Like all cases brought by the U.S. Department of Justice, 
the criminal prosecution against Huawei CFO Meng Wanzhou is based 
solely on the facts and law.

    Question. Given ongoing legal arguments in Canada, which have 
featured President Trump's comments, do you believe that the 
President's comments have strengthened the U.S. legal case for Ms. 
Meng's extradition to the United States?

    Answer. Per the filings unsealed in Canada, Meng and others 
allegedly broke the law. Specifically, they are accused of deceiving 
numerous global financial institutions about the nature and extent of 
Huawei's business activities in Iran, thereby putting these financial 
institutions at risk of incurring criminal and civil penalties for 
processing transactions that violated U.S. laws or regulations. Meng 
and others allegedly falsely stated that Skycom was an unaffiliated 
business partner, rather than disclosing that it was Huawei's Iranian 
affiliate.
    Like all cases brought by the U.S. Department of Justice, the 
criminal prosecution against Huawei CFO Meng Wanzhou is based solely on 
the facts and law.

    Question. What specific steps would you suggest that the U.S. can 
take to support our ally Canada in dealing with the People's Republic 
of China and helping to secure the release of Michael and Michael?

    Answer. The United States should continue to publicly call on China 
to end the arbitrary detentions of Canadian citizens Michael Spavor and 
Michael Kovrig and reject China's unacceptable coercive use of 
detentions as a political tool. Recognizing the PRC's strategy of using 
arbitrary detentions as political leverage is not a one-country 
problem. I support working with our allies and partners, including 
Canada, to explore multilateral tools that can impose real costs and 
pressure on the Chinese Government for its use of arbitrary detentions.

    Question. According to federal data, there are 2.6 million 
registered U.S. voters overseas, including 660,000 eligible U.S. voters 
in Canada. The State Department, in coordination with the Department of 
Defense's Federal Voting Assistance Program (the FVAP), plays an 
essential role in helping overseas and military voters exercise their 
most fundamental democratic right, the right to vote. Will you ensure 
that our Embassy in Ottawa and consulates across Canada prioritize the 
return of ballots as an essential service in order to ensure that 
ballots are returned to voters' home states in a timely manner?

    Answer. The U.S. Department of State is committed to providing 
voting information and assistance to U.S. citizens in Ottawa at our 
Embassy and Consulates across Canada. The health and safety of U.S. 
citizens and our staff is our primary concerns. We have recently sent 
guidance to our posts to ensure they provide clear messaging that 
voters may return their voted ballots via international mail, private 
commercial courier services such as FedEx or DHL, or by drop off at a 
U.S. Embassy or Consulate that is at or above Phase 1 in the Diplomacy 
Strong reopening process.

    Question. According to federal data, there are 2.6 million 
registered U.S. voters overseas, including 660,000 eligible U.S. voters 
in Canada. The State Department, in coordination with the Department of 
Defense's Federal Voting Assistance Program (the FVAP), plays an 
essential role in helping overseas and military voters exercise their 
most fundamental democratic right, the right to vote. Will you commit 
that our mission across Canada will provide public information to 
eligible U.S. voters on how to securely and safely cast their ballots 
during the pandemic?

    Answer. The Department is providing and will continue to provide 
U.S. citizens in Canada and across the globe with the information they 
need to vote.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that retaliation has no place 
in the federal government and will not be tolerated. I agree that those 
found to have engaged in retaliation should be subject to 
accountability and discipline in accordance with U.S. federal labor law 
and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I am committed to fostering a culture of 
inclusion and accountability in Canada and ensuring that all members of 
my team feel empowered to contribute to our mission. I will ensure that 
we learn from and listen to employees using mechanisms like the Open 
Conversations platform. I will promote habits and practices among the 
leadership that focus on inclusion as a key driver for retaining 
diverse talent. I will promote best practices for inclusive hiring 
practices including standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will both encourage my mission staff and require hiring managers to 
take the Department's Mitigating Unconscious Bias course. I will 
encourage greater connectivity for members of my team to share their 
experiences and their expertise with our Mission.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.



                               __________

            Responses to Additional Questions for the Record
    Submitted to Hon. Aldona Zofia Wos by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Furthering human rights and democracy for all has been at 
the heart of my public service. My lifelong commitment to these ideals 
began with the lessons that my parents taught me. My mother Wanda, a 
slave labor survivor, and Paul, a fighter in the Polish Home Army, a 
Righteous Gentile, and a concentration camp survivor, fought for 
freedom in the face of totalitarianism and pure evil. At age six, I 
fled Communist controlled Poland. I have continued their fight for 
freedom and democracy ever since emigrating to the United States, by 
way of Canada, in 1961.
    One of my most meaningful achievements in the pursuit of these 
ideals has been through teaching the next generation that freedom and 
democracy cannot be taken for granted. Between 2000 and 2010, I 
organized multiple lectures titled the Polish Experience in WWII. 
Through these lectures, I sought to present the struggles of millions 
of families during World War II to ensure that the darkness of history 
would never repeat itself. My most memorable lectures were at the 
University of North Carolina at Greensboro and First Presbyterian 
Church, where I was able to share these stories with over a thousand 
people on the week of the September 11th attacks. By presidential 
appointment, I was able to advance my engagement as a member of the 
United States Holocaust Memorial Museum.
    I was also incredibly proud of being able to further the ideals of 
freedom, democracy, and respect for all while serving as Ambassador to 
Estonia. I committed myself and the United States mission in Estonia to 
building relationships between native Estonians and native Russians. My 
most memorable accomplishment was organizing a soccer match in which 
two high schools--one mostly Russian and one mostly Estonian--joined as 
one unified team to take on Embassy personnel. In our estimation, these 
two schools, separated by a soccer field, had limited previous 
interaction due to cultural divides. At the end of my service, I 
lectured at over one-hundred Estonian high schools, presenting ideals 
of freedom, democracy, and respect for human dignity to the next 
generation. In addition, I fought to provide Estonian Government 
funding for the preservation of historical documents of the Old 
Believers, a sect of Eastern Orthodox Christians from the seventeenth 
century who fled to Estonia after religious persecution.
    If confirmed, I look forward to continuing to promote freedom, 
democracy, and human rights.

    Question. What are the most pressing human rights issues in Canada? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Canada? What do you hope to 
accomplish through these actions?

    Answer. Canada is a global leader in promoting human rights and 
fundamental freedoms. Part of that leadership has been to address 
domestic human rights issues in Canada. In 2019, the Government of 
Canada acknowledged the high rates of deadly violence against 
indigenous women. If confirmed, I will engage directly with both 
Government of Canada officials and indigenous women leaders to promote 
the empowerment of all members of the society, and to strengthen the 
ties between communities and civil society leaders in the United States 
and Canada.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Canada in advancing 
human rights, civil society, and democracy in general?

    Answer. If confirmed, I look forward to working with Canada's 
vibrant civil society on the full range of human rights issues. I will 
work to overcome the obstacles of distance by traveling throughout 
Canada's provinces and territories to engage directly with citizens 
representing the full range of Canadian society, including indigenous 
communities. As part of my regular public engagement via social media, 
I will emphasize that the United States remains Canada's full partner 
in promoting and protecting democracy and human rights.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Canada? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with the full range 
of human rights, civil society, and non-governmental groups in both the 
United States and Canada. I strongly believe in the importance of the 
thorough vetting of all participants in U.S. security assistance and 
security cooperation programs. If confirmed, I will work to ensure that 
all security assistance is vetted in compliance with the Leahy Law and 
that security cooperation activities reinforce human rights.

    Question. Will you and your embassy team actively engage with 
Canada to address cases of key political prisoners or persons otherwise 
unjustly targeted by Canada?

    Answer. Yes. I know of no political prisoners currently held in 
Canada.

    Question. Will you engage with Canada on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Canada remains a leader in the promotion and protection of 
democratic values around the world. If confirmed, I will work to 
strengthen the bilateral partnerships between the Governments of the 
United States and Canada to promote human rights, civil rights, and 
good governance globally.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and representative workforce. I will encourage promoting Diversity and 
Inclusion in the hiring process through standardized interview 
procedures. I will promote the expansion of workplace flexibilities, 
including telework and alternative work schedules, and Leave Without 
Pay (LWOP) options, similar to ``boomerang talent'' programs in the 
private sector. I will learn from and listen to employees using 
mechanisms like the Open Conversations platform and the Department's 
new Centralized Exit Survey. I will promote and encourage all employees 
to take the Mitigating Unconscious Bias course.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the Embassy in Canada are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
Diversity and Inclusion Best Practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will support the requirement of all hiring managers to take the 
Mitigating Unconscious Bias course.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raising any 
concerns that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raising any 
concerns that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Canada?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which hold interests in companies with a presence in 
Canada. My investment portfolio also includes security interests, 
including stocks, in companies, some of which have a presence in 
Canada. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Canada 
specifically?

    Answer. I believe political corruption is a direct threat to the 
stability of any society, including the belief of citizens in the 
Governments elected to serve them. My own prior experience in public 
service has only increased my belief in the importance of strong 
institutions at all levels of society. Canada has a long tradition of 
political stability and democratic governance. I look forward to 
engaging directly with Canada's leaders as we work together to 
strengthen the strong bonds between our countries and our respective 
democratic institutions.

    Question. What is your assessment of corruption trends in Canada 
and efforts to address and reduce it by that government?

    Answer. Canada still rates low on international indexes measuring 
societal corruption, although the Government of Canada has publicly 
noted its commitment to combat financial crimes including money 
laundering. If confirmed, I look forward to engaging with national and 
local law enforcement agencies in Canada and in finding ways to enhance 
their existing partnerships with counterparts in the United States, 
including through the sharing of best practices.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Canada?

    Answer. If confirmed, I will seek additional opportunities for 
Mission Canada to work with Canada's public sector and civil society to 
expand existing programs and to build new alliances between agencies 
and organizations committed to good governance and anticorruption, both 
at the national and local levels.



                               __________


            Responses to Additional Questions for the Record
        Submitted to William W. Popp by Senator Robert Menendez

    Question. Support for the rule of law and strong, independent, and 
transparent institutions is essential to the U.S-Guatemala Partnership. 
However, recent developments suggest that criminal elements have been 
working to manipulate the selection of judges in Guatemala. There are 
also troubling reports of political attacks against sitting judges in 
the country's highest court and efforts of undemocratic actors to 
remove these judges and undermine their efforts to uphold the rule of 
law. What is your assessment of these troubling developments?

    Answer. I am following developments closely and am committed to 
supporting the rule of law in Guatemala. A key element to any rule of 
law-based system is an impartial and independent judiciary, chosen 
through an open and transparent process. A strong and stable rule of 
law system is important for attracting investment, providing social 
stability, addressing crime, and ensuring all rights are respected.

    Question. If confirmed, how will you work to support the integrity 
of Guatemala's judicial institutions and prioritize U.S. efforts to 
strengthen institutions that uphold the rule of law?

    Answer. If confirmed, I will work with the Embassy team and public 
and non-governmental institutions, to encourage respect for the 
Guatemalan constitution, and the importance of the separation of powers 
as a guarantor of the rights of Guatemalan citizens.

    Question. It is no secret that the United States' Asylum 
Cooperative Agreement with Guatemala is not an agreement with a safe 
third country, and that Guatemala negotiated the agreement under 
duress. Guatemala continues to grapple with high levels of violence, 
and President Giammattei has acknowledged that his government lacks 
adequate asylum capacity. Indeed, the State Department has provided 
evidence to the Senate Foreign Relations Committee that Guatemala 
adjudicated only 112 asylum claims in 2019. This capacity compares to 
the 939 asylum seekers, including 357 children, whom the United States 
transferred to Guatemala in just four months. Do you believe that 
Guatemala's high levels of violence and weak asylum capacity are 
adequate to protect the 939 asylum seekers already sent there by the 
United States?

    Answer. As a cooperating country to the Comprehensive Refugee 
Response Framework, the United States provides humanitarian aid and 
capacity building support through our international organization 
partners in Guatemala. This assistance helps Guatemala to increase its 
asylum capacity and enhances protection resources available to asylum 
seekers, refugees, and other vulnerable migrants, including Asylum 
Cooperative Agreement (ACA) transferees who request protection or wish 
to return to their home countries. The goal of both the United States 
and Guatemala is to implement this agreement gradually so as not to 
overwhelm Guatemala's capacity to receive transferees as it strengthens 
its asylum system. If confirmed, I will work closely with Guatemala to 
continue building Guatemala's capacity to receive, protect, and assist 
individuals transferred under the ACA.

    Question. Prior to your nomination, the Trump administration 
suspended nearly all U.S. foreign assistance to Guatemala and the 
Northern Triangle countries. Now that funding is restarting, the 
administration has provided us with descriptions of new programs. The 
congressional notifications we've received so far present a departure 
from traditional USAID programming designed to strengthen governance, 
address security challenges, and advance programs to alleviate poverty 
and stimulate economic growth. Instead, the congressional notifications 
have an almost exclusive focus on migration/immigration. Given your 
distinguished career, can you please articulate your vision about the 
importance of a comprehensive approach to U.S. foreign assistance 
towards Guatemala in order to strengthen the rule of law, address 
security, uphold human rights, and advance inclusive economic growth?

    Answer. If confirmed, I will work with the Department, our U.S. 
embassy, USAID, and other partners to ensure U.S. assistance in 
Guatemala continues to align with our policy goals in addressing the 
economic, security, and governance drivers of migration. U.S. 
assistance can be an effective tool to address these root causes, and 
some progress has been made, but Guatemalan political will is essential 
to make further progress. If confirmed, I will engage the Guatemalan 
Government and support our assistance programs that help strengthen 
institutions, address corruption, improve security conditions, and 
uphold human rights to help create an enabling economic environment 
that attracts private sector investment and supports small business 
development, thus creating more opportunities for Guatemalans at home.

    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that retaliation has no place 
in the federal government and will not be tolerated. I agree that 
anyone found to have engaged in retaliation should be subject to 
accountability and discipline in accordance with U.S. federal labor law 
and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed as Chief of Mission, I will lead the nearly 
550 professionals in Mission Guatemala to advance the U.S. agenda in a 
safe, inclusive, and respectful workplace. I will continue to pursue 
the active leadership approach that I did as Deputy Chief of Mission at 
the U.S. Mission to Brazil by ensuring our Embassy in Guatemala has a 
robust and proactive diversity council, Federal Women's Program, and 
professional development program that promote respect and diversity, 
not only in hiring and Mission operations, but also in our education, 
cultural, economic, and political programming.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have worked to support human rights and democracy across 
each of my six overseas diplomatic assignments, helping to ensure free 
and fair elections, increase space for civil society, establish police 
oversight mechanisms, and protect labor activists and independent 
media. I believe that some of my most meaningful achievements were in 
Kenya, where I worked closely with U.S. Government agencies, 
international partners, civil society, and Kenya's electoral commission 
to successfully prepare for and conduct free, fair, credible, and 
peaceful elections in 2017. If confirmed, I would seek to advance 
similar successful whole-of-Mission strategies with host government, 
civil society, and international partners in support of democracy and 
human rights.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Guatemala? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Challenges to democracy in Guatemala include corruption; 
impunity; insecurity; underfunded institutions; entrenched interests 
that resist any change that weakens their position; intimidation of 
prosecutors, judges, and media; and lack of economic opportunity which 
exacerbates poverty. If confirmed, I will continue to support 
democratic development in Guatemala through coordinated U.S. Government 
programs and outreach that aim to strengthen Guatemala's institutions, 
fight corruption, and strengthen civil society.

    Question. What steps will you take--if confirmed--to support 
democracy in Guatemala? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will work to eliminate corrupt influences 
in Guatemalan institutions through our diplomatic engagements with 
Guatemalan authorities, public messaging, and U.S. assistance programs 
supporting anticorruption efforts and the rule of law. Entrenched 
corruption remains an obstacle to advancing democratic development in 
Guatemala, but if confirmed, I will also be prepared to use the tools 
Congress has made available including, Section 7031(c) of the 
Department of State, Foreign Operations, and Related Programs Act, 
2020, to hold corrupt actors accountable.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work to ensure U.S. assistance aligns 
with our important policy goals of supporting democratic institutions, 
fighting corruption, and upholding the rule of law in Guatemala. If 
confirmed, I will also ensure that U.S. Government funding is utilized 
in accordance with congressional earmarks to address the complex 
governance challenges facing Guatemala. U.S. assistance is a key tool 
we can use to help strengthen Guatemala's judicial institutions and 
support President Giammattei's newly established anti-corruption 
commission in the executive branch. If confirmed, I will make capacity 
building a key priority to help the Guatemalan Government address these 
critical issues.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Guatemala? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed as Ambassador to Guatemala, I will absolutely 
be committed to actively engaging with representatives of human rights, 
civil society, and other non-governmental organizations, both in the 
United States and in Guatemala, to listen to their concerns and seek 
their advice on encouraging respect for human rights for Guatemalans. I 
will encourage my Guatemalan Government counterparts to ensure NGOs are 
able to operate in a safe, permissive environment and that regulations 
governing the operation of NGOs meet requirements under Guatemala's 
constitution and international best practices.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I will make it a point to meet with 
people from across the political spectrum, and from all walks of 
Guatemalan life. As the United States Ambassador to Guatemala, it will 
be incumbent on me to interact with as diverse a group of Guatemalans 
as possible, across political, economic, geographic, social, and ethnic 
groups. If confirmed, I would engage not only with government and 
political parties, but also with civil society, independent media, 
community, labor and human rights organizations and activists. I would 
also reach out to youth, minority, and women's groups that Embassy 
Guatemala has engaged with on areas of entrepreneurship, rights 
promotion, education, and other key issues.

    Question. Will you and your embassy team actively engage with 
Guatemala on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Guatemala?

    Answer. Supporting an active and free press is a fundamental part 
of State Department programming overseas. If confirmed as Ambassador to 
Guatemala, I would work diligently with the Embassy team to promote the 
importance of a free press with Guatemalan officials, while using 
programming such as our International Visitor Leadership Program to 
support efforts to share with Guatemalan journalists best practices in 
investigative journalism. I fully believe that a free and fair press is 
critical to a healthy democracy, and will continue to support efforts 
to promote press freedom in Guatemala.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, I will work with our team at the U.S. 
Embassy in Guatemala to engage with civil society and government 
counterparts on countering disinformation and propaganda disseminated 
by foreign state or non-state actors in Guatemala. It is my 
understanding there is increased interest in the region by the People's 
Republic of China (PRC) and the entities it controls. If confirmed, I 
will work closely with the Guatemalan Government to deter and counter 
malign influence by the PRC, and help Guatemala understand how to 
protect itself in its relationship with the PRC.

    Question. Will you and your embassy teams actively engage with 
Guatemala on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will work with the U.S. Embassy team to 
engage diplomatically with the appropriate ministries in the Guatemalan 
Government on labor issues, including the right for labor groups to 
organize and to advocate for independent trade unions. In my past tours 
of duty, I have worked with labor activists, supported respect for 
labor rights, and contributed to the State Department's work in support 
of the Department of Labor's annual reports on labor conditions around 
the globe. I believe active dialogue with labor organizations and 
activists as well as accurate reporting on labor conditions is an 
important responsibility of the State Department and, if confirmed, I 
will lead the Embassy in prioritizing both outreach and reporting.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Guatemala, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Guatemala? What specifically will you commit to do to help LGBTQ 
people in Guatemala?

    Answer. If confirmed, I will support the efforts of the Department 
to defend the human rights and dignity of all people in Guatemala, no 
matter their sexual orientation or gender identity. It is my 
understanding that LGBTQ people in Guatemala continue to face 
discrimination, and there currently is no legislation in place that 
specifically protects the rights of LGBTQ people. If confirmed, I will 
support U.S. assistance programs that seek to protect the human rights 
of, and respect for, all Guatemalans, including LGBTQ people. I would 
also seek to maintain a dialogue with LGBTQ activists, and support 
accurate and timely reporting on LGBTQ rights issues.



                               __________


            Responses to Additional Questions for the Record
       Submitted to William W. Popp by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have worked to support human rights and democracy across 
each of my six overseas diplomatic assignments, helping to ensure free 
and fair elections, increase space for civil society, establish police 
oversight mechanisms, and protect labor activists and independent 
media. I believe my most meaningful achievements were in Kenya, where I 
worked closely with U.S. Government agencies, international partners, 
civil society, and Kenya's electoral commission to help successfully 
enable free and fair elections in 2017. If confirmed, I would seek to 
advance similar successful whole-of-Mission strategies with host 
government, civil society, and international partners in support of 
democracy and human rights.

    Question. What are the most pressing human rights issues in 
Guatemala? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Guatemala? What do 
you hope to accomplish through these actions?

    Answer. Guatemala faces a number of pressing human rights 
challenges, including the need to protect human rights activists and 
indigenous communities, gender-based violence issues, human 
trafficking, and rights of LGBTI individuals. If confirmed, I will work 
diligently with the Guatemalan Government, national and international 
non-governmental organizations, and the many U.S. Government agencies 
that work in this area to assist Guatemala in developing its 
institutional, law enforcement and non-governmental capacities to 
address these concerns. I believe through such efforts, we can 
demonstrate to the Guatemalan Government and its people that the United 
States is a tireless and reliable partner on human rights issues in 
keeping with our nation's values.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Guatemala in 
advancing human rights, civil society, and democracy in general?

    Answer. For the important human rights issues cited in my previous 
response, obstacles may include underfunded institutions; entrenched 
interests that will resist any change that weakens their position; lack 
of economic opportunity that exacerbates poverty; resistance to change, 
even where clearly needed; impunity; corruption; and others. These 
obstacles are many of the same faced when working to promote democracy 
development and development of civil society. Challenges to working on 
human rights issues in Guatemala are similar to those advancing human 
rights in many nations.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Guatemala? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed as Ambassador to Guatemala, I will be 
firmly committed to working with representatives of human rights, civil 
society and other non-governmental organizations, both in the United 
States and in Guatemala, to listen to their concerns and seek their 
advice on encouraging respect for human rights in Guatemala. Working 
with the Guatemalan Government, the United States has been fostering 
dialogue with indigenous communities and civil society. We should 
deepen efforts to build the integrity of public institutions, enhance 
access to justice, and bolster space for civil society. A more just and 
inclusive Guatemala will help address challenges both our countries 
face.
    If confirmed, I will work with my team at the Embassy to ensure 
recipients of assistance and training are appropriately vetted in 
accordance with the Leahy law.

    Question. Will you and your embassy team actively engage with 
Guatemala to address cases of key political prisoners or persons 
otherwise unjustly targeted by Guatemala?

    Answer. Yes. If confirmed, I will ensure that both I and the 
Embassy team engage with the various elements involved with criminal 
justice in Guatemala, both governmental and non-governmental, to 
encourage further respect for human rights.
    It is crucial the United States and Guatemala work together to 
promote rule of law, fight corruption, respect human rights, and end 
impunity. In addition to working directly with government institutions, 
engaging human rights defenders, civil society organizations, and those 
who have experienced human rights violations will also be key to 
addressing and improving Guatemala's human rights record.

    Question. Will you engage with Guatemala on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Yes. I believe Mission Guatemala should be guided by our 
longstanding values of freedom, democracy, individual liberty, and 
human dignity. Rule of law, eradication of corruption, and an end to 
impunity are key to security, stability, and prosperity, not only in 
Guatemala, but throughout the region and the world. If confirmed, I 
will stand ready to assist the Government of Guatemala in making 
positive improvements in these areas. I will also actively engage human 
rights defenders, civil society organizations, and those who have 
experienced human rights violations to address and improve respect for 
human rights in Guatemala.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed as Chief of Mission, I will lead the nearly 
550 professionals in Mission Guatemala to advance the U.S. agenda in a 
safe, inclusive, and respectful workplace. I will continue to pursue 
the active approach that I did as Deputy Chief of Mission at the U.S. 
Mission to Brazil by ensuring our Embassy in Guatemala has a robust and 
proactive diversity council, Federal Women's Program, and professional 
development program that will work together to promote respect and 
diversity, not only in hiring and Mission operations, but also in our 
education, cultural, economic, and political programming.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Guatemala are fostering an environment 
that is diverse and inclusive?

    Answer. Promotion of an inclusive and diverse work environment is 
an important value and key imperative of the Department of State. If 
confirmed as Ambassador to Guatemala, I pledge to model and promote an 
inclusive culture and work environment among the embassy team in 
Guatemala City, including holding supervisors and staff accountable for 
their conduct, in keeping with State Department values.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Guatemala?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
ensuring my official actions will not give rise to a conflict of 
interest. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Guatemala 
specifically?

    Answer. I believe there is a crucial need to promote rule of law, 
fight corruption, and end impunity in Central America. Systemic 
political corruption prevents countries from achieving their economic 
potential and ensuring access to justice. I understand that in 
Guatemala there is a history of political corruption, that U.S. 
assistance to Guatemala has supported robust anti-corruption efforts, 
and that the Department has also utilized the visa designation 
authorities provided by Congress via Section 7031(c) of the Department 
of State, Foreign Operations, and Related Programs Appropriations Act, 
2020. If confirmed, I will support the Guatemalan Government's anti-
corruption efforts, ensure U.S. assistance in Guatemala addresses key 
anti-corruption priorities, speak out against corruption, and engage 
private sector and civil society partners to bolster rule of law.

    Question. What is your assessment of corruption trends in Guatemala 
and efforts to address and reduce it by that government?

    Answer. I understand that although the Guatemalan Government has 
made progress in the fight against corruption, it remains a key 
challenge. I am encouraged by President Giammattei's creation in 
January 2020 of a new anti-corruption commission to identify corruption 
within the executive branch, which has already pursued allegations of 
misconduct related to the procurement of COVID-19 supplies, resulting 
in the removal of potentially corrupt Ministry of Health officials. 
While this case is a positive step, the Guatemalan Government must 
continue to ensure transparent, independent prosecution of cases, and 
support the entities within the Public Ministry, such as the Special 
Prosecutor's Office Against Impunity (FECI), working to secure justice 
for corrupt actors who frequently operate with impunity.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Guatemala?

    Answer. If confirmed, I will speak out against corrupt influences 
in Guatemalan institutions through our diplomatic engagements with 
Guatemalan authorities, public messaging, and U.S. assistance programs 
supporting anti-corruption efforts and strengthening of the rule of 
law. If confirmed, I would also offer continued support for efforts to 
improve transparency in Guatemala's judicial selection process and 
encourage the merit-based appointment of qualified judges who 
demonstrate the integrity needed to uphold rule of law. In addition, if 
confirmed, I will use all available deterrence tools at the 
Department's disposal to promote accountability for anyone involved in 
and benefiting from significant acts of corruption in Guatemala.



                               __________





                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, AUGUST 5, 2020 (am)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m., via 
video conference, Hon. James E. Risch, chairman of the 
committee, presiding.
    Present: Senators Risch, Johnson, Gardner, Romney, Portman, 
Young, Perdue, Menendez, Cardin, Shaheen, Murphy, Kaine, and 
Booker.
    The Chairman. Good morning, everyone. The hour of 9:00 a.m. 
having arrived, the unique meeting at the Senate Foreign 
Relations Committee will come to order.
    Today the committee will hold a nomination hearing for five 
very important positions. Our nominees today are: Mrs. Jennifer 
Barber, to be the Representative on the Economic and Social 
Council of the U.N. and Alternate Representative to the General 
Assembly; secondly, Mr. Edward Burrier, to be Deputy Chief 
Executive Officer of the International Development Finance 
Corporation; Lieutenant General Keith Dayton, to be Ambassador 
to Ukraine; Ms. Julie Fisher, to be Ambassador to Belarus; and 
Mr. Alex Wong, to be Alternate Representative for Special 
Political Affairs at the U.N. and Alternate Representative to 
the General Assembly.
    Two of our nominees today have distinguished individuals 
here to introduce them. Senator Cotton and Senator Romney will 
be introducing Mr. Wong, and we are glad to welcome former 
Congressman Ed Royce and he will be introducing Mr. Burrier.
    I also have a statement I will be entering into the record 
submitted by Leader McConnell in support of the Barber 
nomination.
    [Senator McConnell's statement follows:]


             Statement Submitted by Senator Mitch McConnell

    Mr. Chairman, Ranking Member Menendez, colleagues: Thank you for 
this opportunity to offer my support for Jennifer Yue Barber, of 
Kentucky, to represent our country at the United Nations Economic and 
Social Council.
    As nations around the globe prepare to celebrate the U.N.'s 75th 
anniversary, American leadership is as important as ever. Alongside our 
fellow Kentuckian, Ambassador Kelly Craft, Jennifer has the experiences 
and talents to advance our national values on the world stage.
    Jennifer and her family are a wonderful example of the promise of 
American opportunity. Her parents, Kenneth and Laura, left China as 
teenagers seeking a better, freer life in America. They found that 
opportunity in Frankfort, Kentucky.
    Kenneth and Laura poured themselves into a small business. Through 
long hours and hard days, the Yue family built a new future. At age 
seven, Jennifer began pitching in and learning the rewards of hard work 
and never giving up.
    She carried those virtues into every aspect of her life.
    Jennifer went on to earn undergraduate and law degrees from the 
University of Kentucky. Then, she started making a name for herself in 
the Bluegrass State's legal community. She's won accolades as a 
``Rising Star,'' a member of a local publication's ``Forty Under 40'' 
list, and an ``Enterprising Woman to Watch.''
    From constitutional tax issues to economic development, Jennifer is 
regularly called upon for her counsel and expertise. Her extensive 
writings have helped shape dialogues and build consensus. She's ably 
served on the boards of a bank, the Kentucky State Fair, and her alma 
mater.
    While each of those organizations will surely miss her guiding 
contributions, I commend Jennifer for choosing a new path in public 
service.
    On the Economic and Social Council and in the General Assembly, 
Jennifer will help promote opportunity, cooperation, and prosperity 
throughout the international community.
    She'll work to empower women and girls and other previously 
underrepresented groups in an effort to advance global stability and 
peace.
    This Council is also one of the principal U.N. bodies overseeing 
the global humanitarian response to the COVID-19 pandemic. Through the 
historic CARES Act, we provided support for vital international relief. 
Jennifer can be a strong voice for American leadership in these urgent 
efforts.
    I'm grateful President Trump selected Jennifer Yue Barber to help 
tackle these issues and more on behalf of the United States. Through 
the course of this hearing, I expect you will find a serious and 
diplomatic nominee who is ready to step into this critical role.
    So thank you again, Chairman Risch and Ranking Member Menendez, for 
the chance to introduce Jennifer to this committee. I look forward to 
confirming another outstanding Kentuckian to serve our country.


    The Chairman. I am going to postpone my opening statement 
and ask the ranking member to do the same until after the 
introductions are made by our distinguished guests.
    So with that, Senator Romney, you are a member of this 
committee, and we will start with your introduction of Mr. Alex 
Wong. So, Senator Romney, the floor is yours.

                STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. Thank you, Mr. Chairman.
    Today I would like to introduce Alex Wong to the committee. 
Alex is nominated to be the Alternate Representative of the 
United States to the sessions of the General Assembly of the 
United Nations and to serve as the Alternate Representative of 
the United States for Special Political Affairs in the United 
Nations.
    I have been fortunate enough to know Alex for many years 
since he served as the foreign and legal policy director on my 
2012 campaign. My extensive firsthand interactions with Alex 
have led me to the following observations.
    First, he is brilliant. His ability to focus, concentrate 
thinking, analyze complexities, organize disorder, and identify 
opportunities is of the highest order. It is no surprise that 
he graduated summa cum laude from the University of 
Pennsylvania and was an editor of the Law Review at Harvard.
    He is loyal and dedicated to America. Alex's driving 
purpose is to see America strengthened, to see our values 
promulgated, and to see the enemies of freedom defeated.
    He approaches tasks without preconception or bias. Instead, 
he preserves an open mind and considers the data as it is, not 
as he might like it to be.
    Alex has the kind of confidence that requires no boasting, 
that fears no slights, and that compels straightforward 
expression. He communicates succinctly and plainly without 
embellishment or self-aggrandizement, nor is he hesitant to 
express disagreement when he believes he is in the right.
    I greatly value these things. It made me a better 
candidate, but as much or more, I valued Alex's character. He 
is honest, devoted to principle, kind to others, firm in 
resolve, and a true friend.
    Now, since he left my campaign or rather since my campaign 
disappeared, Alex has gone on to distinguish himself as a 
diplomat, a public servant, and an expert in national security 
affairs particularly with respect to our relationships in the 
Indo-Pacific.
    He has been at the State Department since 2017. He 
currently serves as both the Deputy Special Representative for 
North Korea and as the Deputy Assistant Secretary for North 
Korea. Accordingly, he is second in command to Deputy Secretary 
Biegun to negotiate for complete North Korean denuclearization. 
He has made multiple trips to Pyongyang in support of our 
summits.
    Before assuming these responsibilities, he led the State 
Department's conceptualization of the free and open Indo-
Pacific strategy, which was significant in shifting U.S. focus 
towards the Indo-Pacific, of course, to address growing 
challenges presented by China.
    He was the first U.S. official to visit Taiwan after 
implementation of the Taiwan Travel Act, and he praised the 
strength of the U.S.-Taiwan relationship and the democratic 
path Taiwan has chosen.
    He speaks with knowledge and proficiency about the 
challenges posed by an ascendant China, the significance of 
working together with our allies to achieve common goals, and 
about policies that support Iraq to ensure it has a more 
prosperous future.
    He is one of the most talented foreign policy minds of his 
generation, and I have been fortunate over the years to be the 
beneficiary of his intellect and insights and judgment.
    I ask my colleagues on the committee to report Alex's 
nomination favorably and hope that the Senate will confirm his 
nomination without delay so he can get on with the important 
business of representing our country at the U.N.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Romney.
    Senator Cotton?

                 STATEMENT OF HON. TOM COTTON,
                   U.S. SENATOR FROM ARKANSAS

    Senator Cotton. Chairman Risch, Senator Menendez, members 
of the committee, I am honored to introduce a friend, a trusted 
former aide, and a distinguished public servant, Alex Wong, who 
is the President's nominee to serve as the Alternate 
Representative for Special Political Affairs at the United 
Nations.
    Alex is one of the most capable people with whom I have 
ever worked in the Senate and his resume reflects that fact. He 
was educated at the University of Pennsylvania and Harvard Law 
School where he was the managing editor of the Harvard Law 
Review. He clerked for Judge Janice Rogers Brown on the D.C. 
Circuit, and he was an attorney at Covington and Burling.
    In the Senate, Alex served as my foreign policy advisor and 
general counsel. He helped to draft the original Hong Kong 
Human Rights and Democracy Act, a bill that can now only be 
described as prescient since the Chinese Communist Party has 
cracked down in Hong Kong. That bill passed by unanimous 
consent last year and was signed into law by the President.
    Alex then moved on to the State Department where he has 
contributed to our strategy for East and South Asia. He has 
strengthened relationships between the United States and 
Taiwan, and he has played a key role in our negotiations with 
North Korea.
    That is Alex's resume, but it is only one part of why I 
think he is the right person to represent our country at the 
United Nations. Alex is also one of the most cheerful and 
helpful people I have ever met. He always has a lot on his 
plate, whether here or at the State Department, but he is never 
too busy to help a colleague in need.
    Alex is also a family man. He and his wife Candice have two 
beautiful children, Chase and Avery. They obviously cannot join 
us today for obvious reasons, but I know they are very proud of 
him for good reason as he is of them.
    Alex is a patriot who cares deeply for our country and its 
principles because he and his family are living embodiments of 
the American dream. His parents, Robert and Grace Wong, came to 
America more than 4 decades ago from Hong Kong. They rented a 
one-bedroom apartment in Queens and worked to make a better 
life for their family, and their American dream came true. 
Their son is sitting before you today ready to represent our 
country to the world at the United Nations.
    I know Alex is a man of character and a dedicated public 
servant because he has proven it to me through his actions, and 
I know he will fight for America's interests at the United 
Nations because only in America would his story be possible.
    I urge all of you to support his nomination, and I urge the 
Senate to move promptly on his confirmation so he can do the 
important work at the United Nations.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cotton.
    We are now going to turn to former Congressman Royce. 
Congressman, we are glad to have you back with us today. It is 
good to see you, and the floor is yours.

                  STATEMENT OF HON. ED ROYCE, 
           FORMER U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Royce. Well, Mr. Chairman, thank you. It is good to see 
you and the members of the committee, and it is good to be able 
to speak up here and a great honor to be able to introduce to 
you my former deputy staff director on the House Foreign 
Affairs Committee, Edward Burrier.
    Edward worked for me for 18 years, so he is not only 
someone I worked with, but someone that I am fortunate to call 
a friend. Edward first started in my office interning in the 
Africa Subcommittee, which I then chaired, and at the time, he 
was still in college at the University of Mary Washington in 
Fredericksburg, and every day he would make the long commute 
from Fredericksburg just to volunteer.
    He then took a job in my personal office where he met his 
future wife, a fellow junior staffer, Gretchen. They now have a 
young son William, and it has been a pleasure watching them 
grow personally and professionally.
    Edward eventually rose to deputy staff director of the 
House Foreign Affairs Committee, and over the years, Edward was 
essential in achieving so much, including efforts to prevent 
the proliferation of shoulder-fired surface-to-air missiles to 
terrorists and major legislation sanctioning the regime of 
North Korea and Iran, which are dangerously pursuing nuclear 
weapons programs.
    He found a niche in tracking international rogues, some of 
who are now behind bars for gun running and creating mayhem in 
part because of Edward's efforts.
    He also produced important reports, including the path-
breaking ``Gangster Regime, How North Korea Counterfeits United 
States' Currency,'' and that is still relevant today.
    And he wrote for me hundreds of foreign-intrigue blog 
entries, some of the most captivating foreign policy writing in 
Washington.
    In short, Edward was involved in all the major foreign 
policy issues of the day, helping to make our country safer and 
more prosperous. He has continued these efforts first at the 
Overseas Private Investment Corporation and now at the newly 
created Development Finance Corporation where he works to 
advance America's interests around the world and to lift the 
globe out of poverty. He understands the importance of U.S. 
engagement in the developing world, which is more critical now 
than ever as COVID-19 threatens a humanitarian crisis of 
enormous and tragic human consequence.
    Edward Burrier not only has the experience required to be 
the Deputy Chief Executive Officer at the DFC, he also has the 
intellect. He has the knowledge. Most importantly, he has the 
heart. And I could not think of someone more qualified to help 
lead this organization at this critical time in history, and I 
am thankful that he is willing to serve.
    And I thank you again, Mr. Chairman.
    The Chairman. Ed, thank you so much. We appreciate you 
coming to the committee, and we certainly appreciate your 
remarks and that information.
    We will now proceed. I am going to make a few remarks and 
then turn it over to the ranking member.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Let me say, first of all, welcome everyone. These are 
unique circumstances and in response to the unique times that 
we are living in, unique in many, many ways, not just one, but 
we adapt and we move along.
    So we have got these five nominees. I am going to talk 
about each of them briefly here.
    First is Ms. Jennifer Barber, who is nominated to be the 
U.S. Representative on the Economic and Social Council of the 
United Nations. This position is tasked with advancing and 
protecting American interests related to the economic and 
social programs at the United Nations.
    Ms. Barber currently serves as a member of the law firm 
Frost, Brown, Todd LLC.
    Next we have Mr. Edward Burrier nominated to be Deputy CEO 
of the International Development Finance Corporation. This role 
assists the CEO in accomplishing DFC's objective of partnering 
with the private sector to finance solutions for some of the 
most critical challenges facing the developing world today. One 
recent development I support and would like to highlight is the 
DFC's decision to include nuclear projects in its portfolio.
    Mr. Burrier has worked at the DFC since its creation and 
before that. He was a longtime staffer for the House Foreign 
Affairs Committee.
    We turn now to our nominee to be Ambassador to Ukraine, 
retired Lieutenant General Keith Dayton. General Dayton served 
in the United States Army from 1970 to 2010, 4 decades of 
distinguished service. Retiring from the military, General 
Dayton has been the Director of the Marshall Center in Germany 
and most recently has served as the senior U.S. defense advisor 
to Ukraine.
    Over the past year, the U.S.-Ukraine relationship was 
thrust into the national spotlight. This was unfortunate but it 
is time to move forward and make clear that Ukraine enjoys 
bipartisan support in implementing reforms countering Russian 
malign influence.
    That is why I was glad last week to introduce the Ukraine 
Security Partnership Act, alongside Ranking Member Menendez and 
four other members of this committee. This bill will further 
assist the Ukrainian military in its battle against Russian-
backed separatists and incentivize military reforms in line 
with NATO standards.
    Our next nominee is Ms. Julie Fisher to be Ambassador to 
the Republic of Belarus. Ms. Fisher is a career Foreign Service 
officer. Most recently, she served as Deputy Assistant 
Secretary for Western Europe and the European Union. She has 
also served as the Deputy Chief of Mission at the U.S. mission 
to NATO. Ms. Fisher, your nomination marks an important step in 
our relationship with Belarus. If confirmed, you will be the 
first U.S. Ambassador to Minsk since 2008. I welcome your 
thoughts on the challenges that lie ahead in rebuilding the 
U.S.-Belarus relationship, encouraging reforms, and countering 
Russian and Chinese influence.
    Finally, we have Mr. Alex Wong, nominated to be Alternate 
Representative for Special Political Affairs at the United 
Nations. This role is involved in overseeing U.N. peacekeeping 
operations, disarmament, and international security policies 
and programs. Mr. Wong currently serves as Deputy Special 
Representative for North Korea and Deputy Assistant Secretary 
of State in the Bureau of East Asian and Pacific Affairs.
    With that, Senator Menendez, I am going to turn the floor 
over to you.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman. Welcome to 
all of the nominees.
    Before I address the nominees before us, I am just 
compelled to note that this is unfortunately another in a 
series of nominations hearings that have been noticed 
unilaterally over the objections of the minority and to a large 
extent without our input.
    Additionally, two of the three hearings this week were 
noticed without securing a Democratic ranking member for the 
hearing, and one of them was noticed in violation of the 
committee practice under the 7-day rule, which is unfortunate.
    I think clearly the chairman has the authority to run the 
committee in this manner, but it is a drastic departure from 
committee practice. It sets the precedent for how the committee 
will run under any future majority, Democratic or Republican.
    And it is also disappointing the committee is holding five 
nominations hearings and a nominations-only business meeting 
this work period, but we have not marked up a bill since May. 
Nominations are an important committee function, but to be 
relevant, we need to be engaged and legislating on the issues 
that matter to Americans. I know many members of the committee, 
both Democrat and Republican, want this to happen, and I hope 
it can happen in the days ahead.
    And finally, given the intense interest and sensitivity of 
the issues surrounding Ukraine, I had suggested that General 
Dayton should be on a panel by himself or at least at minimum 
with just one other nominee. Squeezing him in on a panel of 
five does not do justice on this set of issues. So, Mr. 
Chairman, I hope you will be generous in time, especially as we 
have to deal with all of these nominees in one panel.
    Now, the committee has long been a stalwart champion for 
the relationship with Ukraine. As chairman, I led efforts on 
two laws that were passed in the wake of Russia's invasion of 
the country in 2014. And as the chairman mentioned, just last 
week, we joined together, Chairman Risch and I, to introduce 
legislation that will substantially increase FMF and IMET for 
the country.
    The fact remains that Ukraine is under daily assault on the 
ground, on the seas, and in cyberspace from an aggressive 
Kremlin. Ukrainian service members that have selflessly and 
courageously fought Russian forces that seek to violate its 
sovereignty and disrupt the international order are constantly 
challenged.
    President Trump significantly damaged our standing with 
Ukraine and undermines our own national security by holding 
security assistance hostage to his political agenda. That was a 
challenge to our relationship which led to impeachment 
proceedings. It is now more important than ever for the Senate 
to speak with one voice in support of Ukraine, especially in 
the provision of security assistance. And I am glad that we 
were able to send that clear message with our legislation.
    General Dayton, if you are confirmed, you will have very 
big shoes to fill in Kyiv, those of Masha Yovanovitch and Bill 
Taylor. Both were not only exemplary diplomats and 
representatives of the United States but had the courage to 
speak truth to power. I hope that you will also be up to that 
task.
    Rudy Giuliani and a cast of unsavory Ukrainian characters 
have not let up their efforts to use Ukraine to interfere in 
U.S. politics. Others in the Senate seem intent on amplifying 
their efforts. And I expect that, if confirmed, you would not 
engage in these games, and I would want your commitment towards 
that end.
    Ms. Fisher, I am glad to have you with us today. You are 
the first nominee to be U.S. Ambassador to Belarus in over a 
decade. Your nomination comes at a critical time as Belarus' 
people are rising to demand democracy and respect for human 
rights in unprecedented numbers. The Belarusian Government's 
move away from Russia is important, but we cannot ignore the 
voices of the Belarusian people. The centerpiece of our policy 
on Belarus must be a commitment to democracy and human rights, 
and I look forward to hearing from you on what steps you would 
take, if confirmed, to support the aspirations of the 
Belarusian people.
    Ms. Barber and Mr. Wong, welcome. At every turn, the Trump 
administration has unfortunately sought to undermine 
multilateral institutions. The administration's actions in my 
view do not make America great. They leave America alone. 
President Trump's announced intent to withdraw from the World 
Health Organization exemplifies a culture of blame-shifting and 
isolationism that is self-defeating for the United States. It 
is astonishing that during the height of a pandemic, the 
principal institution charged with leading and coordinating a 
global response will no longer receive U.S. support.
    I am likewise deeply troubled by the attempts of the 
administration to limit gender equality and restrict the rights 
of women and girls. It is unacceptable that the U.S. Government 
representatives at the United Nations have sought to remove 
references to longstanding and agreed-upon language on gender-
based violence and sexual and reproductive health. We must lead 
the collective commitment to advance fundamental rights and 
freedoms for all rather than undermine the rights of some, and 
I look forward to hearing from the nominees on these issues.
    Mr. Burrier, welcome. You seem well-suited for the job and 
rounding out the leadership circle at the DFC is incredibly 
important. However, I have some serious concerns with some of 
the DFC's actions that I need nominee's commitment to address. 
And that includes the authorities that were granted to the DFC 
under the Defense Production Act executive order signed by the 
President, as well as concerns with how the DRC is pursuing 
environmental and social policy. I know you were not there to 
make those decisions, but I want to hear how you would deal 
with it, if confirmed.
    With that, Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Menendez.
    First of all, I do want the record to be clear that the 7-
day rule simply requires that I consult with the ranking member 
if I am going to hold the hearing in less than 7 days. As you 
know, as always, we consulted and we consulted to our staffs, 
but as frequently happens, we were unable to reach an 
agreement. So I noticed the hearing.
    I share your concerns as far as marking up a bill. I love 
nothing better than to spend our time doing that with less time 
on the noms. Time is at a premium around here, and as you know, 
we consult on noms [inaudible]. The process is very slow, and 
after all, we have to stand up the Government before we can do 
anything else.
    This week, we had four meetings, last week two meetings, 
the week before that, three meetings. We are not dragging our 
feet. Time is at a premium. But we will keep moving forward.
    So with that, thank you, Senator Menendez.
    And we will move to our first nominee, Ms. Barber. Your 
full statement will be included in the record, and without 
objection, we would ask you to keep your remarks to about 5 
minutes and we will put your full statement in the record.
    Senator Menendez referred to a request for the chairman's 
generosity in time. All of you who are on this committee know 
that the chairman is very generous notwithstanding the 
occasional abuse by members. But we will be generous with them. 
And I think Senator Menendez is right. We do have a number of 
people here, and it is [inaudible] to have the ability to ask 
questions.
    So with that, thank you, and Ms. Barber you are up.

   STATEMENT OF JENNIFER YUE BARBER, OF KENTUCKY, TO BE THE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA ON THE ECONOMIC 
  AND SOCIAL COUNCIL OF THE UNITED NATIONS, WITH THE RANK OF 
AMBASSADOR, AND TO BE AN ALTERNATE REPRESENTATIVE OF THE UNITED 
 STATES OF AMERICA TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
      THE UNITED NATIONS, DURING HER TENURE OF SERVICE AS 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA ON THE ECONOMIC 
            AND SOCIAL COUNCIL OF THE UNITED NATIONS

    Ms. Barber. Thank you. Chairman Risch, Ranking Member 
Menendez, and distinguished members of this committee, thank 
you for the opportunity to appear before you today. I am 
humbled to be considered for the role of U.S. Ambassador to the 
Economic and Social Council of the United Nations and, if 
confirmed, would be honored to have the opportunity to serve 
our country in this capacity.
    A special thanks to Leader McConnell for his written 
statement that is submitted to the record and for his support.
    I would also like to express my gratitude to President 
Donald Trump and Secretary Mike Pompeo for nominating me and to 
Ambassador Kelly Craft for the confidence and trust that she 
has placed in me.
    In particular, I want to thank God for preparing this path. 
My husband Andy, thank you for your constant love and support. 
And our daughters, Molly and Lucy, the next generation for whom 
I am determined to make this world a better place. And the many 
members of my family and friends who are watching this right 
now. Thank you for the many meaningful ways that you have 
impacted my life.
    I would also like to recognize my parents, Kenneth and 
Laura Yue, who emigrated here from China 50 years ago. My 
mother is one of seven children and one of four that my 
grandparents brought to the United States, making the difficult 
decision to leave three behind, to pursue freedom, opportunity, 
and the promise of America. She was reunited with her remaining 
siblings 19 years later when they emigrated to our country.
    I grew up working alongside my parents and late 
grandfather, Sik Chee Yue, in our family's restaurant. Their 
daily example of sacrifice and hard work and their 
determination to provide greater opportunity is why it is 
possible for me to appear before you today. And it inspires me 
to shine America's light brightly on the U.N. stage.
    I would also like to express my appreciation to my 
colleagues at Frost, Brown, Todd for their support throughout 
my legal practice and now as I pursue public service.
    And finally, I would like to thank the team at the State 
Department who helped guide me through this process.
    It has been 75 years since that day in San Francisco when 
representatives of 50 nations, weary of the human toll of World 
War II, signed the U.N. Charter to create a new organization 
designed in part to solve problems of an economic, social, 
cultural, or humanitarian character and to encourage respect 
for human rights and fundamental freedoms.
    The United States remains central to those ideals, and if 
confirmed, I will proudly carry to the United Nations the 
unyielding American commitment to human rights, humanitarian 
response, and economic development.
    As you know well, that commitment is tested frequently. 
Many U.N. member states work to undermine the values that shape 
the U.N. in order to advance their narrow agendas and elevate 
authoritarian ideals.
    We see instances of this in some of our most pressing 
challenges today from the Chinese Communist Party's 
mismanagement of the COVID-19 crisis and its suppression of 
democracy in Hong Kong to the Russian and Chinese opposition to 
providing necessary humanitarian relief to besieged communities 
in northeast Syria.
    If confirmed, I will use my voice and energy to advance the 
American vision for human rights and fundamental freedoms.
    I will also carry with me the determination to empower 
women and girls. It is vital that girls have access to 
education and that women have equal opportunity in the 
workplace. We must fuel entrepreneurship and diminish sexual 
violence and exploitation.
    The United States must also continue to play a central role 
in sustaining the UN's humanitarian response system. That 
system, built around organizations such as UNICEF and the World 
Food Program, is extensive and, where permitted to operate, is 
effective, feeding millions daily and providing assistance to 
displaced populations.
    The demands on that system are quickly growing, as the 
world tackles a record number of humanitarian crises and 
swelling populations of displaced people. I know the deep 
commitment of Congress in providing for those in dire need. 
There is no country more generous than ours. Yet, as those 
needs grow, so does the need for more nations to share in that 
responsibility.
    Finally, I will note that American objectives at the United 
Nations will only be realized if the U.N. is efficient, 
effective, and transparent. Reform of U.N. agencies has been an 
American priority spanning decades, and I believe that 
considerable progress has been made. If confirmed, 
strengthening that progress will be among my priorities, as 
will advocating for robust civil society participation and 
private sector engagement.
    Mr. Chairman, members of this committee, for the United 
Nations to be relevant for the next 75 years, it must remain 
true to the values that shaped its original purpose and also 
rise to meet the needs of today. If confirmed, I will work 
tirelessly toward that goal and partner with you in Congress to 
further American values and interests.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Barber follows:]


               Prepared Statement of Jennifer Yue Barber

    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the committee--thank you for the opportunity to appear before you 
today. I am humbled to be considered for the role of U.S. Ambassador to 
the Economic and Social Council of the United Nations and if confirmed, 
would be honored to have the opportunity to serve our country in this 
capacity.
    A special thanks to Leader McConnell for his introduction and 
support.
    I would also like to express my gratitude to President Donald Trump 
and Secretary Mike Pompeo for nominating me, and to Ambassador Kelly 
Craft for the confidence and trust she has placed in me.
    In particular, I want to thank God for preparing this path. My 
husband Andy, thank you for your constant love and support. Our 
daughters, Molly and Lucy, the next generation for whom I am determined 
to make this world a better place. And the many members of my family--
and friends--who are watching this right now. Thank you for the many 
meaningful ways that you have impacted my life.
    I would also like to recognize my parents, Kenneth and Laura Yue, 
who immigrated here from China 50 years ago. My mother is one of seven 
children and one of four that my grandparents brought to the United 
States--making the difficult decision to leave three behind--to pursue 
the freedom, opportunity, and promise of America. She was reunited with 
her remaining siblings who immigrated to our country 19 years later.
    I grew up working alongside my parents and late grandfather, Sik 
Chee Yue, in our family's restaurant. Their daily example of sacrifice 
and hard work, and their determination to provide greater opportunity, 
is why it is possible for me to appear before you today and it inspires 
me to shine America's light brightly on the U.N. stage.
    I would also like to express my appreciation to my colleagues at 
Frost Brown Todd for their support throughout my legal practice and now 
as I pursue public service.
    Finally, I would like to thank the team at the State Department who 
helped guide me through this process.
    It has been 75 years since that day in San Francisco when 
representatives of 50 nations, weary of the human toll of World War II, 
signed the U.N. Charter to create a new organization designed in part 
to solve ``problems of an economic, social, cultural, or humanitarian 
character'' and to encourage ``respect for human rights and fundamental 
freedoms for all.''
    The United States remains central to those ideals, and if 
confirmed, I will proudly carry to the United Nations the unyielding 
American commitment to human rights, humanitarian response, and 
economic development.
    As you know well, that commitment is tested frequently. Many U.N. 
Member States work to undermine the values that shape the U.N. to 
advance their narrow agendas and elevate authoritarian ideals.
    We see this in some of our most pressing challenges today--from the 
Chinese Communist Party's mismanagement of the COVID-19 crisis and its 
suppression of democracy in Hong Kong to the Russian and Chinese 
opposition to providing necessary humanitarian relief to besieged 
communities in Northeast Syria.
    If confirmed, I will use my voice and energy to advance the 
American vision for human rights and fundamental freedoms.
    I will also carry with me the determination to empower women and 
girls. It is vital that girls have access to education and women are 
given equal opportunity in the workplace. We must fuel entrepreneurship 
and diminish sexual violence and exploitation.
    The United States must also continue to play a central role in 
sustaining the UN's humanitarian response system. That system, built 
around organizations such as UNICEF and the World Food Program, is 
extensive and, where permitted to operate, is effective--feeding 
millions daily and providing assistance to displaced populations.
    The demands on that system are growing, as the world tackles a 
record number of humanitarian crises and swelling populations of 
displaced people. I know the deep commitment of Congress in providing 
for those in dire need. There is no country more generous than ours. 
Yet, as those needs grow, so does the need for more nations to share 
that responsibility.
    Finally, I will note that American objectives at the United Nations 
will only be realized if the U.N. is efficient, effective, and 
transparent. Reform of U.N. agencies has been an American priority 
spanning decades, and considerable progress has been made. If 
confirmed, strengthening that progress will be among my priorities, as 
will advocating for robust civil society participation and private 
sector engagement.
    Mr. Chairman, members of the committee, for the United Nations to 
be relevant for the next 75 years, it must remain true to the values 
that shaped its original purpose, and also rise to meet the needs of 
today. If confirmed, I will work tirelessly toward that goal and 
partner with you in Congress to further American values and interests.
    Thank you, and I look forward to your questions.


    The Chairman. Thank you, Ms. Barber.
    And we will now turn to Mr. Burrier. Edward, you are up.

STATEMENT OF EDWARD A. BURRIER, OF THE DISTRICT OF COLUMBIA, TO 
    BE DEPUTY CHIEF EXECUTIVE OFFICER OF THE UNITED STATES 
         INTERNATIONAL DEVELOPMENT FINANCE CORPORATION

    Mr. Burrier. Mr. Chairman, Ranking Member Menendez, and 
members of the committee, I am honored to appear before you 
today as the President's nominee to serve as the first Deputy 
Chief Executive Officer of the United States International 
Development Finance Corporation.
    I greatly appreciate Chairman Royce's kind introduction. I 
owe more than just my career to the chairman. As a young 
staffer on Capitol Hill, I met my incredible wife of 14 years, 
Gretchen. She and our son William are watching today, and I am 
grateful for their support. Like me, Gretchen has spent her 
career in government and knows the demands, responsibilities, 
and honor that come with being a public servant.
    I grew up in Fairfax, Virginia, the youngest son of two 
talented musicians. My father served in the United States Army 
Band for over 30 years. Integrity, respect for others and--most 
of all--hard work were instilled in me by my parents. As a 
senior in high school, I volunteered for a local congressional 
candidate who went on to win a historic election. I was 
enthralled that I played a small part in that democratic 
process, even if it was just stuffing envelopes.
    While at Mary Washington College, I did several internships 
on Capitol Hill and spent one summer interning for a member of 
Parliament in London. In my last semester, I took a commuter 
train from Fredericksburg, Virginia to intern at the House 
Foreign Affairs Subcommittee on Africa, then chaired by 
Congressman Royce.
    After graduation, the Congressman offered me a job in his 
personal office, opening mail, answering phones, and giving 
Capitol tours to constituents from Orange County, California. 
Little did I know I would spend the next 18 years working for 
the Congressman. I worked my way up from the personal office to 
the committee and earned a master's degree in national security 
from the U.S. Naval War college along the way.
    I became Deputy Staff Director of the House Foreign Affairs 
Committee in 2013, a position I held for the next 4 and a half 
years. During that time, the committee worked--alongside this 
committee--to advance U.S. interests abroad, bolster those 
yearning for freedom, solidify alliances, and even helped put a 
warlord or two behind bars. Those results were achieved by 
being consultative, solution-oriented, and working across the 
aisle.
    I brought these qualities with me when I transitioned to 
the executive branch 3 years ago. As Vice President for 
External Affairs at the Overseas Private Investment 
Corporation, I led OPIC's efforts both in the interagency and 
with this committee on the BUILD Act, the landmark legislation 
that created DFC.
    I believe strongly in DFC's mission. Simply put, there are 
not enough government resources to tackle the challenges of the 
developing world. Through DFC, we can leverage the power of 
private capital to help meet demands, improve lives, and 
advance American interests.
    I have seen firsthand the impact that U.S. development 
finance can have. I have met with Shrouq, an energetic woman in 
Amman, Jordan, who took a small loan to start a driving school 
to empower women. I have met with homeowners in Ghana, who 
achieved that dream thanks in part to DFC financing. And I have 
visited a DFC-financed power plant in Togo that is giving the 
country a chance to power its economy forward.
    From microfinance to secure telecommunications to 
infrastructure, DFC support is critical in helping create 
opportunity and growth. The role of DFC is only expanding as 
the developing world grapples with the sobering economic 
outlook in the wake of the COVID-19 pandemic. Times like these 
are precisely when institutions like DFC are needed most.
    Of course, this is also when our strategic competitors are 
looking to take advantage of the situation to advance their 
influence. If I am fortunate enough to be confirmed, I look 
forward to working with the committee to ensure that DFC 
maximizes its tools and is a robust alternative to 
authoritarian financing that can leave developing countries 
worse off.
    Mr. Chairman, I am committed to U.S. leadership and 
engagement in the world. And I am convinced that DFC will be at 
the forefront of our country's development policy for 
generations to come. If confirmed, I pledge to work closely 
with the committee to strengthen DFC's foundations so that the 
bold vision you had in drafting the BUILD Act becomes a 
reality.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Mr. Burrier follows:]


                Prepared Statement of Edward A. Burrier

    Chairman Risch, Ranking Member Menendez, and members of the 
committee: I am honored to appear before you today as the President's 
nominee to serve as the first Deputy Chief Executive Officer of the 
United States International Development Finance Corporation (DFC).
    I greatly appreciate Chairman Royce's introduction. I owe more than 
just my career to the Chairman. As a young staffer on Capitol Hill, I 
met my wife of 14 years, Gretchen. She and our son William are here 
with me today, and I am grateful for their support. Like me, Gretchen 
has also spent her career in government, and she knows the demands, 
responsibilities, and honor that come with being a public servant.
    I grew up in Fairfax, Virginia, the youngest son of two talented 
musicians. My father served in the United States Army Band for over 30 
years. Integrity, respect for others--and most of all--hard work, were 
instilled in me by my parents. As a senior in high school I volunteered 
for a local congressional candidate who went on to win a historic 
election. I was enthralled that I had played a small part in that 
democratic process--even if it was just stuffing envelopes.
    While at Mary Washington College, I did several internships on 
Capitol Hill and spent one summer interning for a member of Parliament 
in London. In my last semester, I took a commuter train from 
Fredericksburg, Virginia to intern at the House Foreign Affairs 
Subcommittee on Africa--then chaired by Congressman Royce.
    After graduation, the congressman offered me a job in his personal 
office--opening mail, answering phones, and giving Capitol tours to 
constituents from Orange County, California. Little did I know that I 
would spend the next 18 years working for the congressman. I worked my 
way up from the personal office to the committee and earned a master's 
degree in National Security from the U.S. Naval War College at night 
along the way.
    I became Deputy Staff Director of the House Foreign Affairs 
Committee in 2013--a position I held for the next four and a half 
years. During that time, the committee worked--alongside this 
committee--to advance U.S. interests abroad, bolster those yearning for 
freedom, solidify alliances, and even helped put a warlord or two 
behind bars. Those results were achieved by being consultative, 
solution-oriented, and working across the aisle.
    I brought these qualities with me when I transitioned to the 
executive branch three years ago. As Vice President for External 
Affairs at the Overseas Private Investment Corporation, I led OPIC's 
efforts both in the interagency and with this committee on the BUILD 
Act, the landmark legislation that created DFC.
    I believe strongly in DFC's mission. Simply put, there are not 
enough government resources to tackle the challenges of the developing 
world. Through DFC, we can leverage the power of private capital to 
help meet demands, improve lives, and advance American interests.
    I've seen firsthand the impact that U.S. development finance can 
have. I've met with Shrouq, an energetic woman in Amman, Jordan who 
took a small loan to start a driving school to empower women. I've met 
with homeowners in Ghana, who achieved that dream thanks in part to DFC 
financing. And I've visited a DFC-financed powerplant in Togo that is 
giving the country a chance to power its economy forward.
    From microfinance to secure telecommunications to infrastructure, 
DFC support is critical in helping create opportunity and growth. The 
role of DFC is only expanding as the developing world grapples with a 
sobering economic outlook in the wake of the COVID-19 pandemic. Times 
like these are precisely when institutions like DFC are needed most.
    Of course, this is also when our strategic competitors are looking 
to take advantage of the situation to expand their influence. If I am 
fortunate enough to be confirmed, I look forward to working with the 
committee to ensure that DFC maximizes its tools and is a robust 
alternative to authoritarian financing that can leave developing 
countries worse off.
    Mr. Chairman, I am committed to U.S. leadership and engagement in 
the world. And I am convinced that DFC will be at the forefront of our 
country's development policy for generations to come. If confirmed, I 
pledge to work closely with the committee to strengthen DFC's 
foundations so that the bold vision you had in drafting the BUILD Act 
becomes a reality.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.


    The Chairman. Thank you so much. I appreciate those words.
    General Dayton, you are up.

STATEMENT OF LIEUTENANT GENERAL KEITH W. DAYTON, UNITED STATES 
 ARMY, RETIRED, OF WASHINGTON, TO BE AMBASSADOR EXTRAORDINARY 
 AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO UKRAINE

    Mr. Dayton. Chairman Risch, Ranking Member Menendez, and 
members of this committee, it is an honor to appear before you 
today as President Trump's nominee to serve as the U.S. 
Ambassador to Ukraine. If confirmed, I look forward to working 
with this committee and Congress to continue our strong 
bipartisan support for the Ukrainian people, to enhance our 
already deep bilateral relationship, support Ukraine's reform 
agenda, counter Russian malign influence, and work to fully 
restore Ukraine's sovereignty and territorial integrity. These 
steps will be critical to advancing our shared goal of Ukraine 
joining the Euro-Atlantic community as a free and full member.
    My name is Keith Dayton. I am married to Carol, my wife of 
almost 45 years. We have three married children, five 
grandchildren, and one more on the way.
    I have dedicated the past 50 years of my life to public 
service. I retired from the U.S. Army as a lieutenant general 
in 2010, after more than 40 years in uniform, and for the past 
almost 10 years, I have been the Director of the George C. 
Marshall European Center for Security Studies in Garmisch-
Partenkirchen, Germany, addressing regional and transnational 
security issues for both the United States and Germany.
    Ukraine has been part of my life for 40 years. After I was 
commissioned in 1970 as a field artillery officer, I learned 
Russian and graduated from the U.S. Army Russian Institute in 
Germany as a Soviet foreign area officer. It was through the 
Russian Institute that I had the first opportunity to visit 
Soviet Ukraine in 1980. I will never forget the experience of 
meeting Ukrainians and recognizing the deep pride they have in 
their history and culture, while appreciating the incredible 
suffering inflicted on the Ukrainian people by foreign powers 
throughout their history.
    As a Soviet Russia military specialist, I have had various 
assignments, culminating as the U.S. defense attache in Moscow 
as a brigadier general. As a lieutenant general, I served as 
the U.S. Security Coordinator for Israel and the Palestinian 
Authority in Jerusalem from 2005 to 2010. I reported directly 
to the Secretary of State as I led a multinational team working 
with the Israeli Government and the Palestinians. As such, I 
operated at the most senior levels in Jordan, Egypt, Saudi 
Arabia, the United Arab Emirates, and Qatar, as well as with 
Ottawa, London, and Washington. I was both a diplomat and a 
soldier.
    After retiring from the Army in 2010, I continued to serve 
my country as the Director of the Marshall Center. The 
Revolution of Dignity brought Ukraine back to the center of my 
attention. Inspired by the fierce commitment to democracy and 
freedom by the protesters on the Maidan, I directed the 
Marshall Center to create a comprehensive program of seminars 
and assistance to Ukraine focusing on civil-military relations, 
civilian oversight of the armed forces, and security sector 
reform. The goal was to help Ukraine's new leadership adopt 
Euro-Atlantic principles of government and take the steps 
required to one day join NATO. I am proud to note that in this 
endeavor I have had the enthusiastic help of the U.S. Senate.
    In October 2018, then Secretary of Defense Jim Mattis asked 
me to be the U.S. Defense Advisor to Ukraine. In this role, I 
chaired the Defense Reform Advisory Board composed of the 
United States, Canada, the UK, Poland, Lithuania, and Germany. 
We serve as strategic advisors to the Ukrainian defense 
minister and meet him often. I have come to know firsthand 
today's Ukraine and its many challenges, and I have developed 
relationships with supporters of Ukraine in the U.S. Congress, 
at the Department of Defense, and the Department of State.
    The Ukraine I encountered as a young man in 1980 was very 
different from the vibrant and hopeful country I work with as 
the Defense Advisor, but the fundamental challenges remain the 
same. Ukraine seeks to rid itself of Moscow's interference, 
eliminate corruption, and build a government that is 
accountable, transparent, and responsive to all its citizens. 
But one thing has not changed and will not change and that is 
that it is in the national security interests of the United 
States for Ukraine to overcome these challenges and achieve a 
future in which Ukraine is whole, democratic, and free.
    There is much at stake here. Ukraine is trying to achieve a 
just and peaceful resolution to a conflict created and fueled 
by Russia that has left 13,000 dead and caused untold 
suffering. President Zelenskyy has made ending this conflict a 
cornerstone of his administration, and while the United States 
remains an advocate for a diplomatic resolution, we support 
Ukraine's right to defend itself against Russia's ongoing 
aggression in the east and resist Russia's illegal occupation 
of Crimea.
    At the same time, Ukraine must continue on the difficult 
path of implementing rule of law, good governance, and economic 
reform. This is hard work. From the Orange Revolution to the 
Revolution of Dignity and the 2019 elections that brought 
President Zelenskyy and his party to power, Ukrainians have 
repeatedly demanded accountable leadership, an end to 
corruption, and transparent, independent judicial and law 
enforcement bodies that respond to citizens' needs over the 
demands of oligarchs and other interests.
    And Mr. Chairman, if confirmed, I will work with Ukraine's 
leadership to ensure these reforms remain at the top of their 
national agenda.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to talk to you, and I welcome any questions 
you may have.
    [The prepared statement of Mr. Dayton follows:]


      Prepared Statement of Lieutenant General (Ret.) Keith Dayton

    Chairman Risch, Ranking Member Menendez, and members of this 
committee. It is an honor to appear before you today as President 
Trump's nominee to serve as the United States' Ambassador to Ukraine. 
If confirmed, I look forward to working with this committee and 
Congress to continue our strong bipartisan support for the Ukrainian 
people, enhance our already deep bilateral relationship, support 
Ukraine's reform agenda, counter Russian malign influence, and work to 
fully restore sovereignty and territorial integrity. These steps will 
be critical to advancing our shared goal of Ukraine joining the Euro-
Atlantic community as a full and free member.
    My name is Keith Dayton. I am married to Carol, my wife of almost 
45 years. We have three grown children, five grandchildren, and one 
more on the way. I have dedicated the past 50 years of my life to 
public service. I retired from the U.S. Army as a lieutenant general in 
2010 after more than 40 years in uniform, and for nearly 10 years I 
have served as director of the Marshall Center, addressing regional and 
transnational security issues for the United States and Germany.
    Ukraine has been a part of my life for forty years. After I was 
commissioned in 1970 as a field artillery officer, I learned Russian 
and eventually attended and graduated from the U.S. Army Russian 
Institute. It was through the Russian Institute that I first had the 
opportunity to visit Ukraine in 1980. I will never forget the 
experience of meeting Ukrainians and recognizing the deep pride they 
have in their history and culture, while appreciating the incredible 
suffering inflicted on the Ukrainian people by foreign powers 
throughout their history.
    My subsequent military assignments took me far from Ukraine but 
immersed me in the world of diplomacy. I accepted several Foreign Area 
Officer deployments at our Embassies abroad, culminating in my 
assignment as the U.S. Defense Attache in Moscow as a brigadier 
general. As a lieutenant general, I served as U.S. Security Coordinator 
for Israel and the Palestinian Authority in Jerusalem from 2005-2010. 
In this role I reported directly to the Secretary of State as I led a 
multinational team in almost constant contact with the Israeli 
Government and Palestinian authorities. I routinely conducted liaisons 
at the most senior levels in Jordan, Egypt, Saudi Arabia, the United 
Arab Emirates and Qatar, not to mention Ottawa, London, and Washington.
    After retiring from the Army in 2010, I was offered the opportunity 
to continue the practice of diplomacy and serve my country as director 
of the George C. Marshall European Center for Security Studies in 
Garmisch, Germany. Not long after I joined the Marshall Center, the 
Revolution of Dignity brought Ukraine back to the forefront of my 
diplomatic responsibilities. Inspired by the fierce commitment to 
democracy and freedom by the protesters on the Maidan, the Marshall 
Center began a comprehensive program of seminars and assistance to 
Ukraine focusing on civil-military relations, civilian oversight of the 
armed forces, and security sector reform to help Ukraine's new 
leadership adopt Euro-Atlantic principles of government and take the 
steps required to join NATO. I am proud to note that this endeavor 
would not have been possible without support from within the U.S. 
Senate.
    In October 2018, then Secretary of Defense Jim Mattis asked me to 
be the Senior U.S. Defense Advisor to Ukraine. In this role, I chair 
the Defense Reform Advisory Board composed of the United States, 
Canada, the UK, Poland, Lithuania, and Germany. We serve as strategic 
advisors to the Ukrainian Defense Minister. Before the COVID-19 crisis, 
I would visit Ukraine at least once every six weeks to provide 
strategic advice to the Minister of Defense and his deputies. As a 
result of these engagements, I have come to know and understand Ukraine 
and its many challenges, and I have developed relationships with 
supporters of Ukraine in the U.S. Congress, at the Department of 
Defense, and at the Department of State.
    The Ukraine I encountered as a young man in 1980 is very different 
from the vibrant and hopeful country I work with as Senior Defense 
Advisor, but the fundamental challenges remain the same: Ukraine seeks 
to rid itself of Moscow's interference and build a government that is 
accountable, transparent, and responsive to its citizens. One thing 
that has not changed--and will not change--is that it is in the 
national security interests of the United States for Ukraine to 
overcome these challenges and achieve a future in which it is whole, 
democratic, and free.
    Although the journey has not always been easy, Ukraine has made 
great progress. In the United States, Ukraine will always find a 
partner and friend. I come before this committee today honored and 
humbled to be nominated to head the U.S. diplomatic mission in Kyiv as 
Ukraine takes the next steps in its national project: ending aggressive 
Russian actions on its territory and making the necessary democratic 
reforms to establish itself as a modern European state and NATO member.
    We must not forget what is at stake. Ukraine is trying to achieve a 
just and peaceful resolution to a conflict created and fueled by Russia 
that has left 13,000 dead and caused untold civilian suffering. 
President Zelenskyy made ending this conflict a cornerstone of his 
administration, and the United States has always been and will be an 
advocate for a diplomatic resolution.
    I want to be clear, however, that the United States fully supports 
Ukraine's efforts to defend itself against Russia's ongoing aggression 
in eastern Ukraine. Russia is responsible for this conflict, and we are 
committed to working with our Ukrainian and European partners to 
continue to impose political and economic costs on Russia for its 
actions.
    We are equally committed to supporting the complete restoration of 
Ukraine's sovereignty and territorial integrity, including an end to 
Russia's blatant violations of international law in Crimea. To move 
forward productively and in good faith, Russia must honor and implement 
its commitments under the Minsk agreements.
    At home, Ukraine must continue on the path of implementing rule of 
law, good governance, and economic reforms that ensure the Government 
is accountable to its citizens. From the Orange Revolution to the 
Revolution of Dignity to the 2019 elections that brought President 
Zelenskyy and his party to power, Ukrainians have repeatedly demanded 
accountable leadership and transparent, independent judicial and law 
enforcement bodies that respond to citizens' needs over the demands of 
oligarchs and other vested interests.
    I have personally witnessed this passion for reform in my 
interactions at the Marshall Center with young staffers from the 
National Anticorruption Bureau of Ukraine working to investigate 
individuals involved in corruption, and in the efforts of the National 
Bank of Ukraine to push back against political influence. However, 
vested interests continue to resist reform--particularly, reform of the 
judicial and financial sectors.
    A strong, independent central bank has been critical to Ukraine's 
remarkable macroeconomic success over the past several years. Its 
continued independence is crucial to a post-COVID-19 economic recovery 
and to international confidence in Ukraine's economy. If confirmed as 
ambassador, I will work with Ukraine's leadership to ensure these 
reforms remain at the top of its agenda.
    If confirmed, my priorities would be coordinated with Congress and 
the administration, but among them would have to be genuine reform of 
Ukraine's armed forces and defense industry. My military background and 
current role as Ukraine's Senior Defense Advisor provide me unique 
insight that I hope to leverage to assist Ukraine's armed forces become 
an increasingly effective fighting force. This includes helping Ukraine 
implement the interoperability reforms necessary to achieve NATO 
membership. NATO's recent decision to offer Enhanced Opportunity 
Partner status to Ukraine is a huge step in the right direction and the 
culmination of efforts I initiated at the Marshall Center in 2014 and 
advocated at the North Atlantic Council earlier this year.
    Ukraine's defense industrial base is also in need of urgent 
attention and transformational leadership. Years of corruption and 
mismanagement have pushed Ukrainian defense firms to the brink of 
collapse. This neglect has made Ukraine's hard-earned intellectual 
property and defense technology vulnerable to Chinese exploitation and 
expropriation--something we cannot allow. We cannot turn a blind eye to 
China's malign intentions in eastern Europe. Ukraine's defense sector 
needs reform, but ultimately it should work for the people of Ukraine--
not China.
    Ukraine needs to ensure a level playing field through transparent 
economic institutions that deter vested interests and break the 
stranglehold of corruption. Only when international businesses have 
real confidence in their investments will Ukraine realize its full 
economic potential. Key to building that confidence is to make good on 
Ukraine's reform commitments.
    Over the past five years, the United States has provided over four 
billion dollars in aid, and others in the international community have 
provided billions more. Meeting the conditions set forth by 
international financial institutions will ensure Ukraine continues to 
serve its people--and I mean everyone--not just a few individuals. 
Continued compliance with Ukraine's IMF and World Bank programs is the 
strongest signal the Government can send that it remains committed to 
reform.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. I welcome any questions you may have. 
Thank you.


    The Chairman. Thank you, General.
    We will now turn to Ms. Fisher. Ms. Fisher, the floor is 
yours

STATEMENT OF JULIE D. FISHER, OF TENNESSEE, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF BELARUS

    Ms. Fisher. Chairman Risch, Ranking Member Menendez, 
members of this committee, it is an honor to appear before you 
today as President Trump's nominee to serve as the first 
American Ambassador to Belarus since 2008. If confirmed, I look 
forward to working with this committee and Congress to 
reestablish the bilateral relationship and to support Belarus' 
efforts to protect its sovereignty and independence in the face 
of political pressure aimed at undermining both.
    I am joined today by my husband, Matthew Fisher. He has 
been a supporter of my career since the day I took the Foreign 
Service exam. And my achievements are due in large part to his 
unwavering support.
    I am proud to hail from a family dedicated to our nation's 
service. My grandfather, my father, my sister all served as 
naval officers at times of war and peace. My family joins us 
virtually, and I am grateful for their support.
    If confirmed, I look forward to building on the work of our 
exceptional team in Minsk to further reforms and promote a more 
ambitious bilateral relationship. I will bring to this position 
25 years of experience, including service at our embassies in 
Kyiv, Moscow, Tbilisi, and at NATO. Most recently I was honored 
to serve as Deputy Assistant Secretary of State focused on 
Western Europe and the European Union.
    Our relationship with Belarus languished for more than a 
decade, but after Russia's illegal seizure and occupation of 
Crimea and its manufactured war in Ukraine's Donbas region, we 
began to see signs of interest from the Belarusians. Since 2018 
and in line with the goals laid out in the National Security 
Strategy, we have advanced a more engaged approach that 
recognizes Belarus' right to chart its own future free from 
foreign dictates. Former Assistant Secretary Wess Mitchell 
initiated this outreach with his visit to Minsk in late 2018, 
and since then, we have seen increased engagement from both 
sides, culminating in Secretary Pompeo's visit to Minsk in 
February.
    This Sunday, Belarus will hold its presidential election 
following an eventful and testy summer. Recent elections in 
Belarus have been neither free nor fair. Despite efforts to 
convince authorities to adopt OSCE recommendations, Belarus' 
2019 parliamentary elections did not meet international 
standards. And neither the OSCE nor the Council of Europe will 
observe the upcoming elections. If confirmed, I intend to 
support the aspirations of the Belarusian people as they strive 
for democratic principles, including universal freedoms, civil 
liberties, and the rule of law.
    We have encouraged Belarus to address pressing human rights 
priorities and implement the reforms outlined in the Belarus 
Democracy Act, which are essential for it to strengthen its 
international standing and fulfill its people's aspirations. 
Nonetheless, the Government continues to detain and pressure 
the opposition and impose restrictions on the press, civil 
society, and certain religious minorities. We have seen 
numerous incidents of such pressure during the ongoing election 
campaign, despite some modest improvements in the treatment of 
political opposition and independent civil society in recent 
years. In the face of insufficient progress on these issues, 
our relationship will continue to be bound by the constraints 
imposed by the terms of the Belarus Democracy Act.
    However, there is encouraging progress in other areas. 
Belarus' young generation has a notable entrepreneurial spirit 
as evidenced in the dynamic growth of the information 
technology sector. Recent deliveries of American crude oil can 
help diversify Belarus' energy supply and support jobs here at 
home. Belarus is increasingly pursuing American investment and, 
if confirmed, I will support the creation of reciprocal 
business councils in Minsk and in Washington.
    And we welcome Belarus' cooperation on priorities, 
including nonproliferation, law enforcement, and information 
sharing in fields such as border security, cybersecurity, and 
counternarcotics. If confirmed, I hope to build upon this 
foundation.
    Embassy Minsk has grown in size since the Belarusian 
Government's decision to lift its cap on the number of American 
employees. And we are engaged in discussions to construct a new 
embassy compound. I have learned from experience in other fast-
growing missions some of the risks of rapid growth, and I am 
committed to careful stewardship of taxpayer resources.
    Finally, as Secretary Pompeo stated during his February 
visit to Minsk, we fully support Belarus' desire to make its 
own choices, pursue its own partnerships, and play a 
constructive role in the region. Belarus should not be forced 
to depend on any single nation, and we are not asking Belarus 
to choose between East and West. Countries, much like 
individuals, choose their friends but not their neighbors.
    Mr. Chairman, Ranking Member Menendez, members of this 
committee, in closing, let me say that we have a real 
opportunity in Belarus. But this opportunity is a two-way 
street, and we will move ahead at the appropriate pace as the 
Belarusians are willing, as our national interests dictate, and 
as our values permit. I look forward to working with you as we 
carry this effort forward.
    I thank you very much for the opportunity to appear today, 
and I welcome your questions.
    [The prepared statement of Ms. Fisher follows:]


                 Prepared Statement of Ms. Julie Fisher

    Chairman Risch, Ranking Member Menendez, members of this committee. 
It is an honor to appear before you today as President Trump's nominee 
to serve as the first United States Ambassador to Belarus since 2008. 
If confirmed, I look forward to working with this committee and 
Congress to re-establish and strengthen the bilateral relationship at a 
critical time and to support Belarus's efforts to protect its 
sovereignty and independence in the face of unprecedented political 
pressure aimed at undermining both.
    I am joined today by my husband Matthew Fisher who served alongside 
me in Kyiv and Moscow and endured my long days in the office and even 
longer commutes to places like Tbilisi and Brussels. He has been a 
supporter of my career since the day I took the Foreign Service exam, 
and my success is due in large part to his unwavering support. I am 
proud to hail from a family dedicated to our nation's service: my 
grandfather, father, and sister all served as Naval officers at times 
of war and peace. My family is joining online today, and I'd like to 
thank them for their support for as well.
    If confirmed, I look forward to building on the work of our 
outstanding team in Minsk to further reforms and promote a more 
ambitious bilateral relationship. I will bring to this position twenty-
five years of experience at the State Department including service at 
our Embassies in Kyiv, Moscow, Tbilisi, and at NATO, as well as tours 
at the National Security Council and at State Department headquarters. 
I most recently served as Deputy Assistant Secretary of State for 
European Affairs, focused on the relationships with our closest Allies 
and partners in Western Europe and in the European Union.
    Following the withdrawal of our ambassador in 2008, the bilateral 
relationship with Belarus languished for the better part of a decade. 
But after Russia's illegal seizure and occupation of Crimea and its 
manufactured war in Ukraine's Donbas region, we began to see signs of 
interest from the Belarusian side for increased diplomatic and 
commercial ties. Since 2018, and in line with the goals laid out in the 
National Security Strategy of advancing American influence in an era of 
renewed great power competition, State Department leadership has sought 
to re-center our bilateral engagement with Belarus and advance a more 
engaged diplomatic approach and presence that recognizes Belarus's 
sovereignty and right to chart its own future free from foreign 
dictates. Former Assistant Secretary Wess Mitchell initiated senior 
U.S. Government engagement with his visit to Minsk in October 2018, and 
since then, we have seen an increased level of senior attention from 
both sides, culminating in Secretary Pompeo's visit to Minsk in 
February, the first cabinet-level visit to Minsk in over a quarter 
century.
    This Sunday, Belarus will hold its presidential election following 
an eventful and testy summer. Recent elections in Belarus have been 
neither free nor fair, based on international standards. Despite the 
international community's efforts to convince Belarusian authorities to 
adopt the OSCE's recommendations, Belarus's 2019 parliamentary 
elections did not meet international standards, and neither the OSCE 
nor Council of Europe will observe the upcoming election, which is a 
break from past precedent and a reason why it is so important that the 
United States remains engaged. We have urged the Government of Belarus 
to ensure the upcoming elections are free and fair and to demonstrate 
restraint in the event of protests. If confirmed, I intend to support 
the continued aspirations of the Belarusian people for democratic 
principles, including universal freedoms, civil liberties, and the rule 
of law.
    Human rights in Belarus remain a challenge. The United States has 
encouraged Belarus to address human rights priorities and implement the 
pro-democracy reforms outlined in the Belarus Democracy Act, which are 
essential for it to strengthen its international standing and fulfill 
its people's aspirations. At the core of the Belarus Democracy Act is a 
desire for increased space for a diversity of voices in Belarus, 
including the political opposition, civil society, and independent 
media. Despite numerous incidents during the ongoing election campaign, 
we have seen a trend of modest improvements in the treatment of the 
political opposition and independent civil society since 2015. 
Nevertheless, we remain concerned the Belarusian Government continues 
to detain and pressure the opposition and impose restrictions on the 
press, civil society, and certain religious minorities. In the absence 
of progress on these issues, our relationship will be bound by the 
constraints imposed by the terms of the Belarus Democracy Act.
    In the areas where we see progress, there are success stories to 
recognize and encourage. Belarus's young generation has a remarkable 
entrepreneurial spirit, as evidenced in the dynamic growth of the 
information technology sector, demonstrating the potential for economic 
transformation. Another bright spot is the recent delivery to Belarus 
of 600,000 barrels of U.S. crude oil, with another shipment on the way. 
These shipments can help diversify Belarus's energy supply and support 
jobs here at home. Belarus is increasingly pursuing American investment 
and, if confirmed, I will support the creation of an American Chamber 
of Commerce in Minsk and a Washington D.C.-based U.S. business council 
focused on Belarus. Such organizations will facilitate U.S. trade and 
investment, champion American companies doing business in Belarus, and 
create jobs and economic growth in the United States.
    I want to thank Congress for its support in providing assistance to 
Belarus. This assistance prioritizes respect for human rights, a 
stronger civil society, and freedom of expression. U.S. assistance 
aimed at the private sector spurs the development of entrepreneurs, 
small businesses, and the middle class. Thanks to Congressional 
support, we committed over $7 million in 2019 to helping Belarus 
undertake and continue reforms.
    The United States also welcomes Belarus's cooperation on key 
priorities including nonproliferation, law enforcement, and information 
sharing. Of note, Belarus has signed agreements to bolster efforts in 
fields such as border security, cybersecurity, and counter-narcotics. 
If confirmed, I hope to build upon this foundation and harness 
Belarus's desire to play a positive role in the region.
    I'd like to note that since the Belarusian Government's March 2019 
decision to lift its cap on staffing, the number of American employees 
at Embassy Minsk has already grown from ten to fourteen, and that 
number will grow further, commensurate with mission requirements. We 
are also engaged in discussions to construct a new embassy compound. I 
have learned from experiences in other fast-growing missions some of 
the potential risks of such growth, and I am committed to careful 
stewardship of taxpayer resources.
    Finally, as Secretary Pompeo clearly stated during his visit to 
Minsk, we fully support Belarus's desire to make its own choices, 
pursue its own partnerships, and play a constructive role in the 
region. We respect its sovereignty and self-determination. Belarus 
should not be forced to depend on any single nation for its prosperity 
or security, and we are not asking Belarus to choose between East and 
West. Countries, much like individuals, choose their friends but not 
their neighbors.
    Mr. Chairman, Ranking Member Menendez, in closing, let me say that 
we have an opportunity in Belarus. For the sake of regional security 
and stability, we cannot allow this opportunity to pass us by. 
Cooperation is a two-way street, and we will move ahead at the 
appropriate pace as the Belarusians are willing, as our national 
interests dictate, and as our values permit. If confirmed, I will use 
my years of diplomatic experience in this region to pursue our 
country's overarching mission to create a safer, more democratic and 
prosperous world for the benefit of the American people.
    Thank you for this opportunity to appear before you; I welcome any 
questions you may have.


    The Chairman. Thank you very much, Ms. Fisher. You 
certainly have challenges in Belarus. I think all of us were 
disappointed that the elections being held are being held under 
the circumstances they are and without the recognition of the 
international community. I think it is going to be difficult 
for the Belarus people to accept those elections. We will see 
how they handle it. But you have your challenges. Thank you for 
taking this on.
    With that, we will turn to Mr. Wong.

 STATEMENT OF ALEX NELSON WONG, OF NEW JERSEY, TO BE ALTERNATE 
  REPRESENTATIVE OF THE UNITED STATES OF AMERICA FOR SPECIAL 
   POLITICAL AFFAIRS IN THE UNITED NATIONS WITH THE RANK OF 
 AMBASSADOR, AND TO BE ALTERNATE REPRESENTATIVE OF THE UNITED 
 STATES OF AMERICA TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
 THE UNITED NATIONS DURING HIS TENURE OF SERVICE AS ALTERNATE 
  REPRESENTATIVE OF THE UNITED STATES OF AMERICA FOR SPECIAL 
            POLITICAL AFFAIRS IN THE UNITED NATIONS

    Mr. Wong. Thank you, Senator. Chairman Risch, Ranking 
Member Menendez, distinguished members of the committee, I am 
deeply honored to appear before you as the President's nominee 
to serve as the Alternate Representative for Special Political 
Affairs at the United Nations. And I am humbled by the 
confidence President Trump, Secretary Pompeo, and Ambassador 
Craft have shown in me with this nomination.
    And I want to particularly thank Senators Romney and Cotton 
not just for their kind introductions but for the outsized 
roles that they have played in my career.
    There are so many other people to thank for bringing me to 
this point in my professional life: the late Ambassador 
Schweich, Judge Janice Brown, Lanhee Chen, the late Ambassador 
Rich Williamson, Paula Dobriansky, National Security Advisor 
Robert O'Brien, Brian Hook, Ambassador Stu Eizenstat, and 
Deputy Secretary Steve Biegun. All of these distinguished 
statesmen and women gave me the opportunity to fail, succeed, 
and to grow as a professional. I am greatly indebted to them 
all.
    All of these individuals took a chance on me, but it was my 
parents, Robert and Grace Wong, who took the biggest chance of 
all for my sake. They left Hong Kong 43 years ago. They settled 
into a single-room rental in Kew Gardens, Queens, with an 
infant, a bus pass for the commute to an arduous and unstable 
job, and a whole lot of belief in the United States of America. 
If I am so fortunate to return to the city that welcomed them 
to America to represent the country they so dearly believed in, 
it will vindicate that belief in a way they could have scarcely 
imagined as newly arrived immigrants.
    And, Mr. Chairman, I am truly blessed to have three 
godsends who sustain me every day, who inspire me, and who give 
my life its meaning: my baby girl Avery, my dear son Chase, and 
my beautiful bride Candice.
    Mr. Chairman, my professional life has been focused on 
advancing U.S. interests in the foreign policy realm. I joined 
the civilian surge in Iraq that was so necessary to complement 
the military surge. I had the opportunity to work as Senate 
staff to advise and support Senator Cotton on a range of 
national security matters. And 3 years ago, I returned to the 
State Department, first, to deepen U.S. engagement in the Indo-
Pacific and, second to help realize the final, fully verified 
denuclearization of North Korea.
    In all of these roles, I have been reminded of the 
importance of pragmatism in an arena as difficult and uncertain 
as foreign affairs. But I have also seen the overriding value 
of standing firmly and boldly for American principles. My late 
mentor, Rich Williamson, who held the very job I have been 
nominated for, would often say to me you have to be a realist 
to take steps in the everyday, but an idealist to know in which 
direction you are going. That is a philosophy I would bring to 
the United Nations.
    Mr. Chairman, many of the core functions of the United 
Nations are centered at the Security Council. The council has a 
weighty mandate to preserve international peace and security. 
But too often, it does not live up to it.
    The world has no doubt entered into a period of heightened 
geopolitical competition. This is a time when the United States 
and our friends and allies in the free world are facing greater 
challenges and more dire threats. This heightened competition 
is manifesting itself at the Security Council and the wider 
U.N. system.
    This is in large part why the council has not been able to 
take decisive action, as the U.N. Charter demands and as our 
conscience demands, to address conflict and human suffering in 
hotspots spanning the globe. Russia and China block discussion 
of Maduro's crimes in Venezuela. Because the Assad regime has 
two permanent P5 protectors, the council has never done right 
by the Syrian people in this decade of their suffering. And I 
must note that even in this year of 2020, well into the 21st 
century, our close and steadfast friend Israel still faces 
attacks in the U.N. system that echo the most sinister 
prejudices of centuries past.
    Even though our work at the counsel may be harder in this 
era of great power competition, even though it may be 
frustrating, it does not mean it is any less important. In 
fact, I believe it is more important than ever. Strategic, 
principled, and tireless diplomacy at the council is needed to 
unify our partners, to blunt damaging initiatives, and to 
advance U.S. interests that benefit the world.
    Now, there are functions of the council that, for the most 
part are working. U.N. peacekeeping is a vital institution for 
promoting international peace and security. To protect the 
credibility of that institution and, more importantly, to 
protect vulnerable populations around the world, the United 
States has demanded and successfully won increased scrutiny and 
reform of peacekeeping budgets, mandates, and accountability 
mechanisms for poor performance and misconduct. Our efforts, as 
well as the efforts of this committee, have resulted in new 
training, reporting, and accountability measures for sexual 
exploitation and abuse committed by peacekeeping personnel. And 
we have succeeded in giving missions realistic and achievable 
mandates, as well as clear exit strategies to keep them from 
remaining in place beyond their useful purpose, which was too 
often the case in the past.
    Mr. Chairman and members of the committee, in an era of 
great power competition in which the values of the free world 
are under pressure, I believe it is vital for the United States 
to hold firmly to its position of leadership at the United 
Nations. It is American values, liberty, fundamental rights, 
and the sovereignty of a nation's people, that animate a just 
and workable international system. Those values will always be 
at the front of my mind if I am so fortunate as to be confirmed 
for this position.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wong follows:]


                   Prepared Statement of Alex N. Wong

    Chairman Risch, Ranking Member Menendez, distinguished members of 
the committee, I'm deeply honored to appear before you as the 
President's nominee to serve as the Alternate Representative for 
Special Political Affairs at the United Nations. And I'm humbled by the 
confidence President Trump, Secretary Pompeo, and Ambassador Craft have 
shown in me with this nomination.
    There are so many people to thank for bringing me to this point in 
my professional life. The lateAmbassador Tom Schweich, Judge Janice 
Brown, Lanhee Chen, the late Ambassador Rich Williamson, Paula 
Dobriansky, National Security Advisor Robert O'Brien, Brian Hook, 
Ambassador Stu Eizenstat, Senator Romney, Senator Cotton, Deputy 
Secretary Steve Biegun. All of these distinguished statesmen and women 
gave me the opportunity to fail, succeed, and grow as a professional. 
I'm greatly indebted to them all.
    All of these individuals took a chance on me. But it was my 
parents--Robert and Grace Wong--who took the biggest chance of all for 
my sake. They left Hong Kong 43 years ago. They settled into a single-
room rental in Kew Gardens, Queens, with an infant, a bus pass for the 
commute to an arduous and unstable job, and a whole lot of belief in 
the United States of America. If I'm so fortunate to return to the city 
that welcomed them to America to represent the country they so dearly 
believed in, it will vindicate that belief in a way they could have 
scarcely imagined as newly arrived immigrants.
    And, Mr. Chairman, I am truly blessed to have three godsends who 
sustain me every day, who inspire me, and who give my life its meaning: 
my baby girl Avery, my dear son Chase, and my beautiful bride Candice.
    Mr. Chairman, my professional life has been focused on advancing 
U.S. interests in the foreign policy realm. I joined the civilian surge 
in Iraq that was so necessary to complement the military surge. I had 
the opportunity to work as Senate staff to advise and support Senator 
Cotton on a range of national security matters. And three years ago, I 
returned to the State Department, first, to deepen U.S. engagement in 
the Indo-Pacific region and, second, to help realize the final, fully 
verified denuclearization of North Korea. In all of these roles, I've 
been reminded of the importance of pragmatism in an arena as difficult 
and uncertain as foreign affairs. But I've also seen the overriding 
value of standing firmly and boldly for American principles. My late 
mentor Rich Williamson--who held the very job I've been nominated for--
would often say to me, ``You have to be a realist to take steps in the 
everyday, but an idealist to know in which direction you're going.'' 
That is a philosophy I would bring to the United Nations.
    Mr. Chairman, many of the core functions of the United Nations are 
centered at the Security Council. The Council has a weighty mandate to 
preserve international peace and security. But too often, it doesn't 
live up to it.
    The world has no doubt entered into a period of heightened 
geopolitical competition. This is a time when the United States and our 
friends and allies in the Free World are facing greater challenges and 
more dire threats. This heightened competition is manifesting itself at 
the Security Council.
    This is in large part why the Council has not been able to take 
decisive action--as the U.N. Charter demands and as our conscience 
demands--to address conflict and human suffering in hot spots spanning 
the globe. Russia and China block discussion of Maduro's crimes in 
Venezuela. Because the Assad regime has two permanent P5 protectors, 
the Council has never done right by the Syrian people in this decade of 
their suffering. And even in this year of 2020--well into the 21st 
Century--our close and steadfast friend Israel still faces attacks in 
the U.N. system that echo the most sinister prejudices of centuries 
past.
    But even though our work at the Council may be harder in this era 
of great power competition--even though it may be more frustrating--it 
doesn't mean it's any less important. In fact, I believe it's more 
important than ever. Strategic, principled, and tireless diplomacy at 
the Council is needed to unify our partners, blunt damaging 
initiatives, and advance U.S. interests to benefit the world.
    Now there are functions of the Council that, for the most part, are 
working. U.N. peacekeeping is a vital institution for promoting 
international peace and security. To protect the credibility of that 
institution and--more importantly--to protect vulnerable populations 
around the world, the United States has demanded and successfully won 
increased scrutiny and reform of peacekeeping budgets, mandates, and 
accountability mechanisms for poor performance and misconduct. Our 
efforts--as well as the efforts of this committee--resulted in new 
training, reporting, and accountability measures for sexual 
exploitation and abuse committed by peacekeeping personnel. And, we 
have succeeded in giving missions realistic and achievable mandates as 
well as clear exit strategies to keep them from remaining in place 
beyond their useful purpose, which was too often the case in the past.
    Mr. Chairman, members of the committee, in an era of great power 
competition in which the values of the Free World are under pressure, I 
believe it is vital that the United States hold firmly to its position 
of leadership at the United Nations. It is American values--liberty, 
fundamental rights, and the sovereignty of a nation's people--that 
animate a just and workable international system. Those values will 
always be at the front of my mind if I'm so fortunate as to be 
confirmed for this position.
    Thank you, and I look forward to your questions.


    The Chairman. Thank you, Mr. Wong. We appreciate your 
remarks.
    We are going to do a 5-minute round of questioning now, and 
we are going to do it on a seniority basis since it impossible 
to keep track of who showed up first.
    So the most difficult proposition here is the 5-minute 
clock. We are going to be on the honor system. Now, we all know 
that did not work so well when our clock was broken in the 
committee, but we are going to give it a go again. We are not 
completely on the honor system because I do have a 5-minute 
clock. As the ranking member pointed out, there are important 
things to explore here, and we will try to give everybody a 
shot at it and then come back again with another round for 
those that have other questions. And there are a lot of 
questions on [inaudible].
    So with that, I will turn it over to Senator Menendez 
[inaudible] on the clock.
    Senator Menendez. Well, thank you, Mr. Chairman.
    General Dayton, if confirmed, do you commit to not meet 
with Rudy Giuliani or his associates?
    Mr. Dayton. Senator, I am not going to commit to that 
because I believe that as an Ambassador I would have the 
obligation to meet with any U.S. citizen and hear them out if 
they come.
    But let me assure you. I have spent 50 years in the service 
to this country, and the guiding principles of my life have 
been the triad of duty, honor, and country. And anything I 
would deal with Mr. Giuliani or any other person who approaches 
me will be guided by----
    Senator Menendez. You are aware, General, of why I even 
asked that question I assume. Correct?
    Mr. Dayton. I am aware of what I have read in the papers, 
Senator, but I had nothing to do with and I was not involved in 
any way in the episodes----
    Senator Menendez. I appreciate that you were not engaged 
with it, but you are going to be, if confirmed, the Ambassador 
at an embassy, which has been rife with the use of political 
actors to try to influence and undermine the course of U.S. 
elections. I think that is a high calling and responsibility.
    So let me ask you this. If confirmed, do you commit to 
report to the appropriate channels and to this committee if you 
become aware of any efforts to interfere in the November 2020 
U.S. elections?
    Mr. Dayton. Senator, I think if that were to occur, that 
would be a very reasonable request on your part. I would, of 
course, consult with my State Department colleagues, but that 
sounds reasonable to me.
    Senator Menendez. Okay. Let me refine the question. Would 
you tell members of the committee of jurisdiction, the one that 
you are before for confirmation, that you had become aware of 
efforts to interfere in the 2020 U.S. elections if that 
information came before you?
    Mr. Dayton. Again, I would have to know what the 
circumstances are, but I see no reason not to do that. It makes 
sense to me.
    Senator Menendez. Well, I am a little alarmed by your 
equivocation.
    Let me ask you, should security assistance to any country 
be delayed in order to gain domestic political advantage?
    Mr. Dayton. No.
    Senator Menendez. Was it wrong for the President to 
withhold security assistance from Ukraine in 2019?
    Mr. Dayton. I am not sure what the exact circumstances were 
on that. I was not in Ukraine at the time. And I was not aware 
that this had affected any of our efforts that we dealt with on 
Ukraine at the time.
    The President does what the President does, and I am there 
at the discretion of the President and I fully understand that. 
But I am also, if I am confirmed as Ambassador to Ukraine, I am 
at the disposal of the American public as well.
    Senator Menendez. Well, when you take an oath, if you are 
confirmed, it will not be to the President of the United 
States. Correct?
    Mr. Dayton. I believe it will be the same oath I have taken 
all my life, which is to the Constitution of the United States.
    Senator Menendez. Correct, and Article I of the 
Constitution is the Congress of the United States.
    And so I am deeply concerned when nominees equivocate on 
sharing information with the committee of jurisdiction, 
particularly with a history that we have in Ukraine.
    Will you, if confirmed, remain vigilant and try to prevent 
individuals from interfering in our election process if that 
information comes before you?
    Mr. Dayton. Yes.
    Senator Menendez. Following attacks on Ambassador 
Yovanovitch and other career employees from the U.S. embassy in 
Kyiv, I remain concerned about the toll of those attacks on 
morale and other career public servants. What will you do to 
boost morale and send a clear message that you support career 
employees, if you are confirmed?
    Mr. Dayton. For 50 years, Senator, I have been a team 
builder in the Army and here at the Marshall Center, and I will 
build a team that--a team is already in place. I think they are 
in pretty good shape. I have met with many of them over the 
last year and a half. But I will, indeed, build a team that is 
united in its efforts to advance American interests in Ukraine.
    Senator Menendez. Let me turn to another question. Have you 
read the Ukraine Security Partnership Act that Senator Risch 
and I introduced last week?
    Mr. Dayton. I have not read it in detail. I have read what 
is the National Defense Appropriations Act, but I have not read 
the act that you refer to.
    Senator Menendez. What are your views on increasing FMF and 
IMET security assistance for Ukraine as it encounters Russian 
aggression?
    Mr. Dayton. I think it is a very good idea and it is 
something I support wholeheartedly especially with the recent 
experience I have had of the last 22 months as the defense 
advisor.
    Senator Menendez. Let me turn to Ms. Barber for a moment. 
Ms. Barber, your career to date has been as a tax attorney. You 
have no experience in foreign policy, no experience in 
multilateral diplomacy, or expertise in economic and social 
issues. But should you be confirmed as the Ambassador to this 
position, you would be charged to help to coordinate the work 
of many U.N. specialized agencies, including the World Health 
Organization, which the President announced his intention to 
withdraw from. You also will be representing the U.S. 
Government in critical forums for global coordination on issues 
of gender and women's human rights, including the Commission on 
the Status of Women.
    I have some serious concerns regarding the administration's 
attempts to restrict women's rights.
    First of all, how are you going to meet these challenges of 
being in a multilateral organization but us withdrawing from 
multilateral organizations? And do you intend to use your 
position to bolster global cooperation and continue progress on 
gender and women's rights issues, or will you continue the 
efforts we have seen so far in the administration to weaken our 
commitments for gender equality?
    Ms. Barber. Senator, I believe that effective diplomacy is 
identifying shared values and developing personal relationships 
to reach those common goals. And if confirmed, I will take my 
experience and my expertise in negotiations and problem 
solving, litigation, and innovative thinking to try to tackle 
these various issues that you mentioned.
    As it relates to the World Health Organization and other 
organizations that the United States participates in, I believe 
that global participation is important, but I think that it is 
also important that we see contributions from other member 
states that is not so disparate to the United States' 
participation and contributions. And if confirmed, I will work 
hard to bring likeminded partners to the table and try to 
expand resources and contributions from other states so that we 
can tackle some of the really rising humanitarian needs and 
human rights issues that the United States has been a global 
leader on.
    As it relates to women and girls, I am the first in my 
family to graduate from high school. So as I mentioned in my 
opening statement, it is a priority for me to see that girls 
have access to education and women have equal opportunity in 
the workplace. And for that reason, I will absolutely be 
focused on issues relating to women and girls. I have seen 
where Ambassador Craft has traveled to many places and from 
South Sudan to the Syrian border----
    Senator Menendez. I appreciate your lengthy answer, but let 
me get to the specifics of what I was trying to get with you, 
which is you are aware that the administration has taken 
unprecedented hardline positions against longstanding agreement 
upon language on gender-based violence, as well as sexual and 
reproductive health issues. What is going to be the position 
that you will advocate if you are confirmed on these issues?
    Ms. Barber. Senator, if confirmed, I will work hard to try 
to build consensus on resolutions that benefit women and girls. 
I think it is important that we have to empower them and unlock 
their potential.
    And as it relates to some terminology that you are 
referencing that may prevent us from joining in, it is my 
priority to try to build consensus on clear terminology so that 
we can make most effective those resolutions for women and 
girls.
    Senator Menendez. Well, the consensus--I will not belabor 
it because I want to not overstep the chairman's generosity. I 
will come back.
    But the consensus has existed. So you do not need to build 
consensus. The consensus has existed over these longstanding, 
agreed-upon language on gender-based violence and what U.S. law 
has been and the Siljander amendment prohibiting the use of 
foreign assistance funds to lobby for or against some of these 
issues in multilateral organizations. So it worries me that you 
think you have to create consensus. The consensus exists. The 
question is what you are going to do on behalf of the United 
States to follow and to build upon that consensus versus trying 
to create a new consensus that will not help women with gender 
violence issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    We will now turn to Senator Johnson, and after Senator 
Johnson will be Senator Cardin. So, Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I have got my own 
timer, so I will not abuse the time.
    The Chairman. Good for you.
    Senator Johnson. General Dayton, obviously, you have a 
great deal of experience in Ukraine. I actually want to get 
some real information out of you because of that.
    Can you just update us in terms of the general assessment 
of where Ukraine stands militarily in eastern Ukraine, the 
Kerch Strait, Sea of Azov? Give me that basic military 
assessment. I kind of want to get your assessment of the 
politics as well, the political situation. But start 
militarily. Have we progressed over the last 3 and a half 
years? Have we made progress? General Dayton?
    Mr. Dayton. Senator, we have made a lot of progress. We 
have a lot more to do.
    I hope this is working right. It looks like you and I may 
be talking on top of each other.
    You hit a big point, though, which is the Black Sea, Sea of 
Azov, Black Sea. This is going to become a much more important 
strategic entity than it has been in the past. And where the 
Ukrainians need a lot more help is going to be with their navy. 
It is going to be with their air force. They have always had a 
ground forces-centric military. They need to outgrow that a 
bit.
    Now, the situation in the east is stable. Could the 
Russians invade tomorrow? They could but they would take a very 
bloody nose to do it. And I think I would probably leave it at 
that. But we have a lot of work to do.
    What I like is the fact that the Ukrainians have truly 
embraced defense reform in a way that when I started my 
advisory work 22 months ago, I did not think they were capable 
of, and they have really come around.
    Senator Johnson. President Zelenskyy--first of all, I think 
he is a smart man. I think he understands the mandate he 
received from the Ukrainian people to rid the country of 
corruption. I think in one of his speeches before the High 
Anti-Corruption Court, he said we are just not going to reduce 
corruption. He plans to defeat it. It is very difficult in 
Ukraine. I keep talking about Ukraine having to get past the 
era of the oligarchs.
    Can you give us your basic assessment in terms of how he is 
doing, what he is up against, just the challenges from a 
political standpoint? As we all recognize, the table stakes in 
any of these Eastern European countries is to reduce the level 
of corruption so they can attract investment and have a greater 
economic opportunity.
    Mr. Dayton. Senator, on the plus side, the Zelenskyy regime 
and the new parliament have done a lot in areas of agriculture, 
banking, health, education, good governance, law enforcement, 
and judiciary. That is on the plus side. They built 
institutions.
    On the negative side, the oligarchs are still there. They 
are very powerful, and I think that this is going to be an area 
that I will have to deal with, if I am confirmed, in a very 
serious manner. You know, we have gone over a year without a 
U.S. Ambassador to Ukraine, and I really do think that a U.S. 
senior presence will help President Zelenskyy deal with some of 
these issues. But the oligarchs--it is kind of like in Star 
Wars. The empire is trying to strike back. Zelenskyy is having 
some challenges now, and I think he needs a little bit of our 
help in a way that we have not been able do it in the last 
year.
    Senator Johnson. One of the issues in Ukraine is, of 
course, the oligarchs control the media. We have billionaires 
control our media as well. But you have total control of the 
economy, as well as the media, and that is a significant 
challenge for any leader that is trying to rid the country of 
corruption.
    Can you basically speak to that challenge?
    Mr. Dayton. It is a challenge, and you are absolutely 
right. Mr. Kolomoisky owns half of the radio and television 
stations in Ukraine, and the ones he does not own are being 
broadcast into Ukraine by Russia.
    We are working on this. I know the State Department has a 
program working on challenging disinformation that is coming 
not just from the Russians but from the oligarchs as well. But 
this is going to be a long-term project, and it is something 
that I will definitely get into, if I am confirmed.
    Senator Johnson. So just real quick. President Zelenskyy 
won with over 70 percent approval, really a stunning electoral 
success. Has the media, have the oligarchs done a pretty good 
job of degrading that public support? Where does he stand 
publicly right now?
    Mr. Dayton. Senator, the last poll I saw he was still at 
least twice as popular among the public as anybody else, but 
his numbers are not at the stratosphere as they were before. Of 
course, they have come down. But again, you have to be careful 
of the polling there too. As you know, Senator, more than 
anybody, the disinformation campaigns in this part of the world 
are phenomenal, and even some of the polling is quite suspect. 
I think he is still pretty popular. I think if elections were 
held tomorrow, he would do very well and would be reelected. 
But--but--and I emphasize but--he needs some help because the 
bloom is off the rose here a little bit.
    Senator Johnson. Well, thank you for your service and good 
luck to you. God bless you.
    The Chairman. Thank you, Senator Johnson.
    We will now move to Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And let me thank all of our nominees for their willingness 
to serve our country. We appreciate that very much, and we also 
send our thanks to your families, because we know this is a 
family commitment.
    Ms. Barber, I want to follow up on Senator Menendez's 
points in regards to the advancement of American values. How do 
you see the sustainable development goals and our participation 
in that as a way to advance our goals?
    Ms. Barber. Thank you, Senator Cardin.
    I think the sustainable development goals are an important 
framework from within which the U.N. member states need to 
work.
    I also think that it may be best enforced locally versus 
globally. I understand that there is not member consensus on 
the goals and the prioritization of those goals. So I am 
interested in learning more about how the prioritization will 
evolve. And I do support them. I think that they provide a 
strong basis for targets for countries.
    Senator Cardin. Are you familiar with Goal 16, which deals 
with good governance?
    Ms. Barber. I am.
    Senator Cardin. It states basically we cannot hope for 
sustainable development without peace, stability, human rights, 
and effective governance based on the rule of law.
    My point is this. The record on these goals has been pretty 
good. It is a universal commitment to deal with poverty, to 
deal with education, to deal with gender equity, to deal with 
health care and to deal with good governance now. So it really 
is an international commitment to achieve these goals, and 
metrics are developed to show how well we are doing. We have a 
deadline. You are familiar with the date on which these goals 
are supposed to be met?
    Ms. Barber. Yes.
    Senator Cardin. So how will you use your office, if 
confirmed, to make sure that we in fact have demonstrable 
progress in meeting these goals? I could point to the fact that 
in 2019, 357 killings were reported of human rights defenders 
in 47 countries. That is a metric that needs to change. So how 
are you going to use that to advance human rights?
    Ms. Barber. Senator, I agree with you, and I will work with 
a strong team at the U.S. mission that currently exists. I 
believe that they are focused on the sustainable development 
goals and that they are working on making sure that the United 
States makes progress in these areas. So I will continue to 
build on the momentum that they have and work with them to see 
to it that we make improvement in these areas.
    Senator Cardin. I just would encourage you to work with our 
committee. There is strong support for holding countries 
accountable. This is an international commitment and effort. We 
have the private sector working with us, as well as 
governmental entities, to advance the end of dealing with 
poverty and education, but also good governance, which is the 
key contribution that I think that the United States can make 
in these efforts, and we will need you championing those 
issues.
    Mr. Burrier, I want to just get to one issue. You said you 
helped develop the BUILD Act, which deals very much with the 
DFC. Part of that is a commitment that at least 50 percent of 
the business is done by small businesses. I mention that 
specifically because COVID-19 has had just a horrible impact on 
all businesses, but small businesses do not have the 
resiliency. So attention to small businesses is even more 
important now.
    What commitment can you give us that you will work to make 
sure that goal is complied with?
    Mr. Burrier. Thank you very much, Senator. And obviously, 
thank you for your leadership on the BUILD Act. I remember 
working with you and your staff on that provision.
    Like OPIC before it, we have a strong commitment to helping 
both small businesses here in the United States. I remember 
working with Ellicott Dredges on that project in Iraq. And as 
you put your finger on it, this support for small and medium-
sized enterprises in the developing world is going to be 
absolutely critical. Much like our economy at home, the 
economies in the developing are powered and engined by these 
small businesses. And so we are having to shift our strategy a 
bit to make sure that we are working with financial 
institutions in the developing world that can lend quickly to 
these small enterprises to ensure that these economies can keep 
going.
    Senator Cardin. Thank you.
    Ms. Fisher, I will ask you one question on Belarus. It is 
exciting that we are going to, hopefully, have a confirmed 
Ambassador. I have been to the country.
    Let us not mistake the move away from Russia as necessarily 
a move towards democracy because we have seen with the 
Government very little real progress in defending the human 
rights of the people who live in their country or free and fair 
elections. I know we have elections coming up. It will be 
challenging if they can meet the standards of free and fair 
elections.
    So I hope that we can count on you to give us an honest 
account of how well Belarus is doing on the human rights and 
the good governance reforms, anti-corruption, et cetera, and 
not just try to remove them from Russia. We do not want them 
under Russia's umbrella, but quite frankly, Belarus has been 
pretty independent for a long time. It has not really been 
dependably by Russia for a long time.
    So what is your game plan on trying to establish realistic 
goals that we can advance our values in Belarus?
    Ms. Fisher. Thank you, Senator. I really appreciate the 
question because I think it is at the heart of the challenge 
that we face as we reestablish this bilateral relationship with 
Belarus.
    I think a big part of the challenge for me in answering 
this question is that we have been really hobbled in our 
efforts to fully engage in Belarus with such a limited number 
of [inaudible] and such limited facilities in Belarus. Getting 
the story out, being able to communicate back what is happening 
on the ground is a particular challenge, and to be very frank, 
it is even harder in the current environment.
    I will tell you I am committed to making sure that the 
story as we see it, as we observe it from the embassy, if I am 
confirmed, is what gets through to you, is what gets through to 
our partners in Congress, as well as across Washington. The 
goal of this process is not simply to send an ambassador so 
that we can move beyond the terms of the Belarus Democracy Act. 
It is to see whether our enhanced engagement can actually lead 
to greater results as we seek to support the aspirations of the 
Belarusian people.
    So in my view, it will be a long-term effort. It will not 
be quick. It is going to take us time, and I really look 
forward to being on the ground and engaging directly because 
there is such a tremendous difference between what we can do 
from afar and across an ocean versus that personal engagement 
on the ground. And that is what I look forward to.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    We will now move to Senator Portman.
    Senator Portman. Did you say Senator Portman, Mr. Chairman?
    The Chairman. I did. That is you.
    Senator Portman. Excellent. All right. Thank you very much.
    And to all the nominees, I appreciate your willingness to 
step forward and serve your country at an important time in 
some really important roles.
    Lieutenant General Dayton is a star, and Mr. Chairman, I 
think you know how I feel about him. I think he is the right 
person at the right time. He has a distinguished military 
career, and since he hung up his uniform, he has continued to 
serve as Director of the George C. Marshall European Center for 
Security Studies. And he has used that post effectively in my 
view to increase democracy development in Europe and especially 
in Ukraine. And you saw, by the way, a number of seminars from 
members of the Ukrainian military and the Rada. My own staff at 
the Permanent Subcommittee on Investigations has assisted with 
teaching some of those classes. That is where I first came to 
know General Dayton. And I believe he is knowledgeable, 
passionate about the issues as we have seen today, and has 
worked hard to make the Ukrainian military a more capable and 
credible force and one that does help fight corruption, that 
does have civilian control. That is a big accomplishment that I 
think he is largely responsible for.
    He has got instant credibility in Ukraine. We need somebody 
who can hit the ground running right now.
    So he has got my support, and I hope my colleagues will 
support him and continue to work with him.
    We have got real threats right now in Ukraine, obviously. 
Russia continues to be aggressive on the eastern border. The 
devastating impact of the COVID-19 pandemic on all countries 
has also visited Ukraine unfortunately. And we need a confirmed 
Ambassador there badly.
    So as I have said before, I think Ukraine is a critical 
strategic partner of the United States. They have come to us. 
You know, they have turned to the West, and we want to help 
them to build a more free, open, and democratic society. I 
think, although they have made strides, they are at a critical 
point again right now. And I think, General Dayton, you are the 
right person to help them continue on that path.
    I do have a letter I would like to enter into the record by 
unanimous consent, which was written by the Ukrainian Congress 
Committee of America regarding General Dayton. Mr. Chairman, I 
have already sent that electronically to your staff.
    The Chairman. That will be introduced into the record.


    [The document referred to above can be found at the end of 
this hearing transcript.]


    Senator Portman. General, you talked briefly about the 
NDAA, and as you know, we have a requirement in there for a 
combined Department of Defense and Department of State 
capabilities report on gaps in the Ukrainian military and 
development of a multiyear strategy to address those issues. I 
think this report is important because it will pinpoint the 
equipment and resources that Ukraine needs to push back against 
the continued Russian aggression in the Donbas and Crimea, and 
frankly since we started assisting Ukraine in fiscal year 2016 
budgets, I have been encouraged by some of the progress we have 
made, but I have been discouraged that we have not had this 
type of report for Ukraine to be able to put it all together.
    By the way, I also support the legislation strongly that 
Chairman Risch and Senator Menendez have led with me and 
Senator Murphy and I believe others now, which would be an 
authorization bill. And Senator Menendez talked about that 
earlier.
    But with regard to the NDAA report, could you comment on 
that, General Dayton? Do you believe that that report is 
appropriate? Do you believe it would be helpful?
    Mr. Dayton. Sorry, Senator. I had a problem with my 
computer for a second.
    I think it is very important, and it is a great opportunity 
for us to get Ukraine to finish focusing on mapping out 
requirements and priorities with our help. We have been 
advocating a capabilities-based mid-term planning effort for 
the Ukrainians for the last at least 2 to 3 years. They have a 
new defense minister. He is taking a very deliberate approach 
to this problem. And what you have asked for in the NDAA is 
exactly the tool that I would have wanted to help them get to 
where they need to be. I think this is very important, and I 
look forward to reading both the Chairman and Senator 
Menendez's bill as well, which unfortunately I have not yet 
seen.
    Senator Portman. Great. Well, thank you.
    The Ukraine Security Partnership Act is what it is called, 
and I think it is good because it standardizes the amount of 
security assistance that we have in a multiyear strategy. But I 
think that is important for long-term planning, I think you 
would agree, in dealing with the Ukrainian military. That is 
something that would be helpful to them.
    One thing I will tell you in response to our legislation, 
we had a member of the Russian State Duma Committee--the 
chairman actually--say that Russia may now officially start 
supplying arms to the Donbas separatists. I thought that was 
kind of ironic since it seems to me it is pretty clear they 
have been doing that.
    But can you comment on that?
    Mr. Dayton. Yes. I saw this comment by Mr. Kalashnikov. I 
will tell you it is really rich. Look, the Russians have about 
2,300 people in the eastern provinces of Ukraine currently. 
They have given them more than 400 tanks, 700 field artillery 
pieces, mortars, drones, air defense artillery, small arms, 
crew-served weapons. This is ridiculous. Yes, sure, as if they 
are not involved.
    You know, before the conflict started, these people had 
nothing, and the Ukrainian military had it all. And right now, 
this is a pretty formidable force that is facing the Ukrainian 
military, and they are, indeed, led and accompanied by Russian 
active duty troops.
    Senator Portman. Well, thank you for that. Having visited 
the contact line--as you know, I have been out there--it is a 
hot war and there are Ukrainians who are dying defending their 
country. And therefore, I am pleased to see that again the NDAA 
not only has that report, but also we provide through that the 
largest amount of lethal defensive aid the United States has 
yet provided.
    So I appreciate you and my colleagues on this committee in 
a bipartisan way supporting that.
    Mr. Burrier, can I ask you a quick question? First of all, 
I do think you are uniquely qualified for this position, having 
worked to help transition OPIC into the DFC.
    My question to you has to do with what should the DFC be 
doing going forward. It has recently come into the spotlight 
because in order to help bring back domestic manufacturing 
capability in response to COVID-19, the President invoked the 
Defense Production Act to delegate loan authority under 
sections 302 and 303 of the act to the CEO of the DFC. This 
will allow the DFC to make loans targeted at reshoring domestic 
supply chain manufacturing of PPE, something we all want to 
see. But because the DFC works now exclusively internationally, 
it seems a surprising move. And I understand the DFC has a lot 
of experience going into emerging markets and managing large 
investments.
    That said, I am interested in your opinion as to why the 
DFC was chosen for this mission over other agencies that do 
operate in the United States with similar authorities.
    Mr. Burrier. Sure. No. Thank you, Senator, very much for 
the question.
    As you noted, the President signed an executive order in 
May that married DFC's financing skills with the DPA lending 
authority with a focus on COVID-19 recovery and relevant 
domestic supply chains, which we all want to see bolstered. I 
think it is a sign of the unprecedented time that we are in 
that the President took such a step.
    It is a time-limited 2-year authority. I feel very 
comforted by the fact and want to share with the committee that 
we have done a lot of work with DOD to wall that off so that 
these Defense Production Act loans are done under that 
authority, under DOD resources and do not impact the resources 
of DFC's core international mission. So our $60 billion for DFC 
is reserved for the international development mission. Our 
appropriations are reserved for our staff. And the DPA loans 
will be done under the DOD resources.
    In regards to my role, if confirmed, as you pointed out, 
that executive order has placed that authority into the CEO. I 
have been nominated to be the Deputy CEO--my background is in 
foreign policy and development. And so, if confirmed, the CEO 
has asked me to make sure that my focus is going to be on the 
international mission to ensure that we are laser focused on 
that because the challenges in the developing world are just 
coming at us so hard. We are not going to take our eye off that 
ball.
    Senator Portman. Well, I appreciate that, and I am sure the 
chairman and others do as well. As an original cosponsor of the 
BUILD Act and someone who supported the DFC enterprise, 
changing our approach and consolidating and trying to be able 
to compete with China and others, we do not want you to be 
taken away from your statutory mission to invest abroad. So I 
appreciate that commitment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Shaheen, you are up next. I do not see your 
picture, but they appear to indicate you are with us. Am I 
right or am I wrong?
    Senator Shaheen. You are correct. And hopefully, you will 
see me----
    The Chairman. There you are.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    And thank you to all of the nominees this morning for your 
willingness to come before the committee and testify and to 
consider being nominated for these roles.
    I want to start with you, General Dayton. And I am sorry if 
you have answered this question because I was not able to get 
on the hearing until a few minutes ago.
    But Kurt Volker, before he became President Trump's envoy 
in 2017, observed that the Minsk agreements were--and I quote--
not a solution but a problem as they essentially legitimized 
the Russian invasion of Ukraine. We know that this has been the 
underpinning of U.S. foreign policy in Ukraine to support the 
Minsk agreements. But since it has been 6 years, we have seen 
no progress, and in fact, what we have seen, as you pointed out 
so correctly, is the continued support that Russia gives to 
fighters in the Donbas. They are really directing that effort 
and the equipment and everything.
    Should we consider trying to come up with a different 
agreement to address what is happening in Ukraine? One of the 
examples that I think is so telling is that the Kremlin issued 
up to 1 million Russian passports to Ukrainians in the last 
year. So do we think that it would make sense for us to play a 
role in trying to negotiate a new agreement to address what is 
happening in Ukraine in the Donbas?
    Mr. Dayton. It is a great question. And yes, it is not 
going well. As you probably know, the Ukrainians just put in 
their previous president, Mr. Kravchuck, to be the leader of 
their delegation now in negotiations. One gets the impression 
this could go on indefinitely and that the Russians are playing 
rope-a-dope with everybody as we go along.
    Should the United States get involved? I do not know. I 
would have to examine that problem a lot more. Right now, the 
Ukrainians, under President Zelenskyy, think that they are in a 
fairly good place because they are not going to give into the 
Russians on territorial integrity issues or even special status 
for the Donbas.
    But, you know, we have got our hands full in a lot of 
places. I would like to give it a shot myself first before I 
were able to give you a more coherent answer.
    Senator Shaheen. Well, thanks. I appreciate that. I 
remember when the Minsk Agreement was being negotiated, that 
there was a lot of opposition from the Germans and from the 
Europeans basically to the United States providing more weapons 
to the Ukrainians to fight back against the Russians and a real 
ownership of that agreement in a way that they do not seem to 
continue to have. And so I do not know if you have been able to 
talk to anyone in the European community about Ukraine and 
whether they think it is time to look at trying to negotiate a 
new effort to end the fighting there and to address Russia's 
interventions.
    Mr. Dayton. I do talk to Europeans about this. As you know, 
I am resident here in Germany. Germany, Lithuania, and the 
United Kingdom are members of the group that I work with 
advising the defense minister. They all believe that we are 
doing the right thing. They all support the U.S. arming of the 
Ukrainians and trying to revamp their defense sector. They 
think this all makes a lot of sense.
    The real question is politically where are these countries. 
And so far the European Union countries have been pretty 
steadfast in sanctions against Russia, and they have had plenty 
of opportunity to walk away and they have not done so.
    So I think, like I said, I would like to take a good hard 
look at this, if I am confirmed, consult with the embassy 
experts that know about this, consult with the ambassadors of 
the countries that are involved in the Normandy process and 
take it from there.
    I would add one other thing. I know that Secretary Pompeo, 
in front of this committee last week, suggested that it is a 
good time to kind of reactivate the former Kurt Volker 
position. I strongly agree with that. I think we could use the 
help.
    Senator Shaheen. That makes sense to me as well, and I look 
forward to hearing your assessment once you have been on the 
job for a while and see if you think there are other things we 
could do to address what is happening there in terms of the 
fighting.
    My next question is for Ms. Fisher. And like others, I 
certainly share the enthusiasm that we are now sending an 
Ambassador to Belarus for the first time since 2008. And I know 
that there are some actions that Belarus has taken which have 
meant that we feel like it is appropriate now to send an 
Ambassador back to the country.
    But I want to follow up a little bit on Senator Cardin's 
question. As you look at the steps that Belarus would need to 
take in order for more robust engagement, what kinds of things 
do you want to see from Belarus in order to begin to see more 
openings for democratic initiative, more opportunity to engage 
with the rest of Europe and move away from Russia?
    Ms. Fisher. Thank you, Senator Shaheen. I really appreciate 
the question.
    In my view, there are a couple of elements of this, but it 
starts with Sunday. It starts with the elections on Sunday and 
not taking steps backward from the modest progress we have seen 
in recent years in terms of the climate for the political 
opposition and independent civil society.
    The first component to ensuring that we can continue to 
grow this relationship is that we not see steps backward in the 
conduct of this presidential election.
    Beyond that, I think it is incredibly important that we 
consult with our allies and our partners in the West, in Europe 
about where there are opportunities for us to continue to help 
Belarus build confidence that there is room, that there is 
space in Belarus for opposition voices, for civil society. 
Fundamentally I think the tenets of the Belarus Democracy Act, 
the requirements that are laid out in it, and what we are 
trying to get beyond is basically to ensure that there is 
space, to ensure there is space for more than one voice in this 
country. And it is important to me to understand the dynamics 
on the ground and what are the pieces. As we think about 
sequencing, as we think about the concrete steps, I do not want 
to sort of prejudge what that looks like from here at this 
point. But I will tell you I see this committee, I see the 
members, the staff as important partners in how we gauge our 
process going forward.
    There is opportunity for us in Belarus. There is no 
question about it. And moving beyond the idea that this is a 
country that is looking only at one other capital or perhaps 
two other capitals is absolutely essential as we think about 
security in Europe in my mind. But we do not do that absent our 
own values and our own national interests.
    Senator Shaheen. So I know that they are still in the 
middle of the pandemic in Europe as well, but will there be any 
independent monitors at the election this weekend?
    Ms. Fisher. Unfortunately, the OSCE will not be on the 
ground nor will the Council of Europe. I do not know that I can 
say there will be none. Our embassy will have a limited number 
of teams. We have a limited presence on the ground. We will 
have folks observing on Sunday. There are already members of 
our team who are observing the early voting period, which has 
already started. But that is different from the fulsome 
observation effort.
    So I think it will be quite difficult to draw conclusions 
absent those key information points, those key data points, 
which we generally look to to help inform our judgments about 
the conduct of elections.
    Senator Shaheen. What about any civil society monitors?
    Ms. Fisher. There has been a very interesting--I would like 
to characterize it perhaps as a grassroots sort of movement for 
individuals to report on what they are seeing in polling 
stations. There has been a reaction from the central election 
commission whether or not that is allowed. The way that 
precincts are being set up is a little different from how it 
was in the past. There has been a proposal for individual 
voters to record what they see in polling stations or even 
potentially their votes, and that is certainly not accepted by 
the central election commission and the authorities.
    So as we think about the pre-election environment, we are 
also looking at--campaign rallies are authorized. They require 
permission. The cancellation, the late-breaking cancellation, 
of previously approved events is something that we do not need 
people taking photographs in precincts to understand those 
[inaudible]. So it is a part of the overall picture of the 
conduct of these elections.
    Senator Shaheen. Thank you.
    Mr. Chairman, I do not know how much time I still have.
    The Chairman. Well, Senator, the chairman has been very 
generous with the time. You owe me some time right now, but 
these are important noms. We have people that are going to 
important places. So feel free.
    Senator Shaheen. Well, thank you. I do have a couple more 
questions for Ms. Barber.
    Ms. Barber, if confirmed, part of your role will be to 
represent the United States at forums, including the Commission 
on the Status of Women which functions under the Economic and 
Social Council at the U.N. Unfortunately, last year, the U.S. 
delegation is reported to have pushed for the removal of term 
``gender'' in the final document outlining the priorities of 
the commission for the year.
    Now, if confirmed, will you prioritize women's rights at 
the U.N., and will you work to reassert the role of the U.S. in 
promoting and protecting women's rights around the world?
    Ms. Barber. Yes, absolutely, Senator.
    Senator Shaheen. And can you also talk about how you might 
use the position at the U.N. to do that, the kinds of actions 
that you would like to see happen to support the rights and 
empowerment of women around the world?
    Ms. Barber. Yes. Senator, thank you for this question 
because the empowerment of women and girls is critical, and I 
believe that it is important that we unlock the potential 
there.
    There already exists many affiliates and U.N. agencies like 
the U.N. Commission on the Status of Women that you mentioned 
and then even within this administration here in the United 
States, WGDP and other organizations that are really coming 
together and doing a whole-of-government approach towards 
seeing to it that we empower women.
    And so, if confirmed, I will work and build on that 
momentum that already exists and add my voice and energy to 
that.
    Senator Shaheen. Well, thank you. We also have legislation 
that is before the committee right now that will encourage 
economic empowerment of women, and I am hopeful that we can 
move that legislation. Thank you very much.
    The Chairman. Are you done, Senator Shaheen? I guess so.
    I have Chris Murphy. I do not see his picture but I see he 
is entered. Chris, are you there? Senator Murphy?
    Senator Murphy. I am. Can you see me?
    The Chairman. I cannot see you. There is a button on your 
computer that you can get your grandkids to push for you.
    [Laughter.]
    Senator Murphy. I should be here.
    The Chairman. You are on now.
    Senator Murphy. All right, great. Thank you very much, Mr. 
Chairman.
    And thank you to all of our witnesses for your willingness 
to serve.
    Just one very quick comment before I ask a few questions, 
and that is to Mr. Burrier. Thank you for your willingness to 
serve in an agency that we have given a wide-ranging mission 
to. I would agree with Senator Portman's concerns about the 
additional responsibilities that have been given to DFC. But I 
would note that amongst the countries that the DFC is involved 
in today is Lebanon, and our heart breaks for the explosion 
that has killed untold numbers of Lebanese. But I think it is a 
country now that DFC can double down on. There are some 
investments there that I think will be very, very important to 
the rebuilding and the economic stabilization of that nation. 
And so I just make that editorial comment at the beginning.
    My questions, though, are for General Dayton. And I want to 
build upon the line of inquiry from Senator Menendez. I 
understand your answer to his specific question about whether 
or not you would meet with Rudy Giuliani. Your answer is that 
you would be open to meeting with any U.S. citizen. But I think 
the reason Senator Menendez asked this is that Rudy Giuliani 
was not in Ukraine as a private U.S. citizen. He was there 
representing the campaign interests of the President of the 
United States.
    And so let me maybe ask the same question but more 
generally. Do you think it is appropriate for the Ambassador to 
Ukraine to be meeting with representatives of the President's 
reelection effort or the President's opponent's election 
efforts particularly months prior to an election?
    Mr. Dayton. Senator, the answer to that is the greatest 
strategic asset to Ukraine right now is the bilateral and 
bipartisan support that they enjoy from the
    U.S. Congress. And as Ambassador, I would do my utmost to 
protect that bipartisan support and look at any requests for 
audiences and all that with a very critical eye because I 
believe that is the real jewel in the crown for Ukraine right 
now is bipartisan support for the country.
    Senator Murphy. So I approached this hearing very much like 
Senator Portman. I was enthusiastic about your nomination. You 
seemed to be the perfect person to fit the bill at this moment. 
But I will admit to being a little concerned about your 
inability to answer these questions directly.
    Let me ask again. Do you think it is appropriate for the 
U.S. Ambassador to Ukraine to be meeting with representatives 
of either Joe Biden's election campaign or the President's 
reelection campaign within 100 days of a presidential election?
    Mr. Dayton. Well, Senator, I am not quite sure what you are 
looking for. First of all, it would depend on what their agenda 
is. And I think that is something that I simply would have to 
find out. If they are there for very partisan purposes, of 
course not. It is not something the U.S. Ambassador should be 
advancing the interests of either of the parties just before a 
presidential election.
    I would note that I do not think Mr. Giuliani ever met with 
the U.S. Ambassador. As a matter of fact, the concern was that 
he did not.
    Senator Murphy. That is a slightly more direct answer, but 
I think it was a pretty easy one, a lay-up in my mind.
    Let me ask you a policy question. We have talked a lot 
about military aid, and I am a sponsor of the legislation that 
has been referred to several times. At the same time, I do not 
see Putin's aims as marching an army into Kyiv. Putin is trying 
to economically and politically break the country. And I fear 
that we have had a myopia in that we have sort of, I think, 
seen our role far too often in providing military support 
rather than political and economic support.
    Do you agree with me that Putin's real aim ultimately here 
is not to march an army across eastern Ukraine? It is to try to 
create enough political and economic instability such that a 
government is installed in Kyiv that is once again friendly to 
his interests, like the Yanukovych Government was. And if that 
is the case, is it not just as important, if not more 
important, for us to be supplying economic and political and 
anti-corruption aid to Ukraine, as it is for us to be supplying 
security assistance?
    Mr. Dayton. I think you are right, Senator. And I do think 
the security assistance is important. But you are right. 
Putin's goal is to destabilize this country, and why fight if 
he can destabilize the country without fighting? And yes, 
economic and other kind of assistance is very important, but it 
needs to be tied to genuine reform on the Ukrainian side as 
well because all the assistance in the world not tied to reform 
probably does not do much good either.
    Senator Murphy. And lastly, General Dayton, as you 
mentioned, you are an expert not only in Ukraine but on Germany 
and U.S.-German relations. The President of the United States 
has said that Germany has done nothing for Ukraine. Do you 
agree with that statement?
    Mr. Dayton. I would tell you that the United States is 
overwhelmingly the supporter of Ukraine in most ways.
    I work with a German colleague on my Defense Reform 
Advisory Board. He would be the first to admit to you that 
Germany is doing some things primarily in the area of medical 
assistance and how you build hospitals and things like that. 
But I guess in my view Germany could do more and perhaps will 
do more.
    Senator Murphy. Germany in fact has a sizable humanitarian 
commitment to Ukraine and a sizable democracy and governance 
commitment to Ukraine. Correct?
    Mr. Dayton. They do.
    Senator Murphy. So it is not true that Germany is doing 
nothing to help Ukraine.
    Mr. Dayton. Well, that is correct, Senator. I do not think 
I said that. I said I would like to see Germany do more. Little 
Lithuania does more for Ukraine, frankly, in my perspective 
than most countries.
    Senator Murphy. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy. I appreciate that.
    Just looking at the computer here, I think the only ones 
left are Senator Menendez and I. And before I turn back to 
Senator Menendez for some additional questions, are there any 
other members of the committee that are on that----
    Mr. Dutton. Senator Kaine is on.
    The Chairman. Okay. I did not see that. Senator Kaine, 
where are you? Oh, there you are. Senator Kaine, the floor is 
yours. We have a very strict 5-minute rule here.
    Senator Kaine. I have been seeing how unstrict it has been.
    The Chairman. Nuts. I was hoping you were not watching. Go 
ahead, Senator Kaine.
    [Laughter.]
    Senator Kaine. Many of my questions have been answered. I 
want to ask Alex Wong, if I could.
    Mr. Wong, I really want to focus on the job that you are 
currently in because your work on the North Korea desk I think 
is important work, and I would sort of like to get a status 
update from you about what we might expect and how the 
committee can be helpful.
    I have appreciated, when Steve Biegun has come to the 
committee, that he is pretty candid about efforts, but he does 
not oversell results. If there are not results, he does not try 
to convince us that there are. And this seems to be a very 
difficult problem, and I put that on North Korea's shoulders 
not on the administration's shoulders. I think we are making a 
lot of efforts, but as of yet, I have not really seen anything 
that I would consider a result to celebrate.
    But share with me, if you will--we had a hearing yesterday 
about Venezuela. And I think a number of us--we are trying a 
lot of things, but we are not seeing the result that we liked. 
Just as we tried a lot of things in Syria, we did not see the 
result there that we liked.
    The current dynamic with North Korea now testing out 
apparently, according to recent news, very small warheads, 
miniaturized warheads, they are moving forward at a rapid pace, 
and we have not yet come up with the strategies in tandem with 
others to stop them.
    Is there any reason that members of the committee should 
feel optimistic about that something is around the corner that 
might change the equation, or are we seeing a North Korea that 
is just dead set on doing what they want and there is little 
that the U.S. can do to alter their calculation?
    Mr. Wong. Senator, thank you for the question and also 
thank you for your continued engagement, as well as your 
colleagues on this committee on this vital issue.
    You are right. We have not yet, as is obvious, reached a 
final and fully verified denuclearization of North Korea, which 
is the objective of the President's policy and of these 
negotiations.
    It is a difficult problem set. You mentioned these news 
reports of--the term is--miniaturization of warheads. That 
report--that is a U.N. POE report or a report on that report. 
That is not public yet. I have not had a chance to fully review 
it. But here is what we know.
    For years, North Korea has been pursuing nuclear weapons. 
It has been pursuing missile technology to threaten the region, 
around the world, and to threaten the United States of America. 
But that is why it is so important for us to have the policy 
and strategy that we do. As you know, the strategy starts with 
an unprecedented international pressure campaign, one that 
arose from work at the U.N. Security Council but also from your 
committee and the broad not just sanctions but diplomatic 
isolation and overall cooperation with partners around the 
world to pressure North Korea, to show that there are costs for 
them departing from the international consensus on 
nonproliferation, but also to use those sanctions and that 
pressure to channel them into negotiations on a road map that 
will implement the complete denuclearization that Chairman Kim 
committed to President Trump.
    Now, we are over 2 years on from the Singapore Summit. The 
good thing about the summit, the good thing about the work we 
have done at the leader level is that we have something we have 
not had before, which is leader level commitment to complete 
denuclearization of North Korea.
    But I will be the first to tell you that we have not yet 
done the working level negotiations, the hard working 
negotiations that we need to do to develop the road map to 
realize that objective. What I will say is the U.S. is ready. 
You have been in discussions with Deputy Biegun, Special 
Representative Biegun, on this. We have a strong team here, an 
interagency team ready to negotiate, but we need to continue on 
the strategy, continue on the pressure, continue to galvanize 
the world behind the consensus strategy of using pressure again 
to channel North Korea into productive negotiations.
    Senator Kaine. Mr. Wong, one more question to show my 
chairman that I am going to stick in my 5 minutes, and this 
will be my last question. And that is, to what extent do we 
still believe that an ultimate positive resolution of this set 
will involve significant involvement by China and how is the 
current U.S.-China friction making that necessary involvement, 
if you think that it is a necessary element, more complicated?
    Mr. Wong. Senator, thank you for the question.
    China does have a role to play here. And we have, 
obviously, a very complicated relationship across the board 
with China right now.
    But one thing that they have consistently said to us is 
that they see North Korea as an area upon which we can build 
cooperation or continue to cooperate. Now, that is a good 
sentiment. That is a good message, and I do believe we have 
overlapping interests with China on the peninsula, perhaps not 
identical interests but overlapping interests. So we can grow 
that. But that takes work. That takes diplomacy and 
communication. And that does take real action and commitment 
from the China.
    Now, you remember in 2017 at the U.N., China did come 
aboard with unprecedented sanctions and they have done a lot to 
implement those sanctions as far as taking down the two-way 
trade to really extremely low levels with North Korea.
    But there continues to be more work that China can do, 
particularly on sanctions enforcement. And this is a continued 
conversation that we have with the Chinese that Deputy 
Secretary Biegun has specifically held with the Chinese. They 
can do more, but we need to keep the lines of communication 
open. We will not always agree but we should continue to 
communicate, continue to work together because again we do have 
overlapping interests on the peninsula.
    Senator Kaine. Mr. Wong, thank you.
    Mr. Chair, I cede back.
    The Chairman. Thank you, Senator Kaine. That was an 
important line of inquiry, and I appreciate you doing that.
    Besides myself and Senator Menendez, are there any other 
members of the committee on the call?
    [No response.]
    The Chairman. If not, Senator Menendez, I will recognize 
you again.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me go back to General Dayton. General Dayton, just so I 
understand, is it your view that, if confirmed, your 
responsibility as the U.S. Ambassador is to not only report and 
share information with the executive branch but also Congress?
    Mr. Dayton. Of course, Senator. I do believe that.
    And let me clarify something for both you and Senator 
Murphy, if I may.
    The questions originally came in about Mr. Giuliani, and I 
would like to put Mr. Giuliani off to the side for a second.
    If I as the U.S. Ambassador in Kyiv have any indication 
that there is any kind of election interference going on using 
Ukraine as a lever to do that, I would, of course, report that 
directly to this committee. I think you have a right to know 
that. I think I have an obligation to report that to you.
    I hope I did not make it unclear. What I was trying to say 
was that if somebody wants to see me, I will critically assess, 
but as far as the responsibilities of this committee, in a case 
like that, I agree with you on that.
    Senator Menendez. Well, I appreciate that additional 
clarification. It is very helpful.
    Let me ask you this on two substantive questions. If 
Congress was to pass additional legislation to increase 
security assistance for Ukraine, what sectors of the Ukrainian 
security forces would you propose be strengthened?
    Mr. Dayton. It is a great question, Senator. We are already 
working on it. The answer is the navy, and the answer is the 
air force. Those are the two sectors that need the most work. 
And we are already working on that. Largely through the 
generosity of your committee and the
    U.S. Senate, the Ukrainians have the ability now to deal 
with some of the things in coastal control, maritime domain 
awareness, that are very, very important. And as I said 
earlier, the Black Sea in my view will become an increasingly 
important area for all of us to be looking at strategically.
    Senator Menendez. Okay.
    And finally, it is a developing democracy, and there remain 
significant reform challenges. If confirmed, what would be your 
priorities on reform and your plan to see them come to 
fruition?
    Mr. Dayton. I would tell you that it is probably what I 
would call rule of law and the judiciary. You are right. It is 
an emerging democracy. It is not there yet. It is working very 
hard. I get a lot of young Ukrainians here at the Marshall 
Center who are very idealistic, working in these areas of 
countering corruption and countering the old ways, and they 
tell me almost to a person that it is the judiciary that is the 
problem, that they can come up with cases to put before the 
judiciary and the cases are either dismissed or they are 
delayed for so long that they are no longer meaningful. This is 
an area that I think is very, very important, and it will be 
probably my number one priority, if I were confirmed.
    Senator Menendez. Well, thank you very much for those 
answers.
    Ms. Barber, let me go back to you. On the issue of women's 
rights and empowerment, can you provide us with your 
understanding of whether women can meaningfully participate 
[inaudible] if they are not able to have autonomous control of 
their own bodies supported by comprehensive access to sexual 
and reproductive health?
    Ms. Barber. Senator, I will say that the United States has 
historically and continues to be the largest contributor for 
programs that help women and children, the health and wellness 
of women. And I believe that we continue to support women's 
health.
    Senator Menendez. Okay. You are a very capable attorney 
from what I am told. Let me repeat my question.
    On this issue of women's rights and empowerment, the 
question goes to can a woman from your perspective as someone 
who is going to be at ECOSOC and be involved with these 
issues--can they meaningfully participate in the economy if 
they are not able to have autonomous control of their own 
bodies supported by comprehensive access to sexual and 
reproductive health? Yes, no?
    Ms. Barber. Senator, I would say that it is a difficult 
question to answer, but I believe that we need to help women 
find ways to meaningfully participate in their economies. And I 
think that they can. But I think in some countries, they need 
help. And if confirmed, I look forward to adding my voice to 
the United States' efforts that already exist to helping women.
    Senator Menendez. Well, I appreciate that. But here is the 
problem. You know, you are going to be in a position in which 
the issues that I have just raised with you are going to be a 
significant part of your portfolio. You may want to skirt them 
with me. You may not want to offend somebody who maybe has been 
part of your nominating process, but you will be representing 
the totality of the United States of America. And our law has 
been very clear in this regard. Our pursuits, our engagement 
has been very clear in this regard. So you leave me unnerved by 
your answer.
    Let me ask you this. Will you commit to complying with the 
Siljander Amendment prohibition on lobbying for or against 
abortions in multilateral forums? I cannot hear you. Can you 
put your microphone on?
    Ms. Barber. Yes, Senator.
    Senator Menendez. Thank you. All right.
    Let me turn to Mr. Wong. Mr. Wong, over the past several 
years, the U.S. has taken actions that have downgraded its 
engagement with a number of critical U.N. bodies and programs. 
It has racked up nearly $1 billion in arrears on its U.N. 
peacekeeping dues, withdrawn from the Human Rights Council, 
withheld funding from the U.N. Human Rights, abrogated its 
participation in other U.N. institutions and initiatives, 
including the Paris Agreement, most recently submitted 
paperwork to withdraw the United States from the World Health 
Organization in the midst of the global pandemic. So as someone 
who is being nominated to participate in probably the premier 
multilateral forum, do you agree with these decisions to 
withdraw from key multilateral bodies at a time in which the 
world faces enormous global issues?
    Mr. Wong. Senator, thank you for the question.
    Let me just start by saying I think the U.N. is a vital 
institution. I think the U.N. system, largely due to U.S. 
leadership and U.S. funding over the decades, has developed a 
number of institutions to benefit not just U.S. interests but 
to support the U.N. Charter. I am mainly speaking of 
peacekeeping operations, World Food Program, UNICEF, 
counterterrorism bodies, the whole phalanx of bodies that we 
support, and we continue to lead and are the number one funder 
of.
    Now, you talked about withdrawal from certain 
organizations. I do think when there is an organization that 
does not abide by the U.N. Charter, which does not live up--
where reform or the path to reform is not available with 
continued U.S. participation, withdrawal should be considered 
because it is a strong incentive for reform to get those bodies 
up to again fulfilling the principles in their missions, as 
well as the U.N. Charter.
    But putting aside withdrawal, which is a decision not to be 
taken lightly, we do need concerted diplomacy, concerted U.S. 
leadership to galvanize our likemindedness to blunt damaging 
initiatives, but also to reform and keep these organizations 
honest to the U.N. Charter.
    Senator Menendez. Well, let me just take your explanation 
to [inaudible] United Nations.
    Mr. Wong. Sir, thank you for your question.
    I do not think that is the case with the grand majority of 
organizations that we support. Again, I do think the U.N. 
system is a vital institution that fulfills not just our 
interests but again the interests of our friends and allies and 
the interests of people around the world. That is in the U.N. 
Charter. So I do not think we are there with the grand majority 
of organizations.
    But we will continue to do the work to ensure that the 
organizations across the U.N. system, but particularly in my 
portfolio in the security space, in the peacekeeping space, 
that those do remain faithful to the charter and those do 
advance global interests and do not compromise the principles 
that all countries signed up to when they signed up for the 
U.N. Charter.
    Senator Menendez. Well, I worry that when we recede, China 
accedes and ultimately fills in the space and seeks to mold the 
institution in its own desire. And so it is a real concern as 
we move forward.
    But let me talk about peacekeeping since you just raised 
it, not particularly in your portfolio. Do you agree that 
peacekeeping operations are an important example of burden 
sharing by countries across the globe?
    Mr. Wong. I do agree with that, sir.
    Senator Menendez. And if confirmed, will you work to ensure 
that peacekeeping operations continue to primarily feature in 
the UN's efforts to mitigate conflict?
    Mr. Wong. I do, sir.
    Senator Menendez. But what happens when we promote those 
views, which I agree with you on--I agree with your answers--
particularly to our allies when we fail to honor our financial 
commitments to missions that we ourselves have voted for on the 
Security Council?
    Mr. Wong. Senator, thank you for the question.
    I agree with you that peacekeeping operations have to be 
appropriately funded so they can complete their missions. They 
need to be effective to create stability in terms of security 
so we can hand it off to have ultimate political stability in 
these hotspots around the world.
    Now, you have mentioned arrears. You have mentioned 
funding. I do want to note the United States remains by far the 
number one funder of peacekeeping operations around the world, 
but we do abide by the policy and I think a legislative policy 
that we should not fund more than one-quarter, or 25 percent, 
of the budget. I think our assessment, if my numbers are 
correct, is around 27.8 or 28 percent. So we are falling short 
of that. That is because of I think a very reasonable policy. 
We supply one-quarter of these funds. We do think other 
countries should step up. There are 193 member states of the 
United Nations. We do take on a lot of the burden because we 
are the world's leader. We are the world's only super power, 
but I think 25 percent is a reasonable number.
    But, look, I look forward, if I am to be confirmed, sir, on 
engaging on this issue and continuing the consultation with you 
and you office, as well as this committee, on this important 
issue.
    Senator Menendez. I just think I have a real concern when 
we at the Security Council vote for peacekeeping operations and 
then we fall in arrears of our commitment. So even if we are 
the largest, then if we think that a peacekeeping operation is 
in the national interests of the United States, then we have to 
see that its mission can be achieved. So I appreciate your 
global answer, but this is going to be a continuing issue as to 
how we cast our vote and then how we ultimately deal with the 
mission itself in terms of its funding.
    Let me finally turn to Mr. Burrier and our nominee for 
Belarus. Mr. Burrier, do you believe it is appropriate for the 
DFC to be undertaking domestic supply chain interests?
    Mr. Burrier. Senator, as you know, the President signed an 
executive order to give us that limited 2-year authority. I am 
comforted by the fact that we have structured that so that that 
authority is going to take place under the Defense Production 
Act and not compete with the resources for the DFC and our 
international mission, which I am committed to.
    Senator Menendez. Yes. Well, when I helped create the DFC, 
I can tell you it is not what I was supportive of creating to 
do. The DFC has an international development role. And I do not 
expect--not only was it not in its mandate, I do not expect 
that the staff and resources that are going to be used take 
away from the congressionally mandated mission. And so I am 
seriously concerned about that.
    I am also concerned--you know, I successfully fought to 
include OPIC's environmental and social policy statement, to 
transfer it to the DFC. I need to understand how the DFC 
published a new ESPS that looks very different from the ESPS 
that section 606 of the BUILD Act was supposed to transfer. I 
need you to explain how these changes were made without 
violating section 606. And I do not have anything against 
nuclear power. It exists in New Jersey. But I am very skeptical 
of DFC's new policy to consider proposals to build nuclear 
power plants in developing countries regarding security, 
environmental concerns, long-term debt management, constraints 
at nuclear plants would be crippling to many developing 
countries. So explain to me what you all did as it relates to 
that provision and does not violate what the law actually says.
    Mr. Burrier. Yes. No. Thank you very much, Senator. And I 
worked with your staff on that provision. Section 1466 of the 
BUILD Act did transfer OPIC's environmental policy to the DFC.
    Since that time, we did voluntarily notice for a period of 
public comment a proposed change to OPIC's nuclear policy. That 
was a voluntary effort on our end. We thought that it made 
sense that since the BUILD Act was part of modernizing our 
development finance capabilities, to see if it made sense to 
take a fresh look at that policy. We heard from many members of 
the committee, got a lot of support for that change to allow us 
to consider nuclear projects.
    But I want to assure you that that does not change the 
countries that we would operate in or our developmental 
mandate. We believe strongly that energy is a key driver of 
economic development and see a role for the modern, small-
medium reactors that are coming on line in the future and want 
to work closely with the committee as that policy develops to 
ensure that you have the information you need.
    Senator Menendez. Well, if you are confirmed--we will 
follow up with the agency no matter what, but if you are 
confirmed, I definitely want to follow up with you to make sure 
that what was the law maintains not only in its actions, but 
then its spirit as well.
    And finally, if I may, Mr. Chairman, Ms. Fisher, allow me 
to ask you. We rejoice in seeing the movement that Belarus is 
taking, but the President of Belarus may be moving away from 
Moscow, but he is clearly not moving towards democracy.
    Do you agree with the principles that were laid out in the 
Belarus Democracy Act?
    Ms. Fisher. Yes, sir, I do.
    Senator Menendez. How should the United States approach the 
issues of sanctions with respect to Belarus?
    Ms. Fisher. Senator, I would urge that we approach them 
carefully. I would not support any hasty judgments to move on 
sanctions. I think they were put in place for specific concrete 
reasons. In the absence of progress in those areas, we should, 
I would suggest, consult very carefully between the 
administration and this committee, as to our assessments and 
our judgments, progress that we may or may not see with regard 
to those sanctions.
    Senator Menendez. Let me phrase it this way. Do you agree 
with the current posture where sanctions are suspended but 
could snap back in the event of a regime crackdown?
    Ms. Fisher. I think that the suspension of those sanctions 
has been a very useful tool in this moment. And I do believe 
that they are a very valuable tool for us, should we see steps 
backwards. It is very hard for me to predict when, if, what are 
the precise conditions under which we would do that, 
particularly given how challenging it will be to understand 
conditions on the ground in the coming days and weeks with the 
lack of observer missions, the limited number of people who 
will be observing these elections. But the suspension is a very 
useful tool for us. Yes, sir.
    Senator Menendez. And finally, how do you intend to engage, 
if you are confirmed, with the Belarusian Government on issues 
like more competitive democratic elections and ending 
politically motivated detentions? What specific actions do you 
think we should prioritize and respond to each of those 
problems?
    Ms. Fisher. I think, sir, my own experience in this part of 
the world tells me the most important thing we do is we have an 
honest and a direct conversation with a range of authorities. 
In Belarus, there is one person whose opinion matters most, but 
helping to build confidence to make progress in these areas and 
seeing this as a step that helps ensure Belarus' sovereignty 
and independence I think is an effort that takes time and it 
takes repeated engagement and conversations. I think the 
importance of a message that is unified from Washington--and I 
think out of Washington we have spoken very clearly I think 
with one voice, and that has been very useful. The statement 
from Senators Rubio and Cardin and Durbin on the conduct of the 
elections, in addition to Secretary Pompeo's statement, in 
addition to what our embassy in Minsk just put out, that is 
incredibly important as Belarus makes a calculation about its 
own standing.
    Belarus has been very clear that they are seeking further 
engagement with the West. It is very clear how many strings are 
attached to Moscow's engagement in Belarus. It is also clear 
the high costs of doing business with [inaudible]. But for us 
in the West and not just the United States, but for us in the 
West, seeing Belarus make progress in these areas is absolutely 
essential.
    The Chairman. Well, thank you.
    Mr. Chairman, you have been true to your word. You have 
been very generous with the time. I appreciate it, considering 
the size of the panel.
    The Chairman. Thank you, Senator.
    I want to comment just very briefly on your conversation 
with Mr. Burrier regarding the mission of the DFC and the way 
they are operating that. I think Mr. Burrier laid out really 
clearly--and I sincerely appreciate your concerns regarding the 
issues you raised. You know, the DFC's job is clearly spelled 
out.
    There is nothing more important to development than 
electricity and energy. Right now, in my home State, the Idaho 
National Laboratory, which was the birthplace of nuclear power 
in the world, has built 52 different reactors. They are now in 
the process of building what they call the SMR, the small 
modular reactor. And even before that one is done, they have 
moved to the micro reactor that is actually portable. It is on 
a trailer. These things are going to be absolutely critical to 
development in difficult parts of the world.
    So I applaud what DFC is doing in that regard, and I am not 
by that challenging your concerns about that. I think they are 
concerns that should be considered, but as we move forward, I 
think we all need to join together, particularly when we have 
the ability to do 123 agreements that hopefully will spread the 
use of electricity around the world and do it where we do not 
get proliferation. And we are the vendor instead of countries 
and vendors who do not care about nuclear [inaudible].
    So those are just a few remarks that I have, but in no way 
do I demean your thoughts regarding the operation of the DFC. 
So thank you, Senator Menendez.
    So with that, we are going to end the hearing, and thanks 
to our nominees. There is certainly some real talent here. And 
especially thanks to your families who will share in sacrifices 
that you make. We truly appreciate them. I want to extend our 
appreciation for that.
    For the committee, the record will remain open until the 
close of business tomorrow, and any questions that are asked, 
we would appreciate that those of you who are nominees get back 
very quickly, as quickly as possible.
    Thank you and thanks to all for participation in the 
hearing.
    With that, the hearing is adjourned.
    [Whereupon, at 11:16 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record
       Submitted to Edward A. Burrier by Senator Robert Menendez

Defense Production Act
    Question. The President's delegation of Defense Production Act 
authority to the DFC is unrelated to the DFC's mission as established 
by the BUILD Act.

    Answer. While I have not been involved in the efforts surrounding 
DPA, I have worked with the agency to supply the answers below. If 
confirmed, my focus will be on DFC's core international development 
mission.

    Question.  Do you believe that the DFC was created to help support 
or bolster domestic supply chains?

    Answer. DFC has decades of experience and institutional expertise 
in lending. This experience and expertise is now being applied to 
domestic projects for a time-limited period to assist DoD in standing 
up an important loan program and help the country respond to and 
recover from the COVID-19 health crisis.

    Question.  How does the DPA delegation of authorities advance the 
DFC's purpose and mission, according to Sec. 1412(b) of the BUILD Act 
to mobilize and facilitate the participation of private sector capital 
and skills in the economic development of less developed countries . . 
. and countries in transition from nonmarket to market economies?

    Answer. The DPA authority delegated to the CEO of the DFC operates 
in accordance with the purpose and mission of the DPA statute.

    Question.  What steps have been or will be taken to ensure that the 
activities under the DPA do not distract DFC from its core mission and 
to minimize the burden on DFC's staff?

    Answer. DFC entered into a Memorandum of Agreement (MOA) with DoD 
(which is publicly available at www.dfc.gov/dpa) to ensure all costs 
associated with implementing the DPA program are paid for by the DPA 
Fund. Time-limited staff to work on the DPA program are being hired so 
that DFC staff stay focused on the DFC mission. Staff is also working 
with DoD to assist them in developing expertise and capabilities to 
potentially operate a DPA loan program.

    Question.  Will the DPA funds the DFC is managing also cover 
salaries, overhead, and other operational expenses incurred by the DFC 
in executing the authorities the President is delegating to the DFC 
under the DPA?

    Answer. Yes.

    Question.  The DFC's first announced DPA loan is to improve 
domestic supply of pharmaceutical ingredients. Does this loan support 
activities or improve capacity to prevent the current spread of COVID-
19?

    Answer. The project referenced is not yet a completed loan. The 
announcement was of a Letter of Interest following the successful 
completion of the initial screening phase. On Friday, August 7, 2020, 
it was publicly announced the loan application is not proceeding at 
this time.

    Question. Is stopping (slowing) the spread of COVID-19, and 
preventing new infections of COVID-19 the top public health priority in 
the fight against this pandemic?

    Answer. Yes.

    Question. What deals, either domestically under the delegated 
authorities of the DPA or in the DFC's regular international work, is 
the DFC pursuing to combat the spread of COVID-19 and reduce COVID-19?

    Answer. Under the DPA authority, the agency is pursuing multiple 
projects in the pharmaceutical, vaccine, PPE, and testing space. 
Internationally, DFC is working to identify innovative investments that 
will strengthen health systems in less developed countries. Such 
interventions might include financing innovative healthcare delivery 
models, digital health solutions, medical services, and manufacturing 
supply chain and distribution. DFC will seek to invest both in the near 
term for COVID-19 response, as well as to help address pressing long-
term health challenges in the developing world.

    Question.  DFC has invited companies to apply for financing under 
the Defense Production Act for projects supporting domestic production 
of drugs, personal protective equipment and other medical supplies such 
as vaccines or virus testing materials. How many companies have applied 
for financing?

    Answer. Fifty-four applications for DPA financing have been 
received.

Kodak
    Question. The DFC recently announced its first Defense Production 
Act loan: $765 million to Kodak for production of pharmaceutical 
ingredients.

    Answer. On Friday, August 7, 2020, it was publicly announced the 
loan application is not proceeding at this time.

    Question.  Why was the first announced loan under DPA authority for 
a project that will not directly contribute to the nation's COVID-19 
response?

    Answer. The project referenced is not an approved loan. The 
announcement was of a Letter of Interest following an initial screening 
phase. On Friday, August 7, 2020, it was publicly announced the loan 
application is not proceeding at this time.

    Question.  Does DFC plan to use its DPA authorities for projects 
that will directly contribute to the nation's COVID-19 response?

    Answer. Yes.

    Question.  What steps were involved in DFC's ``initial screening'' 
process of Kodak?

    Answer. The initial screening of Kodak followed the same steps as 
all other projects have or will follow. The DPA team conducted pre-
application calls with the company to discuss the potential project 
(some applications are submitted directly without any pre-application 
calls, but the many if not most applications are preceded by pre-
application, (or ``pre-screening'') calls). Kodak then submitted an 
application. A DPA loan officer was assigned to the application and 
developed a screening memo that was shared with interagency colleagues 
at DoD and HHS. Agencies then provided due diligence questions to the 
loan officer to be answered by the applicant, which was completed. The 
loan officer then came to tentative agreement on specific terms in a 
non-binding term sheet with the applicant. Following the term sheet 
negotiations, the LOI was signed.

    Question.  What will DFC's ``standard due diligence'' of Kodak, yet 
to be conducted, consist of? \1\
---------------------------------------------------------------------------
    \1\ https://www.dfc.gov/media/press-releases/dfc-sign-letter-
interest-investment-kodaks-expansion-pharmaceuticals

    Answer. Standard due diligence for the Kodak project would be the 
same as any other project, including approval by the DPA credit 
committee, and legal, environmental, and other credit due diligence. 
This would include independent appraisal of collateral, Know Your 
Customer checks, independent validation of financial projections, and 
agreement of a final finance agreement including performance benchmarks 
---------------------------------------------------------------------------
among other conditions precedent to funds disbursement.

    Question.  Which other companies did DFC consider for the purposes 
of this loan?

    Answer. Consideration of Kodak for DPA financing did not come at 
the expense of other companies. The DPA team is actively working with 
multiple other pharmaceutical companies, both pre and post application.

    Question.  Which other companies submitted proposals for financing 
to meet similar purposes of this loan?

    Answer. The answer to these questions would disclose very sensitive 
business confidential and company strategy information and would 
jeopardize the DPA program's ability to obtain this necessary 
information on which the agency relies in evaluating loans under this 
program.

    Question.  Did Kodak attempt to obtain financing from the private 
sector before approaching DFC for the loan?

    Answer. Eligibility for a DPA loan is dependent on an applicant not 
being able to raise capital from private sources on reasonable terms. 
Over the life of the loan origination process, DPA will continually 
attempt to work with an applicant on potential additional sources of 
financing.

    Question. If yes, why did it not secure that financing? If no, why 
did it not try the private sector first?

    Answer. Eligibility for a DPA loan is dependent on an applicant not 
being able to raise capital from private sources on reasonable terms. 
Over the life of the loan origination process, DFC will continually 
attempt to work with an applicant on potential additional sources of 
financing.

    Question.  How long will it take Kodak to repurpose its 
manufacturing lines and begin production of the proposed pharmaceutical 
ingredients?

    Answer. The answer to this question would disclose very sensitive 
business confidential and company business strategy information and 
would jeopardize the DPA program's ability to obtain this necessary 
information on which staff relies in evaluating loans under this 
program.

    Question.  How much expansion will be needed and how much of those 
costs will this loan cover?

    Answer. The answer to this question would disclose very sensitive 
business confidential and company business strategy information and 
would jeopardize the DPA program's ability to obtain this necessary 
information on which staff relies in evaluating loans under this 
program.

    Question.  Peter Navarro has stated that the federal government 
will purchase some of Kodak's production for a federal stockpile: how 
much of which ingredients is the federal government planning to 
purchase, and at what price? \2\
---------------------------------------------------------------------------
    \2\ https://www.washingtonpost.com/business/2020/07/28/kodak-
produce-pharmaceutical-ingredients/

    Answer. The answer to this question would disclose very sensitive 
business confidential and company business strategy information and 
would jeopardize the DPA programs ability to obtain this necessary 
information on which staff relies in evaluating loans under this 
---------------------------------------------------------------------------
program.

    Question.  DFC CEO Boehler and Peter Navarro have stated that 
``some drug companies plan to sign advance purchase orders for Kodak's 
ingredients.'' \3\ Which companies have made these plans, how much of 
which ingredients do they plan to purchase, and at what price?
---------------------------------------------------------------------------
    \3\ https://www.washingtonpost.com/business/2020/07/28/kodak-
produce-pharmaceutical-ingredients/

    Answer. The answer to this question would disclose very sensitive 
business confidential and company business strategy information and 
would jeopardize the DPA program's ability to obtain this necessary 
information on which staff relies in evaluating loans under this 
---------------------------------------------------------------------------
program.

    Question.  Has DFC has implemented any additional safeguards to 
prevent potential insider trading related to DPA deals it is 
negotiating?

    Answer. With respect to federal employees they must adhere to their 
ethics obligations and have been reminded of that obligation. In the 
context of a loan program, we cannot control private sector party 
actions, but we can ultimately decide to not proceed with a loan.

Environment and Social Policy and Procedures
    Question. The Saving Provisions in Section 606(a)(2) of the BUILD 
Act (Section 1466(a)(2) of the BUILD Act as engrossed in the 2018 FAA 
reauthorization Act) states: that ``Completed Administrative actions'' 
of OPIC, which included ``policies,'' would not be affected by the 
establishment of the DFC and would be transferred. With respect to the 
Environmental and Social Policy Statement (ESPS) specifically, on May 
8, 2018 OPIC's Deputy General Counsel, Cameron Alfred, assured Congress 
that ``As a result of the inclusion of the word `policies'in Section 
606(a)(2) of the BUILD Act, OPIC's ESPS will be transferred to the U.S. 
Development Finance Corporation. Accordingly, this will become the 
policy of the DFC.''
    In January, the DFC published a new Environment and Social Policy 
and Procedures that makes many changes to the language of the 2017 
ESPS.

   What procedures did the DFC follow to develop and complete the 
        changes and differences between the 2020 ESPP and the 2017 
        ESPS?

    Answer. Senior career staff were tasked with publishing the 2020 
ESPP for DFC. They were advised to make no substantive changes. 
Substantive changes are ones that would have enlarged or contracted the 
scope of transactions the DFC could support. In their professional 
opinion from a legal perspective and environmental perspective, all 
changes made to the document were non substantive in nature and would 
not result in the DFC being able to support a transaction that was 
prohibited when the agency was OPIC. We have provided a track change 
version of the ESPP to your staff and the change your staff believed 
was optically substantive was restored to the previous language.

    Question. Did the DFC include congressional consultations and 
public and stakeholder engagements on the development and completing of 
the changes and differences between the 2017 ESPS and the 2020 ESPP?

    Answer. The intent was to only make non substantive updates to 
grammar, references and clarity without changes to policy. If the 
agency planned to make substantive changes it would have consulted with 
the relevant committees.

    Question. What obligation do you believe Sec. 1466(a)(2) places 
upon the DFC to follow robust consultative procedures when changing 
(OPIC's) transferred policies?

    Answer. There was no intent to change policies therefore we did not 
engage in consultation. Had the agency planned to make substantive 
changes, the agency would have consulted.

    Question.  It is my understanding that the DFC contends the changes 
to the ESPP were made as part of a broad housekeeping exercise and will 
not result in a substantive change in the execution of DFC policy. 
While it may be true that some of the changes are merely housekeeping 
matters, there are several changes that could be interpreted a 
significant policy changes.

   Will you commit to explaining how the differences between the 2017 
        ESPS and 2020 ESPP do not constitute substantive policy 
        changes?

    Answer. Yes, staff who made the changes and who implement the 
policies remain available to discuss.

    Question. If the DFC in fact does not intend to interpret the 
differences in language between the 2017 ESPS and the 2020 ESPP, are 
you to reverting/restoring changed language that give me cause for 
concern?

    Answer. DFC restored the language on August 4, 2020.

    Question. I do not contend that Sec. 1466(a)(2) of the BUILD Act 
obligates the DFC to maintain the 2017 ESPS in perpetuity. However, 
will you commit to me that you will conduct robust consultative 
processes, that include engagements with the Senate Foreign Relations 
Committee and non-governmental stakeholder organizations, when the DFC 
develops and proposes changes to the ESPS/ESPP?

    Answer. As was evidenced by the way DFC conducted the proposed 
change to its nuclear policy, I support a consultative process whenever 
there is a substantive change that enlarges or contracts the scope of 
transactions DFC can support.

DFC's New Nuclear Policy
    The DFC recently approved a new policy, which followed 
congressional consultation and public comment processes, to allow 
consideration of nuclear energy projects. I have no problem with 
nuclear power when it can be operated safely, securely, skillfully and 
provided affordably, as we do in New Jersey. I am less sure all of 
these essential criteria for successful nuclear power production is 
possible in much of the developing world.

    Question. When considering loans and other supports for projects 
associated with nuclear power projects, will the DFC consider the 
following:

   How countries will responsibly manage, transport, store, and 
        dispose of the nuclear waste generated?

    Answer. Yes.


   What measures local operators will take to ensure the security of 
        the nuclear power facilities to eliminate the isks of terrorist 
        and insurgent attacks and other malevolent actors?

    Answer. Yes.


   The capacity for countries and power providers to manage and 
        operate these facilities over the long-term?

    Answer. Yes.


   The long-term debt a country could be saddled with by operating a 
        nuclear power plant?

    Answer. Yes.


   Will the DFC seek assurances and require host countries and local 
        proponents of nuclear projects to provide detailed plans for 
        managing these risks?

    Answer. Yes.

    Question. The policy expressly aims to support ``advanced small 
modular reactors''.

   Are there any advanced small modular reactors in commercial 
        operation?

    Answer. To the best of my knowledge, no.

   When will advanced small modular reactors be ready for commercial 
        deployment?

    Answer. While estimates vary, DFC's policy change signals that its 
financing would be a possibility once this technology is safely 
available.

Overview of Expanded Development Mandate
    Question. As you are aware, the United States International 
Development Finance Corporation (DFC) has additional legislative 
mandates, like women's economic empowerment, a focus on lower income 
countries, and a stronger development focus. Please describe how you 
plan to ensure these and other new mandates are successfully 
implemented throughout the DFC, especially in a flat funding 
environment?

    Answer. If confirmed, I commit to working to ensure DFC fulfills 
its development mission. I will empower the Chief Development Officer, 
the office of Women's Economic Empowerment and prioritize projects in 
low-income and low-middle income countries. We have also taken other 
process changes to meet these mandates. For instance, the agency's new 
``Impact Quotient'' helps to evaluate projects for their development 
impact and projects are actively viewed with an eye towards their 
impact on women. I am pleased to report that DFC's 2X Women's 
Initiative has catalyzed more than $3 billion of investment in projects 
that meet the 2X criteria and has set ambitious targets for the future. 
Additionally, I actively supported the establishment of a new food 
security unit in cooperation with USAID and see the potential for other 
such initiatives.

    Question.  Do any of your plans require additional staff to ensure 
that the new DFC can successfully implement, monitor, and evaluate all 
the mandated areas?

    Answer. If confirmed, I commit to working with the committee to 
ensure DFC has adequate resources to fulfill its development mission.

    Question.  How will you ensure that the DFC is prioritizing higher-
impact investments that potentially incur higher risk and lower reward?

    Answer. In general, BUILD Act envisions DFC as being more forward 
leaning than OPIC. It is important that DFC take higher risk with the 
understanding that the developmental outcomes we want to see 
materialize will only come if a project is financially viable. Thus, 
there needs to be a reasonable expectation of return and lower return 
is the return on investment to the DFC and is not no return to the 
project. The DFC balances those considerations in every private sector 
project it supports.

    Question.  How do you plan on managing and prioritizing limited 
resources while also maximizing the potential of the new DFC?

    Answer. If confirmed, I commit to working with the committee to 
ensure DFC has adequate resources to fulfill its development mission.

    Question.  Will you commit to ensuring that Development outcomes 
drive the mission and agenda for the DFC?

    Answer. Yes.

    Question.  How will you empower the Office of the Chief Development 
Officer?

    Answer. I strongly support the BUILD Act's creation of the Chief 
Development Officer role at DFC. Earlier this year, we hired our first 
CDO, and if confirmed I will continue to support the office to ensure 
that the DFC advances developmental projects. In particular, I see a 
role for the CDO to help ensure we are prioritizing projects in low-
income and lower-middle income countries; guiding our ``Impact 
Quotient'' development impact tool; solidifying interagency 
partnerships; convening and bringing new, non-traditional sources of 
capital and partnerships; and bolstering training for U.S. Government 
personnel in the field so DFC is a more readily available tool to 
advance U.S. development and foreign policy.

Economic State Craft
    Question. I am increasingly concerned that the United States is not 
well-positioned to engage in economic statecraft for the twenty-first 
century, including promoting U.S. jobs, business and economic 
interests, engaging in development financing for infrastructure and 
other needs, including climate change-related resiliency, and setting 
standards for emergent technologies and the digital economy. Can you 
expand upon how you view your role and your institution's role, if you 
are confirmed, in helping to renew and replenish U.S. economic 
statecraft instruments?

    Answer. We have a fundamentally different approach from the sort of 
economic diplomacy undertaken by authoritarian China. Rather than 
promoting quick-fix solutions that lead to shoddy projects or ``debt 
trap'' diplomacy, DFC will support investments that do not burden 
governments with debt they cannot afford, utilize local labor, are 
responsible and transparent, and respect a country's sovereignty. A 
fundamental difference is that we are not competing with China on a 
government dollar for government dollar basis. Rather we are leveraging 
the power and ingenuity of the private sector to advance our interests. 
This will help drive economies in the developing world forward through 
investments that are built for the long haul. That's the true 
alternative to authoritarian financing which can leave developing 
countries worse off. The flexibilities Congress provided DFC in the 
BUILD Act allow DFC to be more proactive and less reactionary than 
OPIC.

    Question.  Where do you see the biggest challenges? Biggest 
opportunities?

    Answer. The lower the income of the country, the harder it is for 
the private sector to finance projects, which makes DFC's role more 
critical and additional. Hidden subsidies provided by strategic 
competitors in the technology sector pose a challenge, as many times 
DFC financing cannot put competing technologies on equal footing.

    Question.  Have you considered developing an internal incentive 
structure to reward staff for positive development outcomes and the 
avoidance of negative environmental and social impacts?

    Answer. If confirmed, I would be willing to explore such a 
structure, consistent with U.S. law.

    Question.  The (BUILD Act) places an increased emphasis on 
development outcomes and impact. How do you plan to help guide this 
cultural shift?

    Answer. I have actively supported the Chief Development Officer, 
and if confirmed, I will continue to support the office to ensure that 
development is infused throughout the organization. For instance, the 
agency's new ``Impact Quotient'' helps to evaluate projects for their 
development impact. Additionally, I actively supported the 
establishment of a new food security unit in cooperation with USAID.

    Question. Have you considered developing an internal incentive 
structure to reward staff for positive development outcomes and the 
avoidance of negative environmental and social impacts?

    Answer. If confirmed, I would be willing to explore such a 
structure, consistent with U.S. law.
Countering Chinese Development Influence
    Question. The DFC is often cited as part of the administration's 
response to China's Belt and Road Initiative, but while the DFC can't 
compete with China's investments dollar for dollar, with the help of 
the DFC's enhanced toolkit the U.S. will be better positioned to offer 
an alternative to China's investment model-a key feature of which is 
opacity. Under provisions of the BUILD Act, the DFC will need to make 
public detailed project-level information, to the extent practical. 
Recognizing there are issues of commercial confidentiality to navigate, 
if confirmed, will you commit to working to ensure the DFC is best in 
class when it comes to DFI transparency?

    Answer. Yes.

    Question.  Would that include considering publishing financial 
terms (even if on a time delay) or working with other DFIs to release 
anonymized contract data?

    Answer. Certain financial terms are already published pursuant to 
current U.S. Law. The DFC is actively working with other DFIs on 
additional transparency, including anonymized data.

Equity Investment
    Question. The BUILD Act granted the DFC limited equity authority, a 
key enhancement over its predecessor OPIC. How important is equity 
authority to achieving DFC's goals? What barriers to you see to 
deploying equity?

    Answer. Equity opens a new category of potential support that OPIC 
couldn't access with debt alone. We will deploy equity--both into funds 
and directly--in highly developmental and highly strategic situations. 
Unlike debt, equity does not come with fixed principal and interest 
repayment requirements, so there could be companies or projects that 
are great investments with significant developmental and/or strategic 
impacts but the monetization of which is not completely predictable 
ahead of time, or where it makes sense to reinvest early profits rather 
than requiring them to be paid to debt service. The use of equity is 
constrained by the amount of funds that are appropriated for such 
purpose.

    Question.  What can Congress do to ensure DFC has the tools it 
needs to fulfill its mandate?

    Answer. If confirmed, I commit to working with the committee to 
ensure DFC has adequate resources to fulfill its development mission.

Transparency
    Question. The DFC must comply with the transparency requirements of 
the Foreign Aid Transparency and Accountability Act (FATAA), as well as 
the BUILD Act. What do you think about the need to balance commercially 
sensitive information with the importance of transparency?

    Answer. Transparency is a bedrock principle of the United States 
and is an important tool to ensuring taxpayer funds are spent 
prudently. However, government programs that deal with commercially 
sensitive information must balance this against disclosing information 
that can cause the private sector project competitive harm.

    Question.  Will you commit to hearing, and providing forums for 
engagement and discussion, from all stakeholders with concerns about 
projects the IDFC is considering--well before any decisions are made by 
the IDFC's board to approve or reject proposals?

    Answer. Like OPIC, DFC continues to hear from stakeholders about 
projects it is considering.

    Question.  Will you commit to ensuring the DFC complies with the 
Sunshine Act?

    Answer. DFC continues to take transparency steps that go beyond the 
requirements of the Sunshine Act.

Interagency Cooperation
    Question. The committee sees the mission of the DFC is enhanced 
when aligned with other government agencies and allies. Would you 
support having officers from other agencies, like USAID, serve details 
at the DFC?

    Answer. Yes.

    Question.  Will you empower, encourage and assist USAID to use 
tools, like the Development Credit Authority?

    Answer. Yes.

    Question.  What are your thoughts regarding partnership with 
agencies such as USAID, State, and MCC as well as partnering with the 
investment organizations of allies such as the Japan Bank for 
International Cooperation or JBIC?

    Answer. All of the trendlines point to the increased use of 
development finance. For the United States to continue to be a leader 
of international development, it is imperative that DFC work closely 
with its interagency partners such as USAID and MCC. For example, I 
actively supported the establishment of a new food security unit in 
cooperation with USAID. Similarly, increased cooperation with peer 
development finance organizations of allies allows us to share burden 
and also sends an important diplomatic signal.

Women's Equality
    Question.  How do you plan to ensure that the DFC fully meets its 
mandate in the Better Utilization of Investments Leading to Development 
Act of 2018 (BUILD Act) [Sec. 1451 (f)] to ``prioritize the reduction 
of gender gaps and maximize development impact by working to improve 
women's economic opportunities'' throughout the DFC's entire portfolio?

    Answer. I will continue to work to strengthen the Office of Women's 
Economic Empowerment. Like OPIC's before it, DFC's 2X Women's 
Initiative continues to set the standard for what it means to invest in 
women. All development indicators note the benefits of this approach as 
women invest back into their families and communities, resulting in 
more stable societies that are in United States' interests. DFC's focus 
on women and its benefits has been infused across the organization and 
I commit to continuing to bolster that work. For instance, projects are 
actively viewed with an eye towards their impact on women. I am pleased 
to report that DFC's 2X Women's Initiative has catalyzed more than $3 
billion of investment in projects that meet the 2X criteria and has set 
ambitious targets for the future.

    Question.  Monitoring, evaluation, and learning are important 
components to ensuring that the DFC's projects positively impact on 
both men and women. The BUILD Act [Sec. 1443 (b) (3) (A)], calls for 
gender-disaggregated data. How do you plan to ensure that this is 
consistently done across the entire portfolio and for all indicators or 
metrics that are about people?

    Answer. The agency is working diligently to implement the various 
reporting requirements of the BUILD Act. DFC's new approach is more 
comprehensive and focused on understanding the different groups of 
individuals that our projects effect developmentally. Data on 
individuals is broken down by the following groups: Women, youth, low 
income, poor, ethnic minority (in that nation), disability status, 
rural vs urban, and other marginalized/disadvantaged groups. From an 
employment perspective, DFC will be collecting data on professional 
skill level, position level, and gender. This will be required for all 
projects in our portfolio.

    Question.  Ensuring women have equal access to economic 
opportunities has the potential to increase women's rights, power, 
autonomy, and also can be a catalyst for growth and change around the 
world. However, there can also be unintended negative consequences for 
women both in the community and the workplace. The DFC currently has a 
process to identify environmental and social risk and create plans to 
mitigate them, do you plan to build on and enhance these efforts to 
ensure that the wide array of risks to women are comprehensively 
included and monitored throughout the full project cycle and across the 
entire portfolio?

    Answer. The DFC's current process of identifying environmental and 
social risk includes analysis for gender disaggregated impacts both in 
the affected groups and the workplace. For the workplace, DFC's 
requirements include the need for human resources policies to include 
those on sexual harassment and equal opportunity and the dissemination 
of clear wage requirements and rights of the workforce. Depending on 
the project-specific vulnerability analysis of the workforce, 
appropriate policies and procedures to manage vulnerable groups are 
also required, as well as monitoring by a third-party when deemed 
necessary. DFC also requires internal, workforce grievance mechanism 
that have appropriate channels for the specifics of their workforce, 
including an anonymous channel.
    There are many good practices still being developed in this space 
and our social risk analysts keep abreast with their U.S. Government 
colleagues as well as fellow Development Finance Institution 
practitioners. As we expand our team, we seek out candidates with 
specific experience in gender analysis and risk.

Development Impact, Monitoring, Evaluation, and Reporting
    Question.  The BUILD Act includes an increase in the legislative 
mandates around monitoring, evaluation, and reporting, in part due to 
the conforming amendment that applies the Foreign Aid Transparency and 
Accountability Act of 2015 (FATAA) [Title IV Sec. 1470-(l)] to the DFC. 
When evaluating projects, how important do you think it is for the 
agency to assess if the project holistically improved the lives of 
people in the intended communities, versus focusing on specific project 
outcomes like increasing the number of jobs available?

    Answer. Comprehensive monitoring involves subjective as well as 
objective measures such as the number of jobs specifically because no 
one indicator alone can adequately evaluate a project.

    Question.  Due to the FATAA conforming amendment, 50% of the DFC's 
portfolio will now have to be evaluated. What are your plans to ensure 
this mandate is met? Will this go beyond having partners fill out a 
self-report questionnaire?

    Answer. DFC is currently assessing remote monitoring to adapt to 
the new environment of less travel due to the COVID-19 pandemic. We are 
exploring various possibilities for environmental and social monitoring 
and DFC staff have participated in several virtual environmental and 
social monitoring visits of our existing portfolio. Currently, this 
process entails virtual meetings with the relevant staff that are 
managing the environmental and social performance of our projects and 
reviewing records and other evidences for said performance. We are in 
the process of contracting with an independent environmental and social 
consultancy to provide support with virtual monitoring.

    Question. If yes, can you briefly explain what an evaluation at the 
DFC would look like under your leadership, and how lessons learned 
would be incorporated into future planning?

    Answer. We are currently reassessing monitoring remotely to adapt 
to the new environment brought about by the COVID-19 pandemic. Future 
planning is always shaped by lessons learned.
    DFC has an expanded focus on Monitoring and Evaluation (M&E) and 
our strategy is inextricably linked to the implementation of the new 
performance measurement system, Impact Quotient (IQ), as DFC will use 
IQ to monitor and evaluate projects it supports.
    In addition, DFC has updated its Development Outcome Survey and is 
leveraging technology solutions to better position itself to monitor 
more projects than ever before. By collecting better baseline data from 
the onset of project financing to a more robust annual data collection 
strategy, the monitoring and evaluation program allows DFC to 
strategically send staff to the projects that needs it most.
    As it did under OPIC, DFC will continue to conduct evaluations for 
policy compliance. By using the information gathered through IQ at the 
initial assessment of the project, analysts will perform site visits 
and assess if projects are achieving, or are on track to achieve, the 
development objectives initially identified.
    In addition to DFC's new M&E approach, DFC is leveraging the global 
presence of the U.S. Government through our sister agencies, namely the 
Department of State and USAID. This cooperation allows DFC access to 
local expertise and relationships with the host country, bolstering our 
ability to monitor and evaluate more projects and better inform our 
peers of the work the agency is conducting around the world.
    If confirmed, I would ensure that DFC continues to refine its 
portfolio evaluation based on lessons learned as we continue to collect 
data. Periodic evaluation will allow for incorporation of those lessons 
for future projects.

    Question.  What are the plans to address the gaps in monitoring 
practices identified in recent reports from USAID's Office of Inspector 
General (2019 and 2015), OPIC's Office of Accountability (2018), and 
the Government Accountability Office (2015)?

    Answer. The recommendations of those offices have been implemented.

Climate Change
    Question.  Do you believe the scientific consensus that human 
activity from burning fossil fuels is driving global warming?

    Answer. Yes.

    Question.  The DFC recently approved the Vaca Muerta fracking 
project in Argentina. The extraction and combustion of natural gas 
poses a myriad of problems for clean air, clean water, wildlife, 
landscapes and ecosystems, human health, local communities, and our 
climate. Leaking natural gas infrastructure is a source of unaccounted 
climate and toxic air emissions which creates emissions hotspots, 
negative human health impacts, and environmental justice issues. How 
can the DFC justify funding a project like Vaca Muerta if it poses a 
threat to the public health of local communities and lock them into 
decades of climate-warming pollution?

    Answer. If confirmed, I'll work to ensure that projects that have 
significant environmental impacts continue to go through detailed 
analysis and assessment by the career professionals at DFC.

    Question.  The DFC continues to weigh approval of the Kosovo e Re 
lignite burner coal fired power plant. The World Bank has rejected 
financing for this project nearly a year ago out due to the greenhouse 
gas emissions that would be associated with this project. Do you 
believe that this project is the best and most responsible energy 
option for the U.S. to support in Kosovo?

    Answer. In March, the potential sponsor of this project withdrew 
its support for the project.

    Question. Do you believe that the World Bank made a prudent 
decision to withdraw from the Kosovo e Re lignite burner project as 
explained in the following statement made by Jim Yong Kim last year: 
``We are required by our by-laws to go with the lowest cost option and 
renewables have now come below the cost of coal. So without question, 
we are not going to [support the plant].''

    Answer. I do not have the ability to comment on the World Bank's 
decision-making process. But if confirmed, I commit to ensuring that 
DFC's decision-making for energy projects appropriately weighs all 
relevant aspects, including development impact, footprint on the local 
community, a country's energy strategy, financial viability, and 
foreign policy considerations.

    Question. Will you commit to working with the Kosovo Government, 
and investors interested in pursuing renewable and low carbon energy 
solutions for Kosovo, as means of finding energy alternatives to the 
Kosovo e Re lignite burner project?

    Answer. Yes.

Oversight
    Question.  If confirmed, do you commit that under your leadership, 
the DFC will not take any action to support, promote, or participate in 
any matters related to, or that could be perceived as benefitting, the 
Trump Organization?

    Answer. If confirmed, I commit to ensuring that all projects are 
evaluated by DFC career officials without regard to political 
affiliation. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. I agree that the federal government should not employ 
prohibited personnel practices. If confirmed, I will maintain a policy 
to ensure that prohibited personnel practices will not take place.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the DFC?

    Answer. DFC is committed to building and advancing a diverse and 
inclusive organization in which the knowledge, skills and abilities of 
all employees are fully utilized to achieve the DFC's mission. Our 
workforce models diversity and professionalism in its daily 
interactions with individuals across the U.S. and around the world. By 
reflecting America's diversity, DFC can provide a wide range of ideas 
and innovative solutions, making us a stronger, more effective 
organization. If confirmed, I will make it a priority to continue to 
maintain a diverse, high-performing workforce.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I commit to respond promptly to all requests 
for information by members of this committee, in accordance with U.S. 
laws and regulations.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the DFC, do you commit to report it to the Inspector General 
or other appropriate channels?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

Democracy/Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?
    Answer. As the Deputy Staff Director for the House Foreign Affairs 
Committee, I actively supported the committee's work advancing human 
rights, most notably in Africa and North Korea. Specifically, I am most 
proud of my efforts which contributed to arms dealer Viktor Bout being 
extradited from Thailand to the United States to face justice. Bout was 
responsible for fueling barbaric wars across the African continent that 
left a brutal wake of human rights abuses. I also actively worked on 
Congressman Royce's effort to ensure that Liberian dictator Charles 
Taylor saw justice in front of the Special Court for Sierra Leone for 
his brutal crimes against humanity.

    Question.  What steps will you take--if confirmed--to support 
democracy? What do you hope to accomplish through these actions? What 
are the potential impediments to addressing the specific obstacles you 
have identified?

    Answer. I believe that a flourishing private sector underpinned by 
transparency, rule of law, sanctity of contracts, and individual 
freedoms help drive democracy. These values are central to DFC's 
mission. If confirmed, I will work to ensure DFC continues to engage 
with countries and private sector actors who share these same values.

    Answer. Authoritarian regimes largely do not share or honor these 
values. Developing countries often fall prey to ``debt trap diplomacy'' 
by such nations, which undermines their sovereignty and ties them to 
questionable actors. DFC offers an alternative to this authoritarian 
lending, which prizes a country's sovereignty, its people, 
transparency, and rule of law.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society within host countries?

    Answer. Yes.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? Will you advocate 
for access and inclusivity for women, minorities and youth?

    Answer. Yes.


                               __________


            Responses to Additional Questions for the Record
         Submitted to John A. Burrier by Senator John Barrasso

    Question. Do you support the International Development Finance 
Corporation financing coal, oil and natural gas projects?

    Answer. Yes.

    Question. Please list all of the current restrictions on financing 
of energy projects, including coal, oil and natural gas, at the 
International Development Finance Corporation.

    Answer. The BUILD Act permits DFC to support financing of energy 
projects regardless of fuel source. Indeed, DFC recently changed a 
legacy OPIC-policy to permit consideration of nuclear energy projects.

    Question. What is your strategy to eliminate all of the current 
restrictions on financing of coal, oil and gas projects at the 
International Development Finance Corporation?

    Answer. The BUILD Act permits DFC to support financing of energy 
projects regardless of fuel source. Indeed, DFC recently changed a 
legacy OPIC-policy to permit consideration of nuclear energy projects.


    Question. Please provide a list of the equity investments made by 
the International Development Finance Corporation under the new 
authority from the BUILD Act.

    Answer. The following equity investments were approved by DFC's 
Board in June and notified to the committee:

 
       EQUITY INVESTMENTS APPROVED BY DFC'S BOARD IN JUNE OF 2021
------------------------------------------------------------------------
Africa Regional--AfricInvest; Equity (Finance and            $35,000,000
 Insurance)
------------------------------------------------------------------------
Southeast Asia--Asia Partners I, LP; Equity (Finance and     $25,000,000
 Insurance)
------------------------------------------------------------------------
Africa Regional--SPE; Equity (Finance and Insurance)         $25,000,000
------------------------------------------------------------------------
India--South Asia Growth Fund; Equity (Finance and           $30,000,000
 Insurance)
------------------------------------------------------------------------
India--Freshtohome; Equity (Finance and Insurance)           $20,000,000
------------------------------------------------------------------------
Mexico/LatAm--Alta Growth Capital Mexico Fund III; Equity    $20,000,000
 (Finance and Insurance)
------------------------------------------------------------------------


    Question. What specific criteria is used by the International 
Development Finance Corporation to decide whether the United States 
should make an equity investment?

    Answer. Each equity investment shall have a clearly defined 
development and foreign policy purpose taking into account the 
following objectives:


   The support for the project would be more likely than not to 
        substantially reduce or overcome the effect of an identified 
        market failure in the country in which the project is carried 
        out.

   The project would not have proceeded or would have been 
        substantially delayed without the support.

   The support would meaningfully contribute to transforming local 
        conditions to promote the development of markets.

   The support can be shown to be aligned with commercial partner 
        incentives.

   The support can be shown to have significant developmental impact 
        and will contribute to long-term commercial sustainability.

   The support furthers the policy of the United States described in 
        22 U.S.C. section 9611.

    Question. With the increased risks and exposure of equity 
investments, what requirements are being put in place to ensure 
adequate oversight and risk management?

    Answer. A variety of governance mechanisms are in place to guard 
against the increased risk of equity investments. By statute, DFC can 
only provide up to 30 percent of the aggregate amount of all equity 
investment made to an individual project and not more than 35 percent 
of DFC's aggregate portfolio exposure can be equity. Further, the use 
of equity is constrained by the amount of funds that are appropriated 
for such purpose. The Board must review and approve all support for 
projects involving equity. The Chief Risk Officer will review and 
assess equity portfolio risk, risk mitigation and diversification 
across sectors, geographies, sponsors, risk categories and report 
regularly to the Board. Every DFC transaction over $10 million is 
notified to the committee.

    Question. Do you believe the International Development Finance 
Corporation should provide equity investments in a foreign state-owned 
enterprise? If yes, under what circumstances?

    Answer. DFC focuses on investments with private sector partners. 
DFC would only consider investments in foreign state-owned enterprises 
in highly developmental or highly strategic situations.

    Question. Do you support the International Development Finance 
Corporation providing equity or investment financing to upper-middle 
income countries like Brazil, China, Mexico, Russia, and Turkey? If 
yes, under what circumstances?

    Answer. DFC is permitted to support financing in upper-middle 
income countries and considers particularly if it would advance 
important objectives such as support for U.S. businesses, women or 
strategic infrastructure. However, DFC does not invest in projects in 
Russia or China.

    Question. What is the International Development Finance 
Corporation's strategy to counter China's Belt and Road Initiative?

    Answer. We have a fundamentally different approach from the sort of 
economic diplomacy undertaken by authoritarian China. Rather than 
promoting quick-fix solutions that lead to shoddy projects or ``debt 
trap'' diplomacy, DFC will support investments that do not burden 
governments with debt they cannot afford, utilize local labor, are 
responsible and transparent, and respect a country's sovereignty. A 
fundamental difference is that we are not competing with China on a 
government dollar for government dollar basis. Rather we are leveraging 
the power, scale, and ingenuity of the private sector to advance our 
interests. This will help drive economies in the developing world 
forward through investments that are built for the long haul. That's 
the true alternative to authoritarian financing which can leave 
developing countries worse off. The flexibilities Congress provided DFC 
in the BUILD Act allow DFC to be more proactive and less reactionary 
than OPIC.

    Question. In what ways is the portfolio of investment projects that 
the DFC supports similar to or different from that of OPIC, both in 
terms of location and sectors?

    Answer. DFC prioritizes investments in low-income and lower-middle 
income countries and seeks to conduct at least 60 percent of its work 
in these markets. It is expected that the portfolio of DFC investments 
will change as a result of the COVID-19 pandemic. It is likely that DFC 
will increase its support to local financial institutions which can 
then on-lend to small and medium-sized enterprises as a means to 
continue to support these economies which are being profoundly impacted 
by the pandemic.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Edward A. Burrier by Senator Benjamin L. Cardin

Human Rights
    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As the Deputy Staff Director for the House Foreign Affairs 
Committee, I actively supported the committee's work advancing human 
rights, most notably in Africa and North Korea. Specifically, I am most 
proud of my efforts which contributed to arms dealer Viktor Bout being 
extradited from Thailand to the United States to face justice. Bout was 
responsible for fueling barbaric wars across the African continent that 
left a brutal wake of human rights abuses. I also actively worked on 
Congressman Royce's effort to ensure that Liberian dictator Charles 
Taylor saw justice in front of the Special Court for Sierra Leone for 
his brutal crimes against humanity.

Diversity
    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I firmly agree with the premise of the question: diversity 
of background, experience, heritage, and viewpoint will ultimately 
deliver a more thoughtful, dynamic, and inclusive result. I am proud to 
work at an agency that values diversity. If confirmed, I commit to 
supporting the hiring and retention of staff from diverse backgrounds 
and underrepresented groups.


    Question.  What steps will you take to ensure each of the 
supervisors at U.S. International Development Finance Corporation are 
fostering an environment that is diverse and inclusive?

    Answer. DFC is committed to building and advancing a diverse and 
inclusive organization in which the knowledge, skills and abilities of 
all employees are fully utilized to achieve the DFC's mission. Our 
workforce models diversity and professionalism in its daily 
interactions with individuals across the U.S. and around the world. By 
reflecting America's diversity, DFC can provide a wide range of ideas 
and innovative solutions, making us a stronger, more effective 
organization. In addition, DFC holds an Economic Dividends for Gender 
Equality (EDGE) certification to show our commitment to gender 
equality. EDGE is the leading global assessment methodology and 
business certification standard for gender equality. If confirmed, I 
will make it a priority to continue to maintain a diverse, high-
performing workforce.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. No.



                               __________


      Responses to Additional Questions for the Record Submitted 
      to LTG Keith W. Dayton (USA, Ret.) by Senator James E. Risch

    Question. Since the events of 2014, the U.S. and its allies in 
Europe have spent a huge amount of money to help Ukraine achieve its 
stated goals of reform in all sectors of governance and economy, 
including energy distribution, land reform, reaching development goals, 
and building a working health system. How well do you believe the U.S. 
and its partners have done in making sure that our monies are well 
spent and are achieving their goals? What more could we do?

    Answer. U.S. assistance is helping Ukraine to: increase resiliency 
to Russian aggression and malign influence; combat corruption and 
advance justice reforms; enhance energy security; bolster civil society 
and create responsive, responsible government; support independent 
media; advance a more transparent pro-business, investment-friendly 
economic climate; stabilize its financial sector; overhaul state-owned 
enterprises; and advance Western health care models and fight disease. 
Enhanced support in these areas will further bolster the positive 
outcomes we are seeing this year.
    For example, the High Anti-Corruption Court, a U.S. assistance 
beneficiary, just handed down its 13th conviction and fifth prison 
sentence in its first year of operation. U.S. technical assistance 
supported development of the National Bank of Ukraine's 2025 Strategy 
for Financial Sector Development which will help ensure Ukraine's 
financial stability, build the institutional capacity of financial 
regulators, and bolster consumer and investor rights protections. U.S. 
assistance to local credit unions in economically vulnerable Donetsk 
and Luhansk oblasts and the Azov region, all affected by Russian 
aggression, are making credit available to small businesses and 
producers in agriculture, beekeeping, and tourism.
    Most recently, the United States' $41 million investment in 
Ukraine's response to COVID-19 has: combatted COVID-19 disinformation 
by supporting Ukraine's public broadcaster in producing an award-
winning documentary on frontline workers and providing factual, 
unbiased and trusted government information on COVID-19; maintained an 
operation of essential government social protection services during the 
COVID-related lockdown by developing necessary online tools; and 
supported a second phase of healthcare reform by providing technical, 
organizational, and legal assistance to the National Health Service of 
Ukraine.

    Question. In what sectors should the U.S. concentrate its 
development dollars for the best outcomes?

    Answer. Following the 2014 Revolution of Dignity, U.S. development 
assistance has supported ongoing reforms in the health, judicial, 
criminal justice, and energy sectors, creating opportunities for small 
and medium enterprises, strengthening independent media, and helping 
further Ukraine's Western integration. Judicial sector reform and anti-
corruption programming is critical to support equal access for all 
Ukrainian citizens and equal treatment of U.S. investors. U.S. military 
assistance continues to enhance defensive capabilities for Ukraine to 
monitor and secure its borders, deploy its forces more safely and 
effectively, and make progress toward NATO interoperability. U.S. 
humanitarian assistance will continue to provide life-sustaining aid, 
including emergency shelters, provision and distribution of relief 
commodities, children and elderly protection, psychosocial support, 
repair to water infrastructure, and livelihoods and business 
development support for internally displaced persons.

Reforms in Ukraine
    Question. Last year, President Zelenskyy won in a landslide on a 
strong anti-corruption platform. After initially pushing through 
several important reforms, his administration has recently seemed to 
falter on his reform agenda. He reshuffled removed several ministers 
with strong anti-corruption credentials from his Cabinet, and the head 
of the National Bank of Ukraine resigned citing political pressure, to 
name two. As Ambassador, how will you keep up the pressure on Ukraine 
and the Zelenskyy administration to continue making his promised 
reforms? Will you work with European partners to coordinate our 
messaging to the Ukrainians on reforms?

    Answer. Corruption remains one of the most significant obstacles to 
Ukraine achieving its Euro-Atlantic aspirations. It undermines 
confidence in Ukraine's institutions, deters investment and economic 
growth, hinders further integration with the West, and offers an avenue 
for malign influence by Russia and China. As Ambassador, if confirmed, 
I will work closely with Ukrainian officials, civil society in Ukraine, 
and my European counterparts to press Ukraine to move forward with the 
reforms necessary to strengthen its democracy and rule of law, and 
ensure the integrity of its institutions.

    Question. In your opinion, what are the most critical reforms 
Ukraine needs to make in the near term? In the long term?

    Answer. The independence and integrity of core institutions is 
essential for Ukraine's long-term stability and prosperity. Ukraine 
should take steps to ensure institutions like the National Bank of 
Ukraine and the country's justice sector institutions maintain their 
independence and integrity and resist political pressure. As 
Ambassador, if confirmed, I will also work with my Ukrainian 
counterparts to continue to build on the reforms made in the 
agricultural, banking, health, education, governance, judicial, law 
enforcement, and energy sectors.

Chinese Activities in Ukraine
    Question. In your opinion, does the Government of Ukraine 
understand the potential consequences of Chinese investment and 
purchases?

    Answer. As Ukraine's trade with China grows, it has become easier 
for China to use this as a lever to make investment deals look 
attractive to a country facing budgetary constraints. But let me be 
clear--these deals may look nice at a glance, but they are not good 
deals. They lead towards a path of isolation and exploitation. If 
confirmed, I can shine a light on these deals and make their true 
intentions clear. I know the defense industry, and I know China is 
hungry for Ukraine's hard-earned intellectual property, not creating 
Ukrainian jobs.

    Question. If confirmed, how will you work with our European 
partners to encourage further Western investment into Ukraine, as a 
means to diversify its economy away from both China and Russia?

    Answer. We have a wide range of programs that make it easier for 
Western companies to invest in Ukraine, and these programs are 
harmonized with our partners. But all of the support the West can offer 
means nothing if corruption keeps investors away. If confirmed, I will 
make it clear to vested interests that the only place for corruption in 
Ukraine is in the history books. Clear and coordinated action with our 
partners can make this happen. Taking corruption off the table will 
pave the way for a more dynamic, competitive economy that will attract 
the West and keep malign influences out. Reforms will accelerate, the 
economy will boom, and U.S. companies can help facilitate this growth.

Trade Issues
    Question. Ukraine has a well-educated population, a Deep and 
Comprehensive Free Trade Area with the EU, and a plethora of fertile 
agriculture land, but its economy consistently and dramatically 
underperforms. What do you assess are the reasons for this 
underperformance? Are there certain Ukrainian industries that you see 
as ripe for growth? If so, as Ambassador, how would you encourage the 
building of trade ties between U.S. and Ukrainian businesses.

    Answer. Ukraine is a bountiful country that has a lot of potential. 
We must help Ukraine unleash this potential. Years of entrenched 
corruption have afforded vested interests a grip on the economy, media, 
and in some cases the political system. Each economic policy that would 
help the Ukrainian people suffers push back by the few that are 
pilfering Ukraine's vast resources. If confirmed, as Ambassador, I will 
support reforms that make Ukraine's economy more inclusive for 
Ukrainians and more attractive to investors. The Ukrainian people want 
sound economic policies to efficiently use their resources, and these 
policies would open up much stronger business ties. U.S. companies can 
help forge new energy links in Ukraine and work with its agricultural 
sector to feed millions of people throughout the world. Ukraine has a 
wealth of industrial capacity in its defense sector, and a growing 
information technology (IT) sector eager to do business with the West. 
I plan to encourage trade ties by increasing the protection and 
enforcement of intellectual property rights, rooting out corruption, 
and supporting the reform process.

    Question. How will you work to encourage Ukraine to reform its 
remaining Soviet-era property rights regime to incentivize investment 
and entrepreneurship in Ukraine?

    Answer. Ukraine has a skilled workforce and burgeoning cultural 
scene. If confirmed, I want to help these industries grow, but this 
will not happen without policies to support this growth. If Ukraine 
creates the right policies to utilize its wealth of human capital, I 
see potential for its IT sector to grow substantially. But the country 
needs to respect intellectual property rights to incentivize this 
growth. Systems must be put in place to ensure that developers and 
artists get their fair share. If Ukraine is willing to show respect for 
our intellectual property rights, not only will I help the country get 
it right, but I will show U.S. and Ukrainian companies alike all the 
new business opportunities this opens up.

Press Freedom
    Question. Recently, Ukraine has seen an uptick in violence and 
threats against journalists and activists alike. Last week an anti-
corruption campaigner's house was burned nearly to the ground. As 
ambassador, what would you do to stand up for those who uncover and 
expose the schemes that have held Ukraine back?

    Answer. If confirmed as Ambassador, I will work closely with 
Ukrainian officials and civil society to promote democratic values and 
human rights. I am concerned by recent suspected attacks on, and 
intimidation of, civil society activists and journalists in Ukraine, 
and urge Ukrainian law enforcement to thoroughly investigate these 
incidents and ensure those responsible are held to account. In 
democratic societies, people should be able to voice their opinions 
without concern for their physical safety.

    Question. What more should the U.S. Government should do more to 
support free media in Ukraine?

    Answer. If confirmed as Ambassador to Ukraine, I would seek to 
leverage U.S. support for independent media programming with our 
partners in Europe and Eurasia to build resilience against Russian 
pressure and both locally and externally produced disinformation. The 
United States supports independent media in Ukraine through programming 
to improve the public's access to independent, reliable, and balanced 
information: improve media literacy; and to support networks of 
investigative journalists and independent media outlets, and I would 
continue to support this programming if confirmed as Ambassador.



                               __________


      Responses to Additional Questions for the Record Submitted 
     to LTG Keith W. Dayton (USA, Ret.) by Senator Robert Menendez

    Question. Do you commit to reporting to the Senate Foreign 
Relations Committee if you or Embassy staff in Kyiv meet with Rudy 
Giuliani or his associates?

    Answer. Yes, if confirmed, I am committed to engage with Congress 
and this committee on matters related to the U.S.-Ukraine relationship.

    Question. Please reaffirm the commitment that you made during the 
hearing to report any information regarding foreign efforts to 
interfere in the 2020 election to the U.S. Committee on Foreign 
Relations.

    Answer. I reaffirm the commitment, and if confirmed, I am committed 
to engage with Congress and this committee on matters related to the 
U.S.-Ukraine relationship, complying with all relevant federal ethics 
laws, regulations, and rules, and to raising any concerns that I may 
have through appropriate channels.

    Question. If confirmed, would you advocate within the Department 
that all engagement with Congress be done without regard to political 
party? Would you advocate that any documents sent to the Congress 
regarding Ukraine policy be shared with this committee of jurisdiction 
on a bipartisan basis?

    Answer. If confirmed, I am committed to engage with Congress and 
this committee on matters related to the U.S.-Ukraine relationship, 
without regard to political party.

    Question. I was pleased to hear you highlight rule of law and the 
judiciary as priorities for reform in Ukraine in response to my 
question during your hearing. Along those lines, I am interested in 
your view of the needs around economic and corporate governance reform 
in Ukraine, which is necessary to tackle corruption and improve the 
rule of law. The IMF has given Ukraine several reform requirements, 
some of which it has fulfilled while others remain a work in progress:

   How do you assess Ukraine's progress on the IMF's reform 
        requirements? In particular, how do you view its progress on 
        the reform requirements in the natural gas sector?

    Answer. Ukraine must continue on the path of good governance and 
economic reforms. Ukrainians have repeatedly demanded their 
institutions respond to citizens' needs over the demands of vested 
interests. The natural gas sector is no stranger to these challenges. 
Naftohaz, one of the largest state owned entities in Ukraine has shown 
us--and the IMF--what it is capable of with a modern management 
structure. Each state owned entity has a reservoir of potential once 
you drill past the vested interests, bring in experts, and operate them 
like a business. Reform in Ukraine comes in ebbs and flows. I see the 
momentum, I see the success stories, and I see where Ukraine can help 
its citizens by turning things around. Most importantly, if confirmed, 
I stand ready to work with the IMF, our allies, and all of the 
international financial institutions to help Ukraine where it needs it 
the most. I will remind Ukraine of why it cannot backslide, and remind 
it of the consequences of reverting to failed systems of corporate 
governance.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I and my team will be committed to advancing 
the United States' interests in Ukraine, in accordance with all U.S. 
laws and policies, including government ethics rules.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I agree that the federal government should not employ 
prohibited personnel practices. I agree that anyone found to have 
engaged in unlawful retaliation should be subject to accountability and 
discipline in accordance with U.S. federal labor law and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. I am committed to supporting the excellent work of our 
Foreign and Civil Service professionals, as well as locally employed 
staff, and I hope to have many opportunities at Embassy Kyiv to support 
a diverse and inclusive environment. I know from my 40 years of 
experience in uniform, and 10 years at the Marshall Center, that 
diversity is a source of strength and resilience for any institution. I 
will endeavor to build a team that is strong and united in its efforts 
to advance U.S. interests in Ukraine.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have spent the past 50 years supporting and defending the 
Constitution of the United States, and inherent in my oath to serve, I 
include in that support for democracy and human rights. In my several 
field artillery commands in Europe, my units partnered with the 
militaries of the former Soviet Union, and in that partnership I 
emphasized human rights and democracy, with lasting impact. As the U.S. 
Security Coordinator for Israel/Palestine from 2005-2010, I created a 
training and monitoring program for elements of the new Palestinian 
security forces that emphasized democracy and human rights. To this 
day, this program survives in close coordination with the Israeli 
Defense Forces. Finally, in the almost ten years I have been Director 
of the Marshall Center, I have instituted a variety of educational 
programs for more than 5,000 security personnel from 100 countries (to 
include 300 from Ukraine). Each program emphasizes the principles of 
human rights and democracy. Judging from the feedback we get from our 
participants when they return home, these programs have had an impact 
that directly benefits the United States.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Ukraine? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The continued influence of oligarchs and other vested 
interests on Ukrainian institutions, particularly in the justice sector 
and media, threatens progress in building institutions and implementing 
key political, economic, and governance reforms over the past six 
years. Ukraine has a vibrant civil society that works to hold 
government actors and powerful economic interests accountable, and we 
must continue to support these efforts and stakeholders who drive 
participatory and accountable governance.

    Question. What steps will you take--if confirmed--to support 
democracy in Ukraine? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, as Ambassador, I will work closely with 
Ukrainian officials and civil society to promote democratic values and 
human rights. I will also urge the Ukrainian Government to continue to 
focus on the reforms necessary to ensure Ukraine's long-term 
development and overcome the problems of corruption and oligarchic 
capture.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States has long provided assistance to promote 
human rights, strengthen democracy, and support Ukraine's reform 
trajectory, and we will continue to do so. Building capable, 
trustworthy Ukrainian institutions that strengthen rule of law, reduce 
corruption, increase government accountability, create jobs, and 
attract investment are key to ensuring Ukraine is able to achieve its 
Euro-Atlantic aspirations.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Ukraine? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I will engage with civil society in 
Ukraine, amplifying their voices and calling out efforts to infringe on 
their rights.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I will meet with representatives from 
across the political spectrum and will encourage parties to ensure 
their membership and representation in institutions reflects the 
diversity of Ukrainian society.

    Question. Will you and your embassy team actively engage with 
Ukraine on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Ukraine?

    Answer. Yes, I am committed to promoting media freedom in Ukraine 
and will meet with independent, local media outlets.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. The United States is actively working with our Allies 
and partners in Europe to identify, recognize, and expose Russian 
disinformation and other malign influence tactics. We are committed to 
working with Ukrainian partners in government and civil society to 
increase media literacy programs that equip citizens with critical 
thinking skills to better identify disinformation and curb its spread. 
U.S. programming in Ukraine and elsewhere also helps to strengthen 
independent voices in the media sphere to build resilience against 
Russian pressure and disinformation.

    Question. Will you and your embassy teams actively engage with 
Ukraine on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, we will engage with Ukrainian officials and labor 
groups to promote the rights of labor groups to organize, including for 
independent trade unions.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Ukraine, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Ukraine? What specifically will you commit to do to help LGBTQ people 
in Ukraine?

    Answer. Yes, I commit to use my position to defend the human rights 
and dignity of all people in Ukraine, no matter their sexual 
orientation or gender identity. LGBTQ individuals in Ukraine continue 
to face societal discrimination and violence, preventing them from 
exercising their human rights. As Ambassador, if confirmed, I will work 
to elevate the voices of LGBTQ people and staunchly defend their 
rights.



                               __________


      Responses to Additional Questions for the Record Submitted 
    to LTG Keith W. Dayton (USA Ret.) by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As a general statement, my 50 years of faithful allegiance 
to the Constitution of the United States shows a career dedicated to 
the promotion of human rights and democracy. In particular, in my 
several command assignments in Europe, I had the opportunity to work 
with the new democracies that emerged from the fall of the Soviet 
Union, and advanced programs that have had a lasting impact on the new 
militaries of those countries. While serving as the U.S. Security 
Coordinator in Israel/Palestine from 2005-2010, I created and developed 
the Palestinian National Security Forces and made sure they were well 
trained on human rights and democracy, a legacy which continues to this 
day. Finally, in the almost ten years I have been Director of the 
Marshall Center, I have instituted a variety of training programs for 
more than 5,000 security personnel from more than 100 countries, each 
of which emphasizes human rights and democracy. Judging from the 
results when our participants return home, we have had an impact that 
directly benefits the United States in these areas.

    Question. What are the most pressing human rights issues in 
Ukraine? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Ukraine? What do 
you hope to accomplish through these actions?

    Answer. First and foremost, Russia's abuses in eastern Ukraine and 
Crimea, which include harassment, arrest, and abuse of civil society 
activists, independent journalists, and religious minorities, and 
severe restrictions on the fundamental freedoms of expression, 
association and assembly, and religion and belief, are deplorable and 
must end immediately. Other significant human rights concerns in 
Ukraine include: a lack of judicial and law enforcement integrity; 
impunity for police abuses and attacks on civil society activists, 
journalists, and minorities; and restrictions on media freedom. As 
Ambassador, if confirmed, I will work with Ukrainian officials and 
civil society to address these concerns and to hold Russia accountable 
for its aggressive actions in eastern Ukraine and Crimea.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ukraine in 
advancing human rights, civil society, and democracy in general?

    Answer. Official corruption and the influence of oligarchs and 
other vested interests pose a significant threat to Ukraine's reform 
trajectory, and it undermines human rights because it weakens judicial 
independence, media freedom, and governance broadly. If confirmed, I am 
committed to working with Ukrainian officials and civil society to 
strengthen the resilience of the judiciary and other Ukrainian 
institutions to resist political pressure.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Ukraine? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to meeting with a wide range of 
stakeholders, including U.S. and Ukrainian civil society actors. I will 
also actively work to ensure our security assistance promotes human 
rights, including by supporting active implementation of the Leahy Law 
and by educating Ukrainian security sector officials on international 
standards for human rights.

    Question. Will you and your embassy team actively engage with 
Ukraine to address cases of key political prisoners or persons 
otherwise unjustly targeted by Ukraine?

    Answer. Yes, we will continue to engage on the cases of those who 
are the target of politically motivated prosecutions or who have been 
detained unjustly.

    Question. Will you engage with Ukraine on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with a wide range of 
stakeholders, both in the Ukrainian Government and civil society, on 
issues related to the promotion of human rights and good governance.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I hope to have many opportunities at Embassy Kyiv to 
support a diverse and inclusive environment. I know from my experience 
both in uniform and in the private sector that diversity is a source of 
strength and resilience for any institution. I will endeavor to build a 
team that is united in its efforts to advance U.S. interests in 
Ukraine.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Ukraine are fostering an environment that 
is diverse and inclusive?

    Answer. I have been a team builder for 50 years in the U.S. Army 
and most recently at the Marshall Center. I am committed to supporting 
the excellent work of our Foreign and Civil Service professionals, as 
well as locally employed staff, and I will have no tolerance for 
actions or attitudes that disrespect any of my colleagues.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Ukraine?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence in Ukraine, but 
which are exempt from the conflict of interest laws.I also own stock in 
a few individual companies, some of which may have a presence in 
Ukraine. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Ukraine 
specifically?

    Answer. Corruption has a clear impact on democratic governance and 
rule of law: it undermines confidence in Ukraine's institutions, deters 
investment and economic growth, hinders further integration with the 
West, and offers an avenue for malign influence by Russia and China. As 
Ambassador, if confirmed, I will work closely with Ukrainian officials 
and civil society to strengthen the rule of law and advance the reforms 
necessary to Ukraine achieving its Euro-Atlantic aspirations.

    Question. What is your assessment of corruption trends in Ukraine 
and efforts to address and reduce it by that government?

    Answer. Ukraine has enacted reforms in the agricultural, banking, 
health, education, governance, judicial, law enforcement, and energy 
sectors. By standing up anti-corruption institutions, implementing 
decentralization, and increasing transparency in government 
procurement, Ukraine has worked to make its institutions more resilient 
and its leaders more accountable.
    These reforms are commendable, but Ukraine has more to do to cement 
progress, prevent backsliding, and reduce oligarchic influence, which 
remains significant. I remain concerned by the persistent efforts of 
corrupt interests to undermine progress on reforms, the continued 
culture of impunity for perpetrators, and the targeting of civil 
society actors whose work drives Ukraine forward. If confirmed as 
Ambassador, I will work closely with Ukrainian officials and civil 
society to address these challenges.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Ukraine?

    Answer. The United States works closely with Ukraine on a range of 
anticorruption and good governance programming, including programs that 
advance criminal justice sector reform, strengthen the rule of law, 
expand access to justice, and enhance civil society's capacity to hold 
government officials and powerful economic interests accountable. As 
Ambassador, if confirmed, I will strongly support these programs and 
advocate for the continued strength and independence of the 
institutions they assist.

    Question. Are you aware of the ongoing debate in Ukraine concerning 
the rehabilitation of Ukrainian collaborators who fought alongside the 
Nazis during WWII? How do we ensure that the history of the Holocaust 
is not rewritten and distorted?

    Answer. Like many other countries affected by the Holocaust, 
Ukraine must fully engage with its history surrounding World War II, 
including complicity of individuals in atrocities planned and carried 
out by Nazi Germany and collaborators who supported them, whether 
directly or indirectly.
    This is not a problem unique to Ukraine--it is a challenge 
confronting many countries in Europe. I welcome President Zelenskyy's 
support for honoring the victims of the Holocaust in Ukraine. 
Consistent with our advocacy of historically accurate Holocaust 
remembrance and research, the Department endorsed a statement issued by 
the International Holocaust Remembrance Alliance on July 7, 2020, that 
condemns the rehabilitation of those individuals who were complicit in 
Holocaust crimes, saying ``failure to remember truthfully demeans the 
living and disrespects the dead.''

    Question. The United States has a long history of supporting the 
preservation of heritage sites in Ukraine and the region. How can the 
U.S. Government and its citizens' work together with the Ukrainian 
Government to better protect and preserve Jewish cemeteries, mass 
graves, and other heritage sites that are being desecrated by neglect, 
vandalism, or construction?

    Answer. The State Department, including U.S. Embassy Kyiv, works 
closely with Jewish communities in Ukraine to ensure Jewish heritage 
sites throughout the country, including cemeteries, are preserved and 
protected. The Department communicates directly with the Ukrainian 
Government and municipalities on these matters and collaborates with 
the U.S. Commission for the Preservation of America's Heritage Abroad 
on safeguarding Jewish cemeteries throughout the world.



                               __________


       Responses to Additional Questions for the Record Submitted
       to LTG Keith W. Dayton (USA Ret.) by Senator John Barrasso

    Question. Is the Ukrainian Government fulfilling its International 
Monetary Fund reform requirements?

    Answer. I think this is something the International Monetary Fund 
will have to decide, but I have to say Ukraine has come a long way 
since my first time in the country. Ukraine must continue on the path 
of implementing rule of law, good governance, and economic reforms that 
ensure the Government is accountable to its citizens.

    Question. What is the status of Ukraine's reforms to the natural 
gas sector? What steps have been achieved and what still needs to be 
completed?

    Answer. Ukraine has made significant progress introducing market-
oriented reforms to its energy sector and increasing transparency. 
State-owned gas and oil giant Naftohaz, once a drain on Ukraine's 
budget, is now one of the largest contributors. Ukraine has also 
successfully unbundled its gas transit system operator from the rest of 
Naftohaz, moving closer to compliance with the EU's third energy 
package, and thus to greater integration with Europe. Ukraine has also 
made progress diversifying its gas and nuclear fuel away from Russia. 
These wins culminated in the successful negotiation of a new five-year 
gas transit contract with Russia at the end of 2019, which preserves 
robust gas transit through Ukraine.

    Question. What specific assistance is the United States currently 
providing Ukraine in the energy sector?

    Answer. Our efforts to prevent malign Russian influence throughout 
Europe have shielded Ukraine's energy sector from a multipronged attack 
against energy market dynamics. We have supported reforms at some of 
the largest entities in Ukraine's energy sector, and helped Ukraine 
turn an aging state enterprise into a real success story. Through 
USAID, we are providing more than $85 million to upgrade Ukraine's 
energy production, governance, and transportation. We are providing 
Ukraine with the technical expertise it needs to liberalize its energy 
markets, and are exploring support for new infrastructure projects that 
will enhance energy security throughout the region. Our Department of 
Energy provides technical expertise to keep Ukrainian nuclear reactors 
safe. U.S. companies see the opportunity this assistance is creating, 
and are anxiously looking for new deals--from building renewable 
production centers to providing fuel for nuclear reactors and exporting 
U.S. produced gas.

    Question. What additional assistance and guidance do you suggest 
the United States provide to support reforms in Ukraine?

    Answer. The United States has long provided assistance to promote 
human rights, strengthen democracy, and support Ukraine's reform 
trajectory, and we will continue to do so, working with both government 
institutions and civil society stakeholders. Building capable, 
trustworthy Ukrainian institutions that strengthen rule of law, reduce 
corruption, increase government accountability, create jobs, attract 
investment, and have the trust of Ukraine's citizens are key to 
ensuring Ukraine is able to succeed as a country and achieve its Euro-
Atlantic aspirations.

    Question. What have been the main achievements and the remaining 
challenges for Ukraine in promoting good governance and anticorruption 
reforms?

    Answer. Ukraine has enacted reforms in the agricultural, banking, 
health, education, governance, judicial, law enforcement, and energy 
sectors. By standing up anti-corruption institutions, implementing 
decentralization, and increasing transparency in government 
procurement, Ukraine has worked to make its institutions more resilient 
and its leaders more accountable. These reforms are commendable, but 
Ukraine has more to do to cement progress, prevent backsliding, and 
reduce oligarchic influence, which remains significant.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Julie D. Fisher by Senator James E. Risch

    Question. How will you ensure that, while the U.S. is sending an 
ambassador and reengaging with the Government after 12 years, that the 
importance of human rights is not diminished in our policy towards 
Belarus?

    Answer. If confirmed, I will work diligently leading the team at 
Embassy Minsk to address human rights priorities and pro-democracy 
reforms outlined in the Belarus Democracy Act. This will include 
regular engagement on issues of democratic reforms and human rights, 
and directing U.S. Government assistance to an array of partners in 
Belarus, including all Belarusian democratic political parties, civil 
society, and independent media. Since 2015, Belarus has enjoyed some 
sanctions relief, but this is not irreversible and remains a source of 
considerable leverage. Progress on this front is critical for 
strengthening the bilateral relationship.

    Question. Once ambassadors are exchanged, how do you expect to see 
U.S.-Belarusian relations change?

    Answer. State Department leadership has sought to re-center our 
bilateral engagement with Belarus and to advance a more engaged 
diplomatic approach to encourage Belarus' to commit to reforms, improve 
its human rights record, and support Belarus's sovereignty-free from 
the dictates of Moscow or Beijing. If confirmed, the Department 
anticipates the exchange of ambassadors, representing a sustained high-
level commitment, will improve inter-governmental communication, 
increase the incentives for reform, and foster a broadening and 
deepening of ties.

    Question. What role will you, and other Western ambassadors, play 
during the post-election time frame in response to human rights 
violations perpetrated in the lead up to the election?

    Answer. The Government of Belarus' activities during the 
presidential election period are concerning and represent a serious 
degradation of democratic progress and human rights in Belarus. If 
confirmed, I will work closely with our international partners to 
respond to the conduct of the presidential election as well as human 
rights violations committed in the election period by the Government of 
Belarus. I will engage directly with the Government of Belarus on its 
human rights abuses. While we do not seek to force Belarus into a false 
choice between East and West, such actions by the Belarusian Government 
are, in and of itself, self-defeating and self-isolating.

    Question. Post-election, how will you engage with the winner to 
reform its authoritarian system, including the release of any remaining 
political detainees?

    Answer. The Belarusian Government continues to detain, harass, and 
intimidate the opposition, civil society, the press, and certain 
religious minorities. If confirmed, I will engage with Belarusian 
counterparts to convey the benefits of improved international standing 
and partnership with the West. It is imperative Belarus demonstrate its 
commitment to the protection of human rights and fundamental freedoms, 
and permit civil society and the political opposition to engage in 
political discourse freely and openly.

    Question. How do you plan to ensure that this growth--which will 
occur in a rather small space--is well managed?

    Answer. We are engaged in discussions to construct a new embassy 
compound. I have learned from experiences in other fast-growing 
missions some of the potential risks of such growth, and I am committed 
to careful stewardship of taxpayer resources. The expansion of the U.S. 
footprint will allow us to engage more directly with the Government of 
Belarus and a wide range of opposition politicians, civil society 
organizations, and our international partners in Minsk.

    Question. How do you plan to avoid a ``bunker mentality'' and 
ensure that your people can get outside the embassy walls and interact 
with Belarusians?

    Answer. Our expanding bilateral relationship and concurrent 
increase in staffing offers opportunities for growth in all aspects of 
our bilateral relationship. If confirmed, I will seek to broaden our 
engagements with all sectors of Belarusian society, including 
government, business, and civil society. Using public diplomacy and 
other outreach tools, I would seek to expand our efforts beyond Minsk 
and into smaller cities and towns nationwide. Greater resources in 
Belarus will enable us to do more to promote the interests of the 
American people, and I am committed to managing the expansion of our 
activities responsibly.

    Question. Belarus has publicly floated the idea of engaging in 
joint exercises with NATO troops. There has also been increased 
interest in both NATO and Belarus to finalize a 1995 agreement on 
information sharing, and to deepen that relationship. What do you 
believe is the impetus behind this push?

    Answer. Belarus joined NATO's Partnership for Peace in 1995, but 
Allies never certified a security agreement, which has limited its 
scope of engagement with NATO. Finalizing a security agreement would 
allow for the country's fuller participation in NATO partnership 
activities, including the possibility of joint military exercises. 
Through a closer relationship, NATO and Belarus could endeavor to build 
mutual confidence and ties to counter disinformation.

    Question. Do you believe that NATO and Belarus should have a closer 
relationship?

    Answer. The United States supports finalizing the 1995 security 
agreement between Belarus and NATO and closer cooperation between 
Belarus and NATO. Belarus is driving the effort to build closer ties, 
and Belarus' opening to NATO parallels a gradual rapprochement in U.S.-
Belarus bilateral relations, including recent high-level visits to 
Minsk by U.S. officials, the decision to exchange ambassadors, and the 
resumption of bilateral military cooperation.

    Question. What consequences--positive or negative--of such a move 
could you foresee?

    Answer. Belarus' gradual rebalancing towards the West is a positive 
foreign policy development for the United States. We believe the 
potential positive outcomes of a closer relationship between NATO and 
Belarus outweigh any potential negative impacts. Allies have until 
August 31, 2020, to consider certifying an information sharing security 
agreement with Belarus. The NATO Office of Security review process, 
which includes a determination of what level of classification of 
information to share and other technical specifications, mitigates our 
information security concerns.

    Question. In your opinion, does the Government of Belarus 
understand the potential consequences of this increase in Chinese 
investment?

    Answer. I believe in recent months the Government of Belarus has 
become increasingly aware of the potential pitfalls of welcoming PRC 
investment, and already in mid-2019 the Government had stopped issuing 
sovereign guarantees to state-owned enterprises that tapped PRC lines 
of credit. Beijing operates through opaque, bilateral arrangements that 
undercut international standards. And in doing so--by lending hundreds 
of billions of dollars in a non-transparent way that breeds corruption, 
compromises institutions and erodes the rule of law in recipient 
countries--the PRC undermines the competitiveness of the local private 
sector and stifles sustainable development in the places that need it 
most. The United States offers a positive alternative--our transparent, 
private sector-driven model with a proven track record for delivering 
sustainable growth, reducing poverty, and fostering technological 
innovation.

    Question. If confirmed, how will you work with our European 
partners to encourage Western investment into Belarus, as a means to 
diversify its economy away from China and Russia?

    Answer. If confirmed, I look forward to working with European 
partners to deliver coordinated messaging to Belarusian Government and 
business counterparts on how to attract and keep Western investment. 
Embassy Minsk has been working to establish an American Chamber of 
Commerce in Minsk, which is slated to launch later this year. The 
establishment of this institution will help elevate the profile of 
Western businesses in Belarus.

    Question. In your view, what is the balance between Western 
investment as a means of diversification from China & Russia and its 
use as a carrot for political reform?

    Answer. The two are intertwined: political reform will logically 
lead to diversification of foreign direct investment away from Russia 
and the PRC. Accordingly, political reform will lead to greater 
economic independence from Russia and the PRC. If confirmed, this is a 
point I will make to Belarusian interlocutors at every opportunity.

    Question. Do you view this as an area for growth in U.S.-Belarus 
relations?

    Answer. Yes, and we have already seen a substantial amount of 
bilateral trade and investment activity in Belarus's burgeoning IT 
sector. This sector is part of the innovation-based economy, which has 
great potential for private-sector growth and for increasing the 
diversification of exports, thus decreasing Belarus' dependence on the 
Russian market.

    Question. What other industries in Belarus could be supported by 
the U.S. to accomplish these objectives?

    Answer. Supporting ongoing deliveries of U.S.-sourced oil to 
Belarus's refineries is one key industry where the United States can 
help Belarus decrease its economic reliance on Russia. The United 
States can also help foster a favorable legal environment for venture 
funding and build a community of private venture investors, while 
integrating Belarus into the international venture fund ecosystem.

    Question. As ambassador, how will you work to promote media freedom 
in such a closed country?

    Answer. If confirmed, I will address longstanding concerns 
regarding media restrictions with Belarusian authorities and actively 
engage with independent Belarusian and international outlets, and take 
an active interest in their work in Belarus. I will also continue to 
encourage U.S. programming assistance supporting independent media.

    Question. What more should the U.S. Government do to support free 
media in Belarus?

    Answer. The U.S. Government should support the capacity of 
independent media in Belarus, provide training to Belarusian 
journalists, and connect them to peers in the United States and 
European countries through professional development opportunities, 
exchanges, international conferences, and training.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Julie D. Fisher by Senator Robert Menendez

Prioritization of Democracy in Belarus
    Question. How can the U.S. best support the people of Belarus in 
their aspirations for democracy, good governance, and respect for human 
rights? If confirmed, what specific steps will you take to do so?

    Answer. The United States has encouraged Belarus to address human 
rights priorities and implement the pro-democracy reforms outlined in 
the Belarus Democracy Act, which are essential for it to fulfill its 
people's aspirations and realize the full potential of Belarus-U.S. 
relations. At the core of the Belarus Democracy Act is a desire for a 
greater diversity of voices in Belarus, including the political 
opposition, civil society, and independent media. We saw those voices 
emerge and multiply in the run up to Belarus' presidential election on 
August 9, 2020. However, the great concern we expressed about the 
regression in human rights during the election period, which included 
the detention, harassment, and intimidation of opposition candidates, 
activists, peaceful protesters, and journalists has grown in subsequent 
days. We remain concerned the Belarusian Government continues to detain 
and pressure the opposition and impose restrictions on the press, civil 
society, and certain religious minorities.
    If confirmed, I will emphasize the United States' commitment to the 
Belarusian people and encourage Belarusian authorities to peacefully 
engage with opposition groups and protesters, conduct free and fair 
elections, permit a diversity of voices in Belarus, and support its 
active civil society. While we do have regular contact with these 
groups, I will increase our outreach efforts and advocate for continued 
growth.

    Question. Under what circumstances should sanctions on Belarus be 
re-imposed?

    Answer. Consistent with the Belarus Democracy Act of 2004 (BDA), 
President Bush initially signed Executive Order 13405 in 2006, blocking 
the property of ten individuals, including President Lukashenka. This 
came in light of actions and policies by members of the Government of 
Belarus and others to undermine Belarus's democratic processes and 
institutions,commit human rights abuses, and/or engage in public 
corruption. Today, sixteen individuals and nine companies--Belarus's 
largest petrochemical conglomerate and its subsidiaries--remain 
designated under E.O. 13405.
    The ability to impose sanctions is a powerful tool and a key reason 
the United States continues to have influence with the Government of 
Belarus. I believe if actions to undermine democratic processes or 
institutions, commit human rights abuses, or public corruption are 
identified, it would be appropriate to consider imposing additional 
sanctions on specific individuals.

    Question. There have been complaints that when official U.S. 
delegations visit Belarus they fail to meet with democratically-
oriented political party leaders. These leaders say these omissions 
unintentionally send a message to the Government that the U.S. will 
tolerate their continued marginalization. How would you ensure this 
does not happen if you are confirmed to be Ambassador?

    Answer. I understand the concerns of democratically-oriented 
political party leaders on this subject. Most recently, Under Secretary 
for Political Affairs David Hale met with opposition leaders during his 
September 2019 visit to Minsk, and Secretary Pompeo met with civil 
society leaders during his visit in February. They were each at the 
time the most senior administration officials to visit Belarus since 
1994. If confirmed, I would endeavor to include opposition leaders in 
future visits at all levels.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to ensure my team understands there is no 
place for prohibited personnel practices in the federal government and 
it certainly would not be tolerated under my leadership. I agree that 
those found to have engaged in retaliation should be subject to 
accountability and discipline consistent with applicable laws, 
regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. Supporting our people has been a core tenet of my Foreign 
Service career, and I am committed to supporting the work of Foreign 
and Civil Service professionals, as well as locally employed staff. I 
hope to have many opportunities at Embassy Minsk to support a diverse 
and inclusive environment. Diversity is a source of strength and 
resilience for any institution, and I will endeavor to build a team 
that is strong and united in its efforts to advance U.S. interests in 
Belarus.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising any concerns I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising any concerns I may have 
through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over the course of my Foreign Service career, the promotion 
of democracy and human rights issues, particularly in the former Soviet 
Union, has been central to my work.
    In Ukraine and in Russia in the mid-1990s, I maintained relations 
with key human rights activists and representatives of persecuted 
religious minorities. I promoted the rule of law in both countries and 
worked closely with colleagues from across the interagency to help 
educate prosecutors and train judges and judicial support staff.
    In the case of Georgia, I served as the desk officer in Washington 
then subsequently as the Counselor for Political and Economic Affairs. 
As desk officer, I supported the work of then-Presidential Special 
Envoy James Baker, who led U.S. efforts to ensure free and fair 
elections in the fall of 2003. I assisted his efforts to negotiate a 
scorecard agreed by then President Shevardnadze and the opposition for 
assessing the conduct of those elections. And in the aftermath of the 
Rose Revolution in Georgia, and then following the Russian invasion of 
Georgia, I supported a broad range of efforts to ensure an ongoing 
commitment to the rule of law and democratic processes.
    In these roles, I worked closely with colleagues in the 
Department's Trafficking in Persons office to protect victims and hold 
perpetrators accountable. Our visible efforts to support the members of 
the local LGTBQ communities were also critical.
    And in my assignments at NATO I had the opportunity to support 
efforts to ensure the Alliance worked aggressively to combat Sexual 
Violence against Women in combat and to ensure the inclusion of women 
in discussions related to Afghanistan's future.
    As a Deputy Assistant Secretary in EUR, I engaged governments in 
Western Europe and at the EU on shared human rights concerns including 
decriminalization of homosexuality, Trafficking in Persons and support 
for religious minorities.In each of these roles I believe my efforts 
along with those of my interagency colleagues contributed to the 
promotion of individual liberty and the protection of vulnerable 
populations.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Belarus? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The most pressing challenges to democratic development in 
Belarus include: regulatory measures imposed by the Government to 
constrain civil society; restrictions on independent media, and the 
prohibition of legitimate political opposition; lack of free and fair 
elections; centralization of governmental and bureaucratic decision-
making authority in Minsk; state administration and control over a 
majority of the economy, which makes a majority of Belarusians directly 
dependent on the State; Russian disinformation and malign Kremlin 
influence, including ongoing pressure for Belarus to cede sovereignty 
to Russia; and undue PRC economic influence, including debt financing.

    Question. What steps will you take--if confirmed--to support 
democracy in Belarus? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will support democracy in Belarus by 
advocating for the benefits of transitioning to a democratic model in 
my engagements with the Belarusian Government. I will similarly engage 
with civil society, political opposition, and a wide array of 
organizations and interlocutors throughout the country to foster and 
strengthen people-to-people ties, increase understanding of the United 
States in Belarus, and demonstrate U.S. support for democratic 
principles and fundamental freedoms in Belarus. I would do this in 
close coordination with our European partners. Potential impediments 
include repression of human rights and fundamental freedoms by the 
Government of Belarus, reflexive opposition based on post-Soviet 
ideology, Russian disinformation, and/or malign PRC economic influence.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will utilize U.S. Government assistance 
resources, including the Development Fund Small Grants program and 
other sources of State Department and USAID funding, to support and 
promote initiatives that contribute to more open and competitive 
political and economic systems, good governance, and human rights. 
Beyond seeking robust funding for assistance programming, including 
international exchanges and professional networking programs, I will 
prioritize assistance to civil society organizations, local press 
outlets, and domestic social media. I will focus special attention on 
promoting public-private sector partnerships and facilitating positive 
changes in Belarusian legislation to help counter Russian influence.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Belarus? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights, and other non-governmental organizations in the 
United States and with local human rights NGOs and other members of 
civil society in Belarus. I will advocate to government interlocutors 
on behalf of these groups, collectively, and encourage access for them. 
I will also support the professional development of their members by 
including them as participants in U.S. Government assistance programs 
and/or international exchange programs. The embassy will engage with 
the Belarusian Government, in concert with the Organization for 
Security and Cooperation (OSCE), the Venice Commission, and/or other 
likeminded diplomatic missions in Minsk to advocate against legal or 
regulatory measures that restrict or penalize NGOs and civil society.

    Question. If confirmed, do you commit to meet with democratically-
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meeting with democratically-
oriented political opposition figures and parties. I will meet with 
opposition politicians and civil society activists, as well as 
encourage access and a seat at the table for women, minorities, and 
youth through engagement with the Government of Belarus and by 
facilitating their professional development, including participation in 
U.S. Government assistance programs, and/or international exchange and 
networking programs.

    Question. Will you and your embassy team actively engage with 
Belarus on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Belarus?

    Answer. Yes, if confirmed, the Embassy Minsk team and I will work 
to safeguard freedom of the press and counter any government efforts 
intended to restrict freedom of the press or punish journalists. If 
confirmed, I intend to meet with a wide spectrum of media 
representatives, including independent, local press in Belarus.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, the Embassy Minsk team and I will 
counter disinformation and propaganda disseminated by foreign or non-
state actors in the country.

    Question. Will you and your embassy teams actively engage with 
Belarus on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Labor groups face particular challenges in Belarus. If 
confirmed, the team at Embassy Minsk and I will meet with labor groups 
and monitor whether they encounter obstacles in efforts to organize.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Belarus, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Belarus? What specifically will you commit to do to help LGBTQ people 
in Belarus?

    Answer. If confirmed, I will use my position to defend the human 
rights and dignity of all people. LGBTQ people face widespread 
discrimination in many places, including Belarus, and law enforcement 
often fails to prosecute attacks against the LGBTQ community. The LGBTQ 
community deserves the support of the United States. If confirmed, I 
will ensure we make efforts to include LGBTQ and others who may be 
facing discrimination in events hosted or organized by the Embassy and 
be an active voice advocating for the human rights of LGBTQ persons.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Julie D. Fisher by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Over the course of my Foreign Service career, the promotion 
of democracy and human rights issues, particularly in the former Soviet 
Union, has been central to my work.
    In Ukraine and in Russia in the mid-1990s, I maintained relations 
with key human rights activists and representatives of persecuted 
religious minorities. I promoted the rule of law in both countries and 
worked closely with colleagues from across the interagency to help 
educate prosecutors and train judges and judicial support staff.
    In the case of Georgia, I served as the desk officer in Washington 
then subsequently as the Counselor for Political and Economic Affairs. 
As desk officer, I supported the work of then-Presidential Special 
Envoy James Baker, who led U.S. efforts to ensure free and fair 
elections in the fall of 2003. I assisted his efforts to negotiate a 
scorecard agreed by then President Shevardnadze and the opposition for 
assessing the conduct of those elections. And in the aftermath of the 
Rose Revolution in Georgia, and then following the Russian invasion of 
Georgia, I supported a broad range of efforts to ensure an ongoing 
commitment to the rule of law and democratic processes.
    In these roles, I worked closely with colleagues in the 
Department's Trafficking in Persons office to protect victims and hold 
perpetrators accountable. Our visible efforts to support the members of 
the local LGTBQ communities were also critical.
    And in my assignments at NATO I had the opportunity to support 
efforts to ensure the Alliance worked aggressively to combat Sexual 
Violence against Women in combat and to ensure the inclusion of women 
in discussions related to Afghanistan's future.
    As a Deputy Assistant Secretary in EUR, I engaged governments in 
Western Europe and at the EU on shared human rights concerns including 
decriminalization of homosexuality, Trafficking in Persons, and support 
for religious minorities. In each of these roles I believe my efforts 
along with those of my interagency colleagues contributed to the 
promotion of individual liberty and the protection of vulnerable 
populations.

    Question. What are the most pressing human rights issues in 
Belarus? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Belarus? What do 
you hope to accomplish through these actions?

    Answer. First and foremost, the Government's activities during the 
presidential election period are greatly concerning and demonstrate a 
serious setback to any progress Belarus has made towards improving its 
human rights record. This includes the harassment, intimidation, and 
detention of political opposition figures, protesters, and independent 
journalists. Other significant human rights concerns in Belarus include 
a lack of free and fair elections, the treatment of religious 
minorities, and restrictions on the fundamental freedoms of expression, 
association, and assembly. Other concerns include: a lack of judicial 
and law enforcement integrity; impunity for police abuses and attacks 
on civil society activists, journalists, and minorities; and 
restrictions on media freedom. If confirmed, I will work with 
Belarusian officials and civil society to address these concerns and 
hold perpetrators accountable. I will encourage the Government of 
Belarus to uphold its OSCE commitments, hold legitimately free and fair 
elections, and improve its human rights record.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Belarus in 
advancing human rights, civil society, and democracy in general?

    Answer. Highly centralized political control and decision-making, 
and political corruption, pose a significant obstacle to democratic 
processes in Belarus and undermine human rights as they restrict 
judicial independence, media freedom, and transparent governance. If 
confirmed, I will encourage Belarusian officials to respect the 
fundamental freedoms of their people, demonstrate their commitment to 
democratic reforms, including free and fair elections, and uphold 
Belarus' commitments to the OSCE and the international community. I 
will work with civil society to increase its ability to actively engage 
with its government and support initiatives to increase citizen input 
and participation in decision-making at all levels.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Belarus? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Belarus. Promoting democracy, human rights, 
and fundamental freedoms advances U.S. national security. I believe it 
is essential to create and maintain strong security relationships with 
partners through diplomacy, measured assistance, and cooperation 
designed to reinforce human rights. The Leahy Laws are important tools 
that assist us in developing effective partnerships, and I fully 
support the laws and their continued rigorous implementation by the 
Department of State.

    Question. Will you and your embassy team actively engage with 
Belarus to address cases of key political prisoners or persons 
otherwise unjustly targeted by Belarus?

    Answer. The release of all political prisoners in 2015 led to our 
renewed effort to improve bilateral relations and provide limited, 
temporary sanctions relief for nine state owned enterprises. The 
current detentions of opposition candidates and activists are 
concerning and a serious setback in the Government of Belarus' progress 
towards improving its human rights record. If confirmed, I will engage 
with the Belarusian Government on detentions of opposition candidates 
and activists.

    Question. Will you engage with Belarus on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes, Belarus' commitment to democratic processes and human 
rights are a crucial part of strengthening our bilateral relationship. 
As such, I am committed to engaging with Belarus on matters of human 
rights, civil rights, and transparent governance guided by the Belarus 
Democracy Act.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I hope to have many opportunities at Embassy Minsk to 
support a diverse and inclusive environment. I know from my experience 
in government, both serving overseas and in Washington DC, that 
diversity is a source of strength and resilience for any institution. I 
will endeavor to build a team that is united in its efforts to advance 
U.S. interests in Belarus.
    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Belarus are fostering an environment that 
is diverse and inclusive?

    Answer. I have been a team builder for over 25 years in the Foreign 
Service, whether serving at embassies abroad or in Washington. I am 
committed to supporting the excellent work of our Foreign and Civil 
Service professionals, as well as locally employed staff, and I will 
have no tolerance for actions or attitudes that disrespect any of 
members of the Embassy team.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Belarus?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I also currently 
hold financial interests in a number of companies which have interests 
in various foreign countries. I am committed to following all 
applicable ethics laws and regulations and remaining vigilant with 
regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Belarus 
specifically?

    Answer. Political corruption undermines democratic governance and 
the rule of law. While we do not see corrupt actors creating 
independent power centers in Belarus as is the case for other countries 
in the region, Belarus has experienced authoritarian government for 
decades, and its institutions are underdeveloped and lack independence. 
Its parliament and judiciary serve effectively as arms of the executive 
branch.

    Question. What is your assessment of corruption trends in Belarus 
and efforts to address and reduce it by that government?

    Answer. As Belarus has experienced a serious reduction in Russian 
energy subsidies and COVID-19 associated economic disruption, the 
country's leadership has turned increasingly to a small coterie of 
business leaders to assume responsibility for earning the hard currency 
the Government needs to avoid a balance of payments crisis. These non-
transparent relationships increase the likelihood of corrupt deals. The 
Government should focus on improving the integrity of public 
procurement and real estate transactions. Improving the climate for 
independent media and independent civil society is essential to 
combatting these trends.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Belarus?

    Answer. Good governance and productive efforts to counter 
corruption begin with recognizing and adhering to international 
standards, building strong and transparent institutions, and 
eliminating conflicts of interest. Civil society and journalists often 
play a crucial watchdog role, and it is necessary for them to operate 
freely. If confirmed, I will direct assistance programming to support 
efforts at both the national and grassroots level to promote good 
governance and safeguard fundamental freedoms.



                               __________


           Response to an Additional Question for the Record
         Submitted to Julie D. Fisher by Senator Jeanne Shaheen

    Question. If confirmed, will the nominee commit to meeting with the 
National Coordination Council as one of her first acts as Ambassador?

    Answer. Yes. The Department is committed to Belarus's sovereignty 
and political independence, and we support the aspirations of the 
Belarusian people to choose their own leaders through free and fair 
elections. We commend the unwavering courage of Belarusian society, and 
are deeply troubled by reports of politically-motivated detentions, 
forced deportations, and kidnapping of political opposition members. If 
confirmed, I commit to strengthening our support for the Belarusian 
people, including through early discussions with the National 
Coordination Council and by encouraging a productive dialogue between 
the regime and the Coordination Council.



                               __________


      Responses to Additional Questions for the Record Submitted 
  to Julie D. Fisher by Senators Jeanne Shaheen and Christopher Murphy

    Question. Ms. Fisher, President Lukashenko has responded to those 
protesting Sunday's disputed election with a crackdown that is 
unusually brutal even for Lukashenko's 26-year rule. In addition to the 
Department's statement, what options are on the table to send a clear 
message to President Lukashenko that his brutal response to the people 
of Belarus is unacceptable? Given that the last U.S. ambassador to 
Belarus left Minsk as a result of sanctions applied to Belarusian 
entities and individuals for similar behavior, what is the message that 
the Department intends to send by sending an ambassador back to Minsk 
at this time?

    Answer. The Government of Belarus' activities during the election 
period represent a serious degradation of democratic standards and 
human rights in Belarus. The August 9, 2020, election was neither free 
nor fair, and we strongly condemn ongoing violence against peaceful 
protesters.
    The U.S. ambassador departed Minsk in 2008 because President 
Lukashenka reduced our staff to a maximum of five Americans and 
withdrew accreditation for an Ambassador, reducing the mission 
leadership in both Minsk and Washington to the level of Charge. The 
bilateral relationship languished for the better part of a decade, 
limiting our influence. Lukashenka adjusted his view of the bilateral 
relationship after the 2014 Russian takeover of Crimea and aggression 
in eastern Ukraine. Since 2018, we have sought to re-center our 
bilateral engagement with Belarus and advance a more engaged diplomatic 
approach, to compete for positive influence against Russia and China, 
and to further ties with the emerging new Belarus.
    As the events of the past week clearly show, Belarus has changed 
since 2008. Ordinary Belarusians, particularly the younger generation, 
are calling for change. Economic frustration exacerbated by COVID-19 
has rapidly accelerated this trend. Returning a U.S. representative in 
Minsk at the Ambassadorial level will greatly enhance our relationships 
with Belarusian civil society, allow us to more persuasively advocate 
for human rights and democratic reforms, and allow us to directly 
compete with Russia and China for influence. By returning an ambassador 
to Minsk, we will improve our ability to support the people of Belarus 
in shaping a democratic, prosperous future and deliver a clear message 
to the authorities that the path to an expanded relationship depends on 
the advancement of human rights in Belarus.
    As Secretary Pompeo said recently in Europe, the administration is 
considering a full range of options and is consulting closely with 
like-minded allies and partners. That review will cover options 
including sanctioning officials involved in supervising the violence 
and vote falsification.

    Question. Could you please provide us an update on what the 
Department has done to advocate for the release of U.S. citizen, Vitaly 
Shkliarov?

    Answer. We have no higher priority than the safety and welfare of 
U.S. citizens abroad. U.S. diplomats in Minsk and in Washington have 
repeatedly raised concerns with the Belarusian Government, including 
the Foreign Minister multiple times, regarding Mr. Vitali Shkliarov's 
unjustified detention.
    We press for consular access and his release. On August 13, 2020, 
our Embassy in Minsk was granted consular access, and a U.S. consular 
officer visited Mr. Shkliarov in detention. We will continue to press 
for his release, and until then for fair treatment, judicial 
transparency, and regular visits by U.S. consular officials. We will 
monitor Mr. Shkliarov's case closely and remain in close contact with 
his family and legal representation.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Alex Nelson Wong by Senator Robert Menendez

    Question. As I stated in the hearing, the U.S. has taken actions 
that have downgraded its engagement with a number of critical U.N. 
bodies and programs. It has racked up nearly $1 billion in arrears on 
its U.N. peacekeeping dues, withdrawn from the U.N. Human Rights 
Council, withheld funding for the U.N. Human Rights Office, and 
abrogated its participation in other U.N. institutions and initiatives, 
such as the Paris Agreement. At the same time, the role and influence 
of other countries--particularly China--has been growing at the U.N.. 
China is now the second largest financial contributor to U.N. 
peacekeeping, its assessment rate having increased to 15 percent this 
year from just over 3 percent ten years ago. It is also one of the 
largest troop contributors to U.N. peacekeeping operations, providing 
more uniformed personnel than the rest of the permanent members of the 
Security Council combined. And it has expanded its role in a range of 
U.N. agencies, with Chinese nationals currently holding the top job in 
four of the organization's fifteen specialized agencies: the 
International Civil Aviation Organization (ICAO), the Food and 
Agriculture Organization (FAO), the International Telecommunication 
Union (ITU), and the U.N. Industrial Development Organization (UNIDO):

   Does our diminished engagement give the Chinese Government an 
        opening to shape the U.N.'s agenda to fit its own interests?

    Answer. The United States remains committed to upholding the U.N. 
institutions that have fostered global peace and prosperity over the 
past 75 years. The United States remains an indispensable actor in the 
international system, including within the United Nations and its 
associated bodies. The United States continues to be the largest 
financial contributor to the U.N. system, providing over $12.2 billion 
in fiscal year 2019. The United States continuously works to ensure 
that the American values of human rights, the dignity and worth of 
individuals, peaceful resolution of conflict, sustainable economic 
prosperity, national sovereignty, transparency, and the rule of law are 
protected and upheld at the United Nations and related international 
institutions.
    If confirmed, I will be a vocal advocate in supporting these values 
and the core pillars of the U.N. Charter--peace and security, 
sustainable development, and human rights. I will also advocate for 
reform at the United Nations and its organizations to ensure they are 
effective and accountable institutions of the 21st Century. The United 
States' support is critical for the United Nations to accomplish its 
mission. I will work to ensure that American leadership continues at 
the United Nations.
    I share the concern over the People's Republic of China's attempts 
to use the United Nations to advance its narrow self-interests. If 
confirmed, I will seek to continue the administration's efforts to 
point out and push back against the PRC's problematic behavior within 
the United Nations and its related agencies. The United Nations should 
not be used as a tool to promote authoritarian ideology, the Belt and 
Road Initiative, or China's domestic agenda at the expense of the 
international system and the principles of the U.N. Charter.

    Question. What implications does this have for U.S. national 
security interests and other foreign policy priorities, such as the 
promotion and protection of human rights?

    Answer. The People's Republic of China's (PRC) behavior at the 
United Nations presents a challenge for all member states that seek to 
uphold the purposes and principles of the U.N. Charter, including human 
rights. Oppressive governments often seek to coopt and use 
international institutions to distract from their attempts to 
compromise democratic values and human rights.
    I am alarmed by the deteriorating human rights situation in the 
PRC, including in the Xinjiang Uyghur Autonomous Region and in Tibetan 
areas, as well as the PRC Government's efforts to undermine 
international organizations' ability to promote human rights around the 
world. The Chinese Communist Party holds thousands of political 
prisoners, routinely violates fundamental freedoms, including freedom 
of religion or belief, freedom of expression, and freedom of peaceful 
assembly and association; and seeks to erode the cultural heritage of 
minority communities. When the PRC attempts to change the rules to 
undermine international standards of human rights, the United States 
must work closely with likeminded partners to push back. The PRC 
Government must demonstrate respect for its own laws as well as its 
international obligations and commitments related to human rights and 
fundamental freedoms.

    Question. If confirmed, what actions will you take to address this 
issue?

    Answer. If confirmed, I am committed to working to ensure the U.N. 
upholds all three pillars of the U.N. Charter, including promoting 
human rights, and will strive to ensure that it serves the entire 
global community in an efficient, fair, and transparent manner. This 
includes pushing back in areas where the People's Republic of China 
(PRC) and other malign actors have attempted to alter norms, weaken 
institutions, or erode founding principles. There must be free, fair, 
transparent, and rules-based elections to leadership positions in U.N. 
agencies based on merit, and the United States will hold all leaders of 
U.N. agencies accountable to standards, results, and their commitment 
to act impartially in the interest of the institution. I understand the 
Department is also exploring how to increase U.S. participation and 
personnel in the United Nations, including in peacekeeping. If 
confirmed, I will work closely with the Department to advance these 
goals if pursued.
    I will work closely with likeminded partners at the U.N. to focus 
the international community's attention on the PRC's human rights 
violations and press the PRC to change course. I will also continue the 
Department's efforts to combat the PRC's insertion of its authoritarian 
ideology and references to the Belt and Road Initiative into U.N. 
resolutions and programming. I will ensure that that the United States 
regularly speaks about Beijing's egregious human rights record in all 
appropriate U.N. fora.

    Question. You stated in your oral testimony that ``when there is an 
organization that does not abide by the U.N. charter, which does not 
live up to its principles, where reform or the path to reform is not 
available with continued U.S. participation, that U.S. withdraw should 
be considered:''

   Is this the reason the U.S. is withdrawing from the Paris 
        Agreement?

    Answer. As President Donald Trump indicated in his June 1, 2017, 
remarks, he made the decision to withdraw the United States from the 
Paris Agreement because U.S. pledges under the Agreement unfairly 
burdened American businesses, workers, and taxpayers compared to costs 
borne by the United States' major competitors.
    The United States is proud of its record as a world leader in 
reducing emissions, driving economic growth, and fostering resilience 
at home and abroad. The United States will continue to be a leader in 
assisting our partners to reduce emissions, protect natural resources, 
increase resilience, and respond to natural disasters.

    Question. Do you believe the U.S. should withdraw from the Paris 
Agreement?

    Answer. I support the administration's position. The United States 
supports a balanced approach to climate change that promotes economic 
growth and improves energy security while protecting the environment. 
The United States is a world leader in protecting the environment. 
Regardless of our position on one international environmental 
agreement, the United States continues to reduce all types of 
emissions, even as we grow our economy and ensure our citizens' access 
to affordable energy.

    Question. What reforms has the U.S. pursued, and presumably failed 
at achieving, to the Paris Agreement justifying our departure?

    Answer. As President Trump has indicated, the United States is 
withdrawing from the Paris Agreement because U.S. pledges under the 
Paris Agreement unfairly burden American businesses, workers, and 
taxpayers compared to the costs borne by our major competitors. The 
United States continues to work to level the playing field with our 
economic competitors, including on consistent and transparent emissions 
reporting.

    Question. U.N. humanitarian agencies are playing an essential role 
in responding to the crisis in Yemen, where nearly 80 percent of the 
population is reliant on some form of humanitarian aid. Here, the U.N. 
World Food Program (WFP) is working to reach 12 million people per 
month with food and nutritional assistance; UNICEF and the World Health 
Organization (WHO) did critical work responding to a massive cholera 
epidemic, operating treatment facilities and vaccinating people across 
the country; and UNFPA has integrated nutrition assistance for pregnant 
women into its reproductive health and safe delivery services in the 
country. These activities have undoubtedly saved many thousands of 
lives, even as the country's brutal civil war continues to grind on. 
Unfortunately, these efforts are experiencing serious funding gaps, 
which has led to the scaling back of certain services:

   What is the United States doing to address the funding constraints 
        currently facing U.N. agencies on the ground?

    Answer. The United States is the largest donor to the humanitarian 
response in Yemen this year. In May, Secretary of State Pompeo 
announced nearly $225 million in additional emergency aid to Yemen, 
which brings the total from the American people to more than $1.1 
billion since Fiscal Year 2019. The Department and the U.S. Agency for 
International Development (USAID) regularly engage U.N. agencies to 
discuss humanitarian funding in Yemen while also pressing Member States 
to increase funding and fulfill outstanding pledges. We continue to 
advocate that donors expedite their pledged contributions to the 
response in a transparent and coordinated manner. We also continue to 
call on other countries to step up their assistance to the Yemen 
humanitarian funding appeal, including by supporting the U.N. Global 
Humanitarian Response Plan addressing the humanitarian effects of 
COVID-19.
    The United States has been working to clear hurdles that prevent 
humanitarian assistance, including the Houthis' ongoing attempts to 
interfere in aid operations. While this hindrance forced the U.S. 
Government, the World Food Program, and other organizations to suspend 
some aid programs in northern Yemen, the U.S. Government stands ready 
to support our partners wherever they can operate independently, and at 
levels that enable them to exercise adequate oversight over their 
programs.

    Question. The U.N. Security Council voted to deploy U.N. 
peacekeepers to Mali in 2013, following a French military intervention 
targeting extremists--including groups linked to al-Qaeda--that had 
taken over the country's vast northern regions. Since then, the U.N. 
mission in Mali (MINUSMA) has played an important role in facilitating 
elections that restored Mali's democratic Government, and is currently 
working to build on these efforts to rebuild national institutions and 
extend state authority by training judges and supporting security 
sector reform. Moreover, MINUSMA has worked with French troops to 
prevent armed extremist groups--including regional affiliates of al-
Qaeda and ISIS--from extending their reach in the area or reoccupying 
towns in northern Mali that they seized in 2012.

   Given the insecurity currently affecting Mali and the wider Sahel 
        region, do you think it is important for U.N. peacekeepers to 
        maintain a strong presence in northern and central Mali?

    Answer. The administration supports the U.N. peacekeeping mission 
in Mali (MINUSMA). It provides an essential level of security without 
which Mali and the Sahel region would be substantially destabilized. In 
parts of the center and north of Mali, MINUSMA is the primary source of 
stability, enabling humanitarian access and some protection for the 
population. MINUSMA plays a leading role in facilitating implementation 
of the 2015 Algiers Peace Accord. Counterterrorism operations in the 
region also rely on logistical support from MINUSMA, including the 
majority of France's 5,100 troops deployed as part of Operation 
Barkhane in the Sahel. MINUSMA also provides certain logistical and 
medical support to the G5 Sahel Joint Force on a cost reimbursable 
basis.

    Question. In South Sudan, which was plunged into a devastating 
civil war in 2013, peacekeepers have been protecting more than 200,000 
civilians who fled their homes and sought shelter at U.N. bases. Given 
the exceptionally brutal nature of the violence in South Sudan and the 
fact that civilians have been targeted on the basis of their ethnicity, 
it is likely many of these people would have been killed had the U.N. 
not intervened to protect them. While a peace agreement between 
President Salva Kiir and his former Vice President, Riek Machar, is 
currently in effect and being slowly implemented, there remains a risk 
of backsliding and renewed violence:

   Do you think it is important for the U.N. to continue its efforts 
        to protect these civilians?

    Answer. Yes. The United States strongly supports the U.N. Mission 
in South Sudan's (UNMISS) protection of civilian (POC) task, which 
includes protecting the internally displaced persons (IDPs) residing in 
U.N. ``Protection of Civilian'' sites. UNMISS fulfills a critical role 
in protecting civilians, as well as monitoring and reporting on human 
rights, creating conditions for delivery of humanitarian assistance, 
and creating space for South Sudan's implementation of the revitalized 
peace process. During Security Council negotiations earlier this year, 
the United States successfully pressed to reinforce this core mission 
of UNMISS and supported its efforts to be more mobile and responsive 
through patrolling in high threat areas. We also urged the Government 
of South Sudan to remove restrictions that impede UNMISS patrolling and 
its other activities, including human rights monitoring. At the same 
time, we are working closely with the Government of South Sudan and 
UNMISS to help create the conditions for voluntary, safe and dignified 
returns.

    Question. What pressure are you exerting on parties to the 
conflict, and other countries in the region, to adhere to the peace 
agreement?

    Answer. The Department is pressing the parties for full 
implementation of the Revitalized Agreement on the Resolution of the 
Conflict in the Republic of South Sudan (R-ARCSS), including persistent 
efforts by our Embassy in Juba and Special Envoy for South Sudan 
Ambassador W. Stuart Symington IV. Our officers in Juba and Special 
Envoy Symington engage their counterparts and stakeholders in South 
Sudan on these issues continually. The Department has also repeatedly 
worked to advance implementation of the peace agreement through the 
United Nations. In recent U.N. Security Council negotiations to renew 
the UNMISS mandate, the United States pressed to reinforce the 
mission's role in supporting the peace process. In May, the Department 
led the Security Council to renew the U.N. sanctions regime for South 
Sudan, which includes a territorial arms embargo and targeted sanctions 
on individuals who threaten peace and security in South Sudan. The 
Department also led negotiations and drafting of a Security Council 
press statement in July expressing grave concern about renewed 
violence. The Department continues to call on South Sudan's leadership 
to fully implement the R-ARCSS, prevent violence, protect civilians, 
and lift restrictions on UNMISS's freedom of movement.

    Question. The U.N. peacekeeping mission in Darfur (UNAMID) has been 
in the process of drawing down since 2018, and is set to exit Sudan by 
the end of the year. While last year's ouster of longtime dictator Omar 
al-Bashir and the country's transition to a civilian-military 
government have been hailed as signs of hope for a more stable and 
democratic future for Sudan as a whole, violence has continued in parts 
of Darfur. Indeed, last week alone, 60 people were killed in an assault 
on a village in West Darfur, the deadliest attack in months. There are 
also growing concerns that the country's democratic transition may be 
at risk. The Trump administration has used its seat on the U.N. 
Security Council--the body that possesses ultimate authority over the 
decision to withdraw UNAMID--to support the drawdown:

   Given recent developments, is there any thought being given to 
        potentially pumping the brakes on that process?

    Answer. In U.N. Security Council negotiations this year, the United 
States successfully pressed for an extension of the U.N.-AU 
peacekeeping mission in Darfur (UNAMID) due to concerns about ongoing 
insecurity there. The Department also negotiated the inclusion of 
unarmed civilian protection tasks into the new special political 
mission, the U.N. Integrated Transition Assistance Mission in Sudan 
(UNITAMS). The United States has continued to monitor the situation 
closely and raised its concerns about the escalating violence in 
Darfur, most recently in a Troika statement on July 16, 2020. The 
Department is urging the United Nations and African Union to produce an 
honest and frank report on security conditions on the ground in Darfur 
in October, as mandated in the new UNAMID resolution, as well as a 
realistic timeline for drawdown of the mission that accounts for the 
recent violence, its protection of civilians responsibility, COVID-19 
and the rainy season.

    Question. What do you see as the necessary prerequisites for a 
withdrawal of U.N. forces, and does the current situation on the ground 
in Darfur meet those standards?

    Answer. The United States believes it is important for Sudan's 
civilian-led transitional government to be able to credibly protect 
civilians in Darfur. The Department was encouraged to see the civilian-
led transitional government's (CLTG) engagement with community leaders 
who have protested against the lack of security and accountability, as 
well as the CLTG's request for UNAMID's assistance with training, 
logistics, and equipment for a new joint security force deployed to 
Darfur, though any such assistance must follow the U.N.'s Human Rights 
Due Diligence Policy. The United States is encouraging the CLTG to go 
further and work closely with the new U.N. special political mission 
(UNITAMS), as well as the U.N.-AU peacekeeping mission in Darfur 
(UNAMID), to help implement the CLTG's national protection of civilians 
strategy and a peace agreement once it is signed.

    Question. In a major shift from previous U.S. policy, the Trump 
administration blocked attempts to hold an official meeting in the U.N. 
Security Council on the human rights situation in North Korea in 
December 2018 and December 2019. This was reportedly done to prevent a 
rupture in the diplomatic opening between the U.S. and North Korea on 
the nuclear file. Last September, Ambassador Robert King, former U.S. 
Special Envoy for North Korea Human Rights Issues, wrote in an opinion 
piece that, ``The Security Council clearly is the U.N. body which 
receives the highest attention and holds the greatest clout, and it is 
also quite apparent that the North Koreans pay particular attention to 
its actions. North Korea has been attentive and outspoken in defending 
its policies when the Security Council is involved, and the modest 
improvements in its human rights record (for example, in treatment of 
people with disabilities) indicates the importance of pressing North 
Korea for progress.'' The administration has argued that U.N. human 
rights mechanisms like the Human Rights Council need to be more 
effective at confronting dictatorial regimes that systematically abuse 
human rights:

   Why then, did the administration not support a discussion of the 
        human rights record of what is probably the most repressive 
        regime in the world in the U.N.'s most important decision-
        making body?

   If confirmed, will you commit to working to return this issue to 
        the Security Council's agenda?

    Answer. The United States did not block discussion of the human 
rights situation in the DPRK. We have made the case for the U.N. 
Security Council to take strong, unified action on human rights as well 
as on the full range of DPRK issues we face, particularly in response 
to any major provocation by the DPRK that would undermine international 
security and violate multiple UNSC resolutions. The human rights 
situation on the Korean Peninsula warrants discussions, as does the 
DPRK's WMD and missile programs. Improving human rights in the DPRK 
remains a key administration objective.

    Question. If confirmed, will you commit to working to return this 
issue to the Security Council's agenda?

    Answer. We believe the DPRK is among the most repressive 
authoritarian states in the world and remain committed to addressing 
the human rights situation in the DPRK. We work with the international 
community to raise awareness, highlight abuses and violations, increase 
access to independent information, and promote respect for human rights 
in the DPRK. We will continue to seek ways to address in New York--
including in the U.N. Security Council--the DPRK's human rights abuses 
regardless of the status of our relationship with the DPRK.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Mission to the United Nations will not take any action to 
support, promote, or participate in any matters related to, or that 
could be perceived as benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes. I agree that prohibited personnel practices is wholly 
inappropriate. I take allegations of such practices seriously and if 
confirmed, I will maintain a policy of no tolerance for prohibited 
personnel practices.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will seek--as I have throughout my career--
every opportunity to strengthen diversity and encourage an inclusive, 
collaborative, and respectful workplace at the U.S. Mission to the 
United States.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Advancing the cause of human rights and democracy has been 
an animating principle in my career. I worked to establish a just and 
impartial judicial system in Iraq to promote the rule of law and the 
equal protection of all Iraqis. In my work to conceptualize the Free & 
Open Indo-Pacific Strategy, key pillars included a focus on 
strengthening democratic governance in the region. In my time working 
for Sen. Cotton, I'm proud that I assisted him in drafting the original 
Hong Kong Human Rights & Democracy Act to protect the unique identity 
and liberties of Hong Kongers. That bill--largely unchanged since Sen. 
Cotton introduced it--was passed unanimously by Congress and signed 
into law by the President.

    Question. What issues are the most pressing challenges to democracy 
or democratic development that are under the jurisdiction of the United 
Nations? These challenges might include obstacles to participatory and 
accountable governance and institutions, rule of law, authentic 
political competition, civil society, human rights and press freedom. 
Please be as specific as possible.

    Answer. Violations of human rights are a chief impediment to 
sustainable democratic development and those who commit human rights 
violations remain a menace around the world. Threats to religious 
liberty and property rights, among others, undermine fundamental 
freedom and human dignity, and often these threats cut across borders 
and negatively affect regional stability.
    The Security Council is an appropriate forum to deal with human 
rights abuses and violations. Such violations are often not only the 
byproduct of conflict, but a bellwether for it. The Security Council 
should continue to address human rights through reporting on 
peacekeeping and special political missions, sanctions, and dedicated 
sessions on the worst human rights situations. It should also consider 
the connection between human rights and security more broadly. If 
confirmed, I will increase efforts to ensure that U.N. peacekeeping 
missions and special political missions continue to improve their 
efficiency and efficacy in fulfilling their mandates to protect 
civilians and monitor and report on violations and abuses of human 
rights.

    Question. What steps will you take--if confirmed--to support 
democracy promotion at the United Nations? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will continue U.S. democracy promotion 
efforts at the United Nations through high-level engagements, 
coordination with partners, and messaging aimed at promoting democracy. 
The United States works very closely with civil society representatives 
and like-minded democracies, including European Union member states, 
Japan, Israel, South Korea, Canada, and Australia, in promoting 
democracy at the United Nations. This coordination and support 
manifests itself in all of the different U.N. fora, including in the 
Security Council, the Economic and Social Council (ECOSOC), and the 
General Assembly. The United States also remains a strong proponent of 
the U.N. Democracy Fund (UNDEF) as it strengthens the voice of civil 
societies, promotes human rights, and encourages the participation of 
all in democratic processes.
    There are many obstacles in furthering this goal at the United 
Nations, including the malign influence of Russia and the People's 
Republic of China in the Security Council and all other fora of the 
U.N. system. If confirmed, I will seek to continue the administration's 
efforts to push back against this problematic behavior. These efforts 
resist Russia and the PRC's attempts to use the United Nations as a 
tool to promote authoritarian ideologies and to advance narrow domestic 
agendas at the expense of the international system.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society at the United Nations? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with members of civil 
society members, human rights and other non-governmental organizations 
in the United States, local human rights NGOs, and other members of 
civil society at the United Nations. The United States is committed to 
promoting the effective involvement of NGOs in the work of the United 
Nations and other international organizations, as evidenced by our 
active engagement as an elected member of the U.N. NGO Committee. The 
NGO Committee, which was established by ECOSOC in 1946, is charged with 
evaluating and recommending consultative status for NGOs that apply for 
accreditation to allow them to participate in and otherwise access U.N. 
bodies and events. The United States will continue to defend the right 
of civil society organizations to attend meetings and speak, where 
appropriate. In particular, I commit to ensuring civil society members, 
human rights groups, and NGO's have an active role briefing and 
engaging with the U.N. Security Council.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will use the platform provided by this 
position to uphold democratic values and support democratic 
institutions around the world, including through meeting democratically 
oriented political opposition figures. I will also continue the United 
States' strong track record of promoting women, minority, and youth 
participation at all levels of government, including in political 
parties. I stand by our commitment to advocate for their meaningful 
participation in political processes and to ensure their voices are 
heard.

    Question. Will you and your team actively engage with U.N. 
counterparts on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press?

    Answer. Yes. The United States has long championed freedom of the 
press and protection of journalists using relevant U.N. venues. If 
confirmed, I look forward to continuing that effort, which will include 
meeting with press as often as possible and appropriate.

    Question. Will you and your team actively engage with civil society 
and government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors?

    Answer. Yes. Civil society plays a crucial role in highlighting the 
dangers of disinformation and propaganda. If confirmed, I commit to 
being engaged with civil society and member state counterparts to 
identify these threats and take steps to counter them.

    Question. Will you and your embassy teams actively engage with U.N. 
counterparts on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Labor groups are important and credible voices in any 
vibrant civil society. If confirmed, I commit to being engaged in 
conversations about and with such groups at the United Nations.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? What challenges do the lesbian, 
gay, bisexual, transgender and queer (LGBTQ) people face with respect 
to the work of the U.N.? What specifically will you commit to do to 
help LGBTQ people through your role at the U.N.?

    Answer. Promoting, protecting, and advancing the human rights of 
everyone--including LGBTI persons--has long been and should remain the 
policy of the United States. If confirmed, I will support the 
Department's efforts to protect LGBTI persons around the world from 
violence, criminalization, discrimination, and stigma. Although most 
issues related to LGBTI human rights fall outside the scope of the 
Security Council and the other work related to my specific duties, if 
confirmed, I will work to ensure that proper attention is given when 
situations before the Security Council implicate the human rights of 
LGBTI persons.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Alex Nelson Wong by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Advancing the cause of human rights and democracy has been 
an animating principle in my career. I worked to establish a just and 
impartial judicial system in Iraq to promote the rule of law and the 
equal protection of all Iraqis. In my work to conceptualize the Free & 
Open Indo-Pacific Strategy, key pillars included a focus on 
strengthening democratic governance in the region.
    In my time working for Sen. Cotton, I'm proud that I assisted him 
in drafting the original Hong Kong Human Rights & Democracy Act to 
protect the unique identity and liberties of Hong Kongers. That bill-
largely unchanged since Sen. Cotton introduced it-was passed 
unanimously by Congress and signed into law by the President.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will seek every opportunity to strengthen 
diversity and encourage an inclusive, collaborative, and respectful 
workplace at the U.S. Mission to the United States.

    Question. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the United Nations are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will cultivate actively a diverse and 
inclusive team, and mentor supervisors in steps toward that goal, 
including open and transparent communication, clear and equitable 
expectations, and respect for all.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes security interests, including stocks, in 
companies, some of which may be based or have a presence overseas. I am 
committed to following all applicable ethics laws and regulations and 
remaining vigilant with regard to my ethics obligations.



                               __________

         Correspondence Supporting Lt. Gen. Dayton's Nomination
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, AUGUST 5, 2020 (pm)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:15 a.m., via 
videoconference, Hon. Cory Gardner, presiding.
    Present: Senators Gardner, Young, Cardin, Shaheen, Kaine, 
and Merkley.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing of the Senate Foreign 
Relations Committee will come to order. Welcome all to today's 
full virtual committee. It is a full committee hearing, fully 
virtual as well, on nominations.
    Today we have five distinguished nominees, including Mr. 
Erik Paul Bethel of Florida to be Ambassador to the Republic of 
Panama; and Mr. Jonathan Pratt of California to be Ambassador 
to the Republic of Djibouti; Ms. Barbera Hale Thornhill of 
California to be Ambassador to the Republic of Singapore; Mr. 
Thomas Laszlo Vajda of Arizona to be Ambassador to the Union of 
Burma; and the Honorable Kenneth Weinstein of the District of 
Columbia to be Ambassador to Japan.
    Congratulations to all of you and your families on your 
nominations and your willingness to serve. Thank you for being 
here today.
    We have a couple people who wish to make some 
introductions. I will first turn it over to a distinguished 
member of the United States Senate, our former colleague, but 
nonetheless distinguished. It is a continued honor to have 
Senator Lieberman with us. Mr. Weinstein has a guest obviously, 
that being Senator Joe Lieberman from Connecticut who served in 
this body from 1989 to 2013. Senator Lieberman, the floor is 
yours.

            STATEMENT OF HON. JOSEPH L. LIEBERMAN, 
              FORMER U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thanks very much. I am really excited to 
see my friends on the dais.
    I am honored to----
    Senator Gardner. If I could just interrupt real quick, if 
you are not speaking, if you could hit the mute button, that 
would be great. Please continue, Senator Lieberman.
    Senator Lieberman [continuing]. Okay, thanks.
    So I am honored to introduce Ken Weinstein to this 
committee as the President's nominee to be Ambassador to Japan.
    As you know, it has been more than a year since the U.S. 
has had an ambassador in Japan. This is a critical bipartisan 
relationship for a long time, bipartisan and bilateral for a 
long time. And this year is a particularly important year with 
everything going on with COVID-19, with the increasing tensions 
between the U.S. and China, and of course, our continuing 
concerns about North Korea. So having an ambassador from the 
U.S. in Tokyo to strengthen this critical bipartisan 
relationship could not be more urgent, and frankly, I cannot 
think of a better nominee than Ken Weinstein.
    He is extremely prepared to take on this responsibility by 
his own background in U.S.-China studies and relations. He is 
head of the Hudson Institute and through that has developed not 
only a great knowledge of the U.S.-Japanese relationship but 
very deep friendships and trusting relationships within Japan 
both in the Government and in the business community. And his 
nomination has been broadly applauded within Japan. And I know 
they are actually anxious for him to arrive.
    It has also engendered an impressive and in these days 
unique response here in the United States, really across the 
board. When Ken was first nominated by President Trump, among 
the people who supported him were Senators Tom cotton and 
Sheldon Whitehouse, Kay Coles James, who is the President of 
the Heritage Foundation, and David Harris, President of the 
American Jewish Committee. In the last week or 2, about 50 what 
I have come to know as formers, former people in public service 
in Washington, sent a letter to your committee, Chairman 
Gardner, endorsing Ken and urging his confirmation soon. And it 
was really a remarkable group that included again very broad, 
very experienced, very involved in U.S.-Japanese relationships, 
including two former Vice Presidents, Mondale and Quayle, I 
cannot resist saying one almost former Vice President 
Lieberman.
    [Laughter.]
    Senator Lieberman. And National Security Advisors Hadley 
and McMaster, Directors of National Intelligence Blair and 
Coates, Ambassador Nikki Haley, and a lot of others as well. 
And they all agree--and this summarizes it--that Ken's foreign 
policy expertise, experience, and his personal temperament will 
make him a superb Ambassador to Japan.
    I want to say in conclusion very briefly that I am really 
thrilled with this nomination and really thrilled to have the 
chance to speak briefly to your committee because I not only 
know Ken through the Hudson Institute, which I have had 
relations with for a long time, and the years since I left the 
Senate, for the last 5 or 6 years, I have actually co-chaired a 
group out of the Hudson Institute, which is a bipartisan 
commission on biodefense with Tom Ridge, the former and first 
Secretary of Homeland Security.
    But beyond that, I know Ken personally. He is a friend. 
During my years in Washington, we went to the same synagogue 
together, the Georgetown synagogue. His family and mine have 
become friendly. He has a wonderful wife Amy. [inaudible] 
extraordinarily gifted warm interest in children. So this is a 
person of real honor and integrity who meets people well, who 
is a real American patriot based on his own life story and also 
is devoted to strengthening U.S.-Japanese relations.
    So again, I thank you for holding this hearing, for giving 
me the opportunity to introduce him, and needless to say, along 
with the others who wrote that letter a short while ago, I urge 
you to confirm him and send him to Tokyo as soon as possible.
    Thank you very much.
    Senator Gardner. Thank you, Senator Lieberman, and thank 
you again for returning and joining us. I greatly appreciate 
your comments today and look forward to seeing you in person 
when we are able to do so again soon. Thank you, Senator 
Lieberman.
    I want to make a few brief comments--then I will turn it 
over to Senator Merkley--about the nominees this morning.
    Obviously, there are three nominees, Ms. Thornhill, Mr. 
Vajda, and Mr. Weinstein, who we visit with our work in Asia. 
This committee has worked successfully on the Asia Reassurance 
Initiative Act. The legislation passed with bipartisan support 
unanimously several years ago to create that first-time 
generational strategy as it relates to China and the Indo-
Pacific built on three pillars, economy, security, and rule of 
law, democracy, and human rights. That legislation has set the 
framework for the work that we do in things like the Defense 
Authorization Act, the Pacific Deterrence Initiative. So I very 
much look forward to hearing how the nominees today will be 
able to implement, utilize the tools and the full array of 
opportunities that the Asia Reassurance Initiative Act has 
provided in their duties they will be carrying out in Burma, 
Japan, and Singapore and certainly Djibouti and Panama. We know 
the concerns that have been expressed universally with regard 
to China and how that Asia Reassurance Initiative Act can 
affect our work even beyond the free and open Indo-Pacific.
    So I very much appreciate all of your willingness to serve. 
The families who are joining us on the Zoom, welcome and know 
that we appreciate you being here today.
    Senator Merkley, I will turn it over to you if you would 
like to make a few comments.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman, and 
thank you to the nominees for your willingness to serve.
    I am pleased that even amidst the disruptions to normal 
Senate business, we are able to move forward and consider 
ambassadorial nominees to key countries. Each of the nominees 
would oversee critical bilateral relationships touching on key 
challenges such as economic development, human rights, climate 
chaos, military cooperation. All of them would have some role 
to play in navigating China's various challenges to U.S. 
leadership in the world.
    Some of these nominees will represent the United States in 
countries that are regional leaders in Asia and are crucial to 
the implementation of our Indo-Pacific policy. Their work and 
influence would be instrumental in asserting U.S. leadership in 
Asia.
    If confirmed, they would assume leadership roles during a 
global pandemic that has killed 700,000 people around the 
world, devastating the global economy, giving rise to 
tremendous global health and humanitarian needs. It has 
exacerbated the risk of human rights abuse and violent conflict 
and harmed many of the world's most vulnerable people. And I 
look forward to hearing from each of you about your vision for 
strengthening the United States' ties with these countries and 
advancing U.S. policy leadership.
    Senator Gardner. Thank you, Senator Merkley. I appreciate 
it.
    I know Senator Cardin was on the call as well, but if you 
do not mind, unless anybody else wishes to jump in here, I will 
go ahead and turn it over to the nominees today.
    I would kindly ask that you limit your verbal remarks to no 
more than 5 minutes and your full written statements, of 
course, will be made a part of the record. This is a little bit 
of the honor system here because the time clock, the shot clock 
does not necessarily display properly or at all in this case. 
So please keep your comments to 5 minutes. We will get your 
full statement into the record.
    And we will begin with Mr. Bethel and then we will turn, of 
course, to Mr. Pratt, followed by Ms. Thornhill, then Mr. 
Vajda, and then, of course, Ken Weinstein. So thank you very 
much. Mr. Bethel, you may begin.

  STATEMENT OF ERIK PAUL BETHEL, OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF PANAMA

    Mr. Bethel.  Thank you, Senator. Can you hear me?
    Senator Gardner. I can hear you great. Thanks.
    Mr. Bethel.  Thank you.
    Chairman, Ranking Member, and distinguished members of the 
Foreign Relations Committee, it is a great privilege to appear 
before you here today. And I am honored that the President 
nominated me to serve as Ambassador to Panama, and I am 
grateful for his support and for the support of Secretary 
Pompeo.
    Before I begin, I would like to acknowledge my wife 
Michelle and my children, Ana Cristina, Nicolas, and Francisca, 
as well as my mother Diana who is an emigre to the United 
States from Cuba and also a local hire at the U.S. embassy in 
Havana in the 1950s. I would also like to acknowledge my late 
father, Paul Bethel, who spent a career in public service with 
State Department, and his legacy is critical to me being with 
you here today. I am especially grateful to have my wife 
Michelle in my life and for her continued support of my desire 
to serve our nation.
    This is a tremendous privilege for me, and I cannot think 
of a greater honor than to serve our country in Panama.
    My most recent experience was representing the U.S. at the 
World Bank, a position for which I was confirmed by the Senate 
in 2018. And previously for more than 2 decades, I worked at 
the intersection of finance and emerging markets. I have lived 
and worked in both Latin America and in Asia. I speak Spanish. 
I speak Mandarin. I speak Portuguese. If confirmed, I hope to 
utilize all of my experiences and skills to promote the mission 
of the State Department and to advance the interests of the 
United States.
    Now, our relationship with Panama is one of great 
importance. For decades, Panama has been an enduring partner of 
the U.S., and Panamanians share our commitment to democracy, to 
human rights, and to free markets. And if confirmed, I will 
work assiduously with the Panamanian Government and its people 
to deepen the relationship with the United States, given our 
shared history.
    I am also aware, notwithstanding Panama's relative economic 
and political stability, that there are issues of concern. 
Transnational crime, inequality, and corruption pose an 
enduring challenge to the immense potential of Panama. If 
confirmed, I aspire to foster greater cooperation and work 
constructively with the Panamanian Government and its people to 
address these issues.
    If confirmed, I would also seek to leverage the 
capabilities of all U.S. stakeholders so that our capacity can 
be used most productively to advance our nation's foreign 
policy interests. I will seek to work with Panama to further 
U.S. priorities such as safeguarding our significant expat 
population, promoting investment opportunities for U.S. 
businesses, and enhancing the integrity of our interconnected 
financial and banking systems.
    And finally, if confirmed as Ambassador to Panama, I will 
work closely with the members of this committee and its staff 
and with other Members of Congress to perform my 
responsibilities as a faithful representative of the United 
States and the American people.
    Mr. Chairman, thank you for this opportunity to appear 
before you and other members of the committee, and I look 
forward to your questions. Thank you.
    [The prepared statement of Mr. Bethel follows:]


                   Prepared Statement of Erik Bethel

    Chairman Risch, Ranking Member, and distinguished members of the 
Foreign Relations Committee, it is a great privilege to appear before 
you today. I am honored that President Trump nominated me to serve as 
Ambassador to Panama, and I am grateful for the support and confidence 
of the President and Secretary Pompeo.
    Before I begin, I'd like to acknowledge my wife Michelle, my 
children Ana Cristina, Nicolas, and Francisca (``Panchita''), as well 
as my mother Diana, an emigre from Cuba and a local hire at the U.S. 
Embassy Havana in the late 1950s. I would also like to acknowledge my 
late father Paul Bethel who spent a career in public service with the 
U.S. Department of State. His legacy is critical to my being here with 
you today. I'm especially grateful to have my wife Michelle in my life, 
and for her continued support of my desire to serve our nation.
    This is a tremendous privilege and I can think of no greater honor 
than to serve our country in Panama. I've long aspired to work in the 
public sector, especially in the capacity of diplomacy. I look forward 
to sharing my objectives as a nominee and to answering any questions 
involving my qualifications and experiences.
    My most recent experience was representing the United States at the 
World Bank, a position for which I was confirmed by the Senate in 2018. 
Previously, for more than two decades, I worked at the intersection of 
finance and emerging markets. I have lived and worked in both Latin 
America and Asia, and speak Spanish, Portuguese and Mandarin. If 
confirmed, I hope to utilize my professional experiences and skills to 
promote the mission of the State Department and further U.S. interests.
    Our relationship with Panama is one of great importance. Panama has 
been a strong and enduring partner of the United States. Panamanians 
share our commitment to democracy, human rights and free markets. If 
confirmed, I will work assiduously with the Panamanian Government and 
people to deepen the relationship with the United States, given our 
shared history and common destiny. I am also aware--notwithstanding 
Panama's relative economic and political stability--that there are 
issues of concern. Cycles of corruption, inequality, and transnational 
crime pose an enduring challenge to the immense potential of Panama. If 
confirmed I aspire to foster cooperation and work constructively with 
the Panamanian Government and its people address these issues.
    If confirmed as Ambassador to Panama, I would also seek to leverage 
the capabilities of all U.S. stakeholders so that our capacity can be 
used most productively to advance our nation's foreign policy 
interests. Furthermore, I will seek to work with Panama to further U.S. 
priorities such as safeguarding our significant expatriate population, 
promoting greater foreign direct investment opportunities for American 
businesses, and enhancing the integrity of our interconnected financial 
and banking systems. Finally, if confirmed as Ambassador to Panama, I 
will work closely with the members of this committee and its staff, and 
with other Members of Congress, to perform my responsibilities as a 
faithful representative of the American people.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and I look forward to your 
questions.


    Senator Gardner. Thank you, Mr. Bethel. Thank you for your 
testimony.
    Mr. Pratt. we will turn to you.

STATEMENT OF JONATHAN PRATT, OF CALIFORNIA, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF DJIBOUTI

    Mr. Pratt. Thank you very much, Senator.
    Mr. Chairman, Ranking Member, and distinguished members of 
the committee, I am honored to come before you as the 
President's nominee to be the next United States Ambassador to 
the Republic of Djibouti. I am grateful to the President and 
the Secretary of State for their confidence in me. If 
confirmed, I will work with this committee and the Congress to 
advance our country's interests in Djibouti.
    Mr. Chairman, my experience in Africa began as a Peace 
Corps volunteer in Guinea-Bissau 25 years ago. In the course of 
my Foreign Service career, I have participated in American 
efforts to resolve conflicts in the Democratic Republic of the 
Congo and in the Sudan. I know that leading an embassy is a 
tremendous responsibility. If confirmed, I carry with me my 
experience as Deputy Chief of Mission at our embassy in 
Pakistan where I helped lead one of our largest overseas 
interagency teams, including colleagues from the armed 
services.
    Throughout my career, helping develop the strength and 
effectiveness of the State Department and the Foreign Service 
has been a priority of mine. Please know that, if confirmed, I 
am committed to supporting the development of my institution 
and my colleagues, including the growth of a more diverse corps 
of professionals and leaders that truly reflects the strength 
and diversity of our great nation.
    Over the last 5 years, Djibouti's economy has grown more 
than 5 percent per year, and the country is making sizable 
investments in its shipping, energy, and information technology 
sectors. If confirmed, I will work to build on the success of 
the current Ambassador to expand access for American companies 
and to ensure they are able to compete on a level playing 
field.
    Since 2002, Djibouti has hosted the only enduring U.S. 
military installation in Africa at Camp Lemonnier. Along with 
Chabelly Airfield, Camp Lemonnier is a crucial platform for our 
armed forces who are working to promote security through the 
region. They are now on the frontlines of our great power 
competition with China, which in 2017 opened its first foreign 
military base in Djibouti. Ensuring the long-term viability of 
American military installations in Djibouti is a national 
security priority, and if confirmed, I commit to extending my 
full support to our esteemed military colleagues who are based 
there.
    We have a broad-based security partnership with the 
Government of Djibouti. The United States has helped train and 
equip Djiboutian peacekeeping troops deployed with the African 
Union Mission to Somalia. The United States has also supported 
President Omar Guelleh's effort to facilitate reconciliation 
between Somalia and Somaliland. If confirmed, I will continue 
to support these joint initiatives, which are vital to the 
security of the Djiboutian and American people.
    Mr. Chairman, it is a great honor to sit here before you 
today. My maternal grandparents were Italian immigrants, and my 
mother was the first in her family to attend university here, 
later becoming a public school teacher and psychologist. My 
paternal grandfather contributed to our success in World War II 
as an engineer building aircraft engines. My father served in 
the U.S. Navy while studying nuclear medicine at the Bethesda 
Naval Hospital. It has been an honor to walk in their footsteps 
and dedicate my own life to public service.
    My wife, Bridget Lines, is also a Foreign Service officer.
    Mr. Chairman and members of the committee, I welcome any 
questions you may have. Thank you for considering my 
nomination.
    [The prepared statement of Mr. Pratt follows:]


                Prepared Statement of Jonathan G. Pratt

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to come before you as the President's nominee 
to be the next United States Ambassador to the Republic of Djibouti. I 
am grateful to the President and the Secretary of State for their 
confidence in me. If confirmed, I will work with this committee and the 
Congress to advance our country's interests in Djibouti.
    Mr. Chairman, my experience in Africa began as a Peace Corps 
Volunteer in Guinea-Bissau over twenty-five years ago. In the course of 
my Foreign Service career, I have participated in American efforts to 
resolve conflicts in the Democratic Republic of the Congo and in the 
Sudan. I know that leading an embassy is a tremendous responsibility. 
If confirmed, I carry with me my experience as Deputy Chief of Mission 
at our embassy in Pakistan, where I helped lead one of our largest 
overseas interagency teams, including colleagues from the armed 
services.
    Throughout my career, helping develop the strength and 
effectiveness of the State Department and the Foreign Service has been 
a priority of mine. Please know that, if confirmed, I am committed to 
supporting the development of my institution and my colleagues, 
including the growth of a more diverse corps of professionals and 
leaders that truly reflects the strength and diversity of our great 
nation.
    Mr. Chairman, the administration's Africa Strategy, signed by the 
President, focuses on three core objectives: 1) advancing trade and 
commercial ties with key African states to increase American and 
African prosperity; 2) protecting the United States from cross-border 
health and security threats; and 3) supporting key African states' 
progress toward stability, citizen-responsive governance, and self-
reliance.
    Over the last five years Djibouti's economy has grown more than 
five percent per year and the country is making sizable investments in 
its shipping, energy, and information technology sectors. If confirmed, 
I will work to build on the success of the current ambassador and 
country team to expand access for American companies in these sectors 
and to ensure that they are able to compete on a level playing field 
with other global companies. China has financed many of Djibouti's 
recent infrastructure projects and now holds more than 70 percent of 
Djibouti's external debt. Promoting and protecting American access and 
influence in Djibouti, in spite of growing Chinese influence, is 
paramount to our national security. If confirmed, I will make it a top 
priority to ensure that American companies that want to do business in 
Djibouti are able to do so, with the knowledge that American products 
and services are still the gold standard.
    Since 2002 Djibouti has hosted the only enduring U.S. military 
installation in Africa, at Camp Lemonnier. Along with Chabelly 
Airfield, Camp Lemonnier is a crucial platform for our armed forces, 
who are working to promote security throughout the region. They are now 
on the frontlines of our great power competition with China, which in 
2017 opened its first foreign military base in Djibouti. Ensuring the 
long-term viability of American military installations in Djibouti is a 
national security priority, and if confirmed, I commit to extending my 
full support to our esteemed military colleagues who are based there.
    We have a broad-based security partnership with the Government of 
Djibouti. The United States has helped train and equip Djiboutian 
peacekeeping troops deployed with the African Union Mission to Somalia. 
The United States has also supported President Omar Guelleh's effort to 
facilitate reconciliation between Somalia and Somaliland. If confirmed, 
I will continue to support these joint initiatives, which are vital to 
security of the Djiboutian and American people.
    In order to sustain Djibouti's economic and security gains, we must 
also support the development of Djibouti's democratic institutions. To 
that end, the United States has assisted Djibouti and its people to 
improve governance. Next year's presidential election provides an 
opportunity to encourage further progress.
    Mr. Chairman, it is a great honor to sit before you here today. My 
maternal grandparents were Italian immigrants and my mother was the 
first in her family to attend university here, later becoming a public 
school teacher and psychologist. My paternal grandfather contributed to 
our success in World War II as an engineer building aircraft engines. 
My father served in the U.S. Navy while studying nuclear medicine at 
the Bethesda Naval Hospital. It has been an honor to walk in their 
footsteps and dedicate my own life to public service. My wife Bridget 
Lines, here with me today, is also a Foreign Service Officer.
    Mr. Chairman and members of the committee, I welcome any questions 
you may have. Thank you for considering my nomination.


    Senator Gardner. Thank you, Mr. Pratt. And thanks to all 
those you mentioned in your statement supporting you.
    Ms. Thornhill, welcome to the Senate Foreign Relations 
Committee. You may begin with your statement.

   STATEMENT OF BARBERA HALE THORNHILL, OF CALIFORNIA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO REPUBLIC OF SINGAPORE

    Ms. Thornhill. Mr. Chairman, Ranking Member, and members of 
the committee, it is my honor and privilege to appear before 
you as President Trump's nominee to be Ambassador to Singapore. 
I am grateful for the faith and confidence that President Trump 
and Secretary of State Pompeo have shown in me.
    If I may, I would like to introduce my family and friends 
that are important in my life. My son Hale; my new daughter 
Kelly; Oddie Nwobi, who is like a second son to me; my cousins, 
Fred and Fabian Thornhill; my long-time colleague, Rosie Segal, 
Janet Ramirez, and Evelyn Mangilet. Thank you.
    I have come from a loving family in North Carolina, long 
known for its involvement in health care and charitable work. 
My mother, a pediatrician, was one of the first women to go to 
Duke Medical School, and my father, an ENT, invented the 
procedure known as the stapedectomy, an operation that led to 
the cochlear implant, a device that has helped hundreds of 
thousands of people hear again. But more than his skill as a 
surgeon, it was my father's commitment to treating underserved 
people and providing them with blessings that we so often take 
for granted that inspires me even now and motivates me every 
day.
    My professional calling has not been medicine, however, but 
creating and succeeding in business. While at George 
Washington, I started an importing company selling grasscloth 
and silk wall covering from Korea and Japan to hotels and 
stores. The success of my first company led me to expand and 
create a design firm which managed many multi-complex projects 
from Riyadh, Saudi Arabia to the Narita Hotel in Japan to the 
world clubs in Tokyo airport to Disney's five-start Mira Costa 
Hotel in Hong Kong.
    The United States and Singapore respect the rule of law and 
have many shared values, including diversity, transparency, 
meritocracy, and innovation. Singapore has been very responsive 
and transparent with its efforts to counter the spread of the 
coronavirus, so it is no surprise that the U.S. and Singapore 
have collaborated and worked closely together on it.
    For more than half a century, the United States and 
Singapore have forged an enduring relationship based on our 
essential principles.
    One, Singapore is a vital economic partner for the U.S. The 
first bilateral free trade agreement that the U.S. signed with 
an Asian country was Singapore in January, 2004. In 2018, we 
had a trade surplus in goods and services which totaled more 
than $18 billion. There are more than 4,500 companies in 
Singapore supporting over 200,000 jobs in the U.S.
    Number two, Singapore is one of America's strongest defense 
partners in the region. This bilateral defense partnership 
bedrock is built on a 1990 memorandum of understanding and 
other agreements that allow U.S. military access to Singapore 
bases, airfields, and ports. Singapore recently purchased four 
F-35B fighters. Singapore has the largest permanent foreign 
military training presence in the United States with over 1,000 
Singaporean Air Force people here at one time.
    Our President made it crystal clear that Singapore is a 
priority for our country by signing the renewal of the 1990 MOU 
with Prime Minister Lee in 2019.
    Number three, our country has a robust law enforcement and 
homeland security partnership that works together on economy, 
smart cities, responsible and secure 5G implementation to 
strengthen our security cooperation.
    And finally, our people-to-people ties with a focus on 
human rights that is near and dear to my heart. Let me share 
why. I had the honor to work with Mother Teresa and the Sisters 
of Charity in Calcutta in 1994, lending an American heart and 
hands to the important work with children in orphanages and to 
the destitute and dying in the hospice known as the Home of the 
Pure Heart.
    I participated in Operation Smile missions in Vietnam, 
Brazil, China, and elsewhere. These missions gave me an 
opportunity to see how one operation, one $250 operation, 
changed a life, a family, and a village.
    In the United States, I have worked with the Boy Scouts of 
America and provided leadership to over 20,000 under-privileged 
adolescents.
    I also worked with the Children's Institute in Los Angeles 
to provide basic needs and psychological counseling to over 
28,000 children who have been abused and suffered other 
horrible traumas.
    My social work experience motivates my interest in 
addressing human rights. Even though Singapore has moved from 
tier 2 to tier 1, I will work closely with the Singaporeans in 
combating human trafficking, if confirmed as Ambassador.
    If I am fortunate enough to be confirmed as Ambassador, I 
promise you that I will be a steward of all aspects of the 
relationship. I will be a vocal proponent for the United 
States, our views on inclusiveness, our support for democracy, 
and for one of our most important, cherished partners in the 
world, Singapore.
    Chairman Gardner and members of the committee, thank you 
for inviting me to testify before you today and giving my 
nomination your serious consideration.
    I am pleased to answer your questions. Thank you.
    [The prepared statement of Ms. Thornhill follows:]


              Prepared Statement of Barbera Hale Thornhill

    Mr. Chairman, Ranking Member, and members of the committee. It is 
my honor and privilege to appear before you as President Trump's 
nominee to be Ambassador to Singapore. I am grateful for the faith and 
confidence that President Trump and Secretary of State Pompeo have 
shown in me.
    If I may, I would like to introduce my family and friends with me 
here today. My son Hale, my new daughter Kelly, Oddie Nwobi, who is 
like a second son to me, my cousins Fred and Fabian Thornhill, and my 
long-time friends and colleagues Evelyn Mangilet and Rosie Segal.
    Let me share a little about my background. I come from a loving 
family in North Carolina long-known for its involvement in healthcare 
and charitable work. My mother, a pediatrician, was one of the first 
women to go to Duke Medical School and my father, an ENT, invented the 
procedure known as ``Stapedectomy,'' an operation that led to the 
Cochlear implant--a device that has helped hundreds of thousands of 
people hear again. But more than his skill as a surgeon, it was my 
father's commitment to treating underserved people and providing them 
with blessings that we so often take for granted that inspires me even 
now, and motivates me every day.
    My professional calling has not been medicine, however, but 
creating and succeeding in business. While at George Washington 
University, I started an importing company selling grasscloth and silk 
wallcovering from Korea and Japan to hotels and stores. The success of 
my first company led me to expand and create a design firm which 
managed many complex projects from the Narita Hotel in Japan, to world 
clubs at Tokyo airport, to Disney's 5-star Mira Costa Hotel in Hong 
Kong. These were multi-complex jobs around the world in Japan, China, 
England, and Saudi Arabia. I believe I learned much from these 
experiences about fostering inclusion and crossing cultural divides 
that will be useful if I am fortunate enough to be confirmed as 
Ambassador.
    My professionalism and respect for other cultures allowed me to 
overcome challenges and differences in order to successfully complete 
ventures in accordance with the highest business and personal 
standards. I believe that my personal and business background would 
serve me well should I be confirmed as Ambassador to Singapore--a 
country with a remarkable record of entrepreneurship and business 
success and the potential for an even brighter future.
    As you know, for more than half a century, the United States and 
Singapore have forged an enduring relationship based on four essential 
elements: (1) mutual economic interests, (2) defense cooperation, (3) a 
vigorous commitment to security, and (4) ongoing people-to-people ties. 
Both countries respect the rule of law and have many shared values--
including diversity, transparency, meritocracy, and innovation. 
Together we have partnered to address global threats and challenges 
including terrorism, transnational crimes, and the proliferation of 
weapons of mass destruction. So it is no surprise that the United 
States and Singapore have collaborated in our efforts to counter and 
stop the spread of the ongoing COVID-19 pandemic.
    Singapore has experienced a significant number of confirmed COVID-
19 infections per capita compared to many of its Southeast Asian 
neighbors. In the face of this challenge, Singapore has been very 
responsive and transparent with its efforts to counter the spread of 
corona virus since the outbreak began in late January. The Government 
has taken aggressive and proactive measures to reduce the spread of 
this virus, including by implementing robust detection, testing, 
surveillance, and contact monitoring procedures. U.S. and Singaporean 
entities have come together to address this crisis. For instance, a 
U.S.-based pharmaceutical company is currently working with the a joint 
medical school founded by the National University of Singapore and Duke 
University to develop a vaccine. Our governments have also exchanged 
information on best practices and discussed ways to keep medical supply 
chains open, including for personal protective equipment. Through such 
coordination, the United States and Singapore have worked closely 
through the COVID-19 crisis.
    Singapore is a vital economic partner for the United States. The 
first bilateral Free Trade Agreement the United States signed with an 
Asian country was with Singapore. From the day the bilateral Free Trade 
Agreement entered into force in January 2004, the United States has had 
a trade surplus in goods and services. In 2018 that surplus totaled 
more than $18 billion. There are more than 4,500 American companies in 
Singapore and the United States has invested more than $200 billion 
dollars in Singapore. We are Singapore's largest trading partner in 
services, and the two-way trade of goods and services between Singapore 
and the United States reached more than $90 billion in 2018. More 
importantly, the robust trade relationship has supported over 200,000 
jobs in the United States.
    Singapore, this amazing city-state, is only 3.5 times the size of 
Washington, D.C., but one of America's strongest defense partners in 
the region. This bilateral defense partnership bedrock is built on the 
1990 Memorandum of Understanding, the 2005 Strategic Framework 
Agreement, and the enhanced Defense Cooperation Agreement of 2015 which 
allows U.S. military access to Singapore bases, airfields, and ports. 
We have an $8.1B active Foreign Military Sales portfolio with 
Singapore. Singapore also decided to purchase four F-35B fighters. 
Singapore has the largest permanent foreign military training presence 
in the continental United States, with more than 1,000 Singapore Armed 
Forces personnel training at any one time. President Trump made it 
crystal clear that Singapore is a priority for our country by signing 
the renewal of the 1990 MOU with Prime Minister Lee in 2019, and 
Secretary of Defense Esper and the Singaporean Ministry of Defense 
signed an MOU in December last year, allowing Singaporean Air Force 
fighters to have a training facility in Guam.
    The United States and Singapore have benefited from a robust law 
enforcement and homeland security partnership that strengthens the 
security of our citizens, our companies, and our nations by addressing 
challenges including cybercrime, cybersecurity, and financial 
technology. The United States works with our very capable partner 
Singapore on digital economy, smart cities, responsible and secure 5G 
implementations, and supporting the free but secure flows of data.to 
strengthen our security cooperation, a third essential element.
    Finally, the fourth essential element of our relationship, our 
people-to-people ties, such as educational exchanges and other public 
diplomacy programs, remain important. Focus on human rights is 
especially near and dear to my heart. Let me tell you a bit why that is 
so important to me.
    I had the honor to work with Mother Teresa and the Sisters of 
Charity in Calcutta in 1994, lending an American heart and hands to 
their important work with children in orphanages, ailing homebound 
families, and to the destitute and dying in the hospice known as the 
``Home of the Pure Heart.''
    I participated in Operation Smile missions in Vietnam, Brazil, and 
China and elsewhere. These missions gave me an opportunity to see how 
one operation, one $250 operation could change a life, a family, and a 
village.
    In the United States I worked extensively with Scouts BSA formerly 
known as the Boy Scouts of America that has provided leadership and 
mentored youths to help them climb the ladder of personal achievement 
and prepare them for life struggles and challenges. This program has 
changed over 20,000 underprivileged adolescents.
    I also worked with the Children's Institute in Los Angeles to help 
provide basic needs, early childhood education, psychological 
counseling, personal encouragement, and love for over 28,000 children 
who have been abused and have suffered many other horrible traumas.
    My social work experience motivates my interest in addressing human 
rights and in particular human trafficking. Singapore has made 
significant strides in the fight against trafficking in recent years, 
including by expanding some protections within migrant labor 
recruitment systems and work conditions, and by identifying a higher 
number of victims. In November 2019, Singapore saw its first conviction 
of a labor trafficking case under the Prevention of Human Trafficking 
Act. Recognizing Singapore has moved from Tier 2 to Tier 1 in our 
annual anti-trafficking report, if confirmed, I will work closely with 
Singapore to encourage the Singaporeans to put even greater emphasis on 
this issue. I will work tirelessly on this effort.
    The U.S.-Singapore bilateral relationship serves as one of our most 
important partnerships in the region . . . a relationship we should 
embrace and treasure. Thanks to our shared values and long history of 
cooperation, we work closely with Singapore on shared regional security 
and economic objectives. Cooperation ranges from providing capacity-
building programs to ASEAN countries to reinforcing international law 
in the maritime domain.
    If I am fortunate enough to be confirmed as Ambassador, I promise 
you that I will be a steward of all aspects of the relationship, 
including with these four essential elements--trade, defense, security, 
and people-to-people programs. I will be a vocal proponent for the 
United States, our views on inclusiveness, and our support for 
democracy and for one of our most important, cherished partners in the 
world--Singapore.
    Chairman Gardner, Ranking Member Menendez, and, members of the 
committee, thank you for inviting me to testify before you today and 
giving my nomination your serious consideration.
    I am pleased to answer your questions. Thank you.


    Senator Gardner. Thank you, Ms. Thornhill. Thank you very 
much for that statement.
    Our next nominee, Mr. Thomas Laszlo Vajda, of Arizona, 
nominated to be the Ambassador to the Union of Burma. Mr. 
Vajda, please proceed.

 STATEMENT OF THOMAS LASZLO VAJDA, OF ARIZONA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
            STATES OF AMERICA TO THE UNION OF BURMA

    Mr. .Vajda.  Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member, distinguished members of the committee, thank you for 
the opportunity to appear before you today. I am honored to be 
the President's nominee to be the U.S. Ambassador to Burma and 
thank him for sending my name forward for consideration. I also 
thank Secretary Pompeo for his support.
    I also want to express my deep gratitude to my wife, Amy 
Sebes, and our two daughters, Bette and Emily, for their 
support and their sacrifice. They have repeatedly changed jobs, 
changed schools, and been distant from family and friends so we 
could serve our country abroad. They have been outstanding 
representatives of the United States and have truly served 
their country.
    I would also like to acknowledge my parents who came to the 
United States as penniless refugees from Hungary, escaping war 
and communism, and helped build a life for me here in this 
country.
    Since 1991, I have had the privilege of serving as a U.S. 
diplomat, protecting the welfare of American citizens and 
advancing U.S. interests and values. If confirmed, I look 
forward to continuing the opportunity to pursue that work in 
Burma, a country whose people we have supported for for decades 
in their efforts to overcome harsh military rule and achieve 
true democracy.
    I served as Deputy Chief of Mission in Rangoon from 2008 to 
2011 and worked to support the early stages of the opening in 
Burma that led to the country's first credible national 
elections in over 50 years in 2015.
    Since that time, the civilian government has made important 
progress in a number of areas, consolidating some reforms, 
combating transnational crime, fighting corruption, and opening 
Burma's economy. However, the ongoing marginalization of ethnic 
groups, violence in ethnic regions, and the involvement of the 
Burmese military in the economy and in politics have 
underscored that meaningful change in Burma remains an ongoing 
effort. This was never more clear than when the Burmese 
military committed horrendous atrocities, including ethnic 
cleansing, against the Rohingya community in August of 2017.
    The United States has repeatedly expressed our deep concern 
about the horrific violence against Rohingya and other human 
rights abuses. We have matched this concern with action. With 
thanks to Congress, we are the leading donor of humanitarian 
assistance in response to the Rakhine State crisis, providing 
more than $951 million to date.
    We are also a leading voice in pushing for justice for 
victims and accountability for those responsible for 
atrocities, including by sanctioning top Burmese military 
officials. We must continue efforts to change the military's 
behavior and promote justice and accountability. We must also 
continue to push Burma to create conditions for the safe, 
dignified, voluntary, and sustainable return of refugees and 
displaced persons.
    It is also critical that we support Burma's efforts to 
resist malign foreign influences and challenges to its 
sovereignty by helping those in Burma who are pushing back on 
unfair investment practices and deals that provide little 
benefit to host communities.
    I also want to highlight the importance of Burma's upcoming 
national election in November and acknowledge the significant 
funding that Congress has provided to support a free and fair 
vote.
    In light of Burma's enormous challenges and our own 
interest in the country's democratic and free market 
development, U.S. engagement is essential to advancing reform 
and helping Burma protect its autonomy. If confirmed, I look 
forward to representing the United States and working with the 
people of Burma to achieve the peace and prosperity they 
deserve.
    Thank you again for your consideration.
    [The prepared statement of Mr. Vajda follows:]


                   Prepared Statement of Thomas Vajda

    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, thank you for the opportunity to appear before you today. I 
am honored to be the President's nominee to serve as the United States 
Ambassador to Burma and thank him for sending my name forward for 
consideration. I also thank Secretary Pompeo for his support.
    I also want to express my deep gratitude to my wife, Amy Sebes, and 
our two daughters, Bette and Emily, for their support and their 
sacrifice. They have repeatedly changed jobs, changed schools, and been 
distant from family and friends so that we could serve the United 
States overseas. They have been outstanding representatives of the 
United States and have truly served their country.
    Since 1991, I have had the privilege of representing the United 
States and the American people as a U.S. diplomat. I believe strongly 
in public service and have worked throughout my career to protect the 
welfare of American citizens and advance U.S. interests and values. If 
confirmed, I look forward to the opportunity to continue this work in 
Burma--whose people we have supported for decades in their efforts to 
overcome harsh military rule and work toward true democracy.
    I know members of this committee follow Burma closely and 
understand the enormous challenges the people of Burma continue to 
face. For five decades, military or military-backed governments 
employed wide-scale repression and violence that left Burma with a long 
history of human rights abuses, civil strife, weak institutions, and an 
underdeveloped economy.
    I served as Deputy Chief of Mission in Rangoon from 2008 to 2011, 
and worked with Embassy colleagues to support the early stages of the 
opening that led to Burma's first credible national election in a half 
century in 2015. That led to improvements in a number of important 
areas. But as events have since shown, Burma continues to confront 
structural challenges to this day.
    The current civilian government has made important progress in 
consolidating some reforms, countering transnational crime, fighting 
corruption, and opening Burma's economy. However, the pace of reforms 
has slowed and in some cases stagnated. The ongoing marginalization of 
ethnic and religious minority groups, violence and abuses in ethnic 
regions, and involvement of the Burmese military in politics and the 
economy have underscored that meaningful change in Burma remains an 
ongoing effort and an ongoing necessity.
    This was never more clear than when the Burmese military committed 
horrific atrocities, including ethnic cleansing, against the Rohingya 
community in August 2017--three years ago this month. In a brutal 
response to attacks on its forces, the Burmese military massacred, 
assaulted, and raped thousands of Rohingya, driving more than 740,000 
to flee across the border into Bangladesh and internally displacing 
thousands more.
    The United States has repeatedly expressed our deep concern about 
the horrific violence against Rohingya and ongoing human rights abuses. 
We have matched this concern with action: with thanks to Congress, we 
are the leading donor of humanitarian assistance in Bangladesh and 
Burma in response to the Rakhine State crisis, providing more than $951 
million to date.
    We are also a leading voice in pushing for justice for victims and 
accountability for those responsible for atrocities and abuses, 
including by sanctioning top Burmese military officials. We must 
continue efforts to change the military's behavior, prevent future 
atrocities, and promote justice and accountability. We also must 
continue to push for Burma to create conditions for the safe, 
dignified, voluntary, and sustainable return of refugees and displaced 
persons.
    It is also critical that we support Burma's efforts to resist 
malign foreign influences and challenges to its sovereignty. While the 
United States and like-minded partners are urging more democratic, 
political, and economic reforms, there are others who work towards 
returning Burma to its closed and repressive past. To support Burma in 
this regard, the United States will need to continue helping government 
officials, economic reformers, and civil society actors who are pushing 
back on unfair investment practices and deals that provide little 
benefit to local communities.
    I also want to highlight the importance of Burma's upcoming 
election in November--only the second nationwide democratic election 
after five decades of military rule--and acknowledge the significant 
funding Congress has provided for programs to help ensure a free and 
fair vote and promote continued reforms.
    In light of Burma's enormous challenges and our own interest in the 
country's democratic and free-market development, U.S. engagement is 
essential to advancing these reforms and helping Burma defend against 
malign influences. Change in Burma will take time. It will take 
leadership and new ideas and hard-won progress; and the United States 
will have a critical role to play in supporting that process. If 
confirmed, I look forward to representing the United States and working 
with the people of Burma to achieve the peace and prosperity they 
deserve.
    Thank you again for your consideration. I look forward to your 
questions.


    Senator Gardner. Thank you, Mr. Vajda.
    And next we will turn to the nominee to be Ambassador to 
Japan, Mr. Ken Weinstein. Thank you very much. You may proceed.

  STATEMENT OF HON. KENNETH R. WEINSTEIN, OF THE DISTRICT OF 
COLUMBIA, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
             THE UNITED STATES OF AMERICA TO JAPAN

    Mr. .Weinstein.  Thanks, Mr. Chairman, Mr. Ranking Member. 
I am profoundly honored to appear before you today as President 
Trump's nominee to serve as U.S. Ambassador to Japan.
    I should note I am incredibly touched by the introduction 
by my friend, a great public servant, Senator Joe Lieberman. I 
am wondering why I am even bothering testifying after those 
remarks.
    But in all seriousness, I would like to offer heartfelt 
gratitude to the President, to Vice President Pence, and to 
Secretary Pompeo, as well as to the officers at State and 
Mission Japan.
    I would not be here today were it not for my inspiration 
and closest friend, my wife, Amy Kauffman. Our children, Raina, 
Harry, and Eden, are our pride and joy.
    Hudson Institute, which I head, is an extraordinary 
organization privileged to work with so many members of this 
committee on both sides of the aisle. I am deeply grateful to 
my colleagues and our trustees, especially Sarah May Stern and 
Wally Stern.
    Today, however, I think of those who have guided in life, 
most especially those who are no longer with us and in 
particular my parents who dedicated their lives to serving 
others. Dad, a physician in Brooklyn, made house calls until he 
was in his 70s. My mom, a refugee from Nazi Germany, taught in 
public schools in underserved communities. Mom knew 
totalitarianism firsthand and cherished the promise of America. 
She imbued this love in her students and in her five sons, and 
it is this dedication to service and love of a country that I 
will bring with me to Tokyo.
    As a scholar and think tank leader, I built relations of 
trust with leaders in Japan and at home, and I am deeply 
grateful that so many distinguished former officials support my 
nomination.
    The U.S.-Japan relationship is extraordinarily close, as we 
can see by the friendship and frequent communication between 
Prime Minister Abe and President Trump. The U.S.-Japan alliance 
is the cornerstone of peace, security, and prosperity in the 
Indo-Pacific. Japan hosts more American military than any other 
ally and key assets. Japan's national defense program 
guidelines are aligned with our National Security and our 
National Defense Strategy, and we share a vision of a free and 
open Indo-Pacific, a concept developed by Prime Minister Abe 
and then adapted by President Trump.
    If confirmed, I will encourage Japan to shoulder even 
greater responsibility in the face of the significant security 
challenges we face together in Northeast Asia, and it is 
essential that we leverage our joint capabilities through our 
allies and partners in line with the landmark Asia Reassurance 
Initiative. And I commend the chairman and this committee for 
sheperding this legislation through.
    Our two countries represent nearly 30 percent of global 
GDP, and if confirmed, I hope to work towards a comprehensive 
bilateral trade agreement while expanding economic cooperation 
in the Indo-Pacific and beyond. Together we pursue new 
frontiers in 5G, quantum, and AI, and Japan is our lead partner 
in the U.S.-led effort to send humans back to the moon.
    The trust embedded in the alliance, an alliance of strong 
and proud democracies, is critical to envisioning and realizing 
a secure post-pandemic world. And humanity as a whole looks to 
the 2020 Plus 1 Tokyo Olympic and Paralympic Games in what 
should be a celebration of our collective triumph over COVID-
19.
    In conclusion, I would like to thank the committee for your 
consideration of my nomination. If confirmed, I look forward to 
working closely with you and your talented teams and our 
talented teams in Washington and at Mission Japan to advance 
our national interests through close collaboration with Japan. 
Thank you very much.
    [The prepared statement of Mr. Weinstein follows:]


               Prepared Statement of Kenneth R. Weinstein

    I am profoundly honored to appear before you today as President 
Trump's nominee to serve as U.S. Ambassador to Japan.
    I would like to express my deep gratitude to the President, to Vice 
President Pence, and to Secretary Pompeo, as well as to the talented 
officers at the State Department and especially the remarkable 
personnel, American and Japanese, from State and other agencies in 
Mission Japan for their incredible dedication during these challenging 
times.
    I would not be here today were it not for my inspiration and 
closest friend, my wife of nearly twenty-four years, Amy Kauffman. Our 
three independent-minded children, Raina, 22, Harry, 21, and Eden, 18, 
are my pride and joy. If confirmed, all of us look forward to returning 
to Japan, a country we treasure, having visited multiple times as a 
family.
    I am very grateful to friends and colleagues at Hudson Institute, 
the think tank that has been my professional home for nearly twenty-
five of the twenty-nine years that I have been in the workforce. I have 
learned so much from our interactions and am proud of what we have 
built together.
    Although Hudson founder Herman Kahn (1922-1983) passed away long 
before I joined the Institute, he stoked my interest in contemporary 
Japan through his pathbreaking work on Japan's economy.
    I am deeply grateful to our Board of Trustees, to our Chair, Sarah 
May Stern, and most especially as the inaugural Walter P. Stern Chair 
holder, to our Chair Emeritus, Wally Stern, for their friendship and 
support.
    And I cannot thank COO John Walters sufficiently for taking on 
additional responsibilities as a result of this nomination.
    Numerous teachers, mentors, friends and relatives are watching 
online today. I especially think of others who are not with us any 
longer but who have guided me throughout life--none more selflessly 
than my parents who dedicated their lives to serving others, and who 
serve as an example to my brothers and me.
    My dad, Victor Weinstein, a physician in a working-class 
neighborhood in Brooklyn, made house calls until he was in his 
seventies; my mother, Hannelore Weinstein, taught for almost five 
decades in public schools in underserved communities in New York City.
    When Mom arrived in New York in 1940 as a refugee from Nazi 
Germany, she and her family--including her brother, my beloved uncle 
Seligman Rosenberg, who passed away in late June--had high expectations 
for the United States.
    Mom loved the promise of America with all her heart and imbued that 
love in her five sons and her students. And it is this love of country 
that I will bring with me to Tokyo.
    The list of luminaries who have served as U.S. Ambassador to Japan 
is humbling, from the legendary Townsend Harris, our first Consul 
General in Shogun-era Japan, to Edwin Reischauer, Mike Mansfield, 
Howard Baker, Tom Foley, Walter Mondale and beyond.
    I am not their equivalent in stature or credentials. Nonetheless, 
over the past two decades, as a scholar and think tank leader, I have 
watched the evolution of Japan's strategic culture in the face of 
growing challenges and played a small role in the transformation of the 
U.S.Japan alliance.
    I have built relationships of trust with key government and 
opposition figures, business leaders, intellectuals and journalists in 
Japan, as well as their counterparts in the U.S., that leave me well 
poised to assume the position of Ambassador to Japan, if confirmed by 
the Senate.
    Our relationship with Japan is extraordinary in its depth and 
breadth, as demonstrated by the friendship and unprecedented level of 
communication between President Trump and Prime Minister Abe.
    The United States' relationship with Japan has never been stronger, 
broader, and more important to both countries than it is now. As never 
before, we work side by side to preserve peace, pursue prosperity, and 
push forward to new frontiers. The United States and Japan stand 
together for a Free and Open Indo-Pacific, we promote sustainable 
economic development from Southeast Asia to the Pacific Islands, 
Africa, and Latin America, join hands in the fight against COVID-19, 
and in the journey back to the moon and beyond to Mars.
    This deep and enduring partnership rests upon the bonds forged 
between our two peoples, arising ultimately from our shared commitment 
to freedom, democracy, human rights, and the rule of law. And with your 
support and counsel, there is much more we can and must do in the face 
of immense challenges and extraordinary opportunities.
    For six decades, the U.S.-Japan Alliance has served as the 
cornerstone of peace, security, and prosperity in the Indo-Pacific 
region. Japan hosts over 50,000 U.S. military personnel and advanced 
U.S. defense assets, including the U.S. 7th Fleet, enabling both 
countries to ensure peace and stability in the region and beyond.
    I could highlight countless examples of our ever-increasing 
security cooperation. Most noteworthy is the close coordination of the 
strategic policy documents of both countries, the United States' 
National Security Strategy (2017) and the National Defense Strategy 
(2018), with Japan's National Defense Program Guidelines (2019).
    The close coordination of these strategies, and our broad alignment 
on promoting a free and open Indo-Pacific--a concept first announced by 
Prime Minister Abe in August 2016 and then adapted by President Trump 
in November 2017--are indications that that the U.S.Japan security 
partnership is ever closer.
    Japan is advancing our security cooperation in numerous ways, 
including expanding port calls and extensive participation in military 
exercises, completing Reciprocal Access Agreements and Acquisitions and 
Cross-Servicing Agreements with other U.S. allies, as well as renewing 
its commitment to coordinate information security across the whole-
ofgovernment.
    Japan, moreover, has increased its defense spending each of the 
past eight years. It has strengthened and modernized its defense 
capabilities, with a focus on state-of-art equipment, interoperability, 
cross domain capabilities, maritime domain awareness, and the emerging 
technologies of intelligence, surveillance and reconnaissance.
    If confirmed, however, I will encourage Japan to strengthen its 
capabilities even further and shoulder greater responsibility within 
the Alliance. I would also work with Japan in its continued efforts to 
ensure the steady implementation of the realignment of U.S. forces in 
Japan, especially with respect to the Futenma Replacement Facility. 
Strategic competition in the Indo-Pacific requires all of us to do 
more.
    I will also make every effort so that we and our Japanese allies 
successfully build a strong network of allies and partners to enhance 
our collective security in the Indo-Pacific consistent with the 
objectives of the important Asia Reassurance Initiative Act, and I 
applaud the Senate Foreign Relations Committee for shepherding through 
this important legislation.
    This increasing convergence, and Japan's increasingly robust 
foreign and defense policies, have not occurred in a strategic vacuum. 
We face immense security challenges in Northeast Asia. The U.S. and 
Japan have worked in close partnership to meet the threat posed by 
North Korean nuclear and ballistic missile and related programs, 
including through increased cooperation on missile defense.
    Japan is arguably our strongest ally in the pressure campaign 
against the DPRK through the full implementation of United Nations 
sanctions. The issue of the DPRK's abduction of Japanese citizens and 
their suffering in North Korea, moreover, is dear to the heart of the 
Japanese people; President Trump has personally raised this issue at 
both the Singapore and Hanoi summits.
    As Beijing's military capabilities and technological prowess 
increases, the destabilizing actions of the People's Republic of China 
both in the Indo-Pacific region and globally are likely to grow as 
well. Beijing's unlawful maritime claims, disruptive behavior toward 
neighboring countries, and efforts to strong-arm neighbors--many of 
which are U.S. allies or close partners--and challenges to the liberal, 
rules-based order need to be called out and countered. In recent 
months, vessels from the People's Republic of China have harassed 
Japanese fishing vessels and engaged in other kinds of problematic 
behavior in waters around the Senkakus.
    In the sustained effort to promote a Free and Open Indo-Pacific, 
Japan and the U.S. must intensify our multilateral and networked 
cooperation with other U.S. and Japanese allies and partners in the 
region. We also need to continue to work closely to assist our friends 
in Southeast Asia on a wide range of security and economic interests.
    In addition to preserving the peace, the U.S. and Japan are close 
partners in pursuing prosperity, between our nations and beyond. The 
U.S.-Japan Trade Agreement entered into force on January 1, 2020 and 
provides an important new market access that benefits the United States 
and Japan. A separate U.S.-Japan Digital Trade Agreement entered into 
force the same day that parallels the United States-Mexico-Canada 
Agreement (USMCA) as the most comprehensive and high-standard trade 
agreement addressing digital trade barriers ever negotiated. Trade is 
an area in which our two economies thrive in the global marketplace and 
where we can make more progress bilaterally, and work together 
regionally and multilaterally.
    Pursuing Phase Two negotiations with Japan toward a comprehensive 
trade agreement provides the United States the opportunity to further 
deepen our critical economic relationship. Together, our two countries 
comprise approximately 30 percent of global gross domestic product, and 
we are among each other's top trading partners, exchanging over $300 
billion of goods and services each year. The United States is Japan's 
top source of direct investment, and Japan is the largest investor in 
the United States, with $644.7 billion invested across all 50 U.S. 
states.
    The U.S.-Japan bilateral economic relationship is rapidly evolving 
into the paragon of broad economic cooperation to promote a free and 
open Indo-Pacific.
    These days, pursuing prosperity means promoting connectivity, 
energy security, transportation and investment in infrastructure. Under 
President Trump's and Prime Minister Abe's leadership, we have been 
expanding our economic cooperation in the Indo-Pacific region and 
around the world, including through numerous whole-of-government 
efforts coordinated with Japan.
    The Japan-U.S. Strategic Energy Partnership and the Japan-U.S. 
Strategic Digital Economy Partnership are expanding cooperation with 
the private sector and third countries to support high quality 
infrastructure, energy, and digital connectivity projects. The Japan-
U.S. Mekong Power Partnership helps support the Mekong region's pursuit 
of energy security, while encouraging bilateral and regional trade and 
integration in this sector.
    If confirmed, I will strive for continued and expanded engagement 
with our private sectors which are at the forefront of efforts to 
preserve a free and open Indo-Pacific in the face of unfair competition 
from malign actors.
    As part of these efforts, Japan and the U.S. have joined closely 
with Australia to identify and advance and certify quality 
infrastructure projects in the Indo-Pacific through the Infrastructure 
Transaction and Assistance Network and the Blue Dot Network, offering a 
transparent alternative to the opaque lending terms and unsustainable 
debt burdens inherent to the Belt and Road Initiative, with the goal of 
signaling to developing countries that a healthier alternative to the 
PRC is available.
    Our economic cooperation has led to close collaboration in science 
and technology, which is increasingly at the center of the U.S.-Japan 
relationship. The U.S. and Japan are working together to promote an 
open, interoperable, reliable and secure digital economy that will 
allow individuals around the globe to benefit from the promise of 5G 
technology, which will be critical to transportation, health care and 
education and the extraordinary progress of the Internet of Things 
moving forward.
    The U.S.-Japan relationship, moreover, is pushing humanity forward 
to new frontiers. Japan, which has increasing space capabilities, has 
become the lead international partner in our collective effort to send 
humans back to the moon, and is eager to take part in efforts at human 
exploration of Mars.
    Scientists at our national laboratories and universities, as well 
as engineers and corporate research teams, are driving advances in 
materials science, next-generation computing, commercial space 
exploration, and more. If confirmed, I will endeavor to leverage 
science and technology agreements, such as the landmark December 2019 
U.S.- Japan quantum sciences cooperation agreement, to expand our 
shared scientific horizons.
    Protecting our scientific and technological innovation and 
protecting our intellectual property is critical to our continued 
economic prosperity and national security. U.S. and Japanese firms are 
developing exciting new technologies, which often have sensitive 
security and military applications.
    The theft of cutting-edge research and intellectual property--
highlighted by FBI Director Christopher Wray in a recent speech on the 
threat posed by the People's Republic of China to economic and national 
security--has far reaching implications. As Ambassador, protecting 
emerging technologies and critical supply chains will be one of my top 
priorities. This will include strengthening our cyber defenses and 
coordinating information security practices to preserve our shared 
economic and defense advantages as well.
    The close collaboration on our response to COVID-19, would not have 
been possible without the firm trust and genuine friendship between the 
United States and Japan. Researchers from Japan and the United States, 
from both academic and private sectors, are finding innovative ways to 
collaborate on COVID medical countermeasures. This includes the use of 
Japan's Fugaku supercomputer to analyze existing medications to 
prioritize clinical trials for potential treatments, as part of the 
U.S.-led COVID-19 High Performance Computing Consortium, an 
international effort to use supercomputing to help fight the COVID-19 
pandemic. Both countries are also committed to strengthening future 
pandemic preparedness in the region through ASEAN initiatives. For 
instance, Japan is supporting the establishment of a new ASEAN Centre 
for Public Health Emergencies and Emerging Diseases. The United States, 
through USAID, is supporting the creation of a Public Health Emergency 
Coordination System for ASEAN. Through these initiatives, the United 
States and Japan are both committed to strengthening health capacity to 
address future health security threats in the ASEAN nations.
    Japanese companies operating in the United States have contributed 
to our medical response by donating N95 respirators and redirecting 
their U.S. manufacturing capabilities to produce face shields and hand 
sanitizers. We are also sharing information and working together with 
partner countries to provide solutions and support throughout the Indo-
Pacific region. If confirmed, I hope to build on our ongoing 
collaboration and experiences to better prepare for potential public 
health crises and natural disasters.
    In addition, both Japan and the U.S. are taking critical measures 
to build supply chain resiliency through trusted vendors in the 
aftermath of the initial outbreak of COVID-19. I look forward to taking 
part in these conversations, if confirmed by the Senate, as the trust 
embedded in the U.S.-Japan relationship will be critical to the post-
pandemic world.
    Despite the disruption from COVID-19, the U.S.-Japan relationship 
continues to stand on a solid foundation of people-to-people relations. 
Japanese and Americans visiting, studying and investing in each other's 
countries are a tremendous cultural, economic, and strategic investment 
in the future health of the alliance. I am confident once the current 
situation settles, the robust exchange will continue stronger than ever 
and, if confirmed, I will work to ensure that the U.S. citizens 
traveling or residing in Japan can safely and smoothly return to 
normality.
    The next Olympic and Paralympic games in Tokyo will symbolize and 
celebrate our collective triumph over COVID-19 and, if confirmed, I 
plan to reinforce our embassy's efforts such as the ``Go for Gold'' 
campaign, to engage with young people across Japan. This initiative 
brings Olympians, Paralympians, and other athletes to local communities 
that will host Team USA, sends American diplomats into Japanese 
classrooms around the country, and empowers teachers in Japan through 
special training programs.
    I am truly honored to be nominated to serve as Ambassador to one of 
our most dependable and dynamic allies around the world. I especially 
look forward to benefitting from the support of the talented Foreign 
Service professionals, both American and locally employed staff, at our 
Mission in Japan.
    I would like to thank this committee for your consideration of my 
nomination. If confirmed, I look forward to working closely with you to 
advance our national interests and address our greatest global 
challenges through close collaboration with Japan.


    Senator Gardner. Thank you, Mr. Weinstein. And in the 
interest of making sure that we get as many people asking 
questions as possible, I will reserve my time and turn to 
Senator Merkley, if you would like to begin with your 
questions.
    Senator Merkley. Okay. Well, very good. Thank you, Mr. 
Chairman. I will jump right in.
    First, Mr. Bethel, I would like to have you give some sense 
of how we can combat the money laundering challenge that has 
been repeatedly identified in association with Panama.
    Mr. Bethel.  Thank you, Senator.
    The issue obviously involves status. Panama is back on the 
gray list. They were on the gray list earlier. But due to 
recent events, they were taken off.
    There are a number of things that we can do to help Panama 
get off of the gray list, and I think this is one of President 
Cortizo's campaign promises or platforms. And to the extent 
that we can and if I am confirmed, I look forward to working 
with Panama and with different aspects of the U.S. Government, 
whether it is Treasury's Office of Technical Assistance or 
others, to help Panama get off the gray list.
    And I think getting off the gray list will do a couple of 
things. It will bring in serious capital to Panama, whether it 
is from Fidelity or J.P. Morgan and so forth, and it will also 
create jobs in Panama and create an enabling environment that 
will allow the country to move beyond where it is today and to 
[inaudible].
    Senator Merkley. Thank you. I just want to emphasize that 
with your background in finance, international banking, you can 
bring a lot of policy expertise to bear on something that is 
very related to terrorist financing, drug financing, and 
therefore affecting the quality of life [inaudible] many ways.
    Mr. Bethel.  Yes, sir. Thank you.
    Senator Merkley. I wanted to turn to Mr. Pratt. And our 
relationship with Djibouti is heavily focused on security 
assistance. If you could increase and strengthen the 
partnership in other dimensions, what dimension would you 
really emphasize?
    Mr. Pratt. Thank you, Senator.
    As you said, we do have a very strong security 
relationship, and I hope to build on that. But I also hope to 
help develop our economic relationship with the country. Our 
current Ambassador there has done a very good job of helping 
U.S. companies get into the market, especially in energy and 
food processing sectors. So I will continue to do everything 
possible to build up our economic relationship with that 
country, recognizing that the United States offers a different 
model of economic engagement than China does. We are often the 
gold standard for business development.
    Senator Merkley. So [inaudible] many places it is engaged 
in what some have referred to as debt trap financing. They have 
a lot of projects going in Djibouti. Do you have a sense of how 
America weighs in on that relationship between China and 
Djibouti?
    Mr. Pratt. Thank you, Mr. Senator.
    We are concerned about the over $1 billion in debt Djibouti 
currently has to China. China was able to offer a lot of 
assistance in building out infrastructure. That has been very 
important to Djibouti, including the railway, the road, and the 
water pipeline from Ethiopia. But that very large debt service 
is something that is of concern. And I plan to explore and I 
know that the State Department is already exploring the Debt 
Sustainability Initiative to help Djibouti as it is helping 
other countries look at the debt burden that it is servicing 
and how to make that more sustainable over the long term.
    Senator Merkley. Thank you.
    Ms. Thornhill, you have an extensive business background, 
an extensive philanthropic background. What do you feel in your 
life history prepares you for the complex relationship we have 
with Singapore?
    Ms. Thornhill. Thank you for the question.
    I have had the privilege of working from Saudi Arabia to 
Japan and working in other countries around the world, but 
working in several countries as a single woman owning a 
business was a challenge, and I had to use determination, 
diplomacy, and listening a great deal understanding because 
when I stepped into the organization in Japan, I immediately 
realized there was resentment for a female-owned business. 
There was a place for me. So I realized in order to achieve my 
project, that I would have to use even more determination and 
understanding so it would be finished on time, on budget. I am 
pleased to say that doing this work and listening across the 
different cultures, we were able to complete the project under 
budget and in time, and the contractor asked me to do his next 
project.
    So I feel that this diplomacy, this listening, as they say 
two ears, one mouth, this understanding will help me in 
promoting new businesses also with Singapore because Singapore, 
as you know, started out as a malaria trading post, manifested 
itself into the international hub, then a hub for finance 
around the world and business, is one of the most respected 
places to do business. So hopefully I will be able to work with 
American businesses and American universities to bring new 
ideas to help out with their economy and their investment in 
Singapore.
    Thank you.
    Senator Merkley. [inaudible] there is one piece I wanted to 
ask you about, which is your background as a donor to Project 
Veritas. Can you explain that to us?
    Ms. Thornhill. Yes. I think about 8 years ago, a good 
friend of mine called me to come to her home and be supportive. 
She was having difficulty. And I went to this party--I mean, 
dinner party late, participating, donating money, and left, and 
that was my first and my last interaction with Veritas. I only 
knew about the founder walking across the border as bin Laden. 
That is all I have dealt with. I mean, all I have ever 
connected with.
    Senator Merkley. So you had said, when you were asked about 
it before, being a woman, I was very concerned about anything 
that seems to expose but not be the truth about abuse against 
women. I did not understand what you were trying to say by 
that.
    Ms. Thornhill. I am sorry, sir.
    Senator Merkley. We lost the connection with you for a 
moment there.
    Ms. Thornhill. I am sorry.
    Senator Merkley. You were previously quoted when you were 
asked about this as saying, being a woman, I was very concerned 
about anything that seems to expose but not be the truth about 
abuse against women. I think it sounded like that as an 
explanation of why you supported them, and I did not really 
understand what you meant by that.
    Senator Gardner. Senator Merkley, your time has expired, 
but, Ms. Thornhill, if you can give a brief answer. Senator 
Merkley, you can come back in a second round if you would like 
to ask. But, Ms. Thornhill, go ahead with a brief answer. Then 
we can move on. Thank you.
    Ms. Thornhill. I was referring to the fact that in certain 
countries that I worked, initially women were looked upon as 
second class citizens and their position was not to have a 
female-owned business. So I realized then that I would have to 
work much harder and be more determined to achieve my goal. And 
I feel that that has put me in a position of knowing how to 
deal with diplomacy and how to make things happen but in a very 
diplomatic way, and that is what I meant.
    Senator Merkley. Thank you.
    Senator Gardner. Thank you, Senator Merkley.
    And just a reminder, there were 5 minutes in the question 
and answer, and we can come back around for a second round if 
people would like to do that.
    Senator Young, I will turn to you.
    Senator Young. Can you see me? Can you hear me?
    Senator Gardner. Yes.
    Senator Young. My apologies.
    Well, I will just dive right in. Mr. Dayton. Okay, I just 
stepped in here and I regret Mr. Dayton was in the morning 
session, and I will be submitting my answers to him.
    So, Mr. Pratt, Djibouti was brought up earlier, and I am 
concerned about the increase in China's presence there. It has 
emerged as a base for the projection of Chinese influence in 
the horn of Africa and adjacent waters. As a career diplomat 
with service in multiple African capitals, what is your 
assessment of the strategic implications of rising Chinese 
influence in Djibouti and throughout Africa?
    Mr. Pratt. Thank you, Senator.
    I know that this is something that the State Department and 
the current Ambassador is looking very closely at. As I 
mentioned in my statement, China opened its first overseas 
military base in Djibouti in 2017.
    Since then, we have been working very closely with the 
Government of Djibouti and with other international partners to 
make sure that all of the countries that have bases in Djibouti 
are playing by the same rules and respecting Djibouti's 
sovereignty. So I plan to continue to look very closely at any 
concerning behavior and any objectives that China may have in 
the region.
    I am happy to report that the United States continues to 
have a really strong relationship with the Government of 
Djibouti. I believe that we are the security partner of choice 
in that country and in the region, and, obviously, we are 
helping to stabilize the horn of Africa and Somalia. So I hope 
to build on those relationships and support our armed services.
    Senator Young. What should we do, sir, to provide the 
African people with a counter-narrative that highlights the 
long-term risks of dealing with China and the long-term 
benefits of dealing with the United States and our partner 
nations who share more of our values?
    Mr. Pratt. Well, sir, I think we offer a different model 
and frankly a better model, a more transparent model. China has 
offered things to Djibouti that we were not offering several 
years ago, very large infrastructure projects. But the United 
States offers many things economically in Djibouti right now 
that I believe we can continue to build on.
    My colleagues in the U.S. Agency for International 
Development are training Djiboutians. We have a very large jobs 
sector program, which the Government of Djibouti and the people 
of Djibouti appreciate very much. We are working especially to 
improve services at their ports. Djibouti has a very high 
quality deepwater port that services the region, especially 
Ethiopia, and the people of Djibouti know that we are there 
helping to train their workforce, engaging with their people. 
On our military installations and at our embassy, we employ 
very large numbers of Djiboutian people. We have a very open 
and transparent relationship, and, as I mentioned in my 
statement, we have been working very hard to bring U.S. 
companies into Djibouti, including in the energy and food 
processing sector. So I think there is a lot we can build on 
there.
    Senator Young. Well, I thank you, sir, for your years of 
distinguished service. I regret that I have a conflict, Mr. 
Chairman, so I will yield back the balance of my time.
    Senator Gardner. Thank you, Senator Young.
    Senator Cardin?
    Senator Cardin. Well, Mr. Chairman, thank you very much.
    And let me thank all of our nominees for their willingness 
to serve our country. We appreciate it. These are challenging 
times to be involved in global diplomacy, so thank you. And 
thanks to your families, because we know you cannot do this 
without a supportive family.
    There is a common theme among all of the countries that are 
involved in today's hearing. One is the advancement of U.S. 
values as it relates to good governance, human rights, and 
related issues. Each of these countries have challenges in 
different degree.
    The other common theme is the impact that China has on 
their relationship. China has been very aggressive in their 
investments in our own hemisphere, as well as their own region. 
And what impact is that having on U.S. security interests?
    So for each for you, these are areas of concern.
    I am going to start first, if I might, with Mr. Vajda in 
regards to Burma because, among all the countries, that country 
has its greatest challenge on human rights. And first of all, 
let me thank you for your career service, we appreciate that 
very much, and your dedication.
    But with Burma, we have a unique challenge, in that the 
country was moving in the right direction towards civilian 
democracy with free and fair elections, electing a leader, only 
to find the military usurp power back in that country. Very 
disappointing. And of course, we had the horrendous issues in 
regards to the Rohingya population that still is a major global 
human rights challenge.
    So just tell me briefly how you intend to advance those 
issues under the environment that we now see in Burma, how we 
can get them back on track to the type of reforms that would 
lead to a more democratic state.
    Mr. Vajda.  Thank you for that question, Senator. And I 
agree with your assessment. Burma certainly suffers from 
significant challenges on governance and human rights. I think 
the reality is that it is still coming out of a period of 50 
years of very harsh military rule where the military 
[inaudible] oppression and absolutely squelching all dissent.
    There has been some progress. I think that is important to 
note, and you acknowledge that as well. Certainly there is 
greater free press. There is more activism among civil society. 
Political parties are able to form. There was a relatively free 
and fair election in 2015. We are headed for what we hope will 
be another one today.
    I think the importance for us in the United States is to 
really build on our comparative strengths in that country. So 
we have been seen rightly as the longstanding supporter of the 
human rights and democracy activists in that country. We have, 
I think, tremendous influence in that regard. We have a very 
active assistance program, and for that, we thank Congress, 
which is largely geared towards empowering civil society, 
working with political parties, building the institutions 
around governance and including with regard to the elections 
that are coming forward today.
    And I think it is important that we remain actively engaged 
and present. I think those who are working towards a better and 
brighter future in Burma look to the United States as their 
strongest advocate and their strongest allies. And if I am 
confirmed as Ambassador, that would be a major priority for me, 
is to help move the country along on what has admittedly been a 
very difficult and challenging path towards democracy.
    Senator Cardin. You will have friends here in this 
committee that will do everything we can to help you advance 
that agenda.
    If I can, let me turn to Mrs. Thornhill in regards to 
Singapore. One does not normally look at Singapore as a 
challenge on governance, but the 2019 Reporters Without Borders 
ranks Singapore 151st among 180 nations in its annual world 
press freedom index behind neighbors such as Cambodia and 
Burma.
    So let me ask you what you will do to advance human rights 
in a country that we have a very strong economic tie to such as 
Singapore.
    Ms. Thornhill. Thank you for the question.
    As I stated in my opening remark, Singapore, since the 
passage of the Prevention of Human Rights Trafficking in 2015, 
has made serious advances. In November of 2019, they had their 
first conviction of two laborers, and this enabled them to go 
from tier 2 to tier 1. They are making great strides to work 
hard on detection and more prosecutions.
    If I was confirmed as Ambassador, I would work with the 
Singaporean task force in human trafficking called TIP to see 
what we could do to increase the prosecutions and help on the 
victim identification system.
    Senator Cardin. I would just urge you to work also with 
Reporters Without Borders in regards to the way that they 
handle free speech in that country. It is a challenge. And we 
recognize we have a strong economic tie. We recognize it is a 
relatively small country, but it has a major economic impact. 
They can do much better. And it is a difficult country for us 
to get our Western values, from the point of view of protection 
of freedom of speech and democracy. It is just a country that 
needs a strong U.S. presence on these issues. Do not be just 
misled by the economic realities.
    I want to ask one more question, if I might, Mr. Chairman, 
to Mr. Weinstein. First of all, congratulations on getting such 
a widespread endorsement. So we are not going to hold it 
against you that you had Joe Lieberman before our committee. We 
always enjoy his presence.
    But I think that does bode well for your diplomacy. If you 
can bring together these diverse views, it is important. Japan 
is a critically important country to the United States. And 
yes, we are going to have to deal with the relationship to 
strengthen, and we are moving in the right direction with Korea 
and Japan resolving their historic differences.
    But with the United States not in the Trans-Pacific 
Partnership, the trade issues are one that was mentioned. We 
got to look for ways that we can strengthen the U.S. presence 
in that region using countries like Japan to help us, because 
it is going to be important for the commerce on the China Seas, 
as well as it will be for the economic tools used by China to 
try to influence the rules of engagement on trade.
    So thank you for your willingness to put yourself forward. 
I hope you can bring about diverse views in that region as you 
have in our political system here for your support.
    You can respond if you want and try to salvage Joe 
Lieberman.
    Mr. .Weinstein.  Thank you, Senator.
    As the third of five boys, you learn to be a bridge 
builder. [inaudible] in the Indo-Pacific region and thank you 
for the question.
    In the Indo-Pacific region, I think it is absolutely 
critical that we continue the kind of economic cooperation 
partnerships that we built these whole-of-government 
approaches. We have learned from the Japanese in a sense. We 
were more defense focused. They were more development focused. 
And now our approaches have merged. And we are now working on 
whole-of-government approaches to promote, whether it be energy 
security through the Japan-U.S. energy partnership, whether it 
be through the digital economy partnership, whether it be 
through the Mekong energy partnership to work together to 
provide development assistance to facilitate our businesses, 
going into countries to make sure that China's Belt and Road 
with its confiscatory debt burdens, with its telecommunications 
systems that are an extension of Chinese authoritarianism, the 
kind of authoritarianism we have seen in Xinjiang and in Tibet, 
bringing these systems around the world through Huawei and ZTE. 
These are fundamental dangers to human rights, as China tries 
to export these models.
    So I really look forward to deepening these kind of 
partnerships with Japan and also to trying to make further 
progress on the trade issue with Japan, which is critical 
clearly. We have had the stage 1 agreement and the digital 
agreement, but we really do need to go further particularly in 
the auto sector.
    So I will leave it at that. Thank you very much, Senator.
    Senator Cardin. Well, thank you for the response. Again, I 
really do applaud you for the endorsements. And it is always 
good to hear from Joe Lieberman.
    Senator Gardner. Thank you, Senator Cardin.
    And Senator Shaheen. I know she was with us earlier. 
Senator Shaheen, are you there?
    [No response.]
    Senator Gardner. Senator Kaine, if you want to go and we 
will come back to Senator Shaheen if she still wishes--
actually, Senator Kaine, do you mind if I yield? I see Senator 
Shaheen just came back.
    Senator Shaheen?
    Senator Shaheen. Well, thank you, Mr. Chairman, and thank 
you to all of the nominees today for your willingness to 
consider these very important roles at a particularly 
challenging time in foreign policy in the world.
    I would like to start with you, Mr. Weinstein, because as 
you know, President Trump has said that he thinks Japan should 
increase its financial contribution to keep U.S. troops in 
Japan. As you know also, our presence there, our troop presence 
there is not welcomed by all Japanese. And so given this 
pressure and given the increased military threat posed by China 
in the region, what are the consequences of raising this issue 
with an ally on the frontlines of China's aggression while at 
the same time, we have got some of the economic challenges that 
you mentioned with Japan? And what message would weakening our 
relationship with Japan send to China?
    Mr. .Weinstein.  Thank you, Senator, for the question. It 
is an important one.
    Japan and communities in Japan play an incredibly important 
role in hosting our armed forces. It is, after all, the largest 
contingent of American service men and women based in any ally 
around the world, key assets, including the Seventh Fleet. And 
the burden falls disproportionately. It certainly falls 
disproportionately upon Okinawa, which is 1 percent of Japanese 
territory. It has 70 percent of U.S. bases and half the troop 
presence.
    But at the same time, as we engage in this strategic 
competition in the Indo-Pacific, all of us need to do more. We 
have seen China's increased aggressiveness around the Senkaku 
Islands where for over 100 days they have been sending missiles 
into the territory Japan administers.
    So I think that the important role that I would seek to 
play as Ambassador on these issues would be to stress the 
importance of the alliance, stress the people-to-people 
exchanges, note that we all we need to do more, and to just 
really make the case that we are doing more, Japan needs to do 
more.
    And Prime Minister Abe understands this. He understands 
this well. Japan has certainly significantly increased its 
purchases of U.S. military equipment, whether it be the F-35, 
whether it be the Hawkeye, whether it be the Global Hawk and 
the likes of. I think that I am optimistic that we will come to 
some sort of a fruitful conclusion for these host nation 
support negotiations.
    Thank you.
    Senator Shaheen. Well, I certainly agree with you about the 
threat that China poses. I think that is why our relationship 
with Japan is increasingly important, and we do not want to let 
any wedge get in between that relationship that is going to 
affect our security in the Pacific region.
    Ms. Thornhill, as you know, Singapore elected a record 
number of women to parliament during the last election. You 
talked about your business relationship as a woman and some of 
the challenges that that presented. So as you think about the 
challenges facing Singapore, how can you interact with some of 
those women in parliament to encourage them to address some of 
the issues, the democracy issues raised by Senator Cardin, and 
some of the other challenges facing Singapore?
    Ms. Thornhill. As a woman, I was very encouraged by this 
last election where 27 women were elected to parliament. And, 
of course, even though she was not just elected, Halimah Yacob, 
who is the first female President of Singapore, has done an 
excellent job since 2017. I feel that Singapore is opening up 
and allowing women to do more and to take a part in the 
Government and in the ruling.
    And may I also say that Cadet Chai just graduated from the 
U.S. Air Force as the first female Singaporean cadet to 
graduate. So I just want to plug all these women doing things 
because I do, as you can tell, support women making roads for 
others and being supportive. And I feel that working with 
Singaporean and other likeminded societies, that I will be able 
to promote not only equal rights for all and our fundamental 
freedoms that we, of course, promote in America, but the 
importance of diversity and inclusiveness because Singapore is 
a melting pot also, and they have made great strides in 
everyone being Singaporean. And with that, I would try to 
increase more diversity and more inclusiveness of women and 
other people that have not had equal treatment.
    Thank you.
    Senator Shaheen. Thank you.
    Ambassador Vajda, understanding that you cannot do much 
about the State Department's position on UNFPA, the United 
Nations Population Fund. Still, it is doing really excellent 
work with the Rohingya communities in Burma and Bangladesh. In 
Cox's Bazar, it has the trust of most vulnerable populations 
who are affected by violence there. One of my staff members had 
a chance to visit there last year, and she came back with both 
horrific stories of the violence perpetrated against so many of 
those women, but also of the good work that UNFPA is doing. And 
as we think about how we hold some of the people responsible 
for that violence accountable, the witness that UNFPA is 
providing is going to be very important in collecting that 
information.
    And so I wonder if you would agree to commit to meeting at 
least with those representatives as you are trying to address 
some of those horrific issues around the genocide that is being 
perpetrated against Rohingya that has fallen disproportionately 
on women and girls.
    Mr. Vajda.  Senator, thank you for that question and those 
comments.
    I had the opportunity to visit the Rohingya refugee camps 
at Cox's Bazar myself in November 2017. So I was confronted 
personally and directly with the suffering that they had 
experienced and spoke to a number of them, many of them women, 
and I agree that many women suffered disproportionately and 
extremely during the atrocities undertaken by the Burmese 
military.
    I will say that I think, as I noted in my comments, the 
United States is providing extraordinary levels of support for 
the Rohingya, primarily in Bangladesh, also in Burma, $951 
million to date, and we are supporting a range of U.N. and 
other international organizations that are providing lifesaving 
work, health, humanitarian assistance, education, sanitation, 
et cetera.
    The State Department also has undertaken its own very 
significant documentation process that has I think underscored 
the severity of the gross violations of human rights that took 
place, and we have shared those with a number of different 
domestic and international actors.
    I think as Ambassador, my role would be to keep an open 
mind and speak with anybody who can share their perspectives 
and analysis on what is happening with regard to the Rohingya 
and that is happening in Burma and to help shape my own 
perspectives and make policy recommendations back to 
Washington.
    I would like to just make a point of commending Bangladesh. 
Again, I think of the refugee camp there--just for their 
extraordinary hospitality and generosity in supporting the 
Rohingya, but also just underscore that the onus really is on 
Burma in resolving this crisis and creating the conditions 
necessary for those refugees to return safely in dignity and 
voluntarily.
    Thank you.
    Senator Shaheen. Well, thank you. I appreciate both of 
those comments and your pointing out the willingness of 
Bangladesh to accept all of those refugees I think is 
important, particularly given the challenges that that country 
faces. But that is why the international community needs to do 
more to pressure Burma to take back the Rohingya and treat them 
fairly and recognize not only their rights but the rights of 
other Burmese citizens. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Vajda.  I agree with you entirely.
    Senator Gardner. Thank you, Senator Shaheen.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And to my colleagues, Senator Shaheen asked exactly the 
question that I was going to ask Mr. Weinstein to open about 
the special agreement with Japan concerning Japan's payment for 
American military presence and how President Trump has 
indicated that as that comes up for renegotiation, he would 
want more. Both Senator Shaheen and I are members of the Armed 
Services Committee. The continuing presence of U.S. troops 
there I think is good for Japan, good for the United States, 
good for the region. And we have both the agreement about 
compensation, but also the status of forces agreement with 
Japan concerning the conditions of American troops there, and 
both of those are always under some review.
    But I would just say, Mr. Weinstein, you have a very, very 
good background and a deep knowledge in these subjects. These 
combine diplomacy together with sort of a DOD set of 
necessities, and I hope you will keep not only the Foreign 
Relations Committee but also the Armed Services Committee 
informed about the status of those discussions.
    Mr. Chair, this is an interesting group of five nominees 
because in each of the countries that are at issue here, the 
role of China is very, very important. It may not be a surprise 
for Burma with a border with China, Singapore with China, 
Japan, a neighbor with China. But Djibouti, the largest port in 
Africa has been built with Chinese money in Djibouti, and in 
Panama China has significant interests on both sides of the 
Panama Canal in a way that could significantly affect U.S. 
interests there.
    So maybe I will start with Mr. Bethel. As you approach the 
position of potentially being our Ambassador to Panama, how 
would you deal with this issue of increased Chinese investment 
and how that might affect U.S. interests there?
    Mr. Bethel.  Thank you, Senator.
    When China switched its relationship--excuse me. When 
Panama switched its relationship from Taiwan to China in 2017, 
they signed something like 45 separate agreements with China. 
As you correctly mentioned, China and Hutchinson, known as 
Panama ports, has concessions on both sides of the canal. China 
Land Bridge has a very large concession over on the Atlantic 
side. And China has made great inroads in Panama, and it is 
something for us to be aware of.
    The first thing I would say is is this. We should welcome 
competition, and we should not be afraid of competition. 
However--and the caveat is--it has got to be on a level playing 
field where everybody plays by the rules. So I think it is 
important to bring in U.S. businesses to help strengthen 
institutions, not just in Panama but in other countries, to 
allow the rules to be played by everybody. And I think you can 
say a lot of good things about U.S. businesses, but among them, 
at least by comparative standards, we do things right. We 
follow the right environmental policies, social policies. We, 
by and large, have a very good governance system.
    And so if I am confirmed, what I would like to do is to do 
two things: strengthen the institutions, work with the 
Panamanian people and the Government to strengthen 
institutions, while at the same time bringing U.S. businesses. 
And I think the combination of those two would be a good 
contrast to other actors in the region, including China.
    Senator Kaine. That is a good answer, and that is the right 
strategy. It is hard to do it in reality, but you stated the 
right strategy.
    I just noticed within the last 24 hours some news that was 
disturbing to me which is the U.S. has, I think, bent over 
backwards to try to accommodate Saudi Arabia [inaudible]. And 
within the last 24 hours, there has been an announcement that 
the Saudis have reached a deal with China to help accelerate 
the Saudi nuclear program. We had, before this committee within 
the last week, Marshall Billingslea from the State Department, 
and we asked him in our interactions with Saudi Arabia around 
these energy issues would we expect that the Saudis would 
comply with sort of 123 agreement principles and non-enrichment 
principles, and he said yes. The U.S. policy is still we can 
work with the Saudis, but they would have to meet a gold 
standard for us to assist the civilian nuclear program. 
[inaudible] yesterday is, well, China--maybe you would rather 
deal with China because they are not going to have these high 
expectations.
    It would be great if we could insist upon a level playing 
field. It would be great if we could insist upon high 
standards. One of the challenges with the U.S.-China 
relationship in each of these countries that you represent and 
more generally is we can insist on the right standards, but if 
there are others who are willing to bend the standards, break 
them, have no standards, countries might find it in their 
short-term interests, not their long-term interests, to go with 
the low bid that does not put expectations on them.
    That is my 5 minutes.
    But each of you will grapple with this program in 
significant ways with this dilemma in very significant ways 
should you be confirmed. I see a lot of action with respect to 
China by the United States right now. I do not see a lot of 
coordination or strategy that connects those actions together. 
I think that is a matter for our committee to be in dialogue 
with the administration on.
    Anyway, congratulations to you.
    And, Mr. Chair, I will [inaudible].
    Senator Gardner. Thank you, Senator Kaine.
    And I do not believe there are any further Democrat or 
Republican Senators. If I am wrong, let me know.
    Mr. .Weinstein.  a question for you regarding Japan. You 
know, obviously, we see North Korea's continued development of 
a nuclear weapons program. There was public reporting that they 
may have made some advancements in that nuclear effort.
    But what would happen regionally [inaudible] Japan, as well 
as Korea and others in your opinion, should North Korea 
continue in its nuclear program develop a warhead of capable of 
traveling on an ICBM effectively? What sort of arms scenario do 
you see developing in Asia at that point?
    Mr. .Weinstein.  Thank you for the question.
    The North Korea nuclear program is a major challenge. It is 
a major challenge that we face together with the Japanese, and 
it is a challenge that requires us to be vigilant at the 
highest levels and to seek to promote both negotiations with 
the North Koreans but also to boost our deterrent capability to 
make sure that we do not get to the kind of scenario that you 
outlined.
    I think the Japanese have been very clear. They have no 
interest in developing nuclear weapons whatsoever. But the 
danger of proliferation in the region to other powers certainly 
is a possibility. So that requires us to really continue our 
engagement with North Korea but to be absolutely firm boosting 
the deterrent and boosting our missile defense, working 
together with the Japanese, working together with the Republic 
of Korea and with our other allies to make sure that such a 
scenario does not come to fruition.
    Senator Gardner. Thank you, Mr. Weinstein.
    Mr. Vajda, I had the opportunity to visit Burma in the days 
following the last election when Aung San Suu Kyi's government 
was able to secure some significant gains, and they had a 
countdown or I guess a count-up, so to speak, a ticker on the 
top of their newspapers saying that it is 50 days since this 
new government or 100 days since this new government. And they 
were talking about the results.
    With the election coming up, has this government delivered 
the kinds of reforms or changes that the people of Burma had 
hoped for to help ensure success going forward and away from 
some of the military aspects of elections?
    Mr. Vajda.  Thank you for that question, Mr. Chairman.
    Obviously, the Burmese will render their own judgment when 
they go to the polls on November 8th. My own assessment is that 
there had been, in fact, some early progress under the new 
civilian administration. Obviously, there were tremendous 
expectations.
    I think it is fair to assess, though, that there had been 
some slowing on some of those reforms and some stagnation as 
well. I think we are concerned that we still see some 
constraints on religious freedom, on freedom of expression, 
sometimes using some of the military or even colony era laws.
    And I think one of the key elements I think looking ahead 
at the election is will it be free and fair. Will it be 
inclusive? And will it ideally usher in I think renewed 
momentum on the democratic and governance path? There is no 
doubt that with any government Burma faces enormous challenges 
of poverty, of ethnic strife, of undue pressure from China next 
door. In that respect, I think Burma is really exhibit A for 
some of China's pernicious behavior.
    But I think it is our role and our commitment to help 
support some of those institutions and help with progress 
towards creating better governance and helping to meet the 
aspirations of all of Burma's people. And that I think is the 
expectation we can levy of any government, any civilian 
government in Burma, and I think it then becomes our role to 
help assist it towards that goal.
    Senator Gardner. Thank you for that answer.
    I think one of the tools that we provided within the Asia 
Reassurance Initiative Act for Burma was language similar to 
what we did in Africa with Power Africa. We created the Power 
Burma provisions because, you know, conversations about 
progress economically, stable electricity are very important to 
Burma, and we could help bring that expertise from the United 
States. So I hope that is a tool that we will utilize.
    Ms. Thornhill, to Singapore, obviously they are a trade 
partner of the United States and certainly China, an incredibly 
important trade partner for Singapore as well. How does the 
United States assure that we are present and not allowing a 
tilt in the relationship toward China versus the United States 
but make sure that we are playing this on a--keeping this on a 
level playing field in relationships?
    Ms. Thornhill. Thank you for that question.
    China's maritime assertiveness in the South China Sea is a 
challenge for the region and troublesome for all the region. 
The United States and Singapore both promote a unified ASEAN, 
and both look forward to a meaningful conclusion of the code of 
conduct between ASEAN and China taking into account 
international law and, of course, UNCLOS.
    Singapore has openly stated that they respect the 
international law. In fact, of recent, there was a phone call 
between Secretary Pompeo and the foreign minister stating that 
they must respect international law, which is, of course, 
freedom of navigation and overflight with unimpeded lawful 
commerce.
    Singapore is a city-state that is totally dependent on 
trade, as America is also dependent. But they know their entire 
livelihood is important. They are totally aware of the fact 
that $4 trillion worth of goods go by the South China Sea 
isles, and $1 million of that is U.S. goods. So I believe that 
we would work together. I would work behind the scenes with the 
Singaporean Government to help tilt them a bit more towards our 
direction.
    Prime Minister Lee in his endangered Asian century article, 
made a comment that it was time for China to step up and not 
expect the privileges of a third world country anymore, to step 
up to global norms and abide by them, but not only abide but 
respect them and promote them because China has prospered so 
much by these that it is only right for them to do.
    In his statement, I felt for the first time that Prime 
Minister Lee has tilted a bit towards America because he also 
stated what the U.S. has done for the region, how the U.S. has 
been open and sharing and given back in our business relations. 
So I know that my presence there, if I am confirmed--I would 
work very hard with the Singaporean authorities to help them 
understand [inaudible] to take more of a stand [inaudible] in 
the South China Sea.
    Senator Gardner. Thank you, Ms. Thornhill.
    Quickly because I know I am running out of time here, to 
Mr. Pratt and Mr. Bethel. The obvious implications of the China 
relationship, what it means in the two countries that you will 
be serving in, mean a great deal, and the Asia Reassurance 
Initiative Act provides additional tools to our Indo-Pacific 
ambassadors. What more in the toolbox could you use to help 
address concerns with China in Panama, in Djibouti? Mr. Pratt? 
Mr. Bethel? I will turn to Mr. Bethel first, and then we will 
go to Mr. Pratt. But quickly. Thank you.
    Mr. Bethel.  Thank you for the question, Senator.
    We have a number of tools in our toolbox. We have a newly 
repurposed DFC, formerly known as OPIC. We have the U.S. Ex-Im 
Bank. We have trillions of dollars in financial assets around 
the world that could be--U.S. assets, pension funds and so 
forth that could be deployed to Panama. We have a robust 
private sector, and we have a very strong commercial business 
and cultural relationship with Panama. So I think if we were 
able to harness all of those tools, we could be extremely 
successful, not that we have not been, not that our 
relationship with Panama is strained at all, but perhaps there 
are ways to improve that relationship.
    And I will reiterate what I mentioned earlier with respect 
to China. We should welcome competition. It has just got to be 
fair. Places where you have seen China enter are those like 
Venezuela and others are places that lack the rule of law and 
strong institutions. And if I am fortunate to get confirmed, I 
look forward to working with the Panamanians to strengthen all 
institutions and to help American companies, American 
businesses, American financial capital, and our own government 
institutions to be as successful as possible for the benefit of 
ourselves, obviously, but also for the benefit of the 
Panamanian people.
    Senator Gardner. Thank you, Mr. Bethel.
    Mr. Pratt. quickly.
    Mr. Pratt. Sir, thank you for the question.
    As I said previously, we are very concerned about the debt 
sustainability, and so we will continue to look at this Debt 
Sustainability Initiative. I think the Power Africa initiative 
is also very important, and with our U.S. companies looking to 
get into that sector, two different companies are there now. I 
think that can be important. And I would not rule out maybe 
looking at the BUILD Act to look at potential for 
infrastructure. We do not want China to be the only partner of 
choice for infrastructure in Africa.
    Senator Gardner. Thank you, Mr. Pratt.
    Senator Merkley, would you like to continue with a second 
round?
    Senator Merkley. Yes. Yes, I would.
    And, Mr. Weinstein, I wanted to ask you. Until recently, 
you were chairman of the board of governors of the U.S. Agency 
for Global Media, which was recently disbanded. And in that 
effort, we hire foreign journalists who often are involved in 
writing stories that are not complimentary to their home 
countries, including Chinese journalists not doing 
complimentary stories about China.
    Recently, the J-1 visas have not been renewed for those 
correspondents. Some of them are within days of having to 
return to their home country and are at risk of potential abuse 
by their home governments. Should those J-1 visas be renewed 
and protect those foreign journalists who are serving our 
country?
    Mr. .Weinstein.  Well, thank you, Senator Merkley, for the 
question.
    Let me note that I have immense respect for the journalists 
at the Voice of America and at the other entities of the U.S. 
Agency for Global Media. I had the honor of chairing the board 
for several years. These were dedicated professionals, many of 
whom come from challenging environments.
    Let me just note that this is a decision that the CEO and 
the new management of the agency will make. The 2016-2017 
legislation creating a Senate-confirmed CEO for U.S. 
International Broadcasting eliminated the Senate-confirmed 
bipartisan board. And so this is a decision that the new 
management will make, and I have, frankly, not been in touch 
with the new management since they have taken over.
    Thank you.
    Senator Merkley. Okay, but that does not really answer the 
question. You were deeply involved in this. You know the role 
of these journalists. You know the risk they are at. And we 
here in Congress can play a role on encouraging the 
administration to protect those journalists, not send them 
home. Is that something you would encourage us to do?
    Mr. .Weinstein.  Look, it is a challenging question. I 
would encourage Congress to play the oversight role that it has 
to and to do it in a diligent manner and to do so, particularly 
as you feel strongly on this issue.
    Senator Merkley. I think you are going to be a very good 
diplomat for the United States overseas.
    I would just say to my colleagues of both parties let us 
take a look at this because this is a real concern for some who 
will be returned and possibly imprisoned or tortured for having 
served the United States in this journalistic capacity here in 
the United States.
    I wanted to return back, Ms. Thornhill, just to be 
absolutely clear. I know we were interrupted by some technical 
difficulties and also by time. But it sounded like you were 
saying you did not know much about the organization that you 
donated to. You are probably aware that James O'Keefe hired a 
woman to try to discredit victims of sexual attacks, victims of 
Roy Moore. I am assuming you did not approve of that effort to 
undermine the reputation or legitimacy of those sexual assault 
victims and are not an advocate for Project Veritas. It was 
more or less almost an accidental donation. Is that accurate?
    Ms. Thornhill. I went to support my friend. I knew nothing 
about Mr. O'Keefe or the organization. I was supporting an old 
friend as I would normally do because she asked me to come. I 
went and supported and donated. And that was 7 or 8 years ago 
and have not had any contact, nor do I know anything of what 
you are referring to, sir.
    Senator Merkley. And you did not support their use of fake 
videos or an effort to undermine sexual assault victims' 
legitimacy?
    Ms. Thornhill. No. I am a strong advocate for [inaudible]. 
As you know from my background, from human rights and, of 
course, the rights of women, that we promote everyone equal 
treatment for all.
    Senator Merkley. I just wanted to help you put that on the 
record since it has been raised and we can clear that up and 
set that aside.
    Mr. Vajda.  I am very concerned about the circumstances in 
Burma as many of my colleagues have raised it. As you know from 
our previous conversation, I led a congressional delegation to 
go and try to visit the areas in which Muslims are held and to 
look at the villages that were burned. Aung San Suu Kyi had 
invited the world to come and see and said they had nothing to 
hide, and then they blocked the world from seeing those sites.
    Will you ask to be able to go to those sites yourself in 
your position, once confirmed?
    Mr. Vajda.  Thank you for that question, Ranking Member, 
and I appreciate your interest in pursuing your own direct 
ability to observe what had happened in northern Rakhine State.
    My understanding is that the U.S. embassy regularly seeks 
access to those areas, not just for themselves but importantly, 
for humanitarian agencies, [inaudible] access is critical and 
also for the media so that, as you note, the world can see what 
is actually happening. I understand, as you also noted, that 
that access is often denied.
    It would absolutely be my intent to be able to get there 
and have members of my team get there, if I am confirmed and if 
I arrive in Burma, to be able to see for ourselves and to be 
able to report back accurately to Washington and to use what we 
see to be able to inform our policies so we can be as effective 
as possible and having the greatest influence in working 
towards our goals of human rights and return of the Rohingya 
under safe, dignified conditions and really working towards the 
long-term needs of that community as identified by the Annan 
Commission, which we support.
    Senator Merkley. Thank you. I think even though it is 
likely you will be denied, I think it is important to ask for 
access because it is a horrific situation and we should not 
let--it continues--situations continue. The camps, the 
internally displaced person camps, are still a horrific 
situation for so many who are trapped in them, the denial of 
citizenship, the removal of former citizenship, the assaults 
and the abuse, and it is important that we continue to stand up 
for people who are treated in that manner.
    I wanted to also encourage you to press hard on the 
upcoming elections and try to make sure that everyone who had 
been eligible to vote in previous elections will be allowed to 
vote in this next election, including the Rohingya.
    Mr. Vajda.  Thank you. Thank you, Ranking Member. I share 
that goal. I think it is right this process--the election is as 
inclusive as possible and actually can speak to the political 
needs and interests of all the people of Burma. It will be 
hugely important.
    Senator Merkley. It is often pointed out that despite the 
gravity of the situation, the U.S. never completed the process 
of declaring it a genocide. Should the U.S. complete that 
process?
    Mr. Vajda.  Senator, I know you raised this also with 
Secretary Pompeo in his recent testimony. He has said that our 
main goal is to change behavior on the ground, to promote 
accountability and justice, and to avoid any recurrence of 
these widespread atrocities. And he has made clear that we will 
review our actions with that goal in mind.
    I can simply affirm personally that my intention, if I am 
confirmed, would be to arrive in Burma, assess the situation, 
collect information, gather the advice of my colleagues, and 
make my best recommendations back to Washington how we achieve 
the goals of accountability and justice.
    Senator Merkley. Well, thank you. I think it does undermine 
our credibility that we chose, despite the recommendation of 
numerous international organizations, [inaudible] to be a 
genocide. It seems to have been an effort not to offend the 
Government of Burma. I just think we have to speak truth to the 
situations. When genocide occurs, we need to call it out and 
all it what it is. And [inaudible] the United States has not 
done so, and I hope you will advocate for doing so once you 
evaluate the circumstances on the ground.
    Mr. Vajda.  Thank you, Senator.
    Senator Gardner. Thank you, Senator Merkley.
    And thanks to all of the witnesses today for attending the 
hearing and for your willingness to serve and for providing us 
with your testimony and answers today.
    For the information of members, the record will remain open 
until the close of business Thursday. That is tomorrow, August 
6th, including for members to submit questions for the record.
    I kindly ask the witnesses to respond as promptly as 
possible, and your responses will be made a part of the record.
    With the thanks of the committee, this hearing is now 
adjourned.
    [Whereupon, at 12:44 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record
        Submitted to Erik Paul Bethel by Senator Robert Menendez

    Question. Panama hosts thousands of Colombian, Venezuelan, and 
Nicaraguan refugees and asylum seekers. Panama is also a transit 
country for extra-regional migrants, thousands of whom are stranded as 
a result of the COVID-19 state of emergency. If confirmed, what 
specific policies and programs will you prioritize regarding refugees 
and migrants in Panama?

    Answer. If confirmed, I will continue the State Department's 
engagement with Panama to encourage lawful and humane alternatives to 
its ``controlled flow'' policy of allowing irregular migration through 
Panamanian territory and encourage the Government to deport irregular 
migrants after collecting relevant data and consistent with 
international law. I will also engage the State Department and the 
interagency to continue supporting, through our international 
humanitarian partners, migration management and asylum capacity 
building for the Government of Panama so that we may continue a shared, 
regional approach to addressing irregular migration and providing 
international protection to those in need.

    Question. What is your assessment of the enduring impact of 
Panama's decision to sever diplomatic ties with Taiwan?

    Answer. In June of 2017, under the previous administration of Juan 
Carlos Varela, Panama established diplomatic ties with Beijing. Over 
the following two years, Panama signed 45 bilateral agreements with the 
PRC and conducted negotiations towards a free trade agreement. The 
Cortizo Government has exercised greater oversight of PRC projects. 
Through its donations of medical supplies to support Panama's response 
to the COVID-19 pandemic, Taiwan showed its generosity, leadership, and 
continued reliability as a partner. If confirmed, I will urge Panama to 
approach relations with the PRC cautiously and to reestablish economic 
and cultural ties with Taiwan.

    Question. What is your assessment of the implications for U.S. 
national security of the Government of China's increased investment in 
the region around the Panama Canal, including investment and 
construction of a new bridge over the canal?

    Answer. If confirmed, I will urge Panama to approach relations with 
China with greater caution and will push for international best 
practices in terms of governance and transparency. Panama and the 
United States must ensure that assets such as the Panama Canal, port 
terminals, energy transmission/generation, copper mines, and 
telecommunications maintain the highest standards and remain free of 
corruption for the Panamanian people. The Cortizo Government continues 
to engage with the PRC across a number of areas, but has taken 
important steps to re-examine and proceed more cautiously on projects. 
If confirmed, I plan to work to advance U.S. interests and as 
appropriate to question the motivations of the PRC in Panama.

    Question. What is your assessment of the implications for U.S. 
economic security of the Government of China's increased investment in 
the region around the Panama Canal, including investment and 
construction of a new bridge over the canal?

    Answer. Panama and the United States have a longstanding historical 
relationship centered on the Panama Canal. We are the Canal's top user 
with 68 percent of all transits are going to or coming from a U.S. 
port. The United States welcomes competition with China on a level 
playing field where all play by the rules and respect environmental, 
social, and labor standards. Opaque tenders, lack of transparency in 
the procurement process, and the perception of unfair treatment of 
western companies vis-a-vis China diminish the attractiveness of Panama 
as an investment destination. If confirmed, I commit to helping Panama 
enforce the highest standards of integrity and transparency to ensure a 
competitive environment for U.S. businesses.

    Question. What is your assessment of Panama's participation in the 
Government of China's Belt and Road initiative?

    Answer. The Cortizo Government continues to engage with the PRC 
across a number of areas, but has taken important steps to re-examine, 
and in some cases proceed more cautiously on, projects and other areas 
of engagement with the PRC. The United States welcomes competition with 
China on a level playing field where all play by the rules and respect 
environmental and labor standards. If confirmed, I will urge Panama to 
approach relations with China with caution and push for international 
best practices in terms of transparency.

    Question. If confirmed, what steps would you take to encourage U.S. 
businesses to invest in Panama?

    Answer. Panama and the United States enjoy a strong and 
longstanding trade relationship, which has only improved since the 
U.S.-Panama Trade Promotion Agreement (TPA) entered into force in 
October 2012. Since then, U.S. exports have increased every year. The 
U.S.-Panama TPA supports American jobs, expands markets, and enhances 
U.S. competitiveness by guaranteeing access to Panama's dynamic 
services market. If confirmed, I will continue our whole-of-government 
work to catalyze private sector investment in infrastructure 
development under the America Crece initiative and work with the 
Government of Panama and USTR to further strengthen market access for 
U.S. companies and to ensure that U.S. products continue to be the 
preferred choice for Panamanian consumers.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes. I commit to ensuring that retaliation has no place in 
the federal government and will not be tolerated. I agree that anyone 
found to have engaged in retaliation should be subject to 
accountability and discipline in accordance with U.S. federal laws and 
regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Diversity makes teams stronger in terms of creativity and 
productivity. If confirmed, I intend to engage the resources of the 
State Department as well as my own experience to foster an inclusive 
and respectful environment that allows all voices to be heard. I also 
intend to continue the proactive approach to diversity that I modeled 
from my time in the private sector and at the World Bank, which 
included recruiting and mentoring individuals from diverse backgrounds 
and underrepresented groups.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. If confirmed, I will seek to advance multilateral 
strategies that support human rights and democracy. I dedicated my 
career to working at the crossroads of finance and emerging markets, 
most recently at the World Bank. While there, I worked to support human 
rights by vetting and approving over $80 billion worth of loans, 
grants, guarantees, and investments to promote the Bank's twin goals of 
eliminating poverty and promoting shared prosperity and their strong 
elements of promoting social and environmental sustainability and 
protecting vulnerable individuals. I worked intensely on projects in 
the Democratic Republic of Congo and in Uganda to combat the abuse of 
women and girls.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Panama? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Panama is a strong partner of the United States, whose 
cooperation is vital to U.S. efforts to promote democracy throughout 
the region. In many ways, Panama is a model for others in the region to 
emulate. Challenges remain, including corruption, freedom of expression 
(including by members of the press), and addressing economic 
inequality. The United States supports Panama's efforts to investigate 
and prosecute officials accused of corruption. Panama also needs to 
continue to strengthen its democratic institutions and to increase 
transparency and counter money laundering.
    If confirmed, I commit to supporting democratic development in 
Panama through coordinated U.S. Government programs and outreach aimed 
at strengthening Panama's institutions fighting corruption, and 
bolstering civil society.

    Question. What steps will you take--if confirmed--to support 
democracy in Panama? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Panama is a strong democracy and, in many ways, is a model 
for other countries in the region. Over the past 30 years, Panamanians 
elected five presidents from three political parties in free and fair 
elections. If confirmed, I commit to ensuring that Panama's success is 
more inclusive and to assisting the Government to eliminate corrupt 
influences within its institutions. I will also seek to strengthen 
democratic norms in Panama through our diplomatic engagements with 
Panamanian authorities, public messaging, and U.S. assistance programs 
supporting anticorruption efforts and the rule of law.Question18:How 
will you utilize U.S. Government assistance resources at your disposal, 
including the Democracy Commission Small Grants program and other 
sources of State Department and USAID funding, to support democracy and 
governance, and what will you prioritize in processes to administer 
such assistance?

    Answer. If confirmed, I will work to ensure U.S. assistance aligns 
with our important policy goals of supporting democratic institutions, 
fighting corruption, and upholding the rule of law in Panama. U.S. 
assistance is a key tool we can use to help strengthen Panama's 
judicial institutions and support President Cortizo's anticorruption 
efforts. If confirmed, I will make capacity building a key priority to 
help the Panamanian Government address these critical issues.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Panama? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I commit to meet with such 
organizations, both in the United States and in Panama. I hope to 
strengthen efforts to build the integrity of public institutions and 
increase transparency. I will use my position to promote a safe 
environment that enables NGOs and other civil society actors to operate 
without fear.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, I will make it a point to meet with 
people from across the political spectrum and from all walks of life. 
As the United States Ambassador to Panama, it will be incumbent on me 
to establish contacts among the broadest group of interlocutors 
possible. If confirmed, I will not only engage with government and 
political parties but also with members of civil society, including 
independent media, community organizations, and labor, environmental, 
and human rights organizations and activists. I will also reach out to 
youth, minority, and women's groups on matters of interest and 
importance to the Mission.

    Question. Will you and your embassy team actively engage with 
Panama on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Panama?

    Answer. Supporting an active and free press is a fundamental part 
of State Department engagement overseas. If confirmed as Ambassador, I 
will work diligently across the Mission team to promote the importance 
of a free press with Panamanian officials, while using vehicles such as 
our International Visitor Leadership Program to share international 
best practices with Panamanian journalists. A free and fair press is 
critical to a healthy democracy, and I will continue the Mission's 
efforts to directly engage in the promotion of freedom of expression in 
Panama.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Panama?

    Answer. Yes. If confirmed, I will work with the Embassy team to 
engage with civil society and government counterparts on countering the 
disinformation and propaganda disseminated by foreign state (or non-
state) actors in Panama. If confirmed, I will work closely with the 
Panamanian Government to deter and counter malign influence by the PRC 
and other governments whose policies are inimical to U.S. interests, 
and to help Panama solidify its awareness of the pitfalls represented 
by increasing proximity to the PRC. I will also encourage Mission 
Panama to continue developing positive responses and information to use 
to counter disinformation and propaganda campaigns.

    Question. Will you and your embassy teams actively engage with 
Panama on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will work with the U.S. Embassy team to 
engage diplomatically with the appropriate ministries in the Panamanian 
Government on labor issues, including the freedom of association for 
all, including independent trade unions. I believe active dialogue with 
labor organizations and activists, as well as accurate reporting on 
labor conditions, is an important responsibility of the State 
Department and, if confirmed, I will lead the Embassy in prioritizing 
both outreach and reporting.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Panama, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Panama? What specifically will you commit to do to help LGBTQ people in 
Panama?

    Answer. If confirmed, I will support the efforts of the State 
Department to defend the human rights and dignity of all people in 
Panama. I am deeply committed to human dignity and respect for all 
people and will follow all State Department guidelines to address this 
issue with respect, tolerance, and compassion.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Erik Paul Bethel by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy?

   What has been the impact of your actions?

    Answer. If confirmed, I commit to advancing strategies that support 
human rights and democracy.
    I dedicated my career to working at the crossroads of finance and 
emerging markets, most recently at the World Bank.
    While there, I worked to support human rights by vetting and 
approving over $80 billion worth of loans, grants, guarantees, and 
investments to promote the Bank's twin goals of eliminating poverty and 
promoting shared prosperity, with strong elements of promoting social 
and environmental sustainability, and protecting vulnerable 
individuals.
    I worked intensely on projects in the Democratic Republic of Congo 
and in Uganda to combat the abuse of women and girls.

    Question. What are the most pressing human rights issues in Panama?

   What are the most important steps you expect to takeif confirmedto 
        promote human rights and democracy in Panama?

   What do you hope to accomplish through these actions?

    Answer. Panama is a strong partner of the United States and has 
made significant strides to address human rights.
    However, Panama still faces a number of challenges.
    Panama should do more to protect indigenous communities, address 
gender-based violence issues, strengthen the rights of underserved 
people, and help curb human trafficking.
    Panama's press appears hampered by politically motivated censorship 
and criminal libel lawsuits.
    If confirmed, I will work diligently with the Panamanian Government 
and its people, as well as with all U.S. stakeholders, on these 
concerns.
    Our relationship with Panama is based on our shared values, and 
continuing to partner with the Government of Panama to address these 
issues will positively impact our broader relationship.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Panama in advancing 
human rights, civil society, and democracy in general?

    Answer. Although Panama has made significant strides in addressing 
human rights issues, challenges still remain.
    Obstacles to addressing these issues may include underfunded 
institutions; entrenched interests that resist change; lack of economic 
opportunity that exacerbates Panama's wealth inequality; impunity and 
the rule of law; and corruption.
    These are some of the obstacles to addressing the development of 
democracy and development of civil society.
    If confirmed, I commit to working with the Panamanian Government, 
non-governmental organizations, and the many U.S. Government agencies 
that work in this area to overcome these obstacles and further 
strengthen Panama's human rights record.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Panama?

   If confirmed, what steps will you take to pro-actively support the 
        Leahy Law and similar efforts, and ensure that provisions of 
        U.S. security assistance and security cooperation activities 
        reinforce human rights?

    Answer. Yes.
    If confirmed, I commit to meet with such organizations, both in the 
United States and in Panama.
    If confirmed, I hope to also strengthen efforts to build the 
integrity of public institutions and increase transparency.
    I also commit to support implementation of the Leahy Law and to 
work with Embassy staff to make sure that the provision of U.S. 
security assistance and security cooperation activities reinforce human 
rights.

    Question. Will you and your embassy team actively engage with 
Panama to address cases of key political prisoners or persons otherwise 
unjustly targeted by Panama?

    Answer. Political prisoners and the unjust targeting of individuals 
is of serious concern to the United States.
    If confirmed, I will ensure that the Embassy engages with the 
various elements involved with criminal justice in Panama, both 
governmental and non-governmental, to encourage further respect for 
rule of law, including with respect to human rights.

    Question. Will you engage with Panama on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes.
    I believe our engagement with Panama should be guided by our 
longstanding values of freedom, democracy, individual liberty, and 
human dignity.
    Our engagement should seek to strengthen rule of law, combat 
corruption, and promote inclusive prosperity.
    If confirmed, I will stand ready to assist the Government of Panama 
to continue to make positive improvements in these areas.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity.

   What will you do to promote, mentor, and support your staff that 
        come from diverse backgrounds and underrepresented groups?

    Answer. Diversity makes teams better in terms of creativity and 
productivity.
    If confirmed, I intend to promote an inclusive and respectful 
environment that allows all voices to be heard.
    I also intend to continue the proactive approach to diversity that 
I modeled from my time in the private sector and at the World Bank, 
which included recruiting and mentoring individuals from diverse 
backgrounds and underrepresented groups.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Panama are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, I commit to promoting an inclusive work 
environment by holding the Embassy leadership team accountable for 
their conduct, in keeping with State Department values.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Yes.
    I commit to complying with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.
    If confirmed, I commit to complying with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through the appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Panama?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which may hold interests in companies with a presence 
in the Republic of Panama. My investment portfolio also includes 
security interests, including stocks, in companies, some of which may 
have a presence in the Republic of Panama. I am committed to following 
all applicable ethics laws and regulations and remaining vigilant with 
regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Panama 
specifically?

    Answer. I believe political corruption in the region prevents 
countries from achieving their economic potential.
    Panama is no exception.
    I understand that corruption remains a key concern for Panamanians.
    If confirmed, I seek to support the Cortizo administration's 
efforts to fight corruption, uphold the rule of law, foster 
transparency, and promote good governance.
    I understand that Panama has taken a leadership role in the region 
for its efforts to improve transparency by digitizing key 
administrative and regulatory practices.
    If confirmed, I will continue to promote accountability and 
encourage the Panamanian Government to take action to prevent, 
investigate, and prosecute corruption.

    Question. What is your assessment of corruption trends in Panama 
and efforts to address and reduce it by that government?

    Answer. My understanding is that although the Panamanian Government 
has made good progress in many areas, corruption remains a key 
challenge.
    In 2019, Transparency International ranked Panama 101 out of the 
180 countries in the perception of corruption ranking.
    Corruption was also a major issue for voters in the May 2019 
election, and I am encouraged to see that President Cortizo established 
new anticorruption controls in July to address transparency issues in 
COVID-19 related procurement.
    We share Panama's goal of fortifying its institutions to detect, 
investigate, prevent, and punish corrupt acts, and I look forward to 
advancing our continued partnership with the Panamanian Government and 
people to address this important issue if I am confirmed.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Panama?

    Answer. If confirmed, I will speak out against corrupt influences 
in Panamanian institutions through our diplomatic engagements with 
Panamanian authorities, public messaging, and regional U.S. assistance 
programs supporting anticorruption efforts and strengthening of the 
rule of law.
    If confirmed, I will seek to offer continued support for efforts to 
improve transparency in Panama's judicial system to uphold rule of law.
    In addition, I am committed to considering all appropriate 
deterrence tools at the State Department's disposal, including visa 
restrictions and Global Magnitsky Act sanctions, to promote 
accountability for those involved in, and benefiting from, significant 
acts of corruption in Panama.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Jonathan Pratt by Senator Robert Menendez

    Question. Djibouti stands at the crossroads of the Bab el-Mandeb 
Strait, the gateway between the Mediterranean Sea and the Indian Ocean. 
Despite its small size, it's the recipient of considerable investment 
and attention from countries in Africa, the Gulf, Europe and Asia due 
to its strategic location. France, Italy, China and Japan all have 
bases there. The U.S. has more than 4,500 troops at Camp Lemonier. It's 
our only enduring military base on the continent, and with the 
President's abrupt decision to relocate troops from Stuttgart, the home 
of U.S. Africa Command, Camp Lemonier takes on an even great 
importance, especially with regards to its counterterrorism activities:


   What strategic interests does the United States have along the Red 
        Sea Corridor?

    Answer. The Red Sea is a critical region to global security and 
commerce. It is estimated that more than ten percent of world trade and 
roughly 15 percent of global oil production passes through the Red Sea 
on a yearly basis.
    Russia, China, and other actors are working to increase their 
presence and influence in the region due to security and economic 
considerations. This complicates already challenging relations between 
the countries in the region. Stabilization in the Horn should remain a 
priority for the international community. We welcome recent initiatives 
by the Intergovernmental Authority on Development (IGAD) and the 
Kingdom of Saudi Arabia's Red Sea Council to bring together countries 
in the region to increase dialogue on challenges and opportunities in 
the Red Sea area.

    Question. What is the administration's strategy to pursue those 
interests?

    Answer. Our overall objective is to promote greater cooperation on 
regional security and economic issues among Red Sea nations, and to 
ensure continued stability and freedom of commerce and navigation. The 
Department of State has begun closer coordination between the African 
and Near Eastern bureaus on issues in the Red Sea arena. State also 
sent participants to the USIP and DoD organized Red Sea Forum events in 
Jordan and Washington, DC, which brought together regional and 
interested countries. Mission Djibouti's top priority is to continue to 
ensure unimpeded access for U.S. forces to the Djiboutian air and 
seaports so that U.S. forces can continue their important security and 
stabilization work in the Horn of Africa and the Gulf region. Our 
bilateral Ambassador to Djibouti also serves as our diplomatic 
representative to the Intergovernmental Authority on Development 
(IGAD), the Horn of Africa's regional organization. IGAD also plays a 
role in Red Sea, Gulf of Aden, and Indian Ocean issues.

    Question. What priorities will you set in order to pursue them if 
confirmed as Ambassador?

    Answer. If confirmed, I will prioritize pursuing U.S. interests in 
the Red Sea region by working closely with colleagues across the U.S. 
inter-agency to include coordination with my counterparts at our 
embassies in the region. I will also pursue an active role in IGAD to 
the extent I am able to do so, including on issues related to the Red 
Sea, and I plan to support USIP and other initiatives that promote 
stability in the region.

    Question. If confirmed, how will you balance U.S. strategic 
interests with the pursuit of greater respect for democratic principles 
and practices in Djibouti, where President Ismael Guelleh has been 
criticized as both corrupt and authoritarian?

    Answer. Advancement of democracy in Djibouti is a key component of 
our bilateral relationship. We assess that improved democratization in 
Djibouti will support its internal stability and also assure the long-
term viability of our bilateral relationship and our military base. For 
this reason, our embassy and high-level U.S. Government officials 
regularly raise democracy and good governance concerns with Djiboutian 
officials, including detailed discussions about electoral reforms 
advocated by the African Union and the need for strengthened rule of 
law. Our embassy leadership and staff also maintain dialogue with the 
opposition and civil society to ensure that we remain in contact with 
all representative elements of Djiboutian society. If confirmed, I will 
continue this important work.
    The UAE, Saudi Arabia, and Turkey have increased their military 
presence along the coast of the Horn of Africa, expanding and 
increasing activity throughout the Red Sea Corridor:

    Question. What mechanisms are in place at the State Department to 
coordinate strategies, programs, and policies implemented by the Africa 
and Near-East-Asia bureaus relative to the Red Sea Corridor?

    Answer. The Department of State has begun closer coordination 
between the African and Near Eastern bureaus on issues in the Red Sea 
arena. I was not involved but I understand the NEA and AF bureaus co-
hosted a session during the 2020 Chiefs of Mission Conference to bring 
together U.S. chiefs of mission from the region to discuss and 
coordinate on Red Sea issues.

    Question. How will you work with the two bureaus, as well as 
Ambassadors in countries along the Red Sea Corridor, if confirmed, to 
ensure you are fully informed on relevant policies and priorities?

    Answer. If confirmed, I will continue to build on AF's and NEA's 
coordination efforts to ensure that we develop collaborative approaches 
to Red Sea issues. Through annual and other periodic gatherings with 
Chiefs of Mission, I will strive to ensure that Red Sea issues are 
included in the agenda, and that there is increased information sharing 
and, where appropriate, joint reporting from our missions in the 
region. If confirmed, I will identify individuals within my mission to 
strategically include Red Sea issues as part of their portfolios to 
ensure that we are continuously engaged on these issues. I will also 
maintain our dialogue with IGAD's Executive Secretary, based at IGAD 
headquarters in Djibouti, on that regional organization's policies and 
activities regarding Red Sea issues.

    Question. How would you evaluate the political atmosphere in the 
run up to elections, which are slated for next year--is there a level 
playing field for all political actors?

    Answer. President Ismael Omar Guelleh has led Djibouti since 1999. 
Near the end of his second term in 2010, parliament amended the 
constitution to abolish term limits. He has since won reelection two 
more times, despite vowing that his 2011 reelection would be his last. 
The 2016 election, which he won with nearly 88% of the vote, was marred 
by reports of government harassment of opposition supporters and 
restrictions on the rights to peaceful assembly and freedom of 
expression, including for members of the press.
    Our embassy leadership has specifically engaged the Djiboutian 
Government on the arrests of human rights activists, as well as 
opposition members, a concerning issue which we will continue to raise 
in the future. Our embassy leadership has also raised with the Interior 
minister specific electoral reforms recommended by the African Union's 
observer mission following 2018 legislative elections.

    Question. What programs and activities are currently underway to 
help support credible elections in Djibouti? What will you do, if 
confirmed, to support a credible election outcome?

    Answer. Our embassy and high-level U.S. Government officials 
regularly raise democracy and good governance concerns with Djiboutian 
officials, including detailed discussions about electoral reforms 
advocated by the African Union. Our embassy leadership and staff also 
maintain dialogue with the opposition and civil society to ensure that 
we remain in contact with all representative elements of Djiboutian 
society. To promote better governance, our embassy works with civil 
society organizations to build operational capacity and to increase the 
participation of Djiboutians in public service delivery. We also 
support programs to combat gender-based violence and promote women's 
empowerment and to promote press freedom by building the capacity of 
Djiboutian journalists.
    In early June, Mohamed Ibrahim Wais and Kassim Nouh Abar 
journalists working for La Voix de Djibouti, an independent media 
outlet, were arrested.

    Question. Are the two men still in custody, and if so on what 
charges?

    Answer. Mohamed Ibrahim Wais was released on June 10, 2020, and 
Kassim Nouh Abar was released on June 8, 2020. I am not aware that they 
are currently facing charges.

    Question. What led to their arrest?

    Answer. I understand both were arrested after seeking information 
about Lt. Fouad Youssouf Ali--a Djiboutian air force pilot who 
circulated videos critical of President Guelleh's government--and his 
conditions under detention. Lt. Fouad Youssouf Ali is charged with 
attempting to steal a Djiboutian air force plane, and wrecking it in 
the process.

    Question. What does their arrest indicate about the state of free 
media in Djibouti?

    Answer. The Government does not support freedom of expression, 
including for members of the press. The dominant newspaper, television 
station, and radio station are all state-owned and operated. State-
controlled media outlets generally does not criticize government 
leaders or policies. The Government's harassment and detention of 
journalists often results in widespread self-censorship. While 
intimidation tactics have not risen to the level of killings and 
disappearances, pressure tactics include extrajudicial arrests and the 
kidnapping of journalists. The vibrant public reaction to the arrests 
voiced on social media indicate that platforms such as Facebook and 
Twitter now offer a new outlet for the Djiboutian public and diaspora 
to openly voice their opinions.

    Question. What programs and activities are State or USAID 
supporting in the area of media freedoms?

    Answer. We support programs to build the capacity of Djiboutian 
journalists, including providing platforms for discussion with other 
local media, training on investigative journalism, capacity building, 
and support for journalism students. Additionally, we help Djibouti 
build regional and international relations with the committee to 
Protect Journalists (CPJ), Amnesty International, and other 
organizations.

    Question.  What steps will you take to support independent media if 
confirmed?

    Answer. If confirmed, I will aim to support programming that 
promotes investigative journalism in Djibouti. I will continue to build 
on the Mission's engagement with the Djiboutian Government on the 
importance of press freedom. We will also support the growth of 
internet penetration in Djibouti and welcome open public discussion on 
social media platforms.

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. I commit to make clear to all employees that prohibited 
personnel practices will not be tolerated under my leadership. I agree 
that anyone found to have engaged in retaliation should be held 
accountable and subject to discipline consistent with applicable laws, 
regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. As I have done in the past, I plan to recruit a highly 
diverse team and I plan to mentor and support all of the people on my 
team. Throughout my career I have put a particular emphasis on 
encouraging employees from diverse backgrounds to remain in the Foreign 
Service and in the Civil Service, part of which means supporting them 
to find the best possible onward assignments that will make them 
competitive for promotion and advancement. If confirmed, I plan to 
ensure that the entire embassy is focused on promoting and supporting 
diversity and that we have regular discussions on the tools we are 
using to achieve that goal. I plan to take all of these steps to 
support Foreign Service, Civil Service and locally-recruited employees. 
In regards to locally-recruited U.S. Government employees, I will 
review considerations of diversity in the Djiboutian context as they 
pertain to outreach programs in favor of underrepresented groups.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, I understand and value the importance of our nation's 
democracy and the essential role that elections play in it. I will 
report to appropriate authorities any credible allegations of foreign 
interference in U.S. elections.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I will commit to report any such credible 
information to the appropriate authorities.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The most important actions I have taken to support 
democracy and human rights in my career are helping reach a peace 
agreement in 2002 in the Democratic Republic of Congo during my first 
assignment in the Foreign Service, and helping implement the 
Comprehensive Peace Agreement from 2007-2009 in Sudan. These peace 
agreements meant that villages in both countries that had previously 
changed hands multiple times during conflict, exposing these 
populations to repeated rape and other violence, could begin the long 
process of healing and rebuilding. The end to both wars also allowed 
elections to move forward in these countries at national and local 
levels. Later in my career, in Pakistan, I helped organize U.S. 
observation efforts of two successful elections, in a country 
previously ruled by military dictators. I also advocated regularly for 
the release of people falsely accused of blasphemy, as well as for 
reform of the blasphemy laws, and for improvements in Pakistan's labor 
laws to counter forced labor and child labor, in addition to its laws 
and enforcement to counter trafficking in persons. We were able to 
achieve incremental improvements in these areas, making a difference in 
the lives of those most affected.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Djibouti? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The most pressing human rights issues in Djibouti are the 
suppression of opposition political voices; the refusal to allow some 
groups to form legally recognized political parties; the harassment, 
abuse, and detention of some government critics; the Government's 
denial of access to independent sources of information; and 
restrictions on freedoms of speech and assembly. A stable Djibouti is 
essential to the goal of ensuring unimpeded access for U.S. forces. 
Improved government institutions and economic gains are important to 
maintaining that stability; both of which require enhanced rule of law. 
The United States is committed to maintaining this long-term strategic 
partnership to counter regional terrorism and thus assure our enhanced 
security here at home.

    Question. What steps will you take--if confirmed--to support 
democracy in Djibouti? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will use my leadership and voice to 
underscore that respect for democratic rights is essential for 
Djibouti's future growth, prosperity, and security. I will engage 
Djiboutian authorities, international partners, civil society 
organizations, and business leaders to work together toward these 
goals. The United States and Djibouti have a long and rich history of 
partnership; if confirmed, I look forward to further developing and 
deepening relationships with the Djiboutian Government, international 
and domestic partners and the people of Djibouti to ensure the tangible 
advancement of human rights, civil society, and democracy, and mutual 
prosperity. Bringing together multiple stakeholders, including 
Djiboutian Government officials, international partners, civil society, 
and business leaders, will likely be one of the most important steps 
and challenges.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. To promote better governance, our embassy works with civil 
society organizations to build operational capacity and to increase the 
participation of Djiboutians in public service delivery. We also 
support programs to promote women's empowerment and press freedom by 
building the capacity of Djiboutian journalists. If confirmed, I will 
continue this important work.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Djibouti? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Human rights, civil society organizations, and other non-
governmental organizations, regardless of where they are registered or 
operate, all play an important role in advancing democratic governance, 
respect for human rights and fundamental freedoms, and assisting 
Djibouti to develop its democratic institutions. If confirmed, I am 
committed to meeting with any individual or entity that can be 
beneficial to U.S. goals.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, under my leadership the U.S. Embassy will 
continue to engage with representatives from across the political 
spectrum, including the ruling party and opposition parties.

    Question. Will you and your embassy team actively engage with 
Djibouti on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Djibouti?

    Answer. The United States supports media freedom and is committed 
to strengthening journalistic professionalism. If confirmed, I will 
engage with like-minded missions, civil society, and international 
partners to underscore the importance of an independent, professional, 
and open media to a free and democratic society. I will press for the 
United States to continue its support to Djibouti's media and to 
encourage more independent media voices. Djiboutian journalists have 
participated in U.S. Government-sponsored professional exchange 
programs on reporting, safeguarding freedom of expression, and the 
media's role in strengthening democratic institutions.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Djibouti?

    Answer. The United States supports media freedom and is committed 
to strengthening journalistic professionalism. If confirmed, I will 
engage with like-minded missions, civil society, and international 
partners to underscore the importance of a credible, independent, 
professional media to a free and democratic society.

    Question. Will you and your embassy teams actively engage with 
Djibouti on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue our embassy's efforts to 
promote labor rights. As the embassy noted in our 2019 Human Rights 
Report, the Djiboutian Government did not consistently enforce the law 
protecting collective bargaining. I would advocate for continued 
improvements in this area, and document progress in the Human Rights 
Report.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Djibouti, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Djibouti? What specifically will you commit to do to help LGBTQ 
people in Djibouti?

    Answer. The United States continues to support upholding human 
rights and the dignity of all individuals in Djibouti, no matter their 
sexual orientation. I am committed to promoting human rights for all in 
Djibouti, including members of the LGBTQ community.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Jonathan Pratt by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. My most meaningful achievements include helping reach a 
peace agreement in 2002 in the Democratic Republic of Congo during my 
first assignment in the Foreign Service and helping implement the 
Comprehensive Peace Agreement from 2007-2009 in Sudan. These peace 
agreements meant that villages in both countries that had previously 
changed hands multiple times during conflict, exposing these 
populations to repeated rape and other violence, could begin the long 
process of rebuilding and healing. The end to both wars also allowed 
elections to move forward in these countries at national and local 
levels. Later in my career, in Pakistan, I helped organize U.S. 
observation efforts of two successful elections, in a country 
previously ruled by military dictators. I also advocated regularly for 
the release of people falsely accused of blasphemy, as well as for 
reform of the blasphemy laws, and for improvements in Pakistan's labor 
laws to counter forced labor and child labor, in addition to its laws 
and enforcement to counter trafficking in persons. We were able to 
achieve incremental improvements in these areas, making a difference in 
the lives of those most affected.

    Question. What are the most pressing human rights issues in 
Djibouti? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Djibouti? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Djibouti are the 
suppression of opposition political voices; the refusal to allow some 
groups to form legally recognized political parties; the harassment, 
abuse, and detention of some government critics; extrajudicial arrests 
of independent journalists; the Government's suppression of 
investigative journalism; and restrictions on the rights to freedom of 
expression and peaceful assembly. I will continue our embassy's 
advocacy for the strengthening of democratic institutions and the 
adoption of democratic practices as the best guarantors of long-term 
peace, prosperity, and stability. The embassy, through USAID and 
implementing partners, works to strengthen the capabilities and 
organizing power of civil society groups so that they can work with 
government agencies to improve service delivery.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Djibouti in 
advancing human rights, civil society, and democracy in general?

    Answer. Potential obstacles to addressing human rights and 
democracy in Djibouti include a nascent civil society, lack of viable 
opposition parties, a weak judicial sector, and traditions of 
personalized power rather than rule of law. The lack of strong 
opposition voices and independent media will also certainly present 
challenges. If confirmed, I look forward to working with our embassy, 
interagency colleagues, and international partners to overcome these 
challenges.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Djibouti? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Human rights, civil society organizations, and other non-
governmental organizations, regardless of where they are registered or 
operate, all play an important role in advancing democratic governance, 
respect for human rights and fundamental freedoms, and assisting 
Djibouti to develop into a 21st century partner of the United States. 
If confirmed, I am committed to meeting with any individual or entity 
that can advance U.S. goals related to human rights, and to working to 
ensure that security forces do not receive U.S. assistance if there is 
credible information that they have committed a gross violation of 
human rights.

    Question. Will you and your embassy team actively engage with 
Djibouti to address cases of key political prisoners or persons 
otherwise unjustly targeted by Djibouti?

    Answer. I am fully committed to engaging with the Government of 
Djibouti on guaranteeing political freedoms. As it does in all cases, 
the Department of State urges governments to ensure that all defendants 
are afforded fair trial guarantees for any crimes for which they have 
been charged.

    Question. Will you engage with Djibouti on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Advancement of democracy and human rights in Djibouti is a 
key component of our bilateral relationship. We assess that improved 
democratization in Djibouti will support its internal stability and 
also assure the long-term viability of our bilateral relationship and 
of our military base.
    To this end, our embassy and high-level U.S. Government officials 
regularly raise democracy and good governance concerns with Djiboutian 
officials, including detailed discussions about electoral reforms 
advocated by the African Union and public urging of strengthening rule 
of law. Our embassy leadership and staff also maintain dialogue with 
the opposition and civil society to ensure that we remain in contact 
with all representative elements of Djiboutian society. Our embassy 
leadership has specifically engaged the Djiboutian Government on the 
arrests of human rights activists as well as opposition members, a 
concerning issue which we will continue to raise in the future. If 
confirmed, I am fully committed to continuing this important work.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. As I have done in the past, I plan to recruit a highly 
diverse team and I plan to mentor and support all of the people on my 
team. Throughout my career I have put a particular emphasis on 
encouraging employees from diverse backgrounds to remain in the Foreign 
Service and in the Civil Service, part of which means supporting them 
to find the best possible onward assignments that will make them 
competitive for promotion and advancement. If confirmed, I plan to 
ensure that the entire embassy is focused on promoting and supporting 
diversity and that we have regular discussions on the tools we are 
using to achieve that goal. Our embassy also considers diversity in the 
Djiboutian context as concerns underrepresented groups within our 
Djiboutian workforce. The embassy has outreach programs to these groups 
to encourage applications from members of underrepresented groups.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Djibouti are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I plan to speak with my team both 
collectively and individually about our objectives for recruiting a 
diverse team and for promoting an inclusive environment. I will ensure 
that all employees complete any required diversity-related training and 
will seek engagement by the Office of Civil Rights on diversity and 
inclusion training. I will ensure that all of my staff know that 
diversity and inclusion are top priorities of mine.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Djibouti?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Djibouti 
specifically?

    Answer. In many countries, efforts to foster broad-based economic 
growth, improve the delivery of public services, and pursue effective 
development policies continue to be stymied by disparities in economic 
and political power and corruption. These dynamics undermine public 
confidence, participatory policy making and effective policy 
implementation and service delivery. Public corruption undercuts all 
democratic nations' governance and rule of law and can pose an 
existential threat to nascent or weak democracies.

    Question. What is your assessment of corruption trends in Djibouti 
and efforts to address and reduce it by that government?

    Answer. Corruption is a problem in Djibouti, and Djibouti ranks 
126th out of 180 countries in the 2019 Corruption Perceptions Index 
reported by Transparency International. If confirmed, under my 
Ambassadorship the United States will continue to advocate for a 
comprehensive, systemic approach to combat corruption that empowers the 
people and promotes inclusive democracy and economic growth in 
Djibouti. In recent years, some government ministers have been removed 
for corruption and some restitution of resources was apparently 
achieved, however political traditions prioritizing the distribution of 
patronage among various clans and identity groups too often protects 
both poor performing and corrupt government officials. The modest trend 
over the past 20 years has been toward greater competency and probity 
in government, but only consistent and objective application of the 
rule of law can cure this ill.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Djibouti?

    Answer. If confirmed, I will continue the trend of our embassy and 
high-level U.S. Government officials regularly raising good governance 
concerns with Djiboutian officials. I will also continue our work with 
civil society organizations to build operational capacity and to 
increase the participation of Djiboutians in public service delivery. I 
will also support programs to combat gender-based violence, support 
women's empowerment, and promote investigative journalism.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Barbera Hale Thornhill by Senator Robert Menendez

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that prohibited personnel 
practices has no place in the federal government and will not be 
tolerated. I agree that those found to have engaged in retaliation 
should be subject to accountability and discipline consistent with 
applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for hiring and retaining diverse talent. I 
will promote diversity and inclusion best practices and tips for 
inclusive hiring practices and standardized interview guidance. I will 
support the review of existing mentoring programs and how they can be 
bolstered.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I worked with Mother Teresa and the Sisters of Charity in 
Calcutta in 1994 in orphanages, supporting homebound families and 
helping the destitute and dying in the hospice ``Home of the Pure 
Heart.'' I also worked extensively with Scouts BSA, formerly known as 
the Boy Scouts of America, an organization that has provided leadership 
and mentoring to more than 20,000 youths and underprivileged 
adolescents. I also helped the Children's Institute in Los Angeles to 
provide basic needs, early childhood education, and psychological 
counseling for more than 28,000 children who have been abused and have 
suffered many horrible traumas.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Singapore? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Singapore is ranked as one of the least corrupt countries 
in the world and one of the most transparent in Asia. Our shared values 
of good governance, transparency, and respect for the rule of law 
continue to anchor our dynamic and growing cooperation. Nevertheless, 
Singapore believes curbs on certain human rights and fundamental 
freedoms--including freedom of association, freedom of expression, 
including for the members of the press, and the right to peaceful 
assembly--are necessary to maintain stability and social harmony in a 
small, multi-racial, and multi-religious country. If confirmed, I am 
committed to engaging with civil society and the Singapore Government 
on the importance of human rights and fundamental freedoms to our 
shared vision for a free and open Indo-Pacific.

    Question. What steps will you take--if confirmed--to support 
democracy in Singapore? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States and Singapore enjoy a deep partnership 
underpinned by our shared values of good governance, transparency, 
sovereignty, and respect for the rule of law. Nevertheless, Singapore 
believes curbs on certain human rights and fundamental freedoms--
including freedom of association, freedom of expression, including for 
the members of the press, and the right to peaceful assembly--are 
necessary to maintain stability and social harmony in a small, multi-
racial and multi-religious country. Domestic political and social 
issues are considered extremely sensitive topics in Singapore. To 
overcome this sensitivity, if confirmed, I am committed to building 
strong relationships that include open and frank discussion of the 
importance the United States places on respect for human rights and 
fundamental freedoms, including freedom of expression, across the 
globe, including in Singapore. If confirmed, I am committed to engaging 
with civil society and the Government, partners and allies, and other 
stakeholders to stress the importance of these human rights and 
fundamental freedoms to our shared vision for a free and open Indo-
Pacific.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As a high-income country, Singapore generally does not 
receive assistance from the United States. The United States and 
Singapore enjoy a deep partnership underpinned by our shared values of 
good governance, transparency, sovereignty, and the rule of law. 
Singapore also is a primary contributor to Association of Southeast 
Asian Nations (ASEAN) initiatives to close the development gaps among 
ASEAN members. If confirmed, I will use U.S. foreign assistance 
resources to work with Singapore to promote governance goals in the 
Southeast Asia region, as outlined in the Indo-Pacific Strategy, with 
human capital development undergirding our efforts.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Singapore? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
United States, Singapore-based human rights NGOs, and other members of 
civil society in Singapore. If confirmed, I will also work with the 
Government to advocate for fair and transparent treatment of NGOs and 
civil society under the law.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. The United States urges equal treatment for all and 
underscores our commitment to diversity and inclusion. If confirmed, I 
will work with the Singaporean Government, including with opposition 
figures and parties, on these important issues and will promote access 
and inclusivity for women, members of minority groups, and youth within 
political parties.

    Question. Will you and your embassy team actively engage with 
Singapore on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Singapore?

    Answer. The United States promotes respect for human rights and 
fundamental freedoms, including freedom of expression, across the 
globe, including in Singapore. Promoting these rights are key 
priorities of the Indo-Pacific Transparency Initiative. If confirmed, I 
am committed to engaging with civil society and the Government, as well 
as independent, local press in Singapore, on the importance of these 
human rights and fundamental freedoms.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Singapore?

    Answer. Yes. If confirmed, I will engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in Singapore.

    Question. Will you and your embassy teams actively engage with 
Singapore on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, I will work with the Singaporean 
Government, civil society, and other parts of the Singaporean economy 
on the issue of the right of labor groups to organize.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Singapore, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Singapore? What specifically will you commit to do to help LGBTQ 
people in Singapore?

    Answer. Although Singapore is a relatively tolerant society, LGBTI 
persons face legal challenges that hinder full inclusion. The rights of 
LGBTI individuals and persons are a topic of importance in our 
conversations with the Singaporean Government. If confirmed, I will 
continue to urge equal treatment for all and to underscore our 
commitment to diversity and inclusion by engaging not only with the 
Singaporean Government, but also with civil society organizations, the 
private sector, and like-minded missions.



                               __________


            Responses to Additional Questions for the Record
   Submitted to Barbera Hale Thornhill by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I worked with Mother Teresa and the Sisters of Charity in 
Calcutta in 1994 in orphanages, supporting homebound families and 
helping the destitute and dying in the hospice ``Home of the Pure 
Heart.'' I also worked extensively with Scouts BSA, formerly known as 
the Boy Scouts of America, an organization that has provided leadership 
and mentoring to more than 20,000 youths and underprivileged 
adolescents. I also helped the Children's Institute in Los Angeles to 
provide basic needs, early childhood education, and psychological 
counseling for more than 28,000 children who have been abused and have 
suffered many other horrible traumas.

    Question. What are the most pressing human rights issues in 
Singapore? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Singapore? What do 
you hope to accomplish through these actions?

    Answer. Singapore believes curbs on certain human rights and 
fundamental freedoms--including freedom of association, freedom of 
expression, including for the members of the press, and the right of 
peaceful assembly--are necessary to maintain stability and social 
harmony in a small, multi-racial, and multi-religious country. The 
United States promotes respect for all human rights and fundamental 
freedoms across the globe, including in Singapore. Promoting these 
rights, as well as media and internet freedom, is a key priority of the 
Indo-Pacific Transparency Initiative. If confirmed, I am committed to 
engaging with civil society and the Government on the importance of 
these human rights and fundamental freedoms to our shared vision for a 
free and open Indo-Pacific.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Singapore in 
advancing human rights, civil society, and democracy in general?

    Answer. Domestic political and social issues are considered 
extremely sensitive topics in Singapore. To overcome this sensitivity, 
if confirmed, I am committed to building strong relationships that 
include open and frank discussion of the importance the United States 
places on respect for human rights and fundamental freedoms, including 
freedom of expression. If confirmed, I will work with civil society, 
the Government, partners and allies, and other stakeholders to advance 
human rights and fundamental freedoms.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Singapore? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to engaging with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local human rights NGOs in Singapore. Through such 
engagements, I will work to ensure that U.S. security cooperation 
activities with Singapore reinforce human rights. As a high-income 
country, Singapore generally does not receive assistance from the 
United States.

    Question. Will you and your embassy team actively engage with 
Singapore to address cases of key political prisoners or persons 
otherwise unjustly targeted by Singapore?

    Answer. Singapore has prided itself in strong respect for rule of 
law, and we will continue to work with the Government to stress values 
of human rights and fundamental freedoms. If confirmed, I am committed 
to engaging with Singapore to address cases of any key political 
prisoners or persons otherwise unjustly targeted.

    Question. Will you engage with Singapore on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I am committed to engaging with civil society 
and the Singaporean Government on the importance of human rights, civil 
rights, and good governance.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and build a representative workforce. I will encourage promoting 
diversity and inclusion in the hiring process through recruiting 
efforts and standardized interview procedures. I will promote the 
expansion of workplace flexibilities, including telework and 
alternative work schedules, and Leave Without Pay (LWOP) options, 
similar to ``boomerang talent'' programs in the private sector. I will 
learn from and listen to employees using mechanisms like the Open 
Conversations platform and the Department's new Centralized Exit 
Survey.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Singapore are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for hiring and retaining diverse talent. I 
will promote diversity and inclusion best practices and tips for 
inclusive hiring practices and standardized interview guidance. I will 
support the review of existing mentoring programs and with an eye on 
how they can be strengthened.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raising any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raising any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Singapore?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which may hold interests in companies with a presence 
in Singapore. My investment portfolio also includes security interests, 
including stocks, in companies, some of which may have a presence in 
Singapore. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Singapore 
specifically?

    Answer. Corruption is toxic to democracy. The United States and 
Singapore enjoy a deep partnership underpinned by our shared values of 
good governance, transparency, sovereignty, and the rule of law. 
Singapore is consistently ranked as one of the least corrupt countries 
in the world and one of the most transparent countries in Asia. As one 
of our most reliable partners in the region, Singapore has worked with 
us to achieve the governance goals outlined under the Indo-Pacific 
Strategy, with human capital development undergirding our efforts.

    Question. What is your assessment of corruption trends in Singapore 
and efforts to address and reduce it by that government?

    Answer. Singapore is as one of the least corrupt countries in the 
world and one of the most transparent countries in Asia. Singapore 
prides itself on having a reputation for good governance and low 
corruption, which has helped attract thousands of U.S. companies and 
investors to do business there.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Singapore?

    Answer. Singapore is consistently ranked as one of the least 
corrupt countries in the world and one of the most transparent 
countries in Asia. Our shared values of stability, prosperity, and the 
rule of law continue to anchor our dynamic and growing cooperation. If 
confirmed, I am committed to engaging with civil society and the 
Singaporean Government to stress these shared values.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Thomas Laszlo Vajda by Senator Robert Menendez

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant ethics 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, if confirmed, I commit to making clear that prohibited 
personnel practiceshas no place in the federal government and will not 
be tolerated. I agree that those found to have engaged in retaliation 
should be subject to accountability and discipline consistent with 
applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of respect for 
diversity and inclusion. I will promote habits and practices that focus 
on inclusion as a key driver for retaining diverse talent. I commit to 
promoting diversity and inclusion best practices for inclusive hiring 
practices and standardized interview guidance, and to supporting the 
review of existing mentoring programs to see how they can be 
strengthened.
    More broadly, I commit to working and mentoring the talented and 
diverse members of the Foreign Service and Civil Service with whom I 
work to deepen the Department's ongoing diversity and inclusion 
efforts.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, if confirmed, I commit to comply with all relevant 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes, if confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes, if confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I served as Deputy Chief of Mission in Rangoon from 2008 to 
2011 and worked with Embassy colleagues to support the early stages of 
the opening that led to Burma's first credible national election in a 
half century in 2015. My colleagues and I made it a priority to meet 
with and support those in Burma who were striving, often at great 
personal risk, to bring democracy to the country. While this transition 
is far from complete, I am proud of the work the United States has done 
to support the people of Burma in their struggle for peace and 
prosperity.
    In addition, as then-Acting Deputy Assistant Secretary in the 
Bureau of South and Central Asian Affairs, I visited Cox's Bazar in 
2017 to see the humanitarian crisis firsthand and shine a light on the 
horrific atrocities against Rohingya. I have worked with my colleagues 
in the Department to meet the humanitarian needs of Rohingya, push for 
accountability for those responsible for abuses, and address the 
underlying drivers of the crisis. While we have more to do, this work 
represents the highest calling of any diplomat.
    I also served as the Director of the Middle East Partnership 
Initiative during the Arab Spring and worked with colleagues to target 
U.S. assistance to support civil society groups and activists working 
to advance human rights, political and economic reform, and women's 
empowerment throughout the Middle East and North Africa. At that time 
and since, the region has continued to face challenges, but I am proud 
of the efforts my colleagues and I undertook to provide support to 
those advocating for a more democratic and equitable future.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Burma? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The United States has partnered with the people of Burma 
for decades to strengthen democracy, expand civilian control of the 
military, responsibly develop the economy, resolve disputes, control 
illicit narcotics, fight trafficking in persons, combat corruption, 
promote human rights, and address the root causes of violence and abuse 
in Rakhine State and elsewhere. Burma's historic 2015 election was 
rightfully seen as a milestone, but we have seen since that Burma 
cannot unwind decades of internal strife and military rule overnight. 
Three of the main challenges to Burma's transition are the lack of 
civilian control over the military, the political marginalization of 
members of ethnic and religious minority groups, and the weakness of 
institutions.
    The military remains a significant impediment to further democratic 
growth, as shown by its veto this January over of any constitutional 
reform, and a focus of mine as Ambassador, if confirmed, will be to 
continue to push the military to undertake reforms and accept civilian 
control. More broadly, promoting ethnic and national reconciliation and 
building an inclusive civic identity are crucial for Burma to 
constructively address its legacy of violence and repression, and to 
ensure that all its people can participate fully in the democratic 
transition.

    Question. What steps will you take--if confirmed--to support 
democracy in Burma? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States must maintain its policy of engagement 
with Burma to move the country in the direction of democratic civilian 
rule. If confirmed, I will work to support those elements of civil 
society, business, and government that seek reform and bolster 
institutions that promote democracy, good governance, rule of law, free 
markets, and respect for human rights, including religious freedom.
    That includes strengthening the capacity of civil society 
organizations, political parties, women and youth activists, and ethnic 
groups to more effectively engage in the democratic process; empowering 
public servants to be responsive to their constituents; and encouraging 
responsible investment and businesses practices to shrink the space for 
corruption. Empowering Burma's democratic institutions, and reducing 
the role of the military in politics are key to addressing underlying 
challenges following five decades of authoritarian rule. Progress is 
also connected to the country's economic transformation--broadening 
economic participation and decreasing corruption and the military's 
role in the economy. If confirmed, I will work with my colleagues to 
expand opportunities for the next generation of leaders to continue 
reforms.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work with colleagues to utilize U.S. 
assistance to strengthen the capacity of civil society organizations, 
independent media, political parties, and ethnic groups to more 
effectively engage in the democratic process. We must also work to 
further strengthen the democratic institutions, empower public servants 
to be responsive to their constituents, encourage responsible 
investment and business practices to shrink the space for corruption, 
and expand opportunities for the next generation of leaders to continue 
needed reforms.
    In addition, in the context of the upcoming election, if confirmed, 
I will work with my colleagues to continue to build capacity within 
Burma's election commission, train political parties and civil society 
organizations, counter hate speech and dis- and misinformation, 
strengthen election security, and educate the electorate on democratic 
principles, including five million first-time voters. In addition, if 
confirmed, I will continue work to strengthen the capacity of the 
criminal justice system to effectively counter transnational criminal 
organizations that undermine economic development, threaten democratic 
institutions, and aggravate violence.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Burma? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights organizations, and other non-governmental 
organizations in the United States and Burma, as I did as Deputy Chief 
of Mission in Rangoon and in accordance with our long history of 
support to such groups. We must absolutely continue to strongly support 
those elements of civil society that seek reform and to bolster 
institutions that promote democracy, good governance, rule of law, free 
markets, and respect for human rights.
    If confirmed, I will continue to raise the United States' concerns 
over the continued use of new and old laws to crack down on freedoms of 
expression, peaceful assembly, religion and belief, and association. In 
addition, if confirmed, I will continue and deepen our support to civil 
society organizations working to repeal, amend, or decriminalize these 
repressive laws.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meet with the full range of 
political leaders and parties, as I did as Deputy Chief of Mission in 
Rangoon and in accordance with our long history of support for 
democratic transition and politically and socially marginalized groups.
    If confirmed, I will continue our longstanding efforts to 
strengthen the capacity of civil society organizations, political 
parties, and ethnic and religious groups to more effectively engage in 
the democratic process, including assistance and programs that promote 
access and inclusivity for women, minorities, and youth.

    Question. Will you and your embassy team actively engage with Burma 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures? Will you commit to meeting regularly with independent, local 
press in Burma?

    Answer. Yes, if confirmed, I will work with my team to actively 
promote freedom of the press, and I will meet with independent, local 
press in Burma. If confirmed, I will continue to raise the United 
States' concerns over the use of old and new laws to crack down on 
freedoms of expression, peaceful assembly, religion and belief, and 
association, including cases of journalists prosecuted for performing 
their jobs. In addition, if confirmed, I will continue and deepen our 
support to civil society organizations working to repeal, amend, or 
decriminalize these repressive laws.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Burma?

    Answer. Yes, if confirmed, I will work with my team to support the 
people of Burma in their efforts to consolidate and deepen democratic 
reforms, including efforts to counter disinformation and propaganda. 
This is particularly important in the context of Burma's upcoming 
election. If confirmed, I will work with my colleagues to continue to 
build capacity within Burma's election commission, train political 
parties and civil society organizations, counter hate speech and dis- 
and misinformation, strengthen election security, and educate the 
electorate on democratic principles. This effort includes ongoing 
engagement with Facebook, the dominant social media platform in Burma.

    Question. Will you and your embassy teams actively engage with 
Burma on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, I will work with my team to promote the 
rights of workers in Burma. The United States has long promoted 
internationally recognized labor rights with a particular focus on 
freedom of association and collective bargaining, and strengthening 
core labor standards for members of traditionally neglected groups, 
such as women, youth, and informal sector workers. If confirmed, I will 
work closely with Congress and interagency partners to support 
protections for labor rights in Burma.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Burma, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Burma? What specifically will you commit to do to help LGBTQ people in 
Burma?

    Answer. If confirmed, I will support the efforts of the Department 
to defend the human rights and dignity of all people in Burma, no 
matter their sexual orientation. If confirmed, I will support U.S. 
policy efforts that seek to protect the human rights of, and respect 
for, all Burmese people, including LGBTQ people. I would also seek to 
maintain a dialogue with LGBTI activists, and support accurate and 
timely reporting on LGBTI rights issues.

    Question. Since Sri Lanka's President Gotabaya Rajapaksa was 
elected in December, he has placed individuals implicated in war crimes 
in senior government posts; withdrawn from the U.N. resolution on 
investigating war crimes; and increased persecution of members of civil 
society, journalists, and families of the civil war disappeared. 
Despite this, the State Department is apparently still debating whether 
to certify that the Sri Lankan Government is ``taking effective and 
consistent steps'' to meet the accountability and reconciliation 
certification criteria laid out in the FY 20 appropriation law. No 
objective observer could claim the Government of Sri Lanka meets the 
certification criteria. Please provide a status update on your 
certification deliberations.

    Answer. The Department shares concerns regarding Sri Lanka, closely 
monitors developments in the country, and continues to press the 
Government of Sri Lanka to uphold its obligations and commitments 
related to human rights, accountability, and reconciliation. The 
Department has repeatedly stressed to the Government of Sri Lanka at 
the highest levels that the character of our relationship will depend 
on the Government upholding its human rights obligations and 
commitments, and that further actions to allow those credibly accused 
of human rights violations and abuses without accountability will be 
detrimental to our relationship. The Department is taking into account 
all available information in order to make an informed decision 
regarding the certification requirement in the FY2020 appropriations 
act.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Thomas Laszlo Vajda by Senator Benjamin L. Cardin

    Question. Aung San Suu Kyi's government and the Tatmadaw have been 
accused of using Burma's oppressive laws to curtail the freedom of 
assembly and freedom of press. In addition, the Suu Kyi government has 
not used its supermajority in the Union Parliament to amend or repeal 
some of the more oppressive laws, and in some cases, has passed laws 
that critics claim further erode respect for human rights in Burma.

   In your view, are the Tatmadaw guilty of war crimes, crimes against 
        humanity, or genocide?

    Answer. The United States has repeatedly expressed its deep concern 
about the Burmese military's appalling abuses against members of ethnic 
and religious minority groups, including horrific atrocities against 
Rohingya in 2017. The Department of State concluded in November 2017 
that the atrocities against Rohingya constituted ethnic cleansing. We 
have taken strong actions to promote accountability for these 
atrocities, including by sanctioning top military leaders for their 
role in serious human rights abuse.
    Historically, determinations that certain acts may amount to 
genocide or crimes against humanity are made in the Executive Branch by 
the Secretary of State, who has expressed his outrage at these horrible 
abuses and stated he is focusing on pursuing policies that will promote 
accountability and change behavior. If confirmed, I will continue to 
assess all available information and make recommendations on how best 
to promote justice and accountability for atrocities and other human 
rights violations and abuses in Burma.

    Question. Should the U.S. Government sanction more senior Burmese 
security officers and government officials for their role in serious 
human rights violations? Would you support additional restrictions on 
U.S. relations with businesses and companies owned or controlled by the 
Tatmadaw and its senior officers?

    Answer. The United States continues to prioritize accountability 
for those responsible for serious human rights abuses and justice for 
victims as part of efforts to promote and defend human rights. The 
United States designated the Burmese military's Commander-in-Chief 
(CINC), deputy CINC, and seven other senior officers and two units 
under the Global Magnitsky sanctions program; designated the Commander-
in-Chief, deputy, and four other senior Burmese officers for their role 
in gross violations of human rights under Section 7031(c) of the State 
Appropriations Act; and has strongly supported U.N. investigation 
mechanisms. If confirmed, I will work with my colleagues to consider 
all policy tools at our disposal to promote accountability, including 
additional sanctions, as appropriate.
    In addition, if confirmed, I will support ongoing efforts to 
promote responsible trade and investment, which limit the influence of 
the Burmese military's economic interests, shrink the operating space 
for military-owned or operated businesses, and support economic 
reforms.

    Question. Are there avenues for the United States to work with 
partners in nations outside Burma--in ASEAN or among Burma's neighbors 
in South Asia--to pursue goals of human rights and democracy in the 
country?

    Answer. The United States has been working closely with our allies 
and partners across the globe to promote and strengthen human rights 
and democracy in Burma. The close relationship between the United 
States and ASEAN has advanced on the foundation of shared values, 
including openness, transparency, inclusiveness, and respect for 
sovereignty and the rules-based order in the Indo-Pacific. ASEAN 
remains at the heart of our vision for a free and open Indo-Pacific.
    If confirmed, I will continue to work with my colleagues to 
generate additional support from international partners and countries 
in the region for human rights and reform efforts inside Burma. The 
Department regularly engages ASEAN countries and our key partners in 
South Asia in efforts to push Burma to create conditions conducive to 
the safe, voluntary, dignified, and sustainable return of Rohingya 
refugees and those internally displaced. The Department is also working 
with many governments in the region to underscore their commitments to 
the 2016 Bali Declaration and their international legal obligations, 
including the provision of support, humanitarian assistance, and 
disembarkation to Rohingya and other displaced persons stranded at sea. 
The Rakhine State crisis demands a regional and global response, and if 
confirmed, I will continue such efforts.

    Question. What is your view of The Gambia's pending International 
Court of Justice case against Burma and the International Criminal 
Court investigation?

    Answer. The United States continues to be a leader in promoting 
accountability and behavior change, including through our support to 
multilateral accountability efforts. We have encouraged all parties to 
participate fully in the International Court of Justice (ICJ) 
proceedings and to respect the ICJ's provisional measures order. If 
confirmed, I will continue to call on Burma to respect the ICJ's order 
and to urge Burma to use these developments to pursue justice and 
greater respect for human rights.
    The United States is working with our allies and partners to 
explore a range of options to promote justice for victims and 
accountability for abuses. Preventing the recurrence of atrocities, 
addressing the needs of victims as well as including their voice and 
agency in discussions, and ensuring those responsible are held 
accountable are all essential to resolving the Rakhine State crisis and 
to furthering Burma's transition toward becoming a democratic, 
peaceful, and prosperous state. Secretary Pompeo has been clear about 
U.S. views toward the International Criminal Court.

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I served as Deputy Chief of Mission in Rangoon from 2008 to 
2011 and worked with Embassy colleagues to support the early stages of 
the opening that led to Burma's first credible national election in a 
half century in 2015. My colleagues and I made it a priority to meet 
with and support those in Burma who were striving, often at great 
personal risk, to bring true democracy to the country. While this 
transition is far from complete, I am proud of the work the United 
States has done to support the people of Burma in their struggle for 
peace and prosperity.
    In addition, as then-Acting Deputy Assistant Secretary in the 
Bureau of South and Central Asian Affairs, I visited Cox's Bazar in 
2017 to see the humanitarian crisis firsthand and shine a light on the 
horrific atrocities against Rohingya. I have worked with my colleagues 
in the Department to meet the humanitarian needs of Rohingya, push for 
accountability for those responsible for abuses, and address the 
underlying drivers of the crisis. While we have more to do, this work 
represents the highest calling of any diplomat.
    I also served as the Director of the Middle East Partnership 
Initiative during the Arab Spring and worked with colleagues to target 
U.S. assistance to support civil society groups and activists working 
to advance human rights, political and economic reform, and women's 
empowerment throughout the Middle East and North Africa. At that time 
and since, the region has continued to face challenges, but I am proud 
of the efforts my colleagues and I undertook to provide support to 
those advocating for a more democratic and equitable future.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Burma?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights organizations, women and youth activists, and 
other non-governmental organizations in the United States and Burma, as 
I did as Deputy Chief of Mission in Rangoon and in accordance with our 
long history of support to such groups. We must absolutely continue to 
strongly support those elements of civil society that seek reform and 
bolster institutions that promote democracy, good governance, rule of 
law, free markets, women's empowerment, and respect for human rights.

    Question. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights in Burma?

    Answer. Reforming the Burmese military, ending its decades of 
impunity, and placing it under the control of the civilian government 
are essential for the long-term success of democracy and prosperity in 
Burma. Leahy Law restrictions are important tools to assist in this 
effort.
    Congress currently prohibits the sale of military equipment and 
military assistance to Burma. Under the JADE Act, the United States is 
required to restrict visas for Burmese military leaders and their 
immediate family members. In addition, Leahy Law restrictions prohibit 
assistance to security force units credibly implicated in a gross 
violation of human rights until the Government of Burma is determined 
to have taken effective steps to bring the responsible security force 
unit members to justice. I am committed to fully support these laws and 
restrictions.
    I understand there is an interagency process for reviewing certain 
engagements with the Burmese military to ensure that any such activity 
complies with all applicable legal restrictions and meets our strategic 
objectives with regard to promoting human rights. If confirmed, I will 
ensure we continue to apply stringent interagency review to military 
engagements.

    Question. The escalating conflict between the Arakan Army and the 
Tatmadaw in Chin and Rakhine States poses several problems, including 
new allegations of war crimes, the internal displacement of over 
160,000 people, and further complications to the possible dignified, 
voluntary, safe, and sustainable return of the Rohingya refugees 
currently in Bangladesh. The United States has been a major supporter 
of Aung San Suu Kyi's peace process, including providing funding for 
her Panglong Peace Conferences and her National Reconciliation and 
Peace Center (NRPC).
    According to some observers, that peace process is hopelessly 
stalled.

   What role, if any, do you see for the U.S. embassy in Burma to help 
        address the civil war in western Burma, as well as in eastern 
        Burma?

    Answer. Promoting ethnic and national reconciliation, as well as 
building an inclusive civic identity, is crucial for Burma to credibly 
address its legacy of civil war and repression. This is true not only 
in Rakhine State but throughout areas in Burma affected by violence. If 
confirmed, I will work with my colleagues to continue to engage ethnic 
and religious groups and local communities and to empower civil society 
organizations working to improve their communities and better engage 
their government. Our assistance programs--from health to economic 
growth--are critical to our engagement with these communities and 
support efforts to pursue peace. There is also a role for public 
advocacy, as when the U.S. Embassy joined other local missions in June 
in calling for restraint ahead of a military offensive in Rakhine 
State.
    Ultimately, progress depends on the people, government, military, 
and armed groups of Burma, but if confirmed, I will continue to 
prioritize ways to support efforts towards peace, justice, and 
reconciliation.

    Question. As Ambassador, would you support the continuation of U.S. 
assistance to Aung San Suu Kyi's peace process and the NRPC? Would you 
consider pursuing alternative paths to peace, as China has done?

    Answer. Progress toward a nationwide ceasefire agreement has 
stagnated. If confirmed, I will support the continuation of U.S. 
assistance to the peace process and efforts to end violence and abuse, 
including through assistance on ceasefire negotiations and monitoring, 
political dialogue, addressing violence, promoting respect for the 
human rights of all ethnic minority communities and humanitarian aid. 
If confirmed, I will lead my colleagues at U.S. Embassy Rangoon in 
continuing to evaluate the nature of our support and look for the most 
effective ways to encourage peace and reconciliation and move 
positively beyond the status quo.
    Progress depends on the people, government, military, and armed 
groups of Burma. If confirmed, I will continue to prioritize ways to 
support efforts towards peace, justice, and reconciliation. The 
Government of the People's Republic of China maintains significant 
influence with a number of Burma's ethnic armed groups. Constructive, 
good-faith engagement by governments in the region would be a positive 
step toward sustainable peace, but we cannot ignore PRC actions that 
have worsened this violence and prolonged instability. If confirmed, I 
will continue efforts to act as a friend to the people of Burma and a 
partner of those genuinely interested in building peace.

    Question. Do you see a possible path for getting the Tatmadaw and 
all the armed ethnic groups to agree to an unconditional ceasefire to 
address the COVID-19 pandemic? Are you concerned that the COVID-19 
pandemic could be used as justification for additional and prolonged 
restrictions on fundamental human rights?

    Answer. Sporadic ceasefires between the Burmese military and ethnic 
armed groups (EAGs) in the context of the COVID-19 pandemic have not 
held. Violence in Rakhine State and Chin State, in particular, has 
escalated in recent months, killing dozens of members of local 
communities and displacing thousands. The United States continues to 
call on all sides to cease fighting, protect local communities, and 
pursue dialogue. If confirmed, I would work to redouble these efforts, 
as well as efforts to call on Burma to lift ongoing access restrictions 
that are preventing the delivery of urgently needed humanitarian 
assistance and to remove a prolonged internet blackout, which cuts 
communities off from vital information during the pandemic.
    I understand Embassy Rangoon and others have seen public health 
restrictions related to COVID-19 applied unequally, with harsher 
penalties falling disproportionately on religious minorities. There 
have also been complaints from workers' organizations that regulations 
affected their ability to protest in connection with labor strikes. 
Given the broad use of defamation and other laws to restrict freedom of 
expression and peaceful assembly, if confirmed, I will closely monitor 
the situation and address any possible effort to use COVID-19 
restrictions for political, rather than legitimate public health, ends.

    Question. In March 2020, the Tatmadaw blocked the passage of 
constitutional amendments proposed by the National League for Democracy 
in Burma's Union Parliament. Several of the ethnic groups have stated 
that they do not recognize the legitimacy of the 2008 constitution, and 
insist that a new constitution be drafted as a condition for peace:

   Do you think there is a viable means to amending the 2008 
        constitution that could constitute a step forward in ending 
        Burma's civil war?

    Answer. I was disappointed to see the Burmese military effectively 
veto efforts to amend the 2008 constitution in January. Such efforts 
are crucial to making Burma's constitution more democratic, 
strengthening Burma's democratic institutions, and reducing the role of 
military in politics.
    At the same time, there are many actions the civilian government 
can take to better include ethnic groups in the process of democratic 
reform, rebuild government bodies responsible for ceasefire monitoring 
and political negotiations, and acknowledge legitimate ethnic minority 
group grievances. If confirmed, I will continue to engage ethnic groups 
and local communities to help them better engage their government and 
to support long-term efforts to pursue peace.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Burma 
specifically?

    Answer. Political corruption hollows out democratic institutions, 
weakens the rule of law, and undermines public confidence in elected 
officials and the benefits of democratic governance. In Burma, the 
military or military-backed governments employed wide-scale repression 
and misrule for decades that left Burma with weak institutions, an 
underdeveloped economy, and a pervasive lack of trust in government 
entities. This misrule also contributed to legitimate political 
grievances by ethnic and religious minority groups, which fuel civic 
strife to this day.

    Question. What is your assessment of corruption trends in Burma and 
efforts to address and reduce it by that government?

    Answer. The current civilian government has made important progress 
in consolidating some reforms, fighting corruption, and opening Burma's 
economy. This includes work by the Anti-Corruption Commission (ACC) and 
related legislation that have expanded government efforts to identify, 
investigate, and prosecute public corruption.
    While the ACC has successfully prosecuted some senior officials in 
Burma, these efforts represent one part of broader reforms that the 
people of Burma have long sought. More work remains to be done, 
including with regard to removing the military from politics and the 
economy and promoting international trade and investment best 
practices. In addition, we must continue to empower government leaders 
and civil society to push back on businesses and entities that exploit 
Burma's natural resources and human capital while providing little 
benefit to local communities.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Burma?

    Answer. If confirmed, I will continue to support those elements of 
civil society, business, and government that seek reform and bolster 
institutions that promote democracy, good governance, rule of law, free 
markets, and respect for human rights.
    That includes strengthening the capacity of civil society 
organizations, political parties, and ethnic groups to more effectively 
engage in the democratic process and advance government accountability 
and transparency; empowering public servants to be responsive to their 
constituents and building their capacity to effectively investigate and 
prosecute corruption; encouraging responsible investment and businesses 
practices to shrink the space for corruption; and expanding 
opportunities for the next generation of leaders to continue needed 
reforms.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and a diverse and representative workforce. I will encourage promoting 
diversity and inclusion in the hiring process through standardized 
interview procedures. I will also learn from and listen to employees 
using mechanisms like the Open Conversations platform and the 
Department's new Centralized Exit Survey.
    As the Senior Advisor in the Bureau of South and Central Asian 
Affairs (SCA), I have mandated similar policies and also supported and 
engaged with the Bureau's Diversity Working Group; created a new 
Diversity and Inclusion Coordinator for the Bureau; served as the 
liaison to the South Asian American Employee Association, one of the 
Department's Employee Affinity Groups; and undertaken outreach to other 
Department affinity groups to support greater diversity in SCA's 
recruitment and hiring. I will draw on these experiences to promote 
diversity and inclusion in Embassy Rangoon, if I am confirmed.
    In addition, I understand Embassy Rangoon launched an Inclusion 
Strategy in August 2019 to build acceptance for full inclusion for 
colleagues of all backgrounds, including religions, ethnicities, 
disabilities, genders, and sexual orientations. Discrimination, 
especially that based on ethnicity, is a fundamental problem in Burma 
where it has fueled violence. If confirmed, I look forward to 
supporting this initiative.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Burma are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, it is my responsibility as Ambassador to 
create a culture of leadership that fosters an environment that is 
diverse and inclusive. Managers, I included, share the responsibility 
to articulate clearly our team's mission and how diversity and 
inclusion contribute to our goals. I will encourage individual growth, 
value and respect unique perspectives, enhance professional 
development, and strive to inspire all employees. If confirmed, I will 
also enable and encourage the good work of U.S. Embassy Rangoon's 
Inclusion Leadership Team, which brings together local staff from 
diverse backgrounds, as well as American supervisors, to 
institutionalize principles of inclusion across the mission.
    I commit to promoting diversity and inclusion best practices for 
inclusive hiring practices and standardized interview guidance, and to 
supporting the review of existing mentoring programs to see how they 
can be strengthened.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raising any 
concerns that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff

    Answer. Yes, if confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raising any 
concerns that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Burma?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which may hold interests in companies with a presence 
in Burma. My investment portfolio also includes security interests, 
including stocks, in companies, some of which may have a presence in 
Burma. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Thomas Laszlo Vajda by Senator Edward J. Markey

    Question. How will you press the Burmese Government to abide by the 
provisional measures ordered by the International Court of Justice 
(ICJ) in January 2020, including to prevent genocide and to preserve 
evidence of atrocities? Further, will you work to ensure Burmese 
authorities meet periodic reporting requirements on measures taken to 
implement this order?

    Answer. The United States continues to be a leader in promoting 
accountability for human rights abuses in Burma and incentivizing 
behavior change to ensure such abuses do not happen again, including 
through our support to multilateral accountability efforts. We have 
encouraged all parties to participate fully in the International Court 
of Justice (ICJ) proceedings and to respect the ICJ's provisional 
measures order. If confirmed, I will continue to call on the Burmese 
Government and military to respect the ICJ's order and urge Burma to 
pursue justice and greater respect for human rights.
    Preventing atrocities, addressing the needs of victims and ensuring 
they have a voice and agency in these efforts, and promoting 
accountability for those responsible for atrocities are essential to 
addressing the root causes of the Rakhine State crisis and to 
furthering Burma's transition to a democratic, peaceful, and prosperous 
state.

    Question. Over the past months the Government of Burma has 
increased attacks and human rights violations in Rakhine and Chin 
states. Reports of abuses include burning villages, killing civilians, 
torture, forced displacement, and civilian detention and disappearance, 
which the former U.N. Special Rapporteur on the situation of human 
rights in Myanmar said could amount to war crimes or crimes against 
humanity. Many of these same unlawful acts were committed in 2017 
against Rohingya communities, which forced hundreds of thousands of 
people to seek safety in Bangladesh. What would be the most effective 
U.S. response and what are the lessons learned from how the U.S. 
handled the situation in 2017 that should inform how it addresses this 
latest spike in violence?

    Answer. The Burmese military has a clear history of committing 
abuses across Burma, including in recent months in Rakhine and Chin 
States. The Department has publicly expressed deep concern about the 
escalating violence in Rakhine State and southern Chin State, where 
members of local communities have been killed and thousands have been 
displaced in recent months.
    Embassy Rangoon joined other diplomatic missions in Burma in a 
statement pushing for a cessation of violence, peaceful dialogue, 
renewed efforts to protect communities, and access for humanitarian 
organizations. The Department has also underscored Burma's obligations 
under international law and the need for Burma to implement the 
International Court of Justice's (ICJ) provisional measures. If 
confirmed, I will use all the tools at my disposal to urge a cessation 
of violence in Rakhine and Chin States, justice and accountability for 
abuses, and unhindered humanitarian access, including through ongoing 
coordination with regional partners.

    Question. Exacerbating the conflict in Chin and Rakhine States, the 
Burmese Government has instituted an internet blackout in as many as 
nine townships at various times since June 2019, impacting 
approximately 1 million civilians. As a further complication, the 
internet blackout carries a deadly weight during the pandemic. The 
Tatmadaw has recently defended these restrictions as a means to tamp 
down on the Rakhine-Bamar conflict and prevent the sharing of military-
related information. While internet access restrictions were recently 
lifted in one townships (Maungdaw), violence has increased markedly 
since the restrictions were imposed. What will you do to raise concerns 
about increasing violence and rights restrictions like internet access?

    Answer. The Department has publicly expressed deep concern about 
escalating violence in Rakhine State and southern Chin State, and 
called on all sides to cease fighting, protect local communities, and 
pursue dialogue. We have also called on Burma to lift ongoing access 
restrictions that are preventing the delivery of urgently needed 
humanitarian assistance. Specifically, we have called on the Burmese 
Government--in public comments and in private settings--to end the 
prolonged internet blackout, which cuts off communities from vital 
information during the pandemic. If confirmed, I will use all the tools 
at my disposal to continue calling for the restoration of full mobile 
data access in Rakhine and Chin States.

    Question. In addition to the Rohingya, other ethnic minorities that 
live in Kachin and the northern Shan State, as well as the Karen 
people, are also victims of the Burmese military's brutality. If 
confirmed, how will you leverage your position as Ambassador to advance 
a broad, inclusive, and participatory peace process between the 
Government of Burma, the Tatmadaw, and ethnic armed organizations?

    Answer. Promoting ethnic and national reconciliation, and building 
an inclusive civic identity, is crucial for Burma to constructively 
address its legacy of civil war and civic strife. A broad range of 
community voices, including those of victims of abuse, need to be part 
of any sustainable peace process. If confirmed, I will work with my 
colleagues to continue this engagement with all of Burma's ethnic and 
religious groups, including through strong support from Congress, to 
empower civil society organizations working to improve their 
communities; promote democracy, justice, and rule of law; and address 
the needs of victims of abuse. Our assistance programs--from health to 
economic growth--are critical to our engagement with these communities 
and support efforts to pursue peace.
    If confirmed, I will also support the continuation of U.S. 
assistance to community-strengthening efforts and other intercommunal 
peace-building programs. If confirmed, I will also call on civilian and 
military officials to build an inclusive, rights-respecting, democratic 
society and to ensure that Burma's democratic advancement provides 
dividends to all its people.

    Question. A blanket ban on humanitarian access remains in place 
across large parts of northern and central Rakhine State, as well as 
southern Chin State, where some of the most vulnerable communities in 
Burma are currently being denied life-saving assistance. What is your 
view on this policy of the Burmese Government, and what role should the 
U.S. and the wider diplomatic community in Burma play to address this 
situation?

    Answer. The United States continues to push for the removal of 
restrictions on the delivery of life-saving humanitarian assistance and 
that unduly limit freedom of movement in Rakhine and Chin States, as 
well as other regions affected by violence. The situation overall 
remains unacceptable, although I understand there have been some small 
positive steps, including the delivery of World Food Program food aid 
to Chin State's Paletwa Township in early May and again in mid-July, 
the first such deliveries this year.
    Embassy Rangoon joined other diplomatic missions in Burma in a 
statement pushing for a cessation of fighting in the region, peaceful 
dialogue, renewed efforts to protect local communities, and access for 
humanitarian organizations. If confirmed, I will continue to work with 
likeminded countries, regional partners, and the U.N. to use all the 
tools at our disposal to push for humanitarian access to vulnerable 
communities.

    Question. There are significant concerns that the ongoing conflict 
in Rakhine and Chin States could be used to justify the closing of 
polling locations and undermine the ability for the populations of 
those States, including those displaced by conflict, to exercise their 
right to vote. Historically, Burma has used ongoing conflict as a 
justification to disenfranchise minority groups. What steps should the 
U.S. take to ensure the forthcoming elections will be free and fair, 
including ensuring that populations in conflict-affected areas will be 
able to participate in the political process? What steps can/should the 
U.S. take to ensure that the Rohingya in Burma and Rohingya refugees in 
Bangladesh will be able to vote? More broadly, what benchmarks will the 
U.S. use to determine if the elections are free and fair?

    Answer. With robust support from Congress, the United States is 
working to promote free and fair elections in Burma as part of ongoing 
efforts to consolidate democratic reforms. U.S. support builds capacity 
within Burma's election commission, trains political parties and civil 
society organizations, counters hate speech and dis- and 
misinformation, strengthens election security, and educates the 
electorate on democratic principles. The key benchmark in any election 
is the estimation that the results of the election broadly reflect the 
will of the people.
    Concerns over potential poll closures are well-founded. An 
estimated 500,000 people were disenfranchised in the 2015 election due 
to poll closures in Shan, Kachin, and Karen States. The current 
violence in Rakhine and Chin States means this may be potentially an 
even more serious issue in 2020. If confirmed, I will urge the Burmese 
Government to ensure that all eligible citizens can cast a vote and 
will work with my team to monitor poll closures. The situation Rohingya 
people face is especially troubling, given the large-scale 
disenfranchisement and obstacles to voting as a result of systemic 
discrimination. If confirmed, I will continue U.S. efforts to push on 
these issues.

    Question. How will you ensure that U.S.-based social media 
companies, including Facebook, do not allow use of their platforms as 
vehicles for dangerous speech, hate speech, and political interference 
inside Burma?

    Answer. I share your concern regarding the proliferation of online 
disinformation and hate speech in Burma. Our Embassy in Rangoon 
regularly engages with U.S. businesses operating in Burma, including 
social media companies, to encourage ethical business practices that 
promote good governance and human rights. This is particularly 
important in the context of Burma's upcoming election. If confirmed, I 
will work with my colleagues to continue to build capacity within 
Burma's election commission, train political parties and civil society 
organizations, counter hate speech and dis- and misinformation, 
strengthen election security, and educate the electorate on democratic 
principles. These efforts include ongoing engagement and coordination 
with Facebook to limit the harm from disinformation and hate speech on 
the platform. If confirmed, I will continue this important work.

    Question. On September 24, 2018, the State Department published to 
its website a report entitled ``Documentation of Atrocities in Northern 
Rakhine State.'' Is it accurate that this published report contains 
only part of the information, analysis, or conclusions compiled in 
relation to that investigation? Do you commit to providing to Congress 
a full, detailed version of that report, the data collected to support 
it, or any version circulated internally prior to publication of that 
report?

    Answer. The Department of State conducted its own documentation 
report on atrocities in Rakhine State, which we have shared with 
relevant U.N. investigation mechanisms and others. While I understand 
privacy and identity and source protection concerns related to some 
data require precautions be taken to safeguard the security and dignity 
of victims, survivors, and witnesses, if confirmed, I will work with 
the relevant bureaus and offices to further provide information to 
Congress on this issue.



                               __________


       Responses to Additional Questions for the Record Submitted
        to Hon. Kenneth R. Weinstein by Senator Robert Menendez

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that prohibited personnel 
practices has no place in the federal government and will not be 
tolerated. I agree that those found to have engaged in retaliation 
should be subject to accountability and discipline consistent with 
applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will promote 
Diversity and Inclusion Best Practices and tips for inclusive hiring 
practices and standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
particularly look forward to working closely with Mission Japan's 
Council on Diversity and Inclusion.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that if confirmed, any such 
appearance would be organized through the Department of State's Bureau 
of Legislative Affairs and conducted in accordance with long-standing 
Department and Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Coming from a family that lost numerous relatives in the 
Holocaust, the promotion of democracy and human rights is a central and 
passionate focus for me. I was a college intern at the Bureau of Human 
Rights and Humanitarian Affairs at the State Department, and my 
doctoral dissertation focused on the philosophical case for freedom of 
conscience.
    Accordingly, I have helped assure that the organization I head, 
Hudson Institute, regularly provides a platform to dissidents from 
around the world, especially those who have personally suffered the 
indignity of human rights abuses. In recent years, these have included 
Uighur leaders; democracy activists from Hong Kong; opposition figures 
from Syria; Nigerian school girls kidnapped by Boko Haram; Iraqi 
Christians and Yazidis persecuted by ISIS; dissidents from countries 
including Venezuela, China, Pakistan, Russia, Iran and Central Asia; 
refugees from North Korea; and families--Japanese, Korean and 
American--of North Korea abductees. Hudson experts, moreover, have 
championed numerous initiatives to promote international religious 
freedom, including the efforts that led to the annual religious freedom 
ministerial at the State Department.
    Hudson Institute also has a strong focus on exposing and fighting 
the pernicious impact of kleptocracy around the globe. I testified in 
2015 before the House Committee on Foreign Affairs Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations in favor of the Global Magnitsky Human Rights 
Accountability Act, which later became law and has been an effective 
tool against numerous human rights abusers.
    We have worked to end a tool often used by kleptocrats to hide 
their ownership stakes in the U.S.: the anonymous shell company. 
Legislation just passed in both houses with the support of the Trump 
administration to end anonymous shell company ownership. (I co-authored 
a June 2019 op-ed with Hudson fellow Nate Sibley on this subject.)

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Japan? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights, and press freedom. Please be as specific as possible.

    Answer. Japan is a liberal parliamentary democracy with established 
rule of law, a vibrant civil society, free and fair elections, and 
constitutionally protected freedom of expression, including for the 
press. Japan also shares our support for human rights and democratic 
institutions. If confirmed, I hope to work together with the Government 
of Japan to make further advancements in promoting democratic 
development and human rights in Japan and throughout the Indo-Pacific 
region. If confirmed, I plan to work closely with the Japanese 
Government and civil society on continued promotion of freedom of 
expression and greater protection against discrimination based on 
gender, race, ethnicity, nationality, religion, disability, and sexual 
orientation.

    Question. What steps will you take--if confirmed--to support 
democracy in Japan? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Japan is a liberal parliamentary democracy with established 
rule of law and a vibrant civil society, and a long history of free and 
fair elections. If confirmed, I will continue to support and advocate 
for Japan's strong democratic system. The members of the Mission and I 
will engage both nationally and locally with government officials, 
civil society leaders, journalists and opinion makers, and activists to 
hear their views, share the American experience on issues of mutual 
concern, and identify areas of cooperation.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Given Japan's high income, the United States Government 
generally does not provide assistance or financial resources to Japan. 
However, if confirmed, I hope to continue cooperating with Japan on 
various programs supporting democracy and governance in third 
countries, especially as part of our shared vision of promoting a Free 
and Open Indo-Pacific.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights, and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Japan? What steps will you take to proactively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, I am committed to meeting with civil society members, 
human rights, and other non-governmental organizations in the United 
States and in Japan. Japan's legal framework provides strong 
protections for various forms of expression and, if confirmed, I will 
actively advocate for continued freedom of expression for NGOs and 
civil society.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities, and youth within 
political parties?

    Answer. If confirmed, I will meet democratically oriented political 
opposition figures and parties. Japan is a liberal parliamentary 
democracy and recent elections have been considered free and fair. No 
laws limit the political participation of women and minorities. At the 
same time, the percentage of women in elected office remains low. The 
number of ethnic minorities who have served in the National Diet is 
difficult to ascertain, but widely assumed to be small. There are only 
two openly LGBTI members of the Diet. If confirmed, I will advocate for 
greater access and inclusivity for women, members of ethnic minority 
groups, and youth in political parties.

    Question. Will you and your embassy team actively engage with Japan 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory, or other 
measures? Will you commit to meeting regularly with independent, local 
press in Japan?

    Answer. Japan's constitution provides for freedom of expression, 
including for the press, and the Government of Japan generally respects 
this freedom. Independent media are active and express a wide variety 
of views without restriction. If confirmed, I commit to actively engage 
with Japanese Government and non-governmental stakeholders on freedom 
of expression, including for members of the press, should there be any 
changes to that situation. If confirmed, I also commit to meeting 
regularly with independent, local press throughout Japan, and to 
working with the Japanese Government to promote freedom of expression 
throughout the Indo-Pacific region in pursuit of our shared vision for 
a free and open Indo-Pacific.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Japan?

    Answer. Yes. One local effort in Japan is the Bureau of Education 
and Cultural Affairs' countrywide speaker program on cybersecurity and 
countering disinformation. Through public talks throughout Japan, this 
program promotes vigilance among the Japanese public and strengthens 
the security partnership between our two countries. If confirmed, I 
commit to continue our robust efforts to counter disinformation and 
propaganda, in partnership with civil society and government 
counterparts.

    Question. Will you and your embassy teams actively engage with 
Japan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Japan is one of the most important trade and investment 
partners for the United States, and the U.S. Government is actively 
engaged with Japan across the spectrum of economic issues, including 
labor rights. If confirmed, I commit to continue this engagement. 
Overall, Japan has laws providing for the right of labor unions and 
collective bargaining and has been enforcing them effectively.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Japan, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Japan? What specifically will you commit to do to help LGBTQ people in 
Japan?

    Answer. I strongly believe in defending the human rights and 
dignity of all people in Japan, including LGBTI persons. Japan is a 
thriving, modern democracy but it, like many other democratic 
governments, has challenges dealing with LGBTI issues. As outlined in 
the latest Human Rights Report, Japan has no national law prohibiting 
discrimination based on sexual orientation or gender identities, with 
only a small number of local governments having enacted ordinances 
banning such discrimination. If confirmed, I commit to working closely 
with the Japanese Government and civil society to promote greater 
protection against discrimination based on race, ethnicity, 
nationality, religion, disability, or sexual orientation.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Kenneth R. Weinstein by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Coming from a family that lost numerous relatives in the 
Holocaust, the promotion of democracy and human rights is a central and 
passionate focus for me. I was a college intern at the Bureau of Human 
Rights and Humanitarian Affairs at the State Department, and my 
doctoral dissertation focused on the philosophical case for freedom of 
conscience.
    Accordingly, I have helped assure that the organization I head, 
Hudson Institute, regularly provides a platform to dissidents from 
around the world, especially those who have personally suffered the 
indignity of human rights abuses. In recent years, these have included 
Uighur leaders; democracy activists from Hong Kong; opposition figures 
from Syria; Nigerian school girls kidnapped by Boko Haram; Iraqi 
Christians and Yazidis persecuted by ISIS; dissidents from countries 
including Venezuela, China, Pakistan, Russia, Iran and Central Asia; 
refugees from North Korea; and families--Japanese, Korean and 
American--of North Korea abductees. Hudson experts, moreover, have 
championed numerous initiatives to promote international religious 
freedom, including the efforts that led to the annual religious freedom 
ministerial at the State Department.
    Hudson Institute also has a strong focus on exposing and fighting 
the pernicious impact of kleptocracy around the globe. I testified in 
2015 before the House Committee on Foreign Affairs Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations in favor of the Global Magnitsky Human Rights 
Accountability Act, which later became law and has been an effective 
tool against numerous human rights abusers.
    We have worked to end a tool often used by kleptocrats to hide 
their ownership stakes in the U.S.: the anonymous shell company. 
Legislation just passed in both houses with the support of the Trump 
administration to end anonymous shell company ownership. (I co-authored 
a June 2019 op-ed with Hudson fellow Nate Sibley on this subject.)

    Question. What are the most pressing human rights issues in Japan? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Japan? What do you hope to 
accomplish through these actions?

    Answer. Japan is a liberal parliamentary democracy with established 
rule of law and a vibrant civil society. Japan also shares our support 
for human rights and democratic institutions. If confirmed, I hope to 
work together with the Government of Japan to make further advancements 
in promoting human rights in Japan, including greater protection 
against discrimination based on race, ethnicity, nationality, religion, 
disability, and sexual orientation.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Japan in advancing 
human rights, civil society, and democracy in general?

    Answer. If confirmed, I will work with all pertinent stakeholders 
in the Government of Japan and civil society to promote greater 
protection against discrimination based on race, ethnicity, 
nationality, religion, disability, and sexual orientation.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Japan??If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other non-governmental organizations in the U.S. and in Japan. I am 
committed to supporting the Department's obligations under the Leahy 
Law and to ensuring the Embassy carries out robust vetting prior to 
providing any assistance.

    Question. Will you and your embassy team actively engage with Japan 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Japan?

    Answer. According to the State Department's 2019 Country Report on 
Human Rights Practices for Japan, there were no reports of political 
prisoners or detainees. If confirmed, I will remain vigilant on this 
issue.

    Question. Will you engage with Japan on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes. Governance is one of the three pillars captured by the 
administration's vision for a Free and Open Indo-Pacific, and under 
this framework the United States and Japan have continued longstanding 
engagement on good governance that respects human rights and empowers 
citizens. If confirmed, I will continue our robust engagement with 
Japan on a variety of shared priorities, including human rights, civil 
society, and governance.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and a representative workforce. I will encourage promoting Diversity 
and Inclusion in the hiring process through standardized interview 
procedures. I will promote the expansion of workplace flexibilities, 
including telework and alternative work schedules, and Leave Without 
Pay (LWOP) options, similar to ``boomerang talent'' programs in the 
private sector. I will learn from and listen to employees using 
mechanisms like the Open Conversations platform and the Department's 
new Centralized Exit Survey.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Japan are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for recruiting and retaining diverse talent. 
I will promote Diversity and Inclusion best practices and tips for 
inclusive hiring practices and standardized interview guidance. I will 
support the review of existing mentoring programs and how they can be 
strengthened. I particularly look forward to working closely with 
Mission Japan's Council on Diversity and Inclusion.

Conflicts of Interest

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raising any 
concerns that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes, if confirmed, I commit to complying with all relevant 
laws, regulations, and rules, and to raising concerns that I may have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Japan?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence in Japan, but 
which are exempt from the conflict of interest laws. I also currently 
hold a financial interest in a company which has a presence in Japan. I 
am committed to following all applicable ethics laws and regulations 
and remaining vigilant with regard to my ethics obligations.

Corruption

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Japan 
specifically?

    Answer. I strongly believe political corruption has a significant 
negative impact on democratic governance and the rule of law. 
Specifically in Japan, Japanese law provides adequate criminal 
penalties for corruption by officials. The Japanese Government 
generally implements the law effectively, and, if confirmed, I commit 
to continue working with the Government of Japan to maintain democratic 
governance and the rule of law in Japan and cooperating on 
anticorruption efforts throughout the Indo-Pacific.

    Question. What is your assessment of corruption trends in Japan and 
efforts to address and reduce it by that government?

    Answer. Japanese law provides criminal penalties for corruption by 
officials and the Japanese Government generally implements the law 
effectively. If confirmed, I commit to working closely with the 
Government of Japan on its continued efforts to eliminate corruption.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Japan?

    Answer. Governance is one of the three pillars of the 
administration's vision for a Free and Open Indo-Pacific, and under 
this framework the United States and Japan have longstanding engagement 
on good governance that respects human rights and empowers citizens. 
Effective anticorruption efforts are a critical part of good 
governance. If confirmed, I will continue our robust engagement with 
Japan on a variety of shared priorities, including human rights, 
governance, and law enforcement cooperation to combat corruption both 
in Japan and other countries.



                               __________

   Correspondence Received by the Committee in Support of Kenneth R. 
         Weinstein's Nomination to be U.S. Ambassador to Japan
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




                              NOMINATIONS

                              ----------                              


                        THURSDAY, AUGUST 6, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., by 
videoconference, Hon. Todd Young presiding.
    Present: Senators Young [presiding], Gardner, Menendez, and 
Kaine.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, this hearing of the Senate Committee 
on Foreign Relations will come to order. I want to thank each 
of our nominees today for their willingness to serve in these 
important roles and to my colleagues on this committee for 
joining this hearing.
    One of this committee's most important tasks, I have 
discovered, is to review and evaluate the president's nominees 
to serve in critical posts around the globe, like those you aim 
to serve in.
    These nominees serve as the world's window into America and 
to our universal values. The willingness of talented qualified 
individuals to serve has never been more valuable than it is 
today, as American leadership is crucial in bringing the world 
out of the shadow of COVID-19.
    In advocating for American values, defending human rights, 
transparency, and economic freedom and in seeking to ensure a 
more secure, stable, and prosperous world where democracy and 
freedoms are able to flourish, we are all working towards that 
end.
    And with that in mind, I wish to, again, thank our nominees 
for appearing and your willingness to continuing our nation.
    Today, this committee will consider the nominations of six 
individuals to represent the United States of America. The 
nominees before us are Mr. William, or Doug, Douglass to serve 
as the U.S. ambassador to the Commonwealth of the Bahamas; Ms. 
Melanie Higgins to be the U.S. ambassador to the Republic of 
Burundi; Ms. Jeanne Maloney to be U.S. ambassador to the 
Kingdom of Eswatini--apologies; Mr. Michael McCarthy to serve 
as the U.S. ambassador to the Republic of Liberia; The 
Honorable Manisha Singh to be U.S. Representative to the 
Organization for Economic Cooperation and Development with the 
rank of ambassador; and Mr. James Story to serve as U.S. 
ambassador to the Republic of Venezuela.
    Thank you all again for your willingness to serve this 
country. Before I turn to my friend and fellow senator, Bob 
Menendez, I wish to underscore for our nominees the need for a 
passionate defense of American values in your future positions.
    If confirmed, each of you will be presented with immense 
challenges. I know all of you are committee patriots and I hope 
that you will direct that spirit towards the preservation of 
peace, the expansion of opportunity, and a fervent enthusiasm 
for your posts and for the values that you represent.
    I look forward to hearing how you will seek to do that very 
soon. I now wish to recognize my distinguished colleague and 
friend, Senator Menendez, for his opening comments.
    Mr. Menendez?

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    A moment before I address the nominees themselves, I am 
compelled to note for the record that this, unfortunately, is 
another in a series of hearings that Chairman Risch has noticed 
unilaterally.
    It is also a violation of committee practice on Rule 3(d), 
which requires seven days notice and without a Democratic 
ranking member.
    So while highly unfortunate, we have to acknowledge that 
the chairman has established a new set of precedents that will 
govern the running of the committee regardless of who is in the 
majority.
    Senator Young. If the gentleman will yield.
    Senator Menendez. Surely.
    Senator Young. I will respectfully note for the record also 
it is my understanding there was significant consultation 
between staffs before this hearing was noticed.
    Senator Menendez. I appreciate that, Mr. Chairman.
    Consultation, as someone who has been on this committee 
since I came to Congress 15 years ago--consultation is not the 
modus operandi of the committee.
    It is consultation that, ultimately, arrives in an 
agreement between the chairman and the ranking member, whoever 
they may be. And so I appreciate that constant reference that 
has now been made to consultation. If there was a different 
majority, I am sure that consultation would take place the same 
way.
    I am pleased, however, to see that we are considering today 
the nomination for our next U.S. ambassador to Venezuela.
    As we heard at Tuesday's hearing on Venezuela, the 
situation in Venezuela requires our urgent attention. Despite 
the international community's unwavering support for interim 
President Juan Guaid cents, the Maduro regime seeks to hold yet 
another fraudulent election.
    A massive humanitarian crisis has displaced 5.2 million 
Venezuelan migrants and refugees. Armed groups, including 
Colombian guerrillas, paramilitaries, drug traffickers, and 
colectivos operate across Venezuelan territory with impunity, 
and the Governments of Cuba, Russia, China, and Iran have gone 
to significant lengths to prop up the Maduro regime and 
undermine American influence.
    Against this incredibly complex landscape, I look forward 
to hearing from today's nominee about what steps the United 
States needs to take to better achieve our shared bipartisan 
policy objectives.
    I am also pleased to see that the administration has 
reelected a new nominee for the Bahamas. Amidst the ongoing 
reconstruction related to the devastation from Hurricane Dorian 
last year, the U.S. must recommit to our bilateral partnership 
with the Bahamas and deepening the ties between our people to 
strengthening our work on maritime and counternarcotics issues 
to building on the economic links between our countries.
    I look forward to hearing how the U.S. can expand our 
cooperations with the Bahamas.
    Mr. Douglass, I understand you know the Bahamas well and we 
look forward to your insights today.
    In many ways, Liberia is a success story. After decades of 
brutal civil war, President George Weah was inaugurated in 
2018, making the country's first transfer of power between 
elected heads of state since 1944.
    However, challenges remain. Liberia's economy has still not 
recovered from years of conflict. The devastating Ebola 
outbreak from 2014 to 2015 killed 5,000 people and plunged the 
country into recession.
    Now Liberia is confronted with the prospect of a COVID-19 
epidemic. If confirmed, Mr. McCarthy, your voice will have 
significant influence due to the unique relationship between 
the United States and Liberia, and I hope to hear today how you 
plan to use that voice to speak out on the issues related to 
transparency, good governance, and respect for political 
freedoms.
    Ms. Higgins, the political situation in Burundi remains 
precarious. There have been allegations that this year's 
elections were marred by targeted attacks against opposition 
supporters, restrictions on freedom of speech and expression, 
hate speech, and widespread irregularities in the voting 
process.
    More than 300,000 refugees remain abroad due to fears of 
violence and ethnic tensions remain high. The impact that 
COVID-19 is having on Burundi is unclear. But Burundi's weak 
health system, coupled with the Government's failure to impose 
a lockdown of any sort is cause for alarm.
    Ms. Maloney, if confirmed--I am sorry, Ms. Higgins, if 
confirmed, you will serve in a country where civil and 
political freedoms are harshly circumscribed, press freedoms 
are severely restricted, where corruption and gender-based 
violence is rampant, and with the highest HIV/AIDS rate in the 
world.
    So I look forward hearing from you as to how--both of you, 
actually--as to how you plan to meet the serious challenges 
ahead.
    Finally, I also look forward to hearing from Ms. Singh 
about what she hopes to accomplish at the OECD, which has 
historically been an important tool for U.S. diplomacy and 
collaboration on global economic policy.
    At a time of growing nationalist sentiment, we must 
nevertheless retain our leadership of international financial 
institutions and not cede them to China or Russia.
    We must work with our allies to create a stronger, more 
inclusive global economy that benefits everyone and we must 
reinvigorate the instruments of economic diplomacy at home 
within Departments of State, Commerce, Treasure, and USTR to 
work in tandem to promote U.S. businesses and economic ideals 
across the globe.
    Thank you, Mr. Chairman.
    Senator Young. Well, thank you, Senator Menendez, and I too 
look forward to hearing from all our nominees. We will do so 
momentarily.
    I will say, as the powerful chairman of the Multilateral 
Institutions Subcommittee--I say that a bit tongue in cheek but 
I am, indeed, chairman of that subcommittee--the OECD is of 
particular interest.
    Congratulations again to all of you on your nominations to 
these important positions. Thank you to you and to your 
families for the sacrifices you have made and will continue to 
make in service to our nation.
    Without objection, your full written statements will be 
included in the record. Given the size of our panel today, I 
ask that you summarize your written statement in no more than 
five minutes.
    We will hear first from Mr. Douglass, the president's 
nominee to serve as the U.S. ambassador to the Bahamas. Mr. 
Douglass has worked as a businessman and an investor for over 
35 years. He has led his own investment firm from 1994 until 
2015.
    He has managed the international business of several 
prominent securities and business organizations. He is an avid 
philanthropist both in the United States and overseas including 
in the Bahamas, and he has won numerous awards for his 
entrepreneurial and philanthropic endeavors.
    Mr. Douglass, thank you for your appearance today. Please 
proceed.

STATEMENT OF WILLIAM A. DOUGLASS, OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE COMMONWEALTH OF THE BAHAMAS

    Mr. Douglass. Mr. Chairman and Senator Menendez, and 
distinguished members of the committee, I am honored to appear 
before you today as the president's nominee to serve as the 
next U.S. ambassador to the Commonwealth of the Bahamas.
    I am grateful to President Trump and Secretary of State 
Pompeo for the confidence they have placed in me. If confirmed, 
I commit to work closely with this committee and its staff and 
other Members of Congress to advance the national interest and 
deepen our already close partnership with the Bahamas.
    I would like to take this opportunity to thank my family, 
my wife, Kristin, and children, Elizabeth and William.
    For over three generations, my family has maintained 
connections to the Bahamas, its business leaders, and 
residents. The Bahamas is a proud independent sovereign nation, 
having gained its independence in 1973.
    It is, therefore, one of the great honors of my life to be 
considered for the position of ambassador for the United States 
of the Bahamas.
    The Bahamas were struck with back-to-back disasters of 
Hurricane Dorian and now the COVID-19 pandemic. Both are taking 
a severe toll on the Bahamian economy as well as affecting U.S. 
interests and pose severe economic and social challenges to the 
country.
    The United States has proven itself a staunch and stalwart 
partner in assisting the Bahamas. If confirmed, I intend to 
continue working with the Bahamas to restore the country's 
economic strength and protect vital U.S. interests: trade, 
investment, tourism, and, importantly, security. It is in our 
interest that the Bahamas remains a strong and stable partner.
    At its nearest point, the country lies just 45 nautical 
miles from the coast of Florida. Our countries have worked 
steadfastly together to intercept narcotics and reduce human 
trafficking.
    If confirmed as ambassador, I will continue to advance 
these efforts. I have been visiting the Bahamas for more than 
50 years. Over the past decade, I have witnessed firsthand 
China's efforts gaining a foothold in the Bahamas.
    This has been a shared concern of both countries. China's 
presence is evident and has included road projects, port 
facilities, hotels, resorts across Nassau, and the use of their 
technology.
    If confirmed as ambassador, I will not only seek to 
increase American investment and promote our countries shared 
values, but also clearly communicate the risks of dealing with 
China, which often comes with strings attached and limited 
employment value for Bahamian citizens.
    The U.S. should be their country of choice for foreign 
investment. I strongly believe that American companies can 
compete when transparent regulations, practices, and the 
respect for the rule of law prevail.
    In closing, I commit to you that I have the integrity, 
experience, and passion to lead our bilateral relationship with 
the people and the Government of the Commonwealth of the 
Bahamas.
    If confirmed, I pledge to uphold the tradition and high 
standards of public service expected of a U.S. ambassador.
    Thank you, and I welcome your questions.
    [The prepared statement of Mr. Douglass follows:]


               Prepared Statement of William A. Douglass

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you today as the President's 
nominee to serve as the next U.S. Ambassador to the Commonwealth of The 
Bahamas. I am grateful to President Trump and Secretary Pompeo for the 
confidence they have placed in me. If confirmed, I commit to work 
closely with this committee and its staff, and other Members of 
Congress, to advance the U.S. national interest and deepen our already 
close partnership with The Bahamas.
    I would like to take this opportunity to thank my family--my wife 
Kristin and children Elizabeth and William--for all their support over 
the years, which has made this opportunity possible. For over three 
generations, my familyhas maintained connections to The Bahamas, its 
business leaders and residents. The Bahamas is a proud, independent, 
sovereign Nation having gained its independence some forty-seven years 
ago. It is, therefore, one of the great honors of my life to be 
considered for the position of Ambassador of the United States to The 
Bahamas.
    In recent months, The Bahamas was struck with the back-to-back 
disasters of September 2019's Hurricane Dorian, the strongest in the 
country's history, and the COVID-19 pandemic. Although it is true that 
Hurricane Dorian and COVID-19 have both taken a severe toll on the 
Bahamian economy, I'm glad to report that the country is now reopening. 
Both posed severe economic and social challenges to the country, and in 
both cases the United States has proven itself a staunch and stalwart 
partner in assisting The Bahamas to recover. If confirmed, I intend to 
continue working with The Bahamas to restore the country's economic 
strength in order to maintain our strong bilateral ties and protect 
vital U.S. economic equities including trade, investment, and tourism. 
This will be critical to ensuring The Bahamas remains a strong and 
stable partner in protecting our homeland from illegal drugs and 
irregular migration and a partner in promoting our shared goals and 
values internationally.
    Since gaining its independence in 1973, The Bahamas has been a 
steadfast partner with the United States. Our shared interests and 
values, strong people-to-people ties, trade, and integrated security 
cooperation are second to none. At its nearest point, the country lies 
just 45 nautical miles from the coast of Florida. In recent years, our 
countries have worked together to significantly increase narcotic 
interdictions and increase the interoperability of our security forces. 
If confirmed as Ambassador, I commit to continue and advance these 
efforts.
    The Bahamas has also been a strong partner with the United States 
within the Caribbean Community on our efforts to restore democracy and 
human rights in Venezuela. It was the first Caribbean country to join 
the United States in recognizing president Guaido. In March 2019, the 
Prime Minister of The Bahamas joined President Trump at Mar a Lago 
where he reinforced his country's commitment to democracy in the 
hemisphere. Since then, the country has led on regional issues at the 
Organization of American States and in the United Nations. If not for 
the pandemic, The Bahamas would have hosted the OAS's general assembly 
in June. The Bahamas is also a strong advocate for democracy and human 
rights issues with regard to Nicaragua.
    I have been visiting the Bahamas for more than 50 years. Over the 
past decade I have witnessed first-hand China's increased interest in 
gaining a foothold in The Bahamas. This has been a concern of many 
Bahamians and should give us concern. China's presence is evident and 
has included multiple road projects, a port facility in North Abaco, 
mega-resorts and hotels across New Providence, and large-scale 
development grants for economic and technical cooperation. I recently 
saw the Chinese build a port facility near Cooperstown, Abaco three 
years ago, which cost the Bahamians more than 40 million dollars and is 
still not operational. In addition, many Bahamian telecommunications 
industry platforms utilize Huawei hardware. If confirmed as Ambassador, 
I will not only seek to increase American investment and promote our 
countries' shared values, but also clearly communicate the risks of 
opaque Chinese deals that so often come with strings attached and 
limited employment value for Bahamian citizens.
    For over thirty-five years, I have been blessed to be successful in 
business. I believe my business and management experience is integral 
in running a successful U.S. mission in The Bahamas and has well 
prepared me for the duties of Ambassador there. If confirmed, I would 
look forward to leading the efforts of 11 sections and agencies at our 
mission in The Bahamas to coordinate a whole of government effort to 
advance U.S. national interests. I would also ensure our Embassy 
platform runs efficiently to support our dedicated public servants and 
their families serving there.
    If I am confirmed, I will also promote greater economic ties 
between the United States and The Bahamas. The Bahamas remains an 
attractive destination for U.S. businesses, U.S. homeowners, and I will 
work with the Government to provide stable and transparent regulations 
for increased trade and investment.
    I will utilize a whole-of-government approach to link U.S. 
businesses to the many investment and U.S. export opportunities in the 
Bahamas. I strongly believe that American companies can compete when 
transparent regulations, practices, and respect for the rule of law 
prevail. If I am confirmed, I will ensure that the United States 
remains the commercial partner of choice in The Bahamas.
    One of the strongest bonds between the United States and The 
Bahamas continues to be our people-to-people ties. If confirmed, I will 
also seek to expand our educational exchanges. I will work to broaden 
our engagement under the administration's U.S.-Caribbean 2020 strategy 
and to identify ways to enhance the region's resilience to natural 
disasters. Finally, as a matter of the highest priority, I would like 
to emphasize that I will have no higher priority as Ambassador than to 
protect U.S. citizens in The Bahamas, including U.S. Mission personnel.
    In closing, I commit to you that I have the integrity, experience, 
and passion to lead our bilateral relationship with the people and the 
Government of the Commonwealth of The Bahamas. If confirmed, I pledge 
to uphold the tradition and high standards of public service expected 
of a U.S. Ambassador. Thank you, and I welcome your questions.


    Senator Young. Well, thank you, Mr. Douglass.
    Next, we will hear from Ms. Melanie Higgins. Ms. Higgins is 
a career member of the Senior Foreign Service, class of 
counselor. She served in the Office of Central African Affairs 
at the State Department as director since 2018.
    Previously, she served as principal officer of the U.S. 
Consulate in Auckland, New Zealand, and as deputy chief of 
mission at the U.S. embassy in Papua, New Guinea.
    Additionally, in a career of over 20 years, she has served 
in Cameroon, Australia, Bosnia, and Indonesia, and filled many 
positions at the State Department here in Washington.
    Ms. Higgins, thank you for your service and please proceed.

   STATEMENT OF MELANIE HARRIS HIGGINS, OF GEORGIA, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF BURUNDI

    Ms. Higgins. Chairman Young, Ranking Member Menendez, and 
members of the committee, thank you for the opportunity to 
testify before you today. It is a great honor to appear as the 
president's nominee to be the next U.S. ambassador to the 
Republic of Burundi.
    I would like to acknowledge my family members, especially 
my husband, Paul, who is a diplomatic security service special 
agent currently serving as the regional security officer at the 
U.S. embassy in Mogadishu, Somalia.
    He may be half a world away right now in the African 
continent, but I know he is here with me in spirit and I could 
not ask for a more supportive spouse.
    I would also like to mention my parents, Al and Jackie 
Harris, my sister, Heather Yates, brother-in-law Dave Yates, 
and nephews Justin and Ryan.
    Mr. Chairman, I come from a family that believes deeply in 
service to the people of the United States of America. Nearly 
all of my relatives serve or have served in the military, law 
enforcement, or as teachers.
    In early 1998, I chose the Foreign Service and was thrilled 
to get my first posting to the central African country of 
Cameroon, as you mentioned.
    I have since loved every year that I have had the privilege 
of representing our country as well as representing my home 
state of Georgia.
    I am grateful for the confidence President Trump and 
Secretary Pompeo have placed in me for this nomination. If 
confirmed, I look forward to working closely with colleagues 
across the U.S. Government to advance and uphold U.S. strategic 
interests and ideals.
    Mr. Chairman, the United States has important interests in 
the Republic of Burundi. This year on May 20th, they had 
elections in Burundi that were a significant step forward, 
though imperfect, because they represented the first time since 
Burundi's independence that a Burundian president entered 
office peacefully through a constitutional transfer of power.
    I am inspired by the commitment of the Burundian people to 
peaceful elections. As we go forward, it is imperative that our 
bilateral dialogue and engagement respect Burundi's sovereignty 
and culture. But we must be direct in discussing our concerns, 
especially on human rights issues where the conversations can 
be difficult.
    President Ndayishimiye's announcement of plans to fight 
corruption and COVID-19, and the dialogues he has launched with 
a broad range of political and civil society stakeholders are 
all positive signs that there is more work to do to bring the 
Burundian people the democracy they deserve.
    If confirmed, I look forward to working with Burundi's new 
government and all Burundians to advance mutually beneficial 
interests on behalf of the American and Burundian people.
    Our interagency team in Bujumbura, together with our highly 
skilled and dedicated locally employed staff, are hard at work 
to advance America's interests. For example, the U.S. remains 
Burundi's key partner in addressing food insecurity and 
countering health crises.
    If confirmed, I will be honored to lead embassy Bujumbura 
during a time when we will seek to redefine our bilateral 
relationship with Burundi.
    I also promise that no goal will be more important to me 
than protecting the welfare of U.S. citizens living and 
traveling in Burundi. I will work closely with you and the 
members of this committee on behalf of the citizens.
    Thank you for the opportunity to appear before you today. I 
welcome any questions you may have.
    [The prepared statement of Ms. Higgins follows:]


                Prepared Statement of Melanie H. Higgins

    Mr. Chairman, Ranking Member, and members of the committee:
    Thank you for the opportunity to testify before you today. It is a 
great honor to appear as the President's nominee to be the next U.S. 
Ambassador to the Republic of Burundi.
    I would like to acknowledge my family members, especially my 
husband Paul, who is a Diplomatic Security Service Agent currently 
serving as the Regional Security Officer at the U.S. Embassy in 
Mogadishu, Somalia. He may be half a world away right now, but I know 
he is here with me in spirit. I would also like to mention my parents, 
Al & Jackie Harris, and my sister Heather Yates, brother-in-law Dave 
Yates, and nephews Justin and Ryan.
    Mr. Chairman, I come from a family that believes deeply in service 
to the people of the United States of America. Nearly all my relatives 
serve or have served in the military, law enforcement, or as teachers. 
In early 1998, I entered the Foreign Service and was thrilled to get my 
first posting in the central African country of Cameroon. I have since 
loved every year that I have had the privilege to represent our 
country. I am grateful for the confidence President Trump and Secretary 
Pompeo have placed in me for this nomination. If confirmed, I look 
forward to working closely with colleagues across the U.S. Government 
to advance and uphold U.S. strategic interests and ideals.
    Mr. Chairman, the United States has important interests in the 
Republic of Burundi. I have seen first-hand during my career the impact 
the United States can have on people worldwide. In recent years in 
Burundi, we saw the promise of the 2000 Arusha Agreement for more 
peaceful political participation disintegrate during the April 2015 
political and economic crisis. Despite every effort, the East African 
Community's Inter-Burundi Dialogue did not produce the results we had 
hoped for the Burundian people. Nonetheless, this year's May 20th 
elections in Burundi were a significant step forward for that country 
and represented the first time since Burundi's 1962 independence that a 
Burundian president entered office peacefully through a constitutional 
transfer of power following a regularly scheduled election. As we see 
reflected in our own country, the road to freedom for all people is 
often not a linear path, but is rather a journey that requires constant 
vigilance and perseverance. I am inspired by the commitment of the 
Burundian people to peaceful elections, and if confirmed, look forward 
to working with Burundi's new government to advance mutually beneficial 
interests on behalf of the American and Burundian people.
    Burundi sits in sub-Saharan Africa's Great Lakes region, which has 
seen much violence in recent decades. The United States remains 
Burundi's key partner in addressing food insecurity and countering 
health crises. Burundi is one of Africa's most densely populated 
countries, and Burundi's nearly 12 million people are mostly youth 
seeking economic opportunities that are imperative for Burundi's 
stability. A more prosperous Burundi and Central African region are in 
the strategic interests of the United States.
    Burundi's new government has an opportunity to usher in a new, more 
vibrant era for the Burundian people. We look to the new government to 
fulfill the power sharing envisioned in the Arusha Accords and reverse 
the former government's lack of media freedom, political pressure 
exerted over civil society organizations, and quelling of dissenting 
voices. Under the previous government, opposition political parties and 
civil society faced restrictions, intimidation, harassment, arrest, 
disappearance, and even killings. The new government has an opportunity 
to demonstrate it will govern in a more just, open, and inclusive 
manner. President Ndayishimiye's announcement of plans to fight 
corruption and COVID-19, and the dialogues he has launched with a broad 
range of political and civil society stakeholders are all positive 
signs, but there's more work to do to bring the Burundian people the 
democracy they deserve. If confirmed, I will encourage government 
leaders to respect human rights and the rule of law. I will stress the 
importance of a dynamic civil society for national stability and how 
critical it is to strengthening our bilateral commercial ties.
    Until 2015, the United States helped train and support Burundian 
peacekeeping troops deployed to Somalia as part of the African Union's 
operation there. It is in our interest to resume this much needed 
assistance to counter terrorism in Somalia to keep U.S. citizens safe. 
If confirmed, I will work with the Burundian Government to increase 
efforts to combat trafficking in persons as a necessary step to 
overcome Trafficking Victims Prevention Act restrictions.
    Mr. Chairman, Ranking Member, and members of the committee, it is 
imperative that our bilateral dialogue and engagement respect Burundi's 
sovereignty and culture, but we must also be direct in discussing our 
concerns. If confirmed, I look forward to working with all Burundians 
to promote positive economic, political, and social developments in 
Burundi.
    Our U.S. interagency team in Bujumbura, together with our highly 
skilled and dedicated Locally Employed Staff, are hard at work to 
advance America's interests. If confirmed, I would be honored to lead 
Embassy Bujumbura during a time when we will seek to redefine our 
bilateral relationship with Burundi. I also promise no goal will be 
more important to me than protecting the welfare of U.S. citizens 
living and traveling in Burundi, and I will work closely with you and 
the members of this committee on behalf of those citizens.
    Thank you for the opportunity to appear before you today. I welcome 
any questions you may have.


    Senator Young. Thank you, Ms. Higgins.
    Our next nominee is Ms. Jeanne Maloney, who is the nominee 
to the U.S. ambassador to the kingdom of Eswatini. Ms. Maloney 
is a career member of the senior Foreign Service, class of 
minister-counselor.
    She currently serves as the foreign policy advisor for U.S. 
Army Africa. For nearly 30 years, she has held positions 
overseas in Kuwait, Portugal, Brazil, Iraq, and now in Italy.
    She has led international security and counterterrorism 
efforts both here and in Washington and overseas, and has 
extensive experience in the Bureau of African Affairs.
    Ms. Maloney, thank you for appearing today and please 
proceed.

STATEMENT OF JEANNE MARIE MALONEY, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE KINGDOM OF ESWATINI

    Ms. Maloney. Thank you very much.
    Mr. Chairman, Ranking Member, distinguished members of the 
committee, it is a privilege and an honor to appear before you 
today as the president's nominee to serve as the U.S. 
ambassador to the kingdom of Eswatini.
    I appreciate the confidence the president and the secretary 
of State placed in me through this nomination. I would also 
like to thank my family for their love and sacrifice in support 
of my career.
    The United States has enjoyed good bilateral relations with 
Eswatini since its independence in 1968. Though a small 
country, Eswatini has pursued an independent foreign policy.
    It is currently the only country in Africa that maintains 
diplomatic ties with Taiwan. Eswatini has benefitted from 
decades of political stability and limited internal conflict, 
but there are areas that merit attention.
    Fifteen years ago, the country enacted a new constitution 
that enshrined broader political freedoms and expanded the 
roles of the legislative and judicial branches. Progress has 
been made but more is needed.
    If confirmed, I will continue to engage broadly on the need 
for political reform, open discourse, transparency, and 
inclusivity. I will seek to expand dialogue with youth, who 
make up more than half the country's population.
    A second key area concerns health. HIV/AIDS has had a 
devastating impact on Eswatini. The country has the highest HIV 
prevalence in the world and over half of women age 30 to 44 are 
HIV positive.
    Eswatini has made significant progress, however, with 
support from PEPFAR. Tens of thousands of lives in Eswatini 
have been saved thanks to the generosity of the American people 
and strong bipartisan support for health programs.
    If confirmed, I will continue to focus efforts towards 
sustainable epidemic control while promoting self-reliance.
    Finally, Eswatini also faces economic uncertainties. Even 
before COVID-19, the country had a tenuous fiscal position and 
the percentage of its population living in poverty remains 
stubbornly high.
    It will be important to coordinate with organizations like 
the IMF and World Bank as well as with like-minded partners. To 
help Eswatini stimulate broad-based economic growth and 
opportunities for U.S. trade and investment.
    If confirmed as the next U.S. ambassador to the Kingdom of 
Eswatini, I will continue to strengthen our partnership with 
the Government and the people of Eswatini in support of U.S. 
goals and interests.
    I will promote an embassy team that reflects the diversity 
and the values of the United States and will prioritize the 
safety of our staff and U.S. citizens.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions.
    [The prepared statement of Ms. Maloney follows:]


                Prepared Statement of Jeanne M. Maloney

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, it is a privilege and an honor to appear before you today as 
the President's nominee to serve as the U.S. Ambassador to the Kingdom 
of Eswatini. I appreciate the confidence the President and the 
Secretary of State have placed in me through this nomination.
    Mr. Chairman, I would like to recognize my husband, Andrew, a 
retired Foreign Service Officer, and our children, Kate and Daniel, who 
were part of our Foreign Service journey across four continents, for 
their love and sacrifice. I am grateful for the support of my brothers, 
Mike and Dan, and to my late mother and grandmother, who instilled in 
me the love of country and value of hard work.
    In my 27 years in the Foreign Service, it has been a privilege to 
represent the American people and to support and protect American 
citizens and interests. Most recently, I served as foreign policy 
advisor to U.S. Army Africa. I've visited 17 African nations in the 
course of my work; I've witnessed the power of citizens to bring about 
positive change, and I've also seen the corrosive and dangerous 
ramifications of poor governance and human rights abuses and 
violations. Prior to joining the Foreign Service, I spent ten years in 
the private sector, which provided me broader perspectives on 
supporting U.S. businesses abroad. If confirmed, I will promote our 
national interests in Eswatini, and commit to working with you to that 
end.
    The United States has enjoyed good bilateral relations with 
Eswatini--formerly known as Swaziland--since its independence from the 
United Kingdom in 1968. Although Eswatini is a small country, it has 
pursued an independent foreign policy; it is currently the only country 
in Africa that maintains diplomatic ties with Taiwan.
    Eswatini has benefited from decades of political stability and 
limited internal conflict, but there are areas of concern that merit 
attention.
    Eswatini is a monarchy, governed by a unique combination of 
parliamentary and traditional structures. Fifteen years ago the country 
enacted a new constitution that enshrined broader political freedoms 
and expanded the roles of the legislative and judicial branches. 
Progress has been made, but more is needed. If confirmed as Ambassador, 
I will continue to engage broadly on the need for political reform, 
open discourse, transparency, and inclusivity. I will also seek to 
expand our dialogue with the country's youth, who make up more than 
half the population.
    A second key area concerns health. In today's interconnected 
societies, communicable diseases can have global ramifications. HIV/
AIDS has had a devastating impact on Eswatini: The country has the 
highest HIV prevalence in the world; approximately 45,000 children have 
been orphaned, and more than half of women aged 30-44 are HIV positive. 
Over the last decade, however, Eswatini has made significant progress 
with support from the President's Emergency Plan for AIDS Relief 
(PEPFAR). New infection rates have declined by a third, and the country 
has one of the highest treatment rates in sub-Saharan Africa. The 
generosity of the American people, including $490 million of health 
sector assistance, combined with bipartisan support for these programs, 
has saved tens of thousands of lives in Eswatini. This is not a time 
for complacency, however, and if confirmed, I will continue to focus 
our efforts on achieving sustainable epidemic control, while promoting 
self-reliance.
    It is too early to tell what impact the COVID-19 pandemic will have 
on Eswatini, but thanks to PEPFAR's investments in health 
infrastructure, the country is better equipped to conduct testing and 
contact tracing.
    Finally, Eswatini also faces economic uncertainties. Even before 
COVID-19, the country had a tenuous fiscal position, vulnerable to 
external shocks. The percentage of its population living in poverty 
remains stubbornly high. If confirmed, it will be important to 
coordinate with international organizations like the International 
Monetary Fund and World Bank, as well as like-minded partners to help 
Eswatini create an environment that fosters broad-based economic growth 
and opportunities for U.S. trade and investment. I am committed to 
working to improve democracy, governance, and transparency, in order to 
help create an economic climate that benefits the entire population.
    If confirmed as the next U.S. Ambassador to the Kingdom of 
Eswatini, I will do my best to continue to strengthen our partnership 
with the Government and the people of Eswatini in support of U.S. goals 
and interests. I will promote an Embassy team that reflects the 
diversity and values of the United States, and will prioritize the 
safety of our staff and U.S. citizens.
    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, thank you for the opportunity to appear before you today. I 
look forward to your questions.


    Senator Young. Well, thank you, Ms. Maloney.
    Next, we will hear from Mr. Michael McCarthy, nominee to 
serve as U.S. Ambassador to the Republic of Liberia.
    Mr. McCarthy is a career member of the senior Foreign 
Service, class of minister-counselor. He served as U.S. consul 
general at our consulate in Johannesburg, South Africa, since 
2017.
    Since 1990, he has additionally served overseas in 
Thailand, Sri Lanka, Uruguay, Eritrea, India, Germany, and 
South Sudan, there as deputy chief of mission at the U.S. 
embassy.
    He first got a taste for international service as a Peace 
Corps volunteer nearly 40 years ago.
    Mr. McCarthy, please proceed with your--with your 
statement.

STATEMENT OF MICHAEL A. MCCARTHY, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF LIBERIA

    Mr. McCarthy. Mr. Chairman, Ranking Member Menendez, and 
members of the committee, it is a great honor to appear before 
you today as the president's nominee to serve as the next U.S. 
Ambassador to the Republic of Liberia.
    I am deeply grateful for the trust and confidence that the 
president and Secretary Pompeo have placed in me with this 
nomination, and I welcome the opportunity to speak with you 
today, albeit virtually, from Pretoria, South Africa.
    If confirmed, I look forward to working closely with the 
members of this committee and your staff to promote and protect 
U.S. interests in Liberia.
    Mr. Chairman, with your permission, I would like to first 
express my deep appreciation for the love and support of my 
wife, Sandra Aceveto McCarthy, who is herself a Foreign Service 
officer.
    I also want to acknowledge my deceased parents, John and 
Helen McCarthy, who raised seven children while serving in the 
Foreign Service for over 28 years, and my brother, Christopher, 
who served in the Foreign Service for 11 years before his 
untimely death.
    It has been my great privilege in 34 years of public 
service to have worked as a Foreign Service officer, as a civil 
servant, and as a Peace Corps volunteer in Togo, West Africa.
    I have served in South Sudan as deputy chief of mission and 
in other post-conflict countries in transition, and have worked 
on African issues for much of the past two decades, most 
recently as the consul general in Johannesburg, South Africa.
    Mr. Chairman, Senators, I can think of no higher honor than 
to represent the American people as the ambassador of the 
United States to the Republic of Liberia, a country with which 
the United States shares a special bond rooted in our deep 
historical ties.
    In 2017, Liberia achieved a new milestone in its post-
conflict journey when it undertook the first peaceful 
transition of power between two elected presidents in over 70 
years.
    This achievement followed Liberia's success in combating 
the Ebola epidemic. Liberia is currently contributing military 
personnel to the United Nations' peacekeeping mission in Mali, 
making it symbolically an exporter of security and a 
contributor to regional stability.
    These are tremendous achievements for a country still 
coping with the after effects of war and they signal the 
promise inherent in Liberia's democratic future.
    If confirmed, I will lead our embassy's highly cooperative 
team of nine agencies to ensure that Liberia remains on a path 
to self-reliance and that ordinary Liberians see the benefits 
of private sector growth and accountable government.
    I will work to attract private investment and technical 
assistance and I will strive to see that Liberia remains the 
United States' most steadfast partner on the continent of 
Africa.
    Mr. Chairman, I thank you for this opportunity to appear 
before you and the other members of the committee, and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. McCarthy follows:]


               Prepared Statement of Michael A. McCarthy

    Mr. Chairman, Ranking Member, and members of the committee, it is a 
great honor to appear before you today as the President's nominee to 
serve as the next U.S. Ambassador to the Republic of Liberia. I am 
deeply grateful for the trust and confidence that the President and 
Secretary Pompeo have placed in me with this nomination, and I welcome 
the opportunity to speak with you today, albeit virtually from 
Pretoria, South Africa. If confirmed, I look forward to working closely 
with the members of this committee--in-person or long-distance--and 
your staffs to promote and protect U.S. interests in Liberia.
    Mr. Chairman, with your permission, I would like to first express 
my deep appreciation for the love and support of my family, friends, 
and colleagues who have shaped me into the person before you today. I 
want to especially thank my wife, Sandra Acevedo McCarthy, who is 
herself a Foreign Service Officer, my stepchildren Arman and Farah, and 
my daughters Camille and Claire.
    I want to also acknowledge my deceased parents, John and Helen 
McCarthy, who raised seven children while serving over 28 years in the 
Foreign Service, and my brother Christopher, who served in the Foreign 
Service for 11 years before his untimely death. I would also like to 
thank my surviving siblings for their love and support: Dr. William J. 
McCarthy, Anne Pearcy, and John R. McCarthy, Jr.
    It has been my great privilege in 34 years of public service to 
have worked as a Foreign Service Officer in the Department of State, as 
a Civil Servant in the Executive Office of the President, and as a 
Peace Corps Volunteer in Togo, West Africa. I have served in South 
Sudan as Deputy Chief of Mission and in other post-conflict countries 
in transition, and have worked on African issues for much of the past 
two decades, most recently as the Consul General in Johannesburg, South 
Africa.
    Mr. Chairman, Senators, I can think of no higher honor than to 
represent the American people as Ambassador of the United States to the 
Republic of Liberia, a country with which the United States shares a 
special bond rooted in our deep historical ties, and preserved through 
our commitment to democracy, human rights, economic prosperity, and 
greater security in the West African region. If confirmed, I will 
continue to strengthen all facets of our bilateral relationship and 
ensure that the United States remains a steadfast partner as Liberia 
grapples with the COVID-19 pandemic.
    In 2017, Liberia achieved a new milestone in its post-conflict 
journey when it undertook the first peaceful transition of power 
between two elected presidents in over 70 years. This achievement 
followed Liberia's success, with the assistance of the United States, 
in combatting the Ebola epidemic. These are tremendous achievements for 
a country still coping with the aftereffects of war, and they signal 
the promise inherent in Liberia's democratic future.
    But now another infectious disease, COVID-19, threatens democratic 
and development gains: schools were forced to close, endangering the 
educational gains necessary for Liberia's next generation to succeed; 
an already-strained healthcare system is pushed to the brink, forcing 
difficult decisions between preventative and emergency care; and 
necessary lockdown measures have restricted hardworking Liberians from 
engaging in daily commerce, which could render half of the population 
food-insecure.
    The Government of Liberia acted early to implement necessary 
emergency and mitigation measures. Critical investments by the United 
States and others in infection prevention and control measures to fight 
Ebola helped prepare Liberia to quickly ramp up testing, conduct 
thorough contact tracing, and isolate positive cases. In large part as 
a result of this legacy and these efforts, Liberia continues to have 
one of the lowest COVID-19 case-counts in the region.
    Liberian public health authorities have cooperated closely with the 
U.S. Centers for Disease Control and Prevention, the U.S. Agency for 
International Development, the National Institutes of Health, the 
Defense Threat Reduction Agency, and others for years. These U.S. 
institutions bring a depth of experience, technical assistance and on 
the ground partnerships that cannot be replaced by other countries' 
public relations-driven donations. A protracted crisis poses very real 
risks to Liberia's on-going development, both economically and 
democratically, but with continued support from the United States, 
Liberia's traditional partner, I believe the country will once again 
meet the challenge.
    If confirmed, I will lead our embassy's broad and highly 
cooperative interagency team--which includes the aforementioned 
agencies, as well as the Department of State, Department of Defense, 
the Millennium Challenge Corporation, and the Peace Corps--to ensure 
that Liberia remains on a path to self-reliance, that ordinary 
Liberians see the benefits of private-sector growth and accountable 
government, and that the country remains the United States' most 
steadfast partner on the African continent.
    The United States has invested more than $2 billion in rebuilding 
Liberia since 2003, including over $225 million in peacekeeping 
operations between 2005 and 2017. These investments in the Liberian 
security sector have promoted self-reliance and regional stability. 
Liberia has contributed military personnel to the United Nations 
Multidimensional Integrated Stabilization Mission in Mali (MINUSMA) and 
plans to increase its contingent this year--making it, symbolically, an 
exporter of security and a contributor to regional stability. Since the 
March 2018 departure of the U.N. Mission in Liberia (UNMIL), Liberian 
law enforcement, with U.S. support, has successfully maintained 
internal security while also showing a consistent willingness to assist 
the United States in fighting terrorism, countering drug trafficking, 
and investigating war crimes.
    These security gains are a necessary prerequisite to the country's 
success, but they are not sufficient, and challenges remain. A lack of 
funding and technical capacity, stemming from entrenched poverty and 
the legacy of war, continues to impede critically needed gains in 
health, education, and human rights. The next test will come this 
December, as Liberia organizes the funding and logistics necessary to 
hold constitutionally required senatorial elections delayed by the 
COVID-19 pandemic.
    Longer-term, as the situation in Liberia normalizes, I will 
champion efforts to increase opportunities for U.S. businesses and 
promote inclusive economic development focused on job creation, which 
is crucial to securing Liberia's growth and providing much-needed 
opportunities for the country's growing youth population. I look 
forward to working with the International Development Finance 
Corporation and Prosper Africa in partnership with the private sector 
to encourage high-quality U.S. investment, a robust alternative to 
state-directed financing that often leaves countries saddled with debt. 
The Government of Liberia is focused on job creation and infrastructure 
development. If confirmed, I will promote these outcomes through, among 
other initiatives, USAID's five-year Country Development Strategy 
launched in June 2019. This strategy aims to foster Liberian self-
reliance by spurring robust private-sector led economic expansion 
through job creation, especially for women and children, promoting 
greater accountability in governance, and achieving real gains in the 
health and education of the population.
    At the same time, Liberia cannot and should not backtrack from the 
progress it has made to increase transparency and fight corruption, 
integral to establishing the conditions necessary for foreign 
investment. Liberia's growth and development will depend on increased 
trade and investment, which in turn will require that U.S. and 
international businesses are confident they can compete openly and 
fairly and that any concerns will find remedy in an honest and 
impartial justice system.
    These same concerns will inform my approach to human rights, as the 
justice sector, strained by the pandemic, struggles to deal with 
reported cases of sexual- and gender-based violence, rape, child labor, 
and human trafficking. These abuses must be confronted for their own 
sake, as well as to ensure a broader system of accountability, good 
governance, and rule of law.
    If confirmed, I will also promote these objectives through the 
Millennium Challenge Corporation's five-year $257 million Compact, 
which entered into force in January 2016 and will close in January 
2021. The Compact has brought electricity and water to many Liberians, 
while also promoting transparent business practices. The Liberian 
Government has signaled its interest in a second Compact but 
understands it will need to pass the Scorecard and demonstrate 
continued progress. If confirmed, I will work through these frameworks, 
and others, to support sustainable development and targeted reforms 
especially in the business climate to attract private investment and 
technical assistance and foster openness and transparency. Closer ties 
between the U.S. and Liberian private sectors will expand markets for 
goods and services and contribute to greater American and Liberian 
prosperity. If confirmed, I will strive to expand commercial trade and 
investment between the United States and Liberia.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and look forward to your 
questions.


    Senator Young. Well, thank you, Mr. McCarthy.
    Our next nominee is the Honorable Manisha Singh, who has 
been nominated to represent the United States at the 
Organization for Economic Cooperation and Development, the 
OECD, with the rank of ambassador.
    Ms. Singh has served as Assistant Secretary of State for 
Economic and Business Affairs since her unanimous confirmation 
in November 2017.
    In that position, she has served as Acting Under Secretary 
of State for Economic Growth, Energy, and the Environment from 
September 2018 to June 2019.
    She served in government both as an aide on Capitol Hill 
and formerly as the Deputy Assistant Secretary of State in the 
Bureaus of International Organizations and Economic Energy and 
Business Affairs. In between those roles, she has pursued a 
successful legal career.
    Ms. Singh, thank you for your appearance before this 
committee and please proceed with your testimony.

    STATEMENT OF THE HON. MANISHA SINGH, OF FLORIDA, TO BE 
     REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
ORGANIZATION FOR ECONOMIC COOPERATION AND DEVELOPMENT, WITH THE 
                       RANK OF AMBASSADOR

    Ms. Singh. Thank you.
    Chairman Young, Ranking Member Menendez, and distinguished 
members of the committee, thank you for the opportunity to 
appear before you today.
    I am very appreciative of the time from you and your 
dedicated staffs. I am deeply humbled to be considered to be 
the next permanent representative of the United States of 
America to the Organization for Economic Cooperation and 
Development, or OECD.
    I want to express my gratitude to President Trump and 
Secretary Pompeo for the trust and confidence they have placed 
in me. It has been the honor of my life to serve in my present 
position as the Assistant Secretary of State for Economic and 
Business Affairs.
    I am incredibly blessed to have a loving family and great 
friends. My parents are watching from home in the Sunshine 
State of Florida, where I grew up. My sister, her husband, and 
their two daughters are cheering me on from northern Georgia.
    I am especially pleased to be considered for a role in an 
institution which can serve as a valuable platform to propel 
our global economic recovery.
    If confirmed, I will ensure that we fully engage with the 
like-minded members of the OECD to return growth and employment 
to pre-pandemic levels.
    The predecessor to the OECD was created out of American 
dedication to post-World War II economic recovery as part of 
the Marshall Plan. We will see an important milestone this 
December, the 60th anniversary of the signing of the OECD 
convention.
    It is an ideal moment to review how we work within the OECD 
to create a level playing field for American workers, to solve 
issues preventing our companies from accessing markets, and 
most importantly, how to return to a sustainable working 
economy in light of the pandemic.
    As a leading voice at the OECD, we consistently share our 
best practices with both members and nonmembers. To create new 
jobs here at home, we need to have equal opportunities to 
export to foreign markets.
    If I am confirmed, I commit to advocating for market-based 
principles, which create free, stable societies, and for 
policies which include everyone in the benefits of economic 
growth.
    Our leadership is needed now more than ever to ensure that 
international organizations focus on their original missions.
    Another important event is the upcoming selection of a new 
OECD Secretary General. It begins in less than a month on 
September 1st.
    As the original visionary for this organization, it is 
incumbent upon us to play a strong and central role in the 
selection of new leadership.
    In 1948, this committee issued a report for the 
administration of aid under the Marshall Plan. The report 
stated that ``Provision should be made for representation of 
the United States in such organizations as may be 
established.''
    If confirmed, I will ensure that my representation on 
behalf of our country reflects the historic magnitude of the 
public trust which is being placed in me.
    My initial engagement with the OECD began when I was a 
staff member with this committee more than 15 years ago. It was 
there, under the mentorship of the great statesman, Senator 
Richard Lugar, that I learned how important it is for diplomacy 
to succeed.
    I have remembered the sentiment as I worked for the last 
three years with a very talented team of civil service and 
foreign service officers in the Economic Bureau.
    If confirmed, I will be as fortunate to work with the 
excellent team at the U.S. mission to the OECD, and I look 
forward to collaborating with you and your staffs to promote 
American interests in this organization.
    Thank you again for this opportunity to appear before you 
and I welcome any questions that you may have.
    [The prepared statement of Ms. Singh follows:]

                  Prepared Statement of Manisha Singh

    Mr. Chairman, Ranking Member and distinguished members of the 
committee, thank you for the opportunity to appear before you today. I 
am very appreciative of the time from you and your dedicated staffs.
    I am deeply humbled to be considered to be the next Permanent 
Representative of the United States of America to the Organization for 
Economic Cooperation and Development (OECD).
    I want to express my gratitude to President Trump and Secretary 
Pompeo for the trust and confidence they have placed in me. It has been 
the honor of my life to serve in my present role as the Assistant 
Secretary of State for Economic and Business Affairs.
    I am incredibly blessed to have a loving family and great friends. 
It is due to their support that I have been able to contribute as a 
public servant. My parents are watching from home in the sunshine state 
of Florida, where I grew up. My sister, her husband and their two 
daughters are cheering me on from northern Georgia. It is for American 
families that I am making sure our workers and companies can compete 
and succeed in the global economy.
    I am especially pleased to be considered for a role in an 
institution which can serve as a valuable platform to propel a global 
economic recovery. If confirmed, I will ensure that we fully engage 
with the like-minded members of the OECD to return growth and 
employment to pre-pandemic levels.
    The OECD is an institution created out of American dedication to 
sustainable economic recovery and prosperity in a time of crisis. In a 
1947 address at Harvard University, Secretary of State George Marshall 
outlined a vision for cooperation among European nations to regain 
economic footing after World War II. During that time, Congress was 
considering funding and logistics for the economic aid we were 
providing to Europe. This committee, under then Chairman Arthur 
Vandenburg, issued a comprehensive report titled, ``Administration of 
United States Aid for a European Recovery Program.'' This program would 
become known as the Marshall Plan.
    The predecessor to the OECD, known as the Organization for European 
Economic Cooperation, was established in 1948 to administer the 
Marshall Plan. By 1961, recognizing the interdependence of economies, 
the organization became the present-day OECD with the United States 
joining as a member. Our vision for the mission of the organization as 
well as the growth of the Trans-Atlantic economy both became more 
significant.
    We will see an important milestone this December--the sixtieth 
anniversary of the signing of the OECD convention. It serves as an 
ideal moment to review how we work within the OECD to create a level 
playing field for American workers, to solve issues preventing our 
companies from accessing markets and most importantly, how to return to 
a sustainable, working economy in light of the pandemic.
    There are important tools at the OECD which we use to accomplish 
all of these goals. One is the Anti-Bribery Convention which enables 
our private sector to compete under fair circumstances. Signatories 
commit to stop bribery abroad by their companies and citizens. It 
provides us with an important foundation to combat corruption, money-
laundering and other illicit practices which result in a tainted 
business environment.
    As a leading voice at the OECD, we consistently share our best 
practices and policies with both members and non-members. This is 
another method through which we promote a global marketplace in which 
our companies can succeed. In order to create new jobs here at home, we 
need to have equal opportunities to export to foreign markets.
    The OECD has expanded to include member nations from Asia, Latin 
America and the Middle East. Its membership constitutes about 60% of 
global GDP. Yet it is still compact enough a forum that we can use it 
effectively to address issues impacting our workforce. Outcomes in the 
OECD also affect our economic relationships with non-members. The OECD 
does not strive for universal membership; it is relevant due to its 
global impact.
    Our new global digital economy is borderless and poses increasing 
challenges for regulators. As the nation which produces the greatest 
innovations, we can have discussions in the OECD to ensure that 
regulations are applied on equal footing.
    If I am confirmed, I commit to advocating for market-based 
principles which create free, stable societies and for policies which 
include everyone in the benefits of economic growth. I commit not only 
to U.S. engagement, but to a constructive, cooperative approach to our 
membership.
    Our leadership is needed, now more than ever, to ensure that 
international organizations focus on their original missions and are 
accountable to their members. A return to economic health requires us 
to seize every available platform which can drive us forward.
    Another important event is the upcoming selection of a new OECD 
Secretary General. The process commences formally on September 1. As 
the original visionary for the organization, it is incumbent upon us to 
play a strong and central role in the selection of new leadership.
    Our focus on the effective functioning of the OECD is critical. If 
confirmed, I would work with representatives from other nations to 
establish a member-driven agenda. I would also advocate for budget 
discipline, increased transparency, and external evaluations, as is USG 
policy with respect to all of our international organization 
memberships.
    The 1948 SFRC report I referenced earlier discusses the need to 
develop continuing organizations to disseminate plans for a sustained 
economic recovery. The report further states, ``Provision should 
therefore be made for representation of the United States in such 
organizations as may be established.'' If confirmed, I will ensure that 
my representation on behalf of our country in this organization 
reflects the historic magnitude of the public trust which is being 
placed in me.
    My initial engagement with the OECD began when I was a staff member 
at this committee more than 15 years ago. It was here, under the 
mentorship of the great statesman Senator Richard Lugar, that I learned 
how important it is for diplomacy to succeed.
    I have used that sentiment for the last three years to work with a 
very talented team of civil service and foreign service officers in the 
Economic Bureau at the Department as well as thousands of officers 
serving in posts overseas. I feel incredibly lucky to work with them, 
and if confirmed, I will be as fortunate to work with the dedicated 
team based at the U.S. Mission to the OECD. And I look forward to 
continuing to collaborate with you and your staffs to promote American 
interests in this organization.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions you may have.


    Senator Young. And I thank you.
    Our last nominee this morning is Mr. James Story, who has 
been nominated to serve as the U.S. ambassador to Venezuela. 
Mr. Story is a career member of the senior Foreign Service, 
class of counselor.
    He currently serves as the charge d'affaires for Venezuelan 
affairs at the U.S. embassy in Bogota, Colombia. He previously 
served as the U.S. consul general in Rio de Janeiro, Brazil. He 
has, additionally, served overseas in Mexico and Mozambique.
    In Washington, he has spearheaded counternarcotics, 
conservation, in security assistance efforts at the State 
Department.
    Mr. Story, please proceed.

 STATEMENT OF JAMES BROWARD STORY, OF SOUTH CAROLINA, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
   STATES OF AMERICA TO THE BOLIVARIAN REPUBLIC OF VENEZUELA

    Mr. Story. Well, thank you--thank you very much, Mr. 
Chairman, Ranking Member, distinguished members of the 
committee.
    I am greatly honored to appear before you today as the 
president's nominee to serve as United States ambassador to the 
Bolivarian Republic of Venezuela.
    I deeply appreciate the trust and confidence shown by the 
president and secretary of state in asking me to take on this 
important responsibility to represent the American people.
    If confirmed, I look forward to working with this committee 
and Congress in advancing our goal of a peaceful restoration of 
freedom, democracy, and stability in Venezuela.
    Achieving this objective is key to maintaining the Western 
Hemisphere as a hemisphere of freedom and vital to providing 
for the security of the United States.
    The opportunity to appear before you today would not have 
been possible without the unconditional support of my wife, 
Susan, who has been my partner in diplomacy since she agreed to 
move our wedding date to accommodate the Department of State 
over 22 years ago.
    She and our son, Mac, have served the American people with 
distinction, and I am eternally grateful to them.
    I come before the committee after serving nearly two years 
as a charge d'affaires for Venezuela. I have been blessed to 
work with incredible teams in Caracas, in Bogota , Washington, 
and throughout the interagency.
    I would like to assure the committee that your dedicated 
public servants working on U.S.-Venezuelan issues are staunchly 
committed to their responsibility of representing the United 
States.
    The United States is one of the first countries to 
recognize the new Venezuelan republic in 1835. Long the 
regional champion for liberation and democracy, Venezuela now 
faces its own fight for freedom from tyranny.
    Our commitment to the Venezuelan people and democratic 
ideals upon which the Venezuelan republic was founded is 
unwavering. A failed economic ideology championed by Chavez led 
to its inevitable political descent to totalitarianism.
    Totalitarianism masquerading as populism, with the active 
interference and participation by the Castro regime in Cuba and 
other malign actors, led to vast corruption and mismanagement 
that destroyed nearly every institution in the country.
    Before U.S. economic sanctions were introduced, Venezuela's 
ability to deliver basic services was already in freefall.
    Today, more than 5 million Venezuelans have fled their 
country to others in the region, the largest forced 
displacement in the history of Latin America.
    In addition, another 7 million Venezuelans face 
malnutrition and are in desperate need of humanitarian 
assistance.
    I want to thank Congress for its recognition to this 
crisis, its support through legislation, the resources, and its 
continued commitment to the Venezuelan people.
    Because of this support, the United States is the single 
largest donor of humanitarian assistance for the Venezuelan 
regional crisis, providing over $856 million in both 
humanitarian and development assistance to support programs 
inside Venezuela and in 16 neighboring countries.
    While nearly all of Venezuela's institutions have been 
destroyed, the National Assembly of Venezuela, despite regime 
intimidation and the illegal and unconstitutional arrest of 
several of its members, continues to work to restore a fully 
democratic and representative government.
    These efforts have been led by the president of the 
National Assembly and interim president of Venezuela, Juan 
Guaid cents, who was recognized by nearly 60 countries as the 
legitimate leader of Venezuela and who embodies the hopes and 
aspirations of all Venezuelans against the illegitimate Maduro 
regime.
    I salute the bravery of interim President Guaid cents and 
the members of the National Assembly, as well as journalists, 
NGOs, medical professionals, students, and others fighting for 
change.
    Earlier this year, the United States proposed a pathway to 
resolving Venezuela's political crisis, the democratic 
transition framework.
    A peaceful, political, democratic, and constitutional 
transition in Venezuela is in the interests of all Venezuelans, 
its neighbors, and the United States.
    If confirmed, I will work tirelessly with my team to ensure 
the transition is successful. I look forward to once again 
raising the American flag above our embassy in Caracas.
    I pledge to continue to work diligently with our Venezuelan 
and international partners to uphold the democratic principles 
we hold dear in the United States and to proudly represent the 
American people.
    Mr. Chairman, Ranking Member, and members of the committee, 
thank you for this opportunity to appear before you. I welcome 
any questions you may have.
    [The prepared statement of Mr. Story follows:]


                  Prepared Statement of James B. Story

    Mr. Chairman, Ranking Member, members of the committee, I am 
greatly honored to appear before you today as the President's nominee 
to serve as the United States Ambassador to the Bolivarian Republic of 
Venezuela. I deeply appreciate the trust and confidence shown by the 
President and Secretary Pompeo in asking me to take on this important 
responsibility to represent the American people. If confirmed, I look 
forward to continuing to work with this committee and Congress in 
advancing our goal of peaceful restoration of freedom, democracy, and 
stability in Venezuela. Achieving this objective is key to maintaining 
the Western Hemisphere as the ``Hemisphere of Freedom'' and vital to 
providing for the security of the United States. A hemisphere of free 
people, living in liberty, peace, and prosperity, engaging in mutually 
beneficial trade, working together to combat common problems such as 
transnational criminal organizations, is good for the Americas and good 
for the United States of America.
    Mr. Chairman, Ranking Member, as you and the members of the 
committee well know, our families are the keys to our successes in our 
professional and personal lives. The opportunity to appear before you 
today would not have been possible without the unconditional support of 
my wife, Susan, who has been my partner in diplomacy since she agreed 
to move our wedding date to accommodate the Department of State over 22 
years ago. She and our son, Mac, have served the American people with 
distinction throughout these last 22 years--17 for Mac--and I am 
eternally grateful to them.
    I come before the committee after serving nearly two years as the 
Charge d'Affaires for Venezuela: first, at the U.S. Embassy in 
Venezuela, and then, following the March 2019 suspension of operations, 
of the newly established Venezuela Affairs Unit in Bogota, Colombia. I 
have been blessed to work with an incredible team in Caracas, Bogota, 
Washington, and throughout the interagency--a team that has worked 
tirelessly to advance American values abroad and to engender justice 
and freedom for Venezuelans who have long suffered under a brutal 
dictatorship. While, as a team, we have faced significant challenges, I 
would like to assure the committee that your public servants in 
diplomacy remain staunchly committed to their responsibility of 
representing the United States.

U.S.-Venezuela Relations
    The United States and Venezuela have a long history. We were one of 
the first countries to recognize the new republic in 1835, were among 
the first to help in developing its oil industry in 1914, and we have 
since developed a deep cultural affinity for shared pastimes, from 
baseball to barbecue. Venezuela is not only the birthplace of Simon 
Bolivar, but it has a long history of being a strong supporter of 
struggling democratic movements throughout Latin America, and a history 
of welcoming migrants and refugees from all over the Western Hemisphere 
and Europe. As a friend to the American people, the Venezuelan 
Government gave us the statue of Simon Bolivar, El Libertador, that 
continues to stand proudly on Virginia Avenue, near the Organization of 
American States headquarters building in Washington, D.C.Long the 
regional champion for liberation and democracy, Venezuela now faces its 
own fight for freedom from tyranny. Our commitment to the Venezuelan 
people and the democratic ideals upon which the Venezuelan Republic was 
founded is unwavering. This commitment is important, now more than 
ever, as the Venezuelan people and these ideals are in crisis.

Maduro's Man-Made Crisis
    A failed economic ideology championed by Chavez during times of 
high oil prices led to its inevitable political descent to 
totalitarianism. Totalitarianism, masque-rading as populism, with the 
active interference and participation by the Castro regime in Cuba and 
other malign actors, led to vast corruption and mismanagement that 
destroyed nearly every institution in the country. Before U.S. economic 
sanctions were introduced, Venezuela's ability to deliver basic 
services such as electricity, water, food, and medical care was already 
in free fall. Today, more than 5 million Venezuelans have fled their 
country to others in the region, the largest forced displacement in the 
history of Latin America. In addition, another 7 million Venezuelans 
face malnutrition and are in desperate need of humanitarian assistance 
inside Venezuela. Today, the Coronavirus poses yet another dire threat 
to a country without the ability to provide even basic medical care. 
However, due to the herculean efforts of our colleagues in the U.S. 
Agency for International Development, Department of State's Bureau for 
Population, Refugees, and Migration, and other bureaus and agencies, we 
have been able to help Venezuelans across the hemisphere and within 
Venezuela deal in some measure with this man-made humanitarian 
disaster.
    I want to thank Congress for its recognition of this crisis, its 
support through legislation and monetary assistance, and its continued 
commitment to the Venezuelan people. Because of this support, the 
United States is the single largest donor of humanitarian assistance 
for the Venezuela regional crisis. Over the last three years, the 
United States has provided more than $856 million in both humanitarian 
and development assistance to support programs inside Venezuela and in 
16 neighboring countries. This assistance works to support our 
democratic partners in the hemisphere who are directly affected by 
Venezuela's forced displacement. Partners such as Colombia, Peru, and 
Ecuador have borne the brunt of caring for these refugees and other 
Venezuelans displaced abroad, but as good neighbors they have done so 
with generosity. Unfortunately, if left unchecked, the Venezuelan 
situation could prove destabilizing to the hemisphere: a dim prospect. 
In order to respond swiftly and effectively to life-threatening 
conditions, humanitarian organizations must be permitted full and 
unhindered access to reach all of the people in need in Venezuela. If 
confirmed, I will work with the international community and 
humanitarian assistance agencies of the United States to expand this 
reach to stabilize Venezuela.
    I mentioned earlier that nearly all of Venezuela's institutions 
have been destroyed, yet throughout this entire struggle, a singular 
governmental structure has remained resolute in its support for 
democratic ideals, the National Assembly of Venezuela. Despite regime 
intimidation, the illegal and unconstitutional arrest of several of its 
members, and the forced exiles and attacks against their family members 
and friends, the National Assembly continues to work to restore a fully 
democratic and representative government. These efforts have been led 
by the President of the National Assembly and Interim President of 
Venezuela, Juan Guaido. Recognized by nearly 60 countries as the 
legitimate leader of Venezuela, Interim President Guaido continues to 
work with the National Assembly, the only remaining democratic 
institution in Venezuela, to represent the hopes and aspirations of all 
Venezuelans against the illegitimate Maduro regime. I salute the 
bravery of Interim President Guaido and the members of the National 
Assembly. Together with all those who are fighting for change--
journalists, NGOs, human rights defenders, teachers, nurses, students--
these democratic actors count on our support and that of the broader 
international community to tell their story.

Framework for Change
    In order to make true and lasting positive change in Venezuela, the 
country and government must be returned to the Venezuelan people--and 
the people must be allowed to participate in free and fair presidential 
elections. Earlier this year, the United States proposed a pathway to 
resolving Venezuela's political crisis that is rooted in a peaceful, 
democratic, negotiated transition. This framework reflects the efforts 
of dozens of countries and regional organizations, such as the 
Organization of American States, Lima Group, and European Union in 
seeking a peaceful political resolution to the Venezuela crisis. It 
builds on the Oslo Process negotiations. Together, we have called, and 
continue to call, on all who are truly interested in the welfare of the 
Venezuelan people to support this framework as a peaceful path toward a 
better future. I believe this framework protects the interests and 
equities of all Venezuelans who desperately seek a resolution to this 
dire crisis. We will continue to work with our partners to increase 
support for this framework and to intensify international pressure 
against the illegitimate Maduro regime to ensure that it, too, sees 
this framework as the best option out of this crisis. Free and fair 
presidential elections, convoked by a transitional government that 
represents all political equities, offer the best pathway towards a 
peaceful transition.
    While Maduro and his allies have denounced sanctions as blocking 
aid from people in need, that is far from reality. Our Venezuela 
sanctions program maintains broad exemptions and authorizations that 
allow for the provision of humanitarian assistance, and we are vigilant 
in working to prevent overcompliance issues and addressing any concerns 
that sanctions are preventing humanitarian goods or services from 
entering Venezuela. The sanctions are doing what they are designed to 
do: block Maduro and his allies from profiting off of their ill-gotten 
gains. Additionally, the U.S. Government has been clear that these 
sanctions policies are intended to change behavior and that we will 
consider lifting sanctions if there are concrete meaningful actions to 
combat corruption in Venezuela, end human rights abuses, and restore 
democratic order. The democratic transition framework explicitly lays 
this out. Yet Maduro has refused to address the original sin of the 
fraudulent May 2018 presidential elections and consider a path towards 
reestablishing democratic governance, instead choosing to tighten his 
perceived grip on power by any means. Until he relents and there can be 
truly free and fair presidential elections, Maduro's regime will 
continue the policies of oppression, human rights abuses, corruption, 
ineptitude, and mismanagement. A peaceful, political, democratic, and 
constitutional transition in Venezuela is in the interests of all 
Venezuelans, its neighbors, and the United States. If confirmed, I will 
work tirelessly with my team to ensure this transition is successful.
    Following the institution of the transitional government and 
administration of free and fair presidential elections, the follow-on 
goal of U.S. policy is clear: to help Venezuelans return democracy and 
the rule of law to their country, and then bring mutual prosperity to 
our two nations. Recovery can only begin when the Government respects 
the rights of all Venezuelans, regardless of political party, economic 
status, or connections. When these conditions are met, Venezuela's 
talented population can retake its future and the millions of 
Venezuelans previously forced to flee their country will be able to 
return to their homeland--a land in need of healing, and open to 
opportunities and growth, refocused on its most important resources, 
its citizens.
    If confirmed, I look forward to once again raising the American 
flag above our embassy in Caracas. In returning our full diplomatic 
presence to the country, it is my intent, in representing the American 
people, to promote democracy and the rule of law, to build respect for 
human rights, to facilitate U.S. support to the Venezuelan people 
through development and humanitarian assistance, and to assist 
Venezuela in its return to economic stability. I pledge to continue to 
work diligently with our Venezuelan and international partners to 
uphold the democratic principles we hold dear in the United States and 
to proudly represent the American people. In supporting a new, truly 
representative government in Venezuela to reopen its economy to the 
world market, U.S. companies will be able to reestablish their presence 
and be partners in building value for both countries. The scars left by 
the Chavez and Maduro periods will not heal quickly, but they can and 
will heal. And in the end, a truly free Venezuela, returned to its 
democratic traditions, as first espoused by Bolivar, can again be a 
stabilizing force in the region and a close friend and partner of the 
United States of America.
    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for this opportunity to appear before you. I welcome any questions 
you may have.


    Senator Young. Well, thank you, and once again, thank you 
all for your careers of service and for your willingness to be 
nominated for these posts.
    We will now open up for questions. I do need to announce 
that we have a vote coming. I am told it is around 11:30, so we 
will not recess this hearing. We will forge on and continue 
with questions.
    When I depart to vote, we will adjourn this hearing. I 
would like to remind my colleagues that we will be doing five-
minute rounds. But please keep in mind we will be using the 
honor system, given our virtual environment.
    I will defer my questions and hand it over to my colleague, 
the senior Democratic member on the Foreign Relations 
Committee, Bob Menendez, to lead us off.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman, and I am so 
pleased to see so many career members of the Foreign Service up 
for these important positions.
    Mr. Story, Section 151 of the VERDAD Act, which I wrote, 
called on the administration to lay out a coordinated 
international strategy to investigate assets stolen from the 
Venezuelan people by the Maduro regime--freeze those assets and 
recover them for the future reconstruction of Venezuela.
    What is your understanding of the value of assets stolen 
from the Venezuelan people by Chavez, Maduro, and their 
cronies? Is it fair to say that it is in the tens of billions 
of dollars?
    Mr. Story. Senator, I believe it could be much more than 
that. Our assessment is hundreds of billions of dollars.
    Senator Menendez. All right.
    And can you speak to the importance of these funds to the 
Venezuelan people, the hope that they be recovered?
    Mr. Story. Certainly, Senator. You are asking a very 
important question. We are working with the international 
community and others to locate these funds and protect these 
funds.
    The reconstruction of Venezuela under a democratic 
government or through a transitional government will need these 
funds in order to rebuild the institutions that have been 
destroyed after two decades of dictatorship.
    Senator Menendez. Let me ask this. What additional steps--
we had a hearing on Tuesday from the Special Envoy or 
Representative and--on Venezuela.
    What additional steps do you think we need to--since you 
have been on the ground and working on this issue both as the 
charge and--in Colombia.
    What additional steps do you think we need to take on in 
countering the Cuban regime's activities inside of Venezuela? 
How do we change the calculations for Putin's maneuvering in 
Venezuela, for Turkey's transactions in Venezuela in blood 
gold?
    Those are some of the countries that are helping to prop 
up--of course, China is as well--helping to prop up Maduro.
    How do you see the dynamics if the secretary of state, the 
administration, we, in the Congress were to say to you help us 
devise a series of steps? What would your suggestion be?
    Mr. Story. Well, Senator, I think that, as Special 
Representative Abrams pointed out on Tuesday and, certainly, 
the actions we have taken, we have increased costs for bad 
actors, malign actors, in Venezuela.
    We have to continue to consider other ways to do that. We 
are very concerned about the transport of gold bars to Iran for 
purchases of which we are unaware. Certainly, free export of 
diesel and oil to Cuba, propping up the Castro regime.
    At the same time that the Venezuelan people need these 
resources, and it is something that is hard to fathom, I 
believe that we have to consider all opportunities to go after 
companies.
    We have done that in the case of Russia and other entities 
such as Rosneft and TNK. I think we have to continue to focus 
in on those opportunities where we have them to continue to 
constrict the access that Maduro and his cronies have to funds 
that should be going to the Venezuelan people.
    I know that we are working very closely with Washington on 
these issues and continue to look at other ways we can have an 
impact.
    Senator Menendez. Okay. I think some of the messages we 
should be sending, particularly, to the Russians and the 
Chinese, is that the investments you made if you want to 
ensure--I am talking about monetary investments--to ensure that 
they are there in the future, you should not continue to 
support a regime that cannot guarantee them at the end of the 
day. A democratic regime could do that but it will look at what 
you have done to date.
    One last question to you, Mr. Story. In the hearing on 
Tuesday the administration admitted that the United States 
should do more to protect Venezuelan women and children. I want 
to come back to this topic because I am so troubled by the fact 
that Venezuelan women and girls are suffering high rates of 
sexual and gender-based violence.
    Are you--as you seek to expand humanitarian access in 
Venezuela, will you increase U.S. support for reproductive 
health care as well as efforts to address gender-based 
violence?
    Mr. Story. Senator, I was heartened to hear in the 
explanation as well from Assistant Administrator Hodges on 
Tuesday that all of our program has a gender component to it. I 
think we have to continue to do that. We have to do more of 
that, and I will commit to focusing on that.
    I have been in the hospitals inside of Venezuela. I have 
been in the hospitals on this border--on the border inside of 
Colombia as well. In C#cuta, for instance, 98 percent of live 
births are from Venezuelan women who have to flee into Colombia 
in order to receive health care.
    I think these are areas in which we have to work across the 
humanitarian space. Certainly, the issues of gender are 
exceedingly important in Venezuela.
    If confirmed, I commit to you that we will maintain that 
focus.
    Senator Menendez. All right.
    Mr. Chairman, I have several more questions but I do not 
know what the time is. So I think I may be close to my five 
minutes.
    Senator Young. Well, I--there will certainly be an 
opportunity for you, Senator Menendez, for a second round, 
perhaps a third round. We are going to--we are going to have 
some opportunities here to go back and forth here.
    So I would like to ask a series of questions for Ms. Singh, 
who is the nominee to serve as our representative at OECD, who 
also happens to have a Dick Lugar bullet point on her resume, 
which, in my estimation, does not hurt one's background, having 
served with--for Senator Lugar for a long period of time.
    I have had several productive conversations with your 
colleague, Ms. Singh, over at E, especially Under Secretary 
Keith Krach, in considering what America's strategy should be 
as we think about competing with China through leaning into our 
strengths.
    Your bureau's efforts on the future of innovation has been 
extremely valuable in this endeavor. I know my staff has 
enjoyed working with the entire team there.
    To get us started, I introduced some legislation with 
Senator Schumer, the Endless Frontier Act, which will leverage 
America's technological expertise to invest in emerging 
technologies of the--of the future.
    A major part of that legislation is working with trusted 
allies and partners to broaden the pool of knowledge and seek 
better outcomes at a faster pace and lower cost.
    If confirmed, how will you seek to strengthen transnational 
science and tech partnerships within the OECD to increase the 
study and fielding of emerging technologies like AI, quantum 
computing, advanced biology, hypersonics, advanced 
manufacturing, material science, and so forth?
    Ms. Singh. Senator, thank you so much for that question, 
and I just wanted to say that I really appreciate the 
recognition of our joint service. I know that you are a mentee 
of Senator Lugar as well, and so I really--in his memory, I 
just wanted to thank you for that recognition.
    And, Senator, when it comes to innovation and the economy 
of the future, this has been one of my priorities here in the 
Economic Bureau.
    You may know, our bureau has held a series of innovation 
roundtables where we invite the technology industry in, whether 
it is artificial intelligence or robotics or quantum computing, 
advancements in 5G.
    We have invited industry in to see how we, as government, 
can assist the private sector in providing the best platforms 
for them to be able to succeed.
    We know that the best innovations in technology have come 
out of this country, and I want to make sure that it is 
American companies, and it is American workers at the 
forefront.
    So these roundtables have been hugely successful. We have 
heard particularly from the private sector on what China has 
been doing that, basically, involves stealing our intellectual 
property, that involves forcing our technology transfer.
    You know, they are advancing their 5G, their technology, 
with secrets that have been stolen from American industry. So 
we have made a strong effort to educate ourselves in the bureau 
and throughout the E line.
    And, Senator, at the OECD, I commit to you that I would do 
that same sort of research and analysis, getting information 
directly from the private sector on exactly what we, as policy 
makers, need to know.
    Senator Young. Well, thank you.
    What do you foresee, based on your experience, in leading 
the business and economic partnership initiatives of the 
department?
    What are the greatest challenges that face our country so 
that we might spur more innovation in coming decades as it 
pertains to our interactions with other countries?
    Ms. Singh. Well, Senator, thank you for that question.
    One of the things that we have strived to achieve is 
necessary, but not overly burdensome regulation. We would like 
to see a light-touch regulation atmosphere that enables our 
companies and our private sector to innovate.
    We are also looking at regulatory burdens that have been 
imposed upon our companies by foreign countries. You may know, 
Senator, that many of the European members states have decided 
to impose a unilateral digital services tax, which unfairly 
targets American companies.
    The OECD has been a forum where we can have a conversation 
with these member states so that we can solve this issue on a 
multilateral basis.
    We are trying to find a consensus-based solution to this 
tax, which really does specifically target American technology 
companies, hampers their innovation, hampers their ability to 
succeed and hire more Americans.
    I would ensure that this sort of conversation proceeds at 
the OECD.
    Senator Young. I think that is a really important priority, 
identifying some opportunities for regulatory harmonization, 
light touch regulation as it pertains to some of these frontier 
technologies.
    Do you have any reflections on how we might, in certain 
circumstances, share data with trusted partners? You know, our 
data is the feed stock for machine learning and artificial 
intelligence, and, arguably, the Chinese, which do not have the 
same privacy inhibitions that our country does and the same 
limitations with respect to collecting data.
    They might outpace the West as it relates to artificial 
intelligence, not because they have better engineers but 
because they have more data to run through their iterations.
    So do you see opportunities there, Ms. Singh, to cooperate 
with our OECD partners in pooling data, assuming it is properly 
circumscribed and protected.
    Ms. Singh. Yes, Senator, absolutely. I think that we can 
encourage the free flow of data Free flow of data is exactly 
what has enabled our companies to innovate.
    As you have correctly observed, we need the advantage of 
being able to share data while also finding that balance of 
privacy. And, of course, we do not want our consumers' 
information to be compromised by any government.
    In particular, we do not want the Chinese Government to be 
able to acquire privacy information, personal information about 
our citizens.
    I think that the OECD is the perfect forum for us to find 
that balance of how we can encourage a free flow of data in a 
productive manner while still finding a way to ensure the 
privacy of our consumers.
    We have had many conversations with our European Union 
trading partners about this issue, and if I am confirmed, I 
commit to you, I will find a way to have that conversation to 
come up with the right balance.
    Senator Young. Thank you, Ms. Singh.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Story, one last question for you. On Tuesday, Special 
Representative Abrams confirmed for us that Colombian 
guerrillas, other criminal actors--ELN, dissident factions of 
the FARC, paramilitaries, drug traffickers, colectivos--are 
operating with impunity across Venezuela.
    Is it--and a lot of that seems to be in an ungoverned 
space. Would it be your assessment that in the event of a 
potential transition a U.N. stabilization mission would be 
required in Venezuela, similar to what we have seen them do in 
the past in Haiti or Liberia, for example?
    Mr. Story. Well, Senator, you have asked a difficult 
important--and an important question. I have worked in 
ungoverned spaces as INL director in Colombia.
    I ran INL programs--International Narcotics and Law 
Enforcement--for the Western Hemisphere. I served in 
Afghanistan. These are tough issues.
    In addition to the state actors we talked about earlier, 
you do have all of these illegal armed groups inside of the 
country. We will--I will commit to you, if confirmed we will 
work directly with the interim government as well as with 
neighboring states, the international community, to come up 
with the best mechanism.
    I do not know if it will be that mechanism or another 
mechanism that a newly democratically-elected government will 
come up with. But, certainly, it is an issue. It is a 
significant problem.
    It affects not only inside of--the Venezuelans inside of 
Venezuela but, obviously, it is a--it is a danger to the 
neighbors and to the ultimate security of the United States of 
America.
    Senator Menendez. Yeah. I see large parts of ungoverned 
space with narco criminal activities and I see it is certainly 
a challenge for Venezuela and its future.
    But I see it as a challenge within the hemisphere itself, 
and so we are looking forward to getting your continuing ideas 
as we move forward.
    Mr. Douglass, you demonstrated generosity towards the 
Bahamian people after Hurricane Dorian devastated a significant 
part of the island.
    You issued a statement calling on the administration to 
issue up to 10,000 work visas for Bahamians displaced by the 
disaster and I want to commend your compassion and willingness 
to speak in favor of common sense solutions.
    I issued a similar statement and introduced legislation 
that would provide TPS to Bahamian nationals. Unfortunately, 
that has not advanced.
    As I know that this type of principle stance has fallen out 
of fashion in the current area, can I have your personal 
commitment that, if confirmed, you will remain true to your 
beliefs and use your position as the U.S. ambassador to 
advocate for compassionate policies towards our Bahamian 
neighbors?
    Mr. Douglass. Absolutely, 100 percent.
    Senator Menendez. What efforts would you take to increase 
our support--our efforts in support of the Bahamians as they 
prepare for a response to future major storms and hurricanes?
    Mr. Douglass. So under the Caribbean Resilience Initiative 
that was started in 2016, we have given significant aid to the 
Bahamas to prepare for natural disasters, and following 
Hurricane Dorian we provided more than $35 million in support 
for the Bahamian people, which included everything from 
transporting people to USAID.
    Senator Menendez. And one final question to you. What steps 
do you think we need to take--we have been a long time engaged 
in the Bahamas, of care of the Bahamas--in strengthening their 
anti-money laundering framework?
    Mr. Douglass. I know that they are taking steps to try to 
become more compliant with U.S. standards and I would seek to 
try to persuade them that that is the right thing for them to 
do and that the U.S. should be their partner of choice.
    Senator Menendez. Mm-hmm. Well, I hope we can work with 
them more robustly to achieve that because at this point they 
are a, from my perspective, an information and transit point in 
that regard. So they have done some things but I think there is 
a lot more to be done.
    Mr. Douglass. Absolutely. You are correct on that point.
    Senator Menendez. Ms. Singh, let me ask you, what do you 
view as the major goals the United States should be pursuing 
through the OECD? What do you think is the administration's 
major policy objectives that should be accomplished through the 
OECD?
    Ms. Singh. Senator Menendez, thank you for that question.
    I think a major goal we should be pursuing is cooperation 
with our like-minded partners at the OECD in creating a level 
playing field for American companies. The OECD is a nimble 
enough forum where we can have conversations with our European 
allies on regulatory standards which may hamper market access 
for our companies.
    We want a free flow of goods and commerce, particularly in 
light of the COVID pandemic. We want to see uninterrupted 
supply chains.
    We do not want artificial barriers erected for our 
companies and for our workers to be able to compete and succeed 
globally.
    I also think, longer term, we should be working within the 
OECD to look at the economy of the future. The digital economy 
is not--I should say, not just the future, but it is here and 
now. We want the OECD to transition into a forum where we can 
have conversations with our allies about the technologies that 
will run the future.
    Senator Menendez. Well, I appreciate that. But as you may 
know, the administration has decided not to seek any funding 
for the OECD in fiscal year '21. So I do not know how one 
ultimately pursues a very valid mission that you just stated 
without any funds.
    Are there reform efforts, to your knowledge, the 
administration is seeking at the OECD and should we be 
reconsidering a zero amount of money in the midst of a global 
pandemic?
    Ms. Singh. Senator, we are seeking reforms at the OECD and, 
in fact, many of our like-minded partners in the OECD would 
like to see similar reforms.
    We would like to see accountability. We would like to see 
transparency. We would like to see an external evaluation of 
the OECD as is customary with all of our international 
organizations, and I think that the OECD will receive the 
support and resources that it needs from the United States 
Government.
    I commit to you that I would work with our like-minded 
partners to make sure that the reforms make the OECD into a 
stronger, better organization for the American taxpayer.
    Senator Menendez. Yeah. I appreciate that. I would just 
simply say that at zero there is not much that cannot be done. 
I mean, we are for transparency. We are all for openness 
anywhere, any institution. But I am trying to determine whether 
there are specific reform efforts.
    One final question, if I may, for you and then I will yield 
back to the chairman. I have other questions for other 
candidates but I will yield back to the chairman.
    As the response to our pandemic crisis continues globally 
for the next several months and maybe even extending a year or 
more, how will you advocate that governments and international 
actors ensure that their responses to the COVID crisis are 
implemented according to international standards and best 
practices on social due diligence, human rights, and 
transparency in the midst of all of this?
    Ms. Singh. Senator, thank you. I think the OECD is an 
organization where the United States does share best practices, 
and we learn from our partners and member states on how they 
are handling the response to the crisis.
    For instance, one of the things that we in the U.S. 
Government have been trying to do is restart international 
travel and tourism as a part--as an essential part of our 
economy.
    At the OECD, I will plan to have conversations with our 
European member states on how we can get transatlantic travel 
and trade not just started again, but booming as it was before 
the pandemic.
    Senator Menendez. All right.
    Mr. Chairman, I want to ask unanimous consent to enter into 
the record a statement from myself with reference to today's 
hearing.
    Senator Young. Without objection, so ordered.
    [The information referred to follows:]


   Supplemental Statement for the Record Submitted by Senator Robert 
                        Menendez, Ranking Member

    I have twice raised the fact that today's hearing was noticed in 
violation of committee practice under Rule 3(d), which requires seven 
days' advance notice for committee meetings. Each time, the Majority 
has responded that Rule 3(d) requires only that the Chairman consult 
with the Ranking Member prior to waiving the 7-day notice rule. The 
Chairman indicated that he did consult with me but, when we were not 
able to reach agreement, he simply went ahead over my objection.
    That is one way to run the committee, but it is not the way other 
SFRC chairmen, Democratic or Republican, have done so. While Rule 3(d) 
does speak only of ``consultation,'' committee practice has been for 
chairmen of both parties to secure the agreement of the Ranking Member 
before waiving the 7-day rule. Moreover, the Chairman seems to have 
taken this step without regard to the requirement under Rule 3(d) that 
there must be ``good cause'' to hold a committee meeting without 7 days 
advance notice. Like the broader unwritten rule of comity that governed 
our actions until the 116th Congress, committee practice under Rule 
3(d) helped ensure that we worked together to advance committee 
prerogatives and U.S foreign policy.
    The Chairman has the power to act unilaterally and to ignore 
committee practice and the views of the Minority. In doing so, however, 
the Chairman has set new precedent that will be used to run the 
committee by future Democratic and Republican chairwomen and chairmen.


    Senator Young. Ms. Singh, I would like to pick up on 
Senator Menendez's line of questioning. I, too, am interested 
in the OECD and its effectiveness, as are you. I noted it lacks 
strong enforcement mechanisms and compliance mechanisms.
    So it is going to continue unless things change to rely on 
the power of persuasion to effect change. I think the OECD and 
every single multilateral organization of which the United 
States of America is a member and to which the United States 
sends taxpayer dollars ought to be scrutinized.
    It ought to be scrutinized for its efficacy. It ought to be 
scrutinized for how it utilizes taxpayer dollars, opportunities 
for improvement, just as we would scrutinize domestic programs.
    So I expect Senator Menendez and others who may be watching 
these hearings will agree that we need to scrutinize these 
multilateral organizations.
    I happen to believe that the Multilateral Review Act is 
deserving of bipartisan support and, unfortunately, we have not 
received such traction.
    But the Multilateral Review Act, once we receive a report, 
we look forward to implementing whatever recommendations might 
be forthcoming so that we can improve the OECD's operations.
    So should that piece of legislation pass, Ms. Singh, do I 
have your commitment to work with me and other members of this 
committee to assess some of the recommendations and implement 
those that might improve the operation of OECD?
    Ms. Singh. Yes, Senator. Absolutely. You have my personal 
commitment. I share your view that multilateral organizations 
should be subject to scrutiny and to accountability.
    Many of them have grown beyond their original mandate, and 
I think in order to make them more effective and a better use 
of time for all of the investment that we put in these 
organizations, we do need to review, and we do need to 
scrutinize them.
    And that is why I mentioned the external evaluations that 
are United States Government policy with respect to the OECD 
and every organization.
    You have my absolute commitment that I will work closely 
with you and the committee to ensure proper reviews of all 
organizations.
    Senator Young. Thank you.
    Furthermore, do I have your commitment, should I remain 
chairman of the Multilateral Institutions Subcommittee, to 
appear at a hearing pertaining to this very topic of reforming 
multilateral institutions pursuant to any reports we receive 
like those embodied and called for by Senator Risch's 
Multilateral Review Act?
    Ms. Singh. Yes, Senator. I commit to you that I will--I 
will do what I can to appear.
    Senator Young. Fair enough. Fair enough.
    Mr. Douglass, The Bahamas risk being exploited by criminal 
enterprises, terrorist organizations, and state actors seeking 
to evade sanctions and financial regulations.
    You know this is a problem because you have studied the 
country. You have made multiple visits to the country. How 
would you seek to work with the State Department and Treasury 
to ensure American interests are served through a more 
transparent financial sector in the Bahamas?
    Mr. Douglass. Thank you for the questions, and following up 
on Senator Menendez's question, I do realize that they need to 
really adopt our much stricter policies in the banking sector 
to account for, you know, money laundering, et cetera, and the 
irregular transfer of moneys that may be in those banks 
accounts there.
    And so I would push for them to adopt our policies with 
greater strength.
    Senator Young. Thank you, sir.
    Pivot to China, a highly over utilized phrase, but one 
appropriate here. China's Belt and Road Initiative is coming to 
America's doorstep in the Caribbean Basin. Although Bahamas 
have not signed a cooperative agreement with China, to my 
knowledge, Chinese-controlled firms have undertaken major 
infrastructure projects, including the valuable container 
facility in Freeport.
    Do you have any concerns about Chinese investments this 
close to home?
    Mr. Douglass. Absolutely. I think it is a significant 
concern for the United States' security. Freeport is the port 
of first entry for the United States of America. Having the 
Chinese funding and half own a port of first entry into the 
United States that is about 60 miles from our border is a 
concern.
    Senator Young. So how do you look at such issues? The fact 
that a port is being built I suppose it is not by definition a 
bad thing, right.
    It is advantageous to the citizens in the Bahamas. It is 
advantageous to the Government. Is it the terms and 
conditionality of individual infrastructure investments that 
are of concern to you or is it--or is it just the fact that 
these investments are being made by China and that becomes a 
piece of a broader narrative that the Chinese are beneficent, 
good actors on the world stage when, in fact, they do not share 
our values and, in fact, their form of government is 
antithetical to the values in which we believe?
    Mr. Douglass. The problem is that the deals that have been 
done, which include the largest hotel complex, the Baha Mar, 
that was more than a $4 billion project, is wholly owned today 
by the Chinese.
    The Hilton Hotel, which is across the street from Paradise 
Island and near our mission in downtown Nassau is wholly owned 
by the Chinese and funded by the Chinese Government.
    They built a port in the northern sections of the Abacos 
and Cooper's Town, which cost the Bahamians $40 million and was 
built with Chinese workers, and it is still inoperable.
    The port in Freeport is operable and is operating, but it 
is something for us to be aware that the Chinese do have 
probably significant interests in it.
    Senator Young. Thank you, Mr. Douglass.
    My time has expired and we have been joined by Senator 
Kaine, who, if he is ready--he just--the nature of these jobs 
is we move from meeting to meeting. So----
    Senator Kaine. Mr. Chairman, can you hear me?
    Senator Young. I can, indeed. I will defer to you, Senator 
Kaine.
    Senator Kaine. Thank you, Senator Young and Senator 
Menendez, and thanks to all the witnesses.
    I have actually been viewing and hearing you for the last 
about 40 minutes. It is just that I was not able to be seen or 
heard by you, which is to your benefit.
    It is all a plus that I can see and hear you and I can 
assure you it is a plus for you that you cannot see and hear 
me.
    So, anyway, and the questions that both Senators Young and 
Menendez have asked have been fairly thorough.
    Mr. Story, it is good to see you again. I think we worked 
together in the spring of 2019 and I just really want to follow 
up on one of the many tough issues dealing with Venezuela and 
that is the challenges that Venezuela posed to Colombia.
    So just to state the reason that I am asking it this way, 
you know, I think Venezuela is almost a text case for the world 
that if you--if you align with authoritarian nations like 
Russia, China, Iran, Cuba, here is what your life is going to 
be like.
    If you--if you allow an authoritarian to run things into 
the ground and just use the revenues of a, frankly, fairly 
wealthy nation to pad the pockets of the cronies that will then 
stick by you and everybody else suffers, then look what you are 
going to get and look who is aligned with Venezuela.
    You are going to get the same thing in Iran, the same thing 
in Russia, the same thing in China, same with Turkey is also 
propping up Venezuela, as is Cuba.
    On the other hand, right next door you have a perfect 
counter example. If you try to go down the path of democracy, 
solving tough internal issues like a longstanding civil war, if 
you try to invest more in parts of the country that had been 
disinvested in for decades, if you align with the democracies 
of the world like the United States in that effort, the path 
for you citizens is also going to dramatically change for the 
better.
    We have made huge investments in Colombia, administrations 
of both parties supported by congresses under the control of 
both parties and we have achieved so very, very much, and I 
almost think that just a spotlight on Colombia and a spotlight 
on Venezuela is about all you need to know in order to decide 
which path you would rather pursue.
    However, that means that the investments that we and other 
democracies have made in Colombia need to be continued and 
there are, certainly, vulnerabilities to Colombia's progress 
posed by the massive migration of folks from Venezuela and 
other challenges, including Venezuela allowing, you know, 
remnants of Colombian rebel groups to seek safe haven there.
    So talk to me a little bit about sort of your role in 
Venezuela but also your understanding of this really important 
relationship between these two neighbors that are important in 
and of themselves but also painting such a clear distinction 
about life under authoritarianism and life under democracies 
for the rest of the world.
    Mr. Story. Well, Senator, thank you very much for that 
question. I will try to be brief. I think this is one that we 
could spend a week talking about and not even scratch the 
surface.
    And my job running the narcotics and law enforcement office 
here from 2010 to '13 was precisely just to help Colombia force 
the FARC into negotiations so they could get past over 50 years 
of civil war.
    The investment by the American people in Colombia and how 
that investment has also allowed us to work with the Colombians 
in Central America and Mexico and other countries of South 
America, extraordinary opportunity, and I salute the Colombian 
people for their--for their ability, their working with us.
    And now they are facing this difficult situation from 
Venezuela, that now home there in Colombia to over 2 million 
immigrants from Venezuela. I call them immigrants. I think it 
is--there is a better term for that.
    They have been forcefully displaced from Venezuela in a 
very difficult environment right when Colombia is attempting to 
get past, you know, over five decades of internal strife. They 
are now met with having to figure out how to clothe and feed 
and provide schooling and hospitals, medical care for large 
numbers of people. And add onto that that without opportunities 
these become rich breeding grounds for illegal armed groups as 
well.
    So I think Colombia has done an extraordinary job, very 
difficult circumstances. I applaud Congress and the U.S. 
Government for all we have done to support Colombia in other 
countries in the region dealing with the situation from 
Venezuela.
    I can tell you the biggest impact we can have and the 
biggest help we could give to Colombia, the region, and to the 
United States is to restore democracy in Venezuela.
    Senator Kaine. Mr. Story, thanks for that answer. I look 
forward to working with you on that matter together with my 
colleagues in both parties.
    Mr. Chairman, I yield back to you because I have not voted 
yet.
    Senator Young. I have also not voted and we will soon be 
adjourning this hearing.
    Okay. I want to give Senator Menendez and opportunity to 
ask another question and I will ask one pointed question to 
wrap things up. But we will each have to head down to vote very 
soon.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    So when you say adjourn, you are going to adjourn the 
hearing? Not recess it but adjourn it?
    Senator Young. I will adjourn and recess. I will do this at 
the same time. Yes. So it is----
    Senator Menendez. So come back here is what I am saying?
    Senator Young. No.
    Senator Menendez. Is the hearing going to continue or no, 
the hearing is not going to continue?
    Senator Young. No, the hearing will not continue. I 
regret--the parliamentary stuff I am still, you know----
    Senator Menendez. No, that is okay. I just want--I just 
want to----
    Senator Young. You wanted clarification. Yes, sir.
    Senator Menendez [continuing]. For our time frame.
    Senator Young. Yeah.
    Senator Menendez. So I am going to, evidently, have some 
questions for the record. I would just say to some of the 
nominees who I have not been able--will not be able to get to 
it is not for lack of affection for what you are--the post that 
you are going to but it is because of time.
    So but I do want to go to Mr. McCarthy for a moment. 
President Weah's election marked the first transfer of power. 
He ran on an anti-corruption inclusive economic growth campaign 
but there is a lot of dissatisfaction with him, increasing 
scrutiny to high-profile scandals.
    What is your assessment of the Government's willingness and 
capacity to address corruption and what would you do, if 
confirmed, to press the Government to adequately address the 
corruption issue?
    Mr. McCarthy. Senator Menendez, thank you for that 
question.
    Yes, it is a very important issue and I would approach that 
from a three-pronged approach.
    Number one, we have embedded U.S. personnel experts, 
administrative experts, in various ministries throughout the 
Government of Liberia who are teaching their counterparts the 
proper administration of public funds.
    At the same time, if confirmed, I would publicly recognize 
governmental and nongovernmental organizations that are focused 
on pushing for anti-corruption. This is the Anti-Corruption 
Commission of Liberia and the auditor general of Liberia, and 
hopefully support those organizations whenever feasible.
    But third, and most importantly, I would highlight to the 
president and to the Government how essential it is to change 
the perception of corruption in Liberia not just for private 
investment but for also--for things like the Millennium 
Challenge Corporation if they are interested in additional 
compacts.
    They are just wrapping up the first MCC compact, $257 
million in Liberia that is doing the kinds of things that the 
president and the people have been asking for: additional 
electricity, additional fresh water, and new roads.
    However, to get a new compact with the MCC they will have 
to pass the MCC's scorecard, which, as I am sure you are aware, 
they have not passed for the past two years.
    So I would highlight the absolute essential importance of 
taking on corruption as a problem and resolving the problem and 
the perception of the problem if they wish to move forward.
    Thank you, sir.
    Senator Menendez. All right.
    And so to you on free press issues there, Ms. Higgins, I 
have questions about the human rights abuses investigation that 
the U.N. Human Rights Council approved and what has been done 
in that regard, in your view, on sanctions, and in this regard 
I would like to hear some substantive responses from you on 
those.
    And Ms. Maloney, I want to talk to you about the ban on 
political parties. Has it been lifted and what impact does the 
ban have on regards to people exercising political rights as 
well as women's rights in Eswatini.
    So I will submit those for the record. If you would give me 
a substantive response I would appreciate it.
    I now yield back to you.
    Senator Young. Thank you, Senator Menendez.
    Ms. Higgins? Ms. Higgins is still with us?
    Ms. Higgins?
    Ms. Higgins. I just--yeah.
    Senator Young. Okay. I just have one line of questioning 
that will be fairly brief and then we will be adjourning this 
hearing.
    I, too, will be submitting some questions for the record. 
Ms. Higgins, following the recent elections in Burundi that 
resulted in a new president, Evariste Ndayishimiye, and the 
death of former President Pierre Nkurunziza, you and the State 
Department have made a case for taking a hard look at rebooting 
the U.S.-Burundi relationship.
    Does not the country's poor showing on the trafficking in 
persons reporting, for instance, preclude any real partnership 
in the near term? How do you envision this working?
    Ms. Higgins. Thanks very much, Chairman Young.
    The new president came in--election [Audio Glitch] last 
election in 2015. He is also the first time there has been a 
peaceful transfer of power in this country since its 
independence.
    These are positive signs, but there is much that remains to 
be done. The new president has had several important steps such 
as talking about his willingness to fight corruption and fight 
COVID. We want to use those opportunities where we can find 
common ground to see how we can work together.
    You are absolutely right, Chairman Young, that the 
trafficking in persons Tier 3 designations under the 
Trafficking Victims Protection Act precludes much of our 
assistance such as training of their military.
    Nonetheless, there is a significant amount of USAID 
assistance that goes towards important programs such as our 
humanitarian assistance for refugees and internally-displaced 
people as well as health, which is very important not just in 
this COVID era but most recently to prepare for Ebola since 
there was a two-year Ebola epidemic just across the border, and 
also, as we look forward on fighting things like malaria since 
Burundi has the highest malaria rates in the entire world.
    I do believe those kinds of assistance can continue and, 
yet, I do look forward, if confirmed, to working with Burundi 
to raise issues of human rights and especially trafficking in 
persons so they can do better on that very important issue.
    Senator Young. Thank you for being responsive to that line 
of inquiry.
    Again, I will have some additional questions that I will 
submit to some of our nominees for what I hope is a fulsome 
response. I want to thank you again for appearing before this 
committee, for your desire to serve our nation in these 
important positions.
    For the information of members, the record will remain open 
until the close of business tomorrow, Friday, August 7th, 
including for members to submit questions for the record.
    Thanks again to each of you. Congrats to you and your 
family.
    This hearing is now adjourned.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record
      Submitted to William A. Douglass by Senator Robert Menendez

    Question. The Constitution of The Bahamas does not allow women to 
transmit citizenship to their children born abroad on an equal basis 
with men. In May, the Bahamas' attorney general appealed the Supreme 
Court's decision allowing children born out of wedlock to Bahamian 
fathers and foreign mothers to acquire citizenship at birth. Gender 
discrimination in Bahamian nationality law is a persistent human rights 
challenge that puts children at risk of statelessness:

   If confirmed, what specific steps would you take to promote gender 
        equality in the Bahamas, and to publicly encourage law reforms 
        to ensure gender-equal nationality rights?


    Answer. Recognizing that every nation has the inherent right to 
determine the qualifications for citizenship, I was disappointed last 
year when the Bahamas' attorney general supported the discriminatory 
scheme allowing Bahamian fathers to transmit citizenship to their 
children born abroad to foreign mothers, but disallowing Bahamian 
mothers from transmitting citizenship to their children born abroad to 
foreign fathers. If confirmed, I will work to promote gender equality 
in The Bahamas by inviting local civil society stakeholders to share 
with the Ambassador and the Mission their ideas for effecting change. I 
will also consider what role my team and I might play, along with the 
U.N. High Commissioner for Refugees, in advocating for gender-equal 
nationality rights. I will draw on our Embassy's cultural and press 
outreach, social media campaigns, and exchange programs to show by 
example how the United States strives to overcome gender inequities.

    Question.  The Bahamas lacks an asylum law and, in the wake of 
Hurricane Dorian, allegations of mistreatment and abuse of migrants--
especially Haitians--have increased. Particular concerns include the 
refoulement of Cubans, lack of due process in expedited removals, and 
poor conditions at the Carmichael Detention Center. If confirmed, what 
specific steps will you take to improve protection of refugees and 
vulnerable migrants in the Bahamas?


    Answer. I will do all I can to encourage the Bahamian Government to 
treat refugees and vulnerable migrants with respect, dignity, and 
compassion. Though there currently is no legislation outlining asylum 
procedures, I understand there is draft legislation--put on hold due to 
Hurricane Dorian and COVID-19--to address some of the gaps in the 
country's immigration laws. Currently, immigration officials follow a 
standard procedure to make a refugee status determination. If an 
individual does not qualify, the authorities forward his or her case to 
the U.N. High Commissioner for Refugees in The Bahamas for its review. 
If confirmed, I would like to explore asylum training opportunities for 
immigration officers. This would assist the Bahamian Government in 
processing asylum seekers.

    Question.  It is increasingly evident that criminal organizations 
across the Caribbean are becoming more reliant on money laundering, 
which in the absence of an adequate anti-money laundering framework, 
facilitates their ability to operate and profit from drug trafficking. 
If confirmed, what specific steps would you take to support the Bahamas 
in strengthening their anti-money laundering framework?


    Answer. I understand that The Bahamas, as an international 
financial center, is vulnerable to money laundering in several sectors. 
The Bahamas has engaged with the Financial Action Task Force (FATF) to 
address deficiencies in its anti-money laundering regime, and has made 
progress in remedying these deficiencies. If confirmed, I will engage 
the Bahamian Government at the highest possible levels to ensure this 
progress continues. I will also offer the full support of the U.S. 
Government to assist in achieving this important goal, including 
engagement with U.S. law enforcement entities to collaborate and 
provide guidance on preventing, investigating, and prosecuting money-
laundering and other illicit transactions.

    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?


    Answer. If confirmed, I commit that the U.S. Embassy will not take 
any such action. I commit to complying with all relevant federal ethics 
laws, regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?


    Answer. Yes. It is absolutely imperative the Mission be run in an 
open, respectful, collegial environment. I would have no tolerance for 
those who engage in retaliatory behavior. I commit to make clear to all 
Embassy employees that retaliation has no place in federal government 
and I would not tolerate it. If confirmed, I would hold accountable 
anyone found to have engaged in such retaliation in accordance with 
U.S. federal labor law and regulation.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?


    Answer. I am fully committed to promoting, mentoring, and 
supporting staff from diverse backgrounds and underrepresented groups. 
If confirmed, I will work to ensure all members of my team have the 
support they need to perform to the best of their abilities. I will 
work with our leadership team to ensure Embassy Nassau remains a safe, 
productive, and inclusive work environment. It has been one of my 
life's great joys to have promoted, mentored, and supported staff of 
all backgrounds without prejudice in my career in the private sector 
and working with nonprofits.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?


    Answer. Yes, with the understanding that any such response would be 
conveyed through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?


    Answer. If confirmed, I commit to complying with all relevant 
federal laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
averse to U.S. interests?

    Answer.  If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer.  If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My interest in democracy and human rights started when I 
was young, having seen the contributions my grandparents and parents 
made to society through their hands-on charitable endeavors: they were 
not only generous, but rolled up their sleeves. Through my own work and 
my own considerable charitable history, I have been a staunch supporter 
of those less fortunate and I have worked to guide them to a better 
station in their lives. I believe my contributions as part of the 
response following Hurricane Dorian are a recent example of my efforts 
to help others.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in The Bahamas? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The Bahamas has enjoyed a strong parliamentary democracy 
since its independence in 1973. Challenges remain with corruption 
within the Government and in the private sector, and with government 
transparency. I believe the last election, which resulted in the 
largest change in government in its history, with the opposition party 
taking 34 out of 39 Senate seats, was a referendum to tackle 
corruption. I believe further work needs to be done to improve the 
treatment of undocumented migrants, particularly of Haitian decent. 
Additionally, there is progress to be made on women's rights. Greater 
acceptance and protection are needed for persons in the LGBTI 
community.

    Question.  What steps will you take--if confirmed--to support 
democracy in The Bahamas? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I would prioritize issues of democracy and 
good governance in our relations with The Bahamas. Working with my 
Embassy team, I would draw on the expertise and resources of the U.S. 
Government to support those efforts where appropriate. I would also 
work with civil society to promote transparency and good governance. I 
would ensure that the U.S. Embassy speaks out for and models democratic 
principles. My team and I would also focus on local issues including 
the separation of powers within The Bahamas' Government, corruption, 
and the role of civil society.

    Question.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I would explore options to help bolster civil 
society and assist the Bahamian Government in addressing the issue of 
irregular migrants already in The Bahamas. The U.S. Embassy is already 
helping the Bahamian Government more aggressively address corruption--
there are anticorruption bills under consideration--but there may be an 
opening to supplement existing U.S. Government programs.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in The Bahamas? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. If confirmed, I commit to meet with civil society members, 
human rights, and other non-governmental organizations in the United 
States and with local human rights NGOS, and other members of civil 
society in The Bahamas. I am not aware of efforts to restrict or 
penalize NGOs and civil society in The Bahamas. If I learn of such 
efforts, I will bring them to the attention of the responsible local 
officials and request that restrictions be removed so these 
organizations can carry out their missions.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, I commit to meeting with democratically oriented 
political figures and parties. The Bahamas enjoys a vibrant multi-party 
system that allows its citizens to choose their leaders and 
representatives. If confirmed, I will ensure the Embassy continues its 
dialogue with all members of the political society to ensure this 
democratic process continues. If confirmed, I will consistently and 
fairly engage actors and parties across the political spectrum. I will 
advocate access and inclusivity for women, minorities, and youth within 
political parties, and will encourage government officials and 
political figures to take the necessary steps to ensure a true 
democratic process.Question 18:Will you and your embassy team actively 
engage with The Bahamas on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in The Bahamas?

    Answer. Yes to both questions. If confirmed, my embassy team and I 
will engage with The Bahamas on freedom of the press and address any 
government efforts to control or undermine press freedom. I commit to 
meeting with independent local press in The Bahamas.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in The 
Bahamas?

    Answer. Yes. Embassy Nassau regularly engages civil society and 
government counterparts at the highest possible levels on countering 
disinformation and propaganda disseminated by foreign state or non-
state actors. I understand that the entire staff, as directed by the 
Public Affairs Section, works tirelessly to counter disinformation and 
propaganda when detected. If confirmed, I will prioritize the 
dissemination of accurate and timely information, and provide whatever 
support my staff requires to ensure we adequately equip ourselves to 
immediately address any disinformation or propaganda disseminated in 
country.

    Question.  Will you and your embassy teams actively engage with The 
Bahamas on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, my embassy team and I will actively 
engage with The Bahamas on the freedom of association, including the 
right of workers to form and join trade unions. U.S. Embassy Nassau 
regularly engages with the Bahamian Government and relevant 
stakeholders on labor rights, including for independent trade unions. 
The Bahamian Government maintains a robust dialogue with domestic labor 
groups, including trade unions, and regularly engages them on critical 
issues related to the rights and protections of Bahamian workers. If 
confirmed, I will encourage the Government to continue this dialogue, 
and support our Embassy staff in their efforts to engage with labor 
groups, as well as identify any issues that might require U.S. 
technical assistance and support.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in The Bahamas, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in The Bahamas? What specifically will you commit to do to help LGBTQ 
people in The Bahamas?

    Answer. Yes. Promoting, protecting, and advancing the human rights 
of everyone--including LGBTQ persons--has long been and should remain 
the policy of the United States. LGBTQ people in The Bahamas face 
stigma and discrimination, and lack the protection of laws forbidding 
discrimination on the basis of their sexual orientation. If confirmed, 
I will support the Department's efforts to protect LGBTQ persons from 
violence, criminalization, discrimination, and stigma.



                               __________


       Responses to Additional Questions for the Record Submitted
          to William A. Douglass by Senator Benjamin L. Cardin

Human Rights
    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. My interest in democracy and human rights started when I 
was young, having seen the contributions my grandparents and parents 
made to society through their hands-on charitable endeavors: they were 
not only generous, but rolled up their sleeves. Through my own work and 
my own considerable charitable history, I have been a staunch supporter 
of those less fortunate and I have worked to guide them to a better 
station in their lives. I believe my contributions as part of the 
response following Hurricane Dorian are a recent example of my efforts 
to help others.

    Question.  What are the most pressing human rights issues in The 
Bahamas? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in The Bahamas? What 
do you hope to accomplish through these actions?

    Answer. The Bahamas is a constitutional, parliamentary democracy 
with a long history of respect for the rule of law and human rights, 
and effective civilian control over the security forces. Nevertheless, 
several human rights issues deserve attention. If confirmed, I will 
engage with the Government on working to ensure due process for 
irregular migrants and rights of the Haitian community, judicial system 
reforms, improving conditions in prisons and detention centers, and 
ending gender-based violence.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in The Bahamas in 
advancing human rights, civil society, and democracy in general?

    Answer. The Bahamas' challenge is to use its limited resources to 
promote respect for the rule of law while respecting human rights in a 
high-crime environment. If confirmed, I will work with my Embassy staff 
to augment existing training programs for Bahamian justice-sector 
officials. I would also champion existing Embassy and U.S. Government 
programs designed to promote human rights in the country.

    Question.  Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in The Bahamas? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and nongovernmental organizations in the United States and The 
Bahamas. Promoting democracy, human rights, and fundamental freedoms 
advances our national security. If confirmed, I would champion existing 
Embassy and U.S. Government programs designed to promote human rights 
in the country, as well as comply with all requirements under the Leahy 
Law.

    Question.  Will you and your embassy team actively engage with The 
Bahamas to address cases of key political prisoners or persons 
otherwise unjustly targeted by The Bahamas?

    Answer. Yes. The latest State Department's Human Rights Report 
states there were no political prisoners or detainees in The Bahamas in 
2019. If confirmed, I will work actively with the Embassy team to 
address any cases that arise of political prisoners or persons unjustly 
targeted by government entities to ensure their rights and fundamental 
freedoms are respected.

    Question.  Will you engage with The Bahamas on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with the Government of the 
Bahamas on matters of human rights, civil rights, and governance.

Diversity
    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and a representative workforce. I will encourage promoting Diversity 
and Inclusion (D&I) in the hiring process through standardized 
interview procedures. I will promote the expansion of workplace 
flexibilities, including telework and alternative work schedules, and 
Leave Without Pay (LWOP) options, similar to ``boomerang talent'' 
programs in the private sector. I will learn from and listen to 
employees using mechanisms like the Open Conversations platform to 
encourage discussions on diversity and inclusion and the Department's 
new Centralized exit survey for employees leaving the Department.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy in The Bahamas are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering an environment of inclusion. I will promote 
habits and practices among the leadership that focus on inclusion as a 
key driver for retaining diverse talent. I will promote Diversity and 
Inclusion Best Practices and tips for inclusive hiring practices and 
standardized interview guidance. I will support the review of existing 
mentoring programs and how they can be bolstered.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in The Bahamas?

    Answer. My investment portfolio includes a broad range of asset 
classes, some of which may hold interests in companies with a presence 
in the Commonwealth of the Bahamas. My investment portfolio also 
includes security interests, including stocks, in companies, some of 
which may have a presence in the Commonwealth of the Bahamas. I also 
own a personal residence in the Commonwealth of the Bahamas. I am 
committed to following all applicable ethics laws and regulations and 
remaining vigilant with regard to my ethics obligations.

Corruption
    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in The Bahamas 
specifically?

    Answer. Corruption saps economic growth, hinders development, 
destabilizes governments, undermines democracy, and provides openings 
for dangerous groups like criminals, traffickers, and terrorists. The 
Department has made anticorruption a national security priority and 
works across the globe to prevent graft, promote accountability, and 
empower reformers. The Bahamas faces continued challenges in addressing 
corruption and lack of transparency, and Prime Minister Hubert Minnis 
has indicated that anticorruption efforts are a priority for his 
administration. If confirmed, I commit to addressing this issue.

    Question.  What is your assessment of corruption trends in The 
Bahamas and efforts to address and reduce it by that government?

    Answer. According to Transparency International's Corruption 
Perception indices, the Bahamas ranks 29 out of 198. Prime Minister 
Hubert Minis of the Free National Movement won elections in a landslide 
in May 2017 on an anticorruption, pro-reform platform. The Prime 
Minister has stated his intent to instill greater transparency and 
accountability in government operations, reduce the debt and grow the 
economy, and improve citizen security. If confirmed, I am committed to 
working with the Bahamian Government to implement needed reforms.

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in The Bahamas?

    Answer. If confirmed, I would work with my country team to support 
these efforts, consulting with civil society where appropriate. I would 
ensure that U.S. Government anticorruption and governance programs in 
The Bahamas are well-managed, and that we properly monitor and evaluate 
programs in order to maximize their impact. I would continue to support 
efforts such as our International Narcotics and Law Enforcement (INL) 
program with the International Development Law Organization to improve 
the prosecution of cases involving corruption, and training and 
mentoring for the Royal Bahamas Police Force to build their capacity to 
investigate complex financial crimes.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Melanie Harris Higgins by Senator Robert Menendez

    Question.  In December 2015, The United Nations Human Rights 
Council approved an Independent Investigation on Burundi to look into 
violations and abuses of human rights in Burundi in the wake of the 
controversial 2015 election that was characterized by violence, and 
widely condemned by the U.S. and others as not credible. The 
investigation found ``abundant evidence of gross human rights 
violations as well as human rights abuses by the Government and people 
whose actions can be attributed to the Government.'' It recommended a 
number of actions on the part of the Government, including 
participation in a genuine dialogue that could lead to a political 
settlement, disarming the youth militia, stopping use of police and 
intelligence for partisan purposes, and strengthening the independence 
of the judiciary:

   To your knowledge, have any of those recommendations been 
        implemented?

    Answer. No, not to my knowledge.

    Question.  Do they remain important?

    Answer. The 2015 Independent Investigation on Burundi was created 
when the United States was an active member of the Council and was 
later replaced in 2016 with the Commission of Inquiry on Burundi. The 
Commission is currently the only independent international mechanism 
investigating human rights violations and abuses in Burundi. Its 
findings were based on more than 1,200 statements of victims, 
witnesses, and alleged perpetrators of human rights violations. 
Although the United States withdrew from the Human Rights Council in 
June 2018, the State Department remains engaged with the Commission of 
Inquiry on Burundi. With a new government recently elected, it will be 
important to see if the Imbonerakure, agents of the National 
Intelligence Service, the police, and local authorities continue to 
commit serious human rights violations and abuses in Burundi and act 
with impunity or if the new government will hold those responsible 
accountable, strengthen institutions, and support an independent free 
press and civil society.

    Question.  What more needs to be done, and how could you, if 
confirmed, lend your voice to seeing to their implementation?

    Answer. If confirmed, I will continue to advocate publicly and 
privately for human rights and democracy as essential for Burundi's 
prosperity and stability with Burundian officials, international 
partners, civil society organizations, and business leaders. Consistent 
with applicable authorities and restrictions, including under the 
Trafficking Victims Protection Act, I will also seek to include efforts 
to promote human rights and democracy in U.S. programming and foreign 
assistance.

    Question.  The United States has had a variety of targeted 
financial sanctions and other aid restrictions in place since the 2015 
political crisis. Eleven individuals have been targeted for sanctions 
under Executive Order. Burundi's eligibility for U.S. trade preferences 
under the African Growth and Opportunity Act (AGOA) has remained 
suspended since 2015. In FY2019 and FY2020, the administration fully 
applied legal restrictions on aid to Burundi under the Trafficking 
Victims Protection Act.

   Are those sanctions still justified?

    Answer. The language in the renewal for Executive Order 13712 is 
the same language from President Obama's declaration of a national 
emergency with respect to the situation in Burundi by Executive Order 
13712 on November 22, 2015 for the violent political repression that 
occurred in 2015 after the attempted coup d'etat, and re-election to a 
third term, of then Burundian President Pierre Nkurunziza. The new 
Burundi Government came into office less than two months ago; I will 
need more time observing and working with that government before I can 
properly evaluate the sanctions and their effects.
    The recent inauguration of President Ndayishimiye was a historic 
moment for Burundi that demonstrated the continued commitment of 
Burundians to a peaceful transfer of power, but there were also 
election irregularities. For example, the State Department's June 5, 
2020, statement on Burundi's elections called on the Government of 
Burundi to ``address reports of electoral fraud and investigate and 
pursue accountability for all allegations of voter intimidation before, 
during, and after the elections. We also urge the release of any 
authorized party representatives and other election observers who were 
unjustly detained or arrested for engaging in election observation 
activities, including possessing voting information after polling 
stations closed, to promote electoral transparency.'' In our June 18, 
2020, statement on the inauguration of President Ndayishimiye, we again 
called on the Burundian Government ``to release members of political 
parties, civil society, and journalists arbitrarily arrested for 
election-related activities; and to investigate and pursue 
accountability for allegations of voter intimidation.'' The new 
government has an opportunity to usher in a new period in Burundian 
history. If confirmed, I will engage with the Burundian Government, 
including on efforts to address trafficking in persons, human rights, 
and other criteria related to African Growth and Opportunity Act (AGOA) 
eligibility, foreign assistance restrictions, and financial sanctions.

    Question.  What actions should the Government take in order to 
obtain sanctions relief?

    Answer. The State Department's 2020 Trafficking in Persons (TIP) 
Report provides prioritized recommendations for how the Burundian 
Government can better meet the Trafficking Victims Protection Act's 
minimum standards. Some of the main priorities for the Burundian 
Government should be to implement the anti-trafficking law, 
significantly increase efforts to more effectively investigate, 
prosecute, and convict traffickers, and to develop a national-level 
data collection on law enforcement and victim identification efforts. 
If confirmed, I will prioritize engagement on TIP related issues with 
the Government to increase efforts to combat trafficking in country and 
abroad in order to meet the ``minimum standards for the elimination of 
trafficking.'' The current Tier 3 ranking, ``not meeting the minimum 
standards'' has restricted nonhumanitarian and nontrade-related foreign 
assistance to the Government.
    Other types of sanction relief are not solely determined by the 
State Department but would include demonstrated improvements in areas 
such as democracy and human rights. The political space to discuss 
human rights and opposition to government policies continued to shrink 
throughout the Nkurunziza presidency. If confirmed, I will advocate and 
press for the continued release of individuals detained for political 
activities during this and past election periods, for fundamental 
freedoms, including the freedom of expression and the press, and the 
release of detained journalists. I will also continue to advocate for 
international nongovernmental organizations seeking reduced government 
interference in their activities to support Burundian civil society.

    Question.  In June, Human Rights Watch issued a statement that 
alleged that ``Burundi's Government is failing to communicate fact-
based information on the Covid-19 pandemic and preventing doctors and 
nurses from responding adequately:''

   Is there accurate information readily available about the spread of 
        the corona virus in Burundi?

    Answer. Not to my knowledge, but I welcomed President Ndayishimye's 
July 1, 2020, announcement declaring the coronavirus pandemic Burundi's 
``biggest enemy'' and pledging to make testing widely available, which 
marked a significant change from previous government policy under then 
President Nkurunziza which called on Burundians to rely on prayers.

    Question.  What prompted the Government of Burundi to expel a World 
Health Organization official from the country?

    Answer. The May 12, 2020, note verbale was sent to the World Health 
Organization Regional Office for Africa and provided no explanation for 
the expulsion. The announcement came two days after the WHO sent 
letters to the Minister of Public Health requesting information on the 
COVID-19 response, reminding Burundi of its responsibilities as a State 
Party to the International Health Regulations, and pushing for 
implementation of adequate prevention measures.

    Question.  Can the healthcare system in Burundi handle an outbreak 
or an epidemic?

    Answer. If confirmed, I will continue to advocate for and support 
U.S. Government initiatives to prevent, detect, and respond to 
outbreaks such as malaria, HIV/AIDS, and COVID-19 and support Ebola 
preparedness. The U.S. Government has invested in Burundi's capacity to 
respond to outbreaks through technical assistance to the Burundian 
Government to strengthen the health system and improve delivery of 
services. Since fiscal year 2012, through PEPFAR, the U.S. Government 
has invested over $95 million to support Burundi's HIV response and 
strengthen the country's health system. In 2017 and 2019, USAID funds 
supported responses to malaria epidemics, working to bring the 
epidemics under control and build systems to better prevent future 
epidemics. Previous Ebola preparedness efforts supported by the United 
States and others improved the country's ability to handle an outbreak 
or an epidemic, but there is more work to be done. The U.S. Government 
has provided more than $5.8 million in support of the COVID-19 
response, including an additional $2 million to public health partners 
through USAID who have shifted their work from Ebola to COVID-19 
preparedness; $1.5 million in humanitarian assistance to support water, 
sanitation, hygiene, and protection activities; and $2.3 million in 
assistance to assist refugees and displaced persons vulnerable to 
COVID-19.

    Question.  What steps will you take, if confirmed, to press for 
accurate, transparent information?

    Answer. If confirmed, I will continue to work with like-minded 
governments, organizations, and multilateral organizations to engage 
the Burundian Government and advocate for policies that support and 
advance U.S. interests. I will also continue to support accuracy in the 
Department's reporting and public reports such as the Human Rights 
Report and Trafficking in Persons Report.

    Question.  Will you advocate for the Government to allow the WHO to 
have full representation in the country?

    Answer. To my knowledge, the World Health Organization (WHO) has 
not approached the United States seeking support to advocate on its 
behalf to allow the WHO to have full representation in the country. An 
interim WHO representative recently arrived in Burundi and is working 
closely with the Minister of Public Health and his staff to improve 
testing and treatment for COVID-19. If confirmed, I will continue to 
work with like-minded governments, organizations, and multilateral 
organizations to advocate for policies that support and advance U.S. 
interests, including good global public health.

Oversight
    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. If confirmed, I will comply with all relevant federal laws, 
regulations, and Department policies, and will raise any concerns that 
I may have through appropriate channels. As the Ambassador, I will take 
seriously my responsibility to set the highest professional standards 
for the entire mission. Under my leadership, prohibited personnel 
practices will not be tolerated. I will make sure this is communicated 
to employees by holding town halls, meeting with section chiefs, and 
other appropriate means. I will also encourage all employees to 
complete relevant State Department training, in addition to the 
mandatory training required for employees.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. I believe deeply in promoting a diverse and inclusive 
workplace environment, and as the most senior official within the 
Embassy, it will be my responsibility to set an example for fostering 
an environment that is diverse and inclusive. If confirmed, fostering 
such values at Embassy Bujumbura will be a priority, and I will also 
make myself available to Embassy staff on this important issue. If 
confirmed, I will embrace opportunities to promote diversity and 
inclusion amongst our whole embassy team. I will support and promote 
the efforts the Department is currently undertaking to foster a culture 
of inclusion and representative workforce. I will encourage promoting 
Diversity and Inclusion in the hiring process through standardized 
interview procedures. To the extent possible, I will promote workplace 
flexibilities in accordance with State Department overseas employment 
guidance. I will learn from and listen to employees using mechanisms 
like the Open Conversations platform and the Department's new 
centralized exit survey.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I am committed to responding promptly to 
requests for information by Members of the SFRC through, and in 
accordance with, the guidance of the Bureau of African Affairs and 
State Department's Office of Legislative Affairs, and long-standing 
Department and Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I will take seriously any allegations of 
attempts by foreign or private individuals to improperly influence U.S. 
foreign policy, and I commit to comply with all relevant federal ethics 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

Democracy/Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have promoted human rights and democracy throughout my 
22-year Foreign Service career, starting with my first posting in 
Cameroon where I engaged human rights leaders and religious activists 
countrywide and advocated with traditional rulers to stop Female 
Genital Mutilation. During my time at U.S. Embassy Jakarta (2010-2013), 
I was the key interlocutor for activists and religious leaders in the 
breakaway region of Papua and engaged in honest conversations with 
government officials about the need for accountability for human rights 
abuses and violations in that region.
    As Deputy Chief of Mission at U.S. Embassy Port Moresby (2013-
2015), I led a multi-agency team that advocated on preventing and 
eliminating gender-based violence, including a successful campaign by 
Embassy personnel to partner with religious and traditional leaders to 
prevent women from being accused of witchcraft and burned alive. Our 
integrated programming also strengthened non-governmental organizations 
advocating for survivors of gender-based violence and trained female 
candidates to successfully compete for seats in Parliament.
    If confirmed as Ambassador to Burundi, I will uphold U.S. values 
and advocate for democracy, human rights, and fundamental freedoms for 
all Burundian citizens.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Burundi? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Since the 2015 political and economic crisis, there has 
been a clear decline in respect for human rights and the rule of law in 
Burundi, which affects all its citizens' rights and raises concerns 
about fair and transparent governance. The steady decline of civic and 
political space has been a source of critical concern. Per the State 
Department's 2019 Human Rights Report, reports of human rights 
violations and abuses include unlawful killings, forced disappearances, 
torture as well as substantial interference with the rights of freedom 
of expression and association, and the right to peaceful assembly.

    Question.  What steps will you take--if confirmed--to support 
democracy in Burundi? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will advocate publicly and privately for 
human rights and democracy as essential for Burundi's prosperity and 
stability with Burundian officials, international partners, civil 
society organizations, and business leaders. Consistent with applicable 
authorities and restrictions, including under the Trafficking Victims 
Protection Act, I will also seek to include efforts to promote human 
rights and democracy in U.S. programming and foreign assistance.
    Bringing together stakeholders including those who fled the country 
in the aftermath of the 2015 political and economic crisis as well as 
building trust, and influencing change with few incentives, will all 
likely be challenges in advancing human rights, civil society and 
democracy in general. There are other international partners ready and 
willing to engage without advocating on human rights and democracy 
concerns, as we do. Despite the decline in bilateral engagement in the 
aftermath of the 2015 political and economic crisis, the United States 
and Burundi have a long history of partnership and cooperation. 
Recently elected President Ndayishimiye has expressed interest in 
improving relations with the United States. If confirmed, I look 
forward to deepening relationships with the Burundian Government, 
international and domestic partners, and all Burundians to advocate for 
tangible advancement in respect for human rights, empowerment of civil 
society, commitment to democracy, and the increased prosperity of both 
the United States and Burundi.

    Question.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will engage publicly and privately with a 
wide range of stakeholders on matters of human rights, including civil 
rights, and governance and will offer support where appropriate. I will 
also seek to have the U.S. Embassy in Bujumbura, in coordination with 
other foreign missions, lead advocacy on matters of human rights, 
democracy, anti-corruption, and good governance. Consistent with 
applicable authorities and restrictions, including under the 
Trafficking Victims Protection Act, I will also seek to include these 
efforts in U.S. programming and foreign assistance, especially in the 
areas of freedom of expression, including for journalists, and 
strengthening the capacity of civil society organizations.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Burundi? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Civil society members, human rights and other non-
governmental organizations all play important roles in advancing 
democratic governance and respect for human rights and fundamental 
freedoms. In addition to U.S.-based and Burundi-based organizations, 
many Burundi-focused organizations also operate from outside of the 
country. If confirmed, I will engage publicly and privately with a wide 
range of stakeholders on matters of human rights, civil rights, and 
governance and will offer support where appropriate.
    I will also seek to have the U.S. Embassy in Bujumbura, in 
coordination with other foreign missions and international NGOs, lead 
efforts to continue to proactively address efforts to restrict or 
penalize NGOs and civil society via legal or regulatory measures, 
especially when those restrictions would place U.S. implementing 
partners in a position of potentially violating U.S. laws to comply 
with the restrictions. The State Department in coordination with USAID 
has closely tracked the measures first announced in 2017 for 
international NGO oversight and regulation, coordinated with donor 
organizations in Burundi, issued statements and raised it in 
multilateral fora, and engaged publicly and privately with the 
Burundian Government at the highest levels on this issue. If confirmed, 
I will continue to make this a priority.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will continue the Embassy's practice of 
engaging with a wide range of stakeholders, including political 
opposition figures and parties. Bringing together stakeholders 
including those who fled the country in the aftermath of the 2015 
political and economic crisis as well as building trust, and 
influencing change with few incentives, will all likely be challenges 
in advancing political competition. The steady decline of civic and 
political space has been a source of critical concern. Recently elected 
President Ndayishimiye has expressed interest in improving relations 
with both domestic and international interlocutors, including the 
United States. If confirmed, I look forward to deepening relationships 
with the Burundian Government, international and domestic partners, and 
all Burundians to advocate for tangible advancement in respect to 
empowerment of civil society, including access and inclusivity for 
women, minorities and youth, commitment to democracy, and the increased 
prosperity of both the United States and Burundi. Consistent with 
applicable authorities and restrictions, including under the 
Trafficking Victims Protection Act, I will also seek to include these 
efforts in U.S. programming and foreign assistance.

    Question.  Will you and your embassy team actively engage with 
Burundi on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Burundi?

    Answer. If confirmed, I am committed along with the Embassy team to 
meeting with independent, local press in Burundi. If confirmed, I am 
also committed to coordinating with like-minded missions and to 
continuing to press the Burundian Government to address cases of key 
political prisoners, including journalists, and other persons who have 
been unjustly targeted by the Government. Most recently, the State 
Department has privately engaged through high-level discussions and 
publicly called for the release of persons, including journalists, 
unjustly detained during the May 2020 elections. If confirmed, I am 
committed to continuing to engage with the Government of Burundi about 
our concerns, and I will ensure a dialogue on this and human rights 
remains a priority in our bilateral relationship. I will also 
collaborate with like-minded missions, multilateral organizations, and 
civil society to speak with a united voice that represents all 
Burundians committed to a democratic future for their country.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Burundi?

    Answer. The United States believes that malicious activities in 
cyberspace can undermine national security and economic prosperity. If 
confirmed, I will engage with like-minded missions, civil society, and 
international partners to respond to disinformation efforts and 
underscore the importance of a credible, independent, professional 
media to a free and democratic society.

    Question.  Will you and your embassy teams actively engage with 
Burundi on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue our embassy's efforts to 
promote workers' rights. I would advocate for continued improvements in 
this area, and document progress in the Human Rights Report. As noted 
in the 2019 Human Rights Report, Burundian law provides for the right 
of workers to form and join unions with restrictions, but the Burundian 
Government did not effectively enforce applicable laws and placed 
excessive restrictions on freedom of association and the right to 
collective bargaining.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Burundi, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Burundi? What specifically will you commit to do to help LGBTQ people 
in Burundi?

    Answer. Since 2009, consensual same-sex sexual conduct and same-sex 
marriage between adults is illegal in Burundi. Same-sex sexual conduct 
is punishable by up to two-year imprisonment and a fine of up to 
100,000 Burundian francs. The law does not prohibit discrimination 
against LGBTQ persons in housing, employment, nationality laws, and 
access to Government services such as health care and societal 
discrimination against LGBTI persons was common. In 2017, the Burundian 
Government passed an international NGO law, which imposed severe 
restrictions and scrutiny on the ability of LGBTI organizations to 
register and work effectively. If confirmed, I commit to engaging on 
human rights for all Burundians and will promote diplomatic and 
engagement efforts that are inclusive of all people, no matter their 
sexual orientation or gender identity or expression. When engaging with 
civil society members, I will be cognizant of the risks faced by LGBTI 
persons in general.



                               __________


       Responses to Additional Questions for the Record Submitted
        to Melanie Harris Higgins by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have promoted human rights and democracy throughout my 
22-year Foreign Service career, starting with my first posting in 
Cameroon where I engaged human rights leaders and religious activists 
countrywide and advocated with traditional rulers to stop Female 
Genital Mutilation. During my time at U.S. Embassy Jakarta (2010-2013), 
I was the key interlocutor for activists and religious leaders in the 
breakaway region of Papua and engaged in honest conversations with 
government officials about the need for accountability for human rights 
abuses and violations in that region. As Deputy Chief of Mission at 
U.S. Embassy Port Moresby (2013-2015), I led a multi-agency team that 
advocated on preventing and eliminating gender-based violence, 
including a successful campaign by Embassy personnel to partner with 
religious and traditional leaders to prevent women from being accused 
of witchcraft and burned alive. Our integrated programming also 
strengthened non-governmental organizations advocating for abused women 
and trained female candidates to successfully compete for seats in 
Parliament.If confirmed as Ambassador to Burundi, I will uphold U.S. 
values and advocate for democracy, human rights, and fundamental 
freedoms for all Burundian citizens.

    Question. What are the most pressing human rights issues in 
Burundi? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Burundi? What do 
you hope to accomplish through these actions?

    Answer. Since the 2015 political and economic crisis, there has 
been a clear decline in respect for human rights and the rule of law in 
Burundi, which affects all its citizens' rights and raises concerns 
about fair and transparent governance. Per the State Department's 2019 
Human Rights Report, human rights violations and abuses include 
unlawful killings, forced disappearances, torture as well as 
substantial interference with the rights of freedom of speech, peaceful 
assembly, and association. If confirmed, I will advocate publicly and 
privately for human rights and democracy as essential for Burundi's 
prosperity and stability with Burundian officials, international 
partners, civil society organizations, and business leaders. Consistent 
with applicable authorities and restrictions, including under the 
Trafficking Victims Protection Act, I will also seek to include efforts 
to promote human rights and democracy in U.S. programming and foreign 
assistance.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Burundi in 
advancing human rights, civil society, and democracy in general?

    Answer. If confirmed, challenges in advancing human rights, civil 
society and democracy in general may include bringing together 
stakeholders including those who fled the country in the aftermath of 
the 2015 political and economic crisis, building trust among 
stakeholders, and influencing change in a context with an active and 
influential presence of international actors who do not share the same 
human rights and democracy concerns we do. The steady decline of civic 
and political space has been a source of critical concern. Recently 
elected President Ndayishimiye has expressed interest in improving 
relations with the United States. If confirmed, I look forward to 
deepening relationships with the Burundian Government, international 
and domestic partners, and all Burundians to advocate for tangible 
advancement in respect for human rights, empowerment of civil society, 
commitment to democracy, and the increased prosperity of both the 
United States and Burundi.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Burundi? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Civil society members, human rights organizations, and 
other non-governmental organizations all play important roles in 
advancing democratic governance and respect for human rights and 
fundamental freedoms. In addition to U.S.-based and Burundi-based 
organizations, many Burundi-focused organizations also operate from 
outside of the country. If confirmed, I am committed to engaging with 
all individuals and organizations for the benefit of U.S. goals, 
development objectives, and policy advocacy and to further deepen our 
partnership with the Burundian people and government.
    The United States and Burundi have a history of security 
cooperation, for example with the AU Peacekeeping Mission to Somalia. 
Previous efforts focused on professionalization of Burundi's military 
and training, including human rights training, for the country's 
peacekeeping troops. The Burundian military has previously acted 
swiftly to address allegations of gross violations of human rights 
through proper AU and U.N. channels. Due to the current restriction on 
non-humanitarian, nontrade-related assistance under the Trafficking 
Victims Protection Act, Embassy Bujumbura is limited on the kinds of 
further professionalization assistance it can provide at this time to 
address this important issue. The Leahy Law helps ensure that we do not 
furnish U.S. assistance to security force units where there is credible 
information that the unit committed a gross violation of human rights. 
If confirmed, I will act in accordance with our law and policy, and 
maintain existing processes at Embassy Bujumbura for Leahy vetting, and 
I will encourage the Burundian Government to continue to address 
credible allegations of gross violations of human rights through 
transparent investigations to ensure the perpetrators are held 
accountable.

    Question. Will you and your embassy team actively engage with 
Burundi to address cases of key political prisoners or persons 
otherwise unjustly targeted by Burundi?

    Answer. If confirmed, I am committed to engaging along with the 
embassy team to continue pressing the Burundian Government to address 
cases of key political prisoners, as well as journalists, and other 
persons who have been unjustly targeted by the Government. Most 
recently, the State Department has privately engaged through high-level 
discussions and publicly called for the release of persons unjustly 
detained during the May 2020 elections. If confirmed, I am committed to 
continuing to engage with the Government of Burundi about our concerns, 
and I will ensure a dialogue on this issue specifically and on human 
rights more broadly, remain a priority in our bilateral relationship. I 
will also collaborate with like-minded missions, multilateral 
organizations, and civil society to speak with a united voice that 
represents all Burundians committed to a democratic future for their 
country.

    Question. Will you engage with Burundi on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage publicly and privately with a 
wide range of stakeholders on matters of human rights, civil rights, 
and governance and will offer support where appropriate. I will also 
seek to have the U.S. Embassy in Bujumbura, in coordination with other 
foreign missions, lead advocacy on matters of human rights, democracy, 
anti-corruption, and good governance. Consistent with applicable 
authorities and restrictions, including under the Trafficking Victims 
Protection Act, I will also seek to include these efforts in U.S. 
programming and foreign assistance, especially in the areas of freedom 
of expression, including for journalists, and strengthening of civil 
society organizations.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will embrace opportunities to promote 
diversity and inclusion amongst our whole embassy team. If confirmed, I 
will support and promote the efforts the Department is currently 
undertaking to foster a culture of inclusion and representative 
workforce. I will encourage promoting Diversity and Inclusion in the 
hiring process through standardized interview procedures. I will 
promote workplace flexibilities in accordance with Department overseas 
employment guidelines. I will learn from and listen to employees using 
mechanisms like the Open Conversations platform and the Department's 
new Centralized exit survey.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Burundi are fostering an environment that 
is diverse and inclusive?

    Answer. I believe deeply in promoting a diverse and inclusive 
workplace environment, and as the most senior official within the 
Embassy, it will be my responsibility to set an example for fostering 
an environment that is diverse and inclusive. If confirmed, fostering 
such values at Embassy Bujumbura will be a priority, and I will also 
make myself available to Embassy staff on this important issue. If 
confirmed, I will support and promote the efforts the Department is 
currently undertaking to ensure leaders under my direction are 
fostering a culture and environment of inclusion. I will promote habits 
and practices among the leadership that focus on inclusion as a key 
driver for retaining diverse talent. I will promote Diversity and 
Inclusion Best Practices and tips for inclusive hiring practices and 
standardized interview guidance. I will support the review of existing 
mentoring programs and how they can be bolstered.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Burundi?

    Answer. My investment portfolio includes diversified mutual funds, 
including a foreign stock index fund, which may hold interests in 
companies with a presence overseas, but are exempt from the conflict of 
interest laws. I am committed to following all applicable ethics laws 
and regulations and remaining vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Burundi 
specifically?

    Answer. Political corruption negatively influences democratic 
governance, the rule of law, and efforts to foster economic growth, 
improve the delivery of public services, and pursue effective 
development policies in many countries. Corruption further undermines 
efforts to foster participatory policy making, implement effective 
policy, and facilitate service delivery. In Burundi specifically, the 
anti-corruption law provides criminal penalties for official 
corruption, but according to the 2019 Human Rights Report, the 
reluctance of police and public prosecutors to investigate and 
prosecute cases of government corruption and of judges to hear them in 
a timely manner resulted in widespread impunity for government 
officials, their supporters and proxies. I intend to engage with the 
Government of the newly-elected president of Burundi to advocate for 
improved governance and the rule of law.

    Question. What is your assessment of corruption trends in Burundi 
and efforts to address and reduce it by that government?

    Answer. In 2019, Transparency International ranked Burundi 165 out 
of 180 countries, and it scored 19 points out of 100 on the 2019 
Corruption Perceptions Index. Since 2010, Burundi's Corruption 
Perceptions Index has remained in the 17-22 range. Burundi's late 
former President Nkurunziza enacted an anti-corruption policy in 2010, 
but corruption remained pervasive.
    President Ndayishimiye was inaugurated on June 18, 2020. In a June 
30, 2020, address to the Burundian parliament, the president announced 
his commitment to combat corruption in public services and embezzlement 
of public funds. As a first step to combatting corruption, citizens can 
now anonymously report corruption at suggestion boxes in local 
administrative offices. On July 3, 2020, the Minister of Finance 
announced new measures the Burundian Government plans to use to monitor 
the management of the state budget and revenue collection. If 
confirmed, as the U.S. Ambassador to Burundi, I will advocate for a 
comprehensive, systemic approach to combat corruption that empowers the 
people to report without fear of retaliation and promotes inclusive 
governance and transparency in Burundi's Government.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Burundi?

    Answer. If confirmed, I will engage publicly and privately with a 
wide range of stakeholders on good governance and anticorruption 
efforts and will offer support where appropriate. I will also seek to 
have the U.S. Embassy in Bujumbura, in coordination with other foreign 
missions, lead advocacy on matters of human rights, democracy, anti-
corruption, and good governance. Consistent with applicable authorities 
and restrictions, including under the Trafficking Victims Protection 
Act, I will also seek to include these efforts in U.S. programming and 
foreign assistance, especially in the areas of freedom of expression, 
including for journalists, and strengthening of civil society 
organizations.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Jeanne Marie Maloney by Senator Robert Menendez

    Question.  A 1973 decree bans political parties, and in December, 
police in Eswatini arrested the head of the largest opposition party 
along with several other politicians and activists, seizing electronic 
devices and other materials. The African Union called on Eswatini to 
lift the ban on political parties in the context of the 2018 
parliamentary elections. Ambassador Lisa Peterson is on record calling 
for the same. To your knowledge, has the ban on political parties been 
lifted? What impact does the ban have with regards to people exercising 
political rights?

    Answer. Political parties openly exist in Eswatini, but conditions 
for their operations, particularly in elections, are undefined, legally 
unclear, and/or culturally restricted. Although candidates from several 
political parties competed in the 2018 elections, the constitution 
requires candidates for public office to run on their individual merit, 
as independents. Political parties may not offer slates of candidates, 
and a candidate's party affiliation does not appear on ballots.
    While government officials assert that the 1973 decree banning 
parties ended with the adoption of the new constitution in 2006, the 
Government has not issued any official declaration to clarify its 
assertion, and political parties and NGOs remain skeptical. 
Additionally, sociocultural taboos associated with overt political 
party affiliation (especially in rural areas) continue to limit 
organized political engagement. In 2019, political parties conducted 
the first national political marches and rallies in support of 
multiparty democracy since the 1973 decreebanning political parties. 
Later the same year, however, a town council prohibited a proposed 
political march.

    Question.  What steps will you take, if confirmed, to address the 
problems identified not only in the Freedom House report, but which to 
a large extent are echoed in the State Department Country Report for 
Human Rights?

    Answer. If confirmed, I will encourage the Eswatini Government to 
define and expand the space for political parties to operate, including 
by encouraging the Government to take regulatory and/or legal action 
that removes the ambiguity surrounding the 1973 decree banning parties 
and establishes a clear framework clarifying both the ways in which 
political parties are permitted to operate and the manner in which 
party candidates may participate in elections. I will emphasize the 
importance of making measurable progress on these issues as a condition 
precedent to qualifying for Millennium Challenge Corporation 
assistance, to which Eswatini aspires, as well as maintaining its AGOA 
status. I will engage Swati authorities, international partners, civil 
society organizations, and business leaders to work together toward 
these goals.

    Question.  What is your assessment related to the status of women's 
legal and civil rights in Eswatini?

    Answer. Despite significant progress in recent years, including a 
handful of recent court rulings and the 2018 enactment of the Sexual 
Offenses and Domestic Violence Act, women continue to occupy a 
subordinate role in society. Although the constitution provides for 
equal protection under the law and guarantees dignity for all persons, 
Eswatini's dualistic legal system, which incorporates common law and 
traditional Swati laws and customs, has tended to complicate the 
protection of women's rights. Recent court decisions have clarified and 
expanded women's rights.
    Girls and women face heightened discrimination in rural areas, 
where Swati culture and tradition often receive primacy over 
constitutional freedoms and legal guarantees of rights. Boys receive 
preference in education, and women are more likely to be employed in 
the informal sector.

    Question.  What impact has this had on the HIV/AIDS epidemic? Does 
the United States have programs aimed at expanding and protecting the 
rights of women in Eswatini?

    Answer. Studies show that improved gender equality and greater 
legal protection for women, especially adolescent girls and young 
women, correlate to reduced vulnerability to HIV infection. This 
correlation applies in Eswatini as well.
    The United States supports several programs to expand and protect 
the rights of women in Eswatini, including by helping Eswatini to amend 
its Legal Practitioner's Act to improve access to justice for women and 
other underserved populations. The U.S. Government is also launching a 
women's economic empowerment project to assist with post-COVID 
recovery, and to mitigate restrictive economic, legal, and cultural 
barriers to facilitate women's meaningful participation in the economy.
    Under PEPFAR (President's Emergency Plan for Aids Relief), the 
DREAMS (Determined, Resilient, Empowered, AIDS-free, Mentored, and 
Safe) program new HIV diagnoses among adolescent girls and young women 
have declined by 25-percent or more in nearly all of the areas where 
the program is taking place. Peace Corps supports similar objectives 
through its GLOW (Girls Leading Our World) clubs. Both of these 
programs help young women know their HIV status, learn how to negotiate 
safe sex, work on future aspirations and plans, and build financial 
literacy.
    USAID's regional ARISA (Advancing Rights in Southern Africa) 
program also provides support to women in Eswatini to assist with land 
rights, and other access to economic activity.

    Question.  What do you plan to do, if confirmed, to advocate for 
greater rights for women in Eswatini?

    Answer. If confirmed, I will leverage my position and my convening 
power to engage both publicly and privately to advocate for greater 
respect for the rights of women in Eswatini. I will explain and 
emphasize the fact that greater respect for women's rights is essential 
for Eswatini's future growth, economic diversification, and security. I 
am committed to working with the Eswatini Government, like-minded 
missions, civil society, the private sector, and international 
organizations to advance these important areas.

    Question.  What is your assessment of the state of media freedom in 
Eswatini?

    Answer. Although the constitution and law guarantee freedom of 
expression, including for the press, the Government restricts media 
freedom, particularly on matters concerning the King and/or the 
monarchy. Self-censorship, harassment and intimidation of journalists 
who criticize the King, and reprisals are rampant.
    Although Eswatini's two daily newspapers increasingly criticize 
government actors for corruption, inefficiency, and other 
transgressions, they strictly avoid criticizing the King and other 
members of the royal family. An independent monthly magazine 
occasionally criticizes the royal family, including the King, as well 
as the Government, but self-censorship remains a concern for all 
Eswatini-based journalists. Independent online media and blogs of 
widely varying degrees of credibility and professionalism, published 
primarily by individuals based outside of Eswatini, are harshly 
critical of the King, royal family, and government. Online media, 
including social media, is sometimes monitored but never disrupted or 
censored. Broadcast media remains firmly under state control. Most 
people in Eswatini obtain their news from radio broadcasts. Access to 
speak on national radio is generally limited to government officials, 
although the University of Eswatini has a radio license to broadcast 
university events.

    Question.  Does the U.S. currently have any programs to support 
media freedoms?

    Answer. The USAID-funded regional program ``Advancing Rights in 
Southern Africa'' promotes media freedom in Eswatini.

    Question.  What if anything should the U.S. be doing to support 
journalists in Eswatini?

    Answer. We can do more to support journalists through boosting 
professional exchanges, expanding targeted training programs, and 
increasing engagement with the Government, civil society, like-minded 
missions, and the private sector to address media freedoms and expand 
the space for professional journalists to operate. We could also 
consider trying to attract more international media attention for 
Eswatini, both through private media houses and respected U.S. 
institutions such as Voice of America. Shining a brighter light on 
Eswatini could improve understanding of its challenges and 
opportunities and, in doing so encourage better journalistic practices.

    Question.  As of 2018 in Eswatini, of those living with HIV, 92% 
knew their HIV status, 86% were on treatment, and 81% were virally 
suppressed. This puts Eswatini close to achieving the UNAIDS so-called 
90-90-90 goals, which call for countries to achieve 90% for each of 
these measures. This is a remarkable achievement given that, as of 
2018, Eswatini had the highest HIV adult prevalence rate in the world. 
However only 76% of children are on treatment. Do you have any idea 
what accounts for the disparity in terms of treatment rates for 
children? What should the U.S. be doing to address the disparity?

    Answer. The disparity in treatment rates between children and 
adults is due to non-universal implementation of pediatric testing 
strategies and frequent changes in caregivers aside from the biological 
parent. This raises issues of consent for HIV testing and disclosure if 
the caregiver does not have legal custody. Additionally, there have 
been persistent issues with parental adherence to testing schedules for 
exposed children.
    Owing to the successful implementation of the mother-to-child-
transmission reduction program, PEPFAR support has facilitated 
Eswatini's approach to eliminating infant HIV. The number of HIV 
positive children under the age of five is now very low, and all are 
identified and on treatment.

    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all federal ethics 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, if confirmed, I commit to making clear that prohibited 
personnel practices has no place in the federal government and will not 
be tolerated. As a career foreign service officer, I have treated and 
will continue to treat all employees with respect and professionalism, 
and I will make that clear to all employees under my leadership. I 
agree that those found to have engaged in retaliation should be subject 
to accountability and discipline consistent with applicable laws, 
regulations, and Department policy.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will embrace every opportunity to promote 
diversity and inclusion in the workplace. I would ensure the Embassy 
devotes resources to mentoring and support for all staff, including 
those from diverse backgrounds and underrepresented groups. Diverse 
teams are richer in creativity and perspective, and I believe all 
leaders should embrace a wide range of inputs, viewpoints, and 
backgrounds. I will make sure that employees understand this by holding 
town halls, meeting with section chiefs, and other appropriate means.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. For the past five years of my career, I have prioritized 
the promotion of human rights in Africa. As Foreign Policy Advisor at 
U.S. Army Africa, I worked together with my military colleagues to 
impress upon African counterparts the imperative to observe the rights 
of individuals--and to transparently investigate and decisively act 
when an allegation of a human rights abuse or violation is made.
    Previously, as the Director of the Office of Security Affairs in 
the Africa Bureau, I was responsible for ensuring that U.S. 
peacekeeping training and security assistance recipients were 
appropriately vetted in accordance with the Leahy law. Our programs 
included training on human rights, the protection of civilians, and 
countering sexual exploitation and abuse. With our support, troop 
performance improved.
    Earlier in my career, while serving as Desk Officer for Angola, I 
worked to implement the Department's democracy and human rights 
priorities in our bilateral engagement. The Department continues to 
prioritize democracy and human rights, which has supported impressive 
reforms over the past few years. If confirmed as Ambassador, I look 
forward to advocating for human rights and democratic principles in 
Eswatini.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Eswatini? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The most pressing challenges to democratic engagement and 
development in Eswatini are lack of transparency, inclusion, and the 
freedom of expression. Lingering practical and cultural restrictions on 
political participation cause significant problems. While government 
officials assert that the 1973 decree that banned political parties 
ended with the adoption of the new constitution in 2006, the Government 
has not issued any official declaration to clarify its assertion, and 
political parties and NGOs remain skeptical.
    While political parties exist in Eswatini, conditions for their 
operations are legally undefined, and/or culturally restricted. The 
constitution requires candidates for public office to run on their 
individual merit, as independents. Political parties may not offer 
slates of candidates, and a candidate's party affiliation does not 
appear on ballots. One result of the limited space for political party 
participation has been that lawmakers are hindered from forming 
coalitions around shared ideas, which fundamentally weakens the 
Parliament as a counterweight to the other two branches of government. 
While legal reform following enactment of the new constitution in 2006 
has opened up some additional space for increased and improved 
political engagement, government officials, political actors, and civil 
society alike have been slow to transform democratic reforms on paper 
into tangible progress on the ground.

    Question.  What steps will you take--if confirmed--to support 
democracy in Eswatini? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will encourage the Eswatini Government to 
define and expand the space for political parties, including by taking 
regulatory and/or legal action that removes ambiguity surrounding the 
1973 decree banning parties and establishes a clear framework 
clarifying both the ways in which political parties are permitted to 
operate and the manner in which party candidates may participate in 
elections. I will emphasize both publicly and privately that respect 
for political rights and democratic engagement should be a critical 
component to Eswatini's efforts to improve its international 
reputation, attract foreign direct investment, and enhance its 
security. I will emphasize the importance of making measurable progress 
on these issues as a condition precedent to qualifying for Millennium 
Challenge Corporation (MCC) assistance, to which Eswatini aspires. I 
will engage Swati authorities, political parties, civil society 
organizations, business leaders, and international partners to work 
together toward these goals.
    Potential impediments to progress are likely to come from 
Eswatini's deeply entrenched cultural and traditional institutions. By 
engaging with a wide array of actors, demonstrating respect for 
sociocultural traditions that are not antithetical to human rights, 
accentuating the human rights and fundamental freedoms guaranteed in 
the text of Eswatini's own constitution, and leveraging the eligibility 
criteria of flagship U.S. Government trade and development programs 
like MCC and AGOA, I hope to chip away at these impediments.

    Question.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. Government assistance to Eswatini currently advances 
democracy and governance through several avenues, including by 
providing assistance to advance electoral reforms, enhance fiscal 
transparency and accountability, and promote increased participation by 
women in the political process. Additionally, the United States 
supports the introduction and expansion of good governance within 
financial administration and service delivery systems, which bolsters 
transparency, citizen participation, and accountability within planning 
and financial management processes. If confirmed, I will continue to 
engage within the Department and with interagency partners to support 
the establishment and continuation of complementary and expanded 
programs that advance U.S. interests in Eswatini. I also will emphasize 
the importance of making measurable progress on democracy and 
governance as a condition to both maintaining the country's AGOA 
eligibility and qualifying for Millennium Challenge Corporation (MCC) 
assistance, to which Eswatini aspires.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Eswatini? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Human rights NGOs--local, regional, and international--are 
active in Eswatini. Civil society organizations, regardless of where 
they are registered or where they operate, can be critical allies in 
advancing democratic governance, expanding human rights and fundamental 
freedoms, and assisting the United States to strengthen its bilateral 
and multilateral relationships. If confirmed, I am committed to 
engaging broadly to help advance these objectives. I will leverage our 
strong relationships in Eswatini to communicate privately or publicly 
(as the situation dictates) to proactively address efforts to restrict 
or penalize civil society through legal or regulatory measures.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Restrictions on political participation remain one of 
Eswatini's most enduring challenges. Although there has been measurable 
progress in recent years thanks to important legal reforms and expanded 
rights of assembly, speech, and association, much work remains to be 
done.
    If confirmed, I will work with the King and his advisors, the host 
government, civil society, and like-minded missions to secure and 
expand upon this progress. I will emphasize the importance of promoting 
diverse viewpoints and supporting an open arena for peaceful, good 
faith discussions of political differences. I commit to meet with 
democratically oriented political opposition figures and parties, and I 
will advocate openly in support of human rights for all individuals in 
Eswatini, including women, minorities, and youth.

    Question.  Will you and your embassy team actively engage with 
Eswatini on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Eswatini?

    Answer. If confirmed, I will engage with media practitioners, like-
minded missions, civil society, government, and international partners 
to underscore the importance of an independent, professional, and open 
media to a free and democratic society. I will seek resources to 
continue support to Eswatini's media, including professional exchanges, 
targeted training programs, and seminars to educate journalists and 
media stakeholders about their rights. Swati journalists have 
participated in U.S. Government-sponsored professional exchange 
programs on investigative reporting, safeguarding freedom of 
expression, and the media's role in strengthening democratic 
institutions.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Eswatini?

    Answer. If confirmed, I will engage with civil society and 
government actors on countering disinformation and malign propaganda by 
foreign state and non-state actors. As Taiwan's last diplomatic ally on 
the African continent, Eswatini finds itself in a position that is 
particularly vulnerable to disinformation and malign propaganda 
campaigns. I will commit to working with like-minded partners in 
Eswatini to counter such campaigns.

    Question.  Will you and your embassy teams actively engage with 
Eswatini on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The United States has a long and proud tradition of 
supporting the rights of workers, including to form labor 
organizations, internationally. If confirmed, I will commit to engage 
with unions, relevant government offices, and the private sector to 
support labor rights.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Eswatini, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Eswatini? What specifically will you commit to do to help LGBTQ 
people in Eswatini?

    Answer. If confirmed, I will commit to defend the human rights and 
dignity of all people in Eswatini, no matter their sexual orientation 
or gender identity. I will seek ways to support the efforts of LGBTI 
NGOs in Eswatini, including through advocacy, leadership development 
opportunities, and programmatic support.
    Eswatini has seen recent progress in this space, although clear 
challenges remain. While there are colonial-era common law prohibitions 
against sodomy, no penalties are specified, and there has never been an 
arrest or prosecution for consensual same-sex conduct. The law does not 
prohibit discrimination against LGBTI persons in housing, employment, 
nationality laws, and access to government services such as health 
care. Societal discrimination against LGBTI persons remains widespread, 
and LGBTI persons generally conceal their sexual orientation.
    Despite these barriers, in 2019, the LGBTI community organized and 
held the country's second Pride Parade in as many years, both of which 
received positive media attention and occurred without incident.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Jeanne Marie Maloney by Senator Benjamin L. Cardin

    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. For the past five years of my career, I have prioritized 
the promotion of human rights in Africa. As Foreign Policy Advisor at 
U.S. Army Africa, I worked together with my military colleagues to 
impress upon African counterparts the imperative to observe the rights 
of individuals--and to transparently investigate and decisively act 
when an allegation of a human rights abuse or violation is made.
    Previously, as the Director of the Office of Security Affairs in 
the Africa Bureau, I was responsible for ensuring that U.S. 
peacekeeping training and security assistance recipients were 
appropriately vetted in accordance with the Leahy law. Our programs 
included training on human rights, the protection of civilians, and 
countering sexual exploitation and abuse. With our support, troop 
performance improved.
    Earlier in my career, while serving as Desk Officer for Angola, I 
worked to implement the Department's democracy and human rights 
priorities in our bilateral engagement. The Department continues to 
prioritize democracy and human rights, which has supported impressive 
reforms over the past few years. If confirmed as Ambassador, I look 
forward to advocating for human rights and democratic principles in 
Eswatini.

    Question.  What are the most pressing human rights issues in 
Eswatini? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Eswatini? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Eswatini are 
restrictions on the freedom of expression with respect to the monarchy 
and limitations on political participation. If confirmed, I will use my 
leadership and voice, both publicly and privately, to underscore that 
respect for human rights is essential for Eswatini's future growth, 
prosperity, and security. Additionally, I will engage political 
organizations, Swati authorities, international partners, civil society 
organizations, and business leaders to work together toward these 
goals.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Eswatini in 
advancing human rights, civil society, and democracy in general?

    Answer. Regarding freedom of expression, members of the royal 
family and Eswatini Government officials continue to insist that Swati 
culture prohibits public criticism of the monarchy, making it difficult 
for local press or civil society organizations to hold members of the 
royal family accountable for practices that hurt the nation, such as 
exorbitant royal spending.
    On political participation, the Government has been unwilling to 
publish an official record or statement making it clear that the ban on 
political parties contained in a 1973 royal decree is no longer in 
effect. Until it does so, doubts will continue among political parties, 
NGOs, and the people of Eswatini, and will inhibit the further 
development of political parties and the strengthening of Parliament.
    If confirmed, I look forward to engaging with the King and his 
advisors, government officials, political organizations, international 
partners, civil society, and members of the press.

    Question.  Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Eswatini? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to meeting with human rights 
organizations, civil society, and other non-governmental organizations, 
regardless of where they are registered or operate. Such organizations 
can play an important role in advancing democratic governance, respect 
for human rights and fundamental freedoms, and assisting Eswatini to 
continue developing into a stronger partner of the United States. The 
Leahy Law helps to ensure that we do not furnish U.S. assistance to a 
security force unit where there is credible information that the unit 
committed a gross violation of human rights. If confirmed, I will 
support existing processes at Embassy Mbabane to ensure continued 
implementation of the Leahy law.

    Question.  Will you and your embassy team actively engage with 
Eswatini to address cases of key political prisoners or persons 
otherwise unjustly targeted by Eswatini?

    Answer. There is no question there have been a number of concerns 
related to good governance and respect for human rights in Eswatini. 
Our Embassy has engaged with the Government and a multitude of 
stakeholders to make progress in some of these areas. If confirmed, I 
am committed to continuing to promote human rights for all individuals 
in Eswatini, including those who are members of vulnerable populations, 
journalists, and members of political parties. I am committed to 
working with the Eswatini Government, like-minded missions, civil 
society, and international organizations to address these important 
areas.

    Question.  Will you engage with Eswatini on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. The United States has been a strong advocate in Eswatini 
for the respect of human rights, including freedoms of expression and 
of association, and the rule of law. If confirmed, I am committed to 
speaking both publicly and privately with the Government of Eswatini 
about our concerns. I will partner with like-minded missions in 
Eswatini to speak with a united voice on this topic, will work with 
civil society to ensure our voice is joined by every-day citizens 
committed to the country's future, and will use my convening power to 
ensure a continued dialogue on human rights in Eswatini remains front 
and center of our agenda.

    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I agree with the research that indicates that diverse teams 
are richer in creativity and perspective, and I believe all leaders 
should embrace a wide range of inputs, viewpoints, and backgrounds.
    If confirmed, I will pursue every opportunity to promote diversity 
and inclusion in the workplace. I will ensure the Embassy devotes 
resources to mentoring and support for all staff, including those from 
diverse backgrounds and underrepresented groups.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy in Eswatini are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, fostering an environment that is diverse and 
inclusive will be a priority. Proactively, I will make sure supervisors 
within the Embassy regularly complete diversity training. As the most 
senior official within the Embassy, it will be my responsibility to set 
the example for fostering an environment that is diverse and inclusive.

    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in Eswatini?

    Answer. My investment portfolio includes diversified mutual funds, 
including a foreign stock index fund and global bond funds, which may 
hold interests in companies with a presence overseas, but which are 
exempt from the conflict of interest laws. My investment portfolio also 
includes security interests, including stocks, in companies, some of 
which may have a presence in Eswatini. I am committed to following all 
applicable ethics laws and regulations and remaining vigilant with 
regard to my ethics obligations.

    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Eswatini 
specifically?

    Answer. In many developing countries, corruption inhibits the 
delivery of public services by siphoning off limited resources and 
impeding economic growth. Members of the royal family continue to 
exercise undue influence on large contracts, foreign investments, and 
business ventures in the country, which creates fertile ground for 
corruption. While Eswatini offers businesses one of the most 
politically stable environments in the region, the Government must 
strengthen efforts toward providing a transparent and predictable 
economic environment that is attractive to foreign businesses and 
investors.

    Question.  What is your assessment of corruption trends in Eswatini 
and efforts to address and reduce it by that government?

    Answer. Within weeks of taking office in 2018, the new Prime 
Minister announced that his priorities were to turn around the economy 
and to fight aggressively against corruption. Since then, Eswatini 
officials have had a mixed response to corruption, with clear progress 
in some circles counterbalanced by continuing problems in others. The 
current cabinet has condemned government fraud, waste, and abuse and 
has instituted accountability measures and reduced opportunities for 
corruption in several government offices. Earlier this year, 
authorities arrested a senior government official for alleged 
corruption and charged him with crimes that could lead to 20 years in 
prison.
    Nevertheless, corruption remains a serious problem, most often 
involving personal relationships and bribes being used to secure 
government contracts on large capital projects. The Anticorruption 
Commission continues to lack the power to effectively investigate, 
prosecute, and punish corrupt acts.

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Eswatini?

    Answer. If confirmed, I will underscore the importance of 
controlling corruption and strengthening good governance. I will 
support existing and expanded USG-funded training programs and sector-
specific engagements to improve transparency, accountability, and 
oversight. I will emphasize both publicly and privately that control of 
corruption should be a critical component to Eswatini's efforts to 
improve its international reputation, attract foreign direct 
investment, and enhance its security. I will encourage the Government 
to empower and fund the Anticorruption Commission in a manner that is 
proportional to its ambitious constitutional mandate.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Michael A. McCarthy by Senator Robert Menendez

    Question.  President George Weah's 2018 election marked Liberia's 
first peaceful transfer of power between elected heads of state since 
1944. Weah, a former European football star, ran a campaign based on 
anti-corruption and inclusive economic growth. His efforts to fulfill 
those promises have come under increasing scrutiny due to high profile 
scandals, and his refusal to disclose his assets publicly. 
Dissatisfaction with Weah's performance have prompted large-scale anti-
government protests in Monrovia.

   What should we be providing by way of technical assistance, or 
        support for civil society watchdogs to help address corruption 
        in Liberia?

    Answer. Corruption is endemic in Liberia and affects nearly every 
facet of life. In 2019, Liberia ranked 137 of 180 countries and 
territories on the Transparency International Corruption Perceptions 
Index, falling from 120 in 2018. In 2012, Liberia ranked 75. To protect 
U.S. taxpayer assets, USAID maintains a robust monitoring and 
evaluation program. If confirmed, I will continue to reinforce U.S. 
values including the application of good governance, fiscal 
transparency, improved public financial management, and inclusive 
economic growth in my interactions with President Weah and other 
Liberian officials. These values are ingrained in U.S. programming and 
are the foundational elements of the assistance portfolio to Liberia. 
As we do in other countries, the United States will consider 
application of visa sanctions for corrupt officials--including those 
who use corrupt practices or ill-gotten influence to subvert Liberia's 
recently established democratic gains.
    In January of this year, thousands of protesters joined 
demonstrations in Liberia's capital, Monrovia. Police reportedly 
dispersed the protesters with tear gas. The Committee to Protect 
Journalists reported that since March ``Liberian security forces have 
attacked or intimidated at least four journalists covering the COVID-19 
pandemic.'' The Liberian solicitor general was quoted as saying 
publicly that, ``Any media institution that decides to spread fake 
news, we'll just move in and seize your equipment, we'll keep it and 
we'll ask for the revocation of your license until after the 
coronavirus. And even after that, there will be a contest in court and 
it would be difficult for you to get your license:''

    Question.  How would you characterize the state of political and 
media freedoms in Liberia? Has the Government taken advantage of the 
COVID-19 pandemic to restrict freedom of expression and assembly?

    Answer. Recent editions of the Department of State's annual Human 
Rights Report note that restrictions on freedom of expression for 
members of the press are among the most significant human rights issues 
in Liberia. The Liberian Government has taken some steps to address 
these concerns, including passage in 2019 of the Press Freedom Act, 
which was an important step forward in decriminalizing defamation and 
promoting a freer press. Nevertheless, journalists sometimes perceive 
the Government's approach to them as antagonistic.
    In high-profile cases of anti-government demonstrations in 2019 and 
2020, the Ministry of Justice requested that organizers apply for 
permits before assembling, though the laws and regulations regarding 
permits remain unclear. Civil society and the international community 
have worked to encourage dialogue between all actors and to establish a 
transparent system that would respect the right to peaceful assembly 
while also providing for public safety.
    If confirmed, my Embassy team and I will look into any allegations 
of use of the COVID-19 pandemic to restrict the rights to freedom of 
expression and peaceful assembly and advocate for transparent laws and 
regulations around the rights to peaceful assembly and freedom of 
expression, including for members of the press.

    Question.  If confirmed, what will you do to advocate for respect 
for political and civil rights in Liberia?

    Answer. Effective, accountable, transparent, responsive, and 
inclusive governance is fundamental to citizen-focused democracy and a 
free market economy. U.S. support for these objectives should focus on 
improving the ability of Liberian ministries' to use public resources 
in transparent and accountable ways, decentralizing service delivery to 
local authorities so that citizens can better access and monitor those 
services, strengthening Liberia's capacity to hold free and fair 
elections, fostering accountable political leadership, as well as 
strengthening capacity of civil society and media organizations as 
effective advocates for reform.
    In terms of potential impediments, both the armed forces and 
civilian security agencies suffer from a perennial lack of funding, 
which leads to late payments of salaries and low levels of operational 
readiness. Good governance is also challenged by corruption and a 
political system that places disproportionate influence in individual 
actors rather than institutions or organizations. U.S. assistance to 
Liberia seeks to build democratic institutions, and shore up checks and 
balances, efforts I pledge to support, if confirmed.

Oversight
    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I agree that the federal government should not employ 
prohibited personnel practices. As a career Foreign Service Officer, I 
have treated and will continue to treat all employees with respect and 
professionalism. If confirmed, I will maintain a policy of prohibiting 
these personnel practices. I agree that anyone found to have engaged in 
retaliation should be subject to accountability and discipline in 
accordance with U.S. federal labor law and regulation.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will foster an environment that is open, 
diverse, and inclusive. Proactively, I will make sure supervisors 
within the Embassy complete diversity training on a regular basis. As 
the most senior official within the Embassy, it will be my 
responsibility to set the example for fostering an environment that is 
diverse and inclusive.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Democracy/Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. In 2015, while serving as Charge d'Affaires in South Sudan, 
we publicly raised concerns about South Sudanese Government officials' 
human rights violations and abuses following the country's descent into 
crisis in December 2013. This effort put the Government on notice that 
the United States was monitoring the actions of government troops and 
their associated militias and that we were tracking events throughout 
the country. I believe our actions in this capacity inhibited further 
human rights abuses and violations. If confirmed as Ambassador, I 
intend to advocate for the human rights and fundamental freedoms of all 
Liberians.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Liberia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Recent editions of the Department of State's annual Human 
Rights Report note that the most significant human rights issues in 
Liberia include violence against women, including widespread female 
genital mutilation and other harmful practices against women and girls; 
restrictions on freedom of expression for members of the press; harsh 
prison conditions and lengthy pretrial detention; and discrimination 
against lesbian, gay, bisexual, transgender, and intersex (LGBTI) 
persons. If confirmed, I will use my unique platform and voice as the 
U.S. Ambassador, both publicly in my interactions with the Liberian 
people and privately with Liberian officials, on the importance of 
human rights and the rule of law in Liberia. I will engage like-minded 
missions, civil society, government and business leaders, and other 
relevant stakeholders to end these abusive practices.

    Question.  What steps will you take--if confirmed--to support 
democracy in Liberia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The U.S. Embassy in Monrovia has served as a powerful and 
consistent advocate for human rights, civil rights, good governance, 
and democracy in Liberia. If confirmed as Ambassador, I will speak with 
an authoritative voice--both publicly to the Liberian people and 
privately with Liberian officials--on the importance of making further 
progress on matters of human rights, civil rights, and governance to 
Liberia's democracy and future prosperity. I will partner with like-
minded missions, civil society, and other key stakeholders to ensure 
that the dialogue with the Government of Liberia on these critical 
issues remains at the top of our bilateral agenda.

    Question.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Supporting democracy and good governance are key priorities 
of our assistance programming in Liberia. U.S. support for these 
objectives focuses on improving the ability of Liberian ministries' to 
use public resources in transparent and accountable ways; 
decentralizing service delivery to local authorities so that citizens 
can better access and monitor those services; strengthening Liberia's 
capacity to hold free and fair elections, which are transparent; 
fostering accountable political leadership; as well as strengthening 
capacity of civil society and media organizations as effective 
advocates for reform.
    U.S. public diplomacy and outreach in Liberia supports Mission and 
Department goals through press outreach, small grants, American Center-
based programs, digital video conferences, visiting speakers, exchange 
programs, and social media engagement. USAID provides support to 
promote free and fair elections, cultivate more representative 
political leadership, and enhance the ability of Liberians to hold 
their government accountable. USAID also supports transparent and 
responsible management of public resources, civil service reform, 
domestic resource mobilization, and decentralization. To mitigate 
conflict, USAID supports improved land tenure for traditionally 
marginalized groups and alternative dispute resolution mechanisms. If 
confirmed, these are key efforts I will prioritize as Ambassador.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Liberia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Organizations promoting human rights, civil society, and 
good governance are critical to any functioning democracy. If confirmed 
as Ambassador, I intend to meet with these and any other non-
governmental entities in the United States and Liberia that promote and 
reinforce human rights and the rule of law. U.S. assistance was 
critical to rebuilding the Liberian security sector following the 
country's two civil wars, and we share a robust security relationship 
with Liberia today. The Leahy Law helps ensure that U.S. security 
assistance is not provided to a security force unit where there is 
credible information that the unit committed a gross violation of human 
rights. If confirmed, I will continue Embassy Monrovia's efforts to 
implement Leahy vetting and will ensure that our security assistance 
and cooperation activities reinforce human rights.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Our top priority in Liberia is a secure and stable country 
with effective rule of law, good governance, and strengthened human 
rights protections for all. If confirmed, my Embassy team and I will 
actively engage with Liberian officials to address cases of political 
prisoners or persons otherwise unjustly targeted for harassment or 
unjust detention by Liberia, specifically vulnerable populations such 
as women and girls, LGBTI persons, opposition politicians, and members 
of the press. As appropriate, I will partner with like-minded missions, 
civil society, and other key stakeholders to address our concerns with 
a unified voice.

    Question.  Will you and your embassy team actively engage with 
Liberia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Liberia?

    Answer. If confirmed, I will actively engage with Liberia on 
freedom of expression and advocate against any government efforts to 
control or undermine press freedom. I commit to meeting with the 
independent local press in Liberia.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Liberia?

    Answer. Yes, if confirmed, the Embassy team and I will engage with 
civil society and government to counter disinformation and malign 
propaganda disseminated by foreign state or non-state actors.

    Question.  Will you and your embassy teams actively engage with 
Liberia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will advocate for the right of workers to 
organize, including to form independent trade unions.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Liberia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Liberia? What specifically will you commit to do to help LGBTQ people 
in Liberia?

    Answer. Discrimination against LGBTI persons remains a significant 
challenge in Liberia. The topic remains taboo, and the community has 
few safe spaces. The law prohibits consensual same-sex sexual activity; 
``voluntary sodomy'' is a misdemeanor with a penalty of up to one 
year's imprisonment. LGBTI persons report instances of assault, 
harassment, and hate speech by individuals in communities where they 
live. If confirmed, I will call on the Government of Liberia to 
investigate allegations of violence and discrimination targeting LGBTI 
persons. I will partner with civil society and other human rights 
organizations and LGBTI stakeholders to work to improve the conditions 
for LGBTI persons in Liberia.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Michael A. McCarthy by Senator Benjamin L. Cardin

Human Rights
    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. In 2015, while serving as Charge d'Affaires in South Sudan, 
we publicly raised concerns about South Sudanese Government officials' 
human rights violations and abuses following the country's descent into 
crisis in December 2013. This effort put the Government on notice that 
the United States was monitoring the actions of government troops and 
their associated militias and that we were tracking events throughout 
the country. I believe our actions in this capacity inhibited further 
human rights abuses and violations. If confirmed as Ambassador, I 
intend to advocate for the human rights and fundamental freedoms of all 
Liberians.

    Question.  What are the most pressing human rights issues in 
Liberia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Liberia? What do 
you hope to accomplish through these actions?

    Answer. Recent editions of the Department of State's annual Human 
Rights Report note that the most significant human rights issues in 
Liberia include violence against women, including widespread female 
genital mutilation and other harmful practices against women and girls; 
restrictions on freedom of expression for members of the press; harsh 
prison conditions and lengthy pretrial detention; and discrimination 
against lesbian, gay, bisexual, transgender, and intersex (LGBTI) 
persons. If confirmed, I will use my unique platform and voice as the 
U.S. Ambassador, both publicly in my interactions with the Liberian 
people and privately with Liberian officials, on the importance of 
human rights and the rule of law in Liberia. I will engage like-minded 
missions, civil society, government and business leaders, and other 
relevant stakeholders to end these abusive practices.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Liberia in 
advancing human rights, civil society, and democracy in general?

    Answer. Sexual and gender-based violence, female genital 
mutilation, and forced child labor remain widespread in Liberia, with 
high rates of violence committed against minors. These practices and 
the lack of accountability for those responsible are of serious 
concern. The Government of Liberia has undertaken a number of efforts 
to combat what it rightly perceives as major problems, including 
efforts to combat sexual and gender-based violence and forced labor, 
but there remains much to be done. Law enforcement and other civilian 
security agencies suffer from a perennial lack of funding, which leads 
to late payments of salaries and low levels of operational readiness. 
Good governance is also challenged by corruption and a political system 
that places disproportionate influence in individual actors rather than 
institutions or organizations.

    Question.  Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Liberia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Organizations promoting human rights, civil society, and 
good governance are critical to any functioning democracy. If confirmed 
as Ambassador, I intend to meet with these and any other non-
governmental entities in the United States and Liberia that promote and 
reinforce human rights and the rule of law. U.S. assistance was 
critical to rebuilding the Liberian security sector following the 
country's two civil wars, and we share a robust security relationship 
with Liberia today. The Leahy Law helps ensure that U.S. security 
assistance is not provided to a security force unit where there is 
credible information that the unit committed a gross violation of human 
rights. If confirmed, I will continue Embassy Monrovia's efforts to 
implement Leahy vetting and will ensure that our security assistance 
and cooperation activities reinforce human rights.

    Question.  Will you and your embassy team actively engage with 
Liberia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Liberia?

    Answer. Our top priority in Liberia is a secure and stable country 
with effective rule of law, good governance, and strengthened human 
rights protections for all. If confirmed, my Embassy team and I will 
actively engage with Liberian officials to address cases of political 
prisoners or persons otherwise unjustly targeted for harassment or 
unjust detention by Liberia, specifically vulnerable populations such 
as women and girls, LGBTI persons, opposition politicians, and members 
of the press. As appropriate, I will partner with like-minded missions, 
civil society, and other key stakeholders to address our concerns with 
a unified voice.

    Question.  Will you engage with Liberia on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. The U.S. Embassy in Monrovia has served as a powerful and 
consistent advocate for human rights, civil rights, good governance, 
and democracy in Liberia. If confirmed as Ambassador, I will speak with 
an authoritative voice--both publicly to the Liberian people and 
privately with Liberian officials--on the importance of making further 
progress on matters of human rights, civil rights, and governance to 
Liberia's democracy and future prosperity. I will partner with like-
minded missions, civil society, and other key stakeholders to ensure 
that the dialogue with the Government of Liberia on these critical 
issues remains at the top of our bilateral agenda.

Diversity
    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will embrace every opportunity to promote 
diversity and inclusion in the workplace, and encourage new 
perspectives whenever possible. I would ensure the Embassy devotes 
resources to mentoring and support for all staff, including those from 
diverse backgrounds and underrepresented groups. I agree with the 
research that indicates that diverse teams are richer in creativity and 
perspective, and I believe all leaders should embrace a wide range of 
inputs, viewpoints, and backgrounds because it is the right thing to do 
and the smartest management approach. As Director General Perez said in 
testimony recently, this is not just a moral imperative, it is a 
strategic imperative as well.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy in Liberia are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, fostering an environment that is open, 
diverse, and inclusive will be a priority. Proactively, I will make 
sure supervisors within the Embassy complete diversity training on a 
regular basis. As the most senior official within the Embassy, it will 
be my responsibility to set the example for fostering an environment 
that is diverse and inclusive.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply fully with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply fully with all relevant 
federal ethics laws, regulations, and rules, and to raise concerns that 
I may have through appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in Liberia?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes security interests, including stocks, in 
companies, some of which may have a presence in Liberia. I am committed 
to following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

Corruption
    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Liberia 
specifically?

    Answer. Effective, accountable, transparent, responsive, and 
inclusive governance is fundamental to citizen-focused democracy and a 
free market economy, including in Liberia. U.S. support for these 
objectives focuses on improving the ability of Liberian ministries' to 
use public resources in transparent and accountable ways, 
decentralizing service delivery to local authorities so that citizens 
can better access and monitor those services, strengthening Liberia's 
capacity to hold free and fair elections, fostering accountable 
political leadership, as well as strengthening capacity of civil 
society and media organizations as effective advocates for reform.

    Question.  What is your assessment of corruption trends in Liberia 
and efforts to address and reduce it by that government?

    Answer. Corruption is endemic in Liberia and affects nearly every 
facet of life. In 2019, Liberia ranked 137 of 180 countries and 
territories on the Transparency International Corruption Perceptions 
Index, falling from 120 in 2018. In 2012, Liberia ranked 75. Liberia 
has several integrity institutions tasked to monitor and address 
corruption, but these entities lack resources and the political will 
necessary to carry out their mandates. If confirmed, I will press the 
Government of Liberia to reverse these trends and underscore that 
endemic corruption is a key impediment to attracting foreign investment 
and enhancing private sector-led growth.

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Liberia?

    Answer. If confirmed, I will continue to reinforce U.S. values 
including the application of good governance, fiscal transparency, 
improved public financial management, and inclusive economic growth in 
my interactions with President Weah and Government of Liberia 
officials. These values are ingrained in U.S. programming and are the 
foundational elements of the assistance portfolio to Liberia. To 
protect U.S. taxpayer assets, USAID maintains a robust monitoring and 
evaluation program. USAID's direct financing agreement with the 
Ministry of Health is structured as a reimbursement agreement. Under 
this arrangement, USAID only reimburses the Ministry after 
verification, minimizing the risk of the diversion of U.S. Government 
assistance.
    As we do in other countries, the United States will consider 
application of visa sanctions for corrupt officials--including those 
who use corrupt practices or ill-gotten influence to subvert Liberia's 
recently established democratic gains.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. Manisha Singh by Senator Robert Menendez

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Mission will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. If confirmed, I commit to making clear that prohibited 
personnel practices has no place in the federal government and will not 
be tolerated. I agree that those found to have engaged in retaliation 
should be subject to accountability and discipline in accordance with 
U.S. federal labor law and regulation.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I am committed to fostering a culture of 
inclusion and accountability and ensuring that all members of my team 
feel empowered to contribute to our mission. I will ensure that we 
learn from and listen to employees using mechanisms like the Open 
Conversations platform. I will promote habits and practices among the 
leadership that focus on inclusion as a key driver for retaining 
diverse talent. I will promote best practices for inclusive hiring 
practices including standardized interview guidance. I will support the 
review of existing mentoring programs and how they can be bolstered. I 
will encourage greater connectivity for members of my team to share 
their experiences and their expertise.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As Assistant Secretary of State for Economic and Business 
Affairs, I have ensured the implementation of Global Magnitsky and 
other financial sanctions and visa restrictions to promote human rights 
and democracy are at the center of our sanctions policy. Under my 
leadership, the United States used sanctions authorities to protect 
democratic processes, disrupt and deter corrupt acts, and promote 
accountability for those who commit human rights abuses. For example, 
in July 2020 the United States designated Chinese Communist Party 
officials and entities under Global Magnitsky for their role in serious 
human rights abuses in Xinjiang. The United States also designated 
Chinese and Hong Kong officials in July 2020 for their involvement in 
undermining freedom and democratic processes in Hong Kong. In 
Venezuela, the United States has used E.O. 13884 to directly target the 
former Maduro regime and those who support its corruption and 
repression of democracy and human rights. In May 2020, the Department 
designated Iran's Interior Minister, Abdolreza Rahmandi Fazli and 
former head of its intelligence service (MOIS), Ali Fallahian, under 
Section 7031(c) of the Department of State, Foreign Operations, and 
Related Programs Appropriations Act, 2020, for involvement in gross 
violations of human rights. As a result of these actions, my bureau has 
ensured that the United States continues to be a global leader in 
protecting citizens from malign regimes and governments that violate 
the rule of law.
    My prior State Department service includes serving as the Deputy 
Assistant Secretary in the Bureau of International Organization Affairs 
overseeing the IO human rights portfolio. In this position, I attended 
meetings of U.N. human rights bodies as the U.S. representative. I 
worked on matters such as USG supported resolutions that condemned rape 
as a weapon of war and demanded the release of political prisoners. My 
contribution was one of maintaining and amplifying the United States as 
a country that promotes and values human rights.

    Question. What issues are the most pressing challenges to democracy 
or democratic development at the OECD? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights, and press freedom. Please be as specific as possible.

    Answer. The OECD is a group of like-minded countries committed to a 
market economy and a pluralistic democracy. If confirmed, I commit to 
ensuring the integrity of the OECD's peer review process to ensure that 
members live up to their obligations as OECD members. I also commit to 
working to ensure that potential new members demonstrate political 
commitment to core OECD values, including democratic principles, 
respect for rule of law, transparency, and human rights. Finally, I 
commit to encouraging the review of OECD engagement with non-members to 
ensure democratic principles remain key and that engagement is not 
merely done for the sake of engagement.

    Question. What steps will you take--if confirmed--to support 
democracy at the OECD? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. OECD instruments, if implemented in a meaningful way, can 
open markets, develop economies, and help level the playing field for 
U.S. businesses. If confirmed, I will continue to engage with 
policymakers, experts, and stakeholders from like-minded, market-based 
democracies to disseminate our best practices and policy approaches to 
members and non-members. These efforts counter competing authoritarian 
models and bring value to the American taxpayer by helping create and 
expand legitimate investment and financing opportunities for U.S. 
businesses and promoting U.S. job creation.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will support the work of the OECD's 
Development Assistance Committee (DAC). The DAC is an international 
forum of 30 of the largest foreign assistance donors. It develops 
international principles and standards for development cooperation and 
monitors how donors deliver on their commitments. Through our 
participation in the DAC, the United States helps sets the standards 
for effective and transparent assistance, which in turn supports 
democracy and good governance.

    Question. Will you and your embassy teams actively engage with the 
OECD on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The U.S. Mission to the OECD actively engages with the 
Trade Union Advisory Committee (TUAC), which serves as the interface 
for global trade unions with the OECD. It is important that the voice 
of organized labor be heard in the wide range of economic policy 
discussions at the OECD where evidence-based analysis serves as the 
basis for informing policy makers in each of the member states. If 
confirmed, my team and I will continue to actively engage TUAC and 
support its consultative status with the OECD and its various 
committees.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people at the OECD, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in the OECD? What specifically will you commit to do to help LGBTQ 
people in the OECD?

    Answer. I come from an immigrant family, and therefore understand 
first-hand how much diversity contributes to our society. I am the 
first woman and first person of color to be confirmed for my current 
position, and it has been a priority for me to ensure opportunities for 
people from all backgrounds, including LGBTQ people. I am committed to 
listening and learning from others and understanding their challenges. 
In the Bureau of Economic and Business Affairs, I have established a 
Diversity and Inclusion Council composed of diverse senior leadership. 
We are working together to ensure advancement and support of 
underrepresented groups. I have held town hall meetings to solicit 
input on how the bureau can improve opportunities and actively recruit 
diverse candidates. If confirmed, I will continue these practices, 
specifically establishing a council with a focused mission of diversity 
and inclusion and holding regular meetings to hear views of the entire 
staff.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Hon. Manisha Singh by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As Assistant Secretary of State for Economic and Business 
Affairs, I have ensured the implementation of Global Magnitsky and 
other financial sanctions and visa restrictions to promote human rights 
and democracy are at the center of our sanctions policy. Under my 
leadership, the United States used sanctions authorities to protect 
democratic processes, disrupt and deter corrupt acts, and promote 
accountability for those who commit human rights abuses. For example, 
in July 2020 the United States designated Chinese Communist Party 
officials and entities under Global Magnitsky for their role in serious 
human rights abuses in Xinjiang. The United States also designated 
Chinese and Hong Kong officials in July 2020 for their involvement in 
undermining freedom and democratic processes in Hong Kong. In 
Venezuela, the United States has used E.O. 13884 to directly target the 
former Maduro regime and those who support its corruption and 
repression of democracy and human rights. In May 2020, the Department 
designated Iran's Interior Minister, Abdolreza Rahmandi Fazli and 
former head of its intelligence service (MOIS), Ali Fallahian, under 
Section 7031(c) of the Department of State, Foreign Operations, and 
Related Programs Appropriations Act, 2020, for involvement in gross 
violations of human rights. As a result of these actions, my bureau has 
ensured the United States continues to be a global leader in protecting 
citizens from malign regimes and governments that violate the rule of 
law.
    My prior State Department service includes serving as the Deputy 
Assistant Secretary in the Bureau of International Organization Affairs 
overseeing the IO human rights portfolio. In this position, I attended 
meetings of U.N. human rights bodies as the U.S. representative. I 
worked on matters such as USG supported resolutions that condemned rape 
as a weapon of war and demanded the release of political prisoners. My 
contribution was one of maintaining and amplifying the United States as 
a country that promotes and values human rights.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. I come from an immigrant family and understand first-hand 
how much diversity contributes to our society. I am the first woman and 
first person of color to be confirmed for my current position at the 
Department of State, and it has been a priority for me to ensure 
opportunities for people from all backgrounds. In the Bureau of 
Economic and Business Affairs, I established a Diversity and Inclusion 
Council composed of diverse senior leadership. We are working together 
to ensure advancement and support of underrepresented groups. I have 
held town hall meetings with the bureau to solicit views on how the 
bureau can improve opportunities and actively recruit and retain 
diverse candidates. If confirmed to be the Permanent Representative to 
the OECD, I will continue these practices, including establishing a 
council within the mission and promoting diversity and inclusion.

    Question. What steps will you take to ensure each of the 
supervisors under your direction at the OECD are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will establish a council on diversity and 
inclusion and make sure every supervisor understands this is a priority 
issue for the mission. I will also stay personally involved and ensure 
that everyone is actively creating a positive work environment for 
people from all backgrounds. I will hold my staff accountable to the 
highest standards of diversity and inclusion.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes stock in one company with a presence overseas. 
I am committed to following all applicable ethics laws and regulations 
and remaining vigilant with regard to my ethics obligations.



                               __________


            Responses to Additional Questions for the Record
      Submitted to James Broward Story by Senator Robert Menendez

    Question. What is your assessment of specific states and/or 
territory in Venezuela that are not under the complete control of the 
Interim Government or the Maduro regime--i.e. ungoverned territory in 
Venezuela?

    Answer. Venezuela's ungoverned territory is growing and disputed 
among armed actors. The illegitimate Maduro regime and local criminal 
organizations, and infrequently dissident forces, share control in many 
parts of the country. Regime control is probably weakest in Amazonas, 
Apure, Bolivar, Tachira, and Zulia because of their distance from the 
capital, the prevalence of illegally armed groups such as the ELN and 
FARC, the impact of illegal mining, and security force manpower 
shortages. In some instances, we've seen how the Maduro regime has 
actively empowered illegally armed groups, gifting them mines, weapons, 
or items such as medications to enforce their control over territory in 
exchange for political support. This landscape is constantly changing, 
in part depending on the regime's ability to fund and shield the groups 
and sporadic operations to bring them back under regime influence. 
Armed colectivos--armed groups that are largely regime sponsored--
operate in 15 of Venezuela's 23 states, according to a 2019 InSight 
Crime report. If confirmed, I will continue to work with the 
interagency and Congress on transition scenarios, focusing on the 
challenges presented by these ungoverned territories.

    Question. What is your estimate of the number of members of 
Colombia's ELN that operate in Venezuelan territory?

    Answer. According to local and international media, ELN was present 
in 12 of Venezuela's 24 states (with particular strength in Anzotegui, 
Amazonas, Apure, Bolivar, Zulia, and Tchira states). The ELN's presence 
has expanded beyond its historic base in the border zone with Colombia. 
Colombian authorities estimate there are around 3,000 active members of 
the ELN in total, 1,400 of whom the Government assesses are camped 
across the border in Venezuela. Colombian authorities have also 
assessed there are 36 ELN camps strategically located on the Venezuela 
side of the Colombia-Venezuela border.

    Question. What is your assessment of the operations conducted by 
Colombia's ELN operating in Venezuelan territory?

    Answer. The ELN engages in narcotrafficking, illegal mining, money 
laundering, extortion, and kidnapping in Venezuela. Media reports 
indicate an increasing role for the ELN in regime-subsidized food 
distribution, contraband (gas, basic goods, meat), extortion, illegal 
mining, and recruitment propaganda, at times via control of radio 
stations. The ELN is increasingly recruiting vulnerable Venezuelans, 
including children and those seeking to migrate, to join its ranks. 
There were also reports noting sporadic activity by ELN in the areas of 
road/border checkpoints. The unwillingness or inability to counter the 
ELN's illegal activities, and the effect this has on regional 
stability, speak to the need for a democratic transition in Venezuela.

    Question. What is your estimate of the number of members of former 
members of Colombia's FARC that operate in Venezuelan territory?

    Answer. Revolutionary Armed Forces of Colombia dissidents (FARC-D) 
are present in Venezuela, but we do not have reliable estimates of 
their numbers at this time, in part because Venezuela permits criminal 
groups to transit easily and to operate in the border regions. Maduro 
stated publicly in July 2019 that former FARC commanders Ivan Marquez 
and Jesus Santrich are ``leaders of peace'' and ``welcome in 
Venezuela,'' shortly before the two announced a return to armed 
conflict as FARC dissidents. In 2019 in Colombia, an estimated 2,600 
FARC dissidents who never demobilized, left the peace process, or are 
new recruits, continued violent attacks, primarily to enable narcotics 
trafficking and other criminal activities, particularly in border 
regions and areas previously controlled by the former FARC.

    Question. What is your assessment of the operations conducted by 
former members of Colombia's FARC operating in Venezuelan territory?

    Answer. The dissidents of the Revolutionary Armed Forces of 
Colombia (FARC-D) engage in narcotrafficking, illegal mining, money 
laundering, extortion, and kidnapping in Venezuela. Financial ties with 
FARC-D and Venezuelan paramilitary groups facilitate the public 
corruption and graft schemes of the regime to include members of the 
armed forces acting at the behest of Maduro and his inner circle or in 
their own personal interest. Of concern, there were reports noting 
sporadic cooperation with FARC-D in the areas of road/border 
checkpoints, subsidized food distribution, recruitment and forced 
displacement of vulnerable indigenous communities, and trafficking of 
illegal narcotics and gold. These activities contribute to instability 
in the region--one of many reasons why a democratic transition is 
necessary.

    Question. Is it your assessment that there are paramilitary groups 
operating in Venezuelan territory? If yes, please provide a description 
of their numbers, organization, and operations.

    Answer. Yes, I assess there are paramilitary groups operating in 
Venezuela. The groups probably range in size from a few dozen to 
several thousand members, are typically hierarchical in structure, and 
often have some linkage to the Maduro regime or other armed groups 
through alliances or non-aggression pacts. A few of the larger groups 
are likely to oppose a transition from the Maduro regime because of 
their mutually beneficial relationship for maintaining power and money, 
even if there are no ideological ties. They most commonly fund 
themselves with extortion, drug trafficking, and illicit mining.

    Question. What is your estimate of the number of members of 
colectivos operating in Venezuelan territory?

    Answer. I understand there are roughly a dozen armed colectivos 
operating in the country with smaller groups operating within them. It 
is impossible to provide an estimate because the groups evolve and 
combine or divide frequently, depending on their loyalty or resistance 
to the Maduro regime and their ability to control territories.

    Question. What is your assessment of the operations of colectivos 
operating in Venezuelan territory?

    Answer. Armed colectivos are more likely to be legitimized and 
funded by the regime and be more ideologically consistent with it than 
other non-state armed groups. Some colectivo members have overlapping 
membership in a Venezuelan security service. Many are provided with 
identification cards by the Maduro regime and allowed to possess and 
carry firearms. They have been used to quell dissent and conduct 
operations that are too politically sensitive for the regular armed 
forces. The groups are the most powerful in Caracas and the greater 
capital district and near the border. While most armed colectivos 
operate in cahoots with regime authority, some are an expression of 
their community and may accept a transitional government if they are 
allowed full political participation.

    Question. What is your estimate of the number of Cuban intelligence 
personnel (military and/or civilian) operating in Venezuelan territory?

    Answer. The exact number of Cuban intelligence personnel is 
difficult to assess. Actual members of the military may reach several 
thousand and they provide key functions in protecting Maduro and in 
providing surveillance of the armed forces and security apparatus. 
Others may also be involved in providing intelligence inside of 
Venezuela. For example, media reports that the total Cuban presence, 
including medical doctors, may reach between 20,000 and 25,000. It is 
not just the number that is significant, however, but also their role. 
The Department assess Cuban elements are pervasive in Maduro's security 
and intelligence forces, and conduct training exercises and loyalty 
checks to root out anyone who is seen to be sympathetic to the 
opposition.

    Question. What is your assessment of the operations of Cuban 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. Cuban military and intelligence advisors actively support 
Maduro through the provision of security forces, intelligence officers, 
and providing direction to Venezuelan authorities. They equip the 
regime with the tools they need to repress any domestic or internal 
dissent, including in the military. In its 2019 annual report, the 
Casla Institute, a Czech human rights body, revealed the ``systematic 
repression and torture, Cuban influence, and significant changes in the 
methods of torture in Venezuela.''

    Question. What is your estimate of the number of Russian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. According to media reports, as many as 100 Russian troops 
are present in Venezuela, without the constitutionally required consent 
of the legitimate National Assembly.

    Question. What is your assessment of the operations of Russian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. According to publically available sources, current Russian 
support for the Maduro regime includes military advisors and proxies, 
disinformation mechanisms, political influence on the world stage, and 
some financial backing. In return, Russia receives access to Venezuela 
as a potential military power projection platform in the Western 
Hemisphere, a foothold for disinformation and influence campaigns 
against the United States and our allies, and investment payoffs from 
foreign military sales and the exploitation of Venezuela's oil and 
other natural resources.

    Question. What is your estimate of the number of Chinese 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. I do not have unclassified information on the number of 
People's Republic of China (PRC) intelligence personnel operating in 
Venezuela.

    Question. What is your assessment of the operations of Chinese 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. We do not have unclassified information to suggest People's 
Republic of China (PRC) intelligence personnel operate in the country. 
However, of note, Chinese telecommunications firm ZTE has played a 
critical role in the illegitimate Maduro regime's ``fatherland card,'' 
a national identification card program that enables the regime to 
control the population through the delivery of social services, 
purchases of gasoline, and voting. This social control of the 
Venezuelan people is most evident in its use to channel a subsidized 
food program to political supporters. More broadly, I assess that the 
PRC's support for the regime is grounded in protecting its economic 
interests.

    Question. What is your estimate of the number of Iranian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. I do not have unclassified information on the number of 
Iranian intelligence personnel operating in Venezuela.

    Question. What is your assessment of the operations of Iranian 
intelligence personnel (military and/or civilian) operating in 
Venezuelan territory?

    Answer. I do not have unclassified information on the operations of 
Iranian intelligence personnel operating in Venezuela.

    Question. What is your understanding of the value of assets stolen 
from the Venezuelan people by the Maduro regime and the Chavez 
government?

    Answer. Though it is impossible to precisely quantify how much 
public money has been stolen by these regimes, we currently estimate 
the total value of stolen and misspent assets is hundreds of billions 
of dollars.

    Question. What is your understanding of the total value of blocked 
assets in the United States as a result of U.S. sanctions and/or legal 
cases against the Maduro regime, members of the regime, regime 
intermediaries, and/or legal entities related to the regime?

    Answer. I refer you to the Department of the Treasury for details 
on U.S.-based assets blocked under our sanctions. I refer you to the 
Department of Justice for details on the disposition of any assets 
associated with legal cases involving members of the Maduro regime or 
its associated entities.

    Question. What is your understanding of the total value of 
forfeited assets in the United States as a result of U.S. sanctions 
and/or legal cases against the Maduro regime, members of the regime, 
regime intermediaries, and/or legal entities related to the regime?

    Answer. Assets are not forfeited as a result of our Venezuela 
sanctions program. I understand that the Fraud Section of the 
Department of Justice (DOJ) investigates and prosecutes foreign 
corruption through the enforcement of the Foreign Corrupt Practices Act 
and other corruption related statutes. Additionally, I understand DOJ's 
Kleptocracy Asset Recovery Initiative investigates and prosecutes cases 
to seize and forfeit assets linked to foreign corruption which affects 
the U.S. financial system, and to prosecute individuals and entities 
involved where appropriate. I respectfully refer the committee to the 
Department of Justice for additional information on forfeited assets 
and legal cases.

    Question. What is your understanding of the location of these 
forfeited funds and whether they are being held in Department of 
Justice accounts, Department of Treasury accounts, or any other 
location?

    Answer. Under U.S. law, forfeiture orders may be sought in certain 
criminal cases subject to a number of procedural and practical 
limitations. If a case does result in forfeiture of and recovery of 
assets, those funds go into one of two forfeiture funds, one 
administered by DOJ and one by Treasury. I respectfully refer you to 
the Departments of Justice and Treasury for additional information on 
where forfeited funds may be held.

    Question. What is your understanding of the intended use of these 
forfeited funds?

    Answer. The Department of State understands that any funds 
forfeited as a result of the cases described above are and will be used 
in accordance with the rules governing the funds where the assets are 
maintained. The Treasury Forfeiture Fund (TFF) was established in 1992 
for the purpose of managing cash and other resources seized as the 
result of civil or criminal asset forfeiture cases. The TFF is managed 
by the Treasury Executive Office of Asset Forfeiture (TEOAF) for the 
purpose of influencing the consistent and strategic use of the funds by 
law enforcement bureaus to disrupt and dismantle criminal enterprises. 
The Comprehensive Crime Control Act of 1984 established the Department 
of Justice Assets Forfeiture Fund to receive the proceeds of forfeiture 
and to pay the costs associated with such forfeitures. The Fund may 
also be used to finance certain general investigative expenses. These 
authorized uses are enumerated in 28 U.S.C. Sec. 524(c). I respectfully 
refer you to the Departments of Justice and Treasury for additional 
information.

    Question. Do you believe that, to the greatest degree possible, 
these funds should be returned to the Interim Government of Venezuela 
and/or the people of Venezuela for uses related the future 
reconstruction of their country and support for the Venezuelan people?

    Answer. The Department of State believes to the greatest degree 
possible any funds subject to forfeiture, should be returned to the 
people of Venezuela for uses related to the future reconstruction of 
their country, provided doing so can be done in accordance with the 
operative U.S. laws, regulations and processes. I respectfully refer 
you to the Departments of Justice and Treasury for additional 
information concerning the processes for returning such funds.

    Question. Are you aware of press reports suggesting that these 
forfeited assets may have been utilized for expenditures or obligations 
related to the construction of a border wall on the southwestern border 
of the United States?

    Answer. I am aware of press reports suggesting that funds recovered 
in kleptocracy cases involving PDVSA, as well as current and former 
regime officials, have been used to fund the southern border wall.

    Question. What is your understanding or whether any of these 
forfeited funds have been utilized for any expenditures or obligations 
related to the construction of a border wall on the southwestern border 
of the United States?

    Answer. Any funds that were subject to forfeiture are held with 
other funds recovered in all other asset forfeiture cases and the funds 
are utilized according to the mandates for managing the funds 
established by Treasury and DOJ. I respectfully refer you to the 
Departments of Justice and Treasury for additional information.

    Question. What steps are you taking to help the World Food Program 
negotiate access to deliver humanitarian assistance in Venezuela?

    Answer. Along with my USAID and IO colleagues working the WFP 
relationship directly, I have actively supported WFP's negotiations for 
access to Venezuela for over a year. If confirmed, I will continue to 
advocate for the Maduro regime to provide unrestricted and safe access 
to the global humanitarian community to deliver aid directly to those 
who need it, to assess humanitarian situations in real time, and to be 
able to monitor the results of aid delivery.

    Question. Please describe the factors preventing NGOs from 
registering and/or expanding assistance in Venezuela and what specific 
steps the State Department and USAID are taking to address these 
challenges.

    Answer. The illegitimate Maduro regime has made it extremely 
difficult for international NGOs to legally register and for 
humanitarian workers to obtain visas. This, coupled with ongoing 
logistical impediments and security concerns for our partners, prevents 
humanitarian organizations from responding at a scale commensurate with 
the needs created by this economic and political crisis. 
Notwithstanding, partners continue to provide life-saving assistance 
where possible, and we commend them for these efforts in such difficult 
circumstances. As long as it is possible for USG partners to operate on 
the ground inside Venezuela, we will continue to work to provide them 
with support to help save lives.

    Question. The loss of livelihoods and evictions resulting from the 
COVID-19 crisis have prompted tens of thousands of Venezuelans to 
return from neighboring countries. Knowing the generalized conditions 
of deprivation and human rights abuses perpetrated by the Maduro regime 
and armed groups, what specific threats or challenges do returnees face 
in Venezuela? Please describe any humanitarian assistance the United 
States has provided to meet the needs of returnees in Venezuela.

    Answer. COVID-19 prevention and mitigation measures in countries 
hosting Venezuelan refugees have contributed to an influx of returns to 
Venezuela, primarily from Colombia, as well as from Brazil, Ecuador, 
and Peru. As of late June, IOM reports that approximately 96,000 people 
have returned to Venezuela through formal crossings since mid-March. We 
are deeply concerned about the returnees making the voyage across the 
border region. Venezuelan returns should take place in conditions of 
safety and dignity. Conditions in Venezuela are not safe or conducive 
to large-scale assisted returns. On the Venezuela side of the border, 
returnees face a 14-day quarantine upon entry, and relief actors report 
that quarantined returnees require food, water, and shelter assistance. 
Due to limited access in border states and at the overcrowded and 
inadequate quarantine shelters managed by Maduro-aligned officials, 
humanitarian organizations that we support are already struggling to 
reach all individuals in need.

    Question. What is your understanding of the estimated value and/or 
volume of illegally mined gold exported from Venezuela? What are the 
major countries of export?

    Answer. By its nature, it is extremely difficult to estimate with 
any certainty the value, volume, or destination of illegally mined 
gold. Various sources estimate that 70% to 90% of the mined gold is 
smuggled out of the country illegally in operations often conducted in 
active cooperation with Maduro regime officials. Also, increased 
numbers of Venezuelans have turned to artisanal gold mining because of 
a lack of alternative economic opportunity. The private consulting firm 
Ecoanalitica, estimated the value of illegally mined gold smuggled from 
Venezuela in 2018 at $2.71 billion. The amounts have almost certainly 
gone up since that time. Gold is smuggled out both by land and by air 
to a wide range of countries. We believe that the countries that are 
the largest destinations for Venezuelan gold include Colombia, Brazil, 
Guyana, Turkey and the United Arab Emirates.

    Question. Please provide a list of companies and/or officials the 
United States has sanctioned to date for involvement in the trade of 
illegally mined gold and minerals from Venezuela.

    Answer. I understand the U.S. Department of the Treasury's Office 
of Foreign Assets Control (OFAC) has designated multiple persons 
pursuant to Executive Order (E.O.) 13850, as amended, for operating in 
the gold sector of the Venezuelan economy, and has also designated, 
under other authorities, persons involved in the Venezuelan gold 
industry. Most notably, on March 19, 2019, OFAC designated CVG Compania 
General de Mineria de Venezuela CA, or Minerven, the Venezuelan state-
run ferrous metals mining company, and its President, Adrian Antonio 
Perdomo Mata.

    Question. What additional specific steps can the United States 
take, along with other international actors, to ensure that companies 
that purchase, sell, and trade gold are following regulations and not 
unwittingly supporting illegally gold mining operations in Venezuela 
(Note: this question is not asking for a list of steps taken thus far 
by the U.S. Government)?

    Answer. The United States could take additional steps to try and 
increase transparency in the global gold supply chain by promoting 
effective due diligence procedures and management standards to 
encourage the traceability and sourcing of gold and mercury (used to 
extract gold from ore), and discourage the use/sale/importing of gold 
that cannot be sourced transparently and responsibly to non-sanctioned, 
source countries. The United States could encourage, support and 
coordinate with NGOs and other civil society entities in efforts to 
expand ongoing work on gold in Latin America, and to promote best 
practices of Artisanal and Small-Scale Gold Mining (ASGM). The United 
States could increase work with and support OECD processes focused on 
promotion of supply chain due diligence for gold from Latin America. 
The United States could initiate an outreach campaign focused on all 
relevant industries/commercial sectors involved in gold supply chain, 
domestically and internationally, to urge increased supply chain 
management and uses of due diligence standards. The United States could 
also seek to make gold supply chain issues a larger part of the agenda 
in bilateral outreach with: countries suspected of or known to provide 
markets for Venezuelan gold, e.g. Turkey, UAE, Uganda, Switzerland; 
countries suspected of or known to provide transit and smuggling routes 
for Venezuelan gold, e.g., Colombia, Guyana, Brazil and Panama; and 
countries known to be a source of mercury used in illegal gold mining 
or in the mercury supply chain, e.g. Mexico, Indonesia and Bolivia.

    Question. Does the U.S. need additional regulations to ensure that 
companies that purchase, sell, and trade gold are not unwittingly 
supporting illegally gold mining operations in Venezuela?

    Answer. I do not believe that new regulations, if deployed, would 
be able to ensure that companies that purchase, sell, and trade gold 
are not unwittingly supporting illegal gold mining operations in 
Venezuela. However, new tools could assist in confronting the 
significant challenge presented by the gold supply chain. The 
Department of State has had discussions with interagency partners which 
suggest that new legislation, and possibly new regulatory authorities, 
could potentially help in the fight against illegal mining, smuggling 
and sales of Venezuelan gold.

    Question. What is your assessment of the environmental impact of 
illegal mining in Venezuela? Please describe any U.S. diplomatic 
efforts and foreign assistance to mitigate or remediate this impact?

    Answer. The illegitimate Maduro regime has allowed practices in 
Venezuela's Arco Minero that have wrought vast ecological damage to the 
vital Amazonian landscape, including the use of harmful toxins such as 
mercury. Mercury released to the environment harms human health 
primarily through eating fish with high mercury levels, and is also 
transported thousands of miles in the atmosphere to be deposited in 
other countries. Artisanal and small-scale mining without proper 
regulatory controls also leads to widespread deforestation, 
biodiversity loss, and contaminated waterways. In 2019, the Treasury 
Department announced sanctions against the Venezuelan state-owned gold 
sector company, MINERVEN and its president. We have also engaged our 
international partners to take a firm stance against illicit gold 
mining. We believe a swift political transition is the single best and 
most effective way to reduce these and other abuses and remain focused 
on uprooting the cause: the Maduro regime.

    Question. What specific steps is the United States undertaking to 
combat human trafficking related to illegal mining in Venezuela, 
particularly among indigenous communities?

    Answer. The State Department's Trafficking in Persons report notes 
the illegitimate Maduro regime does not fully meet the minimum 
standards for the elimination of trafficking and is not making any 
efforts to do so; therefore Venezuela remains on Tier 3. Illegal mining 
operations exist in Venezuela's remote regions, including Bolivar 
state, where an estimated 45 percent of miners are underage and 
vulnerable to trafficking. In mining communities, traffickers exploit 
women and girls, including indigenous women and girls, in sex 
trafficking; traffickers force children to work in mines under 
dangerous conditions. If confirmed, I will continue to work with the 
international community and Venezuela's brave human rights advocates to 
promote the protection of those whose lives are affected by the illicit 
mining industry, including Venezuela's indigenous communities.

    Question. In the absence of a political transition, what steps do 
we need to take to address the security threats--both to the United 
States and to regional partners, including Colombia--posed by the armed 
actors operating in Venezuela's ungoverned territories?

    Answer. The non-state armed groups operating with impunity within 
Venezuela's ungoverned territories present a significant security 
threat to the Venezuelan people, the region, and the United States. The 
Department is collaborating with our interagency partners to better 
understand the nature of the threat and identify strategies to mitigate 
these threats. If confirmed, I will work closely with Venezuela's 
democratic actors and our international partners to address the threat 
these groups pose to our country and region.

    Question. What is your understanding of current U.S. policy on the 
deportation of Venezuelan nationals? We understand there are no direct 
flights to Venezuela from the United States, and we recently heard 
testimony from administration witnesses that the United States is no 
longer deporting Venezuelans.

    Answer. As U.S. Special Representative for Venezuela Abrams stated, 
we understand that Venezuelans who have not committed crimes are not 
currently being deported. However, I would have to refer you to the 
Department of Homeland Security for more information as they manage the 
removal program.

    Question. During your tenure as Charge d'Affaires, are/were you 
aware of any incidents of the United States deporting, removing, or 
transferring any Venezuelan nationals on indirect flights through third 
countries (if yes, please provide details about the country and/or 
countries, and an estimate of the number of Venezuelan nationals)?

    Answer. I was made aware of removals of some Venezuelan nationals 
through Trinidad and Tobago between January and March 2020. I refer you 
to the Department of Homeland Security for additional details.

    Question. During your tenure as Charge d'Affaires, are/were you 
aware of any incidents of the United States deporting, removing, or 
transferring any Venezuelan nationals on indirect flights to third 
countries (if yes, please provide details about the country and/or 
countries and an estimate of the number of Venezuelan nationals)?

    Answer. I am not aware of any removals of Venezuelan nationals to 
third countries. I refer you to the Department of Homeland Security for 
additional details.

    Question. What is your understanding of the number of Venezuelans 
that have been deported, removed, or transferred from the United States 
to date in FY 2020?

    Answer. I refer your question to the Department of Homeland 
Security for any information held on these figures.

    Question. What is your understanding of the last date when a 
Venezuelan national was deported, removed, or transferred from the 
United States to another country?

    Answer. I refer your question to the Department of Homeland 
Security for any information held on these figures.

    Question. What additional steps do we need to take to counter the 
Cuban regime's continued activities inside Venezuela?

    Answer. The Department and White House have condemned Cuban 
interference in Venezuela, and if confirmed, I would encourage our 
partners to do the same. Among financial and visa restrictions on Cuban 
individuals and/or entities supporting the illegitimate Maduro regime, 
the U.S. Government has targeted firms, vessels, and Cuban state-owned 
enterprises engaging in transactions related to the provision of 
Venezuelan oil to Cuba, squandering a Venezuelan natural resource to 
the detriment of the Venezuelan people. If confirmed, I would also seek 
additional opportunities to implement appropriate measures in 
connection with Cuban individuals and/or entities responsible for 
funding or otherwise enabling the Maduro regime.

    Question. What changes do we need to make to address Putin's 
continued maneuvering in Venezuela?

    Answer. The Department and White House have condemned Russian 
interference in Venezuela and, if confirmed, I would encourage our 
partners to do the same. Moreover, the U.S. Government has targeted 
Russian firms, vessels, and state-owned enterprises engaging in 
transactions involving Venezuelan oil, including Rosneft Trading S.A. 
and TNK Trading International, to indicate that we no longer are merely 
messaging on Russia's interference, we are taking action. If confirmed, 
I would seek additional opportunities to implement appropriate measures 
in connection with Russian individuals and/or entities responsible for 
funding or otherwise enabling the illegitimate Maduro regime.

    Question. What additional steps do we need to take to put a stop to 
Turkey's transactions in Venezuelan gold and oil?

    Answer. The State Department, working with our interagency 
partners, has taken strong steps against the illegitimate Maduro 
regime, including on its ability to trade gold and oil. The Department 
of the Treasury last year designated a Turkish company that was used to 
facilitate payments made as a part of Alex Saab's corruption network 
for the sale of gold in Turkey. We are working to uncover other 
networks for disruption through sanctions and other actions. As we see 
evidence of inappropriate links between Turkey and the Maduro regime 
continuing, if confirmed, I will continue to work with our interagency 
partners to develop responses to break these links and coordinate with 
Department colleagues to engage diplomatically with Turkey on halting 
its inappropriate activities with Venezuela.

    Question. What additional steps do we need to take to better 
counter Iran's support for Maduro?

    Answer. If confirmed, I would continue the Department of State's 
work with our partners to condemn, limit, and counter Iran's ability to 
support the illegitimate Maduro regime. The international business 
community should already be aware of the sanctions risk of transacting 
with the illegitimate regime. If confirmed, I would seek additional 
opportunities to implement appropriate measures in connection with 
Iran's ties to Maduro.

    Question. How can we make it clear to Beijing that continued 
support for Maduro will not be overlooked and will come with a cost?

    Answer. China's support for the regime is grounded in protecting 
its own economic interests. China could play a constructive role in 
helping end the humanitarian suffering in Venezuela, but declines to do 
so. Instead its actions are taking hundreds of millions of dollars from 
the Venezuelan people and providing the regime diplomatic support. If 
confirmed, I will continue to work with our regional allies to 
demonstrate China's support for Maduro comes at the cost of its long-
term interests in the region, and will seek additional opportunities to 
implement appropriate measures to prevent China from further enabling 
the illegitimate Maduro regime.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. I support fully the Department's policy to vigorously 
protect employees' rights to engage in protected activities. If 
confirmed, I will make clear to my team that retaliating against 
employees who engage in protected activities is prohibited and that 
those who retaliate will be held accountable. If confirmed, I will work 
to ensure that any employee found to have engaged in unlawful 
retaliation will be held accountable for their actions.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. Throughout my career at the State Department, I have 
greatly benefited from the support and guidance of supervisors and 
colleagues who are committed to fostering a strong, diverse, and 
inclusive workforce at the Department. Having twice served as an Equal 
Employment Opportunity Counselor at posts abroad, I am committed to 
supporting a diverse workforce. If confirmed, I am committed to 
fostering a culture of inclusion and accountability at the Venezuela 
Affairs Unit and ensuring that all members of my team feel empowered to 
contribute to our mission. I will ensure that we learn from and listen 
to employees using mechanisms like the Open Conversations platform. I 
will promote habits and practices among the leadership that focus on 
inclusion as a key driver for retaining diverse talent. I will support 
the review of existing mentoring programs and how they can be 
bolstered. I will encourage greater connectivity for members of my team 
to share their experiences and their expertise with our Mission.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules, and to raising concerns that I may have through 
appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Respect for human rights and democracy produces peace, 
stability, and prosperity--making it an integral component of U.S. 
foreign policy and U.S. national security. As a career diplomat, 
promoting human rights and democracy has been a central focus of my 
work throughout my career. As the INL Director in Colombia, we 
emphasized human rights training in our support of the Colombian 
National Police, as well as created scholarship programs for Afro-
Colombians and Indigenous people to join the police in order to create 
a more representative police force. While the Director of INL for the 
Western Hemisphere, we created a series of programs with human rights 
and democracy as its focus, including from police vetting programs and 
citizenship kiosks in Mexico, to conducting placed-based initiatives in 
Central America to connect police to the community in a positive way. I 
personally met with numerous human rights and democracy NGOs throughout 
Central America to understand their concerns and participated in 
bilateral meetings focused on human rights. Support for human rights 
and democracy is a cornerstone of our foreign policy. If confirmed, I 
look forward to continuing my current work to secure a peaceful 
transition to democracy in Venezuela, alongside the interagency and 
Congress.

    Question. Will you and your embassy teams actively engage with 
Venezuela on the right of labor groups to organize, including for 
independent trade unions?

    Answer. I support working with labor groups to promote worker 
rights in Venezuela, including freedom of association to form and join 
trade unions, including independent trade unions. If confirmed, I will 
work with my Embassy, State, and interagency colleagues to advocate for 
protecting workers' rights.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Venezuela, no 
matter their sexual orientation or gender identity What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Venezuela? What specifically will you commit to do to help LGBTQ 
people in Venezuela?

    Answer. I am proud of my work defending the human rights and 
fundamental freedoms of all people in Venezuela, including LGBTI 
persons. LGBTI persons in Venezuela often face violence, abuse, and 
discrimination in access to healthcare, employment, education, and the 
judicial system. If confirmed, I will continue to support the 
Department's efforts to protect LGBTI persons from these types of human 
rights abuses.



                               __________


       Responses to Additional Questions for the Record Submitted
          to James Broward Story by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Respect for human rights and democracy produces peace, 
stability, and prosperity--making it an integral component of U.S. 
foreign policy and U.S. national security. As a career diplomat, 
promoting human rights and democracy has been a central focus of my 
work throughout my career. As the INL Director in Colombia, we 
emphasized human rights training in our support of the Colombian 
National Police, as well as created scholarship programs for Afro-
Colombians and Indigenous people to join the police in order to create 
a more representative police force. While serving as Director of INL 
for the Western Hemisphere, I and my team created a series of programs 
with human rights and democracy as its focus, from police vetting 
programs and citizenship kiosks in Mexico, to conducting placed-based 
initiatives in Central America to connect police to the community in a 
positive way. I personally met with numerous Human Rights and Democracy 
NGOs throughout Central America to understand their concerns and 
participated in bilateral meetings focused on Human Rights. Support to 
Human Rights and Democracy is a cornerstone of our foreign policy. If 
confirmed, I look forward to continuing my current work to secure a 
peaceful transition to democracy in Venezuela, alongside the 
interagency and Congress.

    Question. What are the most pressing human rights issues in 
Venezuela? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Venezuela? What do 
you hope to accomplish through these actions?

    Answer. The existence of the illegitimate and authoritarian Maduro 
regime in Venezuela is the single source of the most pressing human 
rights issues in Venezuela. In 2019 and 2020, the U.N. Office of the 
High Commissioner for Human Rights issued reports on several grave 
human rights violations and abuses in Venezuela. The accounts include 
reports of extrajudicial killings, disappearances, torture, political 
prisoners, impunity for human rights violations, the absence of free 
and fair elections, and the failure to respect basic rights, including 
the right to peaceful assembly, freedom of association, and freedom of 
expression, including for the press. Human rights violations associated 
with illegal mining are pervasive across southern Venezuela, and 
frequently have a disproportional impact on women and children. If 
confirmed, I will work to ensure our Department bureaus and embassies 
remain engaged bilaterally and multilaterally on the importance of 
protecting human rights and defending democracy in Venezuela. I will 
continue to partner with Venezuelan collaborators and civil society 
interlocutors on pressing human rights issues, and to publicly express 
the need to strengthen an impartial justice system to prosecute those 
responsible for human rights violations and abuses and anti-democratic 
abuses in Venezuela. I will also engage through U.S. interagency 
programs to help build the capacity of Venezuela's human rights, civil 
society, and democracy advocates.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Venezuela in 
advancing human rights, civil society, and democracy in general?

    Answer. The current illegitimate Maduro regime is the most 
significant obstacle to addressing key human rights issues in 
Venezuela. Challenges include a relatively underdeveloped civil society 
in Venezuela that is actively threatened by a brutal regime and its 
allied criminal groups. I remain concerned with the ongoing 
manipulation of the judiciary system by the regime, which has stopped 
functioning as an independent branch of government. There are also no 
guarantees scheduled elections will adequately ensure electoral 
integrity or reflect the free will of the Venezuelan people. If 
confirmed, I will continue the U.S. Department of State's advocacy to 
establish a transitional government to oversee free and fair 
presidential elections that will promote and demonstrate respect for 
human rights, civil society, and the strengthening of democratic 
institutions in Venezuela.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Venezuela? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I will continue to build on the vigorous momentum gained 
from our diplomatic efforts engaging NGOs in the United States and 
Venezuela to uphold democracy and respect for human rights in 
Venezuela. At this time, the United States does not provide security 
assistance for Venezuelan security forces. If confirmed, I 
wholeheartedly commit to prohibit providing U.S. assistance to units of 
foreign security forces where there is credible information that such 
unit committed a gross violation of human rights. I will pro-actively 
work to ensure Leahy vetting compliance working with staff at the U.S. 
Embassy; the Bureau for Democracy, Human Rights, and Labor in 
Washington, DC, the lead State Department bureau for vetting; the 
Department's Western Hemisphere Affairs regional bureau; and other 
government agencies as required.

    Question. Will you and your embassy team actively engage with 
Venezuela to address cases of key political prisoners or persons 
otherwise unjustly targeted by Venezuela?

    Answer. Respect for and defense of human rights are a cornerstone 
of democracy. If confirmed, I will tirelessly seek the immediate 
release of all political prisoners and persons unjustly targeted for 
detention by the regime. Along with my embassy team, we will continue 
to work with our Venezuelan partners in the vital work of promoting the 
protection of human rights for all in Venezuela.

    Question. Will you engage with Venezuela on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. A vibrant and thriving democracy requires respect for human 
rights and fundamental freedoms, including protection of civil and 
political rights, and transparent and accountable governance, all of 
which the illegitimate Maduro regime has brutally sought to repress. If 
confirmed, I will engage to help strengthen these key pillars of 
democracy and help the Venezuelan people restore respect for their 
human rights and fundamental freedoms.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will work diligently to foster a culture of 
inclusion and representative workforce. I will also work to encourage 
and promote Diversity and Inclusion in the hiring process through 
standardized interview procedures and recruiting from the broadest 
possible base of candidates. I will promote the expansion of workplace 
flexibilities, including telework and alternative work schedules, and 
Leave Without Pay (LWOP) options. I will learn from and listen to 
employees using mechanisms such as the Open Conversations platform and 
the Department's new Centralized exit survey.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Venezuela are fostering an environment 
that is diverse and inclusive?

    Answer. I have twice been an Equal Employment Opportunity Counselor 
and take issues of diversity and inclusion seriously. If confirmed, I 
will support and promote the efforts the Department is currently 
undertaking to ensure leaders under my direction are fostering a 
culture and environment of inclusion. I will promote habits and 
practices among the leadership that focus on inclusion as a key driver 
for retaining diverse talent. I will promote Diversity and Inclusion 
Best Practices and tips for inclusive hiring practices and standardized 
interview guidance. If confirmed, I will also support the review of 
existing mentoring programs and identify opportunities for 
improvements.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Venezuela?

    Answer. My investment portfolio includes sector and diversified 
mutual funds, which may hold interests in companies with a presence in 
Venezuela, but which qualify for exemptions from the conflict of 
interest laws. I am committed to following all applicable ethics laws 
and regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Venezuela 
specifically?

    Answer. Political corruption is caustic to democratic governance 
and the rule of law. Corrupt politicians and government officials 
become consumed with preserving power and amassing personal wealth 
rather than prioritizing the responsible stewardship of government 
institutions for the benefit of the people. This is definitely true in 
Venezuela, where Nicolas Maduro and his regime have damaged Venezuela's 
institutions, economy, and infrastructure through misappropriation of 
state funds and the abuse of state power. The resulting deterioration 
of economic and social conditions within Venezuela make Maduro 
increasingly unpopular with the Venezuelan people, prompting the regime 
to employ heavy-handed tactics to neutralize opposition and subdue the 
population. This behavior is the antithesis of democratic governance 
and rule of law. If confirmed, I will continue to use all available 
tools to promote democratic governance and rule of law in Venezuela.

    Question. What is your assessment of corruption trends in Venezuela 
and efforts to address and reduce it by that government?

    Answer. Since he came to power in 2013, Maduro has plundered the 
country's natural resources and driven a once prosperous nation into 
economic ruin with an authoritarian rule and socialist economic 
policies, all while enriching himself, his family, and his closest 
supporters. Venezuela has cash accounts existing outside of its 
national territory valued at several billions of dollars, and the 
illegitimate Maduro regime has sought to steal from them. Sanctions, 
diplomatic efforts, and internationally recognized best practices for 
foreign accounts have thus far prevented the Maduro regime from seizing 
these assets. If confirmed, I will continue to advocate for tracking 
and preserving Venezuelan held assets in foreign countries. These funds 
belong to the Venezuelan people.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Venezuela?

    Answer. If confirmed, I will continue our robust support of 
Venezuela's democratic actors as they seek to restore democracy to 
Venezuela. We will continue to lead international efforts to seek to 
compel Maduro and members of his regime to accept free and fair 
elections in Venezuela, organized by a broadly acceptable transitional 
government as proposed in the Democratic Transition Framework. I also 
will ensure that we support those investigating the regime's vast 
corruption and engaging with law enforcement entities to bring the 
kleptocratic members of the Maduro regime to justice. Activities such 
as these are essential in ensuring a stable, peaceful transition.



                               __________





                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2020

                                       U.S. Senate,
                            committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:50 a.m. in Room 
SD-106, Dirksen Senate Office Building, Hon. James E. Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Barrasso, Portman, Cruz, Menendez, Cardin, Shaheen, 
Murphy, Kaine, and Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. As such with that, we will proceed to the 
hearing from nominees for three different positions. We have 
Mr. Ashok Pinto to be United States Alternate Executive 
Director of the International Bank for Reconstruction and 
Development; the Honorable William Todd, a career member of the 
Senior Executive Service, to be Ambassador to the Islamic 
Republic of Pakistan; Mr. Ueland to be Under Secretary of State 
for Civilian Security, Democracy, and Human Rights.
    Senator Thune will be here momentarily and is going to make 
an introduction, but in any event, I think we will proceed and 
as soon as Senator Thune gets here, we will give him the 
courtesy of having the floor.
    [Chairman Risch's prepared statement follows:]


               Prepared Statement of Hon. James E. Risch

    I welcome each of you to the committee. I thank each of you for 
your commitment to public service and for your willingness to appear in 
person in light of current circumstances.
    First, we have Mr. Ashok Pinto, to be United States Alternate 
Executive Director of the International Bank for Reconstruction and 
Development (IBRD). Mr. Pinto is currently the Senior Advisor to the 
U.S. Executive Director of the IBRD. He previously served as Counselor 
to the Under Secretary for International Affairs at the Treasury 
Department He has also been a staffer for multiple committees in 
Congress.
    Next we have Ambassador Bill Todd. Ambassador Todd currently serves 
as Deputy Under Secretary of State for Management. He has previously 
served as the U.S. Ambassador to Brunei and Cambodia.
    Finally, we have Mr. Eric Ueland be Under Secretary of State for 
Civilian Security, Democracy, and Human Rights (known at the Department 
as ``J''). I'm glad to see this important position being filled, it 
covers a range of issues from civilian security, to refugees, to 
trafficking.
    Mr. Ueland currently serves in the Bureau of International 
Organization Affairs at the State Department and recently served as 
Assistant to the President and Director of White House Legislative 
Affairs. He has also worked as director of the Office of U.S. Foreign 
Assistance Resources at the State Department and as a senior advisor to 
the Millennium Challenge Corporation. Prior to joining the Executive 
Branch, he served as staff director of the Senate Budget committee and 
as chief of staff to former Senate Majority Leader Bill Frist.
    With that, I recognize Senator Menendez.


    Senator Menendez, any comments?

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me address 
the three nominees.
    Ambassador Todd, I am eager to hear your vision for our 
relationship with Pakistan as the region goes through a 
potentially historic transformation with the peace process in 
Afghanistan. While we hope for forward progress with Pakistan, 
we must be clear-eyed by the significant challenges in the 
relationship, including the stubborn presence of terrorist 
groups in the country, tensions with India, treatment of 
religious minorities, and concern about Pakistan's growing 
nuclear stockpile.
    I remain deeply concerned about the prevalence of terrorist 
groups in the country and their impact on the region. Progress 
has been made but Pakistan must take further action to address 
this insidious threat especially Lashkar-e-Taiba. For too long, 
this group has been able to operate in different forms over the 
years. If Pakistan wants us to take its counterterrorism 
commitments seriously, it must completely eradicate this group.
    In addition, I have grown increasingly concerned about the 
plight of religious minorities in the country and called upon 
the Pakistani authorities to respect religious rights of all in 
the country.
    Finally, I do feel compelled to note that your nomination 
has received some unusual attention for a career nominee. We 
have received some strong recommendations of support, and at 
the same time, others have voiced significant opposition based 
on your performance as a senior management official at State. 
And while we are not in a position to get to the bottom of all 
this at this time, I believe it is important for members of the 
committee to be aware.
    Mr. Ueland, my impression is that you are an intelligent 
person, but that alone is not a qualification to be the Under 
Secretary for Civilian Security, Democracy, and Human Rights. I 
am sorry to say that Mr. Ueland's nomination appears to be 
another case of the Trump administration playing musical chairs 
with senior positions at the State Department. The President 
originally nominated Mr. Ueland to be Under Secretary for 
Management, but that nomination did not move forward because of 
concerns from then Chairman Corker. In August of 2018, the 
President nominated Marshall Billingslea to be Under Secretary 
for Civilian Security, Democracy, and Human Rights, but that 
nomination failed due to Mr. Billingslea's support for torture. 
Now Mr. Billingslea is nominated for another Under Secretary 
position, and you, Mr. Ueland, have taken his place.
    There is an element of farce to this, but I for one am not 
amused. These are serious jobs that require subject-matter 
expertise and experience. I recognize that you are well versed 
on budget matters, including a short stint at the State 
Department, but this is not a budget job. This is about 
enhancing our own security by helping others build more just, 
more humane, and more democratic societies.
    These very principles are under assault by autocratic 
leaders around the world, many of them coddled by President 
Trump. And as so many in this country and across the globe have 
witnessed with horror, the President is doing his best to trash 
them here at home too. We have learned that the President 
expressed approval of concentration camps in Xinjiang. His 
administration has intentionally separated migrant children 
from their parents, denied individuals their right to seek 
asylum, downplayed human rights abuses in countries like North 
Korea to the Persian Gulf, coddled a dictator who ordered the 
brutal murder of journalist and U.S. resident Jamal Khashoggi, 
actively rolled back reproductive health care at home and 
abroad, verbally attacked the principle of freedom of the 
press, assaulted peaceful protesters exercising their First 
Amendment rights, and undermined the rule of law in countless 
ways. Sadly, the list goes on and on.
    So do you agree with these actions, Mr. Ueland? Is this 
your vision of America? If you are confirmed, you will be 
defending these atrocities and advancing others, all indelible 
stains on our national character.
    Finally, I look forward to hearing from Mr. Pinto about he 
plans to use his position to advocate for the United States and 
ensure the continuation of the critical work that the World 
Bank does across the world, especially at a time when COVID-19 
has ravaged the globe.
    With that, Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Senator Thune, welcome to the United States Senate Foreign 
Relations distinguished and amiable committee as you can see. 
We are welcomed to have you. I understand you would like to 
make an introduction.

                 STATEMENT OF HON. JOHN THUNE,
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Yes, sir. Thank you, Mr. Chairman. I can see 
you but you are a long ways away.
    I want to say, Chairman Risch and Ranking Member Menendez, 
thank you for the opportunity to introduce Ashok Pinto to the 
committee as you consider his nomination to serve as the 
Alternative Executive Director of the International Bank for 
Reconstruction and Development. I strongly recommend him to the 
committee and hope that you will move quickly to confirm his 
nomination.
    Ashok currently serves as senior advisor to the U.S. 
Executive Director, D.J. Norquist at the World Bank. Before 
that, Ashok served as counselor to the Under Secretary for 
International Affairs and counselor to the General Counsel of 
the Treasury Department.
    During my tenure as chairman of the Commerce Committee, 
Ashok served on my Commerce Committee staff from 2015 to 2018. 
He led the Commerce Committee's consumer protection and 
investigation staff during that time. In this role, he helped 
lead numerous important legislative and investigative 
initiatives on a wide-ranging set of issues under the 
jurisdiction of the committee, from aviation to cybersecurity 
to data protection matters.
    The Commerce Committee is perhaps one of the more 
bipartisan committees in the Senate even with regard to the 
investigations conducted by the committee, and I am sure that 
you will find that many of the Democratic staff on the Commerce 
Committee enjoyed working with Ashok. Ashok is exceptionally 
bright and he is a friendly and kind-hearted individual of 
character who is very well suited for this position.
    I wish Ashok and his family well as they embark on this new 
chapter in his career. Ashok and his wife Preeya have four 
children and a loving extended family who I am sure are all 
very proud of him today.
    The Senate nominations process is not for the faint of 
heart, especially these days, and I applaud Ashok for the 
commitment to--his commitment, I should say, to serve the 
public. And I again urge this committee to support his 
nomination. This is a nomination that deserves strong 
bipartisan support.
    I would also, as long as I am here, Mr. Chairman, like to 
add a word of congratulations to Eric Ueland who is also 
appearing before you today to testify regarding his nomination 
to be Under Secretary of State. Many of us have benefited from 
Eric's wise counsel during his years of service to the Senate 
and the executive branch.
    Mr. Chairman, thank you again. Thanks to Ranking Member 
Menendez for the opportunity to introduce Ashok to the Foreign 
Relations Committee. I look forward to working with you to 
advance this nomination.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Thune. We appreciate you 
coming up and recommending Mr. Pinto, particularly your 
description of his kindness. This committee loves kindness.
    Mr. Pinto, the floor is yours

  STATEMENT OF ASHOK MICHAEL PINTO, OF ILLINOIS, TO BE UNITED 
 STATES ALTERNATE EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK 
   FOR RECONSTRUCTION AND DEVELOPMENT FOR A TERM OF TWO YEARS

    Mr. Pinto. Chairman Risch, Ranking Member Menendez, and 
members of the committee, thank you for the opportunity to 
appear before you today. And thank you, Senator Thune, for that 
kind introduction and for all you do for the people of South 
Dakota and our nation. I am extremely grateful to have served 
on the Commerce Committee under your exemplary leadership.
    And I also want to, as a former Senate staffer, recognize 
and sincerely appreciate the hard work of your staffs in making 
this hearing possible.
    It is the honor of a lifetime to be President Trump's 
nominee to be Alternate U.S. Executive Director to the 
International Bank for Reconstruction and Development, a key 
component of the World Bank. I am grateful to Secretary 
Mnuchin, Deputy Secretary Muzinich, and Under Secretary 
McIntosh for their confidence in recommending me for this 
position. Also, the encouragement and assistance from my 
colleagues at the U.S. Treasury Department and the World Bank 
have been inspiring.
    I would not be here today without the love and support of 
my family: my beloved wife Preeya and our four wonderful 
children, Seraphina, Lucy, John, and Joseph.
    My parents also deserve special thanks for their unwavering 
support. They came to the United States as graduate students. 
Now they have been in this country much longer than their 
formative years in India. My parents instilled in me a spirit 
of service and an appreciation of other cultures. Because of 
their countless sacrifices and constant encouragement, my 
brother Jay, a physician; my sister Susanna, a journalist; and 
I have had every opportunity to excel in our chosen 
professions. Only in America.
    I have been fortunate to have served in all three branches 
of government, including both houses of Congress. It is an 
amazing opportunity to continue my service at the World Bank. 
There is truly no nobler a goal than to end extreme poverty and 
foster income growth for the poorest people of every country. 
Indeed, helping the less fortunate is the objective that unites 
us in public service. A formative service project in Mexico 
during high school, as well as trips to India to visit extended 
family over the years, have made me appreciate the myriad of 
opportunities I have had and imbued me with a desire to help 
others.
    The world now faces a challenge of an unprecedented scale 
affecting billions of lives and causing major setbacks in 
economic development. Millions are at risk of falling into 
extreme poverty, reversing the steady downward trajectory of 
the last 3 decades. The World Bank is playing a pivotal role in 
addressing the COVID-19 global pandemic, particularly by 
helping the poorest people around the world who are most 
vulnerable to the virus. We must persist because failure simply 
is not an option.
    With already surging public debt levels, debt service 
suspension can provide swift and significant relief, allowing 
governments to channel these resources to support their 
citizens. The World Bank and the International Monetary Fund 
have supported a coordinated effort, to which the G20 and the 
Paris Club have agreed, by bilateral official creditors to 
suspend debt service payments for the poorest countries that 
request this assistance. The G7 is committed to implementing 
this initiative, which includes lending safeguards and debt 
transparency with significant emerging sovereign creditor and 
private sector creditor participation as key objectives.
    In addition, the World Bank Group under the leadership of 
President Malpass has committed to deploy up to $160 billion 
through the end of its current fiscal year.
    At the World Bank, the voice and voting power of the United 
States stand for independent accountability, budget discipline, 
and focus on the bank's core mission. While we must react 
quickly to help those in need, we must not let speed come at 
the expense of accountability, which includes quality and 
environmental and social safeguards. U.S. leadership is more 
important than ever to promote peace, stability, and economic 
growth.
    If I have the privilege to serve as Alternate Executive 
Director, I will commit myself to focusing on the most 
vulnerable countries, maintaining comprehensive oversight, and 
ensuring the integrity and accuracy of World Bank data.
    The United States was a leader in the foundation of the 
World Bank in Bretton Woods 76 years ago. And now, again faced 
with global adversity, the United States must show unwavering 
leadership in providing assistance where it is most needed, 
restoring momentum towards achieving our development goals, and 
ensuring the long-term sustainability of the World Bank and 
American leadership therein.
    Members of this committee provide valuable input regarding 
U.S. objectives at the World Bank. If confirmed, I look forward 
to working closely with you and your staffs.
    Again, thank you, and I will gladly answer any questions 
you may have.
    [The prepared statement of Mr. Pinto follows:]


               Prepared Statement of Ashok Michael Pinto

    Chairman Risch, Ranking Member Menendez, and members of the 
committee: Thank you for the opportunity to appear before you today. I 
am extremely grateful to you for your many courtesies. And, as a former 
Senate staffer, I recognize and sincerely appreciate the hard work of 
your staffs in making this hearing possible.
    It is the honor of a lifetime to be President Trump's nominee to be 
Alternate U.S. Executive Director to the International Bank for 
Reconstruction and Development, a key component of the World Bank 
Group. I am grateful to Secretary Mnuchin, Deputy Secretary Muzinich, 
and Under Secretary McIntosh for their confidence in recommending me 
for this position. Also, the encouragement and assistance from my 
colleagues at the U.S. Treasury Department and the World Bank have been 
inspiring.
    I would not be here today without the love and support of my 
family: my wife Preeya, and our four children--Seraphina, Lucy, John, 
and Joseph. My parents also deserve special thanks for their unwavering 
support. They came to the United States as graduate students. Now, they 
have been in this country much longer than their formative years in 
India, and they celebrated fifty years of marriage in 2019. My parents 
instilled in me a spirit of service and an appreciation of other 
cultures. Because of their countless sacrifices and constant 
encouragement, my brother Jay, a physician, my sister Susanna, a 
journalist, and I have had every opportunity to excel in our chosen 
professions. Only in America.
    I have been fortunate to have served in all three branches of 
government, including both houses of Congress. It is an amazing 
opportunity to continue my service at the World Bank. There is truly no 
nobler a goal than to end extreme poverty and foster income growth for 
the poorest people of every country. Indeed, helping the less fortunate 
is the objective that unites us in public service. A formative service 
project in Mexico during high school as well as trips to India to visit 
extended family over the years have made me appreciate the myriad 
opportunities I have had and imbued me with a desire to help others.
    The world now faces a challenge of an unprecedented scale, 
affecting billions of lives and causing major setbacks in economic 
development. Reviving the global economy while protecting individual 
health and safety is a daunting task with no easy answers. Millions are 
at risk of falling into extreme poverty, reversing the steady downward 
trajectory of the last three decades and jeopardizing the World Bank's 
twin aims of ending poverty and building shared prosperity. The World 
Bank is playing a pivotal role in addressing the COVID-19 global 
pandemic, particularly by helping the poorest people around the world 
who are most vulnerable to the virus. The Bank is now supporting COVID-
related projects in more than 100 countries, and the work to provide 
health support, social protection, poverty alleviation, and policy-
based financing is ongoing. We must persist because failure simply is 
not an option.
    The COVID-19 pandemic has hit the world's poorest countries the 
hardest. With already surging public debt levels, debt service 
suspension can provide swift and significant relief, allowing 
governments to channel these resources to support their citizens. The 
World Bank Group and the International Monetary Fund have supported a 
coordinated effort, to which the G20 and the Paris Club have agreed, by 
bilateral official creditors to suspend debt service payments for the 
poorest countries that request this assistance. The G7 is committed to 
implementing this initiative, which includes lending safeguards and 
debt transparency with significant emerging sovereign creditor and 
private sector creditor participation as key objectives. We seek to 
promote growth through our assistance.
    In addition, the World Bank Group under the leadership of President 
Malpass has committed to deploy up to $160 billion through the end of 
its current fiscal year. Of this amount, $50 billion will be in either 
grants or highly concessional terms from the International Development 
Association, which supports the world's poorest countries. Given the 
large amounts of these funds aimed at economic recovery, the United 
States will continue to exercise its oversight responsibilities to 
assure that support provided is free from waste, fraud, abuse, and 
mismanagement and benefits the intended recipients.
    In representing the views of the United States at the institution, 
the primary goal of the Office of the U.S. Executive Director is to 
ensure that World Bank programs and initiatives are consistent with 
advancing U.S. development, foreign policy, national security, and 
commercial priorities, as well as rigorous standards and safeguards. At 
the World Bank, the voice and voting power of the United States stand 
for independent accountability, budget discipline, and focus on the 
Bank's core mission. While we must react quickly to help those in need, 
we must not let speed come at the expense of accountability, which 
includes quality and environmental and social safeguards. U.S. 
leadership is more important than ever to promote peace, stability, and 
economic growth.
    If I have the privilege to serve as Alternate U.S. Executive 
Director, I will commit myself to focusing on the most vulnerable 
countries, maintaining comprehensive oversight, and assuring the 
integrity and accuracy of World Bank data. I will also make every 
effort to combat global corruption and fight human trafficking--to 
which this committee remains steadfastly dedicated.
    The United States was a leader in the foundation of the World Bank 
in Bretton Woods 76 years ago. And now, again faced with global 
adversity, the United States must show unwavering leadership in 
providing assistance where it is most needed, restoring momentum 
towards achieving our development goals, and ensuring the long-term 
sustainability of the World Bank and American leadership therein.
    Members of this committee and other interested members of both the 
Senate and the House provide valuable input regarding U.S. objectives 
at the World Bank. If confirmed, I look forward to working closely with 
you and your staffs on the Bank's COVID-19 response and broader goals. 
Again, thank you, and I will gladly answer any questions you may have.


    The Chairman. Thank you very much, Mr. Pinto.
    Mr. Todd, the floor is yours.

STATEMENT OF HON. WILLIAM E. TODD, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR EXECUTIVE SERVICE, TO BE AMBASSADOR EXTRAORDINARY 
  AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                  ISLAMIC REPUBLIC OF PAKISTAN

    Mr. Todd. Mr. Chairman, Ranking Member Menendez, honorable 
members of the committee, I am humbled to appear before you 
today as the nominee to serve as the next U.S. Ambassador to 
Pakistan. I am grateful to President Trump and Secretary Pompeo 
for the trust and confidence they have placed in me through 
this nomination.
    While they cannot be here in person today, I would like to 
recognize my wonderful family. Words are insufficient to 
express my love, my admiration, and my appreciation for my wife 
Ann and my parents, Jack and Marie Todd. I am very grateful for 
my four children: William, Chris, John, and Caitlyn. As a 
family, we have shared the excitement, the joys and sometimes 
the hardships associated with my career, and through it all, we 
have been richly blessed.
    I come before you today as a career member of the Senior 
Executive Service. During 37 years with the U.S. Government, I 
have served in some of the most interesting and rewarding 
positions across six presidential administrations, including 
having been confirmed as a U.S. Ambassador to Cambodia and to 
Brunei, once in an ambassadorial rank position in Afghanistan 
as the Coordinating Director of Development and Economic 
Affairs, and once as Principal Deputy Assistant Secretary for 
South and Central Asian Affairs, and my current position, 
Deputy Under Secretary for Management.
    Across my career, my highest priority has always been the 
safety and security of our team. At no other time in recent 
history has that been so challenged. Since January, I have had 
the distinct honor to lead much of the Department's mitigation 
and response to the COVID-19 pandemic, which has included the 
repatriation of over 100,000 Americans from over 135 countries, 
including 4,000 Foreign Service officers and 6,000 members of 
their family.
    COVID-19 has also had a profound impact on Pakistan. It has 
greatly affected Pakistan's health and its economy. If 
confirmed, I will continue to make the U.S.-Pakistan COVID-19 
partnership a priority.
    Beyond COVID-19, this is an important and opportune time in 
the broader complicated U.S.-Pakistan relationship. Over the 
years, we certainly have had our differences, and many of those 
differences remain today. Nonetheless, we are also working 
together on many shared goals. Today our countries recognize 
that we share a common interest in a durable peace in 
Afghanistan. Pakistan has played an important role in helping 
to facilitate the ongoing Afghan peace negotiations in Doha. 
Looking forward, Pakistan has a more important role to play, 
supporting efforts that will lead to a political settlement 
that ends 40 years of war. This is a moment of opportunity for 
Pakistan to forge a new and better role in the region and, if 
confirmed, will be one of my highest priorities.
    In terms of regional dynamics, although we have a strong 
relationship with India, it should not come at the expense of 
Pakistan. I believe that under the right conditions, we can 
have a strong relationship with both countries. Our hope is 
that both countries will take the necessary steps to reduce 
tensions, and as the President has offered, we will facilitate 
dialogue if both sides agree.
    However, to truly reduce tensions, Pakistan must take 
sustained and irreversible action against terrorism. Pakistan 
has suffered terribly at the hands of terrorists and has 
committed publicly to ensure they cannot use their territory to 
operate. Pakistan has also taken important steps toward 
fulfilling this commitment, and if confirmed, I will work with 
the Government of Pakistan to continue further progress on 
these priorities.
    Lastly, there are three other key priorities that I will 
focus on, if confirmed. First is human rights. Second, trade 
and investment. And third is youth engagement. These priorities 
will be challenging to fulfill, but will lead to a better 
future for Pakistan and a stronger U.S.-Pakistan relationship.
    In closing, Mr. Chairman, I would like to reiterate that my 
highest priority has been and will always be the safety and 
security of all U.S. citizens. Recently, a U.S. citizen by the 
name of Tahir Naseem was murdered in a courtroom in Pakistan 
where he was about to be tried for blasphemy. Frankly, I was 
shocked, I was saddened, and I was outraged by this event. And 
if confirmed, I will engage Pakistani authorities to hold the 
perpetrators fully accountable.
    Thank you, Mr. Chairman. I look forward to working with 
you, this committee, and the entire Congress. I would be happy 
to answer any questions. Thank you.
    [The prepared statement of Ambassador Todd follows:]


               Prepared Statement of Hon. William E. Todd

    Mr. Chairman, Ranking Member Menendez, and honorable members of 
this committee, I am humbled to appear before you today as the nominee 
to serve as the next U.S. Ambassador to the Islamic Republic of 
Pakistan. I am grateful to President Trump and Secretary Pompeo for the 
trust and confidence they have shown in me through this nomination.
    While they cannot be here in-person, I would like to recognize my 
wonderful family, who are watching this hearing virtually. Words are 
insufficient to express my love, admiration, and appreciation for my 
wife Ann and my parents Jack and Marie Todd. I am also grateful for my 
four children, William, Chris, John, and Caitlyn. As a family, we have 
shared the excitement, joys, and sometimes the hardships associated 
with this career and lifestyle, and through it all, we have been richly 
blessed.
    I come before you today as a career member of the Senior Executive 
Service. During my 37 years with the U.S. Government and across six 
Presidential administrations, I have served in some of the most 
rewarding positions in government, including having been confirmed 
twice previously as U.S. Ambassador (Cambodia and Brunei). I served in 
an Ambassadorial rank position in Afghanistan as the Coordinating 
Director of Development and Economic Affairs, as Principal Deputy 
Assistant Secretary for South and Central Asian Affairs, and most 
recently as Deputy Under Secretary for Management.
    Across all of these assignments, my highest priority has always 
been the safety and security of our team domestically and abroad. At no 
other time in our nation's recent history has the safety and security 
of our personnel and American citizens faced such an unprecedented 
challenge as we have with the COVID-19 pandemic. Since early January of 
this year, I had the distinct honor to spend most of my time leading 
and operationalizing much of the Department of State's preparedness, 
mitigation, and response efforts for the COVID-19 crisis.
    It has been an honor and a privilege to be part of the team that 
facilitated the repatriation of 100,000 American citizens who were 
overseas when the COVID-19 pandemic occurred. We repatriated American 
citizens from 135 countries, on over 950 flights. To protect our 
Foreign Service team serving abroad, we approved the State Department's 
first ever Global Authorized Departure, bringing home over 4,000 U.S. 
Embassy American staff and over 6,000 family members from conditions 
that could have threatened their well-being. We put in place global 
medevac capabilities and assets to reach any location in the world 
within 24 hours.
    This global COVID-19 pandemic had a profound impact in Pakistan, as 
it has around the world. The U.S.-Pakistan health partnership helped 
contribute to better-than-expected COVID-19 outcomes in Pakistan, from 
training health workers to upgrading emergency operations centers and 
delivering ventilators, a personal promise by President Trump. 
Nonetheless, the health impacts are real and the economic fallout for 
Pakistan is likely to be serious.Beyond the immediate COVID-19 crisis, 
this is an important time in the broader U.S.-Pakistan relationship. As 
you know very well, this is a longstanding and important, but always 
complicated and sometimes contentious relationship. We certainly have 
our differences, but Pakistan is an essential regional partner, and 
this is an opportune moment in our relationship to work together on 
shared goals. Peace in Afghanistan is in both our countries' best 
interests, and effective U.S.-Pakistani cooperation is essential to 
achieve that objective.
    As Secretary Pompeo said when he visited Islamabad in 2018, we have 
an ``opportunity to reset the relationship between our two countries 
across a broad spectrum--economic, business, commercial--the work that 
we all know that we need to do to try to develop a peaceful resolution 
in Afghanistan that benefits certainly Afghanistan, but also the United 
States and Pakistan.'' Today, our countries recognize that we share a 
common interest in a durable peace in Afghanistan. Pakistan played a 
critical role in creating the conditions that brought Afghan leaders 
and the Taliban to the historic start of Afghan Peace Negotiations. 
They have an even more important role to play in supporting efforts 
toward a negotiated political settlement that ends 40 years of war. 
This is a moment of opportunity for Pakistan to continue to forge a new 
and better role in the region and if confirmed will be one of my 
highest priorities.
    In terms of regional dynamics, although we have a strong 
relationship with India, that does not need to come at the expense of 
Pakistan. I believe that under the right conditions, we can have a 
strong relationship with both countries. Our hope is that both 
countries will take the necessary steps to reduce tensions, and as 
President Trump has offered, we are prepared to facilitate dialogue if 
both sides request it.
    To truly reduce regional tensions, and rebuild a strong 
relationship with the United States, Pakistan must take sustained and 
irreversible action against terrorism. Pakistan has suffered terribly 
itself at the hands of terrorists and has committed publicly to ensure 
terrorists cannot use Pakistani territory to operate. Pakistan has 
taken important steps toward fulfilling that commitment but needs to 
continue that work. If confirmed, I will work with Pakistan to advance 
our shared interest in eliminating terrorism from its territory and 
advancing security in the region.
    If confirmed, I will actively engage Pakistan on these issues, as 
well as strategic stability and non-proliferation, carrying a clear 
message on the threat that nuclear weapons pose to the United States, 
the region, and our allies and partners. Pakistan needs to demonstrate 
it is prepared to live up to international commitments on weapons of 
mass destruction.
    Lastly, there are three other key priorities that I will focus on 
if confirmed. My first goal will be advancing human rights, 
particularly freedom of religion and expression. I was shocked and 
heartbroken that U.S. citizen Tahir Naseem was killed in a Pakistani 
courtroom in which he was facing an accusation of blasphemy. I grieve 
with the family of Mr. Naseem, and if confirmed, will engage Pakistani 
authorities on full accountability for the perpetrators. I am also 
concerned about increasing restrictions on civil society, including the 
growing harassment and disappearances of journalists without 
accountability, which undermines the exercise of the right of peaceful 
assembly and freedoms of expression and association.
    Second, given Pakistan has the fifth largest population in the 
world, we need increased bilateral trade and investment. The President 
sees this potential and has personally called for a substantial 
expansion of our trade and investment relationship, which benefits both 
countries.
    Third, with over 64 percent of Pakistanis being 30 years old or 
younger, we should expand youth engagement.Making progress on youth 
engagement, trade and investment, and human rights will be challenging, 
but necessary for a better future for Pakistan, and a stronger U.S.-
Pakistan relationship. As the President has said repeatedly, ``There is 
tremendous potential between our country and Pakistan.'' The choices 
that are made now will build a legacy for generations to come.In 
closing Mr. Chairman, I look forward to working with you, this 
committee, and the entire U.S. Congress. If confirmed, I will dedicate 
all of my energy and experience to advancing U.S. foreign policy 
objectives in Pakistan, and to strengthening the relationship between 
our two countries. Thank you very much for considering my nomination. I 
would be happy to answer any of your questions.


    The Chairman. Thank you, Mr. Todd.
    Mr. Ueland?

  STATEMENT OF HON. ERIC M. UELAND, OF OREGON, TO BE AN UNDER 
  SECRETARY OF STATE, CIVILIAN SECURITY, DEMOCRACY, AND HUMAN 
                             RIGHTS

    Mr. Ueland. Mr. Chairman, Senator Menendez, and members of 
the committee, thank you for the privilege of appearing today 
as President Trump's nominee for Under Secretary of State for 
Civilian Security, Democracy, and Human rights, the J family.
    I am grateful to both President Trump and Secretary Pompeo 
for their confidence and hope to earn your support and Senate 
confirmation.
    I would also like to thank my family whose support allows 
me the opportunity to continue my public service.
    The role of the Under Secretary is to promote the ideals of 
the American people and contribute to their safety and 
security, and this is done best when the Under Secretary leads. 
And leadership at J takes many forms, starting with a strong 
public voice. Whether it is calling out the Chinese Communist 
Party's behavior in Hong Kong, its efforts to erase the 
identity of the Tibetan people, and its sweeping human rights 
abuses in Xinjiang or spotlighting the illegitimate Maduro 
regime's continued denial of the Venezuelan people's democracy 
and their freedom or the regime in Iran, the world's leading 
state sponsor of terrorism inflicting shocking human rights 
abuses on its own people, spreading the vile poison of anti-
Semitism around the globe, for all these and more, we must 
confront abuses, amplify the voices of the suffering and lead 
the international community in standing up to perpetrators.
    If confirmed, I will deploy, as appropriate, tools from the 
entire suite of J family implements, including sanctions, 
designations, and determinations. I will highlight a large 
collection of public reporting on trafficking in persons, human 
rights, religious freedom, child soldiers, atrocities, 
terrorism, and narcotics. I will do all this to shed light on 
the actions of malign actors, promote accountability, and drive 
change.
    Leadership at J is also about working to effectively 
alleviate suffering and provide lifesaving aid around the 
globe. The United States is the world's largest donor of 
humanitarian assistance. While assisting the vulnerable and 
distressed, we must also address causes of conflict and 
instability. So, for example, the United States leads the 
response to the challenge in Rakhine State, we press the 
Burmese Government to create conditions for the safe, secure, 
and voluntary return of Rohingya refugees, including by 
respecting human rights and holding accountable the 
perpetrators of atrocities.
    J should approach humanitarian challenges in a holistic 
manner and protect against fragility growing into larger 
problems for us and our partners in the future.
    Leadership at J also means broadening and deepening our 
international partnerships to curb opioid and drug flows to the 
United States, dismantle terrorist networks, end human 
trafficking, and disrupt transnational criminal organizations. 
The J family uses training and expertise to build the global 
partnerships which protect our citizens here at home, and we 
all know that ensuring the United States as the international 
partner of choice both influence foreign governments and 
reinforces our global leadership in an era of renewed great 
power competition.
    Leadership too means setting agendas. For example, the 
Trump administration has put protecting freedom of religion or 
belief at the forefront, hosting two unprecedented ministerials 
to advance religious freedom and launching the International 
Religious Freedom Alliance.
    If confirmed, I would utilize my skills working with 
multiple stakeholders to support this agenda and other 
priorities, expanding our coalition of likeminded nations.
    Leading J does also mean careful stewardship of public 
funds. As the world leader in humanitarian and security 
partnerships, U.S. resources must be used effectively, 
efficiently, and responsibly. Ongoing evaluation of our 
programs will ensure we are accomplishing our goals and 
reflecting our values.
    If confirmed, I will seek to ensure our programs are 
assessed by realistic, measurable outcomes. And with our 
international coalitions, I would continue to promote the 
President's burden sharing objectives.
    Finally, leadership means directing highly capable public 
servants to accomplish the President's foreign policy agenda. I 
will put my management skills to work on issues which the J 
family handles, listening to and learning from incredibly 
distinguished public servants working in the J family to 
harness their passion for the work they do on behalf of the 
President and the nation.
    Mr. Chairman, Senator Menendez, and members of the 
committee, I appreciate the chance to be here today, and if 
confirmed, I look forward to working with the committee. Thank 
you for your courtesy this morning, and I welcome any questions 
you may have.
    [The prepared statement of Mr. Ueland follows:]


               Prepared Statement of Hon. Eric M. Ueland

    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the committee, it is my honor and privilege to appear before you 
today as President Donald J. Trump's nominee for Under Secretary of 
State for Civilian Security, Democracy, and Human Rights. I am humbled 
by the prospect of serving our great nation in this role and grateful 
to both President Trump and Secretary Pompeo for their confidence in me 
to serve in this capacity.
    Before I begin today, I would like to take a moment to thank my 
family. Their selfless support inspires my public service and motivates 
my working towards a greater good and a better tomorrow.
    I have had the honor to serve the American people for many years. 
Working as a member of the Senate staff, at the Millennium Challenge 
Corporation, as the Director of the Office of Foreign Assistance at the 
State Department, and through multiple roles at the White House, I saw 
first-hand the important work of the nine bureaus and offices for which 
the Under Secretary is responsible.
    Today, I would like to share my vision for how the Under Secretary 
for Civilian Security, Democracy, and Human Rights, the so-called ``J 
family,'' can promote U.S. values and support the safety, security, and 
prosperity of the American people.
    Leadership is essential. This takes many forms, to include being 
willing to speak out and promote accountability for malign actors. For 
example, we see the Chinese Communist Party rolling back autonomy and 
liberty in Hong Kong, unlawfully detaining and carrying out sweeping 
human rights abuses against more than one million Uyghurs, ethnic 
Kazakhs, Kyrgyz, and other Muslims in Xinjiang, and continuing its 
decades-long effort to eliminate the unique identity of Tibetans. The 
illegitimate Maduro regime continues to deny the Venezuelan people the 
democracy and freedom they deserve, holding hundreds of political 
prisoners and refusing to create the conditions for free and fair 
elections. The Islamic Republic of Iran remains the world's leading 
state-sponsor of terrorism, inflicting shocking human rights abuses on 
its own people, and spreading the vile poison of anti-Semitism around 
the globe. We must confront these realities, amplify the voices of 
those suffering, and lead the international community in standing up to 
perpetrators.
    If confirmed, I would use the entire suite of J family tools. This 
includes sanctions, designations, determinations, and public reporting 
on trafficking in persons, human rights, religious freedom, child 
soldiers, atrocities, terrorism, and narcotics to shed light on the 
actions of these malign actors and promote accountability.
    Leadership is not just speaking out against brutal regimes. It is 
also seeking to alleviate suffering and providing life-saving aid 
during times of crisis. Through the generosity of the American people 
and with support from Congress, the United States is the largest donor 
of humanitarian assistance and leading the global foreign assistance 
response to COVID-19. On an annual basis, the State Department provides 
billions of dollars in humanitarian assistance that benefits tens of 
millions of people, many of whom are displaced by violence and 
conflict.
    While providing relief and refuge to the vulnerable and distressed 
has been an important hallmark of American foreign policy, we must 
address the causes of conflict and instability that often lead to 
humanitarian crises. For example, while the United States has led the 
humanitarian response to the challenge in Rakhine State, we also must 
continue to press the Burmese Government to create conditions for the 
safe, secure, and voluntary return of Rohingya refugees--by respecting 
human rights and holding accountable the perpetrators of atrocities, 
which is essential to avoiding their recurrence and future crises.
    If confirmed, I would seek to ensure the J family approaches these 
challenges in a holistic manner that prevents state fragility and 
societal fissures from growing into larger challenges. When crises do 
occur, I would make certain we provide humanitarian assistance in a 
manner that is both sustainable and incentivizes burden-sharing by our 
donor partners.
    Leadership also means broadening and deepening our international 
partnerships in support of U.S. interests. These partnerships are vital 
to curbing the flow of opioids and other drugs into the United States, 
dismantling terrorist networks, ending human trafficking, and 
preventing transnational criminal organizations from operating across 
borders with impunity. With a proven track record of accomplishment, 
cutting-edge technology, and commitment to our values, the J family 
provides the critical tools, training, and expertise necessary to build 
the global partnerships needed to combat these transnational threats. 
This international cooperation is more important than ever in an era of 
great power competition. While our adversaries and competitors make 
unfulfilled promises and seek vassal states rather than genuine 
partners, ensuring the United States continues to serve as the partner 
of choice reinforces our global influence.
    If confirmed, I would seek to leverage our counterterrorism, 
counter narcotics, and antitrafficking partnerships not only to fight 
immediate threats to our national security, but also to expand American 
influence with foreign governments unwilling or unable to combat 
illicit activity or terrorist threats.
    Leadership also means agenda-setting. For example, the Trump 
administration has brought the crucial task of protecting freedom of 
religion or belief to the forefront of the international agenda, 
including by hosting two unprecedented Ministerials to Advance 
Religious Freedom and by launching the International Religious Freedom 
Alliance. These efforts demonstrate how U.S. leadership can catalyze 
the international community to address the plight of the marginalized 
and oppressed, even when the world has seemingly turned away.
    If confirmed, I would utilize my previous experience working with a 
variety of stakeholders to support this agenda and expand our coalition 
of like-minded nations on this and other issues of vital importance.
    Finally, the responsible stewardship of public funds has been a key 
objective of my career in government. If confirmed as Under Secretary, 
this would be one of my top priorities. While overseeing approximately 
$6 billion in foreign assistance each year, the Under Secretary must 
ensure that we are building partner capacity rather than dependency 
when we provide foreign assistance. As I mentioned, we are a leader in 
humanitarian and security partnerships, and with that comes the 
tremendous responsibility to ensure that U.S. resources are used 
effectively and efficiently. This means we need to commit to the 
ongoing evaluation of our programs to ensure we are achieving their 
original intent.
    If confirmed, I would seek to ensure our programs are implemented 
by capable partners, and assessed by realistic, measurable outcomes. 
Simultaneously, through our expanded coalitions, I would continue to 
promote the President's burden-sharing objectives that not only 
encourages our partners to do more with their money but enables us to 
do more with ours.
    Chairman Risch, Ranking Member Menendez, and members of the 
committee, I want to thank you for the opportunity to meet with you 
today and, if confirmed, I look forward to working with each member of 
the committee to advance our shared goals. I welcome any questions you 
may have.


    The Chairman. Thank you, Mr. Todd.
    Mr. Ueland? I am sorry.
    Mr. Ueland. Thank you very much, Mr. Chairman.
    The Chairman. You are very welcome, but you only get one 
bite of the apple here.
    We are going to do a round of questions now, and I want to 
start, Mr. Todd, with you.
    First of all, we know historically whenever things--there 
is upheaval in Afghanistan, we see a flood going into Pakistan 
particularly into the western provinces in Pakistan. It has 
caused us no end of grief during the time we have been engaged 
in Afghanistan.
    What are your thoughts? What do you see in that regard? How 
do you see that playing out? However this peace process goes, 
whichever direction it goes, there is going to be movement 
across the border to the east out of Afghanistan. What are your 
thoughts on that? How do you see that playing out? How are the 
Pakistanis going to handle this?
    Ambassador Todd. Thank you, Mr. Chairman.
    Right now, Pakistan has generously taken care of millions 
of Afghan refugees over the last several years. We have very 
active programs in country right now, both bilaterally and 
through various international organizations.
    We believe that if the peace and reconciliation process 
goes as planned, over a period of time some of those refugees 
will want to go back. Currently the U.S. position is that it 
has to be conditions-based, that there needs to be basically 
safety and security first. It has to be voluntary, second. And 
third, that whatever is the mechanism, it should live up to the 
international norms of migration. And if I am confirmed, I 
assure you I will work with the refugees, civil society, and 
the Government of Pakistan to make sure it happens in the 
proper way.
    The Chairman. Thank you very much.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Todd, I am dismayed that you are appearing at this 
hearing without having complied with the request by Chairman 
Engel and I, outstanding since February, to be interviewed on 
retaliation against career public servants. While I put the 
onus of the responsibility on the State Department, the failure 
to comply with a congressional request on critical oversight 
matters is also a reflection on you, one that I hope you can 
correct.
    So I would like to ask you for a firm commitment on the 
record. Do you commit to appear for a transcribed interview 
regarding political retaliation, as was requested to you since 
last February?
    Ambassador Todd. Thank you, Mr. Senator.
    Yesterday, I had a very good and fulsome discussion about 
this with your team. To be candid with you, I am a 37-year 
career employee. In my entire career, I have never had the 
opportunity to be told that as a requirement of doing something 
I must do a voluntary transcribed interview.
    Over the last several months, I have made multiple attempts 
to brief the committee, provide any answers for any questions 
that the committee has asked, and provide any information that 
the committee has asked.
    Senator Menendez. Well, you are not answering my question. 
So your answer is no, you will not sit for a--you know, this is 
not something that can be covered in a courtesy meeting with my 
staff or Chairman Engel's staff. There are other members of the 
State Department, career people as well, who have sat for a 
transcribed interview, and I do not understand your reticence 
to do so.
    Ambassador Todd. Well, again, Mr. Senator, I gave your team 
the reasons, but just to reduce it to very practical levels, 
for me to do a transcribed interview, I am going to have to 
hire an attorney. That attorney is going to cost $25,000 or 
$30,000. I am a career employee. You know how much I make.
    Also, I would rather----
    Senator Menendez. I have to be honest with you. For you to 
raise the issue of private counsel for the first time more than 
6 months after the initial request and following no response by 
the Department, it is hard to see that as a real obstacle. The 
Department has historically agreed to make witnesses available 
voluntarily for transcribed interviews. Dozens of officials 
have been interviewed for past requests, including for the 
Benghazi committee among others, and did so with agency counsel 
and no out-of-pocket costs.
    Ambassador Todd. Sir, I have made multiple attempts to meet 
with your committee. I have offered probably two or three times 
a month for the last 6 months. I have been unable to get a 
meeting.
    Senator Menendez. You will be able to get a meeting if you 
want to be willing to submit to a transcription. For some 
reason, whatever it is that you have to say, you do not want to 
say in a transcribed proceeding. So I am not going to play rope 
a dope with you anymore. Your answer is not based upon the 
positions that you have taken here.
    Ambassador Todd. Sir, I would like to come up and answer 
any questions you have voluntarily. That has been my position 
for 6 months.
    Senator Menendez. But not in a transcribed proceeding.
    Ambassador Todd. I believe it is unnecessary. I am not an 
attorney. I do not have----
    Senator Menendez. A transcribed proceeding only creates a 
record of what you have to say. So I do not understand what the 
reticence is. If you are willing to say whatever it is as the 
answer to questions, whether they are transcribed or not, it 
should be the same answer--right--unless somehow you would 
deceive us in an un-transcribed process but in a transcribed 
process, you would tell us the truth.
    So let me move on. I clearly have your answer by virtue of 
your unwillingness to do this.
    Let me ask you with reference to the potential assignment 
you may have--I do not know if you are going to get there--how 
will you use your tools at your disposal to encourage Pakistan 
to take real action against Lashkar-e-Taiba and its leadership?
    Ambassador Todd. Thank you, Mr. Senator. That is an 
important question.
    LET, as you know, is a terrorist group that has created 
terror over the last several years. Pakistan has worked hard to 
prosecute the leadership of LET. The leader of that terrorist 
group was imprisoned approximately a year ago. Twelve of his 
subordinates were also imprisoned.
    If I am confirmed, I will continue to press Pakistan to 
take sustained, irreversible action against terrorists. I also 
will work with them on the terrorist financing aspect of it. 
And again, if I am confirmed, I look forward to coming and 
briefing you and the committee.
    Senator Menendez. Mr. Chairman, I have a series of 
questions for Mr. Todd and Mr. Ueland. But in deference to our 
colleagues, I will wait for a final round.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Pinto, I had a couple questions, if I could.
    And first, I want to start talking about an all-of-the-
above energy strategy. You know, global philanthropist Bill 
Gates explains that increasing access to electricity is really 
critical to lifting the world's poor out of poverty. And 
worldwide, there are just short of a billion people who are 
today living without electricity. I know you are well aware of 
this. They cannot cook or heat their homes safely, cannot do it 
reliably. Nearly 3 billion people still rely on wood and waste 
for household energy. People living in poor and developing 
nations--they want and need a stable energy supply. It is about 
energy today for them. And they are looking for power 
generation that provides energy security. It helps create jobs 
and it improves their lives today.
    And I believe traditional fuels are a vital tool to help 
people escape poverty. Yet, over the past few years, the World 
Bank has been imposing restrictions on the financing of 
traditional energy projects. Last year, I led a dozen Senators 
in a letter urging the World Bank to immediately lift these 
harmful restrictions. My letter, of course, was to the World 
Bank President, David Malpass. It was cosigned by Senators 
Boozman, Capito, Cotton, Cramer, Cruz, Enzi, Hoeven, Johnson, 
Kennedy, Murkowski, and Thune. Together, we pressed the bank to 
recommit to an all-of-the-above energy strategy. So to achieve 
its mission, the World Bank really I believe must embrace, not 
exclude affordable energy resources. Ultimately, the solution 
to energy poverty does not lie in limiting options, but in 
using all available options.
    So if confirmed, will you commit to ensuring the World Bank 
is promoting all forms of energy projects across the globe, 
including oil, gas, and coal?
    Mr. Pinto. Senator, thank you for the question. And I am 
certainly aware of your interest and your concern regarding 
this issue, and I appreciated the opportunity to discuss it 
with your staff.
    Yes, I agree with you, and I believe that countries 
determine what energy mix is most appropriate to meet their 
needs and that an all-of-the-above approach ensures that the 
bank can truly make a dent in that nearly 1 billion number of 
people who lack access to electricity around the world.
    Senator Barrasso. Thank you.
    I want to turn to China's predatory lending. Through the 
Belt and Road initiative, the Chinese Communist Party offers 
countries the ability to borrow a lot of money for 
infrastructure projects. The problem is that these countries 
then accumulate large amounts of debt, debt to China. They are 
unable to pay it back and while still not achieving the 
development gains that many are seeking. So they borrow money, 
go into debt, cannot get done what they want to do, but they 
are unable to escape the massive debt that is owed to China. 
They face default or forfeiture of some of their strategic 
assets, their natural resources. And you have seen this happen 
around the globe.
    So on top of the financial pressure, some countries are now 
also facing the economic hardships that have been caused by 
coronavirus. To me, this is a tragic recipe.
    What actions do you believe the World Bank should take, and 
how would you ensure American taxpayers are not bailing out 
Chinese financial institutions and further enabling China's 
predatory lending policies?
    Mr. Pinto. Senator, thanks also for that question, and I 
also recognize that is a serious concern.
    The World Bank, as I mentioned in my testimony, is 
convening a debt service suspension initiative, and the 
importance of that is to make sure that all non-Paris Club 
creditors, including China, are at the table and are fully 
participating in that initiative.
    I also think that it is important for the bank, as you 
noted, to reduce its lending to China, to promote graduation on 
the part of China. That is something that China should aspire 
to, given that is now a wealthy country with the second largest 
economy in the world. So we would like to continue to see a 
downward trajectory in lending to China from the bank, and we 
would like to see China become a net donor and no longer a net 
borrower because those resources are scarce.
    Senator Barrasso. Well, Mr. Pinto, just to add to exactly 
what you said, China is the second largest economy in the 
world. And as you point out, China still receives below market 
rates for projects financed with loans from the World Bank.
    In December of 2019, the World Bank approved a new plan to 
provide China with between $1 billion and $1.5 billion in low 
interest loans annually through 2025. This is happening while 
the Chinese Communist Party, through its Belt and Road 
Initiative, is engaged in predatory lending practices that we 
just described. So I just am seriously concerned about the 
World Bank using American tax dollars to loan money to China 
while China is engaged in debt trap diplomacy in developing 
countries across the globe. So I appreciate your attention to 
that and your commitment to making sure that that declines, and 
I would like to have that decline at a rapid rate.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso. Well said.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    And let me thank all three of our nominees for their 
willingness to continue to serve our country.
    Mr. Ueland, I want to ask you a few questions in regards to 
the position that you have been nominated to fill. As Senator 
Menendez pointed out, you have experience in the budget areas. 
You do not really have broad experience in democracy building 
or human rights. Clearly we want to use our financial leverage 
to advance democracy and human rights. So I hope that that 
experience will help you in dealing with the bureaucracy within 
the State Department and the executive branch to advance 
democracy and human rights.
    Freedom House recently reported that 25 of the 41 
democratic states in the world have seen a decline in 
democracy, including the United States of America. And we have 
fewer democratic states today in Central and Eastern Europe 
than at any time since they have been doing their report, which 
started in 1995. So we have seen a decline of democracy.
    Our values need to be how we conduct our foreign policy--
wrapped in our values. How do you intend to stand up to the 
bureaucracy of the State Department, which has issues that they 
like to put the human rights or democracy building on the back 
burner as compared to other issues or the messaging that comes 
out of sometimes the executive branch that is very vague on our 
values? And I am putting that gently. Can we count on you to 
stand up for the important role for which this position was 
developed in order to promote democracy, to advance human 
rights, to stand up for American values, and to make sure it is 
incorporated in all of our foreign policy decisions?
    Mr. Ueland. Senator, thank you very much for the question. 
And I think based on my experience, not only can I confidently 
say yes, but be able to explain why I have confidence in that 
answer.
    My work here on the Hill and in the executive branch, which 
certainly has focused at points on financial matters, budget 
matters, and spending matters, gives me an appreciation of a 
simple fact that oftentimes resources are policy, and that in 
order to drive results, the need for appropriate resources to 
be applied to significant foreign policy challenges is 
paramount. The work inside the Department to build consensus 
with folks in the field, as well as regional bureaus, fellow 
under secretaries, assistant secretaries, and the like is 
something that I have some familiarity with having served as 
the Director of F and trying to prioritize our work in such 
areas as policy and priorities for refugee and migration flows, 
the work that we have done on humanitarian assistance to 
coordinate our efforts better both inside the Department of 
State, as well as with USAID, pioneering and spearheading our 
effort to ensure that how we follow through on the Trafficking 
in Persons Report for consequences out in countries that have 
qualified as tier 3, and suspending programs appropriately but 
with USAID, attempting to ensure that appropriate programs that 
need to continue actually do continue because they reflect our 
values.
    Senator, I anticipate that if I have the opportunity to 
serve, if I am confirmed, I will be working quite intensely 
inside the Department of State, inside the interagency, with 
the Office of Management and Budget to ensure that resources 
match our policy.
    Senator Cardin. So let me ask you one specific question, if 
I might.
    The Elie Wiesel Genocide and Prevention Act that I 
authored, along with Senator Young, has a strategy for us to 
try to prevent atrocities from occurring. The Early Warning 
Task Force is part of that process to determine countries that 
are at risk of atrocities.
    Will you support the public release of countries identified 
at risk of atrocities so that we can put a spotlight on these 
countries in order to deal with preventing those atrocities 
from moving forward?
    Mr. Ueland. Senator, thank you very much for that question. 
You raise an interesting point.
    At times, as part of our public diplomacy, it is 
appropriate to release information and provide a spotlight on 
potential challenges. If you have more than 4 seconds, I am 
happy to expand a bit on the fact that, as you know, in the J 
family, the responsibility for serving as a secretariat for the 
Atrocity Early Warning Task Force actually resides in the CSO 
Bureau, and the work that CSO does, in an effort to ensure that 
there are early warnings about potential atrocity situations 
and encourage and work with the interagency in ways to find 
throughout the Department, as well as perhaps with interagency 
partners, to intervene, to preempt atrocities from even 
occurring, is a significant responsibility that occurs in J at 
CSO. I anticipate----
    Senator Cardin. My time is running out.
    Mr. Ueland. I understand, but I just again want to 
emphasize we have a wide suite of tools. There are moments when 
private engagement, moments when public engagement is 
appropriate in dealing with significant instances, including 
potential atrocities.
    Senator Cardin. I am going to respectfully disagree. I must 
go on the record. I respectfully disagree with the clarity 
here. I am the senior Democrat on the Helsinki Commission in 
the Senate, and naming and shaming has been the way that we 
have gotten so much progress internationally on advancing human 
rights. The Global Magnitsky bill. You need to be specific 
otherwise the issues get lost. So I would just urge you to 
reflect that if you do not have the courage to identify the bad 
actors, they will continue to be bad actors.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to each of our nominees this morning.
    Mr. Ueland, in your opening statement, you talked about a 
number of the human--the challenges that J faces that you would 
face if you are confirmed. But I did not hear you discuss the 
empowerment of women as one of the ways in which we could be 
addressing some of these challenges because what we know about 
empowering women is that it contributes to stability in 
communities and in countries.
    So can you talk about how you might support the empowerment 
of women if you are confirmed in ways that would help advance 
the human rights agenda that you talked about?
    Mr. Ueland. Well, Senator, thank you very much for that 
question. And I appreciate very much your focus on the 
empowerment of women, since that is one of about five priority 
areas that I anticipate spending significant time on, if 
confirmed as Under Secretary.
    The work that the senior advisor in the White House has 
done, Ivanka Trump, on the issue of WGDP, the work done that I 
saw and experienced firsthand at Millennium Challenge 
Corporation about ensuring that women's rights and women's 
participation in MCC projects as multilateral efforts inside 
countries to advance their interests and their economic 
potentiality, the work we do with our foreign assistance that I 
saw at F to focus on ways to continue to empower women all will 
be one of those priority areas that I will focus on during my 
tenure at F in addition to Internet freedom, religious freedom, 
and trying to pioneer ways to focus on the rights of the 
elderly and handicapped.
    Senator Shaheen. To go back to the Global Magnitsky Act 
that Senator Cardin raised, I have seen reports that during 
your time at Goldman Sachs, you worked to help the firm lobby 
against the Magnitsky Act which, as we know, helps identify and 
punish the most serious human rights abusers around the world.
    So if confirmed, would you seek to uphold the spirit and 
principles of the Magnitsky Act, and can you give us examples 
where you think we should be looking at using it to address 
specific events or individuals who are responsible for 
oppression?
    Mr. Ueland. Thank you very much, Senator, for the question. 
And as I explained last week to committee staff on the 
Democratic side, our responsibilities to provide information 
about what we were doing as lobbyists, including information 
about what was just occurring up here was what triggered our 
responsibility to file on what was going on in terms of Senator 
Cardin's and others' efforts to bring the Magnitsky Act into 
existence.
    It is the law of the land, Senator, and I anticipate, as we 
discussed last time I was before the committee, taking care 
that laws be faithfully executed.
    As you know, this administration has stepped forward very 
aggressively to use the Global Magnitsky Act repeatedly and 
consequentially against individuals who have committed 
wrongdoing and qualify for sanction under the Global Magnitsky 
Act.
    I am not prepared today to make policy from the table by 
indicating individuals or situations where there might be 
qualification for the Magnitsky Act, but if confirmed as Under 
Secretary, the Under Secretary and institutions in the under 
secretariat play a significant role in evaluating who might 
qualify for sanction under the Magnitsky Act, making 
recommendations to the Secretary about the Magnitsky Act, and 
then in a public way talking about the use of the Magnitsky Act 
if ultimately the President decides to go ahead and utilize it.
    Senator Shaheen. Well, I appreciate that. I hope you will 
continue to support the use of the act in ways that are 
important to our national security.
    Ambassador Todd, you talked about the role of Pakistan in 
the negotiations that are currently going on between the 
Taliban and Afghanistan. What more can we do to urge Pakistan 
not just to support those negotiations with the Taliban, but to 
encourage the Government of Afghanistan to be a critical 
player? I thought the point that some people are looking at 
those negotiations and seeing four participants that does not 
include the Government of Afghanistan in any meaningful way--so 
what could you do as Ambassador to try and move an agenda that 
actually includes the Afghan Government? Because if we are 
going to have any kind of long-term peace in Afghanistan, they 
certainly need to be part of that effort.
    Ambassador Todd. Well, thank you, Senator.
    As I mentioned in my testimony, Pakistan is playing a very 
important role in the peace and reconciliation process. They 
have been very helpful facilitating meetings. They have been 
helpful reducing tension. They have been very, very helpful in 
terms of getting the logistics and other things done that have 
helped us do what we needed to do.
    Right now, as you know, in Doha, it is an Afghan-led, 
Afghan-owned discussion and negotiation. But frankly, it is a 
long process between where we are today and where we need to 
go. For Pakistan, I think the most important role moving 
forward is facilitating and sustaining peace and 
reconciliation, which will formally result in a political 
settlement that will end the 40-year war.
    Also, Pakistan needs to continue to put extreme pressure on 
the various terrorist groups that live and reside inside 
Pakistan. And if I am confirmed, that will be my highest 
priority because getting to peace is extremely important not 
only for Afghanistan, but also for Pakistan. And frankly, no 
other country, other than Afghanistan, benefits more from peace 
than Pakistan.
    Senator Shaheen. Thank you.
    My time is up, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to the witnesses for your nominations.
    Mr. Ueland, I want to just direct my comments to you.
    Mr. Ueland. Yes, sir.
    Senator Kaine. I feel sorry for you. You have had a 
distinguished career and you are nominated for a position that 
is a really important one. And your opening comments suggest 
that there is a long agenda of things that we need to attend to 
that you would like to.
    But the reason I feel sorry for you is this. The United 
States' ability to set an example on human rights issues is 
deeply compromised by activities of the President, and since he 
is the person who has the loudest microphone of any American, 
the work that you do to try to promote human rights around the 
world is something that is going to be very, very difficult. I 
mean, I know you will make a good faith effort, should you be 
confirmed.
    But just recent examples. Last night at a rally, the 
President has continued to repeat things he has done in early 
rallies, leading crowds and chanting ``lock her up'' or ``lock 
them up'' about political opponents.
    At a rally over the weekend, the President spoke to an 
audience in Minnesota and praised police for firing a rubber 
bullet at a reporter, Ali Velshi, of MSNBC, peacefully covering 
a peaceful protest. There is no dispute about that. The 
President said that was a beautiful example of law and order. 
Press freedom is part of the portfolio of the State Department 
sections you will work with.
    Saudi Arabia imprisoning women for activism for women's 
rights, murdering a Virginia journalist, Virginia resident 
journalist, Jamal Khashoggi, and in a recent interview with an 
accompanying audio tape, the President basically said I saved 
his ass about the Crown Prince of Saudi Arabia who the U.S. 
intelligence largely believes was responsible for the 
assassination. And he bragged about I got Congress to leave him 
alone. I got Congress to stop efforts toward accountability.
    You talked in your opening about the need to fight for 
human rights in Iran and we need to, or fight for human rights 
in other jurisdictions and we need to. But again and again and 
again, the President is willing to undermine human rights in 
this country and elsewhere and protect dictators and 
authoritarians.
    One recent example--I think we would all agree that human 
rights include racial equality. The President for some reason 
has been on a tear attacking a member of this committee. 
Senator Booker was in here earlier. In tweets and in speeches 
and on television, the President has been saying that Senator 
Booker will lead an effort to destroy suburbia. Now, this 
started a couple of months ago. There are no facts to support 
it.
    I have listened with interest to see if one--and I mean if 
one--of my Republican colleagues in the Senate would speak up 
on behalf of a Senate colleague and say that that is a lie, 
that there is no basis in fact. The President would not say it, 
but Senator Booker is a valuable colleague. I have not heard 
one member of the majority of this body speak up on behalf of 
their colleague to say that this kind of lie, which is rooted 
in racism, is wrong.
    My reading of human history suggests when bad things happen 
in societies, there are the perpetrators of those things and 
then there are the resistors of bad. But those ultimately at 
fault, I have come to conclude, are the bystanders. There are 
perpetrators and they do bad things, and there are resistors. 
You stand up against them. But no perpetrators are ever 
successful--they are never successful--without huge groups of 
people who are willing to be bystanders and say nothing in the 
hopes that if they keep their head low, maybe they will not be 
a target or a subject. And what I see, as I look at our 
profession that we want to set a human rights example, is those 
words, though sincere when they are said by many, are 
dramatically undercut by the current leadership of this country 
and dramatically undercut by so many who are willing to be 
bystanders and allow these abuses to pile on one after another. 
And the examples I have given you are only examples from the 
last couple of weeks.
    Let me ask you two things. If you are confirmed, will you 
do what you can in your work with the Saudis to get them to 
better treat U.S. citizens or U.S. residents like the Virginia 
residents that have been subjected to prison terms and trials 
for women's rights activism?
    Mr. Ueland. Senator, as appropriate, my role as Under 
Secretary of J in conversations with the Saudi Arabians, as 
well as with our diplomats--happy to discuss these issues with 
them directly.
    Senator Kaine. And second, there is a U.S. resident who 
lives in Texas. He is a Belgian Rwandan citizen, Paul 
Rusesabagina. He received from President George W. Bush I think 
one of the highest civilian honors a President can give, the 
Presidential Medal of Freedom for saving lives during the 
Rwandan genocide. He has also been given an award by a group 
established by Congress, the Tom Lantos Human Rights Award. He 
has been involuntarily detained in Rwanda unable to talk with 
lawyers of his choosing or his family and brought up on charges 
that suggest he is a political opponent and may be involved in 
some significant activity, including potential violent activity 
against the Government. The State Department has repeatedly 
said that Rwanda trumps up charges against political opponents.
    Will you do what you can from the State Department to make 
sure that Mr. Rusesabagina, while in detention, is treated 
safely and that any proceeding against him is done in an open 
and transparent manner so that the world can determine whether 
any charges against him are valid or not?
    Mr. Ueland. Senator, I appreciate that question as well. 
And while I have received no briefings in relation to the 
imprisonment of this individual, I anticipate that, in the 
event of confirmation, working with colleagues in the 
Department to make sure that our opinions about what is going 
on there are clearly expressed directly and, if necessary, 
publicly.
    Senator Kaine. Great. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Ueland, last year--I am going to ask you a series of 
questions. I want to understand how you would approach this 
job, if you are confirmed.
    President Trump reportedly said regarding North Korea that, 
quote, I think Kim Jong-un or Chairman Kim, as some people say, 
is creating a nation that has great strength economically. I 
talked to him a lot about it. He is very much into that fact.
    Do you agree that Chairman Kim's desire to create a country 
with, quote, tremendous economic potential deserves praise when 
his regime has enslaved over 2.6 million of its own people, 
according to the Global Slavery Index, crushing human potential 
and systematically human rights, including through starvation, 
rape, and sexual violence of women in detention, among other 
gross violations of human rights?
    Mr. Ueland. Senator, thank you very much for the question.
    I think the President's instinct when it comes to 
relationships with such countries as North Korea is rooted in a 
grounding about a strong appreciation of human rights and that 
one of the strongest ways to advance the cause of human rights 
is economic improvement in countries. We are often called at J 
to work in collaboration and cooperation----
    Senator Menendez. So we promote economic improvement at the 
cost----
    Mr. Ueland [continuing]. Inside the Department as with 
other----
    Senator Menendez [continuing]. I want to understand. I want 
to understand how you are going to----
    Mr. Ueland. Sure, but in order to understand, Senator----
    Senator Menendez [continuing]. I want to understand--I am 
not going to let you filibuster. I know you learned that at the 
State Department.
    Mr. Ueland. No, sir, I did not learn it at the State 
Department. I am trying to fully answer your question----
    Senator Menendez. Well, then you have learned it here at 
the Senate.
    Mr. Ueland [continuing]. No, sir.
    Senator Menendez. We promote economic rights at the cost of 
all human rights. Is that what you are saying?
    Mr. Ueland. No, sir.
    Senator Menendez. Because at the end of the day, are you 
going to speak up about human rights violations in places like 
North Korea? Yes or no. Yes or no because that is a simple 
question.
    Mr. Ueland. Sir, absolutely. As you know, the J family 
works hard to----
    Senator Menendez. I am asking you what you would do, if you 
are confirmed. Will you speak up vigorously about violations of 
human rights in places like North Korea? Yes or no.
    Mr. Ueland. And as a confirmed Under Secretary for J, part 
of our responsibilities include focusing on human rights 
challenges in countries such as North Korea, which J is already 
ensuring are brought into a spotlight and explicated before the 
world.
    Senator Menendez. Let me ask you this.
    Mr. Ueland. Yes, sir.
    Senator Menendez. If you are confirmed, your role will be 
to serve as one of the United States' leading voices in 
promoting and advancing internationally recognized human rights 
and democratic norms. Would you say that promoting respect for 
press freedom and support for independent media is one of 
those?
    Mr. Ueland. Absolutely, Senator. As I explained to your 
staff, this is an area of particular interest, and as I 
mentioned earlier, Internet freedom will be something that I--
--
    Senator Menendez. All right. So if that is the case, in 
over 600 tweets President Trump has targeted specific news 
organizations, including one that he normally likes, Fox News, 
the ``New York Times,'' the ``Washington Post,'' using slurs 
like fake, phony, nasty, disgraced, failing, calling the press 
the enemy of the people, do you agree with those statements by 
the President?
    Mr. Ueland. Senator, I have not tracked all 600 tweets, but 
I do know that part of my advocacy is to ensure that there is 
as large as possible civil society and as vigorous as possible 
public square----
    Senator Menendez. Well, how do you promote freedom of the 
press abroad when it is attacked as the enemy of the people 
here at home? Can you explain that to me?
    Mr. Ueland. Senator, it is pretty straightforward. The 
ability of anybody from the President to the most junior 
individual in our country to express an opinion about the media 
is one of our core freedoms and our core opportunities here in 
the United States and a value that I would look forward to 
promoting abroad.
    Senator Menendez. Secretary Pompeo is going to host a 
meeting at this year's U.N. General Assembly to remind member 
states of their commitments under the Universal Declaration of 
Human Rights, which includes the right to seek and enjoy asylum 
that has been codified in U.S. law by the Refugee Act of 1980. 
I believe that the Trump administration is failing to adhere to 
U.S. laws that implement this important human rights framework 
with its asylum ban, its transfer of asylum seekers to 
Guatemala, and other policies.
    Do you agree that access to asylum is an obligation under 
U.S. law?
    Mr. Ueland. Senator, I have not examined either the 
treaties or the legislation that you have identified to come to 
a conclusion on that. I am happy to look into that, in the 
event that I am confirmed.
    Senator Menendez. Well, let me ask you this. I am 
consistently shocked and alarmed by the administration's 
actions to undermine basic human rights for the world's most 
vulnerable groups. When Secretary Pompeo announced the 
formation of the Commission on Unalienable Rights last year, he 
stated that a proliferation of human rights claims had called 
into question which rights are entitled to respect.
    In July, at the launch of the commission's report, the 
Secretary stated that property rights and freedom of religion 
are foremost rights, and the report itself dismisses LGBT-plus 
rights, sexual and reproductive health rights as, quote, 
divisive social and political controversies. He insisted early 
on that the commission's report would be divorced from policy 
for which the Bureau of Democracy, Human Rights, and Labor was 
created.
    Yet, commission members are traveling to the U.N. and other 
locations on the taxpayers' dime presenting their report to 
other countries, and Secretary Pompeo is pushing the report in 
town halls and cable traffic.
    How do you explain this dichotomy? Precisely what should 
our country's role be in urging respect for LGBT-plus 
populations abroad, as well as to reproductive rights and 
others that we have considered part of the human rights 
portfolio?
    Mr. Ueland. Senator, thank you very much for the question.
    The Secretary's charge to the commission was to examine and 
see if there was a common understanding of first principles 
that inform our perspective on human rights and the evolution 
of our understanding of human rights over the past 2-plus 
centuries, as well as the contribution that we made to 
international fora when it comes to the question of human 
rights.
    There is absolutely, to your point, no policy that is 
contemplated or directed as a result of the commission's 
report, instead a challenge to all of us at the State 
Department to understand--to see if we can understand how the 
work that we do every day relates to those fundamental first 
principles that really calls the United States to action inside 
the J family.
    I do not see an inconsistency at all for standing up for 
the rights of all around the world, including minorities, 
including sexual minorities, including LGBT people, I people, 
and those individuals and push for decriminalization and the 
work and thought leadership reflected in the Commission on 
Unalienable Rights.
    Senator Menendez. Well, I have to say that I do not get a 
sense that in one of the most important positions, at least 
from my perspective as a 28-year practitioner of foreign policy 
in Congress between the House and the Senate, that you are 
going to be an advocate for the type of global human rights and 
democracy norms that we, on a bipartisan level for the most 
part, have embraced. What I think you are going to do is 
basically explain away our human rights standing in the world 
by justifying whatever it is--press is the enemy of people, 
LGBTQ are divisive issues not to be promoted as human rights. 
That to me is not who I want see in the person who is going to 
be--supposed to be, within the State Department other than the 
Secretary himself, the strongest advocate for human rights and 
democracy in the world.
    Mr. Ueland. Well, Senator, I respect your perspective, and 
I look forward to proving you wrong.
    Senator Menendez. If you get the chance.
    Thank you, Mr. Chairman.
    Mr. Ueland. I will.
    The Chairman. Thank you.
    And thank you to all of our nominees for providing us with 
the benefit of your testimony and responses.
    For the information of the members, the record will remain 
open until the close of business on Thursday, September 24th, 
including----
    Senator Shaheen. Mr. Chairman, can I ask----
    The Chairman. Oh, yes. Senator Shaheen, did you wish to----
    Senator Shaheen. I do.
    The Chairman. Oh, you do. Okay. Have at it.
    Senator Shaheen. Sorry. Thank you.
    This question is for Mr. Pinto. The International Bank for 
Reconstruction and Development tends to work mainly with middle 
income countries, countries which often have high amounts of 
poverty that disproportionately affect women and girls. Yet, 
statistically if women were able to fully participate in 
economies in those countries, the global GDP would increase by 
$12 trillion in the next 5 years.
    So can you tell me, if confirmed, what you could do in your 
position to support and improve the focus of the bank's 
projects on improving the lives of those women and girls and 
giving them that opportunity to fully participate in the 
economies of the countries where they are?
    Mr. Pinto. Thanks for the question, Senator Shaheen. You 
have highlighted a critically important issue that the COVID-19 
global pandemic has made glaringly apparent.
    Women are badly--well, let me say that the informal economy 
is particularly hard hit by the global--by the pandemic, and 
that is in many countries predominantly women. So the bank's 
hard work to address the challenges that countries face from 
COVID-19 needs to focus on women. And Executive Director D.J. 
Norquist has made this a huge priority, and we are partners--if 
confirmed, we would be partners together in addressing that.
    And I would also like to just mention that we have also 
placed a great emphasis on the We-Fi initiative which supports 
female entrepreneurs particularly in developing countries and 
the challenges they face. And so those are just a few of the 
initiatives that, you know, if confirmed, we would continue to 
push using the voice and voting power of the United States at 
the bank.
    Senator Shaheen. Well, thank you. I would point out that 
these were issues before the pandemic. I appreciate the focus 
on what is happening because of the pandemic, but it is clearly 
a broader concern than that.
    We have all seen the reports of China's efforts to put 
officials in positions of influence in international 
organizations, whether it is WHO, but the World Bank is on that 
list. And what happens, given this administration's withdrawal 
from many international organizations and from a commitment to 
multilateralism? What kind of opportunity does that open for 
China to replace American influence and interest in many of 
those international organizations?
    Mr. Pinto. Thanks for that question, Senator. It is 
something that we take very seriously, and certainly any 
retreat at the World Bank of--the United States, as you know, 
is the largest shareholder. So any retreat of our influence at 
the bank does allow China to assert greater influence. So we do 
have a robust engagement at the bank, and that will continue. 
And if I am confirmed, I will certainly support that. It is 
certainly something that we take very seriously.
    Senator Shaheen. Well, thank you. I would hope it is 
something that you also share with other members of the 
administration so that the President understands the critical 
nature of ensuring the United States' continued influence in 
those international organizations.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    For the information of members, the record will remain open 
until the close of business on Thursday, September 24th, 
including for members to submit questions for the record.
    With thanks of the committee to our witnesses, this hearing 
is now adjourned.
    [Whereupon, at 10:58 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
           to Ashok Michael Pinto by Senator Robert Menendez

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the IBRD will not take any action to support, promote, or participate 
in any matters related to, or that could be perceived as benefitting, 
the Trump Organization?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. Diversity is of particular importance to me as an Indian 
American and the son of immigrant parents. If confirmed, I will 
promote, mentor, and support members of the staff from diverse 
backgrounds and underrepresented groups in the Office of the U.S. 
Executive Director, including foreign service officers, career civil 
servants as well as international Bank staff. I also strongly support 
diversity of viewpoints as part of an open and collaborative office 
environment.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes. If confirmed, I commit to respond promptly to all 
requests for information by members of this committee, in accordance 
with U.S. laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes. If confirmed, I commit to appear before this committee 
upon request, in accordance with U.S. laws and regulations.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in your office, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
laws, regulations, and rules, and to raise concerns that I may have 
through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. At the World Bank, I have consistently worked to promote 
human rights and democracy. Specifically, I have underscored U.S. 
support for the Bank's oversight components, including Integrity, the 
Compliance Advisor Ombudsman (CAO), Group Internal Audit, the 
Independent Evaluation Group, and the Inspection Panel (IPN). I have 
also supported recent reforms that strengthen CAO and IPN. Through each 
of these complementary functions, the Bank seeks to uphold the highest 
human rights and democratic standards in Bank projects and operations. 
Emphasizing independent accountability, transparency, and respect for 
the individual ensures that human rights are paramount. In addition, 
focusing on the world's poorest and most vulnerable people advances 
human rights by providing better health care, education, sanitation, 
and sources of energy. Throughout my career, I have worked to promote 
oversight, transparency, and accountability in U.S. Government 
programs. If confirmed, I will use the voice and voting power of the 
United States to make sure that the Board of Executive Directors 
upholds the highest standards of human rights and democracy in all 
projects it approves.

    Question. What issues are the most pressing challenges to democracy 
or democratic development? These challenges might include obstacles to 
participatory and accountable governance and institutions, rule of law, 
authentic political competition, civil society, human rights and press 
freedom. Please be as specific as possible.

    Answer. The World Bank's twin goals are to end extreme poverty and 
promote shared prosperity. Democracy is a closely interconnected 
element of these development goals. The Bank's work to promote justice 
and the rule of law is of crucial importance in delivering favorable 
development outcomes. Among the most pressing challenges are 
strengthening public institutions, eradicating corruption and 
encouraging private sector job creation--all of which foster democratic 
development and prosperity. The COVID-19 global pandemic presents the 
most pressing challenge to democracy of our lifetime, causing tens of 
millions of people to fall into extreme poverty and reversing years' 
worth of progress in this area. If confirmed, I will work to ensure 
that the Bank's COVID-19 assistance is narrowly tailored to meet these 
objectives and is free from waste, fraud, and abuse.

    Question. What steps will you take--if confirmed--to support 
democracy abroad? What do you hope to accomplish through these actions? 
What are the potential impediments to addressing the specific obstacles 
you have identified?

    Answer. As previously stated, working to meet the Bank's twin goals 
is the best way to support democracy in the countries it supports. The 
ultimate goal of Bank projects is to foster economic growth and 
capacity of public institutions such that a particular country is on 
the path to graduating from needing Bank loans and then the funds can 
be used in other countries in need. Attracting private sector 
investment and fighting corruption--both exacerbated by COVID-19--will 
facilitate progress in these areas.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, to support democracy and governance, and what will 
you prioritize in processes to administer such assistance?

    Answer. If confirmed, I will work to support projects that come 
before the Board of Executive Directors with the highest standards of 
governance and the best development outcomes. Furthermore, I will 
prioritize projects that support the citizens of the world's poorest 
countries.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society? What steps will you take to pro-actively address efforts to 
restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. The Office of the U.S. Executive Director maintains an open 
dialogue with a broad range of civil society organizations (CSOs), all 
of whom provide valuable insights about the efficacy of Bank programs 
and their effects on local communities. They are our eyes and ears on 
the ground and are an important outside accountability mechanism. If 
confirmed, I expect to continue this practice as well as to support the 
ability of these organizations to operate without restrictions in the 
countries in which they operate. In particular, I will continue to work 
with CSOs to gain critical information regarding the implementation of 
the Bank's COVID-19 support.

    Question. Will you and your teams actively engage on the right of 
labor groups to organize, including for independent trade unions?

    Answer. Well-functioning labor markets in countries in which the 
World Bank provides support are essential to boost economic growth and 
promote the well-being of workers. If confirmed, I will work to support 
all elements that help all workers prosper.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? What specifically will you 
commit to do to help LGBTQ people?

    Answer. LGBTQ people are entitled to the same protections as all 
other people, which the United States works to uphold. For example, the 
U.S. Executive Director objected to the recent Tanzania Secondary 
Education Quality Improvement Project (SEQUIP) due to insufficient 
protections for pregnant girls and LGBTQ people, among other concerns. 
If confirmed, I will use the voice and voting power of the United 
States to defend human dignity without exceptions or limitations.

COVID-19
    Question. COVID-19 has decimated economies around the globe--
especially in the developing world. Does the World Bank have sufficient 
resources to respond to the COVID-19 pandemic? Should the United States 
support mobilization of additional resources, and if so, through what 
mechanisms?

    Answer. In aiming to assist one billion people impacted by COVID-
19, the World Bank Group has committed to deploy up to $160 billion 
over the 15 months since the pandemic started earlier this year. Of 
this amount, $50 billion will be in either grants or highly 
concessional terms from the International Development Association 
(IDA), which supports the world's poorest countries. This level of 
assistance would not be possible absent the support of Congress for the 
2018 International Bank for Reconstruction and Development and 
International Finance Corporation capital increase--to which the United 
States was the largest contributor at $1.2 billion--and the IDA19 
replenishment of $3 billion. Bilateral debt service suspension is also 
helping governments provide critical assistance to the world's most 
vulnerable people.

    Question. The U.S. commitment to IDA-19 is about 9% lower than the 
U.S. commitment to IDA-18 and more than 20% lower than the U.S. 
commitment to IDA-17. Why is the administration cutting U.S. 
commitments to IDA, especially at a time when the Bank will need it to 
recover after COVID-19? How does a smaller U.S. contribution to IDA 
shape U.S. influence at the World Bank, particularly as other donor 
countries such as China have increased their contributions?

    Answer. As previously mentioned, the United States was the largest 
contributor to the Bank's recent capital increase. In fact, the U.S. 
contribution of $1.2 billion was nearly double that of the next-largest 
contributor. The U.S. contribution to the IDA-19 replenishment makes 
the United States the third-largest donor. The United States maintains 
significant influence at the World Bank given its status as a founding 
member and the largest shareholder. The Bank sought an increased 
contribution from China due to the size of its economy and the need for 
it to pay its fair share and make progress towards graduation.

    Question. In response to the COVID-19 crisis, the World Bank Group 
has pledged to make billions of dollars in grants and financial support 
available to help developing countries respond to the health, social, 
and economic impacts of Covid-19. These relief packages are 
unprecedented in scale and speed of distribution. Although these 
packages will provide necessary support to developing economies around 
the world, the rate at which these funds are dispersed creates the risk 
for gaps in human rights and environmental due diligence. How will you 
ensure that World Bank Group abides by its due diligence standards 
during this time? How will you ensure that the measures designed to 
address the COVID-19 crisis incorporate community feedback?

    Answer. World Bank assistance to countries attempting to recover 
from the COVID-19 global pandemic now reaches more than 100 countries 
and will total up to $160 billion. Comprehensive oversight is more 
important than ever. If confirmed, I will use the voice and voting 
power of the United States at the World Bank to promote the work of its 
oversight components, ensure the implementation of necessary reforms--
including enhanced stakeholder feedback--and support projects with the 
highest standards designed for strong development outcomes.

    Question. A major disappointment of the World Bank Group's initial 
COVID-19 financial package is that no funds have gone to support 
communities who have been harmed by pre-COVID projects, including by 
projects found to be out of compliance with the World Bank Group's 
environmental and social policies. It is disappointing because negative 
project impacts, including damage to water sources, labor violations, 
and displacement, can make individuals more vulnerable and thus less 
able to deal with the effects of the pandemic. How will you ensure that 
the World Bank Group includes initiatives to address the 
vulnerabilities of project-affected people in its COVID response?

    Answer. Comprehensive oversight of World Bank projects is the best 
way to make sure that adequate measures are in place to protect 
vulnerable people. Negative project impacts damage the Bank's 
reputation and hinder its ability to assist vulnerable populations. The 
Bank needs to admit when it makes mistakes and to remedy them; it 
exists to help, not hurt, people. If confirmed, I will use the voice 
and voting power of the United States to continue to support the 
important work of the Bank's oversight components. Only through 
constant attention and support can focus on environmental and social 
policies to protect vulnerable people be maintained.

Economic Statecraft
    Question. I have been working on legislation that would 
reinvigorate the tools of our Economic Statecraft. How does 
participation in the World Bank affect U.S. security interests and 
leadership role in the global economy?

    Answer. In representing the views of the United States at the 
institution, the primary goal of the Office of the U.S. Executive 
Director is to ensure that World Bank programs and initiatives not only 
enhance development for its client countries but also are consistent 
with advancing U.S. foreign policy, national security, and commercial 
priorities, as well as upholding America's rigorous standards and 
safeguards. At the World Bank, the voice and voting power of the United 
States stand for independent accountability, budget discipline, and 
focus on the Bank's core mission. Robust engagement and leadership at 
the World Bank help to achieve these objectives.

    Question. China has emerged as a major creditor in recent years, 
but the terms of its lending are opaque. Does the World Bank have 
sufficient access to the information needed to assess the financing 
needs of developing countries and emerging markets? Would any World 
Bank assistance be used to pay off China debt in certain countries?

    Answer. Accurate data is essential to inform policy decisions and 
manage risk. There are, however, significant data gaps. For example, 
much more information is needed about public debt related to state-
owned enterprises. There is also significant room for improvement in 
data quality, which will go a long way to address debt vulnerabilities 
in low-income developing countries. Debt transparency and public 
disclosure of debt data are key elements of the Debt Service Suspension 
Initiative (DSSI), spearheaded by the Bank and International Monetary 
Fund, which aims to help the world's poorest countries assist their 
citizens during the pandemic by allowing them to postpone debt payments 
to use that money for COVID healthcare, social support, etc. Providing 
additional granularity and facilitating creditor and debtor debt data 
reconciliation are integral steps in assessing the financing needs of 
developing countries. To support the DSSI and promote improved debt 
transparency, the Bank has released data on the public and publicly 
guaranteed debt stocks and projected debt service due, for the 68 DSSI 
eligible countries, by creditor type. This data is publicly available 
on the Bank's web site: https://www.worldbank.org/en/topic/debt/brief/
covid-19-debt-service-suspension-initiative.
    Only China's full participation in the World Bank's DSSI will 
ensure that DSSI relief from the United States and other bilateral 
creditors does not ``bleed'' to China. Although China, as a member of 
the G20, claims to support this initiative, more work is necessary to 
ensure full participation, and the G7 recently took steps to do so, 
again. Bank assistance should not be used to pay off such debt.

Environmental and Social Safeguards and Due Diligence
    Question. As a substantial shareholder across the multilateral 
development banks (MDBs), the United States has long played a critical 
role in shaping the banks' priorities and promoting investments that 
fulfill a development mandate and reduce global poverty. Our Government 
has led efforts to ensure that these public institutions have strong 
social and environmental safeguards, provide the public with access to 
information regarding their investments, and uphold robust 
accountability frameworks. How will you continue and build on this 
tradition of leadership to advance the values of transparency, 
accountability, and strong standards that the U.S. Government has 
championed across MDBs, including at the World Bank Group?

    Answer. As previously stated, the voice and voting power of the 
United States at the World Bank stand for independent accountability, 
budget discipline, and focus on the Bank's core mission. While we must 
react quickly to help those in need, we must not let speed come at the 
expense of accountability, which includes quality and environmental and 
social safeguards. This is particularly important as the world responds 
to the COVID-19 global pandemic. U.S. leadership is more important than 
ever to promote peace, stability, and economic growth. Indeed, the 
United States has taken a leadership role in supporting the recent 
reforms instituted within the Compliance Advisor Ombudsman and 
Inspection Panel components of the World Bank Group. If confirmed, I 
will work to uphold this tradition of leadership.

Accountability and Remedy
    Question. In 1993, Congress leveraged U.S. support for the World 
Bank to catalyze the creation of the Inspection Panel--an independent 
accountability mechanism that can investigate allegations by 
communities of the Bank's failure to follow its own policies and 
procedures. On March 5, 2020, the World Bank Group Board of Directors 
approved a set of sweeping changes to the Panel's toolkit and the World 
Bank's accountability framework. While some of these reforms are long 
overdue--such as the creation of a dispute resolution function that 
exists at almost every other development finance institution--they were 
largely created without robust public consultation and will only prove 
effective if properly implemented. How will you work to ensure that 
these historic changes are operationalized in a way that reflects 
community voices and does not compromise the independence and 
effectiveness of World Bank accountability?

    Answer. The World Bank's Board of Executive Directors recently 
established the World Bank Accountability Mechanism and approved an 
updated Resolution for the World Bank Inspection Panel. This action was 
the result of a three-year review process designed to improve the 
Bank's accountability framework, which received input from a broad 
range of stakeholders, including civil society organizations. If 
confirmed, I will work to ensure that the newly established dispute 
resolution function provides an adequate option to communities who feel 
that Bank projects have negatively impacted them. This engagement will 
lead up to the Board's review in three years of these enhancements to 
assess their effectiveness, efficiency, and operational and development 
impact.

    Question. Even with the best risk management, harm to communities 
may still occur. In such cases, meaningful redress can enable people to 
productively move forward, which furthers the World Bank Group's 
development mandate and strengthens its institutional legitimacy. The 
World Bank Group's accountability mechanisms, the Inspection Panel and 
the Compliance Advisor Ombudsman, are important tools for strengthening 
accountability at the World Bank Group and addressing community 
grievances. However, even in the event of confirmed harm, which can 
include environmental damage and lost livelihoods, remedial measures 
identified through an accountability process often go unimplemented due 
to a lack of readily available resources. A remedy fund would help 
ensure that resources would be available to remediate negative impacts 
after an accountability mechanism process. Will you promote and support 
efforts to create a remedy fund at the World Bank Group to ensure that 
negative project impacts can be effectively remediated?

    Answer. The World Bank's efforts to address fragility, conflict and 
violence are part of its twin goals to reduce extreme poverty and 
promote shared prosperity. Indeed, the Bank estimates that by 2030, FCV 
countries will be home to up to two-thirds of the world's extreme poor. 
Operating in FCV countries involves greater risk. As part of the 
International Finance Corporation's goal of promoting private sector 
investment and job creation, it also encourages those private 
enterprises to have appropriate risk mechanisms in place. If confirmed, 
I would work closely with all relevant stakeholders and consider ideas 
to strengthen the provision of remedies to individuals or communities.



                               __________


       Responses to Additional Questions for the Record Submitted
              to Ashok Michael Pinto by Senator Todd Young

    Question. The COVID-19 pandemic has resulted in an unprecedented 
retreat by international lenders from the developing world, leaving 
international financial institutes often the last option standing as 
governments struggle to cope with the economic and human cost of the 
pandemic. Does the World Bank have sufficient resources to respond to 
the COVID-19 pandemic? Should the United States support mobilization of 
additional resources, and if so, through what mechanisms?

    Answer. In aiming to assist one billion people impacted by COVID-
19, the World Bank Group has committed to deploy up to $160 billion 
over the 15 months since the pandemic started earlier this year. Of 
this amount, $50 billion will be in either grants or highly 
concessional terms from the International Development Association 
(IDA), which supports the world's poorest countries. This level of 
assistance would not be possible absent the support of Congress for the 
2018 International Bank for Reconstruction and Development and 
International Finance Corporation capital increase--to which the United 
States was the largest contributor at $1.2 billion--and the IDA19 
replenishment of $3 billion. Bilateral debt service suspension can also 
help governments provide critical assistance to the world's most 
vulnerable people.

    Question. Developing countries face a variety of financing needs, 
including funding the immediate public health response, broad budgetary 
support, and liquidity support. How should the international financial 
institutions prioritize their financial assistance? How should World 
Bank lending be allocated across countries?

    Answer. World Bank support must prioritize saving lives, protecting 
the poor and most vulnerable people from economic and social impacts, 
preserving jobs and fostering business growth and job creation, and 
strengthening institutions for a resilient recovery. The World Bank 
should continue to make assisting the world's poorest countries its 
primary objective, including through bilateral debt service suspension, 
which can provide swift and significant relief, allowing governments to 
channel these resources to support their citizens during the COVID-19 
global pandemic. Continued emphasis on graduation strategy is also a 
key element in prioritizing financial assistance. Countries such as 
China that have succeeded in developing need to become net contributors 
to the Bank, not borrowers of resources that are needed elsewhere.

    Question. What reasons are there for the World Bank to continue to 
lend to dynamic large emerging market economies such as China, which 
often have their own active aid programs? Do you believe that the World 
Bank should stop lending to China?

    Answer. China is the world's second largest economy. The Bank 
should accelerate the pace of its reduction in lending to China, so 
that it can lend more to developing countries with greater needs and 
less ability to finance them. The United States has been the largest 
advocate of reducing lending to China and other countries above the 
graduation threshold, and this was agreed as part of the capital 
increase package. Congress has enacted several restrictions on MDB 
lending to China and the U.S. Executive Directors forcefully adhere to 
those restrictions. If there is continued World Bank lending to China, 
it should be aimed at it graduating from all Bank loans, especially 
given that it has its own development banks. Any continued loans should 
be targeted to China's most vulnerable groups, state-owned enterprise 
(SOE) reform, financial sector reform, and global public goods that 
create value beyond its borders--projects that remediate damage that 
China does to the rest of the world from which we all can benefit. 
Reducing state involvement in the private sector, encouraging greater 
competition, and fostering a more level playing field are key 
objectives on which Bank lending must be based. In fiscal year 2020, 
the United States did not support any projects that involved lending to 
China.

    Question. China has emerged as a major creditor in recent years, 
but the terms of its lending are opaque. Does the World Bank have 
sufficient access to the information needed to assess the financing 
needs of developing countries and emerging markets?

    Answer. Accurate data is essential to inform policy decisions and 
manage risk. There are, however, significant data gaps. For example, 
much more information is needed about public debt related to state-
owned enterprises. [DA5]There is also significant room for improvement 
in data quality, which will go a long way to address debt 
vulnerabilities in low-income developing countries. Debt transparency 
and public disclosure of debt data are key elements of the Debt Service 
Suspension Initiative (DSSI), spearheaded by the World Bank and the 
International Monetary Fund, which aims to help the world's poorest 
countries assist their citizens. Providing additional granularity and 
facilitating creditor and debtor debt data reconciliation are integral 
steps in assessing the financing needs of developing countries. To 
support the DSSI and promote improved debt transparency, the Bank has 
released data on the public and publicly guaranteed debt stocks and 
projected debt service due, for the 68 DSSI eligible countries, by 
creditor type. This data is publicly available on the Bank's web site: 
https://www.worldbank.org/en/topic/debt/brief/covid-19-debt-service-
suspension-initiative.

    Question. We have spent a lot of time on this committee discussing 
the perils of Chinese debt trap financing. Has World Bank assistance 
been used to pay off Chinese debt in certain countries--such as those 
that participate in the Belt and Road Initiative? Should the World Bank 
be used for such activities?

    Answer. No. Only China's full participation in the World Bank's 
Debt Service Suspension Initiative (DSSI) will ensure that DSSI relief 
from the United States and other bilateral creditors does not ``bleed'' 
to China. Although China, as a member of the G20, claims to support 
this initiative, more work is necessary to ensure full participation, 
and the recent G7 Finance Minister's statement makes that point 
clearly. Bank assistance should not be used to pay off such debt.

    Question. What do you see as the key reform priorities at the World 
Bank?

    Answer. At the World Bank, independent accountability, budget 
discipline, and focus on the Bank's core mission are key reform 
priorities. If confirmed, I would use the substantial experience I have 
gained throughout my career in promoting comprehensive oversight at the 
Bank. The capital increase package includes comprehensive and 
transformative reforms that World Bank Group will implement to promote 
stronger global economic growth and sustainable poverty reduction. 
These reforms include focusing development resources on needier 
countries with less access to other sources of finance, incentivizing 
countries to mobilize other resources for financing their development, 
and creating a more financially-disciplined World Bank Group. In 
addition, renewed focus on graduation, transparency in the procurement 
process, and modernization of its policy on information and 
communications technologies are vital.

       Responses to Additional Questions for the Record Submitted
          to Ashok Michael Pinto by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. At the World Bank, I have consistently worked to promote 
human rights and democracy. Specifically, I have underscored U.S. 
support for the Bank's oversight components, including Integrity, 
Compliance Advisor Ombudsman, Group Internal Audit, Independent 
Evaluation Group, and Inspection Panel. Through each of these 
complementary functions, the Bank seeks to uphold the highest human 
rights and democratic standards in Bank projects and operations. 
Emphasizing independent accountability, transparency, and respect for 
the individual ensures that human rights are paramount. Indeed, I have 
focused on comprehensive oversight, transparency, and accountability 
throughout my career. In addition, focusing on the world's poorest and 
most vulnerable people advances human rights by providing better health 
care, education, sanitation, and energy. If confirmed, I will use the 
voice and voting power of the United States to make sure that the Board 
upholds the highest standards of human rights and democracy in the 
projects it approves.

Diversity
   Research from private industry demonstrates that, when managed 
        well, diversity makes business teams better both in terms of 
        creativity and in terms of productivity. What will you do to 
        promote, mentor, and support your staff that come from diverse 
        backgrounds and underrepresented groups?

    Answer. Diversity is of particular importance to me as an Indian 
American and the son of immigrant parents. If confirmed, I will 
continue to promote, mentor, and support members of the staff from 
diverse backgrounds and underrepresented groups in the Office of the 
U.S. Executive Director. I also strongly support diversity of 
viewpoints as part of an open and collaborative office environment.

    Question. What steps will you take to ensure each of the 
supervisors at the International Bank for Reconstruction and 
Development are fostering an environment that is diverse and inclusive?

    Answer. At the World Bank, the Office of the U.S. Executive 
Director is a leader in diversity and inclusion initiatives. For 
example, the United States is a member of the Gender Working Group, 
which seeks to ensure the Board of Executive Directors is both gender 
aware and representative in the way it carries out its governance of 
the World Bank Group. Promoting these issues is more important than 
ever given the global pandemic. The Gender Working Group also seeks to 
identify ways to make the Board more inclusive, through diversity of 
voices and experience as well as gender balance. The United States has 
one of the most diverse offices of any Board member. If confirmed, I 
would work to continue that track record.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
Federal ethics laws, regulations and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes. If confirmed, I commit to comply with all relevant 
Federal ethics laws, regulations and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. I maintain one bank account in the United Kingdom from my 
study abroad program in Oxford more than 25 years ago. The balance is 
substantially below the minimum for the financial disclosure statement. 
I do not have any other foreign financial interests.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Hon. William E. Todd by Senator Robert Menendez

    Question. How will a diminished U.S. presence in Afghanistan impact 
our interests in Pakistan? If we indeed draw down to zero troops in 
Afghanistan by next year, what is your vision for our relationship with 
Pakistan?

    Answer. Pakistan's continued and constructive engagement in a 
successful Afghan peace process, leading to a durable, negotiated 
political settlement, is a necessary condition for stronger U.S.-
Pakistani ties. The United States will continue to hold the Taliban to 
all of their commitments under the U.S.-Taliban agreement. While 
reaching a negotiated political settlement that includes a 
comprehensive ceasefire will be challenging, I understand that the 
Department believes this milestone could enable a more robust and 
multi-faceted U.S.-Pakistan relationship, including through expanded 
trade and commercial ties.

    Question.  I understand that Pakistan has taken important steps to 
support the peace process in Afghanistan and bring the Taliban to the 
table.

    Answer. Yes. Pakistan has taken certain helpful steps to advance 
the Afghan peace process, including the release of a senior Taliban 
negotiator, which assisted in bringing the Taliban to the negotiating 
table. Notably, Pakistan also helped to facilitate the release of a 
U.S. hostage in Afghanistan in November 2019.

    Question.  How would you characterize Pakistan's commitment to the 
peace process in Afghanistan?

    Answer. Besides Afghanistan, no country would benefit more from 
peace in Afghanistan than Pakistan. President Trump and Prime Minister 
Khan have agreed that a negotiated political settlement in Afghanistan 
offers the best way to end more than 40 years of war in Afghanistan. 
Pakistan has played an important role in creating the conditions that 
brought Afghan leaders and the Taliban to the historic start of Afghan 
Peace Negotiations, including through the release of a senior Taliban 
negotiator and facilitating the release of two Western hostages. 
Helping to facilitate Afghanistan Peace Negotiations that conclude in a 
political settlement is an opportunity for Pakistan to forge a more 
constructive role in the region.

    Question.  What more should Pakistan be doing that they are not 
currently doing to support the peace process in Afghanistan?

    Answer. Pakistan has played an important role in creating the 
conditions that brought Afghan leaders and the Taliban to the historic 
start of Afghanistan Peace Negotiations. If confirmed, I will work 
closely with Ambassador Khalilzad to press Pakistan to continue to 
engage constructively throughout the process, including by using its 
influence with all parties, including the Taliban, in support of a 
durable negotiated political settlement.

    Question.  Religious minorities in Pakistan including Ahmadi 
Muslims, Sikhs, Hindus, and Christians have long faced societal and 
legal discrimination in addition to violence at the hands of extremist 
groups. Members of these groups increasingly face accusations of 
blasphemy, which is punishable by death.

   Do I have your commitment to meet with representatives of 
        Pakistan's religious minority communities if confirmed?

    Answer. As my previous experience as Ambassador to Cambodia shows, 
I am committed to engaging robustly with civil society, including 
representatives of religious communities. I understand that our Embassy 
in Pakistan meets regularly with representatives of religious minority 
groups in Pakistan. If confirmed, I would ensure that this robust 
engagement continues; I commit to meeting with representatives of these 
communities myself and directing my staff to do the same.

    Question.  I am deeply concerned by the ongoing persecution of 
Ahmadi Muslims in Pakistan, which is demonstrated by the Government of 
Pakistan's refusal to acknowledge them as Muslims and resulting 
prosecution of Ahmadis who describe themselves as Muslims.

   Will you urge the Government of Pakistan to abide by its 
        international commitments on respecting religious freedom?

    Answer. Pakistan is designated by the Department as a Country of 
Particular Concern (CPC) for having engaged in or tolerated 
particularly severe violations of religious freedom, including the 
discrimination and violence against Ahmadi Muslims which you note. The 
Department's International Religious Freedom Report addresses these 
issues, and the Department speaks out about them and opposes laws that 
impede individuals' freedom of religion or belief, such as blasphemy, 
apostasy, and anti-conversion laws. The right to freedom of thought, 
conscience, and religion is reflected in the Universal Declaration of 
Human Rights, as well as the International Covenant on Civil and 
Political Rights to which Pakistan is a party. As such, the Department 
urges all countries, including Pakistan, to protect this right in 
practice. If confirmed, I would prioritize engagement with all parties 
to support improved respect for religious freedom

    Question.  If confirmed, what specific steps will you take to help 
protect Ahmadi Muslims and ensure that they can experience their full 
human and civil rights? What will your strategy be for engaging with 
the Government of Pakistan on this issue?

    Answer. The Department regularly raises with the Government of 
Pakistan the importance of upholding human rights, including those of 
Ahmadi Muslims, both bilaterally and in the context of our annual Human 
Rights report and International Religious Freedom report. If confirmed, 
I will continue to make this a priority, and would emphasize that 
Pakistan needs to address systemic discrimination and violence against 
the Ahmadiyya community among critical actions required to be removed 
from the Country of Particular Concern (CPC) list. In addition, if 
confirmed, I would engage the Government of Pakistan on ensuring 
citizens' basic rights to practice their religion freely, and to pursue 
legal reforms that better protect religious freedom, including 
reforming blasphemy laws that are disproportionally used against 
religious minorities and Ahmadi Muslims.

    Question.  What measures will you take, or encourage the 
administration to take, to ensure that extremists in Pakistan who 
incite violence against Ahmadi Muslims--and Pakistani politicians who 
openly support them--face appropriate U.S. sanctions including but not 
limited to travel bans?

    Answer. Existing regulations, including the Immigration and 
Nationalization Act and Presidential Proclamation 8697, provide 
appropriate tools that the Department applies to prevent travel to the 
United States by foreign government officials who have participated in 
or are responsible for particularly severe violations of religious 
freedom. As Ambassador, I will encourage consular officers to continue 
to apply these regulations appropriately to anyone involved in inciting 
violence against religious minorities in Pakistan, including Ahmadi 
Muslims.

    Question.  On April 13th the U.S. Commission on International 
Religious Freedom (USCIRF) issued a statement highlighting reports of 
Hindus and Christians being denied food aid, which is especially 
critical given the economic and health consequences of the COVID-19 
pandemic.

   If confirmed, how will you engage with the Government of Pakistan 
        on ensuring that Hindus, Christians, and other religious 
        minorities have access to the COVID-19 assistance it 
        distributes?

    Answer. As stated in my testimony, the U.S.-Pakistan COVID-19 
partnership is one of my highest priorities, and part of that is 
ensuring Pakistan distributes COVID-19 assistance fairly, equitably, 
and to those most in need. I understand from civil society and human 
rights NGOs and Pakistani media that some minority communities are 
having difficulty accessing assistance. I also know that vulnerable 
communities frequently face the brunt of the impact from COVID-19.
    There have been credible reports of two incidents in which private 
Muslim charities in Karachi either denied aid to Hindus or refused to 
accept aid across Sunni-Shia sectarian lines. The first group changed 
its stance after public backlash.
    If confirmed, I will strongly encourage Pakistani officials and aid 
organizations to protect their minority communities and ensure they are 
afforded the same assistance that all citizens receive amid this 
pandemic.

    Question.  How will you ensure that U.S. assistance, including 
COVID-19 assistance, reaches religious minorities in Pakistan?

    Answer. I understand State and USAID make every effort to ensure 
religious minority groups, such as Ahmadis, Christians, Parsis, Hindus, 
and Sikhs, are being supported through our programming, and if 
confirmed, I commit to do the same. USAID collaborates with local 
organizations that are former small grant recipients in Karachi, 
southern Punjab, and northern Sindh on addressing the challenges of 
getting relief items to minority communities. For example, USAID 
partner organization Thar Education Alliance is conducting COVID-19 
awareness sessions in southern Pakistan, primarily with the Hindu 
community, about the importance of social distancing and adopting 
precautionary measures. Another USAID partner, Bargad, is collaborating 
with the Punjab provincial government's Human Rights and Minorities 
Affairs Department to ensure minorities are not excluded or 
discriminated against during the pandemic. USAID collaboration on the 
Pakistani Government's Ehsaas cash transfer program includes 
initiatives working on outreach and access to more marginalized 
populations (including religious minorities). This is an important 
priority of mine, and one I will pay close attention to if confirmed.

    Question.  Organizations that implement U.S. assistance programs 
have faced significant bureaucratic obstacles to legal registration in 
Pakistan.

   Do I have your commitment to advocate for American aid implementers 
        that seek to register in Pakistan?

    Answer. U.S. implementers are conducting important development work 
in Pakistan, and if confirmed I pledge to support them. But the 
situation in Pakistan is troubling. In late 2017, at least 20 
international nongovernmental organizations (INGOs), nine of which are 
U.S.-based, reportedly received notification that their registration 
applications were rejected and that they were to cease operations 
within 60 days. In August 2018, at least 21 additional INGOs received 
similar notifications. Following diplomatic engagement by the 
international community, which I would continue, the Government created 
an appeals process that allowed INGOs to operate while their rejections 
are appealed. Yet the appeals process remains opaque and lengthy.
    Pakistan's security institutions have long been suspicious of 
nongovernmental organizations (NGOs), international and domestic, and 
their work in areas Pakistan's military deems sensitive, including 
religious freedom, human rights, and media freedom. There are also 
credible reports that authorities regularly intimidate and harass NGOs.
    There are signs the operational environment is slightly improving, 
however. In February 2020, nine INGOs which were previously rejected 
were invited to re-apply. The Ministry of Finance's Economic Affairs 
Division and the Ministry of Interior recently eased INGO restrictions 
for INGOs implementing COVID-19 relief programs. Although this is a 
welcome effort, I will continue to raise this issue if confirmed.

    Question.  A constructive and positive work culture is critical at 
our Embassies around the world. This is especially important in 
Pakistan, which is a difficult operating environment for our diplomats.

   How would you describe your management style?

    Answer. I am a hands-on leader who leads by example, but am 
sensitive to staff's needs and morale. Above all, I value honesty, 
integrity, and seek trusted relationships with my staff. I prioritize 
diversity in the work place and am a vigorous supporter of the State 
Department's affinity groups and Women's Executive Leadership Program. 
Throughout my tenure in government, I have been pro-active in ensuring 
professional development for both junior and senior staff, and have 
promoted several programs, including the Pickering and Rangel Graduate 
Fellowship Program and Pathways Internships, to cultivate a strong and 
diverse workforce.Questions for the Record submitted to

    Question.  If confirmed, do I have your commitment to remain 
engaged with this committee on maintaining the morale of the Embassy 
staff and a positive work culture in Islamabad?

    Answer. If confirmed, I will work to maintain the morale and 
positive work culture in Islamabad and will work with the committee on 
this important issue.

    Question.  How would you characterize your support of career State 
employees during your tenure, and how would you seek out their 
expertise and support them at the Embassy if confirmed?

    Answer. It is my highest priority to recruit, retain and develop 
the best and brightest for the Department of State, and coach its 
future leaders. I am deeply committed to improving and developing all 
levels of the Foreign and Civil Service, from Ambassadors to entry 
level officers. As the acting director general, I directed many 
Department of State mentoring programs and executive leadership 
programs, and over my career have mentored numerous members of the 
foreign service and civil service. As the Principal Deputy Assistant 
Secretary in SCA, I was responsible for the executive leadership of the 
day-to-day operations of the Bureau, including its nine embassies.
    I seek out the expertise of career State employees, being one 
myself, and will continue to support them, including in their 
development. Throughout my career, I have promoted a ``one team one 
mission'' philosophy, and if confirmed, I would do the same for Embassy 
Islamabad and its constituent consulates.

    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that prohibited personnel 
practices have no place in the federal government and will not be 
tolerated. I agree that those found to have engaged in retaliation 
should be subject to accountability and discipline consistent with 
applicable laws, regulations, and Department policy.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will make a priority of encouraging the 
recruitment and professional development of a diverse staff that 
represents the United States. Working with my staff, I will encourage 
the recruitment of a diverse, qualified group of applicants for each 
job opening, and I will work to expand our mentoring program for new 
officers to include entry-level specialists and eligible family member 
employees.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes. I will provide timely responses organized through the 
Department of State's Bureau of Legislative Affairs and conducted in 
accordance with long-standing Department and Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that my appearances would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

   What issues are the most pressing challenges to democracy or 
        democratic development in Pakistan? These challenges might 
        include obstacles to participatory and accountable governance 
        and institutions, rule of law, authentic political competition, 
        civil society, human rights and press freedom. Please be as 
        specific as possible.

    Answer. As noted in my testimony, a key priority for me, if 
confirmed as U.S. Ambassador to Pakistan, will be to advance human 
rights, for which I have a strong track record in my career. While 
serving as Ambassador to Cambodia during highly contentious national 
elections and ensuing months of political crisis, including Cambodia's 
worst civil upheaval in 15 years, I reached out to government and 
opposition leaders to promote peace and non-violence. Security forces 
largely acted with restraint, even when confronted with violence. I 
also created an NGO Advisory Council comprised of leading members of 
Cambodia's human rights community. This pioneering and inclusive 
approach gave me the opportunity to create a more cohesive and 
effective voice for human rights, democracy, and good governance in 
Cambodia.
    I am concerned about impingements on religious freedom in Pakistan, 
threats to media freedom, and restrictions on civil society, in 
addition to the growing harassment and disappearances of journalists, 
activists, and civil society advocates. These restrictions undermine 
the right of peaceful assembly and the freedoms of expression and 
association which are vital for any democracy. Regarding media freedom 
in particular, I am concerned that media and content restrictions, as 
well as the lack of accountability for attacks against journalists, 
undermine the exercise of freedoms of expression, peaceful assembly, 
and association, and damage both Pakistan's democracy and image.

    Question.  What steps will you take--if confirmed--to support 
democracy in Pakistan? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Inadequate protections of individual freedoms, inequitable 
application of the rule of law, corruption and impunity, weak civilian 
government, and increasing restrictions on civil society all remain 
challenges for Pakistan's democratic development. These challenges, 
particularly in regard to human rights and religious freedom, remain 
sensitive subjects in Pakistan, and when raised by outsiders often 
arouse negative public sentiments. Nevertheless, these issues are ones 
for which the Department advocates both regionally and globally, 
including citizens' ability to worship freely and the importance of a 
vibrant press and informed citizenry.
    If confirmed, I would continue to closely engage Pakistani 
officials (civilian and military) on upholding the rule of law and the 
rights afforded to Pakistanis by their constitution and under its 
international obligations, and on strengthening Pakistan's civilian 
democratic institutions. I also will work alongside the Government of 
Pakistan in fully implementing our assistance programs as authorized by 
Congress, including on issues of democratic governance like 
strengthening the rule of law, encouraging good governance, building 
respect for human rights, and supporting democratic and accountable 
processes in the country.

    Question.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The State Department and USAID believe that Pakistan's 
continued democratic development is important for the country's long-
term stability and prosperity. If confirmed, I will engage the 
Government of Pakistan and civil society on democracy and governance 
challenges, and ensure continued emphasis on democracy and governance 
assistance programs. I plan to prioritize assistance that strengthens 
the rule of law, builds respect for human rights, and supports 
democratic, accountable processes in the country.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Pakistan? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. As my previous experience as Ambassador to Cambodia shows, 
I am committed to engaging robustly with a wide slate of human rights, 
civil society, and other non-governmental organizations (NGOs) both in 
the United States and my postings abroad. If confirmed as Ambassador to 
Pakistan, I will meet regularly with such groups and will stress to the 
Pakistani Government the importance of a vibrant civil society to any 
democracy.
    I understand the Department still has concerns regarding the 
operating environment for civil society in Pakistan, including a 
burdensome registration process for international NGOs and the 
restricted ability of domestic NGOs, including those working on 
important human rights and humanitarian issues, to receive any foreign 
funding. If confirmed, I will continue to stress to the Pakistani 
Government the importance of a vibrant civil society to any democracy, 
and the value of allowing civil society organizations to help deliver 
vital assistance to Pakistan's most vulnerable communities, including 
women, children, and religious minorities.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with democratically-oriented 
parties from across the political spectrum, and ensure that Embassy 
staff maintain our tradition of broad engagement. As noted, I will also 
urge the Pakistani Government to uphold the rule of law and the 
democratic freedoms, including the freedom to participate in the 
political process, afforded to the citizens of Pakistan as enumerated 
in the Pakistani constitution.
    I understand that protection of the rights and freedoms of 
vulnerable communities, including women and minorities, is an essential 
part of the Department's work globally and within Pakistan. I share 
this focus and, if confirmed, will advocate for the rights of these 
groups in Pakistan and their ability to participate in the political 
process.

    Question.  Will you and your embassy team actively engage with 
Pakistan on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Pakistan?

    Answer. Yes, if confirmed the embassy team and I will continue to 
engage the Pakistani Government on issues of press freedom, and I 
commit to meeting regularly with independent, local press in Pakistan 
to understand dynamics in the media environment. The Department has 
received a growing number of reports of restrictions on media outlets 
and civil society in Pakistan and of detentions of journalists. The 
Government of Pakistan has used threats (such as withdrawing 
advertising funds or imposing regulatory sanctions) to incentivize more 
favorable media coverage, has censored media by cutting live broadcasts 
of coverage it does not find favorable, and limited the public's access 
to broadcasters to punish media for straying from government 
guidelines.
    If confirmed, I will continue to emphasize to the Government of 
Pakistan that a vibrant press and informed citizenry are essential for 
any free nation. I will also express that the Department is concerned 
that media and content restrictions as well as the lack of 
accountability for attacks against journalists undermine freedoms of 
expression, peaceful assembly and association, and damage Pakistan's 
image.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed the embassy team and I will continue to 
actively engage with civil society and Pakistani Government 
counterparts on countering disinformation and propaganda disseminated 
by foreign state or non-state actors in the country.

    Question.  Will you and your embassy teams actively engage with 
Pakistan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. I understand that the Department continues to have concerns 
regarding the operating environment for civil society and labor groups 
in Pakistan. Challenges posed by widespread forced and bonded labor, 
despite laws prohibiting the practice, create additional obstacles to 
the development of organized labor groups. According to the 2019 
Pakistan Human Rights Report, the Pakistani Government ``routinely 
interferes with the rights of peaceful assembly and freedom of 
association'' and Pakistani police often use force to break up labor 
protests and arrest union organizers. The report notes that labor law 
enforcement also remains weak due largely to resource constraints and 
lack of political will. If confirmed, my embassy team and I will 
continue to stress to the Pakistani Government the importance of 
enforcing laws prohibiting forced or bonded labor as well as the 
development of a vibrant civil society as critical to any democracy, 
and the value of allowing civil society organizations to advocate for 
labor rights and unions. Such advocacy can help improve Pakistan's 
labor policies, rendering the Government more attuned and responsive to 
the needs of a large and vulnerable working population and more 
attractive to international business.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Pakistan, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Pakistan? What specifically will you commit to do to help LGBTQ 
people in Pakistan?

    Answer. If confirmed, I would advocate for the human rights and 
fundamental freedoms of all people in Pakistan without discrimination 
based on their race, religion, gender identity, age, ability, or sexual 
orientation.
    I understand that, as documented in the Department's Human Rights 
Report for Pakistan, there remain criminal provisions in Pakistan 
against consensual same-sex sexual conduct. In addition, violence and 
discrimination against lesbian, gay, bisexual, transgender, and queer 
(LGBTQ) persons in Pakistan continues, and police generally take 
insufficient action when receiving reports of such violence or 
discrimination. If confirmed, I would meet with advocates from these 
communities to determine how to best advocate for their interests. I 
also will ensure that the U.S. Embassy continues to effectively 
implement programs that provide emergency support for LGBTQ persons or 
assistance for relevant civil society organizations.



                               __________


       Responses to Additional Questions for the Record Submitted
             to Hon. William E. Todd by Senator Todd Young

    Question. The Trump administration's 2018 National Security 
Strategy warned, ``The prospect for an Indo-Pakistani military conflict 
that could lead to a nuclear exchange remains a key concern. . . . '' I 
am particularly worried about a conflict growing on the border between 
India and China and potential nuclear implications there. How can the 
United States manage nuclear competition in South Asia?

    Answer. I am concerned by the current levels of increased tension 
between India and Pakistan and the challenges that accompany their 
growing nuclear stockpiles, particularly tactical nuclear weapons that 
are designed for use on the battlefield. These systems lower the 
threshold for nuclear use and pose an increased risk that a 
conventional conflict between India and Pakistan could escalate to a 
nuclear exchange. If confirmed, I will encourage dialogue and 
confidence-building between both countries and urge a reduction in 
tensions to improve prospects for lasting peace, stability, and 
prosperity in the region. In addition, I would reinforce what the 
President and Secretary Pompeo have emphasized to their Pakistani and 
Indian counterparts on the importance of dialogue and the need to 
reduce bilateral tensions, including along the Line of Control (LoC).
    Regarding the current India-China border tensions, the onus remains 
on China to deescalate and return to the status quo along the Line of 
Actual Control (LAC). We support both countries utilizing bilateral 
channels to arrive at a peaceful resolution through dialogue. Beijing's 
provocative actions along the LAC are part of a broader pattern of 
aggressive behavior across the region.

    Question. Has the administration's suspension of most security-
related aid to Pakistan led to any improvements in bilateral relations? 
What developments might you point to that would indicate Pakistan has 
responded favorably from the perspective of U.S. policy goals? To what 
extent, if any, does the reduction of U.S. aid to Pakistan over the 
past five years risk a loss of U.S. influence there? Does China stand 
to gain influence in this context?

    Answer. The President's 2018 suspension of security assistance 
allows for narrow, case-by-case exceptions, contingent on positive 
Pakistani actions, for programs that support vital U.S. national 
security interests. The suspension has clearly communicated to Pakistan 
that it must play a more constructive role in the region if it wants a 
good relationship with the United States, built first and foremost on 
joint efforts to end the war in Afghanistan and to address the presence 
of terrorists on its territory that threaten regional stability. If 
confirmed, I would continue to press this agenda strongly.
    Pakistan has taken steps to advance the Afghan peace process, such 
as the October 2018 release of the Taliban's lead negotiator Mullah 
Abdul Ghani Barader for the Doha talks, and facilitation of the 
Taliban's November 2019 release of Western hostages. In addition, we 
have seen high-level Pakistani political commitment and genuine 
progress to address strategic deficiencies in Pakistan's counter 
terror-financing and anti-money laundering regimes through the 
Financial Action Task Force (FATF) review process. If confirmed, I will 
prioritize following through on these commitments.
    The China-Pakistan defense relationship is longstanding and has 
been expanding. If confirmed, I will support defense sales that advance 
U.S. national security interests, promote U.S. industry, and, when 
possible, offer an alternative to Chinese platforms.

    Question. What is your view of Chinese investment projects underway 
in Pakistan? Is Chinese investment in the region a net positive or do 
you foresee negative outcomes? What would you do as Ambassador to 
facilitate greater U.S. investment in Pakistan?

    Answer. China has committed billions of dollars to the China-
Pakistan Economic Corridor (CPEC), primarily consisting of massive 
financing (whether in the form of loans or joint ventures with 
Pakistani debt commitments) to facilitate PRC-built infrastructure 
upgrades. The Department has expressed its concerns on CPEC, 
particularly related to the sustainability of Pakistan's debt to 
Beijing, CPEC's lack of transparency, reliance on Chinese labor, and 
inflated project costs benefiting PRC state-owned enterprises at the 
expense of Pakistan's private sector and Pakistani taxpayers. The 
Department's position is that any infrastructure projects, including 
those through CPEC, should apply the highest international standards of 
openness, inclusivity, transparency, environmental mitigation, and 
governance. If CPEC's problems remain unaddressed, Pakistan could be 
deeply burdened by debt and face diminished long-term growth. If 
confirmed, I would continue advocacy for greater transparency on 
Beijing's economic activities in Pakistan to seek to ensure that costs 
are controlled, that debt is sustainable, and that there are long-term 
employment benefits for Pakistanis, not just PRC-state firms. To help 
diversify the Pakistani economy away from Beijing, I would also seek to 
strengthen U.S. trade and investment ties with Pakistan, partnering 
with U.S. economic agencies, such as the U.S. International Development 
Finance Corporation, Export-Import Bank, and USAID, and to press 
Pakistan to ensure a level playing field for U.S. businesses.

    Question. Should a negotiated settlement between the United States, 
the Afghan Government, and the Taliban proceed to its logical 
conclusion, will a resurgent, legitimized Taliban serve as a strategic 
victory for the Pakistani Government and military in Afghanistan?

    Answer. Besides Afghanistan, no country benefits from peace in 
Afghanistan more than Pakistan. President Trump and Prime Minister Khan 
have agreed that a negotiated political settlement in Afghanistan is 
the best means to bring the conflict to a close, and is an outcome 
which would avoid further violence and suffering for the Afghan people 
as well as international partners. While we continue to have concerns 
with aspects of Pakistan's behavior and relationships with terrorist 
groups, Pakistan has played a helpful role in advancing the Afghan 
peace process. The Department has been clear with the Pakistanis that 
the foundation for stronger U.S.-Pakistan ties will be built on 
continued and constructive engagement in a successful Afghan peace 
process, including a durable, negotiated political settlement. 
Throughout the process, the United States will continue to ensure the 
Taliban adhere to their obligations as agreed upon in the U.S.-Taliban 
agreement.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. William E. Todd by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As noted in my testimony, a key priority for me if 
confirmed as U.S. Ambassador to Pakistan will be advancing human 
rights, and I have a track record of doing so in my career. For 
example, while serving as Ambassador to Cambodia during highly 
contentious national elections and ensuing months of political crisis, 
including Cambodia's worst civil upheaval in 15 years, I reached out to 
government and opposition leaders to promote dialogue, security force 
professionalism, and non-violent protest. Security forces ultimately 
largely acted with restraint, even when confronted with violence 
including Molotov cocktails. I also created an NGO Advisory Council 
comprised of leading members of Cambodia's human rights community. This 
pioneering and inclusive approach gave me the opportunity to create a 
more cohesive and effective voice for human rights, democracy, and good 
governance in Cambodia. If confirmed, I will continue to promote human 
rights and democracy as some of my top goals in Pakistan.

    Question. What are the most pressing human rights issues in 
Pakistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Pakistan? What do 
you hope to accomplish through these actions?

    Answer. As noted in my written testimony, one of my top goals in 
Pakistan, if confirmed, would be to advance human rights, particularly 
freedom of religion and freedom of expression. The killing of U.S. 
citizen Tahir Naseem in a Pakistani courtroom while on trial for 
blasphemy was an outrage. If confirmed, I will press Pakistani 
authorities to ensure the suspects in Mr. Naseem's killing are 
prosecuted to the full extent of the law. I also will advocate for 
legal reforms to guarantee religious freedom, including regarding 
blasphemy laws.
    I am also concerned about the increasing restrictions in civil 
society in Pakistan, including the growing harassment and 
disappearances of journalists, activists, and civil society advocates. 
Authorities continue to put burdensome requirements on--and in several 
instances have expelled--non-governmental organizations. These 
restrictions undermine the right of peaceful assembly and the freedoms 
of expression and association, and limit the ability of such actors to 
help deliver vital assistance to Pakistan's most vulnerable 
communities.
    If confirmed as Ambassador, I would engage closely with federal and 
provincial authorities in Pakistan, as well as with other stakeholders, 
on such issues. Already, the Department regularly raises with Pakistan 
the importance of upholding human rights, both bilaterally and in the 
context of our annual Human Rights report and International Religious 
Freedom report. If confirmed, I would continue to make this a priority.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Pakistan in 
advancing human rights, civil society, and democracy in general?

    Answer. Religious freedom, the role of civil society, and media 
freedom remain sensitive subjects in Pakistan, and when raised by 
outsiders often arouse negative public sentiments. Nevertheless, these 
issues are ones for which we advocate both regionally and globally, 
including the ability to worship freely and the importance of a vibrant 
press and informed citizenry. If confirmed, I would continue to closely 
engage Pakistani officials (civilian and military) on upholding the 
rule of law and the rights afforded to Pakistanis by their constitution 
and under its international obligations, and on strengthening 
Pakistan's civilian democratic institutions.
    I understand that these conversations are not easy, whether in 
public or private settings, but I would continue to press Pakistani 
counterparts on both the need for, and value of, protection of human 
rights in ensuring Pakistan is a responsible party in the community of 
free nations. I would calibrate the venue and audience to achieve 
maximum effectiveness. I would also ensure that all Embassy staff are 
empowered to thoroughly and appropriately document human rights abuses 
in the compilation of Congressionally-mandated reports such as the 
Human Rights Report, the International Religious Freedom Report, and 
the Trafficking in Persons Report.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Pakistan? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. As my previous experience as Ambassador to Cambodia shows, 
I am committed to engaging robustly with a wide slate of human rights, 
civil society, and non-governmental groups both in the United States 
and my postings abroad. If confirmed as Ambassador to Pakistan, I will 
meet regularly with such groups and will stress to the Pakistani 
Government the importance of a vibrant civil society to any democracy.
    If confirmed, I will ensure continued support of our Leahy, Blue 
Lantern, Golden Sentry, and End Use Checks on provisions of U.S. 
assistance to Pakistan. In addition, I will ensure that all U.S. 
security assistance to Pakistan will continue to be vetted in 
accordance with Leahy provisions, to prevent security force units and 
members credibly implicated in gross violations of human rights from 
receiving applicable assistance.

    Question. Will you and your embassy team actively engage with 
Pakistan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Pakistan?

    Answer. As indicated in my testimony, one of my first goals in 
Pakistan, if confirmed, will be to advance human rights, including 
those of political prisoners or persons who are unjustly targeted by 
Pakistani authorities. As the Department does globally, I will also 
strongly oppose any laws that curtail human rights and fundamental 
freedoms and actively engage with the Pakistani Government to ensure 
the rule of law and due process is equally applied across society, as 
provided for in Pakistan's constitution and Pakistan's international 
obligations.

    Question. Will you engage with Pakistan on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. As indicated in my testimony, one of my first goals in 
Pakistan, if confirmed, will be to advance human rights, particularly 
freedom of religion and freedom of expression. As the Department does 
globally, I will strongly oppose any laws that curtail these human 
rights. Further, I will continue the Department's work in raising with 
Pakistani interlocutors the values of accountability, fairness, and 
transparency, which are key attributes to a healthy and well-governed 
democracy. I will also urge the Pakistani Government to uphold the 
equal application of the rule of law and the rights afforded to 
Pakistanis by their constitution and under Pakistan's international 
obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will make it a priority to encourage the 
recruitment and professional development of a diverse staff that 
represents the United States. Working with my staff, I will promote a 
diverse and respectful workforce, encourage the recruitment of diverse 
and qualified applicants for each job opening, and expand our mentoring 
program for junior officers to include entry-level specialists and 
eligible family member employees.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Pakistan are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I will communicate to Embassy senior staff 
that I have zero tolerance for discrimination and harassment. In 
addition, ahead of our annual personnel selection season, I will 
communicate my expectation that we invite and consider applications 
from the broadest possible slate of qualified candidates to ensure that 
we foster a diverse and inclusive team. I will ask our supervisors to 
reinforce these principles with their American and Pakistani staff to 
ensure we set appropriate expectations.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Pakistan?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence in Pakistan, but 
which are exempt from the conflict of interest laws. I am committed to 
following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Pakistan 
specifically?

    Answer. As the Department has underscored globally, political 
corruption erodes the basic principles of democratic governance and the 
rule of law. I believe that Pakistan's continued democratic development 
is important for the country's long-term stability and prosperity, and 
corruption remains a serious challenge to Pakistan's democratic 
development. If confirmed, I would press the Pakistani Government to 
promote open and accountable governance, and to implement its 
international anticorruption commitments in a way that equally applies 
the law across society.

    Question. What is your assessment of corruption trends in Pakistan 
and efforts to address and reduce it by that government?

    Answer. Corruption and impunity remain serious challenges in 
Pakistan. Both national and provincial government entities have taken 
actions that indicate a focus on tackling the problem; however, I 
remain concerned that some anti-corruption efforts are not applied 
evenly in Pakistan. As noted, if confirmed as Ambassador, I would press 
the Pakistani Government to promote open and accountable governance, 
and to implement its international anticorruption commitments in a way 
that equally applies the law across society.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Pakistan?

    Answer. If confirmed, I commit to continue the Department's work in 
encouraging Pakistan to uphold the rule of law and the various 
democratic freedoms afforded to the citizens of Pakistan as enumerated 
in the Pakistani constitution. I will also work alongside the 
Government of Pakistan in fully implementing our assistance programs as 
allocated by Congress, including on issues of democratic governance 
like strengthening the rule of law, encouraging good governance, 
building respect for human rights, and supporting democratic and 
accountable processes in the country. I expect to continue such 
programming through both USAID and the State Department Bureau of 
Democracy, Human Rights, and Labor.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Hon. Eric M. Ueland by Senator Robert Memendez

    Question. It is clear to me that the Bureau of Democracy, Human 
Rights, and Labor's concerns have been largely ignored by the 
Political-Military Affairs Bureau in its consideration of proposed arms 
sales to countries of human rights concern. Consequently, I understand 
that DRL often censors itself, asking to see sales only to the most 
egregious human rights abusers to comment upon. Moreover, the recent 
Inspector General's report on the May 2019 sales to Saudi Arabia and 
UAE pointedly noted that human rights considerations were not adequate 
regarding the sale of 60,000 precision-guided munitions to Saudi 
Arabia: If confirmed, what specific steps will you take to increase 
DRL's input to and impact upon PM's arms sales process?

    Answer. I understand human rights concerns are one of several 
factors considered in the arms sales process, together with the 
implications of such sales for U.S. and regional security, bilateral 
relations, and U.S. commercial interests. If confirmed, I will ensure 
that the arms sales process gives appropriate weight to human rights 
concerns raised by any bureau.

    Question.  What particular issues and/or regions and countries 
within DRL's broad mandate would you direct the DRL Assistant Secretary 
to prioritize?

    Answer. If confirmed, I will work with the Bureau of Democracy, 
Human Rights, and Labor to use a range of tools and work with a range 
of partners to promote human rights and fundamental freedoms abroad. 
This includes bilateral and multilateral diplomacy, foreign assistance, 
public reporting, visa restrictions, and economic sanctions, as 
appropriate. I will prioritize working for the release of political 
prisoners as well as promoting accountability for human rights 
violations and abuses in countries such as the People's Republic of 
China, Iran, Venezuela, and Nicaragua. If confirmed, I will also 
prioritize helping partners such as Nigeria with critical challenges in 
governance and human rights and ensuring DRL's continuing support for 
nations such as Sudan that are undergoing transition to democratic 
rule.

    Question.  How would you help ensure that democracy and human 
rights issues are adequately prioritized in our relations with other 
countries?

    Answer. The promotion of democratic ideals and human rights is at 
the core of U.S. foreign policy. If confirmed, I will support the use 
of a range of tools to promote democracy and human rights abroad. This 
includes bilateral and multilateral diplomacy, foreign assistance, 
public reporting, visa restrictions, and economic sanctions, as 
appropriate, as well as strategic cooperation with like-minded 
partners. The United States should continue to use its voice and 
position on the world stage to draw attention to violations and abuses 
of human rights.

    Question.  How do you view DRL's role within the broader State 
Department and its relation to the regional bureaus?

    Answer. The Bureau of Democracy, Human Rights, and Labor (DRL) 
plays a key role by leading the State Department's efforts to promote 
human rights, which is in the best interests of the United States. DRL 
champions American values, including the rule of law and the rights of 
individuals, which contribute to strong, stable, prosperous, and 
sovereign states. American security is advanced in the struggle against 
authoritarianism and terrorism when we stand for the freedoms of 
religion, speech, association, and the press, and the rights of people 
to assemble peaceably and to petition their government for a redress of 
grievances. If confirmed, I will support DRL continuing to play this 
vital role, including in its relationships with regional bureaus and 
embassies.

    Question.  The world is in the midst of a ``democratic recession,'' 
with evidence of democratic erosion within existing democracies while 
key non-democracies such as China are arguably becoming both more 
repressive internally and more influential internationally. How would 
you direct DRL to respond to these developments?

    Answer. If confirmed, I will direct DRL to continue to engage 
bilaterally and multilaterally to address challenges to democracy, 
respond to rising autocracy, support emerging democracies, oppose 
restrictions on the operation of civil society and media, protect human 
rights defenders, combat corruption, and promote conditions necessary 
for free and fair elections. I will also support DRL's efforts to 
foster informed and engaged societies worldwide by bolstering freedom 
of expression, safety of journalists, and resilience to disinformation.

    Question.  What implications, if any, do these trends have for DRL 
policies and programs?

    Answer. I believe DRL's programs and other engagements are critical 
for addressing challenges to democracy, responding to repression within 
authoritarian countries, and asserting U.S. leadership and influence 
around the world. If confirmed, I will work to ensure that DRL's 
diplomatic and programmatic efforts continue to strengthen democratic 
institutions and processes under duress, and respond to challenges 
posed by authoritarian regimes. I also will work with others in the 
Department to ensure that all possible avenues are explored to address 
such challenges.

    Question.  Leahy Laws: DRL is responsible for vetting foreign 
security forces under the ``Leahy Laws,'' which prohibit assistance to 
those security forces that have committed a gross violation of human 
rights: Does DRL have sufficient funds and personnel to conduct an 
adequate vetting process?

    Answer. I understand Congress allocates funds on an annual basis to 
DRL for human rights vetting which the bureau uses to fund full-time 
Leahy vetter positions for every region, develop and maintain the 
global International Vetting and Security Tracking cloud-based vetting 
system, and provide support to Department regional bureaus and posts to 
fund additional full-time Leahy vetters.
    If confirmed, I will work to ensure our Leahy Law implementation 
programs continue to be fully resourced.

    Question.  To what extent do the Leahy Laws benefit or hinder the 
State Department's ability to conduct foreign policy?

    Answer. The Leahy Laws support the U.S. foreign policy objective of 
promoting democracy, human rights, and fundamental freedoms. Our 
national security benefits when partner governments and security forces 
around the world uphold democratic values, promote and protect human 
rights, hold human rights violators accountable when necessary, and 
support fundamental freedoms. If confirmed, I will ensure the 
Department of State's continued rigorous implementation of the Leahy 
Laws.

    Question.  Are there circumstances under which the Leahy Laws could 
hamper our pursuit of our national security interests?

    Answer. Promoting democracy, human rights, and fundamental freedoms 
advances our national security interests. Our most valued, dependable, 
and effective partner governments and security forces around the world 
uphold democratic values, respect and protect human rights, and hold 
human rights violators accountable. The United States must continue to 
create and maintain strong security relationships with such partners 
through diplomacy, appropriate assistance, and frequent and ongoing 
cooperation. The Leahy Laws are important tools that aid us in this 
effort, and, if confirmed, I will support their continued rigorous 
implementation.

    Question.  INL has contributed to the U.S. Government's efforts to 
shine a light on foreign corrupt practices around the world: Please 
assess how INL's anti-corruption programming has contributed to U.S. 
foreign policy efforts and what more, if any, can INL do to ensure U.S. 
priorities in this area are achieved.

    Answer. Corruption undermines the rule of law, fair conditions for 
U.S. business competition, and the resilience of U.S. partners to 
malign foreign influence. INL anti-corruption programs help foreign 
government partners deploy the modern legislative frameworks, 
professional capacity, and international cooperation necessary to 
tackle this pernicious crime, building cooperation with U.S. 
authorities and stemming graft before its impact reaches U.S. shores. 
As a result, our foreign partners are increasingly able to deny 
transnational criminal organizations this key means of facilitating 
drug trafficking and a range of other criminal activity. If confirmed, 
I will ensure INL retains combating corruption among its core anti-
crime assistance priorities.

    Question.  Given that the State Department plays a key role in 
providing foreign policy guidance for our sanctions programs, can you 
please explain why the administration hasn't utilized the tools in the 
Fentanyl Sanctions Act, and can you detail what steps you will take to 
ensure its implementation?

    Answer. The Department continues to coordinate closely with 
Treasury to combat drug trafficking globally through implementation of 
sanctions programs such as the Foreign Narcotics Kingpin Designation 
Act and the Fentanyl Sanctions Act. Such actions promote accountability 
and make it harder for these criminals to operate with impunity. The 
Department is also committed to actively working within the Commission 
on Combatting Synthetic Opioid Trafficking to develop a consensus on a 
strategic approach to combating the flow of synthetic opioids into the 
United States. These efforts complement the Department's bilateral 
counterdrug programs and other work abroad to stop flows of synthetic 
opioids into the United States.

    Question.  There is an ongoing national debate in the United States 
about the use of force by law enforcement officers at the federal, 
state, and local levels, and the importance of policing strategies that 
take into account issues of race and ethnicity. If confirmed, what 
steps would you take to review programs conducted by the Bureau of 
International Narcotics and Law Enforcement Affairs (INL) and ensure 
that INL overseas training initiatives include standards on the 
appropriate use of force and address issues of racial and ethnic bias?

    Answer. I condemn any misconduct by law enforcement, criminal 
justice, or government officials. In this context, I fully support the 
President's Executive Order on Safe Policing for Safe Communities and 
will support INL's mission to promote criminal justice systems in 
foreign countries that serve all citizens equally and balance public 
safety and the rule of law with respect for human rights and individual 
freedoms. If confirmed, I will also support INL's ongoing efforts to 
carefully screen its state and local law enforcement partners that 
participate in foreign assistance programming, and I will ensure INL 
training and capacity building programs uphold the highest standards of 
policing and reflect U.S. values.

    Question.  What do you believe is the future of the U.S.-ICC 
relationship in meeting the mutual goals of holding perpetrators of 
atrocity crimes accountable for their actions?

    Answer. Since even before the conclusion of the negotiations over 
the Rome Statute, there have been longstanding, bipartisan objections 
to the possibility that the ICC could attempt to assert jurisdiction 
over U.S. personnel. In 2017, when the ICC requested authorization to 
investigate the ``situation in Afghanistan,'' which includes 
investigation into the activities of U.S. personnel, U.S. cooperation 
with the ICC ended. If a permanent solution to U.S. objections is 
found, cooperation can resume. Regardless, the U.S. commitment to 
holding perpetrators of atrocity crimes accountable is undeniable and 
unwavering; no other actor on earth has been as committed or done as 
much to advance the cause of justice and accountability as we have.

    Question.  Please comment on how adequately the TIP Office is 
resourced to carry out its mission. What issues would you direct the 
TIP Ambassador to prioritize within its broad mission?

    Answer. Both the White House and the State Department have 
demonstrated that combating human trafficking is a priority. I know the 
Secretary is committed to making sure the TIP Office has the resources 
it needs to continue the Department's critical work on this front. If 
confirmed, I look forward to working with Congress and Department 
colleagues to address any needs while making the most efficient use of 
the resources the Office already has.
    I will also work closely with Ambassador Richmond to continue the 
excellence of the TIP Report, State's year-round diplomatic engagement 
and role supporting the President's Interagency Task Force to 
coordinate interagency anti-trafficking efforts, and our international 
programming.

    Question.  Will you support efforts to ensure that the tier 
rankings accurately reflect efforts to combat human trafficking in each 
country?

    Answer. Combating human trafficking is a priority for this 
administration and will be a priority of mine at the Department, if 
confirmed. From my work at the Department and in Congress, I know the 
Department's Trafficking in Persons Report (TIP Report) to be the gold 
standard in assessing government efforts to monitor and combat 
trafficking in persons. If confirmed, I will continue to ensure that 
the TIP Report tier rankings are based solely on whether a country 
meets the minimum standards for the elimination of trafficking set 
forth in the Trafficking Victims Protection Act.

    Question.  How will you help ensure the TIP report is seen as 
credible and objective?

    Answer. The Trafficking in Persons Report (TIP Report) reflects the 
U.S. Government's commitment to global leadership on this key human 
rights and law enforcement issue. If confirmed, I will work closely 
with Ambassador Richmond and Department of State experts to ensure that 
the TIP Report is as credible, objective, and accurate as possible, 
based solely on whether a country meets the minimum standards for the 
elimination of trafficking set forth in the Trafficking Victims 
Protection Act. I know the Department has had robust engagement with 
this committee on the TIP Report, and, if confirmed, I look forward to 
this continued partnership.

    Question.  The United States has been a leader for decades in 
promoting human rights and ensuring the protection of human rights 
defenders across the world. In accordance with this leadership, we've 
been gratified to see the Department's use of Global Magnitsky 
designations to hold individuals and entities who commit serious human 
rights violations or who engage in acts of corruption accountable by 
freezing their assets and denying their visa requests to the United 
States: Do you support the use of Global Magnitsky designations and 
calling out human rights abusers as a tool of foreign policy in order 
to hold individuals and entities to account?

    Answer. Yes, I support the use of Global Magnitsky and calling out 
abusers as a tool of foreign policy. The Global Magnitsky sanctions 
program represents the best of the United States' values by taking 
impactful steps to protect and promote human rights and combat 
corruption around the world.

    Question.  Do you agree that that there should be additional 
resources provided to those who review Global Magnitsky designations in 
order to ensure a more robust sanctions regime that targets the worst 
human rights abusers?

    Answer. Targeted sanctions for human rights abuses and corruption 
are a proven tool to discourage malign actors, promote accountability, 
and peacefully address situations that may threaten international peace 
or security. If confirmed, I will work with State Department colleagues 
and with the Treasury Department to ensure sufficient resources support 
the Global Magnitsky sanctions program.

    Question.  What role do you see the 7031(c) authority playing in 
upholding human rights abroad?

    Answer. I believe that by shining a light on human rights violators 
and corrupt officials from foreign governments, we take impactful steps 
to protect and uphold human rights and combat corruption globally. If 
confirmed, I will continue to support use of available sanctions and 
visa ineligibility authorities, including 7031(c), which are powerful 
tools to deter and promote accountability for human rights abuses and 
corruption.

    Question.  U.N. human rights mechanisms have been vocal in calling 
out abuses committed by the Iranian Government in recent months. In one 
recent report, the U.N. special rapporteur on Iran-a position 
originally created by the U.N. Human Rights Council in 2011 with strong 
U.S. backing-noted increasing restrictions on the right to freedom of 
expression, the right to a fair trial, and the right to freedom of 
association and assembly. The special rapporteur also found that 
Christian converts risk arbitrary arrests, detention, and interrogation 
about their faith and have faced specious charges. The special 
rapporteur has also been vocal in calling on Iran to release human 
rights defenders from prison due to the COVID-19 pandemic: Does the 
administration support these statements?

    Answer. Yes. The Iranian regime has violated human rights for 41 
years, and, if confirmed, I will ensure the United States continues to 
press Iran to end these abuses.
    I understand the administration shares the Special Rapporteur's 
concerns regarding the continued repression of members of religious 
minority groups, including Gonabadi Sufis, Baha'is, and Christian 
converts, who face severe treatment because of their beliefs, including 
harsh jail sentences. The United States agrees with her call to release 
human rights defenders.
    The regime's continued restrictions on the rights of freedom of 
expression and peaceful assembly, particularly during the November 2019 
protests, is concerning. If confirmed, I will continue to call for 
investigations into the November 2019 killing of protestors.

    Question.  Given that the administration has decided to withhold 
assessed contributions from the U.N. Human Rights Office, how do you 
plan to support the work on Iran being carried out by the special 
rapporteur?

    Answer. I understand that it is administration policy for continued 
cooperation with U.N. special procedures. If confirmed, I will 
prioritize engagement that maximizes the promotion of U.S. objectives, 
such as U.S. participation in interactive dialogues with the special 
rapporteur on Iran during the UNGA Third Committee. I also will support 
U.S. calls for Iran to allow the special rapporteur access to carry out 
her mandate through a country visit.
    If confirmed, I plan to continue administration policy for the 
State Department's close coordination with the Office of the U.N. High 
Commissioner for Human Rights, while reviewing our engagement with 
individual human rights mandates and processes to ensure our funding 
strategically supports U.S. national interests and administration 
priorities, and to continue our practice of not supporting mandates 
that do not advance U.S. interests.

    Question.  Now that the administration has withdrawn from and 
defunded the [Human Rights] Council, what is it doing to support the 
work of this body?

    Answer. The United States resigned from its seat as a member of the 
Human Rights Council on June 19, 2018. We do not participate in Human 
Rights Council sessions, nor do we engage in the negotiation of 
resolutions put forward by the Council. We continue to engage on human 
rights issues in other U.N. fora, such as the General Assembly, and we 
continue to participate in the Universal Periodic Review process. We 
also continue to engage with a wide range of special procedures mandate 
holders, including special rapporteurs, independent experts, and 
commissions of inquiry that cover human rights issues.

    Question.  Special Coordinator for Tibetan Issues: In 2002, 
Congress passed the Tibetan Policy Act and institutionalized U.S. 
political support for Tibet, including formalizing the institution of 
the position of the Special Coordinator for Tibetan Issues. Since the 
passage of the Tibetan Policy Act of 2002, all Special Coordinators for 
Tibetan Issues have been at the Under-Secretary level. At a time when 
the situation in Tibet (and in China) is worsening and when there is no 
indication of a Chinese desire to resolve the Tibetan issue, the United 
States should be strengthening its efforts on Tibet, including through 
elevating officials handling Tibetan issues. At this crucial moment, if 
the U.S. State Department lowers the position to be held by an 
Assistant Secretary, it will signal to the Chinese Communist Party a 
weakening of United States' resolve and commitment to the Tibetan 
issue. Should you be confirmed as Under Secretary, will you commit to 
seek to be dual hatted as the United States Special Coordinator for 
Tibetan Issues, just as your J predecessors have done for over 15 
years?

    Answer. If confirmed, I am committed to engaging on Tibetan issues, 
and will review this further. I support continued efforts by the 
Department on Tibetan issues and acting consistent with the Tibetan 
Policy Act.

    Question.  What will your priorities be for the CT Bureau?

    Answer. If confirmed, counterterrorism would be one of my top 
priorities. While the United States has made real progress, the threats 
from ISIS, al-Qa'ida, and Iran and its proxies are far from behind us. 
I believe the State Department--and in particular, the Counterterrorism 
Bureau-has been and remains central to any successful counterterrorism 
strategy and approach. If confirmed, I will work with the 
Counterterrorism Bureau to fully leverage the Department's diplomatic, 
foreign assistance, and sanctions tools, among others. While the United 
States will continue to lead the global campaign to defeat terrorist 
groups, this is not a battle that we can win on our own. If confirmed, 
I will also work closely with the Counterterrorism Bureau to ensure our 
partners are doing their part, and appropriately sharing the burden, 
which is an administration priority outlined in the 2018 National 
Counterterrorism Strategy.

    Question.  Based on your knowledge of the Counterterrorism Bureau's 
missions and activities, in what areas does it perform well?

    Answer. The Bureau of Counterterrorism (CT) is instrumental in the 
United States' efforts to promote counterterrorism cooperation, 
strengthen partnerships, and build partners' civilian capacity to 
counter the full spectrum of terrorism threats. CT's role in 
implementing the National Strategy to Counterterrorism (2018) has been 
extremely important to the U.S. Government's counterterrorism successes 
in recent years. CT has rallied the international community to increase 
pressure on Iran through terrorist designations and sanctions, as well 
as enhancing international information sharing that has led to the 
prosecution of Hizballah facilitators. CT is also helping lead the 
international coalition to defeat ISIS, as it expands its focus beyond 
Iraq and Syria to defeat its branches and networks across the Middle 
East, Asia, and especially Africa.

    Question.  What counterterrorism policies or activities may need to 
be reassessed or improved?

    Answer. While our partners around the world have taken significant 
steps in recent years to address the terrorist threats confronting the 
international community--particularly in countering the rise of ISIS--
significant gaps remain. Some countries still lack the basic 
counterterrorism tools mandated by U.N. Security Council resolutions 
(UNSCR), including UNSCR 2396 on terrorist travel, which the State 
Department was instrumental in conceiving and adopting. The State 
Department can and is assisting countries on the front line to build 
these capabilities. However, these partners must be equally committed 
to this effort. If confirmed, one of my top priorities would be working 
to ensure that our partners are doing their part.

    Question.  How do you envision CT/CVE informing and supporting the 
work of the other bureaus and offices you will be leading?

    Answer. CVE is an essential aspect of our counterterrorism 
approach. CVE efforts must include proactive actions to counter efforts 
to radicalize, recruit, and mobilize terrorists, and to address the 
specific factors that enable terrorist radicalization and recruitment. 
The Department and USAID leverage diplomatic, development, and foreign 
assistance tools to prevent and counter terrorist radicalization and 
recruitment, both online and offline, regardless of ideology. The 
Department has many bureaus and offices that can bring their expertise 
and programming to bear, in support of CVE. The CT Bureau guides and 
coordinates the Department's CVE policy, assistance, and programming 
which is carried out by a range of Department bureaus and offices 
including those that, if confirmed, I will be leading. If confirmed, I 
will work to ensure the Department works collaboratively to bring all 
of its resources to bear on CT and CVE.

    Question.  How do you see the role of the National Security Council 
(NSC) in supporting the activities of the Bureau of Counterterrorism?

    Answer. The NSC staff plays a critical role in coordinating among 
inter-agencies' counterterrorism policy, strategy, and approach. The 
State Department works closely with the NSC staff in this effort. For 
example, the State Department was integrally involved in the 
development, drafting and implementation of the NSC-led National 
Strategy for Counterterrorism. The NSC's interagency Counterterrorism 
Security Group (CSG), in which the State Department participates, 
serves as the key venue to coordinate counterterrorism policy, through 
which CT Bureau and our Chiefs of Mission ensure foreign policy and 
counterterrorism efforts remain aligned around the world. The CSG, 
along with the Deputies and Principal Committee, are fora where the 
Department can ensure their counterterrorism efforts are aligned to 
broader U.S. foreign policy objectives.

    Question.  Do you believe that the resources and funding dedicated 
to U.S. counterterrorism programs at the State Department are adequate?

    Answer. The funds Congress provides to the Department allows it to 
sustain assistance in the highest priority areas and make gains in 
civilian capabilities with some of our most important partners in 
Afghanistan, Bangladesh, Iraq, the Philippines, Somalia, Tunisia, and 
beyond. The State Department has improved the capabilities of key front 
states to identify, disrupt, prosecute and detain terrorist operatives; 
prevent terrorist travel; bolster aviation and border security; and 
address terrorist recruitment and propaganda. The Department has 
developed a comprehensive program review and budget planning process to 
ensure that it knows where the threats and needs are, can account for 
where every dollar is being spent, and evaluate the effectiveness of 
those programs. If confirmed, I will support the Department's budget 
request and am confident that it will request resources necessary to 
execute the President's strategy.

    Question.  What is being done to win the ``hearts and minds'' of 
individuals and groups that may be susceptible to the influences and 
teachings of radical Islamic fundamentalists?

    Answer. CT and USAID have worked to implement a multi-pronged 
approach to offer alternatives to individuals who may be susceptible to 
the influences and teachings of radical Islamic fundamentalists. These 
efforts include promoting messages to counter terrorist propaganda, 
improving governance and strengthening communities to resists violent 
extremist incursions, and building a global prevention architecture by 
bringing together governments, civil society, and the private sector to 
build resiliency to terrorist ideologies. If confirmed, I will work 
with host and affected governments where Islamic fundamentalists and 
other terrorist groups may be propagating problematic influences and 
teachings to implement this multi-faceted approach.

    Question.  How does the State Department assess the effectiveness 
of efforts to counter violent extremism?

    Answer. If confirmed, I will support the Department's efforts to 
conduct regular and comprehensive evaluations of CVE programs. The 
State Department has a robust system in place for measuring the 
effectiveness of CVE programs. The CT Bureau employs third-party 
contractors to perform the majority of CT and CVE evaluative work, 
ensuring objective and professional results. CT evaluations have wide-
ranging impacts, from refining projects and replicating successful 
approaches, to revising both internal and external processes that have 
informed program design, implementation, and strategy. The findings and 
recommendations from these evaluations lead to more effective programs, 
more productive and analysis-driven processes, and more efficient 
management and execution.

    Question.  What lessons has the Department learned?

    Answer. Through the decades-long counterterrorism fight, the 
Department has learned that it is not enough to react to terrorism, we 
must prevent it as well. Our countering violent extremism (CVE) efforts 
work to ensure that terrorist groups like al-Qaida, ISIS, and many 
others cannot recruit, radicalize, mobilize, reconstitute, or inspire 
acts of terrorism. The Department's key strength in CVE is its unique 
ability to support partner governments in their efforts to prevent the 
rise of terrorism, through bilateral and multilateral diplomatic 
channels as well as by helping local actors build resilience to 
terrorist radicalization and recruitment.
    If confirmed, I will work to build off of several lessons the 
Department has learned while implementing CVE programming: First, a 
comprehensive approach to address the drivers of terrorism is critical 
to advancing the United States' national security and overall foreign 
policy goals. Second, if confirmed, we must counter the intolerant 
ideology that helped to give rise to ISIS and other groups. Third, CVE 
efforts must be guided by ongoing analysis of the context, drivers, and 
most effective responses. The range of possible drivers of terrorism 
can vary significantly from individual psychological factors to 
community and sectarian divisions and conflicts. Fourth, programming 
must be community driven. If confirmed, we need to work in 
neighborhoods and empower locally resonant voices to address the local 
issues that make some vulnerable to terrorist recruitment.

    Question.  What are the current and prospective roles of the 
Counterterrorism Bureau with respect to addressing international 
cybersecurity concerns?

    Answer. The National Counterterrorism Strategy and the National 
Cyber Strategy highlight terrorists and other adversaries' interest in 
attacking physical, information, and communication infrastructure. 
Working with the Office of Coordinator for Cyber Issues, DHS, the FBI, 
and others, the CT Bureau broadens international awareness of physical 
and cyber threats and vulnerabilities, promotes U.N. Security Council 
Resolution 2341 on the protection of critical infrastructure from 
terrorist attacks, and facilitates exchange of best practices. In 2019, 
the CT Bureau and DHS/CISA jointly produced ``A Guide to Critical 
Infrastructure Security and Resilience'' (CISR) to explain the U.S. 
approach for domestic and international partners. CT-funded Anti-
Terrorism Assistance CISR courses promote cyber and infrastructure 
security. Our Terrorist Use of the Internet efforts focus on countering 
terrorist radicalization and recruitment while respecting human rights 
and the free flow of information. We partner with the Global Internet 
Forum to Counter Terrorism and others to share information on tactics, 
recruiting, propaganda, and financing methods with the private sector, 
thus facilitating Terms of Service enforcement. The CT Bureau also 
works with the Global Engagement Center to recognize, understand, 
expose, and counter foreign non-state propaganda and disinformation 
efforts aimed at undermining U.S. national security interests. If 
confirmed, I look forward to continuing to support this vital national 
priority.

    Question.  Please comment on PRM's response capacity and 
contingency planning. To what extent does the current level of staffing 
of the PRM bureau adequately address its fundamental areas of 
responsibility?

    Answer. During my time as Director of F, I was briefed on several 
internal and external organizational assessments of PRM over the past 
decade, which repeatedly recommended changes to support response 
capacity, contingency planning, and the evolving landscape of the work 
within the Bureau. If confirmed, I will use my management experience to 
examine these important questions.

    Question.  How would you describe the Trump administration's 
foreign policy goals in these areas?

    Answer. The President's National Security Strategy (NSS) clearly 
outlines the U.S. commitment to champion American values by reducing 
human suffering. The United States continues to lead the world in 
humanitarian assistance even as we expect others to share the 
responsibility. The NSS seeks to support displaced people close to 
their homes to help meet their needs until they can safely and 
voluntarily return home. I look forward, if confirmed, to being part of 
State Department efforts to provide protection and achieve durable 
solutions for the millions of forcibly displaced people across the 
globe, to strengthen the global humanitarian architecture, and to help 
ensure respect for international humanitarian laws and norms.

    Question.  How would you describe the degree of interagency 
coordination between USAID and the State Department on humanitarian 
assistance activities?

    Answer. The State Department and USAID bureaus primarily 
responsible for U.S. humanitarian assistance maintain regular and close 
coordination in field locations where both are implementing programs 
and between regional and policy offices in Washington. These bureaus 
are also working together through the Humanitarian Assistance Steering 
Council (HASC), which I helped establish during my tenure in the 
Department's Office of Foreign Assistance (F), to advance the 
administration's goals of optimizing humanitarian assistance programs. 
This is aligned with the President's objective to increase the 
efficiency, effectiveness, and accountability of all federal agencies. 
If confirmed, I look forward to participating in this forum again.

    Question.  What are ways that PRM can engage the donor community, 
increase global burden sharing, and help guard against donor fatigue, 
particularly in protracted crises?

    Answer. No single donor can meet the growing need for humanitarian 
assistance worldwide. The United States seeks to increase the 
efficiency and effectiveness of global humanitarian assistance and to 
expand the share of government-provided humanitarian assistance borne 
by other nations. This year's U.N. General Assembly side event, hosted 
by Deputy Secretary Biegun on September 24, 2020, highlighted the 
United States' humanitarian leadership and called for broadening the 
humanitarian donor base. Such initiatives help focus attention on the 
importance of humanitarian assistance and allow us to call for other 
donors to increase contributions or start contributing. If confirmed, I 
would ensure that these important efforts continue, as the United 
States fulfills its role as a leader and catalyst for efficient and 
effective humanitarian response.

    Question.  What is your view of the role of the United States in 
global fora, such as the global compacts on refugees and migration? 
What do you see as the key drivers for the U.S. withdrawal from 
participation in the Global Compact on Migration?

    Answer. The United States engages in global fora to advance our 
interests and encourage greater burden sharing among U.N. member states 
and other stakeholders, including development actors, refugee-hosting 
countries, and the private sector. The administration values much of 
what is contained in the Global Compact on Refugees, but I understand 
that the United States did not support the Global Compact on Migration 
because it contained goals and objectives that are inconsistent and 
incompatible with U.S. law and policy.

    Question.  What do you see as the U.S. role in refugee 
resettlement? In past years, the United States has sought to ensure 
that at least 50% of all refugees referred by UNHCR were considered for 
U.S. resettlement. In your view, is this still a U.S. goal? The U.S. 
refugee ceiling is historically low and access to asylum has been 
slashed. Why has the U.S. abandoned its proud tradition as a champion 
for refugee resettlement? Do you think the United States should 
continue to slash slots for the resettlement of refugees? Why or why 
not?

    Answer. The President authorized the admission of up to 18,000 
refugees for FY 2020. I understand that the agencies responsible for 
refugee admissions have worked with the national security and 
intelligence communities to strengthen the U.S. Refugee Admissions 
Program's security measures, the operational realities of which are 
reflected in this year's ceiling. In line with the National Security 
Strategy (NSS), the United States continues to champion American values 
by reducing human suffering, including through resettlement of the 
world's most vulnerable refugees. The United States continues to lead 
the world in humanitarian assistance and seeks to support displaced 
people close to their homes to help meet their needs until they can 
safely and voluntarily return home.

    Question.  Do you agree that the U.S. Refugee Admissions program 
should be responsive to global resettlement needs without 
discrimination? Yes or no? With governors and mayors across all 50 
states expressing strong support for the Refugee Admissions program, 
what is the rationale for further cuts reported to be under 
consideration for FY 2021?

    Answer. The United States continues to operate one of the largest 
refugee resettlement programs in the world. It is consistent with the 
President's National Security Strategy and our foreign policy goals of 
providing resettlement to the most in need while assisting refugees as 
close to home as possible. I understand that the United States is also 
the single largest donor of international humanitarian assistance, and 
last year delivered nearly $9.3 billion in life-saving aid around the 
world. If confirmed, I commit to working with other donor governments, 
international organizations, and the private sector to ensure the needs 
of refugees are met globally. I am neither aware of, nor would be able 
to comment on, discussions regarding the FY 2021 refugee admissions 
program.

    Question.  Rohingya Refugee Crisis: The United Nations Fact Finding 
Mission, the U.S. Government, and several non-governmental 
organizations have documented the Burmese military's killing of tens of 
thousands of Rohingya, cases of summary executions, mass rapes, and 
burnings of villages, which led to the displacement of over 700,000 to 
neighboring Bangladesh. As of August 2019, over 900,000 Rohingya reside 
in refugee camps in Bangladesh: As Undersecretary, will you commit to 
more funds and focus going to these refugees through PRM?

    Answer. I understand the United States has led the donor response 
to the Rohingya/Rakhine State crisis since its escalation in 2017, 
providing nearly $966 million in humanitarian assistance to affected 
populations in Burma and Bangladesh since August 2017. If confirmed, I 
will commit to continued U.S. leadership in the humanitarian response 
to the crisis, as well as to support efforts in developing durable 
solutions. It is important for the international community to continue 
providing humanitarian assistance to vulnerable populations affected by 
the Rakhine State crisis, while durable solutions are being pursued, 
given that conditions in Rakhine State are not yet conducive for 
voluntary, safe, dignified, and sustainable returns of the Rohingya.

    Question.  How will you ensure that the basic human rights of the 
Rohingya refugees in Bangladesh are met, including rights to food, 
livelihood, health care and education?

    Answer. The United States is the single leading contributor of 
humanitarian assistance in response to the Rakhine State crisis, having 
provided nearly $966 million since the escalation of violence in August 
2017, of which nearly $806 million has supported programs in 
Bangladesh. These programs save lives. They provide protection; 
emergency shelter; water, sanitation, and hygiene; healthcare; 
psychosocial support; food and nutritional assistance; non-food items; 
site management and development; education; and access to livelihood 
opportunities to approximately one million beneficiaries in Bangladesh. 
The programs also support the related needs of Bangladeshi host 
communities, and other vulnerable populations affected by the crisis. 
If confirmed, I will work with the international community to support 
efforts of the United Nations and its partners to promote respect for 
human rights of Rohingya refugees and ensure that all participating 
share the burden to meet their humanitarian needs as we pursue durable 
solutions to the crisis.

    Question.  Additionally, given that the most effective way to 
permanently resolve the Rohingya refugee crisis is by restoring their 
citizenship in Burma and ensuring safe, dignified and voluntary 
repatriation process, how do you propose employing the Department's 
resources to resolving the Rohingya refugee crisis in a more permanent 
manner?

    Answer. If confirmed, I will support PRM to lead the humanitarian 
response efforts and work towards developing durable solutions for 
communities displaced by the Rakhine State crisis, in close 
coordination with other bureaus and agencies. I understand PRM's role 
is invaluable in working with U.N. bodies, other international and 
local humanitarian organizations, like-minded countries, and 
communities affected by the Rakhine State crisis to provide life-saving 
humanitarian assistance and protection to those in need. Through 
diplomatic engagements since the beginning of the crisis, the U.S. 
Government-with PRM's lead-effectively pressed Bangladesh to take a 
principled humanitarian approach to addressing the refugee influx. I 
understand PRM's longstanding relationships with U.N. agencies and 
international organizations, in both Burma and Bangladesh, led to an 
effective humanitarian response since the outbreak of violence in 
August 2017. I also understand PRM works with other bureaus and 
international actors to work toward durable solutions to the crisis. If 
confirmed, I would continue these efforts.

    Question.  What do you see the role of PRM during this process?

    Answer. If confirmed, I will support PRM to lead the humanitarian 
response efforts and work towards developing durable solutions for 
communities displaced by the Rakhine State crisis, in close 
coordination with other bureaus and agencies. I understand PRM's role 
is invaluable in working with U.N. bodies, other international and 
local humanitarian organizations, like-minded countries, and 
communities affected by the Rakhine State crisis to provide life-saving 
humanitarian assistance and protection to those in need. Through 
diplomatic engagements since the beginning of the crisis, the U.S. 
Government--with PRM's lead--effectively pressed Bangladesh to take a 
principled humanitarian approach to addressing the refugee influx. I 
understand PRM's longstanding relationships with U.N. agencies and 
international organizations, in both Burma and Bangladesh, led to an 
effective humanitarian response since the outbreak of violence in 
August 2017. I also understand PRM works with other bureaus and 
international actors to work toward durable solutions to the crisis. If 
confirmed, I would continue these efforts.

    Question.  Please prioritize what you see as the most critical 
displaced population challenges and describe U.S. strategy and efforts 
to address these situations.

    Answer. With nearly 80 million forcibly displaced people around the 
world, including from Burma, Syria, South Sudan, and Venezuela, global 
needs far exceed the capacity of any single government to fulfill. The 
President's National Security Strategy prioritizes the alleviation of 
human suffering and reaffirms U.S. leadership as the largest provider 
of humanitarian assistance worldwide, even as we expect others to share 
the responsibility. Through reliable contributions to multilateral 
humanitarian organizations, the U.S. Government maintains an outsized 
influence in the humanitarian community, shaping international 
responses to humanitarian crises, encouraging greater burden sharing, 
and driving humanitarian reform.

    Question.  What do you assess are the major trends in the 
humanitarian area? Similarly, what are the key protection and 
assistance needs of today's refugees and IDPs? If confirmed, how would 
you recommend that PRM marshal its resources to address these 
challenges? What countries or regions should PRM prioritize?

    Answer. The COVID-19 pandemic is exacerbating existing protection 
and assistance needs of refugees, IDPs, and other persons of concern. 
Political instability continues to contribute to displacement as well. 
Humanitarian partners are reporting an increase in gender-based 
violence; xenophobia and stigmatization; and discrimination in access 
to health, food, water, education, and legal services for vulnerable 
groups. If confirmed, I would recommend that PRM continues to lead the 
State Department's humanitarian assistance response in the most 
effective and efficient manner possible to address humanitarian needs 
while also using all of the J family tools to prevent and end 
instability, especially in countries such as Venezuela, the Sahel, 
South Sudan, Syria, and Yemen, among others.

    Question.  Please comment on the degree of interagency coordination 
within the U.S. Government in its humanitarian assistance activities. 
Do you expect a change in this relationship, particularly in light of 
proposed restructuring at USAID? What would be your top priority 
related to coordination within the U.S. Government? With U.N. system 
entities and private sector organizations?

    Answer. I understand that the State Department and USAID are 
continuing to work together through the Humanitarian Assistance 
Steering Council (HASC), which I helped establish in 2018 to advance 
the administration's goals of optimizing humanitarian assistance 
programs. USAID's Associate Administrator for Relief, Response and 
Resilience (R3) co-chairs the HASC with the J Under Secretary. USAID's 
Bureau for Humanitarian Assistance and the Department's Bureau of 
Population, Refugees, and Migration are integral parts of the HASC. If 
confirmed, I look forward to co-chairing this forum to ensure that the 
HASC is able to achieve its objective of increasing the efficiency and 
effectiveness of humanitarian aid, including within the U.N., and to 
promote burden sharing, including from the private sector.

    Question.  What impact do you think the current debate over budget 
cuts might have on burden sharing and the percentage of overall 
assistance the United States is prepared to provide to humanitarian 
crises worldwide? What are the potential short-term implications of 
such cuts for implementing partners? How might this impact PRM's role 
in working with donors and any outreach efforts? What are ways that PRM 
can engage the donor community, increase global burden sharing, and 
help guard against donor fatigue, particularly in protracted crises?

    Answer. There are more forcibly displaced people in the world than 
at any time in modern history. At the same time, there is a gap between 
humanitarian needs and funding provided to humanitarian response. The 
United States is the largest single donor of humanitarian assistance 
but cannot meet increasing needs alone. I understand the United States 
has worked through initiatives like the Grand Bargain to improve the 
efficiency and effectiveness of global humanitarian assistance, 
organized several donor conferences for specific responses, and led 
donor discussions to address these global trends, most recently on the 
sidelines of UNGA. Such efforts are particularly important in times of 
constrained budgets worldwide, as donors work together to meet 
humanitarian need.

    Question.  In your view, is U.S. humanitarian assistance an 
effective tool for building good will? How do you think the United 
States is perceived by its allies in terms of any moral obligation to 
help respond to humanitarian crises? Please describe any alternative 
ways to balance the need for aid reform and cost effectiveness with a 
robust humanitarian response.

    Answer. The United States is the single largest humanitarian 
assistance donor and continues through its principled leadership to 
catalyze international humanitarian response. Top humanitarian donor 
nations expressed appreciation for the United States' leadership in 
this area at the UNGA side-event hosted by the Deputy Secretary on 
September 24, 2020. Simultaneously, the United States recognizes the 
need to ensure humanitarian assistance is effective and efficient. If 
confirmed, I would use my extensive experience in budget and 
policymaking, including as former Director of the Office of Foreign 
Assistance, to support efforts that I understand are underway to 
promote burden sharing and the efficiency and effectiveness of 
humanitarian assistance, while ensuring our other strategic policy 
priorities are also met.

    Question.  For the past two years, the President's budget request 
has included deep cuts to humanitarian assistance, including drastic 
reductions in the Migration and Refugee Assistance account, despite 
bipartisan support for these life-saving programs. If confirmed, will 
you seek to maintain robust funding for humanitarian assistance through 
the MRA account?

    Answer. The President's National Security Strategy prioritizes the 
alleviation of human suffering and reaffirms U.S. leadership as the 
largest provider of humanitarian assistance. While the United States is 
the single largest supporter of humanitarian action around the world, 
we cannot and should not do it alone. If confirmed, I would support 
U.S. Government requests for the resources needed to continue to 
fulfill the United States' role in humanitarian assistance and to 
ensure other countries do their part, while pursuing partnership with 
and contributions from the private sector and civil society.

    Question.  Do you support continued participation of the United 
States in the Global Compact for Refugees? Why or why not?

    Answer. I support much of what is contained in the Global Compact 
on Refugees, including its focus on improving responses to refugee 
crises by the U.N. High Commissioner for Refugees (UNHCR) as well as 
facilitating the work of UNHCR in refugee hosting countries. I support 
a basis for a predictable response to refugee situations and greater 
burden sharing among U.N. member states and other stakeholders, 
including development actors, refugee-hosting communities, and the 
private sector. The Global Compact on Refugees is not legally binding, 
and states retain the sovereign right, subject to their international 
legal obligations, to determine their own immigration laws, policies, 
and practices.

    Question.  Yemen continues to experience the worst humanitarian 
crisis in the world, with nearly 80% of the population reliant on some 
form of aid. U.N. humanitarian agencies like the World Food Program 
(WFP), U.N. Children's Fund (UNICEF), and U.N. Population Fund (UNFPA) 
are playing a central role in the response. For example, WFP alone is 
working to reach 12 million Yemenis each month with food and nutrition 
assistance. Unfortunately, these efforts are critically underfunded; 
the UN's Yemen response plan for 2020 has only received 37% of the 
funds it requested from member states. Of course, this is happening at 
a time when the COVID-19 pandemic and climate change have exacerbated 
food security challenges around the world. This past week, former South 
Carolina Governor David Beasley, WFP's Executive Director, warned that 
countries like Yemen could slip into famine and more than 30 million 
could die of hunger worldwide if his agency does not receive the 
funding it needs to carry out its operations. The U.S. is the largest 
contributor to U.N. humanitarian relief operations in the world, but 
clearly more can be done: How is the administration working to address 
these funding challenges and ensure that lifesaving aid reaches the 
Yemeni people?

    Answer. The United States has provided nearly $607 million in FY 
2020, with additional funding planned, making the United States the 
largest donor responding to the crisis in Yemen. We have consistently 
urged other donors to contribute and were pleased to see Saudi Arabia 
recently commit pledged funding. Funding alone cannot solve all of 
Yemen's problems. Houthi authorities routinely interfere in aid 
operations, including most recently the closure of the Sana'a airport, 
which prohibited the entry of key supplies to fight COVID-19 and polio. 
While interference is most egregious in the north, there are also 
access challenges in the south. We will continue advocating in support 
of the UN's efforts with all parties to provide unfettered access for 
aid workers. Ultimately, only a political solution can end the 
suffering of the Yemeni people.

    Question.  The U.N. Relief and Works Agency for Palestine Refugees 
(UNRWA) provides a number of key services, including education, medical 
care, and food aid, to impoverished Palestinian refugees in the West 
Bank, Gaza, Jordan, Syria, and Lebanon. In 2018, the Trump 
administration cut off all U.S. funding to UNRWA, citing a desire to 
use the withdrawal of aid as leverage to win Palestinian acceptance of 
the administration's then-nascent peace efforts. Two years later, UNRWA 
continues to operate at the edge of a financial cliff: while donations 
from other member states have helped partially fill the gap, the agency 
is facing new pressures brought about by the pandemic, and is facing 
the possibility of having to close or reduce services: Given these 
realities, what exactly is the administration hoping to accomplish by 
continuing to withhold funding for UNRWA?

    Answer. The administration announced in 2018 that the United States 
will no longer provide financial contributions to UNRWA. UNRWA's 
business model remains unsustainable and Palestinians deserve better 
than a service provision model that operates in permanent crisis mode. 
The United States works with a range of actors to address the needs of 
Palestinian refugees.
    The United States is leading the world's humanitarian and health 
assistance response to the COVID-19 pandemic, including by providing $5 
million to support health services in the West Bank. I support 
continuing to assess how U.S. assistance can best be used to alleviate 
human suffering while advancing U.S. foreign policy and providing value 
to U.S. taxpayers.

    Question.  Neither Israel, nor the Palestinian Authority, nor 
countries in the region like Jordan have demonstrated the capacity or 
willingness to absorb these activities, so who will perform them in 
UNRWA's absence?

    Answer. The Department made it clear when providing the final 
contribution of $60 million in 2018 that the United States would no 
longer bear a disproportionate share of UNRWA's costs, and other 
countries must step up and do their part to advance regional security 
and stability. UNRWA continues to operate with an unsustainable 
business model, tied to an expanding community of beneficiaries. The 
Department continues to work closely with Israel and key regional 
partners on ways to improve economic and humanitarian conditions. 
Regarding Gaza, Hamas is primarily responsible for those conditions, 
having put its own interests above those of Gaza's residents.

    Question.  One of the key objectives of U.S. policy in Iraq is not 
only to defeat ISIS but to rebuild the country and address the urgent 
humanitarian and development needs of the Iraqi people. Such measures 
are critical to both the long-term stability of Iraq and efforts to 
prevent ISIS from reconstituting itself. Over the last five years, U.N. 
agencies have helped millions of displaced return home and initiated an 
infrastructure program to stabilize areas taken by ISIS and give the 
local population a sense of progress. In particular, the U.N. Refugee 
Agency (UNHCR) and U.N. Development Program (UNDP) have helped foster 
the return of 4.6 million Iraqis; completed 2,373 infrastructure 
projects, which have provided water and electrical service to millions; 
employed 35,000 people, including many women, with cash-generating 
jobs; enabled 39,000 children to go back to school; and rehabilitated 
tens of thousands of houses, benefitting over 130,000 Iraqis: How does 
the U.S. plan to work with the U.N. and other partners to ensure that 
the gains of the last few years are not rolled back?

    Answer. The United States has worked closely with UNHCR and UNDP to 
foster the return of 4.6 million Iraqi IDPs and, based on 
administration policy, intends to continue support and collaboration 
with U.N. agencies to implement durable solutions for the 1.3 million 
Iraqis who remain displaced. Advancing effective durable solutions for 
IDPs that meet international standards, a necessary measure to achieve 
Iraqi national stability and security, remains a key U.S. priority.

    Question.  After nearly a decade of civil war, the humanitarian 
situation in Syria remains dire. Beginning in 2014, the U.N. Security 
Council authorized U.N. humanitarian agencies to conduct cross-border 
relief operations into rebel-controlled areas of Syria, in order to 
circumvent significant obstacles to access put up by the Assad regime. 
This program allowed several million Syrians in areas outside of 
government control to access food, medicine, shelter, and other 
critical forms of humanitarian aid. Unfortunately, since late last 
year, the Council has voted twice, with U.S. support, to circumscribe 
these relief operations, due to strong pressure from Russia and China, 
including the use by both countries of their veto powers. Currently, 
only one border crossing into Idlib is permitted for cross-border 
relief deliveries, out of four that were originally in operation. 
Secretary-General Ant"nio Guterres and other senior U.N. officials have 
repeatedly called on Security Council member states to keep the cross-
border relief efforts alive: How is the administration working with 
U.N. humanitarian agencies and other partners to continue to provide 
aid to Syrian civilians?

    Answer. Deputy Secretary Biegun announced at the U.S.-hosted UNGA 
event on Humanitarian Leadership on September 24, 2020, an additional 
$720 million in humanitarian assistance for the Syrian people, bringing 
the total U.S. humanitarian commitment since the start of the conflict 
to over $12 billion. We are the largest single donor to the response to 
the Syrian conflict.
    I support this continued commitment to ensuring the Syrian people 
receive the humanitarian relief that they need, including through 
cross-border assistance. I also support efforts to encourage others to 
increase humanitarian support to the Syrian people despite the Syrian 
regime's efforts to starve its population into submission.

    Question.  Criminalization of LGBTQI: In countries around the 
world, there are criminal penalties associated with exercising sexual 
and reproductive health and rights. LGBTQI people are criminalized for 
who they love and are regularly prosecuted or incarcerated for 
consensual same sex sexual conduct or in places like Indonesia, 
Chechnya and Egypt. There are also women who are in jail in places like 
El Salvador and Senegal for having miscarriages or abortions. These are 
gross human rights violations. As Undersecretary, do you commit to 
raise concerns about laws that criminalize same-sex relationships and 
women's personal health decisions in public and private diplomatic 
settings?

    Answer. If confirmed, I will work to protect and defend the human 
rights and fundamental freedoms of all persons, including women and 
LGBTI persons. This has long been and remains the foreign policy of the 
United States.
    Consistent with President Trump's remarks at the United Nations 
General Assembly this year, I will champion ongoing U.S. efforts to 
support the repeal or elimination of laws that criminalize LGBTI status 
and/or conduct around the world, and I will advocate for the human 
rights of women across the globe.

    Question.  Furthermore, do you commit to instructing DRL to report 
on LGBTI rights and access to sexual and reproductive health services 
in the Human Rights Report?

    Answer. The Country Reports on Human Rights Practices (HRR) include 
information on respect for the human rights of LGBTI persons. I 
understand that the HRR subsection entitled ``Reproductive Rights'' by 
the previous administration was renamed ``Coercion in Population 
Control'' consistent with the requirement of U.S. law to report 
``wherever applicable, practices regarding coercion in population 
control, including coerced abortion and involuntary sterilization.'' 
Additional material on maternal mortality, access to contraception, and 
similar issues is available via hyperlink in the text of each country 
chapter and in an appendix to the HRR. If confirmed, I will ensure that 
the State Department continues to comply with statutory reporting 
requirements and delivers objective, evidence-based, and rigorous human 
rights reports.

    Question.  What is your assessment of the scope of risks to women 
and girls during humanitarian emergencies, such as sexual exploitation, 
human trafficking, and domestic violence, and the status of efforts to 
address them? Please discuss the impact of the programs PRM is funding 
and how they are linked to early recovery efforts.

    Answer. Humanitarian crises pose many risks, specifically to women 
and girls, including all forms of gender-based violence (GBV). The 
Department of State through its many programs and initiatives works to 
address these risks by responding to violence against women from the 
start of a humanitarian emergency, and ensuring survivors receive 
support. One example of this programming is the Safe from the Start 
initiative, which demonstrates that with well-trained and dedicated 
humanitarian workers, a relatively low-cost financial investment can 
make a significant difference in the protection of women and girls. In 
addition, PRM ensures implementing partners incorporate GBV risk 
mitigation into all PRM-funded activities.

    Question.  If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. I fully support the Department's policy to vigorously 
protect employees' rights to engage in protected activities. 
Retaliating against employees who engage in protected activities is 
prohibited and those who retaliate will be held accountable. Penalties 
should be strong enough to deter misconduct, and when misconduct is 
proved, I fully support appropriate penalties, up to and including 
separation. If confirmed, I will work to ensure that any employees 
engaging in retaliation will be held accountable for their actions.

    Question.  What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote efforts in the J 
family to foster a culture of inclusion and representative workforce. 
To promote and retain the Department's diverse workforce, I will apply 
best practices of actively encouraging hiring managers to engage in 
broad outreach to attract the best and most diverse talent and then 
apply standardized interview procedures to eliminate unconscious bias. 
Additionally, as the Secretary determines, I will promote the expansion 
of workplace flexibilities, including telework and alternative work 
schedules, and Leave Without Pay (LWOP) options. Consistent with 
appropriate laws, regulations, and directives, I will also look for 
opportunities to encourage bureaus and offices to be diverse, encourage 
mentoring and sponsorship relationships, and host conversations about 
hiring, promotion and mentoring.

    Question.  Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant laws, 
regulations, and rules and to raising any concerns that I may have 
through appropriate channels.

    Question.  Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules and to raise any concerns 
that I may have through appropriate channels.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Hon. Eric M. Ueland by Senator Benjamin L. Cardin

    Question. Do you accept the legitimacy of the international human 
rights regime?

    Answer. The United States has been clear about its support for the 
Universal Declaration of Human Rights, and that States should adhere to 
their international human rights obligations and commitments. If 
confirmed, I will continue long-standing U.S. efforts to advance human 
rights around the world and condemn those who violate them.

    Question. Secretary Pompeo created the Commission on Unalienable 
Rights with the stated purpose of reevaluating which human rights the 
U.S. should prioritize in our foreign policy based on foundational 
American principles. Might countries like China and Russia not 
interpret this approach as license to pick and choose rights to respect 
based on their national ideologies?

    Answer. Secretary Pompeo did not ask the Commission to single out 
``which human rights the U.S. should prioritize in our foreign 
policy.'' The Commission explicitly rejected a selective approach in 
its report, which asserts that ``it defies the intent and structure of 
the [Universal Declaration of Human Rights] to pick and choose among 
its rights according to preferences and ideological presuppositions 
while ignoring other fundamental rights.'' Furthermore, the report 
stresses that the UDHR's ``openness to legitimate pluralism'' does not 
mean that any ``claim of cultural specificity ought to be accepted as 
an excuse for violating human rights.'' If confirmed, I look forward to 
reviewing the Commission report in detail and the challenge the 
Secretary has placed before the Department to assess how the work we 
are called to do is grounded in the unalienable rights tradition that 
the United States, including the Department, have advocated for since 
our nation's founding.

    Question. Do you agree with Secretary Pompeo's assertion, made at 
the launch of the Commission on Unalienable Rights report, that ``Many 
[rights] are worth defending in light of our founding; others aren't''?

    Answer. The United States is committed to preserving and protecting 
the human rights and fundamental freedoms contained in the instruments 
to which the United States is a party. The United States takes the 
assumption of such obligations very seriously, and the United States' 
longstanding commitment to protecting the human rights and fundamental 
freedoms of all people is well-known. The United States stands by our 
foundational ideal that certain principles are so fundamental as to 
apply to all human beings, everywhere, at all times.

    Question. Do you believe that women's rights and the rights of 
LGBTQ individuals are rights worth protecting?

    Answer. Yes. If confirmed, I will work to protect and defend the 
human rights and fundamental freedoms of all people--including women, 
girls, and LGBTI persons. This has long been and remains the foreign 
policy of the United States.

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. In 1998, I worked on bringing to passage through the Senate 
the International Religious Freedom Act, which created the Office of 
International Religious Freedom at the Department of State. Among its 
other duties the Office carries out significant responsibilities, 
including issuing an annual report on international religious freedom 
issues, advocacy on behalf of religious freedom in countries, and 
review of countries for potential religious freedom violations that 
could cause their listing as Countries of Particular Concern. The Act 
also created an Ambassador at Large for Religious Freedom, and the 
United States Commission on International Religious Freedom.
    Over its existence, the Office has worked doggedly on the issue of 
religious freedom internationally, under both Republican and Democratic 
administrations. The level of focus on international religious freedom 
issues by the U.S. Government, including the Department of State, and 
the work of the Foreign Service and the Commission on these issues, 
have been a worthy addition to the range of roles and responsibilities 
of the U.S. Government in advocating appropriately on behalf of our 
values around the world.
    During my tenure as Director of the Office of Foreign Assistance 
Resources at the Department of State, at the direction of the Secretary 
I worked to stand up the Humanitarian Assistance Steering Council 
(HASC), a cooperative effort between the Department and the United 
States Agency for International Development (USAID) to improve 
coordination on humanitarian issues between the Department and USAID, 
optimize the work each does on such matters, clarify and enhance the 
core competencies each can bring to these challenges, and work to find 
solutions to what faces refugees and host governments face during a 
refugee crisis. I was gratified to see that through the efforts of the 
HASC an understanding between the Department of State and USAID was 
reached in January 2020 that strengthens what each institution can 
bring to bear and ensured both know what is expected of them and what 
they can do in varying circumstances. This will ensure in the future 
that as humanitarian challenges unfold, the United States will be able 
to act directly and strongly when it engages on refugee crises.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote efforts in the J 
family to foster a culture of inclusion and representative workforce. 
To promote and retain the Department's diverse workforce, I will apply 
best practices of actively encouraging hiring managers to engage in 
broad outreach to attract the best and most diverse talent and then 
apply standardized interview procedures to eliminate unconscious bias. 
Additionally, as the Secretary determines, I will promote the expansion 
of workplace flexibilities, including telework and alternative work 
schedules, and Leave Without Pay (LWOP) options. Consistent with 
appropriate laws, regulations, and directives, I will also look for 
opportunities to encourage bureaus and offices to be diverse, encourage 
mentoring and sponsorship relationships, and host conversations about 
hiring, promotion and mentoring.

    Question. What steps will you take to ensure each of the 
supervisors at U.S. Department of State are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, consistent with applicable Federal laws, 
regulations, and rules, I will support and promote efforts in the J 
family to foster a culture of inclusion and representative workforce. 
If confirmed, I will support efforts the Department has underway to 
ensure leaders under my direction reflect leadership habits and 
practices that focus on recruiting, retaining and nurturing talent from 
a wide variety of backgrounds and perspectives.

    Question. Do you commit to bring to the committee's attention and 
to that of the State Department Inspector General any change in policy 
or U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any foreign country?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes security interests, including stocks, in 
companies, some of which may be based or have a presence overseas. I am 
committed to following all applicable ethics laws and regulations and 
remaining vigilant with regard to my ethics obligations.



                               __________





                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:08 a.m., via 
videoconference, Hon. James E. Risch, chairman of the 
committee, presiding.
    Present: Senators Risch [presiding], Menendez, and Cardin.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. Well, good morning everyone. I apologize for 
the delay. We had a goodbye celebration for Senator Alexander 
on the floor today that Senator Menendez and I were 
participating in, but he is quicker at getting back to his 
office than I am. In any event, welcome to all of you.
    Today we are going to hold a nomination hearing for five 
important overseas posts. Our nominees today are all career 
members of the Senior Foreign Service. In the COVID days, this 
is how we have to do it. They are awkward and difficult, but 
nevertheless, it has to be done.
    First of all we have Mr. Kevin Blackstone, Class of 
Minister-Counselor, to be Ambassador to the Democratic Republic 
of Timor-Leste; Ms. Cynthia Kierscht, Class of Counselor, to be 
Ambassador to the Islamic Republic of Mauritania; Mr. Brian D. 
McFeeters, Class of Minister-Counselor, to be Ambassador to 
Malaysia; The Honorable Geeta Pasi, Class of Career Minister, 
to be Ambassador to the Federal Democratic Republic of 
Ethiopia; and The Honorable David Reimer, Class of Counselor, 
to be Ambassador to the Republic of Sierra Leone.
    These are some important assignments that need to be done, 
and obviously there is at least one country in here that we 
have very significant concerns about. That, of course, is 
Ethiopia.
    In any event, with that, before I recognize each of you to 
make your statements, I am going to recognize the Ranking 
Member, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman. I am 
pleased to see such a qualified panel of nominees before us 
today, with two former ambassadors as well as experienced State 
Department personnel with sterling records of service, and I 
want to thank you and your families for your service to our 
country.
    Ambassador Pasi, I look forward to hearing your views on 
Ethiopia, a country in the midst of a historic political 
transition whose outcome is of great consequence to U.S. 
interests. Like many others, I was impressed by the landmark 
political reforms implemented by Prime Minister Abiy, and while 
I still maintain hope that Ethiopia can build a stable, 
prosperous democracy, recent events raise some serious 
concerns.
    Even before the conflict in Tigray, which I have condemned 
on the Senate floor, the levels of violence in Ethiopia were 
alarming. Political space has been closing for some time. 
Journalists and political opposition figures have been jailed, 
along with thousands of others. Ethiopia has a once-in-a-
generation opportunity at democratic transformation, and the 
U.S. must do what it can to support a course correction.
    Unfortunately, our diplomatic efforts thus far have been 
insufficient. I think we have to renew our efforts. We have to 
talk about how we are going to approach the Grand Ethiopian 
Renaissance Dam, which has a series of related countries that 
are also in the issue. And I would love to hear from you a 
fresh set of ideas how we engage with Ethiopia to advance both 
the interests of the United States and Ethiopians.
    Ms. Kierscht, I love your background. It looks like an 
extension of your persona, the painting. You have been 
nominated to serve in a country that is making some notable 
progress. In 2019, Mauritania's president stepped down, making 
him the first Mauritanian leader to adhere to constitutional 
term limits. Mauritania was recently upgraded from tier three 
to tier two watch list, due to the Government's new anti-
trafficking national action plan, as well as the conviction of 
five slaveholders. And remarkably, there has not been a 
terrorist attack in the country since 2011, considering that 
other countries in the subregion are experiencing significant 
increase.
    However, challenges remain. There is still discrimination 
against the Haratin ethnic group and black Mauritanians. 
Slavery remains a significant problem despite government 
efforts, and according to the 2020 Global Terrorism Index, 
terrorism is falling in some regions but it is rising in the 
Sahel. I hope you will provide us today with an overview of 
what the administration's strategy will be for combatting 
terrorism in the Sahel. In addition, I would like to know what 
steps you will take to improve democratic governance in 
Mauritania and to combat slavery. So I look forward to hearing 
from you.
    Ambassador Reimer, I am glad that we will be spending such 
an experienced diplomat to Freetown. Sierra Leone is a country 
that one can deal with cautious optimism. With the help of the 
U.S. and the international community, Sierra Leone has made 
real progress in the end of its bitter civil war, including the 
fair and peaceful election of President Bio in 2018.
    But the advent of the COVID-19 pandemic has tempered my 
optimism. Sierra Leone faces increasing economic pressures, 
which would make it more difficult to combat poverty and 
corruption and improve access to health care and education. I 
look forward to hearing how the United States can help 
President Bio navigate these challenges.
    I also look forward to hearing from Mr. McFeeters about how 
he plans to lead our embassy in Kuala Lumpur at a time when 
many countries in the region, including Malaysia, are looking 
to the United States for help against an increasingly 
aggressive China.
    And finally, Mr. Blackstone, I have heard good things about 
your leadership at the Bureau of East Asian and Pacific Affairs 
during the COVID epidemic. I look forward to hearing from you 
about Timor-Leste, and particularly on the subject of 
development challenges, consolidating democratic institutions, 
and the risks posed by increased Chinese influence.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez. We will now turn 
to our nominees. Your full statement from each of you will be 
included in the record, so if you could keep your remarks to 
about five minutes we would greatly appreciate that. And that 
will give us the opportunity to ask questions.
    With that, let us start with Mr. Blackstone. Mr. 
Blackstone, the floor is yours.

STATEMENT OF C. KEVIN BLACKSTONE, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
  STATES OF AMERICA TO THE DEMOCRATIC REPUBLIC OF TIMOR-LESTE

    Mr. Blackstone. Thank you, Mr. Chairman. I want to be sure 
you can hear me before I begin.
    The Chairman. I can. I cannot see your picture but I can 
certainly hear you. That is all right. I had the same problems. 
There you go. Now you are back. I usually get one of my 
grandkids to come in and help.
    Mr. Blackstone. Okay.
    The Chairman. Now you are off again. That is all right. We 
can hear you.
    Mr. Blackstone. Okay. Sorry. I am switching windows here. I 
apologize for that. I just have my notes with me.
    Mr. Chairman and members of the committee, I am deeply 
honored to appear before you today as the President's nominee 
to be United States Ambassador to the Democratic Republic of 
Timor-Leste. If confirmed, I look forward to working closely 
with this committee to advance our relationship with Timor-
Leste, a young democracy and a promising friend of the United 
States.
    With the Chairman's permission, I would like to begin by 
thanking the family, friends, and colleagues who have supported 
me through my nearly 30-year career. My wife, Alexandra, also a 
State Department employee; son, Benjamin, who has continued our 
family's tradition of public service as a U.S. Army officer; 
and daughter, Olivia, a college student, deserve equal credit 
for my professional success as we shared in the joys and 
challenges of the Foreign Service as a family. I also thank 
colleagues from the Department and across the interagency for 
their professionalism and support.
    Mr. Chairman and members, the United States and Timor-Leste 
have enjoyed strong bilateral ties since Timor-Leste gained its 
sovereignty in 2002, and we remain committed to the success of 
Timor-Leste and celebrate its embrace of democracy. Our 
relationship is bound by mutual respect, shared values, and 
common interests.
    Mr. Chairman, if confirmed I look forward to leading the 
dedicated mission team of Americans and local Timorese who work 
tirelessly to advance our bilateral relationship, and if 
confirmed I pledge to be a careful steward of the resources 
provided by Congress, both for the operation of our diplomatic 
platform and funds appropriated for development assistance.
    Timor-Leste has shown that it is possible for a new country 
to emerge from years of conflict to establish a nation founded 
on democratic principles and a respect for human rights. The 
United States partners with Timor-Leste to strengthen security, 
governance, economic growth, health, agriculture, justice, and 
law enforcement. We implement our efforts through USAID, 
military-to-military engagement, the Peace Corps, Department of 
Agriculture, and a new Millennium Challenge corporation 
compact. The Timorese Government and people value U.S. 
assistance and welcome our cooperation and partnership.
    The United States has also provided almost $1.6 million for 
health assistance to the Timorese Government in its efforts to 
combat COVID-19, which has helped to limit the pandemic's 
impact there.
    Our growing security partnership with Timor-Leste is 
focused on humanitarian assistance and disaster relief, 
maritime and border security, and professionalizing Timorese 
defense forces. For example, a rotating U.S. Navy Seabees 
detachment provides critical humanitarian assistance and 
infrastructure support to the Timorese people. In 2019, the 
Seabees marked their 100th construction project in the country. 
These projects benefit thousands of Timorese citizens and 
bolster the standing of the United States. As well, the 
Timorese recently joined the National Guard State Partnership 
Program, and the U.S. trains Timorese law enforcement personnel 
at our International Law Enforcement Academy in Thailand.
    The U.S. and Timor-Leste enjoy strong people-to-people 
ties. With 74 percent of its population under 35 years of age, 
positive engagement with young people is essential to our 
future bilateral relationship. State Department-funded exchange 
programs, including the International Visitors Leadership and 
Fulbright programs, and the Young Southeast Asian Leaders 
Initiative, YSEALI, help shape a positive image of U.S. society 
and culture, especially among youth. If confirmed, I will 
continue to build these crucial people-to-people ties.
    We recognize Timor-Leste's growing engagement on a wide 
range of key regional and global issues. In 2019, Timor-Leste 
and Australia ratified a historic maritime boundary treaty 
using a mechanism that could be a model for other countries 
seeking to solve such differences. Timor-Leste has applied to 
join ASEAN and the World Trade Organization, and seeks to 
strengthen its regional and global ties. Timor-Leste supports 
the rules-based order which is fundamental to the region's 
security and prosperity and to a free and open Indo-Pacific 
region.
    If confirmed, I will continue to underscore U.S. support 
for the sovereignty and dignity of Timor-Leste. During my 
Foreign Service career, Mr. Chairman, I have proudly served the 
United States both in Washington and abroad. If confirmed, I 
will use my experience to guide our mission in Dili, to 
strengthen our relationship as we continue to promote our 
interests in Timor-Leste and in the broader Indo-Pacific 
region.
    I appreciate the opportunity to appear before you today, 
and I am happy to answer questions.
    [The prepared statement of Mr. Blackstone follows:]


               Prepared Statement of C. Kevin Blackstone

    Mr. Chairman, Ranking Member, and members of the committee, I am 
deeply honored to appear before you today as the President's nominee to 
be United States Ambassador to the Democratic Republic of Timor-Leste. 
If confirmed, I look forward to working closely with this committee to 
advance our relationship with Timor-Leste--a young democracy and 
promising friend of the United States.
     With the Chairman's permission, I would like to begin by thanking 
my family, friends and colleagues who have supported me through my near 
30-year career. My wife Alexandra, also a State Department employee, 
son Benjamin, who has continued our family's tradition of public 
service as a U.S. Army officer, and daughter Olivia, a college student, 
deserve equal credit for my professional success as we shared in the 
joys and challenges of the Foreign Service as a family. I also thank 
colleagues from the Department and across the interagency for their 
professionalism and support.
     The United States and Timor-Leste have enjoyed strong bilateral 
ties since Timor-Leste gained its sovereignty in 2002. We remain 
committed to the success of Timor-Leste and celebrate its embrace of 
democracy. Our relationship is bound by mutual respect, shared values, 
and common interests.
     Mr. Chairman, if confirmed, I look forward to leading the 
dedicated Mission team of Americans and local Timorese who work 
tirelessly to advance our bilateral relationship. And if confirmed, I 
pledge to be a careful steward of the resources provided by Congress, 
both for the operation of our diplomatic platform and foreign 
assistance.
     Timor-Leste has shown it is possible for a new country to emerge 
from years of conflict to establish a nation founded on democratic 
principles and a respect for human rights. The progress of this young 
nation reflects the national spirit and determination of the Timorese 
people.
     The United States partners with Timor-Leste to strengthen 
security, governance, economic growth, health, agriculture, justice, 
and law enforcement. We implement our efforts through USAID, military-
to-military engagement, the Peace Corps, Department of Agriculture, and 
a new Millennium Challenge Corporation Compact. The Timorese Government 
and people value U.S. assistance and welcome our cooperation and 
partnership.
     The United States has provided almost $1.6 million for health 
assistance to the Government of Timor-Leste in its efforts to combat 
COVID-19, which has helped limit the pandemic's impact there.
     Our growing security partnership with Timor-Leste is focused on 
humanitarian assistance and disaster relief, maritime and border 
security, and professionalizing Timorese defense forces. As one 
example, a rotating U.S. Navy Seabees detachment provides critical 
humanitarian assistance and infrastructure support to the Timorese 
people. In 2019, the Seabees marked their 100th construction project 
there. These projects benefit thousands of Timorese citizens and 
bolster the standing of the United States. The Timorese recently joined 
the National Guard State Partnership program and the United States 
trains Timorese law enforcement personnel at our International Law 
Enforcement Academy in Thailand.
     The United States and Timor-Leste enjoy close people-to-people 
ties. With 74 percent of the Timorese population under 35 years of age, 
positive engagement with young people is essential to our future 
bilateral relationship. State Department-funded exchange programs--
including the International Visitors Leadership and Fulbright Programs, 
and the Young Southeast Asian Leaders Initiative (YSEALI)--help shape a 
positive image of U.S. society and culture, especially among youth. If 
confirmed, I will continue to build these crucial people-to-people 
ties.
     We recognize Timor-Leste's growing engagement on a wide range of 
key regional and global issues. In 2019, Timor-Leste and Australia 
ratified a historic maritime boundary treaty using a mechanism that 
could be a model for other countries seeking to solve such differences. 
This is an important example for the region of countries peacefully 
settling boundary disputes according to international law.
     Timor-Leste has applied to join the Association of Southeast Asian 
Nations--ASEAN--and the World Trade Organization and seeks to 
strengthen its regional and global ties. Timor-Leste supports the 
rules-based order which is fundamental to the region's security and 
prosperity and contribute to the preservation of a free and open Indo-
Pacific region. If confirmed, I will continue to underscore U.S. 
support for the sovereignty and dignity of Timor-Leste.
     During my Foreign Service career, Mr. Chairman, I have proudly 
served the United States both in Washington and abroad. If confirmed, I 
will use my experience to guide our mission in Dili to strengthen our 
relationship as we continue to promote our interests in Timor-Leste and 
the broader Indo-Pacific region.
     I appreciate the opportunity to appear before you today and am 
pleased to answer your questions.


    The Chairman. Thank you, Mr. Blackstone.
    We will now turn to Cynthia Kierscht. Ms. Kierscht, the 
floor is yours.

STATEMENT OF CYNTHIA KIERSCHT, OF MINNESOTA, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE ISLAMIC REPUBLIC OF MAURITANIA

    Ms. Kierscht. Mr. Chairman, Ranking Member, and 
distinguished members of the committee, it is an honor to 
appear before you today as the President's nominee to serve as 
the U.S. Ambassador to the Islamic Republic of Mauritania. I 
appreciate the confidence the President and Secretary of State 
have placed in me through this nomination.
    Mr. Chairman, I would first like to express my deep 
appreciation for the love and support of my family, friends, 
and colleagues. In particular, I would like to recognize my 
mother, Marcia Kierscht, who has been an excellent role model 
and friend, and my late grandmother, Cynthia Selland, who, as a 
North Dakota public school teacher for 45 years, taught 
geography, and from whom I no doubt got much inspiration for 
this journey. I am also grateful for the love and support of my 
brother, Matthew, and his family.
    In my 30 years of public service, it has been a privilege 
to represent the American people abroad. My experiences in 
North Africa, in Egypt, Libya, Tunisia, Algeria, and Morocco, 
have prepared me to recognize the strategic nature of 
Mauritania's unique geography, situated between the Maghreb and 
the Sahel, and its potential impact on our economic and 
security interests.
    In my recent service as Deputy Assistant Secretary in the 
Bureau of Western Hemisphere Affairs, I have witnessed the 
power of citizens to bring change at the ballot box and the 
impact this can have on good governance, the rule of law, and 
human rights.
    When I look at Mauritania I see potential, the potential 
for transformational progress on democratic governance, 
inclusion, and human rights; the potential for economic 
prosperity through bilateral trade and investment; and the 
potential to be a regional leader in security and 
counterterrorism. If confirmed, promoting Mauritania's 
potential in these areas will be my primary objective, because 
it is in our interest to have a stable, democratic, and 
accountable Mauritania as a partner in the region.
    Let me start with human rights. For far too long, 
Mauritania had a poor record on human rights that it hesitated 
to address. This is no longer the case. Since President 
Ghazouani's 2019 inauguration, Mauritania has made significant 
strides to address its legacy of slavery. The country is on the 
right track, and our engagement serves to encourage their 
better inclinations.
    Tools provided by Congress, in the form of the African 
Growth and Opportunity Act eligibility criteria, and the 
trafficking in persons ranking restrictions help demonstrate 
the costs of undermining human rights. The Mauritanian 
Government's recent approval of new anti-trafficking 
legislation, establishment of a ministerial committee charged 
with implementing the TIP recommendations, and a doctrine of an 
anti-trafficking national action plan demonstrate its political 
will to address this issue.
    Today we seem to have a partner in the Ghazouani 
administration to make real headway on longstanding human 
rights concerns, and if confirmed, I will seek to ensure this 
progress continues.
    With progress on human rights comes the potential for 
increased economic prosperity through bilateral trade and 
investment. It is no secret that U.S. companies not only 
produce and sell high-quality goods and services, but they also 
improve the commercial climate when it comes to business 
ethics, transparency, and the development of local talent. Some 
of our hydrocarbon companies are already exploring 
opportunities in Mauritania with great success. U.S. businesses 
have also invested in the agricultural sector, but more can be 
done. Mauritanian fisheries are a potential market for U.S. 
investment and an area ripe for export to the United States. If 
confirmed, I will work with the U.S. interagency and private 
sector to promote mutual economic prosperity.
    Finally, Mauritania has demonstrated great potential on the 
key issues of security and counterterrorism. A founding member 
and current president of the G5 Sahel and success story in 
countering violent extremism, Mauritania is willing and able to 
take on a leadership role to share its lessons learned within 
the region. In February, Mauritania hosted the FLINTLOCK 
exercise, comprised of 1,500 troops from 30 countries, working 
together to strengthen the ability of partner nations to 
counter violent extremist organizations, protect their borders, 
and provide security for their people.
    Mauritania also recently joined the Global Coalition to 
Defeat ISIS, strengthening the coalition's efforts to ensure 
ISIS's enduring defeat in the region. Mauritania's whole-of-
government approach to combatting terrorism has garnered U.S. 
support for both its military and law enforcement agencies 
tasked with pursuing terrorism.
    If confirmed, I will continue to build on a relationship 
with the Mauritanian security forces and deepen collaboration 
with the G5 Sahel's secretariat, based in Nouakchott. Having 
served two tours in the Bureau of Counterterrorism, I 
understand the stakes at hand. I can also assure you that, if 
confirmed, the safety and security of all American citizens in 
Mauritania would be my highest priority.
    In closing, Mauritania is a land of potential, both for its 
citizens and for the United States. If confirmed, I look 
forward to working with the embassy team, the interagency, 
Congress, American businesses, and nongovernmental 
organizations and our Mauritanian partners to ensure that this 
potential is fully realized to the benefit of all.
    Mr. Chairman, Ranking Member, members of the committee, I 
thank you for this opportunity to appear before you, and I look 
forward to your questions.
    [The prepared statement of Ms. Kierscht follows:]

                 Prepared Statement of Cynthia Kierscht

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, it is an honor to appear before you today as the President's 
nominee to serve as the U.S. Ambassador to the Islamic Republic of 
Mauritania. I appreciate the confidence the President and Secretary of 
State have placed in me through this nomination. Mr. Chairman, I would 
first like to express my deep appreciation for the love and support of 
my family, friends, and colleagues. In particular, I would like to 
recognize my mother, Dr. Marcia Kierscht, who has been an excellent 
role model and visited me at every post, and my late grandmother, 
Cynthia Selland, who, as a North Dakota public school teacher for 45 
years taught geography, among other subjects, and from whom I no doubt 
got much inspiration for this journey. I am also grateful for the love 
and support of my brother, Matthew, and his family.
    In my thirty years of public service, it has been a privilege to 
represent the American people and to support and protect American 
citizens and interests abroad. My experiences in North Africa--in 
Egypt, Libya, Tunisia, Algeria, and Morocco--have prepared me to 
recognize the strategic nature of Mauritania's unique geography, 
situated between the Maghreb and the Sahel, and its potential impact on 
our economic and security interests. In my recent service as Deputy 
Assistant Secretary in the Bureau of Western Hemisphere Affairs, I have 
witnessed the power of citizens to bring about positive change at the 
ballot box and the impact this change can have on the important issues 
of good governance, the rule of law, and human rights.
    When I look at Mauritania, I see potential: the potential for 
transformational progress on democratic governance, inclusion, and 
human rights, the potential for economic prosperity through bilateral 
trade and investment, and the potential to be a regional leader in 
security and counterterrorism. If confirmed, promoting Mauritania's 
potential in these areas will be my primary objective because it is in 
our economic and security interest to have a stable, democratic, and 
accountable Mauritania as a partner in the region.
    Let me start with human rights. For far too long, Mauritania had a 
poor record on human rights that it hesitated to address. Not only was 
it the last country in the world to outlaw slavery, but government 
officials continued to deny its very existence until fairly recently. 
This is no longer the case. Since President Ghazouani's 2019 
inauguration, Mauritania has made significant strides to address its 
legacy of slavery. The country is on the right track and our engagement 
serves to encourage their better inclinations. Tools provided by the 
U.S. Congress in the form of the African Growth and Opportunity Act 
(AGOA) eligibility criteria and the Trafficking in Persons (TIP) 
ranking restrictions helped demonstrate the costs of undermining human 
rights. The Mauritanian Government's approval of new anti-trafficking 
legislation, establishment of a ministerial committee charged with 
implementing the TIP recommendations, and adoption of an anti-
trafficking national action plan demonstrate its political will to 
address this issue. Today, we seem to have a partner in the Ghazouani 
administration to make real headway on longstanding human rights and 
governance concerns and, if confirmed, I will seek to ensure this 
progress continues.
    With progress on human rights comes the potential for increased 
economic prosperity through bilateral trade and investment. It is no 
secret that U.S. companies not only produce and sell high-quality 
products and services, but they also improve the commercial climate 
when it comes to business ethics, transparency, and development of 
local talent. Some of our hydrocarbon companies are already exploring 
opportunities in Mauritania, with great success. U.S. businesses have 
also invested in the agricultural sector, but more can be done. 
Mauritanian fisheries are a potential market for U.S. investment and an 
area ripe for export to the United States. If confirmed, I will work 
with the U.S. interagency and the U.S. private sector to promote mutual 
economic prosperity.
    Finally, Mauritania has demonstrated great potential on the key 
issues of security and counterterrorism. Regional efforts to ensure 
stability should focus on countering violent extremism and recruitment 
in the Sahel and denying terrorists a base of operations from which 
they can pose a threat on a more global scale. A founding member and 
current president of the G5 Sahel and a success story in countering 
violent extremism, Mauritania is willing and able to take on a 
leadership role to share its lessons learned with the region. In 
February, Mauritania hosted the FLINTLOCK exercise, comprised of 1500 
troops from 30 countries, working together to strengthen the ability of 
partner nations to counter violent extremist organizations, protect 
their borders, and provide security for their people. Reaffirming its 
commitment to countering terrorism, Mauritania recently joined the 
Global Coalition to Defeat ISIS, strengthening the coalition's efforts 
to ensure ISIS's enduring defeat in the region. Mauritania's whole-of-
government approach to combating terrorism has garnered U.S. support 
for both its military and law enforcement agencies tasked with pursuing 
terrorism. If confirmed, I will continue to build upon the relationship 
we have with the Mauritanian security forces and deepen collaboration 
with the G5 Sahel Secretariat based in Nouakchott. Having served two 
tours in the Bureau of Counterterrorism, I personally understand the 
stakes at hand. I can also assure you that, if confirmed, the safety 
and security of all American citizens in Mauritania would be my highest 
priority.
    In closing, Mauritania is a land of potential, both for the 
Mauritanians and for the United States. If confirmed, I look forward to 
working with the Embassy team, the interagency, Congress, American 
businesses and non-governmental organizations, and our Mauritanian 
partners to ensure that this potential is fully realized to the benefit 
of all.
    Mr. Chairman, Ranking Member, members of the committee, I thank you 
for this opportunity to appear before you and look forward to your 
questions.


    The Chairman. Thank you so much. We appreciate that.
    Now we will turn to Mr. McFeeters, the nominee for 
Ambassador to Malaysia.

 STATEMENT OF BRIAN D. McFEETERS, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                 STATES OF AMERICA TO MALAYSIA

    Mr. McFeeters. Mr. Chairman, Ranking Member, and members of 
the committee, thank you for the opportunity to appear before 
you today. I am honored to be the President's nominee to serve 
as the United States Ambassador to Malaysia.
    With your permission, Mr. Chairman, I would like to 
recognize my wife, Melanie, who has not only worked at the 
posts where we have served but has also ensured that our three 
children thrived, including when we were evacuated and during 
periods when I was serving overseas unaccompanied. I would also 
like to recognize my parents, my father, James, who served as a 
U.S. Air Force officer for 30 years, including leading a 
fighter squadron in Vietnam, and my mother, Nancy, who taught 
elementary school for 30 years.
    If confirmed as Ambassador to Malaysia, I will draw on my 
29 years of experience as a Foreign Service Officer, including 
leadership positions as Deputy Chief of Mission in Baghdad and 
Jakarta, Principal Deputy Assistant Secretary in the Bureau of 
Economic and Business Affairs, and Senior Advisor to the 
Counselor of the Department.
    In recent years, Mr. Chairman, the United States and 
Malaysia have greatly expounded defense and law enforcement 
cooperation to promote the safety and security of citizens in 
both of our countries. We cooperate in combatting terrorism and 
transnational crime, and countering violent extremist 
narratives to keep both our borders and our skies safe. If 
confirmed, I intend to work with Malaysia to deepen our close 
security and law enforcement cooperation, particularly in 
shared priority areas such as maritime security, 
counterterrorism, and cybersecurity.
    The United States has recovered and assisted in the 
recovery of more than $1.2 billion in assets associated with 
the 1MDB international money laundering and bribery scheme. The 
Department of Justice continues to trace and recover these 
stolen assets so that they can be returned to the benefit of 
the Malaysian people. If confirmed, I intend to continue 
supporting our mutual commitment to combat corruption.
    The United States is among Malaysia's largest foreign 
investors. Last year, bilateral trade reached nearly $60 
billion, and Malaysia produces important PPE supplies and 
components used in our health sector. We are grateful for 
Malaysia's efforts to keep vital supply chains open during the 
global pandemic, and the fact that they facilitated export of 
critical PPE to U.S. frontline workers earlier this year.
    The United States promotes the rule of law, transparency, 
and good governance, and freedom of expression in Malaysia. 
Human trafficking, including forced labor, remains a 
significant issue in Malaysia, and the Government has much work 
to do. If confirmed, I will urge Malaysian Government officials 
to significantly improve anti-trafficking efforts and 
investigate and prosecute allegations of forced labor. I will 
also coordinate with Malaysia and UNHCR regarding the safety 
and security of nearly 180,000 refugees and asylum seekers, 
including 100,000 Rohingya.
    Our public diplomacy programs demonstrate the strong 
connection between the United States and Malaysia. The Young 
Southeast Asian Leaders Initiative is a vibrant part of our 
engagement, with nearly 500 emerging Malaysian leaders 
participating in programs last year. If confirmed, I intend to 
continue support for these people-to-people programs.
    While Malaysia maintains close relations with China, 
Beijing is increasingly encroaching on Malaysian-claimed 
maritime areas in the South China Sea. The PRC's assertive and 
provocative activities are hampering Malaysia's longstanding 
efforts to pursue its interests in exploiting natural resources 
off its coast. The United States is concerned about China's 
actions and destabilizing presence in the South China Sea, and 
rejects Beijing's unlawful South China Sea maritime claims. If 
confirmed, I will support Malaysian and regional efforts 
regarding freedom of navigation and overflight and unimpeded 
lawful commerce in the South China Sea. I will also encourage 
Malaysia to pursue open and transparent investment in 
infrastructure deals to avoid negative Chinese economic 
influence.
    Malaysia is a regional leader in combatting COVID-19, and 
has taken proactive measures to respond to the pandemic. As a 
result, the country is working to contain the spread of the 
virus. If confirmed, I will engage with the Government of 
Malaysia to partner on bilateral and regional initiatives to 
mitigate the spread of the disease.
    Mr. Chairman and members of the committee, I thank you for 
this opportunity to appear before you, and I look forward to 
your questions.
    [The prepared statement of Mr. McFeeters follows:]

                Prepared Statement of Brian D. McFeeters

    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to appear before you today. I am honored to be 
the President's nominee to serve as the United States Ambassador to 
Malaysia.
    With your permission Mr. Chairman, I would like to recognize my 
wife Melanie, who has not only worked at the posts where we have served 
but also ensured that our three children thrived, including when we 
were evacuated and during periods when I was serving overseas 
unaccompanied. I would also like to recognize my parents: my father 
James, who served as a U.S. Air Force officer for 30 years including 
leading a fighter squadron in Vietnam, and my mother Nancy, who taught 
elementary school for even longer, both examples of public service whom 
I have sought to emulate.
    If confirmed as Ambassador to Malaysia, I will draw on my 29 years 
of experience as a Foreign Service Officer, including leadership 
positions as Deputy Chief of Mission in Baghdad and Jakarta, Principal 
Deputy Assistant Secretary of the Bureau of Economic and Business 
Affairs, and Senior Advisor to the Counselor of the Department.
    In recent years, the United States and Malaysia have greatly 
expanded defense and law enforcement cooperation in order to promote 
the safety and security of the citizens of both our countries. We 
cooperate on combatting terrorism and transnational crime and 
countering violent extremist narratives to keep our borders and skies 
safe. If confirmed, I intend to work with Malaysia to deepen our close 
security and law enforcement cooperation, particularly in shared 
priority areas such as maritime security, counterterrorism, and 
cybersecurity.
    The United States has recovered or assisted in the unprecedented 
recovery of more than $1.2 billion in assets associated with the 1MDB 
international money laundering and bribery scheme. The Department of 
Justice continues to trace and recover these stolen assets so that they 
may be returned to benefit the Malaysian people. If confirmed, I intend 
to continue supporting our mutual commitment to combat corruption.
    The United States is among Malaysia's largest foreign investors. 
Last year, bilateral trade reached nearly $60 billion, and Malaysia 
produces important PPE supplies and components used in our health 
sector. We are grateful for Malaysia's efforts to keep vital supply 
chains open during the global pandemic and facilitating export of 
critical PPE to U.S. frontline workers earlier this year.
    The United States promotes the rule of law, transparency and good 
governance, and freedom of expression in Malaysia. Human trafficking, 
including forced labor, remains a significant issue in Malaysia, and 
the Government has much work to do. If confirmed, I will urge Malaysian 
Government officials to significantly improve anti-trafficking efforts 
and investigate and prosecute allegations of forced labor. I will also 
coordinate with Malaysia and UNHCR regarding the safety and security of 
the nearly 180,000 refugees and asylum-seekers in the country, 
including more than 100,000 Rohingya.
    Our public diplomacy programs demonstrate the strong connection 
between the United States and Malaysia. The Young Southeast Asian 
Leaders Initiative, or YSEALI, is a vibrant part of our engagement with 
nearly 500 emerging Malaysian leaders participating in programs last 
year. The Fulbright English Teaching Assistant program places recent 
American college graduates in underserved public schools throughout 
Malaysia to teach English. If confirmed, I intend to continue support 
for these people-to-people programs.
    While Malaysia maintains close relations with China, Beijing is 
increasingly encroaching on Malaysian-claimed maritime areas in the 
South China Sea. The PRC's assertive and provocative activities are 
hampering Malaysia's longstanding efforts to pursue its interests in 
exploiting natural resources off its coast. The United States is 
concerned about China's actions and destabilizing presence in the South 
China Sea and rejects Beijing's unlawful South China Sea maritime 
claims. If confirmed, I will support both Malaysian and regional 
efforts regarding freedom of navigation and overflight, and unimpeded 
lawful commerce in the South China Sea. I will also encourage Malaysia 
to pursue open and transparent investment and infrastructure deals to 
avoid negative Chinese economic influence.
    Malaysia is a regional leader in combating COVID-19 and has taken 
proactive measures to respond to the pandemic. As a result, the country 
is working to contain the spread of the virus. If confirmed, I will 
engage with the Government of Malaysia to partner on bilateral and 
regional initiatives to mitigate the spread of the disease.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee. I look forward to your 
questions.


    The Chairman. Thank you very much.
    We will now turn to The Honorable Geeta Pasi, who has been 
nominated for the ambassadorship to the Federal Democratic 
Republic of Ethiopia, certainly a country that is on all of our 
radars these days. So, Ms. Pasi, the floor is yours.

STATEMENT OF THE HON. GEETA PASI, OF NEW YORK, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE FEDERAL DEMOCRATIC REPUBLIC OF 
                            ETHIOPIA

    Ambassador Pasi. Thank you very much. Mr. Chairman, Ranking 
Member, and distinguished members of the committee, I am deeply 
honored to appear as the nominee to serve as the U.S. 
Ambassador to Ethiopia. I am grateful to the President and the 
Secretary of State for the confidence they have shown in 
nominating me for this position. If confirmed, I will work with 
this committee and the Congress to advance our country's 
interests in Ethiopia.
    I would like to recognize my sisters, Usha and Rita, and my 
brother, Sunil Kumar, and their families, and thank them for 
their love and support. I am a naturalized American who came 
here as a child of immigrants. Serving my country as Ambassador 
is the highest honor. I would like to thank my friends, family, 
neighbors, and colleagues who have helped me reach this point.
    Mr. Chairman, during more than 30 years as a Foreign 
Service Officer, I have had a variety of assignments, including 
in countries in transition. I have had the honor to serve as 
Ambassador twice, to Djibouti and Chad. Throughout my career, 
helping develop the strength and effectiveness of the State 
Department has been a priority, including when I served in the 
Bureau of Human Resources and now as Principal Deputy Assistant 
Secretary in the Bureau of African Affairs. If confirmed, I 
will commit to continuing to support the development of my 
institution and my colleagues, including by recruiting and 
promoting the careers of a corps of professionals and leaders 
that reflect the strength and diversity of our great nation.
    Mr. Chairman, our interests in Ethiopia are primarily in 
the areas of peace and security, democratic governance, and 
economic development, as well as promotion of U.S. business. 
The crisis in the Tigray region of Ethiopia is grave, with 
risks to life, Ethiopian and regional stability, and our 
national interests. The Government of Ethiopia has announced 
the end of military operations. The United States remains 
concerned about ongoing hostilities and the risks the conflict 
poses.
    Throughout this crisis we have cautioned against creating 
an ethnic conflict, and have encouraged the Government of 
Ethiopia to engage with moderate to grand leaders to restore 
peace. The United States, the African Union, and other 
international partners are ready to assist with dialogue and 
reconciliation. We also continue to urge protection of 
civilians and facilitation of free, safe, and unhindered 
humanitarian access, which prioritizes safety and protection of 
American citizens in Ethiopia.
    This is a critical moment for Ethiopia. Prime Minister Abiy 
made sweeping changes and made progress addressing longstanding 
democratic concerns, including human rights and press freedom. 
The complex issues that impede transition in Ethiopia include 
land tenure, ethnic tensions, and youth unemployment. The 
current Tigray crisis poses a threat to Ethiopia's reform 
agenda and national unity.
    Also at risk is Ethiopia's leadership in promoting peace 
and stability and countering violent extremism in the region. 
Africa and the world need a stable, secure, and peaceful 
Ethiopia. If confirmed, I will work hard for peace and 
stability in the Horn.
    The United States maintains strong relations with Ethiopia 
and aims to strengthen our partnership. While the security of 
Ethiopia and the region is front and center in our bilateral 
relationship, we also seek to promote democracy and good 
governance. If confirmed, I will also advocate for full respect 
of human rights and fundamental freedoms.
    U.S. national interests lie in supporting Ethiopia's 
economic progress as well. If confirmed, I will work to promote 
a business climate in Ethiopia that encourages U.S. private 
sector activity and ensures a level playing field for American 
businesses.
    Mr. Chairman and members of the committee, if confirmed as 
the next U.S. Ambassador to Ethiopia, my top priority will be 
the security interests and welfare of American citizens, 
whether by ensuring responsive consular services or 
strengthening partnerships against terrorism, this priority 
will drive the Embassy's agenda.
    Ethiopia is a dynamic nation with an extraordinary history. 
I am honored by your consideration of me to serve in such an 
important posting. I will draw on my experience to navigate our 
engagement with the current challenges, and as Ethiopia begins 
its next chapter, one that holds unlimited potential for 
Ethiopia, the Horn of Africa, and the United States.
    Mr. Chairman and members of the committee, I thank you for 
the privilege of appearing before you today. I welcome any 
questions you might have. Thank you.
    [The prepared statement of Ambassador Pasi follows:]


                 Prepared Statement of Hon, Geeta Pasi

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am deeply honored to appear as the nominee to serve as the 
U.S. Ambassador to Ethiopia. I am grateful to the President and the 
Secretary of State for the confidence they have shown in nominating me 
for this position. If confirmed, I will work with this committee and 
the Congress to advance our country's interests in Ethiopia.
    I would like to recognize my sisters, Usha and Rita, and my 
brother, Sunil Kumar, and their families and thank them for their love 
and support. I am a naturalized American who came here as a child of 
immigrants. Serving my country as ambassador is the highest honor. I 
would like to thank my family, friends, neighbors, and colleagues who 
have helped me reach this point.
    If confirmed as ambassador, I will promote and protect U.S. 
interests and values in Ethiopia. I would look forward to working 
closely with members of this committee and your staffs in that 
endeavor.
    Mr. Chairman, during more than thirty years as a Foreign Service 
Officer, I have had a variety of assignments, including in countries in 
transition. I have had the honor to serve as ambassador twice--to 
Djibouti and Chad. Overseas, I served in Ghana when the country had its 
first democratic elections and in Romania shortly after the fall of 
Nicolae Ceausescu. I was in Bangladesh when the caretaker government 
declared a state of emergency and helped steer the country to 
democratic elections. In Washington, I was the Afghanistan Desk Officer 
on September 11, 2001. I had covered the country for about six weeks 
when our country was attacked by the Afghan-based al Qaida network. I 
served as Office Director for East African Affairs with broad policy 
and program responsibility for East Africa, including the Horn of 
Africa. Throughout my career, helping develop the strength and 
effectiveness of the State Department has been a priority, including 
when I served in the Bureau of Human Resources and now as Principal 
Deputy Assistant Secretary in the Bureau of African Affairs. If 
confirmed, I am committed to continuing to support the development of 
my institution and my colleagues, including by recruiting and promoting 
the careers of a corps of professionals and leaders that reflects the 
strength and diversity of our great nation.
    Mr. Chairman, if confirmed, I look forward to leading our embassy 
in Ethiopia in advancing the interests of the United States. Our team 
in Addis Ababa consists of Foreign Service and Civil Service personnel, 
military staff assigned to the Embassy, and the invaluable Foreign 
Service National employees. Our interests in Ethiopia are primarily in 
the areas of peace and security, democratic governance, and economic 
development, as well as the promotion of U.S. business.
    The crisis in the Tigray region of Ethiopia is grave, with risks to 
life, Ethiopian and regional stability, and our national interests. 
While the Government of Ethiopia announced on November 28 the end of 
military operations, the United States is still concerned about ongoing 
hostilities and the risks the conflict poses.
    During his call with Prime Minister Abiy on November 30, Secretary 
Pompeo called for a complete end to the fighting and constructive 
dialogue to resolve the conflict. Throughout this crisis we have 
cautioned against creating an ethnic conflict and have encouraged the 
Government of Ethiopia to engage with moderate Tigrayan leaders to 
restore peace. The United States, the African Union, and other 
international partners are ready to assist with dialogue and 
reconciliation. We also continue to urge protection of civilians and 
facilitation of free, safe, and unhindered humanitarian access. To 
date, more than 45,000 Ethiopian refugees have entered Sudan, 
stretching humanitarian operations there. We continue to work closely 
with our partners in the region to ensure the safety and protection of 
American citizens in the Tigray region.
    This is a critical moment for Ethiopia. Popular desires for greater 
political freedom and civil liberties led to the selection of Abiy 
Ahmed as prime minster in 2018. Abiy made sweeping changes to Ethiopia, 
and made progress addressing longstanding democratic concerns, 
including human rights and press freedom. The complex issues that 
impede transition in Ethiopia include land tenure, ethnic tensions, and 
youth unemployment. The current Tigray crisis poses a threat to 
Ethiopia's reform agenda and national unity.
    Also at risk is Ethiopia's leadership in promoting peace and 
stability and countering violent extremism in the region, if an outflow 
of refugees from Ethiopia, a stalled political process, and violence 
continue unabated. Africa and the world need a stable, secure, and 
peaceful Ethiopia. Ethiopia's significant contributions to the African 
Union's counterterrorism and peace support mission in Somalia and to 
the United Nations' peacekeeping efforts in South Sudan, as well as 
Ethiopia's leading role in the South Sudanese peace process are at 
stake. Ethiopia also contributes to regional stability as the third-
largest host of refugees in Africa. If confirmed, I will work hard for 
peace and stability in the Horn.
    The United States maintains strong relations with Ethiopia and aims 
to strengthen our partnership. While the security of Ethiopia and the 
region is front and center in our bilateral relationship, we also seek 
to promote democracy and good governance. If confirmed, I will work 
with you to represent the interests and values of the American people 
to the Government and people of Ethiopia at this critical juncture. I 
will also advocate for full respect of human rights and fundamental 
freedoms, as well as for reforms that strengthen democratic 
institutions. Ethiopia's respect for these values we share will enhance 
our partnership.
    U.S. national interests lie in supporting Ethiopia's economic 
progress as well, because a sound business and investment environment 
can drive the growth needed to underpin long-term stability. These 
factors also create opportunities for American businesses, and if 
confirmed, I will work to promote a business climate in Ethiopia that 
encourages U.S. private sector activity and ensures a level playing 
field for U.S. firms.
    Mr. Chairman and members of the committee, if confirmed as the next 
U.S. Ambassador to Ethiopia, my top priority will be the security, 
interests, and welfare of American citizens. Whether by ensuring 
responsive consular services, promoting American values, advocating for 
U.S. businesses, or strengthening partnerships against terrorism, this 
priority will drive the Embassy's agenda.
    Ethiopia is a dynamic nation with an extraordinary history of 
independence and accomplishments as well as a future of enormous 
potential. I am honored by your consideration of me to serve in such an 
important posting and I will draw on the depth of my experience to 
navigate our engagement through the current challenges facing Ethiopia.
    If confirmed, I will welcome input and advice from you and your 
staff on any aspect of the multifaceted relationship between the United 
States and Ethiopia. I will also be pleased, if confirmed, to receive 
you and your staff in Ethiopia and to keep you apprised of the 
activities of the U.S. Embassy in Addis Ababa.
    Mr. Chairman and members of the committee, I thank you for the 
privilege of appearing before you today. If confirmed, I would welcome 
the challenge of protecting and advancing the interests of the United 
States in Ethiopia: It is a duty and responsibility I would be honored 
to accept. Thank you and I welcome any questions you might have.


    The Chairman. Thank you, Ms. Pasi.
    Finally, we will turn to David Reimer, who has been 
nominated to Ambassador to the Republic of Sierra Leone. Mr. 
Reimer, the floor is yours.

STATEMENT OF THE HON. DAVID REIMER, OF OHIO, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE REPUBLIC OF SIERRA LEONE

    Ambassador Reimer. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Menendez, and members of the committee, thank 
you for this opportunity to appear before you and for your 
consideration of my nomination by President Trump to be the 
next U.S. Ambassador to the Republic of Sierra Leone. I would 
like to thank President Trump and Secretary Pompeo for their 
trust in me to lead the U.S. Embassy and to maintain our strong 
relationship with Sierra Leone. If confirmed by the U.S. 
Senate, I will uphold that trust.
    At this point I would like to recognize my wife, Simonetta 
Romagnolo, currently listening in, along with her family, in 
Italy--Simonetta is an employee of the U.S. Consulate in 
Milan--as well as my parents, Richard and Lois Reimer, in 
Kansas; my brother, Paul, and his family, in Illinois; and my 
sister, Sue, and her family, in Pennsylvania.
    Sierra Leone has demonstrated progress, despite extreme 
adversity, in maintaining peace, strengthening democracy, and 
working toward an environment suitable for economic growth. The 
people of Sierra Leone have demonstrated resiliency and the 
capacity to rebuild after crises, including a devastating 
decade-long civil war, which ended in 2002, and the Ebola 
epidemic of 2014-2015, during which roughly 14,000 individuals 
contracted the disease and nearly 4,000 died.
    Now Sierra Leone is responding to the COVID-19 pandemic and 
its severe health and economic impacts. The COVID-19 pandemic 
has tested the resilience of the Sierra Leonean people, and the 
U.S. Government is a primary partner in their response efforts. 
The pandemic is having a devastating impact on Sierra Leone's 
small and fragile economy. The GDP growth rate is projected to 
drop from +5.1 percent to -3.1 percent by the end of 2020. 
Lives and livelihoods have been lost. And just as we stood with 
the Sierra Leoneans during the Ebola crisis, the United States 
will support Sierra Leone's recovery from COVID-19.
    Even prior to the onset of COVID-19, Sierra Leoneans faced 
social and health challenges. The country ranks near the very 
bottom, at 181 out of 189 countries, on the UN's Human 
Development Index, with high rates of maternal mortality, child 
malnutrition, and malaria. Sierra Leone must allocate funds and 
resources to public health. Doing so will be crucial to the 
country's future progress. If confirmed, I will work with 
Sierra Leonean leaders to ensure that public health remains a 
top national priority.
    If confirmed, I will continue our focus on strengthening 
democratic institutions and combatting corruption. Since 2002, 
Sierra Leone has held four successful presidential and 
legislative elections that were broadly judged to be free, 
fair, and transparent. Sierra Leone has an important 
presidential election in 2023. I will make it a priority in my 
first months to engage with political parties, civil society, 
and other stakeholders to advocate for continued dialogue and a 
free, fair, and peaceful election.
    The Government has made progress in establishing a market-
based economy and taken steps to protect worker rights. If 
confirmed, I would advocate to improve the investment climate 
for U.S. and foreign businesses, which would contribute to 
Sierra Leone's private sector growth and development. And at 
the same time, I will work closely with the U.S. business 
community to encourage greater trade and investment between our 
two countries to spur prosperity both for Americans and Sierra 
Leoneans. As an Economic-coned officer, this is an area of 
particular professional and personal interest.
    We are starting off on a strong footing with our 
relationship with Sierra Leone. We have many shared goals, and 
if confirmed, I will enhance our strong bilateral relationship, 
while maintaining our principles of promoting democratic 
governance, respect for human rights, and the rule of law.
    In addition to these policy aims, I hold paramount the 
safety and security of the hundreds of U.S. citizens resident 
in Sierra Leone, and the entire U.S. Embassy team, including 
U.S. citizen employees, their families, and our Sierra Leonean 
colleagues. If confirmed, I would do everything within my power 
to ensure the security of our Mission and oversee its smooth 
operation.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today. I welcome your questions.
    [The prepared statement of Ambassador Reimer follows:]


                Prepared Statement of Hon. David Reimer

    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, thank you for this opportunity to appear before you and for 
your consideration of my nomination by President Trump to be the next 
U.S. Ambassador to the Republic of Sierra Leone. I would like to thank 
President Trump and Secretary Pompeo for their trust in me to lead the 
U.S. Embassy and to maintain our strong relationship with Sierra Leone. 
If confirmed by the U.S. Senate, I will uphold that trust. I would like 
to recognize my wife, Simonetta Romagnolo, who is listening in from 
Italy today. Simonetta is an employee of the U.S. Consulate in Milan, 
Italy. I would also like to recognize my parents, Richard and Lois 
Reimer, in Kansas; my brother Paul and his family in Illinois and my 
sister Sue and her family in Pennsylvania.
    Sierra Leone has demonstrated progress, despite extreme adversity, 
in maintaining peace, strengthening democracy, and working toward an 
environment suitable for economic growth. The people of Sierra Leone 
have demonstrated resilience and the capacity to rebuild after crises, 
including a devastating decade- long civil war, which ended in 2002, 
and the Ebola epidemic of 2014-2015, during which roughly 14,000 
individuals contracted the disease and nearly 4,000 died. Now Sierra 
Leone is responding to the COVID-19 pandemic, and its severe health and 
economic impacts.
    The COVID-19 pandemic has tested the resilience of the Sierra 
Leonean people, and the U.S. Government is a primary partner in their 
response efforts. The pandemic is having a devastating impact on Sierra 
Leone's small and fragile economy: the GDP growth rate is projected to 
drop from +5.1 percent to -3.1 percent by the end of 2020. Lives and 
livelihoods have been lost. Just as we stood with the Sierra Leoneans 
during the Ebola crisis, the United States will support Sierra Leone's 
recovery from COVID-19.
    Even prior to the onset of COVID-19, Sierra Leoneans faced social 
and health challenges. The country ranks near the very bottom, at 181 
out of 189 countries, on the UN's Human Development Index, with high 
rates of maternal mortality, child malnutrition, and malaria. Sierra 
Leone must allocate funds and resources to public health; doing so will 
be crucial to the country's future progress. If confirmed, I will work 
with Sierra Leonean leaders to ensure that public health remains a top 
national priority.
    If confirmed, I will continue our focus on strengthening democratic 
institutions and combatting corruption. Since 2002, Sierra Leone has 
held four successful presidential and legislative elections that were 
broadly judged to be free, fair, and transparent. Sierra Leone has an 
important presidential election in 2023. I will make it a priority in 
my first months to engage with political parties, civil society, and 
other stakeholders to advocate for continued dialogue and a free, fair, 
and peaceful election.
    The Government has made progress in establishing a market-based 
economy and taken steps to protect worker rights. If confirmed, I would 
advocate to improve the investment climate for U.S. and foreign 
businesses, which wouldcontribute to Sierra Leone's private sector 
growth and development. And at the same time, I will work closely with 
the U.S. business community to encourage greater trade and investment 
between our two countries to spur prosperity both for Americans and 
Sierra Leoneans. As an Economic-coned officer, this is an area of 
particular professional and personal interest.
    We are starting off on a strong footing with our relationship with 
Sierra Leone. We have many shared goals, and if confirmed, I will 
enhance our strong bilateral relationship, while maintaining our 
principles of promoting democratic governance, respect for human 
rights, and the rule of law.
     In addition to these policy aims, I hold paramount the safety and 
security of the hundreds of U.S. citizens resident in Sierra Leone, and 
the entire U.S. Embassy team, including U.S. citizen employees, their 
families, and our Sierra Leonean colleagues. If confirmed, I would do 
everything within my power to ensure the security of our Mission and 
oversee its smooth operation.
    Thank you, Mr. Chairman for the opportunity to appear before you 
today. I welcome your questions.


    The Chairman. Thank you so much. We want to thank all of 
you for the sacrifices and willingness to serve in these 
difficult positions, and particularly your families who share 
in that sacrifice. So our thanks to all of you.
    On a note here, we have got voting starting in a little 
bit. We are going to stick with this as long as we can, maybe 
take a break if we have to, but now we are going to get the 
questions from members of the committee. And we will start with 
Senator Menendez.
    Senator Menendez. Mr. Chairman, did you call upon me? You 
faded out at some point.
    The Chairman. I am sorry. I did call on you. I told 
everyone, of course, we have votes starting, but we are going 
to go through questioning, and you are first.
    Senator Menendez. Thank you very much. Thank you all for 
your testimony.
    Ambassador Pasi, as you know the Horn of Africa is 
undergoing potentially tectonic shifts, given the possible 
transitions in Sudan and Ethiopia. That has significant 
implications for the strategic Red Sea Corridor, where the 
United States has an important set of national security 
interests.
    In that vein, let me ask you the following. Does the 
administration have a comprehensive policy for the Red Sea 
Corridor, and if so, can you discuss with me what it is?
    Ambassador Pasi. Thank you, sir. We have an approach toward 
the Red Sea, and that is, actually we have engaged with the 
U.S. Institute for Peace and others in efforts they have had to 
discuss the Red Sea. We are engaging with our colleagues in the 
Near East and Near East Asia Bureau, because, of course, our 
interests are not--the Red Sea is not limited just to the 
Africa Bureau. We also have discussions with all of our chiefs 
of mission. We had a mission conference in February. I would 
say that we have an approach. We do not have a formal written 
document, but we definitely are focused on it. Similarly, we 
are looking other issues beyond the Red Sea, like China, and 
doing the same thing with East Asia Pacific.
    Senator Menendez. But an approach is not a comprehensive 
policy. Should we have a comprehensive policy for the Red Sea 
Corridor?
    Ambassador Pasi. Well, Senator, if I might speak frankly, I 
think it would be really very good. In the past, the State 
Department has often--the U.S. Government has often looked at 
countries bilaterally. But, you know, if you are the investor 
you only care about Djibouti, perhaps, but you cannot anymore, 
in 2020. We have issues with China or Russia. We are doing a 
great job, I think, on things like maligned influences from 
Russia or China or other countries, which I do not need to 
name. You are well familiar with them. But where we could do 
more, I think, is formalize this and start to think more 
broadly. Thank you.
    Senator Menendez. Is there--well, I appreciate that, and I 
think we should have a policy, and I look forward to working 
with the State Department to see if we can develop one. What 
formal mechanisms exist in the State Department to develop and 
coordinate policy and priorities between the African Bureau and 
the Near East Affairs?
    Ambassador Pasi. Senator, we interact very regularly on 
specific issues. For example, we have a special envoy for 
Sudan, as you know, Ambassador Donald Booth, when he travels to 
the region, and then he also goes to places like Saudi Arabia 
and elsewhere. Somebody from Near East Asia travels with him 
and supports that trip, because we realize that Sudan is on the 
border of Africa and Near East Asia, and there is a lot of 
dialogue that is important to take place, that must take place, 
not just in Washington, in Khartoum, but also in Dubai and 
other places.
    Similarly, we are very coordinated on China with our 
colleagues in East Asia Pacific area. We meet regularly. We 
coordinate with our Under Secretary for Political Affairs and 
others. We even have people who are Chinese experts assigned to 
our Embassies. We have one now and we are adding two more this 
year who are going to be serving in African posts. One will be 
in Djibouti and one is in Kenya, a third is in West Africa, to 
help bring us closer together, because there is a lot of 
expertise about these countries that we may not have in the 
Africa Bureau. But certainly NEA or EAP or our sister bureaus 
would have that.
    Senator Menendez. Let me ask you a country-specific 
question. As you know, in November, serious armed conflict 
broke out in Ethiopia's northern Tigray region, which pitted 
federal and allied forces against those of the Tigray People's 
Liberation Front. And while the full course of that conflict 
remains unclear, it is but the latest round of violent unrest 
that has beset the country since 2018, and exacted a serious 
humanitarian toll on the Ethiopian people.
    On the floor of the Senate I have called upon the United 
States to take urgent diplomatic action to address this 
escalating conflict. What, in your view, are the drivers of 
this violence? What political issues have to be addressed in 
order to bring an end to the ongoing conflicts in Ethiopia and 
lead to a sustainable peace?
    Ambassador Pasi. Thank you, sir. We really appreciated your 
statement. I think that Ethiopia is a country that for many 
years was ruled by one small group, the Tigray, under the TPLF. 
The group that you mentioned has been in conflict with the 
federal government. It is hard to make a transition, I think, 
where a country was controlled by a small group and have an 
inclusive process.
    I think the main issue that, if confirmed, I would stress 
to my interlocutors in Ethiopia, and I would hope that others 
in Washington would be raising this to you at different levels 
and through other channels, that the process of democracy 
cannot be about one person. It has to be about the 
institutions, civil society, all the group. So despite some 
groups feeling like they do not have certain rights or 
privileges, they have to be included in the democratic process.
    Other issues that are really significant in Ethiopia are 
lack of ability to own land. Land tenure is a huge issue. 
Unemployment. Ethiopia has a very significant growth rate, over 
6 percent, and down to about 3.5 now because of COVID, like 
many countries. But all that success is not reaching average 
Ethiopians. You know, we have talked about the fact that you 
cannot get in touch with the Tigray region because 
communications are cut off or do not work, but even every day 
of the week, every day of the year, communications are a 
problem, with lack of internet and so on.
    I think economic progress is going to be essential, but not 
just a high growth rate but economic progress that really 
improves the lives of average Ethiopians. A lot of the 
frustration is about groups that feel like they have not gotten 
what they feel they deserve, and there is this lack of 
inclusiveness, which I think the prime minister welcomed when 
he first came. He has faced a lot of challenges now with Tigray 
and some other groups. I believe that we can help him work 
toward the democracy that he wants, the democracy that we want, 
and what is needed in Ethiopia. Thank you.
    Senator Menendez. Mr. Chairman, I have questions for the 
other nominees but I see other colleagues. Let me just end, if 
I may, with one last question to you, Ambassador. The Grand 
Ethiopian Renaissance Dam has been a source of conflict between 
Egypt, Ethiopia, and others. How do you see--what role do you 
see the United States--I know the role that has played so far, 
so far it has not been very, I do not know if we can say it is 
constructive. What role do you see us playing in order to end 
up in a peaceful resolution of the issues?
    Ambassador Pasi. Thank you. It is complicated, you are 
right, and it involves Sudan, Egypt, and Ethiopia. We have 
played largely an observer role, and to date we have not 
reached the result that we had hoped for. I think we can 
encourage the parties, encourage Ethiopia, Sudan, as well as 
Egypt to work together. It cannot just be done from Addis. It 
has to be done with all parties, to try to get them to see the 
value.
    South Africa has taken the lead on hosting meetings, and 
there have been a number of them, not just the meetings--there 
have been meetings over several months. But we have not moved 
forward. I think, ultimately, these three countries need to see 
the value in this for themselves. There is tremendous energy 
potential, water potential. I mean, it is a win-win for all the 
countries. I think we can recommend, we can suggest, we can ask 
other partners in the world who they might listen to, to help 
encourage. And I think that is what we can do right now to help 
move this process. Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Pasi, I am going to jump in 
real quick with a question on that subject, since it has been 
raised. As I meet with people from the region, almost all of 
them are unanimous in saying that the United States should 
weigh in more heavily on trying to resolve the issues 
surrounding the dam. Frankly, as I listen to the parties and 
listen to what their positions are, I am not sure that would be 
helpful. But what is your view on that?
    Ambassador Pasi. Thank you, sir. Well, we have weighed in, 
you know, and the foreign ministers have met the President of 
the United States on several occasions with the three 
countries. We have had high-level weigh-in.
    I think, obviously, the current crisis in Ethiopia has 
sidetracked any possibilities to have meaningful talks with 
other countries for the Grand Ethiopian Renaissance Dam. Really 
it is focused on the struggle right now in Tigray. I think we 
can encourage. I am not sure how you can force three countries, 
because it is not just Ethiopia, as I said. If I am confirmed 
as Ambassador to Ethiopia I commit that I will press them to do 
this. It is in their interest and the interest of the other 
countries. But, of course, there are two other parties involved 
in this equation.
    So I think perhaps rethinking and trying to narrow down 
exactly what the issues are. There have been different issues 
of concern at different times. In recent discussions, I saw 
that Sudan raised concerns. You know, it is not just Ethiopia 
that might have concerns. So it is a three-way event and it is 
going to require a lot of coordination. Thank you.
    The Chairman. Thank you. One of the reasons I reached the 
conclusion that I did that I am not sure it would be helpful is 
that reading between the lines of these people's requests, what 
they really mean is they want us, the United States, to take 
their side in the dispute. I think that is a code that they are 
using when they say they want us more involved in this. I agree 
with you it is complicated and certainly delicate, and thank 
you for your efforts.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and let me just 
thank all of our nominees. You all have given your careers to 
public service, and we know that it is a sacrifice for your 
family and we thank you for very distinguished careers and your 
willingness to serve in challenging places around the world. 
And certainly these countries that are in today's hearing all 
have challenges. They are all trying to move towards more 
democratic states, and, therefore, our missions in these 
countries are going to be particularly important.
    In regards to the Renaissance Dam in Ethiopia, I agree with 
the Chairman. The United States has to be somewhat neutral in 
how to resolve--how the issue should be resolved, but that it 
needs to be through consultation and negotiations between the 
affected states. And, of course, Ethiopia took some direct 
action, and then President Trump rolled in and said maybe Egypt 
should just bomb the dam. That, I do not think, is looked at as 
being neutral.
    So I think we have some challenges to get to that position 
where we can facilitate a resolution of the conflict that is in 
the region. And I appreciate your diplomatic responses to both 
the Chairman and Ranking Member, but it is an issue that needs 
to be resolved for the stability in that region.
    My question, and I think I will first direct it to Ethiopia 
but also in regards to Malaysia--these are countries that are 
attempting to move towards more democratic governments. And the 
question is how does our mission in country facilitate the type 
of progress being made in these countries towards democratic 
institutions, and how do we wrap our priorities around our 
mission to the values of good governance, and respect for human 
rights, respect for civil societies? How are you going to make 
that a priority? First of all, will you make that a priority, 
how are you going to make that a priority, and will you work 
with the members of our committee that are directly interested 
in expanding rights in each of these countries?
    Ambassador Pasi. Thank you, Senator. Yes, Ethiopia is 
certainly a country in transition, moving towards democracy. 
Ethiopia receives assistance from the United States that we use 
to support civil society, ensuring there is a platform for 
people to discuss their political views in the run-up to an 
election, which we believe will take place in mid 2021. It had 
been postponed because of COVID.
    So I believe that the Embassy, as I see it from my position 
here in Washington as PDAS, is engaging in many, many ways, 
through USAID funding. There are many, many things that do 
that, either to provide funding, to provide platforms. When I 
visited Ethiopia, accompanied with Secretary, we met with the 
religious leaders in Ethiopia. They are very influential. They 
had a lot of views about human rights and democracy.
    So there are many, many ways that the Embassy is currently 
engaging, and if I am confirmed, I commit that I will continue 
and look at ways that we can expand those efforts to reach 
areas that perhaps we are unable to reach as easily.
    Senator Cardin. Can I just follow up on that quickly? Will 
you ensure that our mission will always welcome civil societies 
that are standing up for progress on human rights on behalf of 
the people of Ethiopia within Ethiopia?
    Ambassador Pasi. Yes, sir, I can confirm that I will do 
that. That is something I have always done in other posts and 
something that is very important in Ethiopia. Thank you.
    Senator Cardin. And, Mr. Chairman, if I could get a 
response in regards to Malaysia I would appreciate it.
    Mr. McFeeters. The focus on democratic accountable 
government is something that I would clearly emphasize if I 
were confirmed. It is something that the Embassy has worked on.
    I think as you know, Senator, Malaysia has a dynamic 
democracy. They have high voter participation. They have 
largely freedom of the press, although we have some concerns 
about pushback on freedom of the press lately, so that is an 
area where we would focus on.
    On human rights, human rights in general are very 
important, particularly in Malaysia. The issue of human rights 
surrounding trafficking in persons is high on the list. More 
generally, issues surrounding foreign workers in Malaysia, 
about 20 percent of the workforce is foreign workers. Something 
2 to 4 million of them undocumented, which makes them 
vulnerable. They have been exploited. There have been horrific 
crimes against these workers.
    These are all areas that we support through our people-to-
people programs, through our advocacy. We try to connect people 
with leaders on these issues back in the United States, through 
the International Visitor Leadership Program. So it is a 
central priority for U.S. mission in Kuala Lumpur now, and it 
would be if I were confirmed, to continue that.
    Senator Cardin. And I would just ask the same question I 
just previously asked as to our mission being available for 
civil societies so that they can represent the concerns about 
progress being made in the country in regards to human rights.
    Mr. McFeeters. Yes, sir. When I served in Malaysia about 
ten years ago we had a number of close relationships with civil 
society organizations. They are great partners for what they 
do, and they also tell us a lot about what is going on in the 
country, so that would certainly continue.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. I do not see any of our other 
members logged in. We had a number of members who have attended 
this meeting that were logged in. Anybody want to claim some 
time here? I do not see any.
    Senator Menendez, anything else for the good of the order?
    Senator Menendez. Thank you, Mr. Chairman. Ms. Kierscht, 
what would you describe as the administration's strategy for 
the Sahel?
    Ms. Kierscht. Thank you for the question, Senator. As I 
understand, in response to the growing instability in the 
region, the Department of State adopted the diplomatic 
engagement framework earlier this year for the Sahel, which the 
goal is to improve internal and external coordination. Through 
that there was the appointment of the Special Envoy for the 
Sahel, Ambassador Peter Pham, who is charged with deepening 
engagement on the issues.
    If confirmed, I would look forward to working with him as 
the Ambassador to Mauritania closely on Mauritania's role in 
promoting peace and security in the larger Sahel, particularly 
since Nouakchott hosts, of course, the G5 Sahel Secretariat, 
and currently holds its presidency.
    Senator Menendez. All right. Let me ask you, Mauritania--
how active has Mauritania been in the G5 Sahel counterterrorism 
operations, and what accounts for their level of engagement?
    Ms. Kierscht. We have a very active partnership with 
Mauritania as regards to counterterrorism within the Sahel. We 
share the common goal, obviously, of countering terrorism and 
denying conditions that are ripe for recruitment and 
radicalization.
    I am very pleased to announce that Mauritania was just the 
most recent partner country to join the global coalition to 
defeat ISIS, on November 10th. They became the 83rd 
participant. And we look forward to engaging with them in order 
to work further on defeating ISIS in West Africa. They also 
have been a very strong partner with us in the Trans-Sahara 
Counterterrorism Partnership, which is working within the 
Maghreb and the Sahel to improve security sector capabilities, 
border security, address the underlying issues of 
counterterrorism, as well as promoting moderate voices in 
vulnerable populations.
    In particular, with Mauritania, we have worked through the 
TSCTP to help them monitor their border with Mali, and have 
sustained professional units during operations against al Qaeda 
in the Islamic Maghreb. Through TSCTP we have also worked on 
skills training for Mauritanian youth that are vulnerable to 
extremism.
    But as you point out, regional cooperation is crucial for 
defeating terrorists, as they know no borders, which is why we 
also support the G5 Sahel Secretariat, which, as I mentioned, 
is located in Nouakchott, as well as the G5 Sahel Joint Forces, 
as an African solution to African issues. Thank you.
    Senator Menendez. Ambassador Reimer, President Bio ran on a 
promise to combat corruption, which is endemic in the Sierra 
Leone. Recently, former President Koroma was interviewed by an 
anti-corruption agency as part of an investigation into 
corruption during his tenure. How would you assess Bio's record 
on combating corruption?
    Ambassador Reimer. Thank you for that question, Senator. I 
think the record so far is pretty good. I would say corruption 
is probably one of the biggest obstacles that Sierra Leone 
faces. In terms of economic and social development 
transparency, international ranked Sierra Leone, I think it was 
119 out of 198 countries in the world, which is not very good. 
However, it is an increase in ten places over last year. As 
well, the MCC scorecards that come out every year, the last two 
years Sierra Leone has passed the corruption grades.
    So I think it is fair to say that Sierra Leone, under 
President Bio, has made progress, but I also think it is fair 
to say that there is a lot more room to improve, and if 
confirmed, I look forward to working on that issue. Thank you.
    Senator Menendez. One other question for you. Women and 
girls continue to face violence and severe discrimination in 
Sierra Leone. A shocking 86 percent of women have undergone 
some form of female genital mutilation. What is the U.S. doing 
to combat gender-based violence in Sierra Leone? How serious is 
this new administration, meaning the Bio administration, about 
confronting GBV?
    Ambassador Reimer. Thank you, Senator. Just recently I saw 
an interview with the President--I think it was just about two 
weeks ago--where the President, he himself brought it up during 
the interview as one of the priorities of his administration. 
So that is very encouraging to see that the Government gets it 
and the Government understands it.
    My understanding, as well, is that USAID has been involved 
in funding efforts to prevent this practice, and again, as you 
say, this is a very important, very prevalent, and something 
that, if confirmed, I would continue to work on.
    Senator Menendez. Well, I hope those last two issues we 
discussed will be some of your focus upon your confirmation to 
the country.
    And one last question. Mr. McFeeters, how would you analyze 
the current relationship between Malaysia and China?
    Mr. McFeeters. China and Malaysia have longstanding ties, 
particularly on the economic side. China has been Malaysia's 
largest trading partner for the last 11 years. Their total 
trading with Malaysia is roughly twice the size of the U.S., so 
we just have to treat that as reality.
    I would comment on two other areas. In terms of South China 
Sea, Malaysia is sort of equally concerned as we are about 
these illegal incursions by China into the waters. And because 
of our security cooperation, Malaysia has gotten better about 
defending its own interests. So they are able to pick up 
illegal fishermen, and they are able to block so-called Coast 
Guard vessels from China or fishing vessels from China that are 
harassing oil platforms.
    So Malaysia, strong relationship with China, but Malaysia 
is increasingly speaking up for its own interests, with our 
help.
    Senator Menendez. So with that economic disparity that 
exists in terms of Chinese economic influence in Malaysia, how 
do you meet the challenges of promoting U.S. interests there?
    Mr. McFeeters. It is a challenge, but on the U.S. side we 
have a very strong hand to play. We have 700 U.S. firms that 
are active in Malaysia, 250 members of the American Chamber of 
Commerce. Malaysia is the 38th largest economy in the world, 
but it is the U.S.'s 15th largest export site, because of high 
income.
    So on the U.S. side we have a good story to tell, which is 
high-tech companies that are both exporting to Malaysia and 
invested in Malaysia, and we have, you know, high international 
standards in terms of lending and, you know, transparent 
business practices. So I think we can tout that at every 
opportunity.
    I was proud that American companies or the American Chamber 
of Commerce in Malaysia raised $7 million this year for COVID 
assistance to Malaysian society. So that is the kind of--I 
think, modeling those best practices is something that we can 
amplify from the Embassy's point of view.
    Senator Menendez. And if I may, Mr. Chairman, one final 
question. Mr. Blackstone, I do not like you to feel no 
affection here in terms of attention. Speaking in the same 
context, how would you assess Timor-Leste's relationship with 
China, and the risks of Chinese investment in Timor-Leste, and 
what actions should we take in that regard?
    Mr. Blackstone. Thank you, Senator Menendez. I appreciate 
the opportunity to weigh in on that.
    So as I understand it, China, the People's Republic of 
China, has an active diplomatic presence in country. They have 
also provided development assistance, primarily to date in the 
form of infrastructure, building some Timorese Government 
facilities and in some road building. I will just note that the 
U.S. focus so far in our program, around $20 million a year, 
has been on promoting governance and what we believe are 
sustainable programs that the Timorese can carry forward 
themselves later.
    Now as in regard to Chinese investment, I expect that you 
are referring to what is called the Tasi Mane, or South Coast 
development project. This is a multi-billion-dollar proposal 
that would bring onshore processing of liquified natural gas. 
And it has strong support from some elements of the Timorese 
leadership. However, Timor-Leste's petroleum investment 
partners and others, including diplomatic partners, have 
encouraged greater analysis of the potential economic viability 
of it.
    The China piece, to my knowledge, involved a 2019 planned 
agreement between a Chinese state-owned entity and the Timorese 
Government for about $1 billion. However, that plan was never 
implemented, and to my knowledge it has not progressed. The 
current governing coalition has taken a more skeptical approach 
to the entire complex, and has welcomed U.S. Government offers 
of assistance through our various tools, such as Asia EDGE or 
the Transaction Advisory Network for Infrastructure.
    So I think the Timorese are appropriately wary, in 
particular, of obtaining large loans, single-country loans, in 
cases where it would require them to collateralize significant 
national infrastructure, and if confirmed, I will continue to 
keep a close eye on this, report on this, and, of course, 
engage senior Timorese Government leadership.
    Senator Menendez. Thank you very much. Mr. Chairman, I will 
submit the rest of my questions for the record.
    The Chairman. Thank you. Thank you, Mr. Blackstone, for 
that report. That kind of an issue is happening all over the 
world, as we know, and it is good to have that kind of a 
granularity on one particular one. Indeed, there is some good 
news there, because we have certainly had lots of bad news over 
recent years.
    Well, are there any other members of the committee on the 
call?
    There being none, first of all, let me say that it is an 
honor to be able to preside over a meeting with five people 
with such in-depth credentials and deep understanding of each 
of the areas that you are going to, and long, long years of 
dedicated public service that you do on a nonpartisan basis, 
and carrying America's values to these far-flung places that do 
not see us as closely as they are going to see you. So thank 
you for that. Thank you for carrying those values for us, and 
we sincerely appreciate it. Again, we appreciate the sacrifice 
that you know is necessary in serving in these places, and that 
is especially true to your families. Whether they are with you 
or whether they are separated, they share in that sacrifice and 
we all appreciate that.
    So with that, for the information of all members of the 
committee, the record will remain open until the close of 
business on Friday, December 4th, including members to submit 
questions for the record. When you get those, we would 
appreciate getting them back as quickly as you can get them 
back. And with that we will stand adjourned.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

       Responses to Additional Questions for the Record Submitted
           to C. Kevin Blackstone by Senator Robert Menendez

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that prohibited personnel 
practices has no place in the federal government and will not be 
tolerated. I agree that anyone found to have engaged in prohibited 
personnel practices should be subject to accountability and discipline 
consistent with applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for recruiting and retaining diverse talent. 
I will promote diversity and best practices and tips for inclusive 
recruiting practices and standardized interview guidance. I will 
support the review of existing mentoring programs and how they can be 
bolstered. I will promote and encourage all employees to take courses 
on fostering an inclusive workplace.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I served as a Provincial Reconstruction Team Leader in 
Wasit, Iraq from 2009-2010. In this role, I successfully advocated for 
increased funding for local NGOs that promoted Sunni-Shi'a 
reconciliation. I also engaged with provincial leadership on issues of 
religious freedom, helping to promote respect for human rights in a 
region of Iraq that had a large population of both Shi'a and Sunni.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Timor-Leste? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The Timorese people are strongly committed to their young 
democracy and the United States, through USAID and other programming, 
has worked closely with the Government to support the rule of law, 
strengthen electoral and parliamentary systems, and strengthen 
democratic institutions to help ensure access to justice and services 
for all Timorese citizens. Long delays in trials and alleged 
mistreatment by police erode public confidence in the institutions 
intended to safeguard human rights and democratic principles. If 
confirmed, I would continue to support U.S. efforts to strengthen the 
rule of law and capacity of law enforcement officials.

    Question. What steps will you take--if confirmed--to support 
democracy in Timor-Leste? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Timor-Leste is a young nation committed to democracy and 
developing strong democratic institutions. If confirmed, my priority 
would be to continue U.S. assistance to government institutions 
responsible for protecting access to justice and human rights for all 
Timorese citizens. I would also prioritize continued U.S. support to 
civil society. An active and vibrant civil society is an important 
check on government's power. Development of human capacity will take 
time, but building a strong foundation for Timorese success is 
critical.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The U.S. Government has played a key role in promoting 
democracy and governance in Timor-Leste, primarily through USAID. With 
USAID assistance, Timor-Leste held peaceful elections in 2017 and 2018 
without international supervision and parliamentarians are learning 
best practices to effectively represent their constituents. If 
confirmed, I will use U.S. foreign assistance resources to continue 
this important work with Timor-Leste to promote governance goals in 
Timor-Leste, in alignment with the Indo-Pacific Strategy.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Timor-Leste? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. If confirmed, I will commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
United States, Timor-Leste-based human rights NGOs, and other members 
of civil society in Timor-Leste. If confirmed, I will also work with 
the Government to advocate for fair and transparent treatment of NGOs 
and civil society under the law.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. The United States urges equal treatment for all that 
underscores our commitment to diversity and inclusion. If confirmed, I 
will work with the Timor-Leste Government, including with opposition 
figures and parties, to encourage political competition and will 
promote access and inclusivity for women, members of minority groups, 
and youth within political parties.

    Question. Will you and your embassy team actively engage with 
Timor-Leste on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Timor-Leste?

    Answer. The United States promotes respect for human rights and 
fundamental freedoms, including freedom of expression, around the 
world, including in Timor-Leste. Promoting these rights are key 
priorities of the Indo-Pacific Transparency Initiative. If confirmed, I 
am committed to engaging with civil society and the Government, as well 
as independent, local press in Timor-Leste, on the importance of these 
human rights and fundamental freedoms.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Timor-
Leste?

    Answer. Yes. If confirmed, I will actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Timor-
Leste.

    Question. Will you and your embassy teams actively engage with 
Timor-Leste on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, I will work with the Timor-Leste 
Government, civil society, and other parts of the Timorese economy on 
the issue of the right of labor groups to organize.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Timor-Leste, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Timor-Leste? What specifically will you commit to do to help LGBTQ 
people in Timor-Leste?

    Answer. Although Timor-Leste is a relatively tolerant society, 
LGBTI persons do not enjoy legal protections, which hinders full 
inclusion. The rights of LGBTI individuals and persons are a topic of 
importance in our conversations with the Timorese Government. If 
confirmed, I will continue to urge equal treatment for all and to 
promote diversity and inclusion by engaging not only with the Timorese 
Government, but also with civil society organizations, the private 
sector, and like-minded missions.

Development
    Question. What will you do to help Timor-Leste achieve its 
development goals?

    Answer. The United States is a strong supporter of Timor-Leste's 
development and has sought to partner with them on government 
priorities identified in the Timor-Leste Strategic Development Plan 
2011-2030, including projects focused on health, education, water and 
sanitation, rural development, agriculture, and economic growth. USAID 
has led U.S. efforts to support Timor-Leste in achieving its 
development goals. Other U.S. Government agencies, such as the 
Department of Agriculture and the Millennium Challenge Corporation, 
also play key roles in meeting the country's development goals.
    If confirmed, I would prioritize the United States' robust support 
of Timor-Leste's development goals as a means to ensuring Timor-Leste's 
prosperity, development, and economic sovereignty for future 
generations.

    Question. What areas of the Timorese economy offer the best 
prospects for development and how can the United States help?

    Answer. The Timorese Government recognizes the critical need to 
diversify its economy to create jobs and economic opportunities for its 
citizens, as well as to generate revenue beyond the oil and gas sector. 
USAID has supported Timorese efforts to sustainably develop its 
agricultural, tourism, and information and communication technology 
sectors, as well as improve the efficiency of trade and transit by 
supporting reform to Timor-Leste's customs systems. Strengthening the 
Timorese private sector and business enabling environment would further 
unlock the country's development and economic potential. By continuing 
support for technical and foreign assistance, the United States 
supports the Government and private sector to help ensure Timor-Leste 
builds a strong framework for domestic and foreign investment.

    Question. What can the United States do to assist Timor-Leste in 
developing its economy in a sustainable manner?

    Answer. Timor-Leste is a young nation and like many nations 
recovering from conflict, human resource capacity is a challenge. 
Through targeted technical assistance programs, the United States has 
helped strengthen the private sector while building the capacity of 
Timorese authorities. If confirmed, I will support programs that help 
develop Timor-Leste's economy and will explore the use of additional 
U.S. technical assistance tools, such as the Transaction Advisory Fund 
and AsiaEdge, to meet this goal.

Chinese Influence
    Question. How do you assess Timor-Leste's relationship with China 
and the risks of Chinese investments in Timor-Leste? What actions would 
you take to mitigate such risks?

    Answer. Timor-Leste maintains good relations with countries 
throughout the region, including China, which has active diplomatic 
engagement in Timor-Leste. China has longstanding foreign assistance 
programs in health and agriculture in the country, and PRC state-owned 
enterprises companies build roads and other infrastructure. Last year, 
China also announced it would digitalize Timor-Leste's national radio 
and television network.
    Timor-Leste is a democracy, which underpins our shared commitment 
to good governance and human rights. U.S. engagement focuses largely on 
sustainable development and economic diversification as well as 
democracy and governance programs to bolster the country's democratic 
and economic institutions. This engagement helps strengthen our long-
term bilateral partnership.



                               __________


       Responses to Additional Questions for the Record Submitted
          to C. Kevin Blackstone by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I served as a Provincial Reconstruction Team Leader in 
Wasit, Iraq from 2009-2010. In this role, I successfully advocated for 
increased funding for local NGOs that promoted Sunni-Shi'a 
reconciliation. I also engaged with provincial leadership on issues of 
religious freedom, helping to promote respect for human rights in a 
region of Iraq that had a large population of both Shi'a and Sunni.

    Question. What are the most pressing human rights issues in Timor-
Leste? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Timor-Leste? What 
do you hope to accomplish through these actions?

    Answer. The most significant human rights issues in Timor-Leste 
include violence against women and forced child labor. We also have 
concerns about corruption. The United States promotes respect for all 
human rights and fundamental freedoms throughout the world, including 
in Timor-Leste. The Timorese share our values of promoting democracy 
and human rights. These values form the foundation of U.S. assistance 
to Timor-Leste.
    Promoting these rights and freedoms is a key priority of the Indo-
Pacific Transparency Initiative. If confirmed, I would continue to work 
with government leaders at the highest levels, as well as civil society 
and other advocates of freedom and democracy so that the bilateral 
relationship advances human rights for all people in Timor-Leste.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Timor-Leste in 
advancing human rights, civil society, and democracy in general?

    Answer. I believe a primary challenge will be strengthening Timor-
Leste's institutions that are designed to protect human rights, as well 
as increasing awareness about what constitutes human rights so that 
society and government can work together to safeguard them.
    If confirmed, I will lead the Embassy's efforts to raise awareness 
about human rights in Timor-Leste and work with the Government and 
civil society to strengthen institutions to protect those rights. I 
commit to conveying the importance the United States places on respect 
for human rights and fundamental freedoms. If confirmed, I will work 
with civil society, the Government of Timor-Leste, partners and allies, 
and other stakeholders to advance human rights and fundamental 
freedoms.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Timor-Leste? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Vibrant civil societies are critical to healthy 
democracies, prosperous economies, and stable societies. If confirmed, 
I commit to engaging with human rights, civil society, and other non-
governmental organizations in the United States and Timor-Leste, 
bringing attention to the challenges they face in Timor-Leste and 
advocating for their protection and empowerment. I will also ensure 
that all U.S. security assistance to Timor-Leste is provided consistent 
with applicable law, including the Leahy law, and that all security 
cooperation activities with Timor-Leste reinforce human rights and the 
rule of law.

    Question. Will you and your embassy team actively engage with 
Timor-Leste to address cases of key political prisoners or persons 
otherwise unjustly targeted by Timor-Leste?

    Answer. Timor-Leste boasts a multi-party democracy and active civil 
society in which opponents of the Government are able to express their 
political views openly. If confirmed, I will work with the Timor-Leste 
Government and civil society to promote human rights and fundamental 
freedoms, and to further strengthen Timor-Leste's developing 
institutions striving to protect those rights. If confirmed, I commit 
to engaging with the Timorese when democratic values are undermined, 
including those involving political prisoners.

    Question. Will you engage with Timor-Leste on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I commit to engaging with civil society and 
the Government of Timor-Leste on the importance of human rights, 
including civil and political rights, and good governance.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and build a representative workforce. I will encourage promoting 
diversity and inclusion best practices, including recruiting efforts 
and standardized interview procedures, which are practices I have 
followed carefully in my previous positions within the State 
Department. I also commit to working with our locally employed staff to 
ensure their viewpoints and concerns are heard. I will learn from and 
listen to employees using mechanisms like the Open Conversations 
platform and the Department's new Centralized Exit Survey. I will 
promote and encourage all employees to take courses on fostering an 
inclusive workplace.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Timor-Leste are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure supervisors under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among leadership that focus on inclusion 
as a key driver for developing and retaining diverse talent. I will 
promote diversity and inclusion best practices and tips for inclusive 
hiring practices and standardized interview guidance. I will support 
the review of existing mentoring programs and with an eye on how they 
can be strengthened. I will support a requirement that all hiring 
managers to take, as appropriate, courses on fostering an inclusive 
workplace.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Timor-Leste?

    Answer. My investment portfolio includes diversified mutual funds, 
including foreign stock funds, which may hold interests in companies 
with a presence overseas, but are exempt from the conflict of interest 
laws. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Timor-Leste 
specifically?

    Answer. Corruption undermines democracy, good governance, and the 
rule of law. Transparency in political processes and government 
procedures are critical to the citizenry's confidence in its democratic 
institutions and the rule of law.
    Timor-Leste is a young democracy that continues to develop and 
strengthen its democratic foundations. Further supporting these efforts 
and promoting transparency will be one of my top priorities if 
confirmed.

    Question. What is your assessment of corruption trends in Timor-
Leste and efforts to address and reduce it by that government?

    Answer. Timor-Leste took an important step this year to address 
corruption by passing anti-corruption legislation. The new law provides 
the Anti-Corruption Commission with additional tools to more 
effectively combat corruption in Timor-Leste. This includes expanding 
the list of officials required to disclose their financial records.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Timor-Leste?

    Answer. Our shared values of democracy, promotion of human rights, 
and upholding the rule of law continue to anchor our bilateral 
relationship. U.S. development assistance in Timor-Leste is targeted to 
help promote these ideals. If confirmed, I commit to engaging with 
civil society and the Timorese Government to stress these shared 
values.



                               __________


       Responses to Additional Questions for the Record Submitted
             to Cynthia Kierscht by Senator Robert Menendez

    Question. According to the Global Terrorism Index, while deaths 
from terrorism have fallen every year for the past five years, ``Seven 
of the ten Countries with the largest increase in terrorism were in 
sub-Saharan Africa.'' That same report indicates that Burkina Faso, a 
member of the G5 Sahel, had the largest increase in terrorism. 
Mauritania has not suffered a terrorist attack since 2011:

   How much money has the U.S. provided to Mauritania over the past 
        four years for counterterrorism assistance, and what specific 
        activities are the funds supporting? Are these the correct 
        activities? If not, where should we be investing?

    Answer. Mauritania's relative success compared to its neighbors in 
confronting its domestic terrorism threat over the past decade is due 
first and foremost to Mauritanian initiatives, but the partnership with 
the United States and the support provided by programs from the State 
Department, USAID, and DOD have helped enable these positive results. 
The Government of Mauritania relies on a multi-faceted counterterrorism 
approach that includes community outreach initiatives, religious 
dialogue, capacity improvements for security forces, and activities 
aimed at securing the country's borders. Over the past four years, the 
United States obligated more than $31 million to provide 
counterterrorism and related security assistance to Mauritania through 
the U.S. Trans-Sahara Counterterrorism Partnership (TSCTP), and 
Antiterrorism Assistance (ATA). Through these programs, we work to 
increase Mauritania's security sector capacity, address the drivers of 
terrorism, increase the capacity of the criminal justice system to 
prevent and prosecute terrorists acts, and strengthen the voices of 
mainstream leaders to positively influence populations vulnerable to 
radicalization and violence.
    If confirmed, I will commit to ensuring our counterterrorism and 
related assistance remains relevant to evolving terrorist threats in 
the region and will lead U.S. Government efforts to help Mauritania 
export its relative success to other countries in the region.

    Question. What, in your view, accounts for the differing 
experiences of Burkina Faso and Mauritania in terms of the number and 
frequency of terrorist attacks? Is there something that Mauritania has 
done correctly that Burkina Faso has not, or is it simply a matter of 
luck?

    Answer. Mauritania has not suffered a terrorist attack since 2011. 
With support from the United States and other international partners, 
Mauritania has focused on promoting development and good governance as 
foundations of state legitimacy while increasing its efforts to 
effectively secure its borders. Mauritania's cooperation with regional 
partners has also been crucial to disrupting attacks and denying 
terrorist groups the capability to plan and carry them out in the 
future. Its counter-radicalization efforts have been consistently 
applied. Mauritania recently joined the Global Coalition to Defeat-
ISIS, showcasing its commitment in the battle against terrorism and 
willingness to help to defeat ISIS and other AQ-affiliated terrorist 
groups across West Africa and the Sahel. If confirmed, I will continue 
our partnership with Mauritania to address the drivers of terrorist 
radicalization and recruitment and strengthen its institutional 
capacity.

    Question. When President Mohamed Ould Abdel Aziz stepped down in 
2019, it was the first time a leader left office in accordance with 
constitutional requirements without being overthrown. That in itself 
represents a significant step in the country's political evolution. 
However, opposition figures were thrown in jail after protesting the 
election results, and the internet was shut down. Though opposition 
politicians were later released, their arrest was a worrying sign. 
Freedom House in its Freedom of the World 2020 report categorizes 
Mauritania as only `partly free:'

   Do you agree with Freedom House's characterization of Mauritania? 
        What steps could be taken to expand democratic space in 
        Mauritania?

    Answer. Mauritania's 2019 presidential election led to the 
country's first democratic transition from one elected leader to 
another. The election marked a true turning point in Mauritania's 
history and is an important example for other democracies. While this 
was an historic step, Mauritania has a strong authoritarian tradition 
which presents challenges to its democratic development. The Government 
must make concerted efforts to broaden the space for opposition 
politicians and civil society so that Mauritania can reap the benefits 
of a robust democracy. Encouraging further democratic and governance 
reforms will be among my highest priorities if confirmed.

    Question. How much money has the United States invested in 
democracy and governance work in Mauritania over the past four years, 
and in what areas have we focused that investment?

    Answer. The United States has used a wide range of tools to advance 
our democracy and governance agenda in Mauritania, including bilateral 
diplomacy, multilateral engagement, and public outreach. While some of 
our programming was limited by restrictions under the Trafficking 
Victims Protection Act (TVPA) in Fiscal Years 2019 and 2020, U.S. 
programs have supported strengthening civil society, both by advancing 
legislation to remove restrictions on the activities of non-
governmental organizations and working with certain prominent NGOs 
which have traditionally worked to change past restrictions. We have 
also invested in programs to support greater political participation by 
women and youth. With TVPA restrictions now lifted for FY 2021, if 
confirmed, I intend to seek greater U.S. Government support to help 
with efforts to professionalize Mauritanian Government institutions, 
including nascent local and regional elected bodies.

    Question. Can political parties operate freely in Mauritania? How 
would you characterize media freedoms in Mauritania? What activities to 
support press freedom has the United States supported this year? Is 
there space for civil society to carry out its work?

    Answer. Mauritania has committed to expanding the political space, 
but much work remains to be done. After largely boycotting the previous 
two presidential elections, opposition parties participated in the 2019 
elections, leading to Mauritania's first peaceful transfer of power 
from one elected leader to another. Nevertheless, they continue to face 
obstacles. Despite the country's vibrant media landscape, with several 
privately owned newspapers, television stations, and radio stations in 
operation, journalists can still encounter restrictions. Through 
initiatives such as the International Visitors Leadership Program, the 
United States has provided crucial opportunities and support for 
Mauritanian journalists.
    We are encouraged the Government of Mauritania has taken steps to 
revise and update the 1964 Associations Law on NGOs and has signaled 
its intent to secure parliamentary approval this fall. If confirmed, I 
will commit to supporting Mauritania's ongoing efforts to become a 
freer and more open society.

    Question. Mauritania abolished slavery by decree in 1981, but the 
practice was not criminalized until 2007. The constitution was amended 
in 2012 to declare slavery a crime against humanity, and parliament 
adopted a new anti-slavery law in 2015. However, few criminal cases 
have been brought to court:

   Does slavery still exist in Mauritania today? What assistance have 
        we provided to help Mauritanians investigate and prosecute this 
        crime?

    Answer. Slavery and slavery-like practices, which typically flow 
from hereditary slavery, still exist in Mauritania.
    While much work remains to be done to ensure that all citizens can 
exercise their legal protection against forced labor, Mauritania has 
made significant strides to address its legacy of slavery since 
President Ghazouani's 2019 inauguration. Under the President's 
leadership, the country no longer denies that slavery exists. In 
November 2019, President Ghazouani created a new institution to 
intensify the Mauritanian Government's efforts to address the social 
and economic conditions that have left many citizens vulnerable to 
forced labor. This year the United States funded the participation of 
judicial and law enforcement officials in training to combat human 
trafficking and collaborated with the Mauritanian Government on the 
National Action Plan to address Trafficking in Persons (TIP) issues.
    In 2020, the country's Human Rights Commission organized two 
``caravans'' to travel to isolated regions of the country to educate 
citizens, local NGOs, and local officials directly about anti-slavery 
laws; these efforts had full government support and encouragement. 
Mauritania's conviction of five defendants involved in three separate 
slavery cases from previous years is another step in the right 
direction. The Government of Mauritania continues to take concerted 
actions towards ending the practice of slavery, including increased 
engagement with civil society groups.
    If confirmed, I look forward to working with the Mauritanian 
Government to support Mauritania's progress to eradicate slavery, a 
crime under international law.

    Question. If confirmed, what will you do to help Mauritanians end 
this horrific practice for once and for all?

    Answer. If confirmed, I look forward to working with the Government 
of Mauritania to support its eradication of slavery. This requires a 
sustained, and collective effort by the Government, religious, law 
enforcement, judicial, tribal, and civil society leaders, together with 
all Mauritanians. The Government must also address economic dynamics 
that sustain the vulnerability of communities to de facto servitude, 
and the deep social divisions that are the legacy of centuries of 
slavery and that, as President Ghazouani has stated, threaten the 
country's development and stability. If confirmed, I will work to 
leverage programs and tools provided by the U.S. Congress, such as the 
African Growth and Opportunity Act (AGOA) eligibility criteria and the 
Trafficking in Persons (TIP) ranking and associated restrictions, where 
possible. I will encourage the Mauritanian Government to prosecute all 
individuals found to be supporting slavery practices to send a message 
that Mauritania is serious about eradicating this practice. I will also 
work with my State Department colleagues to identify additional 
programming to address this issue now that the TVPA assistance 
restrictions have been lifted.
    If confirmed, I will work with all partners-the business community, 
local and international NGOs, and other donors-to provide active 
encouragement to meet the Government's stated intention to address the 
reality of hereditary slavery.

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. If confirmed, I commit to make clear to all employees that 
prohibited personnel practices have no place in federal government and 
will not be tolerated under my leadership. I agree that any employee 
found responsible for engaging in a prohibited personnel practice 
should be held fully accountable, and subject to discipline consistent 
with applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will endeavor at every opportunity to 
promote diversity in the workplace by recruiting and supporting a 
diverse team, promoting excellence, and mentoring staff of all 
backgrounds--including Foreign and Civil Service as well as locally 
engaged staff--on my team. Throughout my career, I have put particular 
emphasis on encouraging and supporting employees from diverse 
backgrounds, as I understand firsthand the many benefits of a workplace 
that represents diverse backgrounds and underrepresented groups and 
welcomes the views of all. If confirmed, I intend to lead by example 
and guide by encouragement, ensuring all of my staff know that 
diversity and inclusion are top priorities of mine. I will also ensure 
that supervisors at the Embassy are appropriately trained with regard 
to Equal Employment Opportunity, diversity, and inclusion, and are 
accountable. I will also make certain they know I am an advocate and 
available resource.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Promotion of the U.S. human rights and democracy agenda has 
been a key component of my career. Looking back, I assess my most 
meaningful achievements to be the following:
    During my tour at U.S. Embassy Rabat, Morocco, King Mohammed 
announced sweeping changes to the family law greatly impacting women's 
rights and, in particular, their legal status regarding marriage and 
divorce. As leader of the Middle East Partnership Initiative (MEPI) 
Democracy pillar, I advocated for and managed a series of successful 
grant programs designed to inform (mostly illiterate) women of their 
newfound rights, including working with our Public Affairs section to 
reach the broadest possible audience. One particular program--an 
innovative play, which we sent throughout the country, explained how 
the reforms put women on par with men in matters of marriage, divorce, 
child custody and property ownership--became a model for other MEPI 
programs.
    In Libya, as one of the first human rights officers to serve in the 
country following our restoration of relations in 2004 after a 25 year 
hiatus, I established (and re-established in some cases) relationships 
with key human rights interlocutors, and used their insights to provide 
some of the very first analysis of the tragic human rights situation in 
Libya. I also made the first-ever visit by a U.S. official to the 
African detention camps in Libya, highlighting a major human rights 
issue for the Department. Reaching out to key religious figures, I also 
authored the first International Religious Freedom report from Libya, 
providing the State Department with the first real assessment of 
religious freedom on the ground.
    In Colombia, where Afro-Colombians continue to face significant 
economic and social discrimination, I worked to support social 
inclusion goals by designing programs to elevate the issue of 
diversity. My Culture Series program, which reached two million 
Colombians in 11 cities, was highlighted as a best practice at the U.S. 
Colombia Action Plan for Racial and Ethnic Equality.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Mauritania? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Mauritania's main democratic challenges include its strong 
authoritarian tradition, which presents challenges to its democratic 
development, its legacy of hereditary slavery, and corruption. Too 
often in the past, coups d'etat have served as the primary means of 
changing Mauritania's Government. However, the country is at a turning 
point. Mohamed Ould Cheikh El Ghazouani's election in 2019 as 
Mauritania's president marked the first democratic transition of power 
between two elected presidents since the country's independence in 
1960. Both the United Nations and African Union observers considered 
the election to be relatively free and fair. While challenges to 
Mauritania's democratic development remain, early indications show that 
President Ghazouani is committed to strengthening democracy and 
democratic institutions.

    Question. What steps will you take--if confirmed--to support 
democracy in Mauritania? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will prioritize human rights and democracy 
as fundamental parts of my job and the embassy's mission. Human rights, 
civil rights, and good governance will be key elements of my 
engagements with the Mauritanian Government. Mauritania stands to 
benefit greatly when its people are empowered, its civil society is 
encouraged, and its security forces are trusted because they uphold the 
rule of law.
    Mauritania's human rights challenges stem from the legacy of 
centuries of slavery; deep-rooted divisions along ethnic, linguistic 
and tribal lines; and gender inequality. Improvements require strong 
political commitment--which President Ghazouani appears to have--as 
well as justice sector reform and increased resources to ensure the 
rule of law. A stronger civil society is also needed, and a new NGO law 
currently pending parliamentary consideration will be an important 
step. Mauritania will also need the support and encouragement of 
partners like the United States to help overcome these obstacles and 
achieve the president's stated goals of promoting national unity and 
access to justice and economic opportunities for all citizens.
    If confirmed, I will reaffirm the United States' support for human 
rights and democracy and leverage programs and tools provided by the 
U.S. Congress in the form of the African Growth and Opportunity Act 
(AGOA) eligibility criteria, and the Trafficking in Persons (TIP) 
ranking restrictions as appropriate. Moreover, if confirmed, I will 
work with the Government, civil society, and NGOs to improve the space 
for civil society to operate and thrive so that all Mauritanians can 
reap the benefits of a robust civil society.
    My hope is that this, in addition to U.S. Government programming, 
will lead to sustained progress on human rights, good governance, and 
democracy

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will lead the U.S. Government in its 
efforts to strengthen the capacity of Mauritania's national and local 
governments to be more inclusive and responsive to public needs and to 
improve service delivery so as to address the underlying grievances and 
cultural drivers that can lead to insecurity. I will work with the 
Department and USAID to identify and program all funding available to 
support democracy and governance in Mauritania, including utilizing the 
Department's Small Grants program.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mauritania? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meet with human rights, civil 
society, and other non-governmental organizations in the United States 
and with local human rights non-governmental organizations in 
Mauritania. I will continue to engage civil society actors that seek to 
hold government institutions accountable for improved governance and 
rule of law and discourage the Government from restricting or 
penalizing NGOs and civil society via legal or regulatory measures.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meeting with the broad range of 
democratically-oriented political parties and actors, to include the 
main opposition parties. If confirmed, I will encourage the ruling 
government to continue to engage the opposition as it aims to implement 
comprehensive economic and political reforms based on social inclusion. 
If confirmed, I will advocate for access and inclusivity for women, 
minorities, and youth within political parties.

    Question. Will you and your embassy team actively engage with 
Mauritania on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Mauritania?

    Answer. Mauritania ranks 97 out of 180 according to the 2020 World 
Press Freedom Index. If confirmed, I will continue to lead our Embassy 
in advocating for press freedom in Mauritania and discourage any effort 
to control or undermine press freedom. If confirmed, I will also commit 
to meeting regularly with independent, local press in Mauritania and 
using public opportunities to defend and protect freedom of expression, 
including for members of the press, as a necessary tenet of a healthy, 
functioning democracy.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Mauritania?

    Answer. Disinformation and propaganda disseminated by violent 
extremist organizations and foreign governments are an issue across the 
Sahel region. If confirmed, I will direct my team to track, monitor, 
and counter any such disinformation and propaganda campaign 
disseminated by foreign state or non-state actors in Mauritania. If 
confirmed, I will also actively engage with civil society and 
government counterparts to counter such disinformation and propaganda.

    Question. Will you and your embassy teams actively engage with 
Mauritania on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Protecting workers' rights, especially the freedoms of 
association and collective bargaining, is essential to building durable 
democracies, as well as achieving sustainable growth and a level 
playing field for prosperity. If confirmed, I will commit to engaging 
with Mauritania on these important rights. Our efforts to advance good 
governance and democracy align with the Government of Mauritania's 
efforts to address long-standing human rights issues and root out 
corruption. Under President Ghazouani's leadership, the country is on 
the right track and our engagement serves to encourage their better 
inclinations. The current political environment makes Mauritania a 
natural partner for the United States.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Mauritania, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Mauritania? What specifically will you commit to do to help LGBTQ 
people in Mauritania?

    Answer. Mauritania does not formally recognize lesbian, gay, 
bisexual, transgender and queer (LGBTQ) persons and as a result, they 
are not legally protected in Mauritania. LGBTQ persons live in 
perpetual fear of being driven out by their families and rejected by 
society in general. As a result, they do not publicly attend or 
participate in public activities due to fears of retribution and 
violence. If confirmed, I commit to using my position to defend human 
rights and dignity for all Mauritanians including to protect members of 
the LGBTQ community from harmful societal stigmas.



                               __________


       Responses to Additional Questions for the Record Submitted
           to Cynthia Kierscht by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Promotion of the U.S. human rights and democracy agenda has 
been a key component of my career. Looking back, I assess my most 
meaningful achievements are the following:
    During my tour at U.S. Embassy Rabat, Morocco, King Mohammed 
announced sweeping changes to the family law greatly impacting women's 
rights and, in particular, their legal status regarding marriage and 
divorce. As leader of the Middle East Partnership Initiative (MEPI) 
Democracy pillar, I advocated for and managed a series of successful 
grant programs designed to inform (mostly illiterate) women of their 
newfound rights, including working with our Public Affairs section to 
reach the broadest possible audience. One particular program--an 
innovative play, which we sent throughout the country, explained how 
the reforms put women on an equal par with men in matters of marriage, 
divorce, child custody and property ownership--became a model for other 
MEPI programs.
    In Libya, as one of the first human rights officers to serve in the 
country following our restoration of relations in 2004 after a 25 year 
hiatus, I established (and re-established in some cases) relationships 
with key human rights interlocutors, and used their insights to provide 
some of the very first analyses of the tragic human rights situation in 
Libya. I also made the first-ever visit by a U.S. official to the 
African detention camps in Libya, highlighting a major human rights 
issue for the Department. Reaching out to key religious figures, I also 
authored the first International Religious Freedom report from Libya, 
providing the State Department with the first real assessment of 
religious freedom on the ground.
    In Colombia, where Afro-Colombians continue to face significant 
economic and social discrimination, I worked to support social 
inclusion goals by designing programs to elevate the issue of 
diversity. My Culture Series program, which reached two million 
Colombians in 11 cities, was highlighted as a best practice at the U.S. 
Colombia Action Plan for Racial and Ethnic Equality.

    Question. What are the most pressing human rights issues in 
Mauritania? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Mauritania? What do 
you hope to accomplish through these actions?

    Answer. The 2019 inauguration of President Ghazouani has presented 
an opportunity to make real positive change on longstanding human 
rights and governance concerns in Mauritania. If confirmed, I look 
forward to collaborating with the Government of Mauritania, which has 
already made strides to address the vestiges of slavery, and to making 
progress on our mutual democracy, human rights, and governance 
priorities-to include combatting trafficking in persons, rooting out 
corruption, reforming the judiciary to improve access for all 
Mauritanians, and increasing economic opportunities for all 
historically marginalized groups.
    If confirmed, I will reaffirm the United States' support for human 
rights and democracy and leverage both development assistance programs 
and tools provided by the U.S. Congress, such as the African Growth and 
Opportunity Act (AGOA) eligibility criteria and the Trafficking in 
Persons (TIP) ranking and associated restrictions, as appropriate. 
Moreover, if confirmed, I will work with the Government, civil society, 
and NGOs to improve the space for civil society to operate and thrive 
so that all Mauritanians can reap the benefits of a robust civil 
society. My hope is this will lead to sustained progress on human 
rights and democracy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mauritania in 
advancing human rights, civil society, and democracy in general?

    Answer. Since the August 2019 inauguration of President Ghazouani 
in the country's first fully democratic presidential transition, U.S. 
cooperation with Mauritania on human rights issues has improved. 
Mauritania's human rights challenges stem from the legacy of centuries 
of slavery, which despite Mauritanian Government efforts, has not been 
entirely eradicated, plus deep-rooted divisions along ethnic, 
linguistic and tribal lines, as well as gender inequality. Improvements 
require strong political commitment--which President Ghazouani appears 
to have--as well as judicial reform and increased resources to ensure 
access to justice for all Mauritanians. A stronger civil society is 
also needed and a new NGO law currently pending parliamentary 
consideration will be an important next step. Mauritania will need the 
support and encouragement of partners like the United States to help 
overcome these obstacles and achieve the president's stated goals of 
promoting national unity and justice for all citizens.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mauritania? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, I commit to meet with human rights, 
civil society, and other non-governmental organizations in the U.S. and 
with local human rights non-governmental organizations in Mauritania.
    If confirmed, I will ensure that the Embassy continues to vet all 
potential candidates for U.S. assistance. In doing so, I will aim to 
ensure no U.S. assistance is provided to any security forces unit where 
there is credible information that the unit has committed a gross 
violation of human rights, as required under the Leahy Law. It is 
imperative the United States make clear that respect for human rights 
is a prerequisite for U.S. security assistance and participation in 
security cooperation activities.

    Question. Will you and your embassy team actively engage with 
Mauritania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Mauritania?

    Answer. Yes, if confirmed I will actively engage with the 
Mauritanian Government to address cases of individuals who have been 
unlawfully or arbitrarily detained in Mauritania.

    Question. Will you engage with Mauritania on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage on the issues of human 
rights, civil rights, and governance with the Government of Mauritania 
and other stakeholders. I will ensure that embassy personnel and U.S. 
Government programming addresses and promotes these issues as well.
    The United States plays a critical role in advocating for democracy 
and human rights in Mauritania through diplomatic and other engagement, 
which I will ensure continues if confirmed as Ambassador.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will endeavor at every opportunity to 
promote diversity in the workplace by recruiting and supporting a 
diverse team, promoting excellence, and mentoring staff of all 
backgrounds on my team. Throughout my career, I have put particular 
emphasis on encouraging and supporting employees from diverse 
backgrounds, as I understand firsthand the many benefits of a workplace 
that represents diverse backgrounds and underrepresented groups and 
welcomes the views of all.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Mauritania are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I intend to lead by example and guide by 
encouragement, ensuring all of my staff know that diversity and 
inclusion are top priorities of mine. I will ensure that supervisors at 
the Embassy are appropriately trained with regard to Equal Employment 
Opportunity and diversity and inclusion and are accountable. I will 
also ensure they know I am an advocate and available resource.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Mauritania?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
following all applicable ethics laws and regulations and remaining 
vigilant with regard to my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Mauritania 
specifically?

    Answer. Political corruption erodes state legitimacy and ultimately 
degrades the rule of law. Corruption can also undermine support for 
democracy and must be addressed in order to consolidate Mauritania's 
democratic gains, attract additional U.S. investment to Mauritania, and 
encourage economic growth.

    Question. What is your assessment of corruption trends in 
Mauritania and efforts to address and reduce it by that government?

    Answer. Corruption continues to be a problem in Mauritania and 
throughout the region. In late January 2020, Mauritania's parliament 
launched an investigative committee to review longstanding allegations 
of corruption and embezzlement concerning ten major government tenders 
that occurred during the tenure of former President Mohamed Ould Abdel 
Aziz. In late July 2020, the parliament completed its well-documented 
report and submitted it to law enforcement for further action. The 
ongoing investigation is a positive sign that the current Ghazouani 
administration is focused on rooting out corruption within its system.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Mauritania?

    Answer. If confirmed, I will encourage the Government of Mauritania 
to intensify its efforts to address systemic corruption and to continue 
its good governance and anti-corruption efforts. If confirmed, I will 
also leverage development assistance programs and facilitate business 
connections to motivate Mauritania to address corruption within its 
system. This will enhance the economic environment and make it more 
attractive to U.S. companies seeking to do business in Mauritania.



                               __________


       Responses to Additional Questions for the Record Submitted
            to Brian D. McFeeters by Senator Robert Menendez

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. Yes, I commit to making clear that prohibited personnel 
practices have no place in the federal government and will not be 
tolerated. I agree that those found to have engaged in unlawful 
retaliation should be subject to accountability and discipline 
consistent with applicable laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for recruiting and retaining diverse talent. 
I will promote diversity and inclusion best practices, including 
inclusive recruiting practices and standardized interview guidance. I 
will support the enhancement of existing mentoring programs and Embassy 
Kuala Lumpur's robust Diversity and Inclusion Council.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise any concerns that I 
may have through appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. When I served as Political Counselor in Kuala Lumpur nearly 
10 years ago, I worked with the Embassy team to develop strong 
relationships with the Malaysian Government and civil society 
organizations to support Malaysia's democracy and human rights. In 
addition, while serving as Deputy Political Counselor in Seoul in an 
earlier assignment, I worked with South Korean Government officials to 
ensure North Korean defectors were treated well.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Malaysia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Human trafficking, including forced labor, remains a 
significant issue in Malaysia, and the Government has much work to do 
to improve protections for trafficking victims and to hold traffickers 
and complicit officials accountable. If confirmed, I will work 
tirelessly to urge Malaysian Government officials, at all levels, to 
significantly improve anti-trafficking efforts, including investigating 
and prosecuting allegations of forced labor. I am also concerned about 
the erosion of press freedom in Malaysia, as national security and 
media laws are at times used by the Government against journalists, 
media outlets, and Malaysian citizens exercising their right to freedom 
of expression. If confirmed, I will engage with civil society and the 
Malaysian Government on the importance of human rights and fundamental 
freedoms to our shared vision for a free and open Indo-Pacific. If 
confirmed, I will support programs under USAID's Office of Transition 
Initiatives that aim to increase the effectiveness and role of civil 
society and citizen voices in the Malaysian political environment.

    Question. What steps will you take--if confirmed--to support 
democracy in Malaysia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States promotes the rule of law, transparency 
and good governance, and freedom of expression in Malaysia. If 
confirmed, I pledge to continue the United States' partnership with 
Malaysia underpinned by our shared values and importance we place on 
good governance, respect for sovereignty, democratic institutions, and 
the rule of law. I am committed to engaging with civil society, the 
Malaysian Government, and other stakeholders to stress the importance 
of these democratic norms.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The USAID Office of Transition Initiatives is supporting 
efforts by the Government of Malaysia, civil society, and other 
stakeholders to enhance good governance and improve transparency, 
accountability, and public responsiveness. The Indo-Pacific 
Transparency Initiative also encompasses over 200 programs developed by 
a range of U.S. Government agencies focused on anti-corruption and 
fiscal transparency, democracy assistance, youth and emerging leader 
development, media and internet freedom, and protecting fundamental 
freedoms and human rights. If confirmed, I will use U.S. foreign 
assistance resources to work with Malaysia to promote governance goals 
in the Southeast Asia region, as outlined in the Indo-Pacific Strategy.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Malaysia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
United States, Malaysia-based human rights NGOs, and other members of 
civil society in Malaysia, and raise the profile of their efforts, 
where appropriate. If confirmed, I will also actively work to address 
any efforts to intimidate, restrict, or penalize NGOs or civil society.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. The United States urges equal treatment for all and 
underscores our commitment to diversity and inclusion. If confirmed, I 
will work with the Malaysian Government, including with opposition 
figures and parties, on these important issues and will promote access 
and inclusivity for women, members of minority groups, and youth within 
political parties.

    Question. Will you and your embassy team actively engage with 
Malaysia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Malaysia?

    Answer. The United States promotes respect for human rights and 
fundamental freedoms, including freedom of expression, across the 
globe, including in Malaysia. I am concerned about the erosion of press 
freedom in Malaysia. National security and media laws are at times 
being used by the Government against journalists, media outlets, and 
Malaysian citizens exercising their right to freedom of expression. 
Promoting these rights are key priorities of the Indo-Pacific 
Transparency Initiative. If confirmed, I am committed to engaging with 
civil society and the Government, as well as independent, local press 
in Malaysia, on the importance of these human rights and fundamental 
freedoms.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Malaysia?

    Answer. Yes. If confirmed, I will actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Malaysia. Embassy Kuala Lumpur already has programs aimed at countering 
this problem and if confirmed, I will support and enhance these 
efforts.

    Question. Will you and your embassy teams actively engage with 
Malaysia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, I will work with the Malaysian 
Government, civil society, and other parts of the Malaysian economy on 
the issue of the right of labor groups to organize.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Malaysia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Malaysia? What specifically will you commit to do to help LGBTQ 
people in Malaysia?

    Answer. Same-sex sexual conduct between consenting adults is 
illegal in Malaysia, and courts have sentenced both men and women to 
jail and caning as punishment. If confirmed, I will continue to urge 
equal treatment for all in Malaysia, including LGBTI individuals, and 
to underscore our commitment to diversity and inclusion by engaging not 
only with the Malaysian Government, but also with civil society 
organizations, the private sector, and like-minded missions.

Development
    Question. What will you do to help Malaysia achieve its development 
goals?

    Answer. The United States and Malaysia have strong economic ties, 
and Malaysia is our third largest trading partner in Southeast Asia, 
with bilateral trade in goods and services last year reaching nearly 
$60 billion. Moreover, the U.S. Government implements many capacity and 
technical assistance programs with Malaysia, including in the areas of 
judicial training, public health, and anti-trafficking efforts that 
directly contribute to Malaysia's development goals. If confirmed, I 
will work with U.S. businesses and the Malaysian Government to 
strengthen our trade and investment relations and help Malaysia achieve 
its development goals.

    Question. What areas of the Malaysian economy offer the best 
prospects for development and how can the United States help?

    Answer. There are many key economic sectors where American firms 
provide a positive presence in Malaysia, including energy, financial 
services, healthcare, high tech manufacturing, R&D centers, artificial 
intelligence and cloud computing. American firms are widely-known in 
Malaysia to be excellent business partners, highly-regarded employers, 
and models of corporate social responsibility. The United States and 
Malaysia enjoy a strong and cooperative trade relationship, including 
through the bilateral Trade and Investment Framework Agreement. If 
confirmed, I plan to work with U.S. businesses and the Malaysian 
Government to strengthen our economic relationship.

    Question. What can the United States do to assist Malaysia in 
developing its economy in a sustainable manner?

    Answer. The United States, through its Indo-Pacific Strategy, 
advances fair and reciprocal trade and promotes commercial engagement 
that follows international best practices of transparency, 
environmental and occupational safety standards, and financial 
sustainability. Over 700 U.S. companies are operating in Malaysia and 
modeling these best practices. If confirmed, I plan to work with U.S. 
businesses and the Malaysian Government to strengthen our economic 
relationship.



                               __________


       Responses to Additional Questions for the Record Submitted
          to Brian D. McFeeters by Senator Benjamin L. Cardin

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to foster a culture of inclusion 
and build a representative workforce. I will encourage diversity and 
inclusion best practices, including through targeted recruiting efforts 
and standardized interview procedures.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Malaysia are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I will support and promote the efforts the 
Department is currently undertaking to ensure leaders under my 
direction are fostering a culture and environment of inclusion. I will 
promote habits and practices among the leadership that focus on 
inclusion as a key driver for recruiting, developing, and retaining 
diverse talent. I will promote diversity and inclusion best practices 
and tips for inclusive hiring practices and standardized interview 
guidance. I will support the review of existing mentoring programs and 
with an eye on how they can be strengthened.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Malaysia?

    Answer. My investment portfolio includes diversified mutual funds, 
including a foreign stock fund, which may hold interests in companies 
with a presence overseas, but are exempt from the conflict of interest 
laws. I am committed to following all applicable ethics laws and 
regulations and remaining vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Malaysia 
specifically?

    Answer. Corruption is toxic to democracy and is an issue of concern 
in Malaysia. If confirmed, I pledge to continue the United States' 
partnership with Malaysia underpinned by our shared values and 
importance we place on good governance, respect for sovereignty, 
democratic institutions, and the rule of law. This will help achieve 
the overarching governance goals outlined under the Indo-Pacific 
Strategy.

    Question. What is your assessment of corruption trends in Malaysia 
and efforts to address and reduce it by that government?

    Answer. The United States and Malaysia share a commitment to fight 
against corruption, and Malaysia has been working to strengthen 
democratic governance. If confirmed, I would continue to underscore the 
importance of transparency, accountability, and adherence to the rule 
of law, all key to ensuring confidence in Malaysia's judicial system, 
democracy, and economy.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Malaysia?

    Answer. The principles of good governance, the rule of law, and 
economic opportunity continue to anchor our partnership with Malaysia. 
The USAID Office of Transition Initiatives is supporting efforts by the 
Government of Malaysia, civil society, and other stakeholders to 
enhance good governance and improve transparency, accountability, and 
public responsiveness. If confirmed, I am committed to engaging with 
civil society and the Malaysian Government to further these efforts.



                               __________


       Responses to Additional Questions for the Record Submitted
             to Brian D. McFeeters by Senator Jeff Merkley

    Question. The current Government of Malaysia promised to repeal the 
much-abused sedition act, a broadly-worded law that continues to be 
used against those voicing criticism of Malaysia's royalty or unpopular 
opinions on topics related to race and religion. However, after over 
two years in office, they have yet to fulfill on that promise or other 
commitments to repeal oppressive laws. As Ambassador, how will you 
advocate for the Government to repeal the sedition act and fulfill 
other human rights promises which have yet to be addressed?

    Answer. I am concerned about the erosion of press freedom in 
Malaysia as national security and media laws are at times being used by 
the Government against journalists, media outlets, and Malaysian 
citizens exercising their right to freedom of expression. If confirmed, 
I will engage the Government and civil society on the importance of 
human rights, rule of law, and fundamental freedoms, including for 
members of the press.

    Question. Over 150,000 refugees and asylum seekers, most of whom 
come from Burma, are registered with the United National Commission for 
Refugees in Malaysia. In most cases, asylum seekers have not been 
granted legal status and remain unable to work, travel or enroll in 
government schools while their cases are being processed. The country 
has taken little action to investigate mass graves found in remote 
jungle camps, and human rights organizations report on police abuse of 
refugees. As Ambassador, how would you engage with the Government of 
Malaysia to ensure that refugees in Malaysia are safe and have access 
to the rights guaranteed under the UN's Refugee Convention?

    Answer. The United States has expressed concerns about the 
treatment and status of refugees and asylum-seekers in Malaysia. We 
work closely with Malaysia, other ASEAN members, the U.N. High 
Commissioner for Refugees, and like-minded nations to advocate for the 
rights of refugees and asylum seekers in the region, ensure access for 
NGOs and the U.N. to persons of concern, and to advocate for the safe 
disembarkation of Rohingya refugees traveling on boats in the Andaman 
Sea.
    If confirmed, I will continue to make accountability and protection 
a priority and will work tirelessly to maintain pressure on Malaysia to 
address serious concerns about trafficking in persons, release the 
Royal Commission of Inquiry report on the horrendous mass graves at 
Wang Kelian on the Malaysia-Thai border, and hold culpable officials 
accountable.

    Question. China has become the largest investor into Malaysia's 
manufacturing and infrastructure sectors. Given the sheer volume of 
projects and amounts of capital flowing into Malaysia right now, how 
can the United States and other donors stay competitive and relevant? 
In addition to monitoring the flow of capital, how would you direct 
your team to monitor and push back on the sheer volume of information 
and disinformation that China is pushing into the Malaysian 
marketplace?

    Answer. Malaysia maintains robust economic relationships with both 
the United States and the PRC. While Malaysia shares some of our 
concerns about the PRC's behavior in the region, as a nation heavily 
dependent on trade, it balances these concerns with its extensive 
economic and investment ties to China. The United States, through its 
Indo-Pacific Strategy, advances fair and reciprocal trade and promotes 
commercial engagement that follows international best practices of 
transparency and financial sustainability. The over 700 U.S. companies 
operating in Malaysia model these best practices, many in high value-
added industries that create skilled jobs. If confirmed, I will engage 
with Malaysian counterparts at all levels, both government and non-
government, to discuss our concerns about the PRC's malign influence 
and how we can work together to counter it.
    If confirmed, I will also encourage Malaysia to pursue open and 
transparent investment and infrastructure deals to avoid malign Chinese 
economic influence. If confirmed, I will also work with U.S. companies 
to highlight the benefits and best practices responsible investors 
bring to Malaysia.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Hon. Geeta Pasi by Senator James E. Risch

    Question. Do you believe that Prime Minister Abiy remains committed 
to democratic reform and inclusive governance? If so, why? If not, what 
policies can the United States pursue to ensure that Ethiopia's 
citizens' aspirations for reform that precipitated Prime Minister 
Abiy's rise to power are met?

    Answer. The United States supports Prime Minister Abiy's efforts to 
implement a reform agenda to align Ethiopia with democratic and free 
market principles that will pay long term dividends for the Ethiopian 
people and strengthen our bilateral relationship based on common shared 
values. If confirmed, I will continue U.S. policies that support these 
long-term goals.

    Question. Can free and fair elections be held in Ethiopia next year 
as Prime Minister Abiy has suggested, notably when many of the most 
prominent political leaders have been arrested or otherwise detained in 
the last six months? What is the United States doing to press for these 
prisoners' release?

    Answer. Despite delays, Prime Minister Abiy and the electoral 
commission have publicly and privately committed to holding national 
elections with broad political participation as soon as possible. The 
United States believes that holding free, fair, credible, and inclusive 
elections is critical to Ethiopia's democratic future. The United 
States continues to provide the National Electoral Board of Ethiopia, 
civil society, and the media with resources and training to support the 
planned elections in 2021. The United States continues to press the 
Ethiopian Government to ensure that all prisoners are treated in 
accordance with Ethiopian law and that the Government support elections 
with inclusive and broad political party participation.

    Question. Ethnic targeting has increased at an alarming rate. U.S. 
citizens of Tigrayan heritage have been detained and prevented from 
leaving the country. What is the United States doing to address the 
rise of ethnic targeting, including of American citizens?

    Answer. The safety and security of U.S. citizens around the world 
is the top priority of the U.S. Government. U.S. Embassy Addis Ababa 
worked closely with Ethiopian authorities to ensure those detained at 
Bole airport because of their Tigrayan ethnicity-including American 
citizens-have been able to board their flights and depart Ethiopia 
safely.
    The United States is deeply concerned about the reported targeting 
of Tigrayans or those of Tigrayan origins by the Ethiopian authorities, 
and has repeatedly warned against casting this crisis as one grounded 
in ethnicity. The United States has called for the protection of 
civilians at the highest levels of Ethiopia's leadership and has made 
clear that targeting civilians of Tigrayan origin will undermine the 
Government's stated goal of ``winning the peace'' once the conflict 
ends. We have urged the Government to reject publicly and firmly all 
such action based on ethnicity, and to respect all obligations under 
international law.

    Question. There are credible reports of Eritrean ground forces 
participating in Tigray's military campaign against the TPLF. What 
degree of influence do you believe Eritrea now exerts in Ethiopia, and 
how does this affect the prospects for genuine democratic reform in the 
country?

    Answer. The United States is aware of reports that Eritrean ground 
forces are participating in the conflict in Tigray.

    Question. There are reports of Amhara militia having fought 
alongside the ENDF, and refugees in Sudan have suggested these militias 
have committed atrocities. How do you assess the role these militia 
played? What does the U.S. intend to do to ensure accountability for 
the abuses committed by all sides?

    Answer. The United States is aware of reports that Amhara militia 
fought alongside the ENDF and allegations that they committed 
atrocities. We have categorically protested against all human rights 
violations or abuses. We have called on the Ethiopian Government to 
request and support independent investigations into these alleged 
atrocities. The U.S. Government interagency Atrocities Early Warning 
Task Force is evaluating appropriate measures to support international 
efforts to investigate and respond to any such allegations. The United 
States is prepared and committed to work with the international 
community to promote accountability for those culpable in these 
attacks.

    Question. The Ethiopian Government has removed ethnic Tigrayans 
from its AU and U.N. deployments in Somalia and South Sudan and a 
civilian security officer at AU. It has leveled severe allegations at 
WHO Director-General Tedros and requested a list of ethnic Tigrayans at 
the WFP.

   Do you regard this as a threat to multilateralism and a potential 
        human rights violation, as suggested by an UNMISS spokesman? 
        What steps will you take to protect these institutions and 
        prevent a dangerous precedent from taking hold?

    Answer. The United States is deeply concerned about the reports 
that Tigrayan personnel attached to African Union (AU) and United 
Nations (UN) deployments in Somalia and South Sudan have been relieved 
of their duties. We have urged the Government of Ethiopia to avoid 
punitive or arbitrary action based on ethnicity and actions that could 
undermine stability in other parts of the Horn of Africa, including 
Somalia, Sudan, and South Sudan. The Ethiopian Government has indicated 
that it will continue to deploy forces in support of African Union 
Mission in Somalia (AMISOM) and its other regional security 
commitments. If confirmed, I will publicly and privately encourage 
respect for human rights and advocate strongly against targeting of any 
ethnic group including ethnic Tigrayans.

    Question. Given the ongoing assistance pause, which effectively has 
put a stop to obligations of previously appropriated funds intended to 
support Ethiopia's fragile democratic transition, do you believe it is 
appropriate to divert frozen democracy assistance toward broader 
``countering China'' initiatives?

    Answer. The United States is committed to supporting Ethiopia's 
democratic transition using a myriad of tools. Some of these tools 
counter Chinese influence while simultaneously meeting some of our 
broader goals such as job creation.

    Question. In your role as PDAS for the AF Bureau, you would have 
direct knowledge of the role the Bureau played in the decision to pause 
unobligated, non-lifesaving foreign assistance to Ethiopia. Kindly 
explain in detail the role AF Bureau leadership played in making this 
decision. Do you believe the policy process considered the AF Bureau's 
input, and how was this reflected in the final decision? Did the U.S. 
Mission in Addis Ababa have input into this decision? If so, what 
specific input did they provide? If not, why not?

    Answer. The Secretary of State decided to pause temporarily certain 
assistance for Ethiopia until Ethiopia makes demonstrable progress 
working with Sudan and Egypt to reach agreement on the Grand Ethiopian 
Renaissance Dam (GERD) in a manner beneficial to all parties. Notably, 
the Secretary approved certain exceptions to the pause, for the 
continuation of certain humanitarian aid, assistance for HIV/AIDS, 
assistance related to the provision of ventilators in response to the 
COVID-19 pandemic, and certain funding for the Development Finance 
Corporation.

    Question. What is the impact of the Ethiopia assistance pause on 
food security? The U.S. invested billions of dollars in boosting 
resilience and lessening dependence on lifesaving humanitarian aid? 
What is the impact of the assistance pause on the enabling environment 
for economic growth?

    Answer. The temporary pause on certain foreign assistance for 
Ethiopia does not apply to humanitarian assistance, which continues 
unabated in order to ensure food security and to assist those affected 
by conflict, drought, displacement, COVID-19, and other challenges. 
Funding for non-humanitarian agriculture programs that was not 
obligated before the pause is subject to the pause.

    Question. How has the conflict in Tigray affected U.S. military 
cooperation with the ENDF, both generally and in Somalia's operations? 
Has the U.S. conveyed to the Government of Ethiopia that reports of 
shelling of civilian areas in Tigray, and other abuses attributed to 
government-aligned forces, could affect security cooperation?

    Answer. Lines of communication remain open between the United 
States and the ENDF about military-to-military cooperation in general 
and on Somalia operations specifically. Ethiopia remains an essential 
troop contributing country to the African Union Mission in Somalia 
(AMISOM). On August 22, 2020, Secretary Pompeo approved a temporary, 
partial pause on the obligation and sub-obligation of certain foreign 
assistance funds for Ethiopia, including the related reprogramming of 
expiring resources planned for Ethiopia for other activities, and 
authorized communication of this decision to relevant stakeholders, 
including Congress and the Government of Ethiopia.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. Geeta Pasi by Senator Robert Menendez

    Question. Ms. Pasi, as you know, in November, serious armed 
conflict broke out in Ethiopia's northern Tigray region, which pitted 
Federal and allied forces against those of the Tigray People's 
Liberation Front (TPLF). While the full course of that conflict remains 
unclear, it is but the latest round of violent unrest that has beset 
the country since 2018 and exacted a serious humanitarian toll on the 
Ethiopian people. On the floor of the Senate, I have called on the 
administration to take urgent diplomatic action to address this 
escalating conflict.

   At this stage, what role should the United States play in terms of 
        conflict prevention and resolution? What strategies should we 
        pursue? More specifically, how can we foster dialogue between 
        Ethiopia's rival stakeholders?

    Answer. To achieve an end to the conflict in Tigray, there must be 
a complete end to fighting and the parties must engage in constructive 
dialogue. The United States has been working with the international 
community, the African Union, and regional leaders to urge Ethiopian 
authorities and the Tigray People's Liberation Front (TPLF) to 
immediately de-escalate the conflict, end the current fighting, and 
undertake dialogue. We have called on all parties to ensure full, safe, 
and unhindered humanitarian access to facilitate rapid supply and 
delivery of life-saving assistance, the protection of civilians, and an 
immediate restoration of communication services to the region. We have 
also strongly stressed the need to avoid ethnicization of the 
situation. U.S. officials continue to urge neighboring countries to 
keep their borders open to asylum-seekers and avoid 
internationalization of the hostilities. If confirmed, I would ensure 
that Embassy Addis Ababa remains intensely engaged to support dialogue 
between the GOE and TPLF, including urging the Ethiopian Government to 
work with Tigrayan leaders to ensure that there is constructive, 
credible Tigrayan governance in the region, and to press for the 
protection of civilians and refugees and full, safe, and unhindered 
humanitarian access.

    Question. I have a number of questions about the trajectory of 
democratization efforts in Ethiopia. As I noted earlier, Prime Minister 
Abiy Ahmed initiated a number of laudable reforms when he took power in 
2018, which did much to broaden political space in the country. But we 
have seen backsliding for the last year, with the arrest of opposition 
leaders and journalists, and reports of abuses by security forces.

   How concerned are you about the trajectory of democratization 
        efforts in Ethiopia? Is the country on track for free and fair 
        polls next year and the establishment of a viable multi-party 
        democracy?

    Answer. The ability of the Government of Ethiopia to successfully 
implement political reforms and hold national elections, sustain its 
important role in promoting regional stability and countering 
terrorism, and its strong potential to serve as a key partner for U.S. 
commercial engagement in Africa, rests upon Ethiopia's ability to 
maintain its own internal stability and development as a strong 
democratic partner. This, in turn, is contingent upon Ethiopia's 
capacity to address public pressure for greater democratic inclusion, 
civil liberties, and economic opportunity. Despite delays, Prime 
Minister Abiy's administration and the electoral commission have 
publicly and privately committed to holding national elections with 
broad political participation as soon as possible. Prime Minister Abiy 
recently met with political parties and the Government has stated 
elections will take place in mid-2021. The United States is supporting 
the National Election Board of Ethiopia and training political parties, 
as well as civil society and the media to play a constructive role in 
the electoral process. We also continue to message publicly and 
privately our support for free and fair elections.

    Question. What would be the consequences of a reversion to 
autocracy-for Ethiopia, the Horn of Africa region, and U.S. interests?

    Answer. Ethiopia, with a population of over 100 million, is the 
second most populous nation in Africa. Ethiopia is strategically 
positioned in the Horn of Africa, where threats by al-Shabaab and 
violent extremist organizations associated with ISIS are present, and 
our engagement with the Government of Ethiopia allows us to reduce the 
United States' direct military role. Ethiopia also hosts hundreds of 
thousands of refugees, enhancing regional stability. Democratic 
backsliding in Ethiopia would be detrimental for the Ethiopian people, 
the Horn of Africa and broader U.S. policy in the region. Prime 
Minister Abiy has pledged to oversee democratic reforms and under his 
administration, and we have seen an opening of democratic space for the 
political opposition, the media, and civil society. His ambitious 
reform agenda has the potential to transform Ethiopia into a more 
democratic country, with a Western-style, free market economy that 
would afford opportunities to the people of Ethiopia, and would align 
more closely with our values and policy interests. As such, if 
confirmed, I would prioritize continued U.S. engagement to encourage 
continued attention to good governance, democracy, and promotion of 
human rights and continued advancement of political and economic 
reforms in Ethiopia.

    Question. What have been the limits of our approach to Ethiopia 
since the country's political transition began in 2018, specifically as 
it relates to supporting democracy?

    Answer. Ethiopia's political and economic reform agenda will take 
time to fully implement, given the years of political repression and 
corruption. Our efforts to support reforms must occur at all levels of 
government, society, and communities in Ethiopia, and must include 
support for government efforts that improve democracy and governance. 
One major obstacle to Ethiopia's political transition has been the 
capacity of civil servants in new government offices created to advance 
those reforms when Prime Minister Abiy took power. Since 2018, we have 
provided training and support to ministries responsible for justice, 
security and public finance management and the National Election Board 
of Ethiopia. We have also supported nascent civil society 
organizations, and political parties, as well as the Ethiopia Human 
Rights Commission. Although many positive changes have happened at the 
federal level as a result of this support, this has not yet been the 
case at the state and local levels. We are working with local community 
leaders and civil society organizations at the local level to encourage 
civil participation and promote dialogue to mitigate long standing 
ethnic tensions.

    Question. As I noted earlier, Prime Minister Abiy Ahmed initiated a 
number of laudable reforms when he took power in 2018, which did much 
to broaden political space in the country. But we have seen backsliding 
for the last year, with the arrest of opposition leaders and 
journalists, and reports of abuses by security forces.

   What can the U.S. Government do to better support democracy and 
        human rights in Ethiopia in the coming years?

    Answer. This is a critical moment for Ethiopia. The United States 
has strong partnerships with Ethiopia to support health, education, 
food security, and economic growth. Popular desires for greater 
political freedom and civil liberties led to the selection of Abiy 
Ahmed as Prime Minster. Prime Minister Abiy made sweeping changes to 
Ethiopia, many of which addressed long-standing issues, including press 
freedom and other human rights issues. The complex issues that impede 
transition in Ethiopia remain and include land tenure, ethnic tensions, 
and youth unemployment. Discontent with the reforms and growing ethnic 
tensions may jeopardize the gains of the past as the current government 
has relied at times on the heavy-handed tactics it sought to erase. If 
confirmed, I will advocate for full respect of the rights guaranteed 
under Ethiopia's constitution, as well as for reforms that strengthen 
democratic institutions. I will also encourage the development and 
capacity building of civil society organizations which can now take 
advantage of legislation that has lifted constraints to their 
functioning and activities that were in place until recently. Such 
steps would not only support Ethiopian's own aspirations for stability 
and development, as well as its efforts against violent extremism in 
the region, but they would also strengthen the foundation for the U.S.-
Ethiopia partnership in areas of vital interest to both nations.

    Question. I have a number of questions about the trajectory of 
democratization efforts in Ethiopia. As I noted earlier, Prime Minister 
Abiy Ahmed initiated a number of laudable reforms when he took power in 
2018, which did much to broaden political space in the country. But we 
have seen backsliding for the last year, with the arrest of opposition 
leaders and journalists, and reports of abuses by security forces.

   Can I have your commitment to place democratization and human 
        rights at the forefront of your engagement with Ethiopian 
        authorities, and to take a firm stand when you see behavior 
        inconsistent with democratic practice and norms?

    Answer. If confirmed, I commit to place democratization and human 
rights at the forefront of my engagement with Ethiopian authorities and 
to take a firm stand when I see behavior inconsistent with democratic 
practice and norms.

    Question. How involved has State Department been in the GERD 
negotiations to date?

    Answer. While Treasury has been the lead agency within the U.S. 
Government for GERD negotiations, the State Department has coordinated 
closely with Treasury. The Department has remained engaged with 
Ethiopia, Sudan and Egypt throughout all GERD negotiations to date, 
including the most recent set of discussions coordinated by the African 
Union (AU).

    Question. What is your assessment of the current state of the GERD 
talks and the main impediments to a deal?

    Answer. Our understanding is that the AU-sponsored talks are now 
paused due to Sudan's decision not to participate without a change in 
format, particularly with regard to allowing AU experts to play a more 
active role in facilitating negotiations. We encourage all three 
countries to find a compromise that would allow negotiations to resume.

    Question. What have been the consequences of our pause on 
development assistance to Ethiopia, in terms of the bilateral 
relationship?

    Answer. Our substantial investment to Ethiopia over the past year 
made the United States, once again, Ethiopia's largest bilateral 
development partner. We continue to engage with the Government of 
Ethiopia on areas of mutual interest, including the country's ambitious 
political and economic reform efforts, and continue to provide life-
saving humanitarian assistance to populations in need. The GERD is only 
one aspect of our relationship with Ethiopia.

    Question. What, in your view, are the elements of a U.S. Government 
strategy for supporting successful GERD negotiations?

    Answer. The U.S. Government has consistently taken the position 
that it is up to the three countries involved--Ethiopia, Sudan, and 
Egypt--to negotiate an agreement that meets the needs of all three 
countries. The United States should continue its role as a neutral 
party and press all three countries to return to good-faith 
negotiations in order to reach an agreement on the GERD.

    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. If confirmed, I commit to make clear to all employees that 
prohibited personnel practices has no place in federal government and 
will not be tolerated under my leadership. I also agree that anyone 
found to have engaged in prohibited personnel practices should be held 
fully accountable, up to and including losing their job.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. As I have done in the past, I plan to recruit a highly 
diverse team and to mentor and support all the people on my team. Our 
embassies must have a workforce that reflects the rich composition of 
our citizenry. If confirmed, I commit to an inclusive workplace in 
which every employee is treated with dignity and respect and feels 
empowered to serve the American people. I will outline my expectations 
clearly to my Country Team members, hold them accountable, and lead by 
example. Throughout my career, I have put a particular emphasis on 
encouraging employees from diverse backgrounds to remain in the Foreign 
Service and in the Civil Service, part of which means supporting them 
to find the best possible onward assignments that will make them 
competitive for promotion and advancement. If confirmed, I plan to 
ensure that the entire embassy promotes and supports diversity and 
inclusion, and that the entire embassy has regular discussions on the 
tools we are using to achieve that goal. This includes diversity in the 
Ethiopian context, by ensuring the inclusion of underrepresented groups 
among our locally engaged staff members.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The most important actions I have taken to support 
democracy and human rights in my career relate to political 
transitions. Bangladesh risked becoming an ungovernable space in 2007. 
As Charge d'Affaires, a.i., my public and private messages encouraged 
the caretaker government to restore democracy, promote respect for 
human rights, and hold free and fair elections. In Ghana from 1995 to 
1997, I promoted political discussion between multiple political 
parties in advance of its first democratic elections, providing 
necessary space for political dialogue. After the fall of Ceausescu in 
Romania, I documented the challenges faced by ethnic and religious 
minorities, especially the Roma, providing a roadmap for the new 
Romanian Government to improve its performance in this area. As 
Ambassador, I showcased the human rights aspects of our significant 
assistance to professionalize Chad's security forces and stressed the 
need to hold security personnel accountable for violations. When 
reporters were detained for asking questions about the deaths of 
prisoners being transported by police, I led the effort among like-
minded ambassadors to issue a joint statement that publicly expressed 
our concerns, leading to the release of the reporters. As PDAS in the 
Africa Bureau, I have coordinated our efforts to support elections and 
promote human rights across the continent.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Ethiopia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The most serious impediments to democracy or democratic 
development in Ethiopia include ethnic divisions, repression of 
independent media, certain restrictions on political participation, 
weak national and regional governance institutions, and the lack of 
capacity of civil society and government security forces and 
unemployment. The detention of certain political party members and 
journalists by security forces has been a source of critical concern, 
both inside and outside the country. If confirmed, I will use my 
leadership and voice, both publicly and privately, to make clear that 
respect for human rights is essential for Ethiopia's future prosperity, 
stability and security. I will engage Ethiopian authorities, 
international partners, civil society organizations, and business and 
religious leaders to work together toward these goals. I will also 
ensure strong U.S. Government engagement with human rights activists 
and civil society in Ethiopia, as well as organizations and agencies 
charged with advancing and protecting human rights such as the 
Ethiopian Human Rights Commission.

    Question. What steps will you take--if confirmed--to support 
democracy in Ethiopia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will actively engage leading government 
officials, including the Prime Minister on U.S. Government concerns 
about governance and human rights issues. I will meet regularly with 
leadership from domestic and international human rights organizations, 
political opposition groups and their leaders, and civil society 
organizations working on issues of democracy and governance. I will 
also engage with all levels of government in Ethiopia and actively seek 
out views of local civil society representatives. Additionally, I will 
use public platforms to voice support for democracy, respect for 
individual freedoms and good governance. I will also ensure that U.S. 
Embassy Addis Ababa officers meeting regularly with representatives of 
Ethiopian civil society and human rights organizations and that the 
U.S. Embassy Addis Ababa prioritizes support for good governance and 
human rights in its Integrated Country Strategy and related 
programming.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. assistance to Ethiopia advances democracy and 
governance, both through funds dedicated specifically for those issues 
and through cross-sectoral programming in areas such as health or 
education. Through our development assistance, the United States 
improves the resilience and capacity of nascent civil society 
organizations in the face of, at times limited, democratic space, 
supports Ethiopian partners to advance their advocacy priorities 
related to human rights, enhances the professionalism of independent 
media, and seeks to improve the transparency of democratic processes. 
Additionally, the United States supports the introduction and expansion 
of good governance, which bolsters transparency, citizen participation, 
and accountability within the justice sector. To complement and expand 
these efforts, I will continue to engage within the State Department 
and with USAID to ensure appropriate resources are available to advance 
U.S. interests in Ethiopia.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Ethiopia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in 
Ethiopia and the United States. Human rights, civil society 
organizations, and other non-governmental organizations, regardless of 
where they are registered or operate, play an important role in 
advancing democratic governance, and respect for fundamental freedoms 
and human rights. If confirmed, I am committed to engaging with any 
individual or organization that supports U.S. values, and will do all I 
can to support and promote their efforts to strengthen Ethiopia's 
democracy.
    I will also speak out publicly about U.S. values including respect 
for human rights, and continue to support the Ethiopian Government's 
efforts to reform its legal framework to ensure respect for human 
rights, including as the freedom of expression and the right to 
peaceful assembly.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meeting with diverse 
representation of democratic political figures and parties. I will 
ensure that U.S. Embassy Addis Ababa continues to engage with 
representatives from diverse political and ethnic perspectives, 
including government and opposition parties. I will advocate for 
democratic values and extend support through existing instruments to 
organizations that promote the active participation of women, youth, 
and other marginalized populations in political activities. I will also 
support all Mission programs and activities that support voter 
education and citizen engagement in the democratic process.

    Question. Will you and your embassy team actively engage with 
Ethiopia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Ethiopia?

    Answer. Freedom of expression, including for members of the press, 
is fundamental to an open, just, and democratic society. If confirmed, 
the embassy team and I will actively engage with the Ethiopian 
Government on press freedom. I will speak openly and honestly with the 
Government and civil society about any efforts designed to control or 
undermine freedom of expression, including blocking Internet and mobile 
communications, and commit myself to meeting regularly with independent 
and local press in Ethiopia in support of their efforts.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Ethiopia?

    Answer. If confirmed, I will encourage my Embassy team to actively 
engage with civil society and government counterparts, as well as with 
local media, to counter disinformation and propaganda disseminated by 
foreign state or non-state actors.

    Question. Will you and your embassy teams actively engage with 
Ethiopia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will proudly engage on matters of labor 
rights with leadership in government and civil society. I will engage 
U.S. companies and non-governmental organization (NGO) partners to 
encourage the Government to adopt and enforce practices and legal 
reforms that uphold workers' freedom of association, collective 
bargaining, acceptable working conditions, and the right to a minimum 
wage.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Ethiopia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Ethiopia? What specifically will you commit to do to help LGBTQ 
people in Ethiopia?

    Answer. If confirmed, I am committed to protecting the fundamental 
rights and freedoms of all citizens, including historically 
marginalized populations. Homosexuality is illegal in Ethiopia, and 
LGBTI communities continue to face discrimination. If confirmed, I will 
support the development of local voices in support of LGBTI rights. I 
will also raise LGBTI issues in the context of larger human rights 
concerns wherever possible.
    Of course, the safety and security of LGBTI people, as well as all 
individuals, is of the utmost importance; therefore, if confirmed, I 
will ensure our approach in Ethiopia, first and foremost, does no harm. 
I will regularly engage with local LGBTI community and civil society 
partners so that we can avoid sending messages or taking actions that 
might be counter-productive or dangerous to the community.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. Geeta Pasi by Senator Benjamin L. Cardin

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. As I have done in the past, I plan to recruit a highly 
diverse team and to mentor and support all the people on my team. Our 
embassies must have a workforce that reflects the rich composition of 
our citizenry. If confirmed, I commit to an inclusive workplace in 
which every employee is treated with dignity and respect and feels 
empowered to serve the American people. I will outline my expectations 
clearly to my Country Team members, hold them accountable, and lead by 
example. Throughout my career I have put a particular emphasis on 
encouraging employees from diverse backgrounds to remain in the Foreign 
Service and in the Civil Service, part of which means supporting them 
to find the best possible onward assignments that will make them 
competitive for promotion and advancement. If confirmed, I plan to work 
to ensure that the entire embassy promotes and supports diversity and 
inclusion, and that we have regular discussions on the tools we are 
using to achieve that goal. This includes diversity in the Ethiopian 
context, ensuring the inclusion of underrepresented groups among our 
locally engaged staff members.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Ethiopia are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I plan to speak regularly with my team-both 
collectively and individually-about our objectives for recruiting a 
diverse team and for promoting an inclusive environment. I will ensure 
that all employees have participated in relevant training and will 
consult with and seek a visit (or a video conference for all staff) by 
the Office of Civil Rights and the Bureau of Global Talent Management's 
Diversity and Inclusion Unit. I will encourage the workforce to engage 
in inclusive conversations on and efforts to promote diversity and 
inclusion. I will ensure that all my staff know that diversity and 
inclusion are top priorities of mine and welcome input from them on how 
to improve diversity and inclusion efforts.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Ethiopia?

    Answer. My investment portfolio includes diversified mutual funds, 
including foreign stock funds, which may hold interests in companies 
with a presence overseas, but which are exempt from conflict of 
interest laws. I am committed to following all applicable ethics laws 
and regulations and remaining vigilant with regard to my ethics 
obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Ethiopia 
specifically?

    Answer. Corruption undermines democracy and rule of law, 
destabilizes nations, hinders economic growth, and provides openings 
for dangerous groups, such as traffickers and terrorists. 
Anticorruption efforts seek to 1) make it harder for criminality and 
terrorism to take root and spread, 2) promote more stable and 
accountable governments, and 3) level the playing field for U.S. 
business to compete in every region around the world. In Ethiopia, 
Prime Minister Abiy Ahmed's efforts to build Ethiopia's capacity to 
protect democratic inclusion, promote civil liberties, and build 
economic opportunities are being challenged by opposition groups, 
including former officials who have been charged with corruption. In 
the past, the lack of democratic traditions and values, as well as 
restrictions on the operations of non-governmental organizations and 
civil society, have hampered democratic reforms and development in 
Ethiopia. Long held grievances and anger at the central government have 
fueled protests and civil unrest and have undermined Ethiopia's 
democratic transition. However, Ethiopia's recent reform efforts have 
made positive strides to provide a greater voice to civil society, 
establish a more professional and independent justice sector free from 
political interference, and strengthened the security sector by 
building the capacity of police and security forces.

    Question. What is your assessment of corruption trends in Ethiopia 
and efforts to address and reduce it by that government?

    Answer. While corruption remains an issue in Ethiopia, Prime 
Minister Abiy Ahmed has made tremendous strides to modernize and 
establish a more professional and independent justice sector free from 
political interference. Prime Minister Abiy has opened and broadened 
political space, pursued justice sector reform, and strengthened 
adherence to the rule of law. In 2019, the investigations and over 
forty charges brought against former Director General of the National 
Intelligence and Security Services (NISS) Getachew Assefa, and 25 
additional former officials and staff at NISS, is a testament to the 
Government's seriousness in combatting corruption.
    The Government has also undertaken important legal reforms, 
including changes to the laws governing the activities of civil society 
and protections for media and commercial sector. In February 2020, the 
Ethiopian Attorney General's Office opened a new and consolidated Anti-
Corruption Directorate to recover ``stolen assets and fight 
corruption.'' The plan is to have the Directorate oversee not only the 
investigation phase but the subsequent trial and conviction phases, as 
well as the recovery of assets or ill-gotten gains. The goal is for 
Ethiopians to understand these reforms and help the populace perceive 
the judiciary as being efficient, independent, fair, and accessible.
    Prime Minister Abiy's reforms are slowly becoming more entrenched 
at the federal level, but challenges to implementing Prime Minister 
Abiy's reformist vision at the regional and local levels remain.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Ethiopia?

    Answer. If confirmed, I will work with the interagency members and 
explore further opportunities for increased U.S. engagement on good 
governance and anticorruption programming. I plan on continuing U.S. 
support to Ethiopia's Attorney General's office, Supreme Court, and 
other rule of law actors at the national level to draft, adopt, and 
implement policy legal and justice reforms, as well as build 
investigation capacity to advance the Government's anticorruption 
efforts, human rights, and counterterrorism investigations.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Hon. Geeta Pasi by Senator Jeff Merkley

    Question. The United States has long depended on Ethiopia as a net 
contributor to regional stability, a role clearly in question now. If 
not contained soon, what impact might the ongoing fighting around 
Tigray have on the Horn of Africa region? What actions would you take 
as Ambassador to ensure that Ethiopia maintains its stabilizing role?

    Answer. There must be a complete end to fighting and constructive 
dialogue to resolve the crisis in Tigray. Ethiopia contributes to 
regional stability through a host of ways. Ethiopia is the third-
largest host of refugees in Africa. Ethiopia is a significant 
contributor to regional peacekeeping and counterterrorism efforts and 
is a key partner in the African Union Mission in Somalia's peacekeeping 
and counterterrorism efforts and to the United Nations' peacekeeping 
efforts in South Sudan. Ethiopia also plays a leading role in the South 
Sudanese peace process. The United States is gravely concerned about 
the situation in Tigray. Ethiopia's role in promoting peace and 
stability in the region and countering violent extremism will be 
undermined if the Tigray crisis does not end. If it persists, Ethiopia 
risks creating instability and further ethnic violence, which could 
derail development and market reforms and stall progress on democracy. 
If confirmed, I would work hard for stability in the Horn of Africa and 
in Ethiopia by continuing to urge the Government of Ethiopia and the 
Tigray People's Liberation Front to restore peace and pursue 
reconciliation. I would also continue to work to advance Ethiopia's 
efforts to regional peace and security and engage with partners on 
ongoing security reform efforts in Ethiopia to mitigate and prevent 
conflict and promote political and economic reforms

    Question. Many international voices are calling for dialogue 
between the Government of Ethiopia and the Tigrayan rebels to end the 
current conflict. What is the role of the Embassy in promoting dialogue 
and ensuring access for humanitarian actors? How would you approach 
fulfilling that role, given the current push-back from both sides of 
the conflict?

    Answer. There must be a complete end to fighting and constructive 
dialogue to resolve the crisis in Tigray. U.S. Embassy Addis Ababa and 
the Department have been working with the international community, the 
African Union, and other regional leaders to urge Ethiopian authorities 
and the Tigray People's Liberation Front (TPLF) to immediately de-
escalate the conflict and end the current fighting. U.S. Embassy Addis 
Ababa has been in communication with the Government of Ethiopia and 
TPLF leaders and called on all parties to ensure full, safe, and 
unhindered humanitarian access to facilitate rapid supply and delivery 
of life-saving assistance, the protection of civilians, and an 
immediate restoration of communication services to the region. The 
United States has also stressed the need to avoid ethnicization of the 
situation. Embassy and Department officials continue to urge 
neighboring countries to keep their borders open to asylum-seekers. If 
confirmed, I would ensure that U.S. Embassy Addis Ababa remains 
intensely engaged to support dialogue between the GOE and TPLF, 
including urging the Ethiopian Government to work with Tigrayan leaders 
to ensure that there is constructive, credible Tigrayan governance in 
the region, and to press for humanitarian access and protection of 
civilians.

    Question. Human rights organizations have expressed concern that 
the Ethiopian Government is using COVID-19 restrictions as a pretext to 
restrict the rights of citizens, including curtailing freedom of speech 
and internet access. How has the United States responded to the uptick 
in arbitrary arrests and prosecutions of journalists and government 
critics? How would you continue to address this issue as Ambassador?

    Answer. U.S. Embassy Addis Ababa and Department officials continue 
to urge Ethiopia to support fundamental freedoms and rights, and 
principles of good governance. For example, U.S. Embassy Addis Ababa 
and Department officials have expressed grave concerns to Ethiopian 
officials over the recent communication blackout in the Tigray region 
and pressed for the restoration of these services, particularly as the 
lack of services has hampered our ability to communicate with U.S. 
citizens and coordinate humanitarian response with international 
partners. We also continue to work with human rights groups to call for 
transparent and independent investigations into human rights abuses and 
violations in Ethiopia. U.S. Embassy Addis Ababa continues to support 
the efforts of the Ethiopian Human Rights Commission (EHRC) and has 
been in close contact with Commissioner Daniel Bekele since his tenure 
began in 2019. We supported the promulgation of recent legislation that 
gave the EHRC more autonomy and more funding to perform investigations. 
The United States has pressed the Ethiopian Government to undertake 
transparent, fair judicial processes in accordance with Ethiopian law 
for all those detained, including the recent arrest of journalists in 
Ethiopia. If confirmed, I will continue to call for respect for freedom 
of expression, including that of members of the press. I would also 
continue supporting and collaborating with the EHRC and civil society 
organizations to ensure the rights of all Ethiopians are respected and 
upheld.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Hon. Geeta Pasi by Senator Cory A. Booker

    Question. The most destabilizing external actions in the Horn of 
Africa and those that undermining prospects for successful democratic 
transitions in Sudan and Ethiopia are not in fact U.S. adversaries like 
Russia and China, but U.S. allies and security partners in the Middle 
East, who have exported their rivalries into the Horn.What is the U.S's 
strategy for mitigating the destabilizing influence from the UAE, Saudi 
Arabia, Turkey, and Qatar on the Horn?

    Answer. Strengthening security and stabilization are core 
components of the administration's Africa policy. The Horn of Africa is 
of great strategic importance to the United States and we work with our 
partners to bring stability, peace, and prosperity to the region. In 
Somalia, for example, we provide significant support for the Federal 
Government and Member States as they create Somali-led election model 
that will be critical for stability. The U.S. Government also created 
the Friends of Sudan to help stabilize that country, and included the 
participation of Saudi Arabia, the UAE, Egypt, Qatar, and Ethiopia. We 
will continue to encourage countries to invest productively in the 
region in a manner that promotes stability and peace.

    Question. Is there an effort underway involving not just the Africa 
Bureau but the Near East Bureau and other relevant offices to develop a 
multi-year regional strategy for the Horn that accounts for the 
increasingly aggressive influence of Middle Eastern countries in this 
important region?

    Answer. The administration's Africa strategy supports efforts to 
counter threats to American and African Security. The Bureaus of 
African Affairs (AF), Near East Affairs (NEA), and Counterterrorism 
work closely to coordinate our engagement in the Horn of Africa that 
advance our overarching U.S. national security interests. This approach 
allows us to respond flexibly as needs arise to balance our foreign 
policy priorities. In recognition of the increased overlap between AF 
and NEA and to elevate coordination, while I served as Principal Deputy 
Assistant Secretary for AF, we co-hosted a joint session with NEA 
during the 2020 Chiefs of Mission Conference to discuss Red Sea issues 
among our ambassadors. Further, when crises emerge between our regions 
as was the case during the 2019 political crisis in Sudan, our Special 
Envoy to Sudan and a NEA Deputy Assistant Secretary made a joint trip 
to the region to shore up a unified regional position. We also seek the 
input from the think-tank community as the State Department sent an AF 
Deputy Assistant Secretary to the USIP and National Defense University-
organized Red Sea Forum events in Jordan and Washington, DC, which 
assembled regional and interested countries and non-governmental 
experts.

    Question. The humanitarian situation created by the crisis in 
Ethiopia is deteriorating. The U.N. estimates that two million people 
are in need of assistance in and around Tigray, and one million have 
been displaced by the fighting. Forty-four thousand refugees from 
Ethiopia have flooded into Sudan, which is dealing with its own 
precarious political transition. UNHCR has said that approximately 
96,000 Eritrean refugees in Tigray camps have essentially run out of 
food. Ethiopia and the U.N. have reportedly agreed to a deal by which 
U.N. air workers will be granted ``unimpeded'' access to government 
controlled areas of Tigray.

   What can the United States do to ensure the Federal Government of 
        Ethiopia lives up to its end of this agreement?

    Answer. The U.N. and Government of Ethiopia (GOE) have signed a 
coordination framework that affirms humanitarian principles and the 
importance of access, and establishes a UN-GOE committee that creates a 
clearance and approval processes for humanitarian activities. We will 
monitor the implementation of this agreement closely and strongly press 
for a streamlined process and full, safe, and unhindered humanitarian 
access. Significant barriers remain to full, safe, and unhindered 
humanitarian access. Most notably, fighting continues throughout parts 
of the Tigray region, and access will likely remain limited until 
humanitarian organizations can successfully negotiate access with all 
parties to the conflict or until the fighting ends.
    The United States is closely aligned with other donor governments 
in this regard and is engaged at all levels to advocate for safe, 
sustained, and unhindered access to ensure that those impacted by this 
conflict can receive the assistance they need. We are steadfast in our 
support for the U.N. and humanitarian partners to provide assistance as 
access improves.

    Question. What remedies would the United States propose if the TPLF 
refuses to allow the same levels of access to areas it controls?

    Answer. It is vital that continued advocacy and engagement for 
safe, sustained, and unhindered access take place at all levels to 
ensure that those impacted by this conflict can receive the assistance 
they need. We are aligned with other donor governments in these efforts 
and in supporting the U.N. and our partners to provide assistance as 
humanitarian access and the security situation improve. We will also 
explore options for coordinating with moderate actors within the 
Tigray's People Liberation Front (TPLF) to secure greater access by 
humanitarian works to vulnerable and impacted communities. The United 
States is also exploring a variety of potential actions and tools 
available if parties to the conflict jeopardize Ethiopian citizens by 
refusing humanitarian access.

    Question. What resources should the U.S. provide to Sudan to enable 
local communities to absorb refugees, and enable a safe return back to 
Ethiopia?

    Answer. The United States was the largest humanitarian donor to 
Sudan in FY 2020 providing over $320 million to a number of 
international partners. U.S. humanitarian assistance provides refugees 
and IDPs in Sudan with shelter, access to clean water and sanitation, 
health care, food, and other lifesaving support. Our partners are 
already deploying some of this assistance to respond to the urgent 
needs of the newly arrived Ethiopian refugees. The U.N. released an 
Inter-Agency response plan for the Ethiopian refugee influx in East 
Sudan in late November, which called for $147 million to respond to an 
anticipated Ethiopian refugee population of up to 100,000 over the next 
six months. We are currently evaluating this appeal to determine our 
contributions. We are looking to provide additional funding to support 
USAID emergency in-kind food assistance in Sudan.

    Question. International humanitarian organizations have credibly 
reported that both federal government forces and the TPLF have 
committed serious human rights abuses during the conflict, including 
the indiscriminate killing of civilians and possible war crimes.

   What steps is the U.S. Government prepared to take to help 
        investigate these potential abuses and crimes?

    Answer. We have subject matter experts embedded with the Ethiopian 
Human Rights Commission and are assisting in the development of action 
plans and investigations into reported abuses and atrocities. Through 
the Atrocities Early Warning Task Force, we are also developing an 
action plan to respond to reports of human rights violations or abuses 
of civilians or refugees. Along with our international partners, we 
have called for transparent, independent investigations into these 
reports. We have also called for the restoration of communication 
services to better support civilians and refugees in the Tigray region. 
The U.S. Government is also prepared to support the work being done by 
the Office of the High Commission of Human Rights (OHCHR) who is 
gathering information and incident accounts from refugees who have fled 
to Sudan. We are also deeply concerned about the reports of Ethiopian 
authorities taking actions against Tigrayans, such as reported 
detentions and harassment based on their ethnicity. U.S. diplomats in 
Washington and Addis Ababa raised the need for the protection of all 
civilians with the highest levels of Ethiopia's leadership, and made 
clear that taking action against civilians of Tigrayan origin based on 
their ethnicity will undermine Ethiopia's stated goal of ``winning the 
peace'' once the conflict ends. We have urged the Government to reject 
publicly and firmly all such action based on ethnicity, and to respect 
all its obligations under international law.

    Question. The U.S. Government has placed a great deal of effort, 
time, and money into rebuilding our relationship with Ethiopia and with 
Prime Minister Abiy in particular. PM Abiy, however, has shunned 
diplomatic efforts to mediate the conflict, including those of the 
United States.

   How will the U.S Government respond if the Federal Government of 
        Ethiopia is found to have committed serious human rights 
        abuses?

    Answer. The U.S. Government, including the Atrocities Early Warning 
Task Force, has closely review and examined the conflict as it has 
evolved and is determining options the U.S. Government might take to 
advance the goal of ensuring the protection of civilians, including 
refugees. The United States is also exploring a myriad of `carrots and 
sticks' that may be used to respond as reports of human rights 
violations and abuses are being investigated, to include enhanced 
diplomatic engagement and potential consequences. This includes actions 
that could be taken against individuals implicated in human rights 
abuses and violations. Perpetrators of human rights abuses and 
violations must be held accountable. Promoting and protecting human 
rights and fundamental freedoms is a high U.S. priority, as are 
preventing atrocities, protecting civilians, and ensuring 
accountability.

    Question. Has PM Abiy done irreparable harm to the U.S.-Ethiopia 
relationship? Is he not the leader the world thought he was when he won 
the Nobel Peace Prize and was being lauded for seeking to take Ethiopia 
in a new direction?

    Answer. The United States-Ethiopia relationship is important, 
complex, and focused on our shared interests. PM Abiy's efforts to 
implement much needed political and economic reforms should be lauded. 
However, a failure to peacefully resolve the Tigray conflict and 
address the ongoing humanitarian concerns and protection of civilians 
will undermine his reform efforts.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. David Reimer by Senator James E. Risch

    Question. Honoring commercial contracts is an essential element of 
the rule of law, which Sierra Leone must strengthen to develop its 
economy, as we'd all like to see. According to international 
arbitration rulings, a U.S.-funded company, SL Mining, is in an active 
dispute with the Government of Sierra Leone, which has violated its 
contract with SL Mining. The administration has rightly made aggressive 
commercial diplomacy a priority, but promoting U.S. trade and 
investment in Africa has been a longstanding, bipartisan priority. What 
would you do as ambassador to advance the rule of law in Sierra Leone, 
mainly as it affects this U.S.-funded company? How would a potential 
Millennium Challenge Corporation compact impact your advocacy for 
Sierra Leone?

    Answer. Although the Government of Sierra Leone has a generally 
favorable attitude toward foreign direct investment and generally 
treats foreign companies in a non-discriminatory fashion, investors 
face obstacles, including corruption, low human capital development, 
poor infrastructure, and intermittent contract enforcement challenges 
stemming from the weak enforcement of the rule of law. Ultimately, a 
country's success will depend to a large extent on its ability to 
foster an environment for the private sector to drive economic growth 
and opportunity. I understand that the Embassy continues to engage on 
investment climate issues broadly and this case specifically. If 
confirmed, I will continue to advocate with the Government of Sierra 
Leone--both bilaterally and with others in the international 
community--for the types of policy actions needed to maintain the 
country's improved performance on the Millennium Challenge Corporation 
scorecard and advancement in the World Bank's Doing Business rankings, 
which specifically includes dynamics related to the enforcement of 
contracts. If confirmed, my team and I will continue to support the 
interests of U.S. firms, including engaging on the SL Mining case 
directly with the Government of Sierra Leone, to improve on these 
investment climate issues to strengthen Sierra Leone's economy and make 
the country a more attractive location for American investment.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. David Reimer by Senator Robert Menendez

    Question. Sierra Leone is facing a possible recession amid the 
global economic downturn, with the IMF predicting in June that GDP will 
contract by 3.1 percent.

   How will this affect development in Sierra Leone?

    Answer. The COVID-19 pandemic has tested the resilience of the 
Sierra Leonean people and is negatively affecting economic development 
in Sierra Leone's small and fragile economy. However, just as we stood 
with the Sierra Leoneans during the Ebola crisis, the United States 
will support Sierra Leone's recovery from COVID-19. The U.S. Government 
is a primary partner in the response efforts of the Government of 
Sierra Leone. If confirmed, I will work with USAID and international 
donors to support Sierra Leone's economic recovery. I will work with 
USAID and CDC to implement sustainable investments across the health 
sector and encourage the Government of Sierra Leone to invest more 
heavily to create the jobs necessary to boost the economy and combat 
poverty.

    Question. What can the United States do to reduce poverty and 
promote private sector investment?

    Answer. Sierra Leone's economy has significant potential, with 
abundant mineral resources, large areas of fertile land, well-stocked 
fisheries, and beautiful beaches. If confirmed, supporting U.S. 
companies for the benefit of both Americans and Sierra Leoneans would 
be among my top priorities to capitalize on the significant potential 
of the Sierra Leonean economy. As an economic-coned officer, this is of 
particular interest to me.Although the Government of Sierra Leone has a 
generally favorable attitude toward foreign direct investment, 
investors face obstacles, including corruption, low human capital 
development, and poor infrastructure. If confirmed, I would urge the 
Government of Sierra Leone to improve on these investment climate 
issues to strengthen their economy and make it a more conducive 
environment for private sector-led growth and a more attractive 
location for U.S. firms. I would continue the Embassy's work with the 
private sector and relevant Government of Sierra Leone leaders to help 
diversify Sierra Leone's economy and encourage U.S. investments and the 
growth of small and medium enterprises that can employ Sierra Leone's 
burgeoning youth population.

    Question. Are you concerned about Chinese investment in Sierra 
Leone?

    Answer. Yes. I understand that Chinese engagements in Sierra Leone 
are expanding. If confirmed, I would encourage socially responsible 
foreign investment--particularly U.S. investment--in Sierra Leone that 
promotes sustainable development and respect for human rights of all 
individuals. I would also encourage investments in line with 
internationally accepted best practices, such as those spelled out in 
the United Nations Guiding Principles on Business and Human Rights, the 
Extractive Industries Transparency Initiative, and the Voluntary 
Principles on Security and Human Rights. I would not hesitate to speak 
out if I saw Chinese investment or business practices that exploit or 
are not in the best interest of Sierra Leone.

    Question. Although there have been at least 74 deaths from COVID-19 
in Sierra Leone, the country does not seem to have suffered as serious 
an outbreak as other African countries. Still, the pandemic remains a 
serious health threat-one among many in Sierra Leone. The country 
became a focus country for the Presidential Malaria Initiative in 2017, 
and was the epicenter of the West Africa Ebola outbreak:

   Among the many health challenges facing, Sierra Leone, which should 
        be the priority for United States assistance?

    Answer. Even prior to the onset of COVID-19, Sierra Leoneans faced 
serious health challenges. The country ranks near the very bottom, at 
181 out of 189 countries, on the UN's Human Development Index, with 
high rates of maternal mortality, child malnutrition, and malaria. 
Sierra Leone must allocate funds and resources to public health; doing 
so will be crucial to the country's future progress. If confirmed, I 
will work with Sierra Leonean leaders to ensure that public health 
remains a top national priority. I would encourage continuation of the 
U.S. health initiatives and continued engagement with Sierra Leonean 
officials to address health threats both thought focused attention on 
specific maladies as well as more generalized improvements to 
strengthen health systems.
    I understand that the Government of Sierra Leone's ability to 
respond effectively to COVID-19 is largely due to the sizable 
investment from the U.S. Government during and after Ebola, 
particularly under the Global Health Security Agenda. If confirmed, I 
would continue to use our strong public health presence and resources 
to help the Government of Sierra Leone respond to the numerous of 
health challenges facing the country.

Oversight
    Question. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not take any action to support, promote, or 
participate in any matters related to, or that could be perceived as 
benefitting, the Trump Organization?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to make clear to all employees that 
retaliation of any kind has no place in federal government and will not 
be tolerated under your leadership? Do you agree that anyone found to 
have engaged in retaliation should be held fully accountable, up to and 
including losing their job?

    Answer. If confirmed, I commit to make clear to all employees that 
prohibited personnel practices have no place in the federal government 
and will not be tolerated under my leadership. I agree that anyone 
found to have engaged in prohibited personnel practices should be held 
fully accountable and subject to discipline consistent with applicable 
laws, regulations, and Department policy.

    Question. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? In the Civil Service?

    Answer. Throughout my career, I have worked to promote diversity in 
the State Department workforce. I have personally mentored Foreign 
Service and Civil Service employees from diverse backgrounds to 
strengthen retention and make them competitive for promotion and 
advancement. I intend to continue this practice if confirmed as 
Ambassador to Sierra Leone. As an example of my efforts, at my current 
post as Ambassador to Mauritius and the Seychelles, I directed our 
Deputy Chief of Mission and one other Embassy Officer to personally 
interview every single applicant for which we have open positions. This 
is an involved process due to the volume of applicants; however, I 
believe that it is essential to ensure that everyone gets a fair and 
equal opportunity to serve and that no one is overlooked. I intend to 
take this practice to my next post, if confirmed.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any credible 
allegations of foreign interference in U.S. elections?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules and to raising concerns that I may have through 
appropriate channels.

    Question. Do you commit to report to appropriate authorities, 
including the FBI, Inspector General, and Congress, any attempts by 
foreign or private individuals to improperly influence U.S. foreign 
policy, particularly if you have reason to believe those efforts are 
adverse to U.S. interests?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General or other appropriate channels?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Democracy/Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. During my career, I have taken advantage of many 
opportunities to promote democracy and human rights, most notably 
during my time as the Director of the Office of West African Affairs 
and while serving in Mauritania, Iraq, and Haiti. I believe my most 
meaningful achievements occurred while serving in Baghdad, Iraq as the 
Embassy's Senior Refugee Coordinator. In that job, I had the 
opportunity to hear directly from refugees and non-governmental 
organizations and elevate their concerns to the senior levels in the 
Iraqi Government. I advocated repeatedly with the minister in charge of 
refugee affairs to provide better treatment of internally displaced 
persons and to treat all internally displaced persons equally, 
regardless of whether they were Sunni, Shia, Christian, or Kurd. I 
believe that through my advocacy efforts, we were able to increase 
Iraqi Government attention and assistance to these victims of conflict.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Sierra Leone? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The most pressing democracy and human rights challenges in 
Sierra Leone are official corruption; harsh and life-threatening prison 
conditions; and criminalization of same-sex sexual conduct. Other 
concerns include: insufficient access to justice; violence and societal 
discrimination against women and girls, including female genital 
mutilation/cutting (FGM/C); early and forced marriage; and 
discrimination against persons with disabilities and LGBTI persons.
    If confirmed, I will continue our embassy's advocacy in support of 
democratic institutions and governance, as well as human rights and 
fundamental freedoms for all. I will engage directly with the 
Government to strengthen democracy and will build strong relationships 
with all stakeholders from a diverse range of perspectives, including 
civil society, the media, and marginalized groups. I will do so in 
order to better understand their challenges, promote the free and open 
exchange of ideas, and advocate on their behalf.

    Question. What steps will you take--if confirmed--to support 
democracy in Sierra Leone? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. I understand that democracy concerns in Sierra Leone derive 
in part from limited government capacity to enforce the rule of law or 
ensure access to justice. Widespread corruption also poses a major 
challenge. If confirmed, I would work with our embassy, interagency 
colleagues, and international partners to help overcome these 
challenges by building the capacity of Sierra Leone's democratic 
institutions. Our efforts would continue to help Sierra Leone to 
improve democratic governance through targeted investments in civil 
society and persistent engagement in support of democracy, respect for 
human rights, and access to justice. I recognize that addressing 
endemic corruption is a long-term challenge. If confirmed, I would 
engage the Government of Sierra Leone and civil society to capitalize 
on President Bio's stated commitment to fighting corruption and recent 
progress to address this pressing issue.

    Question. How will you utilize U.S. Government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States has a robust assistance partnership with 
Sierra Leone. If confirmed, I would continue this partnership to 
promote development in Sierra Leone for the benefit of Sierra Leoneans 
and Americans alike. Our ongoing democracy and governance activities 
work to progressively build the capacities of civil society, media and 
government, informing and empowering citizens, especially women, to 
advocate effectively for their interests while holding officials 
accountable for their performance. These, and other lines of U.S. 
effort, will continue contributing toward Sierra Leone's democratic 
growth and good governance.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Sierra Leone? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Human rights, civil society, and other non-governmental 
organizations all play an essential role in advancing democratic 
governance, respect for human rights and fundamental freedoms, and 
assisting Sierra Leone to develop into a stable, secure, and prosperous 
partner for the United States. If confirmed, I commit to meeting with 
any individual or entity that can advance U.S. goals related to human 
rights. It is essential that non-governmental organizations and civil 
society are afforded freedom to express their opinions and conduct 
their activities. If confirmed, I would advocate this position to 
government, non-governmental, and civil society leaders. I would also 
facilitate connections between government and civil society 
organizations to build trust and mitigate unhelpful restrictions on 
civil society or non-governmental organizations.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, the United States Embassy will continue 
to engage with representatives from across the political spectrum, 
including the ruling party and opposition parties, under my leadership. 
I understand that the Embassy has joined international partners in 
calling for an increased commitment to issues-based politics and 
dialogue and cooperation among political parties on issues of national 
interest. If confirmed, I will continue this practice as well as the 
Embassy's advocacy for access and inclusivity for women, minorities, 
and youth within political parties.

    Question. Will you and your embassy team actively engage with 
Sierra Leone on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Sierra Leone?

    Answer. Yes. I am committed to supporting media freedom and 
strengthening journalistic professionalism. If confirmed, I will 
continue the Embassy's practice of engaging with the media, like-minded 
partners, civil society, and non-governmental organizations to 
underscore the importance of an independent, professional, and open 
media to a free and democratic society. If confirmed, I would also 
support expanded educational and exchange opportunities for local 
media. I understand that in the past, the embassy has hosted these 
exchanges to raise awareness on trafficking in persons, domestic 
violence, gender-based violence, child abuse, and children's education. 
If confirmed, I would seek to continue those efforts as soon as public 
health conditions permit.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Sierra 
Leone?

    Answer. Yes. The U.S. Embassy in Sierra Leone supports media 
freedom and is committed to strengthening journalistic professionalism, 
integrity, and accuracy. If confirmed, I will engage with like-minded 
missions, civil society, and international partners to counter 
disinformation and propaganda. If confirmed, I will continue to 
underscore the importance of a credible, independent, professional 
media to a free and democratic society.

    Question. Will you and your embassy teams actively engage with 
Sierra Leone on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue our embassy's efforts to 
promote labor rights. I understand that the Government of Sierra Leone 
generally protects the right to bargain collectively. If confirmed, I 
would advocate for continued improvements in this area as well as fair 
and consistent enforcement of labor laws.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Sierra Leone, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Sierra Leone? What specifically will you commit to do to help LGBTQ 
people in Sierra Leone?

    Answer. Some of the greatest challenges facing the LGBTI community 
in Sierra Leone include the criminalization of same-sex sexual conduct 
and social discrimination against LGBTI persons. The U.S. Embassy 
continues to support upholding human rights and the dignity of all 
individuals in Sierra Leone, no matter their sexual orientation or 
gender identity. I am committed to promoting human rights for all in 
Sierra Leone, including members of the LGBTI community. If confirmed, 
the U.S. Embassy under my leadership will engage with civil society 
organizations working to advance equal rights, opportunities, and 
protection for LGBTI people to understand their priorities and identify 
measures how the United States can support our shared objectives and 
lead international partners in such efforts.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. David Reimer by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. During my career, I have taken advantage of many 
opportunities to promote human rights and democracy, most notably 
during my time as the Director of the Office of West African Affairs 
and while serving in Mauritania, Iraq, and Haiti. I believe my most 
meaningful achievements occurred while serving in Baghdad, Iraq as the 
Embassy's Senior Refugee Coordinator. In that job, I had the 
opportunity to hear directly from refugees and non-governmental 
organizations and elevate their concerns to the senior levels in the 
Iraqi Government. I advocated repeatedly with the minister in charge of 
refugee affairs to provide better treatment of internally displaced 
persons and to treat all internally displaced persons equally, 
regardless of whether they were Sunni, Shia, Christian or Kurd. I 
believe that through my advocacy efforts, we were able to increase 
Iraqi Government attention and assistance to these victims of conflict.

    Question. What are the most pressing human rights issues in Sierra 
Leone? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Sierra Leone? What 
do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Sierra Leone are 
official corruption; trafficking in persons; harsh and life-threatening 
prison conditions; criminalization of same-sex sexual conduct; and 
child labor. Other human rights concerns include: insufficient access 
to justice; violence and societal discrimination against women and 
girls, including female genital mutilation/cutting (FGM/C); early and 
forced marriage; official and societal discrimination against persons 
with disabilities; and discrimination against LGBTI persons.
    If confirmed, I will continue our embassy's advocacy in support of 
human rights and fundamental freedoms for all. I will build strong 
relationships with all stakeholders from a diverse range of 
perspectives, including civil society, the media, and marginalized 
groups, to better understand their challenges, promote the free and 
open exchange of ideas, and advocate on their behalf. I will use my, 
and the Embassy's, positions of influence to raise awareness, advocate 
for improvements, and target assistance resources to build capacity and 
systems to help improvements last.
    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Sierra Leone in 
advancing human rights, civil society, and democracy in general?

    Answer. I understand that some human rights concerns in Sierra 
Leone derive from limited government capacity to enforce human rights 
legislation or hold to account individuals responsible for human rights 
violations and abuses. If confirmed, I would work with our embassy, 
interagency colleagues, and international and local partners to help 
overcome these challenges by building the capacity of Sierra Leone's 
democratic institutions. I would continue to help Sierra Leone to 
improve democratic governance through targeted investments in civil 
society and persistent engagement in support of democracy, respect for 
human rights, and access to justice.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Sierra Leone? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights

    Answer. Human rights, civil society, and other non-governmental 
organizations all play an essential role in advancing democratic 
governance, respect for human rights and fundamental freedoms, and 
assisting Sierra Leone to develop into a stable, secure, and prosperous 
partner for the United States. If confirmed, I am committed to meeting 
with any individual or entity that can advance U.S. goals related to 
human rights, improving livelihoods, and human dignity. I am also 
committed to working to ensure that security force personnel or units 
do not receive U.S. assistance if there is credible information that 
they have committed a gross violation of human rights.

    Question. Will you and your embassy team actively engage with 
Sierra Leone to address cases of key political prisoners or persons 
otherwise unjustly targeted by Sierra Leone?

    Answer. I am fully committed to engaging with the Government of 
Sierra Leone on guaranteeing political freedoms. As it does in all 
cases, the Department of State urges governments to ensure all 
defendants are afforded fair trial guarantees and timely due process 
for any crimes for which they have been charged.

    Question. Will you engage with Sierra Leone on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Promoting greater respect for human rights, civil rights, 
and democratic governance in Sierra Leone is a central component of our 
bilateral relationship. I believe that improved governance and respect 
for human rights in Sierra Leone supports the country's stability and 
assures the long-term viability of our bilateral relationship. To this 
end, our embassy and high-level U.S. Government officials regularly 
stress the importance of democracy and good governance, access to 
justice, and economic and political inclusion with Sierra Leonean 
officials, opposition groups, civil society, the media, and the general 
public. If confirmed, I would continue to highlight the vital 
importance of democracy and human rights as instrumental to fostering 
long-term peace, stability, and equitable economic growth.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. Throughout my career, I have worked to promote diversity in 
the State Department workforce. I have personally mentored individuals 
from diverse backgrounds to strengthen retention and help my staff to 
find the best possible onward assignments that will make them 
competitive for promotion and advancement. I intend to continue this 
practice if confirmed as Ambassador to Sierra Leone. In my current 
position as Ambassador to Mauritius and the Seychelles, I have directed 
our Deputy Chief of Mission and one other Embassy Officer to personally 
interview every single applicant for which we have open positions. This 
is an involved process due to the volume of applicants; however, I 
believe that it is essential to ensure that everyone gets a fair and 
equal opportunity to serve and that no one is overlooked. I intend to 
take this practice to my next post, if confirmed.
    Question. What steps will you take to ensure each of the 
supervisors at the Embassy in Sierra Leone are fostering an environment 
that is diverse and inclusive?

    Answer. If confirmed, I plan to speak out early and often about the 
importance I place on diversity. In my current post, I discussed my 
belief in inclusion, diversity, and respect at the very first Country 
Team meeting I chaired. I have reinforced these themes in subsequent 
Country Team meetings and individually with my staff. Additionally, I 
have held Embassy Town Halls focused specifically on the importance of 
diversity in our workforce. If confirmed, I would continue this 
practice to actively promote diversity and inclusion from the outset 
and direct my staff to do the same to strengthen our workforce.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Sierra Leone?

    Answer. My investment portfolio includes diversified mutual funds, 
including a foreign stock index fund, which may hold interests in 
companies with a presence overseas, but are exempt from conflict of 
interest laws. I am committed to following all applicable ethics laws 
and regulations and remaining vigilant with regard to my ethics 
obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Sierra 
Leone specifically?

    Answer. In Sierra Leone, as is the case in many countries, efforts 
to foster broad-based economic growth, improve the delivery of public 
services, and pursue effective development policies continue to be 
stymied by corruption and disparities in economic and political power. 
These dynamics undermine public confidence, participatory policymaking, 
effective policy implementation, and service delivery. Public 
corruption undercuts all democratic nations' governance and rule of law 
and can pose an existential threat to nascent democracies. Although 
Sierra Leone has made improvements, corruption continues to pose a 
major challenge.

    Question. What is your assessment of corruption trends in Sierra 
Leone and efforts to address and reduce it by that government?

    Answer. Although corruption poses a major challenge in Sierra 
Leone, the U.S. Government's efforts to promote transparency have made 
advances. The country ranked 119 out of 198 in Transparency 
International's 2019 Corruption Perceptions Index, an improvement of 10 
places from 2018. Sierra Leone passed the ``Control of Corruption'' 
indicator on MCC's annual scorecards in 2020, 2019 and 2018, after 
failing in 2017. Recognizing that addressing endemic corruption is a 
long-term challenge, if confirmed, I would work closely with the 
Government of Sierra Leone and civil society to capitalize on President 
Bio's stated commitment to fighting corruption and his administration's 
progress to address this pressing issue.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Sierra Leone?
    Answer. If confirmed, I will continue the trend of our embassy and 
high-level U.S. Government officials regularly raising good governance 
and corruption concerns with Sierra Leonean officials. If confirmed, 
under my Ambassadorship the United States will continue to advocate for 
a comprehensive, systematic approach to combat corruption that empowers 
the people and promotes inclusive democracy and economic growth in 
Sierra Leone. I would continue to engage with the Government of Sierra 
Leone on strengthening their state institutions and implementing 
legislation to empower existing entities to once and for all establish 
a culture where corruption is not tolerated. I would press the 
Government of Sierra Leone to enact and enforce the statutes necessary 
for a transparent business investment climate that would encourage more 
U.S. business investments for the benefit of both the United States and 
Sierra Leone.



                               __________




                                  <all>
</pre></body></html>
